<html>
<title> - REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT</title>
<body><pre>[Senate Hearing 105-113]
[From the U.S. Government Printing Office]


                                               S. Hrg. 105-113, Part II

 
REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

=======================================================================

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                                 PART I
     FEBRUARY 13 AND 26, MARCH 6, 13, AND 19, 1997--WASHINGTON, DC

                                PART II
                  MARCH 22, 1997--COEUR D'ALENE, IDAHO
                 MARCH 26, 1997--KANSAS CITY, MISSOURI
                   MARCH 28, 1997--LAS VEGAS, NEVADA
                   APRIL 7, 1997--NEW YORK, NEW YORK
                 APRIL 21, 1997--WARWICK, RHODE ISLAND
                 MAY 7 AND JUNE 6, 1997--WASHINGTON, DC

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
54-718 cc                   WASHINGTON : 1999
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                   JOHN W. WARNER, Virginia, Chairman

ROBERT SMITH, New Hampshire          MAX BAUCUS, Montana
DIRK KEMPTHORNE, Idaho               DANIEL PATRICK MOYNIHAN, New York
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                BARBARA BOXER, California

                                  (ii)

  
                            C O N T E N T S

                              ----------                              

              SATURDAY, MARCH 22, 1997--COEUR D'ALENE, ID
                        THE WESTERN PERSPECTIVE
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     5
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......     1
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    23
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     4

                               WITNESSES

Albert, Steve, Western Transportation Institute, Montana State 
  University.....................................................    49
Arnold, Tom, Director, Idaho Department of Commerce..............    46
Barna Basil, manager, INEEL/Lockheed Infrastructure 
  Transportation Department......................................    52
    Prepared statement...........................................   112
    Supplementary remarks........................................   113
Batt, Hon. Philip E., Governor, State of Idaho...................     7
    Letter, ISTEA reauthorization, Governor Philip E. Batt.......    78
    Prepared statement...........................................    76
Beadry, John, Planning Director, Stillwater County, Montana......    30
    Prepared statement...........................................    87
Bower, Dwight, Director, Idaho Transportation Department.........    31
    Prepared statement...........................................88, 90
Cook, David, Regional Vice President, Swift Trucking Company.....    67
    Letter.......................................................   122
Doeringsfeld, Dave, director, Port of Lewiston...................    64
    Prepared statement...........................................   118
Dye, Marv, Director, Montana Department of Transportation........    33
    Prepared statement...........................................    99
Ferrell, Yvonne, Director, Idaho Parks and Recreation............    43
    Prepared statement...........................................   105
    Responses to additional questions from:
        Senator Kempthorne.......................................   110
        Senator Warner...........................................   110
Frasure, Evan, Idaho State Senator and Chairman, Idaho Senate 
  Transportation Committee.......................................    24
    Prepared statement...........................................    83
Garvey, Jane, Acting Administrator, Federal Highway 
  Administration, Department of Transportation...................    14
    Prepared statement...........................................    80
Kempton, Jim, Idaho State Representative and Chairman, Idaho 
  House Transportation and Defense Committee.....................    26
    Prepared statement...........................................    84
King, Jack, Commissioner, Shoshone County, and President, Idaho 
  Association of Counties........................................    28
    Prepared statement...........................................    86
Kyte, Michael, Director, University of Idaho National Center for 
  Advanced Transportation Technologies (NCATT)...................    48
    Prepared statement...........................................   111
Manion, Jim, president, AAA of Idaho, on behalf of Idaho Highway 
  Users..........................................................    54
    Prepared statement...........................................   114
McMurray, Ron, Highway 95 Coalition..............................    66
    Prepared statement...........................................   119
Schweitzer, Carl, executive director, Montana Association of 
  Contractors....................................................    62
    Prepared statement...........................................   117

                          ADDITIONAL MATERIAL

Letters:
    Coeur d'Alene Chamber of Commerce............................   125
    Idaho State Historical Society...............................   124
    ISTEA Research, Education and Training Reauthorization 
      Consortium.................................................   130
    McFarling, Kenneth...........................................   125
    Winckler, Ann L..............................................   133
Statements:
    Albert, Stephen, Montana State University....................   120
    Brown, Kimberly Rice.........................................   120
    Geringer, Hon. Jim, Governor, State of Wyoming...............    22
    ISTEA Research, Education, and Training Coalition............   131
    Local Highway Technical Assistance Council, Boise, Idaho.....   124
    Puget Sound Regional Council.................................   129
    STARS 2000, Departments of Transporation of Idahoa, Montana, 
      North Dakota, South Dakota, and Wyoming....................    90
    Wood, JoAn, Multi-State Highway Transportation Agreement.....   126
    Wulf, Lloyd..................................................   134

               WEDNESDAY, MARCH 26, 1997--KANSAS CITY, KS
                    MIDWESTERN TRANSPORTATION ISSUES
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................   137
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   138
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................   139

                               WITNESSES

Boland, Tom, Chairman, Missouri Highway and Transportation 
  Commission, Hannibal, Missouri.................................   145
    Prepared statement...........................................   184
Clarkson, Don, vice president, Clarkson Construction Company, 
  Kansas City, Missouri..........................................   159
    Prepared statement...........................................   188
Evans, Gary, Executive Vice President and Chief Executive 
  Officer, Farmland Industries, and Chairman, Heartland Freight 
  Coalition......................................................   167
    Prepared statement...........................................   190
Fleming, Richard C.D., president and chief executive officer, St. 
  Louis Regional Commerce and Growth Association.................   157
    Prepared statement...........................................   186
Herschend, Peter, vice chairman, Silver Dollar City, Inc., 
  Branson, Missouri..............................................   161
    Prepared statement...........................................   189
Lieber, John, Deputy Assistant Secretary for Transportation 
  Policy, Office of the Secretary, Department of Transportation..   175
    Prepared statement...........................................   194
McCance, Malcomb, existing building manager, St. Joseph Chamber 
  of Commerce, St. Joseph, Missouri..............................   169
    Prepared statement...........................................   191
Mills, Brian, Cass County Commissioner, Northern District, and 
  Co-Chair, Mid-America Regional Council Total Transportation 
  Policy Committee...............................................   171
    Prepared statement...........................................   192
Right, Mike, vice president for public affairs, American 
  Automobile Association, St. Louis, Missouri....................   142
    Prepared statement...........................................   181
Seward, Barry, president, Missouri Transportation Development 
  Council, Kansas City, Missouri.................................   143
    Prepared statement...........................................   182
Wagner, John, Jr., Wagner Industries, Inc., and chairman, Greater 
  Kansas City Chamber of Commerce, Surface Transportation 
  Committee......................................................   155
    Prepared statement...........................................   185
Winkler, Carolyn, Moberly, Missouri..............................   141
    Prepared statement...........................................   180
Winkler, Chrissy, Moberly, Missouri..............................   140
    Prepared statement...........................................   180

                          ADDITIONAL MATERIAL

Letters:
    DePue, Leanna, Central Missouri State University.............   198
    Gaw, Steve, Speaker, Missouri House of Representatives.......   204
    General Railway Corporation..................................   205
    Hermann, MO, Chamber of Commerce.............................   206
    Leech, Mark..................................................   207
    Independence, MO, Chamber of Commerce........................   208
    Joplin, MO, Chamber of Commerce..............................   208
    Liu, Henry, University of Missouri-Columbia................209, 210
    Downey, Mortimer, Department of Transportation...............   210
    North Central Missouri Safety Council........................   216
    Moberly Area Chamber of Commerce.............................   216
    Northeast Missouri Regional Planning Commission and Rural 
      Development Corporation....................................   217
    Pepsi Cola Bottling Co., New Haven, MO.......................   218
Resolution, Missouri River Bridge, Hermann, MO...................   207
Statements:
    Conner, Mildred, Malta Bend, Missouri........................   199
    Consulting Engineers Council of Missouri.....................   200
    Evans, Gary, Farmland Industries.............................   200
    Gross, Darrell, Fort Leonard Wood Intermodal Freight/Transit 
      Center.....................................................   201
    Long, Chris, Associated Industries of Missouri...............   197
    McCarthy, Hon. Karen, U.S. Representative from the State of 
      Missouri...................................................   212
    Missouri Botanical Garden....................................   212
    Missouri Highway Patrol......................................   215
    Weber, Fred, Inc.............................................   218

                 FRIDAY, MARCH 28, 1997--LAS VEGAS, NV
          RAPID GROWTH AND INTELLIGENT TRANSPORTATION SYSTEMS
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   221
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........   222

                               WITNESSES

Bryan, Hon. Richard, U.S. Senator from the State of Nevada.......   228
Ensign, Hon. John, U.S. Representative from the State of Nevada..   230
    Prepared statement...........................................   280
Gates, Yvonne Atkinson, County Commissioner, Clark County 
  Commission.....................................................   266
Hanson, Cathy, on behalf of Hon. Jan Laverty Jones, Mayor, City 
  of Las Vegas...................................................   273
    Prepared statement...........................................
Hirschfield, Wendall W., vice president, Hirschfeld Steel 
  Company, Inc., on behalf of Manfred Wackers, President, 
  Transrapid International.......................................   243
    Prepared statement of Manfred Wackers........................   285
Howard, Dick, Director, Intergovernmental Relations, South Dakota 
  Department of Transportation...................................   258
    Prepared statement...........................................   288
Johnson, Christine, Director, Intelligent Transportation Systems, 
  Joint Project Office, Federal Highway Administration...........   254
    List of principles, ITS......................................   288
Kiser, P.D., Traffic Engineering Manager, Parsons Transportation 
  Group..........................................................   239
    Prepared statement...........................................   281
Kupermith, Celia G., Executive Director, Reno Regional 
  Transportation Commission, Washoe County, Nevada...............   271
    Prepared statement...........................................   302
Landis, Dick, director, Transportation Programs, Heavy Vehicle 
  Electric License Plate, Inc....................................   251
    Prepared statement...........................................   286
MacLennan, Bob, General Manager, Metropolitan Transit Authority, 
  Harris County, Texas...........................................   256
    Prepared statement...........................................   303
Miller, Hon. Robert, Governor, State of Nevada...................   224
    Prepared statement...........................................   278
Rahn, Peter, Cabinet Secretary, New Mexico State Highway and 
  Transportation Department......................................   260
    Prepared statement...........................................   297
Redman, Deborah, senior planner, Southern California Association 
  of Governments.................................................   238
Rice, Jean, representing Hon. Jim Gibbons, U.S. Representative 
  from the State of Nevada.......................................   232
Schaeffer, Glen, president and chief executive officer, Circus 
  Circus Enterprises.............................................   245
    Prepared statement...........................................   286
Teshara, Steve, executive director, Lake Tahoe Gaming Alliance...   241
    Prepared statement...........................................   283
Woodbury, Bruce, County Commissioner, Clark County Commission....   269

                          ADDITIONAL MATERIAL

Statements:
    ACEC's Transportation Committee, Ronald D. Byrd..............   314
    FMC Corporation..............................................   310
    McNeely, Charles, Reno, NV, City Manager.....................   312
    National Association of Railroad Passengers..................   313
    Weinrich, Kurt, Clark County, NV.............................   305

                  MONDAY, APRIL 7, 1997--NEW YORK, NY
                      NORTHEASTERN REGIONAL ISSUES
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   321
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   322
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................   408
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................   317
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................   317

                               WITNESSES

Bauer, Janine G., Executive Director, Tri-State Transportation 
  Campaign.......................................................   361
    Prepared statement...........................................   399
Beachem, Phil, executive director, New Jersey Alliance for Action 
  on ISTEA.......................................................   369
Boyle, Robert E., Executive Director, The Port Authority of New 
  York and New Jersey............................................   355
    Prepared statement...........................................   392
Cleary, Ed, president, New York State AFL-CIO....................   370
    Prepared statement...........................................   406
Conway, E. Virgil, Chairman, Metropolitan Transportation 
  Authority......................................................   357
    Prepared statement...........................................   394
D'Amato, Hon. Alfonse, U.S. Senator from the State of New York...   318
    Prepared statement...........................................   319
Downey, Mortimer L. Downey, Deputy Secretary, Department of 
  Transportation.................................................   347
    Prepared statement...........................................   383
Downs, Thomas M., Chairman, President, and Chief Executive 
  Officer, Amtrak................................................   349
    Prepared statement...........................................   386
Giuliani, Hon. Rudolph W., Mayor of New York City................   329
    Prepared statement...........................................   378
Kiley, Robert, president, New York City Partnership and Chamber 
  of Commerce, Inc...............................................   365
    Prepared statement...........................................   401
Pataki, Hon. George E., Governor, State of New York..............   325
    Prepared statement...........................................   377
Pocino, Raymond, regional manager, Laborers International Union 
  of North America...............................................   373
    Prepared statement...........................................   404
Rudin, Lew, Rudin Management Corporation, New York, New York.....   368
    Prepared statement...........................................   403
Sullivan, James, Acting Commissioner, Connecticut Department of 
  Transportation.................................................   351
    Prepared statement...........................................   389
Van Dyke, J. William, Chairman, North Jersey Transportation 
  Planning Authority, Inc........................................   359
    Prepared statement...........................................   397
Whitman, Hon. Christine Todd, Governor, State of New Jersey......   333

                          ADDITIONAL MATERIAL

List, ISTEA Projects in Connecticut..............................   413
Statements:
    Bronx Borough President Fernando Ferrer......................   419
    Capitol Region Council of Governments, Richard J. Porth......   421
    Cheesman, Tom................................................   418
    Cheshire, CT, James Sipperly.................................   423
    Connecticut Construction Industries Association..............   420
    Connecticut Fund for the Environment, Karyl Lee Hall.........   416
    Corridor H Alternatives, Hugh Rogers.........................   418
    Dodd, Hon. Christopher, U.S. Senator from the State of 
      Connecticut................................................   410
    General Contractors Association of New York..................   420
    Malloy, Daniel P., Mayor, Stamford, CT.......................   412
    Middletown, CT, Area Transit, Tom Cheeseman..................   418
    Rogers, Hugh.................................................   418
    Rowland, Hon. John G., Governor, State of Connecticut........   411

                  MONDAY, APRIL 21, 1997--WARWICK, RI
                  INTERMODAL AND ENVIRONMENTAL ISSUES
                           OPENING STATEMENT

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   425

                               WITNESSES

Almond, Hon. Lincoln, Governor, State of Rhode Island............   429
    Prepared statement...........................................   471
Ankner, William, Director, Rhode Island Department of 
  Transportation.................................................   446
    Prepared statement...........................................   480
Baudouin, Dan, Executive Director, The Providence Foundation.....   462
    Prepared statement...........................................   492
Bianchi, Kenneth, Town Administrator, North Smithfield, on behalf 
  of DOTWatch....................................................   464
    Prepared statement...........................................   495
Culhane, Colonel Edmond S., Jr., Superintendent, Rhode Island 
  State Police...................................................   451
    Prepared statement...........................................   486
Reed, Hon. Jack, U.S. Senator from the State of Rhode Island.....   426
    Prepared statement...........................................   427
RePass, James, president and chief executive officer, The 
  Northeast Corridor Initiative, Inc.............................   468
    Letter, National Corridors Initiative........................   500
    Prepared statement...........................................   497
Sanderson, Edward F., Executive Director, Rhode Island 
  Preservation and Heritage Commission...........................   455
    Prepared statement...........................................   488
Schiller, Barry, Sierra Club.....................................   460
    Letter.......................................................   490
    Prepared statement...........................................   490
Scott, Beverly, Director, Rhode Island Public Transit Authority..   449
    Prepared statement...........................................   482
Slater, Hon. Rodney, Secretary, Department of Transportation.....   436
    Prepared statement...........................................   474
Spalding, Curt, executive director, Save the Bay.................   466
    Prepared statement...........................................   496
Weygand, Hon. Robert A., U.S. Representative from the State of 
  Rhode Island...................................................   428

                          ADDITIONAL MATERIAL

Statements:
    Blackstone River Valley National Heritage Corridor Commission   501
    Woonasquatucket River Greenway, Jane B. Sherman..............   502

                         WEDNESDAY, MAY 7, 1997
                            SAFETY PROGRAMS
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California.511, 519
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   518
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   518
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......   512
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................   503

                               WITNESSES

Bartlett, Bob, Mayor, Monrovia, California, representing the 
  Southern California Association of Governments.................   553
    Letter.......................................................   609
    Prepared statement...........................................   653
Berry, Brenda, board member, CRASH...............................   551
    Prepared statement...........................................   624
Crabtree, Richard, president and COO, Nationwide Mutual Insurance 
  Company, representing Advocates for Highway and Auto Safety....   535
    Prepared statement...........................................   591
    Report, Harris Poll on Highway Safety Issues.................   601
DeWine, Hon. MikE, U.S. Senator from the State of Ohio...........   513
    Prepared statement...........................................   567
Donohue, Tom, president and CEO, American Trucking Association...   543
    Prepared statement...........................................   610
    Resolution, AASHTO...........................................   620
    Responses to additional questions from:
        Senator Boxer............................................   618
        Senator Chafee...........................................   618
Georgine, Robert, president, Building and Construction Trades 
  Department, AFL-CIO............................................   557
    Prepared statement...........................................   662
Harsha, Barbara, Executive Director, representing the National 
  Association of Governors' Highway and Safety Representatives...   555
    Prepared statement of Elizabeth Baker........................   655
    Responses to additional questions from Senator Chafee........   660
Kane, Anthony R., Executive Director, Federal Highway 
  Administration, Department of Transporation....................   523
    Prepared statement...........................................   584
    Responses to additional questions from:
        Senator Boxer............................................   586
        Senator Chafee...........................................   585
Kolstad, James L., Vice President, American Automobile 
  Association....................................................   548
    Prepared statement...........................................   621
    Responses to additional questions from Senator Chafee........   622
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   505
    Prepared statement...........................................   565
Lowey, Hon. Nita, U.S. Representative from the State of New York.   507
    Prepared statement...........................................   566
Lugar, Hon. Richard G., U.S. Senator from the State of Indiana...   503
    Prepared statement...........................................   563
Prescott, Katherine P., national president, Mothers Against Drunk 
  Driving........................................................   540
    Prepared statement...........................................   606
    Responses to additional questions from:
        Senator Boxer............................................   608
        Senator Chafee...........................................   607
Recht, Philip R., Deputy Administrator, National Highway Traffic 
  and Safety Administration......................................   520
    Prepared statement...........................................   569
Wytkind, Edward, executive director, Transportation Trades 
  Department, AFL-CIO............................................   560
    Prepared statement...........................................   666

                          ADDITIONAL MATERIAL

Article, More Trucks Shake Residential America...................   651
Letters:
    Boston University School of Public Health....................   690
    Rohde, Laurence..............................................   696
    Several Members of Congress, to President Clinton............   670
    Southern California Association of Governments...............   609
Statements:
    American Insurance Association...............................   673
    Claybrook, Joan, Public Citizen..............................   604
    General Accounting Office, U.S.-Mexico Commercial Trucking 
      Safety Issues..............................................   699
    Manocherian, Fraydun.........................................   692
    National Association of Independent Insurers.................   691
Survey, Attitudes of American People on Highway Safety, Louis 
  Harris Poll....................................................   601

                          FRIDAY, JUNE 6, 1997
                     WOODROW WILSON MEMORIAL BRIDGE
                           OPENING STATEMENTS

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........   772
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................   711

                               WITNESSES

Collins, John J., senior vice president, American Trucking 
  Association....................................................   751
    Prepared statement...........................................   799
Curry, Wayne, County Executive, Prince Georges County, Maryland..   749
    Prepared statement...........................................   796
Davis, Hon. Tom, U.S. Representative from the Commonwealth of 
  Virginia.......................................................   716
    Prepared statement...........................................   773
Donley, Hon. Kerry J., Mayor, City of Alexandria, VA.............   745
    Prepared statement...........................................   794
Garvey, Hon. Jane, Acting Administrator, Federal Highway 
  Administration, Department of Transportation...................   721
    Prepared statement...........................................   777
Hanley, Katherine K., Chairman, Fairfax County Board of 
  Supervisors, Virginia..........................................   750
    Prepared statement...........................................   798
Hoyer, Hon. Steny, U.S. Representative from the state of Maryland   715
    Prepared statement...........................................   773
Kell, Randal, vice chairman of government affairs, Alexandria 
  Chamber of Commerce............................................   765
    Prepared statement...........................................   813
Laden, Kenneth, Administrator, Office of Policy and Planning, 
  Department of Public Works, District of Columbia...............   740
    Prepared statement...........................................   793
Lewis, Michael J., chief of staff, American Institute of 
  Aeronautics and Astronautics (AIAA), and chairman of 
  legislative affairs, Fairfax County Chamber of Commerce........   766
    Prepared statement...........................................   814
Martinez, Hon. Robert, Secretary of Transportation, Commonwealth 
  of Virginia....................................................   736
    Prepared statement...........................................   790
Mikulski, Hon. Barbara, U.S. Senator from the State of Maryland..   714
    Prepared statement...........................................   772
Montague, Robert, Alexandria Historical Restoration and 
  Preservation Committee.........................................   763
    Prepared statement...........................................   810
Moran, Hon. James, U.S. Representative from the Commonwealth of 
  Virginia.......................................................   717
    Prepared statement...........................................   774
Neihardt, Jonas, president, Old Town Civic Association, 
  Alexandria, VA.................................................   760
    Article:
        EPA: Span Air Study Is Flawed............................   807
        Moran Proposes Potomac Span to the South, Washington Post   809
    List, Bridge Comparables.....................................   808
    Prepared statement...........................................   803
Robb, Hon. Charles S., U.S. Senator from the Commonwealth of 
  Virginia.......................................................   723
Sarbanes, Hon. Paul, U.S. Senator from the State of Maryland.....   713
Williams, Susan, chairman, The Greater Washington Board of Trade.   754
    Prepared statement...........................................   802
Winstead, Hon. David L., Secretary of Transportation, State of 
  Maryland.......................................................   738
    Prepared statement...........................................   791
Wolf, Hon. Frank, U.S. Representative from the Commonwealth of 
  Virginia.......................................................   734
Wynn, Hon. Albert, U.S. Representative from the State of Maryland   719
    Prepared statement...........................................   776

                          ADDITIONAL MATERIAL

Letter, Sidney R. Steele.........................................   816


      REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION ACT

                              ----------                              


                        SATURDAY, MARCH 22, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                              Coeur d'Alene, Idaho.

                        THE WESTERN PERSPECTIVE

    The subcommittee met, pursuant to notice, at 1 p.m. at 
Northern Idaho Community College, Coeur d'Alene, Idaho, Hon. 
Dirk Kempthorne [acting chairman of the subcommittee] 
presiding.
    Present: Senators Kempthorne, Warner, and Baucus.

          OPENING STATEMENT OF HON. DIRK KEMPTHORNE, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Kempthorne. Ladies and gentlemen, I will call this 
hearing of the U.S. Senate Subcommittee on Transportation and 
Infrastructure of the Committee on Environment and Public Works 
to order. And I thank all of you for joining us here this 
afternoon in beautiful North Idaho where we see the beauty of 
the State of Idaho and, of course, the weather has cooperated 
today.
    Let me acknowledge the gentlemen seated with me, Senator 
John Warner of Virginia, who is the Chairman of both the Rules 
Committee of the Senate, as well as the Subcommittee on 
Transportation and Infrastructure of the Public Works 
Committee. And it is through his courtesy, as well as the 
courtesy of Senator Chafee, who is the Chairman of the full 
Environment and Public Works Committee that we are having this 
hearing in Idaho so that we can make part of the record the 
western perspective of how critical transportation is to the 
western portion of the United States.
    And, again, because of the courtesy of John Warner, he is 
allowing me to chair this hearing this afternoon.
    I also want to acknowledge Senator Baucus from Montana, our 
friend from Montana, who is the ranking member of the full 
Environment and Public Works Committee, as well as the ranking 
member of the Public Works Subcommittee. And 3 years ago Max 
was the Chairman of the full Environment and Public Works 
Committee.
    It is an honor to have both of these gentleman here, and I 
know that this is going to be a wonderful opportunity for us to 
have a number of issues addressed by outstanding panelists. 
Included, of course, would be the lead-off speaker when we go 
to our panels, who will be the Governor of the State of Idaho, 
Phil Batt. And I also want to acknowledge in the audience is 
former United States Senator Steve Symms, who was a member of 
this particular committee and has done so much in the 
infrastructure of the State of Idaho when he was there in the 
seat that I now occupy. So, Steve, we thank you for all of the 
efforts you have done in your service to the State of Idaho and 
the country.
    Today's hearing on the Intermodal Surface Transportation 
Efficiency Act, or ISTEA, as it is called, allows us to discuss 
the 21st century, a western perspective. It is an excellent 
opportunity for Idaho and the West to highlight both the beauty 
of our area and the challenges we face providing a safe and 
reliable transportation network in our States.
    The reason that I strongly encouraged Senator Warner to 
schedule a western hearing on ISTEA in Idaho is because we have 
difficult geographic and demographic challenges facing our 
region which are unique to the rest of the country. 
Unfortunately, these factors are not normally a part of 
discussion when ISTEA is debated in Washington, D.C. Two of the 
most significant of these factors are, No. 1, large sparsely 
populated land areas with many miles of highway. Idaho is 
thirteenth in size among the 50 States with a land area of more 
than 85,000 square miles but a population of just over 1.1 
million people, which ranks us 41st in that category. Large 
areas of our States are owned by the Federal Government, and 
they are tax exempt. In Idaho that's almost two-thirds of our 
State. Today, through the courtesy of Senator Warner, we have 
brought the debate and members of the U.S. Senate to Idaho.
    When Congress authorized the National Highway System Act in 
1995, we made a commitment to recognize and support a national 
system of 160,000 miles of highway in 50 States. We should 
never lose sight of the intent of the original Federal 
Interstate Highway System, which was established more than 40 
years ago. We are one country with one national system of 
roadways that people must be able to depend upon. We cannot 
allow ISTEA to become a program that creates haves or have 
nots, winners or losers. We should not place a greater 
significance on any single part of the whole but rather we 
should strive to support the system as a signal network of safe 
and efficient transportation infrastructure.
    A traveler on the National Highway System should only know 
when they leave one State and enter another because of a 
welcome sign, not because of a degradation as to the quality of 
the roads. During the reauthorization of ISTEA, we must design 
programs that address the unique needs and challenges of the 
individual States so that they can fulfill their obligation to 
develop and maintain their portions of the national system. For 
Idaho, for Montana, for Washington, these needs and challenges 
are, as I have mentioned, primarily rural in nature, but to 
many other States, including Senator Warner's State of 
Virginia, the issues are often different.
    One of these major concerns is the so-called donor versus 
donee issue, and a fair share returns in the Highway Trust Fund 
for dollars that States put in. While States like Idaho and 
Montana, with our sparse population and large areas, are donee 
States and receive significantly more than a dollar-for-dollar 
return. Some donor States receive as little as 80 cents back on 
the dollar. While I feel strongly that sparsely populated 
States must receive adequate resources to support their 
portions of the National Highway System, I also recognize the 
inequity of the current distribution system and the financial 
strain that it places on the donor States.
    I raise these points to illustrate that while the 
tremendous diversity of our Nation is certainly one of our 
great strengths, this diversity is often the basis of our 
problem in adequately funding our national transportation 
system.
    In an attempt to address these and other important issues, 
several pieces of legislation have been introduced in the 
Senate for the reauthorization of ISTEA. Senator Baucus and I, 
along with Senator Craig Thomas of Wyoming, have been working 
on draft language of a bill that we will introduce soon. This 
bill, the Surface Transportation Authorization and Regulatory 
Streamlining Act, referred to as STARS 2000, significantly 
streamlines and enhances the current ISTEA.
    We propose authorizing highway program funding levels as 
high as the trust fund will sustain, $26 billion annually, 
substantially more than the current $18 billion that are being 
spent. This increased level of funding will enable critical 
transportation investment to take place and allow States to 
begin reducing their backlogs of deferred maintenance and 
construction projects. Under STARS 2000 formulas and funding 
increases, 47 States would receive higher annual funding than 
they received on average over the last 6 years of ISTEA. This 
increased level of funding would enable Congress to address the 
donor and donee issue by raising the minimum allocation program 
portion of the distribution formula from 90 to 95 percent, 
allowing increased funding for other important programs such as 
the Federal Highway Lands Program.
    Our bill would place greater emphasis on rural formula 
factors, such as low population and density, lane-miles of 
Federal highway in a State as opposed to miles driven, and 
consideration for the percentage of tax exempt federally owned 
lands in a State. These new factors will help establish equity 
between large urban areas and rural areas, while at the same 
time protecting the integrity of the National Highway System. 
In STARS 2000 we also address important Idaho issues, such as 
contract authority, funding for the National Recreational 
Trails Act, which Steve Symms was the author of, and increased 
consideration in transportation research.
    I look forward to hearing the testimony of the witnesses 
that we have invited today. We'll tell you that the record will 
be kept open so that anyone who wishes to make comments 
available to us may do so for the next week.
    I had mentioned how delighted we were to have Senator 
Warner here with us. I want to tell you that this is not the 
first time that Senator Warner has been to the State of Idaho. 
When he was 15 years old he first came here when he worked in 
the forests of Idaho. I believe the first city you first were 
dispatched to was Coeur d'Alene.
    Senator Warner. That's correct.
    Senator Kempthorne. So, Senator Warner, you have extended 
me the gavel today. I want to extend to you a Pulaski.
    [Applause.]
    Senator Kempthorne. He was instrumental in helping us fight 
blister rust. So with that, Senator Warner?

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. As I walked down main street today, it was 
a nostalgic trip thinking I was here in 1943 as a 15, almost 
16-year-old young man. Why was I here? It was very simple. This 
is a patriotic community, and almost every able-bodied red-
blooded man in those days had long since gone to wear the 
uniform of our country, and there was a desperate need in the 
forests for young persons to come out and help contain the 
ever-present fire situation, refurbish the trails and, indeed, 
our time off to do a little blister rust to protect the white 
pine.
    Much has changed except one thing, and I detected it this 
morning in about a 2-hour walk through this city. The people 
haven't changed. They were as friendly then as they are today. 
And I wish to extend my profound gratitude to them for 
providing a safe and secure and a happy summer of 1943, which I 
remember very vividly.
    I'm happy to be here today because my colleague and good 
friend said through my courtesy. Nonsense. It was through his 
leadership and really his insistence, together with Senator 
Baucus, that we take a Senate hearing, that we move to this 
pivotal area of the great West and get firsthand the views such 
as we are about to receive from your distinguished Governor.
    It is essential that this piece of legislation be shaped to 
reflect the special needs of the United States of America, not 
just the northeast corridor which dominated it so much in 1991.
    I am a member of a coalition of States, primarily southern 
States, donor States, and it is my fervent hope that these two 
Senators and their States and four or five other western States 
will be the swing balance to bring about the equity and 
fairness that is needed in the redistribution of the Highway 
Trust Fund dollars back to the several States from that gas tax 
that each of us pays when we back up to the tank. I'll be 
joining Senator Baucus on his legislation to return the 4.3 
cents, to distribute it between surface transportation and the 
AMTRAK. That's an essential piece of legislation if it were to 
block the efforts indeed of President Clinton to try to divert 
from your gas tax paid at the tank back to AMTRAK.
    This bill will, I'm going to tell you, will be one of the 
most hard-fought battles in this Congress. I started my 
career--Actually, when I left here in the summer of 1943, I 
went into the Navy and became an electronics technician mate. I 
mention that only because electronics is a very important part 
of your growing industry. And you go ask that plant manager or 
that boss or the worker how they are able to compete with the 
rest of the world. And my guess is they will tell you a part of 
that competition is predicated upon transportation, turnaround 
time, to get that product to the user as quickly as possible. 
And that's what we are here for today, to determine how best to 
improve your surface transportation so that those workers, be 
they in the plants or in the fields or in the orchards, can 
turn those products around and get them to the user so that 
they are competitive, competitive with the other States, 
competitive in the one world market, which is so much the 
competition that faces all of us today.
    So I thank you, Senator, for your leadership in getting 
this field hearing here and my distinguished colleague from 
Montana, Senator Baucus.
    Senator Kempthorne. Senator Warner, thank you very much. 
Now, let me call upon my friend and neighbor, Max Baucus, 
Senator from Montana. I know, Max, that when they filmed the 
beautiful movie ``A River Runs Through It,'' I believe it was 
filmed in Montana. And we have many of those beautiful rivers 
that run through the State of Idaho, so I would like to give 
you as a little expression of our appreciation of you being 
here, some flies that have been tied here in Idaho. I know you 
will enjoy them.
    [Applause.]

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Dirk. I take particular pride in 
this because not only was ``A River Runs Through It'' a book 
that was written by a fellow named Norman MacLean, based upon 
his experiences in Montana, and the subsequent film by Robert 
Redford but, actually, that Big Blackfoot River is a part of 
Montana where I grew up, and our family has a ranch in Montana, 
and our summer range is right there. So this has special 
meaning for me. I thank you very much.
    I want to tell all of you, too, here in Idaho what an honor 
it is for me to be here along with John Warner and Dirk 
Kempthorne. John Warner is a great senator. There are public 
servants, as we all know, and public servants. John Warner 
stands out as one of the best. He is very solid. He calls them 
as he sees them. Very gracious. I am very honored, and I know 
all of us in the Northwest, particularly here in Coeur d'Alene 
are honored that he is here with us. And I want to thank you, 
John, for being here with us.
    Senator Warner. Thank you very much, Senator.
    Senator Baucus. And the same goes for your Senator 
Kempthorne. And I say that because I have been working with 
Dirk quite a bit on a lot of legislation. We are on one of the 
same committees. One is the Safe Drinking Water Act, which he 
referred to. Another is the Endangered Species Act, which we 
are working on together. Dirk is very fair. He is very even-
handed and tries to do the right thing. And we are making a lot 
of progress on that bill as we did the Safe Drinking Water Act. 
Dirk is the kind of guy that buckles down and gets the work 
done. Not a big grandstander. I am honored to be here, Dirk, 
and working with you.
    Senator Kempthorne. Thank you.
    Senator Baucus. For that same reason that we are together 
on this other bill, GOALS 2000--excuse me. STARS 2000. STARS 
2000 is the highway bill that I am going to be introducing 
after the recess. Dirk is going to be joining me, as well as 
some other Senators. And it's a bill we think, having worked 
this out together, is one that is probably the most fair, the 
most evenly balanced bill among the competing bills now facing 
the Congress with respect to highway funds. And I say that with 
very deep respect to Senator Warner, because he has also 
introduced a bill which is very similar. It is called STEP 21. 
But they are actually much more similar and alike than they are 
dissimilar, and I have a strong feeling that the two bills in 
many ways are going to merge and become not only one but the 
major bill.
    Just a very brief couple of points here. No. 1 is to 
recognize and remember the national aspect of our highway 
program. Back in 1926 a young army officer, Dwight Eisenhower, 
just for a lark signed on a convoy going across the country 
from eastern United States to California, he and another 
officer. And it was during that trip that he realized just what 
shape our roads were in. I mean, they got stuck in mud. And he 
felt at that time what this Nation needs is a National Highway 
System, national highway program.
    Then it was during the war, World War II, that his idea got 
even more defined when he was impressed with the German 
autobahn system, realizing that we need not just one-lane roads 
or two-lane, but we need four-lane roads. We needed to expand 
upon this. That really was the genesis of our Federal highway 
interstate highway system.
    The big question we had back then was how to finance it. He 
thought that it should be financed locally, that people who use 
it ought to pay for it. But that didn't make a lot sense here 
in the West, because we have a lot more space than we do 
people, and we couldn't finance it. Eventually, agreement was 
finally reached, as is the case often with legislation, it is a 
compromise, and the final result was our current highway system 
where everybody pays gasoline taxes into the trust fund, and 
then the trust fund then redistributes those dollars back to 
States on hopefully a very fair balanced basis.
    It is a national program. And one main point of the hearing 
today is to make sure it is indeed a national program. Senator 
Warner mentioned there are those in the East that would like to 
tilt it toward the Northeast. We in the West want to make sure 
that the final result is fair. We don't want more than our fair 
share. We want to make sure we get our fair share.
    And this hearing today will help develop a record of all 
the unique aspects that we have here in the West, more Federal 
land, for example, than the East; great distances; lower per 
capita income; higher State gasoline taxes; freezes and thaws, 
the pavement freezes and thaws; and our weather conditions; and 
lots of factors that we have here in the West that most other 
States don't have that to have a fair, balanced program means 
that those factors should be recognized in the bill.
    I will introduce a bill when I get back, along with Senator 
Kempthorne, STARS 2000. We have all these crazy names. There is 
ISTEA, and the Administration's new bill is NEXTEA, and then 
there is STEP 21. But we are GOALS 2000.
    Senator Kempthorne. STARS 2000.
    Senator Baucus. Excuse me, I keep saying ``GOALS.'' We are 
STARS 2000.
    Senator Warner. Excuse me, Senator, if you'd yield. When we 
merge we are taking that name because we want to cap on ``Star 
Wars'' and get this thing through.
    Senator Baucus. Well, by that time I will get the name 
straight, too, STARS 2000. Thank you.
    It is the culmination of effort of Senator Kempthorne's 
staff and staffs of other Senators in the West. And I think we 
might as well now, Dirk, get on with the hearing. And thank you 
again for being part of it.
    Senator Kempthorne. I would like to recognize someone else 
in the audience. You might recognize Steve Symms, an old 
colleague of ours. In addition, Representative JoAn Wood. She's 
been a real advocate. Does a great job here in Idaho for 
transportation programs. She is here too. Good.
    Senator Baucus. I might while I have the opportunity to put 
in a plug for my Montanans who are here. Marv Dye, State 
Highway Department, and there are others here from Montana. 
Glad you are here.
    Senator Kempthorne. Thank you, Max, very much. While we'd 
all love to take our friends from Virginia and Montana on a 
quick scenic tour of the State of Idaho, it's just not possible 
at this time. So we are going to have a 5-minute video, which I 
think allows all of us to get a flavor of the beauty of Idaho 
but the challenges that we have in trying to transport 
ourselves and products in this beautiful State. So with that, 
we will enjoy this video.
    [Video, ``A Western Perspective,'' was shown.]
    Senator Kempthorne. I want to thank the Idaho Department of 
Transportation, which helped put together a beautiful video 
there.
    And with that, let me call forward the Governor of the 
State of Idaho, a gentleman who is regarded by all Idahoans as 
an outstanding chief executive.
    When we recently had the floods that had been hitting us 
both last year and this year, Phil Batt demonstrates again why 
we are so fortunate to have him at the helm, because he is a 
man who is hands-on. When we had communities that were cutoff 
because of the mud slides, what have you, he mobilized the 
Guard and the Department of Transportation so that we could get 
access immediately.
    So with that, Governor, we thank you and we look forward to 
your comments and perspective.

   STATEMENT OF HON. PHILIP E. BATT, GOVERNOR, STATE OF IDAHO

    Governor Batt. Thank you, Mr. Chairman, Senator Warner, 
Senator Baucus. I am Phil Batt, Idaho's Governor. I want to 
thank you for the opportunity to testify on the reauthorization 
of Intermodal Surface Transportation Efficiency Act.
    Before I begin my testimony, I would like first to welcome 
you to Idaho and to this beautiful city of Coeur d'Alene. I am 
particularly grateful that you folks from out of state would 
take your time to come visit with us here. I think it is 
appropriate that you see some of the difficulties we have in 
the West with our roads and, of course, you were acquainted 
with them earlier. I would also like to thank you for giving 
Idaho State and local officials and citizens this opportunity 
to testify.
    My comments today are based on written testimony which has 
already been presented to you. The written testimony offers an 
in-depth and comprehensive analysis of Idaho's positions on 
reauthorization. Today I would like to highlight four key 
recommendations from that testimony.
    First, Congress should fully fund the next surface 
transportation act. And, of course, at your news conference I 
heard you indicate that you feel as if that should be done.
    The needs of Idaho's and the Nation's transportation 
systems far outstrip the funds available. Annual obligational 
limits set by Congress under ISTEA were far below the 
apportionment levels set by the act. The $20 billion balance in 
the highway and mass transit funds will continue to grow and be 
unavailable for transportation investment unless Congress 
discontinues that practice.
    Second, the 4.3 cents per gallon in Federal users taxes 
collected from motorists should be spent on maintaining 
highways, not deposited in the General Fund for deficit 
reduction. This would provide an additional $6 billion to the 
Nation to make badly needed repairs to our highways. And, 
Senator Warner, I was very happy to hear that you are going to 
agree with Senator Baucus in that particular action.
    Third, State and local governments should be given more 
flexibility in determining how, when, and where Federal 
transportation money is being spent, to maximize the safety and 
the mobility of the people.
    Fourth, burdensome and often unnecessary sanctions imposed 
by ISTEA and early laws should be eliminated. Sanctions 
diminish the flexibility of ISTEA by forcing States to adopt 
policies or to lose a portion of their Federal construction 
funds if they do not.
    Funding. A comprehensive study of Idaho roads and bridges 
in 1995 showed a $4.1 billion backlog of needed highway 
improvements. This figure is daunting and far outstrips Idaho's 
ability to make these improvements. As I mentioned previously, 
even though we put as much as 70 percent of our primary funding 
into Highway 95, you can see the needs we still have. Yet 
significantly more money is being collected from highway users 
than is being made available to the States.
    Congress should fund highway and transit programs at the 
highest sustainable levels. The fully authorized funding 
amounts in ISTEA have not been released to the States, even 
though its sufficient revenue is available in the Highway Trust 
Fund. So instead of $26 billion being spent annually, the 
current level of Federal-related funds is being authorized at 
around $20 billion.
    At the same time, the 4.3 cents per gallon in users taxes 
currently being spent on nontransportation purposes should be 
spent exclusively on transportation improvement. From these two 
actions alone, funding for transportation can be increased by 
$32 billion without raising anyone's taxes.
    One of the promises of ISTEA was to provide increased 
flexibility in funding transportation programs. Much of this 
flexibility, in reality, does not exist, because the rules that 
accompanied ISTEA were overly specific and prescriptive. Many 
of the major problems associated with the implementation of 
ISTEA are not caused by the intent and direction of ISTEA, but 
from the interpretation of Federal agency regulations imposed 
on the States.
    These regulations have constrained Idaho from meeting its 
specific needs and priorities. Idaho must allocate 
transportation money in eligible categories rather than where 
it needs to be spent the most. Congress should give States 
greater discretion that allows them to address their unique 
transportation needs. Decisions on where to spend 
transportation funds should be made at the State and local 
levels. Allowed to work unimpeded, Idaho will make sound 
decisions.
    Many Federal transportation programs impose sanctions, 
usually the loss of Federal construction funds if certain 
actions aren't taken in order to force States to comply with 
the goal. The effect of these sanctions is to distort State 
spending into areas which may not be a priority for the State 
or best use of those funds. I remember when Steve Symms used to 
talk about that, about Idaho not making its own priorities, 
particularly on the interstate when some of the upkeep of that 
was in question. Sanctions are counter-productive, leading to a 
reduction in already inadequate funding level and imposing 
priorities that are not necessarily those of Idaho.
    While there are major improvements that can be made, we 
should be proud of the progress made under ISTEA. Its central 
elements should serve as a foundation for the next 
reauthorization. Hearings like this one will allow the 
committee to learn what aspects of ISTEA are working and what 
can be improved. The stakes are high. The subcommittee is well 
aware of the vital role transportation plays in ensuring 
America's economic prosperity and quality of life.
    We need strong Federal programs and leadership in 
transportation.
    As the introductory video showed, Idaho faces many 
challenges in providing a transportation system for the Nation 
and for our citizens. Idaho covers more than 83,000 square 
miles, more than 500 miles long from the Canadian border to 
Nevada, and 300 miles wide along the southern border. To travel 
by road from Coeur d'Alene to Boise to Pocatello is a journey 
of more than 600 miles. The majority of the land you would 
travel through, about 64 percent, is owned by the Federal 
Government. Idaho's population of 1.2 million is widely spread 
across the State.
    Throughout Idaho's history and continuing to this day, the 
diverse and difficult topography of the State presents 
challenges, most often expensive ones to build and maintain our 
transportation system. Agricultural, mining, and forest 
products, industries that rely on good and extensive 
transportation systems, have been the backbone of Idaho's 
economy. However, Idaho's growth in population and economy are 
increasing demands on our highways. As the video illustrated, 
U.S. 95, Idaho's north and south highway, is a perfect example 
of these challenges, and its improvement continues to be one of 
my top priorities.
    So in conclusion, we look forward to working with the 
subcommittee to discuss these and other reauthorization issues 
and stand ready to provide information which would be of 
assistance to the subcommittee as it moves forward in the 
legislative process. We have others from Idaho who will be 
testifying, including Dwight Bower and our transportation 
committee chairman out of the House and Senate and also the 
Chairman of our Transportation Board.
    So, Mr. Chairman, that concludes my remarks. Thank you for 
the invitation to present Idaho's views, and I will be pleased 
to respond to questions now or in writing later.
    Senator Kempthorne. Governor, thank you very much. 
Governor, I think that you will find in the legislation that 
Senator Baucus and I are going to be offering, and really I 
think you see the same principle reflected in Senator Warner's 
legislation, that we give much greater authority and 
flexibility to the State. Would you just, perhaps in a 
philosophical fashion, but could you comment? Because there are 
different times in Washington, D.C., when we have Federal 
officials that will testify that they really question if they 
don't make the decisions, will they be the appropriate 
decisions throughout the United States. Your thoughts on the 
expertise and the abilities of State governments to deal with 
their problems within their own borders.
    Governor Batt. Well, without trying to offend my 
distinguished Washington people, we don't think that wisdom 
necessarily is created by removal from one's home place. And, 
therefore, we think that we can make these decisions wisely. We 
are obligated to, or our citizens would not allow us to serve 
them. I think as a specific example some of the highway 
shoulder grades can be designed to fit Idaho's needs better 
than being prescribed by someone from out of the State. And so 
we would accept such responsibility very seriously, but we 
think that it is appropriate to be residing within Idaho's 
ability to make those decisions.
    Senator Kempthorne. Thank you very much.
    Senator Warner?
    Senator Warner. I would like to pick up on that very 
important line of questioning, because I come from a State 
which is very proud of state's rights. But on the other hand, 
Governor, it has been my experience that some complimentary 
features of construction and safety and the like have to be 
shared by the several States. Because when we drive from your 
great State into my dear friend Senator Baucus's State, we 
don't want an abrupt border change in safety and things of this 
nature.
    I would hope that you could provide, for the record, in 
consultation with your highway secretary, give us a list of 
five things that you think are sanctions that are not fairly 
balanced toward the perspective of your State. This is 
precisely what the three of us, this is the type of fact that 
we, the three of us, want to take into consideration when we 
look at this new bill.
    And here you are the greatest Governor in the history of 
the State of Idaho. The next one, whoever that may be, may not 
be the greatest Governor, may not be interested and may have 
total other fields of interest and suddenly take such authority 
as yielded from the central government to the States and use it 
in a manner consistent with the benefit of the State and the 
enjoyment of the State. That's the problem.
    Governor Batt. That is very well put. And I may not be the 
greatest. I think I am the shortest.
    [Laughter.]
    Governor Batt. It is very true that we cannot, when you are 
granting these large sums of money back to the State from our 
taxes that we paid in in the first place, you have to have some 
control over the quality and, as you say, a continuity from 
State to State. It has to be a partnership.
    I think too many times in the past, however, there's been 
more of an attitude from some of the Federal folks that we are 
not capable of making wise decisions in the States. All of you 
have demonstrated in your actions in Congress you don't think 
that is necessarily true. And all we ask is an even break on 
it. And I accepted your challenge to give you five instances in 
which----
    Senator Warner. Let me make one observation, because I like 
the profile of this Governor. This is a no nonsense individual. 
You and I shared a birthday here 3 weeks apart.
    Governor Batt. That's correct, sir.
    Senator Warner. And now at a ripe old age, we have seen a 
lot. But it's been my observation, and you came up through 
State government. And no one in State government ever got 
elected through raising the taxes. And this tremendous gas tax 
that we have here is a direct consequence of the several States 
failing to have the courage in their legislatures to pass the 
necessary taxes to raise the money to improve and keep and 
maintain their highways. So in a sense you are paying a penalty 
by letting Big Brother back in Washington put in the tax 
structure that you would not in the several States and 
therefore, as a consequence, along comes some of big brother's 
thinking. Now our job is to balance that.
    There is one bill floating around that says let's abolish 
all of this tax and give it all back to the States and let you 
announce to the legislature of your State that we are going to 
have an 18-cent gas tax. You will go down in history when that 
announcement is made.
    Governor Batt. You are absolutely correct, and I do not 
think that would be an equitable arrangement because of the 
vast amount of Federal land we have here, the bridge we make 
from one State to another, and the importance of the corridors 
for foreign trade, particularly now that NAFTA is in place, the 
big flow of traffic coming down to our State. So I think the 
Federal Government has some interest in redistributing the 
money to meet national concerns.
    However, in general, I think that it would be better for 
the State to impose the taxes and spend them ourselves. We 
raised our gas tax about 4 cents last year under my leadership, 
because we think we are obligated to that for our own State's 
well-being.
    Senator Warner. I will conclude with one observation. 
Through the teachings of these two fine colleagues, this old 
stuffy Easterner has learned very clearly that these States 
geographically, demographically, and everything else are not 
structured to generate within the State the funds necessary 
even to maintain, much less expand and modernize, your surface 
transportation. So your State, Montana, and others, are 
entitled to a proportionately larger share of the Federal 
distribution. And that is clear in this senator's mind, and I 
will work with them to preserve that.
    [Applause.]
    Senator Kempthorne. Senator Warner, good comments. And, 
too, your assessment and sizing up of Phil Batt is right on 
target. That's why we want to keep him around for a while.
    Senator Baucus?
    Senator Baucus. All I can say is this hearing is getting 
off to a good start. Based on the comments of our friend and 
colleague from Virginia, we are making good progress here, and 
I thank you very much.
    Governor, as you know, a bill was introduced in the Senate. 
It's called the Turn-Back Bill. Essentially, it would repeal 12 
cents out of the current 18.3 cents of the current gasoline tax 
and say OK, States, you are on your own. But it would keep 2 
cents only for interstate maintenance. The remainder would have 
to be paid up by States in raising funds, however they could do 
it, to maintain the highway programs.
    My question for you is could Idaho do that. I suppose they 
could in one sense. But if you could just tell us what some of 
the strains would be and what some of the complications would 
be if that legislation were to be enacted.
    Governor Batt. I am not enough of an engineer to accurately 
assess that. There would be a point somewhere where Idaho could 
accept that responsibility. I would say that probably if only a 
2-cent tax, it would put us at a distinct disadvantage, one we 
would find very difficult to cope with.
    Senator Baucus. In Montana we would have to have a State 
gasoline tax close to 60 cents. There is no way in the world we 
in Montana can have a State gasoline tax that is 50 cents a 
gallon. That would be to maintain the current level of our 
highway maintenance and construction program.
    Governor Batt. I think it is well we have had a Federal 
gasoline tax. It hasn't been raised much over the years. We did 
put it to 4.3 cents, as you have been talking about. But, 
previous to that, I think the States were raising their taxes 
much more rapidly than was the Federal Government. Probably 
appropriately so, I would say.
    Senator Baucus. Could you address the needs of Idaho for 
highway maintenance construction? We saw the video of 95 which 
is pretty graphic. As you all know, too, even though our 
interstate construction has been completed, there is going to 
be a time when we will have to reconstruct some of the 
interstate.
    Governor Batt. In viewing an interstate map, it looks like 
to me as if it were designed mainly for east-west passage. And 
whether that is a factor of geography or a factor of commerce, 
I don't know. But there are many gaps in interstate from north 
to south, and that is particularly tough on Idaho here where 
you are riding down the Rocky Mountain Range. We are in dire 
need of a better passage north and south. I don't know if 
that's true of other States or not.
    Senator Baucus. We have our 95, too, in Montana. It's 
called 93. It's a north-south, very heavily traveled.
    Governor Batt. Ours would be much more heavily traveled, if 
we had a good road, but it would be tremendously expensive to 
build it into an interstate. In fact, I don't think it is in 
the cards.
    Senator Kempthorne. Thank you very much.
    Senator Warner. Could I have one more comment?
    Senator Kempthorne. Certainly.
    Senator Warner. You know, Governor, it is interesting. We 
grumbled about the taxes we pay in this country for 
transportation. I understand your State tax is 25 cents. In my 
State is 19 plus 1 in certain areas. That is 20 cents. But in 
Europe it is several dollars tax. In other words, the English 
tax, it's $4 a gallon or $4.50 a gallon. And it's the same 
basic petroleum in the one-world market. They are paying $3 and 
$4 a gallon. So this is another example of where Americans are 
getting very inexpensive energy from taxation, much in the same 
way, Governor, you are producing the finest food in the world 
at the lowest cost to consumer in any industrial Nation, the 
farming industry of this country.
    Governor Batt. Well, you are absolutely correct. We are 
very fortunate in the tax load that we have on us regarding 
user taxes. And maybe we can sustain it at that level, or maybe 
it will have to be increased. But certainly other parts of 
world are paying a much higher percent.
    Senator Warner. What we have to do, and it was right in 
this good video here, we are not putting enough in to keep what 
you have in Idaho in shape, much less expand it and modernize 
it.
    Governor Batt. It is very difficult. I agree.
    Senator Warner. Excellent witness. Thank you.
    Senator Kempthorne. Senator Warner, if we could have shown 
you by air the devastation that has hit so many of our road 
systems because of the flooding and, unfortunately, we have 
still 200 percent snowpack in the mountains. Our ground is 
saturated. We still don't have major mountain areas that are 
stable yet. We are going to continue to see the loss of roads.
    Governor Batt. We should be, and we are, very grateful in 
the State of Idaho for the assistance we have had from the 
Federal Government regarding these disasters. They have 
responded very well. James Lee Witt, who I think is a marvelous 
man, is running FEMA and we have had a lot of help both on our 
highways and our parts of our damage also.
    Senator Kempthorne. Governor, thank you very much.
    Governor Batt. Thank you. Senator Warner, I want to 
congratulate you on turning the same milestone I did. And I 
hope you hang in a long time.
    Senator Warner. I wish they would give us a little more 
respect.
    [Applause.]
    Senator Kempthorne. Governor Batt and Senator Warner, Strom 
Thurmond calls you youngsters.
    With that, let me call forward Jane Garvey, who is the 
Acting Administrator of the Federal Highway Administration. She 
has a great wealth of knowledge on this issue, both at the 
Federal level in her capacity at the Federal Highway 
Administration and as a former Director of the Department of 
Transportation for the Commonwealth of Virginia. Ms. Garvey 
understands this issue from the States' perspective, and I know 
that she has worked closely with Dwight Bower, Idaho's director 
of the Department of Transportation. She is on a first-name 
basis with Dwight and many other State directors around the 
country. We are fortunate to have someone of her caliber to be 
with us today, and I certainly look forward to when it is 
confirmed that you will no longer be acting but will be the 
Administrator.
    And, too, let me also add my personal thanks to you, Ms. 
Garvey. Governor Batt mentioned about the efforts of the 
Federal Government. This is your second trip in about 3 months. 
You were here when we had the last rounds of floods and, again, 
we appreciate that sort of responsiveness. And I appreciate 
your track record and your abilities.
    So with that, we look forward to your comments, and then we 
will have a few questions.

STATEMENT OF JANE GARVEY, ACTING ADMINISTRATOR, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Ms. Garvey. Thank you very much, Mr. Chairman and Senator 
Warner and Senator Baucus. It is a pleasure to be here. And I 
thank you very much for the opportunity to testify in behalf of 
reauthorizing ISTEA. Before I do begin my statement, I would 
like to thank you, Mr. Chairman, and the Governor for the 
hospitality I received both on this trip and when I was here in 
January. And I must say it is wonderful to be back at a more 
opportune time, or at a better time, and great to see the State 
doing so well.
    This afternoon I am here to speak about NEXTEA, the $175 
billion transportation plan announced last week by President 
Clinton and Secretary Slater. As Senator Baucus rightly 
commented, we need to have a proposal that addresses national 
interests and that has national benefits. We believe this 
proposal does have national benefits.
    However, since today's hearing focuses on NEXTEA's 
implications for rural America, I want to emphasize that 
aspect. I also have a more detailed statement that, with your 
permission, I would like to submit for the record.
    Senator Kempthorne. Without objection.
    Ms. Garvey. Many of my NEXTEA's initiatives go directly to 
the heart of rural needs determined by long distances, by 
rugged conditions, and shipment of agricultural products, and 
natural resources. Nowhere, as Senator Kempthorne indicated, is 
the Federal role in transportation more important.
    NEXTEA would help to meet those needs by increasing 
transportation funding to $175 billion, 11 percent over current 
levels, and by distributing those funds based on formulas, 
which we believe strike a fair balance among the needs of 
individual States and regions, a very difficult job. I am 
anxious to see the formulas that you have come up with as well.
    One of the biggest increases in funding, 30 percent over 
current level, comes in the core program, such as the 
Interstate Highway Maintenance Program, the Bridge 
Rehabilitation Program, the National Highway System. Those 
programs are the backbone of the American transportation 
system. They are vital to this region. They are vital to this 
Nation. And NEXTEA reaffirms our commitment to sustaining that.
    We have also increased funding for the Federal Lands 
Highway Program, which builds and maintains roads and national 
parks and forests, on our Native American reservations and 
other public lands. And we are creating new programs to fund 
improvements of border crossings and trade corridors, some of 
which flow through rural areas. Again, I think of some of the 
comments earlier. The north-south connections are the 
connections we really need to focus on. We have done a 
wonderful job east to west with the interstate. North-south is 
the area we need to focus on next.
    NEXTEA would continue our efforts to protect the 
environment, increasing funding to help communities clean up 
the air and continuing investment in recreational trails, 
bicycle paths, scenic byways and other programs which cost 
relatively little but which greatly improve our quality of 
life.
    NEXTEA would sustain funding for ITS, Intelligent 
Transportation System. And although much of the publicity for 
these technologies has focused on cities, they do have strong 
benefits for the rural areas as well. In fact, there are 28 
federally aided rural ITS operational tests under way, part of 
the Nation-wide total of about 60 ITS projects in rural areas. 
Here in Idaho, for example, the Storm Warning Operation Test on 
I-84 will use sensors to provide accurate information on 
weather and road conditions.
    Among other possibilities for ITS are Mayday services for 
faster emergency responses on isolated roads, rural transit 
dispatching using global positioning on satellite systems, and 
tourist information services as well. NEXTEA would reemphasize 
or emphasize research and deployment of these applications as 
well as vehicle center technologies, such as collision 
avoidance.
    NEXTEA is also about making travel safer. A 
disproportionate share, about 60 percent, of highway fatalities 
are on rural roads. Everything from higher speeds to longer 
emergency response time contributes to this. Regardless of the 
cause, it is unacceptable. NEXTEA does increase highway safety 
authorizations by more than 25 percent. It would include a 6-
year $3.2 billion to improve highway rail grade crossings and 
eliminate road hazards. It would give States the flexibility to 
target those funds, as well as other safety programs, if they 
are more effective.
    Finally, NEXTEA would continue to bring common sense to the 
delivery of the services to our State and local partners. For 
example, we want to streamline the 23 state-wide and 16 
metropolitan planning factors into seven broad goals that 
States and localities can use to guide their planning. We want 
to expand our planning inclusiveness by ensuring that concerns 
of rural communities and trade shippers are heard. We would 
like to give States and localities greater flexibility so that 
they are making the decisions on how best to spend their funds.
    I appreciate Senator Warner's question to the Governor. I 
think that is the heart of it, what are some specific 
suggestions. We think we have gotten at some, but maybe not all 
of them. We would be interested in seeing that ourselves.
    And, finally, to cut back on reporting certifications and 
other paperwork that especially burdens rural States with 
smaller transportation agencies.
    Let me close by saying that while we were developing our 
proposals we asked our partners, we asked our constituents, the 
American people, what it should include. They told us that we 
should continue as many Federal programs that work, but we 
should make improvements where necessary, and we should create 
some new initiatives to meet the challenges of the new century.
    At its heart, NEXTEA is about more than roads and bridges. 
It is about cutting-edge jobs. It's about getting people to 
work. It's about providing safety on our highways, and it's 
about the communities we share and steps we have to take to 
make those communities both safer and cleaner for our children.
    Mr. Chairman, we in the Administration look forward to 
working with Congress and working with this committee in 
particular to shape a proposal that can take us into the 21st 
century.
    With that, thank you very much for inviting me here today. 
I had a wonderful, wonderful visit. Thank you.
    Senator Kempthorne. Ms. Garvey, thank you very much. I am 
going to start our clock under the 5-minute rule. Each of us 
will have 5 minutes in a round of questions.
    Ms. Garvey, at the last full committee hearing where 
Secretary of Transportation Slater testified, he stated that 
the Department of Transportation was fully aware of the western 
perspective and the problems that we have in the West. He said 
that we would see that reflected in the documents that come 
forth. I set that up as a preface to referencing then what the 
Administration ultimately came forward with in NEXTEA. It took 
ten of the most rural States and cut their funding formula. It 
cut the State of Washington's formula. And yet there were other 
States, New York, New Jersey, Pennsylvania, where it actually 
increased their share.
    Now, to put this in perspective again you saw the video of 
the State of Idaho. If you go from the Canadian border down 
Highway 95 to the Nevada border, it is about 535 miles, one 
State, 1 million people. Contrast that from going from Boston, 
Massachusetts, I am sorry, I stated Virginia, but you are from 
Boston, Massachusetts, to Washington, D.C., is about the same 
mileage, 535 miles, and yet you go through nine States with 
tens of millions of people. Same distance. But you can see that 
there is a real dilemma in trying to come up with the funds 
necessary to keep Highway 95 in shape versus the other assets 
that you have on the eastern seacoast.
    So can you tell us, why does that happen, and can we expect 
that the Administration is going to revise these numbers?
    Ms. Garvey. Well, first of all, let me begin by saying that 
the issue of formulas is among the most difficult. And what we 
tried very hard to do is balance out the needs of both the 
donor States and donee States. We looked at the factors. We 
tried to update--we in fact did update a number of the factors. 
I think one of the factors, for example, population, we were 
using 1980 numbers, and we have updated it. And we have also 
provided three equity pieces to our formula as well. And we 
have made some donor States happy, some not so many happy. We 
have satisfied some of the donee States, and some of the 
others, as you have indicated, may not be happy. We've tried to 
strike a balance. I think we'd like to say we have certainly 
not found the answer. We think this is, the formula that we 
have come up with, will be part of the debate. And we think 
it's going to be something that's going to take a great deal of 
discussion and a great deal of working with Members of 
Congress. I think we want to be there with you. We want to add 
those factors to the debate. But, we know we haven't found the 
silver bullet.
    Senator Kempthorne. I haven't found the 5-minute deal 
either.
    [Laughter.]
    Senator Kempthorne. I say that because 10 of the most rural 
States, that's 20 votes, and that's just a beginning. And I 
don't think the Administration is reflecting that it 
understands the problems with rural America. Let me ask you, 
too, we talked about the devastation that all of these roadways 
are having. And yet the funding for the emergency funds for 
roads to construct has been flat for a number of years, and it 
remains flat. Do you anticipate seeing any increases there?
    Ms. Garvey. The proposal that we put before Congress does 
contain flat funding and in part because it is so hard to 
predict what is going to happen in the emergency area. And we 
have had wonderful cooperation from Congress, and when we have 
gone forward to Congress with specific requests, we have been 
very successful. And we expect we will be in the future. We 
have a supplemental budget that is coming forward to Congress 
very soon to deal with some of last year's issues, and we 
expect the Congress to be very helpful as they have in the 
past.
    Senator Kempthorne. I will make this my final question in 
this round, and that is dealing with the National Recreational 
Trails Act. It really, up until 2 years ago, really never had 
been funded. So 2 years ago we finally secured funding, $15 
million annually. That is based on a trust fund, another one of 
these dedicated accounts for the off-road vehicles the gas tax 
has collected. So why is it that the Administration comes 
forward and now cuts that in half, which is very clear that 
once again we are violating the word ``trust'' in trust fund. 
And, again, I discussed this with Secretary Slater, who said he 
understood what we were saying, that we would have a 
discussion. We had no discussion, and I see that it has been 
cut in half. And I have to say that if we keep making a hoax 
out of trust funds, then I have to question why we have trust 
funds.
    Ms. Garvey. The Recreational Trails is one I know is 
important, not only to this State but also to the region. We 
had two very important goals when we approached that issue. One 
was because of the very point you made earlier; it wasn't 
funded up until 2 years ago. One was to provide contract 
authority so that States could count on it. So it was a 
consistent source of funding. We also wanted to increase the 
flexibility and allow States to match other Federal funds for 
their local or State match. We were able to do that. We also 
know that it is eligible under transportation enhancement, as 
well as some pieces of it under the STP program. But we know 
that the level of funding is something that Congress will look 
at, and again we expect that will be part of the debate as we 
move through the next few months.
    Senator Kempthorne. Again, these are not critical 
statements directed at you. But I think it demonstrates why you 
will see legislation such as Senator Baucus and I are going to 
be offering, because the Administration's view of the West 
doesn't match.
    Ms. Garvey. Senator, with all due respect, I look forward 
to those discussions. I do think there are a number of elements 
that support your position and Senator Baucus's position as 
well. I think some of the ITS and some of the core programs. 
But, again, we look forward to more discussions with you and 
ways to make it better.
    Senator Kempthorne. You are a good team player.
    Senator Warner?
    Senator Warner. I defer to my colleague.
    Senator Kempthorne. Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Garvey, I very much appreciate the statement when you 
particularly indicated efforts to understand and respect the 
interests of the West. And I know this is not your decision. 
You are part of the big team. You have the transportation 
secretary to talk to OMB, there are lots----
    Ms. Garvey. You mentioned the magic words.
    Senator Baucus. Right. You have got a lot you have to deal 
with here. But I am just curious, why did the Administration 
come up with a bill, NEXTEA, which lowers the proportion of 
highway funds that western States would receive as compared 
with current law? Are there some reasons behind that that we 
don't quite fathom here?
    Ms. Garvey. Well, again, with the point I made earlier 
trying to describe some balances between the donor and the 
donee, and some States do better when you go west of the 
Mississippi; some don't do as well as we would like.
    Senator Baucus. Right. But I was curious if there were any 
reasons why.
    Ms. Garvey. It really was trying to strike a balance and 
trying to strike a middle ground between the donor and the 
donee States.
    Senator Baucus. Right. But, why a balance tilted more 
toward them against us?
    Ms. Garvey. I will say some of the southern States have 
expressed the same thing, depending on where you are, some of 
the same concerns.
    Senator Baucus. Let me get at this a little bit 
differently. The current program is ISTEA and NEXTEA, which 
really is an extension of ISTEA, to a large degree emphasizes 
population, State population. Doesn't it make more sense for 
the formulas to reflect not so much population of the States 
but rather lane-miles, that is NHS lane-miles and interstate 
lane-miles, combined with vehicle miles traveled, that is, 
actual use and needs of highways rather than population of 
States? Because often the larger States people use other forms 
of transportation, sometimes trains, mass transit, so forth. 
Whereas, here in the West we rely much more heavily on 
highways. Just theoretically, do you think that makes more 
sense or not, or do you have a particular problem with that 
concept?
    Ms. Garvey. And for the interstate, lane-miles is one of 
the factors and is considered. I think that is a good point. 
The NHS debate, and some of you were even closer to it than I 
was, there was a great deal of discussion about what should be 
a factor. And the issue of lane-miles was something that was 
debated at that time, and we had a lot of concern from 
individual Senators and Congressmen of not making it the way 
that we would determine the NHS. We have been trying to respect 
that point of view as well.
    Senator Baucus. I mention that point in part because this 
is a program supported by users, people who pay gasoline taxes. 
And it seems to me there should be a more direct connection 
between those who pay gasoline taxes and those who use the 
highways and, therefore, the dollars are apportioned more 
directly to NHS and vehicle miles traveled, for example. Do you 
have a problem with that concept?
    Ms. Garvey. I think we have tried to get at some of those 
issues through our equity formulas which really does deal with 
some of the donee concerns. In other words, for example, they 
have ensured that States receive at least, which is the third 
equity piece, making sure that States are meant to receive at 
least 95 percent of their----
    Senator Baucus. It's averaged percentage--it is averaged 
during ISTEA, right, which we feel does even out some of those 
issues.
    Senator Baucus. What about the number of categories in 
STARS 2000 versus NEXTEA? We are trying to reduce the total 
number of categories, give States more flexibility. Your 
observations about that concept in our bill.
    Ms. Garvey. That is something that I will say is very hotly 
discussed both within the Administration and also at some of 
the forums and outreach sessions that we've had. And we've 
tried to simplify and have simplified some of our programs, 
particularly within the programs themselves. For example, 
Transportation Enhancement is much more streamlined. But we 
still heard, I will say, from mayors, from local communities, 
from officials who said keep CMAQ, keep transportation 
enhancement. It needs at least one more reauthorization to 
really grab hold. We have ended there, we have landed in that 
place and tried to streamline within those programs.
    Senator Baucus. But as a general rule, do you have any 
conceptual problems with our bill reducing the number of total 
categories and allowing more flexibility?
    Ms. Garvey. I certainly think increased flexibility is very 
important. I think it is also important to listen to some of 
the local folks, some of the mayors and so forth.
    Senator Baucus. I was happy to see and understand greater 
interest in rural Intelligent Highway System. I think currently 
it is about 1 percent of the total goes to rural out of $600 
million program. You mentioned in your statement that 30 
percent of highway fatalities are on rural roads. And I think I 
saw in your prepared statement about 10 percent would be 
recommended under ISTEA.
    Ms. Garvey. As a minimum.
    Senator Baucus. As a minimum. With 60 percent of the 
deficit, I hope you can raise that 10 percent----
    Ms. Garvey. I think we will be able to. We are just giving 
a floor and then going from there.
    Senator Baucus. Thank you very much.
    Senator Kempthorne. Thank you.
    Senator Warner?
    Senator Warner. We are very pleased and grateful for this 
key person in this legislation to come out to this beautiful 
part of our country and visit. Let me have a little fun. You 
are in the prime of life, but do you recall in your younger 
days ever playing a game called King for a Day?
    Ms. Garvey. Well, I played Queen for a Day, Senator.
    [Laughter.]
    Ms. Garvey. But I think it is the same principle.
    Senator Warner. You just caught me. Let's play Queen and 
King for a Day. And supposing that the leadership of my two 
colleagues on the left, together with myself and some others, 
we get three or four more billion dollars in this bill. And we 
are pretty well going to write it down to Congress. We've got 
it, and we are going to write it. But we just might call you up 
and get a few ideas of how you would like to prioritize the 
expenditure of another, say, $3 billion over and above what 
President Clinton instructed you, and you have to follow your 
orders, we understand, instructed you to put in this bill.
    Ms. Garvey. I think first and foremost I would probably put 
it into the core program. I think still maintaining the NHS or 
maintaining the interstate. The NHS with its intermodal 
connectors, which I think is one of the most powerful aspects 
of the NHS, the bridges, I think those are very critical needs 
in this country. Personal preference, I am intrigued by some of 
the potential with State infrastructure banks, even with some 
of the lines of credit. I think that offers some opportunities 
for some large projects. That might be some area that I would 
take a look at. But I think the core program is the place that 
I would start first and foremost.
    Senator Warner. Of concern to me has been the present 
infrastructure and the need to keep it modernized and safe. And 
again, coming back to State legislators, well, take myself, for 
example. In ISTEA 1991, Steve Symms, who was my straw boss, 
then--where is Steve? He is out there somewhere. We, in the 
final hours of the bill, about four o'clock in the morning, 
each of the members of conference, and I was a member at that 
time, we were told you get X millions and you can do what you 
want with it for your State. And it quickly flashed before my 
mind that I think I might go build a big interchange and have 
it named the John Warner Interchange, you know, memorialize 
myself. So what did I do? I directed it all be given to the 
Governor with the earmark it had to go into refurbishing the 
current infrastructure of our interstate system, shoulders, 
everything else. And guess what I got out of it? They called me 
``Pothole Johnny.'' And that was the memorial that I got out of 
it.
    But if I had to do it again, I would do it that way. And 
there's a tendency among State legislators to say I am not 
going to get elected, he or she is not going to get elected on 
filling in the potholes and making a strip of roadway safer. 
But, boy, if I put a new piece out here and go to cut the 
ribbon, and everybody is there and says well, look what he or 
she brought, that's big times. My inclination is to see that 
considerable portion of this money goes into making what we 
have safe. Would you join us on that?
    Ms. Garvey. Oh, absolutely. And, in fact, some of the 
provisions within our interstate maintenance program and the 
bridge program really emphasize rehabilitation, making it, 
frankly, almost impossible to flex out because it is so 
important to maintain the system that we have.
    Senator Warner. Let me go for another, back to the king and 
Queen for a Day. My good friend here works with me on the 
Senate Armed Services Committee. We have served together, and 
how pleased we are to have an Idaho senator on that important 
committee. And I am chairman the Sea Power Subcommittee, which, 
of course, is ship construction. And my State happens to have 
the largest naval base in the world. And, therefore, I have a 
little bias in that direction.
    We will be building new ships this year, new aircraft, and 
the modern ship or aircraft takes basically 10 years from 
concept through operational status in the United States Navy 
fleet, which means it goes to sea to do its mission, 10 years. 
I can understand an aircraft carrier. If you haven't been on 
one, we can arrange that. You go on and look at the 
electronics, the elevators, the catapults. It is fantastic what 
takes place. You go look at a modern jet fighter and everything 
that is built in that. Yet it takes the same amount of time 
from the concept to the delivery for a new highway. There is 
something wrong. That highway is not as complicated as an 
aircraft carrier or modern plane. Now, what are you going to do 
to help cut down that amount of time and get out Federal 
interference so that these State highway directors can go ahead 
and build it?
    Ms. Garvey. I was just speaking with Director Dye a few 
minutes ago about that very issue. We just finished something 
in Federal Highway that I think holds a great deal of hope, and 
that is work over the last 6 months or so to identify how we 
can streamline the environmental process. We have worked with 
our sister agencies, and we have worked with some State DOTs. 
As a matter of fact, I brought a copy. We are going to get 
copies for all the members of the committee. But, I happened to 
be reading it on the plane. And I think just the cover of it 
says something, which is it shows all of the agencies that are 
involved in any project. And just the number that are suggested 
on the cover I think really illustrates part of the problem.
    Senator Warner. What is this document?
    Ms. Garvey. We have----
    Senator Warner. Who is we?
    Ms. Garvey. Federal Highway----
    Senator Warner. Just put out?
    Ms. Garvey. Yes, just literally printed. In fact, I think 
it is the last thing that Rodney Slater put out as 
Administrator.
    Senator Warner. And it just describes the problem which I 
have recited, or the solution?
    Ms. Garvey. And makes some recommendations for how we can 
make it better.
    Senator Warner. Who are you recommending it to, the 
Congress? Why don't you do it yourself? You are the executive 
branch.
    Ms. Garvey. Yes, that's it exactly. The recommendation is 
to us, and we are going to set a time line in place and put 
them in play. But I thought that some of the members might be 
interested in what State DOTs and Federal agencies are saying.
    Senator Warner. This is a direct product of the feed-in 
from State highways----
    Ms. Garvey. Exactly. But there are some very specific 
recommendations to shorten the process and----
    Senator Warner. That is good. I commend you for that.
    MS. GARVEY:--get moving on that.
    Senator Warner. You say you are going to leave us one of 
these beautiful purple copies?
    Ms. Garvey. The choice of color, it is an interesting one, 
isn't it?
    Senator Warner. What is purple?
    Ms. Garvey. I don't know. I was actually thinking this is 
the best indication that I may actually get the job. It looks 
like my color.
    [Laughter.]
    Senator Warner. An older lady one time who said the 
hallmark of royalty is purple.
    Ms. Garvey. Well, there you go.
    Senator Kempthorne. Senator Baucus or Senator Warner, any 
other questions?
    Senator Warner. No. Excellent testimony.
    Senator Kempthorne. Indeed it was. Ms. Garvey, thank you so 
much. We appreciate you.
    Let me then invite the next panel to please come forward. 
While they are coming forward, I ask unanimous consent that we 
make part of the record a statement from Governor Jim Geringer 
of Wyoming and a statement of Senator Craig Thomas of Wyoming, 
and that we will leave the record open for a period of 10 days 
so that anyone who wishes to submit to us written comments, 
those comments will be made part of this record. And I note 
that Congressman Mike Crapo of the Second District wished to 
make a statement part of this record. So without objection, 
that will be our order.
    [The prepared statements follow:]
          Statement of Governor Jim Geringer, State of Wyoming
    Thank you for this opportunity to present Wyoming's views for 
consideration in shaping the Federal surface transportation program 
legislation.
    The state of Wyoming wholeheartedly supports the proposed Surface 
Transportation Authorization and Regulation Streamlining Act (STARS 
2000) being prepared for introduction by Senators Thomas, Baucus, 
Kempthorne and others. I commend these senators for their strong 
leadership in developing this important legislation that addresses both 
the needs of the Nation and the unique needs of rural western states. I 
know Senator Thomas has worked very hard on this bill, and we will 
fully support his efforts in the reauthorization process. You will 
receive combined testimony today from the Transportation Departments of 
Idaho, Montana, North Dakota, South Dakota and Wyoming. The state of 
Wyoming endorses that testimony and urges the Committee to give it full 
consideration.
    I want to extend my appreciation to you, Chairman Warner, for your 
efforts in advancing the national interest in surface transportation 
reauthorization legislation. You and Senators Thomas, Kempthorne and 
Baucus are making great strides to obtain higher levels of Federal 
highway funding to address the nation's transportation needs. I commend 
you for conducting this hearing and obtaining firsthand knowledge of 
Federal highway issues important to western states.
    First, I want to comment on the importance of securing funding at 
the highest possible level, given the constraints of the Balanced 
Budget Amendment, the ``Byrd Rule'' and limits on total discretionary 
spending. I believe this level could be as high as approximately $26-
$27 billion annually and remain within these constraints while being 
fully supported by revenues in the highway trust fund. This is a 
dedicated tax, paid by users who expect to see their taxes used for the 
intended purpose of financing highways. In addition, returning the 4.3 
cents currently used for deficit reduction to the highway trust fund 
would restore the public ``trust'' in the Federal highway trust fund 
program and provide revenues needed to meet accelerating highway needs. 
Let me elaborate on some important funding and related issues.
    Reauthorization should reaffirm a strong Federal interest in the 
nation's transportation system by making the National Highway System 
the focus for Federal investments. STARS 2000 provides over fifty 
percent of its funding authorizations for the National Highway System 
program. This is an appropriate investment of Federal highway funds to 
ensure the nation's highway system is well connected to efficiently 
move people and goods. The National Highway System is not intended to 
be a metropolitan or local transportation system, but rather state and 
national in scope. The system requires formula factors that emphasize 
extent and usage of the NHS and fosters national needs over provincial 
interests. STARS 2000 provides an equitable distribution formula based 
on interstate lane miles, interstate vehicle miles of travel, NHS lane 
miles, NHS vehicle miles of travel, and diesel usage.
    Federal surface transportation funding should be distributed in a 
manner that reflects the national interest in rural and intercity, as 
well as urban, transportation. A donor-donee relationship will need to 
continue in order to fairly recognize these interests. Wyoming is a 
donee state, but it also has the highest per capita contributions to 
the Federal highway trust fund. This clearly reflects the plight of low 
population states with large Federal land holdings. These rural states 
simply cannot support, and should not be expected to support, extensive 
Federal highway systems without adequate Federal funding.
    The national interest in Federal lands and the responsibilities 
that go with vast Federal land ownership must be recognized in Federal 
authorizations. The Federal Government owns over 49 percent of the land 
area in Wyoming, including Yellowstone National Park, Grand Teton 
National Park, and seven national forests. Twenty-nine percent of the 
state highway system crosses Federal land. These national treasures are 
for the benefit of all citizens and require appropriate Federal funding 
to provide adequate access to them. Improving and maintaining highways 
across these Federal lands is very expensive. Terrain, environmental 
issues, Federal regulations, and recreational and wildlife mitigation 
compound the ``normal'' highway improvement costs.
    Movement of the nation's commerce across ``bridge'' states is 
profoundly evident on Interstate 80 through southern Wyoming. A 
snapshot of the traffic at any time, day or night, reflects the 
disproportionate amount of heavy truck traffic compared to automobile 
traffic. The route is truly a bridge between west coast population 
centers and the Midwest.
    New legislation must also reduce Federal regulations, mandates, and 
set-asides and increase flexibility for state and local governments. We 
are pleased that the STARS 2000 legislation goes in that direction.
    The inclusion of demonstration projects by Congress and 
discretionary funding for the administration has been discouraging to 
the state of Wyoming. Federal legislation and subsequent rules and 
regulations have always dictated certain state and local planning 
requirements for transportation infrastructure improvements. Setting 
aside large portions of any funding for demonstration and discretionary 
projects undermines both the funding available and the planning process 
for the states. It is very important that any legislation keeps these 
types of projects at a bare minimum.
    During the process of debating transportation reauthorization 
legislation, many issues will come forward. I urge Congress to remain 
focused on the national interest in transportation and strongly 
consider the national benefits of STARS 2000.
    Thank you.
                               __________
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    I thank Chairman Warner for holding this field hearing today and 
for his leadership on this important issue. While I am not able to 
attend, I am sure it will be a productive session for the subcommittee 
and will provide an outside-the-Beltway view of our country's 
transportation needs as well as some ideas about how to best satisfy 
those requirements.
    In my view, the current ISTEA law was a helpful first step toward 
shaping transportation policy to take this country into the 21st 
century. It maintained a national commitment to transportation, but 
made some necessary changes to surface transportation policies. 
However, it failed to address important issues that will make our 
transportation program more flexible and efficient in order to respond 
to changing transportation needs.
    It is important that we examine our country's transportation 
infrastructure funding requirements because they are significant and we 
should be doing more to meet them In fact, testimony submitted for this 
hearing by my good friend, Wyoming Governor Jim Geringer, will explain 
that 44 percent of the roads in my state of Wyoming are in fair to poor 
condition. In addition, the State's highway repair and maintenance 
needs total $50 million per year more than the state can address. Those 
figures do not include Wyoming's infrastructure needs in the Federal 
lands highway program. The Federal Government owns 5O percent of the 
land in my state and those roads have substantial funding requirements 
as well. Wyoming is a ``bridge'' state; goods are transported from 
their source, across Wyoming, and to their final destination. A set of 
efficient and well maintained roads are as important to the cities that 
export goods across the country and around the world as they are to the 
people of Wyoming.
    I am also concerned about the infrastructure needs of our national 
parks. The majority of Yellowstone National Park's roads are 
structurally deficient. As one of the crown jewels of the national park 
system and host of more than three million visitors annually, this 
situation is unacceptable. In fact, the Park's to year plan includes 
$250 million in road funding requirements. However, Yellowstone only 
receives roughly $8 million in transportation funding annually to meet 
these needs.
    Unfortunately, the Clinton Administration's bill, the National 
Economic Crossroads Transportation Efficiency Act (NEXTEA), doesn't 
meet these challenges. The Administration in testimony this year has 
indicated that an annual investment of $50 billion is required from all 
levels of government to maintain current conditions of our highways and 
bridges. It has also stated that we are currently providing only 70 
percent of what is necessary achieve this goal. NEXTEA does little to 
close this gap.
    A more flexible program structure is another important goal I would 
like to achieve during the reauthorization of ISTEA. We should allocate 
a greater percentage of overall funding within the discretion of States 
officials. This will allow them to focus on their priorities, not the 
Federal Government's.
    Congress and the Administration also need to reduce Federal 
regulation of state and local governments. We took a big step forward a 
year and a half ago under the National Highway System Designation Act, 
but more work remains to be done. We need to simplify prescriptive 
interpretations of Federal regulations by several Federal agencies. We 
should also consider initiatives that review and reduce obsolete and 
unnecessary regulations on state and local governments. This will 
ensure that American taxpayers will get more for their fuel tax 
dollars.
    Finally, Senator Baucus, Kempthorne, and I plan to introduce the 
Surface Transportation Authorization and Regulation Streamlining Act 
(STARS 2000) shortly after the Easter recess. It is a comprehensive 
reauthorization of the highway portion of ISTEA. It will reflect the 
national interest in transportation investment--in our own states and 
across the country. STARS 2000 will meet the transportation challenges 
of our next century by making a strong Federal investment in 
transportation, streamlining program structure and reducing 
regulations.
    Again, Mr. Chairman, I am pleased you are holding this hearing so 
the subcommittee can explore these important national issues.
    Senator Kempthorne. Please come forward.
    With sincere welcome to all of our gentlemen here before us 
on this panel, not only people with great expertise but great 
friends as well. With that let me call upon our first witness. 
And, too, your formal statements will be made part of the 
record. So what I would ask is to the extent you can, just 
abide by the 5-minute rule. As you see that we are in the 
yellow or red, why, if you can, try to begin to conclude your 
remarks. Then we will open it up for a series of questions.
    We will start with Idaho Senator Evan Frasure, who is the 
Chairman of the Senate Transportation Committee.
    Evan, welcome, and we very much look forward to your 
comments.

  STATEMENT OF HON. EVAN FRASURE, A MEMBER OF THE IDAHO STATE 
      SENATE AND CHAIRMAN, SENATE TRANSPORTATION COMMITTEE

    Senator Frasure. Thank you, Mr. Chairman and Senator Warner 
and Senator Baucus. We appreciate you being here, and welcome 
to Idaho again. I appreciate the opportunity to speak on the 
reauthorization of ISTEA.
    In 1995 the Idaho legislature created an interim committee 
and along with the Representative JoAn Wood and myself. We had 
members from not only the legislature. It was kind of a unique 
panel. It included members from the Idaho Association of 
Cities, counties, highway districts, as well as the 
transportation department. And we were charged with the 
responsibility of going out and analyzing the needs here in 
Idaho.
    We held 13 hearings. And we spent all summer and fall in 
1995 going around the State with these hearings and allowing 
citizens to tell us what they felt was important about Idaho 
transportation. And it was interesting. In that process the 
committee spent a great deal of time analyzing the condition of 
the Idaho roads, and we analyzed the amount of funding that was 
available and what it would take to correct these deficiencies. 
And the final report was a good report and justified some 
adjustments we made here in our Idaho tax structure.
    Among the reports that we studied was the assessment study 
update that the Governor referred to. Governor Batt mentioned 
the $4.1 billion of backlog needs. The actual study showed 
through the year 2000 an $8 billion problem just to bring our 
roads up to standards. By way of example, U.S. 95 in that study 
was $334 million, and that was simply to create a 34-foot wide 
road with shoulders. We are not talking interstate quality 
roads here by any stretch. That was simply to bring that up to 
a reasonable standard.
    In 1996 the Idaho legislature, our recommendation was 
followed by the legislature, and we increased the fuel tax by 4 
cents, as well as an increase in our registration fees. These 
fuel tax and registration increases were put into what we call 
a restricted highway account. Those funds could only be used 
for pavement and for bridge improvements and road and safety 
crossings. And this new money added about 34 million to the 
structure. Which as you can see, 34 million staring at an $8 
billion backlog certainly didn't address it by any stretch.
    Here in Idaho all of our funds that are generated through 
our user fees are dedicated to roads. Those are supplemented by 
a great deal of property taxes locally, and here in Idaho we 
are doing all we can to address those needs.
    Now, as you go through the process here, we appreciate 
Congress designated 2350 miles of Idaho roads as a part of that 
National Highway System, and those roads are of great 
significance here in the State. And when you add that as part 
of our total interstate system, we have a great deal of 
national responsibility, with the passage of NAFTA, going north 
and south. We haven't addressed those needs. And 95 is a big 
point for us.
    As I stated, the legislature and the citizens of Idaho are 
making a strong commitment to good transportation, both for our 
State as well as the Nation. The Federal Government, in my 
humble opinion, should increase their efforts to make sure that 
the Federal dollars are committed to ensure our transportation 
system is a safe system, very functional.
    For a number of years the State and local governments have 
proven to be a major source of funding. When we take a look at 
the national funding level and we see the 20 billion that is 
currently being spent, I would certainly concur and encourage 
you to increase that by using all the trust funds up to the $26 
billion level. And by making that commitment and making sure 
that the dollars that are used as a user fee on the national 
level are spent not to the General Fund but to our roads would 
be a great improvement for us.
    And, Mr. Chairman, with that I know that you have a lot of 
folks to hear from today. I have some examples, in my opinion, 
of Federal waste that could be redirected. But, I will 
certainly answer any questions.
    Thank you, Mr. Chairman.
    Senator Kempthorne. Great. Thank you very much.
    Let me now call upon Mr. Jim Kempton, representative of the 
Idaho State Legislature. Representative Kempton is Chairman of 
the House Transportation and Defense Committee.

 STATEMENT OF HON. JIM KEMPTON, A MEMBER OF THE IDAHO HOUSE OF 
REPRESENTATIVES, AND CHAIRMAN, HOUSE TRANSPORTATION AND DEFENSE 
                           COMMITTEE

    Mr. Kempton. Thank you, Chairman Kempthorne, Chairman 
Warner, Senator Baucus. I would like to thank you all very much 
for coming into Idaho. Senator Warner, I spent 6 years running 
the highways and byways of the great State of Virginia, and I 
am glad to have you in the State of Idaho.
    Senator Kempthorne, one thing that wasn't shown in the 
video was the Snake River and the canyons that also divide the 
State in the south and divide it longitudinally. For a State 
with a general fund account of 1.4 billion, the estimate to 
bring Idaho roads to Federal standards by the year 2000 is over 
8 billion. That amount does not include money that would be 
required to fund road and bridge construction for NAFTA traffic 
diverted over the State highway system as a result of Federal 
interstate weight limits.
    Last session, Senator Warner, in an election year, I 
carried a 4 cent gas tax bill on gasoline and diesel fuels in 
response to the Idaho Needs Assessment Study, which indicated a 
need of the 8 billion. The Idaho Transportation Department had 
demonstrated an ability to reverse highway deterioration trends 
by accelerating maintenance and resurfacing. That bill passed 
narrowly in the House, and with the Governor's help passed by 
one vote in the Senate. State fuel tax is now 25 cents, and the 
additional dollars from the 4 cent gas tax are directed totally 
to roads and bridges, no administration.
    This past legislative session I was forced to break a 
transportation committee tie vote which would have allowed 
truck weights to increase from 105,500 pounds to 129,000 pounds 
on State highways. Like the 4 cent gas tax, this was a tough 
decision. The economy in my area is agricultural based and is 
beginning to anticipate increased losses resulting from 
Canadian trucks above 105,500 moving agricultural products from 
newly established processing plants in Canada to ports and 
population centers in and near the United States.
    So I guess the question is, why didn't we go to 129,000 
pounds? There was no increase in truck weight, as far as the 
imprint, and there was no increase in the length of the 
vehicles themselves. It is because the government has failed to 
establish an interstate transportation weight limit policy, 
which would interconnect with expanded weights on the State 
highways. This is not a chicken and egg issue. The suggestion 
the States lead the way in motivating the Federal Government to 
increase interstate weight limits is a specious argument. 
States did not negotiate NAFTA, and States cannot independently 
establish the national transportation corridors, albeit it will 
be required to implement the act.
    For example, southern Idaho agricultural products 
transported at 129,000 pounds cannot connect to west coast 
ports through Oregon or through the Idaho inland Port of 
Lewiston by Highway 95. North-south NAFTA traffic at 129,000 
pounds could take place through Montana, Idaho, or Utah south, 
but heavy commercial traffic through Idaho would be on roads 
which were never designed to handle commercial traffic of this 
volume and weight. The twisting, narrow surface, small-town-
connected State highway system is not where heavy-weight 
mainline commercial traffic of the 21st century should be 
directed.
    On a separate matter, Idaho is a State where 64 percent of 
the land is federally owned and regulated for the benefit of 
the Nation as a whole. The increasingly heavy recreational 
traffic is having a significant impact on State and county 
roads leading to popular recreational areas. Last Wednesday I 
read in the paper where fees were going to start being charged 
in the Sawtooth National Recreation Area and other Forest 
Service and BLM select areas to help provide money to 
supplement diminishing Federal funding. It goes without saying 
that none of that fee money will be directed to the road 
structures passing in, out, and through these high density 
recreation areas.
    In my county a narrow two-lane paved road to the City of 
Rocks National Reserve is maintained by an unorganized highway 
district with no tax base. The road, constructed parallel to 
part of the California Trail, is rapidly deteriorating, and yet 
services to both a national and international population of 
visitors has to be served. Not unlike other State and county 
roads serving the goals of Federal land use, no funding 
resolutions are in sight.
    Appropriations from the Federal Highway Trust Fund remain a 
vital issue in adequate funding of the Idaho transportation 
system. Idaho is a net receiver State under the present ISTEA 
funding formula, without which funding the State would have 
moved even further behind the 8 billion shortfall line. This 
not a supposition. It is a fact.
    Hopefully, the reauthorization of a new surface 
transportation act will give consideration to the uniqueness of 
the individual States. Certainly, the introduction of STARS 
2000 as a successor to ISTEA is a logical and much appreciated 
step in integrating urban and rural factors affecting all 
facets of an efficient national transportation system.
    I would like to be one of many to thank you, Senator 
Kempthorne, Senator Baucus, and others who are working for the 
introduction of STARS 2000.
    Finally, use of the Highway Trust Fund to balance the 
Nation's budget is an unfortunate abuse of tax revenue 
collected for highway users across the Nation, as are executive 
branch expenditures for roads and bridges in amounts less than 
apportioned by Congress for the same purposes. Even more 
unfortunate would be the expansion of Federal Highway Trust 
Fund expenditures to include AMTRAK operations and mass transit 
operations.
    Two additional comments concerning the Federal Highway 
Trust Fund. First, funding for the fund should attain a higher 
level; $26 or $27 billion would not be excessive. Second, the 
4.3 percent Federal gas tax going to the General Fund should be 
redirected to the trust fund. To do less is to foster the 
widely held belief that ISTEA has fallen short as an equitable 
funding process leading to achievement of State and national 
transportation's goals. Certainly this is no time to suggest 
the toll taxing the Federal Highway System is the next order of 
business.
    Mr. Chairman, members of the Committee, you have a 
difficult task ahead. I wish you the best in your 
deliberations. Economic security of this Nation literally rides 
on the vision you have for a future transportation system that 
will fairly and efficiently serve these United States. Thank 
you again for visiting Idaho.
    Senator Kempthorne. Representative Kempton, thank you very 
much for your comments.
    Let me now call upon Commissioner Jack King from Shoshone 
County, who is president of the Idaho Association of Counties. 
Commissioner.

  STATEMENT OF JACK KING, COMMISSIONER, SHOSHONE COUNTY, AND 
            PRESIDENT, IDAHO ASSOCIATION OF COUNTIES

    Mr. King. Mr. Chairman, Senator Warner, and Senator Baucus, 
as the Chairman has just stated, I am a commissioner of 
Shoshone County and president of Idaho Association of Counties. 
And I would just like to state as not a spokesman of NACO, but 
the Idaho Association of Counties backed the NACO position for 
reauthorization. As you might remember here a few weeks ago, we 
came upon the capital building to petition that you reauthorize 
ISTEA.
    So with that, the Idaho Association of Counties is 
supportive of the reauthorization of ISTEA. The program allows 
for improved flexible funding of transportation infrastructure, 
and there has been improvement in participation by local 
highway jurisdictions in Idaho in prioritizing projects as well 
as overall planning on a state-wide basis.
    A greater percentage of funds should be earmarked for 
roads, bridges, and railroad crossing improvements. In Idaho 
there is a need for local bridge replacements and 
rehabilitation projects which far exceed the available funding 
for that program. The money for State planning and research 
exceeds the money available for bridge replacement projects at 
2.2 million to 1.3 million. The counties would like to see more 
money for bridge replacements and rehabilitation.
    The counties feel that the Highway Trust Fund should be 
taken off the budget to protect it from being used to reduce 
the Federal deficit. The money collected from the sale of fuel 
should be used for maintaining and operating the road system, 
not for political purposes. The Idaho Association of Counties 
supports the ability to use the surface transportation formula 
funds on both rural and urban road systems. More local input is 
needed in prioritizing expenditures of these funds, and they 
should focus on the local road system.
    Transportation planning is very important on regional, 
statewide, and local levels and must take into account all 
modes of travel to protect the integrity of the roads system, 
as well as all of the transportation system to individuals not 
desiring to use automobiles.
    Since the Highway Trust Fund is supported by the user fees, 
the emphasis of future legislation should be to protect the 
highway infrastructure within the Nation and States. The 
counties support giving local highway jurisdiction and ability 
to set their own priorities on transportation issues and 
greater voice and flexibility in influencing transportation 
plans that satisfy local needs. We would like to continue to 
have Federal policy recognized and require that local officials 
play a prominent role in local and regional transportation 
plans.
    We believe that the process and the procedures on 
Congestion Mitigation/Air Quality and enhancement programs 
should be streamlined to help improve the deliveries of funds. 
We also hope that the reauthorization of ISTEA would simplify 
the system of design review, projects approval and regulations 
that State and local MOPs and citizens have to go through to 
get projects going. The reauthorization should move the Federal 
Government away from its role of reviewing projects and setting 
design standards to have oversight without sacrificing 
environmental safeguards particularly when multiple reviews 
substantially increase the cost of particular projects.
    The Federal Lands Highway Program. This program works well 
in Idaho for those local highway jurisdictions who receive 
significant benefit from the program and the reconstruction and 
rehabilitation of roads accessing our Federal lands. Over 60 
percent of Idaho is owned by the Federal Government, and the 
access to public lands for recreation and tourism is 
increasing. The program along with the Public Lands 
Discretionary Funds is a significant support to the 
deterioration roadway transportation system in Idaho. We fully 
support reauthorization.
    We feel that the portion of ISTEA dealing with the hold 
harmless provision is discriminatory. The roads on which these 
funds are used are for access to public lands owned by the 
Federal Government. Penalizing Idaho for using these funds on 
access roads for the overall public of other highway programs 
under ISTEA is unfair.
    We would like to see it eliminated. We would like to see 
the communication between the Federal Government and the local 
highway jurisdictions improve. By allowing us to assist in 
prioritizing our projects could be helpful both to the local 
jurisdiction and Federal Government. Working together for an 
overall transportation need for the State will lead toward 
better relationship between Federal Government and local 
highway jurisdictions in Idaho.
    In Idaho one thing that should be considered in various 
programs is that by using Federal dollars there is relatively 
high design standards which do not enable funds to go as far in 
construction of roads in mountainous territory. Also, once 
completed, they become the responsibility of local 
jurisdictions which are truly limited in ways to raise revenue. 
Some flexibility would be beneficial as well as considering 
giving assistance to local jurisdiction with maintenance of the 
system.
    And with that, I appreciate the opportunity to be here, 
Senators.
    Senator Kempthorne. Commissioner, thank you very much.
    Let me introduce now Mr. John Beaudry, who is the Planning 
Director of Stillwater County, Montana.
    Mr. Beaudry, please proceed.

   STATEMENT OF JOHN BEAUDRY, PLANNING DIRECTOR, STILLWATER 
                        COUNTY, MONTANA

    Mr. Beaudry. Thank you, Senator Kempthorne, Senator Warner, 
and Senator Baucus. I also appreciate this opportunity to 
comment on the reauthorization of the Federal Highway Program.
    I testified 6 years ago when the current program was being 
considered and at that time gave examples of transportation 
needs from our community. Since that time, I am pleased to 
report, 20 miles of highway were realigned, reconstructed, and 
paved. Another 18 miles of highway received an overlay, and 
five bridges were replaced. In addition, four enhancement 
projects have been completed in our community.
    Transportation issues are still one of the highest 
priorities in our community. The Federal Highway Program is 
critical, not only to the transportation system, but also to 
the economic well-being of Stillwater County. Interstate 90 
bisects the county, and Highway 78 serves as a north-south 
arterial route. There are five other Federal-aid routes in the 
county, 14 major bridge structures and numerous smaller bridge 
structures, eight railroad crossings, and one designated Forest 
Highway Project.
    Federal funding for the National Highway System under the 
current program has not been adequate to meet all of our 
transportation needs. For example, reconstruction projects for 
Highway 78 originally scheduled to begin over 5 years ago are 
still delayed. The Forest Highway 83 serving southern 
Stillwater County includes access to Custer National Forest and 
the Stillwater platinum/palladium mine. Fourteen miles of the 
total 20-mile reconstruction project have been completed. 
However, the remainder of this project has not been funded at 
this time.
    The Stillwater mine produces platinum group metals and 
currently employs over 600 people and has an annual payroll 
around $25 million. This is the only platinum/palladium mine in 
the United States and competes in international markets with 
mines in Russia and South Africa. Platinum group metals are 
used for automotive pollution control, medical applications, in 
electronics, industrial processes and a variety of other 
applications, including national defense.
    There are two other Federal-aid projects in our county 
which began over 2 years ago and still are not completed at 
this time. The Stillwater Road also serves southern Stillwater 
County and is an alternate route to the mining region. The 
first six miles of this route were paved in the 1970's. The 
remaining 14 miles are still gravel with no prospect of 
completion in the foreseeable future. The Joliet Road 421 was 
also started over 20 years ago as a Federal aid secondary 
project, but is still unfinished due to the lack of funding.
    Bridges are also a significant problem in Stillwater 
County. We have had off-system bridges collapse in the past and 
have several bridges that are substandard. I brought a photo 
with me of one of the bridges that collapsed to document the 
problem. And this is clearly not the bridge to the 21st century 
that we envision.
    Please accept this written testimony in support of the 
proposal for Surface Transportation Authorization and 
Regulatory Streamlining Act. We believe that the 
reauthorization of the Federal Highway Program should address 
following issues:
    Authorize program funding to the maximum level the Highway 
Account can sustain; achieve funding distribution that is fair 
and based on truly national interest, taking into account rural 
areas with large Federal land holdings and low population 
densities; emphasize investment in the National Highway System 
with continued Federal commitment for our highways; retain 
appropriate program emphasis areas, including enhancements and 
Federal lands program; reduce regulation to the greatest extent 
possible and eliminate unnecessary requirements; and finally, 
provide States flexibility and a role for local governments in 
transportation planning.
    Thank you again, Senators, for this opportunity to comment 
on the reauthorization of the Federal Highway Program. We 
support the proposal for a Surface Transportation Authorization 
and Regulatory Streamlining to meet the transportation needs of 
Stillwater County into the next century. Thank you.
    Senator Kempthorne. Mr. Beaudry, thank you very much.
    Mr. Bower, before I call on you I would just like to 
acknowledge your Idaho Department of Transportation was 
extremely helpful in allowing us to organize for this and 
providing us a lot of the material. I appreciate that, the help 
that you and your staff provided. Also I want to acknowledge 
that four of the seven Idaho Transportation board members are 
here with us today, Chuck Winder, who is the Chairman; Mike 
Mitchell, who is the Vice Chairman; Monte McClure; Jack Combo. 
We appreciate all of your assistance as well.
    With that, let me introduce Dwight Bower.

   STATEMENT OF DWIGHT BOWER, DIRECTOR, IDAHO TRANSPORTATION 
                           DEPARTMENT

    Mr. Bower. Thank you, Senator. I would like to comment that 
my staff has thoroughly enjoyed working with your staff in 
preparing for this hearing today.
    On behalf of the Idaho Transportation Department, I would 
like to thank Senator Warner, Senator Kempthorne, Senator 
Baucus for giving us the opportunity to present our thoughts 
concerning the upcoming reauthorization of the Surface 
Transportation Program. I appreciate the great effort that you 
and your staffs have made in setting up and attending this 
hearing.
    The Idaho Transportation Department has been working with 
the States of Montana, North Dakota, South Dakota and Wyoming 
to develop positions on reauthorization. Marv Dye, the Director 
of the Montana Department of Transportation, has joined me here 
today. Together we represent reauthorization positions on 
behalf of all five States. I will present our views on all 
three elements, and Mr. Dye will follow with our views on three 
additional elements.
    I want to begin by expressing our support for the Surface 
Transportation Authorization and Regulatory and Streamlining 
Act, or STARS 2000, which will soon be introduced by Senators 
Kempthorne, Baucus, Thomas and others. Senator Kempthorne, we 
at the Idaho Transportation Department feel that this bill will 
improve transportation in Idaho. Senator Baucus, Senator 
Thomas, and you have done this in a way which is broad in focus 
and is nationally responsible. You are to be commended for your 
work in developing this thoughtful initiative.
    Let me address the three key elements which this 
legislation will achieve, or three of the key elements that it 
will achieve. One, it will increase Federal aid program funding 
levels. America's economic well-being is critically dependent 
on an efficient transportation system, but critical needs are 
not being met, and the condition of our country's 
infrastructure is continuing to deteriorate. High level of 
Federal funding investment is absolutely necessary to help 
resolve this deficiency, both nationally and in Idaho.
    We strongly urge your support for a new surface 
transportation act which will authorize spending from the 
Highway Trust Fund at the highest possible level, which we feel 
is approximately in the $26- to $27 billion annually. We also 
support transferring the 4.3 cents in Federal gas tax now going 
to the General Fund for deficit reduction to the Highway Trust 
Fund.
    Two, it will emphasize funding for the National Highway 
System. We support adoption of a Federal aid highway program 
with two core funding programs, the National Highway System 
program and a surface transportation program. The Federal 
Government must increase its investment in the NHS. An 
efficient and well-maintained National Highway System is 
crucial to Idaho and to the Nation.
    Three, it will implement fair formulas for distribution of 
Federal-aid funding. The formulas chosen should fairly reflect 
the extent, usage, and other specific characteristics of the 
Nation's transportation system, both urban and rural.
    For the formulas to serve national, State, and local 
government interest, there must continue to be a donor/donee 
relationship among the States.
    Rural western States and some small States with low 
populations are often donees. These States do not have a 
population base which is sufficient to generate tax revenues 
which will support an adequate transportation system. You have 
already heard the statistics about Idaho. I would like to 
mention that Idahoans pay $316 per capita in fuel taxes 
annually, compared to the national average of $220 per year 
annually. This is nearly $100 more per person than the national 
average.
    In the western States the inability to raise sufficient tax 
revenues is compounded by the fact that a large percentage of 
their lands are on Federal ownership and cannot be taxed by the 
States. In Idaho, Federal lands, as you have heard, make up 64 
percent of the total land area. And if you look at the map to 
your right here where it shows ownership, anything in color 
belongs to the Federal Government. That portion in white is 
private.
    Many western States also serve as bridge States and provide 
a vital link for commerce. And we have talked about U.S. 95 and 
I-84 and those types of bridge State activities and the impacts 
on those States.
    I would like to turn to five points concerning distribution 
formulas for Federal highway programs.
    One, 62 percent of the funds for the two core highway 
programs should be provided for the National Highway System. It 
should be the primarily funded program.
    States with a significant percentage of Federal lands 
should be compensated for their inability to tax those lands. 
The funding for the Federal lands program should be increased, 
and Federal lands should be a part of formulas for 
distribution.
    The formula should reflect the actual extent and usage of 
the Nation's transportation system, both urban and rural. The 
National Highway System factors should include lane-miles, 
vehicle miles of travel, and a special fuels tax. The STP 
formula should include Federal aid system lane-miles and VMT, 
bridge surface area, percent of Federal lands, air quality, 
freeze/thaw, and population per lane mile.
    We believe that smaller, low density population States 
should receive a minimum percentage of program funding 
approximately equal to the percentage specified in the hold 
harmless provisions of Section 1015.
    If the four points I have just stated are included in the 
reauthorization legislation, then in the context of proposals 
such as STARS 2000, increasing the minimum allocation 
percentage from 90 percent to 95 percent and applying it to a 
larger percentage of the overall program is possible.
    In closing I would like to commend the efforts of Senator 
Kempthorne, Senator Baucus and Senator Thomas to introduce the 
STARS 2000 Act, which will ensure that our Nation's 
transportation program will be strong and efficient into the 
next century. STARS 2000 represents the principles I have 
presented to you here today.
    Senator Kempthorne. Mr. Bower, thank you very much.
    Now let me call on Mr. Marv Dye, who is the Director of 
Montana Department of Transportation.
    Mr. Dye?

    STATEMENT OF MARV DYE, DIRECTOR, MONTANA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Dye. Senator Warner, welcome to the West, and Senator 
Kempthorne and Senator Baucus, welcome home.
    Because of the importance of Federal Highway Program 
reauthorization to our States and the future of the Nation, we 
are extremely pleased you have been able to travel from 
Washington to conduct a hearing in our region. In this part of 
the country, Senator Warner, when you are talking about surface 
transportation, you are principally talking about our highways. 
In the West the future vision of our economy, the welfare of 
our citizens, and our quality of life is linked to the mobility 
and access provided by our highways. And, it is the very same 
highways serving us that serve the Nation.
    For example, the wheat that leaves Montana on our highways 
through a port at Lewiston, Idaho, is headed for international 
markets and contributes to our national economic goals. The 
commercial carriers that cross Montana, the Dakotas, Wyoming 
and Idaho on the National Highway System support the Nation's 
just-in-time industries and markets by allowing capital be to 
invested that otherwise would have to be stockpiled at points 
of assembly or sale. But beyond the economics, our highways tie 
us together as a Nation and as a people.
    Senator Warner, Montana had 8 million out-of-state visitors 
this year, and approximately 80,000 of these folks traveled to 
visit us from Virginia.
    Senator Warner. I was one of them.
    Mr. Dye. Were you? Great.
    Senator Warner. And with a little luck I will be back there 
tomorrow.
    Mr. Dye. And when they cross the country, they had to cover 
a lot of distance outside of big cities where there weren't 
many people on either side of the road. But, even in the 
Nation's rural areas, the highways are there to connect the 
Nation and serve its economy.
    As Dwight Bower has already mentioned, we are here today on 
behalf of the Idaho and Montana Transportation Departments and 
also on the behalf of the transportation departments of North 
Dakota, South Dakota, and Wyoming. While the combined testimony 
of these five States is Director Bower's and my spoken remarks, 
our basic position, Senator Warner, is simple. We strongly 
support the proposed Surface Transportation Authorization and 
Regulatory Streamlining Act, STARS 2000, which, incidentally, 
is our goal. Further, we look forward to its introduction by 
Senator Baucus, Kempthorne, Thomas and others. While we thank 
all the Senators who are working for the proposal, we want to 
particularly commend Senators Baucus, Kempthorne, and Thomas 
for their tremendous leadership in developing it. For the 
reasons already cited by Director Bower as well as others, and 
I'll discuss shortly, STARS 2000 is an excellent bill which 
addresses the needs of our Nation and our States in a 
thoughtful, balanced way.
    We also commend you, Senator Warner, for the work you have 
done to advance surface transportation reauthorization 
legislation that is in the national interest. You are making a 
strong effort to obtain increased levels from the Highway Trust 
Fund expenditures for highway expenditures and very 
importantly, you have demonstrated an understanding that there 
is a national interest in Federal highway program investments 
in and across States like ours.
    Dwight has already mentioned three key objectives that we 
feel highway program reauthorization must achieve. In my 
remaining time I'll touch briefly on the other key elements we 
feel should be included or excluded from reauthorization 
legislation and why STARS 2000 is the best proposal to achieve 
these goals.
    Besides increasing overall highway funding levels, 
achieving a fair distribution among States and emphasizing the 
National Highway System, the next highway program should also 
provide greater flexibility to determine how to invest 
transportation funds, streamline and reduce regulations and 
continue many of the aspects of present law that are just good 
practices, such as planning and the public's involvement in 
planning.
    As regards flexibility, we strongly recommend that, 
compared to today the legislation should allow a greater 
percentage of the overall funding to be prioritized through the 
existing transportation planning processes. We ask that you 
remember the existing planning and public involvement processes 
began with the current program. After 6 years and hundreds of 
millions of dollars which have been invested in these extensive 
processes, we support them as the best approach to prioritizing 
Federal-aid highway funds.
    This is not to say that the entirety of the future highway 
program needs to be totally discretionary. It is appropriate 
that Congress continue to require States to emphasize certain 
types of investments. We believe STARS 2000 strikes the 
appropriate balance. It continues emphasis areas for bridges, 
safety, enhancements and air quality guarantees in those areas 
with both ozone and carbon monoxide non-attainment, and it 
continues the suballocation of highway program funds to large 
urban areas in a way that provides for these population centers 
to share in program growth.
    In short, STARS 2000 maintains a balance and walks the 
middle of the road between those who are advocating total turn-
back of the transportation program and those who would increase 
the amount mandated to be set aside for specific purposes which 
come at the expense of core highway program needs.
    STARS 2000 preserves the existing transportation planning 
process, including its extensive public involvement. Under this 
bill's approach a greater percentage of overall funding would 
be prioritized through planning, technical assistance and 
public involvement. We feel this is the appropriate direction 
and applaud the sponsors of STARS 2000 for providing this 
leadership.
    Before closing I also offer some brief comments on elements 
of other reauthorization proposals which are before your 
committee. First, expansion of certain programs designed to 
move funds from a majority of States to very few States 
significantly hurts our region and the Nation. For example, of 
the billion dollars currently distributed to States under the 
Congestion Mitigation and Air Quality Improvement Program, 
Montana receives only about $5 million per year. While we 
strongly support continued funding eligibility for these 
activities, expansion of this program or continuation of the 
current distribution formula hurts our States and makes it 
significantly more difficult to address transportation needs 
overall.
    I also note that we see little benefit in the continuation 
of the existing bridge program which has a built-in 
disincentive for timely maintenance of structures or for the 
continuation of the Interstate Reimbursement Program that is 
distributing hundreds of millions of dollars to States that 
built interstates more than 40 years ago and in many cases have 
been receiving tolls on these roads for decades. These programs 
put our States at a significant disadvantage and really have 
one thing in common, they move a significant percentage of 
highway program funding to a very few States.
    We note that STARS 2000 deals appropriately with these 
program issues and strikes a balance between streamlining the 
program and the continuation of the Federal role in the 
Nation's surface transportation programs, and it considers 
equity issues with an increase in minimum allocation which is a 
topic of significant interest of your home State of Virginia.
    Last, STARS 2000 meets the national interest in providing 
an increased share for the western region; it is simply the 
best proposal for Montana, Idaho, the West, and the Nation 
overall.
    Senator Baucus and Kempthorne, we applaud the truly 
national scope of your proposal, and we are looking forward to 
its early introduction. Nationwide STARS 2000 will increase 
annual highway program funding for 47 States and increase the 
overall percentage share of highway program funding for 33 
States.
    If I can take a minute to share a couple of maps. The first 
one is available for you there. These maps compare the proposed 
STARS 2000 distribution to other authorized proposals 
introduced to date. The first map shows the 33 States where 
STARS 2000 proposal would increase their overall percentage of 
the current program.
    The second map, which is perhaps the most interesting, 
compares the percentage of each State's program share under 
STARS 2000 against other current reauthorization proposals. 
Clearly, this proposal, which is shown in red, compares very 
favorably. In fact, all of the proposals now on the table, 
STARS 2000 provides the greatest percentage of program share 
for more States than any other. This is even true, Senator, for 
your home State of Virginia.
    In conclusion, Senator Warner, Senator Baucus, Senator 
Kempthorne, between Dwight Bower and myself, and on behalf of 
our five-State group, we have covered many topics today of this 
important piece of legislation. Fortunately, I can sum up our 
position of these issues very simply. We urge everyone 
concerned with the future highway program to follow the stars. 
The STARS 2000 bill sets forth a very balanced, thoughtful 
approach to these complicated issues, and we look forward to 
throwing our full support behind it.
    Last, Mr. Chairman, I ask that the written comments that 
I'm carrying on behalf of the Wyoming's Governor, Jim Geringer, 
also be included in today's testimony.
    Thank you.
    Senator Kempthorne. Mr. Dye, thank you very much. And we 
have included Mr. Geringer's comments, from the Governor. Also, 
I would image Senator Baucus would like to have these to take 
to D.C.
    Senator Baucus. I have got them right here. They are in my 
book. We all have them, I think.
    Senator Kempthorne. That will be very helpful.
    Let me ask a few questions here. Senator Frasure, you 
referenced the Idaho Needs Assessment Study Update. Did the 
report identify one particular area of needs? Roads? Railroad 
crossings? Bridges? Was there anything specifically it zeroed 
in on?
    Senator Frasure. Actually, it talked about all three of 
them, Mr. Chairman. The pavement cost of just maintaining our 
current structure, the backlog just to bring us up to the 
standards of 4.1 million, and then to bring the basic pavement 
structure up to a reasonable standard was the other $4 
billions. It identified a number of bridges as around 1400 
bridges included in that study. It identified how many bridges 
it would take in order to be replaced in order to bring it up 
to a good standard. And as we address the whole issue of 
increased weight limits on our roads, bridge structures is a 
critical area. If we are going to be able to move more freight 
across Idaho roads, we have to make sure that bridges are able 
to handle that added stress. The study is very comprehensive, 
and we would be more happy to provide a copy of that to you.
    Senator Kempthorne. Good. Thanks, Evan.
    Representative Kempton, Jim, you are regarded for your keen 
analytical ability. From this hearing and from your perspective 
of transportation and your role as chairman, what is one of the 
key things we should take out of this hearing and incorporate 
in what we ultimately come forward with for the reauthorization 
of our surface transportation program?
    Mr. Kempton. Chairman Kempthorne, I think you have already 
concentrated on the funding distribution, and so I am going to 
treat that as a given. I think to me the thing that is 
beginning to cause the most problem and, of course, I have all 
of 3 months now as the chairman in transportation and defense. 
It's not like it has been a lifetime. But, the problem that I'm 
seeing is the interconnection, a policy, if you will, relating 
to the connection for the surface transportation in the United 
States and connecting Canada and Mexico, utilizing the 
interstate system more and assigning funds for that but also 
funding the States in a proportion significant enough for them 
to enhance their own State symptoms to act as arterials into 
that major system.
    I guess what I'm trying to say is the same issue as the 
129,000 pounds. Industry, at least the agriculture industry and 
timber, sees one of the ingredients to be increased truck 
weights, not necessarily increasing size, not necessarily 
increasing the foot print, but increasing the weight. Canada is 
operating at about 132,000, I think, right now and--or 137- to 
138,000. And I believe Mexico is about 142,000. Canada is the 
one that is having the most impact, because they run 
horizontally the length of the United States and with their 
rail system can move tremendous amounts. They can move them 
from new processing plants. I have a letter from Simplot that 
indicates about a 10 percent profit advantage if they can move 
to 129,000 pounds on the interstate. 129,000 is not a magic 
number, but it is an increased weight number above 105,500 that 
they are stuck with now.
    So I think that the corridor system and, of course, Idaho 
and the 14 western States are trying to work on a corridor 
system now. But I think that it behooves the Congress and the 
Administration to work with the States in trying to establish 
those corridors and allow the increased weights, and to do it 
in a safe fashion and to get these products in the move. 
Because if we have to continue to work at 129,000 pounds, like 
I mentioned, off the interstate system, trying to work them 
onto State highways that are narrow, that are congested that go 
through small towns, that is just simply not the way to move 
commerce in these United States. I think that, to me, is one of 
the biggest problems, in conjunction with funding is to 
establish the policy in which you want to move things.
    Senator Kempthorne. Thank you.
    I want to jump to Mr. Bower. Dwight, let's talk about CMAQ, 
Congestion Mitigation Air Quality. Now, in STARS 2000 we still 
have the CMAQ program. We reduce it by one-third. And that's 
for the very largest cities to still utilize those funds. Then 
in the STP, Surface Transportation Program, we still make CMAQ 
an eligible activity, but we have more than doubled the STP 
account, which is the most flexible, successful program we've 
had so that those who wish to still utilize CMAQ activities now 
have more funds at their disposal. Does our legislation help 
those communities that wish to pursue CMAQ? Are they better 
off----
    Mr. Bower. In our view, particularly in Idaho, if you look 
at the track records that our board has on the utilization of 
CMAQ funds which currently under ISTEA are not mandated that 
they be used in communities, because we have no designated 
nonattainment areas in this State. But yet I think you see a 
very thoughtful approach to that that our State has taken in 
recognizing that air quality is important in communities and 
having put together a program that includes the distribution of 
funding from the CMAQ program to five different areas within 
Idaho, none of which, as I said earlier, are mandated by ISTEA.
    Senator Kempthorne. Thank you very much. Senator Warner.
    Senator Warner. You are aware of the politics, particularly 
distinguished members of your legislature. I have put in 
legislation reflecting the interests of the southern coalition 
and dominated by the donor States. And the northeast corridor 
is hanging tough. They, primarily through one of our 
distinguished colleagues, dictated much of ISTEA one. And along 
you come, and I think it is timely that you do, as a coalition 
of western States. And as I said earlier today, you are going 
to be the swing group. I think you are going to have tremendous 
impact on the final draft of this legislation. Because, I need 
you. The Northeast needs you. And, frankly, you can sit there 
and pretty well arbitrate. I am optimistic that you will come 
more the way that the donor States are now asking. But, so much 
for that.
    These two gentleman will be key on this piece of 
legislation, because they represent your western swing block. I 
would hope the chairman--I really will ask the chairman 
formally to put in the record the fascinating statistic in all 
the years I have been in this, I did not realize you are 3 
dollars per citizen--320? What was it?
    Mr. Bower. $316. That is total State and Federal.
    Senator Warner. Total State and Federal Mr. Baucus, I would 
hope Montana--do we have Montana's figure, anybody? Well, we 
need to put those figures in today's record.
    Senator Baucus. Do you have Montana's easily?
    Mr. Bower. Yes, I do. Montana's is 360.
    Senator Baucus. National average.
    Mr. Bower. 220.
    Senator Warner. That is an astonishing fact. That is a 
very, very strong sword in your arsenal when you go to the 
floor in presenting this inequity.
    Gentlemen, I think what would help me the most, we have in 
any of these hearings an enormous amount of material brought to 
us. In the minute or so I have remaining, put aside money now. 
I realize we are all concerned with money. I love this king for 
a day. What is the one thing about this Federal program today 
you would change, sack it? Why don't we just start with our 
distinguished senator down here and then go right up the chain.
    Senator Frasure. Thank you, Senator Warner. The one thing I 
would change is more flexibility. And I take a look in my own 
community of an enhancement project where they went in and 
basically torn out a whole lot of gravel and put in a nice 
sprinkler system, a nice park that nobody can use up on an 
interstate exchange. They spent about $350,000 and that money 
was designated for that purpose and could not be used for 
anything else. So, more flexibility. We would have taken that 
same $350,000----
    Senator Warner. How did it get away from you? I thought we 
built in some control.
    Senator Frasure. Senator Warner, there are certain ties 
still in there. And these were enhancement funds that could not 
be used. So, your enhancement account. Just more flexibility. 
We would like to build more roads and less unusable parks.
    Senator Warner. You might tell me why you left Virginia to 
come out here and take on all these responsibilities.
    Mr. Kempton. I won't do it privately, but I was involved in 
the research and development on the F-16, and I just thought 
there was too much Navy work there.
    Senator Warner. You got me on that one.
    Mr. Kempton. Sir, I think I would agree with Senator 
Frasure that freeing the States up more to use funds at their 
discretion. But, I think that it also needs to be integrated in 
guidance from a national level about how the Congress and the 
Administration can work with coalitions of States like has been 
addressed here in establishing a policy on where we want to 
specifically place that money as a priority in the movement of 
commerce on into the 21st century. I mean, that is essentially 
the issue.
    Mr. King. Senator Warner, one thing that comes to mind to 
me is the problems we have to go to for so many small details 
to get environmental approval. It becomes very extensive, and 
then we have to go to several agencies, and we get conflicting 
answers and such from those people. I would think a one-stop 
clearinghouse for environmental process--
    Senator Warner. We heard from Mrs. Garvey. I'm sure you 
were pleased. I hope she sends you one of those purple books. 
Give us a little practical comment on that book. That point is 
well taken.
    Mr. Beaudry?
    Mr. Beaudry. Senator Warner, at the local level we agree 
with the flexibility issue. I would like to emphasize the 
point, in areas where there is very significant economic 
development activity, that there be a connection. They need the 
infrastructure to serve it. In our case we have a project that 
has made it through environmental clearance. We have acquired 
all the right-of-way necessary for the project, and the 
preliminary engineering is finished, and there are no funds to 
build the project. And it's serving very significant 
development activity, not only for our local community but 
State and national interests as well.
    Mr. Bower. Senator, the one thing that I would do is focus 
the program and the funding on the National Highway System. I 
believe that's where our Nation's future lies.
    Mr. Dye. Senator Warner, at the expense of cheating a 
little here, I would like to maybe slip in two.
    Senator Warner. Every one of them get another one. You can 
submit one orally and one for the record. Or, do it the way we 
do in the Senate. The Chairman will say each senator has one 
question. And I get up and I say I will ask one question in two 
parts. Go ahead.
    [Laughter.]
    Mr. Dye. Senator, I have a two-part answer.
    [Laughter.]
    Mr. Dye. Unreasonable mandates that come with sanctions 
should be totally eliminated. And the other thing that I would 
change, if I could, would be the way we handle transportation 
enhancement. In Montana we put those funds out for use by 
communities. It's called our Community Transportation 
Enhancement Program. The sums of money get quite small by the 
time they are allocated out there, and to have to administer 
that program as a Federal-aid program is extremely difficult. 
Now, that's our fault because we have handled it this way. But, 
I would think at a Federal level, and we have mentioned this 
numerous times to FHWA, that we believe those program funds 
should be able to be handled more like Federal grant programs. 
And our cities and counties understand those, and they know how 
to manage those programs.
    Senator Warner. Thank you very much. That is good advice.
    Senator Kempthorne. Senator Warner, thank you.
    Senator Baucus?
    Senator Baucus. Mr. Chairman, I would like to ask John 
Beaudry to sort of give Senator Warner and Senator Kempthorne a 
flavor of what is happening in Stillwater County. I might say 
it is an area just west of Billings, Montana, largest city, 
next to the mountains there, and the growth is just explosive. 
It's partly because of that mine, which John referred to. As 
John said, it is the only mine in the country platinum/
palladium metals. If you could give us a little flavor, 
therefore, the needs for this highway program.
    Mr. Beaudry. We are rural in nature. We have 1,700 square 
miles in area. The county is responsible for over 900 miles of 
road. We have less than 8,000 residents. There is more people 
than that traveling the interstate and the State primaries 
daily than our entire county population. Our entire road budget 
at the county level to maintain and operate that system is in 
the neighborhood of $500,000, less than half a million dollars 
per year. The construction projects that have been going on to 
reconstruct one mile of road has been ranging in the $7- to 
$800,000 per mile. As you can see, our county road budget would 
not even build one mile of road per year, and we have over 900 
miles of road total.
    Our population right now is actually at an all-time high 
from the 1920's and the homestead days. We have just recently 
exceeded that. And that's basically where we stand right now. 
The growth rate has grown in the neighborhood of 2 to 3 percent 
per year in our county.
    Senator Warner. That is occasioned by what, just the 
magnificence of the countryside, the people coming for that?
    Mr. Beaudry. The main influx of people, Senator Warner, is 
due to the mineral development at the Stillwater Mine. They 
opened up in 1985 and now employ over 600 people. Also the 
marketing of real estate nationally that occurs there and the 
influence of the interstate.
    Senator Baucus. I might say, too, I have to be there 
Tuesday, because the company is thinking of opening a mine on 
the other side of the mountain range, too.
    Senator Warner. Really?
    Senator Baucus. Oh, yes. It is a huge operation.
    Senator Warner. What are the products?
    Senator Baucus. Platinum and palladium.
    Senator Warner. Which are essential to our country.
    Senator Baucus. Yes. We are the only mine in the country.
    I would like to compliment you, Mr. Bower and Mr. Dye, on 
your joint statement. I think it is the best summary of western 
State perspective I have ever seen. I read it on the plane 
coming out here, both of your statements, and it is very good. 
And I might say, Mr. Chairman, all members on the committee, 
our staffs at least should have that statement and encourage 
them to read it, because it's terrific. It is one of the most 
thoughtful statements and comprehensive joint statements put 
together that I have ever seen on this subject, and I 
compliment you on it.
    One question we may face, though, in the Senate is this: 
The STARS 2000 bill eliminates the interstate maintenance 
program. Instead, we put a lot more money in the NHS and STP. 
The potential objection might be, well, gee, those western 
States, or any State, for that matter, might not maintain the 
interstate highway system as much. They may spend those dollars 
on NHS highways, that is noninterstate highways. And your 
response to that.
    Mr. Bower. If I might, Senator, very quickly, I think that 
at least in Idaho we can look at the record, and I can show you 
that we are not only spending our interstate maintenance funds 
on the interstate, but are spending part of our National 
Highway System funds on the interstate to actually meet the 
kind of performance that I believe people would expect. And 
even in addition to that, we are expending State of Idaho State 
funds on the interstate, and beyond maintenance, just on 
pavement. So I think what we are going to see, and I think what 
you will probably find in most western States is they are doing 
more on the interstate than the interstate maintenance funds 
currently allow them to do.
    Senator Baucus. Marv, your answer to that, please.
    Mr. Dye. Senator Baucus, we likewise kind of in Montana we 
have kind of worked on these roads and then this class of roads 
and then this class of roads, and so we have not had kind of a 
balanced approach in dealing with all of our highways. But, I 
can quite honestly tell you that we have a significantly State-
funded program, and a lot of that is going to be spent on 
maintaining our interstates.
    This last legislature we asked the Governor's office and 
the budget office for more dollars for maintenance. A great 
deal of that will be going on our interstate system. And, as a 
matter of fact, when you look at our overall program out 
through the year 2001, our expected revenue stream of $484 
million, with that being totally committed, we still have $381 
million worth of needs on our interstates and our primary 
system that are unmet. And as a result our legislature has a 
bill working its way through the system to create an interim 
study committee to look at those issues and decide truly what 
are our problems and how are we going to fund them. So there 
will be no letting go of our needs on your interstate. Quite 
frankly, some of our most important routes are interstates.
    Senator Baucus. I see my time has expired. I would like you 
all to address one other question. Senator Warner a couple of 
times has asked what is the one change you would like to see. I 
would like to ask that same question but a little bit different 
twist. Sit back for a second and just dream. What would you 
like to see in Idaho or Montana, western State surface 
transportation for the future as we think in the next century 
or more? Is there something kind of in the back of your minds 
as you think of all these subjects when you get up in the 
morning shaving and you just would like to see happen or just 
dream about? It may not be attainable this year or next, in 
five or perhaps in 10 years. But if there is something that 
kind of flashes, sort of a light bulb goes on, and you sit back 
and dream a little bit. There may not be anything at the 
moment, but I am just giving you an opportunity, any of you, if 
something does come to behind.
    Senator Frasure. Senator Baucus, just real briefly, would 
to be actually see all the dollars that are put in the user 
fund be used for roads and that includes that 4.3 cents that is 
going to the General Fund now. So all the money the public is 
told they are being taxed for the roads actually is going on 
the roads.
    Senator Baucus. Anybody else? Marv?
    Mr. Dye. Senator, one of the things I lose a lot of sleep 
over is the seemingly inability to deliver projects. It seems 
like it takes so long from the beginning until you can actually 
construct them. And I think Jane Garvey touched on it earlier 
with some of the environmental issues. We in Montana are 
looking at moving processes like environmental up much earlier. 
But it just seems like there are so many regulations and so 
many hoops to jump through, and then, of course, the funding is 
always a question.
    Senator Baucus. Will STARS 2000 help?
    Mr. Dye. I think STARS 2000 will help some, but I think 
most of it has to come from our own ingenuity from within. As 
we are doing in Montana, we have a new way that we are going to 
attack this problem, at least hopefully, with a program called 
Customer Focus Process Improvement. We may have to color 
outside of the lines of the box here a little bit sometimes, 
but I think that's the secret to our success.
    Senator Baucus. Thank you.
    Senator Warner. Could I say something important?
    Senator Kempthorne. Yes.
    Senator Warner. This is a most distinguished panel, and 
it's been very helpful to me, the framework of ideas and 
concepts that you have put forward. And, Mr. Chairman, I am 
anxious that this record be made available as soon as possible 
to our other colleagues so they can think about this. But, as I 
look at the grandeur of this country, and I was privileged to 
say earlier, I have been exposed to it a good deal of my life, 
in my State we have the second worst gridlock next to New York 
City. The average commuter is spending an hour a day locked up 
in that car wasting time. So things may look a little bad out 
here, but I will send you a video of ours, I am sure Mr. 
Kempton remembers it, the gridlock problems and collision 
problems that we have back there. So we are all in this 
together, all 50, with our own sets of ideas and problems. And 
we have got to work it out in an equitable way. Thank you.
    Senator Kempthorne. I appreciate all of you. I had 
questions for each of every one of you that I would have liked 
to directed to you. I want to ask Dwight Bower just one. And 
that deals with the north-south connector, Highway 95. Evan 
Frasure I know is up here touring that and was talking about 
that. Jim Kempton articulated the need for this with NAFTA, et 
cetera. Jack King has talked to me a lot about this. But, I 
know there are many safety problems with the highway. The 
question is what do you think Congress can do to help the State 
of Idaho address these problems?
    Mr. Bower. Senator, I believe that in the context that 
we've talked today on the National Highway System funding 
levels, distribution formulas, that's one step in the right 
direction for dealing with many of those issues, safety, and 
the ability to move commerce up and down the spine of Idaho.
    I think, second, it would be very, very important, if not 
critical, that you think in terms of designating U.S. 95 and a 
priority corridor. Priority corridors were in fact designated, 
I believe, through the ISTEA process or other parts of 
authorization or appropriation. And I believe as you begin to 
look at the whole corridor on U.S. 95, it in fact meets and 
probably exceeds the criteria for priority corridor.
    Senator Kempthorne. Well, as Senator Warner and Senator 
Baucus have stated, this has been an outstanding panel. We 
appreciate the input from each and every one of you, and we 
would look to you in the future as a resource also, and we 
thank you for your testimony.
    With that let me please call the next panel forward.
    We will break for just a minute.
    [Recess.]
    Senator Kempthorne. I will continue this hearing. The first 
individual that I'd like to welcome and call upon is Yvonne 
Ferrell, the Director of Idaho Parks and Recreation program. 
Yvonne has a flight she is going to have to catch, as does Tom 
Arnold. So I am going to move Tom up so we can get their 
testimony. We'll hear their testimony, and then there may be a 
question.
    Ms. Ferrell?

    STATEMENT OF YVONNE FERRELL, DIRECTOR, IDAHO PARKS AND 
                           RECREATION

    Ms. Ferrell. As you may assume, today my comments will 
address the enhancement programs and the National Recreation 
Trails Fund, because of my responsible to recreation in the 
State. Today I represent not only State parks and recreation 
interests, but also city and county park and recreation 
concerns.
    ISTEA projects throughout Idaho since the program's 
inception have met many critical needs, which I just want to 
highlight four of them for you, perhaps kind of give you orally 
a little bit of a visual picture of what some of these 
enhancements programs have done. The first one that I would 
bring to your attention is the Coeur d'Alene Lake Drive Bike 
Path. In fact, it exists right outside this building, starts in 
the State of Washington and has its terminus out at Higgins 
Point.
    Senator Baucus. I saw it. I saw it today and was very 
impressed.
    Ms. Ferrell. Oh, you did. Wonderful. I hope some of the 
broken storm-damaged tree limbs have been cleaned up by the 
time you saw it, because that was a big problem. The Coeur 
d'Alene Lake Drive Bike Path Trail Project, what a mouthful was 
sponsored by the Idaho Transportation Department and was 
obligated in fiscal year 1994. The 5-mile long 10-foot wide 
pathway was created using the right-of-way section of old I-90. 
And this road went from four lanes down to two, and the 
remaining space has been used to create a separated bike and 
walking trail. Enhancement funds built the trail, exercise 
stations, public restrooms, picnic and parking facilities. The 
pathway is extremely popular, with 14- to 20,000 people using 
the path each month during the summer months. They also use it 
in the winter, but ice and snow have some impact on that.
    The second project I would bring to your attention is a 
little unique. It's the Diversion Dam Bicycle Rest Area. Most 
bicyclists don't think of needing a rest area, as do people who 
use vehicles, but they really do when they have 42 miles of 
trail stretching from nearly one end of the county to the 
other. And this project was sponsored by our agency and was 
obligated in 1994. The project provides a much needed all-
season rest area for recreational and commuter bicyclists, 
wheelchair people, joggers, rollerbladers, anybody that wants 
to use this on a heavily traveled section of the Boise River 
Greenbelt. The Boise River Greenbelt extends through downtown 
Boise to Lucky Peak Dam, and it provides nearly 42 miles of 
continuous pathway. This particular stretch where this rest 
area was built with enhancement funds totally lacked any kind 
of restroom facility or shade or water for people once they 
left the city of Boise. The total cost of the project was 
approximately $120,000 with enhancement funds paying 80 
percent. I realize that enhancement is minuscule when we look 
at highway needs and highway dollars and building bridges and 
highways. But, they do provide an enhancement to the quality of 
life for not only residents of a community but to the many 
visitors that come to our respective States. It is kind of like 
man does not live by bread alone; nor does man live by highways 
alone. There needs to be some other enhancements along the way.
    One other project that is worth mention is the Oregon Trail 
Center, located in the town of Montpelier in southeastern 
Idaho. This project was sponsored by the city of Montpelier and 
obligated in fiscal year 1996. The center which is nearing 
completion is a 30,000-square-foot facility housing a museum, 
interpretive and visitor center, rest stop, and office space. 
The museum will contain displays depicting the struggles of 
Oregon Trail travelers and early Mormon pioneers who came to 
the Bear Lake Valley in 1863. It will exhibit western art and 
firearms and contain a gift shop. The U.S. Forest Service will 
rent office space in the building. The proceeds from the rental 
pay for the utilities, security and janitorial service. 
Construction on the building began in the summer of 1996.
    As you well know, thousands of lives are lost on your 
Nation's highways each year. We need facilities such as this 
that will encourage people to take that needed break from 
driving in order to refresh their reaction times and to drive 
more safely.
    The last of these projects that I would like you to 
visualize is the Driggs to Victor Bike Path. This was obligated 
in fiscal year 1996 and will be completed this summer and ready 
for use in August. The bike path will be a seven-and-a-half-
mile long trail and parallels State Highway 33. Culverts, 
bridge substructures, and the clearing and grubbing on the path 
was completed last summer. Approximately two miles of this 
pathway will be bike lane on State Highway 33 with the 
remainder running parallel but separated from the roadway. 
Located in southeastern Idaho, Driggs and Victor, although 
extremely rural, are recreation destination sites and provide 
access to the famous and beautiful Teton Mountains. The project 
will cost approximately $680,000 with enhancement funds paying 
80 percent. And this project was sponsored by the Idaho 
Transportation Department.
    We must continue to encourage Idahoans to use alternative 
transportation in our urban areas in order to avoid the grid 
lock and vehicle congestion so many people have moved to Idaho 
to escape. For instance, in Boise on Park Center Boulevard, a 
recent consultant's report commissioned by the County highway 
authority indicates that on an A to F scale the best traffic 
flow is projected to be a D in 10 years. And that will entail 
building at least two more four-lane bridges across the Boise 
River, impacting aesthetics and natural values, not to mention 
the millions and millions of transportation dollars that it 
will take to build this.
    Meanwhile, the greenbelt, which has significantly expanded 
thanks to ISTEA, and which was a project of Senator 
Kempthorne's when he was mayor of Boise, offers an alternative 
for more and more Boisians to commute to work by walking, 
bicycling or even in wheelchairs. We are seeing an increasing 
number of wheelchair commuters on this important pathway.
    ISTEA funds are needed in order to continue to expand the 
greenbelt system, to encourage support and the construction of 
bike lanes on our roads and other pathways which allow children 
to commute safely to schools, playgrounds and parks in our busy 
urban areas.
    My remaining time will be devoted to the National 
Recreation Trails Fund. Every survey that our agency conducts 
with Idaho citizens and with visitors shows that access to our 
numerous public lands, trail heads and usable trails is a 
highest priority for their recreation needs. These trails don't 
just serve Idahoans. They are travelled to and used by people 
from all over the Nation and often people from other parts of 
the world as well. Idaho has 18,700 miles of summer use trails 
and 6400 of winter use trails, which is one of the largest 
trail systems in the Nation. The United States Forest Service 
manages 96 percent of the trails, as they lay on their lands. 
Most of the trails are managed as multiple-use trails, whether 
they are motorized, nonmotorized or a combination of both. 
Idaho has very few single-use trails. Most single-use trails in 
Idaho are either interpretive trails, cross-country ski trails, 
or snowmobile trials or are to be found in our wilderness 
areas. The National Recreational Trails Fund is critical to 
keeping Idaho's trails open.
    Along with this huge trail inventory, as you might guess, 
we have one of the largest backlogs of trail maintenance and 
reconstruction needs in the country. In 1995 Idaho's trail 
managing agencies spent $7.5 million on trail maintenance and 
reconstruction. The Forest Service indicates that it would take 
$20 million per year to just keep pace with Idaho's trail 
maintenance needs. This limited amount of funds means that many 
trails in Idaho can wait up to 3 years to receive basic removal 
of the blow-down. A lack of trail maintenance and 
reconstruction funds is the primary reason for the 
disappearance of Idaho's trails. We have crews of trail rangers 
in our agency which, using the registration funds from trail 
machines, go out and try to open up trails throughout the State 
every year on public lands. But, we are only able to do 1500 to 
1800 miles a year under the best of conditions. This year with 
the tremendous storm damage that we've anticipated, we think 
that we are going to have a difficult time getting our trails 
open.
    I will conclude with that. Thank you for honoring us in 
Idaho with this hearing.
    Senator Kempthorne. Thank you very much.
    Mr. Tom Arnold, who is the director of the Idaho Department 
of Commerce.

STATEMENT OF TOM ARNOLD, DIRECTOR, IDAHO DEPARTMENT OF COMMERCE

    Mr. Arnold. Thank you, Senator, and thank you for coming 
out West, coming home for you, but coming out West to visit 
with us and discuss this very important subject for the State 
of Idaho.
    I have been Director of the Department of Commerce for 
almost 5 months now and a resident of the State for about 7 
years. The Idaho Department of Commerce is responsible for 
promoting and sustaining the economic vitality of the State of 
Idaho in four specific areas: Economic development, community 
development, international business, and travel and tourism.
    From a commerce standpoint, the department firmly supports 
and affirms the testimony given here today for the 
reauthorization on the Intermodal Surface Transportation 
Efficiency Act and for the introduction of the Surface 
Transportation Authorization and Regulatory Streamlining Act 
and for increased funding and flexibility and for emphasis on 
the National Highway System and for fair formulas for the 
States.
    My comments will be brief. There are three areas I would 
like to address of importance to the State in the matter of 
commercial aspects and in equality and equity.
    The first is the growth of the State in the past decade. 
The State of Idaho is consistently ranked among the top five 
States in the increase in the rate of growth. We have also 
grown four times in the last 10 years in the amount of non-ag 
exports from this State. The number of exporters has grown 
tenfold, and in the travel and tourism business, as measured by 
lodging and hotel tax receipts, those have doubled in the last 
10 years. This indicates the economic vitality of the State. 
And we expect this to continue.
    The second item I would like to mention is it's been well 
documented together with this growth within the State that the 
bridge traffic in the State across our highways is also growing 
a great deal and that ag and manufacturing are growing at 
increased rates due to NAFTA. And we had some figures that were 
quoted before about the amount of traffic, particularly coming 
across the boarder at Bonners Ferry.
    Last, I would like to emphasize that the State has been 
very thoughtful and diligent in pursuing remedies for its 
transportation problems, not relying on Washington, but the 
State has increased its fuel tax and its registration fees to 
the point that Idaho residents are paying 50 percent more than 
the national average in such fees and in the total amount of 
taxes for the use of the roads in the State of Idaho.
    And, last, where appropriate we have dealt with the private 
sector in partnering on transportation issues. However, that 
gets to be a burden on Idaho business, and we want to be sure 
that the State of Idaho remains fair and competitive with other 
States for the businesses that we are trying to attract.
    I ask last that the panel consider the fact that we want as 
much flexibility as we can with the ISTEA funds. Intermodal 
traffic from the standpoint of highway to rail is a very 
important fact in this State. It has a great deal of potential. 
In eastern Idaho where I have been for the last 6 years if 
someone wanted to load a container or highway trailer on a 
flatcar, they would have to come 250 miles to Nampa or close to 
200 miles to Salt Lake City. I ask that where possible 
consideration be given to the use of funds that will take some 
trucks off the highway where it can be fair in the free 
enterprise system. But, we see that as a way of mitigating some 
of the damage to the highways.
    I would like to thank the panel for coming to Idaho and 
thank you for asking for my comments.
    Senator Kempthorne. Mr. Arnold, thank you very much. And, 
Tom, congratulations on your appointment as the Director. Ms. 
Ferrell and Mr. Arnold, what I am going to do is I am going to 
ask you the questions, but I am going to ask if you would then 
submit your answers so they will be part of this record. So 
perhaps, if next week you can submit them, that will allow you 
to facilitate your schedule.
    Yvonne, you mentioned how popular the National Recreational 
Trails program is and how extensive they are in the State of 
Idaho but also the damage they have sustained because of the 
flooding. I would like your perspective as to how do we go 
about restoring those trails and how does that fit with the 
existing funding stream? And if you cut that in half, as the 
Administration is proposing, what happens? Also currently the 
Recreational Trails Program has a 50 percent non-Federal match 
requirement. Is this ratio reasonable or does it need to be 
adjusted? So if you could respond to those two.
    And Mr. Arnold, picking up on your last statement there in 
the commerce, we are going to have a gentleman who will testify 
that his trucking firm, they simply do not allow their trucks 
to run on major portions of Highway 95 because of safety 
consideration. We have the Port of Lewiston, which is a 
tremendous asset for Idaho, and I don't know that we are fully 
being able to utilize that because of the transportation system 
in getting to the port. So if you would address that aspect of 
what impact this transportation is having on that type of 
commerce and also the safety aspect and if that is having a 
dampening effect on tourism in the State of Idaho.
    Mr. Arnold. I would be glad to do that.
    Senator Kempthorne. Senator Baucus, any questions that you 
have?
    Senator Baucus. Not really. In fact, you asked one of the 
questions I was going to focus on, and that's the match. I am 
sure you are going to say we need the match.
    Senator Warner. Whenever I retire I want to go out and go 
to work for you. I don't need a big job. But having done a few 
trails in this beautiful State myself many years ago, by the 
way, with cross-cut saws, not by hand saw, I think we want in 
this record from an expert like yourself the benefit to the 
State in terms of sure, some people get to enjoy the grandeur 
and the nature and the environment, but also by maintaining 
that trail, it is integral to any firefighting policy, it is 
integral to maintenance. In other words, what little money the 
Feds put in helps to leverage those funds that you would have 
to find anyway, whether you let anybody in there for the sake 
of enjoying nature at all; you just need them. Isn't that 
correct? I am sure you can rephrase this better than I do. But 
I think that's important that we get that in the record. Do you 
follow me on that?
    Ms. Ferrell. I understand.
    Senator Kempthorne. Well, I thank both of you very much for 
being here. And I note that Governor Batt is still with us. 
And, Governor, we appreciate the fact that you have stayed with 
us through this hearing. I know, too, you have another 
commitment down in the southern part of the State. So whenever 
it is necessary for you to leave to make that, we understand. 
But, I think it is just great that you have stayed with us this 
long.
    Governor Batt. Thank you, Senators. We love you a lot.
    Senator Warner. I'll wish you happy birthday next year. You 
do the same for me.
    Senator Kempthorne. With that we will continue this 
discussion, and I would like to introduce Michael Kyte, who is 
a Director, University of Idaho National Center for Advanced 
Transportation Technologies, or NCATT, as it is referred to. 
And I also mention that the University of Idaho's electric 
vehicle is outside for public viewing. It arrived while we have 
been here. So if you would like to take a look at that, we 
would invite you to do so. Michael?

   STATEMENT OF MICHAEL KYTE, DIRECTOR, UNIVERSITY OF IDAHO 
   NATIONAL CENTER FOR ADVANCED TRANSPORTATION TECHNOLOGIES 
                            (NCATT)

    Mr. Kyte. It is my great pleasure today to talk to you 
about the University of Idaho's National Center for Advanced 
Transportation Technology, or NCATT. Your decision to hold this 
hearing in Idaho is important because it allows you to learn 
about three important issues that affect this region. The 
importance of using advanced technologies to solve rural 
transportation problems, the importance of developing regional 
partnerships that include the science and engineering base at 
our universities and our national labs, and the importance of 
continuing to invest in our future transportation engineers to 
the strengthening of the University Transportation Centers 
Program.
    I would like to make three points to you today. There won't 
be an exam at the end, as is part of my normal business. First, 
the Congress made a key investment in the University of Idaho 
when it established NCATT in 1991 through that year's ISTEA 
legislation. We have used this investment to create a 
transportation center that brings together the skills of 
faculty and students, from engineering, human factors, 
geography, geology, and agriculture to develop advanced 
technology applications. I will show you some examples of the 
substantial return on this investment in just a few minutes. We 
are asking that NCATT be designated as a center in this year's 
authorization bill and that our particular expertise, advanced 
transportation technology, be recognized.
    Second, we are part of a larger community of transportation 
centers and institutes. The university centers and institutes 
are producing a new generation of engineers that are needed to 
design, build, operate and maintain the transportation system 
for the 21st century. Each center and institute has a unique 
theme and mission; each continues to make an important 
contribution; and each needs to be supported as a part of the 
University Transportation Centers Program.
    Third, we are also a part of a regional community. We 
established the Idaho Transportation Consortium in 1993 to 
bring together the University of Idaho, the National 
Engineering and Environmental Laboratory, the Idaho 
Transportation Department, and the Federal Highway 
Administration to combine our talents to solve regional and 
national problems.
    I'd now like to show you a few of the things that we have 
accomplished during the past 5 years as a result of the 
investment that was made in the University of Idaho as a part 
of ISTEA.
    [Video of the University of Idaho National Center for 
Advanced Technology was shown.]
    Senator Kempthorne. I love the timing. It is very good. 
Michael, thank you very much. Is that yellow car the one that 
is out here?
    Mr. Kyte. It is actually a newer car, an older car but 
newer model.
    Senator Kempthorne. And also the pickup is out here.
    Mr. Kyte. The biodiesel pickup is out there as well.
    Senator Kempthorne. That film helped us see the real value 
of NCATT and the issues that you are dealing with. All right.
    With that, Steve Albert, who is the Western Transportation 
Institute, Montana State University. Welcome.

 STATEMENT OF STEVE ALBERT, WESTERN TRANSPORTATION INSTITUTE, 
                    MONTANA STATE UNIVERSITY

    Mr. Albert. Thank you for the opportunity to talk about our 
national rural transportation challenges. I would also like to 
take a moment to share how the Western Transportation Institute 
at Montana State University-Bozeman, is meeting those 
challenges as it relates to Intelligent Transportation Systems. 
And, finally, I would like to make highlight on ISTEA 
reauthorization improvements that WTI support.
    Under ISTEA, the US DOT allocated over $660 million for ITS 
research development and deployment. Less than 1 percent of 
those funds were made available for rural ITS, and that is 
clearly not adequate. Rural America is currently challenged 
from six perspectives. No. 1 is safety, as rural America has 80 
percent of our Nation's road miles but 58 percent of the 
traffic related fatalities. Furthermore, there is a 2 to 1 
greater emergency response time when compared to the urban 
setting. Also, 78 percent of rural travelers are tourists who 
are unfamiliar with the roads and travel over 150 miles per 
trip;
    Two, efficiency as commercial vehicles move the majority of 
goods and services and the majority of these miles are through 
vast rural settings;
    Three, economic productivity as tourism areas are dependent 
on visitor experiences, information and access;
    Four, mobility and convenience since 66 of our communities 
have little or no transit even though they have older, more 
transit-dependent populations;
    Five, sustainability and funding as rural communities have 
limited resources and more natural disasters; and
    Six, the greying of America. As our Nation's population is 
getting older, driving capabilities diminish and they need 
better traveler information to feel safe and secure.
    While our rural communities are not the economic engines of 
the United States as their urban counterparts, they provide the 
connectivity to move people and goods and services between 
urban centers. Therefore, these parts of the highway systems in 
rural areas must continue to be maintained and improved. As 
such, the issues and applications of ITS are not congestion 
mitigation like in urban cities, but safety, efficiency, 
economic factors, and information for travelers, fleets, and 
infrastructure.
    The American West offers a unique opportunity for research, 
demonstration, and deployment of Advanced Rural Transportation 
Systems that cannot be surpassed in the United States. Unlike 
other areas of the United States that emphasize congestion 
relief, ITS applications for the Rocky Mountain Region and the 
Pacific Northwest are predominantly rural outside of a handful 
of urban centers and thus face different issues and objectives.
    WTI was established in 1994 by the Montana and California 
Departments of Transportation in cooperation with MSU-Bozeman 
as a national and international center for rural ITS 
transportation research and education. Since the inception of 
WTI, we have accomplished much in raising the awareness of 
rural challenges including the following activities: Providing 
stakeholder outreach to over 20 States on rural ITS benefits; 
developing a rural ITS strategic plan in California and 
Montana; providing leadership for rural ITS research through 
the Intelligent Transportation Society of America Rural 
Committees; providing ISTEA testimonial to Secretary Pena; 
providing guidance and serving on US DOT Rural Action Teams to 
develop an ITS strategic plan; evaluating rural highway system 
applications; evaluating commercial vehicle operations and 
automatic border crossings; and providing over 25 presentations 
and publications on rural issues and applications; and, 
finally, hosting the 1997 International and National Rural ITS 
Conference in Montana in cooperation with Montana Department of 
Transportation.
    And, Senator Baucus, you have been invited as a speaker to 
that.
    Senator Baucus. Thank you.
    Mr. Albert. The Western Transportation Institute has been 
in the forefront of Advanced Rural Transportation issues and 
would like to make the following ISTEA reauthorization 
recommendations in order to meet rural needs: provide funding 
that will allow development and formation of a rural 
constituency, or partners; provide for early deployment of 
planning funds for rural settings, not just major urban areas; 
research realistic ITS benefits based on deployment experience, 
not theory; and provide for prioritized deployment based on 
needs; and, finally, reduce the local match funding 
requirements.
    In the last few years WTI has recognized that one critical 
element missing from rural ITS planning and deployment. The 
missing element is the designation of a rural corridor that 
would serve as a national and international testbed. Of the 
four National Priority ITS Corridors designated by U.S. DOT, 
not one included two-lane rural highways. States with large 
urban transportation centers have made significant progress in 
establishing and deploying ITS programs. Most rural States have 
not felt the expediency to develop ITS programs. Idaho, 
Montana, and Wyoming, however, do realize that ITS has 
applications to their transportation problems and have 
initiated an action to explore ITS in rural settings. With the 
assistance of Senator Baucus and Senator Burns, a limited 
testbed for rural ITS applications has been created and is 
called the Greater Yellowstone Rural ITS Priority Corridor. It 
is the first two-lane rural ITS corridor project. The project 
has taken initial steps to make rural travel more safe, 
dependable and convenient. What is needed now is full-scale 
deployment and evaluation.
    In summary, when you compare urban versus rural issues, the 
rural environment has fewer congestion and mobility issues but 
greater number of fatalities, more road miles, longer trip 
lengths, dramatic weather changes, more aged population, and a 
greater need for economic viability. Unfortunately, these 
issues have not received adequate attention or appropriate 
funding. There are 64 persons killed every day on rural roads. 
With additional funding, ITS can undoubtedly help to reduce 
that number.
    I would like to emphasize that WTI has been working with 
regional partners, such as INEEL on development of a vision for 
the Greater Yellowstone area and the Yellowstone National Park, 
as well as working with partners such as Mr. Kyte here in 
developing what we would propose as ISTEA reauthorization 
language, and those documents are available today.
    And I am also aware that Senator Baucus, Kempthorne and 
Thomas intend to introduce STARS 2000 as has been discussed in 
these presentations, and I highly support that.
    Senator Kempthorne. Good. Mr. Albert, thank you very much. 
I appreciate that.
    Now we have Mr. Basil Barna, Manager, INEEL Lockheed, 
Infrastructure and Transportation Department.

       STATEMENT OF BASIL BARNA, MANAGER, INEEL/LOCKHEED 
            INFRASTRUCTURE TRANSPORTATION DEPARTMENT

    Mr. Barna. Thank you very much, Senators. I very much 
appreciate this opportunity to be part of this dialog. It is 
very important to me. I am really here for three simple reasons 
today. The first reason is that transportation is a critical 
part of our Nation's infrastructure. In the deliberations of 
this subcommittee and all of us here involved, it is going to 
have a far-reaching effect on our national security, our 
economic competitiveness, and our environmental future.
    The second reason that I am here is that the national labs 
since the 1940's have been a critical part of our Nation's 
future in terms of determining what are the solutions to 
``Grand Challenge'' types of problems. A grand challenge type 
of problem is a problem that is so complex and has such far-
reaching impacts that we have to mobilize our national 
resources in terms of Federal laboratories and universities to 
work on the public good. And a sustainable transportation 
system for the 21st century is such a grand challenge.
    Finally, I am here today because the Pacific Northwest has 
the ability to mobilize its technical resources in a way and in 
a partnership that can have real national and global impact. 
With its unique mix of rural and urban infrastructures, the 
technical resources of two national laboratories, excellent 
universities, and world-class technology industries, we have 
the potential to fundamentally change how this Nation moves its 
freight, people, and information.
    Now, the seeds of this greater cooperation throughout this 
region have already been sown through formal and informal 
collaborations that exist right now. Michael Kyte just 
mentioned the Idaho consortium, which is very beneficial to us, 
a great deal of value. But, the principles of that consortium 
have led to greater cooperation and have been extended to other 
regional universities, such as Montana State, and other State 
transportation departments that include not only Idaho, but 
Montana, Wyoming, North and South Dakota, Utah, Oregon, and 
Washington. Many great informal collaborations going on.
    As great as these collaborations have been and is 
beneficial, we need to do more. In order to get some scale as 
to why this is such a problem, why this is a grand challenge, 
consider the following. We have already heard about the 60 
percent fatality figure. Perhaps even more significant is in a 
rural State like Idaho or Montana that fatality figure is over 
80 percent.
    From another perspective, in a typical year, 1993 is the 
year I have the figures for, the Federal highway user tax 
distribution to the States ranged from $600 per lane-mile to 
$21,000 per lane-mile. Now, rural States generally receive 
less, urban States receive more. Is that fair? This very well 
may or may not be fair, but without scientific tools, without 
research to clearly trace the effects on society, our 
policymakers have little basis from which seek real national 
benefit. We need better information, better tools. And these 
facts point to some of the fundamental differences between 
urban and rural transportation systems. Our Nation's commerce 
couldn't survive without a vital network of rural highways 
linking our urban centers and also linking our agricultural 
products to seaports. Public policy has to strike a balance 
between the benefits of a coordinated national system and 
ensuring the local decisionmakers, many of which were here 
today, have the resources to solve the problems that they know 
best. Now, the right kind of research can help assist this 
process.
    There are also some significant issues from an energy, 
environment, and national security viewpoint. Transportation is 
an industry that consumes 27 percent of our Nation's energy 
budget. That's a big chunk. More than that, our transportation 
system is 97 percent dependent on oil as a fuel for its 
vehicles. Two-thirds of that oil is imported from foreign 
sources, and this obviously creates a significant cost in terms 
of exposure in national security. It costs a lot of money to 
maintain a carrier in the Persian Gulf. These types of issues 
demand that we treat our Nation's transportation system as a 
critical resource. To continue the efforts begun by the 
landmark ISTEA legislation in 1991, we must ensure that 
reauthorization includes a serious effort to mobilize our 
Nation's science base to revitalize the whole system.
    INEEL is deeply involved, can and should be part of this 
solution. It is a little-known fact that the INEEL site and its 
bus fleet is serving as a testbed for commercial vehicle safety 
equipment that will be installed at the East Boise Port of 
Entry later this year. Together with our State partners, who 
have been mentioned before, we are deploying advanced 
technology to keep unsafe trucks off the highway there. A 
similar partnership will also be field testing a composite 
bridge on the INEEL site this year in an effort to show how 
advanced materials can help renew the Nation's aging 
infrastructure. I can't remember how many times I heard 
``bridge'' today, but it was many times.
    The synergy demonstrated in these new projects compliments 
long-standing INEEL role in electric and hybrid vehicle 
development, aviation safety, waste and hazardous material 
transportation, and alternative fuels development. For the 
future we are convinced that the major areas of progress will 
be in joint research programs that will take a systems 
engineering approach to how we design, build, and maintain our 
nation's transportation system. In one such effort we are 
teamed with Sandia National Laboratory in proposing a new 
program to prove the principle of Simultaneous Vehicle/
Infrastructure Design, SVID. The first focus of this program 
will be on extending the lifetime of our pavements and bridges 
through improved materials and vehicle designs that minimize 
their impact on the infrastructure. If properly executed, and 
we will ensure that this is the case, this system's approach 
would vastly improve the way we integrate infrastructure, 
vehicles, and users.
    As a final point, I would like to emphasize that if we are 
to take this grand challenge seriously, we must be bold and 
innovative in forming new partnerships. Reauthorization should 
support this process and provide a basis for building these 
partnerships. Perhaps more than any other industry, 
transportation is a balancing act between diverse and sometimes 
opposing forces. The national laboratories can serve an 
integral role in helping bring these forces together to work on 
national issues.
    Senator Kempthorne. Mr. Barna, thank you very much. We 
appreciate that.
    Now, Mr. Jim Manion, who is the President of AAA of Idaho, 
Idaho Highway Users.

STATEMENT OF JIM MANION, PRESIDENT, AAA OF IDAHO/IDAHO HIGHWAY 
                             USERS

    Mr. Manion. Thank you, Mr. Chairman, Senator Warner, 
Senator Baucus. I also appreciate the opportunity to be here 
today. I had the wonderful opportunity to grow up in the State 
of Montana, and now I am going to be in Idaho, so I truly have 
enjoyed the best of all worlds here.
    And I do represent AAA Idaho, who serves 58,000 motorists 
in 34 Idaho counties. I think we represent a real cross-section 
of Idaho citizens and motorists. I also represent a second 
group called the Idaho Highway Users, and that's an 
organization that for decades has supported critical 
investments to our roads and bridges. The Idaho Highway Users 
record, I think, has demonstrated a strong and realistic 
advocacy regarding the critical role of strong roads and a good 
bridge network. Both AAA and the Highway Users group have 
demonstrated an unwavering tenacity to protect the appropriate 
use of taxes and fees that all motorists pay. I have also been 
able to lately do some work with the Idaho Transportation 
Coalition, which is spearheading an effort to finance 
improvements for Idaho's main north-south route, which is U.S. 
95.
    Last June AAA and its affiliated clubs throughout the 
United States launched a campaign called Crisis Ahead, 
America's aging highways and airways. Its purpose was to show 
policymakers and opinion leaders that unless urgent steps are 
taken to maintain and improve our highways and airways, Idaho 
and the rest of this country will face a certain transportation 
crisis.
    At the core of this problem is an unsettling prognosis that 
our roads and bridges are beginning to crumble. In Idaho 83 
percent of the State's major roads are in poor, mediocre or 
fair condition, according to the Federal Highway 
Administration. Idaho does fare better than other States in the 
condition of its bridges, but nonetheless the Highway 
Administration says 376 of our 4,000 bridges are structurally 
deficient and 414 are functionally obsolete. These catagories 
represent 20 percent of bridges on the State system. Despite 
notions to the contrary, the total mileage of all roads and 
streets in the U.S. has only grown 3 percent, according to 
officials from AASHTO. Our real problems are compounded by the 
79 percent increase in vehicle miles traveled during that same 
period, coupled with highway capital investment decrease of 29 
percent from 1985 to 1995. That's not a good formula. Some 
areas of Idaho where populations have risen dramatically are 
essentially faced with a shrinking infrastructure. What are the 
consequences of all this?
    Without adequate and sustained funding sources, each Idaho 
motorist can expect to pay $225 a year for extra vehicle 
maintenance and operating costs. That amounts to $181 million 
in Idaho alone. Without adequate and sustained funding sources, 
we will see more congestion. Motorist delays, wasted energy, 
and lost productivity are the result. Without adequate and 
sustained funding sources our ability to get where we are going 
is impeded by safety defects and stretches of road now 
identified by the State as deficient for passing. Without 
adequate and sustained funding sources, we are fearful there 
will be more road tragedies. Between 1992 and 1995, 981 people 
died on our State's highways. At the national level, nearly 
42,000 people died in traffic accidents in 1995, which was up 
for the third year in a row, following a 2-year decline. 
Without adequate and sustained funding sources, these road 
deficiencies will continue to take more motorists lives. A 
safety report released just 2 weeks ago concluded that poor 
road conditions and designs contributed to more than one-third 
of all traffic fatalities in the United States last year.
    But in identifying these problems we face in Idaho, I would 
be remiss in not saying that the Idaho Transportation 
Department has performed admirably. They have been faced with 
limited program dollars and tough challenges to downsize, work 
smarter, privatize, and out source its work loads, and the 
Department's efforts have been stellar in those areas. A 
Legislative Interim Study group charged the department with the 
task of working smarter and reducing expenses, and this 
department, under Director Bower, has done just that. It has 
shown its commitment to the issues of safety, mobility and 
working smarter to accomplish more.
    We would like to leave the panel with six recommendations 
today. We support Senator Warner's proposal to increase highway 
spending to $26 million Last year motorists paid 18.3 cents 
Federal tax----
    Senator Warner. That is Senator Baucus'.
    Senator Baucus. It is all three.
    Mr. Manion. Heavens sake, can't be leaving anybody out 
here. We support everyone's effort to increase that highway 
spending to $26 million.
    Senator Kempthorne. Jim, it's billion.
    Mr. Manion. Yes, it is, $26 billion. Last year motorists 
paid 18.3 cents Federal tax for every gallon of gasoline they 
purchased. Those who use diesel paid 24.2 cents a gallon. 
Together with other assorted fees we paid 31.5 billion. Did all 
these highway user fees go to roads? Unfortunately not. In 
fact, nearly one-third went elsewhere. 6.5 went to the General 
Fund for non-highway programs, and 2.6 billion went to the mass 
transit account. Deposit 4.3 cents per gallon, 4.3 cents per 
gallon fuel tax in the Highway Trust Fund and increase highway 
funding to invest the additional revenues in road and bridge 
improvements.
    We would hope we could resist the notion that ISTEA 
enhancement moneys provide a one size fits all solution to 
transportation problems. Flexible spending, as we've heard a 
lot about today, was designed to give locals the opportunity to 
make better decisions. But the restrictions on enhancement 
moneys and CMAQ funds have had exactly the opposite effect. By 
writing specific instructions for enhancement funds, we have 
been unable to make the wisest possible use of those funds.
    We oppose the Administration's transportation vision that 
would divert more than 4 billion from the Federal Highway Trust 
Fund to heavily subsidize an ailing AMTRAK. We oppose using the 
dedicated user fees for welfare recipients who work, and 
adamantly oppose tolls on roads already paid for by highway 
users. We support the Federal legislation that would take 
Federal Trust Funds off budget, and we would like to target 
highway expenditures to the National Highway System which 
interlinks and serves motorists, tourism, and business 
interests.
    In summary, both AAA Idaho, and the Idaho Highway Users 
point to three priorities in your considerations of ISTEA 
reauthorization. One, provide adequate funding for highway and 
bridge maintenance; two, increase investments in highway 
safety; and three, continue a strong, responsible, yet flexible 
Federal role.
    We appreciate again the opportunity to share our positions 
on these issues surrounding the reauthorization of the Federal 
aid program. Thank you.
    Senator Kempthorne. Mr. Manion, thank you very much.
    Senator Warner, would you like to lead off?
    Senator Warner. Thank you. All right. I will be brief 
because we are anxious to hear from that next panel.
    Let's talk about safety. Your organization has a good 
record for that. Is there an aspect to safety that is unique to 
the western States that we should be addressing in this bill?
    Mr. Manion. Well, I think there may be several. I think 
we've made reference to the large number of miles of roads that 
need to be traveled and, I think, through a lot of rather 
difficult conditions, mountain passes, those sorts of things. 
And I think that there are some aspects of roadwork, better 
engineering, if more funds were to permit, shoulder work and so 
forth, guard rails and such, that's simply been inadequate that 
may be a little unique to the conditions in the West.
    Senator Warner. Much of that is in the discretion of your 
local highway administrators or secretaries or whatever title 
you apply. I am talking about do you want anything in this bill 
directed toward safety in the West? Think about it, and give me 
a note on it.
    Mr. Manion. I will.
    Senator Warner. Now, Mr. Kyte, I am fascinated. I went out 
and looked at those cars. Canola oil, I told you, I cook with. 
Don't use it all.
    Mr. Kyte. There is plenty for salad dressing.
    Senator Warner. It is good for frying too. Anyway, I was on 
the Energy Committee years ago. If I had stayed on there I 
would be chairman today, but like with everything else, you 
move around. The point is that I remember 10 or 15 years ago, 
windmills, they were going to save America in terms of power 
supply. I traveled around and looked at the windmills. And 
indeed there are certain limited geographic areas if where 
there is a prevailing wind to support them, they can work. But 
I am concerned. Are we raising the hopes and aspirations of our 
people, all of whom want clean air, all of whom want a 
beautiful environment, thinking that some day we can have a 
fleet of vehicles operating on canola oil and biodiesel oil? I 
am sure you can make a couple of these projects work in a 
laboratory, but when you look at extrapolating that into the 
mass growing transportation needs of America, frankly is it 
realistic?
    Mr. Kyte. It's not an easy question to address or answer 
but I think if I can provide you with a couple of example 
perspectives it will help. Currently the cost of production for 
a gallon of biodiesel fuel is about $3 a gallon. But that 
clearly is not competitive today. But, that's based on our 
production on a very small scale at the university. I think 
there are certain key segment markets that you would want to 
look at as test cases, more agricultural uses, also in areas 
that are environmentally sensitive. There is a project going on 
right now in Yellowstone Park. Yellowstone is experiencing a 
lot of----
    Senator Warner. I'll agree with you 100 percent on that. 
Gentlemen, we want to make sure we have encouragements in our 
bill for that. Yes, go ahead.
    Mr. Kyte. And the issue there, I think, it's not just at 
Yellowstone but at other national parks, that we are concerned 
about the sensitivity of our environment. If we have buses or 
fleet vehicles that are operating with these special fuels in 
those places that are more sensitive, I think it will allow 
more people----
    Senator Warner. You are going to help me put that in the 
record. I want to yield to my colleagues but, quickly, here. I 
am envious of what you have with this university. And good old 
Steve Symms, he got her there. How much money do you get a 
year? What do you average, and how is it that your research 
isn't redundant with the research at another university or 
college somewhere? Who is keeping the watchful eye on this very 
important program, which I support?
    Mr. Kyte. Two parts to your one-part question. First, we 
receive funds to build a building. And we received through the 
DOT programs no ongoing, regular----
    Senator Warner. This is a one-shot building?
    Mr. Kyte. It was a one-shot building.
    Senator Warner. And then the whole burden is financially 
shifted to the educational institution?
    Mr. Kyte. That's right, and to other competitive grants. So 
unlike the other 20 centers or institutes that are a part of 
DOT University Transportation Centers program, we receive no 
annual operation or research----
    Senator Warner. The others do, though.
    Mr. Kyte. The others do, right.
    Senator Warner. That is very interesting. Thank you very 
much.
    Senator Kempthorne. Senator Baucus?
    Senator Baucus. I guess all of you, basically, here you 
are. Jane Garvey was here, I think still in the audience, 
Acting Administrator, and Senator Warner is here asking some 
very insightful questions with respect to the rural nature of 
our research dollars.
    Here is your chance. Here is your shot. We listened to 
prepared testimony. Give a little more flavor to and kind of 
explain maybe a different angle or different way the special 
rural character of our States and therefore the needs for 
tailored research and tailored to rural areas.
    One thing that comes to my mind, we all remember watching 
on television a couple of months ago that lady in North Dakota 
or South Dakota and she was stuck in the snow and, fortunately, 
she had a cell phone, and the people out rescuing her were able 
to triangulate where she was. Not everybody can have a cell 
phone with her. If she was in trouble or unconscious, for 
example, in a car accident. It seems to me one real problem we 
have in the West is just the time it takes to get to a doctor 
or a hospital. And we all know that fatalities are directly 
correlated to the time in which you can get assistance. But, 
what thoughts come to mind here? Kind of give Senator Warner 
here and Administrator Garvey kind of something to think about.
    Mr. Albert. I would like to see most of prioritization from 
a transportation perspective has been on congestion relief, and 
some portion of that is safety, obviously. But when you look at 
rural America and you look at 60 percent of the fatalities are 
in rural areas----
    Senator Baucus. Could you speak up, please?
    Mr. Albert. Sixty percent of those fatalities are in rural 
areas. And a very important fact, to get back to Senator 
Warner's question about safety, is what you don't realize is 70 
percent of those fatalities are people running off the road 
hitting a fixed object. We should have some type of improved 
design, whether it be electrical in vehicles or infrastructure 
based, that would reduce the number of people who are leaving 
the roadway and being killed. Any type of improvement in doing 
that would add a significant benefit to rural America.
    Senator Baucus. What comes to mind is how do we deal with 
that.
    Senator Warner. That is fascinating. You really asked a key 
question. Ask your man on the right, why isn't he doing 
research on that?
    Mr. Albert. Right now WTI has a contract with the Federal 
Government and the National Automated Highway Systems 
Consortium to look at what we can do to keep the vehicles on 
the road in rural areas to preclude people from being killed. 
And that solution has not been defined yet, but we hope to take 
some of the lessons learned from urban areas and figure out how 
do you apply that in a rural setting.
    Senator Baucus. Is it speed?
    Mr. Albert. It's speed, it's driver inattention. Most of 
the drivers leaving the road are due to inattention. If you can 
give them some technology that will basically help them with 
about 2 seconds of time, you can keep them on the road.
    Senator Warner. If you do what?
    Senator Baucus. Keep them attentive.
    Senator Warner. Two seconds. That is a fascinating, all the 
years I have been on the subject. We have to do something about 
that.
    Mr. Manion. I will add quickly, and it might also, Senator 
Warner, go to your earlier question to about safety and these 
things that may be unique to the West, but I'm not entirely 
certain. Some very practical things that may occur in some 
studies that may answer that, and they are logical, obviously, 
if you think about them. But, by increasing lane width to 12 
feet, you can expect, the studies have shown, a reduction in 
accidents from 12 to 40 percent. By increasing shoulder widths 
by 2 to 8 feet, and I think it is obvious that people would 
stay on the road longer, you get an accident reduction of 7 to 
28 percent. By removing roadside hazards from with 5 to 20 feet 
of the roadway, you get 13 to 44 percent reduction in 
accidents. And by reducing the degree of curvature in the road 
by 5 to 20 degrees, you get nearly a 25 to 30 percent decrease 
in accidents.
    Senator Baucus. So you can drive right across the farmer's 
wheat field.
    Mr. Barna. If I may, Senators, I would like to add that 
these statistics and these choices really support, if I were 
king for a day, what we would do to address rural 
transportation. And that is to take this stand-back look and 
say here are all our choices. If the subcommittee could plan in 
this science base to start addressing these problems 
scientifically and from a systems viewpoint that allows us to 
trade these off and give you the tools as decisionmakers to say 
what should be done, that would be a tremendous accomplishment 
for the reauthorization.
    If we don't do that, it's like 100 years ago we were 
getting farmers out of mud with our transportation issues.
    Senator Warner. We were doing what?
    Mr. Barna. We were getting farmers out of mud. That was the 
goal of our transportation system, was to get those products to 
market, to pave the roads so we weren't in the mud. Right now 
we are in a philosophical and scientific mud. There are too 
many choices and there are too many competing interests. Start 
a program that allows us to pull this together scientifically 
and policy-wise that makes sense for the Nation.
    Senator Warner. Another good panel. Keep it up.
    Senator Kempthorne. Mike?
    Mr. Kyte. If I can add another twist to that. I think 
besides this area of research and technology development, I 
think hand in hand we have to have education and training. And 
I want to emphasize two parts of that. One is for engineers 
that are in school that are getting their training, and the 
other is for engineers already in the field getting retraining. 
As we spend a lot of money on ITS applications, whether it's 
rural or urban ITS, folks in the field who are engineers who 
are planning and designing and operating our roadways today 
need to understand how these new technologies work, and that is 
a big job, and that needs to be considered as a part of ISTEA 
reauthorization.
    Senator Kempthorne. Thank you.
    Mr. Barna, you have discussed a great deal this aspect of 
rural transportation. What is the key? What's the difference 
between rural and urban?
    Mr. Barna. Well, Senator, we feel that there are four 
characteristics that really, from a basic viewpoint, define 
what a rural transportation system faces. Unique hazards, 
distances, dispersion, and--my god, I forgot the fourth one, 
because I am nervous. Unique hazards, dispersion, distance 
and----
    Senator Kempthorne. And that other thing.
    Mr. Barna. And that other thing, which I will find as we 
talk about it. But those characteristics, if we go back to real 
basics of the issue, and when we say as a Nation we need to 
look at what's good for our economy, what's good for our 
population, how do we translate that into policy action and 
science action. From the rural perspective, we need to organize 
this around those issues. And the reason I did this is was 
because I thought our timer was really at 5 minutes, and it 
turned out it was at six, and I crossed out most of my words. I 
will come up with that fourth characteristic.
    Senator Kempthorne. If you will just provide that for the 
record.
    Senator Baucus. That's a good point, Mr. Chairman. One 
thing that has always interested me is generally a national 
legislation or policy, people talk about rural this or rural 
that, rural health care. And it's--I chuckle, frankly, because 
rural here in our part of the country is totally different. 
It's not the same as rural in the eastern United States. I 
recall when Mrs. Clinton came to Montana a couple of years ago. 
She got off the plane and looked around and said this isn't 
rural, this is mega rural, this is hyper rural. She immediately 
saw the huge difference between east and west. Frankly, it's a 
function of rainfall. You look at the States west of the 
hundredth meridian where it doesn't rain. The characteristic of 
``rural'' changes dramatically compared with eastern United 
States where it does rain.
    Mr. Barna. Remoteness, that's the fourth characteristic. It 
really gets to the golden hour.
    Senator Kempthorne. That's right. We probably ought to 
denote that. It is frontier. It is not rural as we know back 
East. Rural back there can still be hundreds of miles straight 
line, and every so often you have a crossroad. Not the 
winding--and sometimes there's gravel roads. So.
    Mr. Manion, your statement referred to a recently released 
study, and you have talked about it a little bit, identified 
the poor road conditions and the design problems that 
contributed to one-third of all traffic fatalities last year. 
What were the most common types of road conditions and design 
faults that were cited that contributed to this?
    Mr. Manion. Senator Kempthorne, I did actually refer to 
some of those, and I think they are things like areas where we 
can reduce the degree of curvature in the roads. I think the 
areas where we are able to simply widen roads, not only the 
width of the lanes but the shoulder widths and well. It's those 
type of things. And I think some of the other individuals 
referred to some of those things too. It's the inattentiveness. 
Those types of issues.
    Senator Kempthorne. So, Mr. Kyte or Mr. Albert, based on 
that, as you come up through some of our canyons, there is no 
space for additional shoulder width. There is no way to 
straighten some of those roads. So what do you do?
    Mr. Kyte. You are asking a hard question. You can take it 
first.
    Mr. Albert. The fatalities that happen on those roadways, I 
think if you look at the statistics, some are due to unsafe 
driving conditions and driving too fast for conditions. There 
are technologies that are out there that would remind the 
motorist of the speed which they are traveling and, hopefully, 
they will slow down. The other reason there are fatalities in 
those places, people leave the road and get killed, like I 
mentioned earlier. There are elements that you can put in the 
road that would help detect them as they cross over that lane 
line that alert the driver that he is about to leave the 
roadway, get back on the road.
    Mr. Kyte. I would like to offer maybe another view. Instead 
of always looking at high tech results, there are some other 
lower tech solutions. One of the things that a group of our 
researchers is looking at is the way that we stripe our roads. 
If you are driving down a roadway you have a certain 
expectation of distance between each stripe along the 
centerline and the length of what those stripes are. By 
changing those distances what it sometimes does, and there has 
been some research on this in terms of looking at aircraft 
operations as well, you can fool the driver into thinking that 
he or she is really traveling faster than they really are.
    One way of trying to deal with this issue of driving too 
fast is by changing the striping. It seems like kind of a weird 
idea, but it does work. People respond to changes and the cues 
that you normally get when you see striping or signage 
placement along the roadside.
    Senator Baucus. You mean if the stripes are shorter they 
tend to slow down?
    Mr. Kyte. Shorter or closer together, drivers tend to slow 
down. That's not a high tech but a more practical solution of 
how do you get folks to respond when you can't do magic things 
like move rivers or move canyons.
    Senator Kempthorne. You know, too, I am literally lucky to 
be here because, as a student at the University of Idaho, 
making that trek back from Boise, why, we hit something and we 
started rolling and had it not been for the snow bank, we would 
have gone right into the river and that would have been it. 
That was when I was a student.
    Mr. Kyte. Well, the invitation is open to return to Moscow 
at any time. We would love to give you a tour of our center as 
well.
    Senator Kempthorne. This car that is out there, how many 
does that hold?
    Mr. Kyte. The electric vehicle, actually, the current model 
holds one. And we would like to invite each to you have a 
chance to come out and drive it. The interesting thing though, 
you have to watch out, because it is completely quite, so you 
can't turn your back when Senator Baucus is driving then.
    Senator Kempthorne. One final question, Mr. Kyte. Can you 
clarify the role that NCATT plays as a member of the University 
Transportation Centers program and how important to your future 
success is your redesignation?
    Mr. Kyte. We think that the redesignation is very 
important. We are one of 21 national centers and institutes. 
Ten were regional centers that were created as a part of the 
Surface Transportation Act back in the late 1980's. There is 
one center in each of the ten Federal regions. Also 11 centers 
and institutes that were created as a part of ISTEA.
    As I mentioned before, we do not receive any money through 
DOT University Transportation Centers program right now. As a 
part of that program we think it is very important for us to 
continue to do some of the things that I was attempting to 
highlight today to allow us really to serve Idaho and the 
region a lot more effectively.
    Senator Warner. Do you get together with other 
counterparts, the other 20 from time to time?
    Mr. Kyte. You bet.
    Senator Warner. And you share and read through what they 
are doing?
    Mr. Kyte. We are on line, we meet together regularly. I 
think one of the nice things about that program that has been 
very effective is to allow us to exchange information, not just 
on research and technology development, but also on education 
as well.
    Senator Warner. Gentlemen of the panel, I think we ought to 
make sure that this institution gets more recognition for some 
of the work they are doing to solve these problems.
    Senator Kempthorne. I agree. These are real issues that 
they are dealing with and coming up with some great 
suggestions. But, too, I can see that a panel or a hearing just 
dedicated to safety and the technology would be very beneficial 
and also fascinating.
    Steve, final word.
    Mr. Albert. You are more than welcome to come to our 
conference in Big Sky, Montana, and hear about those issues.
    Senator Baucus. When is it?
    Mr. Albert. August 24th through 27th.
    Senator Kempthorne. Thank you. Another tremendous panel.
    I would ask the remaining panel to please come forward.
    Ladies and gentlemen, let us continue. And, Mr. Schweitzer, 
I am going to call on you first, if you don't mind. Are you 
ready?
    This is Carl Schweitzer. You see, I got this tip from Mr. 
Kyte and if we can vary the things, it keeps the interest up.
    Now the Executive Director, Montana Association of 
Contractors.
    Mr. Schweitzer?

   STATEMENT OF CARL SCHWEITZER, EXECUTIVE DIRECTOR, MONTANA 
                   ASSOCIATION OF CONTRACTORS

    Mr. Schweitzer. Thank you, Mr. Chairman. Senator Warner, 
Senator Kempthorne, and Senator Baucus, it is a pleasure to be 
here today. I am Carl Schweitzer, Director of Governmental 
Affairs for the Montana Contractors Association. The Montana 
Contractors Association is a highway, general building, 
municipal/utility and concrete producers group that represents 
over 100 of Montana's largest construction companies. A large 
majority of our folks are in the highway construction business.
    I am here today to state very clearly my membership support 
for STARS 2000 which Senator Baucus and Senator Kempthorne and 
others are about to introduce. First, we have roads that need 
to be fixed, and STARS 2000 goes a long way toward addressing 
Montana's and the Nation's road needs. The bill starts to 
address funding crisis facing our highways and bridges. In 
Montana we have had an especially hard winter, and our highway 
system is showing the results of this hard winter. Extreme cold 
temperatures and above average snowfall are contributing to the 
breakup of our highway system. And it was kind of interesting 
coming over yesterday on I-90. The pictures that you have up 
there is exactly what I-90 looks like coming over the pass, 
only they have it a little bit wider. The snow is well above 
the level of the cars. It is almost like you are driving 
through a tunnel. So we can expect some real flooding problems 
coming up.
    If you have traveled recently on I-90 as I did, you will 
find that in the Missoula area there are some potholes there 
that can almost eat your car. In fact, as I came over 
yesterday, part of I-90 is actually closed off. The passing 
lane has been shut down because of the weather problems, 
potholes and moisture coming up through the system.
    STARS 2000 addresses the highway maintenance problems by 
directing a much larger proportion of the highway user dollars 
to the highways, where they belong. During the Congressional 
debates I hope that you can keep your colleagues focused on one 
primary fact. Highway users want the highway taxes put back 
into the highways. STARS 2000 is founded on this premise, and I 
hope you can keep that fact in the forefront during the 
upcoming debate.
    In Montana we have a $0.27 per gallon fuel tax and one of 
the highest in the Nation. The citizens of Montana realize how 
essential our highways are and are willing via the fuel tax to 
pay for the cost of highway construction and maintenance. And 
given the fact that we heard on an average per citizen we pay 
$360 compared to a national average of $220, maybe in some ways 
we really are a donor State, because we are willing to pay for 
our highway systems in Montana and Idaho, and I think all of 
the western States are, because I think we realize the 
importance. The citizens redirect a substantially large portion 
of the Federal fuel tax dollars to highway construction and 
maintenance.
    The second reason we are excited about STARS 2000 is the 
economic impact the bill will have in Montana. From my 
association's standpoint, highway job opportunities are 
significant, highway construction jobs that impact every 
Montana community. And each community wins about four times 
when there is a construction activity. First, it receives an 
improved and safer road. Second, local citizens are employed. 
Third, construction workers spend dollars in the local economy. 
And fourth, the community has an infrastructure asset that 
makes it more attractive to tourism, industry looking to locate 
and most importantly, businesses that want to remain in that 
community. It's a win, win, win, win, situation. And STARS 2000 
is a winning solution for the Montana construction economy.
    One thing that is kind of not in my prepared text but after 
listening to the educators up here of a concern to us in the 
construction industry is that we hope that whatever STARS 2000 
or STEP 21, that comes out, a real concern to us is a trained 
work force. A lot of investment is made into yellow or whatever 
color equipment, and it is becoming much more sophisticated. 
And the need for a trained work force continues. So, however 
STARS 2000 or whatever vehicle is finally achieved, we hope 
that you will look at educating or providing funds for an 
educated work force.
    Senators the Nation is a winner with STARS 2000, and I ask 
that you introduce the bill immediately and work diligently to 
get it through Congress. The Montana Contractors Association 
and the citizens of Montana will work with you to see that 
STARS 2000 becomes the highway funding formula for the Nation.
    Thank you both for listening, and Senator Warner for 
coming.
    Senator Kempthorne. Mr. Schweitzer, thank you very much. I 
am going to call on Senator Baucus, who I think has some 
questions for you. Senator Baucus has to catch a plane back to 
Montana very shortly, so I want to go to him now.
    Senator Baucus. Thank you, Dirk. Carl, first I want to 
compliment you and Montana Highway Contractors. I have worked 
with Carl for a long time, and his people are just really 
straight and direct and very, very helpful and lots of 
information to help us over the years. I want to publicly thank 
you.
    Two questions, really, two points. If you could expand a 
little bit on the freeze/thaw problem as it contributes to 
breaking up the highways. That is, what the percentage 
additional costs, if you can average at all, to maintain 
highways because of freezing and thawing. And second, if you 
want to take that second question first, because it's one of 
the points you made in your testimony, that is, the need for a 
more educated work force as this equipment gets more 
complicated.
    Mr. Schweitzer. I need to maybe do a little research on 
your first question.
    Senator Baucus. Could you, Carl? Just give us the 
information.
    Mr. Schweitzer. I don't have any facts or figures on that 
with me. But as far as a more educated work force, one of the 
most challenging aspects of construction any more is finding a 
work force and an educated work force. As it goes along, it 
becomes more of a greying industry as we get an older group, 
and we are not replacing them with young folks that are as 
dedicated and as trained to work in the construction field. 
That is a real challenge. I think as an owner, the government 
would be very interested in seeing that they do have a very 
good work force out there, providing the public with a product.
    Senator Baucus. Did you mention that the equipment is 
getting more complicated or what? Or did I misunderstand you?
    Mr. Schweitzer. Well, it is becoming a lot more expensive 
and there is a lot more electronics to understand. And it's 
just that we have an older, aging work force. We don't see the 
young people come up with the math and communication skills 
that perhaps they ought to have.
    Senator Kempthorne. Thank you very much.
    Senator Baucus. Thank you. See you at home.
    Senator Kempthorne. All right. We will continue.
    Mr. Doeringsfeld--Dave Doeringsfeld is the director of the 
Port of Lewiston. Would you all join me in thanking Senator 
Baucus?
    [Applause.]

   STATEMENT OF DAVE DOERINGSFELD, DIRECTOR, PORT OF LEWISTON

    Mr. Doeringsfeld. Senator Kempthorne, on behalf of the Port 
of Lewiston, we would like to thank you for holding these 
hearings in Idaho and providing a western perspective on the 
reauthorization of ISTEA.
    As the manager of Idaho's only seaport and the furthest 
inland port on the West Coast, I have been asked to address you 
concerning the intermodal aspects of ISTEA. In a global market, 
the United States must be competitive in two areas, a well-
educated work force and an efficient transportation system. As 
education concentrates on the three Rs, a port focuses on the 
four Rs of transportation, river, rail, roads, and runways. We 
would like to suggest changes to the existing act to improve 
its effectiveness in each of the four Rs for an intermodal port 
facility.
    First the river. A series of eight dams and locks on the 
Columbia and Snake River system provide a 465 mile water 
highway from Idaho to world markets. The beauty of this 
waterway is that it moves vast amounts of cargo but does not 
require overlays or potholes to be filled. Barge shipments of 
grain can be moved for one-half the cost of rail or one-fifth 
the cost of trucking. However, ISTEA is silent or ambiguous 
concerning the utilization of funds for port-related projects.
    Recently, a port in Washington used $400,000 in ISTEA funds 
to complete a much-needed barge dock expansion project. The 
Port of Lewiston is also in need of a similar project. However, 
in Idaho we cannot even apply to the Idaho Department of 
Transportation for ISTEA funds for port-related projects. It is 
simply interpreted differently.
    Last year the volume of barge and rail cargo leaving the 
Port of Lewiston took 57,000 trucks off the National Highway 
System. We believe that ISTEA should provide the flexibility 
for States to provide funding for port intermodal projects 
which reduce congestion or maintenance costs to our highways.
    Rural States such as Idaho have seen the abandonment of 
hundreds of miles of rail lines in the closure of short line 
railroads. In specific cases where the public would be better 
served by maintaining a rail line versus the increased 
construction or maintenance costs associated with additional 
highway traffic, a program providing low interest loans to 
private railroad companies for repair of a line would offer a 
better solution than abandonment of the rail line.
    Similarly, the ability to provide ISTEA funds to ports for 
rail improvements is a gray area and is implemented differently 
than State transportation departments across the United States. 
The Port of Lewiston has seen a 2800 percent increase in 
container by rail service in the last 5 years. For a small port 
it is difficult, if not impossible, to upgrade our rail 
facilities to accommodate this demand. $200,000 in ISTEA funds 
would improve the port's rail to meet current demand. But, in 
Idaho ISTEA is not interpreted to allow for funds to be used 
for rail improvement projects. $200,000 would not construct one 
quarter mile of highway, but it would improve the port's rail 
to allow efficient movement of freight through the Port of 
Lewiston.
    When considering roads for the Port of Lewiston, it all 
comes down to one road, U.S. Highway 95. Highway 95, or more 
affectionately referred to as Idaho's goat trail, is the 
biggest obstacle facing the port and the State for efficient 
movement of people and commerce. Two other members of this 
panel will address the importance of this highway as the only 
land connection between north and south Idaho. I cannot think 
of another State in the country which relies on a single 
highway, no rail, no waterway, as its only north-south 
connector. We implore you to explore possible avenues in ISTEA 
to provide funding for improvements to Highway 95.
    The last area I will discuss is runways. ISTEA provides for 
improving connectivity of airports to the National Highway 
System. Arterials can be improved to enhance traffic flow to 
airports. However, in Idaho only one airport, Boise, qualifies. 
Airports must have a base traffic utilization before they 
qualify for this type of ISTEA funding. In principle this works 
in urban States, but in airports and rural areas who do not 
qualify under air traffic requirements, still have ground 
problems in just getting people and freight to their airports. 
I would suggest that for rural areas the standard set for air 
utilization be lowered or dropped altogether and give States' 
transportation departments the flexibility to decide how to 
best connect the highway system to our airports.
    In summary, connectivity is paramount to the success of 
port facilities. The four modes of the transportation which I 
have discussed, the river, the rail, roads, and runways form a 
stool to support our Nation's transportation needs. The 
efficiency of our seaports, both inland and coastal, provide 
the gateway to U.S. exports and improvement of our balance of 
trade. Thank you very much.
    Senator Kempthorne. Dave, thank you. I appreciate that.
    Now, Mr. Ron McMurray, who is here on behalf of the Highway 
95 Coalition. Ron, welcome.

        STATEMENT OF RON McMURRAY, HIGHWAY 95 COALITION

    Mr. McMurray. Thank you, very much, Senator. It is really 
nice to have you here back home in Idaho, and we want to thank 
you very much for giving us the opportunity to have this 
hearing in Idaho as we get a chance to hear this western 
perspective. Thank you.
    Senator Kempthorne. Thank you.
    Mr. McMurray. I'm also a member on the board of directors 
on the Idaho Transportation Coalition, and we are actively 
involved with a consortium of people who work and live and are 
very concerned about Highway 95, so I want to direct my remarks 
specifically to Highway 95.
    As you know, U. S. Highway 95 runs from the Mexican border 
to the Canadian border, and it enters Idaho in the southern 
part at the Oregon border, 538 miles it goes north through by 
the Port of Lewiston and exits at the Canadian border. It 
almost runs the entire length of Idaho, and is the only, and I 
mean the only, ground transportation link between north and 
south.
    But not only that, it is also a main street for a number of 
our towns, especially in North Idaho. And so because of that, 
because Canada is our largest trade partner, because it 
connects our only seaport, the Port of Lewiston, and also 
connects our capital in Boise, you can see this highway is more 
than just asphalt to us. It is life itself to us here in Idaho.
    We are a large State in land mass, but a small State in 
population. Over 85 percent of Idaho's land is in the public 
domain. Our small population has fought hard to support an 
infrastructure which is vastly out of proportion to the acres 
of privately owned land in this economy. With Idaho's dedicated 
funds and with the $90 million from the last ISTEA 
authorization for U.S. Highway 95, it just becomes a battle 
that we are losing.
    A March 1996 study by the State of Idaho Department of 
Transportation indicates that it would take over $335 million 
just to bring this one highway up to a 34-foot minimum 
standard. Now, this, mind you, is not a four-lane highway. What 
we are talking about are two lanes that has safe curves and 
bridges, and it has proper passing lanes. The sum of $335 
million is almost 25 percent of the total budget for the State 
of Idaho.
    Being our only north-south highway usage continues to grow, 
and one of the biggest factors attributed to that growth has 
been the passing of the NAFTA agreement by the Federal 
Government. Eastport's custom station located on the Canadian 
border is experiencing a traffic growth of 1 percent per month. 
Today one semi-truck clears the border every 7 minutes, where 
just a few years ago it was one every hour. Idaho's non-
agricultural exports to Canada have more than doubled in 2 
years to over $245 million in 1995, creating more pressure on 
Idaho's only north-south highway.
    Idaho's seaport, the Port of Lewiston, located 465 river 
miles from the Pacific Ocean, is on Highway 95, and it has been 
discovered. You can move a barge load of product from the Port 
of Lewiston, Lewiston, Idaho, to Tokyo, Japan, for less cost 
than you can move that same product from Lewiston to Chicago. 
The Port of Lewiston has seen a 150 percent increase in volume 
moved through that port over the past 5 years. That's over a 20 
percent increase each year. Presently there are 1185 trucks 
going in and out of Lewiston, Idaho, each and every day of the 
year. That's over 430,000 trucks a year.
    Now, we welcome the commerce. We welcome the challenge that 
comes with change and growth, but we just can't do it alone. We 
need your help. If we can't do something soon, we will lose 
this commerce due to failed infrastructure or worse yet, we 
will lose precious lives.
    The conditions of U.S. Highway 95 and increased traffic 
created a safety issue. Over the last five reportable years 
fatalities on U. S. Highway 95 accounted for 10 percent of the 
total fatalities of the State while U.S. Highway 95 represents 
only 1 percent of the total road miles in the State of Idaho.
    Some insurance companies are recommending that their 
commercially insured not use Highway 95. Some commercial 
carriers actually entirely discontinued all operations on all 
or part of U.S. Highway 95. U.S. Highway 95 may be just part of 
this vast National Highway System, but here in Idaho it is our 
lifeline and it is our future. We need your help, and we need 
it now.
    Thank you, again, Senator Kempthorne, and thank Senator 
Warner and Senator Baucus for this opportunity.
    Senator Kempthorne. Ron, I appreciate that very much.
    Now let me call on David Cook, who is the vice president of 
Swift Trucking Company.

    STATEMENT OF DAVID COOK, REGIONAL VICE PRESIDENT, SWIFT 
                        TRUCKING COMPANY

    Mr. Cook. Senator Kempthorne, thank you. I am the regional 
vice president.
    Senator Kempthorne. Did I promote you?
    Mr. Cook. Good job, thank you. And I didn't copy his notes, 
either.
    I thank you for the opportunity which you have given me to 
address you, Senator. It's a real privilege to be here.
    The reauthorization of the Intermodal Surface 
Transportation Act of 1991 is a vital interest to us truckers. 
As the regional vice president of transportation, I manage the 
day-to-day affairs of Swift's Lewiston, Idaho, facility. 
Currently there are trucks that are based in Lewiston that I am 
directly responsible for. I am accountable for the safety and 
well-being of 240 drivers. I am involved daily with the 
dispatch of 80 trucks into Lewiston's coverage area. I know 
what is going on, and that's why I give you that information. I 
am not trying to brag, but give a little credibility to my 
testimony.
    U.S. 95 in Idaho is a prime example of deteriorating 
highway that we feel is becoming hazardous and unsafe for our 
drivers. More specifically, as Mr. Doeringsfeld mentioned, it 
has been dubbed Idaho's goat trail, and yet it is the only 
north-south highway within Idaho's borders that connects 
Idaho's panhandle with the southern counterparts. It is a vital 
link for commerce between the two ends of the State.
    Now, I do not advocate a four-lane superhighway between 
north and south Idaho. We enjoy that Salmon River Country. But 
approved wide two-lane highway with passing lanes is perfectly 
acceptable. They are safest when they are constructed with 
median barriers to replace double yellow lines. This keeps 
traffic from crossing over the center, avoiding head-on 
collisions.
    The decision that we made to not allow our drivers to run 
U. S. Highway 95 between I-84 and U.S. 12 except for local 
delivery, and we do have drivers who live there, we allow them 
to go home, of course, but we based that on our accident 
frequency, totally. That was the only decision.
    From June 1 of 1993 to May 31 of 1994 we had eight 
Department of Transportation reportable accidents in the State 
of Idaho. In the same period of time from June 1994 to May 31 
of 1995, we had 13. We obviously had a problem. We isolated it 
basically to a certain stretch of highway, and it was focused 
on the southern part of Highway 95, just north of Fruitland, 
Idaho. That decision to remove our trucks from that part of the 
highway was a good solid decision. For 1995 and 1996 Swift 
Transportation was awarded first place carrier for traveling 
without a DOT reportable accident. It was a good decision.
    The down side to it, though, is the additional miles that 
are traveled by our trucks with no additional revenue and the 
additional time the drivers must work to reach destination, and 
the loss of revenue to the State. And that revenue to the State 
now exceeds $300,000 each year. Swift Transportation uses the 
latest technology available to make our trucks more efficient, 
more productive and more driver-friendly, which in turn reduces 
our costs. We have satellite communication technology in each 
truck. Our trucks' specifications give them optimum fuel 
efficiency at highway speeds. Our company speed limit of 57 
miles per hour reduces potential accident and hazard reaction 
time. The cab interiors are designed and equipped with optimum 
driver comforts. All of this is designed to move America's 
goods safely, on time and damage-free, and at the highest 
revenue that our service will allow.
    Inefficiencies in our highways cause us to reroute trucks 
in the interest of safety. The lack of funding to repair, 
maintain, and upgrade our highways diminishes the effects of 
the cost-saving measures that we have implemented.
    In the last 10 years the miles driven by our trucks has 
gone up 41 percent, but truck-involved fatalities have gone 
down 37 percent. And that's an interesting statistic, because 
we feel as a carrier that we are doing our part. Our drivers 
are consistently expressing their concern with us about our 
rapidly deteriorating highways, and they are becoming alarmed. 
Some bridge decks are broken up to the point where the rebar is 
showing through the concrete decks. And it's not heart-warming 
for me when they come and say Dave, what are we going to do 
with this. We have a situation here. And it's truly alarming. 
My comment to them is please, be extra cautious. There is only 
a $300 million backlog to get our highways up to the specs they 
need to be.
    I am grateful to this committee for the leadership it has 
given in this most important endeavor. I recognize Senator 
Kempthorne for your hard work, and we appreciate that. Idaho 
needs the ISTEA funds. What America most of all needs is ISTEA 
to be well funded. Thank you.
    Senator Kempthorne. Mr. Cook, thank you. I really 
appreciate your comments.
    Let me ask you this, Mr. Cook. At Swift Trucking you have 
5,000 trucks?
    Mr. Cook. Yes. And as of April 2, we will have a little 
over 6,000. We just purchased DTI.
    Senator Kempthorne. And you operate in dozens of States?
    Mr. Cook. All 48 and all provinces in Canada.
    Senator Kempthorne. So you have now identified the 
restrictions that you've had to put on your trucks here on 
Highway 95 in Idaho?
    Mr. Cook. Yes, just one State.
    Senator Kempthorne. And that's the only State where you 
have had to put that type of restriction?
    Mr. Cook. That's correct. That's the only State.
    Senator Kempthorne. Is there any way to estimate, you 
mentioned, I think it was $300,000 loss to you.
    Mr. Cook. Yes.
    Senator Kempthorne. But what loss is it to Idaho?
    Mr. Cook. No, excuse me. It is $300,000 loss to the State 
of Idaho. In other words, our trucks that are circumventing are 
going around, they are avoiding U.S. 95 at a loss of $300,000 a 
year to the State of Idaho.
    Senator Kempthorne. And that's based on what?
    Mr. Cook. The reason we have the terminal in Lewiston, 
Idaho, is strictly one reason. That's a customer of ours, and 
that is moving goods to and from Lewiston. And those trucks 
coming into that area, it averages out 7000 miles a day. In 364 
days a year, it is a little over 2.5 million miles at roughly 
12 cents a mile. There you go.
    Senator Kempthorne. Mr. Doeringsfeld, I would imagine 
that's just a slight recognition as to the lost revenue. The 
product that is not brought to the Port of Lewiston, I don't 
know how you can quantify this, but----
    Mr. Doeringsfeld. You wish those statistics were available. 
Swift is the largest in Lewiston, but there are 14 trucking 
companies in Lewiston with a lot of interstate carriers and 
likely most of those are doing the same thing. It is no doubt 
that highway is the biggest deterrent to the north-south 
movement of freight in the State.
    Senator Kempthorne. You referenced it was 57,000.
    Mr. Doeringsfeld. Trucks per year. If you take the amount 
of cargo on water-based and rail and convert that over to 
trucking, we are taking that much off of the National Highway 
System.
    Senator Kempthorne. Which, again, you could put that in the 
category of avoided cost, could you not? Because that's 57,000 
trips that's not beating up the infrastructure.
    Mr. Doeringsfeld. Our highways or putting tires in our 
landfills. More efficient.
    Senator Kempthorne. How large a region do you currently 
serve?
    Mr. Doeringsfeld. Grain shipments out of the Port of 
Lewiston move grain all the way from the Dakotas, Nebraska, 
Wyoming. Montana is a major shipper through the Port of 
Lewiston.
    Senator Kempthorne. And how much did you say that you 
needed to improve the facility?
    Mr. Doeringsfeld. If we were to have $200,000, we would be 
able to take the rail system within the port district we are 
responsible for and just simply bring it up to standards. Right 
now we are faced with ongoing derailments and such, just 
because of increased demand that we are dealing with right now. 
And I think the comparison is well taken that $200,000 in a 
like project in a highway project, what are you really looking 
at? And that's our concern with ISTEA, is to be able to allow 
the State some flexibility to be able to have a grant type 
project that may be awarded on a state-wide basis but at least 
allow different entities to be able to compete for those funds 
to be used on other than road projects.
    Senator Kempthorne. You referenced the facility in Portland 
that had improvements, and they used ISTEA funds?
    Mr. Doeringsfeld. Well, actually it was one of our sister 
ports right in the area.
    Senator Kempthorne. You said based on an interpretation. 
Who made the interpretation?
    Mr. Doeringsfeld. I would say the Department of 
Transportation.
    Senator Kempthorne. Federal?
    Mr. Doeringsfeld. On the State level, that $400,000 in 
ISTEA funds used on a dock expansion project interpreted in 
Washington. That means those funds could be applied for that. 
However, in Idaho, their interpretation of ISTEA, there are no 
moneys allocated in that area.
    Senator Kempthorne. And, Mr. McMurray, you talked about the 
dramatic growth that the Idaho Port of Entry has experienced at 
Eastport. I have been told that a large number of these trucks 
go through customs there at Eastport, but then they return to 
Canada, they go west and then reenter the USA in the State of 
Washington to avoid Highway 95. Do you know if this is 
accurate?
    Mr. McMurray. It is correct. Union Pacific has a reload 
center there. We will bring lumber from Canada to our 
facilities, store it or put them in ocean-going containers and 
send them on other places. And it is definitely true. They 
would just do whatever they can to avoid it. And it really 
creates more cost in order to move those goods in order to do 
that. But they feel it is better to do that, as Mr. Cook has 
pointed out, from a safety standpoint.
    Senator Kempthorne. Also, Ron, answer this, if you would. I 
know there's the Highway 95 Coalition. Whenever you are in 
North Idaho this is one of the top-of-mind issues that they 
want to discuss. The coalition, you have southern Idaho that is 
part of this coalition. So do you have the same sense of 
urgency and desire regardless of what part of the State you are 
in that Highway 95 needs to be corrected?
    Mr. McMurray. No. No, you really don't. And it's 
understandable. If you lived in southeastern Idaho, you'd have 
a good north-south highway, a four-lane interstate that runs 
from Salt Lake City to Butte, Montana. So if we were living 
there and paying taxes and doing the things we are doing, we 
don't have that fever to upgrade that north-south highway that 
runs to the Panhandle. So there isn't the interest now. What 
has happened, since the Port of Lewiston has been discovered, 
you see people who have potato flakes that they want to export 
to Russia, or lactose out of Twin Falls or various things, and 
they say how can we get to that port, because it is less 
expensive. And, so, they are trying to look at it and saying 
maybe we do need to upgrade that highway. Because it would be 
economically beneficial.
    Senator Kempthorne. Mr. Doeringsfeld, what percent of 
capacity are you currently operating?
    Mr. McMurray. With an 81-year-old crane, I guess that is a 
subjective question. But you really can't define it as far as a 
term of capacity right now. Is it just a factor of how many 
barge calls a week and such that you can bring up there. So I 
guess all we can say is bring it on. We have a lot more 
capacity or utilization of the port available.
    Senator Kempthorne. Mr. Schweitzer, from your perspective 
and the organization which you represent, you feel that the 
elements in STARS 2000 represent the needs from the western 
perspective?
    Mr. Schweitzer. Very much so. I commend you and the other 
Senators in this region for developing this idea and proposal. 
We do think it heads in the right direction.
    Senator Kempthorne. Good. All right. I want to thank all of 
you. Because, again, you have helped us establish a very 
meaningful public document. Senator Warner, it has been 
enjoyable to hear his enthusiasm from what information has come 
from this hearing. And all of this information then will be 
utilized in Washington, D.C., as we proceed with this process. 
You have given us some great information. Thank you.
    Let me ask, if I could, those of you who are with us, if 
just by a show of hands is Lloyd Wolff here? Patrick McGoy. Kim 
Brown. Deanna Goodlander. For those whose names I call, if you 
would please come up and take a seat at the table. I am going 
to have to adjourn this hearing at approximately 5:30. But what 
we have done is those of you who have come to this hearing and 
have filled out a form indicating that if there is an 
opportunity you would like to make some comments, they have 
been randomly drawn. And, so, I am calling those individuals 
forward so that you have a chance to say something. Mark 
Soderling. And JoAn Wood.
    Yes, sir?
    Mr. Howell. Senator Kempthorne, I flew in today from the 
city of Seattle with the understanding that I was going to be 
given an opportunity to give public comment. When I got here I 
was told that it wasn't guaranteed, that it was only probable. 
Now I find that I won't be able to. I am here representing the 
largest coalition of transportation interests in terms of 
public community and the environmental community within the 
State of Washington. And I think it would be very much a missed 
opportunity to round out the perspective of the western 
perspective if we weren't given the opportunity to say a very 
short piece, if possible.
    Senator Kempthorne. There was one individual whose name I 
called and if you would like to substitute for him, that would 
be fine. Why don't you all come forward then.
    Again, I will tell you that this is not a normal procedure. 
I do it when I go on these field hearings, because I like to 
give anybody a shot to say their piece. Those of you who 
perhaps filled out a form and wanted to be called but you have 
not been called, I would just ask that you submit your 
thoughts, your statements, in writing. They will be made part 
of this record and have as much weight as anything else that 
has been discussed here today.
    It is a 3-minute rule that is in effect, and I am going to 
go down the line and ask you just to give us the key points, 
and, too, give us the key points, but then we will make part of 
the record additional information you'd like to submit. So I'd 
like to just start right here, and if you would give us your 
name, your address, and we'll just move right along. And we 
will keep in touch with the lights here.
    Mr. Wolf. Thank you, Mr. Chairman. I'm Lloyd Wolf, 
president of Wyoming Contractors Association, and I speak for 
my company, Risler McMurray Company of Casper, Wyoming, and for 
the Associated General Contractors of America's statewide 
highway chapter in Wyoming.
    We have been working closely with our DOT to pass a State 
fuel bill which we were unsuccessful in the normal legislative 
process. There will be a special session in June that we are 
going to work on raising our fuel taxes. I want to remind this 
committee that Wyoming, though it's the 49th State in 
population, we have contributed approximately $1.77 billion in 
royalties through oil, gas and other minerals. We truly are a 
bridge State in the fact that back in the 1860's, President 
Lincoln signed the Pacific Railroad Act to connect the East 
with the West, and our I-80 follows that railroad, parallels it 
across the State.
    We also feel that because we have Yellowstone Park within 
the boundaries of our State, the vast majority of it, I 
recognize there is a portion in Montana and Idaho, but the vast 
majority is in Wyoming that we need the additional funds to 
provide good roads so that the citizens of the United States 
can visit.
    One of our major challenges is that I-80 across the 
southern tier of Wyoming utilizes 28 percent of the total 
highway budget to maintain it. And that is a major, major 
problem. We have the people, the skill and commitment to 
maintain and expand the road systems for our State and the 
Nation and though we are a donee State, we feel we utilize 
those funds in a prudent manner.
    I also want to remind the committee that Wyoming's I-80, I-
25 and I-90 has a total of 906 miles and makes up approximately 
4 percent of American roads called the National Highway 
Systems.
    Senator Warner addressed our national convention in 
Washington, D.C. earlier this month and he gave us an example 
of the Levi Company moving goods across the country in a 
speedily manner. And we feel that the interstate system allows 
that. We would ask that the enhancement programs be changed in 
the fact that we feel that the American public is paying the 
gas tax with the understanding that it is going for highways, 
not for bike paths, canoe paths or greenbelts. We felt that the 
local citizenry, if they feel strongly about those, they should 
fund them themselves. And that is my testimony to this 
committee.
    Senator Kempthorne. Mr. Wolf, I appreciate very much your 
comments. And we look forward to having your full statement as 
part of the record. And, too, we are delighted that Senator 
Thomas is one of the original sponsors of STARS 2000.
    Mr. Wolf. And we support you in the STARS 2000 funding. 
Thank you for this opportunity.
    Senator Kempthorne. Thank you very much.
    Yes, ma'am?
    Ms. Goodlander. Senator Kempthorne, My name is Anna 
Goodlander, and I live in Coeur d'Alene, Idaho. I am with the 
transportation committee of the Coeur d'Alene Area Chamber of 
Commerce. And that was my reason for being here, and I don't 
have written testimony to submit.
    But Mr. McMurray very ably presented our feelings on the 
importance of the port and the Highway 95 to the port. But one 
of the things that I would like to address is the safety issue 
on Highway 95. And the reason I am addressing Highway 95 is 
because it's my area of expertise. However, I understand many 
of the other States have many of the same problems we do.
    But we have had incidents in northern Idaho up by Bonners 
Ferry where a truck traveling on a highway that was designed in 
1936 and more or less as a graveled road and was simply paved 
over and had no road base, actually came close enough to a 
school bus to take the mirrors off the side of school bus. This 
is a bus full of children going to school.
    We have a member of our committee who has a tractor 
dealership in Bonners Ferry, and he says you can stand in front 
of the dealership and you can watch as the trucks roll down 
Highway 95, you can literally watch the pavement, the asphalt 
pavement roll.
    This road has been, in many places in North Idaho, up in 
the Bonners Ferry area and between here and the Canadian 
border, was really designed strictly as a wagon road. It was 
just paved over. It has no road base. We need to start over 
from the ground and build a base and then built a road.
    We have Canadian affiliations in Coeur d'Alene that are 
very strong. We have even at times used the coinage of Canada 
and the United States intermix in Coeur d'Alene. We have a 
convenience store, and I count our moneys, and frequently we 
have Canadian pennies, and for many, many years we accepted 
them at face. Now the penny is the only one that we do accept 
at face. But, we are so closely involved with Canada in this 
area with the people who have come down from Canada and 
visitors over the years. I was raised here, and I can remember 
as a kid the Canadians coming down. We need to provide a safer 
route for those people to come down. We need to offer Canada 
the opportunity to visit the United States, to have commerce 
with the United States, with our NAFTA. We need to provide 
safe, efficient roads in order to make that a viable part of 
the NAFTA effects. I thank you.
    Senator Kempthorne. Again, I thank you, too, for your 
comments. When I was mayor of Boise I know that there were 
different occasions when we would affirm from the Boise 
perspective how critical Highway 95 was to Boise and to the 
rest of the State of Idaho. Because until we get this dilemma 
worked out, we don't have the strength of our State that we can 
have and utilize all the assets that are here. So I appreciate 
your efforts.
    Welcome.
    Mr. Howell. Senator Kempthorne, thank you very much. That 
was very nice of you to let me, well, almost impose myself on 
this, coming all the way from Seattle and representing the 
public interest.
    Senator Kempthorne. We are glad you are here. Thanks for 
coming.
    Mr. Howell. My name is Doug Howell. I am here representing 
the largest coalition within the State of Washington of the 
environmental community alternative transportation providers 
and interests in the public interest community. And to round 
out the western perspective, we wanted to share some of our 
perspectives, mostly on the CMAQ program today.
    But before I start, one thing we would like to submit for 
the record, while our State hasn't formally taken a position on 
the ISTEA bill with the new Administration we have, the Puget 
Sound Regional Council, which represents about 60 percent of 
our population, has. And they have taken a very strong stand 
for CMAQ increased funding by 30 percent as a dedicated stand-
alone program. They find that is vital to address their 
concerns.
    And, of course, ISTEA is a very important bill for the 
environment. The President said, as you know, when he 
introduced his NEXTEA bill, that as far as he is concerned, 
this is one of the most important environmental bills before 
Congress today. Very good reasons. It impacts land, it impacts 
water and, of course, it impacts air. And as highway users, and 
that includes me, my wife and I own a Saturn wagon, and we love 
it, and we use it all the time, and we are going to pay for the 
roads. But we have to pay for the air, and that's a very 
important natural resource which mostly goes ignored. And 
that's why we created the CMAQ program.
    When you asked the Director of your Transportation 
Department today what would the impact be if you were to reduce 
the CMAQ program or the STARS 2000 program, well, for a State 
like Idaho that doesn't have very many air quality programs, 
they don't have to. There are no restrictions imposed upon how 
they use that CMAQ money. So they have a free hand. It actually 
provides maximum flexibility. But what in fact would happen 
with STARS 2000?
    I am very sorry to say that those people that live with bad 
air quality, and that includes some of us in western Washington 
and eastern Washington, it is going to affect us very 
seriously.
    The U.S. Conference of Mayors and the Association of 
Metropolitan Planning Organizations, which are the lead 
national organizations in the country that are the local 
governments that have to live with the polluted air, what do 
they say? They say please increase CMAQ and make sure it is a 
dedicated program and not just blend it in as a flexible 
program. Their concern is if you meld it into the Surface 
Transportation Program, they will have an inability to get 
access to that money. That's why they called for separate 
designated money.
    Now, that does not have to affect the ability of Idaho and 
Montana to get sufficient money to represent your interests. 
Policy and money are separate issues. And to the extent that 
you get CMAQ money because you don't have major air quality 
problems, you have maximum flexibility.
    One last point. When we created ISTEA in 1991, we thought 
that the Surface Transportation Program was going to be the 
most flexible program. Well, in fact, when you review all of 
the Federal Highway Administration fiscal year reports, the 
program that has been the most flexible program is CMAQ. If 
flexibility is the goal, CMAQ is the means.
    Senator Kempthorne. All right. Doug, thank you. I 
appreciate your perspective. That is helpful.
    Mr. Howell. We have a letter from the Puget Sound Regional 
Council we would like to introduce for the record, and also a 
prepared statement as well, if possible.
    Senator Kempthorne. Sure. Appreciate it.
    JoAn Wood?
    Ms. Wood. I am JoAn Wood. I am Chairman of the Multi-state 
Transportation Association. We do have our remarks prepared 
written to be presented to you, and I will be very brief in 
saying to you, Senator, we are grateful for the opportunity to 
come and speak for the 11 western States, who are members of 
the Multi-State Transportation Association Agreement.
    We want to say to you that these States have worked very 
cohesively together for 2 years in trying to bring together 
what we would recommend in the reauthorization of the ISTEA and 
how important it is to the western States. What we have heard a 
lot of you say here today that has been very uplifting to us in 
our intent to be helpful to you and to the Congress in drafting 
the new ISTEA reauthorization legislation.
    We will say to you that we are intending to back you up. We 
are liking what we are hearing with the STARS 2000. And if 
there is anything we can do in coming further for testimony to 
support that to Washington, D.C., our group is prepared and 
willing to do that. That's all.
    Senator Kempthorne. JoAn, I really appreciate it. Thank you 
very much.
    I want to thank all of you who have joined us today and for 
your interests. Again, I not only invite but encourage you, if 
you have thoughts, please submit them, because we are in this 
stage of developing the legislation. And you can have a 
positive impact on this.
    I want to also thank our host here today, which was North 
Idaho College, and the President of NIC, which is Dr. Bob 
Bennett, and Justin Van Eaton, who is the facilities manager, 
and I think they have done a tremendous job for us here in 
providing this outstanding facility, and it speaks well for 
North Idaho College.
    I also wanted to thank Senator Warner, who as the Chairman 
of this subcommittee allowed us to be here. That was 
underscored by Senator John Chafee, who is the Chairman of the 
Full Environment and Public Works Committee. Senator Chafee was 
out here in 1995 for an ESA hearing, and we are hoping to get 
Senator Chafee back here later this year. But, again, it is so 
helpful to have chairmen like that who are willing to allow 
these hearings to leave Washington, D.C. and come out where we 
get the good insight.
    There are individuals who are up here with me that I would 
like to acknowledge and thank Dan Corbitt, who is lead staff 
member for the full committee and works for Senator Chafee, who 
will be playing a key part in this whole thing.
    Ann Loomis, whom you saw with Senator Warner.
    Kathy Ruffalo is the staff member for Senator Baucus who 
could not be with us today. But she has been extremely helpful 
and very knowledgeable in this entire area. Gary Smith of my 
staff who is the lead person who is someone I took with me from 
Idaho when I went back to Washington, D.C.
    And, again, we will keep the record open. I thank all of 
you. I thank my staff for what you have done to make this 
possible. And the court reporter. Boy, you have done a yeoman's 
job today. We appreciate you.
    With that, this hearing is adjourned.
    [Applause.]
    [Whereupon, at 5:32 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
          Statement of Governor Philip E. Batt, State of Idaho
    Senator Kempthorne, Senator Warner, Senator Baucus and 
distinguished guests: On behalf of the citizens and the State of Idaho 
it is my privilege to welcome you to Coeur d'Alene. We are honored that 
you have taken time out of your busy schedules to come here and listen 
to the concerns of Idaho and other Western States about reauthorization 
of the Intermodal Surface Transportation Efficiency Act or ``ISTEA.''
Federal Transportation Funding
    In February of this year I, along with 34 other Governors, signed a 
letter urging Congress to address the critical need for a higher level 
of Federal funding for transportation. There are two key actions that 
the Congress can take to make this happen.
    First, fully fund the next national surface transportation act. At 
the current level of user taxes, approximately $26 billion could be 
spent annually from the Highway Trust Fund without exceeding the limits 
set by the Byrd Amendment. The current level of Federal-aid funds being 
authorized for funding to the States is only $20 billion per year. 
Annual obligational limits set by Congress under ISTEA have been far 
below the apportionment levels set by the Act. The large balance in the 
highway and mass transit funds will continue to grow and be unavailable 
for transportation investment unless Congress discontinues this 
practice.
    A second step would be to end the diversion of the 4.3 cents in 
Federal fuel taxes now going to the General Fund for deficit reduction. 
Highway user revenues should be dedicated to transportation purposes. 
This action would result in the addition of over $6 billion annually to 
the Highway Trust Fund each year.
    Just these two actions alone would result in an additional $12 
billion a year and a total annual Federal-aid highway program of $32 
billion. All without having to raise any additional highway user taxes.
    Lack of Adequate Funding.--Not surprisingly, the primary problem 
which faces Idaho in respect to its transportation system is a lack of 
adequate funding. A 1995 Highway Needs Assessment Study reported that 
there were over $4.1 billion in total highway and bridge needs for the 
7-year period from 1994 through 2000. The needs are there, but the 
funding is not.
    Under ISTEA, Federal funding for highways has been about $20 
billion per year with another $25 billion being spent by State and 
local governments. Obviously, this amount of funding will not meet our 
needs, and unless the level of funding is increased, the condition of 
our highways and bridges will continue to deteriorate. Unfortunately, 
the percentage of total highway funding being provided by the Federal 
Government has declined over the last 10 years. State and local 
governments have assumed the majority share of the transportation 
financing burden. If we are to begin to address the problems which face 
us, then the Federal Government must strengthen its role in the 
partnership by reversing the decline in its share of transportation 
funding.
Program Flexibility and Streamlining
    A second area that I feel is important to discuss with you is the 
relationship between the Federal, State and local levels of government. 
Congress should streamline and simplify the programs and processes 
through which Federal funds flow to the States. Much of the flexibility 
promised by ISTEA does not exist because the Federal agency regulations 
that followed were overly prescriptive and specific.
    Each State has unique characteristics, circumstances and problems 
which cannot be dealt with by a ``one-size-fits-all'' solution from the 
Federal level. Congress should provide the States with the flexibility 
needed to address their own priority transportation needs. State 
planning systems should determine where best to spend funds and which 
projects to choose in order to meet the transportation needs of the 
entire State. Idaho and other States have and will continue to promote 
cooperative, joint decisionmaking between Federal, State, and local 
jurisdictions in order to provide the best transportation system 
possible. Rigid funding and planning requirements, set-asides and 
suballocation of funds serve to limit flexibility, distort State 
priorities and result in a less effective and efficient transportation 
system.
Mandates and Sanctions
    A final area I would like to address briefly on the reauthorization 
process is unfunded mandates and sanctions. Legislation introduced by 
Senator Kempthorne and passed into law by Congress has been of great 
benefit. There will continue to be efforts, however, to force unfunded 
mandates upon the States. Mandates imposed upon the States should be 
fully funded or else be rejected by the Congress. In addition, there is 
an ever increasing use by the Federal Government to use sanctions 
rather than incentives to achieve national goals. Many Federal-aid 
transportation programs impose sanctions, usually the loss of Federal 
funds, in order to get the States to comply with the Stated goal. The 
effect of these sanctions is to distort State spending into areas which 
may not be a priority for the State or the best use of those funds. I 
believe that the use of incentives is a more effective and productive 
way to encourage States to achieve national goals. Congress should 
avoid the use of sanctions, particularly when they are not directly 
related to the goal sought.
ISTEA Reauthorization
    To begin, I will say that from my perspective as the Governor of 
Idaho, there are many things about ISTEA which have been good for our 
State, including the development of a better working relationship 
between the Federal, State and local governments. Though it still needs 
to be improved, the increased level of responsibility and flexibility 
given to State and local governments for the funding and management of 
their transportation systems has also been positive. Most importantly, 
ISTEA gave recognition to the value of transportation in and through 
rural States like Idaho by apportioning a reasonable amount of funding 
to those States. Any new bill enacted by Congress should not only 
continue these positive aspects of ISTEA, but should strengthen them as 
well.
                         idaho characteristics
    Idaho is unique in many ways and presents a number of challenges to 
providing a transportation system which efficiently connects the 
diverse regions of our State. Idaho covers more than 83,000 square 
miles and is more than 500 miles long from the Canadian border to 
Nevada and 300 miles wide along the southern border. To travel from 
Coeur d'Alene through Boise to Pocatello, the State's second largest 
city, is a journey of more than 600 miles. Over 40 percent of the State 
is forested and 64 percent, or nearly two-thirds of our land area is 
under Federal ownership.
    Our population is only 1.2 million, making Idaho one of the most 
sparsely populated States in the nation. But our population growth has 
been very high in the 1990's, ranking second in the Nation for the 
years 1990--1994. Idaho's economy has also been growing at a rate far 
above the national average. Our traditional economic base of 
agriculture, mining and forestry products has been joined by tourism, 
manufacturing and high-tech industries as part of this economic growth. 
From 1987--1994 high-tech employment grew by 62 percent and non-
agricultural exports by over two hundred percent. Our growing 
population and economy are both highly dependent on providing and 
maintaining a well-connected intermodal transportation system.
Idaho's Highways
    As a final topic I would like to talk to you about Idaho highways. 
The 5,000 miles of our State highway system cover large distances and 
many extremes in geography and terrain. High mountain ranges, steep, 
narrow river canyons, lava beds, and thousands of rivers and lakes all 
present formidable, and very costly, obstacles to highway construction.
    To illustrate the challenges and opportunities we face in Idaho, I 
have chosen to specifically discuss our major north--south route, US-
95. I chose this route because I believe that over its 540 mile length 
it is a good representative of all highways in Idaho.
    Characteristics.--US-95 runs down the length of the State from the 
Canadian border at Eastport to the border between southwestern Idaho 
and Oregon. Much of the route remains as a two-lane highway, often 
narrow and winding. As was shown in our opening video, the route passes 
through every type of terrain from the mountain valleys and rolling 
hills of the Palouse in the north to the sagebrush deserts and 
farmlands of southwest Idaho. In between, it passes through the steep 
and narrow canyons of the Salmon and Little Salmon Rivers. US-95 
provides tourist access to resort cities and to the wilderness areas of 
central Idaho. In southern Idaho it provides the rich farmlands, 
orchards and vineyards of the Snake River plain with access to markets 
and processing plants. It is also unique in that it is the only in-
state route connecting the northern and southern parts of Idaho. In a 
State which is cut virtually in half by mountain ranges, the 
maintenance of this single link through the Salmon River canyon is 
critically important.
    Needs.--In 1996 the Idaho Transportation Department completed a 
needs analysis of US-95 which estimated that it would require a $335 
million investment over a 10-year period to widen narrow sections of 
the highway to a minimum width of 34 feet and to correct existing 
bridge, pavement and safety deficiencies. An annual investment of 
almost $35 million would be required to bring this route up to the 
standards where it should be. That amount is larger than the current 
annual Federal-aid apportionment of National Highway System funds being 
received by Idaho. Without a significant increase in Federal funding, 
the prospects for completing these needed improvements to US-95 are not 
good. These same arguments for funding could be applied to many of the 
other major highway routes in Idaho.
    NAFTA.--Passage by Congress of the North American Free Trade 
Agreement (NAFTA) has greatly increased the economic opportunities for 
trade between Canada, the United States and Mexico. These new 
opportunities have increased the importance of fast and efficient ways 
to move goods north and south across our country. The entrance of US-95 
from Canada into Idaho at Eastport has become a critical freight 
transportation route. Since 1987, the volume of commercial truck 
traffic entering Idaho at this port has more than doubled, from 22,000-
46,000 trucks a year. Much of this traffic is Canadian wheat and other 
products destined for Idaho's seaport at Lewiston, where it will be 
barged down the Snake and Columbia Rivers to Portland. US-95 also 
serves as a connecting link to the east-west routes of I-90 to Seattle 
in Coeur d'Alene and to I-84 near Payette. It continues south to meet 
I-80 at Winnemucca, Nevada, which provides access to California. US-95 
also serves the Intermodal rail facility at Nampa, Idaho.
    High Priority Corridor--Section 1105 of ISTEA recognized and 
allocated Federal-aid funding for high priority corridors throughout 
the United States in recognition of their importance to the national 
highway system. I would urge the Subcommittee members to give the same 
designation and consideration to US-95 within Idaho during the 
reauthorization of ISTEA.
                                 ______
                                 
                                    Office of the Governor,
                                         Boise, ID, April 14, 1997.

    Senator Dirk Kempthorne,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Kempthorne: As requested at the U. S. Senate Committee 
on Environment and Public Works, Subcommittee on Transportation and 
Infrastructure, hearing in Coeur d'Alene on March 27, 1997, enclosed 
are examples of situations relating to Federal mandates/sanctions/
administrative procedures that limit Idaho's ability to best meet our 
transportation needs.
    We appreciate the fact that Congress has been very responsive in 
eliminating previous sanctions for non-compliance in such areas as 
management systems, use of seat belts and motorcycle helmets, use of 
crumb rubber in asphalt and the national maximum speed limit. Your 
efforts have taken a great regulatory burden off the State.
    The following are examples in priority order of current situations 
we are experiencing along with recommendations for your consideration:
    1) federally imposed design and administrative requirements.
    Sanctions: Cessation of Federal-aid funding for transportation.
    Current Situation: Federal regulations require us to build to 
federally recognized design standards for all projects on the National 
Highway System even when we are not using Federal-aid funds. For 
example, a simple pavement overlay often cannot be done without also 
having to widen the shoulders, add guardrails, etc., greatly increasing 
project cost.
    Recommendation: Provide flexibility of design standards to allow 
design exceptions which take into account the economic situation, 
topography, average daily traffic and type of project being done.

    2) Enforcement of vehicle size and weight.
    Sanction: Withhold 10 percent of IM, NHS, STP and CMAQ funds.
    Current Situation: We are currently certified on an annual basis 
but there are no performance standards by which enforcement is 
evaluated. The number of citations issued may not necessarily translate 
into fewer overweight vehicles.
    Recommendation: Institute a standard performance measure nationwide 
and discontinue the current practice of ``conditionally certified''.

    3) Vehicle weight limitations on the Interstate System.
    Sanction: Withhold 100 percent of NHS funding.
    Current Situation: Idaho has the Federal maximum standard of 80,000 
pounds gross vehicle weight (GVW) on its Interstate System, and 105,500 
pounds GVW on other state highways. The weight limits on Interstate 
highways cannot be increased by any State (weights are currently 
frozen). However, Idaho was granted ``grandfather'' rights in ISTEA for 
a GVW of 105,500 pounds for Long Combination Vehicles (LCV) on 
Interstate highways.
    Recommendation: Allow individual States to set the weight limits on 
Interstate highways to be consistent with weight limits on their State 
Highway System.

    4) Fiscally constrained Statewide Transportation Improvement 
Program (STIP).
    Sanction: Cessation of Federal-aid project approvals.
    Current Situation: ITD cannot ensure the STIP is ``fiscally 
constrained'' by the October 1 due date because final apportionments 
and obligational limitations are not known at that time. This results 
in the STIP being amended during the fiscal year resulting in extra 
workloads.
    Recommendation: Redefine the term ``fiscally constrained'' to mean 
a program level within 15-20 percent of the State's annual apportioned 
funds. Make apportionment and obligational authority figures available 
or relax requirements on being fiscally constrained.

    5) Clean Air Act Compliance.
    Sanction: Cessation of Federal-aid project approvals.
    Current Situation: Environmental Protection Agency (EPA) requires 
``unclassified non-attainment'' areas such as Ada County, which has not 
had a carbon monoxide violation for several years, to continue air 
quality monitoring programs without a designated source of funding for 
those programs.
    Recommendation: Additional funding should be provided by EPA for 
mandated activities in ``unclassified non-attainment'' areas which are 
required to maintain monitoring programs and with the flexibility to 
use those funds for maintenance programs. In addition, air quality 
monitoring activities should also be eligible for funding under the 
STP. The funding levels should be consistent with the transportation 
component impacts.

    6) Highway Safety Grants.
    Sanction: None.
    Current Situation: The National Highway Traffic Safety 
Administration (NHTSA) is ``earmarking'' Highway Safety Grant funds in 
the allocation process. They dictate which programs we must spend 
certain funds on and this defeats the purpose of their requirement that 
ITD identify and address our own traffic safety problems. This reduces 
efficiency and effectiveness of ITD programs.
    Recommendation: Have NHTSA discontinue the practice of 
``earmarking'' Highway Safety funds.

    7) Coordination and Communication difficulties between the Federal 
Highway Administration (FHWA), Federal Transit Administration (FTA), 
Idaho Transportation Department (ITD), and the States' three 
Metropolitan Planning Organizations.
    Sanctions: None.
    Current Situation: FHWA and FTA have separate offices and processes 
for STIP and other transportation-related program approval and 
coordination is difficult at times. Delays often occur because of this 
lack of coordination.
    Recommendation: Create a one-stop-shop single point of contact 
where State agencies and MPOs can work with Federal agencies on 
highway, bicycle/pedestrian and public transportation matters, as well 
as other transportation-related issues (air and water quality, etc.). 
Also, require all Federal transportation modes to be on a common 
funding cycle.

    8) Enhancement, Scenic Byway, CMAQ funding.
    Sanctions: None.
    Current Situation: Programs have been difficult to administer and 
implement on an annual basis due to inability of some local officials 
to develop projects in a timely manner because of lack of funds or 
staff resources.
    Recommendation: Funds should be administered as a grant program and 
made available for 3 years. Streamline the process and make the 
programs time certain.
    I am hopeful this information will be helpful in your deliberations 
of national legislation for the reauthorization of ISTEA. I appreciated 
the opportunity to meet with you, Senator Warner and Senator Baucus and 
provide testimony. The hearing provided a good forum for the exchange 
of ideas regarding transportation issues which I am confident will be 
to our mutual interest and benefit.
            Very truly yours,
                                  Philip E. Batt, Governor.
                               __________
  Statement of Jane F. Garvey, Acting Administrator, Federal Highway 
           Administration, U.S. Department of Transportation
    Mr. Chairman, members of the committee, it is a pleasure to escape 
the confines of Washington, DC, and come West to discuss 
reauthorization of the Intermodal Surface Transportation Efficiency Act 
from a fresh perspective--that of the Western States and rural areas. 
Since Governor Batt is here, I particularly want to thank him for the 
hospitality I have received in Idaho, both on this trip and 3 months 
ago, when I was here to witness the impacts of the January floods and 
ensure that FHWA expedited the delivery of $13.7 million in Emergency 
Relief funding for flood damage in Idaho.
    Turning now to NEXTEA, I believe that many elements of the 
Administration's reauthorization proposal will help Western States and 
rural areas meet the transportation challenges they face, and I will 
briefly highlight them today.
    Last week, President Clinton, Vice President Gore, and Secretary 
Slater proposed a 6-year, $175 billion National Economic Crossroads 
Efficiency Act (NEXTEA). NEXTEA, like transportation itself, serves 
many goals, but I would like to concentrate on three of them today, 
because Secretary Slater emphasized these three priorities in his 
confirmation statement to your Committee just one short month ago, and 
also because I think they are particularly relevant to Western and 
rural States: I. Strategic investment in infrastructure; II. A 
commitment to safety as a moral commitment and a policy imperative; and 
III. A commitment to common sense government and innovation.
I. Strategic investment in infrastructure
    All of us who work in transportation, whether in Congress or State 
government or local government or at US DOT, are well aware of the 
magnitude of the transportation infrastructure needs in this country. 
The needs in the West are different from the needs in the East. And the 
needs in rural areas are different from the needs in urban areas. 
Western States and rural States need to meet the challenge of long 
distance travel; sparse population and limited transportation 
resources; ``spikes'' of intense growth in some areas; declining 
population and economic activity in other areas; growing transportation 
demands associated with NAFTA, border crossings with Canada, and West-
East continental traffic by railroads and trucks; and substantial, 
growing freight transportation needs, both by truck and rail. To help 
States and local governments in the West meet these challenges, NEXTEA 
provides a variety of tools to invest strategically in infrastructure:
    <bullet>  Money: NEXTEA would authorize $175 billion over 6 years, 
an 11 percent increase over ISTEA. And the highway apportionment 
formulas that we have proposed to distribute the highway funds among 
the States attempt to strike a fair balance between the many diverse 
States of this nation, including the large, sparsely populated Western 
Mountain States.
    <bullet>  Core infrastructure programs: All States, and 
particularly the Western States, have benefited from ISTEA's core 
infrastructure programs--Interstate Maintenance, the National Highway 
System, the Surface Transportation Program, the Bridge Program, and the 
Federal Lands Highway Program. All of these core programs are not only 
retained in NEXTEA, but authorizations would increase by an aggregate 
of 33 percent compared to ISTEA.
    <bullet>  Greater program flexibility: NEXTEA would provide States 
and local governments with expanded eligibilities in the core programs, 
better enabling them to target NEXTEA funds to the types of 
infrastructure investments that will work best for them--whether 
traditional highway investments, safety improvements, new intermodal 
facilities to handle growing intermodal demands, rural ITS 
applications, or rural transit services. We in Washington, DC, cannot 
tell Idaho, or Montana, or North Dakota, or Wyoming, or any State what 
the most strategic and important investment is in any given situation. 
We need to expand, not reduce, the menu of transportation choices from 
which States and local governments can make investment decisions.
    <bullet>  Continuation of the transportation planning process: A 
sound transportation planning process is essential to making wise 
transportation investments and to managing and maintaining those 
investments--a planning process that unites State and local governments 
in partnership, and encompasses environmental and safety goals along 
with economic and mobility goals. NEXTEA would preserve ISTEA's 
Statewide and Metropolitan Planning Processes, with some streamlining 
and some fine tuning.
    <bullet>  Intelligent Transportation Systems (ITS): As we enter the 
21st century, one of the most strategic investments we can make is to 
equip our highways and transit systems with Intelligent Transportation 
System technologies. ITS is not just for urban areas in the East. Rural 
ITS applications that could be helpful to Western States include:

  (a) Mayday services, to respond more quickly and accurately when 
    crashes occur or when vehicles are stranded on rural roads;
  (b) rural transit dispatching, using computer-aided smart cards and 
    Global Positioning Systems (GPS);
  (c) road weather information services to provide more accurate and 
    more timely weather information via multiple communication 
    channels;
  (d) rural tourism information services, particularly at our national 
    parks; and
  (e) roadway and vehicle applications to help prevent run-off-the-road 
    crashes, a common cause of crashes in rural areas. FHWA has worked 
    hard to develop ITS applications that help improve safety and 
    efficiency in rural areas.

    There are currently 28 rural ITS operational tests underway. On I-
84 in southeastern Idaho, an Idaho Storm Warning Operation Test will 
use various sensor systems to provide accurate, reliable data on 
visibility and weather, as well as road closure information. Sweetwater 
County, Wyoming, has used computer aided dispatch for transit, to 
better-integrate various health and human services and extend service 
to twice the number of clients without increasing dispatching staff. 
Just this week we published for comment in the Federal Register a 
formal 5-year rural ITS research and testing strategy. And we recently 
published a compendium of descriptions of nearly 60 rural ITS 
deployments that we are aware of across the country. In NEXTEA, we 
propose to emphasize rural ITS applications research, even as we begin 
to emphasize widespread deployment of those technologies we have 
developed through our research efforts of the past 6 years. We propose 
to clarify that States and localities can use funding from all the core 
programs for ITS capital investment, and from all the core programs 
except Interstate Maintenance for ITS operations and ITS maintenance as 
well. And we are proposing a new ITS Deployment Incentives Program, as 
a transitional program to help areas establish integrated ITS services, 
with a minimum of at least 10 percent reserved for rural 
(nonmetropolitan) ITS services.
    <bullet>  Border Crossing and Trade Corridors Program: We were 
cautious about proposing new programs in NEXTEA, so there are only a 
handful. One that would be of particular interest to Western States is 
the new Border Crossing and Trade Corridors Program. This program would 
provide $270 million over 6 years in funding to assist States in 
meeting the needs at border crossings and along trade corridors. We 
have included provisions to ensure that Northern border States benefit 
from this new program as well as the States along the U.S.-Mexico 
border.
II. Safety as a moral commitment and a policy imperative
    For Secretary Slater and the Department of Transportation, safety 
is our No. 1 priority. Every day over 100 Americans lose their lives on 
the highways in this country, and thousands are maimed and injured. It 
is the equivalent of a major airline crash every single day of the 
year; this would be unacceptable as an air safety scenario, and yet 
this reality continues on our highways. Each of us here probably knows 
someone--a member of our family, a friend, a coworker, a neighbor--who 
has been killed or injured in a highway crash. We can and must make a 
greater effort to save lives through safer highways, safer drivers, and 
safer vehicles.
    As we developed NEXTEA, we looked long and hard at our safety 
programs. On the one hand, we believe Federal safety programs have 
contributed to real progress in highway safety--the latest motor 
vehicle fatality rate (per 100 million vehicle miles travelled--VMT) 
stands at 1.7, down from 5.5 in 1966. On the other hand, the number of 
fatalities and injuries has been increasing in recent years. And a 
disproportionate share of these fatalities occur in rural areas (areas 
of less than 50,000 population). In 1995, close to 60 percent of all 
fatalities occurred in rural areas. But rural roads carry less than 40 
percent of all VMT. Even when you focus on the higher level systems 
with better safety features, like the Interstate, rural areas have 
higher fatality rates than their urban counterparts.
    The reasons for the difference are varied. Crashes in rural areas 
tend to be more severe, due to higher speeds, dangerous terrain, more 
fixed object collisions, and more run-off-the-road crashes. And crash 
response times for rural motorists tend to be about twice that 
experienced by urban motorists.
    The Administration's NEXTEA proposal would significantly increase 
the emphasis on safety, with programs that will help all kinds of 
States, including Western States and rural States. It includes 
significantly increased safety funding, better targeted safety 
programs, greater emphasis on safety results, and greater flexibility 
for States to tailor safety programs to their needs.
    We propose to eliminate the current STP 10 percent safety set-aside 
and replace it with two new programs:
    1. A new Highway Infrastructure Safety Program would be established 
and authorized at $3.25 billion over the 6 years. These funds would be 
apportioned among the States for use in improving rail grade crossings 
and eliminating highway safety hazards.
    2. An Integrated Safety Fund would also be established, with $300 
million over 6 years, as an incentive program for safety agencies to 
work closer together in dealing with their safety problems.
    The National Highway Traffic Safety Administration's (NHTSA) 
programs targeted at driver behavior would also be funded at 
significantly higher levels--with increased and new authorizations for 
State and local programs that encourage increased safety belt use, 
reduce drinking and driving, and improve State highway safety data. 
Furthermore, safety would be emphasized in DOT's research programs. For 
example, in the ITS research program, we are launching the development 
of a fully integrated ``intelligent vehicle,'' which would incorporate 
collision avoidance and other advanced safety features.
    Finally, we have increased the coordination and communication among 
the DOT agencies which work on surface transportation safety--FHWA, 
NHTSA, and the Federal Railroad Administration (FRA), so that we can 
better serve and support our State partners. NHTSA, FRA, and FHWA 
managers and staff have worked very closely this last year. We are 
striving for safety program delivery that is coordinated, 
complementary, and builds upon the skills and strengths of each 
organization.
III. A commitment to common sense government and innovation
    Secretary Slater has emphasized common sense government and 
innovation as being among his top three priorities. And since that 
philosophy agrees with the outlook in the Western States, it is 
particularly relevant at today's hearing.
    Let me provide some specific examples of this philosophy in our 
NEXTEA proposal:
    <bullet>  In the Planning section of ISTEA, we propose to simplify 
the planning factors, in order to focus States and MPOs on 7 broad 
goals rather than the 16-23 that are included in the statewide and 
metropolitan planning in ISTEA.
    <bullet>  In the STP, we propose eliminating the quarterly project-
by-project certification of each State's STP projects and instead 
establishing an annual, program-wide approval for each State's STP 
program.
    <bullet>  Also for all projects off the NHS, we would reduce DOT 
oversight, replacing it with State oversight (except for environmental 
and other non-Title 23 laws which must remain a Federal 
responsibility).
    <bullet>  For Transportation Enhancements, we retain the 
simplification provisions in the NHS Act--and we commit emphatically to 
doing everything we can administratively to carrying out the letter and 
spirit of these provisions. In response to the NHS Act, we have already 
put in place provisions to allow for the use of donated funds, 
materials and services as match; allowed for advance payment options 
for cash-pressed localities; streamlined environmental documentation 
through the use of categorical exclusions; made changes in response to 
Uniform Relocation Act concerns; and are completing procedures to trim 
review time where historic preservation issues are involved.
    <bullet>  Across our entire program, we propose removing a variety 
of restrictions on reimbursement of State and local government costs, 
and eliminating requirements that State and local governments ``turn 
in'' to the Federal Government revenues that they gain from Federal-aid 
projects, permitting States and local governments to retain those 
revenues as long as they use them for Title 23 purposes.
    Many of these changes move us as an agency from a traditional 
Federal oversight role to one of leadership and technical assistance--
technical assistance in the broadest definition. We have evolved from 
solely an engineering management and oversight organization to one that 
is highly focused on customer service and technical assistance, and 
dedicated to strengthening partnerships with those served by agency 
programs.
    Before I close, I would like to recognize Senator Kempthorne's 
particular interest in the Recreational Trails program, and his strong 
support for that program. Idaho has made good use of ISTEA funding for 
trails, using ISTEA funds to make trail improvements here in the Coeur 
d'Alene Ranger District, in the Salmon/Challis National Forest, and in 
the Sandpoint Ranger District. Although recreational trails may not be 
part of the ``core'' transportation infrastructure, we in FHWA believe 
it is a valuable program. In our NEXTEA proposal, we support the use of 
the Highway Trust Fund on recreational trails, both in the Recreational 
Trails Program and also as an eligible use of the STP Transportation 
Enhancements Program.
Closing
    The President speaks about the need to build a bridge to the 21st 
century. And when he does he often speaks in metaphorical terms that 
involve balancing the budget, improving education for our children, and 
preserving the environment as we grow the economy. This bill speaks 
about building roads and bridges and transit systems in more literal 
terms.
    At its heart ISTEA reauthorization is about more than roads and 
bridges, it's about cutting-edge jobs in commerce, it's about getting 
people to work, it's about providing safety on highways, and it's about 
the communities we share and the steps we have to take to make those 
communities both safer and cleaner for our children.
    The chance to reshape America's infrastructure comes along once 
every 6 years. That means this transportation bill literally will be 
our bridge to the 21st century. I look forward to working with this 
committee and joining a long tradition of bipartisan cooperation as we 
shape transportation policy that moves this nation forward.
                               __________
 Statement of Evan Frasure, Chairman, Senate Transportation Committee, 
                           Idaho State Senate
    Senator Warner, Senator Kempthorne and Senator Baucus; I am Evan 
Frasure, Chairman of the Idaho State Senate Transportation Committee. 
Thank you for coming to Coeur d'Alene and giving me the opportunity to 
speak to you about the concerns of the State and the citizens of Idaho 
for the reauthorization of ISTEA, the Intermodal Surface Transportation 
Efficiency Act.
    In 1995 the Idaho Legislature, by House Concurrent Resolution 21, 
authorized creation of the Legislative Council Interim Committee on 
Transportation Resources Management. The Committee was directed to 
undertake and complete a study of the issues affecting management of 
the transportation resources of Idaho and to report its findings and 
recommendations, including proposed legislation, back to the 
Legislature. The Committee was made up of six senators and six 
representatives and was co-chaired by Representative JoAnn Wood and 
myself. The Committee also included a representative from the Idaho 
Transportation Department, the Idaho Association of Counties, the 
Association of Idaho Cities and the Idaho Association of Highway 
Districts. The Committee held 13 meetings throughout the State from 
June to November 1995. These hearings allowed the input of citizens and 
transportation interest groups in all parts of the State to tell the 
Committee members how they felt about Idaho's current transportation 
system and what the future of that system should be. The Committee also 
spent a great deal of time studying the condition of Idaho's highways 
and analyzing the amount of funds it would take to correct the 
deficiencies in those highways. In its final report the consensus of 
the Committee was that the preservation of the transportation 
infrastructure of the State is crucial to the health of Idaho's economy 
and that additional funding for highways was justified.
    Among the reports studied by the Committee was the ``Idaho Highway 
Needs Assessment Study Update'' completed in 1995. This study estimated 
that there were over $8 billion in total needs on our State and local 
highways for the period 1994-2000. About half this amount was just to 
correct current deficiencies which resulted from past funding 
inadequacies.
    In 1996 the Idaho Legislature responded to the Committee's 
recommendations by increasing the State fuel tax by 4 cents per gallon 
and also raised motor vehicle registration fees. These fuel tax and 
registration fee increases were dedicated to a ``Restricted Highway 
Fund'' which can only be spent for highway construction and 
maintenance. With this four-cent increase, Idahoans are now paying a 
motor fuel tax of 25 cents per gallon, one of the highest in the 
nation. Idaho ranks fourth in the Nation in per capita fuel taxes paid. 
The State of Idaho and its people are doing their share to fund 
transportation in our State.
    Last year the Congress designated the National Highway System (NHS) 
which was mandated under ISTEA. Idaho is an integral and important part 
of the NHS, with 2,350 miles of our highways being approved by Congress 
as having national significance. The NHS carries a majority of the 
commercial traffic across our nation and is critically important to our 
economy. There is a strong Federal interest in having an efficient and 
well-maintained transportation system in Idaho across the nation. The 
Federal Government should significantly increase the amount of funding 
it is spending on the NHS.
    As I stated before, the Legislature and the citizens of Idaho have 
made a strong commitment to a good transportation system, both for our 
State and for the nation. The Federal Government should make the same 
commitment be increasing the level of Federal spending for surface 
transportation. For a number of years, States and local governments 
have provided a majority of the finding for transportation nationwide 
while the percentage supplied by Federal-aid has steadily declined. The 
Congress can reverse this decline by fully funding Federal-aid highway 
programs. The $20 billion in Federal-aid being spent annually on 
highways could be increased to $26 billion by stopping the current 
practice of allowing large surpluses to buildup in the Highway Trust 
Fund in order to offset the national deficit. The 4.3 cents in Federal 
gas taxes which is now going to the General Fund for deficit reduction 
should be transferred to the Highway Trust Fund where it can be used 
for the purpose that our taxpayers want and expect it to be used for.
                               __________
  Statement of Jim Kempton, Chairman, Transportation Committee, Idaho 
                              State Senate
    Mr. Chairman and members of the committee: Thank you for taking 
time to visit Idaho to hear testimony on the Idaho transportation 
system and requirements facing that system into the next century.
    Idaho is a diverse State in terms of population, geography, 
topography, economic base, politics and transportation infrastructure. 
Historically, early explorers and pioneers followed the water ways into 
north Idaho and the California and Oregon trail systems into southern 
Idaho. In my county, five trails segments crisscrossed between the 
Oregon and California trails; all integrating as part of a primitive 
transportation system that later complemented the continental railroad 
``golden spike'' connection just 35 miles south.
    Transportation north and south was generally nonexistent until the 
gold fields in rugged central Idaho became an economic engine that 
drove construction of turn-of-the-century wagon trails and narrow gauge 
rail lines. The timber industry began to grow in the north and 
agriculture in the south began to prosper from the irrigation resources 
of the Snake River.
    Today, despite a history replete in pride, tradition and an 
uncompromising work ethic, Idaho continues to be challenged in 
effecting an efficient transportation system.
    An elongated State, Idaho is divided horizontally in the south by 
the Snake River, and again horizontally through north-central Idaho by 
numerous mountain ranges. On the east, there is the Teton Mountain 
Range and to the west, once again, the Snake River progressing to the 
Columbia River drainage. The State highway system is confined by bridge 
requirements over canyons in the south and to the north by twisting 
two-lane roads that cross pristine rivers and lakes from Boise to the 
Canadian boarder. Rail lines are no less constrained.
    For a State with a general and account of $1.4 billion, the 
estimate to bring Idaho roads to Federal standards is over $8 billion. 
That amount does not include money that would be required to fund road 
and bridge construction for NAFTA traffic diverted over the State 
highway system as a result of retaining 80,000 pound truck limits on 
the Federal interstate system.
    Last session, in an election year, I carried a 4 cent gas tax bill 
on gasoline and diesel fuels. In response to the ``needs assessment 
study'' which had indicated a $8 billion backlog on Idaho's highways, 
the Idaho Transportation Department had demonstrated an ability to 
reverse highway deterioration trends by accelerating maintenance and 
resurfacing, That bill passed narrowly in the House and, with the 
Governor's help, passed by one vote in the Senate. The State fuel tax 
is now 25 cents and the additional dollars from the 4 cent tax are 
directed totally to roads and bridges, no administration.
    This put legislative session I was forced to break a transportation 
committee tie vote which would have allowed truck weights to increase 
from 103,300 pounds to 129,000 pound trucks on State highways. Like the 
4 cent gas tax, this was a tough decision. The economy in my area is 
agricultural based and is beginning to anticipate increased losses 
resulting from Canadian trucks above 105,500 pounds moving agricultural 
products from newly established processing plants in Canada to ports 
and population centers in, or near, the United States. Why isn't the 
answer as simple as raising truck weights to 129,000 pounds on Idaho 
roads.
    Because the Federal Government has failed to establish an 
interstate transportation weight limit policy which would interconnect 
with expanded weight limits on State highways. This is not a ``chicken 
and egg'' issue. The suggestion that States lead the way in motivating 
the Federal Government to increase interstate weight limits is a 
specious argument. The States did not negotiate NAFTA and the States 
cannot independently establish the national transportation corridors 
that will be required to implement the Act.
    For example, southern Idaho agricultural products transported at 
129,000 pounds cannot connect to west coast ports through Oregon or to 
the Idaho inland port of Lewiston by Highway 95. North-South NAFTA 
traffic at 129,000 pounds could take place through Montana, Idaho, and 
Utah south, but heavy commercial traffic through Idaho would be on 
roads which were never designed to handle commercial traffic of this 
volume and weight. The twisting, narrow surface, small town connected, 
State highway system is not where heavy weight mainline commercial 
traffic of the 21st century should be directed.
    On a separate matter, Idaho is a State where 64 percent of the land 
is federally owned and regulated for the benefit of the Nation as a 
whole. The increasingly heavy recreational traffic is having a 
significant impact on the State and county roads leading to popular 
recreational areas.
    Last Wednesday I read in the paper where fees were going to start 
being charged in the Sawtooth National Recreation Area and other Forest 
Service and BLM select areas to help provide money to supplement 
diminishing Federal funding. It goes without saying that none of that 
fee money will be directed to road structures passing in, out and 
through these high density recreation areas.
    In my county, a narrow two-laned road to the City of Rocks National 
Reserve is maintained by an unorganized highway district with no tax 
base. The road, constructed parallel to part of the California Trail, 
is rapidly deteriorating and yet serves both a national and 
international population of visitors. Not unlike other State and county 
roads serving the goals of Federal land use, no funding resolutions are 
in sight.
    Finally, appropriations from the Federal Highway Trust Fund remains 
a vital issue in adequate fending of the Idaho transportation system. 
Idaho is a net receiver State under the present ISTEA funding formula; 
without which funding the State would have moved even farther behind 
the $8 billion shortfall line. This is not a supposition, it is a fact.
    Hopefully the reauthorization of a new surface transportation act 
will give consideration to the uniqueness of the individual States. 
Certainly the introduction of ``STARS 2000'' as a successor to ISTEA is 
a logical and much appreciated step in integrating urban and rural 
factors affecting all facets of an efficient national transportation 
system. I would like to be one of many to thank you, Senator 
Kempthorne, Senator Baucus, and others, who are working for the 
introduction of STARS 2000.
    Finally, use of the Highway Trust Fund to balance the nation's 
budget is an unfortunate abuse of tax revenue collected from highway 
users across the nation; as are executive branch expenditures for roads 
and bridges in amounts less than appropriated by Congress for the same 
purposes. Even more unfortunate would be the expansion of Federal 
Highway Trust Fund expenditures to include AMTRAK operations and mass 
transit operations.
    Two additional comments concerning the Federal Highway Trust Fund: 
First, funding from the Fund should attain a higher level; $26-27 
billion would not be excessive; and Second, the 4.3 cent Federal gas 
tax going to the general fund should be redirected to the Trust Fund. 
To do less is to foster the widely held belief that ISTEA has fallen 
short as an equitable funding process leading to achievement of State 
and national transportation goals. Certainly this is no time to suggest 
that toll taxing the Federal highway system is the next order of 
business.
    Mr. Chairman, members of the committee, you have a difficult task 
ahead. I wish you the best in your deliberations. The economic security 
of this nation literally rides on the vision you have for a future 
transportation system that will fairly and efficiently serve these 
United States.
                               __________
 Statement of Jack King, Shoshone County Commissioner and President of 
                   the Idaho Association of Counties
    The Idaho Association of Counties is supportive of the 
reauthorization of ISTEA. The program allows for improved flexible 
funding of transportation infrastructure, and there has been 
improvement in participation by local highway jurisdictions in Idaho in 
prioritizing projects as well as overall planning on a state-wide 
basis.
    A greater percentage of funds should be earmarked for roads, 
bridges, and railroad crossing improvements. In Idaho there is a need 
for local bridge replacements and rehabilitation projects which far 
exceed the available funding for that program. The money for State 
planning and research exceeds the money available for bridge 
replacement projects at $2.2 million to $1.3 million. The counties 
would like to see more money for bridge replacements and 
rehabilitation.
    The counties feel that the Highway Trust Fund should be taken off 
the budget to protect it from being used to reduce the Federal deficit. 
The money collected from the sale of fuel should be used for 
maintaining and operating the road system, not for political purposes. 
The Idaho Association of Counties supports the ability to use the 
surface transportation formula funds on both rural and urban road 
systems. More local input is needed in prioritizing expenditures of 
these funds, and they should focus on the local road system.
    Transportation planning is very important on regional, statewide, 
and local levels and must take into account all modes of travel to 
protect the integrity of the roads system, as well as all of the 
transportation system to individuals not desiring to use automobiles.
    Since the Highway Trust Fund is supported by the user fees, the 
emphasis of future legislation should be to protect the highway 
infrastructure within the Nation and States. The counties support 
giving local highway jurisdiction and ability to set their own 
priorities on transportation issues and greater voice and flexibility 
in influencing transportation plans that satisfy local needs. We would 
like to continue to have Federal policy recognized and require that 
local officials play a prominent role in local and regional 
transportation plans.
    We believe that the process and the procedures on Congestion 
Mitigation/Air Quality and enhancement programs should be streamlined 
to help improve the deliveries of funds. We also hope that the 
reauthorization of ISTEA would simplify the system of design review, 
projects approval and regulations that State and local MOPs and 
citizens have to go through to get projects going. The reauthorization 
should move the Federal Government away from its role of reviewing 
projects and setting design standards to have oversight without 
sacrificing environmental safeguards particularly when multiple reviews 
substantially increase the cost of particular projects.
The Federal Lands Highway Program
    This program works well in Idaho for those local highway 
jurisdictions who receive significant benefit from the program and the 
reconstruction and rehabilitation of roads accessing our Federal lands. 
Over 60 percent of Idaho is owned by the Federal Government, and the 
access to public lands for recreation and tourism is increasing. The 
program along with the Public Lands Discretionary Funds is a 
significant support to the deterioration roadway transportation system 
in Idaho. We fully support reauthorization.
    We feel that the portion of ISTEA dealing with the hold harmless 
provision is discriminatory. The roads on which these funds are used 
are for access to public lands owned by the Federal Government. 
Penalizing Idaho for using these funds on access roads for the overall 
public of other highway programs under ISTEA is unfair.
    We would like to see it eliminated. We would like to see the 
communication between the Federal Government and the local highway 
jurisdictions improve. By allowing us to assist in prioritizing our 
projects could be helpful both to the local jurisdiction and Federal 
Government. Working together for an overall transportation need for the 
State will lead toward better relationship between Federal Government 
and local highway jurisdictions in Idaho.
    In Idaho one thing that should be considered in various programs is 
that by using Federal dollars there is relatively high design standards 
which do not enable funds to go as far in construction of roads in 
mountainous territory. Also, once completed, they become the 
responsibility of local jurisdictions which are truly limited in ways 
to raise revenue. Some flexibility would be beneficial as well as 
considering giving assistance to local jurisdiction with maintenance of 
the system.
                               __________
Statement of John J. Beaudry, Planning Director, County of Stillwater, 
                           Columbus, Montana
    I appreciate this opportunity to comment on the reauthorization of 
the Federal Highway Program. I testified 6 years ago when the current 
program was being considered and at that time gave examples of 
transportation needs from our community. Since that time, I am pleased 
to report, 20 miles of highway were realigned, reconstructed, and 
paved. Another 18 miles of highway received an overlay, and five 
bridges were replaced. In addition, four enhancement projects have been 
completed in our community.
    Transportation issues are still one of the highest priorities in 
our community. The Federal Highway Program is critical, not only to the 
transportation system, but also to the economic well-being of 
Stillwater County. Interstate 90 bisects the county, and Highway 78 
serves as a north-south arterial route. There are five other Federal-
aid routes in the county, 14 major bridge structures and numerous 
smaller bridge structures, eight railroad crossings, and one designated 
Forest Highway Project.
    Federal funding for the National Highway System under the current 
program has not been adequate to meet all of our transportation needs. 
For example, reconstruction projects for Highway 78 originally 
scheduled to begin over 5 years ago are still delayed. The Forest 
Highway 83 serving southern Stillwater County includes access to Custer 
National Forest and the Stillwater platinum/palladium mine. Fourteen 
miles of the total 20-mile reconstruction project have been completed. 
However, the remainder of this project has not been funded at this 
time.
    The Stillwater mine produces platinum group metals and currently 
employs over 600 people and has an annual payroll around $25 million. 
This is the only platinum/palladium mine in the United States and 
competes in international markets with mines in Russia and South 
Africa. Platinum group metals are used for automotive pollution 
control, medical applications, in electronics, industrial processes and 
a variety of other applications, including national defense.
    There are two other Federal-aid projects in our county which began 
over 2 years ago and still are not completed at this time. The 
Stillwater Road also serves southern Stillwater County and is an 
alternate route to the mining region. The first six miles of this route 
were paved in the 1970's. The remaining 14 miles are still gravel with 
no prospect of completion in the foreseeable future. The Joliet Road 
421 was also started over 20 years ago as a Federal-aid secondary 
project, but is still unfinished due to the lack of funding.
    Bridges are also a significant problem in Stillwater County. We 
have had off-system bridges collapse in the past and have several 
bridges that are substandard. I brought a photo with me of one of the 
bridges that collapsed to document the problem. And this is clearly not 
the bridge to the 21st century that we envision.
    Please accept this written testimony in support of the proposal for 
Surface Transportation Authorization and Regulatory Streamlining Act. 
We believe that the reauthorization of the Federal Highway Program 
should address following issues:
    <bullet>  Authorize program funding to the maximum level the 
Highway Account can sustain;
    <bullet>  achieve funding distribution that is fair and based on 
truly national interest, taking into account rural areas with large 
Federal land holdings and low population densities;
    <bullet>  emphasize investment in the National Highway System with 
continued Federal commitment for our highways;
    <bullet>  retain appropriate program emphasis areas, including 
enhancements and Federal lands program;
    <bullet>  reduce regulation to the greatest extent possible and 
eliminate unnecessary requirements; and finally,
    <bullet>  provide States flexibility and a role for local 
governments in transportation planning.
    Thank you again, Senators, for this opportunity to comment on the 
reauthorization of the Federal Highway Program. We support the proposal 
for a Surface Transportation Authorization and Regulatory Streamlining 
to meet the transportation needs of Stillwater County into the next 
century. Thank you.
                               __________
  Statement of Dwight Bower, Director, Idaho Transportation Department
    On behalf of the Idaho Transportation Department, I would first 
like to thank Senator Warner, Senator Kempthorne and Senator Baucus for 
holding this hearing in Idaho and for giving us the opportunity to 
personally present our positions concerning the upcoming 
reauthorization of the surface transportation program. I know how busy 
your schedules all are and I sincerely appreciate the great efforts 
that you and your staffs have made in setting up and attending this 
hearing. I would also like to acknowledge the members of the Idaho 
Transportation Board whose attendance here today emphasizes their 
commitment to improving transportation in Idaho.
    As most of you are aware, the Idaho Transportation Department has 
for the last few years been working with the transportation departments 
of Montana, North Dakota, South Dakota and Wyoming to develop positions 
and advance the interests of our citizens in legislation to reauthorize 
Federal surface transportation programs. Marv Dye, Director of the 
Montana Department of Transportation has joined me here today. Together 
we will present reauthorization positions on behalf of all five States 
in our coalition. The full written statement of the 5 States has been 
provided to the Subcommittee and we understand it will be included in 
the record of this hearing. In our remarks today I will present our 
views on three key elements and Mr. Dye will follow with our views on 
three additional elements.
    Before turning to specifics, I want to first begin by expressing 
our support for the ``Surface Transportation Authorization and 
Regulatory Streamlining Act'' or ``STARS 2000'' which will soon be 
introduced by Senators Kempthorne, Baucus, Thomas and others.
    Senator Kempthorne, we at the Idaho Transportation Department feel 
that this bill will do more to improve transportation in Idaho than 
other Federal reauthorization legislation that has been proposed. It 
will allow us to deliver more transportation improvements to our 
citizens, including those in our cities. Senator Baucus, Senator Thomas 
and you have done this in a way which is broad in focus and is 
nationally responsible. You are to be commended for your work in 
developing this thoughtful initiative.
    With our support for ``STARS 2000'' in mind, let me address the 
three key elements which this legislation will achieve:
    1. Increase Federal-aid Program Funding Levels: Highways are the 
primary way in which people and goods are transported from one part of 
our nation to another. Investment in surface transportation creates 
jobs and increases our competitiveness in international markets. 
America's economic well-being is critically dependent on an efficient 
transportation system. AASHTO's ``Bottom Line'' report of April, 1996, 
shows that current and future highway needs far exceed the amount of 
money now being invested in highways. Even with the additional high 
level of transportation funding now being supplied by State and local 
governments, critical needs are not being met and the condition of our 
country's infrastructure is continuing to deteriorate. At the current 
Federal funding level for highways of approximately $20 billion per 
year, an additional $10.7 billion is needed annually just to maintain 
the existing system at its present condition and an additional $18.8 
billion per year to upgrade the system's capacity and physical 
condition. Obviously, a higher level of Federal investment is 
absolutely necessary to help resolve this deficiency, both nationally 
and in Idaho.
    We strongly urge your support for a new surface transportation act 
which will authorize spending from the Highway Trust Fund at the 
highest level sustainable under the ``Byrd Amendment.'' Given current 
levels of user taxes, that would be a level of approximately $26 to $27 
billion annually. Let me add, Senator Warner, that we appreciate that 
your proposal, as well as STARS 2000, also calls for a $26 to $27 
billion level of investment. We appreciate your leadership, as well as 
that of Senators Baucus and Kempthorne on this issue. In addition, we 
also support transferring the 4.3 cents in Federal gas tax now going to 
the General Fund for deficit reduction to the Highway Trust Fund where 
those revenues can be used for transportation purposes. This transfer 
would allow an additional $6 billion investment to be made in 
transportation.
    2. Emphasize Funding for the National Highway System: We support 
adoption of a Federal-aid highway program with two ``core'' funding 
programs--a National Highway System program and a Surface 
Transportation Program. We believe that 60 percent of the core program 
funds should be directed to the NHS program.
    The National Highway System (NHS) consists of the Interstate System 
and those other principal arterials that were approved by Congress as 
having national significance. The Federal Government must increase its 
investment in the NHS. There is a strong Federal interest in providing 
and maintaining a national transportation network which binds our 
nation together and which provides for economic growth and 
competitiveness, national defense and personal mobility. If we are to 
continue to prosper as a nation we must have a surface transportation 
system which connects regional, national and international production 
areas and markets together. We must be able to get agricultural 
products and raw materials to our metropolitan centers and manufactured 
goods to rural areas. An efficient and well-maintained National Highway 
System is crucial to Idaho and the nation.
    Federal funding for the National Highway System should be 
increased. State and local governments already provide a majority of 
the total funding for transportation. It would cause serious problems 
for us in the West if Congress were to choose not to significantly 
increase funding for the NHS. Many States are unable to raise State 
fuel taxes sufficiently to provide the money necessary to support 
highways which are national in character and usage.
    3. Implement Fair Formulas for Distribution of Federal-aid Funds: 
One of the most significant issues which the Congress will have to 
consider during the reauthorization of ISTEA is how to implement 
distribution formulas which apportion Federal-aid funds to the States. 
The formulas chosen should fairly reflect the extent, usage and other 
specific characteristics of the nation's transportation system, both 
urban and rural. We are committed to work with the Congress and local 
governments to establish a fair and equitable distribution of Federal-
aid funding. A continuing partnership between Federal, State and local 
governments is essential for achieving our common goals.
    I want to make it clear that, for the formulas to serve national 
interests and the interest of our States and local governments, there 
must continue to be a ``donor/donee'' relationship among the States. 
There are at least three compelling reasons why we believe that States 
like ours should continue to receive a higher percentage of highway 
funds from the Highway Trust Fund than they contribute: a) Low 
population density, b) Federal lands and c) ``Bridge'' State status.
    Low Population Density.--Because of their inability to generate 
sufficient tax revenues, rural Western States and some small States 
with low populations are often ``donees.'' These States do not have a 
population base which is sufficient to generate tax revenues which will 
support an adequate transportation system. Idaho, for example, has a 
land area of over 83,000 square miles, but a population of just over 
one million. The result of this low population density is an inordinate 
tax burden on our citizens. Idaho ranks fourth in the Nation in total 
State and Federal fuel taxes paid per capita. Our State fuel tax is 25 
cents per gallon, one of the highest in the nation. As a result, 
Idahoans pay $316 per capita in fuel taxes annually, compared to the 
national average of $220 per year. This is nearly $100 more per person 
than the national average that our citizens must pay per year.
    Federal Lands.--In the Western States the inability to raise 
sufficient tax revenues is compounded by the fact that a large 
percentage of their lands are under Federal ownership and cannot be 
taxed by the States. In Idaho, Federal lands make up 64 percent, or 
nearly two-thirds of the total land area. In spite of the Western 
States inability to receive tax revenues from Federal lands, our State 
and local governments are responsible for maintaining many thousands of 
miles of highways which pass through and provide access to these public 
lands and their resources.
    ``Bridge'' States.--Many of the Western States also serve as 
``bridge'' States, providing a vital link for commerce and travel 
between the East and West coasts and also as north-south trade 
corridors between Canada and Mexico. In Idaho, US-95 has become a major 
route for the transportation of Canadian goods into the United States. 
In 1987 approximately 22,000 trucks were crossing the Canadian border 
into Idaho annually at Eastport. By 1995 that figure had almost doubled 
to 40,000 a year and rose to nearly 46,000 in 1996, an increase of 
6,000 in just 1 year. Nearly two-thirds of the truck traffic traveling 
across southern Idaho on Interstate-84 is cross State traffic. Under 
Federal law, the cost of maintaining these and other Idaho routes which 
serve both national and international interests, must be borne by the 
citizens of Idaho, but the Nation benefits.
Distribution Formulas and Policies
    I will now turn to the five points we feel should be made 
concerning distribution formulas for Federal highway program funds:

    1)NHS: 60 percent of the funds for the two core highway programs 
should be provided for the National Highway System. This system carries 
a majority of the nation's commerce and traffic and is critical to our 
economy, national defense and mobility.
    2) Federal Lands: States with a significant percentage of Federal 
lands should be compensated for their inability to tax those lands by 
using that percentage as a factor in determining the distribution of 
Federal funds. Also, funding for the Federal Lands programs should be 
increased and the use of program funds should be more flexible.
    3) NHS and STP formulas: These formulas should reflect the actual 
extent and useage of the nations transportation system, both urban and 
rural. NHS factors should include (1) lane-miles, (2) vehicle miles of 
travel (VMT) and (3) a special fuels factor. The STP formula should 
include (1) Federal-aid system lane-miles and VMT, (2) bridge surface 
area, (3) percent of Federal lands, and factors such as (4) air 
quality, (5) freeze/thaw conditions and ( 6) population/lane mile.
    4) Apportionment Adjustments: We believe that it is also fair and 
equitable that small and low-population density States receive a 
minimum percentage of program funding approximately equal to the 
percentage specified in the ``hold harmless'' provisions of Section 
1015 of ISTEA.
    5) Minimum Allocation: If the four points I have just stated are 
included in the reauthorization legislation, then in the context of 
proposals such as ``STARS 2000'', increasing the minimum allocation 
percentage from 90 percent to 95 percent and applying it to a larger 
percentage of the overall program is possible.

    In reference to the proposed ``STARS 2000'' legislation, we believe 
that all five of these key points concerning Federal-aid distribution 
formulas and policies have been fairly and adequately included.
    In closing, I would like to comment again on the efforts of Senator 
Kempthorne, Senator Baucus and Senator Thomas to introduce into 
Congress the ``STARS 2000'' act which would reauthorize ISTEA in a 
manner that will ensure that our nation's surface transportation 
program will be strong and efficient into the next century. ``STARS 
2000'' fully represents the principles I have presented to you today 
such as increased Federal funding to the States, consideration for the 
special circumstances of small and low-population density States by 
guaranteeing them a minimum percentage of program funds and a fair 
share of the national surface transportation program funds for our 
States. The legislation which has been introduced by Senator Warner has 
many of the same principles and program improvements which are 
contained in ``STARS 2000'' and we appreciate the willingness of the 
Chairman and the others who sponsored and worked on his legislation to 
work with our coalition and to listen to our concerns. We hope to 
continue this cooperation and willingness to work together throughout 
the Congressional reauthorization process.
    Again, I want to reemphasize our support for the ``Surface 
Transportation Authorization and Regulatory Streamlining Act'' or 
``STARS 2000'' which will soon be introduced by Senator Kempthorne, 
Senator Baucus, Senator Thomas and others. I congratulate the Senators 
and their staffs on the thought and preparation that went into 
producing this legislation. The Idaho Transportation Department and the 
other members of the 5-State Coalition fully support this legislation 
and would urge everyone here to give this bill their support also.
    In conclusion, I thank you once again for giving me this 
opportunity to present our testimony to the Subcommittee. Marv Dye, 
Director of the Montana Department of Transportation, will present the 
5-State Coalition's remaining three key positions on reauthorization.
                               __________
   Statement of Transportation Departments of Idaho, Montana, North 
 Dakota, South Dakota, Wyoming, Supporting the Surface Transportation 
       Authorization and Regulatory Streamlining Act (STARS 2000)
    Chairman Warner, Senator Kempthorne, Senator Baucus: Good 
afternoon. I am Dwight Bower, Director of the Idaho Transportation 
Department. With me is Marv Dye, Director of the Montana Department of 
Transportation. We are here today on behalf of our own States and also 
on behalf of the Transportation Departments of North Dakota, South 
Dakota, and Wyoming.
    Legislation establishing the future size and shape of the Federal 
highway program is of critical importance to the Nation and to this 
region of the country in particular. So, we are very pleased to have 
this opportunity to present our views on how the forthcoming 
legislation can meet the needs of both the Nation and of our States.
Overview
    Our basic position, Mr. Chairman, is that we support strongly the 
Surface Transportation Authorization and Regulatory Streamlining Act 
(STARS 2000) proposal being prepared for introduction by Senators 
Baucus, Kempthorne, and Thomas. We commend Senators Kempthorne, Baucus, 
and Thomas for their tremendous leadership in developing it. STARS 2000 
is an excellent proposal which will address the needs of the Nation and 
of our States in a thoughtful way.
    We also want to commend you, Chairman Warner, for the work you have 
done to advance surface transportation reauthorization legislation in 
the national interest. You are making a strong effort to obtain a much 
higher level of Federal funding for highway investments. In addition, 
you have demonstrated awareness that there is a national interest in 
transportation in and across States like ours. We hope, today, to 
increase that awareness--and explain why the national interest in 
transportation in and across States like ours should be given 
considerable weight in this legislation.
    Legislation reauthorizing the Federal highway program should 
achieve several key results.
    I. It should increase funding levels to as high as the Highway 
Account of the Highway Trust Fund can sustain.
    II. It should emphasize investment in the National Highway System.
    III. It should achieve a distribution of funds among the States 
that is fair and based on the national interest. Such a distribution 
absolutely must reflect the national interest in the ability of people 
and goods to move across the rural areas of this nation, between our 
population centers. It must also reflect that, in States like ours, 
with relatively few people and large Federal land holdings, substantial 
Federal investment is required in order to support the long stretches 
of national interest highways within our borders. In short, States like 
ours should receive an enhanced share of the Federal highway program.
    The legislation should also----
    IV. Provide States greater flexibility to determine how to invest 
transportation funds, while retaining some Federal program emphasis 
areas;
    V. Reduce regulation of States by the Federal Government; and
    VI. Continue many aspects of present law, such as provisions 
requiring planning and public involvement in planning.
    In the balance of our testimony we will explain those and our 
positions on some additional issues in further detail.
               i. increase federal highway program levels
    On overall highway program funding levels, we are pleased, Mr. 
Chairman, that you and Senators Baucus and Kempthorne are already 
working to advance the position we support. Namely, that the law must 
allow States to invest the full level of funding which the Highway 
Account of the Highway Trust Fund can sustain.
    There are a host of reasons why this is the right policy, including 
that----
    Highway and transportation investments are investments; they help 
facilitate economic growth and help keep American business 
internationally competitive.
    The program is supported by user taxes. Highway users have paid 
these taxes with a reasonable expectation that the money will be put to 
work promptly for transportation purposes. A substantial increase over 
current investment levels is necessary to meet those reasonable 
expectations, and to ``put trust back into the Trust Fund.''
    Good transportation improves the personal mobility and quality of 
life of our citizens.
    The needs of our transportation network are vast and are not being 
met within current program levels. At present levels of Federal 
investment we are not able to maintain, much less improve, the current 
condition of our NHS and Federal-aid highway systems.
    Our understanding is that, considering current income into the 
Account, interest on the balance in the Account, and a gradual draw 
down of that balance, the Highway Account can sustain investments of 
$26-27 billion annually. If the 4.3 cents of motor vehicle fuel taxes 
currently dedicated to the General Fund of the Treasury were to be 
redirected--as it should--to the Highway Trust Fund, an even higher 
program level could be sustained.
    We are also pleased to note that support for this basic position is 
not limited to our transportation departments. It receives strong 
support from all over the nation. We were particularly pleased when, 
earlier this year, the National Governors' Association adopted a 
Surface Transportation financing resolution, urging that:
the 4.3 cents per gallon of fuel tax currently being used for General 
    Fund purposes be deposited in the Highway Trust Fund and used for 
    transportation purposes; and all dedicated user fees and the 
    interest accrued on Trust Fund balances be promptly distributed.
    We are very pleased that the STARS 2000 proposal would set program 
levels as high as the Highway Account can sustain (assuming no 
reduction in the taxes dedicated to the Account). Your bill, Senator 
Warner, also takes that position. The STARS 2000 proposal, however, 
commendably takes one further step. As we understand it, an additional 
feature of that proposal would authorize apportionment of additional 
funds if it should turn out that current estimates of Highway Account 
revenues are too low, such as if some or all of the 4.3 cents is 
directed into the Account.
    We are, of course, very disappointed with the low funding levels 
proposed by the Administration. We urge the Congress to, instead, adopt 
the much higher funding levels which we and so many others recommend.
     ii. emphasize investment in the national highway system (nhs)
    We would give greatest program emphasis to the NHS, allocating 50-
60 percent of total apportionments to the NHS program category. This is 
not as high a percentage of the program as it might seem when the NHS 
program is defined as including Interstate maintenance and bridges on 
Interstate and other NHS routes.
    The NHS, Mr. Chairman, represents the extremely strong Federal 
interest in ensuring that the entire nation is well connected. It is 
the principal grid upon which people and goods move safely and 
efficiently across the country. These routes make up only 4 percent of 
the nation's roads, but carry 40 percent of all traffic and 75 percent 
of commercial truck traffic.
    Not only are these roads clearly important, studies show that a 
great deal of money is needed to maintain them, perhaps $18 billion 
annually, which translates to $14-15 billion a year for a Federal NHS 
program. More would be needed to improve the NHS. So we strongly 
recommend that program emphasis be given to these important roads.
 iii. the distribution of funds must reflect the national interest in 
                        highways in this region
    While there are significant transportation needs across the nation, 
there are a number of reasons why the Nation will be well served if 
States like ours receive a significant net influx of Federal highway 
funds under the forthcoming legislation.
    First, the entire nation benefits from the fact that there is a 
national network of first-class highways, enabling people and goods to 
move, for example, between Chicago and the West Coast, over the plains 
and mountains. Major Interstate and National Highway System routes in 
this region were not built principally to connect places such as Twin 
Falls, Idaho and Bozeman, Montana, and Gillette, Wyoming. While those 
roads do connect those towns, they also meet NATIONAL needs. They 
benefit the great population centers of our nation; they allow people 
and goods to move from Chicago and points east across the country to 
Seattle, Portland, and California.
    We want to emphasize that the national need for investment in this 
region, to achieve these benefits, continues even though the Interstate 
highways have been built. We are now entering a period where major 
reconstruction of the Interstates is upon us. In addition, we note that 
maintenance of those routes is solely a State responsibility, and an 
expensive one for lightly populated States like ours.
    Highways in States like ours also enable agricultural products and 
natural resources to get from source to metropolitan markets, and 
enable manufactured goods to move from metro areas to rural consumers. 
They also provide the nation's citizens with access to the country's 
national parks and the great outdoors.
    In short, it is clear that investments of Federal highway funds in 
this region help the nation, not just the States in which the 
investments are made. The funding formula must reflect this.
    Second, rural States are not able to pay for the Federal-aid system 
of roads without a significant net influx of Federal funds. We have 
very few people to support each lane mile of highway. For example, in 
Idaho we have approximately 51 people per lane of Federal-aid highway; 
Montana, 27, New York, 278. Virginia is about at the national average 
of 126 people per lane mile of Federal-aid highway.
    Also, while per capita income in this region is below the national 
average, our citizens pay considerably more per person into the Highway 
Trust Fund than the national average.
    Thus, while there is sometimes a clamor in Washington because some 
States are ``donors'' under the Federal highway program (putting 
relatively more into the Highway Account than they get out) and others, 
including our States, are ``donees'', our citizens, per person, are 
putting more of their income into the Highway Trust Fund than the 
national average. Our citizens are definitely carrying a heavy load, 
Mr. Chairman.
    Another consideration is the high percentage of land in this region 
which is either owned by the Federal Government or held by it in trust. 
States with a very high percentage of their land under such Federal 
control face a number of difficulties. In particular, Federal lands are 
generally not open for commercial or residential use, depriving a State 
of part of its tax base.
    In States with large Federal land holdings, like Idaho, this is a 
significant impediment to the State's ability to raise revenue. Yet, 
those States still maintain significant Federal highway systems, which 
serve national interests, and which lead to, cross, or are adjacent to 
these Federal land holdings.
    We want to emphasize that this is a problem distinct from those 
addressed by the Federal Lands Highway Program. That program 
principally serves to develop roads within Federal Lands, such as 
highways within National Forests or on Indian Reservations, or on 
adjacent roads. Those are direct Federal expenditures for Federal 
purposes. Our point here, is that, in addition to the national need to 
continue and improve a Federal Lands Highway Program, the general 
apportionment formula should reflect the special burden faced by States 
which must ensure transportation across or adjacent to Federal Lands.
    For reasons such as these, we believe that States like ours should 
receive both more dollars and a higher share of the program than under 
current law.
Approaches to Distributing Funds
    Clearly, the kind of overall result which we support could be 
achieved through a variety of formulas. We do suggest, however, that 
the national interest would be well served by a funding distribution 
formula which takes the following approach to providing an increased 
program share for our States.
    Emphasize extent and use of the Federal-aid highway system 
particularly the extent of Interstate and NHS routes. One of the 
provisions of ISTEA required the Secretary of Transportation to 
undertake a functional classification of our nation's roads, to 
determine which were important enough to be ``Federal-aid highways,'' 
those eligible for Federal assistance. Congress also directed the 
Secretary to propose routes for inclusion in the National Highway 
System and that system has now been designated.
    We think it is clear that there is a higher Federal interest in the 
Interstates, NHS routes, and other Federal-aid highways than in other 
roads. These are the roads which do the most to serve national interest 
needs. Thus, we believe that the extent and usage of these routes, as 
opposed to all roads, deserve recognition in a funding formula. 
Particular emphasis should be given to the extent of our premier 
systems, the Interstate and the NHS. If the extent of those systems is 
not given weight in the distribution and allocation of funds, a risk is 
created that the resources won't be there to maintain those key roads.
    Take Low Density and Ability to Pay Into Account. We also believe 
that the overall formula should provide increased funds to States with 
low population densities and/or few people per lane mile of Federal-aid 
highway, and with a high percentage of land subject to Federal 
ownership or trusteeship. All of these factors tend to reflect the 
inability of rural States to pay for the national interest routes which 
are within their borders--routes which provide tremendous benefits to 
the Nation generally, not just to the residents of the States where 
they are located.
    Achieving Balance. Certainly, the overall scheme for distributing 
highway funds must make sense for the Nation as a whole. It must take 
into account the concerns of other areas and provide an appropriate 
minimum allocation. However, we are confident that this can be done 
while meeting the national interest in providing an increased share for 
this region.
    STARS 2000 Strikes a Good Balance. Our confidence that this can be 
done is validated by the formula information that Senators Kempthorne, 
Baucus, and Thomas have circulated describing the distribution of 
highway funds under the STARS 2000 proposal. Under their proposal, with 
both its increased funding and its formula:

  <bullet>  47 States would receive higher annual funding than today, 
    and
  <bullet>  33 States would receive a higher percentage of funding than 
    under present law (and another one the same percentage).

    We also believe that, head-to-head, against other new proposals 
which have been revealed--namely the ISTEA Integrity Restoration Act 
and the Administration's bill--STARS 2000 compares favorably. In short, 
while no one proposal could be the best for all States, STARS
    2000 is the proposal that does the most for the most. It is 
balanced. It treats both our region and the Nation fairly.
Concerns With Other Funding Distribution Proposals and Factors.
    Before leaving the topic of funding formulas, we offer a few more 
points regarding funding formulas and factors proposed by others.
    We were disappointed with the Administration's funding distribution 
proposal. It is the only one that has been offered which would reduce 
the share of funding provided to our States. We don't think that there 
is anything more to say about it. That says it all.
    Let us also note our position on some specific aspects of formulas. 
We have trouble with proposals to continue the so-called 
``reimbursement program.'' This category of funding distributes funds 
based on the presence of the Interstate routes in a State prior to 
1956. We all know there were few or no such routes in this part of the 
country in 1956. We believe that any overall proposal which continues 
that program category, and apportions those funds on the basis of 
activity over 40 years ago, has a big strike against it, a strike which 
could be overcome in our eyes only if other factors in the overall 
proposal would help our region a very great deal.
    The present CMAQ (Congestion Mitigation and Air Quality) Program is 
another one which distributes a very low percentage of its funds to our 
States. We believe that program should be de-emphasized. Any overall 
proposal which includes substantial CMAQ funds, again, would have to 
have other extremely attractive features before it could be attractive 
to our States. We also note that the current formula for allocating 
bridge program funds is not a helpful one for our States. The current 
formula for allocation of these funds does not include an incentive to 
maintain bridges. Under it, the worse a State's bridges get, the more 
bridge funds it receives. All our States have a higher percentage of 
the nation's square footage of bridge deck surface area than we receive 
of today's bridge program funds.
            iv. achieving a more flexible program structure
    We turn now from funding allocation to the issue of program 
structure. Here, we see the task in front of the Congress as one of 
striking a balance between letting States decide how to spend the money 
apportioned to them and telling them exactly how to spend it.
    We strongly recommend that, compared to today, the legislation 
place allocation of a greater percentage of overall funding within the 
discretion of State officials, so that they can better implement the 
priorities identified through their planning process, which involves 
receipt of comments from the public. This is not to say that the 
legislation need be totally deferential to States. We think that 
legislation can continue to require States to emphasize certain types 
of investments. In general, however we strongly recommend that the 
overall result leave more of the funding open to dedication in 
accordance with the priorities identified in the planning process. 
Thus, transportation officials could emphasize urban or rural 
investments, safety investments, capacity investments, transit 
investments, transportation enhancements, bridges, or whatever else the 
planning process prioritizes.
    As to how, specifically, we would strike the balance, it would be 
to have two basic categories of funds, an NHS Program, and a Surface 
Transportation Program, with several program emphasis areas worked into 
that structure.
    National Highway System (NHS). For the reasons noted earlier, we 
would give greatest program emphasis to the NHS, allocating 50-60 
percent of total apportionments to the NHS program category. We 
recognize, however, that some States would prefer to not give so much 
emphasis to the NHS. Thus, we also support continuation of the ability 
in law today for a State to transfer a portion of its NHS funds to 
other program categories.
    Safety. We think it appropriate for the program to continue to set 
aside funds for railroad highway crossings and hazard elimination--in 
amounts similar to under today's program. We suggest some greater 
program flexibility in this area, however, such as allowing some 
transfers between the two and eliminating restrictions within each of 
those programs.
    Transportation Enhancements. We support continuation of some set 
aside for transportation enhancements. However, we cannot subscribe to 
any view that the Federal Government should require States to give them 
increased dollars or emphasis. As a time when total Federal investment 
levels in highways and transit fall far short of what is needed to 
maintain the condition of our roads and transit systems, and further 
short of what is needed to improve them, we suggest that the dollar 
guarantee for transportation enhancements out of the highway program be 
slightly reduced. Transportation enhancements have a role but, beyond a 
modest point of guaranteed funding, they should have to compete in the 
planning process with other demands for transportation dollars.
    Set Asides for Metropolitan Areas. We support continuing a set 
aside of funds, within the ``surface transportation program'' category 
of the highway program, for metropolitan areas of over 200,000. We 
would not reduce the dollar in that set aside. To the contrary, we 
would allow the dollar value of that set aside to grow with the 
program.
    We would oppose, however, proposals to provide specific set asides 
of funds for smaller metro areas. In taking this position we note that, 
today, every metro area in each of our five States has a population of 
less than 200,000. We certainly spend funds in and around the largest 
cities in our States. We always will. What is at issue is flexibility 
within the State to address varying needs and the ability of the State 
to effect an overall statewide plan. For that reason, on this issue we 
would maintain the balance in present law, which provides funding set 
asides only for metro areas of over 200,000.
    Congestion Mitigation and Air Quality (CMAQ) Funds. We want to make 
clear that we view issues regarding funding of CMAQ activities not as 
raising any question of whether officials should try to meet 
transportation needs in a manner which is sensitive to air quality--
they should. We see issues as to the future size of the CMAQ program 
principally as a funding formula issue. This is because the present 
formula for distribution of CMAQ funds favors only a few States.
    We would prefer to reduce the CMAQ program because we believe that 
its main impact is to shift funds from most States, including our 
States, to a very few States. In short, our recommendation that funding 
for the CMAQ program be Reemphasized stems from our desire to increase 
overall funding for the citizens of our States, even for CMAQ 
activities, whether they live in our cities or smaller towns.
    Bridges. We believe it is reasonable to set aside some funds for 
bridges, both on and off the Federal-aid system. However, we stress 
that this can be done in a way which decouples a requirement that each 
State spend some funds on bridges from today's bridge program funding 
formula, a formula which is not helpful to us.
    Obligation Ceiling Rules Should Maintain Program Balance. While not 
always thought of as a program structure issue, we want to note our 
view that rules for any ``obligation ceilings'' should help maintain 
the program balance which appears on the face of an authorization bill. 
Frankly, this doesn't usually happen, but it should.
    As a preliminary point, let us be clear that we hope that the 
Congress will allow the investment of the full amount of funds which 
the legislation authorizes. However, in the past, there has almost 
always been an ``obligation ceiling,'' which limits the extent to which 
authorized funds can be spent.
    We want to make two specific points about rules for obligation 
ceilings. First, we object to any rules under which the type of 
apportionments which go to our States receive second class treatment 
under an obligation ceiling. Under today's system, obligation ceilings 
give a financial preference to minimum allocations and special 
projects. Compared to States as a whole, we receive relatively little 
money in those categories. On that basis alone, we would not give 
preference to them under a scheme for parcelling out funds in the event 
that not all funds can be distributed. However, our general point is 
that all funds apportioned to States should be treated equally under 
obligation ceilings.
    Second, the rules should maintain balance in the program structure. 
This does not happen when set asides are expressed in terms of 
apportionments, but obligation authority--real cash--is less than 
apportionments. For example, if a set aside is worded as constituting 
10 percent of apportionments and obligation ceilings are regularly less 
than apportionments, the real effect is that the set aside will become 
more than 10 percent of the actual program. This distorts the program 
and a mechanism should be developed so that, when obligation ceilings 
are imposed, set asides are reduced pro-rata, and program balance is 
maintained.
    STARS 2000 Strikes the Balance. Again, Mr. Chairman, we believe 
that the STARS 2000 proposal does an excellent job of striking the 
balance between reducing program categories and maintaining reasonable 
Federal program emphasis areas. STARS 2000 emphasizes the NHS and 
maintains reasonable requirements for expenditures on bridges, safety, 
and enhancements, and in large metro areas. This is a good balance.
                     v. reduce regulation of states
    In general we urge Congress to take appropriate steps to reduce 
Federal regulation of States. Congress took many excellent steps in 
that regard in 1995's National Highway System Designation Act. 
Elimination of many ``management system'' requirements, of ``crumb'' 
rubber utilization requirements, and other rules were welcome. Mr. 
Chairman, you, Senator Baucus, and Senator Kempthorne were very 
effective in reducing regulations as that bill developed. We thank you 
for those efforts.
    We look forward to working with the Congress so that this year's 
legislation will further reduce Federal regulation of State 
governments--and also preclude increases in regulation.
    At this point, we have some concern that there may be proposals to 
establish, or allow the executive branch to establish, ``performance 
standards''. We are concerned that these proposals could turn into an 
effort to have Washington tell States how to set their priorities, 
regardless of what our citizens tell us in comments during our planning 
processes.
    We also note that the American Association of State Highway and 
Transportation Officials (AASHTO) has developed a series of 
recommendations on how to streamline and ease regulatory requirements. 
We support the thrust of those suggestions and urge the Committee to 
include provisions in the legislation which respond to those concerns.
    In taking this general position, we want to emphasize our view that 
Federal regulation of States should be disfavored. We consider 
ourselves to be full partners in our Nation's Federal system of 
government. We already strive to determine the public interest and to 
serve it. So, we think there should be stronger direction from Congress 
to Federal agencies to simplify and reduce rules and other requirements 
imposed on States.
       vi. continue planning and public involvement requirements
    We support continuation of State and metropolitan area planning 
requirements and the decisionmaking and consultation roles currently 
provided to local governments. We support continuation of public 
comment rights. Basically, we would not try to change the balance 
between States and other governmental units in the current planning and 
project selection process.
                         vii. additional issues
Federal Lands Highway Programs Should Grow With the Program and Be 
        Improved
    Under present law, approximately $450 million annually is 
authorized for investments in Federal lands highways. This includes 
investments in Indian Reservation Roads, roads within parks, forest 
highways, and a discretionary public lands highway program.
    Roads in and adjacent to Federal enclaves are a unique Federal 
responsibility and the Federal highway program should continue to 
provide funding for them. We recommend that, overall, highway 
investments concerning Federal lands grow at the same rate as the 
overall program. We also urge some reform of these programs, to ensure 
that Federal lands highway funding is more likely to go into areas 
where there are substantial Federal lands.
    We particularly object to that aspect of section 1015(a) of ISTEA 
which penalizes States which apply for and receive Public Lands 
Discretionary funds. Under that provision, a State which receives a 
discretionary grant has its surface transportation program funding 
reduced in the following fiscal year. This provision punishes States 
with public lands and serves as a disincentive for them to apply for 
those funds. The provision also hurts Native Americans by penalizing 
States which attempt to improve BIA and Tribal roads by using public 
lands highway funds. Such ``penalties'' upon States should not be a 
feature of the Federal lands highway programs as the entire Nation, not 
just the residents of the State in which particular projects are 
located, benefits from Federal lands highway program investments.
    We also recommend creation of a new category of Federal lands 
highway investments (to fit within the overall level of funds for all 
of Federal lands highway programs). The purpose of such a program would 
be to provide greater likelihood that the Federal Government will 
choose to invest Federal lands funds in those States with the greatest 
percentage of Federal lands. Mr. Chairman, in recent years, we have 
seen States like Idaho and Nevada, with massive Federal lands holdings, 
be denied Federal lands discretionary funding. Other western States 
have not even bothered to apply, due to the hold harmless provision we 
mentioned. This is not good policy. Most of the nation's Federal lands 
are in this region, and new legislation needs to better ensure that the 
Federal lands highway program directs funding where the Federal lands 
are.
    Given these positions, we are enthusiastic about the Federal lands 
highway provisions included in the STARS 2000 proposal. The STARS 2000 
proposal would increase the overall level of Federal lands highway 
investments by the same rate of growth as the overall program, and make 
needed reforms to help direct the funding where the Federal lands are.
    In addition, we would object to proposals which would dilute the 
effectiveness of the Federal lands program by having part of the 
Federal lands program funding be switched to support of roads that are 
currently financed out of the General Fund of the Treasury.
``Turnback'' Proposals Represent A Wrong Turn on the Path to Good 
        Policy
    Mr. Chairman, one further point on the overall funding level. In 
supporting a program level as high as the Highway Account can sustain, 
it is implicit that we strongly oppose so-called ``turnback'' or 
``devolution'' proposals. These proposals would repeal or reduce 
Federal fuel taxes and leave it to State and local governments to 
finance highway and transit programs either on their own or with much 
less Federal money than today. Enacting ``turnback'' would be a 
catastrophic mistake.
    State and local governments already provide the bulk of 
transportation funding in this country. So, Mr. Chairman, most 
transportation funding in this country already is ``turned back.'' And, 
on a national basis, as important as transportation is, hard pressed 
State and local governments are not going to be eager to increase State 
fuel taxes by 10 or 15 cents per gallon, or even 5 cents, to replace 
Federal fuel taxes that would be repealed or turned back under these 
proposals.
    So, turnback creates a serious risk of national disinvestment in 
transportation at a time when, instead, that investment should be 
increased.
    We know, Mr. Chairman, that you and our Senators have determined to 
oppose turnback--and we are glad. But, we just wanted to make clear 
today our very strong opposition to those types of proposals.
Transit Program Funding
    While we understand that this Committee does not have jurisdiction 
over the transit program, transit will certainly be included in the 
overall surface transportation program legislation Congress is now 
beginning to develop. Let us make a few points regarding transit.
    First, we support continuation of a transit program.
    Second, we believe the ratio between the size of the highway and 
transit programs, based on recent appropriations levels, is about 
right.
    Third, to the extent that the ratio between the two programs should 
be changed at all, we favor a relative gain for the highway program. 
There are two reasons for this. The highway program is a modern, 
multimodal transportation program. It provides for and has effectuated 
billions of dollars in transfers to transit purposes. (We support 
continued eligibility for transfer of highway funds to transit; we know 
it can make sense in many States). The transit program, by contrast, 
supports only transit. Transfers of transit funds to highway projects 
simply have not happened.
    In addition, distribution of funds among the States is far more 
equitable under the highway program than under the transit program. As 
you know, Mr. Chairman, under the highway program there is a 
substantial minimum guarantee to each State. There is no such guarantee 
under the transit program. Under the transit program there are a 
handful of States which are substantial donees, a few which are near 
break even, and the majority are big donors. Our States are about the 
biggest transit donors on a percentage basis. Our States' citizens get 
back, on average, roughly a quarter or less on a dollar of attributable 
user taxes paid into the Transit Account. So, while we support a 
substantial transit program, the relative weight between the two 
programs should give more emphasis to the more equitable, more flexible 
highway program.
    Fourth, we want to note that we are potentially interested in the 
formula for allocation of transit funds. As a policy matter, we view 
the allocation of funds on a combined program basis, taking into 
account both highway and transit programs. In the context of a 
satisfactory allocation of highway program funds, we may not press hard 
for change in the allocation of transit funds. However, in the context 
of an unsatisfactory highway funding formula, such as the 
Administration's proposal, we may well support a substantial minimum 
allocation under the transit program as a means of recovering some 
overall funding for the citizens of our States.
Don't Make Mistakes In Amtrak Financing
    We know that one issue under considerable discussion in Washington 
is whether Amtrak should have access to money from the Highway Trust 
Fund and, if so, how. Because there could be a lot of money at stake, 
we want to share our views on this topic.
    We prefer continuation of present law, under which Amtrak receives 
financing out of the General Fund of the Treasury. There is no shortage 
of projects nationally which are already eligible for Highway Trust 
Fund moneys. Addition of eligibility for any costly item weakens the 
ability of States to advance what our citizens have already put on the 
lengthy ``to do'' list.
    Going beyond our preference, however, we want to be clear that we 
do not have equal views on other ways of financing Amtrak. The 
Administration's proposal, in particular, is highly objectionable to 
us. It would fund Amtrak out of the current stream of Highway Account 
revenues--to the tune of approximately $4.7 billion over 6 years. 
Assuming the State program shares called for by STARS 2000, displacing 
$4.7 billion for highways with $4.7 billion for Amtrak would reduce our 
ability to serve our 5 States by roughly $215 million over the 6 years. 
That is a non-starter, Mr. Chairman.
    Financing Amtrak with a small amount of funds out of the 4.3 cents 
of fuel tax currently going into the General Fund is a little 
different, however, as Amtrak already receives General Fund revenues. 
So, as a Federal bookkeeping matter, this approach is more in the 
nature of changing account labels.
    But, even that approach raises the question of possible unfairness 
to highway users, who are paying these taxes, but generally not riding 
Amtrak. So, we suggest that, to be fair to highway users, Congress 
consider financing Amtrak with fuel tax revenues only in the context of 
a larger approach under which the remaining 3.8 cents of the 4.3 cents 
would go to the Highway Account of the Highway Trust Fund.
The Highway Account Should Be the Destination of the 4.3 Cents
    Apart from any deduction that might be made for Amtrak, we feel 
strongly that the 4.3 cents of fuel taxes paid by highway users and 
currently going to the General Fund should be directed to the Highway 
Account of the Highway Trust Fund. There are several reasons why this 
should be done.
    First, as noted earlier, the highway program is a modern, 
multimodal transportation program. The transit program is a single 
purpose program that essentially does not allow consideration of 
highway uses. So, putting the money in the Highway Account is the way 
to advance flexibility, multimodalism, and allowing States to choose 
the projects that show highest in their plans, be they highway or 
transit projects.
    Second, the Highway Account is financially fairer to States as a 
whole, with a far more even distribution of funds between the States. 
Third, the balance in the Transit Account of the Highway Trust Fund is 
much higher, in relation to the size of the transit program, than is 
the size of the balance in the Highway Account, compared to the Federal 
highway program. So, the Highway Account needs the infusion more.
Recreational Trails
    We support funding out of the Highway Account for the Recreational 
Trails program, at the $30 million annual level proposed by Senator 
Kempthorne.
Demonstration Projects/Discretionary Grants
    We will not dwell on it today, but want to note our opposition to 
Congressional earmarking of highway project selection, sometimes called 
the funding of ``demonstration projects.'' In general, we believe that 
the vast majority, if not all highway funds, should be distributed on a 
formula basis. Certainly, demonstration projects and discretionary 
grants should receive less emphasis in the new legislation than they do 
today.
Infrastructure Banks
    Related to the question of discretionary grants are proposals to 
fund various types of infrastructure banks. We have no problem with 
efforts to increase use of ``innovative financing'' techniques, like 
infrastructure banks. What we are concerned about is the source of the 
Federal seed capital for them. We believe that States should finance 
these banks out of their own apportionments. This would enable the use 
of these banks as an innovative financing technique.
    We oppose, however, proposals which would have USDOT reserve funds 
``off the top'' of the Highway Account for credit programs, and 
distribute the funds at USDOT's discretion. This approach creates 
winners and losers among the States. We urge that the Congress choose 
ways of promoting innovative financing and financial leveraging other 
than through ``off the top'' discretionary credit programs.
Intelligent Transportation Systems
    Expenditures for so-called ITS technology are growing and little of 
this money has found its way to rural America. This needs to change.
                               conclusion
    Mr. Chairman, Senator Kempthorne, Senator Baucus, we have covered 
quite a few points here today but this legislation is truly important 
and addresses many issues. Fortunately, we can sum up our position very 
simply--``follow the STARS.'' The STARS 2000 proposal sets forth a very 
balanced and thoughtful approach to the highway program issues. It is a 
proposal that we very strongly support.
    Among its key provisions are those:
    <bullet>  increasing the level of Federal investment in the highway 
program; providing an appropriate increase in program share to our 
States while providing a fair distribution of funds nationwide; and
    <bullet>  streamlining the program structure. We urge the Congress 
to follow that approach as the legislative process advances.
    That concludes our statement. At this time, we'd be pleased to 
respond to any questions the committee may have.
                               __________
      Statement of Marv Dye, Montana Department of Transportation
    Senator Warner, welcome to the West, and Senator Kempthorne and 
Senator Baucus, welcome home.
    Because of the importance of Federal Highway Program 
reauthorization to our States and the future of the Nation, we are 
extremely pleased you have been able to travel from Washington to 
conduct a hearing in our region. In this part of the country, Senator 
Warner, when you are talking about surface transportation, you are 
principally talking about our highways. In the West the future vision 
of our economy, the welfare of our citizens, and our quality of life is 
linked to the mobility and access provided by our highways. And, it is 
the very same highways serving us that serve the Nation.
    For example, the wheat that leaves Montana on our highways through 
a port at Lewiston, Idaho, is headed for international markets and 
contributes to our national economic goals. The commercial carriers 
that cross Montana, the Dakotas, Wyoming and Idaho on the National 
Highway System support the Nation's just-in-time industries and markets 
by allowing capital be to invested that otherwise would have to be 
stockpiled at points of assembly or sale. But beyond the economics, our 
highways tie us together as a Nation and as a people.
    Montana had 8 million out-of-state visitors this year, and 
approximately 80,000 of these folks traveled to visit us from Virginia. 
And when they cross the country, they had to cover a lot of distance 
outside of big cities where there weren't many people on either side of 
the road. But, even in the Nation's rural areas, the highways are there 
to connect the Nation and serve its economy.
    As Dwight Bower has already mentioned, we are here today on behalf 
of the Idaho and Montana Transportation Departments and also on the 
behalf of the transportation departments of North Dakota, South Dakota, 
and Wyoming. While the combined testimony of these five States is 
Director Bower's and my spoken remarks, our basic position, Senator 
Warner, is simple. We strongly support the proposed Surface 
Transportation Authorization and Regulatory Streamlining Act, STARS 
2000, which, incidentally, is our goal. Further, we look forward to its 
introduction by Senator Baucus, Kempthorne, Thomas and others. While we 
thank all the Senators who are working for the proposal, we want to 
particularly commend Senators Baucus, Kempthorne, and Thomas for their 
tremendous leadership in developing it. For the reasons already cited 
by Director Bower as well as others, and I'll discuss shortly, STARS 
2000 is an excellent bill which addresses the needs of our Nation and 
our States in a thoughtful, balanced way.
    We also commend you, Senator Warner, for the work you have done to 
advance surface transportation reauthorization legislation that is in 
the national interest. You are making a strong effort to obtain 
increased levels from the Highway Trust Fund expenditures for highway 
expenditures and very importantly, you have demonstrated an 
understanding that there is a national interest in Federal highway 
program investments in and across States like ours.
    Dwight has already mentioned three key objectives that we feel 
highway program reauthorization must achieve. In my remaining time I'll 
touch briefly on the other key elements we feel should be included or 
excluded from reauthorization legislation and why STARS 2000 is the 
best proposal to achieve these goals.
    Besides increasing overall highway funding levels, achieving a fair 
distribution among States and emphasizing the National Highway System, 
the next highway program should also provide greater flexibility to 
determine how to invest transportation funds, streamline and reduce 
regulations and continue many of the aspects of present law that are 
just good practices, such as planning and the public's involvement in 
planning.
    As regards flexibility, we strongly recommend that, compared to 
today the legislation should allow a greater percentage of the overall 
funding to be prioritized through the existing transportation planning 
processes. We ask that you remember the existing planning and public 
involvement processes began with the current program. After 6 years and 
hundreds of millions of dollars which have been invested in these 
extensive processes, we support them as the best approach to 
prioritizing Federal-aid highway funds.
    This is not to say that the entirety of the future highway program 
needs to be totally discretionary. It is appropriate that Congress 
continue to require States to emphasize certain types of investments. 
We believe STARS 2000 strikes the appropriate balance. It continues 
emphasis areas for bridges, safety, enhancements and air quality 
guarantees in those areas with both ozone and carbon monoxide non-
attainment, and it continues the suballocation of highway program funds 
to large urban areas in a way that provides for these population 
centers to share in program growth.
    In short, STARS 2000 maintains a balance and walks the middle of 
the road between those who are advocating total turn-back of the 
transportation program and those who would increase the amount mandated 
to be set aside for specific purposes which come at the expense of core 
highway program needs.
    STARS 2000 preserves the existing transportation planning process, 
including its extensive public involvement. Under this bill's approach 
a greater percentage of overall funding would be prioritized through 
planning, technical assistance and public involvement. We feel this is 
the appropriate direction and applaud the sponsors of STARS 2000 for 
providing this leadership.
    Before closing I also offer some brief comments on elements of 
other reauthorization proposals which are before your committee. First, 
expansion of certain programs designed to move funds from a majority of 
States to very few States significantly hurts our region and the 
Nation. For example, of the billion dollars currently distributed to 
States under the Congestion Mitigation and Air Quality Improvement 
Program, Montana receives only about $5 million per year. While we 
strongly support continued funding eligibility for these activities, 
expansion of this program or continuation of the current distribution 
formula hurts our States and makes it significantly more difficult to 
address transportation needs overall.
    I also note that we see little benefit in the continuation of the 
existing bridge program which has a built-in disincentive for timely 
maintenance of structures or for the continuation of the Interstate 
Reimbursement Program that is distributing hundreds of millions of 
dollars to States that built interstates more than 40 years ago and in 
many cases have been receiving tolls on these roads for decades. These 
programs put our States at a significant disadvantage and really have 
one thing in common, they move a significant percentage of highway 
program funding to a very few States.
    We note that STARS 2000 deals appropriately with these program 
issues and strikes a balance between streamlining the program and the 
continuation of the Federal role in the Nation's surface transportation 
programs, and it considers equity issues with an increase in minimum 
allocation which is a topic of significant interest of your home State 
of Virginia.
    Lastly, STARS 2000 meets the national interest in providing an 
increased share for the western region; it is simply the best proposal 
for Montana, Idaho, the West, and the Nation overall.
    Senator Baucus and Kempthorne, we applaud the truly national scope 
of your proposal, and we are looking forward to its early introduction. 
Nationwide STARS 2000 will increase annual highway program funding for 
47 States and increase the overall percentage share of highway program 
funding for 33 States.
    If I can take a minute to share a couple of maps. The first one is 
available for you there. These maps compare the proposed STARS 2000 
distribution to other authorized proposals introduced to date. The 
first map shows the 33 States where STARS 2000 proposal would increase 
their overall percentage of the current program.
    The second map, which is perhaps the most interesting, compares the 
percentage of each State's program share under STARS 2000 against other 
current reauthorization proposals. Clearly, this proposal, which is 
shown in red, compares very favorably. In fact, all of the proposals 
now on the table, STARS 2000 provides the greatest percentage of 
program share for more States than any other. This is even true, 
Senator, for your home State of Virginia.
    In conclusion, Senator Warner, Senator Baucus, Senator Kempthorne, 
between Dwight Bower and myself, and on behalf of our five-State group, 
we have covered many topics today of this important piece of 
legislation. Fortunately, I can sum up our position of these issues 
very simply. We urge everyone concerned with the future highway program 
to follow the stars. The STARS 2000 bill sets forth a very balanced, 
thoughtful approach to these complicated issues, and we look forward to 
throwing our full support behind it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Statement of Yvonne Ferrell, Director, Idaho State Department of Parks 
                             and Recreation
    Good morning, I am Yvonne Ferrell Director of the Idaho State 
Department of Parks and Recreation. I would like to take a few minutes 
to talk about the important needs ISTEA projects have met in our State. 
I will divide my comments between the main ISTEA program and the 
National Recreational Trails Fund, which is a smaller, but critically 
important program within ISTEA.
    ISTEA projects have been used across the State of Idaho to support 
important local alternative transportation projects and enhancing the 
transportation experience.
    Over the last 5 years Idaho has provided ISTEA grants through a 
competitive process in which local and State government apply to an 
advisory committee which makes recommendations to the State 
Transportation Board.
    The Idaho Department of Parks and Recreation has been successful in 
getting some ISTEA grants which have had a significant impact on the 
State parks system. I would like to review some examples of important 
projects which have been awarded to local and State government.
Coeur d'Alene Lake Drive Bike Path
    The Coeur d'Alene Lake Drive Bike Trail Project was sponsored by 
the Idaho Transportation Department and was obligated in fiscal year 
1994. The 5-mile long, 10-foot wide pathway was created using the 
right-of-way from a section of Temporary I-90. This road went from four 
lanes to two and the remaining space has been used to create a 
separated bike/walking trail. The enhancement project built the trail, 
exercise stations, and public restrooms. The pathway is extremely 
popular, with over 14,000 people using the path each month during the 
summer.
    In a cooperative agreement with the Idaho Department of Parks and 
Recreation the maintenance of the pathway has been assumed by the IDPR. 
The total cost of the project was approximately $1.1 million, with 
enhancement funds paying for 80 percent of the project and State funds 
paying for 20 percent.
Diversion Dam Bicycle Rest Area
    The Diversion Dam Bicycle Rest Area Project was sponsored by the 
Idaho Parks and Recreation Department and was obligated in fiscal year 
1994. The project provides a much needed all season rest area for 
recreational and commuter bicyclists, hikers and those roller-blading 
on this heavily traveled section of the Boise River Greenbelt. The 
Boise River Greenbelt extends through downtown Boise to Lucky Peak Dam, 
providing almost 20 miles of continuous pathway. The particular stretch 
where the RA has been located lacked any type of public facilities. 
IDPR will maintain this facility. The total cost of the project was 
approximately $120,000 with enhancement funds paying for 80 percent of 
the project and IDPR paying for 20 percent.
Oregon Trail at Junction US-30, Montpelier
    The National Oregon Trail Center is located in the town of 
Montpelier, in southeast Idaho. The project was sponsored by the city 
of Montpelier and was obligated in fiscal year 1996. The Center which 
is nearing completion is a 30,000-square-foot facility housing a 
museum, interpretative and visitor rest stop, and office space. The 
museum will contain displays depicting the struggles of Oregon Trail 
travelers and early Mormon pioneers who came to the Bear Lake Valley in 
1863, exhibit western art and firearms, and contain a gift shop. The 
U.S. Forest Service will rent office space in the building. The 
proceeds from the rental will pay for building utilities and security 
and janitorial services. Construction on the building began in the 
summer of 1996, and occupancy of the office space portion of the 
building is expected late this March.
    Without the cooperative and persistent efforts of many individuals, 
private organizations, and government agencies the Center would not 
have become a reality. Funds for architectural consulting fees and 
nearly $500,000 in local matching funds were obtained through 
fundraising campaigns conducted by the Oregon Trail Museum Center, 
Inc., through individual donations and from in-kind contributions, such 
as water line installation and excavation work done by the city of 
Montpelier and Bear Lake County. This local money plus approximately 
$1.1 million in Federal enhancement funds have been used to build the 
Museum.
    The Center is truly the product of a multi-jurisdictional, public-
private partnership. It will not only enrich the experience of the 
traveling public, thus fulfilling the purpose of the enhancement 
dollars appropriated by Congress and awarded by the Idaho 
Transportation Board, but also provide significant benefits to the 
local community in the form of an attractive new building, cultural 
focus, and economic stimulation.
Driggs to Victor Bike Path
    The Driggs to Victor Bike Path Project was obligated in fiscal year 
1996 and will be completed this summer and ready for use in August. The 
bike path will be 7.4 miles long and parallels SH 33. Culverts, bridge 
substructures, and the clearing and grubbing for the path were 
completed last summer and fall. Approximately 2 miles of the pathway 
will be a bike lane on SH 33 with the remainder running parallel but 
separated from the roadway. Located in southeastern Idaho, Driggs and 
Victor are recreation destinations and provide access to the Teton 
Mountains. The project will cost approximately $680,000.00 with 
enhancement funds paying for 80 percent of the project and State funds 
paying for 20 percent. The project was sponsored by the Idaho 
Transportation Department.
    Projects such as these do a great deal to enhance our quality of 
life and improve transportation systems.
Alternative Transportation
    We need to encourage Idahoans to use alternative transportation in 
our urban areas in order to avoid the grid lock congestion so many 
people have moved to Idaho to escape.
    For instance in Boise, for Park Center Blvd. a recent consultants 
report commissioned by the County highway authority indicates that on 
an A to F scale the best traffic flow is projected to be in 10 years is 
a D. And that will entail building at least two more four lane bridges 
across the river significantly impacting local aesthetics and natural 
values.
    Meanwhile, the green belt, which has significantly expanded thanks 
to ISTEA funds, offers an alternative for more and more Boisians who 
commute to work by walking, bicycling, or in wheel chairs. ISTEA funds 
are needed in order to continue to expand the greenbelt system, support 
the construction of bike lanes, and allow children to commute safely to 
schools in this busy urban area.
Roads and Bridges
    There is little doubt that Idaho needs funds to support its road 
and bridge infrastructure. We are constantly battling with the 
deteriorating roads and bridges in Idaho's State parks. The needed 
repairs/renovation of these roads/bridges often surpasses our internal 
budgeting capability and, as a result, we are forced to let some roads 
deteriorate past an acceptable condition. If ISTEA is reauthorized, we 
hope to submit grant applications which will help renovate and 
construct roads/bridges/bikeways into the State parks system.
Transportation Enhancement
    Finally, there is the portion of the funds which are used to 
enhance the transportation experience. It seems as though each year the 
thousands of lives lost on our nations highways go unnoticed. We need 
support facilities which will encourage people to take that needed 
break from driving in order to refresh their reaction times and drive 
more safely.
National Recreational Trails Fund
    Idaho Department of Parks and Recreation.--Idaho has 18,700 miles 
of summer-use trails and 6,400 miles of winter use trails which is one 
of the largest trail systems in the country. The United States Forest 
Service manages 96 percent of the trails in Idaho. Most of the trails 
are managed as multiple use trails whether they are motorized, non-
motorized, or a combination of both. Idaho has very few single use 
trails. Most single use trails in Idaho are either interpretative, 
cross country ski or snowmobile trails.
    The National Recreational Trails Fund is critical to keeping 
Idaho's trails open. Idaho has one of the largest backlogs of trail 
maintenance and reconstruction in the country. The 1993 Idaho Trails 
Plan found that Idaho has a $40 million backlog of trail maintenance 
and reconstruction. Despite having one of the largest backlogs of trail 
maintenance and reconstruction in the country, Idaho has only a limited 
amount of trail maintenance and reconstruction funds. In 1992, Idaho's 
trail managing agencies spent $7.3 million on trail maintenance and 
reconstruction. The Forest Service estimated that it would take $20 
million per year to just keep pace with Idaho's trail maintenance 
needs. This limited amount of funds means that many trails in Idaho can 
wait up to 3 years to receive basic removal of downfall. A lack of 
trail maintenance and reconstruction funding is the primary reason for 
the disappearance of Idaho's trails. With a large backlog, finding 
places to allocate NRTF funding is easy, but, the overwhelming requests 
make it difficult for our advisory committee to decide.
    The National Recreational Trails Fund in Idaho is managed by the 
Idaho Department of Parks and Recreation Trails Program. The Trails 
Program Coordinator is responsible for day to day management of the 
fund. These duties include evaluating grant applications for 
eligibility, conducting grant workshops, inspecting completed projects, 
completing NRTF billings, and working with Idaho's National 
Recreational Trails Fund Advisory Committee.
    Idaho's National Recreational Trails Fund Advisory Committee 
composed of statewide representatives for Hiking, Cross-Country Skiing, 
Off-Highway Motorcycling, Snowmobiling, Equine, All Terrain Vehicles, 
Bicycling, Four Wheel Drive, Water Trail and People with Disabilities. 
The makeup of this committee closely reflects National Committee. The 
committee members are appointed by the Idaho Park and Recreation Board. 
This committee members duties include:
    1. Attend one NRTF Advisory Committee annually.
    2. Attend and participate in Idaho Park and Recreation Board 
meetings as requested by Idaho Department of Parks and Recreation 
(IDPR) staff.
    3. Assist prospective sponsors with the grant request process.
    4. Review prospective project locations and provide input to 
project sponsors on project design.
    5. Keep current on needs, desires, and attitudes of trail users 
statewide.
    Idaho has an efficient, simple process for allocating National 
Recreational Trails Fund moneys. On the first of October, the IDPR 
Recreation Bureau sends out a notice to all prospective grant 
application for all the Recreation Bureau programs, announcing that the 
application deadline for all grants is the last Friday in January and 
that the bureau will be conducting grant workshops around the State to 
assist grant applicants.
    The grant workshops are held in November, usually in five different 
locations in Idaho. The workshops cover the grant application form and 
instructions. The application form and instructions cover all five 
grant programs within the Recreation Bureau. In addition, each program 
such as the National Recreation Trails Fund has a 30 minute work 
session that describes the specific details of the program. These 
workshops are very popular with as many as 200 people attending all the 
workshops.
    During the time period between the workshops and the grant 
application deadline, the Trails Program Coordinator works with 
prospective applicants in developing successful grant applications. 
After the deadline passes, the Trails Program Coordinator spends a week 
reviewing the 30 to 40 grant applications for eligibility. The 
applications are then sent to the committee members, who review the 
material and meeting in mid-March for the rating of the applications.
    Once the applications are rated and reviewed by the National 
Recreational Trails Fund Advisory Committee, the Trails Program 
Coordinator prepares a packet to be sent to the Federal Highway 
Administration and the Idaho Park and Recreation Board. This packet 
outlines what is proposed for funding for the current fiscal year, and 
the information on the individual projects to be funded. Usually, the 
projects are approved by the Idaho Park and Recreation Board at their 
Spring Board meeting. The Federal Highway Administration approval 
usually follows within a month of submitting the applications.
    In 1996, Idaho received $217,935 in funding, of which $192,160 was 
spent on projects, $10,739 was spent for safety and education, and 
$15,036 was spent on administrative costs. The $192,160 funded 20 
projects. Thirty percent of the funds ($57,000) were spent on motorized 
projects, 44 percent of the funds were spent on multiple use projects, 
and 26 percent of the funds were spent on non-motorized projects. Idaho 
was unable to spend 30 percent on non-motorized projects because of a 
lack of eligible applications in 1996.
    This year, Idaho received $218,303 in funding, of which 192,107 was 
spent on projects, $10,915 was for spent for safety and education, and 
$15,281 was spent on administration costs. The $192,107 funded 15 
projects. Thirty percent of the funds ($57,632) were spent on motorized 
projects, 40 percent of the funds were spent on multiple projects, and 
30 percent of the funds were spent on non motorized projects.
    The 50 percent non-Federal matching requirement presented problems 
and opportunities in Idaho. Since Idaho doesn't have a substantial 
dedicated funding source for non-motorized trails, many Federal 
agencies found it difficult to apply for these funds, since their own 
funds that they are willing to contribute count as Federal funds. 
Technically, all Federal funds (FHWA, USFS, and BLM) count on the 
Federal side, and the 50 percent match must be completely non-Federal.
    Idaho does have dedicated funds for motorized trails through the 
Off Road Motor Vehicle Fund, so Idaho was able to help Federal agencies 
with matching requirement. In 1996, of the $132,000 spent on motorized 
and multiple use projects, Idaho's Off Road Motor Vehicle Fund provided 
$69,000 in matching non-Federal funds. The remaining balance of 
motorized, multiple use and non-motorized projects were funded through 
volunteer labor and grants from private organizations. In total, these 
groups contributed $123,000 toward matching funds. This demonstrates 
that Idaho trail user organizations and trail managing agencies work in 
close concert with one another to get projects completed.
    An excellent example of this partnership was demonstrated with the 
Knapp Creek-Valley Creek trail reconstruction project. The project was 
designed to make: 1) the Knapp Creek portion of the Knapp Creek to 
Valley Creek loop trail accessible to ATV's and to 2) develop a new 
trail head in the Basin Creek drainage. The work included rerouting 2.8 
miles of trail around wet meadows, replacing 5 culverts, constructing 
rolling dips over four miles of trail to control erosion, converting 
3.2 miles of closed road to an ATV trail, reconstructing the Short 
Creek bridge, and constructing a parking area.
    This project was needed to reduce sedimentation impacts to Basin 
and Knapp Creeks which are anadromous fish streams. The trails are used 
by hikers, horsemen, motorcyclists, ATV's, and mountain bikes. Funding 
for the nonFederal matching funds came from the Idaho Department of 
Parks and Recreation Motorbike Recreation Account, the National 
Wildlife Federation Fund, Trout Unlimited, Backcountry Horsemen, 
American Hiking Society and the Treasure Valley Trail Machine 
Association. In total, these groups contributed $16,412 for a $9,815 
National Recreation Trails Fund grant.
    Another example of an excellent non-motorized project occurred on 
the Moose Creek Ranger District. The Moose Creek Ranger District is 
located in North Central Idaho within the Selway-Bitteroot Wilderness, 
one of the first wilderness areas in the United States. During the 
winter of 1995-96, North Central Idaho received two rain on snow 
events, which caused severe flooding throughout the region. This 
flooding washed out numerous trails inside and outside the wilderness. 
The Forest Service concentrated its crews on repairing storm/flood 
damaged trails; however, this left several ridge top trails without any 
maintenance. In order to accomplish maintenance on these ridge top 
trails, the Moose Creek Ranger District teamed up with the North 
Central Backcountry Horsemen of Idaho. The National Recreation Trails 
Fund provided $9,401 for travel, supplies, and equipment use while the 
North Central Idaho Backcountry Horsemen provided the labor of 
maintenance.
    Idaho funded several motorized projects. One great example was the 
snowmobile signing project for the Madison County Snowmobile Program. 
This program in Eastern Idaho is only a few years old and is lacking 
signs at many of the intersections of the groomed trails. Much of the 
country is composed of rolling hills that look very alike. In white out 
conditions, people unfamiliar with the area can get lost. The Moody 
Powder Pushers in conjunction with the Madison County Snowmobile 
Program, designed, manufactured, and placed the signs at the 
intersections. The National Recreation Trails Fund provided $3,224 for 
96 posts and signs. With these signs in place, snowmobilers will have a 
much easier time finding their way around the groomed snowmobile trails 
in Madison County.
    With a $40 million backlog of trail maintenance and reconstruction 
that grows every year in Idaho, National Recreation Trails Funds (NRTF) 
will be needed for quite some time. The NRTF funding for 1996 and 1997 
has made a dent in the backlog, but more needs to be accomplished. With 
a continuation of funding in National Recreation Trails Fund, Idaho can 
make further progress to reducing the backlog of trail maintenance, and 
enhancing user cooperation.
    Recent weather conditions that took place this last winter 
devastated many trails in North and Southwest Idaho. Since the snow is 
still on the ground, we will not know the full effect of the weather 
events until later this summer. In early December, North Idaho 
experienced one its worst winter storms in recent history. A 2-day ice 
storm closed highways, schools, businesses, and other essential 
services. In addition to closing highways, the ice overloaded many of 
the trees in North Idaho, causing them to snap like toothpicks over 
roads and trails all over North Idaho. The Kootenai County Snowmobile 
Program spent $40,000 to clear the fallen trees from 245 miles of its 
snow mobile trail system. This money does not count the thousands of 
man hours that volunteer snowmobilers spent in helping to clear the 
system. The Kootenai County snowmobile system is mainly comprised of 
snow covered forest roads. The effect of the downfallen trees to 
Idaho's trail system is tremendous. These massive amounts of downfall 
will make it impossible for Idaho's recreationists to access much of 
North Idaho's Backcountry. It will take two to 4 years to totally 
recover from this massive felling of trees in North Idaho.
    In late December, Southwest Idaho experienced a heavy rain on snow 
event. With the above normal (about 200 percent) snowpack levels, sent 
water rushing down Southwest Idaho's streams and rivers. The flood 
water washed major sections of Idaho's highways. The flooding also has 
washed out many sections of Southwest Idaho's trails. In addition to 
the many sections of trail that are washed out, many of trees in 
Southwest Idaho, weakened by a 7-year drought and many years of fire 
suppression, collapsed under the weight of the heavy snow loads. Some 
trails may not be accessible for a couple of years, while forest crews 
and volunteers clear downfall out of the trail.
    Further funding of the National Recreational Trails Fund is 
essential to keeping Idaho's trail system available to recreationists. 
Without the funding, Idaho's trail maintenance and reconstruction 
backlog would grow even faster. Enhancing the amount of funding within 
the National Recreation Trails Fund would allow Idaho to stop or even 
reduce the backlog of trail maintenance of reconstruction.
    The National Recreational Trails Fund is not paid for by highway 
vehicles. The funds for this program come from four wheel drives, 
snowmobiles, all terrain vehicles, and motorcycles used off-road. These 
vehicles use gasoline. The Oak Ridge National Laboratory Study, Fuel 
used for Off-Highway Recreation, ORNL-6794, estimated that these 
vehicles consumed 2.9 billion gallons of gasoline in 1992. With a 18.4 
cents Federal tax per gallon, these vehicles paid $1 73 million 
annually in Federal gasoline taxes. The National Recreational Trails 
Fund only received $15 million for fiscal years 1996 and for 1997.
    These off-highway vehicle users contribute significantly to the 
Federal highway system, more so than the average vehicle user. In 
return, these users received only a small portion ($15 million in 
funding) for their use. The Idaho Department of Parks and Recreation 
encourages the Senate Subcommittee on Transportation and Infrastructure 
to consider full contract authority and full funding ($30 million per 
year) for the National Recreational Trails Fund.
                                 ______
                                 
                  Idaho Department of Parks and Recreation,
                                         Boise, ID, March 31, 1997.

    The Honorable Senator Dirk Kempthorne,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Kempthorne: As you requested at the ISTEA Subcommittee 
hearing in Coeur d'Alene on March 22, 1997, I am providing a written 
response to questions you posed.
    It was an honor to testify before you on this extremely important 
subject. I know that the vast majority of testimony you receive will 
address traditional road and highway needs. But please remember how 
very important highway enhancement, trails, bike paths, and greenways 
(alternative transportation) projects are to the safety and enjoyment 
of all our citizens.
    I hope the rest of your visit to Idaho and the Northwest was 
enjoyable.
    Sincerely,
                               Yvonne S. Ferrell, Director.
                               attachment
   Responses by Yyvonne Ferrell to Questions from Senator Kempthorne
    Question 1. What is the estimation of the degree of trail damage in 
Idaho as a result of the storms?
    Response. At the present time, with the above normal snowpack and 
insufficient trail operations and maintenance dollars within Forest 
Service budgets, Idaho's National Forests do not know the degree of 
storm damage to Idaho's trails. Forest Service officials estimate it to 
be extensive.

    Question 2. How will these trails be restored?
    Response. The Forest Service gives any trail damaged by storm 
damage high priority for repair. The trails will be restored from 
existing Forest Service trail maintenance and construction budgets, 
volunteer labor, the Idaho Department of Parks and Recreation Trails 
Ranger Program and OffRoad Motor Vehicle Fund, and the National 
Recreational Trails Fund.

    Question 3. Is the 50/50 match reasonable or should it be modified?
    Response. The 50/50 match needs to be modified. Currently whenever 
a Federal agency such as the USFS or BLM applies for a NRTF project, 
their own funds that they are willing to contribute count as Federal 
funds. Technically, all Federal funds (FHWA, USFS, and BLM) count on 
the Federal side, and the 50 percent match must be completely non-
Federal. That basically means that if the Forest Service has a $10,000 
project, the non-Federal share must be at least $5,000. If this project 
includes $2,000 USFS money, NRTF can only provide $3,000. The USFS and 
BLM should be allowed to contribute their own funds toward the 50 
percent matching share.
     Responses by Yyvonne Ferrell to Questions from Senator Warner
    Question 1. What are all the benefit to a State provided by trails?
    Response:
1. Trails increase recreation and tourism opportunities.
2. Trails provide access for fire protection and suppression.
3. Trails provide alternate travel corridors.
4. Trails allow access to natural areas by people with physical 
    limitations.
5. Trails enhance property values and community attractiveness.
6. Trails enhance access to waterfront areas.
7. Trails preserve wildlife habitat and native flora by keeping 
    travelers on established transportation corridors.
8. Interpretative trails provide historical and environmental education 
    opportunities for young and old alike.

    Question 2. How are trail funds leveraged and who all, or what 
benefits from this?
    Response. An excellent example of a leveraged trails fund was 
demonstrated with the Knapp Creek-Valley Creek trail reconstruction 
project. The project was designed to make: 1) the Knapp Creek portion 
of the Knapp Creek to Valley Creek loop trail accessible to ATV's and 
to 2) develop a new trail head in the Basin Creek drainage. The work 
included rerouting 2.8 miles of trail around wet meadows, replacing 5 
culverts, constructing rolling dips over four miles of trail to control 
erosion, converting 3.2 miles of closed road to an ATV trail, 
reconstructing the Short Creek bridge, and constructing a parking area.
    This project was needed to reduce sedimentation impacts to Basin 
and Knapp Creeks which are anadromous fish streams. The trails are used 
by hikers, horsemen, motorcyclists, ATV's, and mountain bikes. Funding 
for the nonFederal matching funds came from the Idaho Department of 
Parks and Recreation Motorbike Recreation Account, the National 
Wildlife Federation Fund, Trout Unlimited, Backcountry Horsemen, 
American Hiking Society and the Treasure Valley Trail Machine 
Association. In total, these groups contributed $16,412 for a $9,815 
National Recreation Trails Fund grant. Mountain bikers, ATV users and 
people with disabilities benefited the greatest from this project 
because it allowed access into an area that most of these people 
couldn't get to previously:
    I hope this answers your questions sufficiently. I'm sorry that we 
can't provide an answer about the trail damage at this time. We won't 
be able to have an answer to this question until this fall when forest 
service crews, the trail rangers and volunteers have had the time to 
survey the damage.
                               __________
Statement of Michael Kyte, National Center for Advanced Transportation 
              Technology, University of Idaho, Moscow, ID
    It is my great pleasure today to talk to you about the University 
of Idaho's National Center for Advanced Transportation Technology, or 
NCATT. Your decision to hold this hearing in Idaho is important because 
it allows you to learn about three important issues that affect this 
region: the importance of using advanced technologies to solve rural 
transportation problems, the importance of developing regional 
partnerships that include the science and engineering base at our 
universities and our national labs, and the importance of continuing to 
invest in our future transportation engineers to the strengthening of 
the University Transportation Centers Program.
    I would like to make three points to you today. There won't be an 
exam at the end, as is part of my normal business. First, the Congress 
made a key investment in the University of Idaho when it established 
NCATT in 1991 through that year's ISTEA legislation. We have used this 
investment to create a transportation center that brings together the 
skills of faculty and students, from engineering, human factors, 
geography, geology, and agriculture to develop advanced technology 
applications. I will show you some examples of the substantial return 
on this investment in just a few minutes. We are asking that NCATT be 
designated as a center in this year's authorization bill and that our 
particular expertise, advanced transportation technology, be 
recognized.
    Second, we are part of a larger community of transportation centers 
and institutes. The university centers and institutes are producing a 
new generation of engineers that are needed to design, build, operate 
and maintain the transportation system for the 21st century. Each 
center and institute has a unique theme and mission; each continues to 
make an important contribution; and each needs to be supported as a 
part of the University Transportation Centers Program.
    Third, we are also a part of a regional community. We established 
the Idaho Transportation Consortium in 1993 to bring together the 
University of Idaho, the National Engineering and Environmental 
Laboratory, the Idaho Transportation Department, and the Federal 
Highway Administration to combine our talents to solve regional and 
national problems.
    I'd now like to show you a few of the things that we have 
accomplished during the past 5 years as a result of the investment that 
was made in the University of Idaho as a part of ISTEA.
                               __________
Statement of Basil Barna, Idaho National Engineering and Environmental 
                               Laboratory
    I am really here for three simple reasons today. The first reason 
is that transportation is a critical part of our Nation's 
infrastructure. In the deliberations of this subcommittee and all of us 
here involved, it is going to have a far-reaching effect on our 
national security, our economic competitiveness, and our environmental 
future.
    The second reason that I am here is that the national labs since 
the 1940's have been a critical part of our Nation's future in terms of 
determining what are the solutions to ``Grand Challenge'' types of 
problems. A grand challenge type of problem is a problem that is so 
complex and has such far-reaching impacts that we have to mobilize our 
national resources in terms of Federal laboratories and universities to 
work on the public good. And a sustainable transportation system for 
the 21st century is such a grand challenge.
    Finally, I am here today because the Pacific Northwest has the 
ability to mobilize its technical resources in a way and in a 
partnership that can have real national and global impact. With its 
unique mix of rural and urban infrastructures, the technical resources 
of two national laboratories, excellent universities, and world-class 
technology industries, we have the potential to fundamentally change 
how this Nation moves its freight, people, and information.
    The seeds of this greater cooperation throughout this region have 
already been sown through formal and informal collaborations that exist 
right now. Michael Kyte just mentioned the Idaho consortium, which is 
very beneficial to us, a great deal of value. But, the principles of 
that consortium have led to greater cooperation and have been extended 
to other regional universities, such as Montana State, and other State 
transportation departments that include not only Idaho, but Montana, 
Wyoming, North and South Dakota, Utah, Oregon, and Washington. Many 
great informal collaborations going on.
    As great as these collaborations have been and is beneficial, we 
need to do more. In order to get some scale as to why this is such a 
problem, why this is a grand challenge, consider the following. We have 
already heard about the 60 percent fatality figure. Perhaps even more 
significant is in a rural State like Idaho or Montana that fatality 
figure is over 80 percent.
    From another perspective, in a typical year, 1993 is the year I 
have the figures for, the Federal highway user tax distribution to the 
States ranged from $600 per lane-mile to $21,000 per lane-mile. Now, 
rural States generally receive less, urban States receive more. Is that 
fair? This very well may or may not be fair, but without scientific 
tools, without research to clearly trace the effects on society, our 
policymakers have little basis from which seek real national benefit. 
We need better information, better tools. And these facts point to some 
of the fundamental differences between urban and rural transportation 
systems. Our Nation's commerce couldn't survive without a vital network 
of rural highways linking our urban centers and also linking our 
agricultural products to seaports. Public policy has to strike a 
balance between the benefits of a coordinated national system and 
ensuring the local decisionmakers, many of which were here today, have 
the resources to solve the problems that they know best. Now, the right 
kind of research can help assist this process.
    There are also some significant issues from an energy, environment, 
and national security viewpoint. Transportation is an industry that 
consumes 27 percent of our Nation's energy budget. That's a big chunk. 
More than that, our transportation system is 97 percent dependent on 
oil as a fuel for its vehicles. Two-thirds of that oil is imported from 
foreign sources, and this obviously creates a significant cost in terms 
of exposure in national security. It costs a lot of money to maintain a 
carrier in the Persian Gulf. These types of issues demand that we treat 
our Nation's transportation system as a critical resource. To continue 
the efforts begun by the landmark ISTEA legislation in 1991, we must 
ensure that reauthorization includes a serious effort to mobilize our 
Nation's science base to revitalize the whole system.
    INEEL is deeply involved, can and should be part of this solution. 
It is a little-known fact that the INEEL site and its bus fleet is 
serving as a testbed for commercial vehicle safety equipment that will 
be installed at the East Boise Port of Entry later this year. Together 
with our State partners, who have been mentioned before, we are 
deploying advanced technology to keep unsafe trucks off the highway 
there. A similar partnership will also be field testing a composite 
bridge on the INEEL site this year in an effort to show how advanced 
materials can help renew the Nation's aging infrastructure. I can't 
remember how many times I heard ``bridge'' today, but it was many 
times.
    The synergy demonstrated in these new projects compliments long-
standing INEEL role in electric and hybrid vehicle development, 
aviation safety, waste and hazardous material transportation, and 
alternative fuels development. For the future we are convinced that the 
major areas of progress will be in joint research programs that will 
take a systems engineering approach to how we design, build, and 
maintain our nation's transportation system. In one such effort we are 
teamed with Sandia National Laboratory in proposing a new program to 
prove the principle of Simultaneous Vehicle/Infrastructure Design, 
SVID. The first focus of this program will be on extending the lifetime 
of our pavements and bridges through improved materials and vehicle 
designs that minimize their impact on the infrastructure. If properly 
executed, and we will ensure that this is the case, this system's 
approach would vastly improve the way we integrate infrastructure, 
vehicles, and users.
    As a final point, I would like to emphasize that if we are to take 
this grand challenge seriously, we must be bold and innovative in 
forming new partnerships. Reauthorization should support this process 
and provide a basis for building these partnerships. Perhaps more than 
any other industry, transportation is a balancing act between diverse 
and sometimes opposing forces. The national laboratories can serve an 
integral role in helping bring these forces together to work on 
national issues.
                                 ______
                                 
Supplementary Remarks by Basil A. Barna--Idaho National Engineering and 
                        Environmental Laboratory
    In response to two very important questions asked by Senators 
Warner and Kempthorne during the panel session, these supplementary 
remarks are offered to document the INEEL response.
    Senator Warner requested each panel member to identify, in their 
opinion, the most important thing that the reauthorization process 
could accomplish. From the perspective of the INEEL that answer is for 
reauthorization to build regional partnerships between states, Federal 
laboratories, and universities that are focused on a systems 
engineering approach to transportation.
    A system engineering approach is critical if we are to solve the 
problems that arise from mode competition, sustainability, and energy 
and environmental surety. Currently, policymakers are confronted with a 
nearly infinite number of research and policy options, all of which 
solve some part of the problem. Rationale public policy formation must 
have the tools to view the Nation's transportation system as an 
integrated whole.
    In the last century, our Nation's goals in transportation 
development were much more easily discerned. In large part, these goals 
were focused on creating a national rail and road system to support our 
industries and agricultural distribution network. Getting farmers out 
of the mud., was easy to understand.
    The choices for the 21st century are more sublime and deal with 
global competitiveness, congestion, the environment, and energy 
security. This makes it all the more important that the reauthorization 
process take the necessary steps to get us all out of the Technical 
mud. where transportation stakeholders compete for limited resources 
and differing goals.
    If reauthorization could succeed in mobilizing our Nation's science 
base to work with the states, it will have accomplished much. The 
concept of regional partnerships is critical in this effort because 
they can be a powerful tool for making the Federal laboratories, 
universities, and industry accountable for the public good. The 
national laboratories can and should be a bridge for local stakeholders 
to utilize Federal technology and expertise.
    This concept of a systems engineering approach to transportation 
leads to a natural answer to Senator Kempthorne's question on what 
makes rural transportation needs different from urban. It is not enough 
to look at specific technical or funding issues; one must examine the 
characteristics of rural transportation which can then guide the way to 
the development of a comprehensive set of requirements.
    At its most basic level rural transportation is characterized by 
hazards, remoteness, dispersion, and distance. Each of these 
characteristics is unique compared to an urban setting. Hazards range 
from dangerous weather and road conditions associated with geographic 
features to animal-vehicle collisions. Remoteness refers to extended 
emergency response times and lack of communications infrastructure. 
Dispersion results in a limited tax base for maintenance, and the 
characteristic of distance impacts efficiency and the ability to deploy 
resources.
    In spite of the urban-rural differences, our Nation has always 
drawn strength from the interplay between its rural and urban 
qualities. The economies of scale and compression achieved in an urban 
setting would be of little value if they were not complimented by the 
agriculture, industry, and solace of rural America.
    To nurture and maintain this balance, it is necessary for society 
to ensure that certain public systems are available with equivalent 
quality and access to all citizens. Among these systems are health 
care, basic communications, education, and transportation. This is not 
to say that these systems operate in exactly the same fashion in urban 
and rural settings, but it is important that they are designed to 
provide accessibility and equivalency.
    Transportation system needs in a rural environment have 
characteristics that are clearly distinct from urban systems. Perhaps 
the most obvious is the requirement that they span significant 
distances in environments that are usually remote and often 
environmentally sensitive. A second important feature is that it is 
more difficult to provide equity due to dispersed populations and tax 
bases--almost the exact opposite of economy of scale. There are also 
unique needs with respect to public safety. Fatalities per vehicle mile 
of travel in rural areas far exceed those of urban areas, and indicate 
that rural hazards, while more subtle, are more numerous or more deadly 
than urban hazards.
    These characteristics, hazards, remoteness, dispersion, and 
distance define the essence of the needs for the development of a 
healthy rural transportation system and point to a logical systems 
approach for what needs to be done.
    If there were no environmental impacts and resources were unlimited 
the answer might be simple. Equivalent service and access in rural 
transportation could be achieved by free gasoline and the paving, 
realigning, and upgrading all rural highways. While upgrades will 
always be necessary to some extent for growth and maintenance, it is 
not the answer for the future, nor do they address the fundamentally 
different nature of rural transportation.
    Just as intelligence is being added to the Nation's urban 
transportation systems to alleviate congestion and improve efficiency, 
intelligence must be added to the rural transportation system but in a 
different way. Rural travelers and commerce have a different set of 
needs.
    These needs are naturally organized around the four characteristics 
of hazards, remoteness, dispersion, and distance. A research agenda for 
rural transportation can and should be organized around the following:
    Hazards.--Information systems that provide the casual traveler with 
real time road and weather information from disparate locations, in-
vehicle/driver warning systems that incorporate rural hazards, and 
traveler information systems that mitigate the affects of foreign 
environments and sparse information.
    Remoteness.--Distant Emergency management systems, and rural 
communications and information system linkage.
    Dispersion.--System engineering research on equity, access, and 
financing, and formation of common interest groups across traditional 
institutional boundaries.
    Distance.--Efficiency improvements in vehicles and freight systems, 
innovative development of public transportation alternatives for 
dispersed populations, and transportation displacement through 
improvements in the flow of ideas and communications.
                               __________
Statement of Jim Manion President, AAA Idaho, Chairman of Idaho Highway 
                        Users, Inc. Boise, Idaho
    My name is Jim Manion. I am Idaho division president for AAA 
Oregon/Idaho representing 58,000 member motorists in the 34 Idaho 
counties. Our members represent a cross-section of Idaho's citizens, 
young and old, men and women, working and retired, farmers and 
corporate officers. We regularly solicit their opinions on 
transportation issues, and I will share those a little later on.
    I also serve as chairman for the Idaho Highway Users Inc., an 
organization that has for decades supported critical investments to our 
roads and bridges. The Idaho Highway Users record demonstrates strong 
and realistic advocacy regarding the critical role of a strong roads 
and bridges network. The Highway Users group has also demonstrated an 
unwavering tenacity to protect for appropriate use the taxes and fees 
all motorists pay. Part of my written testimony includes the mission 
statement for this organization.
    Both organizations support strong Federal and State roles in 
transportation policy and prudent investment of scare highway use 
resources in those programs that enhance our economic productivity, 
decrease safety risks, and contribute to an enviable quality of life in 
Idaho and throughout this country. Last year, both organizations 
supported increases in our State fuels taxes and vehicle registration 
fees. While not a popular position to represent to our many members, 
both associations felt the decision was warranted and appropriate.
An Overview of the Problem
    Our State's roads and bridges--many built decades ago--are showing 
signs of age. An Idaho Needs Assessment Study last year identified a 
backlog of needed repairs and construction amounting to $4 billion. The 
results, like those from a previous study, were almost mind-numbing. By 
way of contrast, the Idaho Transportation Department's total 
expenditures last year totaled $268 million. That amount includes both 
Federal and State appropriations.
    Our Legislature considered a bill this session that would have 
financed improvements for Idaho's main north-south route, U.S. 95. A 
long-standing coalition of communities, organizations and individuals 
has for years attempted to find a funding source to reconstruct a route 
once referred to by an Idaho Governor and forever characterized in the 
minds of Idaho citizens as, `Idaho's goat trail.' Had the bill passed, 
voters would have been asked to OK a 4-cent gas tax increase and higher 
registration fees to finance the issuance of nearly $400 million in 
bonds to pay for the project. The bill didn't pass, but it did not 
destroy the resolve of its sponsors, because the need is great.
    Lest June, AAA and its affiliated clubs throughout the United 
States, launched a campaign called ``Crisis Ahead: America's Aging 
Highways and Airways.'' Its purpose was to show policymakers and 
opinion leaders that unless urgent steps are taken to better maintain 
and improve our highways and airways, Idaho and the rest of this 
country will face a certain transportation crisis.
    At the core of the problem is an unsettling prognosis that our 
roads and bridges are beginning to crumble. In Idaho, 83 percent of the 
State's major roads are in poor, mediocre or fair condition, according 
to the Federal Highway Administration. Idaho fares better than other 
States in the condition of its bridges. Nevertheless, the FHWA says 376 
of our 4,000 bridges are structurally deficient and 414 are 
functionally obsolete. Those categories represent 20 percent of the 
bridges on the State system. Despite notions to the contrary, the total 
mileage of all roads and streets in the U.S. has grown only 3 percent, 
according to officials from AASHTO. Our real problems are compounded by 
the 79 percent increase in vehicle miles traveled during that same 
period. Some areas of Idaho where populations have risen dramatically, 
are essentially faced with a shrinking infrastructure.
The Consequences
    <bullet>  Without adequate and sustained funding sources, each 
Idaho motorist can expect to pay $225 a year for extra vehicle repairs 
and operating costs. That amounts to a $181 million tab.
    <bullet>  Without adequate and sustained funding sources, we'll see 
more congestion. In its communication to legislators earlier this year, 
the Idaho Transportation Department included a map that shows volume 
and capacity deficiencies. An accompanying graph to their presentation 
showed a trendline that is moving sharply higher. Motorist delays, 
wasted energy and lost productivity are the result.
    <bullet>  Without adequate and sustained funding sources, our 
ability to get where we're going is impeded by safety defects and 
stretches of road now identified by the State as deficient for passing 
opportunities.
    <bullet>  Without adequate and sustained funding sources, we're fed 
there will be more road tragedies. Between 1992 and 1995, 981 people 
died on our State's highways. At the national level, nearly 42,000 
people died in traffic accidents in 1995, up for the third year in a 
row, following a 2-year decline.
    <bullet>  Without adequate and sustained funding sources, real 
deficiencies will take motorists lives. A safety report released just 2 
weeks ago concludes that poor road conditions and designs contributed 
to one-third of all traffic fatalities in the U.S. last year. AAA found 
a similar link in 1994, with estimates that 28 percent of all 
fatalities that year were due to poor road designs.
Funding Issues
    The U.S. Department of Transportation's recent assessment of road 
and bridge conditions indicates that our $20 billion investment per 
year is less than is needed just to maintain current conditions, and a 
staggering $40 billion per year less than is needed to leave a better 
network of highways for the next generation. On the surface that gap 
looks insurmountable, but we believe there are some positive steps that 
could address the difference.
    Idahoans and citizens of every State should be able to count on 
their highway taxes being used for road improvements. The funding 
disparity between what highway users pay and what they receive from the 
Federal Government is that not all of the taxes collected from highway 
users are deposited in the Highway Trust Fund, much less in the highway 
account of the trust fund. Although motorists paid $30.9 billion in 
Federal highway use excise taxes in 1995, the Federal Government 
returned only $18 billion to the States for highway and bridge 
improvements. Part of my testimony shows a State-by-State breakdown of 
the difference between what motorists in each State pay in Federal 
taxes and the amount each State has received this year in total highway 
spending authority.
    In identifying the problems we face in Idaho, I would be remiss 
without saying that the Idaho Transportation Department has performed 
admirably. Faced with limited program dollars and tough challenges to 
downsize, work smarter, privatize and outsource its workloads, the 
Department's efforts have been stellar. A Legislative Interim Study 
group charged the Department with the task of working smarter and 
reducing expenses. The Department has done that. It has shown its 
commitment to the issues of safety, mobility and working smarter to 
accomplish more.
AAA Members on the Issues
    What do AAA Idaho members think about the issues? As I mentioned 
earlier, we often poll our members on issues of interest. For years, 
our members have indicated the willingness to support user based fees 
and taxes when they are appropriately used for roads and bridges. We 
testified to that effect last year when the Legislature considered and 
passed House Bill 825, a funding package that raised the State's gas 
tax and vehicle registration fees.
    <bullet>  In 1995, we released results from a mailed survey which 
indicated that 54 percent of our members would support an increase in 
gasoline taxes to support highway maintenance and improvements.
    <bullet>  85 percent of the respondents to that survey opposed an 
increase in gasoline taxes to support other government services. Our 
members want Idaho's constitutionally protected user funds spent on 
roads and bridges. Interestingly, despite the addition of 4.3 cents to 
the Federal fuels tax in 1993 for Federal deficit reduction, our 
members want to believe there is still trust in the Trust Fund.
    <bullet>  A legislative survey we mailed to members in 1992 and 
released during the 1993 Legislative session revealed that when asked 
how transportation funding should be spent, 62 percent said more should 
be spent on roads and bridges. But our members did not support use of 
Federal Trust Fund Moneys or State Highway Account taxes for public 
transportation.
    <bullet>  In that same survey 74 percent told us that Federal and 
State gas taxes and any possible increases should be used only to fluid 
transportation projects. Just 16 percent of the respondents opined 
these taxes should be used to fluid other needs including budget 
deficits or funding shortfalls.
    <bullet>  Is it reasonable to assume that as congestion increases, 
the State should limit road capacity expansion to discourage driving? 
Sixty-two percent of our members said `no' to that notion in a non-
scientific ``tell us'' poll that appeared in the January 1997 issue of 
the Idaho Motorist member publication. The tough decisions will not 
come from hiding our heads in the sand, but from our ability to plan 
now for corridor management and preservation of critical rights of way. 
Our inability to plan and pay now will reap huge incremental costs in 
the fixture.
    <bullet>  Our members are concerned about variety of safety issues. 
Nearly nine out of ten (89 percent) of the respondents in the 1997 
survey said they would oppose a measure increasing allowable commercial 
truck weights on Idaho roads. Our association opposed HB 181 during the 
1997 Idaho Legislative session which would have increased Idaho's 
maximum allowable truck weights from 105,500 pounds to 129,000 pounds.
    <bullet>  What are the biggest safety concerns for Idaho motorists? 
Based on the 1997 survey results, the top five safety concerns are: 
drunk drivers, 35 percent; speeders, 21 percent; large trucks, 14 
percent; aggressive drivers, 10 percent; road conditions, 9 percent.
Federal Funding Recommendations
    These are AAA and Idaho Highway Users recommendations:
    <bullet>  We support Senator Warner's proposal to increase highway 
spending to $26 million. Lest year motorists paid 18.3 cents Federal 
tax for every gallon of gasoline they purchased; Those who use diesel 
paid 24.2 cents a gallon. Together, and with other assorted user fees, 
we paid $31.5 billion. Did all these highway user fees go to roads? No. 
In fact, nearly one-third went elsewhere. $6.5 billion went to General 
Fund, for non-highway programs. About $2.6 billion went to the Mass 
Transit Account.
    <bullet>  Deposit the 4.3 cents per gallon fuel tax in the Highway 
Trust Fund and increase highway funding to invest the additional 
revenues in road and bridge improvements.
    <bullet>  Resist the notion that ISTEA enhancement moneys provide a 
``one-size-fits-all'' solution to transportation problems. Flexible 
funding was designed to give locals the opportunity to make better 
decisions, but the restrictions on enhancement moneys and CMAQ funding 
have had the opposite effect. By writing specific instructions for 
enhancement funds, locals are unable to make the wisest possible use of 
those funds.
    <bullet>  We oppose the administration's transportation vision, one 
that would divert more than $4 billion from the Federal highway trust 
fund to heavily subsidize an ailing Amtrak. We oppose using dedicated 
user fees to put welfare recipients to work. We adamantly oppose tolls 
on roads already paid for by highway users.
    <bullet>  We support Federal legislation that would take Federal 
trust funds off budget. AAA members and highway users pay billions in 
gasoline taxes to maintain the improve highways, but in a typical year, 
less than two-thirds of their taxes are actually spent on those 
improvements. Truth in budgeting is essential.
    <bullet>  Target highway expenditures to the NHS which interlinks 
and serves motoring, tourism and business interests.
    We understand the dilemmas Congress will face before September 30. 
The funding pie certainly looks smaller because so many special 
interest groups are now at the table. A country nervously looking to a 
multi-year Federal-aid reauthorization program knows it will live with 
those decisions into the next century. Challenges to the donor/donee 
formula are formidable, but we urge you to remember that the 
alternatives to many rural western States like Idaho could be 
devastating. A huge, wide open geographic State with a smaller 
population base places Idaho at considerable risk to some of the 
proposed alternatives. What we must avoid is a plan that would divide 
the country into a patchwork of disconnected roads and bridges. Our 
citizens, the tourism industry, and the many users of our roads and 
bridges require the best system possible.
    In summary, both AAA Idaho and the Idaho Highway Users, Inc. point 
to three priorities in the your consideration of ISTEA reauthorization: 
1) Provide adequate funding for highway and bridge maintenance; 2) 
Increase investments in highway safety; and 3) Continue a strong, 
responsible, yet flexible Federal role.
    We appreciate the opportunity to share our positions on the issues 
surrounding reauthorization of the Federal-aid program. Thank you.
                               __________
Statement of Carl Schweitzer, Director of Governmental Affairs, Montana 
                        Contractors Association
    Thank you, Mr. Chairman. Senator Warner, Senator Kempthorne, and 
Senator Baucus, it is a pleasure to be here today. I am Carl 
Schweitzer, Director of Governmental Affairs for the Montana 
Contractors Association. The Montana Contractors Association is a 
highway, general building, municipal/utility and concrete producers 
group that represents over 100 of Montana's largest construction 
companies. A large majority of our folks are in the highway 
construction business.
    I am here today to state very clearly my membership support for 
STARS 2000 which Senator Baucus and Senator Kempthorne and others are 
about to introduce. First, we have roads that need to be fixed, and 
STARS 2000 goes a long way toward addressing Montana's and the Nation's 
road needs. The bill starts to address funding crisis facing our 
highways and bridges. In Montana we have had an especially hard winter, 
and our highway system is showing the results of this hard winter. 
Extreme cold temperatures and above average snowfall are contributing 
to the breakup of our highway system. And it was kind of interesting 
coming over yesterday on I-90. The pictures that you have up there is 
exactly what I-90 looks like coming over the pass, only they have it a 
little bit wider. The snow is well above the level of the cars. It is 
almost like you are driving through a tunnel. So we can expect some 
real flooding problems coming up.
    If you have traveled recently on I-90 as I did, you will find that 
in the Missoula area there are some potholes there that can almost eat 
your car. In fact, as I came over yesterday, part of I-90 is actually 
closed off. The passing lane has been shut down because of the weather 
problems, potholes and moisture coming up through the system.
    STARS 2000 addresses the highway maintenance problems by directing 
a much larger proportion of the highway user dollars to the highways, 
where they belong. During the Congressional debates I hope that you can 
keep your colleagues focused on one primary fact. Highway users want 
the highway taxes put back into the highways. STARS 2000 is founded on 
this premise, and I hope you can keep that fact in the forefront during 
the upcoming debate.
    In Montana we have a $0.27 per gallon fuel tax and one of the 
highest in the Nation. The citizens of Montana realize how essential 
our highways are and are willing via the fuel tax to pay for the cost 
of highway construction and maintenance. And given the fact that we 
heard on an average per citizen we pay $360 compared to a national 
average of $220, maybe in some ways we really are a donor State, 
because we are willing to pay for our highway systems in Montana and 
Idaho, and I think all of the western States are, because I think we 
realize the importance. The citizens redirect a substantially large 
portion of the Federal fuel tax dollars to highway construction and 
maintenance.
    The second reason we are excited about STARS 2000 is the economic 
impact the bill will have in Montana. From my association's standpoint, 
highway job opportunities are significant, highway construction jobs 
that impact every Montana community. And each community wins about four 
times when there is a construction activity. First, it receives an 
improved and safer road. Second, local citizens are employed. Third, 
construction workers spend dollars in the local economy. And fourth, 
the community has an infrastructure asset that makes it more attractive 
to tourism, industry looking to locate and most importantly, businesses 
that want to remain in that community. It's a win, win, win, win, 
situation. And STARS 2000 is a winning solution for the Montana 
construction economy.
    One thing that is kind of not in my prepared text but after 
listening to the educators up here of a concern to us in the 
construction industry is that we hope that whatever STARS 2000 or STEP 
21, that comes out, a real concern to us is a trained work force. A lot 
of investment is made into yellow or whatever color equipment, and it 
is becoming much more sophisticated. And the need for a trained work 
force continues. So, however STARS 2000 or whatever vehicle is finally 
achieved, we hope that you will look at educating or providing funds 
for an educated work force.
    Senators, the Nation is a winner with STARS 2000, and I ask that 
you introduce the bill immediately and work diligently to get it 
through Congress. The Montana Contractors Association and the citizens 
of Montana will work with you to see that STARS 2000 becomes the 
highway funding formula for the Nation.
    Thank you both for listening, and Senator Warner for coming.
                               __________
Statement of David Doeringsfeld, Director, Port of Lewiston, Lewiston, 
                                   ID
    Senator Kempthorne, on behalf of the Port of Lewiston, we would 
like to thank you for holding these hearings in Idaho and providing a 
western perspective on the reauthorization of ISTEA.
    As the manager of Idaho's only seaport and the furthest inland port 
on the West Coast, I have been asked to address you concerning the 
intermodal aspects of ISTEA. In a global market, the United States must 
be competitive in two areas, a well-educated work force and an 
efficient transportation system. As education concentrates on the three 
Rs, a port focuses on the four Rs of transportation, river, rail, 
roads, and runways. We would like to suggest changes to the existing 
act to improve its effectiveness in each of the four Rs for an 
intermodal port facility.
    First the river. A series of eight dams and locks on the Columbia 
and Snake River system provide a 465 mile water highway from Idaho to 
world markets. The beauty of this waterway is that it moves vast 
amounts of cargo but does not require overlays or potholes to be 
filled. Barge shipments of grain can be moved for one-half the cost of 
rail or one-fifth the cost of trucking. However, ISTEA is silent or 
ambiguous concerning the utilization of funds for port-related 
projects.
    Recently, a port in Washington used $400,000 in ISTEA funds to 
complete a much-needed barge dock expansion project. The Port of 
Lewiston is also in need of a similar project. However, in Idaho we 
cannot even apply to the Idaho Department of Transportation for ISTEA 
funds for port-related projects. It is simply interpreted differently.
    Last year the volume of barge and rail cargo leaving the Port of 
Lewiston took 57,000 trucks off the National Highway System. We believe 
that ISTEA should provide the flexibility for States to provide funding 
for port intermodal projects which reduce congestion or maintenance 
costs to our highways.
    Rural States such as Idaho have seen the abandonment of hundreds of 
miles of rail lines in the closure of short line railroads. In specific 
cases where the public would be better served by maintaining a rail 
line versus the increased construction or maintenance costs associated 
with additional highway traffic, a program providing low interest loans 
to private railroad companies for repair of a line would offer a better 
solution than abandonment of the rail line.
    Similarly, the ability to provide ISTEA funds to ports for rail 
improvements is a gray area and is implemented differently than State 
transportation departments across the United States. The Port of 
Lewiston has seen a 2800 percent increase in container by rail service 
in the last 5 years. For a small port it is difficult, if not 
impossible, to upgrade our rail facilities to accommodate this demand. 
$200,000 in ISTEA funds would improve the port's rail to meet current 
demand. But, in Idaho ISTEA is not interpreted to allow for funds to be 
used for rail improvement projects. $200,000 would not construct one 
quarter mile of highway, but it would improve the port's rail to allow 
efficient movement of freight through the Port of Lewiston.
    When considering roads for the Port of Lewiston, it all comes down 
to one road, U.S. Highway 95. Highway 95, or more affectionately 
referred to as Idaho's goat trail, is the biggest obstacle facing the 
port and the State for efficient movement of people and commerce. Two 
other members of this panel will address the importance of this highway 
as the only land connection between north and south Idaho. I cannot 
think of another State in the country which relies on a single highway, 
no rail, no waterway, as its only north-south connector. We implore you 
to explore possible avenues in ISTEA to provide funding for 
improvements to Highway 95.
    The last area I will discuss is runways. ISTEA provides for 
improving connectivity of airports to the National Highway System. 
Arterials can be improved to enhance traffic flow to airports. However, 
in Idaho only one airport, Boise, qualifies. Airports must have a base 
traffic utilization before they qualify for this type of ISTEA funding. 
In principle this works in urban States, but in airports and rural 
areas who do not qualify under air traffic requirements, still have 
ground problems in just getting people and freight to their airports. I 
would suggest that for rural areas the standard set for air utilization 
be lowered or dropped altogether and give States' transportation 
departments the flexibility to decide how to best connect the highway 
system to our airports.
    In summary, connectivity is paramount to the success of port 
facilities. The four modes of the transportation which I have 
discussed, the river, the rail, roads, and runways form a stool to 
support our Nation's transportation needs. The efficiency of our 
seaports, both inland and coastal, provide the gateway to U.S. exports 
and improvement of our balance of trade.
                               __________
          Statement of Ron McMurray, U.S. Highway 95 Coalition
    Thank you, very much, Senator. It is really nice to have you here 
back home in Idaho, and we want to thank you very much for giving us 
the opportunity to have this hearing in Idaho as we get a chance to 
hear this western perspective. Thank you.
    I'm also a member on the board of directors on the Idaho 
Transportation Coalition, and we are actively involved with a 
consortium of people who work and live and are very concerned about 
Highway 95, so I want to direct my remarks specifically to Highway 95.
    As you know, U. S. Highway 95 runs from the Mexican border to the 
Canadian border, and it enters Idaho in the southern part at the Oregon 
border, 538 miles it goes north through by the Port of Lewiston and 
exits at the Canadian border. It almost runs the entire length of 
Idaho, and is the only, and I mean the only, ground transportation link 
between north and south.
    But not only that, it is also a main street for a number of our 
towns, especially in North Idaho. And so because of that, because 
Canada is our largest trade partner, because it connects our only 
seaport, the Port of Lewiston, and also connects our capital in Boise, 
you can see this highway is more than just asphalt to us. It is life 
itself to us here in Idaho.
    We are a large State in land mass, but a small State in population. 
Over 85 percent of Idaho's land is in the public domain. Our small 
population has fought hard to support an infrastructure which is vastly 
out of proportion to the acres of privately owned land in this economy. 
With Idaho's dedicated funds and with the $90 million from the last 
ISTEA authorization for U.S. Highway 95, it just becomes a battle that 
we are losing.
    A March 1996 study by the State of Idaho Department of 
Transportation indicates that it would take over $335 million just to 
bring this one highway up to a 34-foot minimum standard. Now, this, 
mind you, is not a four-lane highway. What we are talking about are two 
lanes that has safe curves and bridges, and it has proper passing 
lanes. The sum of $335 million is almost 25 percent of the total budget 
for the State of Idaho.
    Being our only north-south highway usage continues to grow, and one 
of the biggest factors attributed to that growth has been the passing 
of the NAFTA agreement by the Federal Government. Eastport's custom 
station located on the Canadian border is experiencing a traffic growth 
of 1 percent per month. Today one semi-truck clears the border every 7 
minutes, where just a few years ago it was one every hour. Idaho's non-
agricultural exports to Canada have more than doubled in 2 years to 
over $245 million in 1995, creating more pressure on Idaho's only 
north-south highway.
    Idaho's seaport, the Port of Lewiston, located 465 river miles from 
the Pacific Ocean, is on Highway 95, and it has been discovered. You 
can move a barge load of product from the Port of Lewiston, Lewiston, 
Idaho, to Tokyo, Japan, for less cost than you can move that same 
product from Lewiston to Chicago. The Port of Lewiston has seen a 150 
percent increase in volume moved through that port over the past 5 
years. That's over a 20 percent increase each year. Presently there are 
1185 trucks going in and out of Lewiston, Idaho, each and every day of 
the year. That's over 430,000 trucks a year.
    Now, we welcome the commerce. We welcome the challenge that comes 
with change and growth, but we just can't do it alone. We need your 
help. If we can't do something soon, we will lose this commerce due to 
failed infrastructure or worse yet, we will lose precious lives.
    The conditions of U.S. Highway 95 and increased traffic created a 
safety issue. Over the last five reportable years fatalities on U. S. 
Highway 95 accounted for 10 percent of the total fatalities of the 
State while U.S. Highway 95 represents only 1 percent of the total road 
miles in the State of Idaho.
    Some insurance companies are recommending that their commercially 
insured not use Highway 95. Some commercial carriers actually entirely 
discontinued all operations on all or part of U.S. Highway 95. U.S. 
Highway 95 may be just part of this vast National Highway System, but 
here in Idaho it is our lifeline and it is our future. We need your 
help, and we need it now.
                               __________
         Statement of Kimberly Rice Brown, Coeur d'Alene, Idaho
    As a taxpayer and a citizen, communicating to elected officials is 
both a right and an opportunity. Thank you for providing that 
opportunity today.
    As a volunteer, I am involved with community and historic 
preservation projects both with the Kootenai County Historic 
Preservation Commission and the Post Falls Historical Society. Historic 
presentation and sharing our heritage requires continual local and 
public funding support. Building partnerships with the transportation 
community improves the opportunities for sharing transportation 
history. I strongly encourage you to continue the 10 percent set aside 
for enhancements such as historic preservation.
    Some travelers will be whizzing down I-90 at 70 miles an hour and 
will appreciate the condition of the roadway. Others will be pulling 
off to enjoy a scenic overlook. Some may stop at a rest stop, or a 
visitor center. Others will be taking in to a local museum, and some 
will be enjoying the multiple-use Centennial Trail. It would be my hope 
that local history and transportation history would be part of their 
visit to North Idaho.
    ISTEA funding can be used to expand transportation history, which 
may include pioneer roads and roadway, railroad and electric train 
lines. Funding can expand kiosks, interpretive signs or restoration of 
former depots or buildings. Clearly, sharing our history gives all 
Americans a greater appreciation of our common heritage.
    Citizens and travelers, both foreign and domestic, can appreciate 
more of the American pie, if a comprehensive package is planned, 
developed and shared throughout the country. The ISTEA program provides 
that opportunity. One excellent example involves several projects 
associated with the Oregon Trail, enjoyed by all Idahoans and others. 
In North Idaho, the Centennial Trail has utilized old transportation 
routes into recreation routes with portions having excellent signage 
and facilities.
    With ISTEA funding available, a greater cross-section of our 
community can be involved in a comprehensive transportation plan. 
Historic preservation can be an important partner. ISTEA funding 
provides enhancements for all Americans to enjoy and for the millions 
that travel through our area every year, we should be sharing our 
history and heritage with them.
    I hope that the ISTEA program is reauthorized by Congress. Thank 
you for your time and efforts on this issue!
                               __________
Statement of Stephen Albert, Director Western Transportation Institute, 
                        Montana State University
Introduction
    Thank for the opportunity to talk about our national rural 
transportation challenges. I would also like to take a moment to share 
how the Western Transportation Institute, at Montana State University-
Bozeman is meeting those challenges. And finally I would like to 
mention the ISTEA Reauthorization improvements that WTI supports.
    Rural Challenges Under the Intermodal Surface Transportation 
Efficiency Act of 1991, otherwise known as ISTEA, the U.S. DOT 
allocated over $660 million for Intelligent Transportation Systems 
(ITS) research, development and deployment. Less than 1 percent of 
these funds were made available for rural ITS and that is clearly not 
adequate.
    Rural America is currently challenged for a variety of reasons 
including the following:
    1. Safety as rural America has 80 percent of our nation's road 
miles but 58 percent of the traffic related fatalities. Furthermore 
there is a 2:1 greater emergency response time when compared to the 
urban setting. Also 78 percent of rural travelers are tourists who are 
unfamiliar with the roads and travel 150+ miles per trip. The rural 
setting also has more dramatic weather and terrain changes;
    2. Efficiency as commercial vehicles move the majority of goods and 
services and the majority of these miles are through vast rural 
settings;
    3. Economic productivity as tourism areas are dependent on visitor 
experiences, information and access;
    4. Mobility and convenience since 66 percent of communities have 
little or no transit even though they have older more transit dependent 
populations;
    5. Sustainability and funding as rural communities have limited 
resources, and more natural disasters; and
    6. ``Greying of America'' as our nations' population is getting 
older, driving capabilities diminish and they need better travel 
information to feel safe and secure.
    While our rural communities are not the economic engines of the 
United States as their urban counterparts, they provide the 
connectivity to move people, goods and services between urban centers; 
therefore these parts of the highway systems in rural areas must 
continue to be maintained and improved. As such the issues and 
applications of ITS are not congestion mitigation like in the urban 
setting but safety, efficiency, economic factors, and information for 
travelers, fleets, and infrastructure.
    The American West offers a unique opportunity for research, 
demonstration, and deployment of Advanced Rural Transportation Systems 
that can not be surpassed in the United States. Unlike other areas of 
the United States that have emphasized ``congestion relief'', ITS 
applications for the Rocky Mountain Region and the Pacific Northwest 
are predominately rural (outside of a handful of urban centers) and 
thus face different issues and objectives.
    WTI: A National Rural ITS Institute. The Westem Transportation 
Institute (WTI) is based on the Montana State University-Bozeman 
campus. It was established in 1994 by the Montana and California 
Departments of Transportation in cooperation with MSU-Bozeman as a 
national and international center for rural ITS transportation research 
and education. Since the inception of WTI, we have accomplished much in 
raising the awareness of rural challenges including the following 
activities:
    Providing stakeholder outreach to 15 rural states with 5 more 
planned, Developing rural ITS strategic plans in California and 
Montana; Providing leadership for rural ITS research through ITSA Rural 
Committee; Providing ISTEA Testimonial to Secretary Pena; Providing 
guidance and serving on US DOT Rural Action Tearn to develop an ITS 
Strategic Plan; Evaluating rural Automated Highway System applications 
(on-going), Evaluating Commercial Vehicle Operations and Automated 
Border Crossing (on-going); Defining a National Rural ITS Toolbox (on-
going); Providing over 25 presentations/publications on rural issues 
and applications; and Hosting the 1997 International/National Rural ITS 
conference in Montana.
    The Western Transportation Institute has been at the forefront of 
Advanced Rural Transportation System issues and would like to make the 
following ISTEA reauthorization recommendations in order to meet rural 
needs:
    Provide funding that will allow for the development and formation 
of a ``rural'' constituency;
    <bullet>  Provide for Early Deployment Planning funds for rural 
settings, not just urban;
    <bullet>  Research realistic ITS benefits based on deployment 
experience, not theory; Provide for prioritized deployment based on 
needs; and . Reduce local match funding requirements.
    In the last few years, WTI has recognized that one critical element 
is missing in rural ITS planning and deployment. The missing element is 
the designation of a rural corridor that would serve as a ``national 
and international'' testbed.
    Of the four National Priority ITS Corridors designated by the U.S. 
Department of Transportation, not one included two-lane rural highways. 
States with large urban transportation centers have made significant 
progress in establishing and deploying ITS programs. Most rural states 
have not felt the expediency to develop ITS programs. Idaho, Montana, 
and Wyoming, however, do realize that ITS has applications to their 
transportation problems, and have initiated action to explore ITS in a 
rural setting. With the assistance of Senator Baucus and Senator Burns, 
a limited testbed for rural ITS applications has been created and is 
called the Greater Yellowstone Rural ITS Priority Corridor. It is the 
first two-lane, rural ITS corridor project. The project has taken the 
initial steps to make rural travel more safe, dependable and 
convenient. What is needed now is full-scale deployment and evaluation.
Summary
    In seminary, when you compare urban verses rural issues, the rural 
environment has fewer congestion and mobility issues but a greater 
number of fatalities, more road miles, longer trip lengths, dramatic 
weather changes, more aged population, and a greater need for economic 
viability. Unfortunately, these issues have not received adequate 
attention or appropriate funding. There are 64 persons killed every day 
on rural roads. With additional finding Intelligent Transportation 
Systems can undoubtedly help reduce this number.
    I would also like to emphasize that WTI has been working with 
regional partners on a long term ``vision'' for the Greater Yellowstone 
Region and Yellowstone National Park--raising awareness of these 
critical issues. Documentation of potential ISTEA Reauthorization 
language and project progress is available today.
    I am also aware that Senators Baucus, Kempthorne and Thomas intend 
to introduce the STARS 2000 Reauthorization proposal in the near 
future. This bill will provide greater overall funding for 
transportation and an increase in Finding available for states that 
wish to focus on rural areas.
                               __________
                                             David C. Cook,
                                Lewiston, ID 83501, March 17, 1997.

    Mr. John W. Warner, Chairman,
    Subcommittee on Transportation and Infrastructure,
    Committee on Environment and Public Works.

    Dear Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to address you with my testimony on the reauthorization of 
the Intermodal Surface Transportation Act of 1991 (ISTEA).
    I am a regional vice president for Swift Transportation. I manage 
the day to day affairs of Swift Transportations Lewiston, Idaho 
facility. Currently there are 170 trucks based in Lewiston, Idaho, that 
I am directly responsible for. I am accountable for the safety and well 
being of 240 drivers. I am involved daily with the dispatch of 80 
trucks in Lewistons coverage area. I know what is going on with the day 
to day operations of this company.
    Swift Transportation Company, Inc. is a truckload carrier 
headquartered in Phoenix, Arizona. Swift is the fourth largest publicly 
held, national truckload carrier in the country with regional 
operations throughout the continental United States. Swift 
Transportation presently operates approximately 5,000 power units and 
13,000 trailers. Swift is traded on Nasdaq.
    Since January 1, 1995 I have been the chairman for the Greater 
Lewiston Area Transportation Committee (GLATC). It is a committee that 
utilizes its members to study the transportation issues and problems, 
make recommendations to the governing bodies affecting decisions 
concerning transportation policies and plan for transportation 
facilities in and about the Greater Lewiston Area.
    I only give you this information to lend credibility to my 
testimony.
    U.S. 95 in Idaho is a prime example of a deteriorating, unsafe, 
hazardous highway, more specifically it has been dubbed ``Idahos goat 
trail'' and yet it is the only north/south highway within Idahos 
borders that connect Idahos panhandle with its southern counterparts. 
It is a vital link for commerce between the two ends of Idaho.
    The Idaho communities that are serviced by U.S. highway 95 between 
I-90 and I-84 loose economically when safety concerns outweigh shorter 
mileages. 3Many people that travel between north and south Idaho use 
the Washington and Oregon highways in its place.
    I do not advocate a four lane superhighway between north and south 
Idaho. My family enjoys the recreational opportunities that Idaho 
offers us.
    Wide two lane highways with passing lanes are perfectly acceptable. 
They are safest when they are constructed with median barriers to 
replace the double yellow lines. This keeps traffic from crossing over 
to the wrong side of the highway, thus minimizing risk of head on.
    Swift Transportation does not allow its company drivers on U.S. 
highway 95 between I-84 and U.S. 12 except for local delivery, or to go 
home.
    Swift Transportations decision was based on our accident frequency.
    In the State of Idaho from June 1, 1993 to May 31, 1994 Swift 
Transportation had eight U.S. Department of Transportation (D.O.T.) 
reportable accidents. A Reportable accident is defined as; A) Fatality, 
B) Bodily injury to a person who as a result of the injury, immediately 
received medical attention treatment away fro the scene of the 
accident, or, C) one or more motor vehicles incurring disabling damage 
as a result of the accident, requiring the vehicle to be transported 
away from the scene by a tow truck or other vehicle.
    From June 1, 1994 to May 31, 1995 Swift had 13 D.O.T. reportable 
accidents in the State of Idaho. Swifts nationwide accident frequency 
ratio was .81 per million miles. In the State of Idaho it was .95 per 
million miles. Based on this data it was clear that our companies 
accident frequency ratio was higher in the State of Idaho then that of 
our national average.
    One of these non-preventable accidents costs the lives of two young 
people who collided with our truck head on. The driver of the Swift 
truck is still suffering psychologically and is undergoing therapy 
because of the lives that were unnecessarily taken.
    Not allowing our trucks to travel on U.S. Highway 95 between 
Interstate I-84 and U.S. Highway 12 was a good solid decision. For the 
1995-1996 fiscal year Swift Transportation was awarded Idaho's first-
place carrier for traveling 3,000,000 miles without a D.O.T. reportable 
accident.
    The downside to our decision not to travel on U.S. highway 95 is 
the additional miles traveled by our trucks at no additional revenue, 
the additional time the drivers must work to reach destination and the 
loss of revenue to the State of Idaho. The loss of revenue to the State 
of Idaho exceeds $300,000.00 each year.
    For every $1 that 5 Idahoans pay in Federal fuel taxes, we receive 
$1.73 back for highway funding. ISTEA funding has helped reduce the 
backlog of Idaho roads in the ``poor'' category from 40 percent to 26 
percent.
    The trucking industry contributes over $10 billion each year to the 
Federal highway truck fund. About 43 percent of the total receipts. We 
expect a return on our investment. We pay user fees into the truck fund 
and feel those funds need to be invested in a manner that makes our 
highways both safer and more efficient.
    Swift Transportation uses the latest technology available to make 
our trucks more efficient, more productive, and more driver friendly 
which in turn reduces our costs. We have satellite communication 
technology in each truck. Our trucks specifications give them optimum 
fuel efficiency at highway speeds. Our company speed limit of 57 mph 
reduces potential accident and hazard reaction time. The cab interiors 
are designed and equipped with optimum driver comforts. All this is 
designed to move Americas goods safely, on time, damage free and at the 
highest revenue per mile that our services will allow.
    Inefficiencies in our highways cause us to reroute our trucks in 
the interest of safety. The lack of funding to repair, maintain and 
upgrade our highways diminishes the effects of the cost saving measures 
that we implemented.
    tin the last 10 years, miles driven by trucks have gone up 41 
percent, but truck involved fatalities have gone down 37 percent.
    Our drivers consistently express their concern with us about our 
rapidly deteriorating highways and are becoming alarmed. Some bridge 
decks are broken up to the point where the rebar is showing through the 
concrete decks. It is not real heart warming when my reply to there 
concerns is there is more than $300 billion in backlog in the funding 
needed to repair the nations highways and bridges, so please be extra 
cautious.
    The future of Americas economy relies on it's economic growth. This 
growth will in turn increase demands for goods to move on our nations 
highways thus increasing the already tremendous pressures on our 
highways and bridges. All the revenues collected for our highways need 
to be spent on our highways infrastructure.
    This committees efforts to increase the annual spending to $26 
billion sends a loud clear message that this country must make the 
investment to meet the critical needs of our nations highways.
    The trucking industry as a whole is doing their part. We need this 
committee and the 105th Congress to help us do our jobs better and more 
efficient by investing in Americas future, our highways.
    I am grateful to this committee for the leadership it has given in 
this most important area of endeavor. Idaho needs the ISTEA funds, 
America needs ISTEA to be well funded.
    Thank you.
            Sincerely,
                                             David C. Cook.
                               __________
                            Idaho State Historical Society,
                                         Boise, ID, March 21, 1997.

    Sen. Dirk Kempthorne,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator: This letter is to express the strong support of the 
Idaho State Historical Society for reauthorization of the Intermodal 
Surface Transportation Efficiency Act and its enhancement provisions 
for historic preservation projects.
    In the past few years, several historic sites in Idaho have 
benefited from this program. Most notable is the previously vacant Mesa 
Falls Inn in Fremont County, which is currently undergoing a major 
rehabilitation to allow public access and usage. The building's history 
is an excellent example of early private investment, in cooperation 
with the Forest Service, to provide needed lodging for travelers headed 
for Yellowstone Park in the early years of this century. The current 
project reflects a broad based cooperation involving the Forest 
Service. Idaho Department of Parks and Recreation and the Idaho State 
Historical Society all working together in an effort to make the 
facility available to benefit recreational travelers once again.
    Another important use of ISTEA funds was purchase of land for a 
rest area interpretive center on the Oregon Trail near Boise and for 
yet another project, which received strong local support, to construct 
Oregon Trail interpretive kiosks at Montpelier. Another project was 
conversion of an abandoned railroad line in Blaine County into a 
pedestrian and equestrian system for the Wood River Valley. That 
development includes the preservation of a pair of rail bridges that 
feature a very unique design and, thus, represent two of less than a 
dozen such structures known to still exist in the United States.
    In all these and other proposed projects, local Idaho communities 
not only greatly benefit from the preservation and enhancement of sites 
important to their local history, but also in the creation of jobs and 
associated economic development. The Society urges you to support this 
legislation for the continued benefit of Idaho's heritage and to ensure 
the enhancement and preservation of the State's rich collection of 
historic resources.
            Sincerely,
                                   Steve Guerber, Director.
                               __________
  Statement of the Local Highway Technical Assistance Council, Boise, 
                                 Idaho
    The Local Highway Technical Assistance Council (LHTAC) is 
supportive of the reauthorization of the Intermodal Surface 
Transportation Efficiency Act (ISTEA). We believe there are certain 
areas that need improvement and other areas that need expanding. We 
believe the program allows for improved flexible funding of the nations 
transportation infrastructure and that there has been an improvement in 
the participation by the Local Highway Jurisdictions in prioritization 
of projects and overall planning on the statewide system.
    With the flexibility inherent in the existing ISTEA, LHTAC believes 
that a greater percentage of funds should be earmarked for roadway, 
bridge and railroad crossing improvements, and a reduction in the 
expenditures for Congestion Mitigation/Air Quality and Enhancement type 
projects. For example, the Idaho Transportation Department presently 
expends $4.3 million per year on Enhancement projects, and $2.4 million 
per year on CMAQ projects, yet funds the Local Bridge System at only 
$1.3 million per year. The need for local bridge replacement and 
rehabilitation projects far exceeds the funding available for that 
program. Even State Planning and Research, funded at $2 2 million pet 
year, exceeds the available funding for bridge replacement projects.
    LHTAC supports the ability to use the Surface Transportation 
Formula Funds on both the rural and urban roadway systems. We believe 
more local input should be utilized in the prioritization of 
expenditures of these funds, and the funds should remain for 
expenditures on the local roadway system.
    LHTAC also believes that the Highway Trust Fund should be taken 
``off budget'' to protect it from being used for reducing the Federal 
deficit. Funds collected from the sale of fuels used by vehicles 
traveling our roadway system should be used for maintaining and 
operating that roadway system and not sequestered for political 
purposes.
    Transportation planning on a regional and statewide basis is a 
continuous objective for LHTAC. Transportation planning which takes 
into consideration all modes of travel is an important aspect to 
protect the integrity of the roadway system, as Nell providing 
alternative transportation systems to those not desiring the use of 
automobiles. However, since the Highway Trust Fund is supported by user 
fees from trucks and automobiles, the major emphasis of any future 
legislation should be to protect the highway infrastructure within our 
nation and state.
    LHTAC supports giving the Local Highway Jurisdictions the ability 
to set their own priorities in transportation investment and giving the 
Local Highway Jurisdictions greater voice and flexibility in 
influencing transportation plans that satisfy locals needs and 
objectives. Federal policy must continue to recognize, reinforce and 
require that local officials play a preeminent role in local and 
regional transportation planning.
    LHTAC is opposed to funding demonstration projects as included in 
the existing ISTEA Program Further, LHTAC is opposed to the ``Hold 
Harmless'' clause in the present ISTEA as it relates to the use of 
Public Land Funds. Those funds are to be expended on projects that 
benefit the Nation as a whole. The Idaho Transportation Department 
program should not be penalized for making those improvements.
    Finally, LHTAC believes that the reauthorization of ISTEA should be 
streamlined to improve the delivery of funds from ISTEA programs by the 
Federal Government to the States. While ISTEA gave some flexibility in 
the use of the funds from the Highway Trust Program, it did not 
simplify the system of design review, project approval and regulations 
that State and local governments, MPOs, and citizens have to go through 
to get projects going. ISTPA reauthorization should move the Federal 
Government away from its traditional role of reviewing projects and 
setting design standards to a policy of oversight role without 
sacrificing environmental safeguards. ISTEA reauthorization should 
facilitate efforts by State and rural local governments, organized 
similar to MPOs, to craft spending programs that meet local needs and 
respond to national performance goals.
                               __________
                                         Kenneth McFarling,
                  Portland. OR 97202-6213, Tuesday, March 25, 1997.

    Committee on the Environment and Public Works,
    U.S. Senate,
    Washington, DC 20510.

    The Intermodal Surface Transportation Efficiency Act should be 
renewed, and should be broadened to include railway passenger and 
freight service, both within cities and nationwide (not merely the 
NorthEast Corridor).
    The Portland office of U.S. Representative Earl Blumenauer brought 
to our attention last Saturday's hearing on ISTEA renewal. Remarkable 
is the choice of Coeur d'Alene, Idaho, as the site for the only hearing 
scheduled in the Northwestern United States.
    Coeur d'Alene, as well you know, is remote from the heavily 
populated zone of the Northwest. Choice of that location, and of 
commercial entities represented on the agenda, demonstrate dominant 
concern not to be ``Transportation Efficiency'', but instead, 
exacerbation of squandering funds on subsidies (indirect or otherwise) 
to the wealthy exploiters of roadbuilding programs. Those exploiters of 
course contribute generously to political campaigns by which certain 
influential Senators achieve or retain office.
    Railway technology has demonstrably intrinsic ability to fulfill 
many travel and transport needs with less resource depletion and less 
environmental damage than road transport. A public-spirited Committee 
would genuinely favor Transportation Efficiency. It would recommend 
application of capital and operating funds to railways rather than to 
still more roads, in the many applications which could be expected to 
reduce consumption of material, energy, or terrestrial space, or to 
improve environment.
            Sincerely,
                                         Kenneth McFarling.
                               __________
                    Couer d'Alene Area Chamber of Commerce,
                                                    March 22, 1997.

    Senator Dirk Kempthorne
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Kempthorne: Thank you for the opportunity to express 
our support for the reauthorization of the Intermodal Surface 
Transportation Efficiency Act, or ISTEA. Your efforts to protect States 
like Idaho with large land masses and low population densities are 
applauded by those of us who live in rural America, but they should be 
equally hailed by those States with dense populations.
    ISTEA is an outstanding example of a Federal program living up to 
the Nation it serves; The United States of America. We are a union of 
States working to make our nation strong. The ISTEA is a program that 
returns more to those States that do not have the population base to 
keep their equally important transportation needs addressed. Where this 
type of funding helps those in highly populated areas that may not 
receive the same return, is in the investment of America's growth and 
potential relief of the massive transportation systems they must 
support.
    In Idaho, we have seen a tremendous migration of people from 
densely populated areas over the past decade. We have also seen our 
infrastructure stretched to the limit. This lack of infrastructure has 
not only slowed our growth, it has hampered our ability to manage 
growth wisely. The ISTEA has been one positive element for States like 
Idaho to deal with this issue. Furthermore, if our ability to grow has 
lessened the impact of those major arterioles in the areas where our 
growth is derived, they have seen a higher, albeit indirect, return on 
their investment as well.
    Idaho is recognized as a national treasure for all Americans to 
enjoy. Nearly 83 percent of Idaho land is owned by the Federal 
Government. The ISTEA provides appropriate funding for Idaho and the 
Federal Government to make sure America can visit this national 
treasure we call the ``Gem State.''
    We encourage the Senate Transportation and Infrastructure 
Subcommittee to recognize the total benefit of the ISTEA, as it was 
originally enacted, as a premier tool in building the United States of 
America's often coined phrase ``Bridge to the 21 st Century.''
            Sincerely,
       Patrick H. McGaughey, President and General Manager.
                               __________
      Testimony by Representative Jo An Wood, Multi-State Highway 
Transportation Agreement Created by Statute and Dedicated to the Safe, 
                Efficient Movement of People and Goods.
    Chairman Warner, Senator Kempthorne, Senator Baucus, and committee 
members. My name is Jo An Wood--State Representative from Idaho and 
Chairman of Multi-State Transportation Agreement.
    Idaho is very pleased you came here for the purpose of giving the 
people of the West, an opportunity to speak and to hear our concerns 
and recommendations in reauthorizing the ISTEA, Intermodal Surface 
Transportation. And to comment on some legislation being offered by 
Members of Congress and also the Administration.
    As the newly elected chairman of MHTA, Multi State Transportation 
Agreement, which encompasses the 11 continual Western States, Idaho, 
Washington, Oregon, California, Arizona, Nevada, New Mexico, Colorado, 
Utah, Wyoming, and Montana, I come with carefully considered 
recommendations proposed by Legislators and DOT representatives of each 
of those States as well as some 25 private sector member organizations 
all very much interested in transportation and the decisions you will 
be making as to our future. MHTA is the only organization in the Nation 
consisting of State Senate and House Transportation Leaders, DOT 
Officials and Private Sector Executives from the transportation 
industry exclusively. These recommendations were proposed at the ALEC, 
American Legislative Exchange Council annual meeting in Newport, Rhode 
Island this year and adopted by the transportation committee and the 
full assembly. From these events a new organization called ASET, 
Americans for Safe and Efficient Transportation, arrose. Its efforts is 
to take these 18 principles to all 50 States to try for concensus in 
the States on principles to submit to your committee for a co-operative 
effort in drafting the new ISTEA.
    We know why the original ISTEA Legislation was established and what 
has been accomplished under it. Since we are on the front lines of 
paying the taxes for the funding and also in the implementation of the 
act in each of our States, we feel we can tell you what worked and what 
did not. We certainly are in the position to present to you our 
collective States desires to see transportation funding under ISTEA do 
an even more efficient job than it has already done.
    We know ISTEA was created to allow more input from State and local 
governments while allowing more flexibility in decisions relating to 
transportation programs within each State. This Federal legislation 
provided approximately $155 billion in appropriations for highways, 
highway safety, and mass transportation. As you are aware will expire 
in 1997 and must be reauthorized.
    Historically, the initiation of ISTEA became necessary when it 
appeared evident that there was a need for a new and increased focus on 
surface transportation plans. Although the act made many desirable 
changes in Federal transportation policy, it is a widely held belief 
that ISTEA has fallen short in both the effective delivery of an 
equitable funding process and achievable transportation goals. In 
return, ISTEA has increased the complexity of relationships between 
Federal, State, and local officials and has given us burdensome 
regulations that consume time and scarce resources. It is for these 
reasons that the Multi-State Highway Transportation Agreement (MHTA) 
has chosen to make the reauthorization of ISTEA a top priority.
    Work has already begun with Congress initiating hearings on ISTEA 
during the Spring of 1996; therefore, is essential to start the 
discussion process, gather the necessary information, and formulate a 
position at State levels so that the Congress is well informed of the 
unique issues pertinent to the Western States. With the reauthorization 
of ISTEA scheduled to be completed in 1997 we hope our recommendation 
will be of value and assistance to you in drafting of the final 
legislation.
    The MHTA has taken a leading role in working on the reauthorization 
of ISTEA in the last two annual meetings in Wyoming and New Mexico. The 
make-up of this unique group represents the best and brightest 
policymakers from State legislatures, government agencies, and private 
industry.
    Our major concern is the cut the administration is proposing for 
the 1998 budget in Federal Highway funding. A drop of $500 million is 
totally unacceptable to those motorists, truckers, indeed all highway 
users who pay the fuel and excise taxes that are meant to support the 
infrastructure they need for movement of goods and services to our 
people.
    In addition to cutting highway spending the administration proposes 
to begin paying all Amtrack and mass transit subsidies out of the 
highway trust fund, neither of which put one red cent of fuel taxes 
into the fund. With a few exceptions in urban area of key States in our 
membership, these subsidies provide very little benefit to the western 
States.
    Even with those additional programs we believe unfairly financed by 
the Highway Trust Funds, the trust fund's cash balance will continue to 
grow and double over the next 5 years as taxes paid by the highway 
users continue to exceed the trust fund expenditures.
    What makes citizens angry who pay fuel taxes is that we are aware 
that Congress and the Administration have not moved to put into the 
budget what we estimate at this time to be some $8 billion of Trust 
Fund Taxes paid in. This is of grave consequence to the needs of the 
States. It also, MHTA believes, fuels the debate over donor/donee 
States. Were those funds released approximately 47 States would benefit 
greatly and the donor/donee debate would be diffused. Right now it is 
an uncomfortable position for both entities.
    Of further concern is that even of those funds budgeted, all of the 
funds are not allocated or authorized to be distributed to the States 
that so badly need them.
    We believe there is a solution to this complex problem and MHTA is 
offering a formula in our 18 points that we would respectfully (See 
attachment 1 & 2) that you consider.
    Further more, we as members of MHTA do heartily endorse one of the 
considerations we feel you should take into account for the western 
States inclusively, that is outlined in the draft bill being proposed 
by Senators Kempthorne, Baucus, Thomas, and others, speaking of Federal 
land impacted States. In MHTA's 18 points we request you as 
policymakers to regard the situation of those States who have vast 
acreages of federally managed land. Those States have many miles of 
highways and roads to maintain as well as provide access and service to 
despite having a relatively small population base from which to fund 
our State transportation department's mandates to maintain those vast 
number of miles plus the infrastructure.
    Most importantly we request in our MHTA 18 points that you strongly 
consider release of the majority of the taxes paid in to the Federal 
Highway Trust Fund to be allocated in the form of block grants to the 
States based on our MHTA formula and ``without strings attached to 
rules'' that hamper our decisionmaking. We feel that we can best plan 
and utilize those funds where they are most needed. We are all unique 
in some manner relating to Highway needs, certainly we recognize the 
needs some States in our own membership have for mass transit, while 
some of us have a small need for that service. All of the funds in 
block grants would free us to make decisions for our needs internally 
in each State.
    Finally we want you to understand that we want the Federal Highway 
Administration to know we support the N.H.S., National Highway System. 
You have our demonstrated backing for this important responsibility, as 
well as continued support for safety, research and coordination 
functions of the Federal Highway Administration.
    We do not; however, agree trust funds should be used for Amtrack 
support. The support for Amtrack should come out of general funds if it 
is to be maintained. Mass transit funds should be in the block grants 
to the States. We do not agree with Highway Trust Funds used for 
deficient reduction and ask you to phaseout that unfair use of fuel 
taxes as you heroically labor to balance the Federal budget.
    Thank you for this opportunity to present our concerns and our 18 
points to you in written form attached to this testimony. Thank you for 
coming to Idaho where we could express our belief that you do labor in 
our behalf to set policy best for the United States and our individual 
States. We wish you God speed in your deliberations and the new ISTEA 
reauthorization.
                       Representative Jo Ann E. Wood--Idaho
                              attachment 1
         multi-state highway transportation agreement positions
    <bullet>  Federal Highway Trust Fund moneys should be used 
primarily for the needs associated with the construction, 
reconstruction, rehabilitation and maintenance of the National Highway 
System (NHS).
    <bullet>  After NHS expenditures, a State block grant program 
should be established for the distribution of remaining islands. 
Individual States should have the ability to expend these block grant 
funds on priorities that have been established by their state-wide 
planning processes.
    Due to the dynamics of State size, population, and other factors 
such as Federal land ownership and International borders, there is a 
need for donor and donee States in order to have a successful nation 
wide transportation system.
    <bullet>  There should be a uniform measure when considering the 
donor/donee issue. A ratio derived from the total amount of funds a 
State receives divided by the total amount that the State collects in 
Federal taxes and fees is a clear and understandable measure.
    <bullet>  All demonstration projects should be eliminated.
    <bullet>  The Mass Transit Account of the Highway Trust Fund should 
be rolled into the State Block Grant Program with the States making the 
final decisions that affect the funding of their local transit 
operations and based on the State-wide planning process.
    <bullet>  As a whole, all funds residing in the Federal Highway 
Trust Fund should be returned to the States either as funds for the use 
on the NHS, or as a block grant. Only a reasonable amount of the 
collected funds from the Federal gas tax and highway users fees should 
be retained by USDOT for safety and research purposes.
    States with public land holdings and International borders should 
not be penalized for receiving Federal transportation funding through 
Federal land, National Park transportation programs and special NAFTA 
Infrastructure programs, and said funding should not be included in the 
States' allocation of funds.
    <bullet>  Expand Federal and State activities to combat the evasion 
of fuel taxes and vehicle registration fees.
                              attachment 2
    <bullet>  Remove all Federal fuel tax exemptions and insure highway 
users pay for any use of the roads.
    <bullet>  MHTA recognizes the importance of MPO's, however, the 
responsibilities of MPO's should be strictly at the discretion of State 
and local governments and not controlled by Federal regulation. It is 
important that all existing and future transportation dollars flow to 
local entities through the States.
    <bullet>  Eliminate all federally imposed sanctions not directly 
related to the fiscal and contractual integrity of the Federal-aid 
highway program. The States should be able to spend all highway funds 
without restrictions and federally imposed regulations such as the 
Davis-Bacon Act and the Clean Air Act.
    <bullet>  Federal laws that contain environmental provisions 
pertinent to transportation projects should be streamlined to eliminate 
the many areas of overlap and duplication. It is also necessary that a 
lead agency, such as USDOT, be directed to protect State transportation 
agencies from conflicting, inconsistent, and duplicative Federal 
regulations, rulings, and opinions.
    <bullet>  The Federal Government should set minimum Federal truck 
size and weight standards no lower than current sizes and weights that 
recognize advancements in technology and equipment. States must be 
allowed to set sizes and weights which exceed the minimums with 
emphasis on safety and regional needs.
    <bullet>  Federal agencies should maintain their role on technical 
research of new construction materials, hardware technologies and other 
innovative transportation needs. Additionally, the Federal Government 
must, through incentives, encourage States and other stakeholders to 
put these new solutions to work--to implement the results of the 
research.
    <bullet>  Federal funding for developing and demonstrating 
intelligent transportation (ITS) projects should be continued. Fees and 
congestion pricing on existing public roads are not acceptable 
alternatives to funding highway improvements.
    <bullet>  Public and private partnerships should be encouraged and 
approved.
    <bullet>  Encourage the States to develop and implement safety 
management systems, particularly to those roads eligible for Federal 
highway funds.
                               __________
                Statement of the Puget Regional Council
    The Intermodal Surface Transportation Efficiency Act (ISTEA) of 
1991 was a unique, carefully crafted piece of transportation 
legislation which not only had broad bipartisan support but enjoyed 
support from a wide array of business, labor, citizen and environmental 
interests. In the Northwest the highly successful implementation of 
many new and innovative ISTEA transportation programs and projects at 
the local regional, State and national level have been a testimony to 
the wisdom and public popularity of new directions and partnerships 
established with this landmark legislation. The Regional Council 
previously provided your office with a document entitled ISTEA at Work: 
Implementing Regional Transportation Improvements in the Central Puget 
Sound Region which highlighted our success story with the ISTEA 
program.
    The Executive Board of the Puget Sound Regional Council strong 
urges your support for the reauthorization of ISTEA. We recommend that 
you consider A Blueprint for ISTEA Reauthorization, prepared by the 
Surface Transportation Policy Project as an excellent set of building 
principles which will help maintain and enhance the good work begun 
under ISTEA. Please see the attached table which summarizes the 
Blueprint's 25 specific recommendations for ISTEA reauthorization. 
While most of these recommendations involve maintaining the very 
positive aspects of ISTEA which have worked very well in the Northwest, 
this table also includes recommendations for six new initiatives which 
we believe are financially achievable by restoring access to existing 
Federal gas tax funds currently being used for non-transportation 
purposes.
    The essence of our support for ISTEA reauthorization can be 
summarized as follows:
    Preserve a strong Federal Transportation Program. The nation's 
surface transportatlon system must provide a solid foundation for 
economic growth by moving people and goods efficiently through a 
comprehensive, integrated network in and among urban, suburban and 
rural areas. ISTEA reformed Federal policy to meet the mobility 
challenge of the post-interstate era by integrating surface 
transportation planning programs and services. This integration 
process, just in its infancy, must be continued and allowed to mature 
to realize its full potential.
Maintain ISTEA's Program Structure and Flexible Funding
    ISTEA's basic program structure, with provisions for the Surface 
Transportation Program (STP), Transit Program and Congestion Mitigation 
& Air Quality Programs (CMAQ) should be retained with only modest 
refinements which continue to strengthen these programs. Such 
refinements should include provisions for continuing CMAQ funding for 
areas that Come into attainment but continue to face serious air 
quality and congestion problems. Modal choice, improved connections and 
funding flexibility between modes needs to be preserved in order to 
allow maximum flexibility in maintaining and building a transportation 
system that addresses congestion and allows communities to identify 
those transportation solutions that best support their goals for 
economic development, community revitalization, and other priorities.
Strengthen Partnerships and Maintain Strong Local Role through 
        Metropolitan Planning/Decision Process
    ISTEA reauthorization should buildupon successful Federal, State 
and local partnerships which have been forged among diverse modal and 
public and private interests. ISTEA also generated broader citizen 
participation in most transportation programs and helped shape more 
effective program and project recommendations. The gains from expanded 
public participation has been greater public understanding of the 
complexity of transportation issues, resulting in fewer conflicts on 
major transportation decisions in our region. These collaborative 
partnerships are working on development of an economically efficient, 
intermodal transportation system which addresses mobility for people 
and goods. The Federal Government should continue to play a strong role 
in transportation funding while supporting decentralized decisionmaking 
for transportation planning and strategic investment at the local, 
regional and State level. A strong continuing role for Metropolitan 
Planning Organizations will help assure this objective.
Support Full Funding Levels to Preserve/Expand Infrastructure 
        Investments.
    Sustaining and improving mobility for people and goods at the 
local, regional, State, national and even international levels for us 
in the Northwest will not be possible without a strong national 
commitment to full funding of ISTEA. To meet growing travel demands and 
keep our region and State economically competitive in the international 
marketplace, the ISTEA reauthorization bill must include the highest 
funding levels possible for the Highway and Mass Transit Accounts of 
the Highway Trust Fund to assure responsible commitments to 
infrastructure maintenance and improvements.
Seek Opportunities to Streamline Transportation Regulations.
    Reathorization should identify and address opportunities to 
streamline or eliminate unnecessary or duplicative processes, 
regulations and program oversight which create inefficiency and waste 
scarce public resources. The American Public.
    Transit Association (APTA) and the Surface Transportation Policy 
Project (author of the earlier noted Blueprint document) offer positive 
suggestions.
    We thank you for your timely attention and support for ISTEA 
reauthorization, as this major legislation will play a key role in 
helping to sustain and improve the mobility for people and goods 
throughout our region and State.
            Sincerely,
  Doug Southerland, President Puget Sound Regional Council.
                               __________
    ISTEA Research, Education and Training Reauthorization 
                                                Consortium,
                                  Washington, DC, January 21, 1997.

    Honorable Rodney E. Slater, Secretary Designate,
    U.S. Department of Transportation,
    Federal Highway Administration,
    400 Seventh Street, Room 4218,
    Washington, DC 20590-62346.

    Dear Secretary Designate Slater: Effective research, education and 
training promotes progress through productive change. ISTEA created a 
now proven process for surface transportation program progress which we 
request be reauthorized as presented In the attached joint policy 
statement.
    The Nation's success in the economic competition that will occur 
during the next century will depend heavily upon our ability to move 
people and products efficiently. Other geoeconomic areas are investing 
over $10 trillion during the 1990's preparing for that competition. 
Smart highways, high speed rail, metropolitan area feeder systems, and 
seamless inter-modal connections, all well maintained, are part of the 
Euromarket and Pacific Rim's new networks.
    The U.S. has fallen behind and cannot hope to outspend the 
competition to catch up. So we must work smarter. The University 
Transportation Centers created in 1987 and the 1991 ISTEA University 
Institutes and Centers program have provided the new ideas and the 
educated and motivated talent to meet this challenge. In addition, the 
Highway and Transit Cooperative Research Programs and the corresponding 
demonstration programs will assist in proving and implementing the 
latest in concepts and technology.
    We join in this multi-modal, cross-jurisdictional coalition to 
recommend the inclusion of the attached integrated package of research, 
education, training and demonstration programs in the 1997 
Reauthorization Bill. Please note that this Coalition Statement 
supports additional Federal investment in related industry/government 
programs targeted to passenger as well as freight transportation 
issues.
    If you have questions please contact any of us or Rod Diridon, the 
coalition coordinator (408-924-7560, fax 408-924-7565) or Becky Weber, 
the Federal liaison, for more information.
            Sincerely,
                   Francis B. Francois, Executive Director,
American Association of State Highway and Transportation Officials 
                                           (AASHTO) Washington, DC.

                        Edward Wytkind, Executive Director,
          AFL-C10 Transportation Trades Department, Washington, DC.

                                 William Millar, President,
        American Public Transit Association (APTA), Washington, DC.

                                           Don Deer, Chair,
           High Speed Rail/Maglev Foundation, Alexandria, Virginia.

                                        Rod Diridon, Chair,
      ISTEA Institute and Centers Directors Association, San Jose, 
                                                        California.

                        John W. Epling, Executive Director,
  National Association of Regional Councils (NARC), Washington, DC.

                                      Michael Towns, Chair,
             Transit Development Corporation (TDC), Washington, DC.

                                Edwin L. Harper, President,
           Association of American Railroads (AAR), Washington, DC.

                            Thomas M. Downs, President/CEO,
                                            Amtrak, Washington, DC.

                          Thomas J. Donahue, President/CEO,
        American Trucking Associations (ATA), Alexandria, Virginia.

                              James Constantino, President,
     Intelligent Transportation Society of America, Washington, DC.

                           Larry Naake, Executive Director,
           National Association of Counties (NACo), Washington, DC.

                          Hank Dittmar, Executive Director,
      Surface Transportation Policy Project (STPP), Washington, DC.

                     J. Thomas Cochran, Executive Director,
                     The U.S. Conference of Mayors, Washington, DC.
                                 ______
                                 
    ISTEA Research, Education and Training Coalition (RETRC) ISTEA 
                    Reauthorization Policy Proposal
University Transportation Centers and Institutes
    Ten University Transportation Centers (UTCs) were established by 
Federal legislation in 1987. ISTEA added 4 more centers and 7 
university research, education and training institutes (ISTEA Centers 
and Institutes) with non-redundant topical assignments. The UTCs and 
ISTEA Centers and Institutes develop areas of expertise and conduct 
research, education and training programs that are designed to advance 
the state-of-the-art; interest, recruit, and train students; and 
provide continuing education for professionals in the field. This is 
one of the only places for fundamental research in transportation in an 
environment designed to deliver products useful to practitioners. These 
programs build a base for future transportation systems and identify 
transportation as a discipline on the frontier of technology. They 
attract, and prepare for careers in the transportation industry, the 
best and brightest students interested in management, technology, 
engineering and science. Federal dollars are matched by nonFederal 
funds to leverage the investment in these programs.
    The following funding levels are recommend:
    The 1987 UTCs: Beginning in 1998, $1.2 million per center (or $12 
million total) to be increased by 5 percent per year thereafter.
    ISTEA Institutes and Centers: The National Transit Institute (NTI) 
and the Infrastructure Technology Institute (ITI), each at $3.3 M, and 
the other five Institutes and four Centers at $1.2 million each or 
$17.4 million total in 1998. A 5-percent annual increase for each 
designee should be authorized thereafter. Note that the Florida and 
North Carolina components of the Urban Transit Institute (UTI) would be 
separately designated. Each, as well as the Norman Y. Mineta 
International Institute for Surface Transportation Policy Studies 
(IISTPS, formerly the Institute for National Surface Transportation 
Policy Studies), would be fully funded, as was originally intended, at 
the $1.2 million per first year level. The page 3 Attachment presents 
the specific recommended funding for each current Center and Institute.
The Transit Cooperative Research Program (TCRP)
    The TCRP, administered by the Transportation Research Board (TRB) 
of the National Research Council (NRC), is a cooperative research 
program authorized by ISTEA and created by an agreement among the 
Federal Transit Administration, the Transit Development Corporation 
(TDC), and the NRC. The program addresses research needs identified by 
transit operators, planners, designers, suppliers and others. Subjects 
include operations, hardware, physical infrastructure, economics, human 
resources and other contemporary issues selected by the TDC Board of 
Directors which plans the program. Reauthorization of this highly 
successful ISTEA program is imperative. TCRP is the first national 
research program in which the transit community has had a direct role 
in addressing the myriad of operating challenges common to the transit 
industry. The program has been operating since August 1992 and is 
producing results of significant value to the transit industry.
    It is recommended that the TCRP be funded at the rate of $15 
million for 1998 Increased at the rate of 5 percent annually. This is 
less than authorized In ISTEA but more than is currently appropriated 
to the program.
Transit Demonstrations Program (TDP)
    The Federal Transit Administration (FTA), in Section 26(a), should 
be funded to demonstrate new technologies and practices from TCRP and 
other sources. The TDP should involve a partnership between the FTA, 
transit providers and the private sector.
    To create the TDP, Section 26(a) should be Increased from $22 
million in 1997 to $33 million in 1998 with an annual 5 percent 
increase thereafter. Note that the Federal Highway Administration and 
the National Cooperative Highway Research Program also have 
demonstration programs that, though structured differently, should be 
continued.
                               attachment
    The following list presents the recommended first year funding, in 
millions of dollars, for the UTCs and ISTEA Institutes and Centers. 
Each should be increased by 5 percent per year after the first year.


------------------------------------------------------------------------
                                                               Dollars
                           Region                             (millions)
------------------------------------------------------------------------
                       1987 Act UTCs
 1. New England University Transportation Center, MIT......          1.2
 2. University Transportation Research Center, CUNY........          1.2
 3. Mid-Atlantic Universities Transportation Center, PSU...          1.2
 4. Southeastern Transportation Center, U of TN............          1.2
 5. Great Lakes Center for Truck and Transit Rsrch, U of MI          1.2
 6. Southwest Region University Transp. Center, TX A&M U...          1.2
 7. Mid-America Transportation Center, U of NE.............          1.2
 8. Mountain-Plains Consortium, ND SU......................          1.2
 9. University of California Transp. Center, UC Berkeley...          1.2
10. Transportation Northwest (Transnow), U of WA...........          1.2

                   1991 ISTEA Institutes
Center for Transp. and the Environment, NC SU..............          1.2
Infrastructure Technology Institute, NWU...................          3.3
Institute for Intelligent Transportation Systems, U of MN..          1.2
National Urban Transit Institute, U of S FL................          1.2
National Transit Institute, Rutgers SU.....................          3.3
Norman Y. Mineta Int'l. Inst. for Surf. Transp. Policy               1.2
 Studies (formerly Inst. for Nat. Surf. Trans. Poll
 Studies), CSU SJSU........................................
Urban Transit Institute, NC A&T U..........................          1.2

                     1991 ISTEA Centers
National Cntr. for Transp. and Industrial Productivity, NJ           1.2
 Inst. of Tech.............................................
National Center for Advanced Transp. Tech., U of ID........          1.2
National Center for Transp. Mgmt. Rsrch and Devp., Morg. SU          1.2
Mack-Blackwell National Rural Transportation Study Center,           1.2
 (formerly Nat. Rural Transp. Study Ctr.), U of AR.........
    TOTAL FIRST YEAR FUNDING...............................        $29.4
------------------------------------------------------------------------

                               __________
                                     Ann L. Winckler, P.E.,
                                                    March 22, 1997.

    The Honorable Dirk Kempthorne,
    U.S. Senate,
    Washington, DC 20510.

    Dear Senator Kempthorne: Thank you for the opportunity to address 
you regarding this important piece of legislation which is coming up 
for reauthorization. I am pleased to hear that you recognize the need 
for substantial changes to this bill, particularly to address the State 
and Federal highway I am a licensed professional engineer in the State 
of Washington, and I write traffic impact analysis for all types of 
projects within the eastern Washington area. In this capacity, I have 
daily dealings with City, County and State transportation officials, 
and I am aware of the impacts which ISTEA has had on our area.
    In the greater Spokane area, ISTEA has caused a substantial 
decrease in the amount of transportation improvements and necessary 
maintenance which can be done. It has created a situation where needed 
safety issues cannot and will not be addressed in a timely fashion. It 
has also created a lot of finger pointing among the various government 
agencies which take care of the roads.
    I would like to bring two specific examples to your attention. The 
first one involves a State highway, SR 195 which is the main connecting 
route between Pullman and Spokane. Some years prior to ISTEA being 
enacted, the city of Spokane annexed property along this highway, with 
the idea of creating more residential housing for the city of Spokane. 
The Washington State Department of Transportation (WSDOT) was involved 
in the annexation, and aware of what would occur to SR 195 due to the 
increase of 3,000 homes in this area. They posed no objections to this 
annexation because they expected to be able to fund the necessary 
improvements to SR 195 to accommodate this change in land use. These 
improvements were fully recognized to be interchanges a multiple 
locations along this route.
    Unfortunately, this land did not start to develop into the housing 
which had been planned for it until after ISTEA was in place. The 
funding mechanisms in ISTEA do not allow the WSDOT enough flexibility 
to follow through on the commitments which were expected to be met at 
the time of annexation. The WSDOT, because it cannot live up to the 
commitments which it made under the former legislation, is looking to 
the developers of this area to put these improvements in at totally 
their own expense. The WSDOT does not have the resources to help fund 
any part of these improvements, although there is a clear benefit to 
the public traveling on this highway. Furthermore, at the location 
where SR 195 connects into I-90, near downtown Spokane, the taper for 
traffic from SR 195 connecting onto eastbound I-90 is not adequate for 
the speed of the two roads. The WSDOT is exploring options to correct 
this situation, however, because this taper is a part of a bridge 
structure over a very deep canyon, the expected solution, lengthening 
the taper, is not economically feasible without Federal funds. Under 
ISTEA, these Federal funds are not available. Other solutions available 
will have limited benefits.
    The second example involves a much smaller issue, but again serves 
to demonstrate that the WSDOT, due to the changes in the funding 
mechanism brought about by ISTEA, cannot afford to provide the 
necessary elements for the roads under it's control. In this situation, 
the WSDOT collected traffic data at an intersection and found that, 
using their agency criteria, a left turn lane was needed. However, 
despite the need for this improvement based upon the WSDOT criteria, 
this agency cannot afford to make this improvement until some other 
circumstance brings this to the fore. Under the old funding mechanism, 
this improvement would have been scheduled for installation at the time 
of identification.
    This situation is important from a nationwide perspective because 
these main State highways are the roads most likely to be used by 
visitors to our country. They represent how our nation is taking care 
of it's own citizens. Furthermore, the State highways supply the bulk 
of the transportation needs within the greater Spokane area. 
Improvements to (or lack of improvements to) this system affects most 
of the residents of this area. Increasing funding for these types of 
necessary improvements on the WSDOT system is truly a benefit to the 
nation. Not providing the funds necessary for these improvements shows 
a lack of appropriate priorities within the Nation as a whole. Thank 
you for your time in this matter.
            Sincerely,
                                      Ann L. Winkler, P.E.,
                                  Inland Pacific Engineering, Inc.,
                                West 707 Seventh Avenue, Suite 200,
                                                 Spokane, WA 99204.
                               __________
                        Statement of Lloyd Wulf
    Senators Warner, Kempthorne, Baucus, and committee members: I am 
Lloyd Wulf, president of the Wyoming Contractors Association. I speak 
for my company Rissler McMurry Company of Casper, coming and for the 
ARC Statewide Highway Chapter. We are very interested and committed to 
a the Federal highway bill which considers the unique needs of the 
Western States, especially the needs of Wyoming, Idaho, Montana, North 
and South Dakota.
    WCA works closely with our DOT. We also have contact with Senator 
Thomas on this issue. We support the STARS 2000 bill. It offers a good 
balance between needs of heavily populated States and sparsely 
populated States.
    I want to bring to your attention several special facts about 
Wyoming for your consideration as you write the bill for this important 
issue of national highway legislation.
    First, Wyoming has been blessed with an abundance of natural 
resources which we market to the rest of the country. Our coal, oil, 
gas, and other minerals generate significant revenue for our State. 
They also create significant revenue for the Federal Government and its 
many programs, in the Federal royalties we pay. Wyoming's average 
annual Federal royal payment is $8.9 million a year. Thus, we do 
contribute significantly to the Federal budget. A portion of this money 
is returned to the State. For a State that is 49th in population we 
make a significant contribution to the Federal budget.
    Second, we are a very key ``bridge'' State vital to the economic 
growth and stability of the entire country. You will often hear 
``bridge State,'' and Wyoming really is that, when President Lincoln 
signed the Pacific Railroad Act to connect the East with the western 
United States he forever made Wyoming a bridge State. General Dodge, a 
civil war general and civil engineer, was directed to find the shortest 
rail route between Omaha and Salt Lake. That rail route was and is 
Sherman grade outside of Cheyenne through to Rawlins, Rock Springs, and 
Evanston. It is the shortest way with the best grade to climb the 
Continental Divide, that route connected the East to the West then and 
continues to connect it today. That rail line and today's Interstate 80 
run side by side. Wyoming's I-80 traffic load year round is 49 percent 
interstate commercial trucks. It is a main artery of commerce for the 
United States. This one corridor takes approximately 28 percent of the 
State highway budget to maintain. This section of the interstate is of 
major importance not only to the residents of Wyoming but to every 
person in the country.
    Third, Yellowstone Park and its surrounding area not only belong to 
Wyoming but to the entire nation, we are the keepers of this national 
treasure. It is a jewel everyone in the country wants to experience 
sometime in their life. The maintenance of the roads in, through, and 
out of this area goes beyond the financial capacity of the State. In 
order to keep the area accessible to all visitors, Wyoming needs 
financial assistance. We are proud of this part of the our State and 
want to share with the rest of the country.
    These two unique pieces of the State, Yellowstone in the northwest 
and I-80 in the south, are valuable and critical to the entire country. 
They go beyond our State's tax and population base to support. We have 
the people, the skill, and commitment to maintain and expand these road 
systems for the entire country. In addition to our local funds, we need 
national funds to maintain these systems. Wyoming takes its ``donee'' 
status seriously and conscientiously uses every penny we receive from 
the Federal highway to provide the bridge for the rest of the country 
and enjoy the beauty of Yellowstone. Wyoming's I-80 and I-90 make up a 
portion of the American roads called the National Highway System (NHS). 
That 4 percent carries 40 percent of all the traffic and 75 percent of 
all commercial truck traffic, a heavy burden.
    I-80 carries more than its share, Senator Warner, I was in the 
audience when you spoke to the ARC convention in Washington DC earlier 
this month. Your example of the South Carolina levy manufacturer is the 
essence of the issue as we work to craft NEXTEA. The only way the 
American manufacturer can compete with less expensive foreign labor is 
to get his product to market faster with good highways and fast trucks. 
Again, a key artery to make this happen is I-80 across southern 
Wyoming.
    Wyoming is unique in that its population is small compared to other 
States. There is a vast diversity among the States that make up the 
United States. It is that diversity which gives us the strength that 
makes us the United States. STARS 2000 addresses this population 
diversity in three key areas: (1) metropolitan planning organizations; 
(2) rapid transit; and (3) congestion mitigation and air quality. 
Addressing the funding formula to have funds go where they are best 
used is a very reasonable approach. Wyoming with no city close to a 
population of 200,000, does not need funds for MPO's, rapid transit, or 
congestion mitigation. We need more funds to maintain the long ribbon 
of roads that link our smaller population bases and connect the 
commercial East with the commercial West. We support a formula that 
puts funds where they will benefit best.
    Finally, on the issue of enhancements, we support local funding 
rather than taking highway gas to funds to build bike paths and canoe 
trails. The American public is paying the gas tax with the 
understanding that it is going for highways not for bike paths and the 
restoration of historic buildings. If local communities want a bike 
path or a ``green belt' then they should raise the funds in their area. 
They will be more responsible for the project if they pay for it rather 
than have the project given to them. There is value and appreciation in 
what we earn for ourselves.
    Senator Warner, thank you, for coming to Coeur d'Alene to 
experience and gain insight into the uniqueness of western States 
highway system. Senators Kempthorne and Baucus, your bill is reasonable 
and solid and we support it. We will work through you and Senator 
Thomas, to get a new Federal highway bill that will expand and maintain 
our great National Highway System while meeting the needs of individual 
States.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                       WEDNESDAY, MARCH 26, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                             Kansas City, Missouri.

                    MIDWESTERN TRANSPORTATION ISSUES

    The subcommittee met, pursuant to notice, at 11:45 a.m. in 
Courtroom No. 4, 6th Floor, U.S. District of Missouri, 811 
Grand Street, Kansas City, Missouri, Hon. Christopher S. Bond 
[acting chairman of the committee] presiding.
    Present: Senators Bond, Warner, and Chafee [ex officio].

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Senator Warner and Senator Chafee, I want to 
express my sincere thanks to both for joining us. I welcome you 
to Kansas City, Missouri, the home of more fountains than any 
city except Rome and more boulevards than any city except 
Paris. I sincerely appreciate your wanting us to hold the 
hearing today because one thing I am confident in saying about 
all our guests today is that we share the belief that 
transportation funding and sound transportation policy is 
critical for Missouri and for the entire country. 
Transportation links our communities, towns and cities with 
markets. It links my constituents with their schools, 
hospitals, churches and jobs. An effective transportation 
system can and will move us into the 21st century.
    My distinguished colleagues, you have heard me mention more 
than once, that the State of Missouri has been a leader in 
transportation. In 1808, Kings Highway from St. Louis to 
southeast Missouri, became the first legally designated road 
west of the Mississippi River. In 1929, Missouri was the first 
State to protect and earmark funds for highway purposes. In 
1956, Missouri became the first State to accept bids and begin 
construction on the interstate highway system. The first 
stretch of interstate road on which work actually began was, I 
understand, Interstate 70 in St. Charles.
    Now, however, we need to concentrate on addressing our 
tremendous infrastructure needs. A recent report by the Road 
Information Program stated that Missouri has the seventh 
highest percentage of structurally deficient and functionally 
obsolete bridges in the country, and that more than half of its 
major roads are in poor remedial condition and in need of 
improvement. In addition, the State of Missouri has the third 
highest percentage of urban freeway congestion in the nation.
    One of my great concerns, obviously, is safety. Each day 
114 Americans die on our highways. That's the equivalent of a 
major airplane crash every day. Motor vehicle crashes are the 
leading cause of death for children in this country. I know 
that some of these fatalities may have resulted from drunk 
driving, which is something that we need to be stricter on but 
many of the accidents and fatalities occur because of 
inadequate infrastructure. Highway fatalities in the State of 
Missouri increased 13 percent from 1992 to 1995. Over 4,000 
people died on Missouri's highways during this time. Seventy-
seven percent of the fatal crashes occurred on 2-lane roads. In 
Missouri, 62 percent of the roads on the National Highway 
System, excluding the interstate, are two lanes, and this shows 
the level of the problem.
    I wish the hearing could address every relevant issue 
pertaining to transportation, but because time is limited, we 
have set up three panels that will present oral testimony on a 
few of the issues. The first panel is geared primarily toward 
safety. The second panel will talk about economic development, 
and the third panel will discuss intermodalism. And I might add 
that we have had significant numbers of written statements 
submitted for the record. I mentioned the superintendent of the 
patrol, the speaker, and many others. I believe the 
Congresswoman has some comments to be added as well. All of 
those will be made a part of the record, and we will say to our 
witnesses that your full statements will be made a part of the 
record. I thank all the witnesses for coming and others for 
attending, and Mr. Chairman, it is my pleasure to turn it over 
to you, sir.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Well, thank you very much, Senator Bond. I 
want to say what a pleasure it is for me to be here as I 
mentioned earlier in the press conference. I am very pleased 
you invited me and have a chance to join you and our 
distinguished colleague from Virginia, John Warner, who is the 
chairman of the subcommittee that deals with this legislation.
    To those gathered here, I wanted to say that your Senator, 
Senator Bond, is a leader in many of the issues that we deal 
with in Washington. Small--I think, what they are? Small 
business, environment, health care, defense, and today's issue 
transportation. As I mentioned in the press conference, he took 
the lead in introducing a Highway Trust Fund Integrity Act 
which means that the money that came in, all the money that 
comes into the fund last year will belong to next year, and I 
was pleased to join with him on that.
    Also, there is another interesting piece of legislation 
that has a lot of merit, I believe, and certainly I suggested 
to everyone here a bill that Senator Bond and I joined in 
together on. It's called the Highway Infrastructure 
Privatization Act. What it does is it authorizes up to 15 
privatization, 15 privatization projects that would have access 
to tax exempt bond financing. In other words, if some company 
is going to make a--build a certain facility, be it a bridge or 
an interchange or a section of highway, they would have--that 
company would have the use of tax exempt bonds. And it's an 
attempt to take advantage of private sector resources by 
opening up avenues for the private sector to take the lead in 
designing construction financing and operating highway 
facilities. And looking back at the transportation debates that 
Senator Warner mentioned, we always know that Senator Bond is 
fighting for Missouri. He brings that to a new level. As a 
matter of fact, if I hadn't come out here today, I am not sure 
whether----
    Senator Warner. You would survive.
    Senator Chafee [continuing]. My house would still be there 
when I get home. So, Senator Bond is a persistent and dedicated 
battler for this lovely State of yours. And I just want to say, 
this is an issue that he has particularly mentioned in 
connection with when we have had hearings in Washington and you 
mentioned it here today, of course, and that is the subject of 
safety which is a great and deep concern of his, and I join 
with him in that concern as we try to--as we move into the 
ISTEA reauthorization, what can we do to reduce this horrible 
loss of life that is occurring on our highways. I want to thank 
you, Senator.
    Senator Bond. Thank you very much, Senator Chafee.
    Senator Warner?

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. I mentioned many of my thoughts in the 
press conference which was shared by the audience. But another 
great challenge is to bring into balance, bring into a sense of 
equity and fairness the redistribution of these highway trust 
funds. Senator Bond and I are privileged to live in these great 
states but our states are donor states. When you drive up and 
pay that 18-cent plus gas tax, in this State about 82 or 83 
cents comes back on each dollar. Is that about correct, 
Senator? Give or take.
    Senator Bond. Somewhere in there.
    Senator Warner. In my State it's 79 cents on the dollar. 
Folks, that has come to an end. That must be rectified in this 
piece of legislation, the imbalance between donor and donee 
states. We ask for just fairness and legislation which I and 
others, including Senator Bond, support would bring each State 
up to a minimum of 95 cents on each dollar by your resident 
citizens in terms of their gas tax paid.
    Then, in addition, certain states need additional things. 
For example, your bridges, that's essential that this bill 
enables your Governor, your highway board and the appropriate 
authorities to get the funding that is necessary and have the 
discretion to use that funding where it is most needed. In this 
state, of course, one of the needs is bridges. Thank you, 
Senator.
    Senator Bond. Thank you very much, Senator Warner and 
Senator Chafee.
    Now we would like to welcome our first panel, And do we 
have the lights? The lights will work just like they do in 
Washington, maybe even better, we hope. We do ask that you keep 
your presentations to 5 minutes. And the full statements will 
be made a part of the record. On the first panel will be Mrs. 
Chrissy Winkler and Mrs. Carolyn Winkler of Moberly, Missouri, 
private citizens who have a very compelling story to tell. Mr. 
Mike Right who is Vice President of Public Affairs, American 
Automobile Association of Missouri from St. Louis, Mr. Barry 
Seward who is President of The Missouri Transportation 
Development Council in Kansas City, and Mr. Tom Boland, 
chairman of the Missouri Highway and Transportation Commission 
and who has come here from Hannibal. So, let's start with the 
Winklers.

        STATEMENT OF CHRISSY WINKLER, MOBERLY, MISSOURI

    Mrs. Chrissy Winkler. Thank you, Senator Bond.
    Senator Bond. Would you pull those microphones up to you? 
That one is the one that allows everybody here to hear you. 
That one is very important for all of us, including the 
reporter.
    Mrs. Chrissy Winkler. Thank you, Senator Bond, for the 
invitation to speak today, Senator Chafee and Senator Warner, 
for the opportunity to speak in favor of making Highway 63 four 
lanes. My name is Chrissy Winkler, and I am here today to 
represent all the families who have lost loved ones on this 
dangerous 2-lane highway----
    Senator Chafee. Mr. Chairman, being an old Navy radio man, 
what you are doing is getting a crossfeed in those two mikes. 
There we go.
    Mrs. Chrissy Winkler. My name is Chrissy Winkler, and I am 
here today to represent all the families who have lost loved 
ones on this dangerous 2-lane highway. I lost my husband Tracy 
on October 29, 1996, on this highway. Not only did I lose my 
husband but the father of my three children. He was on his way 
home when he was hit head on by an out-of-state driver. I feel 
that he would still be here today if this road would have been 
4-lane because there were guardrails on both sides of the road, 
and he had nowhere to go.
    Since my husband's death, my children and I have had to 
make many changes. We are learning to do the things that Tracy 
would have done for us. There's a tremendous responsibility to 
raise our children without the love and support of Tracy.
    Tracy and I had been married only 16 years on October 10, 
1996. He was my best friend and his loss means I can no longer 
look forward to the many things we shared. For example, we 
shared the same birthday, and this year I had to celebrate that 
day without him. Needless to say, my birthday is no longer a 
joyous day.
    My children and I have our own special guardian angel. He 
is looking over us, and his name is Tracy. It is still very 
painful and very difficult. Now I am teaching our oldest 
daughter Leslie, who is 16, to drive, and I know that 1 day 
she, too, will want to drive on Highway 63. And her picture is 
over there.
    Our 14-year-old son Lance used to spend his weekends with 
his father hunting and working in our car wash. Now, he no 
longer has the privilege to learn from and enjoy time with his 
father.
    Our youngest daughter Elizabeth is just 7 years old and 
will not have the opportunity to do the things with her father 
and share with him the special things that she does.
    Tracy will miss our children's graduations, birthdays, 
holidays, weddings, and the grandchildren that they will some 
day have.
    Highway 63 needs to be widened to prevent further--future 
tragedies for our families. The widening of this 23-mile 
corridor will decrease the risk of fatal head-on collisions. As 
of right now, motorists continue to pass on the road's 
shoulder, over hillsides and at bridges.
    Safety is a goal all of us must work together to achieve 
through better highway improvements such as making Highway 63 
four lanes.
    I want to see something good come out of the tragic loss of 
my husband and the father of my three children. No one should 
have to go through what I am going through.
    So, will you please help us get Highway 63 4-lane before 
the year 2003? Thank you.

        STATEMENT OF CAROLYN WINKLER, MOBERLY, MISSOURI

    Mrs. Carolyn Winkler. Senator Bond, thank you very much for 
the invitation to be here today. Senator Warner, Senator 
Chafee. I am very grateful for the opportunity to speak to you 
today about 63 Highway in Missouri. My name is Carolyn Winkler. 
My husband Art is here with me today.
    The force that compels me to be here is the fact that on 
October 25, 1996, our son, Tracy, was killed in a head-on 
collision on Highway 63. It's a parents' nightmare. He was not 
quite 35 years old. This tragedy occurred on a 23-mile stretch 
of 2-lane Highway 63 between Columbia and Moberly when an out-
of-state driver hit him head on after pulling out of his lane. 
This 2-lane road carries a tremendous amount of traffic.
    The 4-laning of Highway 63 is far overdue, and may possibly 
have been passed over for construction of less life-threatening 
roads in the past.
    The petitions we brought with us today carry over 3,800 
signatures from people in our vicinity who desperately want and 
need this road 4-lane.
    Tracy made the trip between Columbia and Moberly only once 
or twice a month. What are the odds for people traveling it 
every day?
    The lives of the citizens in our community, our sons, our 
daughters, even our own lives, depend upon completing this 4-
lane project.
    More than 16 years ago, Tracy and Chrissy moved into their 
home across the road from us. Now, each day we watch Chrissy 
and the three children struggle with their grief and 
frustrations they endure without their husband and their dad.
    In Tracy's memory, I am pleading with you to obtain Federal 
funds assigned exclusively for the 4-laning of Highway 63 from 
Moberly to Columbia and help us get it started now.
    It is my prayer that none of you or anyone else has to 
endure the nightmare of tragically losing a child or a loved 
one before this project can be completed. I will leave the 
petitions here for your use.
    Senator Bond. Thank you very much.
    Mrs. Carolyn Winkler. We thank you very much.
    Senator Bond. We will be happy to accept those.
    Now, Mr. Right.

   STATEMENT OF MIKE RIGHT, VICE PRESIDENT, PUBLIC AFFAIRS, 
      AMERICAN AUTOMOBILE ASSOCIATION, ST. LOUIS, MISSOURI

    Mr. Right. Thank you. I want to express the appreciation of 
my organization for this committee's decision to come to 
Missouri and for the opportunity to bring to this committee the 
views of our area's motorists. I always want to thank you, 
Senator Bond, for your tireless efforts insisting on equity in 
the distribution of transportation funds.
    The compelling sorrow of the tragedy the Winklers suffered 
is repeated thousands of times each year in every state. In 
Missouri, we endured more than 1,100 traffic deaths last year, 
an increase over the previous year, and tens of thousands of 
disabling injuries. Our panel's topic, safety, has been given 
little singular focus in recent Federal transportation bills. 
Instead, current law in an attempt to be all-inclusive has been 
restricted, actually restricted the use of funds in certain 
categories, most notably enhancements and congestion mitigation 
funds from being used to improve highway safety.
    The administration recently rolled out its NEXTEA proposal. 
This effort goes even beyond ISTEA in diminishing highway 
safety by increasing by 30 percent the funding in congestion 
mitigation and transportation enhancement categories which 
effectively prohibit the use of these funds to enhance safety.
    This administration's proposal is more interested in 
supporting projects designed to strengthen the cultural, 
aesthetic and environmental aspects of our transportation 
system than applying known solutions to our highway safety 
problems.
    While supportive of the nation's environmental and 
aesthetic goals, AAA questions whether those goals are more 
appropriate uses of motorists' taxes than is investing in 
saving lives, lessening injuries and reducing accidents.
    To steal a phrase from the current hit movie Jerry Maguire, 
``Show me the money.'' AAA asks Congress and this 
administration to ``Show us the safety improvements.''
    There are some in the administration and Congress that view 
the Highway Trust Fund which is responsible for the bulk of 
highway improvements in this country that view it as a bloated 
cash cow with enough teats for every possible special interest 
or advocacy group.
    AAA has long held that diversion of highway user funds for 
non-highway purposes is wrong and injurious to the health of 
our nation. ISTEA created numerous programs and stakeholders 
that annually divert billions and billions of dollars, away 
from critically needed investment in construction, repair and 
maintenance of our roads and bridges.
    These and other diversions of funds from critically needed 
highway improvements means safety must be further deferred. 
With limited resources, we must recognize that choices, 
intelligent choices must be made to achieve what is most 
important to the public. And what is more important than their 
safety?
    A recent poll of more 4,000 AAA members in our area found 
that their No. 1 highway improvement priority was 4-laning of 
2-lane roads. They also sought to have greater use of safety 
features on our highways.
    The material provided to this committee on the results of a 
study by the AAA Foundation for traffic safety on the safety 
effects resulting from approval of the National Highway System 
shows the safety benefits we can expect if we chose to use our 
resources wisely.
    For example, by increasing lane width to 12 feet, we can 
expect a reduction in accidents of 12 to 40 percent. By 
increasing shoulder widths by 2 to 8 feet, we can get accident 
reduction of 7 to 28 percent. By removing roadside hazards from 
within 5 to 20 feet of the roadway would get a 13 to 44 percent 
fewer accidents. By reducing the curvature of a road by 
degrees, we can expect 15 to 75 percent fewer accidents. And by 
installing median barriers, we improve our accident rate by 10 
to 20 percent.
    The AAA study also conservatively estimated that for every 
dollar invested in accident reduction a $3 benefit is received.
    These are the kinds of highway improvements that are being 
deferred or ignored in Missouri and in other states because 
both ISTEA and NEXTEA call for diverting funds from these and 
other critical safety needs.
    The Highway Trust Fund is not a cash cow. We cannot afford 
to embrace narrow interests at the expense of the safety of our 
nation's road users. We here in Missouri want to be shown the 
safety improvements. Thank you.
    Senator Bond. Thank you very much, Mr. Right.
    Mr. Seward?

 STATEMENT OF BARRY SEWARD, PRESIDENT, MISSOURI TRANSPORTATION 
           DEVELOPMENT COUNCIL, KANSAS CITY, MISSOURI

    Mr. Seward. Chairman Warner, Committee Chairman Chafee, 
Senator Bond, thank you for making possible this Senate field 
hearing on transportation. I am Barry Seward, Senior Vice 
President of Health Midwest, a regional health system and 
health care provider here in Kansas City. I am very pleased to 
appear before your committee today as president and board 
chairman of the Missouri Transportation and Development 
Council, a state-wide citizens' transportation support 
organization that serves as an advocate for safe and efficient 
transportation in Missouri.
    The leadership of your Environment and Public Works 
Committee, Senator Chafee, and that of the subcommittee on 
Transportation and Infrastructure, Senator Warner, is most 
appreciated. And, of course, we value very highly the 
contribution to transportation both nationally and here in 
Missouri that has and is being made by your colleague and our 
distinguished senior, Senator Kit Bond.
    We were particularly pleased last month that Senator Bond 
would choose to attended our MTD annual meeting in Jefferson 
City as one of the locations to announce the Chafee/Bond 
initiative--and actually, Senator Chafee, in Missouri we call 
it the Bond/Chafee initiative.
    Senator Chafee. That's fine. That's fine.
    Mr. Seward. To put trust back in the trust fund. The 
Highway Trust Fund Integrity Act of 1997----
    Senator Chafee. When I get to Rhode Island I might twist--
change it around a little bit. But that's fine.
    Mr. Seward. For your information, our MTD Board later that 
afternoon unanimously agreed to support the objectives of that 
bill.
    Now, let me focus more specifically on the issue of safety. 
The safety of Missouri citizens became one of the cornerstones 
of the 1992 state-wide campaign to increase State motor fuel 
taxes to save lives, reduce injuries, and cut down on 
accidents.
    Most of the savings were to come from a plan to upgrade 
nearly 1,900 miles of Missouri roadways, almost all of which 
are on the National Highway System, to divided 4-lane highways 
over a period of 15 years. Important, too, is a plan to widen 
bridges.
    Missourians were told that the planned improvements would 
make the state's roads twice as safe, and that the program 
would pay for itself in just the savings of lives alone. 
Unfortunately, we have fallen behind in our program and are 
struggling to find a way to deliver the planned projects on 
time so that those promised benefits will be realized by the 
motoring public in our state.
    I should add that our concern has been heightened with a 
recent report which our council requested from TRIP, the road 
information program. The report indicated that highway 
fatalities in our State have risen by 17 percent since 1993, 
increasing to 1,190 deaths in 1995. Tragic news indeed.
    Missouri's highway fatality rate is above the national 
average. That is a serious concern for a State where vehicle 
travel, according to TRIP, grew by 51 percent between 1985 and 
1995 compared to the national average of 37 percent.
    The good news is that a new initiative is under way in 
Missouri, to re-evaluate our transportation improvement needs. 
Besides the prompt response needed on the U.S. 63 corridor, 15 
other Missouri highway corridors on the National Highway System 
also require similar attention.
    I am privileged to represent our council on the Governor's 
Total Transportation Commission which is presently developing 
transportation vision, strategies and action plans for Missouri 
as part of a total transportation plan. We applaud Governor Mel 
Carnahan for his leadership and continuing support in the area 
of transportation. The commission is giving the issue of safety 
prime consideration.
    On the Federal level, the reauthorization of ISTEA is 
needed to provide for a stabilized program which will return 
maximum dollars to our State for highway and bridge 
preservation and modernization.
    Specifically, we believe that the new plan should provide a 
minimum return to all states of 95 percent, and thank you for 
your efforts, Senator Warner, in that regard. And we believe 
that a primary focus for the Federal program should be the 
upgrading of the National Highway System over the next 10 
years.
    In closing, let me again thank you for your leadership in 
the area of transportation. We urge you to help us through 
development of an aggressive Federal transportation program 
that focuses on making America's roadways and bridges as safe 
as possible.
    Senator Bond. Thank you very much, Barry.
    Chairman Boland?

    STATEMENT OF TOM BOLAND, CHAIRMAN, MISSOURI HIGHWAY AND 
         TRANSPORTATION COMMISSION, HANNIBAL, MISSOURI

    Mr. Boland. Good afternoon, Senator Chafee, Senator Warner, 
and Senator Bond. I am Tom Boland, chairman of the Missouri 
Highway and Transportation Commission. We thank you for coming 
to Missouri to give us this opportunity to speak about issues 
important in Missouri and the reauthorization of the nation's 
Federal transportation law.
    You have a dedicated, hard-working colleague in Senator 
Bond. He does an excellent job in carrying forward the 
interests of Missouri and the nation. Thank you, Senator Bond, 
for your excellent work.
    My topic today is the safety of our highways and bridges. 
Senator Bond has been absolutely instrumental in helping to 
solve some of those most pressing safety problems. His 
relentless efforts in Washington helped secure funds that 
allowed us to start replacing three of our most decrepit major 
river bridges, the Chouteau bridge across the Missouri River 
here in Kansas City and the Hannibal and Cape Girardeau bridges 
across the Mississippi River.
    In Missouri, we can demonstrate the need for increased 
Federal funding to improve the safety of our highways and 
bridges all too well. Let me take you on a short tour down the 
Missouri and the Mississippi Rivers. The Missouri enters the 
State at our far northwest corner, goes southward to Kansas 
City and then crosses the entire State and joins the 
Mississippi at St. Louis. The Mississippi River forms the 
entire eastern boundary of Missouri.
    More than 40 bridges on the State and Federal highway 
system cross these two rivers in Missouri. Half are more than 
50 years old. More than half of these bridges are structurally 
deficient or functionally obsolete when evaluated by Federal 
criteria. They are too narrow or have severe weight 
restrictions, or both, that prevent commercial vehicle use and 
obstruct the economic vitality of many of our communities.
    Missouri needs major replacement bridges at Hermann, 
Washington, Waverly, Miami, Rulo, Lexington, and across the St. 
Francis River into Arkansas, just to name a few, and we need 
some new bridges, including one across the Des Moines River at 
St. Francisville to serve the Avenue of the Saints and to cross 
the Mississippi River at St. Louis.
    These old, narrow brings are used by tens of thousands of 
Missourians every day who would prefer to travel on up-to-date, 
wider structures. They wonder why these old bridges are safe. 
Now, we inspect all these bridges at least once a year to 
ensure that they are safe and they are repaired as needed. But 
the best solution for serving our citizens is modern bridges.
    These major river bridges are extremely expensive. It's 
virtually impossible to pay for them from the state's annual 
allotment of funds, particularly when there is a need for 
earthquake protection and retrofitting that faces us along the 
Mississippi from St. Louis south to the Arkansas border. 
Similar needs in other states simply magnify this urgent 
Missouri problem.
    We cannot overestimate the safety aspects of these bridge 
needs. I strongly urge the committee to include a sizable and 
discretionary bridge fund in the reauthorization legislation to 
help states meet this urgent safety need. A bridge 
discretionary fund of as much as $800 million per year is 
absolutely justified which would allow the states to get bridge 
funds quickly to replace high-cost structures.
    I have focused on the bridges crossing our two major 
rivers. The task at hand becomes even more daunting when you 
consider we have an additional 2,700 bridges in Missouri that 
cross lesser rivers or lakes that also need replacement. We are 
barely making a dent in these bridge needs under today's 
funding levels.
    The issue of safety, of course, relates to all of our 
highways as well as our bridges. One of the most rapidly 
growing areas in our State is south of St. Louis in Jefferson 
County. We have replaced portions of a winding, narrow 2-lane 
Route 21 that serves the area with a 4-lane highway, and as a 
result, there's been a significant and gratifying drop in the 
accident rate. We need to continue this work southward on Route 
21 where the fatality rate is nearly 35 percent higher than the 
State average for similar highways.
    You have already heard the compelling statements from Mrs. 
Winkler on behalf of the need to improve Route 63 in north 
Missouri where traffic is heavy and accidents are much too 
frequent. Driver frustration sets in. Unnecessary chances are 
taken, and tragedy occurs. This is a stretch of highway where 
fatality rates are more than 50 percent above the national 
average.
    The same situation exists on Route 7 and 13 in west central 
Missouri, and on portions of Route 36, a major northern route 
across the State between Hannibal and St. Joseph and Route 60 
across southern, Missouri from Cape Girardeau to Springfield.
    These highways are carrying traffic that exceeds their 2-
lane design. We desperately need funds to correct and construct 
four lanes which will greatly improve their safe use. And these 
are merely examples and certainly do not represent an 
exhaustive list of the many highways and bridge safety needs in 
Missouri.
    Please understand that we fully recognize that all of you 
are working hard on legislation that would increase Federal 
highway and bridge funds available to the states. We are 
extremely grateful for your continuing efforts, and I hope my 
thoughts today simply reaffirm this goal. And let me again 
thank you very much for coming to Missouri to give us this 
opportunity to express our thoughts to you.
    Senator Bond. Thank you very much, Tom. And I hear your 
comments on bridges, and I will be working with my colleagues 
in an attempt to address the bridge issue. We have worked with 
your staff, and we will have some definite proposals on that 
because it is very important. And to the Winklers and the 
Winkler family, you have a very compelling case for the 4-
laning of the highway. I think there's nothing that would be 
more of a safety feature than having a divided 4-lane highway. 
I have driven that road between Mexico and Moberly many, many 
years, and from Columbia to Moberly more recently, and I 
thoroughly appreciate it.
    Mr. Right, I was interested in your analysis of the current 
state of proposals because I think Rodney Slater, the Secretary 
of Transportation, who testified recently, and he has an 
assistant, Mr. Lieber, who will be testifying later on, Mr. 
Slater told us that the proposal of the White House would 
enhance safety because they have safety features included in 
that. Have you looked at the safety features that have been 
included in the executive branch's proposal for ISTEA and the 
budget?
    Mr. Right. The NEXTEA proposal that I have seen, Senator, 
suggests that they are going to combine some safety efforts and 
fund that at a level of about $550 million a year in the 6-year 
bill. If you take a look at what went on in ISTEA, that 
actually for the first 2 years of the 6-year NEXTEA is less 
than what was spent under ISTEA in dedicated safety money, 
because you will recall that safety was designated 10 percent 
of the STP money. A similar percentage is dedicated now in 
NEXTEA to so-called enhancement money.
    So, another fact that I understand is that some of the 
safety money that is being identified in NEXTEA used to come 
out of general funds but is now going to be coming out of 
highway trust funds.
    Senator Bond. Help me out here. If you have funds--and I 
understand, staff tells me that Mr. Slater will have a separate 
safety proposal that will be coming before us, but if you are 
going to make a 4-lane divided highway out of a 2-lane, now, 
that doesn't qualify under the proposal of safety. I guess 
that's not a safety enhancement.
    Mr. Right. That would not be a safety enhancement, no, sir.
    Senator Bond. But I can't think--I mean, you are in the 
business. Is there anything more important from safety than 
taking over-traveled 2-lane highways that had more traffic that 
they could handle and make it into a 4-lane?
    Mr. Right. Nothing is more important, and I think that that 
is the No. 1 concern and the No. 1 priority motorists have as 
far as improving their highway system is to divert over-
crowded, hazardous, safety-riddled 2-lane sections of roadways 
into modern 4-lane divided roadways.
    Senator Bond. Barry, I gather that was the position of the 
Missouri Transportation Development Council.
    Mr. Seward. Yes, it is, Senator Bond. We, too, believe that 
that would be the most important step we could take. We 
recognize that safety does hinge on us being able to increase 
dangerous 2-lane roads into 4-lane divided highways and correct 
the bridge problems that we have in Missouri.
    Senator Bond. So, you think that's--from your standpoint, 
that is the highest priority for highways and for the highway 
safety is just the bulk of the money that can go to 4-laning 
the existing 2-lane highways?
    Mr. Seward. Yes, sir, we do. Earlier a commitment had been 
made in this State and citizens have been under the impression 
that we are working for that. We have had particular challenges 
in terms of resources available, and what we need within ISTEA 
and with the other programs that you and Chafee are--Senator 
Chafee are co-sponsoring and that Senator Warner is assisting 
with additional moneys that can be utilized for that purpose.
    Senator Bond. Chairman Boland, the safety moneys as opposed 
to the moneys for just the general highway moneys, how do you 
see the safety impact of some of the--I guess it is not 
formally before us but there's certainly been discussion about 
various safety programs that are going to be proposed. Are you 
familiar with those and do you have a view on those?
    Mr. Boland. There is no question that safety is absolutely 
paramount, which is why so much of my testimony dealt, really, 
with the bridge issue and the narrow bridges and the inability 
of getting today's-sized vehicles and the level of traffic 
across the bridges.
    The question of safety with regard to a 4-lane highway, I 
agree with you. If you build a 4-lane highway, that certainly 
is a safety consideration that is much more safe than a 2-lane 
highway.
    The question that I think maybe Mike and Barry are raising 
a little bit here is, where is the balance between special 
designated funds for enhancement or CMAQ or railroad crossings 
or what have you as opposed to actually spending the money 
directly on the highways and the bridges, themselves. I think 
that is a point that we debated in the highway commission many 
times is at what level of spending shall we improve railroad 
stations or bypasses or whatever.
    Now, I know that there is a case that can be made for those 
things, and they do have a place in America today. But there is 
this balance that, really, you gentlemen and the ladies in the 
Congress have to decide and the administration, where the 
resources have to go. And safety is extremely critical, and we 
have, as I think I have demonstrated here in my testimony and 
some of the other people have said, it is really critical in 
Missouri to do as much as we can, particularly in 4-laning and 
with the bridges.
    We are working diligently and very hard to accomplish that, 
particularly as I mentioned, Highway 63 between Columbia and 
Moberly is one of our very high projects. Unfortunately, that 
was not one of the original Proposition A projects for which 
the 4 cent gas tax was passed in 1987. But it was certainly one 
of the most important critical things in the 1962 plan. Highway 
61 in northeast Missouri is another very critical area. 36 
across the state. Taking Highway 71, which is one of our 
proposals, to perhaps accomplish in the future all the way to 
interstate standards as well as 36.
    I think we all know that interstates are the most safe of 
all highways for major traffic. So, we have to also consider 
what we can do there. We have improvements to make in St. 
Charles County, in particular, on Highway 40, which it is a 4-
lane road now, but it still has many dangerous at-grade 
intersections, another critical project that ultimately needs 
to go to interstate standards. Highway 60 across the southern 
part of the state. Seven and 13. I mean, as you know, Senator, 
Kansas City and Springfield are two of our largest cities, and 
the highway still between Springfield and Kansas City is a 2-
lane road, and we are working desperately to get that all the 
way to 4-lane.
    Senator Bond. I have the pleasure of traveling on those 
roads. And now, Chairman Boland, if you don't mind, I am going 
to yield to Senator Warner who has to catch a plane, and I 
think he has some questions right on point.
    Senator Warner. I would just like to follow along with the 
chairman's views here. First, this is an excellent panel. It's 
very helpful to us.
    The bill that I am principal author of, Step 21, follows 
onto the bill which our distinguished chairman, Senator Chafee, 
fashioned in 1991. But we are moving in the direction to give 
you, that individual like you, 49 other states and you, 
together with Governors, depending on the way the State handles 
their line of authority, to make more decisions as to the 
allocation of these funds. We don't want the government to try 
and draw up the matrix of where every dollar goes. We think you 
know best.
    Tell us a little bit about the politics that will confront 
you and your other 49 colleagues throughout America. And in 
particular, how will you drive the equation in this State to 
divert or direct, or whichever word you wish to use, adequate 
funds to this very pressing problems of bridges?
    My coming here has left me with a very clear impression. 
The whole trip is worth having learned about the bridge problem 
in this State and how unique it is and how we must do what we 
can to help solve them. What are the politics of this? In other 
words, your 50 states have asked for the authority, we are 
giving it to you. Now, I am not talking about the blow-by-blow. 
I mean, we all understand the rough and tumble politics, 
certainly those of us here in the Senate and the House that 
have joined us.
    Mr. Boland. I think one of the things relates to the 
discretionary bridge fund, that we here in Missouri probably 
have one of the toughest situations on bridges because we have, 
as I indicated, the Mississippi along the entire eastern border 
and the Missouri right across the middle of the State and up on 
the west corner. So, we have huge bridge needs. So, what we are 
saying we need, Senator Warner, is that there just isn't enough 
money coming to Missouri to take care of all these needs and we 
need some help from special additional----
    Senator Warner. OK. That's clear.
    Mr. Boland [continuing]. Honest to God, additional funds 
for bridges. In other words----
    Senator Warner. You are saying if we get the 95-percent 
return under the formula, then certain states depending on 
their particular need have to have a little additional somehow 
to be earmarked for these very pressing problems.
    Mr. Boland. That's correct. Yes.
    Senator Warner. But the State will, of course, within the 
1995 allocate improvements?
    Mr. Boland. That's correct. Now, the politics will be, if I 
may be rudely frank about it, is going to be in some senses 
addressed between the concern over rural areas and the urban 
areas. There needs to be a cohesive effort, and we have done 
well, I think here in the State of Missouri over the course of 
the ISTEA in putting together, if you will, a coalition where 
we have the metropolitan interests, St. Louis and Kansas City, 
primarily, and the rural interests of all over the state, we 
have gotten together and worked together pretty darn good to 
make the MPO situation work pretty well here in Missouri. We 
have been--I think, the MPO and the State Highway Commission 
probably started off in a little bit of a--shall we say, a 
little hostile between one another, say, 5, 6 years ago, but I 
think we have worked our way through all that.
    Senator Warner. I take that message with me, and let me 
say, this new legislation will put your leadership to a new 
test, Mr. Chairman.
    Now, Mr. Right, I was fascinated with this subject of 
shoulders and how you could almost extrapolate loss of life in 
terms of the inadequacy of the shoulders, and I think you also 
addressed the width of the lanes themselves; is that correct?
    Mr. Right. Yes, sir.
    Senator Warner. Now, let's go back and trace the origins. 
Good men and women who designed these highways years ago felt 
that that, I suppose, shoulder and width was suitable for that 
generation of automobiles and that generation of traffic 
volume. Am I not correct?
    Mr. Right. As well as the speeds at that time.
    Senator Warner. And the speeds. So, today given that almost 
every road system has a very significant increase in volume, a 
very significant increase in allowable speeds, these things are 
just no longer, from an engineering perspective and a safety 
perspective, adequate; is that correct?
    Mr. Right. That's absolutely correct, Senator. In Missouri, 
for example, about 15 percent of all of the lane mileage on 
major highways in this state is less than 12 feet wide, and 12 
feet wide is the standard.
    Senator Warner. That's very important. Can you advise me, 
is that comparable to other areas of America or is it unique to 
this state, because the highway commissions of those days 
designed smaller roads?
    Mr. Right. Senator, I would suspect that Missouri's 
situation is comparable to other states. It may be slightly 
worse in terms of the narrowness of the road or the magnitude 
of the narrowness. I believe Missouri is 19th in the terms of 
the percentage of narrow roads throughout the country.
    Senator Warner. I will ask the staff, Mr. Chairman, to make 
a study of the 50 states to determine this because this is a 
very key issue. Would you suggest that in the Federal 
legislation we have some specific standards promulgated in this 
provision which suggests the administration has not sent up to 
the Hill?
    Mr. Right. I would think that that would be very helpful to 
the states to give them specific guidance, particularly in 
connection with the National Highway System, because many 
sections of the National Highway System currently are well 
below current modern standards including lane width. And that 
should, in our mind, be the focus of Federal funding to the 
states is the interstate and the National Highway System.
    Senator Warner. Mr. Chairman, this marks, I believe, our 
sixth hearing in ISTEA, is that correct, Ellen? Sixth hearing. 
And it's astonishing. This is the first one where the Senate 
through the vision of Senator Bond has incorporated the 
important testimony of the users and most specifically those 
users who have suffered tragic losses. So, of all the hours of 
testimony, yours is the first, I say to the Winkler family, and 
I think it will be the hallmark of a bunch of our thinking. So, 
I thank you for coming and sharing with us today your own 
personal experiences because that relates very directly to 
people all over this country and that you had the courage to 
come and do it this morning.
    Mrs. Carolyn Winkler. Thank you.
    Senator Warner. Thank you. And I thank my colleagues. And I 
have another responsibility in connection with my Senate duties 
in Washington and I have to depart. But I had the opportunity 
earlier this morning to visit with a number of witnesses here. 
And Mr. Chairman and Senator Chafee, thank you very much.
    Senator Bond. Thank you again, Senator Warner, for coming 
here, and we are delighted to have you. We appreciate it. We 
will have all of the testimony available for you and your 
staff, and we thank you for coming out and taking a look not 
only at our roads and bridges but our courthouse.
    And with that, now, it's my pleasure to turn to my 
chairman, Senator Chafee.
    Senator Chafee. Thank you very much, Senator Bond. And I 
want to say to the Winkler family it is very powerful, your 
testimony. And I had them pull out the statistics that show 
that--I think Mr. Right also touched on this--that we were 
coming down rather dramatically in our motor vehicle fatalities 
from 1990, it came down very substantially and this is a 
continuation of what took place in prior years, until 1992, the 
middle of 1992. And then it started upward again, which is 
very, very discouraging. So, it was down to 39--these are 
national facilities--down to 39,000, and then went up to 
42,000, and each one of these involves an individual, just like 
your husband, a father, a husband, a best friend, as you said.
    So, then we looked at the vehicle miles traveled, which is 
really probably an even better indication, because if you have 
more vehicle miles traveled by substantial amounts, and you 
probably would see that the death rates go up to some degree 
even though, I guess it was Mr. Boland who was pointing out, 
that the interstate highways are by far our safest highways and 
that's where a good deal of the increased traffic is going.
    [The referenced charts follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    And, so, our next chart--I know you can't see these very 
well, but this is the motor vehicle fatality rates per 100 
million vehicle-miles traveled. And again, that was coming down 
from 1990, 1991, 1992, and coming down rather dramatically. And 
now it has stabilized and, indeed, it's going up a little bit. 
And all of that is cause for concern.
    As you know, in ISTEA, there is a certain percentage that 
is set aside for safety, 10 percent. Now, obviously, a State 
can use its regular funds to build safe roads. There's nothing 
against that, obviously, and that's encouraged. But this 
particular fund, I guess Mr. Seward or maybe Mr. Right said 
that you can't--you can't use the safety fund for building a 4-
lane road. That wasn't what it was designed for. It was 
designed for guardrails and trying to improve the safety of the 
existing roads.
    If we are successful--and I think we are going to be 
successful in the Bond/Chafee bill, getting more money into the 
fund--excuse me, more money out of the fund, that every State 
will see its number of dollars increase, regardless of whether 
anything is done on the changing the formula to increase the 
amount percentage-wise at some stage. It's just through the 
existing formula. Not that that necessarily is going to be the 
final formula, but through the existing formula, I am confident 
that there is going to be increased money come to the states.
    And then we get into--and I would--I believe it's 
worthwhile increasing that safety amount. In other words, now 
10 percent X dollars. How much was it dollars total? About $400 
million. I would like to see that increase, indeed, perhaps 
double. Now, I don't know. Mr. Boland, you must use that safety 
money for certain things, or Mr. Seward, already, don't you? Do 
you tap into that? I don't know who correctly to ask. Mr. 
Boland?
    Mr. Boland. We do use it for certain things, but again I 
have to return to the basic concept of the road, itself, and 
what is the most safe type of road to build. And again, to 
maybe beat the drum again, the 4-lanes are just so much more 
safe than the two lanes and if you go all the way to interstate 
is so much better.
    On Highway 7 and 13 here, for example, between Kansas City 
and Springfield, which has been a very disastrous road in terms 
of fatalities, we have tried to do some things with the safety 
money to do such things as add a third lane at dangerous 
intersections where a lot of--rural intersections where a lot 
of left turns are made, for example, on the 2-lane highway 
until we can get to it with the 4-lane highway. Extra right 
turn lanes to get people off to where they can make the turns. 
So, yes, we have used the safety money for things such as that.
    But, again, the basic configuration of the highway, in my 
way of thinking, is the most important thing that we can do to 
really improve the safety situation.
    Senator Chafee. Mr. Right, I know you indicated your 
opposition to the enhancement program to the CMAQ program and 
those set asides, but Mr. Boland seemed to indicate that he 
wanted a specific sum set aside for bridges. What would you say 
to that?
    Mr. Right. I think that that's a proper use of highway user 
funds. To put that in perspective, I believe Mr. Boland 
mentioned the amount of $800 million a year in a discretionary 
bridge account. Congestion mitigation money as proposed in 
NEXTEA is going to be funded at a rate of $1.3 billion a year. 
Enhancements are going to be funded at a rate of about $400 
million, $450 million a year. And basically, these moneys, both 
in the enhancement category as well as in congestion mitigation 
money are not being used to improve the capacity of the roadway 
system nor substantially increase the safety on our road system 
in this country. So, you are talking almost $2 billion that 
cannot be used to do the kinds of things that I think every 
member of this panel is suggesting needs to be done and needs 
to be done now.
    Senator Bond. Let me just--as I understand it, we have 
not--we do not have the final figures from the administration, 
but I believe the figures Mr. Right was giving us is the best 
estimate that the groups who are vitally interested in 
following this have come--I believe this is an assessment from 
the outside groups, not yet a specific proposal from the 
administration. Is that----
    Mr. Right. I believe I got it from the administration, 
Senator.
    Senator Bond. Really? We had trouble getting it 
substantiated. Excuse me, Senator.
    Senator Chafee. Well, I don't want to get in a back and 
forth now on the enhancement and the CMAQ program, but I do 
want to point out that the objective, obviously, I believe, in 
this legislature is transportation, how we can get most people 
safely from point A to point B. And, so, these funds--these 
CMAQ funds, for example, congestion mitigation funds have been 
used for bus transportation, for example, and to reduce 
congestion in construction, likewise.
    But I guess the point I was really asking you was the 
question of set-asides. In other words, is it your point that 
the money should just come to the State of Missouri, for 
example, and then if it should be spent on bridges, they can 
spend it on bridges, if they want to spend it on highways, they 
can spend it on highways, or as Mr. Boland seemed to be 
suggesting, there would be a set-aside for bridges?
    Mr. Right. I think Missouri has such a significant bridge 
problem that what we are looking for is additional funds above 
and beyond what we would normally receive through the normal 
appropriation process so that we could tap into some 
extraordinary money to take care of the significant major 
bridge needs that we have in our state.
    Senator Chafee. Well, certainly I think Mr. Boland did a 
good job in pointing out the peculiar bridge problems you have 
here. Thank you.
    Mr. Seward. Senator Chafee, may I add one item related to 
bridges? Because it is our understanding that widening or 
modifying a bridge has been shown to reduce fatalities by 49 
percent. That constructing of a new bridge can reduce 
fatalities by 86 percent. So, Missourians really do have their 
lives at stake in terms of what we do about bridges in Missouri 
which has the seventh highest percentage of structurally 
deficient or functionally obsolete bridges in the nation.
    One final item as related to the 2-lane and 4-lane issue, 
too, where nationally 77-percent highway deaths occur on 2-lane 
roads, two-thirds of Missouri's major roads, excluding 
interstates, are not 4-lane divided highways. So, we certainly 
do have a concern both in terms of the roads and the bridges.
    Senator Bond. Thank you very much. And my thanks to all the 
members of the panel. We will keep the record open and invite, 
as I indicated earlier, comments from those in the audience, if 
other members of the committee have additional questions. As we 
look into some of these, obviously we will be in touch with all 
of you and cement some questions for the record as we have the 
chance to go back and look at all of this information. And I 
thank all the members of the first panel.
    And now we would like to call the second panel on Economic 
Development. We will have Mr. John Wagner, Jr., of Wagner 
Industries, Incorporated, who is chairman of the Greater Kansas 
City Chamber of Commerce Surface Transportation Committee. We 
have Mr. Richard C.D. Fleming, President and CEO of the St. 
Louis Regional Commerce and Growth Association, Mr. Don 
Clarkson, who is Vice President of Clarkson Construction 
Company in Kansas City, and Mr. Peter Herschend, who is vice 
chairman of Silver Dollar City in Branson.
    Thank you very much, John. Would you like to begin?

  STATEMENT OF JOHN WAGNER, JR., WAGNER INDUSTRIES, INC., AND 
  CHAIRMAN, GREATER KANSAS CITY CHAMBER OF COMMERCE, SURFACE 
                    TRANSPORTATION COMMITTEE

    Mr. Wagner. Thank you. Good afternoon. I am John Wagner, 
President of Wagner Industries, a trucking, warehousing and 
logistics firm employing more than 600 people in Kansas City. I 
am third generation in the family business that started in 
Kansas City's west bottoms in 1946. This year I have the 
privilege to chair the Chamber's Surface Transportation 
Committee. The Chamber is pleased to have the honor of 
appearing before so distinguished a panel to discuss such 
important legislation.
    A healthy transportation industry is vital to the economic 
well-being of the nation. That is no less true in Kansas City, 
a town founded on transportation and distribution. 
Transportation remains a vital industry. More than 40,000 
individuals are employed as a result of Kansas City's 
transportation industry with a payroll of more than $2 billion. 
The impact on regional output and gross regional product 
amounts to about $5 billion and 3.3 billion respectively.
    What is unique in Kansas City, however, and what makes it 
strong is that its employment is spread over a variety of 
sectors and a large number of employers. Take the trucking 
industry, for instance. Of the nearly 700 trucking companies in 
our region, more than 600 employ fewer than 50 people. Kansas 
City is a hub for nine major rail lines. Kansas City 
International Airport is one of four area airports with freight 
operations and is the busiest air cargo facility by tonnage in 
a six-State region. More than 40 barge terminals and docks 
support river shipping and more than 400 miles of highway give 
Kansas City more highway miles per capita than any U.S. city. 
In addition, area businesses have invested in more than 1,500 
miles of fiber optic cable beneath the city streets to speed 
the exchange of shipping and other data. We are at the vanguard 
of Intelligent Transportation Systems and have been the model 
of bi-State cooperation.
    Having said that, there are some priorities we believe need 
to be addressed as a part of the transportation policy being 
considered in this year's Congress. They are not the result of 
think-tank research. They are basic and fundamental.
    First, integrity needs to be restored to the transportation 
trust funds. There is no better way to make Federal funds 
productive than to spend them on infrastructure. With billions 
of dollars being paid in good faith by people who use 
transportation amenities, there are ample funds collected to 
facilitate the movement of goods and people in the United 
States and to grow its economy. This is an appropriate time to 
indicate the Chamber's support for measures such as the Bond/
Chafee Highway Trust Fund Integrity Act. This bill ensures 
money collected for highways will be used for highways.
    But that bill is a first step. Beyond that it is important 
that the 4.3 cents currently being collected for deficit 
reduction be transferred to the Highway Trust Fund. We believed 
it was bad public policy to utilize highway user fees for 
deficit reduction be transferred to the Highway Trust Fund. We 
believe it was bad public policy to utilize highway user fees 
for deficit reduction when it was done, and we continue to 
believe it today.
    Next, it is unconscionable that the nation's transportation 
investment has been allowed to deteriorate the way it has. I 
would be a poor businessperson if I didn't maintain my 
warehouses and vehicles and other equipment. It is even worse 
stewardship that the Federal Government continues a policy that 
promotes and rewards new construction rather than maintenance 
and preservation of a transportation system that is already 
pretty darn good. Studies have shown the exponential costs 
associated with repair or replacement of facilities compared to 
the cost of simple maintenance. The nation's transportation 
policy should encourage communities to maintain assets rather 
than to simply build new ones.
    Along the same lines, the Nation has invested billions of 
dollars on transportation assets from coast to coast yet has 
done little to connect those assets technologically or 
economically. Kansas City is pursuing a vision as a non-
traditional inland port for world goods. We believe the inland 
assets already in place here combined with a strong work force 
and ample space make it a logical reliever for traditional 
ports of entry that are strained beyond capacity. An intermodal 
and high-tech strategy to relieve congestion at the borders by 
utilizing inland facilities should be considered as part of the 
nation's transportation strategy.
    Another simple but important transportation policy question 
that needs to be finally settled is a commitment to inland 
waterways and navigation, including the adherence to existing 
Federal policy and operating manuals. Sometimes we wonder why 
it's so hard for certain individuals to grasp the relevance of 
waterways and their relationship to price for transportation. 
Of course, the Missouri River has not met its potential for 
moving goods. It has never had a predictable season. Its ports 
and terminals have received minimal public investment, and the 
long-range plan for locks and dams was never completed. Still, 
it makes a difference in millions, perhaps billions, of dollars 
annually in the cost of moving goods due to its competitive 
influence. This is money saved by producers and consumers. It 
would be an international embarrassment to further curtail 
shipment on the Missouri River.
    We are thankful to have a watchdog in the Senate in Senator 
Bond on this matter.
    Finally, and in summary, we urge Congress to not allow the 
Washington bureaucracy to continue thinking departmentally 
concerning transportation and to adequately fund maintenance 
and completion of the nation's freight infrastructure.
    Thank you for your thoughtful attention to these remarks.
    Senator Bond. Thank you very much, Mr. Wagner.
    Mr. Fleming?

    STATEMENT OF RICHARD C.D. FLEMING, PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, ST. LOUIS REGIONAL COMMERCE AND GROWTH 
                          ASSOCIATION

    Mr. Fleming. Thank you, Senator. My name is Dick Fleming. I 
am President and Chief Executive Officer of the Regional 
Commerce and Growth Association of St. Louis, the RCGA. We are 
the 12-county Bi-State Chamber of Commerce and the Regional 
Commerce and Growth Association for the St. Louis area. We 
represent some 4,000 business and civic entities in both 
Missouri and Illinois.
    We are pleased that Senator Chafee and Senator Warner 
accepted your invitation to come to Missouri to learn firsthand 
about the importance of transportation to our state. Of course, 
we very much appreciate and recognize your continuing role in 
leadership and the authorization of transportation legislation 
in this nation.
    The St. Louis region with its central geographic location, 
it's a natural national as well as international transportation 
center. As we look at it from an economic development 
standpoint, we see a number of threads that are tied together 
with the kind of focus and objectives that NEXTEA is speaking 
to. Highways--they are the crossroads of four major 
interstates. Rail--major hub for rail for decades. We are the 
third largest in the United States. Air--we are the second 
fastest growing airport in the world in Lambert and the sixth 
overall busiest airport in the United States. Ports--we are the 
second largest inland port in the United States. In fact, one 
sixth of the tonnage moved on U.S. inland waterway systems goes 
through St. Louis. And transit--where MetroLink was recognized 
last year nationally as the best the transit system in North 
America.
    A need exists for intermodal relationships between these 
transportation systems in St. Louis and throughout the country. 
There is also an inextricable link between infrastructure 
investment and sustained economic development.
    The RCGA strongly advocates the importance of preserving 
the existing transportation infrastructure systems, as my 
colleague just testified, while at the same time addressing the 
necessity for certain new projects. In St. Louis, in addition 
to maintaining and rehabilitating or expanding the interstate 
highway network, we have a need for new bridges, especially a 
major one crossing the Mississippi River near downtown St. 
Louis. Thirty percent of the employees in downtown St. Louis 
live in Illinois and must cross bridges to work. It's a 
lifeline to our region.
    In 1994, we created the greater St. Louis Economic 
Development Council to provide unified regional and proactive 
economic development with the goal of 100,000 new jobs in our 
region by the year 2000. I am pleased to support that we have 
already surpassed the 43,000 number on that goal, and we still 
have a number of years to go.
    One of the Economic Development Council's key priorities is 
to capitalize on transportation and distribution infrastructure 
inherent to the St. Louis region and to encourage and promote 
much-needed major infrastructure investment, such as new 
bridges, the expansion of Lambert International Airport and the 
expansion of MetroLink, the transit system. The 1995 survey of 
national site selection executives for manufacturing companies 
rated ``highway accessibility'' as the No. 1 decision factor in 
choosing where to expand and relocate companies. A similar 
survey in the same year indicated for headquarters companies a 
functioning international airport being the No. 1 criteria.
    With that in mind, last year the RCGA established an 
Infrastructure Council, headed by the St. Louis managing 
partner of Price Waterhouse, with eight committees chaired by 
top CEOs from the St. Louis business community. Their goal is 
to spearhead an economic development agenda in aviation, roads 
and bridges, transit, ports, freight, clean water, 
telecommunications and a public affairs program to support 
them.
    These committees recently recommended their first round of 
specific action plans to the RCGA board just several weeks ago. 
For example, our freight committee in its examination of issues 
over the past year has pointed out a very graphic example of 
how vital it is to preserve the highway system and to eliminate 
major traffic bottlenecks as part of economic development.
    It may come as somewhat of a surprise to our visiting 
Senators from Rhode Island and Virginia that next to Detroit, 
St. Louis is the secretary largest manufacturer of vehicles in 
the United States. General Motors, Ford, Chrysler, all have 
major plants in St. Louis employing over 11,000 people. These 
high-technology recently retooled manufacturing plants, like 
others in the auto industry, are relying increasingly on just-
in-time delivery of parts from a growing number of local 
suppliers.
    For example, at the Chrysler complex located on the 
southwestern edge of St. Louis in the metro area in Fenton, 
almost 1,900 minivans and pickup trucks are built every day. 
Local suppliers with only 2 hours turn-around deliver such 
components as frames, axles, tires, wheels, seats and fascias 
in the exact order of the vehicles on the assembly line.
    I would like to also call attention to another RCGA 
infrastructure priority involved transportation. RCGA has 
staunchly and actively supported regional programs targeted at 
attainment of air quality standards. Yet U.S. EPA has 
unfortunately now proposed new National Ambient Air Quality 
Standards for Ozone and Particulate Matter which will mitigate 
much of the progress achieved to date relative to the State 
Implementation Plan. Our business community and our civic 
leadership have been very active in our opposition to these new 
standards as some will, in all likelihood, jeopardize local 
highway projects threatened with the loss of Federal 
transportation funds. We propose that the provisions for air 
quality related to highway funding sanctions be removed from 
NEXTEA.
    In closing, for the past several months for the past half 
year, I have had the privilege of being one of two 
representatives appointed by Missouri Governor Carnahan to the 
Southern Governors' Association Transportation Task Force.
    Our positions locally and the positions of this task force 
which were recently released comported directly. And I will 
summarize in closing very briefly.
    No. 1, Spend down the cash balances in the Federal 
transportation trust funds. No. 2, if retained, the 4.3 cents 
per gallon Federal funds tax currently deposited in the general 
fund for deficit reduction should be redirected to 
transportation purposes. No. 3, guarantee all states a minimum 
of 95-percent return of their Highway Trust Fund contributions 
without a penalty for receiving demonstration project funding. 
No. 4, encourage the Federal Highway Administration to support 
greater public/private partnerships between State Departments 
of Transportation and the private sector as we have begun to do 
here in the State of Missouri. No. 5, projects to improve 
freight transportation should receive higher priority in the 
allocation of public funds and the development of potential 
sites for intermodal connections. And finally, No. 6, each 
State should be required to include the private sector 
exclusively in the state's metropolitan planning organizations 
either through chambers of commerce, economic development 
organizations or other designated business groups. In essence, 
forming a triangular partnership on behalf of regional 
transportation infrastructure between the State DOTs, local 
government and the private sector.
    Thank you, Mr. Chairman.
    Senator Bond. Thank you very much, Mr. Fleming.
    Mr. Clarkson?

      STATEMENT OF DON CLARKSON, VICE PRESIDENT, CLARKSON 
          CONSTRUCTION COMPANY, KANSAS CITY, MISSOURI

    Mr. Clarkson. Thank you. My name is Don Clarkson. I am with 
the Clarkson Construction Company based here in Kansas City. I 
also want to thank Senators Warner, Chafee and especially 
Senator Bond for their tireless efforts on behalf of 
transportation. Also, I would like to thank the representatives 
McCarthy and Dannon for the same.
    I will address the reasons why ISTEA must be reauthorized 
and how these reasons relate to Missouri. We, in the 
construction industry, maintain an awareness of a properly 
functioning highway and bridge system. Fast, reliable and 
economic transportation is paramount to our nation's 
productivity and international competitive position. Our 
highways and bridges are of our greatest importance.
    Seventy-two percent of Missouri's goods and services, and 
that's $170 billion a year, are delivered over our nation's 
highways. As Senator Warner has said, the transportation of 
products to and from coastal ports will become increasing 
important as international trade grows. Reducing transportation 
costs through a more efficient highway system is essential. 
Over 55 percent of our nation's manufacturers, as referred to 
earlier, use just-in-time delivery of goods and services.
    But furthermore, in the next decade there will be 25 to 30 
million new jobs added, hopefully. By 2000, domestic freight 
tonnage will increase 30 percent. By 2010, overall highway 
travel is expected to top 3-1/2 trillion vehicle miles per 
year. That's a half again what we have today. Vehicle travel in 
Missouri will double its 1995 levels in the next 10 years.
    If the U.S. businesses are to become more competitive and 
if the American public is expected to have a standard of living 
rise, we must do the following: As our improved--we must 
address our nation's highways. If U.S. businesses are to become 
more competitive, as they must, and the American public has the 
opportunity to improve its standard of living, then we are soon 
forced to address the condition of our nation's highway system.
    And I believe this is important and this is why I use the 
word ``maybe'' a minute ago. As our improved transportation 
system allows our businesses and their products to be more 
competitive, the employment opportunities necessary for our 
increasing population will be created.
    Our Highway Trust Fund paid for the construction and the 
maintenance of our 900 plus thousand mile Federal aid highway 
system. This system has spurred the development of the State 
and local highway systems so necessary for the healthy activity 
of our nation's economy.
    There are some alarming trends. The United States 
investment in all types of infrastructure ranks dead last 
behind all of our major G7 competitors as a percent of our GDP. 
We spent only 39 billion in 1993 on roads and bridges or about 
$16 billion less than the investment needed according to the 
FHWA just to maintain current conditions. FHWA estimates an 
annual investment of around $64 billion to improve conditions 
to address the unfunded requirements noted above.
    Senator Chafee, I would like to digress just for a minute 
here to address what I think is a very good question and your 
charts and their figures. I believe if you would have staff 
maybe look into this particular statistic, it's particularly 
alarming that capital outlay in the United States has now 
dropped to only $16 per 1,000 vehicle miles traveled from the 
$32 per 1,000 that we were investing in 1960. 1960, I think we 
will all recall, was a time when the U.S. economic star was 
surely rising on a worldwide basis, and it's not right now.
    But to address your question, I believe that this 
phenomenon, this increase in capital investment per vehicle 
mile traveled may well correlate to the recently deteriorating 
safety and fatality rates. I think that it could be found that 
the necessary upgrades of lanes, 4-laning, bridge widening, so 
necessary both in the rural and the urban areas, will do much 
more to provide real safety than these individual safety 
enhancement projects that are carved out in the program, and I 
believe that the Winklers can testify to that.
    In fact, Missouri's investment decreased 16 percent from 
1985 to 1995 while travel increased 51 percent.
    There have been many studies performed by the U.S. 
Department of Transportation, the Congressional Budget Office, 
the Federal Reserve Bank, even, that shows that spending 
specifically on highway transportation projects improves the 
U.S. economic productivity, contributes to an improved standard 
of living and yields long-term economic rates of return even 
higher than the average in private capital.
    There's some more immediate benefits. Improved highway 
conditions immediately improve air quality by reducing auto 
emissions. As Senator Bond has said, 43 percent of the 
Missouri's rivers and freeways were congested last year.
    The Missouri Department of Transportation must somehow with 
Federal help, Federal aid, build the promised improvements 
described in its 1986-1989 need studies for all of these 
reasons. Each billion dollars invested in highway capital 
improvements generates over $3 billion in economic activity. 
That's the short-term gain. Missouri's share of Federal funding 
alone in 1997 will provide 17,000 jobs. Vehicle operating costs 
are immediately reduced. In Missouri, motorists spent $459 
million last year, and that's $128 per motorist in extra, 
unnecessary vehicle repairs and operating costs because of 
driving on bad roads. Unnecessary if they had good roads.
    In summary, there is a rising economic tied, both short-
term and long-term, that is available to U.S. businesses, 
consumers, employees, and the public in general if we will just 
rehabilitate and expand our National Highway System. This 
system represents an investment made in the past that allowed 
us to achieve and now support our current standard of living. 
Our continuing ability to compete economically and improve the 
quality of life for ourselves and our children will require 
additional investments toward the need to expand and improve 
the existing highway system.
    And the question that comes up, I believe, in these 
proceedings, is that maybe the Senators could teach us or their 
staffs could teach us how to expand the outspoken support on 
this all-important endeavor to beyond meetings like this and 
get the public energized on what really is the best for all of 
us.
    Thank you.
    Senator Bond. Thank you very much, Mr. Clarkson.
    Now, Mr. Herschend.

  STATEMENT OF PETER HERSCHEND, VICE CHAIRMAN, SILVER DOLLAR 
                 CITY, INC., BRANSON, MISSOURI

    Mr. Herschend. Thank you, Mr. Chairman. I really appreciate 
the opportunity of being here today. My name is Peter 
Herschend. I am Vice President and Co-Owner of Silver Dollar 
City, Incorporated. We are headquartered in southwest Missouri. 
And as you know, Senator Bond, for southwest Missouri, air, and 
most importantly, surface transportation is the lifeline of a 
rural destination vacation area. Without that lifeline, there 
is no possibility of dynamic economic growth. It won't happen.
    Travel, the travel industry, is at a national and 
international level now the largest single segment of commerce, 
and it is projected to be so well into the next century. In 
Missouri, and in multiple other states, tourism is a major 
generator of State and Federal tax revenue. Missouri's travel 
economy alone generates better than $1 billion in State and 
local tax revenue, and it is easily the second largest tax-
generating segment, by SIC code, for Missouri's general 
revenue.
    Branson, Missouri, population, 4,725 people, you may have 
heard of our little town, sir, was visited by 5.8 million 
guests in 1996. Our small region alone produces $1 billion of 
Missouri's $10 billion gross travel expenditures.
    Mr. Chairman, as you can well picture, adequate and fair 
distribution of ISTEA funds is of prime importance to our 
region as it is to the entire State of Missouri.
    The Missouri Department of Transportation has worked hard 
and fast to help the Branson/Ozarks area grow an adequate 
surface system capabilities. That work continues today as we 
speak. We, in Branson, were saddled in 1985 with a road system 
barely able to handle 2.5 million visitors. Explosive growth, 
nicely explosive growth, but explosive growth, nonetheless, in 
our region in 1991 through 1993, and the visitor count more 
than doubled to 5.8 million visitors that I mentioned earlier.
    The Missouri Department of Transportation and local efforts 
were put in place to help overcome that huge, huge bottleneck. 
Much has been done and much more needs to be done. The plans 
are ready, the equipment is ready, but we need the financial 
fuel in the tanks to make it go. And that fuel is an even-
handed, fair and aggressive distribution to the states of ISTEA 
funds when it is finally reauthorized, exactly what your bill 
and Senator Chafee's bill and Senator Warner's bills have 
proposed.
    The travel tourism industry is not the only user of a 
first-class transport system. Southwest Missouri is a major 
trucking hub serving all the Midwest. Missouri Department of 
Transportation has moved aggressively to build a system that 
will attract even more firms to the area.
    And Senator Bond, you have been instrumental in working 
toward funding of improved mass-transit systems for Branson to 
make more effective use of ISTEA dollars.
    Depending on the season, 5 to 10 percent of all the 
visitors coming to southwest Missouri arrive at and through the 
Springfield/Branson Regional Airport. That airport, too, has 
applied for ISTEA assistance.
    It comes to this. The transportation capabilities of our 
region and this entire State is like a huge water valve 
supplying life-giving water to crops. We cannot grow more until 
that valve is opened more, and MoDOT cannot open the valve more 
if other regions of the Nation are receiving disproportionately 
higher ISTEA revenues versus Missouri's fair share. ISTEA 
reauthorization needs to be soon and equal.
    I want to tell you a quick story about Mable. Mable doesn't 
know anything about what we are talking about here. She is a 
waitress in Branson. My wife and I were having lunch there at 
her restaurant 1 day not too long ago, and the place was really 
busy. Mable said, ``Gee, isn't this wonderful?'' And I said--
looking around the restaurant, and I said, ``Yes, this really 
is.'' Mable was talking about how really good it was for her 
because she said to us, ``You know what's really good about 
this?'' And we said, ``No,'' thinking it was her tips. She 
said, ``This is the first year I have never had to borrow money 
to pay my gas bill in order to get through the winter.''
    What Mable didn't know was that the reason she was able to 
do that was because a surface system was starting to be in 
place to bring people to her region of the country. But without 
the proper reauthorization of ISTEA funds, Mable may have to go 
back and borrow her gas or heating bill money for this winter.
    Chairman Senator Bond, Senator Chafee, thank you very much 
for being attentive listeners.
    Senator Bond. Thank you very much, gentlemen. You all have 
recognized the many interests that come together in 
transportation discussions. This truly is, as Senator Chafee 
has pointed out, a broad-based transportation bill. And a 
number of questions. I am just going to ask one or two.
    Dick, you have talked about the success of MetroLink. How 
many people use--this is really--this is one of the best light-
rail transportation systems. It's working better in St. Louis 
than anyplace else. How many people use it? What percentage of 
cars come off the road as a result of the MetroLink service in 
St. Louis?
    Mr. Fleming. Senator, just off the top of my head, I 
believe the daily ridership number of the first 18-mile segment 
of the system is approaching 40,000 riders. It has surpassed 
now Portland which is one of the finest systems in the country 
and San Diego. I am not sure of the specific number in terms of 
percentage coming off the road. I would be able to certainly 
get that statistic and provide it for you for the record, but 
suffice it to say, the MetroLink system has been very, very 
well received by the riding public.
    Senator Bond. John, what's the--actually we have--I should 
ask about the bus system in Kansas City as well. What 
percentage of transportation is by bus as opposed to car in 
Kansas City?
    Mr. Wagner. Senator, I don't have that information with me, 
but I would be happy to have staff provide that to your staff.
    Senator Bond. Because this is one of the things that we 
need to find out is how much we are relieving the pressure on 
the highways. On CMAQ, I think that both of you know that this 
congestion mitigation is important. What are your views from 
the St. Louis and Kansas City perspective on whether this 
should be a larger portion? Do you need--does that money need 
to be designated by Congress, or is this something that can be 
done through flexibility with the State level?
    Mr. Fleming. Senator, just starting out, I guess two 
comments I would have from our experience in St. Louis. One is, 
as Chairman Boland can certainly attest, one of the great 
frustrations of CMAQ in the past as a donor State is the fact 
that any expenditure of CMAQ money was netted down against our 
overall allocation of resources. So, in fact, it was 
diminishing our cities' and our region's capacity to provide 
direct impact.
    I think overall, while we certainly support the objectives 
of the CMAQ program in terms of the resources, we would prefer 
to have full funding in terms of the Step 21 kind of initiative 
that you and Senator Warner have discussed and the flexibility 
within the State and within the regions, particularly if we are 
able to build in the private sector in a more systematic way to 
have that local flexibility and perhaps would not have to have 
as much of a designated fund.
    Mr. Wagner. And Kansas City does not receive CMAQ funds 
because we are a non-containment area.
    Senator Bond. The BMO zone will take care of that, if 
that's the problem.
    Peter, your transportation needs, just briefly, can you 
tell us about some of the things that you are doing with the--
if you have not been to Branson, it's a wonderful `` place, but 
how they handle 5.8 million visitors is----
    Senator Chafee. I thought I missed a chapter there.
    Mr. Herschend. You didn't.
    Senator Chafee. The population of Branson is something like 
6----
    Mr. Herschend. 4,000.
    Senator Chafee. Let me look that up again. Population 
4,725, and 5.8 million guests came in 1 year.
    Mr. Herschend. We are crowded.
    Senator Chafee. I guess so. What are they there for?
    Mr. Herschend. You have never seen a town of 4,700 people 
with 5 million visitors.
    Senator Chafee. There must be tremendous attractions.
    Mr. Herschend. Well, there are a few attractions, yes. It's 
a travel--it's a rural travel destination. We are easily the 
entertainment hub of mid America. There are presently in 
Branson 52,000 theater seats. Those are first class. That's 
more than Broadway, to give you some kind of a comparison. 
There are roughly 32,000 hotel rooms. There are roughly 25,000 
restaurant seats. There are major attractions. Our company 
hosts at our principal park 2 million visitors a year there in 
the greater Branson area. Not inside the city limits.
    It is the live show capital--these sound the like Chamber 
of Commerce talks, but there are live shows with principal 
stars. A good friend of yours, Andy Williams, lives in Branson, 
as do several other entertainers.
    So, there's a lot of recreation. It is absolutely 
dependent--the point of this hearing is absolutely dependent 
upon adequate surface transportation, and for more than a few 
years, that adequate surface transportation didn't exist. They 
are working on it now, but it's been very tough treading, sir.
    Senator Chafee. You give my regards to Mable, will you?
    Mr. Herschend. I will do it.
    Senator Chafee. Let me just explain, if I might, the 
origins of ISTEA in 1991, and the donor/donee situation. Many 
people might say, we put in X amount of dollars into the 
Highway Trust Fund. We ought to get it back. But the--and maybe 
the formula should be a better one that than we have, but the 
rationale was that this was a national highway transportation 
system, and just like many states use substantial funds for 
flood control, for example, or for irrigation, and other states 
have no demand on flood control moneys or no demand for 
irrigation funds, such as my state, for example. And yet we 
believe it's in the national interest that there be these 
irrigation projects. So, whether there be flood control, levies 
built and maintained by the Corps of Engineers and so forth.
    And that's the same philosophy that we took in connection 
with the National Highway System. And not just that we did it 
in connection with the 45,000 miles of the interstate highway 
system but for the other roads likewise.
    And, so, we try to make it as fair as possible but it's not 
going to come out that every State that puts in a dollar is 
going to get a dollar back. If so, don't bother sending--don't 
have a Highway Trust Fund. Just keep it at home. And, indeed, 
there is some who is suggesting forget the whole business. All 
you are doing is sending money to Washington and then having 
them skim for highways and so forth and then it comes back. Let 
us just keep everything that we--let's keep all our own money 
here.
    But what kind of a country would that make? And it's our 
strong belief that whether a better formula can be developed on 
miles traveled or vehicle--or mileage in highways or population 
or number of dollars paid into taxes through gasoline, all of 
these variable factors that can go into some kind of a formula. 
But I strongly believe, and indeed, the committee has, that we 
are a nation. And just like Rhode Island money goes into flood 
control, and that's fine. I am not opposed to that. I don't 
want to see these floods run rampant and the Missouri and the 
Mississippi have that occur and we want to do everything we can 
to prevent it. So, also, we want to have good highways all 
over, so that if I want to drive to Branson, I can, and I can 
get across Indiana and all the states to get there.
    So, that's the philosophy. We are not going to have a 
formula that results in everybody getting back everything they 
put in.
    On the CMAQ, you might say, what is all this about, 
congestion mitigation. It deals with those states who are non-
compliant, and the philosophy is that these trucks and these 
automobiles are spewing forth pollutants that contribute to the 
non-compliance. And, so, there's money put in there to try and 
get--assist these states to get into compliance. So, there's a 
rationale behind these.
    So, I did want to use this opportunity to explain why we 
have the situation that we have here. Mr. Clarkson?
    Mr. Clarkson. Senator Chafee, I would like to express our--
and our industry is in agreement with you. We feel that the 
more or less vulcanization of our highway systems by sending 
all Federal control back and dollars back to the states would 
lead not possibly as quickly or as dramatically as it would as 
if we retired the Federal Aviation Administration and the 
airways. Now, that one sounds preposterous, but if you really 
think about it long term, to vulcanize by 50 the State highway 
system ultimately would lead to even more chaos because there's 
so many more vehicle miles and passengers that use the roads, 
and it would be a tremendous mess.
    The other thing I would like to respond to on the mass 
transit issue, and maybe Kansas City is of a little bit nature 
than St. Louis although I believe there's some similarities, in 
Kansas City ridership on what mass transit we have, basically 
buses, is fleeting. Every time anybody can afford a car, they 
are out of the buses and the ridership is decreasing. And it's 
really an economic issue.
    There is not really a mitigation of demand for highway 
lanes because of that, and we really don't feel that at least 
west of the Potomac, in most instances in the United States, 
the choice has been made, transportation for business and 
people's transportation, they have made their choice. They want 
individual flexible mobility, and there may be some economic 
reasons why some people have to ride buses, at least in Kansas 
City, but really it's more of a social issue than one that is 
ever going to really appreciate the decrease of demand for road 
lanes.
    Senator Chafee. I think obviously that's a subject that can 
be debated. The point is that in many communities--and I am not 
familiar here--that the transportation systems are so fragile 
that a slight decrease in revenues means they cut routes, they 
cut service. And, thus, the passenger load decreases, and so 
they cut more services trying to stay afloat.
    But I think what we have to think about and why we call 
this--as I mentioned in the press conference--why we call this 
a transportation bill is that we are concerned with the 
movement of goods and people from point A to points B or C or D 
or wherever it is. And the number of vehicle miles traveled in 
the United States is dramatically increasing. After all, we 
have got a bigger population than we had 25 years ago, and it's 
constantly growing.
    So, the question is, are we just going to--as the roads get 
crowded, are we just going to build wider and wider and wider 
and wider roads, we going to pave the country, or are we going 
to try and move people--have available methods of moving people 
in other fashions in an economical manner, and then, of course, 
you go into things like the funding for Amtrak. And we believe, 
at least I believe strongly, that it's proper to fund Amtrak 
out of this--out of the Highway Trust Fund moneys so that we 
can hopefully get ridership up as it is in congested areas in 
Europe, for example, and reduce the demand on the Highway Trust 
Fund to build wider and wider roads and more of them.
    So, that's the philosophy behind--that's why we call it, 
once again, a transportation bill.
    Mr. Fleming. Senator Chafee, if I could just parallel Don's 
comments on the transit issue. Certainly, we recognize the 
importance of a multi-modal approach. I would say that the 
experience in St. Louis is that transit--MetroLink, in terms of 
a quality system and its location, has become a system of 
choice by some riders. It's not simply a last resort.
    But that said, and in addition to the fact that the 
citizens of the region voted overwhelmingly to support local 
funding to extend it, even when you look at some of the most 
sophisticated transit systems in the country on the Southern 
Governors' Association panel we had with representatives from 
Atlanta, the MARTA system, which is very well-developed, 
fulfills a very important function in Atlanta's system. It's 
less than 5 percent of the travel.
    So, even if we are successful in doing multi-modal 
approaches and having MetroLink and we think it's a vital part 
of our transportation, we clearly need the resources to both 
maintain and expands upon our other surface transportation 
needs in terms of highways and roads.
    Senator Chafee. There is no argument there. But I just 
wanted to explain why some of this money, for example, has been 
used for buses and Amtrak, and I don't know whether your system 
in Missouri gets anything out of this.
    Mr. Clarkson. Maybe, Senator, that is the explanation for 
the wisdom in your bill to leave it up to individual states to 
determine how they spend their money, because I believe whether 
you call it western migration or the people trying to leave 
Europe and there's people trying to leave other places because 
of freedom and mobility is constricted, and I really think if 
you look at the desires of people, at least in most the 
country, it's not to use mass transit. It's to use individual 
transportation, if you go back to do a comparison.
    Senator Chafee. I think you are right.
    Senator Bond. And I would just say in conclusion, that 
while we think that mass transit and if Amtrak--and if we keep 
Amtrak around, it will be an option, but Amtrak is not going to 
decrease the need for roads. The availability of Amtrak, even 
MetroLink, does not appreciably affect enough riders so that it 
changes our needs. And that's why I would like to work with you 
on some other way of finding money for Amtrak. I would say that 
I have a minimum amount of high enthusiasm for taking Amtrak 
funds out of existing Highway Trust Fund dollars. I know how 
important Amtrak is on the eastern corridor, and we recognize 
there's a national interest in it, but this--if there is 
anybody in this crowd who would like to see Amtrak dollars come 
out of the Highway Trust Fund, would you please hold up your 
hand? There's one, two, three. Mr. Dreyfuss, you work for the 
State, or you lobby for Kansas City?
    Mr. Dreyfuss. No. I work for a private business.
    Senator Bond. A private business. This lady is from 
Sedalia?
    Audience Member. Saline County, Missouri.
    Senator Bond. The Marshall area. Would like Amtrak. And you 
are from----
    Audience Member. Blue Springs.
    Senator Bond. And you happen to do a little railroad 
business?
    Audience Member. I have a little selfish interest.
    Senator Bond. Harmon Industries. OK. But that's--that's 
about--I would say that's representative of the views of 
Missourians on that. I think that's about fair. Do you have any 
further questions?
    Thank you all very much. It's very helpful to have the 
testimony, and we appreciate your time, and now we are going to 
move into another area that is of great interest, and that is 
the intermodalism. Mr. Gary Evans, executive vice president and 
CEO of Farmland Industries and chairman of the Heartland 
Freight Coalition, Mr. Malcolm McCance is the existing building 
manager for St. Louis Chamber of Commerce, and Brian Mills, 
Cass County Commissioner for the Northern District, co-chair of 
the Mid-America Council, Total Transportation Policy Committee.
    Again, thank you, and my apology, gentlemen. We are taking 
a little longer than we expected to get to you, but we are 
delighted to have you here.
    Mr. Evans?

  STATEMENT OF GARY EVANS, EXECUTIVE VICE PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, FARMLAND INDUSTRIES, AND CHAIRMAN, HEARTLAND 
                       FREIGHT COALITION

    Mr. Evans. Good afternoon, and I thank you for this 
opportunity to comment concerning America's transportation 
legislation. I am speaking to you as the chairman of the 
Greater Kansas City Chamber of Commerce, Heartland Freight 
Coalition.
    The Freight Coalition was formed in 1995 to implement 
Kansas City's Intermodal Freight Strategies Study. My remarks 
today are focused on the intermodal aspects of transportation 
policy.
    Now, we define intermodal as moving freight between two 
points by a combination of two or more methods of 
transportation. Although Kansas City has a vested interest in 
air cargo and keeping the Missouri River viable for navigation, 
I want to focus the majority of my comments on freight 
activity, truck to rail and rail to truck. As the No. 2 rail 
center in America with nearly 700 trucking firms, we think that 
Kansas City knows intermodal.
    We believe ISTEA has done little to improve the nation's 
intermodal freight infrastructure. In Kansas City, which 
appears to be ideally positioned to benefit from a national 
focus on intermodalism, no major examples exists of this 
Federal policy having any impact other than consuming thousands 
of dollars as our local metropolitan planning organization 
struggles to comply with the bureaucracy mandated by this act. 
A lot of time and money were spent studying things, but a lot 
of things haven't been done.
    We do not, however, believe the current act needs sweeping 
changes. Rather, like Kansas City's own transportation 
infrastructure, it needs to be improved to work more 
efficiently with some new additions and proper funding.
    First, the act needs to preserve the role of the 
Metropolitan Planning Organizations in the transportation 
planning process. It is through the MPOs that community dialog 
and consensus building on transportation priorities may be 
achieved. Also, since State Departments of Transportation often 
have an overriding commitment to highways, the MPOs may be best 
able to objectively consider the intermodal needs of the 
freight community and how they interact with other priorities 
such as air quality and brownfields mitigation.
    Second, the act needs to focus on completion of our 
nation's freight infrastructure. While this mainly relates to 
the National Highway System priorities, it's critical to 
railroads. The National Highway System contains a category for 
intermodal connectors to better facilitate the movement of 
goods between modes, ensuring those goods move by the most 
efficient manner. And there are several of those in Kansas City 
that must be funded.
    A national freight infrastructure should also improve 
safety and improve timeliness. An effective means of doing this 
is elimination of at-grade rail crossings, especially in the 
rural areas. This would save hundreds of lives reduce product 
loss, reduce environmental risk from spill and make the 
nation's freight system work better.
    A national freight infrastructure should also seek to 
optimize existing transportation resources rather than 
encouraging new facilities. In this age of technological 
sophistication and global competition, it is in the nation's 
interest to promote development in the use of inland ports such 
as Kansas City to complement traditional ports and border 
crossings. An intermodal approach to moving goods makes it 
possible to reduce highway congestion, especially in urban 
areas near crossing borders and deep-water ports, by getting 
goods bound for cross-country destinations off the roads. The 
positive impact on highways and the environment of goods moving 
by various modes deserves more study and attention, as does the 
development of innovative, inland solutions to congested 
traditional ports.
    Along the same line, a national freight infrastructure 
should account for other areas of public policy, especially in 
the arena of trade. Kansas City's business community supported 
NAFTA and most other trade agreements. We have been working to 
secure designation of a new category in ISTEA for International 
Trade Corridors. While generally landmarked by I-35 and I-29, 
we seek a technological intermodal and trade-oriented corridor 
that uses all the nation's freight assets along the broad 
corridor. We urge Congress not to limit the development of such 
corridors to highway improvements, but to encourage the 
development of truly intermodal corridors to account for 
congestion, space, time and profitability.
    Finally, it is a significant oversight that air maintenance 
areas, such as Kansas City, are not eligible for congestion 
mitigation or air quality category funds to allow them to 
remain in attainment. Having such funds provides individual 
regions the ability to think outside the box and address other 
transportation issues. A region like Kansas City that does 
everything to support and to meet with the spirit of the Clean 
Air Act Amendments and ISTEA should not be penalized for 
success. It should be rewarded and encouraged toward continuous 
improvement.
    I want to thank you for this opportunity to discuss some of 
the priorities this year. We look forward to working with you, 
especially Senator Bond, to achieve a bill that will be good 
for the nation's shippers and carriers, but more importantly, 
good for consumers and consumers' bottom line. Thank you.
    Senator Bond. Thank you very much, Mr. Evans.
    And now, Mr. McCance.

 STATEMENT OF MALCOMB MC CANCE, EXISTING BUILDING MANAGER, ST. 
        JOSEPH CHAMBER OF COMMERCE, ST. JOSEPH, MISSOURI

    Mr. McCance. Senators, thank you for the opportunity to 
discuss Missouri's River Navigation Industry and its impacts on 
the State of Missouri. My name is Malcolm McCance. I am an 
economic developer for the St. Joseph area Chamber of Commerce. 
The point I would like to make with you today is that river 
navigation is very important to the economic health of the St. 
Joseph area as well as the State of Missouri.
    Missouri lies dead center of the U.S. inland waterway 
system. Our State has over 1,000 miles of navigable waterways 
that move about 30 million tons of bulk commodities annually. 
According to studies conducted by Price Waterhouse and Mercer 
Management Consultants, the value of this cargo is almost $4 
billion. This is a huge industry for our State directly 
affecting 30,000 jobs and indirectly supporting over 250,000 
jobs and industries that are dependent on waterway 
transportation.
    One of the industries benefiting most from waterway 
transportation is agriculture. Access to navigable waters 
benefits Missouri's agriculture through more competitive 
transportation rates, expanded transportation capacity, higher 
farm-level commodity prices and lower input costs.
    More than 30 percent of Missouri's total farm marketings 
are destined for export. Generally speaking, the cheapest way 
to get these commodities into world markets is by waterways.
    Farm inputs like fertilizers and chemicals are transported 
to Missouri farms via waterways. This is because farm inputs 
are generally shipped more expensively by barge than any other 
transportation mode. The bottom line is that the waterway 
transportation serves to keep the costs of the foods we eat 
low.
    Unfortunately, the Corps of Engineers doesn't manage the 
Missouri River the way its Master Manual tells it to. When the 
Corps deviates from its own management document, it does so to 
the detriment of industries dependent waterway transportation. 
Over the last 9 years, the Corps has adjusted Missouri River 
water flows outside of its master plan, thereby shortening the 
navigation season. It has deviated from its own Master Manual 
for the purpose of increasing upstream recreation benefits.
    Adjustments to the navigation season cause businesses to 
re-think their commitments to river transportation, investments 
in processing plants and transportation facilities. This is a 
nightmare, not only for businesses, but for communities trying 
to increase jobs and investment. It's hard to understand how 
Congress can allow the Corps of Engineers to subordinate 
navigation and industrial development in favor of recreation.
    Job creation and economic development in Missouri cannot be 
held hostage to upstream recreational interests.
    We appreciate Senator Bond's continual and unwavering 
support of the barge industry here in Missouri.
    The St. Joseph community to moving forward with the 
planning and development of a regional intermodal 
transportation facility that includes a 19-acre public 
riverport and the development of 200 acres of adjacent 
industrial land. Intermodal shipping, a technology combining 
the efficiencies of railroad, trucking and steamship 
industries, is an attractive activity for a number of reasons. 
It provides an alternative to relying on the highway system for 
goods movement. It can take some trucks off the highway, 
thereby relieving congestion and road wear. It's energy 
efficient, offers air quality benefits by reducing truck 
traffic, and intermodal ensures competitive shipping 
capabilities at competitive costs to existing and new 
industries. All of these advantages add up to job growth and 
job growth is what we all desire.
    The site selected for the intermodal transportation 
facility in St. Joe is encircled by and connected to Class 1 
railroads serving all parts of North America. The site has 
direct access to U.S. Interstates 29 and 229 and is within 
minutes of Rosecrans And Kansas City International Airport. The 
area is bordered to the west by the Missouri River. It is in a 
flood plain and is levy protected. The intermodal facility will 
join 32 existing enterprises in the area. These surrounding 
businesses employ 3,300 workers and make up the core of St. 
Joseph's industrial base. Most of these businesses are engaged 
in food processing, chemical and agribusiness. Flood plain 
development and river navigation is very important to St. 
Joseph. Over 9,500 jobs or 17 percent of our work force are 
directly or indirectly employed in industries dependent on 
water transportation. St. Joseph has over $1 billion in 
industrial assets located in levy protected area. Obviously, 
flood protection is vital to the economic health of St. Joseph.
    In conclusion, I ask the committee to recognize the vital 
economic role of the waterways in industrial development, job 
creation, and the need to integrate waterways into a plan 
linking road and railway transportation.
    Thank you.
    Senator Bond. Thank you very much, Mr. McCance.
    And now we turn to Mr. Mills.

   STATEMENT OF HON. BRIAN MILLS, CASS COUNTY COMMISSIONER, 
 NORTHERN DISTRICT, AND CO-CHAIR, MID-AMERICA REGIONAL COUNCIL 
             TOTAL TRANSPORTATION POLICY COMMITTEE

    Mr. Mills. Thank you. Good afternoon. My name is Brian 
Mills, and I am a County Commissioner from Cass County, 
Missouri. I currently serve on the Board of Directors for the 
Mid-America Regional Council known as MARC, and I am the 
Missouri co-chair of its Total Transportation Policy Committee. 
I am here today representing MARC and on behalf of the 
organization and the local governments we represent. I would 
like to welcome you all to Kansas City and to thank you for 
this opportunity to provide input to you on ISTEA, the ways it 
has worked in our region and the things we think Congress 
should be considering as it moves toward reauthorization of 
this landmark legislation.
    MARC is an association of local governments for the bi-
State Kansas City metropolitan area, an area encompassing eight 
counties, 114 cities, and a population of about 1.6 million. As 
a designated metropolitan planning organization for this 
region, MARC has worked closely with the State and local 
governments, transit operators, private sector businesses and 
the general public to forge a transportation plan for the 
region and the target transportation investments in ways that 
foster important community goals and objectives.
    ISTEA empowered organizations like MARC to become key 
participants in the transportation decisionmaking process while 
promoting effective partnerships with other levels of 
government and maintaining effective public involvement. We 
have also been active in building with the private sector in 
our process, particularly in the area of intermodal freight. 
Three years ago MARC undertook an extensive study of freight 
transportation in cooperation with the Greater Kansas City 
Chamber of Commerce. This landmark study resulted in the 
creation of the Heartland Freight Coalition, and now MARC also 
has a standing Goods Movement Committee to provide broad-based 
input on freight transportation needs.
    In the true spirit of intermodalism, we have currently as 
of the first of the year restructured many of our 
transportation committees to provide not only with the freight 
community, other business and private sectors as air community, 
bike and pedestrian as well as the highway users.
    In short, we believe that ISTEA has been a success, and 
that its basic principles and features should be continued. 
Over the past several months MARC has worked closely with our 
sister agency in St. Louis, the East-West Gateway Coordinating 
Council and the Missouri Department of Transportation to forge 
a unified position on ISTEA reauthorization. A policy statement 
has been developed and approved by all of these participants. 
Although additional changes and refinements are still being 
discussed, we hope to secure endorsements of the policy 
statement by other interested groups so that Missouri can truly 
speak with one voice as the dialog on reauthorization proceeds.
    A similar effort is now under way in Kansas, and we 
anticipate that a consensus policy statement will emerge within 
the next few weeks from that process as well.
    We have also presented our Missouri consensus position to 
our national organization AMPO, the Association of Metropolitan 
Planning Organizations, as well as our Governor, Governor 
Carnahan, has presented his position to the National Governors' 
Association, and both of those organizations received the 
position very warmly.
    The Missouri policy statement contains ten specific points, 
several of which I would like to highlight for you. Firstly, we 
believe there continues to be a compelling national interest in 
making sure that the nation's transportation infrastructure 
performs effectively including, both metropolitan and 
interregional systems.
    Second, we believe that the new apportionment formulas 
should be developed for the long term to better reflect the 
national interest. Minimum returns to states based upon their 
contributions to the national trust funds should be a long-term 
consideration but not a dominant factor in the allocation of 
funds. During this transition to a new set of formulas, we do 
support a short-term formula that sets aside funds for 
interstate restoration and bridge replacement and repair, and 
that guarantees states a minimum return of 95 percent of the 
relative amount contributed to the Highway Trust Fund.
    The policy recommends that the extension of ISTEA requires 
state, in consultation with metropolitan planning organizations 
like MARC, to develop a method for allocating all Federal funds 
within each state. This will allow metropolitan areas to make 
more accurate projections of the available funds and develop 
more realistic regional plans and programs. This process truly 
brings decisionmaking to the level closest to the citizens and 
the users of our systems.
    The policy also supports continuation of the basic program 
structure of ISTEA, and we believe that the reauthorization of 
ISTEA should maintain the act's focus on intermodalism and on 
the cooperative decisionmaking process among states and local 
communities working under the auspices of metropolitan planning 
organizations. We also believe that the state-wide planning 
requirements of ISTEA, which incorporate the outcomes of 
metropolitan plans and programs should be retained.
    Air quality is an issue of considerable importance in this 
region. As a maintenance area threatened with future violations 
of Federal air quality standards, the Kansas City metropolitan 
area has been working diligently to enact measures to preserve 
our clean air status. Yet because we are designated as a 
maintenance area, just prior to the enactment of ISTEA, we 
received no CMAQ funds on the Missouri side and only a minimum 
allocation on the Kansas side.
    Newly designated maintenance areas were allowed to retain 
their CMAQ funds as a result of language included in the 
National Highway System Designation Act. This change did not, 
however, benefit the Kansas City region. We believe that the 
CMAQ program should be revised to provide funding to all 
maintenance areas so that flexible funding is available to 
support our continuing emissions reduction efforts.
    Similarly, the policy supports continuation of funding for 
Transportation Enhancements. However, we strongly believe that 
these programs should reflect and clearly benefit 
transportation systems and users.
    Finally, I would emphasize that the policy supports taking 
the national highway and transit trust funds off-budget, the 
transfer of 4.3 cents used for deficit reduction back to the 
Highway Trust Fund and setting the authorization levels to 
spend down excess fund reserves. We recognize, however, that 
these decisions must be made in the context of overall 
strategies to reduce the Federal deficit. As a first step 
toward this, the MARC Board of Directors has gone on record in 
support of the proposed Highway Trust Fund Integrity Act of 
1997 co-sponsored by Senator Bond and Senator Chafee. Several 
local governments in this region are currently considering 
resolutions in support of this legislation. And I have brought 
five or six of those with me today and several will be 
forthcoming.
    We are proud to have played a role in forging this 
consensus position and hope it's helpful to you in this arduous 
task of reconciling the many competing interests involved with 
reauthorization. If we can be of any assistance to you in this 
process, we would be happy to do that, happy to answer any 
questions.
    Senator Bond. Thank you very much, Brian. You had me a 
little nervous there, all the things that you wanted, but I do 
appreciate very much your endorsement of the Highway Trust Fund 
Integrity Act because there are many competing interests. We 
hope this is a doable, reasonable compromise, and you certainly 
have been in the forefront. Several of the things that Mr. 
Evans said about intermodalism really concerned me. We keep 
thinking this is the way to go. But, Mr. Evans, what went 
wrong? Has it been cured? What is the problem? You are 
referring to----
    Mr. Evans. Well, I think it's the application as far as 
applying for some of the money for----
    Senator Bond. Is it the Washington bureaucracy, the MPO 
bureaucracy?
    Mr. Evans. I think the application of applying for this 
requires something like 18 different studies or 18 different 
reports or studies that have to be complied with, some of the 
more critical ones being the--of course, you have to have a 
transportation plan in place, and then you have to do 
environmental impact studies, the feasibility studies. I mean, 
certainly those are very critical ones and those are the ones 
that should be looked at, but there are many others that go 
along with it that requires time, a lot of people's time, and 
it takes a lot of people's time, and we found that a lot of 
times it appears that the interest goes down as we get into 
more and more of those studies as we are working toward those 
Federal funds.
    Senator Bond. We would like to work with you and find out 
if we are overthinking the thing and overstudying it and not 
achieving the goal. This is a concern. Mr. McCance, Mr. Mills, 
you want to comment on that? Have you seen those problems?
    Mr. Mills. It's true. As you deal with the private sector, 
some of the planning processes and some of the extra things 
that we have to go through seem to be burdensome. On one hand, 
though, we don't want to throw out the baby with the bath water 
because just recently on a few major investment studies that we 
have performed here in the Kansas City region, we have been 
able to come up with a greater utilization of our shrinking 
Federal highway dollars to solve problems that maybe in the 
past would not have been thought through and would have took 
care of a short-term need instead of a long-term need.
    One of the things we have recently done at MARC, and it is 
so new, is by having our goods movement committee and now all 
of our TIP programs will actually have a goods movement 
committee have input on how those projects affect goods 
movement and also have the ability to submit freight projects 
through the TIP process through the highway committee. So, 
hopefully we will have a better coordination with the private 
sector and the regulations that we have to follow now.
    Senator Bond. Do you think there's still too many reports 
committees? Could this thing be streamlined? How can we make a 
work better?
    Mr. Mills. It could easily be streamlined, especially on 
the environmental side of it. There's duplication in the NEPA 
process and the MIS process, extreme duplication, and also the 
shelf-life. I am in the process of a study affecting my own 
county right now, and we are wanting to maybe go forward with a 
full environmental assessment but we know it's going to be 5, 
6, 7 years before the project can possibly be built and the 
shelf-life of the document is only good for 3 years. So, why 
spend hundreds of thousands of dollars to complete a document 
that the Federal Government is only going to allow us to 
maintain for 3 years? There is a lot of problems there.
    Senator Bond. That's something for us to ponder.
    Senator Chafee?
    Senator Chafee. Thank you, Senator.
    I was interested, Mr. Mills, in the point, and others made 
this. Maybe--I am not sure who, maybe it's Mr. Evans--about not 
getting the CMAQ funds because you were in the maintenance 
status, and it just seems unfair. If you had still been in 
violation, if you had still been non-compliance and gotten off 
later, you would still be entitled to funds--you would be 
entitled to funds, right?
    Mr. Mills. Right. I am thrilled that you recognize that 
because we have been having a tremendous time trying to have 
the administration understand that. I mean, so many people 
think that the problem was solved with the NHS bill, and it was 
solved for a lot of people, but we were the largest clean air 
metropolitan city in the country, and at one time, that was a 
great honor. Now, it's a great honor with a big price tag 
because we are, in a sense, being penalized for that at this 
time.
    Senator Chafee. I am not saying we can fix it up absence 
doing something on the new bill, but it certainly gives us--we 
better remember this when we do the new bill.
    Senator Bond. We will be discussing that with you and your 
staff, Mr. Chairman. We will be there.
    Senator Chafee. Well, I thought you might be.
    Senator Bond. We will help. I will make a note of that.
    Senator Chafee. Come via Amtrak, will you?
    Senator Bond. If they don't cut out all of the service. We 
are down to--they cut us back very badly.
    Senator Chafee. And I think that was one of the things we 
were pointing out earlier, as far as ridership. OK. I was 
interested, Mr. Evans, in what you had to say about the MPOs. 
You had some problems but then you came to the conclusion that 
the role of the MPO should be preserved.
    Mr. Evans. Well, I think it's referring back to my earlier 
comments about the--and what Mr. Mills spoke of as far as the 
MPOs putting together the impact studies that had to be 
conducted for the funds that we were seeking and the thousands 
of hours that these people were spending on these types of 
projects. But, yet, at the same time with we think as far as 
setting priorities for funds and fund use that the MPOs can 
certainly bring balance to that as far as the individuals 
working on that, bring balance to the fund utilization making 
sure that it's spent wisely and in very strategic locations.
    Senator Chafee. Thank you. Thank you all very much. Thank 
you.
    Senator Bond. Thank you, and we very much appreciate your 
testimony.
    And now we are very pleased to have Mr. John Lieber who is 
the Deputy Assistant Secretary for Transportation Policy in the 
Office of the Secretary who is going to join us.
    Mr. Lieber, we received your full statement, and we will 
make that a part of the record, and we will study that. We 
would appreciate if you could keep your comments to about 5 
minutes, please. We apologize for taking so long. We found a 
lot of interest in the other panels, but we very much 
appreciate your being here and are grateful to you.

   STATEMENT OF JOHN LIEBER, DEPUTY ASSISTANT SECRETARY FOR 
 TRANSPORTATION POLICY, OFFICE OF THE SECRETARY, DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Lieber. Thank you for having me. And I found it very 
useful to be present and to hear the testimony from so many 
different important players in this part of the world.
    Mr. Chairman, Senator Chairman Chafee, I am appearing today 
by several of the senior senate highway administration 
officials in this part of the country, the Regional 
Administrator of Federal Highways, David Gieger, who is the 
Division Administrator of Kansas and Jerry Riesen, who is the 
Missouri Division Administrator. We wanted them to be here to 
listen and to learn as well.
    Mr. Chairman, I appreciate the opportunity to come to the 
Midwest to talk about the ISTEA reauthorization. As everyone 
has spoken of today, by virtue of this region's position at the 
crossroads of the country, it has had historically a special 
role in the development of our economy and of our 
transportation system.
    Secretary Slater's stated priorities are infrastructure 
investment in safety and common sense and all of our activities 
closely mirror the issues that you have addressed at this 
hearing today. And in each area we believe the $175 billion 
NEXTEA reauthorization proposal that was announced on March 12 
by the President and by Secretary Slater has a great deal to 
offer.
    First let me turn to safety. For Secretary Slater and the 
entire Department of Transportation, safety is and always will 
be No. 1. Our NEXTEA proposal includes a variety of programs to 
improve roadways in rural as well as urban areas. Overall, it 
increases safety funding by a total of about $2 billion over 
the life of NEXTEA, over ISTEA levels. We are proposing to 
create, in addition, a new program to help states get up their 
safety belt usage and also to increase funds available for 
programs reduce drunk and drugged driving. And obviously, we 
also want to continue and increase funding to eliminate 
physical road hazards such as those you have heard so much 
about earlier today.
    Second, economic development. People in this area are well 
aware of how vital the efficiency and reliability of our 
transportation system, and especially freight transportation, 
is to our economic well-being. That's especially true as more 
and more manufacturers rely on just-in-time delivery systems 
and as exporters depend on lower transportation costs to give 
them a competitive advantage overseas.
    NEXTEA recognizes the important of continuing the increased 
infrastructure investment even as we press to achieve a 
balanced budget. Under the President's proposal, funding 
authorizations would increase by 11 percent over ISTEA levels. 
We are highly programmed to increase by nearly 40 percent. I 
know that you, Senator Chafee and Senator Bond, have put forth 
a significant proposal aimed at increasing the resources 
available for infrastructure investment, and we at DOT look 
forward to working with you as appropriate as the discussion 
goes forward.
    NEXTEA also would help to grow our economy by 
disassociating increased trade we are seeing from NAFTA and 
other trade agreements in addition to dedicating more money for 
core highway programs. NEXTEA includes new tools to improve 
border crossings and to develop major north-south trade 
corridors within the U.S.
    NEXTEA also would have a direct impact on business 
transportation by making a variety of freight facilities, 
intermodal terminals and rail access to waterports, for 
example, fully eligible I believe for Federal aid.
    All of this will help to cut cost and improve our 
transportation systems efficiently, which is good for business, 
good for people, and key for economic development.
    With respect to intermodalism, each of us attaches a 
different meaning to the phrase ``intermodalism.'' But at the 
bottom, intermodalism is really about two things; improving 
connections and increasing choices for transportation 
efficiently. ISTEA permitted the use of NHS dollars to fund 
highway connections to key intermodal facilities, and we have 
some very significant ones in this state. NEXTEA goes one step 
further by allowing investment in the intermodal terminals 
themselves where the connections actually take place as part of 
the NHS program.
    Kansas City, Missouri, and you have just heard a fair 
amount about this, has been a national leader in freight 
intermodalism. The Mid-America Regional Council, MARC, 
developed a strategic plan on how to enhance KC's role as one 
of the major rail intermodal hubs in the country. We hope and 
expect that NEXTEA would help to support the network to achieve 
highway and rail connections as well as specific intermodal 
projects that were identified in that effort.
    Intermodalism is also got choice. NEXTEA would provide 
State and local governments with expanded flexibility to target 
Federal funds to the specific investments that work best for 
them, whether they are for highways, transit, freight 
intermodal, rural intelligent transportation system 
applications, intercity bus or Amtrak, the latter two being key 
lifelines for rural America. We need not tell Missouri, Rhode 
Island, or any State what the most important factor is in any 
given situation. We need to expand, not reduce the manual 
transportation quota that's available to the State and local 
governments.
    Missouri has also been a leader in developing intermodal 
planning processes ISTEA envisioned as the mechanism for this 
type of informed decisionmaking. The East-West Gateway 
Coordinating Council in St. Louis and the Mid-America Regional 
Council here have become models of innovative, multimodal and 
inclusive regional planning. Together with the State 
government, they have developed a historic and half-breaking 
agreement for state's MPO cooperation and process collection. 
And we at DOT are talking about that agreement a lot around the 
country.
    In closing, let me just say, at its heart, ISTEA 
reauthorization is about more than roads and bridges. It is 
about cutting-edge jobs in commerce, it's about getting people 
to work, it's about providing and safety, it's about building 
communities for our children.
    Overall, we think NEXTEA sustains those goals and will help 
to prepare America's transportation system for the 21st 
century. Mr. Chairman, that concludes my oral statement. I am, 
of course, prepared to answer any questions you may have.
    Senator Bond. Thank you very much, Mr. Lieber. And thank 
you for your many thoughtful comments. We were very encouraged 
by your statements about the Highway Trust Fund Integrity Act. 
We look forward to working with you in the administration on 
that. We certainly appreciate the categories about the 
cooperation in the metropolitan planning agencies and the 
state. We may need to work with you on ways to cut down some of 
the duplicating or overly burdensome studies that are required. 
That's something that we will work with you--look forward to 
working with you on.
    I have a little problem when we are talking about the 
budget. You have come up with some wonderful authorizations, 
but it kind of looks to me like the project got hijacked at OMB 
because we don't have the outlays. In other words, the 
authorized level goes up, but the Office of Management and 
Budget has held the outlays, even decreased them. So, that 
means we get empty promises rather than increase. What are the 
outlay numbers in your budget proposal?
    Mr. Lieber. The numbers that I have been talking about are 
authorization numbers. I don't have the budget numbers handy. 
But the point you make is an important one. We believe that 
during NEXTEA, as during ISTEA, raising the authorization 
levels will help over time to sustain good annual appropriation 
for transportation, and we are determined to work with the 
Congress to achieve that goal.
    The other thing that we are obviously very committed to is 
a variety of strategies to help make the Federal dollar worth 
more to the State and local governments as we provide it. In 
this state, we have through the years a variety of different 
innovations, financing techniques been able to build projects 
earlier, like Watkins Drive here in Kansas City. We were able 
to do a couple of the bridges earlier, the three bridges that 
you and your colleagues here in Missouri had identified, 
through the use of innovative financing techniques in 
combination with some of that bridge discretionary money so 
that the Federal dollar becomes worth more and, therefore, 
would provide more support.
    Senator Bond. And I will say again, as I have on many 
occasions, that Secretary Slater was--or Highway Administrator 
Slater was extremely helpful in the three-bridge package, and 
that was a major boost for this State when he helped us there. 
You are talking about flexibility. I would hope that the 
administration would come around to the position where if the 
State of Rhode Island wants to use its Highway Trust Fund money 
for Amtrak because it makes sense that the State of Missouri 
could use its Highway Trust Fund money maybe to 4-lane Highway 
63 so that the Winklers' concerns could be dealt with.
    I would think that that flexibility would enable us in 
different states and different regions to decide what really is 
important. And you certainly--after you have heard the 
testimony today, I think you would have to agree with me that 
there is no way we can tell the Winklers and other families and 
lost loved ones on the highway that we should be taking money 
away from potentially those 4-lane highways for Amtrak. I think 
that would be very difficult in our state. And in Rhode Island, 
it makes a great deal of sense.
    Mr. Lieber. As you know, Senator, our proposal for the 
Surface Transportation Program which would dramatically 
increase in terms of authorization levels doesn't prove that 
flexibility for Amtrak or other uses. So, that is one approach 
we are moving along.
    If I may say it for a moment, on the subject of the 4-
laning of roads, the substantial increases in investment that 
we propose to make in the National Highway System category 
would be helpful in connection with that problem. Forty percent 
of the National Highway System road mileage is two lanes, and, 
indeed, that money at the higher levels we are talking about 
and I know you are contemplating could help to support 
expansion of those roadways where appropriate.
    We are also--and there was some dialog on this earlier--
proposing significant increases, in addition to the core 
programs that will help with road widening. In the safety set-
aside category which previously had been in the STP category, 
we are proposing to increase that to $3-1/2 billion, which is 
about a 50-percent increase over what it was under ISTEA, and 
that enables you to improve the shoulders, improve the 
intersections install guardrails, improve pavement, dramatic 
safety improvement available there.
    Senator Bond. I thank you very much for your comments, and 
I thank you very much for the promise of the budget--the 
authorization recommendations, but we are from Missouri, and 
the authorizations don't cut it when the cash doesn't come. I 
think Jerry Maguire had something about in going for the cash 
and the outlay problems meaning that we, these authorizations, 
are quite frankly, empty promises. So, we are going to have to 
work to get the outlay figures up, and that's where I hope that 
Senator Chafee and I can get this Highway Trust Fund Integrity 
Act through because that should solve that problem, which is a 
serious one under your proposal.
    Senator Chafee?
    Senator Chafee. Thank you.
    Mr. Lieber, your department is going to come up with some 
safety legislation in connection with this.
    Mr. Lieber. Yes, sir.
    Senator Chafee. And we have got some hearings coming up 
fairly soon. I am not sure exactly when. But when will you have 
that safety legislation?
    Mr. Lieber. We are mindful of the date that you have 
scheduled for the hearing and we are pushing to get it out in 
time for that.
    Senator Chafee. OK. Then you have got some studies on truck 
size and weights. Likewise, we will be hearing from you on 
that?
    Mr. Lieber. Yes. Those studies are underway. Those will not 
be completed in the same timeframe, though. That's going to be 
a little later this year.
    Senator Chafee. All right. Those are the only questions I 
had, Mr. Chairman. And thank you for coming.
    Senator Bond. Thank you again, Mr. Lieber. We will keep 
your statement as a part of the record.
    We have identified a number of areas where we are going to 
be looking forward to working with you and your department, and 
I am very pleased that you were here and able to hear from the 
cross-section of leaders around the state, and I would tell you 
that as we have found, if you need any more information from 
any of them, we will find them more than willing to share their 
views with you. They have been very generous with us, and to 
all of our witnesses we say a sincere thanks and particularly 
all of those in the crowd----
    Senator Chafee. Mr. Lieber, you heard, for instance, 
comments on the CMAQ program, and somebody who had gotten into 
maintenance but was kept from getting the funds.
    Senator Bond. Kansas City.
    Senator Chafee. That if they misbehaved more, they would be 
better off. Or maybe misbehaved isn't a proper word. If they 
hadn't complied they would be better off. So, it seems a little 
rough.
    Mr. Lieber. That's definitely a concern, sir.
    Senator Bond. Thanks to all of you for coming. We very much 
appreciate it. Senator Chafee, I am deeply indebted to you, and 
Senator Warner. This is of the highest priority in Missouri, 
and I thank you all for joining us.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
            Statement of Chrissy Winkler, Moberly, Missouri
    Mrs. Chrissy Winkler. My name is Chrissy Winkler, and I am here 
today to represent all the families who have lost loved ones on this 
dangerous 2-lane highway. I lost my husband Tracy on October 25, 1996, 
on this highway. Not only did I lose my husband but the father of my 
three children. He was on his way home when he was hit head-on by an 
out-of-state driver. I feel that he would still be here today if this 
road would have been 4-lane because there were guardrails on both sides 
of the road, and he had nowhere to go.
    Since my husband's death, my children and I have had to make many 
changes. We are learning to do the things that Tracy would have done 
for us. There's a tremendous responsibility to raise our children 
without the love and support of Tracy.
    Tracy and I had been married only 16 years on October 10, 1996. He 
was my best friend and his loss means I can no longer look forward to 
the many things we shared. For example, we shared the same birthday, 
and this year I had to celebrate that day without him. Needless to say, 
my birthday is no longer a joyous day.
    My children and I have our own special guardian angel. He is 
looking over us, and his name is Tracy. It is still very painful and 
very difficult. Now I am teaching our oldest daughter Leslie, who is 
16, to drive, and I know that 1 day she, too, will want to drive on 
Highway 63.
    Our 14-year-old son Lance used to spend his weekends with his 
father hunting and working in our car wash. Now, he no longer has the 
privilege to learn from and enjoy time with his father.
    Our youngest daughter Elizabeth is just 7 years old and will not 
have the opportunity to do the things with her father and share with 
him the special things that she does.
    Tracy will miss our children's graduations, birthdays, holidays, 
weddings, and the grandchildren that they will some day have.
    Highway 63 needs to be widened to prevent future tragedies for our 
families. The widening of this 23-mile corridor will decrease the risk 
of fatal head-on collisions. As of right now, motorists continue to 
pass on the road's shoulder, over hillsides and at bridges.
    Safety is a goal all of us must work together to achieve through 
better highway improvements such as making Highway 63 four lanes.
    I want to see something good come out of the tragic loss of my 
husband and the father of my three children. No one should have to go 
through what I am going through.
    So, will you please help us get Highway 63 4-lane before the year 
2003? Thank you.
                               __________
            Statement of Carolyn Winkler, Moberly, Missouri
    Mr. Chairman, Members of the Committee, I am so grateful for the 
opportunity to speak to you about Highway 63 in Missouri.
    My name is Carolyn Winkler--My husband Art is here with me today.
    The force that compels me to be here is that on October 25, 1996 
Art and I experienced a parent's nightmare. Our son Tracy was killed in 
a head-on collision on Highway 63. He was not quite 35 years old.
    This tragedy occurred on an approximately 23 mile stretch of 2-
laned 63 between Columbia and Moberly when an out-of-state driver 
pulled into his lane hitting Tracy head-on!
    We feel that had this been 4-laned our son would be alive today.
    According to Missouri Highway Patrol statistics compiled by the 
North Central Missouri Safety Council, in the past 6 years there have 
been 1,086 accidents, resulting in 483 injuries and 30 deaths.
    The 23 mile area of 2-lane highway where our son lost his life, 
carries 8,500 to 9,500 vehicles every day.
    You only have to make one trip from Columbia to Moberly to see the 
dangerous incidents that happen. People are in a hurry to get to or 
from work and out-of-state drivers that pass, don't realize they will 
probably be only 3 or 4 cars ahead when they reach safe 4-lane roads at 
either Moberly or just north of Columbia.
    Many times each day, drivers are observed passing on the right 
shoulder in the face of oncoming traffic and on hills and curves.
    Other drivers must slow down or, if they are fortunate enough to 
have time, get over on the shoulder.
    Tracy didn't have that opportunity. It appears he only had an 
instant's warning before being hit head-on.
    The 4-laning of Highway 63 is way overdue and may have been passed 
over in favor of construction on less life-threatening roads in the 
past.
    All of that is irrelevant now, except for one very important fact, 
my husband and I have lost our precious son, our daughter-in-law and 
their 3 children must continue their lives without the love and support 
of their husband and Dad and our two daughters have lost their only 
brother.
    Over 16 years ago Tracy and Chrissy moved into their home across 
the road from us, where Chrissy and the children continue to live. Each 
day we watch them struggle with their grief and the frustrations they 
encounter without Tracy.
    The petitions we have with us have been signed by over 3700 persons 
who desperately want and need this road 4-laned. Tracy only made this 
trip between Columbia and Moberly once or twice a month. What are the 
odds for people traveling it everyday?
    The lives of the citizens in our community all of our sons, 
daughters and even our own lives depend upon completing this 4-lane 
project.
    In memory of Tracy, we're asking you to please get Federal finding 
assigned for 4-laning Highway 63 and help us get it started now!
    It is my prayer that none of you or anyone else has to experience 
the horrible nightmare of losing a child or a loved one before this 
project is completed.
    Thank you.
                               __________
   Statement of Mike Right, Vice President, Public Affairs, American 
              Automobile Association, St. Louis, Missouri
    Thank you. I want to express the appreciation of my organization 
for this committee's decision to come to Missouri and for the 
opportunity to bring to this committee the views of our area's 
motorists. I always want to thank you, Senator Bond, for your tireless 
efforts insisting on equity in the distribution of transportation 
funds.
    The compelling sorrow of the tragedy the Winklers suffered is 
repeated thousands of times each year in every state. In Missouri, we 
endured more than 1,100 traffic deaths last year, an increase over the 
previous year, and tens of thousands of disabling injuries. Our panel's 
topic, safety, has been given little singular focus in recent Federal 
transportation bills. Instead, current law in an attempt to be all-
inclusive has been restricted, actually restricted the use of funds in 
certain categories, most notably enhancements and congestion mitigation 
funds from being used to improve highway safety.
    The administration recently rolled out its NEXTEA proposal. This 
effort goes even beyond ISTEA in diminishing highway safety by 
increasing by 30 percent the funding in congestion mitigation and 
transportation enhancement categories which effectively prohibit the 
use of these funds to enhance safety.
    This administration's proposal is more interested in supporting 
projects designed to strengthen the cultural, aesthetic and 
environmental aspects of our transportation system than applying known 
solutions to our highway safety problems.
    While supportive of the nation's environmental and aesthetic goals, 
AAA questions whether those goals are more appropriate uses of 
motorists' taxes than is investing in saving lives, lessening injuries 
and reducing accidents.
    To steal a phrase from the current hit movie Jerry Maguire, ``Show 
me the money.'' AAA asks Congress and this administration to ``Show us 
the safety improvements.''
    There are some in the administration and Congress that view the 
Highway Trust Fund which is responsible for the bulk of highway 
improvements in this country that view it as a bloated cash cow with 
enough teats for every possible special interest or advocacy group.
    AAA has long held that diversion of highway user funds for non-
highway purposes is wrong and injurious to the health of our nation. 
ISTEA created numerous programs and stakeholders that annually divert 
billions and billions of dollars, away from critically needed 
investment in construction, repair and maintenance of our roads and 
bridges.
    These and other diversions of funds from critically needed highway 
improvements means safety must be further deferred. With limited 
resources, we must recognize that choices, intelligent choices must be 
made to achieve what is most important to the public. And what is more 
important than their safety?
    A recent poll of more 4,000 AAA members in our area found that 
their No. 1 highway improvement priority was 4-laning of 2-lane roads. 
They also sought to have greater use of safety features on our 
highways.
    The material provided to this committee on the results of a study 
by the AAA Foundation for traffic safety on the safety effects 
resulting from approval of the National Highway System shows the safety 
benefits we can expect if we chose to use our resources wisely.
    For example, by increasing lane width to 12 feet, we can expect a 
reduction in accidents of 12 to 40 percent. By increasing shoulder 
widths by 2 to 8 feet, we can get accident reduction of 7 to 28 
percent. By removing roadside hazards from within 5 to 20 feet of the 
roadway would get a 13 to 44 percent fewer accidents. By reducing the 
curvature of a road by degrees, we can expect 15 to 75 percent fewer 
accidents. And by installing median barriers, we improve our accident 
rate by 10 to 20 percent.
    The AAA study also conservatively estimated that for every dollar 
invested in accident reduction a $3 benefit is received.
    These are the kinds of highway improvements that are being deferred 
or ignored in Missouri and in other states because both ISTEA and 
NEXTEA call for diverting funds from these and other critical safety 
needs.
    The Highway Trust Fund is not a cash cow. We cannot afford to 
embrace narrow interests at the expense of the safety of our nation's 
road users. We here in Missouri want to be shown the safety 
improvements. Thank you.
                               __________
  Statement of Barry L. Seward, President Missouri Transportation and 
                          Development Council
    Chairman Warner, Committee Chairman Chafee, Senator Bond, thank you 
for making possible this Senate Field Hearing on Transportation. We 
appreciate your coming to Missouri and being with us here in Kansas 
City.
    I am Barry Seward, Senior Vice-President at Health Midwest, a 
regional health system and health-care provider here in Kansas City. I 
am very pleased to appear before your committee today as President and 
Board Chairman of the Missouri Transportation & Development Council, a 
state-wide citizens' transportation support organization that serves as 
an advocate for safe and efficient transportation in Missouri.
    We know, from Senator Bond and other members of the Missouri 
congressional delegation, that the U.S. Senate and the full Congress 
readily acknowledges the importance of maintaining and modernizing the 
infrastructure of our Country. We understands too, that you place great 
significance on the interstate system...and now the National Highway 
System. We believe, as we are sure you do, that the safety of Americans 
is a key consideration for advancing a modern transportation system for 
this country.
    The leadership of your Environment and Public Works Committee, 
Senator Chafee, and that of the Subcommittee on Transportation and 
Infrastructure, Senator Warner, is most appreciated. And of course, we 
value very highly the contribution to transportation both 
nationally...and here in Missouri...that has and is being made by your 
colleague and our distinguished senior Senator ``Kit'' Bond.
    We were particularly pleased last month that the Senator would 
choose our Missouri Transportation & Development Council Annual Meeting 
in Jefferson City as one of the locations to announce the Chafee-Bond 
initiative to put trust back in the Trust Fund--the ``Highway Trust 
Fund Integrity Act of 1997''. For your information our MTD Board later 
that afternoon unanimously agreed to support the objectives of that 
bill.
    Now let me focus more specifically on the safety of our citizens. 
The transportation community in Missouri understands what better 
highways and safer bridges can do to save lives and reduce injuries 
from motor vehicle accidents in our State Safety was a major 
consideration in 1987 when the voters of Missouri were asked to 
increase the motor fuel tax to improve highways and bridges...and those 
voters responded positively.
    Then--highway safety took on new meaning for us in the early 90's 
when a study requested from our Department of Transportation by MTD 
identified just how many lives we could save . . . how many horrible 
injuries could be avoided . . . how many accidents could be prevented . 
. . by making an investment in better highways and safer bridges.
    The MoDOT study determined from actual driving history in Missouri 
the specific accident rates for various types and conditions of 
roadways. This gave us real data...not a national study that had to be 
interpreted to our State. Knowing the accident rates based on how 
Missourians drove on Missouri highways, the computer wad then used to 
project the savings in lives, injuries and physical damage that would 
occur if the State delivered a specific set of highway/bridge 
improvements in a specified timeframe.
    The results of this analysis were dramatic...and very important, 
the safety of Missouri citizens became one of the cornerstones of a 
1992 state-wide campaign to in-ease Missouri state motor fuel taxes to 
save lives..,reduce injuries...cut-down on ail accidents. Hero's what 
Missourians were promised if they would approve more state money to go 
with the anticipated higher levels of Federal funding in the new 
ISTEA----
    <bullet>  6.700 lives saved;
    <bullet>  265,000 injuries avoided;
    <bullet>  530,000 total accidents prevented.
    Most of the savings came from a plan to upgrade nearly 1,900 miles 
of Missouri roadways...almost all of which are on the National Highway 
System--to divided lane highways over a period of 15 years. important, 
too, was a plan to widen bridges.
    Improvements to old, narrow, 2-lane roads--many of which carry 
Missourians and visitors to tourist attractions in our State--were also 
planned to widen the driving lanes, provide adequate shoulders, and 
remove roadside hazards that cause so many of our accidents in rural 
Missouri. Missourians were told that the planned improvements would 
make the State's roads twice as safe and that the program would pay for 
itself in just the savings of lives alone.
    The program began in earnest in 1992 to make the highway and bridge 
improvements that would bring about those projected savings in lives 
and avoid thousands of injuries. Unfortunately we have fallen behind in 
our program...and are struggling to find a way to deliver the planned 
projects on time so that those promised benefits will be realized by 
the motoring public in our State.
    I should add that our concern has been heightened with a recent 
report, which our Council requested from TRIP--The Road Information 
Program--an independent transportation research/information agency 
based in Washington D.C., to give us an update on the status of our 
highway system in Missouri. Unfortunately, the report indicated the 
highway fatalities in our State have risen by 17 percent since 1993, 
increasing to 1,109 deaths in 1995. Tragic news, indeed.
    The TRIP report helps identify the impact of highway improvements 
on safety.
    <bullet>  Highway fatalities are significantly higher on two lane 
roads than on four lane roads. Nationally, 77 percent of highway deaths 
occur on two lane roads. Two-thirds Of Missouri's major roads, 
excluding interstates, are not 4-lane divided highways.
    <bullet>  Missouri's highway fatality rate is above the national 
average. A serious concern for a state where vehicle travel, according 
to TRIP, grew by 51 percent between 1985-1995, compared to the national 
average of 37 percent.
    <bullet>  Bridge improvements yield dramatic reductions in fatal 
accident rates, according to TRIP: widening or modifying a bridge has 
been shown to reduce fatalities by 49 percent...constructing a new 
bridge can reduce fatalities by 86 percent. So Missourians have their 
lives at stake in terms of what we do about bridges in Missouri which 
has the seventh highest percentage of structurally deficient or 
functionally obsolete bridges in the nation.
    <bullet>  The lane width of a road is another important factor 
affecting safety Nineteen percent of Missouri's non-interstate major 
roads are less than the desired minimum lane width of 12th-15th highest 
percentage in the Nation. We must make progress. According to Federal 
Highway Administration data, widening a road lane by one foot can lower 
accident rates by 12 percent Widening by two feet can lower accident 
rates by 23 percent The good news is that a new initiative is underway 
in Missouri to reevaluate our highway and bridge improvement needs.
    Besides the prompt response needed On the US 63 corridor, other 
Missouri Highway Corridors on the National Highway System also require 
similar attention. They include: MO 5 Corridor, MO 7-13 Corridor, MO 
17-41 Corridor, US 36 Corridor, MO 47 Corridor, US 50 Corridor, Link 
the Lakes Corridor, US 61 Corridor, US 65 Corridor, US 67 Corridor, US 
71 (North) Corridor, US 71 (South) Corridor, 92-10-13 Corridor, and US 
136 Corridor.
    I am very privileged to represent our Council on the Governor's 
Total Transportation Commission which is presently developing 
transportation visions, strategies and action plans for Missouri and 
ultimately a ``total transportation plan''. We applaud Governor Mel 
Carnahan for his leadership and continuing support in the area of 
transportation.
    The commission is giving safety prime consideration. Our current 
draft mission statement includes a phrase which says that ``Missouri's 
total transportation system will: satisfy the mobility needs of 
Missourians by providing safe, cost-effective transportation 
choices...''.
    Various proposed strategies also refer to safety .. reducing the 
statewide accident rates and upgrading bridges.
    I am hopeful that the Commission will, within the next couple of 
months, recommend a total transportation plan that will include 
delivery of highway and bridge improvements that will bring about the 
dramatic and important improvement in vehicular safety that we all 
seek. The role of the Federal Government in returning to our State at 
least 95 percent of the highway user fees we send to Washington will 
not just be important--it will be absolutely critical--to our success 
in saving lives and avoiding horrible injuries. The reauthorization of 
ISTEA is needed to provide for a stabilized program which will return 
maximum dollars to our State for highway and bridge preservation and 
modernization.
    Specifically----
    <bullet>  We believe that the new Plan should provide a minimum 
return to all States of 95 percent. Missouri is one of only eight 
states that received 80 percent or less of its contribution to the 
Federal highway trust fund in the years fiscal year 1992-95.
    <bullet>  We believe that a primary focus for the Federal program 
should be the upgrading of the National Highway System over the next 10 
years We need to be able to count on the Federal revenues to improve 
the safety of our system, so we support action by the Congress which 
best provides for stabilized return of dollars to the States. We are 
following very closely and in fact will support the present movement in 
the House behind the ``Trust In Budgeting Act'' to take the 
transportation trust funds off-budget.
    Again, we are very appreciative of the initiative sponsored by 
Senator Chafee and Senator Bond to provide a clear linkage between 
trust fund receipts and trust fund expenditures. This will bring more 
money to Missouri. Important also, is that it will assure us of 
substantially more revenues if the 4.3 cents now used (or deficit 
reduction is returned to the Highway Trust Fund.
    In closing, let me again thank you for your leadership in the area 
of transportation. The safety of our citizens is on the line. We pledge 
you the strongest possible support from the Missouri Transportation and 
Development Council, and our very diversified membership. We urge you 
to help us--through development of an aggressive Federal transportation 
program that focuses on making America's roadways and bridges as safe 
as possible.
                               __________
Statement of Tom Boland, Chairman, Missouri Highway and Transportation 
                     Commission, Hannibal, Missouri
    Good afternoon, Senator Chafee, Senator Warner, and Senator Bond. I 
am Tom Boland, Chairman of the Missouri Highway and Transportation 
Commission. We thank you for coming to Missouri to give us this 
opportunity to speak about issues important in Missouri and the 
reauthorization of the nation's Federal transportation law.
    You have a dedicated, hard-working colleague in Senator Bond. He 
does an excellent job in carrying forward the interests of Missouri and 
the nation. Thank you, Senator Bond, for your excellent work.
    My topic today is the safety of our highways and bridges. Senator 
Bond has been absolutely instrumental in helping to solve some of those 
most pressing safety problems. His relentless efforts in Washington 
helped secure funds that allowed us to start replacing three of our 
most decrepit major river bridges, the Chouteau bridge across the 
Missouri River here in Kansas City and the Hannibal and Cape Girardeau 
bridges across the Mississippi River.
    In Missouri, we can demonstrate the need for increased Federal 
funding to improve the safety of our highways and bridges all too well. 
Let me take you on a short tour down the Missouri and the Mississippi 
Rivers. The Missouri enters the State at our far northwest corner, goes 
southward to Kansas City and then crosses the entire State and joins 
the Mississippi at St. Louis. The Mississippi River forms the entire 
eastern boundary of Missouri.
    More than 40 bridges on the State and Federal highway system cross 
these two rivers in Missouri. Half are more than 50 years old. More 
than half of these bridges are structurally deficient or functionally 
obsolete when evaluated by Federal criteria. They are too narrow or 
have severe weight restrictions, or both, that prevent commercial 
vehicle use and obstruct the economic vitality of many of our 
communities.
    Missouri needs major replacement bridges at Hermann, Washington, 
Waverly, Miami, Rulo, Lexington, and across the St. Francis River into 
Arkansas, just to name a few, and we need some new bridges, including 
one across the Des Moines River at St. Francisville to serve the Avenue 
of the Saints and to cross the Mississippi River at St. Louis.
    These old, narrow brings are used by tens of thousands of 
Missourians every day who would prefer to travel on up-to-date, wider 
structures. They wonder why these old bridges are safe. Now, we inspect 
all these bridges at least once a year to ensure that they are safe and 
they are repaired as needed. But the best solution for serving our 
citizens is modern bridges.
    These major river bridges are extremely expensive. It's virtually 
impossible to pay for them from the state's annual allotment of funds, 
particularly when there is a need for earthquake protection and 
retrofitting that faces us along the Mississippi from St. Louis south 
to the Arkansas border. Similar needs in other states simply magnify 
this urgent Missouri problem.
    We cannot overestimate the safety aspects of these bridge needs. I 
strongly urge the committee to include a sizable and discretionary 
bridge fund in the reauthorization legislation to help states meet this 
urgent safety need. A bridge discretionary fund of as much as $800 
million per year is absolutely justified which would allow the states 
to get bridge funds quickly to replace high-cost structures.
    I have focused on the bridges crossing our two major rivers. The 
task at hand becomes even more daunting when you consider we have an 
additional 2,700 bridges in Missouri that cross lesser rivers or lakes 
that also need replacement. We are barely making a dent in these bridge 
needs under today's funding levels.
    The issue of safety, of course, relates to all of our highways as 
well as our bridges. One of the most rapidly growing areas in our State 
is south of St. Louis in Jefferson County. We have replaced portions of 
a winding, narrow 2-lane Route 21 that serves the area with a 4-lane 
highway, and as a result, there's been a significant and gratifying 
drop in the accident rate. We need to continue this work southward on 
Route 21 where the fatality rate is nearly 35 percent higher than the 
State average for similar highways.
    You have already heard the compelling statements from Mrs. Winkler 
on behalf of the need to improve Route 63 in north Missouri where 
traffic is heavy and accidents are much too frequent. Driver 
frustration sets in. Unnecessary chances are taken, and tragedy occurs. 
This is a stretch of highway where fatality rates are more than 50 
percent above the national average.
    The same situation exists on Route 7 and 13 in west central 
Missouri, and on portions of Route 36, a major northern route across 
the State between Hannibal and St. Joseph and Route 60 across southern, 
Missouri from Cape Girardeau to Springfield.
    These highways are carrying traffic that exceeds their 2-lane 
design. We desperately need funds to correct and construct four lanes 
which will greatly improve their safe use. And these are merely 
examples and certainly do not represent an exhaustive list of the many 
highways and bridge safety needs in Missouri.
    Please understand that we fully recognize that all of you are 
working hard on legislation that would increase Federal highway and 
bridge funds available to the states. We are extremely grateful for 
your continuing efforts, and I hope my thoughts today simply reaffirm 
this goal. And let me again thank you very much for coming to Missouri 
to give us this opportunity to express our thoughts to you.
                               __________
 Statement of John Wagner, Jr., Wagner Industries, Inc., and Chairman, 
                Greater Kansas City Chamber of Commerce
    Thank you. Good afternoon. I am John Wagner, President of Wagner 
Industries, a trucking, warehousing and logistics firm employing more 
than 600 people in Kansas City. I am third generation in the family 
business that started in Kansas City's west bottoms in 1946. This year 
I have the privilege to chair the Chamber's Surface Transportation 
Committee. The Chamber is pleased to have the honor of appearing before 
so distinguished a panel to discuss such important legislation.
    A healthy transportation industry is vital to the economic well-
being of the nation. That is no less true in Kansas City, a town 
founded on transportation and distribution. Transportation remains a 
vital industry. More than 40,000 individuals are employed as a result 
of Kansas City's transportation industry with a payroll of more than $2 
billion. The impact on regional output and gross regional product 
amounts to about $5 billion and 3.3 billion respectively.
    What is unique in Kansas City, however, and what makes it strong is 
that its employment is spread over a variety of sectors and a large 
number of employers. Take the trucking industry, for instance. Of the 
nearly 700 trucking companies in our region, more than 600 employ fewer 
than 50 people. Kansas City is a hub for nine major rail lines. Kansas 
City International Airport is one of four area airports with freight 
operations and is the busiest air cargo facility by tonnage in a six-
State region. More than 40 barge terminals and docks support river 
shipping and more than 400 miles of highway give Kansas City more 
highway miles per capita than any U.S. city. In addition, area 
businesses have invested in more than 1,500 miles of fiber optic cable 
beneath the city streets to speed the exchange of shipping and other 
data. We are at the vanguard of Intelligent Transportation Systems and 
have been the model of bi-State cooperation.
    Having said that, there are some priorities we believe need to be 
addressed as a part of the transportation policy being considered in 
this year's Congress. They are not the result of think-tank research. 
They are basic and fundamental.
    First, integrity needs to be restored to the transportation trust 
funds. There is no better way to make Federal funds productive than to 
spend them on infrastructure. With billions of dollars being paid in 
good faith by people who use transportation amenities, there are ample 
funds collected to facilitate the movement of goods and people in the 
United States and to grow its economy. This is an appropriate time to 
indicate the Chamber's support for measures such as the Bond/Chafee 
Highway Trust Fund Integrity Act. This bill ensures money collected for 
highways will be used for highways.
    But that bill is a first step. Beyond that it is important that the 
4.3 cents currently being collected for deficit reduction be 
transferred to the Highway Trust Fund. We believed it was bad public 
policy to utilize highway user fees for deficit reduction be 
transferred to the Highway Trust Fund. We believe it was bad public 
policy to utilize highway user fees for deficit reduction when it was 
done, and we continue to believe it today.
    Next, it is unconscionable that the nation's transportation 
investment has been allowed to deteriorate the way it has. I would be a 
poor businessperson if I didn't maintain my warehouses and vehicles and 
other equipment. It is even worse stewardship that the Federal 
Government continues a policy that promotes and rewards new 
construction rather than maintenance and preservation of a 
transportation system that is already pretty darn good. Studies have 
shown the exponential costs associated with repair or replacement of 
facilities compared to the cost of simple maintenance. The nation's 
transportation policy should encourage communities to maintain assets 
rather than to simply build new ones.
    Along the same lines, the Nation has invested billions of dollars 
on transportation assets from coast to coast yet has done little to 
connect those assets technologically or economically. Kansas City is 
pursuing a vision as a non-traditional inland port for world goods. We 
believe the inland assets already in place here combined with a strong 
work force and ample space make it a logical reliever for traditional 
ports of entry that are strained beyond capacity. An intermodal and 
high-tech strategy to relieve congestion at the borders by utilizing 
inland facilities should be considered as part of the nation's 
transportation strategy.
    Another simple but important transportation policy question that 
needs to be finally settled is a commitment to inland waterways and 
navigation, including the adherence to existing Federal policy and 
operating manuals. Sometimes we wonder why it's so hard for certain 
individuals to grasp the relevance of waterways and their relationship 
to price for transportation. Of course, the Missouri River has not met 
its potential for moving goods. It has never had a predictable season. 
Its ports and terminals have received minimal public investment, and 
the long-range plan for locks and dams was never completed. Still, it 
makes a difference in millions, perhaps billions, of dollars annually 
in the cost of moving goods due to its competitive influence. This is 
money saved by producers and consumers. It would be an international 
embarrassment to further curtail shipment on the Missouri River.
    We are thankful to have a watchdog in the Senate in Senator Bond on 
this matter.
    Finally, and in summary, we urge Congress to not allow the 
Washington bureaucracy to continue thinking departmentally concerning 
transportation and to adequately fund maintenance and completion of the 
nation's freight infrastructure.
    Thank you for your thoughtful attention to these remarks.
                               __________
    Statement of Richard C.D. Fleming, President and CEO, St. Louis 
                Regional Commerce and Growth Association
    Thank you, Senator. My name is Dick Fleming. I am President and 
Chief Executive Officer of the Regional Commerce and Growth Association 
of St. Louis, the RCGA. We are the 12-county Bi-State Chamber of 
Commerce and the Regional Commerce and Growth Association for the St. 
Louis area. We represent some 4,000 business and civic entities in both 
Missouri and Illinois.
    We are pleased that Senator Chafee and Senator Warner accepted your 
invitation to come to Missouri to learn firsthand about the importance 
of transportation to our state. Of course, we very much appreciate and 
recognize your continuing role in leadership and the authorization of 
transportation legislation in this nation.
    The St. Louis region with its central geographic location, it's a 
natural national as well as international transportation center. As we 
look at it from an economic development standpoint, we see a number of 
threads that are tied together with the kind of focus and objectives 
that NEXTEA is speaking to. Highways--they are the crossroads of four 
major interstates. Rail--major hub for rail for decades. We are the 
third largest in the United States. Air--we are the second fastest 
growing airport in the world in Lambert and the sixth overall busiest 
airport in the United States. Ports--we are the second largest inland 
port in the United States. In fact, one sixth of the tonnage moved on 
U.S. inland waterway systems goes through St. Louis. And transit--where 
MetroLink was recognized last year nationally as the best the transit 
system in North America.
    A need exists for intermodal relationships between these 
transportation systems in St. Louis and throughout the country. There 
is also an inextricable link between infrastructure investment and 
sustained economic development.
    The RCGA strongly advocates the importance of preserving the 
existing transportation infrastructure systems, as my colleague just 
testified, while at the same time addressing the necessity for certain 
new projects. In St. Louis, in addition to maintaining and 
rehabilitating or expanding the interstate highway network, we have a 
need for new bridges, especially a major one crossing the Mississippi 
River near downtown St. Louis. Thirty percent of the employees in 
downtown St. Louis live in Illinois and must cross bridges to work. 
It's a lifeline to our region.
    In 1994, we created the greater St. Louis Economic Development 
Council to provide unified regional and proactive economic development 
with the goal of 100,000 new jobs in our region by the year 2000. I am 
pleased to support that we have already surpassed the 43,000 number on 
that goal, and we still have a number of years to go.
    One of the Economic Development Council's key priorities is to 
capitalize on transportation and distribution infrastructure inherent 
to the St. Louis region and to encourage and promote much-needed major 
infrastructure investment, such as new bridges, the expansion of 
Lambert International Airport and the expansion of MetroLink, the 
transit system. The 1995 survey of national site selection executives 
for manufacturing companies rated ``highway accessibility'' as the No. 
1 decision factor in choosing where to expand and relocate companies. A 
similar survey in the same year indicated for headquarters companies a 
functioning international airport being the No. 1 criteria.
    With that in mind, last year the RCGA established an Infrastructure 
Council, headed by the St. Louis managing partner of Price Waterhouse, 
with eight committees chaired by top CEOs from the St. Louis business 
community. Their goal is to spearhead an economic development agenda in 
aviation, roads and bridges, transit, ports, freight, clean water, 
telecommunications and a public affairs program to support them.
    These committees recently recommended their first round of specific 
action plans to the RCGA board just several weeks ago. For example, our 
freight committee in its examination of issues over the past year has 
pointed out a very graphic example of how vital it is to preserve the 
highway system and to eliminate major traffic bottlenecks as part of 
economic development.
    It may come as somewhat of a surprise to our visiting Senators from 
Rhode Island and Virginia that next to Detroit, St. Louis is the 
secretary largest manufacturer of vehicles in the United States. 
General Motors, Ford, Chrysler, all have major plants in St. Louis 
employing over 11,000 people. These high-technology recently retooled 
manufacturing plants, like others in the auto industry, are relying 
increasingly on just-in-time delivery of parts from a growing number of 
local suppliers.
    For example, at the Chrysler complex located on the southwestern 
edge of St. Louis in the metro area in Fenton, almost 1,900 minivans 
and pickup trucks are built every day. Local suppliers with only 2 
hours turn-around deliver such components as frames, axles, tires, 
wheels, seats and fascias in the exact order of the vehicles on the 
assembly line.
    I would like to also call attention to another RCGA infrastructure 
priority involved transportation. RCGA has staunchly and actively 
supported regional programs targeted at attainment of air quality 
standards. Yet U.S. EPA has unfortunately now proposed new National 
Ambient Air Quality Standards for Ozone and Particulate Matter which 
will mitigate much of the progress achieved to date relative to the 
State Implementation Plan. Our business community and our civic 
leadership have been very active in our opposition to these new 
standards as some will, in all likelihood, jeopardize local highway 
projects threatened with the loss of Federal transportation funds. We 
propose that the provisions for air quality related to highway funding 
sanctions be removed from NEXTEA.
    In closing, for the past several months for the past half year, I 
have had the privilege of being one of two representatives appointed by 
Missouri Governor Carnahan to the Southern Governors' Association 
Transportation Task Force.
    Our positions locally and the positions of this task force which 
were recently released comported directly. And I will summarize in 
closing very briefly.
    <bullet>  No. 1, Spend down the cash balances in the Federal 
transportation trust funds.--No. 2, if retained, the 4.3 cents per 
gallon Federal funds tax currently deposited in the general fund for 
deficit reduction should be redirected to transportation purposes.--No. 
3, guarantee all states a minimum of 95-percent return of their Highway 
Trust Fund contributions without a penalty for receiving demonstration 
project funding.--No. 4, encourage the Federal Highway Administration 
to support greater public/private partnerships between State 
Departments of Transportation and the private sector as we have begun 
to do here in the State of Missouri.--No. 5, projects to improve 
freight transportation should receive higher priority in the allocation 
of public funds and the development of potential sites for intermodal 
connections. And finally,--No. 6, each State should be required to 
include the private sector exclusively in the state's metropolitan 
planning organizations either through chambers of commerce, economic 
development organizations or other designated business groups. In 
essence, forming a triangular partnership on behalf of regional 
transportation infrastructure between the State DOTs, local government 
and the private sector.
                               __________
   Statement of Don Clarkson, Vice President, Clarkson Construction 
                     Company Kansas City, Missouri
    Thank you. My name is Don Clarkson. I am with the Clarkson 
Construction Company based here in Kansas City. I also want to thank 
Senators Warner, Chafee and especially Senator Bond for their tireless 
efforts on behalf of transportation. Also, I would like to thank the 
representatives McCarthy and Dannon for the same.
    I will address the reasons why ISTEA must be reauthorized and how 
these reasons relate to Missouri. We, in the construction industry, 
maintain an awareness of a properly functioning highway and bridge 
system. Fast, reliable and economic transportation is paramount to our 
nation's productivity and international competitive position. Our 
highways and bridges are of our greatest importance.
    Seventy-two percent of Missouri's goods and services, and that's 
$170 billion a year, are delivered over our nation's highways. As 
Senator Warner has said, the transportation of products to and from 
coastal ports will become increasing important as international trade 
grows. Reducing transportation costs through a more efficient highway 
system is essential. Over 55 percent of our nation's manufacturers, as 
referred to earlier, use just-in-time delivery of goods and services.
    But furthermore, in the next decade there will be 25 to 30 million 
new jobs added, hopefully. By 2000, domestic freight tonnage will 
increase 30 percent. By 2010, overall highway travel is expected to top 
3-1/2 trillion vehicle miles per year. That's a half again what we have 
today. Vehicle travel in Missouri will double its 1995 levels in the 
next 10 years.
    If the U.S. businesses are to become more competitive and if the 
American public is expected to have a standard of living rise, we must 
do the following: As our improved--we must address our nation's 
highways. If U.S. businesses are to become more competitive, as they 
must, and the American public has the opportunity to improve its 
standard of living, then we are soon forced to address the condition of 
our nation's highway system.
    And I believe this is important and this is why I use the word 
``maybe'' a minute ago. As our improved transportation system allows 
our businesses and their products to be more competitive, the 
employment opportunities necessary for our increasing population will 
be created.
    Our Highway Trust Fund paid for the construction and the 
maintenance of our 900 plus thousand mile Federal aid highway system. 
This system has spurred the development of the State and local highway 
systems so necessary for the healthy activity of our nation's economy.
    There are some alarming trends. The United States investment in all 
types of infrastructure ranks dead last behind all of our major G7 
competitors as a percent of our GDP. We spent only 39 billion in 1993 
on roads and bridges or about $16 billion less than the investment 
needed according to the FHWA just to maintain current conditions. FHWA 
estimates an annual investment of around $64 billion to improve 
conditions to address the unfunded requirements noted above.
    It's particularly alarming that capital outlay in the United States 
has now dropped to only $16 per 1,000 vehicle miles traveled from the 
$32 per 1,000 that we were investing in 1960. 1960, I think we will all 
recall, was a time when the U.S. economic star was surely rising on a 
worldwide basis, and it's not right now.
    But to address your question, I believe that this phenomenon, this 
increase in capital investment per vehicle-mile-traveled, may well 
correlate to the recently deteriorating safety and fatality rates. I 
think that it could be found that the necessary upgrades of lanes, 4-
laning, bridge widening, so necessary both in the rural and the urban 
areas, will do much more to provide real safety than these individual 
safety enhancement projects that are carved out in the program, and I 
believe that the Winklers can testify to that.
    In fact, Missouri's investment decreased 16 percent from 1985 to 
1995 while travel increased 51 percent.
    There have been many studies performed by the U.S. Department of 
Transportation, the Congressional Budget Office, the Federal Reserve 
Bank, even, that shows that spending specifically on highway 
transportation projects improves the U.S. economic productivity, 
contributes to an improved standard of living and yields long-term 
economic rates of return even higher than the average in private 
capital.
    There's some more immediate benefits. Improved highway conditions 
immediately improve air quality by reducing auto emissions. As Senator 
Bond has said, 43 percent of the Missouri's rivers and freeways were 
congested last year.
    The Missouri Department of Transportation must somehow with Federal 
help, Federal aid, build the promised improvements described in its 
1986-1989 need studies for all of these reasons. Each billion dollars 
invested in highway capital improvements generates over $3 billion in 
economic activity. That's the short-term gain. Missouri's share of 
Federal funding alone in 1997 will provide 17,000 jobs. Vehicle 
operating costs are immediately reduced. In Missouri, motorists spent 
$459 million last year, and that's $128 per motorist in extra, 
unnecessary vehicle repairs and operating costs because of driving on 
bad roads. Unnecessary if they had good roads.
    In summary, there is a rising economic tide, both short-term and 
long-term, that is available to U.S. businesses, consumers, employees, 
and the public in general if we will just rehabilitate and expand our 
National Highway System. This system represents an investment made in 
the past that allowed us to achieve and now support our current 
standard of living. Our continuing ability to compete economically and 
improve the quality of life for ourselves and our children will require 
additional investments toward the need to expand and improve the 
existing highway system.
    And the question that comes up, I believe, in these proceedings, is 
that maybe the Senators could teach us or their staffs could teach us 
how to expand the outspoken support on this all-important endeavor to 
beyond meetings like this and get the public energized on what really 
is the best for all of us.
                               __________
 Statement of Peter Herschend, Vice Chairman, Silver Dollar City, Inc. 
                           Branson, Missouri
    My name is Peter Herschend. I am Vice President and Co-Owner of 
Silver Dollar City, Incorporated. We are headquartered in southwest 
Missouri. And as you know, Senator Bond, for southwest Missouri, air, 
and most importantly, surface transportation is the lifeline of a rural 
destination vacation area. Without that lifeline, there is no 
possibility of dynamic economic growth. It won't happen.
    The travel industry is at a national and international level now 
the largest single segment of commerce, and it is projected to be so 
well into the next century. In Missouri, and in multiple other states, 
tourism is a major generator of State and Federal tax revenue. 
Missouri's travel economy alone generates better than $1 billion in 
State and local tax revenue, and it is easily the second largest tax-
generating segment, by SIC code, for Missouri's general revenue.
    Branson, Missouri, population, 4,725 people--you may have heard of 
our little town, sir--was visited by 5.8 million guests in 1996. Our 
small region alone produces $1 billion of Missouri's $10 billion gross 
travel expenditures.
    Mr. Chairman, as you can well picture, adequate and fair 
distribution of ISTEA funds is of prime importance to our region as it 
is to the entire State of Missouri.
    The Missouri Department of Transportation has worked hard and fast 
to help the Branson/Ozarks area grow an adequate surface system 
capabilities. That work continues today as we speak. We, in Branson, 
were saddled in 1985 with a road system barely able to handle 2.5 
million visitors. Explosive growth, nicely explosive growth, but 
explosive growth, nonetheless, in our region in 1991 through 1993, and 
the visitor count more than doubled to 5.8 million visitors that I 
mentioned earlier.
    The Missouri Department of Transportation and local efforts were 
put in place to help overcome that huge bottleneck. Much has been done 
and much more needs to be done. The plans are ready, the equipment is 
ready, but we need the financial fuel in the tanks to make it go. And 
that fuel is an even-handed, fair and aggressive distribution to the 
states of ISTEA funds when it is finally reauthorized, exactly what 
your bill and Senator Chafee's bill and Senator Warner's bills have 
proposed.
    The travel tourism industry is not the only user of a first-class 
transport system. Southwest Missouri is a major trucking hub serving 
all the Midwest. Missouri Department of Transportation has moved 
aggressively to build a system that will attract even more firms to the 
area.
    And Senator Bond, you have been instrumental in working toward 
funding of improved mass-transit systems for Branson to make more 
effective use of ISTEA dollars.
    Depending on the season, 5 to 10 percent of all the visitors coming 
to southwest Missouri arrive at and through the Springfield/Branson 
Regional Airport. That airport, too, has applied for ISTEA assistance.
    It comes to this. The transportation capabilities of our region and 
this entire State is like a huge water valve supplying life-giving 
water to crops. We cannot grow more until that valve is opened more, 
and MoDOT cannot open the valve more if other regions of the Nation are 
receiving disproportionately higher ISTEA revenues versus Missouri's 
fair share. ISTEA reauthorization needs to be soon and equal.
    I want to tell you a quick story about Mabel. Mabel doesn't know 
anything about what we are talking about here. She is a waitress in 
Branson. My wife and I were having lunch there at her restaurant 1 day 
not too long ago, and the place was really busy. Mable said, ``Gee, 
isn't this wonderful?'' And I said--looking around the restaurant, and 
I said, ``Yes, this really is.'' Mabel was talking about how really 
good it was for her because she said to us, ``You know what's really 
good about this?'' And we said, ``No,'' thinking it was her tips. She 
said, ``This is the first year I have never had to borrow money to pay 
my gas bill in order to get through the winter.''
    What Mabel didn't know was that the reason she was able to do that 
was because a surface system was starting to be in place to bring 
people to her region of the country. But without the proper 
reauthorization of ISTEA funds, Mabel may have to go back and borrow 
her gas or heating bill money for this winter.
                               __________
 Statement of Gary Evans, Executive Vice President and Chief Executive 
Officer, Farmland Industries, and Chairman, Heartland Freight Coalition
    Good afternoon, and I thank you for this opportunity to comment 
concerning America's transportation legislation. I am speaking to you 
as the Chairman of the Greater Kansas City Chamber of Commerce, 
Heartland Freight Coalition.
    The Freight Coalition was formed in 1995 to implement Kansas City's 
Intermodal Freight Strategies Study. My remarks today are focused on 
the intermodal aspects of transportation policy.
    Now, we define intermodal as moving freight between two points by a 
combination of two or more methods of transportation. Although Kansas 
City has a vested interest in air cargo and keeping the Missouri River 
viable for navigation, I want to focus the majority of my comments on 
freight activity, truck to rail and rail to truck. As the No. 2 rail 
center in America with nearly 700 trucking firms, we think that Kansas 
City knows intermodal.
    We believe ISTEA has done little to improve the nation's intermodal 
freight infrastructure. In Kansas City, which appears to be ideally 
positioned to benefit from a national focus on intermodalism, no major 
examples exists of this Federal policy having any impact other than 
consuming thousands of dollars as our local metropolitan planning 
organization struggles to comply with the bureaucracy mandated by this 
act. A lot of time and money were spent studying things, but a lot of 
things haven't been done.
    We do not, however, believe the current act needs sweeping changes. 
Rather, like Kansas City's own transportation infrastructure, it needs 
to be improved to work more efficiently with some new additions and 
proper funding.
    First, the act needs to preserve the role of the Metropolitan 
Planning Organizations in the transportation planning process. It is 
through the MPOs that community dialog and consensus building on 
transportation priorities may be achieved. Also, since State 
Departments of Transportation often have an overriding commitment to 
highways, the MPOs may be best able to objectively consider the 
intermodal needs of the freight community and how they interact with 
other priorities such as air quality and brownfields mitigation.
    Secondly, the act needs to focus on completion of our nation's 
freight infrastructure. While this mainly relates to the National 
Highway System priorities, it's critical to railroads. The National 
Highway System contains a category for intermodal connectors to better 
facilitate the movement of goods between modes, ensuring those goods 
move by the most efficient manner. And there are several of those in 
Kansas City that must be funded.
    A national freight infrastructure should also improve safety and 
improve timeliness. An effective means of doing this is elimination of 
at-grade rail crossings, especially in the rural areas. This would save 
hundreds of lives reduce product loss, reduce environmental risk from 
spill and make the nation's freight system work better.
    A national freight infrastructure should also seek to optimize 
existing transportation resources rather than encouraging new 
facilities. In this age of technological sophistication and global 
competition, it is in the nation's interest to promote development in 
the use of inland ports such as Kansas City to complement traditional 
ports and border crossings. An intermodal approach to moving goods 
makes it possible to reduce highway congestion, especially in urban 
areas near crossing borders and deep-water ports, by getting goods 
bound for cross-country destinations off the roads. The positive impact 
on highways and the environment of goods moving by various modes 
deserves more study and attention, as does the development of 
innovative, inland solutions to congested traditional ports.
    Along the same line, a national freight infrastructure should 
account for other areas of public policy, especially in the arena of 
trade. Kansas City's business community supported NAFTA and most other 
trade agreements. We have been working to secure designation of a new 
category in ISTEA for International Trade Corridors. While generally 
landmarked by I-35 and I-29, we seek a technological intermodal and 
trade-oriented corridor that uses all the nation's freight assets along 
the broad corridor. We urge Congress not to limit the development of 
such corridors to highway improvements, but to encourage the 
development of truly intermodal corridors to account for congestion, 
space, time and profitability.
    Finally, it is a significant oversight that air maintenance areas, 
such as Kansas City, are not eligible for congestion mitigation or air 
quality category funds to allow them to remain in attainment. Having 
such funds provides individual regions the ability to think outside the 
box and address other transportation issues. A region like Kansas City 
that does everything to support and to meet with the spirit of the 
Clean Air Act Amendments and ISTEA should not be penalized for success. 
It should be rewarded and encouraged toward continuous improvement.
    I want to thank you for this opportunity to discuss some of the 
priorities this year. We look forward to working with you, especially 
Senator Bond, to achieve a bill that will be good for the nation's 
shippers and carriers, but more importantly, good for consumers and 
consumers' bottom line.
                               __________
   Statement of Malcolm McCance, St. Joseph Chamber of Commerce, St. 
                            Joseph, Missouri
    Senators, thank you for the opportunity to discuss Missouri's River 
Navigation Industry and its impacts on the State of Missouri. My name 
is Malcolm McCance. I am an economic developer for the St. Joseph area 
Chamber of Commerce. The point I would like to make with you today is 
that river navigation is very important to the economic health of the 
St. Joseph area as well as the State of Missouri.
    Missouri lies dead center of the U.S. inland waterway system. Our 
State has over 1,000 miles of navigable waterways that move about 30 
million tons of bulk commodities annually. According to studies 
conducted by Price Waterhouse and Mercer Management Consultants, the 
value of this cargo is almost $4 billion. This is a huge industry for 
our State directly affecting 30,000 jobs and indirectly supporting over 
250,000 jobs and industries that are dependent on waterway 
transportation.
    One of the industries benefiting most from waterway transportation 
is agriculture. Access to navigable waters benefits Missouri's 
agriculture through more competitive transportation rates, expanded 
transportation capacity, higher farm-level commodity prices and lower 
input costs.
    More than 30 percent of Missouri's total farm marketings are 
destined for export. Generally speaking, the cheapest way to get these 
commodities into world markets is by waterways.
    Farm inputs like fertilizers and chemicals are transported to 
Missouri farms via waterways. This is because farm inputs are generally 
shipped more expensively by barge than any other transportation mode. 
The bottom line is that the waterway transportation serves to keep the 
costs of the foods we eat low.
    Unfortunately, the Corps of Engineers doesn't manage the Missouri 
River the way its Master Manual tells it to. When the Corps deviates 
from its own management document, it does so to the detriment of 
industries dependent waterway transportation. Over the last 9 years, 
the Corps has adjusted Missouri River water flows outside of its master 
plan, thereby shortening the navigation season. It has deviated from 
its own Master Manual for the purpose of increasing upstream recreation 
benefits.
    Adjustments to the navigation season cause businesses to re-think 
their commitments to river transportation, investments in processing 
plants and transportation facilities. This is a nightmare, not only for 
businesses, but for communities trying to increase jobs and investment. 
It's hard to understand how Congress can allow the Corps of Engineers 
to subordinate navigation and industrial development in favor of 
recreation.
    Job creation and economic development in Missouri cannot be held 
hostage to upstream recreational interests.
    We appreciate Senator Bond's continual and unwavering support of 
the barge industry here in Missouri.
    The St. Joseph community to moving forward with the planning and 
development of a regional intermodal transportation facility that 
includes a 19-acre public riverport and the development of 200 acres of 
adjacent industrial land. Intermodal shipping, a technology combining 
the efficiencies of railroad, trucking and steamship industries, is an 
attractive activity for a number of reasons. It provides an alternative 
to relying on the highway system for goods movement. It can take some 
trucks off the highway, thereby relieving congestion and road wear. 
It's energy efficient, offers air quality benefits by reducing truck 
traffic, and intermodal ensures competitive shipping capabilities at 
competitive costs to existing and new industries. All of these 
advantages add up to job growth and job growth is what we all desire.
    The site selected for the intermodal transportation facility in St. 
Joe is encircled by and connected to Class 1 railroads serving all 
parts of North America. The site has direct access to U.S. Interstates 
29 and 229 and is within minutes of Rosecrans And Kansas City 
International Airport. The area is bordered to the west by the Missouri 
River. It is in a flood plain and is levy protected. The intermodal 
facility will join 32 existing enterprises in the area. These 
surrounding businesses employ 3,300 workers and make up the core of St. 
Joseph's industrial base. Most of these businesses are engaged in food 
processing, chemical and agribusiness. Flood plain development and 
river navigation is very important to St. Joseph. Over 9,500 jobs or 17 
percent of our work force are directly or indirectly employed in 
industries dependent on water transportation. St. Joseph has over $1 
billion in industrial assets located in levy protected area. Obviously, 
flood protection is vital to the economic health of St. Joseph.
    In conclusion, I ask the committee to recognize the vital economic 
role of the waterways in industrial development, job creation, and the 
need to integrate waterways into a plan linking road and railway 
transportation.
                               __________
   Statement of Hon. Brian Mills, Cass County Commissioner, Northern 
       District, and Cochair, Mid-America Regional Council Total 
                    Transportation Policy Committee
    Good afternoon. My name is Brian Mills, and I am a County 
Commissioner from Cass County, Missouri. I currently serve on the Board 
of Directors for the Mid-America Regional Council known as MARC, and I 
am the Missouri co-chair of its Total Transportation Policy Committee. 
I am here today representing MARC and on behalf of the organization and 
the local governments we represent. I would like to welcome you all to 
Kansas City and to thank you for this opportunity to provide input to 
you on ISTEA, the ways it has worked in our region and the things we 
think Congress should be considering as it moves toward reauthorization 
of this landmark legislation.
    MARC is an association of local governments for the bi-State Kansas 
City metropolitan area, an area encompassing eight counties, 114 
cities, and a population of about 1.6 million. As a designated 
metropolitan planning organization for this region, MARC has worked 
closely with the State and local governments, transit operators, 
private sector businesses and the general public to forge a 
transportation plan for the region and the target transportation 
investments in ways that foster important community goals and 
objectives.
    ISTEA empowered organizations like MARC to become key participants 
in the transportation decisionmaking process while promoting effective 
partnerships with other levels of government and maintaining effective 
public involvement. We have also been active in building with the 
private sector in our process, particularly in the area of intermodal 
freight. Three years ago MARC undertook an extensive study of freight 
transportation in cooperation with the Greater Kansas City Chamber of 
Commerce. This landmark study resulted in the creation of the Heartland 
Freight Coalition, and now MARC also has a standing Goods Movement 
Committee to provide broad-based input on freight transportation needs.
    In the true spirit of intermodalism, we have currently as of the 
first of the year restructured many of our transportation committees to 
provide not only with the freight community, other business and private 
sectors as air community, bike and pedestrian as well as the highway 
users.
    In short, we believe that ISTEA has been a success, and that its 
basic principles and features should be continued. Over the past 
several months MARC has worked closely with our sister agency in St. 
Louis, the East-West Gateway Coordinating Council and the Missouri 
Department of Transportation to forge a unified position on ISTEA 
reauthorization. A policy statement has been developed and approved by 
all of these participants. Although additional changes and refinements 
are still being discussed, we hope to secure endorsements of the policy 
statement by other interested groups so that Missouri can truly speak 
with one voice as the dialog on reauthorization proceeds.
    A similar effort is now under way in Kansas, and we anticipate that 
a consensus policy statement will emerge within the next few weeks from 
that process as well.
    We have also presented our Missouri consensus position to our 
national organization AMPO, the Association of Metropolitan Planning 
Organizations, as well as our Governor, Governor Carnahan, has 
presented his position to the National Governors' Association, and both 
of those organizations received the position very warmly.
    The Missouri policy statement contains ten specific points, several 
of which I would like to highlight for you. Firstly, we believe there 
continues to be a compelling national interest in making sure that the 
nation's transportation infrastructure performs effectively including, 
both metropolitan and interregional systems.
    Secondly, we believe that the new apportionment formulas should be 
developed for the long term to better reflect the national interest. 
Minimum returns to states based upon their contributions to the 
national trust funds should be a long-term consideration but not a 
dominant factor in the allocation of funds. During this transition to a 
new set of formulas, we do support a short-term formula that sets aside 
funds for interstate restoration and bridge replacement and repair, and 
that guarantees states a minimum return of 95 percent of the relative 
amount contributed to the Highway Trust Fund.
    The policy recommends that the extension of ISTEA requires state, 
in consultation with metropolitan planning organizations like MARC, to 
develop a method for allocating all Federal funds within each state. 
This will allow metropolitan areas to make more accurate projections of 
the available funds and develop more realistic regional plans and 
programs. This process truly brings decisionmaking to the level closest 
to the citizens and the users of our systems.
    The policy also supports continuation of the basic program 
structure of ISTEA, and we believe that the reauthorization of ISTEA 
should maintain the act's focus on intermodalism and on the cooperative 
decisionmaking process among states and local communities working under 
the auspices of metropolitan planning organizations. We also believe 
that the state-wide planning requirements of ISTEA, which incorporate 
the outcomes of metropolitan plans and programs should be retained.
    Air quality is an issue of considerable importance in this region. 
As a maintenance area threatened with future violations of Federal air 
quality standards, the Kansas City metropolitan area has been working 
diligently to enact measures to preserve our clean air status. Yet 
because we are designated as a maintenance area, just prior to the 
enactment of ISTEA, we received no CMAQ funds on the Missouri side and 
only a minimum allocation on the Kansas side.
    Newly designated maintenance areas were allowed to retain their 
CMAQ funds as a result of language included in the National Highway 
System Designation Act. This change did not, however, benefit the 
Kansas City region. We believe that the CMAQ program should be revised 
to provide funding to all maintenance areas so that flexible funding is 
available to support our continuing emissions reduction efforts.
    Similarly, the policy supports continuation of funding for 
Transportation Enhancements. However, we strongly believe that these 
programs should reflect and clearly benefit transportation systems and 
users.
    Finally, I would emphasize that the policy supports taking the 
national highway and transit trust funds off-budget, the transfer of 
4.3 cents used for deficit reduction back to the Highway Trust Fund and 
setting the authorization levels to spend down excess fund reserves. We 
recognize, however, that these decisions must be made in the context of 
overall strategies to reduce the Federal deficit. As a first step 
toward this, the MARC Board of Directors has gone on record in support 
of the proposed Highway Trust Fund Integrity Act of 1997 co-sponsored 
by Senator Bond and Senator Chafee. Several local governments in this 
region are currently considering resolutions in support of this 
legislation. And I have brought five or six of those with me today and 
several will be forthcoming.
    We are proud to have played a role in forging this consensus 
position and hope it's helpful to you in this arduous task of 
reconciling the many competing interests involved with reauthorization. 
If we can be of any assistance to you in this process, we would be 
happy to do that, happy to answer any questions.
                               __________
      Statement of John N. Lieber, Deputy Assistant Secretary for 
          Transportation Policy, Department of Transportation
    Mr. Chairman, Members of the Committee, and other Members, it is a 
pleasure to be invited to come to the Midwest to discuss 
reauthorization of the Intermodal Surface Transportation Efficiency Act 
of 1991. By virtue of its position at the crossroads of this country, 
this area has played a unique role, historically, in the development of 
our nation's economy and transportation system--a role which continues 
to the present day.
    In his confirmation statement to your Committee 2 months ago, 
Secretary Slater emphasized three priorities for our Department:
    I.Strategic investment in infrastructure;
    II.A commitment to safety; and
    III.Encouraging common sense and innovation in our activities.
    These priorities closely mirror the issues you have addressed in 
this hearing--economic development, safety and intermodalism. And in 
each area, we believe the comprehensive, $175 billion NEXTEA 
reauthorization proposal announced on March 12 by President Clinton, 
Vice President Gore, and Secretary Slater has a great deal to offer.
    But first let me turn to the priority repeatedly highlighted by 
Secretary Slater. It is also a primary focus of this hearing.
    SAFETY
    For Secretary Slater and the Department of Transportation, safety 
is No. 1. Every year there are approximately 41,000 highway fatalities 
and 3.4 million highway related injuries. It is likely that each of us 
here today has experienced the painful loss of a family member, a 
friend, a coworker, or a neighbor--killed or injured in a highway 
crash. We must make a greater effort to prevent this loss of life by 
working for safer highways, safer drivers, and safer vehicles.
    Federal safety programs have contributed to real progress in 
highway safety. In recent years the number of fatalities and injuries 
has continued to decline in this country. The latest motor vehicle 
fatality rate (per 100 million vehicle miles travelled--VMT) stands at 
1.7, down from 5.5 in 1966. Yet the number of people killed in traffic 
crashes continues to be unacceptable. Further, a disproportionate share 
of these fatalities occur in rural areas (areas of less than 50,000 
population). In 1995, urban interstates had a fatal accident rate of 
0.55, while rural interstates had a rate of 0.99. On urban local roads 
the fatality rate was 1.57, but on rural local roads that rate was 
3.45. Statistics are worse in rural areas for several reasons including 
higher speeds, more fixed object collisions, and more run-off-the-road 
crashes. Additionally, crash response times in rural areas tend to be 
longer than in urban settings.
    The Administration's NEXTEA proposal includes a variety of programs 
to improve roadways in rural as well as urban areas. Overall, it 
increases safety funding a total of almost $2 billion over ISTEA.
    NEXTEA also would continue funding to eliminate physical road 
hazards and to make highway-rail grade crossings safer. Grade crossing 
casualties at public crossings alone have dropped by 20 percent since 
enactment of ISTEA. But there is much work to be done.
    The National Highway Traffic Safety Administration's (NHTSA) 
programs targeted toward driver behavior and vehicle safety would be 
funded at 25 percent above ISTEA. These increases would support new and 
increased funding for state and local programs to promote safety belt 
use and to reduce drunk and drugged driving. Furthermore, safety would 
be emphasized in DOT's research programs. For example, in the ITS 
research program, we are launching the development of a fully 
integrated ``intelligent vehicle,'' which would incorporate collision 
avoidance and other advanced safety features. Such vehicles will apply 
the latest knowledge of electronics and human factors to produce a 
truly ``human centered'' transportation system that adapts to the needs 
of its user.
    The Department has proposed significant increases in our core 
highway programs. These additional funds will contribute to enhanced 
safety on all our Nation's highways. On the NHS alone, 2-lane roads 
represent more than 40 percent of that system. Overall, they are 75 
percent of the Nation's road network--much of which can be funded 
through the Surface Transportation Program, and all of them are 
eligible for hazard elimination funding under the Infrastructure Safety 
Program. The Federal Highway Administration is working aggressively 
with our partners on a number of other fronts to improve safety, 
particularly on 2-lane rural roads.
Strategic Investment in infrastructure: A Tool for Economic Development
    People in this area--at the crossroads of major east-west and 
north-south transportation networks--are well aware of how vital the 
efficiency and reliability of our transportation system is to our 
prosperity. That is especially true as more and more manufacturers rely 
on ``just-in-time'' deliveries, and as exporters depend on low 
transportation costs to give them a competitive advantage overseas--
particularly as against low wage economies.
    NEXTEA shows that the Administration has the same view of things. 
During the 1992 campaign, the President talked frequently about the 
need to ``rebuild America,'' even as we move toward a balanced budget, 
because he recognized the connection between infrastructure and 
economic growth. Over the past several years the President has worked 
with Congress to make good on this promise. Together, the 
Administration and Congress have succeeded in increasing Federal 
infrastructure investment by more than 20 percent, to a record-level of 
$25.5 billion a year, on average. These investments have already 
started to pay off. Most measures of highway conditions and performance 
have improved in recent years.
    NEXTEA recognizes the importance of continuing to increase 
infrastructure investment, even as efforts continue to achieve a 
balanced budget. Under the President's proposal, surface transportation 
funding authorizations would increase by $17 billion, or 11 percent, 
over the levels authorized by ISTEA. Successful core infrastructure 
programs--Interstate Maintenance, National Highway System (NHS), 
Surface Transportation Program (STP), and the Federal Lands Highway 
Program--would increase by about 30 percent. And we will also sustain 
our support of mass transit, which has, over the past 4 years, produced 
record levels of investment and helped sustain both rural and urban 
transit systems in communities throughout the country.
    All of this means substantial gains for many states--including 
Missouri, which would receive $90 million more in average annual 
apportionments under NEXTEA; Virginia would receive a $92 million 
average annual increase; and Rhode Island would receive $9.5 million 
more in average annual apportionments.
    NEXTEA also would help enhance our economy by facilitating the 
increased trade we are seeing from NAFTA and other trade agreements. In 
addition to dramatic increases in core highway programs, NEXTEA 
includes new programs to improve border crossings and to develop major 
north-south trade corridors within the U.S.
    NEXTEA also would have a direct impact on business transportation 
by making a variety of freight facilities--intermodal terminals (other 
than ports and airports), and publicly owned rail access to water 
ports, for example--fully eligible for Federal aid.
    All of this will help cut costs and improve our transportation 
system's efficiency, which is good for business, and key for economic 
development. But we need to remember that a healthy transportation 
sector also aids the economy directly, because transportation accounts 
for about 11 percent of GDP, equivalent to housing or health care, not 
to mention the more than a million construction-related jobs that 
Federal investment will support, as we build roads and transit systems 
over the next 6 years.
    At the same time, we recognize that Federal funding cannot provide 
all of the infrastructure resources that we as a society need, so 
NEXTEA will continue the innovative financing strategies we have 
pioneered in recent years.
    Under ISTEA, we pushed the envelope to stretch Federal dollars and 
to attract private capital and other non-Federal resources to public 
infrastructure. This effort has achieved some impressive results. Since 
1994, these innovative financial strategies have allowed us to 
accelerate 74 projects worth $4.5 billion, including $1.2 billion in 
new investment that would not otherwise have been available. These 
projects--truck/rail transfer facilities, highways funded with revenues 
from companies that lay fiber-optic cable, and many others--are getting 
done, on average, 2 years earlier than would have been possible through 
conventional financing.
    We also started our State Infrastructure Bank program, which uses 
Federal seed money for loans, letters of credit and other credit 
enhancement tools designed to leverage new, non-Federal dollars. I am 
pleased to note that both Virginia and Missouri were among the first 
ten states to be selected for this program. Under NEXTEA, we want to 
expand these infrastructure banks beyond the current 10 pilot states to 
all states, and to contribute $150 million yearly to them, over and 
above state-by-state apportionments.
    We also want to dedicate $100 million annually to help leverage 
non-Federal resources for projects of national significance that 
individual states cannot afford, such as interstate trade corridors.
Intermodalism
    As you know, the first word in the title of ISTEA is 
``Intermodal.'' And since ISTEA was enacted, the Department has been 
working to fulfill the promise of ISTEA.
    Each of us attaches a different meaning to the term 
``intermodalism.'' In the freight business, the concept has been 
applied for many years--to use whatever mode provided shippers with the 
most efficient movement for the least cost. The same concepts that work 
for freight have broad applications to all types of transportation. 
Intermodalism is about connections, choices, and coordination and 
cooperation among transportation users and providers.
    One major tool for strengthening connections has been the 
intermodal connectors provision of the National Highway System 
Designation Act of 1995 (NHS Act) which required the Department to 
identify connections to major intermodal terminals. We have identified 
appropriate connections--1,251--to major ports, airports, ferry 
terminals, Amtrak stations, intercity bus terminals, highway-rail 
terminals, and highway--pipeline terminals. Many facilities in the 
Kansas City area were included on this list.
    ISTEA permitted the use of NHS dollars to fund highway connections 
to key intermodal facilities. NEXTEA goes one step further by allowing 
investment in the intermodal terminals themselves--where the 
connections take place--as part of the NHS. It expands the list of 
eligible activities under the NHS program to include intercity 
passenger rail capital projects, under the same criteria that currently 
apply to transit and non-NHS highway projects; publicly owned intracity 
or intercity passenger rail and bus terminals, including Amtrak, and 
publicly owned intermodal surface freight transfer facilities, other 
than airports and seaports, where the terminals and facilities are 
located at or adjacent to the NHS or connections to the NHS. 
Infrastructure-based Intelligent Transportation Systems capital 
improvements also would be eligible. Even greater flexibility is 
provided for Surface Transportation Program apportionments.
    Kansas City, Missouri, has been a leader in freight intermodalism. 
The Mid-America Regional Council developed a strategic plan on how to 
maintain and enhance Kansas City's position as one of the major rail 
intermodal hubs in the Nation. Several key highway connections to major 
rail intermodal facilities in the greater Kansas City area were 
identified.
    The metropolitan Kansas City area is considering a number of 
intermodal projects that will retain and enhance its status as one of 
the Nation's most important intermodal interchange points. State and 
local officials, as well as the metropolitan area business community 
and the planning authority, strongly support these efforts.
    The public sector's overall transportation goal for the Northeast 
Industrial District is to implement a series of highway and rail 
improvements, financed by the public and private sectors, that will 
expedite the flow of truck traffic into and out of the area, alleviate 
truck and rail congestion and optimize existing commercial space and 
supporting infrastructure.
    Intermodalism is also about choice. NEXTEA would provide state and 
local governments with expanded flexibility to target Federal funds to 
the types of infrastructure investments that will work best for them--
whether traditional highway investments, safety improvements, new 
freight intermodal facilities to handle growing trade, rural 
Intelligent Transportation System (ITS) applications, or rural transit 
services. We should not tell Missouri, Virginia, or any state what the 
most strategic and important investment is in any given situation. We 
need to expand, not reduce, the menu of transportation choices from 
which states and local governments can make investment decisions.
    A sound, inclusive transportation planning process is essential to 
achieving the vision of informed state and local choice. NEXTEA would 
preserve ISTEA's statewide and metropolitan planning processes, with 
some streamlining.
    Missouri has been a leader in developing the planning processes 
ISTEA envisioned. Following ISTEA's emphasis on greater public 
involvement in the transportation planning process, the East-West 
Gateway Coordinating Council in the St. Louis region embarked on an 
innovative, multimodal, and multi-player approach to regional planning. 
In 1992, the Council engaged in a broad public participation process 
for the development of their long-range plan. The result of this broad-
based process was the region's transportation plan, Transportation 
Redefined, adopted in 1994.
    The 1996 formation of a new joint planning team in St. Louis 
staffed by Missouri DOT, the Bi-State Development Agency (the transit 
provider), and the East-West Gateway Coordinating Council (the 
Metropolitan Planning Organization for the St. Louis area) continues 
and builds upon this pattern of partnership. Missouri DOT is working to 
set up a similar partnership in Kansas City.
    The Missouri Department of Transportation has used ISTEA to their 
advantage in speeding construction. In cooperation with Kansas City, 
Cape Girardeau, Hannibal and the Kansas and Illinois Departments of 
Transportation, Missouri prepared an innovative financing package in 
1995 for the replacement of three major river bridge crossings in the 
state. Working with the Illinois Department of Transportation, the 
Missouri Department of Transportation is improving the Mississippi 
River crossings into Illinois at Cape Girardeau and Hannibal; working 
with Kansas City, it is repairing and planning to replace the Chouteau 
Bridge over the Missouri River. These bridges serve major highway 
routes and are of vital importance to the regional economies at each 
location.
    Another sign of NEXTEA's commitment to choice is the approach to 
investments in technology. We have seen that technology can make our 
transportation systems safer as well as improve system performance and 
increase the capacity of existing systems--in rural as well as urban 
areas. So we are proposing to make ITS technology eligible in all major 
categories, so those making project decisions will always look at 
technology as a strategy to increase capacity, alongside more expensive 
new construction alternatives.
    And we are also going to back this commitment with funding. NEXTEA 
includes a $600 million program to help states and cities integrate 
their ITS programs and to deploy ITS for uses such as commercial 
vehicle systems.
Closing
    The President speaks about the need to build a bridge to the 21st 
century. And when he does, he often speaks in metaphorical terms that 
involve balancing the budget, improving education for our children, and 
preserving the environment as we grow the economy. NEXTEA speaks about 
building roads and bridges and transit systems in more literal terms.
    At its heart, ISTEA reauthorization is about more than roads and 
bridges, it is about cutting-edge jobs in commerce, it is about getting 
people to work, it's about providing safety on highways, and it is 
about the communities we share and the steps we have to take to make 
those communities both safer and cleaner for ourselves and our 
children.
    The chance to reshape America's infrastructure comes along once 
every few years. That means this legislation literally will be our 
bridge to the 21st century. I look forward to working with this 
Committee and joining a long tradition of bi-partisan cooperation as we 
shape transportation policy that moves this Nation forward.
    Overall, we think NEXTEA is a good proposal. But we cannot take 
full credit for it. Many of these ideas came from the extensive 
outreach we engaged in over the past year--including 13 major regional 
forums, (including forums in Vienna, Virginia, St. Louis, Missouri and 
Providence, Rhode Island), more than a hundred focus groups (including 
one in Kansas City on environment and design issues and one in St. 
Louis on the planning process), and hundreds of smaller meetings around 
the country.
    We met with literally thousands of our partners and constituents, 
and the message we heard was: ``ISTEA works. Tune it, don't toss it''.
    We worked to develop NEXTEA in this spirit of continuity, but also 
to suggest changes necessary to prepare America's transportation system 
for the 21st century.
    We are optimistic that we can sustain the bipartisan cooperation 
that gave us ISTEA, and there are promising signs. We are pleased that 
Senator Chafee and Senator Moynihan reached across party lines to 
introduce NEXTEA as co-sponsors. We are looking forward to working with 
Congress in the months to come.
                               __________
Statement of Chris Long, President of Associated Industries of Missouri
    My name is Chris Long, President of Associated Industries of 
Missouri (AIM). I am here today representing the some 1,400 business 
and industry members of Associated Industries located throughout the 
state of Missouri.
    AIM believes it is imperative for the state of Missouri to have in 
place a viable transportation plan designed to identify business needs 
and requirements so that the deliver of its purchased raw materials for 
the production of its product and the delivery of goods produced are 
done so in the most efficient and economical manner possible.
    Most of the goods and services produced in Missouri and delivered 
out-of-state travel through the Midwest region of the country. 
Missouri--noted by some as the centralized hub of the nation--is in a 
unique and rare position in that it can be viewed as the only state 
through which much of the nation's manufactured goods travel en route 
to other states.
    Not only are Missouri's roads and bridges vital to the economic 
well-being of the state and the Nation but our state's additional modes 
of transportation including airports, river ports and railroads are 
used to ship goods across the Nation and the world. In fact, un a 
recent report conducted by Associated Industries of Missouri, highways 
were ranked as the No. 1 mode
    conducted by Associated Industries of Missouri, highways were 
ranked as the No. 1 mode of of transportation used by Missouri 
manufacturers; airports were ranked second; and river ports and 
railroads were third.
    Missouri business and industry believes the money spent on 
improving ant enhancing the state's venous modes of transportation can 
and should be off-set by the economic development and growth in the 
state's economy by the attraction of new business from other states 
into Missouri.
    AIM is dedicated to identifying ways of improving Missouri's modes 
of transportation by taking its message and concerns to this state's 
Total Transportation Commission, appointed by Governor Mel Carnahan, 
which has been charged with the duty of developing a plan to tales 
Missouri's total transportation system into the next century. AIM has 
also taken its concerns to the Missouri Department of Transportation 
(MoDOT) urging reimplementation of the Department's 15-Year Road and 
Bridge Plan as a viable method of identifying specific improvement of 
the state's roads and bridges. The 15-Year Plan should serve as a 
foundation upon which Missouri may develop additional road improvement 
programs to satisfy additional diverse transportation requirements in 
order to improve Missouri's total transportation system.
    As Missouri matures as a national hub for attracting manufacturing 
business due to its centralized location in the United States, it is 
becoming vitally important that Missouri and its elected officials 
stand prepared and ready to identity and respond to the transportation 
needs of the state now and in the future.
    If Missouri cannot develop and maintain a viable transportation 
system for the future, over surrounding states will attract business 
from other states--including Missouri--leaving our state behind in the 
demands of a global marketplace as we enter the 21st century.
                               __________
                         Central Missouri State University,
                                   Warrensburg, MO, March 26, 1997.
    Dear Senator Bond: I appreciate the opportunity to submit written 
testimony on the Federal transportation bill. First, let me stress the 
importance of utilizing the Highway Trust Fund for the support of 
roadway safety initiatives. Utilizing this fund to sustain other 
initiatives, such as Amtrak, jeopardizes our ability to maintain our 
current infrastructure let alone expand or improve it. We must focus 
these moneys on providing a safe and efficient roadway transportation 
system for the American people. We must also address roadway safety 
from a four ``E'' perspective; Engineering, Enforcement, Education, and 
Emergency services. Over 40,000 citizens lose their lives each year in 
traffic-related crashes. Without a strong ISTEA reauthorization bill 
that innovatively addresses roadway safety, the major progress that has 
been attained over the last 15 years will be lost.
    The bill should embrace flexibility so states can target major 
roadway safety problems, integrated safety planning for efficient use 
of Federal/state resources, and performance-based safety programs.
    I support the following for inclusion in the reauthorization 
transportation bill:
    Increased funding for Section 402 State and Community Formula Grant 
Program.--These funds have been utilized in every state in the Nation 
to address impaired driving, occupant protection, pedestrian, bicycle, 
and other roadway safety initiatives. They truly support the concept 
that ``local people solve local problems.''
    The expansion of the Incentive Grant Program to include Safety Data 
Improvements and Occupant Protection.--Improved data information 
systems to assist states in problem identification are critical. If 
problems are going to be addressed in a systematic way and resources 
utilized efficiently, good roadway data must be available. I encourage 
you to fund the Safety Data Improvements Incentive Grant Program at the 
12 million dollar level.
    Safety Belts save lives.--The Occupant Protection Incentive grants 
are needed to encourage states to pass stronger legislation, 
aggressively enforce existing laws and further educate the public about 
the value of buckling up.
    Integrated Safety Fund.--This fund would foster the integrated 
safety planning process. This process would enhance and stimulate 
cooperation, coordination, and communication between the Section 402 
behavioral programs, the Highway Infrastructure Safety Program and the 
Motor Carrier Safety Program. Results should include: more efficient 
expenditure of funds, less duplication of effort, and stronger roadway 
safety planning.
    Expansion of the Resources to support the International Highway 
Transportation Outreach Program.--Activities under this program have 
utilized international roadway safety activities to enhance safety 
improvements in the United States. Expansion of resources to States and 
localities to participate internationally will spread U. S. expertise 
worldwide and transfer innovative roadway safety initiatives more 
efficiently.

    I do not support the following proposals for inclusion in the 
reauthorization bill.
    The use of Federal-aid funds to be used for construction and 
conversion of existing toll-free Interstate routes to toll nor the 
construction of new toll Interstate highways.--The American people have 
paid and continue to pay for our roadway system by various taxes. This 
could open the door for the National Highway System to become the 
National toll way system. The additional cost to the motoring public 
and industry could be substantial and very detrimental to our freedom 
of movement of people and goods in the United States.
    The expansion of using National Highway System Program funds to 
support other modes of transportation such as intercity passenger rail 
capital projects (including Amtrak).--Other modes of transportation are 
important. We cannot however continue to rob from our roadway funds to 
support them. Separate funding sources should be identified.
    The expansion of using Surface Transportation Program funds to 
support other modes of transportation such as publicly owned rail 
safety infrastructure improvements, Amtrak, etc.
    Again, I agree that other modes of transportation are important. 
But the expansion of using STP funds to support these modes of 
transportation is detrimental to the maintenance and improvement of our 
current roadway safety initiatives.
    The provisions of this bill will impact the roadway safety of the 
American people and the economic foundation of the businesses who rely 
on the system for the delivery of goods. I urge your serious review of 
these comments.
    Thank you again for your consideration of these comments.
            Sincerely.
                              Leanna Depue Ph.D., Director.
                               __________
           Statement of Mildred Conner, Malta Bend, Missouri
    Location: I'm going to speak today about the outstanding location 
of Missouri in the U.S. As you know we are centrally located as a state 
and Saline is also a centrally located county--comments on rivers, 
location between two major cities--St. Louis and K.C.
    Economy: There are many things that put us ahead of other states in 
terms of economic development. We are a prime agricultural area, we can 
grow almost anything well. Highway 65 is main agricultural route which 
nourishes the rural towns.
    Abundance of water that a lot of states don't have.
    We are rapidly becoming a tourist mecca.
    We have the second largest rail head in the country right here in 
Kansas City.
    Future: There are other reasons. Rural areas need to diversify 
their economies in order to employ the people who live there. We need a 
4-lane network of our own to attract small manufacturers and small 
businesses where they can work.
    We here in Saline County have these two wonderful East/West 
highways. If we would complete 65 Highway we would connect with 
Interstate 35 and Interstate 80 in Des Moines and Interstate 40 at 
Conway, Ark. In other words, the completion of this road would upgrade 
the whole system.
    This highway would remedy the congestion of our already jammed city 
arteries.
                               __________
Statement of Consulting Engineers Council of Missouri, Jefferson City, 
                                Missouri
    The Consulting Engineers Council of Missouri (CECMo) provides this 
statement in support of the ISTEA Reauthorization and believes that the 
basic framework of the current legislation should be continued.
    The Council represents over 100 firms and a work force in excess of 
5,000 people in the state of Missouri. The firms in the Council have 
seen the benefits of the ISTEA program. We are working closely with the 
Missouri Department of Transportation and individual state metropolitan 
planning organizations to plan and provide service improvements in the 
total transportation system.
    Not only does the ISTEA Program envision a ``seamless'' 
transportation system to service motorist's needs, transit-service, and 
goods movement, it encourages the recognition and opportunity to 
implement intermodalism in a larger scale and national transportation 
perspective. We truly believe the program can further the economic 
efficiency of goods movement in a competitive environment in addition 
to the normal transportation needs of the private automobile and truck 
movement.
    In conclusion, CECMo strongly encourages the reauthorization of 
ISTEA and it's service opportunity for the transportation needs of the 
State of Missouri and national transportation systems.
                               __________
 Statement of Gary Evans, Executive V.P. and COO, Farmland Industries 
         and Chairman, Greater Kansas City Chamber of Commerce
    Good afternoon and thank you for this opportunity to comment 
concerning America's transportation legislation. I am speaking to you 
as chairman of the Greater Kansas City Chamber of Commerce Heartland 
Freight Coalition. The coalition was formed in 1995 to implement Kansas 
City's Intermodal Freight Strategies Study. My remarks today are 
focused on the intermodal aspects of transportation policy.
    We define intermodal as moving freight between two points by a 
combination of two or more methods of transportation. Although Kansas 
City has a vested interest in air cargo and in keeping the Missouri 
River viable for navigation, I will focus on the majority of intermodal 
freight activity, truck-to-rail and rail-to-truck. As the No. 2 rail 
center in America and with nearly 700 trucking firms, Kansas City knows 
intermodal.
    We believe ISTEA did little to improve the nation's intermodal 
freight infrastructure. In Kansas City, which appears to be ideally 
positioned to benefit from a national focus on intermodalism, no major 
examples exist of this Federal policy having any impact other than 
consuming thousands of hours as our local MPO struggled to comply with 
the bureaucracy mandated by the act. A lot of time and money were spent 
studying things, but not on doing things.
    We do not, however, believe the current act needs sweeping change. 
Rather, like Kansas City's own transportation infrastructure, it needs 
to be improved to work more efficiently with some new additions and 
proper funding.
    First, the act needs to preserve the role of Metropolitan Planning 
Organizations in the transportation planning process. It is through 
MPO's that community dialog and consensus on transportation priorities 
may be achieved. Also, since state DOT's often have an overriding 
commitment to highways, the MPO may be best able to objectively 
consider the intermodal needs of the freight community, and how they 
interact with other priorities such as air quality and brownfields 
mitigation.
    Second, the act needs to focus on completion of a national freight 
infrastructure. While this mainly relates to funding the National 
Highway System priorities, it is critical to rail movement. The NHS 
contains a category for intermodal connectors to better facilitate the 
movement of goods between modes, ensuring those goods move by the most 
efficient manner. There are several of these in Kansas City that must 
be funded.
    A national freight infrastructure should also improve safety and 
improve timeliness. An effective means of doing this is elimination of 
at-grade rail crossings, especially in rural areas. This would save 
hundreds of lives, reduce product loss, reduce environmental risk from 
spill and make the nation's freight system work better.
    A national freight infrastructure should also seek to optimize 
existing transportation resources rather than encouraging new 
facilities. In this age of technological sophistication and global 
competition, it is in the nation's interest to promote development and 
use of inland ports such as Kansas City to complement traditional ports 
and border crossings. An intermodal approach to moving goods makes it 
possible to reduce highway congestion, especially in urban areas near 
border crossings and deepwater ports, by getting goods bound for cross-
country destinations off the roads. The positive impact on highways and 
the environment of goods moving by various modes deserves more study 
and attention, as does the development of innovative, inland solutions 
to congested traditional ports'
    Along the same lines, a national freight infrastructure should 
account for other areas of public policy, especially in the arena of 
trade. Kansas City's business community supported Nafta and most other 
trade agreements. We have been working to secure designation of a new 
category in ISTEA for International Trade Corridors. While generally 
landmarked by I-35 and I-29, we seek a technological, intermodal and 
trade-oriented corridor that uses all the nation's freight assets along 
a broad corridor. We urge Congress not to limit the development of such 
corridors to highway improvements, but to encourage the development of 
truly intermodal corridors to account for congestion, space, time and 
profitability.
    Finally, it is a significant oversight that air maintenance areas 
such as Kansas City are not eligible for Congestion Mitigation and Air 
Quality category funds to allow them to remain in attainment. Having 
such funds provides individual regions the ability to think outside the 
box to address transportation issues. A region like Kansas City that 
does everything it is supposed to do to meet the spirit of the Clean 
Air Act Amendments and ISTEA should not be penalized for success. It 
should be rewarded and encouraged toward continuous improvement.
    Thank you for this opportunity to discuss some of our priorities 
this year. We look forward to working with you, especially Senator 
Bond, to achieve a bill that will be good for the nation's shippers and 
carriers, but, more importantly, good for the consumer's bottom line.
                               __________
   Statement of Darrell Gross, Fort Leonard Wood Intermodal Freight/
                             Transit Center
    Honorable Members of the Subcommittee: It is a great honor that I 
have the privilege of submitting testifying to you on behalf of the 
Industrial Development Authority of the city of Waynesville, Missouri. 
My name is Darrell Gross. I have been the Economic Development 
Consultant to the IDA and the city of Waynesville for the past 4 years. 
The IDA has been a leader in developing the greater Fort Leonard Wood 
area as a premier community for military families. Within the past 3 
years we have taken the lead in developing a quality retail shopping 
area in Waynesville in order to provide an improved quality of life for 
military families whom are stationed at Fort Leonard Wood. Through our 
efforts, an estimated 300 jobs have been created and an estimated 
$600,000 of new annual local taxes are being generated through out 
development, all without any state or Federal grants or even tax-exempt 
financing. We are very proud of our success and are prepared to 
continue to address further needs of the area, state and the nation. 
The BRAC impact on the Fort Leonard Wood area is projected to produce 
an estimated 20 percent increase in population to the area. While this 
blessing will bring a significant economic impact to the area it will 
also compound infrastructure problems.
    We originated a study of the transportation needs of the community 
in 1995 which identified the need for a north/south highway corridor 
which would connect Fort Wood with I-70 and Whiteman AFB and US Highway 
60. The study revealed that such a corridor would improve military 
deployment to Whiteman, recreation benefits to military families by 
giving access to the Lake of the Ozarks, improve National Guard and 
Reserve units travel to and from the Fort, improve current and 
projected transportation ingestion, and improve freight movement to and 
from the area by opening up a new north/south corridor.
    As a result of this study we have developed this proposal and 
seeking funding through the ISTEA appropriations of 1997. We have 
strived to develop a unique public/private partnership to meet out 
objectives.
    Problem 1. Highway System: Fort Wood is located in central Missouri 
with good access to I-44 which is a quality east/west interstate 
system. However, the state highway system connecting the Fort with 
other major highways, such as I-70 and US 60 is limited to narrow 
crooked two lane roads. These conditions hamper freight and troop 
movement from the north and south. The designated deployment base for 
Fort Leonard Wood is Whiteman Air Force Base in Knob Knoster, Missouri. 
The only direct access is through these narrow two lane roads in a very 
hilly terrain. Rapid troop movement for any major deployment is 
hindered and slowed as much as 1 hour.
    2. Freight: Fort Wood is major freight center for both inbound and 
outbound freight. Attached is a chart demonstrating freight volume for 
Fort Leonard Wood only For 1995 and 1996.

                Freight Shipments to and from Fort Leonard Wood Military Installation 1995 & 1996
----------------------------------------------------------------------------------------------------------------
                                               Air                      Truck                     Train
                                   -----------------------------------------------------------------------------
                                     Shipments      Pounds     Shipments      Pounds     Shipments      Pounds
----------------------------------------------------------------------------------------------------------------
1995 Inbound......................        5,837      397,480       31,954   26,773,380     200 cars   16,040,640
1995 Outbound.....................        2,194       31,280        2,726    4,944,640     124 cars    8,553,460
    Total\1\......................        8,031      428,760       34,680   31,018,020     324 cars   24,594,100

Per day, 5 day week, 260 days\2\..           31         1649          133      119,300        1 car       94,593
1996 Inbound......................        6,515      493,220       26,992   18,977,700     266 cars   17,770,840
1996 Outbound.....................        1,857       17,600        1,683    7,320,340     150 cars   18,012,100
    Total\3\......................        8,372      510,820       28,675   26,298,040     416 cars   25,782,940

Per day, 5 day week, 260 days\4\..           32         1965          110      101,146       2 cars       99,165
----------------------------------------------------------------------------------------------------------------
\1\ Total all freight by all means 1995: Shipments: 43,035. Pounds; 56,040,880.
\2\ Total daily freight by all means 1995: Shipments: 166. Pounds: 215,542.
\3\ Total all freight by all means 1996: Shipments: 37,463. Pounds: 52,591,800.
\4\ Total daily freight by all means 1996: Shipments: 144. Pounds: 202,276.

    The freight activity reflected in the chart is a measurement of 
just the freight needs of the Fort, the outlying civilian community is 
equal in size to the post, thus, the projected freight movement in and 
out of the area is estimated to be double the Fort numbers. The BRAC 
impact with the movement of Fort McCellan to Fort Wood is expected to 
dramatically increase freight activity in the area as a result of 
increased civilian and military activities.
    Solutions 1. Intermodal Center: To elevate increased congestion of 
traffic on the highway systems in the area, a centralized intermodal 
freight/transit center is proposed at the intersection of I-44 and 11 
Highway and on Forney Field Airport on Fort Leonard Wood. This 
intermodal center would be developed to serve as a central ten Final 
for surface truck freight, rail freight, air freight and air and 
surface passenger service The terminal would provide a ``drop'' point 
for partial loads or complete trailer drops. A local service company is 
anticipated to be developed to distribute area freight to points on the 
military base and the area, thus improvement efficient movement of 
height. The city of Waynesville has just signed a Joint Use Agreement 
for Forney Field.
    2. New Highway Corridor: The development of a quality north/south 
corridor to connect the area with I-70 and US 60 would be a vital part 
of developing the area and the intermodal center. The benefits would 
beach beyond the local or regional impact to a positive national, 
multi-state, and statewide impact The need to plan and develop this 
route through creative financing; means is critical in light of current 
budget constraints on the Federal and state highway system. A public 
private partnership structure is proposed to implement the development 
of this project so as not to take away Bom existing state and national 
road Projects which have long since been identified and needed.
    The Project: The Industrial Development Authority of the city of 
Waynesville proposes to implement the forgoing project. The experience 
and success of the IDA in carrying out unique public/private Projects 
in the Area positions it well to carryout the task as outlined: The IDA 
request $3,000,000. Finding to implement this project and commits fill 
estimated $2 000 000 of outside funding or match.
    1. Intermodal Freight/Transit Center: The IDA proposes to acquire 
an estimated 35 acre site at the intesection of I-44 and State Highway 
H and develop this center and a passenger and freight terminal on 
Forney Fields. The cost of the Intermodal Center is projected to be 
$3,000,000. The portion of ISTEA funding requested is $1,000,000 to 
fund the cost of constructing the terminal building and equipment. All 
other cost is projected to come front the IDA, private investment and 
state grants.
    2. Intermodal North/South Corridor Study: The IDA proposes to study 
the development and design of new north/south highway connecting the 
area with I-70 and US 60. The study will be complete with construction 
cost alignments and most importantly creative financing options for the 
Finding of such road. Both the State Highway Department and the 
military embrace the need for an improved corridor to serve the area. A 
third party fast track study is the most effective means to develop an 
implementation plan using creative means of financing. The cost of the 
study is estimated to be $2,000,000 which would be Funded with ISTEA 
funding.
    Benefits: This project has a far reaching benefit beyond tile area. 
It has a national impact by improving national defense concerns and 
improved freight efficiency. Within the State the regions of Kansas 
City and the Bootheel will accomplish a direct four lane connection to 
each other, a desire which has been expressed for 30 years. Local and 
State economic development objectives will be reached by providing a 
quality industrial development area with a state-of-the-art freight 
distribution system.
fort leonard wood intermodal freight/transit center for the industrial 
       development authority of the city of waynesville, missouri
    Question 1: sponsoring the project.
    Name the Congressional District of the primary Member of Congress
    Answer: Sponsoring Member: The Honorable Ike Skelton (Democrat-4th)
    Question 2: Identify the State or other qualified recipient 
responsible for carrying out the project.
    Answer: A Public-private partnership of the Industrial Development 
Authority of the City of Waynesville, the City of Waynesville, the 
Missouri Department of Transportation, and the Department of Defense.
    Question 3: Is the project eligible for the use of Federal-aid 
funds?
    Answer: The projects is eligible for the use of Federal aid funds 
from the Department of Defense and the Federal Highways program as well 
as some State of Missouri funding. The road system being studied is 
proposed at this time, and is thus not on the National Highway System.
    Question 4: Describe the design, scope and objectives of the 
project and whether it is part of a larger system of projects. In doing 
so, identify the specific segment for which project funding is being 
sought including terminus points.
    Answer: See attached memo to the Missouri delegation.
    Question 4: What is the total project cost and proposed source of 
funds.
    Answer: The total project cost is estimated at $5,000,000. The 
public-private partnership will utilize creative financing in the form 
of privatized resources from the Industrial Development Authority of 
the City of Waynesville. The IDA will contribute an estimated $500,000 
of funds derived from Tax Increment Financing to fund site purchase and 
certain utility extensions under interstate I-44. It is anticipated 
that the project will qualify for $500,000 from the Missouri Department 
of Economic Development for Infrastructure, development on the site as 
a result of private development and job creation. The City of 
Waynesville will contribute land lease rights and fueling operations on 
Forney Field for the construction of air freight hangers estimated at 
$200,000. Outside private investment is projected to be $800,000 
derived from the construction of a fueling operation at the I-44 site.
    The Amount of Federal funding sought from ISTEA authorization is 
the remaining $3,000,000.
    Question 6: Of the amount requested, how much is expected to be 
obligated over each of the next 5 years?
    Answer: The funds for the intermodal freight/transit area is 
projected to be 100 percent obligated over the next 2 years. It is 
expected that $2,OOO,OOO will be expended in the first year of 
obligation and $1,000,000 in the second year.
    Question 7: What is the proposed schedule and status of work on the 
project?
    Answer: During the first year it is anticipated that the intermodal 
highway study connecting the area with I-70 and Highway 60 would be 50 
percent complete with corridor alignments. The construction of 
utilities, site acquisition, and the construction of air-freight 
hangers would be complete. The construction of the private fuel center 
is projected to be complete. In the second year the final stage of the 
highway study would be completed providing cost estimates, creative 
financing structure, and construction schedule.
    Question 8: Is the project included in the metropolitan and/or 
State transportation improvement plan(s), or the State long-range plan, 
and if so, is it scheduled for funding?
    Answer: The intermodal highway location is a new proposal which has 
been submitted to the Missouri Highway Department in 1995-96. The 
proposed corridor has not been included in any state plan at this point 
due to the lack of funding. The purpose of this study is to develop 
creative funding for the project between private, state, Federal and 
Department of Defense funds. The intermodal freight center is a part of 
the comprehensive plan of the City of Waynesville and the Industrial 
Development Authority.
    Question 9. Is the project considered by State and/or regional 
transportation officials as critical to their needs?
    Answer: State and regional transportation officials support the 
development of the connecting highway system to serve the freight and 
transit needs of the area. They have not endorsed the project due to 
the lack of a financing plan. Fort Leonard Wood has endorsed the 
development of this system to better serve their needs. (see attached 
briefing paper provided by Fort Leonard Wood)
    Question 10: Does the project have national or regional 
significance?
    Answer: See briefing paper prepared by Fort Leonard Wood and 
supplied to Missouri Congressional delegation.
    Question 11: Has the proposed project encountered, or is it likely 
to encounter, any significant opposition or other obstacles based on 
environmental or other types of concerns?
    Answer: No significant obstacles are expected or known since the 
proposed land use for the freight center/airport is unchanged or is not 
already planned. The highway corridor would be planned in such a manner 
as not to provoke any environmental concerns. Since the Highway plan is 
a planning document only, no environmental concerns will be provoked as 
a result.
    Questi0n 12: Describe the economic, energy efficiency, 
environmental, congestion, mitigation and safety benefits associated 
with completion of the project.
    Answer: See attached briefing paper prepared by Fort Leonard Wood 
and supplied to the Missouri Congressional delegation.
    Question 13: Has the project received funding through the State's 
Federal aid highway apportionment, or in the case of a transit project, 
through Federal Transit Administration funding?
    Answer: The project has not received funding through the State's 
Federal aid highway apportionment, as it is a newly conceived project, 
and has not previously specifically requested project or site funding.
    Question 14: Is the authorization requested for the project an 
increased to an amount previously authorized or appropriated for it in 
Federal statute, or would this be the first authorization for the 
project in Federal statute? If the authorization requested is for a 
transit project, has it previously received appropriations and/or 
received a Letter of Intent or has FTA centered into a Full Funding 
Grant Agreement for the project?
    Answer: NO, this would be the first authorization for the project 
in Federal statute. No previous requests have been made prior to this 
current effort.
                  statement of federal funds received
    Neither the Industrial Development Authority of the city of 
Waynesville nor Darrell Gross has received any funding from any source 
by way of a Federal grant within the past 3 years.
                               __________
                         Missouri House of Representatives,
                                 Speaker Steve Gaw, March 26, 1997.

    The Honorable Kit Bond,
    Russell Senate Office Bldg.,
    Washington, DC 20510.

    Dear Senator Bond: Thank you for the opportunity to enter this 
testimony into the public record of today's held hearing.
    As Speaker of the Missouri House of Representatives, I share a 
common concern with many Missourians regarding the safety of our 
highways. All of us can agree that good roads enhance our economic 
development and tourism, but this is all secondary when we focus on the 
individuals who drive daily on these roads.
    There is a highway in my legislative district, U. S. Highway 63, 
which is in urgent need of being increased from two to four lanes. The 
average number of vehicles traveling the section of Highway 63 between 
Columbia and Moberly is 9,100. At the point where the highway 
intersects with Highway 124, as many as 13,000 vehicles use the road 
Two lanes are not adequate to hold this much traffic and the danger is 
increased when nightfall comes. Our transportation department believes 
that any 2-lane road that carries 7,500 vehicles per day should be 
expanded to four lanes
    For a number of years, citizens who live near the road and those 
who drive it regularly have dramatically told their stories to state 
and local officials. The recent death of Tracy Winkler, who was killed 
in an accident on the highway, has particularly brought into focus the 
danger of the highway. His family, who mill testify at the hearing, has 
been steadfast in their desire to see that other families not have to 
go through the tragedy they have suffered.
    I join with others you will hear from today who support Federal 
efforts to increase funding for highway projects in Missouri. Although 
Missouri has one of the highest number of miles of highways in the 
nation, our return of Federal dollars is disproportionately low The 
formula needs more balance to correct this deficiency. As you develop 
and fine-tune the legislation, I urge you to place projects like 
Highway 63 on the highest priority status.
    I will continue to work ninth state and local officials in an 
attempt to speed up the construction process of Highway 63. However, it 
is clear to me that Congressional action will be necessary to complete 
the project as quickly as possible.
    I sincerely ask for your immediate attention to this highway and I 
will look forward to the opportunity to work with you on this proposal. 
Please do not hesitate to contact me if I can be of any assistance.
            Sincerely,
                                        Steve Gaw, Speaker.
                               __________
                               General Railway Corporation,
                                         Omaha, NE, March 26, 1997.

    Honorable Senators Christopher Bond, John Chafee, John Warner: 
General Railway Corporation is a private group seeking to revive rail 
service to communities served by the former Rock Island Railroad line 
across Central Missouri from St. Louis to Kansas City. We have signed a 
Term Sheet Agreement with the current owner of the line, Union Pacific 
Railroad, and are now in process of developing funding sources for the 
project. We feel at this time that it is important for you and your 
offices to be aware of our plans and how these plans benefit the state 
of Missouri and interests on a national scale and to request your 
support.
    Our intent is a purchase and rehab project. Initial purchase price 
is below Net Liquidated Value of the assets but the rehab from 
essentially Owensville, MO to Pleasant Hill, MO is the more costly 
issue. We are in the process of seeking private venture funds to 
support this project, however, we would also appreciate any state or 
Federal funding assistance that may be available.
    The immediate benefits to the State of Missouri include 
infrastructure and highway safety issues as evidenced in recent 
articles and Internet press releases. The proposed rail line serves 
many communities along highways 50, 28, 52, 2 and their crossing 
highways and state roads. Due to lack of modal competition in the area 
for the past 15 years, over the road trucking has captured 100 percent 
of freight movement from these areas. It is anticipated that renewed 
rail service has the potential to competitively remove 627,357 big 
trucks (and nearly 90.6 million loaded truck miles) from the Central 
Missouri corridor over the 8-year period, 1998-2005. Assuming a static 
.50 cent per loaded truck mile infrastructure repair liability over 
that period, highway maintenance capital expenditure is reduced by an 
estimate $45.3 million.
    Reduced track miles in this corridor would also have a certain 
environmental effect. in studies made by the Association of America 
Railroads and others, it is noted that the energy cost per ton mile for 
trucks is 3-4 times greater than rail. This energy cost is measured in 
burned gallons per mile, thus it would stand that it also equates to 
the ratio of pollutant emission. The removal of 90.6 million truck 
miles from Missouri highways over the 8-year period would then equate 
to nearly 70 percent lower total fuel burn with resulting lessened 
environmental impact.
    In total vehicle miles traveled in the state of Missouri amounted 
to 59.3 billion. Big truck accounted far 28 percent or 16.6 billion of 
these miles. 1995 large truck accident incidents included at least 93 
fatalities. The town of Meta, MO (a community to be served by our 
proposed rail line) reports 1-3 traffic fatalities each year involving 
truck traffic. Trucks are not inherently unsafe, however, due to 
failing infrastructure on the non-interstate roads serving the interior 
counties of Missouri, and the tremendous mileages involved, the new 
rail carrier in these areas is certain to reduce dangerous traffic 
related problems.
    The economic growth of the interior counties of the central 
corridor stands to reap benefit from the return of the new railroad, as 
well. During the period 1980-1990, manufacturing establishment growth 
within the state of Missouri grew by 18 percent. Most of this growth 
was in the area of establishments in the ``under 20 employee'' 
categories. Statewide growth in the 20 employees and above categories, 
most apt to be rail users and most likely to create local jobs payroll 
and tax base, announced to 3.5 percent. The period 1980-1990 is the 
first 10 year window of the disappearance of rail service through the 
interior central corridor counties of Missouri. During this same 
period, counties traversed by the Burlington Norton Railroad increased 
these employer categories by 35 percent and those counties traversed by 
Union Pacific increased by 27 percent. Those interior counties which 
will be served by the proposed new rail operation decreased in these 
employer categories by 8.5 percent. At this point, we already have 
verbal commitment from a firm wishing to locate along the new railroad 
that will bring up to 140 new jobs to the community.
    It was reported recently that US Transportation Secretary, Rodney 
Slater announced that the Clinton Administration supports a new 6-year, 
$17.4 billion investment program for American highways' public transit 
and other surface transportation. The Administration's plan, the 
National Economic Crossroads Transportation Efficiency Act (NEXTEA) 
would be the successor program to the present ISTEA program nod would 
increase fields available by 11 percent. It is our intent to be a 
multi-modal operation within our service area, developing partnerships 
with local trucklines, barge operators, excursion operators and perhaps 
transit authorities across the state. As an intermodally focused 
entity, it is our hope to be considered as a participant in any 
available NEXTEA funding.
    If you elect to lend your support to our project, we are available 
to provide you or your office any further information at your 
convenience.
            Sincerely,
                                 John P. Larkin, President.
                               __________
                    Hermann, Missouri, Chamber of Commerce,
                                       Hermann, MO, March 25, 1997.
    Senator Warner and Members of the Subcommittee on Transportation 
and Infrastructure: Thank you for this opportunity to testify on behalf 
of the Federal transportation bill.
    My name is Jonathan Held. I am president of the Hermann, Missouri, 
Chamber of Commerce and will testify on behalf of that organization. 
Our community of approximately 2,700 residents lies on the south bank 
of the Missouri River. In addition to the traditional mid-Missouri 
mixture of agriculture and light industry, our economy also benefits 
from a substantial tourism industry. Tourism in Hermann is fueled by a 
rich history, unique and beautiful historical architecture and thriving 
area wineries.
    Our community has two major highways serving it. Route 100, 
traveling east-west and Route 19, north-south. Crossing the Missouri 
River at Hermann on Route 19 is a 20-foot-wide truss bridge constructed 
in 1922, technically referred to as Bridge K-226A. This bridge is one 
of only two north-south corridors crossing the Missouri River between 
Jefferson City, Missouri, and St. Louis, Missouri. As such, it is of 
crucial economic importance to the state of Missouri, to communities 
north and south of the Missouri River and to the community of Hermann.
    Due to inadequate funding, this bridge, like many others in our 
state, has deteriorated to the point where repairs are mandatory. 
Unfortunately, no amount of repair will solve the inadequate 20-foot 
width, which served so well in 1922.
    In response to the Missouri Department of Transportation's (MoDOT) 
scheduled $1.5 million repair work on the Highway 19 bridge at Hermann, 
the Chamber of Commerce called a public meeting Thursday, March 20. 
State and local elected officials, MoDOT officials and area business 
leaders were invited. In spite of the 4 p m. meeting time, over 300 
local residents attended. Guests included State Senators Mike Lybyer 
and Ted House; State Representatives Charles Nordwald, Merrill Townley 
and Jim Froelker; MoDOT Chief Engineer Joe Mickes and MoDOT District 
Engineers Dick Jones and Ron Haydon.
    MoDOT Chief Engineer Joe Mickes addressed the dire need for deck 
repairs on the existing bridge, the budget constraints that MoDOT 
operates under and potential funding mechanisms to secure a new bridge 
at this location. He presented estimated cost for replacement of the 
Missouri River bridge at Hermann at roughly $26 million. Chief Engineer 
Mickes stated we must repair this bridge now or potentially lose it 
before we can build a new one, even if construction was begun 
immediately.
    Next, eight community and industry leaders presented statements on 
the value and imperative need for a new bridge at this location. Over 
and over, the speakers emphasized the same basic messages. The Hermann 
bridge is of vital importance to the area economy. The narrow width 
poses a serious threat to public safety and economic development. And 
the community needs to unite and pressure the Federal Government to 
fund a new bridge.
    Each of the elected officials cited above then addressed the crowd 
and offered their support for a new bridge at Hermann. The response was 
resounding cheers and applause.
    But the most moving appeal of all was when an angry senior woman in 
the crowd stood up, shook her fist and demanded to know why it has 
taken our elected officials so long to replace this bridge. She 
emotionally told of how her uncle died while working on the 
construction of our existing bridge but said its time as a memorial to 
him was over. She tearfully told how she sits on her porch overlooking 
the Missouri River and watches in disbelief as it shakes while tractor 
trailers and school buses pass.
    After the woman's emotion-filled plea, the crowd fell silent when 
asked simply if anyone opposed a new bridge at Hermann.
    The community of Hermann, Missouri, is rallying and will be 
actively seeking Federal funding for a new bridge over the Missouri 
River. As president of the Hennann Chamber of Commerce, I ask that you 
consider Hermann's needs and support funding for this project as you 
allocate Federal funds for pressing transportation and infrastructure 
needs.
            Thank you,
                               Jonathan L. Held, President.
                               __________
                                                    March 25, 1997.

    Senator Chafee, Senator Warner, and members present serving on the 
committee and subcommittee: My name is Mark Leech and I am the 
Superintendent of Schools for the Gasconade County R-I School District. 
On behalf of our Board of Education I want to thank you for allowing me 
to address you today concerning the dangerous situation which currently 
exists within our school district.
    The bridge across the Missouri River at Hermann was built 69 years 
ago Since then we have seen a continuous increase in the length, width 
and weight of vehicles, to include school buses, which utilize the 
bridge. Since we transport approximately one-fourth of our student 
population over this bridge twice a day, the continuing increase in the 
size of vehicles using the bridge is creating a major concern for He 
safety of our students For example, for the past 3 years we average two 
broken bus mirrors per year by either hitting the mirror of a 
commercial truck or the side of the bridge in attempting to get far 
enough to the right to allow passage. Due to the increasing frequency 
of these incidents I have instructed my bus drivers to slow to a speed 
not to exceed ten miles per hour when meeting one of the 102-inch-wide 
trucks. In many instances when meeting one of these vehicles, our 
drivers will come to a complete stop until the truck passes.
    When we discovered that the State of Missouri is planning to spend 
$2 million to repair the bridge this summer but that a new bridge is 
not even in a fifteen year plan, the Board of Education felt it was 
time to take action We believe that for the safety of our children 
plans leading to the construction of a new bridge within a 8-10 year 
window must be funded and implemented. The reaction of the Board of 
Education was so strong on this issue that the following resolution 
outlining their concerns was presented and adopted at the March 13 
Board Meeting I ask that you review the resolution and then provide the 
leadership necessary to eliminate this growing threat to our students.
    In closing again I want to thank you for your willingness to come 
to Missouri to hear first hand of our transportation and infrastructure 
needs and specifically for allowing me to address the real danger that 
exists for our kids who have to cross the bridge at Hermann in order to 
get to school.
            Thank you,
                                                Mark Leech.
                               __________
  Resolution of Support To Request for a New Missouri River Bridge at 
                           Hermann, Missouri
    Whereas, the present bridge spanning the Missouri River at Hermann, 
Missouri, on Highway 19 is in excess of 60 years old, is in a 
deteriorated condition, and is too narrow for safe passage of modern 
commercial vehicles; and
    Whereas, buses transporting school children must traverse said 
bridge two times per day approximately 174 days per year; and
    Whereas, the existence of a safe, dependable, and fully functional 
bridge across said river is vital to the economy and well-being of the 
community of Hermann, Missouri, and the surrounding area, including the 
Gasconade County R-1 School District; and
    Whereas, the Board of Directors of said school district believes 
that the safety and education of the youth of any community is a 
natural priority which should be recognized by the State of Missouri; 
and
    Whereas, the Board of Directors of such school district has been 
informed that there is no current plan adopted by the Missouri Highway 
and Transportation Commission to replace the present Missouri River 
bridge on Highway 19 with a modern structure capable of carrying the 
volume e and size of present commercial vehicles which now travel upon 
said highway; and
    Whereas, the Board of Directors of such school district hereby 
intend to join in the request from other citizens of and organizations 
within said community that the Missouri Highway and Transportation 
Commission recognize and act upon the need for a new bridge at said 
location;
    Now, Therefore, Be It Resolved by the Board of Directors of the 
Gasconade County R-1 School District, That said board gives its full 
support to the request from this community that the Missouri Highway 
and Transportation Commission give due and timely consideration to the 
design and construction of a new bridge upon Highway 19 crossing the 
Missouri River and that such project be placed upon the official 
planning document of said Commission and therein identified as a 
construction project to be funded and completed by the State of 
Missouri by a firm date; and
    Be It Further Resolved, That a copy of this resolution be presented 
to the representatives of said Missouri Highway and Transportation 
Commission and to all elected representatives of the Missouri General 
Assembly and the U.S. Congress who represent districts in which said 
bridge is located.

            Passed and approved 13 March 1997.
                               __________
                          Independence Chamber of Commerce,
                         Independence, MO, Tuesday, March 25, 1997.

    Senator John Warner, Chairman,
    Subcommittee on Transportation and Infrastructure,
    Committee on Environment and Public Works,

    Dear Senator Warner: The Independence Chamber of Commerce, 
representing the business community of the fourth largest city in 
Missouri, has endorsed the ``Highway Trust Fund Integrity Act of 1997.
    In making this endorsement the Board of Directors supports the 
effort to restore trust and integrity to the Highway Trust Fund. The 
United States has made a significant investment in its infrastructure 
and it imperative we continue that investment. The increase in funding 
for Missouri will allow us to address many safety concerns as well as 
enhancing economic development.
    Thank you for your support in this matter.
            Sincerely,
                                Rick Hemmingsen, President.
                               __________
                           Joplin Area Chamber of Commerce,
                                        Joplin, MO, March 26, 1997.

    The Honorable Senator Christopher Bond,
    The Honorable Senator John Chafee,
    The Honorable Senator John Warner,
    U.S. Senate,
    Washington, DC.

    Gentlemen: On behalf of the over 900 business members of the Joplin 
Area Chamber of Commerce, we wish to express our thoughts on the 
transportation issues facing southwest Missouri.
    The adequate funding of transportation needs in the United States 
is critical to the economic growth of the country, both for the 
businesses and citizens who depend on this infrastructure. We believe 
that a key to having adequate funding is to use the transportation 
trust funds as they were intended--as trust funds rather than as a 
means to reduce the Federal deficit. We ask that the transportation 
trust funds be taken ``off-budget'' and the full funding be used to 
address transportation needs. We believe this is the most honest 
approach and one that will come close to, if not fully address, the 
increased need for transportation funding.
    If it is not feasible to take these trust funds off budget, we ask 
that serious consideration be give to the ``Step 21 `` program to 
return at least 95 percent of Federal transportation taxes collected by 
the states to be returned to those states that are currently 
``donors''. States such as Missouri collect substantially more taxes 
than their population would dictate precisely because they are on major 
routes of commerce and tourism. These routes, however, need maintenance 
and improvements beyond what is typically returned to donor states. 
Ensuring at least 95 percent funding will help.
    Closer to home is U.S. 71. This major highway is part of the mid-
continent link from Canada to the Gulf of Mexico. This is a designated 
NAFTA corridor and proposed to become Interstate 49. Currently, the leg 
from Joplin to Ft. Smith, Arkansas is under construction from both 
ends. This part needs to be completed as quickly as possible because of 
the increasingly heavy loads of passenger and commercial traffic on 
this route. Southeast Missouri and northwest Arkansas comprise one of 
the most rapidly growing areas in the middle of the country. The 
continued prosperity of this area in linked directly to the future of 
U.S. 71. In addition, efforts need to begin now to extend the 
interstate grade 4-lane from Fort Smith south and to upgrade U.S. 71 
north from Joplin to Kansas City to interstate standards.
    As with highways, it is important for air transportation to be 
fully funded. Smaller airports, such as Joplin, need the additional 
funding for maintenance and for possible expansion. As the airline 
industry continues its intense competition, extra effort needs to be 
exerted to ensure smaller metro airports aren't abandoned. It may be 
that the definition of and funding for Essential Service Airports 
(ESA's) need to be broadened to help some communities. Joplin is 
fortunate in that it has two highly profitable airlines. However, to 
keep those airlines the local airport must continue to upgrade for 
safety and convenience. Full funding of the air trust fund will help.
    As this area grows, public transportation is also becoming more 
important. Public transportation needs to have its own, secure source 
of funding. Funding public transportation from revenue sources intended 
for other forms of transportation is unacceptable.
    If you have any questions, please contact either one of us at 417-
624-4150. We appreciate the opportunity to provide this input.
            Sincerely;
                                    Rob O'Brian, President,
                    Mel Walbridge, Transportation Chairman.
                               __________
                           University of Missouri-Columbia,
                                      Columbia, MO, March 20, 1997.

    Senator Christopher Bond,
    Jefferson City, MO 65101

    Dear Senator Bond: Thank you for the opportunity to introduce 
testimony regarding the highway legislation that you will hold hearings 
about in Kansas City next week.
    I have enclosed copies of two letters--one to Mortimer Downey 
Deputy Secretary of Transportation and one to Dr. Laurence Vance at the 
Department of Transportation's Volpe Center in Massachusetts. In both I 
have explained my concerns about the deficiencies in past legislation 
specifically regarding the Surface Transportation Research and 
Development Plan.
    If you have any questions, please contact me at directly at (573) 
882-2779.
            Sincerely,
                           Henry Liu, Ph.D., P.E. Director,
                                  Capsule Pipeline Research Center.
                                 ______
                                 
                           University of Missouri-Columbia,
                                   Columbia, MO, November 15, 1996.

    Mr. Mortimer Downey, Deputy Secretary of Transportation,
    U.S. Department of Transportation,
    400, 7th Street SW,
    Washington, DC 20590.

    Dear Mr. Downey: It is my understanding that DOT is preparing for 
the fourth edition of a Report to Congress entitled ``Surface 
Transportation Research and Development Plan.'' I am providing input 
here to remove a major shortfall of the previous editions of the 
report.
    Previous editions have overlooked a major new and emerging 
transportation technology that has far-reaching implications to the 
nation, and that can solve or reduce many of the problems faced by the 
nation's highway system. The overlooked new technology is freight 
pipeline--also called capsule pipelines.
    As can be seen from the enclosed encyclopedia articles, both 
hydraulic and pneumatic capsule pipelines can transport large volumes 
of freight including coal, grain, solid wastes, hazardous and non-
hazardous materials, and hundreds of other products. With modern 
technology, anything smaller than a pipe diameter can be transported by 
pipeline, either using air or water to propel the cargo-laden capsules 
or containers. Numerous scientific studies, including some sponsored by 
DOT, have established the effectiveness and economics of freight 
transportation by capsule pipelines. Use of such pipelines for 
transporting freight also have the following benefits:
    Being underground, capsule pipelines are noiseless and perfectly 
safe. Use of them reduces the number of heavy trucks on highways which 
in turn reduces traffic congestion on highways, saves lives, reduces 
air and noise pollution, extends the life of highway infrastructure, 
and reduces highway maintenance cost.
    Missouri has the nation's only Capsule Pipeline Research Center, 
jointly sponsored by the National Science Foundation, Missouri 
Department of Economic Development, and 14 private companies. We are 
the nation's leader in this field and can help DOT plan effective 
research programs in capsule pipelines. Please don't hesitate to 
contact me if such a need arises.
    I am taking the liberty of sending a copy of this letter to 
Secretary Pena, all the Congressmen and Congresswomen from Missouri, 
and a few other special individuals interested in this matter, 
requesting them to comment and support legislation in capsule pipeline 
as an effective means to solve or reduce the many problems caused by 
trucks on highways.
            Sincerely yours,
                                       Henry Liu, Director,
                                  Capsule Pipeline Research Center.
                                 ______
                                 
                     The Deputy Secretary of Transportation
                             Washington, DC 20590, January 3, 1997.

    Dr. Henry Liu Director,
    Capsule Pipeline Research Center
    University of Missouri--Columbia
    E-2421 Engineering Building East
    Columbia, Missouri 65211

    Dear Dr. Liu: I appreciated receiving the information you provided 
in your November 15 and December 4 letters on the potential of freight 
pipeline systems. I am forwarding both pieces of correspondence to the 
staff at the Volpe National Transportation Systems Center which is 
drafting the Fourth ``Surface Transportation Research and Development 
(R&D) Plan'' for their use as reference documents.
    Transportation research priorities are set throughout the Federal 
Government through a process run through the President's National 
Science and Technology Council (NSTC). A planning team formed under the 
NSTC's Transportation R&D Committee recently completed a preliminary 
transportation R&T strategy for the Federal Government. This strategy 
identified ten major emphasis areas for transportation research 
initiatives based on analytical data and a wide variety of user 
consultations. One of the ten dealt with ``Enhanced Goods and Freight 
Movement at Domestic/International Gateways,'' and freight pipelines 
may be attractive choices to help meet these needs.
    I appreciated receiving your materials, and we will forward a copy 
of the Fourth ``Surface Transportation R&D Plan'' to you when it is 
completed.
            Sincerely,
                                        Mortimer L. Downey.
                                 ______
                                 
                           University of Missouri-Columbia,
                                    Columbia, MO, January 15, 1997,

    Dr. Laurence Vance
    U.S. Department of Transportation
    Volpe Center DTS-56 55 Broadway, Kendall Square
    Cambridge, MA 02142

    Dear Larry: I am enclosing for your information a copy of Mr. 
Downey's letter, in which he has asked the Volpe Center to incorporate 
freight pipeline research in the revised DOT transportation plan to be 
presented to the Congress. This is good news, and I hope that at least 
some of the recommendations concerning freight pipelines made at the 
Pipeline Research Needs Conference at Leesburg will be incorporated 
into this new DOT plan. I assume that you will be playing a key role in 
implementing this decision.
    In reviewing the research projects on pneumatic capsule pipeline 
(PCP) recommended at Leesburg (see attachment), I read with interest 
your recommendation on a needed economic feasibility study of PCP 
systems. While I agree with you about the need for such a study, I was 
surprised to read the sentence, ``Unless such a system has some 
possibility of operating profitably, research into technical areas 
necessary for engineering development are unwarranted.'' I trust that 
the above sentence was intended for justifying the need for an economic 
feasibility study, rather than for preventing or delaying technical 
research. In my opinion and in those of many other experts, there is 
more than ``some possibility'' that freight pipelines can be 
profitable. This is demonstrated for instance in Japan by the Somitomo 
Capsule Pipeline (see enclosure). There is no reason to support the 
notion that what can be profitable in Japan cannot be profitable in the 
U.S. The fact that Tubexpress did not profit from it does not mean 
another company in the U.S. will not be able to profit from it, 
especially after the PCP technology is further improved.
    I have done a detailed economic analysis of the coal log pipeline 
before, and realize that for any not-yet-commercialized new technology, 
the cost estimates are always very crude and the results are 
probabilistic and inconclusive. While such studies provide useful 
insights, the results should never be used (or misused) to determine 
whether a new technology should be developed or not. In fact, technical 
advancement and innovation through research result in cost reduction of 
new technologies. What is not economical or profitable today will be 
(or at least may be) economical or profitable tomorrow as the 
technology is improved, or through mass production. We have seen that 
happened in many new technologies. For instance, photovoltaic cells 
were very expensive twenty years ago. When you compare it with other 
energy sources twenty years ago, clearly it was uneconomical. However, 
through aggressive research in this area, much of which being funded by 
DOE, the cost of photovoltaic cells has reduced by a factor of ten in 
the last twenty years. It is now much closer to being economical in 
more and more circumstances. Companies producing photovoltaic cells are 
gaining more profit and the cost of the technology goes down and the 
market expands. The same happened in wind energy. What was uneconomical 
twenty years ago is now economical in many places, such as a large 
areas in California.
    Capsule Pipeline is no exception. Through improvement, innovation, 
and mass production, the cost of PCP can be much reduced. For instance, 
by using linear induction motor to inject capsules into the pipe, the 
throughput of the system can easily be doubled. The doubled throughput 
will reduce the unit freight transportation cost in $/ton by half, 
resulting in a very economical system. Yet, when you conduct an 
economic study based on current technology, you may find the economics 
of the PCP system wanting.
    Another complexity of pipeline related economic analysis is that 
the result is site specific. The same system may be economical in one 
geographical location but not in another, due to variation in local 
conditions. Third, since pipeline uses electricity while trains and 
trucks use diesel fuel, the result of any comparison depends on the 
relative price of electricity to diesel which changes with time. For 
instance, in the last 20 years, the price increase of diesel has far 
exceeded that of the rate increase in electricity. This has enhanced 
the relative competitiveness of pipeline against petroleum powered 
vehicles, such as train and truck.
    Please don't get me wrong, Larry. I am not downplaying the 
importance of economical analysis. I know it is very important, but it 
should proceed in parallel with technological development, so that the 
two can benefit from each other, and the technology can progress 
rapidly. The most meaningful program of R&D in PCP should include both 
technical and economical research. The economical study should be 
updated periodically as the technology advances.
    Technical research to improve PCP, such as through the use of 
linear induction motor, can be justified on grounds that PCP has the 
potential of reducing traffic congestion and accidents on highways. 
Those alone justify the research. The fact that pipelines are 
underground and do not compete with surface land use is another good 
reason to justify such research. Whether it is economical or not in 
today's market using today's technology, such important technical 
research should proceed without delay.
    Finally, when including PCP in the DOT research plan, I hope that 
you will include both types of PCP--those using rails running through 
the pipe (the latest system proposed by Vandersteel), and those without 
wheels (the original Tubexpress system and the successful Somitomo 
system). Both systems have merits, and they have different markets.
    The railed system appears more suitable for very large pipelines 
(above 10 ft. diameter) which is for interstate transport of large size 
containers or cars. Such a system is too large to be placed within the 
utility corridors of highways; they must be placed beneath highways. In 
contrast, the non-railed system may be more suitable for smaller pipes 
(2 to 3 ft. diameter), which is needed for grain, mail and other bulk 
materials. Such smaller pipelines can be placed in the utility 
corridors of both existing and future highways. They also cost much 
less than the large railed system. Both systems can be enhanced by 
using linear induction motors; both systems should be studied and 
improved.
    Please don't hesitate to contact me if you have any questions, or 
need any information about capsule pipelines. I am including two papers 
on linear induction motor for pipeline use, for your information.
            Sincerely yours,
                                       Henry Liu, Director,
                                   Capsule Pipeline Research Center
                               __________
Statement of U.S. Representative Karen McCarthy, 5th District, Missouri
    Mr. Chairman, it is my pleasure to welcome you and Senator John 
Warner to Missouri's 5th Congressional District which I have the 
distinct honor of representing in the U.S. House of Representatives. I 
would commend the chairman for his leadership in selecting Kansas City 
as a site for a regional field hearing on the reauthorization of the 
Intermodal Surface Transportation Efficiency Act (ISTEA). I would also 
like to compliment the Senior Senator from Missouri, Christopher 
``Kit'' Bond, for his initiative in this area.
    The Kansas City metropolitan area is most appropriate to discuss 
the critical issues associated with the reauthorization of ISTEA. Our 
metropolitan community is at the heartland of our nation and the 
transportation crossroads of our country. In the immediate vicinity, 
the transportation assets of highway, rail, aviation, and water are 
critical to our economy. Our community illustrates the underlying 
challenges associated with ISTEA reauthorization. The needs of an 
integrated, comprehensive transportation system are demonstrated by the 
intermodal initiatives in our area. Our massive interstate highway 
system, our waterway tributaries, and our international airport are 
models for utilizing the metropolitan planning organization process to 
facilitate sound decisionmaking priorities. This planning process has 
worked effectively for our area. One aspect of refinement for the new 
ISTEA reauthorization should be in resource allocation. Specifically, 
Missouri and the Kansas City area are considered donors when it comes 
to the returning of taxpayer's investments for infrastructure needs. 
This inequity needs to be equalized so that a greater proportion of the 
citizens' tax dollars are returned for appropriate uses. Our community 
heavily depends upon its transportation system for economic vitality. 
ISTEA's reauthorization is a critical aspect to maintaining and growing 
the Kansas City metropolitan area. Each transportation related job 
provides an increased benefit through an economic multiplier effect.
    Mr. Chairman, I would contend that the Kansas City metropolitan 
area is an outstanding model for our nation when considering the 
reauthorization of ISTEA. The comprehensive approach to transportation 
which has been applied coupled with the innovative initiatives underway 
in our community truly highlight the positive impact which the original 
ISTEA has had and serve as a preview to demonstrating the future 
successes under the new reauthorization of ISTEA.
    Thank you for your time and consideration.
                               __________
                 Statement of Missouri Botanical Garden
    The Missouri Botanical Garden is most pleased to offer this 
testimony and written statement for the record during your Field 
Hearings in Kansas City, Missouri with respect to the reauthorization 
of the Intermodal Surface Transportation Efficiency Act. It is our 
understanding that a major issue being discussed today is the 
relationship of transportation facilities to economic development and 
the impact of optimal intermodal and multi modal coordination on 
regional efficiency. As such, we have taken this opportunity to testify 
on our activities with respect to these issues, in the context of our 
present efforts and initiatives to develop a public-private partnership 
for provision of an Intermodal Transit Center at the Garden. As will be 
illustrated later, this transit center exemplifies such objectives of 
ISTEA with respect to systems efficiency and positive economic impact.
    The Missouri Botanical Garden is the oldest botanical garden in the 
country, and is a world recognized research, educational, cultural, and 
museum facility related to botany and the environment and their place 
in society. The Garden's scientific staff works on major research 
projects worldwide, collecting, identifying, naming, and classifying 
plants. The Garden's library and herbarium are among the finest 
collections in the world and serve as a major intellectual center for 
scientists around the world. In addition, a highly focused education 
program, annually serving 108,000 schoolchildren and adults, offers 
programs throughout the year ranging from nature photography and 
vegetable gardening to advanced work in botany. The Garden participates 
in graduate programs with four universities in the St. Louis area, and 
scholars from around the world visit regularly.
    Due to its increasing visitation, which is estimated to reach two 
million persons annually by year 2001, the Garden has recently put 
forth significant effort toward transportation and infrastructure 
improvements in its neighborhood and regional environment. During the 
year 2001, it is estimated that the Garden will infuse $169,000,000 
annually into the St. Louis economy. To facilitate this growing 
operation, the Garden has recently privatized the design of a full-
diamond interchange adjacent to its facilities, at the locus of 
Vandeventer Avenue and Interstate Route 44. In addition, it has 
completed an 80,000 square foot research center immediately adjacent to 
this interchange.
    Further review of the above growth with the Missouri Department of 
Transportation, Bi-State Development Agency, and St. Louis 2004 
indicates the above placement of resources may be further strengthened 
by the positioning of an intermodal transit facility immediately 
adjacent to the ramp set and the research facility. To support this 
objective, the Garden has developed a transit center, park and ride 
lots, and the potential for long-range interaction with the statewide 
rail planning program, incorporating the use of Union Pacific Rail 
trackage which runs through the above site. A detailed description and 
concept plan of the above project is included herein as Figure 1.
    The total cost of the above package, exclusive of the rail transit 
station component, is estimated at $6,000,000. It is conceived as a 
public-private partnership with the Garden supplying real estate 
procurement and planning and design expertise as a matching local 
commitment. The Garden has made significant private matching 
commitments in the form of real estate procurement for the above site, 
including opportunities for aggressive private income-producing real 
estate development integrated with the transit system in a classical 
joint development-value capture manner. In addition, the Garden will 
provide privatized planning and design fees for the above project. The 
Bi-State Development Agency will provide local transit operations 
matching in the form of consolidated routing to the transit center and 
local match commitment involving repurchase of components of the bus 
fleet involved with local toutings which will use this center. The 
total of all of the above local matching components is estimated at 
$2.3 million, or 38 percent of the total project cost, resulting in a 
$3.7 million Federal funding component for this project. Significant 
objectives of Intermocial Transit efficiency can he achiever! by this 
project. They are as follows:
    1.) Provision of a central point for bus service interchange ant' 
schedule transfers, thus allowing a passenger on any bus line passing 
through this vicinity an opportunity to schedule destination to any 
location in the bi-state region serviced by bus. Nine bus lines, 
including three express bus systems, currently serve the Garden and its 
immediate boundaries. While bus schedules are continually in dynamic 
review, the travel demand existing for these lines will allow an 
efficient common point of schedule coordination, transfer and linkage 
to other travel modes. In this context, the facility will allow the 
following operations to occur:
    A.) Develop a point of common origin to any other destination in 
the region, as discussed above.
    B.) Position a location for express bus to transfer to local lines, 
at a site which has appropriate bus operations geometric design. Such 
express-local line transfer is currently occurring at the nearby 
intersection of Grand and Lafayette Avenues, in highly constrained 
traffic and parking conditions, resulting in inefficient bus 
operations. Bi-State desires to move this activity to our proposed 
site, making use of appropriate bus operations geometric design.
    C.) Development of appropriate park and ride facilities, wherein an 
individual using either express bus, local bus, or other mode of travel 
may drive to the site, park all day, and utilize bus service to their 
ultimate destination.
    D.) In the above regard, the Garden has excessive parking demands 
on some 80 days a year, due to its visitation activity. The majority of 
these 80 days are during weekends, when daily transit commuting does 
not occur. The Garden could make use of the three hundred proposed 
parking spaces during the weekend off-peak period and satisfy its 
overload parking concerns, while participating in the intermodal 
commuting process to the benefit of the region during the weekday 
period, as described above.
    2.) Possible long-run integration with rail transit. Early review 
of the above intermodal transit concept has also directed attention to 
the potential of using the existing Union Pacific rail line for rail 
passenger service. It is the Garden's intention to review the potential 
of the UP line as a rail server from outstate Missouri, Jefferson 
County, and Southwest St. Louis County in relation to potential long 
run travel demand and efficient train operations.
    It is our intention to develop such review in conjunction with the 
revisitation of flexible state rail planning and Amtrak programs now 
being examined by MoDOT. As such, we believe this position is in 
support of the issues and concerns revolving around commuter rail as 
now understood by the metropolitan region, and the long-range desire 
for improved intrastate passenger rail service in Missouri. In light of 
the above, we have included in Figure 1 a rail concept, making use of 
the existing UP line, and offering further surface transit intermodal 
connection via the park and ride lots and local and express bus service 
as discussed above.
    The development of long-range, full-blown state rail passenger 
service, local and express bus service, and shared parking can offer 
unique efficiencies in regional travel. The facility can be implemented 
in combination with interactive kiosk computer terminals at the 
intermodal facility, which will yield real-time information on traffic, 
regional bus, light rail and passenger train scheduling, and weather. 
It would offer a classic ``smart'' intermodal IVHS-ITS system of great 
appeal to the current U.S. Department of Transportation objectives. 
Obviously, the intermodal interchange would offer statewide travel 
opportunities if the above facility is fully implemented.
    In addition to the above, the Garden has reviewed its activities 
from the perspective of enhanced transit usage and components at both 
of its facilities, the main campus discussed herein at Shaw and Tower 
Grove Avenues, and its satellite Arboretum facility in Gray Summit, 
Missouri. With respect to the main Garden campus facility, an effort 
will be made, as shown in Figure 1, to implement a greenbelt from the 
proposed gate at Alfred Avenue to the intermodal center park and ride 
lots. The Garden will further designate a portion of its lobby in its 
main visitor center as a Bi-State Bus facility, in addition to its tram 
shelter immediately south of the building. Service between the 
intermodal center and the Garden proper and its internal site will 
allow integrated Garden visitation with public transportation, and a 
refined interlinkage by tram or other people mover system to the park 
and ride lots.
    Integrated Joint Development and Positive Economic Impact
    In addition, the Garden's procurement of the four acres immediately 
west of the Union Pacific Tracks would allow development of a retail-
office facility, focused on the transit center, with bridge and 
elevator linkage to the bus terminal and park and ride lots. Using a 1 
48,000-square-foot surface development with a floor area ratio of 3 to 
1 (a three-story siting) of mixed office and retail of high design 
standards will yield a significant economic impact to the region. Using 
a 50 percent retail and 50 percent office mix, with preliminary 
computations of $15 per square foot retail rental and $10 per square 
foot office rental, yields $5,550,000 annual site income. This results 
in a developed site value of $30 to $40 million, depending on cap rates 
and net leasing strategies.
    Incorporating the above $5.55 million real estate income into a 
series of regional business multipliers yields an approximate regional 
increase of $10,045,500 in related business income, $3,552,000 in 
household income, and $222,000 in government revenues, totaling to 
$13,819,500. When the above $13,819,500 is added to the base $5,550,000 
in rental income, a resulting $19,369,500 in Annual Value Added is 
generated for the St. Louis region by virtue of the result of such a 
transit center, planned with long-term transportation and land use 
interface. Such impacts vividly illustrate the strategic placement of 
unique intermodal transit connections in conjunction with targeted land 
use joint development.
    In addition, the Garden will further seek to improve its non-
vehicular transportation usage, including pathways, bike paths, and 
hiking trails, making use of its historic trust and scenic status at 
both the Arboretum and the Shaw facility. The major east-west bikeways 
trailnet route along the I-44 corridor will be integrated into the 
Arboretum at Gray Summit, and express bus service to the Arboretum will 
extend the existing route westward from Six Flags, in addition to 
developing a schedule with OATS service for senior citizens. 
Significant visitation to the Arboretum, and its projected growth 
through 2006, indicates the need to offer specific routes and scheduled 
service for senior citizens and other transit captives. In light of all 
of all the above activities so described, the Garden will work 
vigorously with Bi-State and all other agencies to implement the above 
planned expansion of transit use and linkage of transit components. As 
previously noted, the estimated cost to develop the above are on the 
order of $6 million excluding the train terminal. As stated earlier, it 
is foreseen that the Garden will supply significant local matching 
resources in the form of real estate procurement, and planning and 
design professional expertise. The resulting total local match is 38 
percent of estimated project costs. The availability of 3.7 million 
dollars in Federal funding in forthcoming ISTEA authorization and 
appropriations will allow timely implementation of the above project. 
Such implementation will result in significant value added economic 
impact and improved travel efficiency to the region. Once again, thank 
you for the opportunity to provide testimony and a written statement 
for the record on this vital showcase Intermodal Transit Center project 
which exemplifies the objectives of future ISTEA legislation. Very 
truly yours,
                               Dr. Peter H. Raven, Director
            Paul W. Brockmann, Director of General Services
                               __________
             Statement of the Missouri State Highway Patrol
    Thank you for the opportunity to address this committee on traffic 
safety issues in Missouri. I am presenting to you today a mixed 
message. We have come a long way over the past 20 years in making 
travel on Missouri's roadways safer--but we have a long way to go, and 
we need your help.
    Death Rate. Since 1974 when the Federal Government mandated the 55 
mph speed limit on this nation's highways, Missouri's death rate due to 
traffic crashes has steadily declined from 3.5 deaths per 100 million 
miles of vehicle travel in 1974 to a low of 1.7 in 1993. Unfortunately, 
we now are seeing this trend bottom out, with 4 of the past 5 years 
balanced at 1.9. In each of the past 3 years, the number of people 
killed in traffic crashes on Missouri's roadways also has increased. We 
are waiting to see how the increase in speed limits in this state, and 
across the nation, will affect these statistics. It should be noted, 
however, that since March 13, 1996, the date on which Missouri's speed 
limits were increased, fatal traffic crashes on interstate highways In 
Missouri have increased by 34.3 percent compared to the average for the 
same time period for the 3 previous years.
    Governmental Deregulation. Allowing states to establish individual 
speed limits is just one example of how the Federal Government is 
loosening governmental regulations relating to safety issues. While I 
firmly support ``state's rights,'' I also am very concerned about how 
this new federalism will affect safety on Missouri's roadways. We have 
heard, as you have, much talk about governmental intrusion into 
personal rights in the debates on speed limits, motorcycle helmet use, 
and seat belt use, to name a few. The motoring public, however, must 
understand that driving is not a protected privilege under the U.S. 
Constitution. It regulated through testing and licensing, and the 
safely of all motorists must be our concern.
    Another example of how this movement away from regulation affecting 
the state of Missouri was the law passed during last year's legislative 
session naking failure to use a motorcycle helmet an infraction in 
Missouri?. A piece of legislation produced in the current session takes 
the next step by requiring only those motorcycle riders under the age 
of 21 to wear a motorcycle helmet despite the fact the riders of this 
age group comprise only 14 percent of the motorcycle crashes in the 
state. In light of these and other issues, I would like to discuss a 
few issues with which we at the Patrol have concerns.
    Motor Vehicle Safety Inspections. The Federal Government repealed 
its mandate of annual safer inspection for motor vehicles, Missouri 
maintained its program as another element in our traffic safety 
equation. This legislative session, however, the Highway Patrol has 
been confronted with an amendment that would repeal our annual safety 
inspection requirement and, ostensibly, allow unsafe vehicles to be 
operated an the roadways. The supporters of this bill say that safety 
inspections don't work and are a nuisance for Missouri drivers. But I 
say that motor vehicle inspections in Missouri do work--and they are 
saving lives. A nationwide study for the years 1992-94 conducted by the 
Missouri State Highway Patrol found that her every 50.2 vehicles 
involved in nationwide fatal traffic crashes, one had a vehicle defect 
as a contributing factor to the crash. Because of its safety inspection 
program, Missouri faired much better. Only one vehicle in every 105.2 
registered in the state of Missouri had a vehicle defect as 
contributing factor in a fatal traffic crash.
    Seat Belt Use. A priority for the Missouri State Highway Patrol 
this legislative session has been strengthening Missouri's seatbelt 
enforcement laws. The percentage of Missourians regularly using seat 
belts has dropped over the past 5 years from 70 percent to 
approximately 62 percent. This is of particular concern when you 
consider the increased volume of traffic interacting at higher speed 
limits. Missouri has seen many more serious injuries in addition to the 
increase in the number of fatalities in 1996. And In 1995 more than 75 
percent of the people killed in traffic crashes involving passenger 
vehicles were not wearing seatbelts. Many of these victims would not 
have died had they only taken the time to buckle up.
    To improve compliance with, Missouri's seat belt law, the Highway 
Patrol is seeking primary enforcement authority for seat belts. This 
would allow our officers to make traffic stops when they see motorist 
who are not buckled up according to the law. Studies have shown that in 
those states that have a primary seat belt law, seat belt usage by the 
public increases.
    Number of Officers. Another concern for the Highway Patrol that the 
number of our of officers patrolling Missouri's roadway has not kept 
pace with the increase in the number of licensed drivers, registered 
vehicles, or vehicle miles traveled in Missouri. The Highway Patrol had 
539 road officers in 1974 compared win 724 road officers today. The 
number of licensed drivers in Missouri has increased by almost 1 
million, the number of vehicles registered in Missouri has increased by 
1.3 million, and the number of vehicle miles traveled has increased by 
nearly 30 billion miles over the last 20 years. While the Patrol's 
growth has been significant, it has not kept pace his demand for 
services. The Patrol has one officer working the road for every 86.5 
million miles traveled by motorists today.
    Young Drivers. Perhaps our biggest concern is the growing number of 
our young people being killed in traffic crashes, Young drivers, those 
under the age of 21, make up 7.4 percent of all licensed drivers in 
Missouri; yet, they are involved in more than 30 percent of all 
Missouri traffic crashes and nearly a quarter of all fatal traffic 
crashes. In more than 12 percent of these fatal crashes, alcohol played 
a contributing role. I believe Missouri, and the nation, must take a 
strong stance in protecting young drivers. I would like to see a 
renewed interest in driver's education programs for new drivers. How 
can we expect young people to drive responsibly if we do not teach them 
to do so? I also am interested in looking at a graduated driver's 
licensing system to give our youth the opportunity to learn and 
practice their driving skills at a slower, more controlled pace. We 
often say that ``Driving is a full-time job.'' It is complicated skill, 
and we shouldn't expect our young people to immediately be prepared for 
all of the responsibilities and ramifications of full-time diving at 
the age of 16.
    These are just a few of the issues that the Missouri State Highway 
Patrol is facing. We'd like to see our state and Federal Government 
take a more proactive interest in traffic safety and saving lives. Once 
again I understand and agree win the concept of less intrusion in the 
lives of our citizens, except when that lack of involvement is costing 
lives . . . which I believe the case now. Thank you for your time and 
your interest.
                               __________
                     North Central Missouri Safety Council,
                                       Moberly, MO, March 25, 1997.

    Senator Christopher S. Bond,
    Kansas City, MO 64105.

    Dear Senator Bond: The members of the North Central Missouri Safety 
Council have asked me to relay their feelings and concerns regarding 
U.S. Highway 63, a major north/south corridor which carries more 
vehicles per mile than any other major highway crossing Missouri. Our 
particular interest in Highway 63 begins at Columbia, MO on Interstate 
70 and moves north through Moberly because this is the highest traffic 
portion that is not completely 4-laned!
    During me past 15 (or more) years area residents have been promised 
the safety and convenience that comes with 4-lane highways. This 
project has been neglected as funds have gone to other states or to 
other projects. Current plans envision an improved schedule for 
completion but they are still too far in the future! Now is the time to 
speed up those plans, add new funding and set in motion an early 
completion of the 4-lane highway from Columbia to Moberly (some 23 
miles). We do not want to disturb current funds to the State of 
Missouri. What we want are additional funds for the project.
    This section of highway operates at over 90 percent of capacity 
with unstable traffic flow (moving from two lane to four lane and back 
again) and restricted passing opportunities with many intersections 
that create driver frustration. These deficiencies are borne out by 
statistics from Captain Clarence Greeno of the Missouri Highway Patrol 
which show 1,066 collisions with 483 injuries and 30 fatalities over 
the last 6 years.
    One purpose of our council is to take stands on issues of safety 
and this is certainly one on which we are all in agreement: That, U.S. 
Highway 63 must receive additional attention immediately from a 
national level and we ask that you and your committee make that 
commitment as soon as possible. Thank you for your concern and 
recognition for improvements needed on Highway 63.
            Respectfully yours,
                         Ada B. Twenter, Executive Director
                               __________
                          Moberly Area Chamber of Commerce,
                                        Moberly MO, March 24, 1997.

    The Honorable Senator John Warner, Chairman,
    Subcommittee on Transportation and Infrastructure,
    Kansas City, M0 64105.

    Dear Senators Warner, Bond and Chafee: The community of Moberly/
Randolph County is appreciative to each of you for the effort to hold a 
``field hearing'' on transportation issues in Missouri. As you are 
aware, transportation is vital to the economic development of our 
region. All of northeast Missouri has suffered as jobs have been lost 
and population has dropped, lowering many aspects of rural quality of 
life. Now, there are opportunities to attract new industry, retail and 
service outlets to the area but we most be served by safe, efficient, 
4-lane highways.
    We hope that each of you are aware of the strong efforts by local 
officials and citizens to increase attention on the lack of north/south 
4-lane highway from Columbia to the Iowa line. There is strong 
constituent sentiment for this highway improvement that promises safe 
and efficient travel plus new job opportunities. Moberly/Randolph 
County loses almost five of every ten economic prospect (right off the 
top) due to the fact that there is no 4-lane highway service. Many 
people, and now many companies, now seek to locate m a more rural 
setting. We must have 4-lane highways to fully take advantage of new 
location criteria.
    Here are two options to provide the transportation infrastructure 
that is needed: First, Missouri has been a ``donor'' state for far too 
long. Please join the efforts of Missouri and other donor states to 
increase the return of gasoline taxes to at least 95 cents of every 
dollar! This option allows Missouri to improve its highway and bridge 
infrastructure now plus continue improvements, maintenance and upkeep 
for many years; Second, seek to release additional funds from the 
Highway Trust to fully fund those projects included the National 
Highway System. These new dollars are needed to jump-start many 
important projects, including our own U.S. Highway 63, that have fallen 
far behind due to holds on funding!
    Please commit your strong offices to these and other measures that 
will make economic development along with safe, efficient travel more 
readily available to all of northeast Missouri.
            Sincerely,
              J.W. Ballinger III, Executive Vice President,
                                  Moberly Area Chamber of Commerce.
                               __________
 Northeast Missouri Regional Planning Commission and Rural 
                                    Development Corporation
                                       Memphis, MO, March 24, 1997.

    The Honorable Christopher S. Bond,
    U.S. Senate,
    Washington, DC 20510-2503.

    Dear Senator Bond: Under the 1991 ISTEA law local officials in 
rural areas with populations of less than 50,000 were excluded from the 
transportation planning process. It is important to ensure that people 
rural areas have a voice in transportation planning for their 
communities and should be allowed to plan and prioritize transportation 
improvements in their areas.
    Rural Planning Organizations (RPOs), such as the Northeast Missouri 
Regional Planning Commission and Rural Development Corporation would 
fill the gaps In the statewide transportation planning process. 
Transportation planning done at the local level allows for greater 
public input and involvement in the transportation planning process. 
Planning at the local level allows communities to plan for a 
transportation system that matches their goals for economic and 
community development. Allowing multi-county rural development 
organizations to continue to plan for areas within their jurisdiction 
will result in comprehensive regional transportation planning. In order 
for rural planning to be successful, all planning organizations must be 
treated equally and have the same decisionmaking authority currently 
granted to large Metropolitan Planning Organizations (MPOs).
    The highest priority in Northeast Missouri is the maintenance and 
preservation of the existing transportation infrastructure for all 
modes. The allocation of funds to support the expanded role of the RPOs 
in transportation planning for all modes will enable us to coordinate 
and participate in identifying the transportation needs within our 
rural region.
    In conclusion, ISTEA should encourage states to actively coordinate 
with rural planning organizations in the transportation planning and 
decisionmaking process to ensure that transportation investments 
address community objectives and are integrated into an overall 
community planning framework. Investments in planning and 
infrastructure increase our mobility and allow us to move goods and 
people safely and efficiently.
            Sincerely,
                                   L.P. Mayfield, Chairman.
                               __________
                   Pepsi Cola Bottling Company of New Haven
                                     New Haven, MO, March 25, 1997.

    Senator Christopher S. Bond
    U.S. Senate
    Washington, DC 20510

    Dear Senator Bond: I am writing on behalf of our company to express 
concern about the condition of the Missouri River bridge at Hermann, 
MO. This bridge is a critical link to our customers and our suppliers.
    The bridge is currently in a state of disrepair with crumbling 
curbs and exposed reinforcement rods. Also, the traffic lanes of the 
bridge are not of adequate width to handle the larger and wider trucks 
and busses that cross the river daily, We feel that this bridge needs 
to be replaced and should be included in the ``15-Year Plan'' for new 
bridge construction in Missouri.
    We also support your efforts in Congress to more fairly distribute 
Federal transportation funding by returning the funds to the states 
where the funds are generated.
            Sincerely,
                                               Mark Zobrist
                               __________
       Statement of Fred Weber, Inc., Maryland Heights, Missouri
    I would like to thank Senator Kit Bond, Senator John Chafee and 
Senator John Warner for holding this field hearing in the State of 
Missouri and providing Missourians with the opportunity to express our 
views on the reauthorization of the Transportation Bill known as ISTEA. 
Our company, Fred Weber, Inc. is a heavy and highway contractor located 
in Maryland Heights, Missouri, a suburb of St. Louis, Missouri. Our 
primary activities are concentrated in the field of transportation with 
a heavy emphasis on highway and bridge work. On an annual basis our 
work force varies from 350 to 800 employees consisting mainly of well 
paid, highly skilled workers. The reauthorization of the Transportation 
funding bill will have a major impact on the jobs and lives of these 
workers as well as on the future economic development potential of the 
metropolitan St. Louis area.
    Our concerns focus on three major issues: the integrity of the 
highway trust fund, equity in return of Federal funding to states and 
the lack of private input into transportation planning. Regarding the 
highway trust fund, it is no secret that this fund is looked upon as a 
potential source of revenue by interests as diverse as balancing the 
budget to solving our country's social problems. However noble these 
issues may be, the fact remains that this is a 'trust' fund, funded by 
the Federal fuel tax which is paid by the motorists who use our 
nation's highways. The fuel tax is a true user tax and should be used 
only for its intended purpose. We are strongly in favor of removing the 
trust fund from the unified budget: we believe the existing 4.3 cents 
now used for deficit reduction should be redirected to the highway 
trust fund and all of the trust fund money should be used for the 
highway and bridge system. The nation's highway and bridge needs have 
been analyzed in depth by the Federal Highway Administration and 
private interest groups and it is well documented that the needs far 
exceed the current expenditures to repair and improve the highway 
system. It is imperative that the trust fund be used to address our 
nation's highway and bridge needs and not be diverted to operating 
expenses and capital costs for transit systems and Amtrak. I applaud 
the efforts of Senators Bond and Chafee in their introduction of the 
'Highway Trust Fund Integrity Act of 1997' which is a very positive 
step to ensure that the Federal fuel taxes collected not only will be 
spent but will be spent on their intended purpose.
    The second major area of concern is the issue of equity in the 
return of Federal fuel tax dollars to the states. As you are probably 
aware, Missouri is a donor state in terms of the percentage of Federal 
fuel tax collected versus the amount returned to the State. The State 
of Missouri has many documented unfunded road and bridge needs which 
can only be addressed with the assistance of Federal fuel tax funding. 
The list of unfunded needs has grown steadily due, in part, to its 
status as a donor state. In the reauthorization of the transportation 
funding bill, it is imperative that all states be guaranteed a return 
of Federal funding at a minimum of 95 percent of the states payments.
    Our third area of concern in the lack of representation of the 
private business community in the transportation planning process. 
Under ISTEA, particularly in large metropolitan areas, transportation 
planning is a coordinated effort between the local metropolitan 
planning organization and the state department of transportation. All 
too often this planning process has occurred without regard to its 
impact on economic development. We believe the new transportation 
funding bill should be amended to require that transportation planning 
be a triangular partnership consisting of the metropolitan planning 
organization, the state department of transportation and an agreed upon 
representative from the private business sector. In this age of NAFTA 
and ever expanding world trade, it is imperative that the 
transportation requirements of the private sector are recognized and 
incorporated in the planning process. Good transportation is a key to 
economic development and economic development primarily lies in the 
hands of the private sector. Private sector expertise and input can 
provide a more usable and useful transportation system and this 
expertise should play an equal role in the future of transportation 
planning.
    Our transportation system, and primarily our highway and bridge 
system, gives this nation a competitive edge in the world economy. 
Congress has the opportunity this year to provide the kind of 
transportation funding that is needed to retain this competitive edge 
as we approach the next century. I urge you to seriously consider the 
areas of concern enumerated here in and to act positively on this 
opportunity to insure our country's future. I again wish to thank you 
for coming to Missouri and for allowing me to present our views on 
these most crucial issues.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                         FRIDAY, MARCH 28, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                  Las Vegas, Nevada

          RAPID GROWTH AND INTELLIGENT TRANSPORTATION SYSTEMS

    The subcommittee met, pursuant to notice, at 9:33 a.m. at 
the Board of County Commissioners Chambers, Clark County 
Government Center, Las Vegas, Nevada, Hon. Harry Reid [acting 
chairman of the subcommittee] presiding.
    Present: Senators Reid and Chafee [ex officio].

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. First of all, I want to say that my name is 
John Chafee, and I am Chairman of the Environment and Public 
Works Committee. I'm a Senator from Rhode Island, and it's just 
a delight for me to accept Senator Reid's invitation to come to 
Nevada and to hold a hearing in connection with the so-called 
ISTEA legislation.
    Senator Reid is an extremely valuable member of our 
Environment and Public Works Committee, not only on the 
transportation side which we're dealing with today, but also on 
the environmental side of the work of our committee, where he 
has been deeply involved in reauthorization of the Endangered 
Species Act.
    And I am delighted to see my old friend Richard Bryan, 
Senator Bryan, here. He and I have worked very, very closely 
over the years in connection with attempts to achieve a 
balanced budget for our Nation.
    So I want to say that Nevada certainly has two outstanding 
Senators, and it's a pleasure for me to be here at their 
invitation.
    Now, we are here because the principal transportation 
legislation, the so-called ISTEA legislation--the ISTEA stands 
for ``Intermodal Surface Transportation Efficiency Act''--and I 
would stress that this legislation is a transportation bill. 
It's not just a highway bill, and our objective in the Congress 
of the United States is to move people and goods from various 
points in the United States to other points in the most safe, 
the most swift, and the least costly manner. It's a national 
bill; the needs of New England, for example, are quite 
different from the needs of Florida and quite different from 
the needs of Nevada or the West. And, of course, we always have 
to remember that there are limits to the Federal Treasury, 
although I will say that it is my sincere belief that there 
will be more money spent on transportation needs under the so-
called ISTEA legislation over the next 6 or 7 years, depending 
on how long we reauthorize this bill for, than there had been 
over the prior years.
    Now, these hearings are extremely valuable to me and to all 
members of the committee, particularly hearing from an area 
such as this that is experiencing such explosive growth. So we 
look forward to hearing the testimony of all of the witnesses.
    I would like at this time to turn the podium over to 
Senator Reid and have him preside. We're in his home territory. 
It's a great pleasure to have worked with him, and I look 
forward to our continued relationship.
    Senator go to it.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. Thank you for your graciousness, Mr. 
Chairman.
    I first want to introduce John Chafee to the people of the 
State of Nevada. Senator Chafee is chairman of the full 
committee, one of the major committees we have in the Congress, 
the Environment and Public Works Committee. He is a person of 
outstanding credentials, to say the least, and I think it's 
important that we spend a minute or two just talking a little 
bit about him, because although we know him in Washington, I 
think an introduction here is appropriate.
    He is a graduate of one of America's finest law schools, 
Harvard, but I think more important than that is what he did 
prior to going to law school at Harvard. He was 19 years old; 
he was a Marine involved in the invasion of Guadalcanal. The 
definitive work written on the Korean War, a book called ``The 
Coldest War,'' is a history of John Chafee, basically; James 
Brady wrote the book, but it was all about the Captain that led 
his forces during that ``coldest war.'' John Chafee has an 
outstanding military record, which was certainly identified 
when he became Secretary of the Navy. He has been Governor of 
the State of Rhode Island, and Senator Bryan, in passing, I 
don't think we should let go unnoticed that he voted with us on 
the interim storage of nuclear waste in Nevada last year, for 
which, if we could pin a big medal on his chest, we would do 
that.
    Seven years ago, Mr. Chairman, I convened a transportation 
summit here in southern Nevada. The purpose was to determine 
what we could do; then, growth was just beginning to go as it 
is today. I brought people from all over the world to testify 
about what we could do to avoid some of the problems that 
existed around the rest of the country. We wanted to try to be 
a little bit visionary and see what we could do to avoid some 
of the problems.
    We had no idea that growth would continue over this 7-year 
period the way that it has, but it has been the fastest-growing 
State and the fastest-growing community. But one of the things 
we wanted to do was to make sure that we developed a framework 
so that there could be cooperation among the Federal 
Government, the State government, the local governments, and 
the business community.
    Mr. Chairman, I think if there were an example of how this 
has taken place, it has taken place here, and I hope that 
through the hearing today we will be able to show how there has 
been cooperation. We're going to have witnesses from the local 
entities testifying as to what they've been able to do. We're 
going to have a witness testify as to what has been done by the 
resort industry; they have done a yeoman share to alleviate 
traffic problems with innovative things like overpasses over 
the Strip. I think you will be impressed by what we have been 
able to do.
    Mr. Chairman, I have appreciated you and Chairman Moynihan 
and Chairman Baucus during the period of time that he was 
chairman of the committee, allowing input from members of the 
committee. This is a bill that wasn't written by the Chairman--
or the ranking member of the committee, as you were at that 
time--but there was input from all members of the committee. I 
was able to be on the conference of the committee and to help 
with the final legislation.
    I think the key to mention to people here is, what is this 
legislation all about? What it's all about is a mother trying 
to take her kid to school, and being stuck in traffic. It's 
about someone trying to get to work, and they can't get to 
work; they've got work piled up on their desk, but they can't 
move because they're stuck in traffic. That's what this 
legislation is all about. People all over America have problems 
like we have here, and what we're trying to do with this 
legislation is approach it in a different manner. We want this 
legislation to be more than pouring more cement and laying more 
asphalt, and I think that was the concept of Chairman Chafee 
and Senator Moynihan in the last ISTEA bill. We wanted to do 
things in an innovative way. We wanted the Environment and 
Public Works Committee to be a committee that did take into 
consideration not only the public works aspect of this 
legislation, but also the environmental aspect of this 
legislation.
    Transportation represents a national concern, as I've 
mentioned. As the Chairman has stated, the growth here is 
something that we all need to be aware of.
    I have mentioned how we have come together, Mr. Chairman, 
as a community. About 6 weeks ago I attended a conference that 
was held here, sponsored by the Chamber of Commerce and others, 
called ``Las Vegas Vision 2020,'' which is trying to project 
ahead to the year 2020 as to what we need to do in this 
community to meet the problems of the community. There was a 
mix of government and the private sector, and I was very 
impressed, having attended that meeting, with what the local 
community is doing to look ahead.
    With the completion of the Interstate Highway System, it is 
vital that we turn our attention to designing multimodal 
transportation policies that will allow us not only to maintain 
the infrastructure we have, but also to move forward to meet 
the demands of the new century. In many ways, the 
transportation issues of the future will be more difficult than 
those in the past. We live in an increasingly diverse Nation, 
one that is no longer able to be solely dependent upon the 
building of more roads and more roads. Even in a State as vast 
as Nevada--a so-called ``bridge State'' where we desperately 
need more roads--we are also looking seriously at different 
ways of carrying people.
    Mr. Chairman, this is the State in the United States that 
first started talking about magnetic levitation. We had a 
Governor by the name of Bill Breer who first started talking 
about this 20 years ago. Frankly, people at the time thought 
that he was a little touched when he talked about magnetic 
levitation, but he wasn't; he was a visionary, and we hope that 
with the extreme excitement that Senator Moynihan and you have 
expressed for looking at different modes of transportation, 
specifically magnetic levitation, that we can look to different 
ways of moving people.
    We have our own business entrepreneurs here, people up and 
down the Strip, who already have ways of moving thousands and 
thousands of people everyday off our highways with what they 
call ``people movers,'' and they're doing more of that, and 
we'll hear some of that in our testimony today.
    Some of the projects we'll hear, Mr. Chairman, described 
here today are already up and moving, others are in the concept 
stage, others are way off in the future, but what all our 
witnesses today share in common is a goal of moving people 
forward and moving goods quickly and in a safe manner and one 
that we hope is not harmful to the environment. We no longer 
live, as you mentioned, in an era of limitless budgets, even 
for something as vital in the future as transportation. We must 
be smart and strategic in how we move forward, and the one last 
thing I want to stress, Mr. Chairman, as I asked Rodney Slater 
when he appeared before the committee, is this: is the 
Administration going to recognize State and local government 
from making sacrifices over and above what is called for in the 
Bill, last year's Bill? And he said yes. You will hear here 
today from the Governor and others how the local government and 
State government have really made sacrifices, doing things with 
their own, with no Federal help, spending hundreds of millions 
of dollars doing that.
    As a little bit of housekeeping, we have 19 witnesses 
today. We have a lot of time to cover. Chairman Chafee has made 
a sacrifice to be here during the Easter break, so we're going 
to have to hold witnesses to the 5-minute limit that we have. 
We have staff that has--where is our little button machine--
yes, and here are the buttons. You'll see that green means 
you're in your 4 minute time period; yellow means you're 
running out of time and red means you're all through.
    [Laughter.]
    Senator Reid. So we would ask that you try to adhere to 
that as closely as possible to allow adequate questions of the 
witnesses and allow the other witnesses time to appear.
    Our first witness, of course, is the Governor of the State 
of Nevada, also the Chairman of the National Governor's 
Conference, Governor Bob Miller.

   STATEMENT OF HON. ROBERT MILLER, GOVERNOR, STATE OF NEVADA

    Governor Miller. Thank you, Senator Reid, and Mr. Chairman.
    The good news for you, as Chairman of the National 
Governor's Association, is that I can no longer be the lead 
Governor on transportation, so I won't be asked--as I have for 
so many years been in the role. I am pleased to come here to 
Las Vegas to discuss reauthorization of the ISTEA concept.
    As has been mentioned many times, we're the fastest growing 
city in the Nation and Las Vegas is an ideal location to 
witness to some of ISTEA's greatest successes and also see some 
of the Act's shortfalls and how the microphone works.
    [Laughter.]
    Governor Miller. Nevada's demand for road capacity, more 
advanced technology for highway systems, better rail and 
commuter services is ever-increasing and it is essential for us 
that Congress pass a new transportation bill that goes beyond 
the original ISTEA and increase funding to accommodate Nevada 
and the Nation's transportation needs.
    The population growth in the Las Vegas metropolitan area 
has exceeded 50 percent every 10 years since World War II, and 
there are certainly no signs of this growth slowing in the near 
future. To accommodate existing and projected congestion, it is 
essential that we widen two major highways through Las Vegas. I 
have requested that Congress provide for the addition of four 
lanes to U.S. 95 and two lanes to I-15 through Clark County.
    In addition, U.S. 95 should be designated as part of the 
interstate system. Nevada's capitol should also be connected to 
the interstate system, as Carson City is one of only four 
capitol cities in the Nation not linked to the rest of the 
State by a major highway. Only the construction of nine miles 
from Reno to Carson City remains to be completed to connect the 
city to the rest of the State, and I have requested that 
Congress provide for this overdue project.
    As well, Carson City is not the only Nevada city that has 
insufficient highway access. Nevada rural community is 
separated by vast areas of open space and must not be 
overlooked when reauthorizing or reformulating ISTEA.
    A strong Federal transportation program is necessary to 
connect these cities and towns, and special consideration 
should be given to interstate maintenance. Nevada and other 
western States serve as a bridge for interstate trucking from 
the Pacific Coast to the East. Over 40 percent of the vehicles 
on rural Interstate 80 through Northern Nevada are trucks, and 
these descriptions of Nevada, I think, the needs can be seen as 
some of the State' characteristics, most important for 
reauthorization for ISTEA.
    Nevada is one of the largest States in area and one of the 
smallest in population; one of the most rural, measured by 
population density, and the most urban measured by 
concentration in urban areas. It's a State with the largest 
percentage of land owned by the Federal Government, 87 percent, 
and, thus, the smallest private land ownership. It is the 
fastest growing State containing the fastest growing urban 
area, and for these reasons, Nevada is not only a 
transportation bridge State, but also a transportation policy 
bridge State.
    The basic structure of ISTEA has served Nevada well, but 
there is much in STARS 2000 that is directly responsive to 
Nevada's distinctive characteristics and special needs.
    One of the most frequently used north-south highways 
through Nevada is U.S. 93, which crosses the Colorado River at 
Hoover Dam. The sixty-year old two-lane road across the dam is 
overburden and will fail to accommodate projected traffic. It 
is the primary commuter route between not only Arizona and 
Nevada, but also Arizona and Utah. The time is long overdue for 
the Federal Government to construct a bypass bridge.
    A commitment to Intelligent Transportation Systems must be 
reaffirmed by the next formula. We should take advantage of the 
21st century technology to modernize our urban streets and 
highway systems and get more value for the taxpayers. We've 
already taking steps in the Las Vegas metropolitan area to 
modernize traffic signals. The Las Vegas area commuter traffic 
system is currently being upgraded with the latest technology. 
Television cameras are being placed on 60-foot poles throughout 
the area to monitor traffic through electronic technology to 
adjust traffic flow appropriately. New control modulars are 
being placed at 500 signalized intersections and equipment at 
the central control center is being replaced.
    The Las Vegas area computer traffic system is one of the 
few joint effort traffic control systems in the country. It is 
a cooperative effort between the Nevada Department of 
Transportation, Clark County, the city of Las Vegas, the city 
of North Las Vegas and the city of Henderson.
    The development is underway to deploy a freeway management 
system along the congested U.S. 95 freeway to include video 
monitoring, ramp meters, change of all our message signs, radio 
information and service patrols. These systems work and should 
be utilized in other parts of Nevada and the nation.
    Nevada's highway and transit demands go farther beyond the 
priorities that I just listed, and it is certainly not the only 
State that requires increased funding from ISTEA 
reauthorization.
    Indeed, the nation's needs are great and regardless of what 
funding formula is selected, sufficient funding must be made 
available for our Federal highway system.
    As was mentioned, I'm Chairman of the National Governors 
and have worked with the Nation's Governors to reach a 
collective agreement that a minimum of $26 billion a year for 
highways and $5 billion a year for transit is required to meet 
the nation's demands. The two co-chairs on the committee that 
I've selected, Governor Patton of Kentucky and Governor Schafer 
of North Dakota, have scheduled on April 14th a rather large 
information gathering in Washington, D.C., to include a lot of 
other road and highway transportation users. I expect there 
will be a lot of interest at that time.
    As I stated to the Joint Congressional Budget Committee 
hearing earlier this month, America's transportation needs far 
exceed their current expenditures. Highway capacity has not 
kept pace with the rapid increase in highway use mileage by the 
nation's passenger and commercial fleet. The Administration's 
studies reveal a total transportation spending by all levels of 
government that would be needed to be increased by $18.2 
billion annually, more than 40 percent, simply to maintain 
current highway, bridge and transit conditions and performance. 
A total of nearly $86.8 billion or nearly double the current 
annual spending by all levels of government would be required 
to achieve the needed improvements to the national transport 
system.
    Both the President's 1998 budget and the 1997 Congressional 
Budget Resolution would reduce Federal transportation spending 
through the year 2002. Under the President's proposal, total 
funding would drop from $19.8 billion in 1998 to $19 billion in 
2002, and the 1997 Congressional Budget Resolution reduced 
total transportation spending by 15 percent from 1998 to 2002. 
In constant dollars this drop is even more dramatic.
    During the same time that Congress and the President 
proposed to disinvest in our national transportation system, 
revenues generated through the transportation user taxes will 
rise sharply. The annual fuel tax and other trust fund receipts 
to the highway account will increase by more than 10 percent, 
from $24.6 billion in 1998 to $27.2 billion in 2002, while 
annual revenues to the highway trust fund from all sources will 
increase by more than 15 percent over this period.
    These steadily growing user tax revenues can support 
significant and much needed increases in Federal transportation 
investment. In highways alone annual dedicated revenues would 
support a funding level of $26 billion per year through 2002. 
An additional $5 billion annual for mass transit programs could 
also be supported by these growing revenues, and spending down 
the balance in highway trust funds, which has been the National 
Governor's position for as long as I've been involved in it, 
would permit an additional $4 billion annual on top of these 
levels. Spending all fuel taxes, including the 4.3 percent tax 
that is not been presently used for deficit reduction, would 
add another $7 billion.
    When the Congress created a transportation trust fund, it 
made a commitment to the American taxpayers that these receipts 
would be dedicated to maintaining and improving our national 
transportation system. Disinvesting in this system at a time 
when the user tax revenues are increasing dramatically and 
spending the user tax and other dedicated revenues for purposes 
other than transportation threatens to undermine the moral and 
legal commitment on which these taxes are based.
    Congress must not delay the investment in our national 
transportation system. Nevada and the rest of the Nation depend 
on this commitment to prevent the further deterioration of its 
roads, increased congestion and lower economic productivity.
    I would only clarify that my position on the 4.3 cent is 
personal. The National Governor's position, which I've 
testified in front of your committee on several occasions 
previously, suggested that be returned, but we take no position 
on the 4.3 cents, and believe that the dollar amounts that I 
outlined could be achieved without affecting that 
consideration. Thank you.
    Senator Reid. Governor Miller, are you able to stay until 
we finish with Senator Bryan because we have some questions.
    Governor Miller. Yes.
    Senator Reid. OK.
    Senator Bryan?

 STATEMENT OF HON. RICHARD BRYAN, A UNITED STATES SENATOR FROM 
                      THE STATE OF NEVADA

    Senator Bryan. Thank you very much, Senator Reid, and let 
me say that Nevadans are indebted to you for your leadership as 
a very senior member of this committee. We greatly appreciate 
your having requested our friend, Senator Chafee, to join us 
here in Nevada for what we know as another day in paradise.
    Mr. Chairman, it's nice to have you here. I might just say 
as an aside, I've just returned with Senator Graham from 
Panama, Columbia and Mexico under the jurisdiction of the 
Intelligence Committee, which we serve on together, and I will 
be very interested in sharing with you, when you have a chance, 
some of our observations from that recent trip.
    Mr. Chairman, if I might, direct an opening comment to you 
to put this in some context. There are a few things that 
dominate the news in Nevada like our infrastructure needs. The 
population growth in Nevada continues to be staggering, and 
despite the efforts of all levels of government, State and 
local as well, we simply have been unable to get ahead of our 
infrastructure needs.
    Just as one indicator of the kind of growth that we're 
experiencing here in southern Nevada, a new elementary school 
must open every 30 days--I'm talking about new classrooms--an 
entire elementary school must open every 30 days for the 
foreseeable future to accommodate the needs of educating our 
youngsters in the public school system here in Clark County. I 
think that is without precedent anywhere in America throughout 
the history of our country if that continues.
    Having served as Chairman of the State Transportation Board 
for a number of years, I understand the challenges facing our 
transportation planners. While our Federal and State highway 
funding has increased in recent years, size, scope and cost of 
these projects currently being planned would have been 
unimaginable just a few years ago.
    By way of example, we considered ourselves very fortunate 
during the first ISTEA authorization at the request of Senator 
Reid and the Congressional delegation to obtain almost $60 
million to rebuild a major Las Vegas interchange known here as 
the ``Spaghetti Bowl.'' Now, to put that into some context, the 
funding today the Governor has outlined included projects that 
cost over $300 million each. Among those that he has cited is 
the widening of U.S. 95, the extension of 395-south between 
Reno and Carson City, the Boulder Dam bypass, widening our 
highways between here and State lines on U.S. Interstate 15, 
and other highway priorities that we have.
    I understand working with you as a part of that budget 
coalition on which you've provided so much leadership for our 
us at the national level in trying to work out a bipartisan 
budget agreement which enables us to realistically and honestly 
balance the budget by the year 2002 that you understand the 
pressures that we're all feeling in Washington to balance our 
budget. But I must say that we also have a responsibility, in 
my judgment, to increase the Federal commitment to a national 
transportation system.
    Most of the attention on ISTEA has understandably been 
focused on the formula; that is, how we divide those Federal 
funds that are collected by way of our gas taxes that are paid 
in and joining our Nevada delegation. I'll be participating in 
making sure that Nevada receives its fair share, but in a 
larger sense, we need to find a way to increase the overall 
level of funding; that is, to provide a larger pie so that each 
of us may enjoy a larger piece. We all pay gas taxes into the 
highway trust fund. In theory, these funds are supposed to be 
spent on transportation improvements. The Governor made 
reference just a moment ago in his opening testimony to a 
rather bizarre type of accounting practice that exist only at 
the Federal level, to my knowledge. All of the revenues 
collected through this gas tax revenue are not expended for 
purposes of our transportation needs. There is currently a $12 
billion surplus in the trust fund.
    One of the first things that I did arriving as a newly 
elected member of the U.S. Senate in 1989 was introduce 
legislation with fully committed moneys in the highway trust 
fund to be spent for transportation purposes. That legislation, 
as you know, did not proceed, but, hopefully, it is an idea 
whose time has come.
    I suspect that the greatest battle, of course, will revolve 
around the donor-donee question; that is, whether or not a 
State will receive as much from the highway trust fund as it, 
and its citizens and visitors contribute by way of gas taxes 
paid within that State.
    Nevada, as you aware, Mr. Chairman, and Senator Reid 
certainly knows, is in a fairly unique position. Historically, 
we've been a donor State--or rather a donee State. We have 
received more money coming in than we've paid out. As recently 
as 1990 when we first began considering ISTEA, Nevada was 
receiving $1.35 for every dollar paid into the highway trust 
fund. Last year for the first time, maybe an aberration, but 
Nevada for the first time became a donor State; that is, we 
receive less than we pay into in terms of gas taxes, 
approximately 97 cents to the dollar.
    Let me just cut to the chase here and ask, if I may, 
Senator Reid, that the full text of my statement be made a part 
of the record, recognizing that we have a number of witnesses.
    Senator Reid. Without objection, that is the order.
    Senator Bryan. And let me just offer suggestions that I 
think would be constructive.
    No. 1, the Federal Highway Trust Program must recognize the 
very special needs of high growth States. From 1990, the 
occasion of our last census, to 1998 Nevada's population will 
have grown by 50 percent, 1.2 million to 1.8 million. Relying 
on the 1990 census data base, obviously, puts us behind reality 
that we confront those who are part of our transportation 
planning at the State level, under Governor Miller's 
leadership, and with the local government as well. We need to 
consider some type of a formula in terms of the population that 
will more realistically reflect the size of the population and 
the States that are affected.
    No. 2, let me also say to you, Mr. Chairman--I know that 
Senator Reid will be supportive of this as well--and that is 
that the I-4R discretionary program has been very helpful, and 
we have benefited from that. There's been some talk about 
eliminating that program. It has helped us in Nevada to avail 
ourselves of some discretionary funding, which we have been 
fortunate in securing, and I would hope that we could maintain 
that as well.
    Because the State of Nevada, as Governor Miller indicated, 
87 percent is under the jurisdiction or ownership of the 
Federal Government, public lands and highway programs have been 
very helpful, and Senator Reid has played a key role in 
securing the improvements to S.R. 160--that's our highway to 
Pakrump, which is one of the fastest growing areas in the 
southern part of the State, and to some extent has almost 
become a suburb of the Las Vegas metropolitan area.
    I also suggest that there be some consideration in the 
reauthorization of the level of effort expended by individual 
States. Often times States and local government abuse the 
Federal Government by asking the Federal Government to provide 
more while they are providing less. Nevada is providing more, 
local governments are providing more; in fact, in terms of the 
total spending for highway needs, the State of Nevada spends 
more than the Federal share coming to us, and I am told, 
although I have not validated that, that perhaps Clark County 
as well spends more in terms of its highway commitments than 
the money it receives from the Federal Government.
    My point being that we are stepping up to the plate and 
paying our fair share at the local level, and some factor ought 
to be worked into the formula rewarding States who themselves 
are doing what needs to be done at the local level.
    And, finally, I would hope, Mr. Chairman, that the 
committee will resist the temptation to rely too heavily on 
Federal gas tax revenues as a factor in highway distribution 
formulas. This is, in my judgment, a poor approximation of 
needs for highway improvements, and equally inaccurate in 
relying on gas tax revenues is a factor in highway 
distribution. For example, there are innovative and competitive 
ideas to reduce fuel consumption and consequently improve air 
quality, which would be penalized if the gas tax revenue would 
be a lone criteria.
    Again, welcome to southern Nevada. Thank you for taking 
time out of your very busy schedule, and look forward as always 
to working with you as one of our colleagues. You know you are 
one of our favorites, and we are very grateful for what you've 
done not only in terms of your national leadership, but the 
help you've provided us in Nevada with an issue that is of 
increasing importance to us, and that is the nuclear waste 
issue.
    Thank you very much, Senator Reid.
    Senator Reid. Representative Ensign?

  STATEMENT OF HON. JOHN ENSIGN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Ensign. Good morning, Senator Reid, and Senator Chafee. 
Thank you for coming out here to our wonderful city. I think 
that the only way that the people can truly experience what we 
have going on here in southern Nevada is to be here. So I 
appreciate Senator Reid and your efforts for getting Senator 
Chafee out here. We had Chairman Shuster out here this week 
also, and our hope was that he would be able to experience U.S. 
95 during rush hour, but he would not agree to that so maybe we 
can get you to do that some time during your stay here.
    I want to, first of all, add my voice to a lot of the 
testimony that Governor Miller and Senator Bryan have 
emphasized this morning, and then, not to be too redundant, 
mention a few other things.
    First of all, I think that it is important to continue to 
emphasize how fast we are growing here and how inadequate--if 
we just take the 1990 census numbers--how inadequate that would 
be for our State and how severely we would be penalized. The 
couple of factors that I was encouraged by in talking to 
Chairman Shuster this week about on the House side that he is 
considering, and that is a bonus formula for States to step up 
to the plate and contribute a higher share of the highway 
dollars, such as the State of Nevada is doing. So I was very 
encouraged by that, and I would urge the Senate to look at a 
similar type of a formula, but also a formula based on ISTEA 
that would reward--not reward States, but recognize that our 
demographics and changing as the population shifts from mainly 
the northeast to the south, at least the sunbelt type of 
States.
    We are growing so fast that current formulas would 
certainly penalize us greatly. Just since 1991 our population 
has increased by 25 percent and we're increasing about 4.5 
percent a year. If you look at the difference--most States down 
here are at zero or maybe losing a little bit, and then you 
have another set of States up here that are increasing by one 
or 2 percent, and then you have Nevada all alone up here, 4.5 
to 5 percent a year. There are no other States in the country 
that even come close to the population growth that we have here 
in southern Nevada, our entire State but especially here in 
southern Nevada.
    While we are looking at what we need here into the 21st 
century--and I strongly believe, Senator Reid, as I think 
everybody in the Nevada delegation does--is that we know the 
infrastructure needs that we have here and a lot of 
northeastern States have severe infrastructure needs as well, 
and it is absolutely critical that we take the highway trust 
funds and use them for what they were intended to be used for 
as well. I would add my personal concerns about the 4.3 cents a 
gallon, that I actually would like to see that be used for the 
highway trust fund. I think that if you're using user taxes, 
user fees, that that is what they should go for. It's a 
dangerous part of our budgeting process when we start just 
putting user fees on for something and then later on down the 
line we change those, and I would like to see us get back to 
exactly what the highway transportation trust funds were set up 
to be in the first place.
    I would like to address something that nobody else has 
addressed today, and it has to do with air pollution. We have a 
local agency called the Desert Research Institute that has 
developed some very exciting technology, and I would like your 
subcommittee to be looking into this in the future because I 
think that it actually has some promise to solving a lot of our 
air quality problems in the United States, and it has to do 
with remote sensing. They've done some studies here, in two 
urban areas here in Nevada--the Desert Research Institute has--
where they actually measure cars as they're going by through 
infrared, and they can tell which cars are doing the polluting, 
and, therefore, you target the cars that are doing the 
polluting. They can take an instantaneous picture of that car, 
send them something in the mail that says, ``You've got to 
bring your car in to get it fixed'' because we know that it's a 
small percentage of the cars that are causing the vast majority 
of the pollution. Instead of--the EPA right now wants to come 
down on everybody and say, ``We want everybody to go through a 
centralized station,'' and thank you, Governor Miller, for 
fighting the EPA's efforts on that. I think that's the wrong 
solution. We need to look for innovative 21st century type of 
solutions, and I think that technology like the Desert Research 
Institute is developing and testing is the type of technology 
that we need to be looking at in the future.
    First, there's a couple of things--it's much more 
efficient; it provides people with a lot more freedom because 
not everybody has to be targeted. Most cars are not doing the 
polluting, and they shouldn't have to go get their cars tested 
every year, and it would actually focus on those cars that are 
polluting.
    Finally, let me just talk about a few of the projects that 
I think are the most important, and I think that our State 
agrees on. The No. 1 priority is U.S. 95 and the widening from 
the current six lanes to 10 lanes. That is the most congested 
area in our entire State. There is no question that it causes 
the most pollution, it causes the most delays of getting kids 
to school or getting people to work, and that has to be our No. 
1 priority for the State. We do have other priorities around 
the State, but that certainly has to be focused on as our No. 1 
priority.
    I would also like to say that--and you'll be hearing from 
other witnesses during the rest of the day--that hopefully we 
can come to some agreement here locally on the type of light 
rail system that we would like to develop and how exactly 
that's going to work, but I certainly would like your committee 
to look into the study of that and the authorization of the 
funds for the future, as we step up to the plate and are 
willing to put more than our fair share of that as a local and 
State government here.
    I thank you for allowing me to testify this morning.
    Thank you, Senator.
    Senator Reid. Thank you, Congressman.
    We'll now hear from Jean Rice, who is the field 
representative for Congressman Jim Gibbons.

   STATEMENT OF JEAN RICE, FIELD REPRESENTATIVE FOR HON. JIM 
 GIBBONS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA

    Ms. Rice. Good morning, Mr. Chairman, and Senator Reid.
    It is an honor to be here on behalf of my boss, Congressman 
Gibbons. He regrets that he cannot be here this morning. 
However, I would like to submit the following policy 
recommendations and projects for inclusion in the authorization 
of the ISTEA project.
    The first one is U.S. 395, Carson City bypass. The 
project's total cost is $150 million of which $67 million is 
anticipated to be federally funded. The scope of this project 
is the southern 5.2 miles of a freeway bypass around Carson 
City. This is the relocation of U.S. 395, which is now Carson 
City's main street to a corridor through the east side of 
Carson City.
    Travel time from congested are significantly reduced. The 
traffic count on the narrow four-lane street in front of 
Nevada's State House is 35,000 vehicles a day, with a high 
percentage of big trucks. This is the only route from South 
Lake Tahoe, Douglas County and California on the east side of 
the Sahara Nevada Mountains to the Reno metropolitan area and 
the important Reno-Tahoe Airport. I join the Nevada Department 
of Transportation, Carson City and Douglas County in supporting 
this important project.
    The I-580 extension--the total cost of this project is $190 
million of which $170 million is anticipated to be federally 
funded.
    The public transportation project in Reno--on behalf of the 
RTC of the Washoe County in Reno, I am submitting a request for 
funding authorization of $17 plus million for public 
transportation projects in Reno, Nevada. This funding will 
allow the implementation of the automatic vehicular location 
and enhance communication technology. The purchase of 27 
vehicles for expanded service to the community and the 
renovation expansion of three RTC facilities.
    U.S. widening in Las Vegas--U.S. Highway 95 between 
downtown Las Vegas and the rapidly growing northwest portion of 
the Las Vegas Valley is the most congested freeway in Nevada. A 
major investment study is in the final stages for a $300 
million widening of U.S. 95 from the current six lanes to 10 
lanes. Although the construction for this project lays in the 
district of the senior member of the Nevada delegation, John 
Ensign, it will offer much needed relief to my constituents as 
they commute to the inner city of Las Vegas. I join Congressman 
Ensign in support of this important project.
    The lane widening between Interstate 15 between Barstow, 
California, and Victorville, California--I support the project 
sponsored by Congressman Jerry Lewis to widen Interstate 15 
between Barstow and Victorville, California, from four to six 
lanes.
    The project involving the city of Reno and the Union 
Pacific-Southern Pacific Railroad--this will service notice 
that the city of Reno and the Union Pacific-Southern Pacific 
Railroad have mutually agreed in principle to construct and 
improve the transportation infrastructure within the cities of 
Reno and the Truckee Windows Basin on northern Nevada in an 
effort to mitigate the potential adverse impacts of public 
health, safety and environment that may be occasioned by the 
recently approved UPSP merger. The exact scope and details of 
this project are still being determined. At this juncture it is 
evident that the railroad right-of-way and the two U.S. 
highways will be intricately involved in the transportation 
improvement projects, creating a corridor of safe and efficient 
multi-module transportation for freight and passengers, as well 
as improved safety for pedestrian and vehicular crossing.
    I want to say, Chairman, that there are other items of 
interest in this testimony from Congressman Gibbons, as well as 
an additional testimony from the city of Reno, Charles McNeely, 
and I would like to submit those both for the record.
    Senator Reid. We'll make sure that City Manager McNeely's 
statement appears and also that Congressman Gibbons' full 
statement will be made part of the record.
    Ms. Rice. Thank you.
    Senator Reid. Senator Chafee and I have a number of 
questions that we would like to ask, and we've learned how to 
operate the machine here now and we're going to hold ourselves 
to 5 minute questioning.
    First of all, Governor Miller, I would like to say that we 
don't hear a lot of good things in this modern world it seems 
about people in elected office and certainly less about people 
in appointed office who are in effect bureaucrats, and I would 
just would like to publicly tell you how much I have enjoyed 
working with Tom Stevens who is your Director of Highways. He, 
of course, is the Planning Director under Senator Bryan, but he 
has done an outstanding job. The transition has been good. I 
have found him available, and knowledgeable and it has been a 
pleasure for me and my staff to work with him.
    Governor Miller, I was appreciative of hearing you speak 
about the highway trust fund and how important it is that we 
spend the money in the trust fund, but I would like to ask you 
how you feel about the Step 21 proposal that the Governors have 
talked about a little bit on the national level.
    Would you talk to us a little bit here on the local level 
about how you feel about it?
    Governor Miller. First, Senator, let me comment that I 
appreciate your comments about Mr. Stevens, and I certainly 
concur, but I also want to recognize that you and your staff 
and Senator Bryan whose staff for many years have been 
excellent to work with on these issues, as has Congressman 
Ensign and most recently Congressman Gibbons. I think Nevada is 
fortunate that we all try to work together.
    I think Step 21 offers some advantages for a small bridge 
State like our own, but it is probably less advantageous than 
some of the other concepts like ISTEA Works or the STARS 2000 
Program. It seems to have more advantages than, for example, 
the NEXTEA Program would, and at least the most important 
thing, I think, for our State is the continued recognition that 
there be a formula; that it not be money restricted to the 
individual State of origin, even though, as Senator Bryan 
pointed out, we have moved from donee to donor. I think in the 
long run States like our own and the country as a whole would 
be disadvantaged if we don't continue to recognize this as a 
Federal Highway Program, and with the amount of commercial 
transportation we have going through our State, which I think 
is a reason why we should receive some additional funding, that 
if you went to only the State of origin, State like our own 
would be traumatically imperiled.
    So I, obviously, as I mentioned in my testimony, STARS 2000 
is the most cognizant of the needs of a State like ours, but 
Step 21 does have some advantages.
    Senator Reid. Senator Bryan, I think that you painted a 
visual as well as could be done about the growth that has taken 
place here by having to build a new school every 30 days, and I 
would say, Mr. Chairman, that we hold the record in the United 
States. We dedicated 18 new schools here in 1 year--that kind 
of gives you the picture of some of the growth problems that 
we're having. In addition to that, Governor Miller has 
indicated to us that we're the most densely populated State in 
America--most urban State, I should say.
    Senator Chafee. I remember you're saying that in the 
committee, and I was dazzled. I wondered if I was hearing 
right.
    Senator Reid. Ninety percent of the people live in the two 
metropolitan areas, and, in addition to that, things are 
complicated, Mr. Chairman, because we're the most mountainous 
State in the Union except for Alaska. We have 314 mountain 
ranges in Nevada that, of course, we have to travel through. In 
addition to that, we have 42 mountains in the State of Nevada 
that are over 11,000 feet high.
    So Nevada is a very unique State, and I think, Senator 
Bryan, you did an excellent job of projecting that visually.
    Let me ask you this question, though, Senator Bryan. 
Eighty-seven percent of the State is owned by the Federal 
Government, and, as you know, the original ISTEA bill included 
provisions to recognize the importance of providing Federal 
support for the maintenance of highways traversing these lands. 
As someone who has dealt with the maintenance and improvement 
of these roads while you were Governor, and now as Senator, do 
you think that it is important to continue this program?
    Senator Bryan. Oh, I do, Senator Reid. As you know, we're 
all very much a part of this debate, in terms of redefining the 
roles of government and trying to determine what functions are 
best performed at the Federal level, what are best performed at 
the State level, what are best performed at the local 
government level.
    Something that I know that you and Senator Chafee 
appreciate--we're talking about a national highway system. I, 
certainly, agree with your comment and that of Governor Miller 
in that the idea of a turned back or a devolution proposal just 
allowing each State to collect its own money and kind of do 
essentially what it wants to do is antithetical to what is a 
national highway system.
    So I very strongly support the concept of that provision, 
as I know you do, and I think it is extremely important. It is 
important because, No. 1, it is the correct national policy. 
There are 50 States. You can't go from the border of one State 
to another and then all of a sudden another State has developed 
a different type of a highway network. That just doesn't make 
sense in terms of commerce, moving goods and services along our 
great system. One of the great strengths we have in America is 
that we do have an excellent transportation system--part of 
that is the highway system and part of that, as you know, 
Senator Reid, is a result of our commitment at the national 
level.
    So I think very much so that we need to continue that, and 
I'm strongly committed to that. I know you feel the same way.
    Senator Reid. Congressman Ensign, I also want to compliment 
you for recognizing the Desert Research Institute. It is one of 
the finest institutions of learning anyplace in the world, and 
I wanted to make sure that Senator Chafee--that I underline and 
underscore that for him.
    Senator Chafee is a member of the Environment and Public 
Works Committee, and they have done wonderful things for the 
environment. They've worked with the State of Israel on their 
drip irrigation system. They are as responsible as any other 
institution for helping Israel help develop this drip 
irrigation system, which is now used literally all over the 
world, especially in Africa.
    And I say this, Congressman Ensign--you mentioned DRI. That 
is the direction we must go in this legislation. We must look 
for different things to do, different ways of meeting the 
demands of American travel, so thank you very much for 
mentioning Nevada's perspective on what we can do to help 
alleviate some of the problems with traffic and the pollution 
that comes along with it.
    Mr. Ensign. Senator Reid, let me just make one comment 
along those lines about different solutions because I think 
that we recognize the first funds that you all were involved 
with getting for the Spaghetti Bowl in 1987. The Spaghetti Bowl 
is not going to be done until 2000, streamlining the process as 
well on getting some of these new technologies and the 
bureaucratic process on getting the projects done for the 
Spaghetti Bowl. The amount of pollution that we're going to 
cause because we haven't had the Spaghetti Bowl widened a lot 
earlier is a tremendous burden on our whole valley here 
traffic-wise, pollution-wise and everything else. So part of 
the process also is new technology and also new processes and 
the bureaucracy.
    Senator Reid. Senator Chafee?
    Senator Chafee. Thank you very much, Senator Reid.
    I would like to say to the Governor and Senator Bryan that 
it is impressive, the statistics you gave, and I believe--I 
think Representative Ensign also touched on this--I think there 
is a lot to the fact that the formula should reflect one growth 
that is occurring in States, and, two, the point that the 
Governor and Senator Bryan made about this being a national 
piece of legislation. It can't be a system whereby you put in X 
dollars and you get back X dollars. If that were true, let's 
get rid of the Federal Highway Administration. Let's not even 
pass a bill, and we would save a lot of money by not having the 
money siphoned through Washington and then come back.
    But we've decided, as Senator Bryan said, that we want a 
national transportation system, and it involves the 50 States. 
I feel quite strongly in opposition to the suggestion of you 
put in X dollars and you get 95 percent back or whatever it 
might be because the needs are different in the different parts 
of the country, and I think your needs are unique. Where would 
you have been if you had this system right from the beginning? 
As the Governor pointed out--or Senator Bryan--at one time you 
got back $1.35 for every dollar that you put in, and now you 
may be even; maybe you're getting back a little less, but you 
got back $1.35 because of various reasons, including your 
unique problems that you have here.
    The highways or the transportation system is no different 
from any other. I was in Kansas City, Missouri, where they have 
high flood demands out in this part of this country, flood 
control demands out in part of this country. You have high 
irrigation demands. Now, if you went on a donor-donee system, 
Rhode Island would complain bitterly because we get nothing 
back from irrigation; we get nothing back from flood control, 
but I believe it's right that we spend money in those areas 
because we're a nation. So we can't get into a donor-donee, 
exact nickel back, nickel in nickel back business, in my 
judgment. We've got to look at the Nation as a whole.
    I was extremely interested, Representative, in what you had 
to say about the pollution. Now the Administration is coming 
forward with some new standards on air pollution, and, yet, we 
are not even enforcing the standards we've got now, and we've 
run in--I presume, there has been tremendous objection, as 
there is in our State, to everybody taking their car into a 
central place and that place can't repair it. So if you're not 
up to snuff, you have to go to another place to get it 
repaired, then come back the third trip or the return trip but 
the third stop to go to the original place to test again.
    Now, I take it that your Administration, you, Governor, 
objected to that, but it seems to me the real solution from 
what you pointed out is some way of taking out the offenders 
and sending them off to being repaired and tested instead of 
every vehicle having to report to these stations.
    Now, I think that's a very, very useful thing. Also, on the 
high technology, we're going to hear later on from Dr. Johnson 
who is the Director of the Intelligent Transportation System of 
the nation. I just came from California yesterday and we saw 
some of the things that they're doing there, which you pointed 
out. The whole idea--I'll just take one moment. Somebody 
pointed out to me that there hasn't been a major airport built 
in the United States in 25 years except for Denver, and, yet, 
in the existing airports they're moving far more traffic than 
they ever were in the past. Now, how are they doing that? 
They're doing that through technology and controls, and so our 
highways, if we applied the technology that we have available--
the existing highways, it isn't always just building more and 
more highways. It's getting the traffic through the existing 
highways, and that's what we've got to learn to do. Obviously, 
in some places, as you've pointed out, all four of you pointed 
out in your testimony, that there are certain places that are 
real bottlenecks. I must say I wouldn't want to be in the 
Governor's office in Carson City where, what is it, 35,000 
vehicles going by your door everyday, half of them trucks?
     Governor Miller. Yes.
    Senator Chafee. So I found this very, very helpful, and I 
want to thank everyone for their testimony.
    Senator Reid. Ladies and gentlemen, we're going to have a 
5-minute recess. The next panel has 10 members so we're going 
to divide that into five and ask Deborah Redman, P.D. Kiser, 
Steve Teshara, Manfred Wackers and Glen Schaeffer to come 
forward and be ready to go in about 5 minutes.
    The committee stands in recess.
    [Recess.]
    Senator Reid. We're very happy to have with us today a 
group of witnesses who, I think, will throw a new light on 
transportation generally. We're first going to hear from Ms. 
Deborah Redman, who is a Senior Planner for the Southern 
California Association of Governments, and I would to indicate 
to you, Ms. Redman, how much I've appreciated working with the 
California authorities, especially those in the southern part 
of the State, in helping us with the last ISTEA bill that we 
did and some of the good things that we've done here in 
southern Nevada.

     STATEMENT OF DEBORAH REDMAN, SENIOR PLANNER, SOUTHERN 
             CALIFORNIA ASSOCIATION OF GOVERNMENTS

    Ms. Redman. Thank you, Mr. Chairman, Senator Reid, and 
members of the subcommittee for the invitation to speak before 
you today on behalf of the value pricing pilot project of ISTEA 
reauthorization.
    I am Deborah Redman from the Southern California 
Association of Governments, the Project Manager to a congestion 
pricing task force known as the REACH task force, and that 
stands for Reduce Emissions and Congestion on Highways.
    Before I address the issue of market-based transportation 
pricing, I would like to respond to Senator Reid's request and 
tell you briefly about several initiatives of interest to the 
entire southwest area.
    First, SCAG has initiated a southwest passage proposal 
intended to lead to integrated freight transportation 
infrastructure and development along the I-10 corridor, which 
connects major ports and intermodal facilities to ensure 
efficient movement of Pacific Rim and master related trade, 
along with local and regional trade and goods. We see the need 
for the regions and States, along with the private sector and 
the Federal Government to identify and enhance national trade 
corridors across the country.
    Second, we are involved in an interstate clean 
transportation corridor project. This is a public-private 
partnership to accelerate deployment of alternative fuels and 
freight movement along corridors connecting the major non-
attainment areas of California, Utah, Nevada and Arizona. There 
are also system issues between McCarran Airport and the airport 
system in southern California, which are detailed in the 
written testimony.
    Turning to congestion pricing, in 1994 SCAG and TransCal 
secured a pricing study grant from FHWA under ISTEA Section 
1012(b), the value pricing pilot project, then called 
congestion pricing, which sought regional implementation of 
transportation user fees, including variable fees, for road use 
and emission reduction. Traffic and air quality problems 
continue to burden our regional economy to the tune of about 
$12 billion per year, and we are running out of options. We're 
already using the freeway shoulders for car pool lanes; we're 
already in the front lines of ITS deployment, and look forward 
to the mobility and air quality increases in performance that 
those strategies will give us.
    Still, we can't build our way out due to environmental and 
fiscal constraints, as well as capacity limitations on many 
freeways. And because we need a practical and stable 
replacement for the gas tax, we have been led to consider a 
politically difficult solution--transformation of the pricing 
funding system for transportation.
    With the help of ISTEA's value pricing program the REACH 
task force conducted a 2-year study, which called for active 
regional discussion and public involvement on specific 
proposals relative to market-based reform. The 75-member REACH 
advisory task force concluded that longer term full scale 
implementation of pricing did have significant potential to 
solve air pollution and mobility problems and should be 
evaluated and tested on an ongoing basis. In the short-term 
recommendations called for additional implementation of HOT 
lanes--that is, high occupancy toll lanes where solo drivers 
are allowed to share express lanes with car pool drivers, with 
car pool drivers paying for that premium in savings and time.
    This strategy is designed to build on the success of a 
number of currently operating HOT lanes, including the SR-91 in 
Orange County and the newly opened facility on the I-15 in San 
Diego. These facilities, according to our numerous polls, are 
supported by users and non-users alike, 65 to 70 percent 
support; our own studies reveal 62 percent of people support 
the concept and trends indicate increasing support as people 
become more familiar with the operations of HOT lanes. Other 
regions, including Houston and Lee County, Florida, also 
project partners, have implemented similar projects as a direct 
result of ISTEA support and involvement of the Federal 
Government.
    However, even with a good base line support for HOT lanes, 
we need continued Federal involvement. Given the complex and 
controversial nature of new road user fees and vehicle emission 
pricing policies, and the implications with respect to 
requirements for transportation, air quality conformity and 
fiscally constrained regional transportation plans, we believe 
it is appropriate for the Federal Government to continue 
partnering with SCAG and other regional and State jurisdictions 
to advance analysis, testing and public dialog on pricing.
    Market-based reforms are not simply a local matter. Air 
pollution and urban congestion affect not only their immediate 
environment, but those in adjacent air sheds and people in 
economies which depend on the timely and efficient movement of 
goods in and through urban centers.
    If the current successes are to expand to other regions and 
develop into comprehensive and effective pricing programs, the 
pilot project areas need the continuity of funding, 
programmatic support and technical expertise so ably provided 
by the FHWA during these past 6 years. ISTEA has brought a 
dozen regions to significant milestones on the road to 
transportation pricing reform--don't leave us now.
    SCAG strongly recommends that the program be reauthorized, 
as the Administration has proposed.
    With that, I'll conclude and take any questions, Mr. 
Chairman.
    Senator Reid. We will have your full statement be made part 
of the record. It's an excellent statement; I've read it.
    We will now hear from Mr. P.D. Kiser, Parsons 
Transportation Group.

 STATEMENT OF P.D. KISER, TRAFFIC ENGINEERING MANAGER, PARSONS 
                      TRANSPORTATION GROUP

    Mr. Kiser. Thank you, Mr. Chairman, and Senator Reid.
    I am P.D. Kiser. I am the Traffic Engineering Manager with 
the Parsons Transportation Group.
    The Las Vegas Valley has experienced the most rapid growth 
of any metropolitan region in the country. Along with this 
phenomenal growth, has come increasing traffic problems and air 
quality concerns. Public officials have aggressively pursued an 
ambitious program of public works improvements to address 
traffic demand. They have established a program for improving 
the effectiveness of the existing roadway network by upgrading 
and enhancing the Las Vegas area computer traffic system, 
better known as LVACTS.
    LVACTS was established in 1983 as one of the only multi-
jurisdictional centralized traffic signal systems in the United 
States. LVACTS is an agency that is jointly managed by the city 
of Las Vegas, Clark County, the city of North Las Vegas, the 
Clark County Regional Transportation Commission, the city of 
Henderson and the Nevada Department of Transportation. The 
existing control system has now reached its capacity, and many 
traffic signals now being constructed cannot be accommodated on 
the existing system.
    Since that time the technology of traffic signal systems 
has improved dramatically. As traffic congestion has increased, 
so has the need for these expensed capabilities.
    Based on the results of a feasibility study, the Regional 
Transportation Commission included the LVACTS upgrade project 
in the federally funded Congestion Mitigation and Air Quality 
improvement program, which was established as part of ISTEA. In 
1993 the Nevada Department of Transportation, in cooperation 
with the LVACTS participants, secured the services of Barton-
Ashman Associates, now known as the Parsons Transportation 
Group, to proceed with design. Construction of the system is 
now underway.
    Traditional traffic signal systems have been designed from 
a traffic control center outward. The existing system is an 
example of this highly centralized approach. The central 
computer directs on a second-by-second basis the individual 
actions of all 475 plus traffic signals that are now part of 
the system. The new system follows an innovative approach where 
all the individual traffic signal controls is contained at the 
intersection using advanced transportation controllers. This 
decentralized, or distributed approach, will allow the system 
to provide reliable operation even when communication systems 
fail. Also, the distributed approach will allow the replacement 
of the existing mainframe computer with a network of 
inexpensive and easy to maintain microcomputers.
    In addition to increasing the features the reliability of 
the traffic signal control system, the design concept has 
incorporated a video surveillance system. Closed circuit video 
will give operators the chance to observe traffic conditions 
and make adjustments from the downtown traffic management 
center. The video system will greatly increase the 
effectiveness of the LVACTS staff.
    To provide the LVACTS operators with access to the 
intersection controllers and video cameras, system designers 
have devised a two-tiered communications network. The system 
has been divided into nine regions and all intersection 
controllers will be tied to a hub located in each region. These 
regional hubs will be connected to a backbone communication 
system using high frequency microwave.
    Several different technologies will carry video and 
controller signals from the cameras and intersections to their 
respective hubs. These technologies include data radio, 
ultrahigh frequency microwave, fiber optic cable and special 
equipment designed to move video along the existing copper 
cables that are used by the existing system.
    In total the upgraded LVACTS communications network will 
showcase the most advanced technologies available, traffic 
management systems.
    An ironic note--a recent ruling by the Federal 
Communications Commission will remove from public access the 31 
gigahertz radio band. This band was to be used on the LVACTS 
project for video surveillance communications. The FCC's 
rejection of the State's license application will have a 
significant impact on the reliability and efficiency of this 
new traffic signal system.
    The purpose of the signal system is to provide the 
capability to move traffic as efficiently as possible. Traffic 
signals cannot add capacity, but they can allow traffic to make 
best use of the capacity by distributing it fairly to all 
movements.
    The current system imposing constraints on the signal 
timing because of its limited capabilities. The new system will 
be capable of controlling an infinite number of intersections, 
able to maintain signal coordination during central system and 
communication network failures, improve overall traffic 
progression during off-peak and heavy traffic flow times, 
improve pedestrian crossing movements, permit system operators 
to make signal timing adjustments through the video 
surveillance system, and have the capability to be expanded for 
functions such as freeway management.
    We urge you to continue the funding categories now 
available from the ISTEA bill that allow for traffic control 
systems such as LVACTS. This type of project is very cost-
effective and has positive impact on air quality.
    Senator Reid. Thank you very much.
    We'll now hear from Mr. Steve Teshara, Executive Director 
of the Lake Tahoe Gaming Alliance.

  STATEMENT OF STEVE TESHARA, EXECUTIVE DIRECTOR, LAKE TAHOE 
                        GAMING ALLIANCE

    Mr. Teshara. Thank you, Senator Reid, and Senator Chafee. I 
appreciate the opportunity to come before you today.
    The Lake Tahoe Gaming Alliance is an organization 
representing the hotel casino resorts on the South Shore of 
Lake Tahoe. The Alliance takes a very strong leadership role in 
our region on transportation issues.
    There are several important principles that went into the 
drafting of ISTEA as originally adopted in 1991. We believe 
that these principles are extremely important to the 
reauthorization of ISTEA that Congress is now considering. 
Those principles would be as follows: maintaining a strong 
national commitment to transportation, providing transportation 
choices, protecting public safety and the environment, assuring 
accountability, a strong role for the States and local 
government, and community and public involvement.
    Reauthorization of ISTEA should continue to focus on 
partnerships and on a level playing field between highway 
construction and other transportation projects. My testimony 
this morning will focus on those programs that we have found to 
be of particular value from ISTEA and importance to the Lake 
Tahoe region.
    One of the most important for us is the enhancements 
program. This program has allowed us access to funding for the 
design and construction of very important water quality 
improvements along our roadway network, which is very limited 
in Tahoe. These would include erosion control and drainage 
projects. Prior to ISTEA, as you know, there was little if any 
funding available for such projects and important 
considerations.
     Enhancement projects at Lake Tahoe have also included the 
construction of bicycle and pedestrian trails and sidewalks. It 
is a consensus goal at Lake Tahoe that we build a vastly 
improved trail network, including a bicycle trail that goes 
completely around the lake. We note that just on one 17-mile 
section of our current trail system, over 400,000 people use 
that section of trail each year. So, clearly, we have a need 
and a demand that must be addressed.
    We at Lake Tahoe do support proposals to increase the 
amount of ISTEA funding dedicated to enhancement projects here 
as well as in the rest of the country. We have a lot of work to 
do in enhancements.
    I did, Senator Reid and Senator Chafee, submit some photos 
of some enhancement projects that we have done at Lake Tahoe 
for your review.
    We also strongly support the continuation of adequate 
funding for scenic by-ways projects. Thanks to ISTEA and a lot 
of support, we have Highway 28 along the East Shore of Lake 
Tahoe in Nevada that has been designated a scenic by-way. We 
also support historic and cultural preservation programs in 
ISTEA, the improvements to highways that are provided and also 
for the access to public lands that was mentioned earlier in 
testimony. This item is particularly significant at Tahoe, as 
it is in Nevada, where in Tahoe we have more than 70 percent of 
the basin watershed owned by the Federal Government. When you 
place the State holdings in California and Nevada into that, 
it's more than 80 percent of the public lands there, and access 
to those public lands for recreation is particularly vital for 
us.
    In fact, at Lake Tahoe we're working very hard to move the 
public land management agencies, Federal and State, in the 
direction of partnerships to increase transit access to public 
lands. We look to the reauthorization of ISTEA to help provide 
us the flexibility and resources to accomplish this goal 
effectively and efficiently.
    The new ISTEA should also, in our judgment, increase 
support for projects based on the use of innovative 
technologies as a means to reduce congestion and improve 
economic competitiveness and quality of life. With funds that 
we have secured from the Federal Government just this past 
year, with strong leadership from Senator Reid and others, we 
have a great pot of money that we've generated locally. We've 
put those together on the South Shore of the Lake, and we're 
moving forward to the development and implementation of what 
we're calling the Coordinated Transit System Project, and this 
will be using the technologies of Automatic Vehicle Location, 
or AVL, Advanced Traveler Information, ATI, and Computer-Aided 
Dispatching, or CAD.
    While each of these technical strategies has been proven to 
date in its own right, they've never been deployed together as 
a package as we plan to do in South Lake Tahoe. Consequently, 
our CTS will be a cutting-edge project. Unique features of this 
project will be both the availability of service to the 
community at large, not just Paratransit, and the immediacy of 
response to ride requests. Through grants or similar programs, 
ISTEA should encourage and help fund such innovative projects, 
including ITS strategies. And, again, for the record we have 
submitted some technical descriptions of our CTS project for 
your consideration.
    I would also note that Lake Tahoe, along with NDOT, Washoe 
County RTC, NHP, along with a number of entities in California, 
are involved in the TransCal field operational test. This is a 
test of various technologies up and down the I-80 and U.S. 50 
corridors, which are vital to our area. We know that we will 
not likely see much new capacity so we're trying to do capacity 
management with technologies, and, again, we're involved in 
that TransCal FOT program.
    As I think most of the folks in the room today are aware, 
Lake Tahoe is a very unique region. We're recognized as a 
national treasure and deserving of special planning and project 
considerations and a bi-State compact between the States of 
California and Nevada, which has been enacted by Congress as 
P.L. 96551. Each year more than two million people, many from 
metropolitan areas of the country, come to visit and recreate 
at Lake Tahoe. We ask the members of this committee and 
Congress to help us identify and explore how ISTEA might 
address the unique needs of Lake Tahoe, and, perhaps, Senator 
Reid will have an opportunity to do that at the Federal Summit 
at Lake Tahoe, which you are helping to spearhead later on this 
year.
    I would ask that the full text of my remarks be made part 
of the record, and thank you for the opportunity to make this 
testimony.
    Senator Reid. That is the order.
    We're next going to hear from the Transrapid International 
Corporation.
    Chairman Chafee, the President of that company, Manfred 
Wackers, had a plane out of Dulles last night that is a direct 
flight to Las Vegas and it was canceled. Therefore, he will be 
unable to be here today, but one of his employees, someone who 
works with him, Wendall Hirschfeld, of Hirschfeld Steel--they 
manufacture maglev guideways--and he's going to read, as I 
understand it, Mr. Wackers' testimony.
    Mr. Hirschfeld. That is correct.
    Senator Reid. Please proceed.

STATEMENT OF WENDALL W. HIRSCHFELD, VICE PRESIDENT, HIRSCHFELD 
 STEEL COMPANY, INC., ON BEHALF OF MANFRED WACKERS, PRESIDENT, 
                    TRANSRAPID INTERNATIONAL

    Mr. Hirschfeld. Mr. Reid, Mr. Chafee, thank you for giving 
me the opportunity to testify about the Transrapid Magnetic 
Levitation Transportation technology.
    I am here on behalf of Manfred Wackers, President of 
Transrapid International, which is a consortium of Thyssen 
Industries, Siemens Corporation and Adtranz, the last being a 
partnership between ABB and Daimler Benz Companies.
    We are engaged in efforts to Americanize, if you will, our 
technology in cooperation with several pre-eminent U.S. 
companies. Today we are joined by the AMG Group, which is 
Hughes Electronics, General Atomics, Booz, Allen Hamilton and 
Hirschfeld Steel Companies.
    Transrapid technology was developed over a period of 25 
years by unique private-public partnership. The Government of 
Germany funded research and development of competing maglev 
technologies and selected transrapid as a prototype to develop 
a 19-mile transrapid test facility, which was opened in 
Emsland, Germany, in 1984 and has traveled over 300,000 miles 
and carried more than 160,000 passengers to date.
    The transrapid has been tested and is ready for deployment. 
German Federal Government has certified the transrapid for 
passenger service at speeds up to 310 miles per hour. In the 
United States the Federal Railroad Administration has completed 
all research and investigation necessary for U.S. certification 
and will provide that certification once a transrapid-based 
project has been selected.
    The FRA certification is known as Rules for Particular 
Applicability, and is, therefore, contingent upon 
identification of the location for the application. Transrapid 
maglev technology is a simple system comprised of two main 
components--the guideway and the vehicle. The propulsion of the 
transrapid uses a series of electronic staider packs embedded 
in the guideway. The vehicle contains both levitation magnets, 
which lift the vehicle one-half inch above the guideway and 
guidance magnets to guide the vehicle. There is, therefore, no 
friction between the vehicle and guideway.
    The long staider motor located in the guideway provides 
non-contact propulsion and braking of the maglev vehicle. The 
upgrade or elevated guideway constructed of steel or concrete 
is an integral part of the transrapid system. Its extremely 
flexible parameters and minimal land and space requirements 
allow it to be more easily integrated into the landscape than 
highways or railroads.
    More than any other system the transrapid embodies the 
qualities of low-life cycle costs, high reliability and low 
environmental impact. Due to its applicability to climb steep 
grades at 10 percent and transit tight curbs, the transrapid 
guideway can be easily integrated into every landscape.
    Expensive cuttings, retaining walls and tunnels can thereby 
be minimized, if not eliminated entirely, and the transrapid is 
extremely quiet. Its non-contact propulsion and levitation 
technology does not produce any rolling or mechanical noise. 
The extreme flexibility is also apparent in the train sets. 
Depending on the route and ridership requirements, the 
transrapid can be configured with two to 10 vehicles carrying 
150 to 1,000 passengers or up to 20 tons of high value cargo 
per vehicle station. With a peak speed of over 300 miles per 
hour, the transrapid is not only super fast but it is also 
super safe.
    Since the transrapid levitates without contact along its 
guideway, it produces no rolling noise even during braking and 
acceleration. Aerodynamic noise only becomes evident about 120 
miles per hour. Its unrivaled low noise emissions make it ideal 
for urban applications.
    At equal speed the transrapid consumes approximately 30 
percent less energy than a modern high speed train. The 
transrapid is sought for many different applications--as a fast 
shuttle between a city and its airport, as a fast and 
economical connection between two cities and as a key element 
in a sophisticated high performance transportation network.
    Thank you again for the opportunity to appear before you, 
and I would be happy to answer any questions.
    Senator Reid. Mr. Chairman, the last time when we had a 
summit, not a hearing, as you heard me mention in my opening 
statement, we had Dr. Danvey to testify, one of the inventors 
of the system.
    Mr. Chairman, we're very fortunate today to have 
representing the Nevada Gaming Resort Industry Glen Schaeffer, 
and I don't know how anyone better representative of the resort 
industry could have been chosen than Glen Schaeffer. He has a 
long and illustrious career in managing resort industries. 
Circus Circus Enterprises is the company that he is now 
President and Chief Executive Officer of, and has been 
innovative and progressive during its entire history in the 
State of Nevada.
    We're very fortunate to have you hear and inform Senator 
Chafee and me about what we should tell the Congress as to what 
the industry is doing to help with these transportation 
problems in southern Nevada.

  STATEMENT OF GLEN SCHAEFFER, PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, CIRCUS CIRCUS ENTERPRISES

    Mr. Schaeffer. Thank you, Senator Reid, Mr. Chairman. We're 
honored to have you with us in Nevada today.
    I am Glen Schaeffer. I am the President of Circus Circus 
Enterprises and the Chairman of the Nevada Resort Association, 
which is the gaming industry's premiere trade group here in the 
State. I must confess at the outset that Circus has been a 
stimulus for some of this growth in Nevada. We are, as a 
company, the largest private employer in the State of Nevada 
with about 20,000 employees, and that's a figure that has 
tripled in the last 10 years.
    Gaming is a robust industry. In 1997 Las Vegas will be the 
leading destination in the world for entertainment travel. By 
the year 2000, we will attract 40 million visitors annually to 
Las Vegas. The 10 largest hotels in the world are within four 
miles of each other on the Las Vegas Strip. The majority of 
those hotels have been built within the last 6 years. In two 
more years that number will be 13, and we'll have the 13 
largest hotels in the world, expected to operate about 100 
percent occupancy rate. The majority of new jobs in the State 
is created by the gaming industry, and the majority of taxes 
paid by this industry, as well.
    As you may be aware, Nevada has been one of the leaders in 
per capita income growth in the 1990's.
    My purpose here today is to present one of the critical 
transportation needs in the Nevada. We do have many urgent 
needs resulting from the tremendous growth in the State, many 
of which have been enumerated by other panelists. But from a 
commercial standpoint, we have in fact a regional issue and a 
regional transportation problem. Our greatest concern is for 
the Interstate 15 Nevada, California and Arizona Economic 
Lifeline Corridor project. The California Congressman Jerry 
Lewis has done outstanding work to help us try to solve what is 
the chief bottleneck between Los Angeles and Las Vegas, which 
is a 27-mile stretch of Interstate 15 between Barstow and 
Victorville. This is a critical bottleneck not only to us and 
the tourism industry, but for those in the trucking industry 
who move goods interstate. This project received $47.8 million 
for the 1991 ISTEA, and that was for improvement to the I-15 
Interstate 40 interchange and a limited amount of widening of 
I-15 in the immediate vicinity.
    Yet, construction is only now getting underway on this 
important element, which will provide for greatly enhanced flow 
of services and goods in our economic region.
    It is imperative that I-15 be widened between Barstow and 
Victorville. The proposal is to widen this segment from four 
lanes to six at a cost of approximately $130 million. We are 
already far behind the curve. Travel demand through the I-15 
corridor continues to grow at an astounding rate. The current 
number of cars is about 30,000 per day and it is expected that 
70,000 cars per day will travel on I-15 between Los Angeles and 
Las Vegas by the year 2015.
    I can tell you that last year 10 million tourists were 
caught in this bottleneck. It is not uncommon on a weekend or 
peak holiday to find that a 4-hour commute is lengthened into 
an eight or 10-hour commute. It is also the case that a high 
percentage of this traffic is from heavy trucks.
    The traffic flow along this segment of I-15 is currently 
measured at a service level of D, which is indicative of heavy 
congestion. From 1990 to 1995 accident rates increased 31 
percent on this segment, including a 55 percent increase in 
fatalities. To worsen matters, the trucking industry has a 
current proposal to lift truck size and weight for these 
currently embodied in ISTEA, which would allow triple trailer 
trucks to operate along Interstate 15. This will greatly 
aggravate the safety and congestion problems, and will negate 
any improved capacity that the widening of I-15 would provide.
    In summary, we must protect the substantial commitment of 
Federal funds, as well as the local and private contributions 
for the I-15 and I-40 interchange improvement.
    Thank you very much.
    Senator Reid. Senator Chafee?
    Senator Chafee. Thank you, Senator.
    First, I want to say to Ms. Redman that I was very 
interested in what you had to say. Yesterday I had the 
privilege of visiting S.R. 91 in California, and there, as you 
point out, they've got a toll road but if you have three or 
more in your vehicle, you get to travel on the toll road free. 
There is no question that the toll road is a high occupancy--
well, anyway, it's a toll road separated from the others so you 
can see the other vehicles plugging along at a slow rate. And 
if you pay the price or if you have two or more, beside the 
driver, you go right through. It was very attractive, plus I 
saw what they're trying in San Diego where they're doing this 
also in the high occupancy lanes. They've sold some, I think, 
it's 700----
    Ms. Redman. Passes.
    Senator Chafee.--passes, transponders, at a substantial 
price, it seems to me. I think it's $70 a month.
    Ms. Redman. They had to raise it from $50 to $70, and they 
still have a 500 person waiting list.
    Senator Chafee. I know, and the secret--the thing they have 
to balance is not to get it so crowded that people don't want 
to ride on it.
    Ms. Redman. That's right.
    Senator Chafee. But interesting things are happening. I 
guess that's the point that Mrs. Johnson or Dr. Johnson will 
talk about later on.
    Let me ask you, Mr. Kiser, how do you get the funding for 
your system? Where does it come from?
    Mr. Kiser. The funding for this system here is through the 
Federal Highway Administration.
    Senator Chafee. Is that the CMAQ?
    Mr. Kiser. Yes, CMAQ. Yes, it is from the Federal Highway 
Administration through the CMAQ funding.
    Senator Chafee. Well, say that again so that everybody can 
hear it because the CMAQ funding, as you know, is under siege. 
People are saying, ``We don't want that,'' as is the 
enhancement program. I'm glad to hear you, Mr. Teshara, talk 
about the enhancement program, and I'm very supportive of it 
but there are those who are saying, ``Oh, no, let us just--give 
that money to us and we'll use it in the States for whatever we 
want to use it.'' But in the CMAQ program and the Congestion 
Mitigation Program the theory of it is that automobiles are 
causing this pollution. So, therefore, it's permissible to take 
from the highway trust fund moneys to try to mitigate the 
pollution. So that's what you've gotten in your thing there.
    Why is the FCC removing the radio band you had?
    Mr. Kiser. The plan was to auction off that band to what 
they call the local multi-point distribution system users, the 
folks that want to expand cell-phones, and TV expansion and so 
forth. Basically, all we want is to use a portion of that band, 
which they have set aside a portion of the band now for perhaps 
government user, and we would like to just have our license 
approved so we can operate in that portion of the band.
    Senator Chafee. Well, from what I know about radio bands 
could be expressed in less than one sentence, but I think it's 
worthwhile to take a look anyway as to why that's occurring. In 
other words, they've deprived you of this band so far, have 
they?
    Mr. Kiser. The band was--when we first started the design 
on this system, the band was available and it was very easy to 
get a license for it. We were in the middle of the design--in 
fact, we have already installed about 80 percent of the 
equipment that we're using that would operate on this band, and 
we're now stuck with about over $700,000 worth of equipment 
that has already been installed and if we can't get the 
license, we can't use it. It will have a significant impact on 
the operation of this system.
    Senator Chafee. That may explain why people get distressed 
with the Federal Government on occasion.
    I didn't get your name, sitting in for Mr. Wackers?
    Mr. Hirschfeld. My name is Wendall Hirschfeld.
    Senator Chafee. Oh, you're from Hirschfeld Steel?
    Mr. Hirschfeld. Yes.
    Senator Chafee. Well, I went over and saw that maglev 
transrapid train outside of Breman, and everything you say is 
true. We were going 521 kilometers per hour, which translates 
into 312 miles an hour, and it was amazing. It's everything you 
say--it's quiet, it can accelerate--actually it can accelerate 
a lot faster than they have it accelerate because they don't 
want you to jerk back too quickly. But it's going to be 
commercially--they're going ahead with construction between, I 
guess, Hamburg and Berlin.
    Mr. Hirschfeld. That is correct.
    Senator Chafee. I just think it is a terrific way of moving 
people. I don't know whether everybody understands, but it 
doesn't go across the ground. It's up on pylons. It's an 
elevated highway, or elevated platform, that the train stays 
on, and it's reassuring that it circles the bottom of the 
platform so that it won't fly off into space when it reaches 
these speeds.
    But, in any event, I recommend it to everybody to go take a 
look.
    Thank you, Mr. Chairman.
    Senator Reid. Mr. Chairman, we in the last ISTEA bill, as 
you will recall, provided the right-of-way down the middle of 
the freeway for these types of vehicles, and that should be a 
significant advantage.
    Would you, Ms. Redman, explain what was done in Ventura 
because people disliked the concept of these HOT lanes more 
than other area communities. What was this? Why Ventura?
    Ms. Redman. That was just one of the findings, and I 
included it for the record.
    Senator Reid. You really don't know why, huh?
    Ms. Redman. Well, I think that research for the future--our 
consultants weren't able to figure it out. They just reported 
it, and to be fair across the board, I was trying to let you 
know that in places where they had mostly been tried and where 
people were more familiar with them, that may be the best 
explanation. Ventura is the farthest north county, and they may 
not have seen or used the S.R. 91--certainly, not probably the 
I-15.
    Senator Reid. I was in the San Diego area speaking to the 
Gold and Silver Institute this past Monday, and we took a drive 
on that toll road. There was literally just a few cars on 
there, and you could look and see the heavy traffic on the 
other part of the road, so it was interesting.
    Mr. Kiser, everyone in this room would agree about the 
traffic problems we have in this Valley, despite the 
innovations that have taken place by Las Vegas Acts.
    Could you give us, though, an indication of how much worse 
it would be without this system?
    Mr. Kiser. I guess the best indication is occasionally when 
the existing system breaks down, which it has done a few times. 
The number of phone calls increases dramatically, and I think 
people realize or start to realize that even the existing 
system is old but today still does a pretty admirable job of 
managing traffic in this Valley. Without even the existing tool 
that we've got, you're looking at much longer lines at these 
intersections, traffic not being able to progress along through 
a number of intersections. Those are the kinds of things that 
we would be facing even without the existing system.
    Senator Reid. One of the things we need to do is work with 
you to see what we can do to save that $700,000 in Federal 
money, and so our staffs are listening and they will be in 
touch with you to see if there is anything that we can do to 
help with the FCC in that regard, OK?
    Mr. Kiser. We certainly appreciate it.
    Senator Reid. Mr. Teshara, would you explain to the 
committee what the Alliance is all about?
    Mr. Teshara. The Gaming Alliance?
    Senator Reid. Yes.
    Mr. Teshara. It's a cooperative partnership between the 
resort properties on the South Shore. We work in the community 
and in the region on issues that require private sector 
leadership and the transportation issue is clearly one, 
environmental quality at Tahoe is another.
    Senator Reid. I wanted to state for the record and spread 
across the record that this is a good example of how the 
private sector has formed a partnership with State and local 
and Federal Governments to arrive at a common goal. I wish we 
had more such organizations around the State and around the 
country, and so I think it's been exemplary.
    Mr. Teshara. I appreciate that.
    Senator Reid. We've been able, working together, to 
accomplish a lot up there. I wish everyone could see these 
pictures and we're going to take these to Washington with us. 
When people start complaining about the enhancement program, we 
need to focus on the trails around Lake Tahoe. You said that 
it's a 17-mile stretch and 400,000 people used that last year?
    Mr. Teshara. That's correct.
    Senator Reid. It's incredible, and I think, yet, the more 
trail there would be, the figure would go up geometrically.
    Mr. Teshara. Absolutely.
    Senator Reid. Mr. Hirschfeld, assuming the United States is 
not the first nation to get maglev project operation, where do 
you think the first one would be built? Do you think the United 
States, Germany, Japan, the one that would be operational for 
moving large numbers of people because you've indicated that's 
been in existence since, I don't know, and it's only hauled a 
hundred and some odd thousand people; that's not very many?
    Mr. Hirschfeld. You're saying assuming Germany built it 
first, then it would be the United States.
    Senator Reid. What do you see in Germany as to when they 
can build their facility?
    Mr. Hirschfeld. I believe their operation was to begin for 
people to ride, it was something like 2008.
    Senator Reid. We certainly need to do better than that.
    Mr. Schaeffer, would you be kind enough to inform the 
committee about some of the things the resort industry has done 
working with State and local government to alleviate traffic 
problems? I focus, first, on the overpass--tell us about that.
    Mr. Schaeffer. Look, the busiest pedestrian corner in the 
United States, we believe, because by the year 1998 there will 
be more rooms at Tropicana Boulevard on the Las Vegas Strip 
than the entire city of San Francisco hotel rooms. We have an 
overpass system on all four corners of Tropicana and Las Vegas 
Boulevard, and a current proposal at the four corners of 
Flamingo and Las Vegas Boulevard that there will be underpasses 
so that traffic flow and pedestrian flow can be conducted in a 
safe manner. It will also be the case that an alternative 
artery to the Las Vegas Strip, which will be called Resort 
Boulevard, which will run parallel to I-15, the first mile will 
be on property my company owns between Russell Boulevard and 
Tropicana. I think that we can look forward to that artery 
going at least three miles of the four miles in Las Vegas Strip 
in helping to alleviate a highly congested situation on the 
Strip proper.
    Senator Reid. As I indicated in my opening statement in 
introducing you, and in my opening statement at this hearing, I 
think that the resort industry is to be commended universally 
for the work that they've done in joining with government to 
solve some traffic problems--this is a good example.
    As we're doing at Lake Tahoe, I think Nevada can be viewed 
as a place where we're doing things a little differently than 
they are doing in other places and I think it's a good example 
for other places.
    So, Chairman Chafee, do you have anything else?
    Senator Chafee. Just one quick question of Mr. Schaeffer.
    You mentioned that I-15 received some money from the ISTEA 
legislation which was passed in 1991, but that they're just 
getting going on it? What's the matter?
    Mr. Schaeffer. Yes, sir, it's been slow in coming. I'm not 
sure I can describe to you what the hold up has been. While we 
have in this area, let's say, in the tourism business, doubled 
our tourism counts in something under a decade, it has taken 6 
years to get started with the work at the I-15 and I-40 
connector, if you will, between Barstow and Victorville. 
Whatever the future of high technology transit systems will be, 
we're still the ``American West on Wheels,'' and in Phoenix, 
Los Angeles and Las Vegas the vital corridors are I-15 and I-
40, and that's the bottleneck, sir.
    Senator Reid. Mr. Chairman, if you would yield just a 
second.
    Mr. Schaeffer talked about people wanting to come here, not 
being able to come here, trucks wanting to move freight and not 
being able to do that. But what he also didn't mention that is 
also imperative is millions of people live in that area. They 
can't move either. It has really interfered with not only 
interstate commerce, but people's way and ability to live a 
normal life.
    Senator Chafee. Thank you.
    Senator Reid. Ladies and gentlemen, we thank you very much 
for your time here this morning.
    We will now ask to come forward Mr. Dick Landis, Director 
of Transportation Programs, Heavy Vehicle Electric License 
Plate, Incorporated; Dr. Christine Johnson, Director of 
Intelligent Transportation Systems, Joint Project Office, 
Federal Highway Administration; Mr. Bob MacLennan, General 
Manager, Metropolitan Transit Authority of Harris County, 
Texas; Mr. Dick Howard, Director of Intergovernmental 
Relations, South Dakota Department of Transportation; and Mr. 
Pete Rahn, Cabinet Secretary, New Mexico State Highway and 
Transportation Departments.
    We will ask Mr. Landis to have a seat and please begin.

 STATEMENT OF DICK LANDIS, DIRECTOR, TRANSPORTATION PROGRAMS, 
       HEAVY VEHICLE ELECTRIC LICENSE PLATE, INCORPORATED

    Mr. Landis. Mr. Chairman, Senator Reid, I'm delighted to be 
here. Thank you for holding the hearing.
    My name is Dick Landis. I am the President and CEO of HELP, 
Incorporated. I also serve as the Chairman of the ITS America 
Commercial Vehicle Operations Technical Committee, so my 
comments today are going to be related to technology and 
commercial vehicle operations and public-private partnerships.
    Senator Chafee. Is HELP an acronym?
    Mr. Landis. HELP is an acronym for Heavy Vehicle Electronic 
License Plate. It is a research project that was begun 12 years 
ago and now has matured to a point where we have a public-
private partnership corporation established, and HELP is the 
acronym for the long name. It's a long easier.
    What we are going to hear in my testimony is focusing on 
the fact that we can document, I think, tangible evidence of 
benefits that can result from the investment in Federal 
intelligent transportation system research efforts, and we are 
a product of that.
    HELP, Inc., is a case study of the success of ITS--and I'll 
refer to Intelligent Transportation Systems as ITS as I do 
this--commercial vehicles operations, and the fact that we have 
an operating system--we have many customers who are using it 
now and we are proceeding in a self-sustained form of 
operation.
    To the best of my knowledge, I think we're the only 
demonstration effort out there that can show that we have taken 
a Federal research ITS project into a commercially viable 
operation and moved forward with that.
    HELP, Incorporated is a non-profit corporation that is 
established as a true public-private partnership. We are 
public-private in that the trucking industry, in particular and 
the State governments, are together serving on the Board of 
Directors and helping watching us move forward.
    The second part is that we are the public-private 
partnership and have private sector venture capital involved in 
moving our technology forward as a result of the research 
effort that had been done. Our service is voluntary and our 
customers, which are States and the trucking industry, 
participate only because we add value to their operations, and 
the value added, I think, is very important to what we're 
doing.
    In the case of our State customers, it allows them to focus 
enforcement efforts on areas that need attention--safety, 
regulatory problems--by removing from the traffic stream those 
who are operating safely and in compliance with regulations.
    Second, the benefit value added is that it reduces capital 
and operating expenditures for weigh stations and ports of 
entry. On the motor carrier side of the equation, they receive 
benefits in increased operating efficiencies. We are seeing 
very high positive feedback and driver satisfaction, and, most 
importantly, lower operating costs for an industry that is so 
very vital to all of us in moving freight around this country.
    The benefits are being realized because the Federal funds 
authorized by this committee many years ago were used to 
demonstrate the viability of motion technology and automatic 
vehicle identification technology, and we have moved forward 
with those.
    However, Mr. Chairman, the benefits are not being provided 
with ongoing subsidies at this point, and we believe that is 
important. Our service is self-sustaining, and that occurs 
because in 1993 when the research effort was done, the Federal 
Highway Administration and Dr. Johnson's folks wisely made the 
decision that deployment of technologies was needed but not at 
the expense of Federal investments at that point, and moved 
forward with the private sector public-private partnerships. 
And, as a result, that was the creation of HELP, Inc., which 
was established and now has 11 member States part of that.
    Senator Reid, as a matter of information, Keith Mackey, who 
is here in the audience from the Nevada Department of 
Transportation, serves on my Board of Directors. Nevada is the 
most recent member of our organization. We're just delighted to 
have him as a part of that. New Mexico, with Secretary Rahn, 
has been very forward in moving New Mexico into deploying the 
technology and it works very well.
    I think HELP is a tribute to the federally supported ITS 
efforts and needs to serve as that. However, I would point out 
a recent ITS America principle that was adopted related to ITS 
reauthorization, and that is a statement that says, ``Federal 
funds should be reserved for those programs not being carried 
out by the private sector.'' I think we are an example to show 
that there is a transition that is very appropriate from 
research dollars to private sector involvement.
    Senator Chafee. Mr. Landis, I don't understand what HELP 
is. What do you do?
    Senator Reid. I appreciate the question.
    Senator Chafee. Do you inspect vehicles, is that it? It's 
sort of a good housekeeping seal of approval on a truck?
    Mr. Landis. No, no, what we do is automate the truck 
highway operations. We automate the weigh scales, the ports of 
entry, those areas that are the choke points on the highway for 
the trucks to operate. Not far from here there are weigh scales 
located throughout California. We automate that process, the 
trucking industry subscribes to a service that provides all of 
the necessary credentials related to safety, related to 
registration, etcetera. When that is all in place, we use 
exactly the same transponder or the same type of transponder 
that you saw on the toll road to automate that function, and if 
everything is in order for that truck, then we provide the 
ability for that vehicle to not stop in that facility. He goes 
on down the road; he doesn't even slow down.
    Senator Chafee. I don't want to interrupt you, but I'm not 
sure I understand. Let's say a truck is going from San Diego to 
Chicago. Does it first start off and come by your place, is it, 
and get a transponder saying, ``We're safe; we're not 
overloaded and so forth?''
    Mr. Landis. Mr. Chairman, yes. He would subscribe to the 
HELP system, a service called Prepass, which is operated on 
behalf of the States. He would then provide all the credentials 
and information, which is verified. Then when he comes to the 
State-operated facility----
    Senator Chafee. You say, ``Which is verified.'' When he's 
going to start off on this trip, does he call you up and say, 
``I'm going?''
    Mr. Landis. No, it's all down on the fly. The system 
recognizes him in a computer data base, and the transponder 
identifies him. When he arrives----
    Senator Chafee. Suppose he's a liar; suppose he has told 
you false facts; suppose he says, ``I've got 80,000 pounds,'' 
and instead he's got 100,000?
    Mr. Landis. No, we weigh him.
    Senator Chafee. So he physically comes to a facility of 
yours?
    Mr. Landis. He comes to a State facility, not our facility. 
He comes to a weigh station in--let's use your trip; the 
vehicle leaves Los Angeles. He will arrive at a weigh station, 
inspection station, in California that is operated by the 
California Highway Patrol. Before he gets to that station, we 
will automatically weigh him on the highway----
    Senator Chafee. Who is ``we,'' HELP?
    Mr. Landis. The State through HELP, the system that we 
deploy on behalf of the State. He is weighed on the highway, 
away from the weigh scale, a mile before he gets there.
    Senator Chafee. So you have a----
    Mr. Landis.--a scale in the pavement before he gets to the 
weigh scale, yes.
    Senator Chafee. He stopped at one State place, before he 
stops at the next one? He doesn't even slow down?
    Mr. Landis. He doesn't stop. He keeps on proceeding down 
the road. We verify everything while he's driving down the 
road. That is the wonder of the research that was done in 
putting together----
    Senator Chafee. You weigh him while he's going?
    Mr. Landis. Absolutely, on the fly, at highway speed.
    Senator Chafee. That's pretty good.
    Now how do you know he is a safe vehicle?
    Mr. Landis. We verify through the existing data bases that 
exist at the Department of Transportation, existing data bases 
that exist within the California Highway Patrol, for instance. 
They have their own safety recording system. We have the 
electronic connection with those data bases that make a 
determination that he has a satisfactory safety rating, and 
we----
    Senator Chafee. How do you know his brakes in the truck are 
good?
    Mr. Landis. Well, at that instant you don't, but what you 
have is a pattern of safety data that is collected over a 
period of time through the safety inspection program that is 
conducted by the State and the Federal Government. They have a 
data base that can make a determination of who is the safe 
carrier, who are the best carriers, who are the problem 
carriers, and we use that existing information.
    Senator Chafee. By company?
    Mr. Landis. Usually, yes.
    Senator Chafee. Problem carriers?
    Mr. Landis. Certainly, yes.
    Senator Chafee. OK, so he gets this seal now. He has gone 
over your----
    Mr. Landis. He has gone over the scale. We use a 
transponder to identify him. That transponder says, ``I am 
truck No. 1, 2, 3, 4, 5.'' That goes into a data base that is 
located in the weigh station. It electronically verifies his 
credentials, his registration, his tax information, his safety 
record. If it is all in order, we send a signal back to that 
same transponder, a green light, that says, ``Don't stop; 
continue to go down the road.''
    Senator Chafee. So all the way to Chicago he can go right--
--
    Mr. Landis. Ultimately, all the----
    Senator Chafee. Go right through the----
    Mr. Landis. Ultimately, yes. Right now it's the early 
stages of deployment of the technology that will get there. The 
intent, and our desire--of course, my desire, for everything 
that we're working with is to have a seamless transportation 
system all the way across the country. That truck should be 
able to go from Los Angeles to Chicago and not stop, if he does 
what he is supposed to do, if he complies with what we want.
    Senator Chafee. I'm sorry, I took part of your time.
    Senator Reid. Also, if he stopped on the weigh stations 
even today, they wouldn't know if his brakes worked or not.
    Mr. Landis. In many cases not, but they might. There are 
inspection places in place that work with that. If I might 
finish, I understand there is a red light and I will provide 
testimony that will----
    Senator Reid. We will make all your testimony part of the 
record.
    Mr. Landis. OK, part of the record.
    Senator Reid. We'll have some questions for you, thank you 
very much. That was very enlightening.
    Mr. Landis. Thank you.
    Senator Reid. We'll now hear from Dr. Christine Johnson.

     STATEMENT OF CHRISTINE JOHNSON, DIRECTOR, INTELLIGENT 
 TRANSPORTATION SYSTEMS, JOINT PROJECT OFFICE, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Ms. Johnson. Mr. Chairman, Senator Reid, as a fellow 
westerner, I'm glad to be back amongst some familiar people. I 
also thank you for the opportunity to testify on behalf of 
NEXTEA. I will focus my remarks exclusively on Intelligent 
Transportation Systems, which we believe will be an important 
part of the bridge that we've talked so much about today to the 
21st century.
    Intelligent Transportation Systems (ITS) range from very 
familiar things like advanced signal control that you've heard 
about in the LVACTS system today, to things that are less 
familiar, including vehicles that will prevent automobile 
accidents rather than just protect us as an air bag would when 
an accident occurs, and to the pollution sensing technology 
that we heard about earlier this morning.
    After about 6 years of ITS supported research in this area 
and over 80 operational tests, the potential for these 
technologies has become overwhelming. In metropolitan areas, 
very much as Senator Chafee indicated, ITS will function as a 
ground traffic control system, much as the air traffic control 
system. We have found that deployment of ITS has been cut by 35 
percent, the cost of providing the capacity that we need to 
support the kind of growth that has been talked about here in 
this metropolitan area.
    ITS can also improve safety. If all the vehicles were 
equipped with just three of the elementary ITS collision-
avoidance technologies, that could avoid one out of every six 
of the crashes that occur today. That would bring us to a point 
where we were in fatalities in World War II--stunning--and it 
can save us tax dollars, which in this day and age is 
important, by streamlining government operations. You heard one 
example from Dick Landis; another example we have found that 
just one of the ITS technologies applied to transit properties 
can save between $4 billion and $7 billion in the next decade. 
That is the equivalent of one annual authorization for FTA 
every year.
    It was because of this tremendous potential in virtually 
all aspects of surface transportation, that last year the 
Secretary set a goal to deploy this infrastructure across the 
United States in urban and rural areas within the next decade. 
And I want to assure you that we are on the way to achieving 
that goal.
    We have heard the example here in Las Vegas of a state-of-
the-art surface transportation management system, and there are 
rural examples as well, with a road weather information system 
here in Nevada that sets an example in getting real time 
accurate weather and highway condition information to 
motorists. That technology, we've estimated, could save $2 
billion a year for highway operations.
    Weather and highway conditions information has been linked 
to a travel information system known as TransCal in the 
corridor between San Francisco and Lake Tahoe that not only 
provides the road and weather information for regular travelers 
like us, but also traveler services, like, where the gas 
stations are, where the restaurants are, where lodgings are and 
that type of thing.
    And you've heard of the application to the commercial 
vehicle industry. I think yesterday some of your staff visited 
the Saint George port of entry. This is a similar kind of 
technology that has cut the waiting time that ordinarily occurs 
at those weigh stations from 30 minutes down to a 2-minute 
transaction time. Obviously, this has streamlined operations at 
the port and improved the effectiveness of the State personnel 
associated with it.
    It is because of these kinds of benefits in virtually every 
aspect of surface transportation that we have included a three-
pronged proposal in the reauthorization bill. One is for a very 
modest incentive program that would provide about $100 million 
a year to jump start the deployment of this technology across 
the United States, in metropolitan areas, rural areas and for 
the CVO infrastructure.
    Second, a research program that would build on what we've 
learned in vehicles that can help us avoid accidents, but also 
focus on developing the standards, providing the training that 
we need for our State and local partners, and the technology 
guidance.
    Finally, the third prong of this proposal will provide 
legislative changes that will give State and local officials 
the flexibility to use existing Federal aid for ITS 
infrastructure deployment. We believe this is an important 
piece of the NEXTEA proposal that will enable the vision of the 
ISTEA--management of the existing transportation 
infrastructure--to take place. It will cut congestion, reduce 
accidents, and reduce costs, our government costs, and, by the 
way, it will add to our quality of life. I think that is 
important.
    I look forward to working with you.
    Senator Reid. Thank you, Dr. Johnson.
    We'll now hear from Dr. Bob MacLennan from the State of 
Texas. We welcome you to Nevada.

  STATEMENT OF BOB MAC LENNAN, GENERAL MANAGER, METROPOLITAN 
            TRANSIT AUTHORITY, HARRIS COUNTY, TEXAS

    Mr. MacLennan. Thank you, Senator.
    Chairman Chafee, Senator Reid, members of the staff, thank 
you very much for the opportunity to speak to you on the 
reauthorization of ISTEA. I have submitted written testimony 
and ask that they be included in the record.
    Senator Reid. That will be made part of the record.
    Mr. MacLennan. I'm the Chairman of ITS America, but in 
daily life I'm the General Manager of the Transit Authority in 
the Houston general area, and I would like to speak to you from 
the viewpoint of one of those who live each day where literally 
a lot of rubber meets the road.
    The fact is with your very important assistance provided 
through ISTEA, we're an example of a place where we think there 
has been a significant amount of progress made in addressing 
what was once considered among the worst congested cities in 
the country. In fact, as a result of your help and with a good 
deal of local--even with local growth but with a lot of local 
participation, traffic congestion in Houston has declined over 
the past decade, unlike that of most major cities.
    It demonstrates the value of the flexibility of ISTEA and 
the advantages of the use of advanced technology, intelligent 
transportation type of activities in challenging the congestion 
problem. At home in that sunbelt city, metro is the region's 
single mass transit provider, but the State saw fit to broaden 
metro's powers to the point where we now act as an equal 
partner, in some cases as a leader, in developing and 
implementing programs and projects benefiting general traffic, 
as well as public transportation. We also design and build some 
of the highways and major streets in the Houston area and 
manage traffic on them.
    We work very closely with the highway department, the city, 
the county and the private sector as equal partners to that 
end.
    We've been focused on putting into place what we call the 
Regional Bus Plan. As the largest bus only system in America, 
we've played our hand in attempting to develop a mass transit 
system that can work very cost efficiently in a large 
geographic area with a low population density, albeit a large 
population. It hasn't been an easy challenge. Our program is a 
comprehensive plan focused on the use of advanced technology 
but with major benefits for all rubber tire vehicles as well as 
the transit vehicles. Each project provides immediate benefits 
as it's completed.
    You and your colleagues have been instrumental in funding 
the Regional Bus Plan under a full funding grant agreement 
through the Federal Transit Administration from which we are 
receiving some $500 million of the program's $1 billion cost. 
Metro is providing the matching $500 million from local 
resources.
     A keystone of the current Regional Bus Plan is our high 
occupancy vehicle lane network. This 104-mile network is 
already two-thirds completed and operational. Buses, vans and 
car pools are operated in those various separated HOV lanes in 
the center of the region's major freeways.
    We receive rail level performance by frequent service and 
direct access from suburban park and ride lots through the HOV 
lanes to the major activity centers. During peak traffic 
periods, vehicles on those lanes move at the speed limit--55 to 
70--alongside much lower traffic on the main lanes.
    Another key feature of the Regional Bus Plan is the 
rebuilding of the region's traffic signals into a centrally 
monitored and controlled regional computerized traffic signal 
system. Metro, with the Federal Transit Administration funding, 
is rebuilding those signals and is impacting not only bus 
operations but also its working to the benefit of all rubber 
tire vehicles using those roads.
    The Texas Department of Transportation and other local 
governments are at the same time rebuilding non-bus related 
signals. They're all tied together in a central control 
facility that we call Transtar. We're very proud of that state-
of-the-art facility and the close multi-agency and private 
sector cooperation of which literally it is a concrete example.
    Not only does Transtar afford the opportunity to monitor 
and direct traffic, but it permits instantaneous computerized 
real time adjustment to signals through corridors and cross 
corridors to respond to traffic needs.
    Incident response is also coordinated from Transtar as our 
all emergency management functions, including hurricane and 
flood control evacuation and others. Metro even dispatches its 
buses and police traffic from that facility.
    As a result of projects like these, not only have travel 
times decreased steadily but mass transit use has increased. 
During peak periods, HOV lanes carry the equivalent of two and 
a half to three times the traffic, the passenger traffic, on 
the adjacent main lanes. Since they are reversible, they negate 
the need to build six more lanes on those freeways.
    The Regional Bus Plan relies on ITS concepts and technology 
to achieve this high level performance. A small example is 
we're developing a Smart Bus, which, among many other things, 
provides real time location and schedule information to waiting 
passengers at transit centers ahead. Better informed patrons 
are more frequent riders.
    In addition, we've been a participant with Los Angeles MTA 
and the development of the next generation bus, lighter and 
more fuel efficient and operated less expensively and with less 
demands on the freeway system. We are also a leader in the 
application of alternative fuel technology, having chosen 
liquified natural gas as our choice.
    We would like to thank you for the opportunity to speak to 
you today, ask for your continued support in the future, and 
would suggest that with your help ISTEA and ITS can produce 
many more success stories in the days to come.
    Thank you, sir.
    Senator Reid. Thank you very much.
    We now welcome to the State of Nevada the Director of 
Intergovernmental Relations from the State of South Dakota, Mr. 
Dick Howard.

     STATEMENT OF DICK HOWARD, DIRECTOR, INTERGOVERNMENTAL 
      RELATIONS, SOUTH DAKOTA DEPARTMENT OF TRANSPORTATION

    Mr. Howard. Thank you, Senator Reid, and Senator Chafee, 
for the opportunity to be here.
    I am Dick Howard, Director of the Intergovernmental 
Relations for South Dakota. Prior to this, I served 10 and a 
half years as Secretary of the Department of Transportation in 
South Dakota.
    I'm here today not only speaking for South Dakota but also 
on behalf of the Departments of Transportation in Idaho, 
Montana, Nebraska, North Dakota and Wyoming.
    Legislation establishing the future, size and shape of the 
Federal Highway Program is of critical importance to the Nation 
and to this region of the country. So we're very pleased to 
have this opportunity to present our views, and we thank you 
again for allowing us to participate.
    Before I describe our position, I want to take a moment to 
say how much we appreciated Senator Reid's contribution to the 
development of the current highway program. Six years I 
testified in Washington before Senator Reid and other senators 
in very strong support of a bipartisan bill, which Senator 
Reid, Senator Baucus and Senator Bryan and eight others 
introduced. It was known as the Reid-Baucus Bill, and I think 
if you look back at that bill in 1991, you'll find that many 
parts of the core program of ISTEA were contained in that 
initial bill, which was introduced by Senators Reid and Baucus.
    Senator Reid, certainly his efforts made a positive 
contribution to the final legislative outcome. So I want to 
take this opportunity again to thank you, Senator Reid, for 
your participation then, and we know that you're going to 
continue to be a strong player this year, as will Senator 
Chafee.
    Our basic position of our States is that we strongly 
support the Surface Transportation Authorization and Regulatory 
Streamlining Act, which has been called STARS 2000. Its 
proposal, which is being prepared for introduction by Senators 
Baucus, Kempthorne and Thomas--and we understand that it will 
be introduced during the week following the concurrent 
Congressional Easter recess. These senators deserve great 
credit for their work. We believe that STARS 2000 is an 
excellent proposal, which will address the needs of the Nation 
and our States in a thoughtful way.
    I might also add that it would provide a highway funding 
level and program share for Nevada, which far exceeds that 
which would be provided under any other proposal.
    I have a table, which I will hand out later, that shows the 
State of Nevada's share of the Federal highway funds would 
increase by an amount of $60 million to $80 million per year 
more than the current ISTEA amount. Plus, there is a larger 
Federal lands program, which would substantially benefit 
Nevada, as well as the other States which have significant 
portions of their land area under Federal ownership.
    Basically, in my testimony I want to discuss major 
recommendations dealing with reauthorization of the Federal 
Highway Program, and I will list those now:
    No. 1, it should increase funding levels to as high as the 
highway account for the Highway Trust Fund can sustain; No. 2, 
it should emphasize investment in the National Highway System; 
No. 3, it should achieve a distribution of funds among the 
States that is fair and based on the national interest; No. 4, 
it should provide States greater flexibility to determine how 
to invest transportation funds while retaining some Federal 
program emphasis areas; No. 5, it should reduce regulation of 
States by the Federal Government; and, No. 6, continue many 
aspects of present law, such as provisions requiring planning 
and public involvement in planning.
    I will go into a little bit of detail on each of these. In 
terms of increasing the Federal Highway Program levels, I'm not 
going to dwell on this. We believe that the overall highway 
program funding levels should be maintained at a level which 
would fully utilize the income coming into the highway trust 
fund, plus interest on the balance and a gradual draw down of 
that balance. As has been testified earlier this morning, that 
would be in the range of $26 billion to $27 billion per year.
    I am aware that something over 60 senators signed letters 
and submitted to Chairman Domenici of the Budget Committee 
recommending higher levels of funding for the transportation 
program in future years. Also, as Governor Miller mentioned 
this morning, the MGA has strongly supported that, and I think 
that a letter signed by, like, 40 Governors was recently 
submitted to the Budget Committee.
    In terms of distributing the funds, we propose, basically, 
that there be two core programs--the National Highway System 
and a Surface Transportation Program--and that the factors 
which go into these should be based on extent and usage of 
these systems. The NHS factors that we propose would include 
lane miles, vehicle miles of travel and a special fuel--a 
diesel factor. The STP formula would include a Federal eight-
system lane miles and VMT, plus bridge surface area, including 
factors such as Federal lands, air quality and population 
density.
    I have a map that I would like to hand out, if I could very 
quickly, Mr. Chairman, which shows--this map deals with the 
proposed formulas. The first map shows the number of States 
which would do better under the STARS 2000 proposal than they 
would do under the 6-year average of ISTEA, and, as you can 
see, there are 33 States that would do better under STARS 2000 
than ISTEA.
    Forty-seven States would actually get more dollars under 
STARS 2000 than under ISTEA----
    Senator Reid. One of the problems with this, though, is 
that Rhode Island isn't one of those States that does better?
    Mr. Howard. I know, but I'll show the second map then, 
Senator. The second map shows the percentage comparison of 
program shares under the current reauthorization proposals, 
which includes STARS 2000 Step 21 and NEXTEA, which is the 
Administration's proposal.
    STARS 2000 is shown in red, those States which would get 
more under STARS 2000; blue is Step 21; and, green is NEXTEA. 
If you will notice, Mr. Chairman, Rhode Island is a color 
combination of red and blue, meaning that----
    Senator Reid. We appreciate that. We'll have some questions 
for you.
    Mr. Howard. And then attached to that is a table which 
shows the percentage for each State.
    Senator Reid. Thank you very much for your testimony.
    Mr. Howard. Thank you.
    Senator Reid. We will now hear from Mr. Pete Rahn, 
Secretary of the New Mexico State Department of Transportation.
    By the way, I was with Secretary Lujan this morning, and he 
said to be sure and tell you hello.
    Please proceed.

 STATEMENT OF PETER RAHN, CABINET SECRETARY, NEW MEXICO STATE 
             HIGHWAY AND TRANSPORTATION DEPARTMENT

    Mr. Rahn. Thank you for the opportunity to address you.
    Mr. Chairman, our nation currently possesses a global 
economic advantage because of our efficient and safe 
transportation system, and we believe that the movement of 
people and goods must drive any reauthorization bill that looks 
at surface transportation within the country.
    To give you an idea of where New Mexico is as far as the 
sizes of State, New Mexico, located within the Rocky Mountain 
West, is well aware that the entire Rocky Mountain time zone 
has less than 6 percent of the nation's population but over 25 
percent of the land mass, and we are reminded of this every 
time that a national TV program announces what time they're 
going to display a show because they always leave out the 
Mountain time zone when they tell you what time it is. So, 
apparently, the 6-percent population within the time zone is 
not worth the 2-seconds that it takes to tell us what time a 
program comes on.
    However, Mr. Chairman, transportation is a distance issues, 
as well as a population issue, and New Mexico's highway system 
serves as a bridge between the population and manufacturing 
centers of California, Texas and the rest of the sunbelt while 
deriving very little direct benefit from that function.
    In size New Mexico is our nation's fifth largest State. You 
could place the States of New York, Pennsylvania, New Jersey, 
Maryland, Delaware, Massachusetts and Rhode Island all within 
the designated rural portion of the State of New Mexico and 
still have 1,600 square miles to spare.
    New Mexico ranked 48th in per capita income in 1995. Our 
unemployment rate is well above the 5.4 percent national 
average. Our highway system possesses five of the 20 most 
dangerous roads in the country, and all of this combined with 
the fact that New Mexico--our citizens pay the second highest 
per capita dollar amount into State transportation taxes in the 
country. New Mexico, according to the Federal Highway 
Administration's figures from 1995, ranked second only to 
Washington, with $294 per capita being paid by our citizens 
into the State transportation taxes.
    I would add that the State of Nevada ranks sixth in the 
country as far as the proportion or per capita rate in which 
their citizens pay into State transportation taxes.
    Mr. Chairman, New Mexico's existing highways system----
    Senator Chafee. Could I just ask one question on that? On 
our per capita income, the unemployment rate and so forth, is 
that distorted by the Indian population substantially? In other 
words, if the Indian population were excluded, and I'm not 
suggesting that it be but I'm just curious, the New Mexico per 
capita income, I presume, would come up rather substantially, 
would it or wouldn't it?
    Mr. Rahn. Mr. Chairman, Senator, I don't believe it would 
come up substantially. It would rise but it would not rise 
substantially because we have a problem with employment 
throughout the State with the exception of two metropolitan 
areas. With that exception, there is little employment in the 
outer rural regions of our State.
    Senator Reid. Is New Mexico--I'm sorry, I may have missed 
that even though when you walk back, you can still hear your 
testimony--is New Mexico still growing?
    Mr. Rahn. Yes, Mr. Chairman, New Mexico is growing. In 
fact, we're second--the projections are for the year 2015 that 
we will have experienced the second highest growth rate as a 
State in the nation, second only to California.
    Senator Reid. Why do people continue to move there if there 
is no work?
    Mr. Rahn. The city of Albuquerque or the metropolitan area 
of Albuquerque is attracting employment, but it is centrally 
located and is not spread out outside of the city of 
Albuquerque.
    Mr. Chairman, New Mexico's existing highway system has 
deteriorated due to the lack of resources and increased traffic 
volume. Today we have nearly three times the traffic on our 
system that we had just 10 years ago. New Mexico, as a bridge 
State, has 93 percent of its heavy commercial vehicles that 
travel on the interstates are neither bound for, or originating 
in, New Mexico, and 50 percent of all of the vehicles traveled 
in the State are not originating from or destined to New Mexico 
other than to pass through it.
    Mr. Chairman, I will attempt to skip through some of this. 
The important issue I would like to address is the idea of 
donor-donee, and, Mr. Chairman, that is a peculiar concept to 
us because it only applies to the highway portion of the trust 
fund. It does not apply to transit, and if the calculation were 
made on all surface transportation expenditures, many States 
that are currently listed as donee States would in fact be 
donor States and New Mexico is one of those.
    A couple of issues under ISTEA, Mr. Chairman, if I could, 
very quickly try to deal with it. I would like to, first, 
mention that New Mexico, along with many other States, is very 
disappointed in the Administration's proposal for NEXTEA, and I 
will finish, Mr. Chairman, in mentioning ITS. ITS, we believe, 
has some successes and New Mexico has been involved with two of 
those--one of those is, as I describe to you, through the HELP 
process; another one was Crescent. However, those were very 
small programs, and, in general, we believe that ITS is focused 
too much on urban and eastern States and areas, and that the 
rural areas of our country have not seen the benefits from ITS 
that are possible if the program were more balanced.
    Senator Reid. Thank you very much for taking the efforts to 
be here today.
    Mr. Landis, who pays for these transponders and things that 
are buried in the pavement as you drive by?
    Mr. Landis. Under our current structure, as a public-
private partnership using venture capital, we have a partner 
which in our case is Lockheed Martin IMS, who is providing the 
capital investment that includes transponders, computers and 
other devices to make the system operate.
    We provide those devises up front. The system becomes self-
sustaining on a user-fee basis, if you will----
    Senator Reid. What does Lockheed get out of it?
    Mr. Landis. Lockheed will ultimately achieve, hopefully, a 
return on their investment, as any other venture capital.
    Senator Reid. Selling the equipment?
    Mr. Landis. I'm sorry?
    Senator Reid. Tell me how Lockheed makes money on the 
arrangement then.
    Mr. Landis. We have the system operate on a transaction fee 
basis. That generates revenue which comes to HELP, which pays 
back the venture capital. It's a very typical approach.
    Senator Reid. I understand.
    Now, someone is leaving from Los Angeles with a truck load 
of beds or whatever they haul. There would be various places on 
their route to Chicago where you have these transponders in the 
pavement, and they would not have to stop if their vehicle met 
the standards when necessary until they came to a place that 
wasn't using this smart technology, is that right?
    Mr. Landis. That is correct.
    Senator Reid. And the way it is now at least they would 
have to stop it in every State, at least once?
    Mr. Landis. Not in every case, but conceptionally I think 
that is correct, Senator.
    Senator Reid. And so what we would try to do is avoid the 
half hour that coming into Saint George and a trip across from 
Chicago would amount to with 8 or 9 hours worth of stops that 
would be necessary normally?
    Mr. Landis. What we are dealing with is really incremental 
costs, and I'll give you an example.
    Westway Express, a company where the President of that 
company recently estimated that his trucks on a cross country 
trip by not stopping at weigh stations and ports of entry can 
safe somewhere between eight and thirteen dollars. That's not 
much on an individual trip but----
    Senator Reid. I'm surprised that's all it is considering--I 
can't believe that's what it would be.
    Mr. Landis. I honestly think it's higher, but that is his 
estimate.
    Senator Reid. Eight dollars--I mean, if somebody said that 
coming into Saint George is a half an hour, unless you're 
paying a truck driver 50 cents an hour across the country, 
those figures don't add up.
    Mr. Landis. I fully agree with you. I think the cost is 
higher, but----
    Senator Reid. I wouldn't use that example again.
    Mr. Landis. Well, still, no, it's still appropriate. That 
is somebody who has taken the time to determine that there are 
real savings to be achieved----
    Senator Reid. But, Mr. Landis, that doesn't make sense. You 
have a huge semi-truck stopping for a half an hour; that's more 
than eight dollars right there, I would have to say, with the 
time of the truck driver.
    Mr. Landis. I agree with you.
    Senator Reid. Dr. Johnson, I don't want to minimize the 
eight dollars or thirteen dollars, but wouldn't you save more 
money than that?
    Ms. Johnson. We believe so. We have two or three other of 
these types of operations in the United States. I-75 going from 
Florida to Ontario has estimated savings of an hour, an hour 
and a half to 2 hours; multiply that times $60 an hour. Any 
individual trip is saving substantially.
    What is happening in the United States is because of 
downsizing State government and weigh stations, so the random 
probability of a truck having to stop isn't at every weigh 
station.
    Senator Reid. I see. So you see these places along the way, 
most trucks do not stop. They do it when it just doesn't look 
right.
    Ms. Johnson. Right, so our effectiveness in safety is going 
down.
    Senator Reid. I understand, that's a very good point and I 
appreciate that.
    Ms. Johnson. And we believe this will not only help the 
truckers but substantially heighten our safety.
    Senator Reid. If the public officials here in Nevada had 
enough money, what programs do you believe could be implemented 
to address some of the congestion-related problems?
    Ms. Johnson. I think that the starts that are being made in 
Las Vegas with traffic signal systems is a good start. The next 
step that probably ought to be made is automatic vehicle 
location system on their transit system, and to the extent that 
they have a paratransit system, the type of thing that was 
talked about in Tahoe, we have to include that with automatic 
dispatching. Freeway systems ought to have--whatever you end up 
doing with the freeway system, it ought to be built smart so 
that you can manage on and off, as well as communicate and have 
surveillance.
    All of those systems then should be linked by the type of 
thing that Senator Chafee was talking about. Essentially, a 
ground management system that is intermodal.
    Senator Reid. Chairman Chafee?
    Senator Chafee. Thank you, Mr. Chairman.
    Mr. MacLennan, it sounds like you've had some real success 
in Houston with the increase in ridership. As you know, I'm a 
public transit advocate, and I do find--just say in south 
California, they were indicating--I don't know whether it was 
just pertaining to San Diego or not, but they were indicating 
that regrettably they've seen their ridership go down in actual 
numbers, even though the population has substantially 
increased.
    What are you doing differently? Is it your HOV lanes, your 
special lanes, that permits your buses to move so swiftly? Is 
that the secret?
    Mr. Maclennan. I think it's a composite. Certainly, the HOV 
lanes are a significant part of that. The fact is they can 
whisk by--people are mainly using transit to get to and from 
work, although there are a lot of other uses but that's a 
predominant use, and if they can whisk by the traffic at the 
speed limit, 55 to 70, instead of sitting in traffic, that's 
going to encourage them to get on.
    If they are also then not blocked up in the downtown areas 
or the other major activity centers after they get off of the 
HOV lanes, that's also going to encourage them to stay on the 
bus system. We have seen significant growth of the years. We're 
double where we were when we started into operation in 1979.
    Senator Chafee. In your ridership?
    Mr. MacLennan. In our ridership, yes.
    Senator Chafee. Now, obviously, this is costing you some 
money. It's subsidized but by doing this you are avoiding 
having to build additional lanes. As you indicated, the cost of 
those are very, very substantial.
    Mr. Howard, I'm not sure I understand STARS 2000 totally. 
Are the western States exempt from the--treated in some special 
fashion or how does that work? I know that some of the States 
have a 95 percent return on contributions.
    Mr. Howard. Senator Chafee, you're referring to the 
formulas and how the funds are distributed?
    Senator Chafee. Well, yes, I am, the STARS 2000 that you've 
discussed.
    Mr. Howard. OK, basically, the program would be set up with 
a large national highway system program of 60 percent of the 
core program; 40 percent of the core program would be a more 
flexible surface transportation program such as we have now 
under ISTEA. There would be some--equity adjustments would be 
applied to the program. As I recall, in the calculations, 
first, you go through the formula based on extent and usage 
factors, which were included I think in the written testimony, 
but then there is an adjustment for the small States and the 
sparsely populated States and the small north eastern States to 
assure that they all get the same percentage that they got 
under ISTEA, recognizing the unique aspects of the west and of 
the north east in terms of the way they were treated under 
ISTEA.
    Then we apply the 95 percent minimum allocation, which is 
desired by the Step 21 States. Then there is another adjustment 
which represents the--puts more emphasis on the size and extent 
of the program, which we call a core adjustment, and then a 
final adjustment is made, again, to guarantee that the sparsely 
populated States and small States in the north east which have 
small transportation systems but lots of people would get at 
least what they got under ISTEA.
    So the formula--when the calculations are completed, about 
53 percent of the program is distributed as NHS funds or 55 
percent--33 is STP and there's 12 percent that go to the States 
under these equity adjustments that we believe make the program 
fair and universal to all States.
    Senator Chafee. Obviously, we'll take a look at it. I must 
say I confess that I don't totally understand it, but it's a 
serious proposition that has been advanced and it's worth a 
look at.
    OK, Mr. Chairman, I don't think I have any other questions.
    Senator Reid. That has been an extremely interesting panel, 
and, as Chairman Chafee indicated, especially your information, 
Mr. Howard. Having worked with you in the last ISTEA bill, 
we're going to take a close look at that.
    Senator Chafee. I wonder if you might provide me the 
details. You have something written out or could you on it, on 
the STARS 2000?
    Senator Reid. How you arrived at those numbers.
    Mr. Howard. I don't think I have anything with me, Senator, 
but I'll send it for the record.
    Senator Chafee. I don't mean now but you can send them 
along.
    Mr. Howard. Yes, I will.
    Senator Chafee. Good, thank you.
    Senator Reid. Thank you all very much--oh, I'm sorry.
    Senator Chafee. I just want to join and say that, Dr. 
Johnson, I think there are some wonderful things being done. 
One of the things I saw yesterday, Mr. Chairman, you might be 
interested in is they've put down the middle of a highway--or, 
no, not in the middle but in a lane of a highway in the middle 
of lane they've drilled in and put these magnets there. And 
then there's a magnet arrangement underneath your vehicle in 
the front, and so you get in this lane and then you just take 
your hands off the wheel and go zooming along, and this keeps 
you exactly--makes the turns and apparently----
    Senator Reid. Where is this?
    Senator Chafee. This is in San Diego. It's just a sample.
    Dr. Johnson. We're going to invite you, Mr. Chairman, and 
Senator, to a demonstration that Congress asked us to do in 
1997, the automated highway. This is the leading edge of 
research which is close to the more practical kinds of things 
that we're doing right now.
    Senator Chafee. And so you go--apparently, you can't react 
mentally with your hands as swiftly as this--keep in your lane 
as well just driving as you can with these magnets underneath. 
So you take your hands off and wave to the crowd and the car 
goes right down the lane, and then when you get the next step, 
there is a computer step up on radar so that you can go along 
at 60 miles an hour behind 13 feet from the car in front of 
you.
    Senator Reid. So you don't worry about tailgating.
    Senator Chafee. Well, I would worry about it.
    [Laughter.]
    Senator Chafee. But apparently this radar can react much 
faster on the brakes, hit the brakes faster than you could, and 
so it's the whole system of getting more cars through a 
limited--in a specific amount of time in a lane; in other 
words, moving the vehicles faster and more efficiently.
    Senator Reid. I wish Pat Moynihan were here to listen to 
this.
    Senator Chafee. Well, it was pretty impressive. I didn't do 
it with the radar. I did it with just the magnet.
    Senator Reid. Mr. Chairman, if I could ask one question of 
Mr. MacLennan, why have buses worked in Houston and usually 
people aren't satisfied with buses? They want subways or some 
type of people moving equipment that's a little more glamorous 
than buses. Why are buses working in Houston?
    Mr. MacLennan. The practicality of the use of those HOV 
lanes, I think, allows folks to overcome that initial feeling. 
Those HOV lanes do not have stops every mile or two. You get on 
a bus and without stopping you're 20 miles away into the 
downtown area, and you've done it at 50 to 70 miles an hour.
    I would love to just comment in that test of the automated 
highway system, in August we will have a couple of buses in 
that system, mixed in with the automobiles, performing exactly 
as those automobiles do.
    Senator Chafee. One other question--is it not true that if 
you provide service--or put it the other way, if to save money 
you reduce service, then your ridership goes down? Then you 
reduce more service and your ridership goes down, so it's a 
self-defeating situation? And does it work the other way--if 
you provide more service, do you get more ridership?
    Mr. MacLennan. To some extent the answer is yes; and to the 
first example that you put on the table, very easy to get into 
a graveyard spiral once you start into that reduction in 
service.
    Senator Chafee. And regrettably that apparently is 
happening with Amtrak is that they cut service all over the 
nation, and then, of course, it spirals.
    Senator Reid. That's too bad.
    Thank you all very much for your testimony.
    Senator Reid. Our last panel today is last but not least in 
importance. Mr. Chairman, you're going to hear from some of our 
finest. We will have the Chairman of the Clark County 
Commission, Ms. Yvonne Atkinson Gates; we will have Mr. Bruce 
Woodbury, who is a County Commissioner who has been a pioneer 
in originality and developing our highway transportation system 
in southern Nevada; and Ms. Celia G. Kupersmith, who is 
Executive Director of the Reno Regional Transportation 
Commission; and the Honorable Jan Laverty Jones, who is the 
Mayor of the city of Las Vegas, and who--I understand her 
testimony will be read today by Commissioner Matt Calister.
    Would you all please come forward?
    We understand that Matt Calister who was patient in waiting 
for us became impatient. He had other things to do, and we're 
going to hear from the Mayor's Executive Assistant, Cathy 
Hanson.
    We'll first hear today from the Chairman of the Clark 
County Commission, Yvonne Atkinson Gates.
    I would just say, Mr. Chairman, that the Gates family are 
really public servants. Chairman Gates' husband is a judge, a 
clerk of unlimited jurisdiction, a District Court Judge here in 
Nevada.

STATEMENT OF YVONNE ATKINSON GATES, COUNTY COMMISSIONER, CLARK 
                       COUNTY COMMISSION

    Ms. Gates. Thank you, Senator Reid.
    Good morning, or should I say good afternoon, Chairman 
Chafee and also Senator Reid. I am Yvonne Atkinson Gates, the 
Chairman of the Board of County Commissioners, and also I am a 
member of the Executive Board of the National Association of 
Counties.
    Thank you for the opportunity to testify on the 
reauthorization of ISTEA as it relates to Clark County, Nevada. 
We are facing challenges of growth unprecedented in the Nation 
and worthy of special attention.
    First, I want to provide some background about our 
fundamental phenomenal growth, the affects of this growth on 
the transportation infrastructure and then provide you with 
some ideas of the resultant issues that must be addressed.
    We are the fastest growing metropolitan area in the 
country. In 1987 there were about 655,000 people residing in 
Clark County. Today, 10 years later, our population is over 1.2 
million and it is anticipated to be 2.4 million before the year 
2020.
    Each year about 80,000 people move to the Las Vegas area. 
Our transportation system must also accommodate a large 
visiting population. We attracted more than 30 million visitors 
last year, greatly stressing the transportation facility in the 
resort corridor. Tourism continues to grow and it is the 
lifeblood of the county and the State economy. Most of the 
States' revenue is generated in Clark County via tourism and 
visitors are totally dependent upon our local regional 
transportation network system in order to move about.
    The specific patterns of residents' and visitors' growth 
has stressed the transportation system beyond the carrying 
capacity. Today, about 200,000 residents are employed within 
the resort corridor, while 93 percent of those populations live 
outside of that area. Forty-six percent of our total trips in 
Clark County are to and from and through the resort corridor, 
and the capacity of the transportation system serving the 
resort corridor will have a significant expansion in order to 
accommodate travel demands. The result corridor is 
geographically and economically the center core of the Las 
Vegas metropolitan area. Outside of the resort corridor much of 
our highway infrastructure was constructed back in the early 
1960's and 1970's, and is in grave need of further expansion.
    The regional transportation plan for 1995 through the year 
2015 identifies $3.4 billion in program improvements for the 
major streets and also highways over the next 20 years, but 
despite that, this level of planned investment, congestion is 
expected to continue in this valley. Transportation projects 
indicate that the total roadway capacity in the valley will be 
unable to maintain a balance between supply and demand, 
resulting in motor vehicle gridlock.
    We are feeling the growing pains of a new community. We do 
not have the refinement or historical commute pattern and 
administrative background of a 50 or 60-year old transit 
system. Our public bus system simply did not exist a few years 
ago; yet, the bus system ridership has had an annual increase 
within its time of 44.7 percent over the last 4 years, and we 
will continue to see that system expand as Federal funds remain 
available. Valley-wide only 1.8 percent of the 1995 total daily 
persons' trips are made by transit, and the level of services 
far below the desired level, of course.
    As the growth continues, every new single home that is 
built here that are added to our community adds about 10 trips 
per day to our transportation system and approximately 1.6 new 
vehicles on our roadway system.
    There continues to be great competition for limited funds, 
for police and fire services, schools and drinking water 
systems, waste water and sewer systems, libraries, parks, 
community facilities and maintenance of our older 
neighborhoods. This competition for public service delivery 
greatly impacts our ability as local governments to fund 
regional transportation projects. The stress on our 
transportation system affects our quality of life for our 
residents and also for our visitors. We are faced with longer 
commutes, both in distance and in time; increased costs for 
capital improvements and maintenance, greater delays at 
intersections, coupled with the inflexible system to absorb, 
disrupt, due to accidents and construction. It also impacts the 
quality of our air.
    Continuing daily growth of vehicle trips anticipated over 
the next 20 years complicates the challenges of clean air. 
Carbon monoxide and air pollution is almost entirely generated 
based upon motor exhaust and post-significant risks not only to 
our visitors but also to our community.
    As the roadway becomes congested and vehicle speeds up and 
reduces, carbon monoxide emissions are greatly increased. Past 
Federal transportation funds have been used for projects for 
synchronizing traffic lights and provide separated pedestrian 
pathways, which result in measurable air quality improvements. 
However, much needs to be done in terms of cleaning up our air.
    Federal transportation funds, coupled with clear direction 
and guidance toward air quality improvements, are key and 
important to maintaining a national health standard for air 
pollutants.
    The ISTEA formula has been very responsive to our special 
needs and challenges, resulting from this unprecedented growth. 
However, we face special challenges in funding our buses and 
guideway systems, and our transportation demands management 
system. ISTEA funds have enabled local governments emission 
solutions to meeting our demands. We continually--our continued 
vitality, economic health and environmental quality hinges upon 
continued Federal funding for regional transportation projects. 
Local governments just don't have the resources needed to 
address these regional transportation programs alone. We must 
continue to have Federal partnerships with the Federal 
Government through the expansion of ISTEA funding, and as a 
member of NACO, I want to say to you, as a member of the 
Executive Board, that we strongly support the four-core program 
of ISTEA. And, as a county official, we would like to see a 
broader role for local governments when ISTEA is reauthorized.
    I also want to say, Mr. Chairman, that as a member and as a 
Chairman of the Air Quality Committee for NACO, I support your 
position also on PM2.5, and I want to say that I really 
appreciate your allowing me the opportunity to speak to you and 
also to share with you some of the challenges that we face here 
in Nevada in terms of trying to solve our problems that we have 
here, as it relates to transportation.
    Thank you.
    Senator Reid. Thank you.
    Mr. Bruce Woodbury?

STATEMENT OF BRUCE WOODBURY, COUNTY COMMISSIONER, CLARK COUNTY 
                           COMMISSION

    Mr. Woodbury. Thank you, Mr. Chairman, Senator Reid.
    I am Bruce Woodbury, a member of the Clark County 
Commission and Chairman of the Clark County Regional 
Transportation Commission.
    I appreciate the invitation to provide testimony. I would 
like to offer written testimony from Kurt Weinrich, our 
regional transportation commission director, if I might.
    Senator Reid. That will be made part of the record, as it's 
given.
    Mr. Woodbury. Thank you, and I also have some handouts that 
we can distribute to you regarding our local master 
transportation plan.
    Commissioner Gates has described for you the unprecedented 
growth that we have experienced in this community, and, Senator 
Reid, of course, you're very familiar with that. That growth 
has created tremendous pressure on our State and local agencies 
to provide the----
    Senator Reid. Excuse me, Bruce, do you want us to look at 
this?
    Mr. Woodbury. Yes, thank you.
    We are pressured to provide the infrastructure needed to 
keep pace with the needs of our citizens.
    Two years ago we decided that the Federal and State dollars 
and the funding formula associated with our transportation 
plans at that time just were not capable of providing the 
program required to keep up. So to meet that challenge the 
county and the RTC knew it would have to exercise some 
leadership and develop a plan of its own.
    In 1990 we placed before the voters a non-binding 
referendum called Question 10, a question support for a multi-
modal master transportation plan. Our voters approved that by 
an overwhelming margin. This has produced what is now a $150 
million per year revenue package paid for in improving our 
local roadways and public transportation services.
    For the Question 10 fair share funding program everyone who 
benefits in one way or another from the transportation 
improvements also contributes a fair share of the costs. For 
example, the different funding programs involve jet aviation 
fuel tax, a tax on new development a motor vehicle privilege 
tax, hotel and motel room tax, sales tax, and, of course, motor 
vehicle fuel tax.
    The master transportation plan, though, is a lot more than 
just a set of new taxes. It's really a regional attempt to 
address our growing transportation and related air quality 
needs. The plan brings together all transportation entities in 
southern Nevada; it ties together all of our road-related 
strategies and provides the means for constructing our 
infrastructure improvements.
    It's quite clear that no single project in this program 
stands alone. Improvement of traffic capacity and air quality 
are dependent upon the implementation of the entire plan. This 
integrated approach has created a framework for the 
construction of a series of transportation projects that fall 
into various broad categories, and I'll just a few of those: 
major improvements to Interstate 15 where we have, of course, 
appreciated a good deal of Federal funding, resort corridor 
road capacity improvements where there has been a combination 
of some Federal funding to go along with our local funds; a new 
beltway around the Las Vegas Valley; increased traffic capacity 
and other local arterials; major expansion, as described by 
Commissioner Gates of our public transit system; congestion 
management by upgrade of our computerized signal system where, 
again, we've appreciated the Federal funding; and, multi-modal 
comprehensive planning using major investment studies.
    In all of this we've had great cooperation and tremendous 
assistance from the Congress, especially Senator Reid and our 
Congressional delegation, and we truly appreciate that 
partnership.
    I can recall just a few years ago when you, Senator Reid, 
chaired a transportation summit meeting, which really helped us 
focus our efforts in a coordinated and comprehensive way.
    Following on that partnership philosophy, the county in 
cooperative relation with other local agencies, began 
construction of the southern leg of the beltway. This is the 
first part of a 50-mile beltway around the southern, western 
and northern parts of the Valley, costing well over $1 billion. 
Funding has been locally generated--that's really a unique 
concept here in southern Nevada for a county, as opposed to the 
State, to undertake a freeway improvement project of that 
nature.
    We have just completed approval of an acceleration plan 
where we will have a continuous functional beltway 10 years 
earlier and the complete beltway could be provided.
    You mentioned earlier the computerized traffic signal 
system. It's one of the truly regionalized system of that 
nature in the western United States. It was formed in 1983, and 
it is currently undergoing an expansion utilizing state-of-the-
art intelligent transportation technologies, and can be the 
core of our regional advanced transportation management system. 
Again, Federal funding has helped us to accomplish this.
    In the spirit of multi-modalism major investment studies 
are currently underway in the resort corridor and along U.S. 
95. The transportation improvements that have been discussed 
include a fixed guideway people mover system, transit 
enhancement and traditional highway improvements.
    Approved as a locally preferred alternative for the fixed 
guideway system, it is estimated to cost over $1 billion. The 
RTC and local entities in the State are seeking Federal funds 
so that this critical project can proceed.
    We have also developed a public-private partnership for a 
large number of projects that have been developed through a lot 
of private donations of right-of-way, as well as funding to go 
along with the State, local and Federal funds that we have 
obtained. These include new freeway interchanges, pedestrian 
bridges and tunnels at major intersections, and major arterials 
in the resort corridor area.
    I want to just briefly mention a few of the four major 
issues and five super projects that the RTC and the county 
commission support for your immediate consideration.
    A resolution passed at our March 18th meeting recommending 
that the projects proposed by the State of Nevada to the 
Congress for favorable consideration as a part of the 
reauthorization. A few of those projects are the widening of 
U.S. 95 in north west Las Vegas, I-15 widening, U.S. 93 Boulder 
City bypass, and we also have included four major issues to 
include in the ISTEA funding. They have a substantial impact in 
addressing our transportation needs. They include the U.S. 93 
Hoover Dam bypass, transit improvements in Clark and Washoe 
County, including the fixed guideway system that I mentioned.
    A unique thing for Nevada is the system interchange at I-15 
and I-40 between Barstow and Victorville in the State of 
California, which impacts our community substantially.
    Finally, let me just say that transportation issues are of 
tremendous importance in our community. We have taken steps to 
ensure that local and State governments has assumed as much 
responsibility as possible, and we hope that in assuming that 
responsibility that that is the approach that you are 
encouraging and acknowledging in the Federal funding 
determinations.
    We support the spirit of ISTEA, as exemplified by all the 
initiatives that Senator Reid is well aware of here, and we 
respectfully ask for your consideration of these projects that 
we mentioned in the reauthorization legislation.
    Thank you, again, Mr. Chairman.
    Senator Reid. Thank you, Commissioner.
    We will now hear from Celia Kupersmith.

  STATEMENT OF CELIA G. KUPERSMITH, EXECUTIVE DIRECTOR, RENO 
   REGIONAL TRANSPORTATION COMMISSION, WASHOE COUNTY, NEVADA

    Ms. Kupersmith. Good afternoon, on behalf of the Regional 
Transportation Commission of Washoe County, which is in 
northern Nevada in Reno, I appreciate the opportunity to 
testify today on the reauthorization of the ISTEA legislation.
    At the outset, Mr. Chairman, I would like to thank you for 
holding this hearing today here in the State of Nevada, and 
also for your very clear leadership, both in the original 
ISTEA, as well as in its reauthorization.
    The Regional Transportation Commission, known as the RTC, 
in Reno brings a unique perspective to ISTEA reauthorization 
discussions, due to our threefold mission: we are the builders, 
maintainers and rebuilders of the regional road network with an 
annual work program totally $34.6 million; we are also the 
metropolitan planning organization for the Reno Sparks area, 
and then, third, we provide public transportation services to 
over eight million passengers on an annual basis.
    We are supportive of the adjustments to the CMAQ funding 
program that would allow maintenance areas to remain eligible 
for CMAQ funds.
    Speaking as the MPO Director, continuation of the ISTEA 
planning and project selection process is critical. Approving 
of projects by both the MPO and the State ensures that 
transportation projects which meet both local and State 
objectives are completed in a coordinated and comprehensive 
fashion.
    With respect to proposed funding levels, we applaud 
provisions that retain the Federal role in the nation's surface 
transportation network. It is clear that the balance of highway 
and transit funding must remain a level playing field, with 
roughly a 4 to 1 ratio between highway and transit funding.
    The use of new and innovative Intelligent Transportation 
Systems, or ITS, technology is critical to moving people and 
improving air quality. ITS technology is particularly important 
in an area like Reno, which is a top tourist attraction, which, 
at the same time, is very prone to emergencies such as floods, 
earthquakes and very severe winter storms.
    Four years ago the TransCal field operational test project 
linking San Francisco with Reno along the Interstate 80 
corridor was funded with ITS funds. Last year saw ITS funding 
approved for an innovative public-private partnership of 
transit services in the south shore of Lake Tahoe.
    In ISTEA reauthorization we are seeking authorization in 
Reno of an ITS system, which will produce significant traveler 
benefits and ensure that Reno is fully able to participate as a 
partner in these two existing ITS projects that are right there 
at our borders.
    Our system, requiring $3.7 million in Federal funds, is 
based on an automatic vehicle location system, and would use 
ITS technology to improve traffic flow, customer convenience 
and overall efficiency of the transit network in Reno.
    The Regional Transportation Commission also supports the 
return of the 4.3 cents Federal gas tax now used for deficit 
reduction, provided that after any allocation is made for 
Amtrak, that the balance is split 80 percent for highways and 
20 percent for transit. Taking the trust fund off balance is 
also supported, certainly in light of our goal, which is to 
take full advantage of all available resources to meet the 
transportation needs.
    Highway funding is critical to the western State of Nevada. 
Our top priority in northern Nevada in the Reno Sparks area is 
Federal funds for the extension of the U.S. 395, what is also 
known as the I-580 corridor, from Reno to Carson City, which is 
the State capitol, located approximately 30 miles south of 
Reno. Carson City, as mentioned earlier, is one of the very few 
State capitols not connected to the interstate transportation 
system. This project would build eight and a half miles of 
freeway and connect existing freeway sections just north and 
south of the Carson area.
    In reference to the issue of formula allocation of gas tax 
revenues, also known as the donor-donee issue, as has been 
pointed out earlier, Nevada is clearly on the borderline 
between being in either one of those two designations. It is 
certainly our hope in Reno that whatever happens with the 
formula allocations, that our position is improved as an 
outcome.
    In conclusion, the Regional Transportation Commission 
strongly supports a continued Federal role in transportation 
and the continuation of successful ISTEA legislation and its 
flexible funding provisions, increased focus on ITS 
technologies, emphasis on intermodalism and State, local and 
Federal partnerships are keys to successfully solving our 
future transportation challenges.
    Again, thank you for the opportunity to testify, and I do 
have written testimony that would like to ask be entered into 
the record.
    Senator Reid. We will make that part of the record, as it's 
given in its entirety.
    Before I turn it over to you, Mr. Chairman, for questions 
of this final panel, while the two county commissioners are 
here, I want to express the appreciation of the Environment and 
Public Works Committee for making this hearing possible. County 
employees have been tremendously helpful and courteous in 
allowing us to not only use this facility but assist us in 
setting up this hearing. So your county staff has just been 
remarkably good.
    Mr. Chairman--oh, I'll be darned. We forgot Cathy, sorry 
about that.

STATEMENT OF CATHY HANSON, ON BEHALF OF HON. JAN LAVERTY JONES, 
                    MAYOR, CITY OF LAS VEGAS

    Ms. Hanson. Chairman Chafee and Senator Reid, my name is 
Cathy Hanson, and I'm appearing on behalf of Mayor Jan Laverty 
Jones. The Mayor thanks you very much for holding these 
hearings in southern Nevada and regrets not being able to 
attend in person today because of a previously scheduled out of 
town trip. But, Mr. Chairman, I do have some written testimony 
from the Mayor that she would like entered into the permanent 
record.
    Senator Reid. That will be the order.
    Ms. Hanson. Thank you very much.
    Just briefly, Senator, there are more than 40 miles of 
congested roadways in our northwest. In fact, during rush hour 
both U.S. 95 and the surrounding side streets often resemble 
one large parking lot. U.S. 95 serves the fastest growing area 
in the fastest growing city in the United States.
    Our population doubled between 1970 and 1983, and then 
doubled again from 1983 to 1996. Experts are now predicting we 
will hit the two million mark in the year 2009; however, the 
Mayor believes with our current growth rate, we could hit two 
million by the year 2000. And, of course, more people means 
more cars, up to 50 more cars a day, everyday on our roadways, 
and the task of moving these cars as people drive back and 
forth to work is becoming increasingly complex with each 
passing year.
    That is why the widening of U.S. 95 is so critical to the 
Las Vegas Valley. The county and other cities in the Valley 
have come together to endorse NDOT's proposal for the expansion 
of U.S. 95 and their ranking of the project as the most 
essential in the State.
    Besides serving as Mayor, Jan Jones also is a regional 
transportation commissioner and a mother of three children 
living in the north west. So she is very familiar with the 
burden shared by all the families in the Valley as they 
transgress that roadway.
    Mayor Jones believes the additional lanes for U.S. 95, 
along with the additional high occupancy vehicle lanes, will 
cut traffic congestion, as well as improving air quality in the 
Valley.
    I think Commissioner Gates has already covered the 
challenges of growth we face in the Valley, and Commissioner 
Woodbury has told you about our local plans for funding, but we 
still request your help in transferring the 4.3 cents gas tax 
to the highway trust fund in support of widening U.S. 95.
    Thank you.
    Senator Reid. Thank you very much.
    Senator Chafee?
    Senator Chafee. Thank you, Mr. Chairman.
    Commissioner Gates and Ms. Kupersmith, you both touched on 
CMAQ, which is the congestion mitigation funds, and I was 
pleased that you both gave that a good plug. I think it's 
important that you do that because those funds are under 
attack, and I--here is a chance to say it again, if you want.
    [Laughter.]
    Senator Chafee. Just so that everyone will hear.
    Commissioner Gates. I would love for that element to be in 
tact, to remain in tact. It is important not only for southern 
Nevada but also for other major counties within the United 
States. It is an important element that certainly should be 
considered.
    Senator Chafee. And I think it's--let me see if I've got 
this straight--in your testimony, Ms. Kupersmith, you say that 
you think it is very important to keep them separate; in other 
words, it's a category.
    Ms. Kupersmith. Yes, sir.
    Senator Chafee. Could you amplify that a little bit?
    Ms. Kupersmith. Well, the way the CMAQ program works today 
is that it is separated from the other sources of funds, or the 
pots of money, for highway spending. It makes it available to 
be used very aggressively for both transit and highway 
solutions. Within the northern part of Nevada and the Reno 
Sparks area, we have used CMAQ funds both for transit projects 
such as the example I gave where we bought buses with CMAQ 
money. We've also used it for signal type of work where we've 
come in and do things that can be done to improve the signal 
coordination. As was spoken to earlier, there has been a real 
success with these types of projects up in the South Lake Tahoe 
area using CMAQ funds.
    CMAQ is critical; it needs to be continued in the format in 
which it currently exist as an individual pot of money. We feel 
very strongly that it needs to stay as an individual pot of 
money versus taking the same dollars and just putting them into 
the highway funding that could then be spent for projects that 
are not necessarily geared at improving air quality and 
reducing congestion.
    Senator Chafee. Do you agree with that, Commissioner Gates?
    Ms. Gates. I sure do, absolutely. We've been able to use it 
here.
    Senator Chafee. And I think the point you made about 
providing the CMAQ funds to those who have achieved the 
maintenance is also a fair thing because--and that came up with 
a hearing we had in St. Louis, Missouri--Kansas City, 
Missouri--that those--you don't want to work against those who 
have been good stewards and have made the effort, and have now 
achieved it. So we want to work out that somehow, and so the 
point you made was a good one, both of you.
    Ms. Kupersmith. Thank you.
    Ms. Gates. Thank you.
    Senator Chafee. I'm very glad you came.
    One other quick question, if I might, to you, Commissioner 
Gates. Why is there such tremendous growth around here?
    Ms. Gates. Well, good question. Actually, to be real honest 
with you----
    Senator Chafee. I mean, do the resorts grow so people come 
thus? But not everyone is working for the resorts.
    Ms. Gates. No, but we have a good quality of life. I mean, 
although we have our problems, we do still have a good quality 
of life. Our tax structure is very good. We don't have a high 
crime rate. We do have--when you look at the economy, we do 
have a very sound, pretty much sound, economy where people can 
afford to live. Our tax structure, again, is wonderful, and not 
only that, we have beautiful days like today.
    Senator Chafee. Well, it is amazing. I was in Florida not 
long ago where they pointed out with some pride that 800 people 
a day move into Florida--was it a day?
    Senator Reid. I think so.
    Ms. Gates. Between six and seven thousand people move here 
a month--7,000 people move here a month. Not only that, the 
government here, we don't--we have a good local government 
system here. People just love to live here.
    Senator Chafee. Let me correct that, in Florida it's a 
week, 800 a week.
    Senator Reid. Yes.
    Senator Chafee. Have I----
    Senator Reid. I'm not too sure that's right. I think it may 
be----
    Senator Chafee. No, because I figured it out. It was 52,000 
a year.
    Senator Reid. No, we do better than that.
    [Laughter.]
    Ms. Gates. Yes, we do.
    Senator Chafee. Well, after listening to some of the 
problems that come with it----
    Ms. Gates. The good thing about that, Senator, is that 
we're at a stage where we're growing but we have an opportunity 
to make sure that that growth continues but it continues on the 
right path. And with ISTEA reauthorization and with some of the 
things that my commission, Commissioner Woodbury and myself and 
other local elected officials, are trying to do is try to keep 
on track with our infrastructure and solve a lot of our 
problems before it gets away from us.
    So we're working very diligently to do that.
    Senator Chafee. Commissioner Woodbury, I was very impressed 
with what you've done on taxes, and, as was pointed out 
earlier, one of the factors that I do indeed believe we should 
consider in this formula is those communities or States that 
are making the effort. Certainly, in this list here you are 
clearly making an effort. I guess these are county, are they? 
These are all county efforts?
    Mr. Woodbury. Well, no, part of it's county; part of it is 
through the Regional Transportation Commission, which includes 
the cities; part of it is through the State. We have a real 
working partnership with the NDOT, and they are concentrating 
on the freeway system, but on several projects we have actually 
funded them together where they would do one phase and we would 
do another phase.
    Senator Chafee. What you've done on the jet fuel, and room 
taxes, and mass transit and gasoline taxes, you've really done 
your part.
    Thank you very much, Mr. Chairman.
    Senator Reid. Mr. Chairman, thank you.
    I direct this to both of our county commissioners. One of 
the things we have to be aware of is that the laws that have 
been proposed to us by the President says that for census 
purposes we'll use the best available current data. That will 
be the 1990 census. What has been the growth of the State of 
Nevada since 1990?
    Mr. Woodbury. I don't know the percentage, but it has been 
phenomenal here in southern Nevada, and I assume for the whole 
State.
    Senator Reid. So we have to watch that very carefully 
because if we use the 1990 census, we have grown by hundreds of 
thousands of people. I think the figure is around--by the time 
we do this bill either this year or next year, there will be 
about 500,000 people statewide. So that's a lot of people that 
have problems that should be accounted for.
    County Commissioner Woodbury, about the beltway--it's 
proposed to be 50 miles. How much of it is done now?
    Mr. Woodbury. What is completed now is what we call the 
airport connector that connects the McCarran Airport with I-15 
and then that goes out to about Warm Springs Road. Since then 
two additional segments have been completed out toward the 
Henderson area where it is now out to eastern, not too far from 
Lake Mead Boulevard that you are aware of. Other segments are 
under construction, heading out in the Henderson area and the 
interchange at I-15.
    About a year and a half from now, the entire southern 
segment will be completed. I mean, we are well underway into 
the western and northern segment where we have already now 
bound right-of-way into the design, working with the cities, 
and so by the year 2003 we will have, not to full freeway 
standards, but a complete beltway built around this community 
where part of it will be full freeways, part will be half 
freeways and others will be simple two to four-lane highways. 
And then we'll go back in the ensuing years and put in the full 
freeway features. It's moving forward at an incredible rate.
    Senator Reid. Ms. Kupersmith, you gave one statistic 
indicating that with the buses that we have in Washoe County 
and in the Reno Sparks area, did you say how many million 
people rode on them last year?
    Ms. Kupersmith. We carried over eight million passenger 
trips last year, and, Senator, getting back to a point that was 
made with an earlier speaker about sometimes you end up cutting 
your transit services and you run off riders, while our growth 
has not been substantial in terms of ridership in the last 
several years, because of some funding crises, some reduced 
operating assistance that we've been receiving in the past, we 
have been in a position of cutting our bus service almost 18 
percent in the last 3 years and our ridership is actually up a 
percentage point. So we have been--if we had been in a position 
to maintain the service that we did not cut, our ridership 
growth would have been really stupendous. And, as I said, we're 
currently carrying over eight million passenger trips a year in 
spite of those reductions in service. People have stayed with 
us and we've been getting more and more riders.
    Senator Reid. The reason I wanted to pick out that figure 
is because we still have in the audience the maglev 
representatives who came and talked to us, and the example they 
gave is their trains carry 100,000 people. We've got to do a 
lot better than that if we're going to move large numbers of 
people, and, certainly, a relatively small area like Washoe 
County to carry eight million people in a year is unbelievable.
    Do either commissioners know how many we carry in the CAT 
system?
    Mr. Woodbury. There has been a tremendous increase. Kurt 
Weinrich can quickly answer that for you, if you would like.
    Senator Reid. Could you do it from up there, Kurt?
    Mr. Weinrich. About 40 million a year.
    Senator Chafee. What is that?
    Senator Reid. What is the acronym for CAT?
    Ms. Gates. Citizens Area Transit.
    Senator Reid. Citizens Area Transit. We call it the CAT 
system, and it's a bus system around the Las Vegas area, and 
last year they carried 40 million people.
    Senator Chafee. In fairness to the maglev, all they do--
it's a demonstration. It's out in the country and----
    Senator Reid. Oh, I understand. I think it's wonderful that 
they're doing that.
    Senator Chafee. It makes a loop. In other words, you go--he 
said it's 20 miles, but maybe--well, he said it's 20 miles; I 
thought it was 10 miles and then you make a loop and come 
back--maybe you count it twice and then make another loop.
    [Laughter.]
    Senator Chafee. The only people that ride it aren't people 
that are trying to go somewhere.
    Senator Reid. It's people like you and me.
    Senator Chafee. You and I who come--visiting firemen who 
come for a trip.
    Senator Reid. But the reason I brought that up, Mr. 
Chairman, is between Las Vegas and Los Angeles, if we had a 
maglev system, we would not be hauling a few thousand; we would 
be hauling millions of people through that corridor alleviating 
traffic on the highways and in our congested airports. So 
that's the direction that we have to go.
    Thank you all very much.
    Senator Chafee. Could I just ask one other question?
    Was it you, Chairperson Gates, that said that--or was it 
earlier testimony? I guess it was--that you have here the 10 
largest hotels in the world?
    Ms. Gates. That is correct.
    Senator Reid. That was the Circus Circus representative.
    Ms. Gates. Right, from Circus Circus, Glen Schaeffer.
    Senator Reid. Glen Schaeffer said that we now have the 10 
largest hotels in the world, and in 3 years we will have the 13 
largest hotels in the world. He didn't mention this because he 
wasn't here representing his company, but his company announced 
a week ago today that they're going to build 14,000 new rooms 
starting immediately. We have more hotel rooms than any city in 
the world and we continue to build more.
    Ms. Gates. In fact, on the corner of Tropicana and Las 
Vegas Boulevard there are more hotel rooms on that corner than 
there are in San Francisco.
    Senator Chafee. Well, you've got me impressed.
    [Laughter.]
    Senator Reid. I was talking to your staff earlier today. I 
hope that before he leaves out of here today he will have an 
hour or two that he can go see our gun battle on the ocean 
where people fall out of these big ships and the cannons go 
off, and, of course, he's got to be able to see the volcano 
that's on the Strip. He can go see the trapeze artists, and 
Circus Circus and a few other things, just to keep his interest 
perked during the afternoon.
    Senator Chafee. OK, thank you. I just want to join you, Mr. 
Chairman, in thanking all of our witnesses. They've all been 
excellent, and this has been a very useful hearing.
    Senator Reid. Mr. Chairman, let me say this again publicly. 
This has been a real sacrifice for Chairman Chafee to come here 
to do this hearing, and I'll be ever grateful to him for doing 
this. This hearing, we hope, will add a great deal to the ISTEA 
legislation, but, personally, I'm grateful to you for coming 
here and bringing the committee with you.
    Senator Chafee. Thank you.
    Senator Reid. The committee stands in adjournment.
    [Whereupon, at 1 p.m., the subcommittee adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
           Statement of Governor Bob Miller, State of Nevada
    Mr. Chairman, members of the committee, I am pleased that you have 
come to Las Vegas to discuss the reauthorization of the Intermodal 
Surface Transportation and Efficiency Act (ISTEA). As the fastest 
growing city in the nation, Las Vegas is the ideal location to witness 
some of ISTEA's greatest successes and also see some of the Acts 
shortfalls. Nevada's demand for more road capacity, more advanced 
technology for highway systems, and better rail and commuter services 
is ever increasing. It is essential that Congress pass a new 
transportation bill that goes beyond the original ISTEA and increase 
funding to accommodate Nevada and the nation's transportation needs.
    Population growth in the Las Vegas metropolitan area has exceeded 
50 percent every 10 years since World War II. There are certainly no 
signs of this growth slowing in the near future. To accommodate the 
existing and projected congestion, it is essential that we widen two of 
the major highways through Las Vegas. I have requested that Congress 
provide for the addition of four lanes to U.S. 95 and two lanes to I-15 
through Clark County. In addition, U.S. 95 should be designated as part 
of the Interstate System.
    Nevada's capital should also be connected to the Interstate System. 
Carson City is one of four capital cities in the Nation that is not 
linked to the rest of the state by a major highway. Only the 
construction of nine miles, from Reno to Carson City, remains to be 
completed to connect the city to the rest of the state. I have 
requested that Congress provide for this overdue project.
    Carson City is not the only Nevada city that has insufficient 
highway access. Nevada rural communities are separated by cast areas of 
open space and must not be overlooked when reauthorizing ISTEA. A 
strong Federal transportation program is necessary to connect these 
cities and towns.
    Special consideration should be given to Interstate maintenance. 
Nevada and other western states serve as a ``bridge'' for interstate 
trucking from the Pacific coast to the east. In fact, over 40 percent 
of the vehicles on rural Interstate 80 through northern Nevada are 
trucks.
    In these capsule descriptions of Nevada needs may be seen some of 
the state's characteristics, most important for the reauthorization of 
ISTEA.
    Nevada is:

<bullet>  One of the largest states in the area and one of the smallest 
    in population.
<bullet>  One of the most rural, measured by population density, and 
    the most urban, measured by concentration in urban areas.
<bullet>  The state with the largest percentage of land owned by the 
    Federal Government, 87 percent, and thus the smallest private land 
    ownership.
<bullet>  The fastest-growing state, containing the fastest-growing 
    urban area.

    For these reasons, Nevada is not only a transportation bridge 
state, but also a transportation policy bridge state. The basic 
structure of ISTEA has served Nevada well, but there is much in STARS 
2000 that is directly responsive to Nevada's distinctive 
characteristics and special needs.
    One of the most frequently used north/south highways through Nevada 
is US 93, which crosses the Colorado River at Hoover Dam. The 60 year 
old, two lane road across the dam is overburdened and will fail to 
accommodate the projected traffic. It is the primary commercial route 
between not only Arizona and Nevada but also Arizona and Utah. The time 
is long overdue for the Federal Government to construct a bypass 
bridge.
    A commitment to Intelligent Transportation Systems must also be 
reaffirmed by the next ISTEA. We should take advantage of 21st century 
technology to modernize our urban street and highway systems and get 
more value for the taxpayers.
    We are already taking steps in the Las Vegas metropolitan area to 
modernize the traffic signals. The Las Vegas Area Computer Traffic 
System is currently being upgraded with the latest technology. TV 
cameras are being placed on 60 foot poles throughout the area to 
monitor traffic and, through electronic technology, adjust the traffic 
flow appropriately. New control modules are being placed at 500 
signalized intersections and the equipment at the central control 
center is being replaced. The Las Vegas Area Computer Traffic System is 
one of the few joint effort traffic control systems in the country. It 
is a cooperative effort between the Nevada Department of 
Transportation, Clark County, the City of Las Vegas, the City of North 
Las Vegas, and the City of Henderson.
    Development is underway to deploy a freeway management system along 
the congested US 95 freeway to include video monitoring, ramp meters, 
changeable message signs, radio information, and service patrols. These 
systems work and should be utilized in other parts of Nevada and the 
nation.
    Nevada's highway and transit demands go far beyond the priorities I 
have listed, and Nevada is certainly not the only state that requires 
increased funding from the ISTEA reauthorization. Indeed, the nation's 
needs are great, and regardless of what funding formula is selected, 
sufficient funding must be made available for our Federal highway 
system. As Chairman of the National Governors' Association, I have 
worked with the nation's Governors to reach a collective agreement that 
a minimum of $26 billion a year for highways and $5 billion a year for 
transit is required to meet the nation's demands.
    As I stated to a joint Congressional Budget Committee hearing 
earlier this month, America's transportation needs far exceed current 
expenditures. Highway capacity has not kept pace with the rapid 
increase in highway use mileage by the nation's passenger and 
commercial fleet. The administration's studies reveal that total 
transportation spending by all levels of government would need to be 
increased by $18.2 billion annually, or more than 40 percent, simply to 
maintain current highway, bridge, and transit conditions and 
performance, while a total of $86.8 billion, or nearly double current 
annual spending by all levels of government, would be required to 
achieve needed improvements to national transportation systems.
    Both the President's 1998 budget and the 1997 Congressional Budget 
Resolution would reduce Federal transportation spending through 2002. 
Under the President's proposal, total funding would drop from $19.8 
billion in 1998 to $19.0 billion in 2002. The 1997 Congressional Budget 
Resolution reduced total transportation spending by 15 percent from 
1998 to 2002. In constant dollars, this drop is even more dramatic.
    During the same time that Congress and the president propose to 
disinvest in our national transportation system, revenues generated 
through the transportation user taxes will rise sharply. Annual fuel 
tax and other trust fund receipts to the highway account will increase 
by more than 10 percent, from $24.6 billion in 1998 to $27.2 billion in 
2002, while annual revenues to the Highway Trust Fund from all sources 
will increase by more than 15 percent over this period.
    These steadily growing user-tax revenues can support significant 
and much-needed increases in Federal transportation investment. In 
highways alone, the annual dedicated revenues could support a funding 
level of $26 billion per year through 2002; an additional $5 billion 
annually for mass transit programs could also be supported by these 
growing revenues. Spending down the balances in the Highway Trust Fund 
would permit an additional $4 billion annually on top of these levels; 
spending all fuel taxes, including 4.3 cent per gallon tax not for 
deficit reduction, would add another $7 billion.
    When Congress created the transportation trust funds it made a 
commitment to the American taxpayers that these receipts would be 
dedicated to maintaining and improving our national transportation 
system. Disinvesting in this system at a time when the user-tax 
revenues are increasing dramatically, and spending the user tax and 
other dedicated revenues for purposes other than transportation, 
threatens to undermine the moral and legal commitment on which these 
taxes are based.
    Congress must not delay investment in our national transportation 
system. Nevada and the rest of the Nation depend on this commitment to 
prevent the further deterioration of its roads, increased congestion, 
and lower economic productivity.
                               __________
 Statement of Hon. John Ensign, U.S. Representative from the State of 
                                 Nevada
    Good morning, Senator Chafee, and my colleague from Nevada, Senator 
Reid. I appreciate the tremendous work you do on behalf of our national 
transportation needs. Thank you for arranging to have a field hearing 
in southern Nevada and welcome.
    This morning, I want to briefly discuss the main concern among 
residents in the Las Vegas Valley--growth--and how it can be addressed 
in the reauthorization of ISTEA. Also, I want to bring your attention 
to some innovative technology under development by the Desert Research 
Institute and how the technology can be applied to address urban 
environmental concerns across the nation.
    Mr. Chairman, as your committee puts together an ISTEA 
reauthorization bill which will set the framework for Federal 
infrastructure investment into the 21st century, we know we have to 
look beyond the traditional modes of transportation and carefully 
examine the nation's mobility requirements into the next millennium. 
The current ISTEA--with its integrated approach and increased 
flexibility--laid a strong foundation to do just that.
    As we near the turn of the century in southern Nevada, the main 
obstacle to mobility, maintaining quality of life, and the efficient 
movement of goods, is our phenomenal growth. Las Vegas' economic 
vitality and healthy tourism industry are attracting 5,000 new 
residents each month. Nevada's permanent population is increasing at a 
rate which exceeds that of any other state in the nation. Since the 
current ISTEA was enacted in 19' 91, Nevada's population has increased 
by 25 percent. The state's population is growing by about 4.5 percent 
each year. In southern Nevada, the growth rate is even higher at 8 
percent. No other state in the Nation is coping with a population boom 
of this magnitude.
    In order to build and maintain the roads and highways we need to 
manage this unparalleled growth, Nevada's focus, out of sheer 
necessity, has been to devote its resources to increasing capacity. 
Because our local, state, and Federal dollars are used 
disproportionately to increase road and highway capacity, Nevada has 
fallen behind other states in the development and application of high-
tech solutions to traffic management and Intelligent Transportation 
Systems. While Clark County has become an active partner in an 
Intelligent Transportation System consortium, southern Nevada still 
lacks the resources to implement the latest technology in conjunction 
with capacity building. We know that simply building more roads without 
looking at other solutions is not a comprehensive answer to our growing 
pains.
                                formula
    In order for Nevada to take advantage of the practical use of 
technology, I think the most important factor in determining if Nevada 
will move into the 21st century is the funding formula which governs 
states' allotments. ISTEA set each state's share of funding based on 
the historical share of funds the state received from major programs 
before ISTEA was enacted. If the reauthorization of ISTEA focuses on 
protecting states' historical share of funding, there will be no 
recognition of demographic shifts add such a move would penalize the 
citizens of growing states like Nevada where infrastructure needs are 
proportionately higher.
    When we talk about transportation and the 21st century, I think we 
have to fundamentally look at regional concerns, demographics, shifts 
in population, and allocating resources around the Nation according to 
need. Data from the Federal Highway Administration indicates that 
Nevada is currently in transition from donee to donor status. This 
transition doesn't necessarily mean that Nevada would be first on the 
bandwagon to demand a complete return on its contribution to the 
Highway Trust Fund. Nevada has much in common with northeastern states 
which are struggling with gridlock and an inadequate infrastructure 
system. Nevada's roads were built to accommodate traffic when the state 
had a population of 600,000, not the 1.6 million residents we have 
today. I think Nevada would benefit by a fair formula which recognizes 
our growth and is based on need.
    Accordingly, Nevada would be equitably served if you authorize a 
``bonus'' funding category, separate from the regular apportionment 
process, that compensates states which have greater than average 
infrastructure needs. This approach would serve several states well.
    A fair formula will allow Nevada to address capacity and 
simultaneously devote meaningful resources to implement the technology 
of the 21st century.
                         air quality technology
    An issue which we can address through technology in a bipartisan 
fashion is that of air quality. The serious air quality problem in the 
Las Vegas Valley poses a threat to the health and well being of one 
million Nevadans. The Environmental Protection Agency would very well 
impose sanctions on the Las Vegas Valley because allowable levels of 
Carbon Monoxide and PM-10 currently exceed Clean Air Act standards. 
Growth is the major factor in the deterioration of air quality.
    Clearly, on a national basis, new strategies must be employed to 
improve the air quality in fast growing urban areas such as Las Vegas. 
New strategies are especially urgent in light of the Administration's 
new proposed air quality standards. In my view, instead of heavy-handed 
EPA sanctions, technologies and public/private partnerships are a 
preferable way to accurately pinpoint the sources of pollution. The 
data generated can guide policymakers to devise effective, cost-
efficient pollution prevention strategies.
    A division of the University and Community College System of 
Nevada, the Desert Research Institute, is equipped to conduct air 
quality research of national significance. DRI has been a leader in 
this area. In 1994, DRI used an innovative remote sensory devices to 
identify high-polluting vehicles as they pass through an infrared beam. 
This experiment was conducted in Nevada's two urban areas with the help 
of General Motors, the EPA, the Nevada Department of Motor Vehicles, 
local air pollution control divisions, and the University of Denver. 
The groundwork and research performed could serve as the basis of 
developing a technology-based approach to air quality deterioration. I 
urge you take a careful look at DRI's leadership in air quality issues 
and utilize their expertise as part of the ISTEA reauthorization.
                                projects
    Recently, I testified before the House Subcommittee on Surface 
Transportation if favor of high priority projects in my congressional 
district. The House is expected to designate projects for Federal 
funding in its reauthorization bill. When the Senate and House work out 
the issue of high-priority projects in the final reauthorization bill, 
there is one project in particular I want to highlight. The widening of 
Highway 95 between northwest Las Vegas and the Spaghetti Bowl 
Interchange--which is the most congested section of highway in Nevada--
is the No. 1 priority in Nevada. I strongly support this project and 
hope you will give it your full consideration as a candidate for 
Federal funding.
                               conclusion
    Finally, Mr. Chairman, the President's $600 million proposal to 
assist welfare recipients gain increased access to transportation has 
generated significant interest. I urge you to buildupon the successes 
of federally designated empowerment zones and enterprise communities as 
part of this proposal. Here in the Las Vegas Valley, the Southern 
Nevada Enterprise Community has made great strides in attracting 
private investment to economically distressed neighborhoods within its 
borders. Using the existing framework of empowerment zones and 
enterprise communities is a way to refine the President's proposal and 
focus Federal dollars where we know there will be people moving from 
welfare to work.
    Thank you, again, for the opportunity to appear before your panel. 
I would be happy to answer any questions you might have.
                               __________
  Statement of P.D. Kiser, P.E., Traffic Engineering Manager, Parsons 
                          Transportation Group
       an improved traffic signal system for the las vegas valley
Introduction
    The Las Vegas Valley has experienced the most rapid growth of any 
metropolitan region in the country. Along with annual growth rates over 
15 percent, have come increasing traffic problems and air quality 
concerns. Public officials have aggressively pursued an ambitious 
program of public works improvements to address increasing traffic 
demand, including the construction of new roadways and the expansion of 
existing roadways. These improvements increase the supply of roadway 
capacity. Other improvements, such as the expansion of transit 
services, are designed to manage demand for the roadways by 
transferring travelers to more efficient transportation modes. Finally, 
officials have established a program for improving the effectiveness of 
the existing roadway network by upgrading and enhancing the Las Vegas 
Area Computer Traffic System (LVACTS).
    LVACTS was established in 1983 as one of the only 
multijurisdictional centralized traffic signal systems in the United 
States. LVACTS is an agency that is jointly managed by the City of Las 
Vegas, Clark County, the City of North Las Vegas, the Clark County 
Regional Transportation Commission, and the Nevada Department of 
Transportation. At the time of its formation, LVACTS installed a 
computerized system which centrally controlled all the traffic signals 
in the metropolitan area. The existing system has now reached its 
capacity, and many traffic signals now being constructed cannot be 
accommodated on the existing system.
    Since that time, the technology of traffic signal systems has 
improved dramatically. As traffic congestion has increased, so has the 
need for these expanded capabilities.
    Recognizing these critical needs, officials at the LVACTS 
participating agencies hired a consulting firm in 1992 to study the 
feasibility of upgrading the existing system. The results of this study 
indicated that a signal system upgrade would cost about $6 Million, and 
would pay for itself nearly 20 times over in the life of the new 
system. Based on the results of this study, the Regional Transportation 
Commission included the project in the federally funded Congestion 
Mitigation and Air Quality improvement program, which was established 
in the Intermodal Surface Transportation Efficiency Act of 1991. In 
1993, the Nevada Department of Transportation, in cooperation with the 
LVACTS participants, secured the services of BartonAschman Associates, 
Inc. (Parsons Transportation Group) to proceed with design. 
Construction of the system is now underway.
The New Las Vegas Computerized Traffic System
    Traditional signal systems have been designed from a traffic 
control center out. The existing system is an example of this highly 
centralized approach. The central computer directs, on a second-by-
second basis, the individual actions of all 475+ traffic signals that 
are now part of the system. This approach requires a large central 
mainframe computer and demands a very reliable communications 
capability between the central computer and the intersection 
controllers.
    The new system follows an innovative approach where all the 
individual traffic signal control is contained at the intersection. 
This decentralized, or distributed, approach will allow the system to 
provide reliable operation even when the communications system fails. 
Also, the distributed approach will allow the replacement of the 
existing mainframe computer with a network of inexpensive and easy-to-
maintain microcomputers.
Local Intersection Control
    The distributed approach requires a very powerful traffic signal 
controller at each intersection. The new system will be the first 
large-scale implementation of the Advanced Transportation Controller, 
which has been under development around the country since 1991. The new 
controllers are based on powerful and reliable industrial 
microcomputers now proven in the process control and communications 
industries. These controllers will be installed at all traffic signal 
locations within the jurisdiction of the LVACTS participating agencies 
during 1997.
Video Surveillance
    In addition to increasing the features and reliability of the 
traffic signal control system, the design concept has incorporated a 
video surveillance system. Closed-circuit video from 43 critical 
locations around the Valley will give operators the chance to observe 
traffic conditions and make adjustments from the downtown Traffic 
Management Center. Also, the LVACTS agencies will be able to monitor 
traffic from jurisdictional traffic management centers located at each 
agency. By allowing system operators to view more than one location, 
and by eliminating much of the driving time now required for traffic 
observation, the video system will greatly increase the effectiveness 
of the LVACTS staff.
Communications
    To provide the LVACTS operators with access to the intersection 
controllers and video cameras, system designers have devised a two-
tiered communications network. The system has been divided into nine 
regions, and all the intersection controllers within each region will 
be tied to a hub located within the region. These regional hubs will be 
connected into a backbone communications system using high-frequency 
microwave. The microwave hub sites will consist of small high-
performance microwave antennas mounted atop conventional steel utility 
poles. Unlike lower frequency long-haul microwave equipment used by the 
telecommunications industry, the LVACTS microwave components use very 
low power transmitters feeding small antennas. The antennas are much 
smaller than those used for cellular telephones which are located at 
frequent intervals throughout the region.
    The Nevada Department of Transportation has selected a contractor 
to begin construction of the $3.5 Million backbone communications 
system. Construction on the system began in late spring of 1995, and is 
scheduled for completion later this year.
    Several different technologies will carry video and controller 
signals from the cameras and intersections to their respective hubs. 
These technologies include data radio, ultra-high-frequency microwave, 
fiber-optic cable, and special equipment designed to move video along 
the existing copper cables that are used by the existing system. In 
total, the upgraded LVACTS communications network will showcase the 
most advanced technologies available for traffic management systems. 
NOTE: A recent ruling by the Federal Communications Commission (FCC CC 
Docket No. 92-297), will remove from public access the 31 Ghz radio 
band. This band was to be used on the LVACTS project for video 
surveillance communications. The FCC rejection of the license 
applications will have a significant impact on the reliability and 
efficiency of this new traffic signal system.
Traffic Operation
    Of course, the purpose of a traffic signal system is to provide the 
capability to move traffic as efficiently as possible. Traffic signals 
cannot add capacity, but they can allow traffic to make best use of the 
capacity by distributing it fairly to all movements. The current system 
imposes constraints on the signal timing because of its limited 
capabilities. With the new system, these constraints will be resolved 
and the system operators will therefore have the opportunity to 
systematically improve the operation of the area's busiest arterial 
streets. The ongoing project includes a major work element to collect 
detailed traffic data and develop new signal operations within the new 
system. This work is scheduled for late 1997 and early 1998.
Summary
    We urge you to continue the funding categories now available from 
the ISTEA bill that allow for traffic control system such as LVACTS. 
This type of project is very cost effective and has positive impacts on 
air quality.
                               __________
   Statement of Steve Teshara, Executive Director, Lake Tahoe Gaming 
                                Alliance
                      perspectives from lake tahoe
    Good morning members of the Subcommittee, staff, ladies and 
gentlemen. For the record, my name is Steve Teshara, Executive Director 
of the Lake Tahoe Gaming Alliance, an organization representing the 
hotel/casino resorts on the South Shore of Lake Tahoe.
    Being successful at Lake Tahoe is all about partnerships. The 
Gaming Alliance is involved in numerous partnerships--three specific to 
transportation issues--the Tahoe Transportation Coalition, the South 
Shore Transportation Management Association, and the Truckee-North 
Tahoe Transportation Management Association. It is my privilege to 
serve as chair of each of these community-based organizations.
    There are several important principles that went into the drafting 
of ISTEA as originally adopted in 1991. We believe these principles are 
extremely important to the Reauthorization of ISTEA:
    <bullet>   Maintaining a National Commitment to Transportation
    <bullet>   Providing Transportation Choices
    <bullet>   Protecting Public Safety and the Environment
    <bullet>   Assuring Accountability
    <bullet>   A Strong Role for the States & Local Government
    <bullet>   Community & Public Involvement
    The Reauthorization of ISTEA should continue to focus on 
partnerships, and on a level playing field between highway construction 
and other transportation projects. Our testimony will focus on those 
programs we have found to be of particular value and importance to the 
Lake Tahoe region.
    One of the most important is the Enhancements Program. This has 
allowed us access to funding for the design and construction of 
important water quality improvements along our roadway network, 
including erosion control and drainage projects. Prior to ISTEA, there 
was little if any funding available for such important projects and 
considerations.
    Enhancement projects at Lake Tahoe have also included the 
construction of bicycle and pedestrian trails, and sidewalks. It is a 
consensus goal at Lake Tahoe to build a vastly improved trail network--
including a bicycle trail circling the entire Lake. We note that on 
just one 17 mile section of our existing network, over 400,000 people 
use the trail each year. Clearly, the need and demand must be 
addressed.
    We at Lake Tahoe support proposals to increase the amount of ISTEA 
funding dedicated to enhancement projects. Here, as well as elsewhere 
in the country, there is much work still to be done.
    We also strongly support the continuation of adequate funding for 
Scenic Byway projects (Highway 28 along Tahoe's eastshore in Nevada has 
been designated a Scenic Byway thanks to funding support from ISTEA); 
for historic and cultural preservation, for improvements to Forest 
Highways, and to improve access to public lands. This last item is a 
particularly significant issue at Lake Tahoe, where more than 70 
percent of the Basin watershed is owned by the Federal Government--more 
than 80 percent of the Basin is in public ownership when you add those 
areas owned by the States of Nevada and California.
    We at Lake Tahoe are working very hard to move the public land 
management agencies--Federal and state--in the direction of 
partnerships to increase transit access to public lands. We look to the 
reauthorization of ISTEA to help provide us the flexibility and 
resources to accomplish this effectively and efficiently.
    The new ISTEA should also increase support for projects based on 
the use of innovative technologies as a means to ret' uce congestion 
and improve economic competitiveness and quality of life. With funds 
secured from the Federal Government last year, combined with 
significant local dollars, the South Shore of Lake Tahoe is moving 
forward with the development and implementation of a Coordinated 
Transit System project, using the technologies of Automatic Vehicle 
Location (AVL), Advanced Traveler Information (ATI), and Computer-Aided 
Dispatching (CAD).
    While each of these technical strategies have been proven in their 
own right, they have never been deployed in the format which is planned 
for South Lake Tahoe. Consequently, CTS will be a ``cutting edge 
project.'' The unique features of CTS will be both the availability of 
service to the community at large (the general public, not just a 
limited paratransit market), and the immediacy of response to ride 
requests (within minutes, not hours requiring advance bookings, as is 
typical of most paratransit systems). Through grants or similar 
programs, ISTEA should encourage and help fund such innovative 
projects.
    As you are aware, Lake Tahoe is a unique region--recognized as a 
national treasure and deserving of special planning and project 
considerations in a Bi-State Compact between the States of Nevada and 
California, enacted by Congress, as set forth in Public Law 96-551. 
Each year, more than two million people--many from metropolitan areas 
of the country--come to visit and recreate at Lake Tahoe. We ask the 
members of this Subcommittee to help provide us an opportunity to 
explore how ISTEA might address the unique needs of Lake Tahoe. We hope 
the upcoming Federal Summit at Lake Tahoe, involving members of our Bi-
State, BiPartisan Congressional Delegation, the Clinton Administration, 
and our State partners, will provide another opportunity to explore how 
we may focus on the specific needs of Lake Tahoe, as we work 
cooperatively to address the mandates we have to preserve and protect 
our water and air quality, and other environmental standards. 
Transportation plays a large and pivotal role in this effort.
    Before closing, let me say that as a rural area by most 
definitions, but with visitation and many other urban pressures, we at 
Lake Tahoe are extremely sensitive to the transportation issues faced 
by our neighbors and colleagues in the more traditional rural and 
metropolitan areas. We believe that the reauthorized ISTEA should 
continue the Congestion Mitigation and Air Quality (CMAQ) Improvement 
Program. CMAQ should have an increased level of funding to permit the 
development and operation of cost-effective Transportation Demand 
Management programs which contribute to local and state efforts to 
reduce congestion and improve mobility.
    The vital role of Metropolitan Planning Organizations (MPOs) should 
be continued and strengthened. Small metropolitan areas and rural 
communities should be allowed a greater voice in decisionmaking.
    Led by a strong national commitment to transportation, local people 
who best know local issues and challenges, should be given the maximum 
flexibility, along with funding and technical assistance, to devise 
appropriate solutions. Using this approach, the new ISTEA can bring 
even more partners, resources, and increased public support to 
transportation solutions.
    We realize that Congress and the Administration face a significant 
challenge with many issues to address and resolve in the ISTEA 
Reauthorization process. We urge you to persevere and move forward. In 
researching and preparing the context for our testimony on these 
issues, we found most helpful a publication prepared by the Surface 
Transportation Policy Project entitled ``A Blueprint for ISTEA 
Reauthorization.'' We respectfully commend it to your review and 
consideration.
    Thank you for the opportunity to provide this testimony.
                               __________
   Statement of Manfred Wackers, President, Transrapid International
    Mr. Chairman, Senator Reid, thank you for giving me the opportunity 
to testify about the transrapid magnetic levitation transportation 
technology.
    I am Manfred Wackers, President of Transrapid International, which 
is a consortium of Thyssen Industries, Siemens Corporation and Adtranz, 
the last being a partnership of ABB and Daimler Benz companies.
    We are engaged in efforts to ``Americanize''--if you will--our 
technology in cooperation with several preeminent U.S. companies. Today 
we are joined by the AMG Group, which is Hughes Electronics, General 
Atomics, Booz, Allen, Hamilton and Hirschfeld steel companies.
    The transrapid technology was developed over a period of 25 years 
by a unique public-private effort. The government of Germany funded 
research and development of competing Maglev technologies, then 
selected transrapid as the prototype to develop. A 19-mile transrapid 
test facility was opened in Emsland, Germany in 1984, and has traveled 
over 300,000 miles and carried more than 160,000 passengers to date.
    The transrapid has been tested and is ready for deployment. The 
German Federal Government has certified the transrapid for passenger 
service at speeds up to 310 miles-per-hour. In the United States, the 
Federal Railroad Administration has completed all research and 
investigation necessary for U.S. certification, and will provide that 
certification once a transrapid-based project has been selected. The 
FRA's certification is known as ``rules for the particular 
applicability'', and is therefore contingent upon identification of the 
location for that applicability.
    The transrapid Maglev technology is a simple system, comprised of 
two main components--the guideway and the vehicle--the propulsion of 
the transrapid uses a series of electric stator packs embedded in the 
guideway. The vehicle contains both levitation magnets, which lift the 
vehicle one-half inch above the guideway, and guidance magnets to guide 
the vehicle. There is therefore no friction between the vehicle and the 
guideway.
    The longstator motor located in the guideway provides non-contact 
propulsion and braking of the Maglev vehicle. The at-grade or elevated 
guideway, constructed of steel or concrete, is an integral part of the 
transrapid system. Its extremely flexible parameters and minimal land 
and space requirements allow it to be more easily integrated into the 
landscape than highways or railways.
    More than any other system, the transrapid embodies the qualities 
of low life-cycle cost, high reliability, and low environmental impact. 
Due to its ability to climb steep grades (10 percent) and transit tight 
curves, the transrapid guideway can be easily integrated into every 
landscape. Expensive cuttings, retaining walls and tunnels can thereby 
be minimized if not eliminated entirely. The transrapid is extremely 
quiet. Its non-contact propulsion and levitation technology does not 
produce any rolling or mechanical noise. The extreme flexibility is 
also apparent in the train sets. Depending on the route and ridership 
requirements, the transrapid can be configured with two-to-ten 
vehicles, carrying 150 to 1,000 passengers, or up to 20 tons of high-
value cargo per vehicle section.
    With its peak speed of over 300 miles per hour, the transrapid is 
not only super fast but it is also super safe.
    Since the transrapid levitates without contact along its guideway, 
it produces no rolling noise even during braking and acceleration. 
Aerodynamic noise only becomes evident above 120 miles per hour. Its 
unrivaled low noise emissions make it ideal for urban applications.
    At equal speeds, the transrapid consumes approximately 30 percent 
less energy than a modern high-speed train.
    The transrapid is suited for many different applications:


    <bullet>  as a fast shuttle between a city and its airport:
    <bullet>  as a fast and economical connection between two cities; 
and,
    <bullet>  as a key element in a sophisticated, highperformance 
transportation network.


    Thank you again for the opportunity to appear before you. I would 
be happy to answer any questions.
                               __________
     Statement of Glenn Schaeffer, Circus Circus Enterprises, Inc.
    My name is Glenn Schaeffer. I'm president and chief financial 
officer of Circus Circus Enterprises, Inc. and chairman of the NRA.
    I appreciate the opportunity to testify before this committee on 
the reauthorization of ISTEA (Intermodal Surface). My purpose here 
today is to present some of the critical transportation needs in 
Nevada. We have many urgent needs resulting from the tremendous growth 
in this state particularly in the south. But greatest concern is for 
the Interstate 15/40 Nevada, California, Arizona Economic Lifeline 
Corridor project.
    I-15 is in need of repair and improvement throughout its length 
from Las Vegas to southern California. However, the focus today is to 
highlight the most deficient portion of this economic lifeline. In 
order to protect and enhance the economies of Nevada, California and 
Arizona, I-l 5 between Barstow and Victorville, a mere distance of 27 
miles, must be immediately improved. This project received $47.8 
million through the 1991 lSTEA for improvement to the I-15/40 
interchange and a limited amount of widening of I-15 in the immediate 
vicinity. Yet construction is only now getting under way on this 
important element which will provide for greatly enhanced flow of 
services and goods in our economic region.
    For purposes of both safety and commerce, it is imperative that I-
15 be widened between Barstow and Victorville. The proposal is to widen 
this segment of I-15 from four lanes to six at a cost of approximately 
$130 million. We are already far behind the curve. Travel demand 
through the I-15/40 corridor continues to grow at an astounding rate. 
Current traffic in the area is expected to more than double from 30,000 
to 70,000 cars per day by the year 2015. A high percentage of this 
traffic is from heavy trucks.
    Traffic flow along this segment of I-5 is currently measured at a 
(level of Service) ``D''), which as you know is indicative of heavy 
congestion. Additionally, from 1990 to 1995, accident rates have 
increased 31 percent, including a 55 percent increase in fatalities. To 
worsen matters, the trucking; industry has a current proposal to lift 
truck size and weight freeze currently embodied in ISTEA, which would 
allow triple trailer trucks to operate along: I-15. This will only 
aggravate the sadly and congestion problems and will negate any 
improved capacity that the widening of I-15 would provide.
    In summary, we must protect the substantial commitment of Federal 
funds as well as the local and private contributions toward the initial 
I-15/40 interchange improvement. With so many needs competing for very 
limited resources, it is difficult to see how a project of this 
magnitude could be fielded without a special independent authorization 
of Congress. We ask for your support in this endeavor. We also ask for 
your help and consideration in pacing the 4.3 cent fuel tax, currently 
used far deficit reduction, into the Highway Trust Fund. We need to 
increase authorization levels to the maximum that the H.T.F. can 
support and to provide matching obligation authority. This will allow 
us to fund many of the much needed transportation projects that support 
the economic vitality of this region.
    Thank you.
                               __________
          Statement of Richard P. Landis President, HELP, Inc.
    Good morning Mr. Chairman and Senator Reid: Thank you for the 
opportunity to comment on the reauthorization of the Intermodal Surface 
Transportation Efficiency Act (ISTEA). My testimony today documents the 
tangible benefits which can result from the investment of Federal 
Intelligent Transportation System (ITS) research funds.
    HELP, Inc. is a case study of success in the ITS commercial vehicle 
operations arena:

    <bullet>  Those responsible for motor carrier regulation are 
enthusiastic about our technology initiatives;
    <bullet>  Those who are regulated--motor carriers--are enrolling in 
our service by the thousands (over 40,000 trucks to date) and are 
requesting we deploy additional ITS services; and
    <bullet>  We are a self-sustaining enterprise.

    To the best of my knowledge, we're the only demonstration that has 
successfully grown into a commercially viable enterprise.
    Today, HELP, Inc. is a not-for-profit corporation which deploys ITS 
technology with private sector venture capital. We compete in the free 
market for state and motor carrier customers. Because our service is 
voluntary, customers participate only when we add value to their 
operations.
    Our first service offering is PrePass, which allows motor carriers 
with proven safety records, appropriate credentials and legal weight to 
bypass open weigh stations at highway speed.
    Our state customers see great value in PrePass because it enables 
them to:

    <bullet>  Focus enforcement efforts on the motor carriers most 
likely to be non-compliant, while those with safe operating records 
bypass;
    <bullet>  Improve highway safety because weigh station entrance and 
egress is reduced;
    <bullet>  Make a meaningful contribution to air quality and energy 
conservation by reducing unnecessary and inefficient truck idling;
    <bullet>  Export the cost of technological obsolescence because 
HELP provides and upgrades technology; and,
    <bullet>  Reduce capital and operating expenditures for weigh 
station facilities and ports of entry.

    Our motor carrier customers similarly realize value, including:

    <bullet>  Increased equipment utilization and improved on-time 
deliveries;
    <bullet>  Higher driver satisfaction and driver retention; and,
    <bullet>  Lower operating costs which translate into savings for 
America's shippers.

    Last week, Jeff Martin, president and CEO of WestWay estimated that 
PrePass produced a cost savings of between $8 and $13 per cross country 
trip for each vehicle in his fleet.
    These benefits are being realized because Federal funds authorized 
by this Committee many years ago were used to demonstrate the viability 
of weigh-inmotion and automatic vehicle identification technology.
    However Mr. Chairman, the benefits are NOT being provided by 
ongoing Federal subsidies. Our service is self sustaining. This 
occurred because, upon completion of the federally funded demonstration 
project in 1993, the Federal Highway Administration wisely chose NOT to 
provide further funding for deployment.
    Instead, they encouraged participating states and motor carriers to 
organize a public-private partnership and seek venture capital to 
deploy a technology whose success was demonstrated by the Federal 
project.
    As a result in 1994, the federally supported HELP project was re-
established as HELP, Inc. Today we have 11 member states, including 
Nevada.
    Senator Reid, as a matter of information, Keith Maki, Research 
Division Chief for the State of Nevada Department of Transportation and 
Daryl Capurro of the Nevada Motor Transport Association represent 
Nevada's interests on HELP's Board of Directors. In addition, over 75 
percent our truck customers travel in your state.
    The motor carrier customers finance the service. Participating 
carriers pay a user fee--less than a dollar--for every successful 
bypass. These user fees fund system deployment and operation, as well 
as a providing a return sufficient to attract the venture capital 
necessary to create the service.
    With over 40,000 vehicles currently in our program representing 37 
states, and a projected enrollment in excess of 100,000 vehicles by the 
end of 1997, we hope the day we can begin returning funds to our member 
states is not far off.
    HELP is a tribute to what federally supported ITS efforts can 
achieve if:

    <bullet>  Projects are carefully focused and of limited duration; 
and,
    <bullet>  Government has the courage to allow the marketplace to 
separate self sustaining projects from those not commercially viable 
and to discontinue Federal funding for those which are commercially 
viable.

    ITS America recognizes the limits of Federal funds. On January 16, 
1997 ITS America's Board adopted 9 ISTEA reauthorization principles. 
Principle 7 states:

  `` Federal funding should be reserved for those ITS purposes not 
    being carried out by the private sector.''

    HELP strongly supports this ITS America position. Without adherence 
to this principle, the transition from demonstration to deployment may 
be seriously biased in favor of perpetual government programs.
    Given the remarkable success HELP is today enjoying, this would 
indeed be an unfortunate outcome for industry and the tax paying 
public.
    In conclusion, I would suggest that HELP is a successful model for 
how the Federal ITS research effort can move from demonstration to 
deployment. HELP is committed to the belief that this ``seeding 
process'' will more rapidly deploy value-added technology, which Mr. 
Chairman, is our mutual long-range goal. Further, we are also committed 
the belief that HELP's public-private partnership approach to ITS 
technology--today primarily concentrated on preclearance systems--can 
be equally successful in many other ITS applications.
    I would be pleased to answer any questions the Committee may have 
and cordially extend an invitation to any Members wishing to visit one 
of our PrePass sites.
    In addition, Mr. Chairman, I'd like to submit a copy of our 1997 
Report to Members for inclusion in the hearing record and the ITS 
America Reauthorization Principles.
                                 ______
                                 
              ITS America ISTEA Reauthorization Task Force
                    istea reauthorization principles
    These Principles regarding Intelligent Transportation Systems in 
national surface transportation reauthorization legislation were 
prepared by the ITS America ISTEA Reauthorization Task Force and were 
approved on January 16, 1997 by the ITS America Board of Directors 
andforwarded to the U.S. Department of Transportation as utilized 
Federal Advisory Committee formal program advice.
    1. ISTEA II should support the National Surface Transportation Goal 
for ITS, which is to complete deployment of basic ITS services for 
consumers of passenger and freight transportation across the Nation by 
2005. This goal should be supported by providing that an amount 
equivalent to at least 5 percent of total surface transportation 
outlays be invested in ITS applications unless the appropriate 
officials (non-Federal) formally waive or modify the goal for their 
area.
    2. ISTEA II should continue to support an aggressive Research and 
Technology program. This program should emphasize system integration of 
ITS vehicle and infrastructure technologies for all modes.
    3. The Intelligent Transportation Systems Program should be 
structured in such a manner as to maximize long term predictability and 
stability.
    4. To create maximum flexibility, ISTEA II should clarify and 
expand the eligible uses of program category funds to allow for 
training, operations and maintenance of ITS technology, in addition to 
ITS capital expenditures.
    5. ISTEA II should require regular reports to Congress on the 
status of deployment toward achieving the National Goal. The report 
should address specific progress as well as performance and 
effectiveness.
    6. ISTEA II should encourage the use of innovative financing 
techniques, especially public/private partnerships, in the deployment 
of ITS, including construction, operations and maintenance.
    7. Federal funding should be reserved for those ITS purposes which 
are not being carried out by private investment.
    8. ISTEA II should eliminate barriers to ITS deployment by 
encouraging the use of innovative and flexible methods for procurement.
    9. ISTEA II should continue a targeted Federal role, in partnership 
with the private sector, in the rapid development of consensus-based 
ITS standards, stimulation of ITS markets, and essential research and 
development. To ensure interoperability, Federal funding should only be 
eligible for ITS systems with components that are consistent with the 
adopted model architecture and, where they exist, conform to adopted 
standards.
                               __________
   Statement of Transportation Departments of Idaho, Montana, North 
 Dakota, South Dakota, Wyoming, Supporting the Surface Transportation 
       Authorization and Regulatory Streamlining Act (STARS 2000)
    Chairman Chafee, Senator Reid: Good afternoon. I am Richard Howard, 
Director of Intergovernmental Relations, the South Dakota Department of 
Transportation. I am here today on behalf of my own State and also on 
behalf of our own States and also on behalf of the Transportation 
Departments of Idaho, Montana, Nebraska, North Dakota, and Wyoming.
    Legislation establishing the future size and shape of the Federal 
highway program is of critical importance to the Nation and to this 
region of the country. So, we are very pleased to have this opportunity 
to present our views on how the forthcoming legislation can meet the 
needs of both the Nation and of our States. We thank you, Senator 
Chafee, and you, Senator Reid, for allowing us to participate in this 
hearing today.
    Before describing our position, I want to take a moment to say how 
much we appreciate Senator Reid's contributions to the development of 
the current highway program. Six year ago, I testified in Washington, 
on behalf of a number of western States, in very strong support of the 
bipartisan bill (6 Republicans, 5 Democrats) which Senator Reid, 
Senator Baucus, Senator Bryan, and 8 others introduced. Senator Reid's 
efforts made a positive contribution to the final legislative outcome. 
So, I want to take this opportunity to again say, thank you, Senator 
Reid. I know that my State and the other States whose testimony I am 
presenting today look forward to working closely with Nevada and with 
its Senators this year as well.
Overview
    Senators, our basic position is that we support strongly the 
Surface Transportation Authorization and Regulatory Streamlining Act 
(STARS 2000) proposal being prepared for introduction by Senators 
Baucus, Kempthorne, and Thomas. These Senators deserve great credit for 
that work. STARS 2000 is an excellent proposal which will address the 
needs of the Nation and of our States in a thoughtful way. I might also 
add that it would provide a highway funding level and program share for 
Nevada which far exceeds what would be provided under any other 
proposal.
    Legislation reauthorizing the Federal highway program should 
achieve several key results.
    I. It should increase funding levels to as high as the Highway 
Account of the Highway Trust Fund can sustain.
    II. It should emphasize investment in the National Highway System.
    III. It should achieve a distribution of funds among the States 
that is fair and based on the national interest. Such a distribution 
absolutely must reflect the national interest in the ability of people 
and goods to move across the rural areas of this nation, between our 
population centers. It must also reflect that, in States like ours, 
with relatively few people and large Federal land holdings, substantial 
Federal investment is required in order to support the long stretches 
of national interest highways within our borders. In short, States like 
ours should receive an enhanced share of the Federal highway program.
    The legislation should also--
    IV. Provide States greater flexibility to determine how to invest 
transportation funds, while retaining some Federal program emphasis 
areas;
    V. Reduce regulation of States by the Federal Government; and
    VI. Continue many aspects of present law, such as provisions 
requiring planning and public involvement in planning.
    In the balance of our testimony we will explain those and our 
positions on some additional issues in further detail.
               i. increase federal highway program levels
    On overall highway program funding levels, the law must allow 
States to invest the full level of funding which the Highway Account of 
the Highway Trust Fund can sustain.
    There are a host of reasons why this is the right policy, including 
that--
    Highway and transportation investments are investments; they help 
facilitate economic growth and help keep American business 
internationally competitive.
    The program is supported by user taxes. Highway users have paid 
these taxes with a reasonable expectation that the money will be put to 
work promptly for transportation purposes. A substantial increase over 
current investment levels is necessary to meet those reasonable 
expectations, and to ``put trust back into the Trust Fund.''
    Good transportation improves the personal mobility and quality of 
life of our citizens.
    The needs of our transportation network are vast and are not being 
met within current program levels. At present levels of Federal 
investment we are not able to maintain, much less improve, the current 
condition of our NHS and Federal-aid highway systems.
    Our understanding is that, considering current income into the 
Account, interest on the balance in the Account, and a gradual draw 
down of that balance, the Highway Account can sustain investments of 
$26-27 billion annually. If the 4.3 cents of motor vehicle fuel taxes 
currently dedicated to the General Fund of the Treasury were to be 
redirected--as it should--to the Highway Trust Fund, an even higher 
program level could be sustained.
    We are also pleased to note that support for this basic position is 
not limited to our transportation departments. It receives strong 
support from all over the nation. We were particularly pleased when, 
earlier this year, the National Governors' Association adopted a 
Surface Transportation financing resolution, urging that:

the 4.3 cents per gallon of fuel tax currently being used for General 
    Fund purposes be deposited in the Highway Trust Fund and used for 
    transportation purposes; and
all dedicated user fees and the interest accrued on Trust Fund balances 
    be promptly distributed.

    We are very pleased that the STARS 2000 proposal would set program 
levels as high as the Highway Account can sustain (assuming no 
reduction in the taxes dedicated to the Account). Senator Warner's bill 
also takes that position. Senator Reid, we know you have been a 
supporter of increased highway investment. The STARS 2000 proposal 
included an additional feature that proposal would authorize 
apportionment of additional funds if it should turn out that current 
estimates of Highway Account revenues are too low, such as if some or 
all of the 4.3 cents is directed into the Account. This is commendable.
    We are, of course, very disappointed with the low funding levels 
proposed by the Administration. We urge the Congress to, instead, adopt 
the much higher funding levels which we and so many others recommend.
     ii. emphasize investment in the national highway system (nhs)
    We would give greatest program emphasis to the NHS, allocating 50-
60 percent of total apportionments to the NHS program category. This is 
not as high a percentage of the program as it might seem when the NHS 
program is defined as including Interstate maintenance and bridges on 
Interstate and other NHS routes.
    The NHS, Mr. Chairman, represents the extremely strong Federal 
interest in ensuring that the entire nation is well connected. It is 
the principal grid upon which people and goods move safely and 
efficiently across the country. These routes make up only 4 percent of 
the nation's roads, but carry 40 percent of all traffic and 75 percent 
of commercial truck traffic.
    Not only are these roads clearly important, studies show that a 
great deal of money is needed to maintain them, perhaps $18 billion 
annually, which translates to $14-15 billion a year for a Federal NHS 
program. More would be needed to improve the NHS. So we strongly 
recommend that program emphasis be given to these important roads.
 iii. the distribution of funds must reflect the national interest in 
                        highways in this region
    While there are significant transportation needs across the nation, 
there are a number of reasons why the Nation will be well served if 
States like ours receive a significant net influx of Federal highway 
funds under the forthcoming legislation.
    First, the entire nation benefits from the fact that there is a 
national network of first-class highways, enabling people and goods to 
move, for example, between Chicago and the West Coast, over the plains 
and mountains. Major Interstate and National Highway System routes in 
this region were not built principally to connect places such as Twin 
Falls, Idaho and Bozeman, Montana, and Gillette, Wyoming. While those 
roads do connect those towns, they also meet NATIONAL needs. They 
benefit the great population centers of our nation; they allow people 
and goods to move from Chicago and points east across the country to 
Seattle, Portland, and California.
    We want to emphasize that the national need for investment in this 
region, to achieve these benefits, continues even though the Interstate 
highways have been built. We are now entering a period where major 
reconstruction of the Interstates is upon us. In addition, we note that 
maintenance of those routes is solely a State responsibility, and an 
expensive one for lightly populated States like ours.
    Highways in States like ours also enable agricultural products and 
natural resources to get from source to metropolitan markets, and 
enable manufactured goods to move from metro areas to rural consumers. 
They also provide the nation's citizens with access to the country's 
national parks and the great outdoors.
    In short, it is clear that investments of Federal highway funds in 
this region help the nation, not just the States in which the 
investments are made. The funding formula must reflect this.
    Second, rural States are not able to pay for the Federal-aid system 
of roads without a significant net influx of Federal funds. We have 
very few people to support each lane mile of highway. For example, in 
Idaho we have approximately 51 people per lane of Federal-aid highway; 
Montana, 27, New York, 278. Virginia is about at the national average 
of 126 people per lane mile of Federal-aid highway.
    Also, while per capita income in this region is below the national 
average, our citizens pay considerably more per person into the Highway 
Trust Fund than the national average.
    Thus, while there is sometimes a clamor in Washington because some 
States are ``donors'' under the Federal highway program (putting 
relatively more into the Highway Account than they get out) and others, 
including our States, are ``donees'', our citizens, per person, are 
putting more of their income into the Highway Trust Fund than the 
national average. Our citizens are definitely carrying a heavy load, 
Mr. Chairman. We understand that this is the case for Nevada citizens 
as well.
    Another consideration is the high percentage of land in this region 
which is either owned by the Federal Government or held by it in trust. 
States with a very high percentage of their land under such Federal 
control face a number of difficulties. In particular, Federal lands are 
generally not open for commercial or residential use, depriving a State 
of part of its tax base.
    In States with large Federal land holdings, like Idaho, this is a 
significant impediment to the State's ability to raise revenue. Yet, 
those States still maintain significant Federal highway systems, which 
serve national interests, and which lead to, cross, or are adjacent to 
these Federal land holdings.
    We want to emphasize that this is a problem distinct from those 
addressed by the Federal Lands Highway Program. That program 
principally serves to develop roads within Federal Lands, such as 
highways within National Forests or on Indian Reservations, or on 
adjacent roads. Those are direct Federal expenditures for Federal 
purposes. Our point here, is that, in addition to the national need to 
continue and improve a Federal Lands Highway Program, the general 
apportionment formula should reflect the special burden faced by States 
which must ensure transportation across or adjacent to Federal Lands.
    For reasons such as these, we believe that States like ours should 
receive both more dollars and a higher share of the program than under 
current law.
Approaches to Distributing Funds
    Clearly, the kind of overall result which we support could be 
achieved through a variety of formulas. We do suggest, however, that 
the national interest would be well served by a funding distribution 
formula which takes the following approach to providing an increased 
program share for our States.
    Emphasize extent and use of the Federal-aid highway system 
particularly the extent of Interstate and NHS routes. One of the 
provisions of ISTEA required the Secretary of Transportation to 
undertake a functional classification of our nation's roads, to 
determine which were important enough to be ``Federal-aid highways,'' 
those eligible for Federal assistance. Congress also directed the 
Secretary to propose routes for inclusion in the National Highway 
System and that system has now been designated.
    We think it is clear that there is a higher Federal interest in the 
Interstates, NHS routes, and other Federal-aid highways than in other 
roads. These are the roads which do the most to serve national interest 
needs. Thus, we believe that the extent and usage of these routes, as 
opposed to all roads, deserve recognition in a funding formula. 
Particular emphasis should be given to the extent of our premier 
systems, the Interstate and the NHS. If the extent of those systems is 
not given weight in the distribution and allocation of funds, a risk is 
created that the resources won't be there to maintain those key roads.
    Take Low Density and Ability to Pay Into Account. We also believe 
that the overall formula should provide increased funds to States with 
low population densities and/or few people per lane mile of Federal-aid 
highway, and with a high percentage of land subject to Federal 
ownership or trusteeship. All of these factors tend to reflect the 
inability of rural States to pay for the national interest routes which 
are within their borders--routes which provide tremendous benefits to 
the Nation generally, not just to the residents of the States where 
they are located.
    Achieving Balance. Certainly, the overall scheme for distributing 
highway funds must make sense for the Nation as a whole. It must take 
into account the concerns of other areas and provide an appropriate 
minimum allocation. However, we are confident that this can be done 
while meeting the national interest in providing an increased share for 
this region.
    STARS 2000 Strikes a Good Balance. Our confidence that this can be 
done is validated by the formula information that Senators Kempthorne, 
Baucus, and Thomas have circulated describing the distribution of 
highway funds under the STARS 2000 proposal. Under their proposal, with 
both its increased funding and its formula:

  <bullet>  47 States would receive higher annual funding than today, 
    and
  <bullet>  33 States would receive a higher percentage of funding than 
    under present law (and another one the same percentage).

    We also believe that, head-to-head, against other new proposals 
which have been revealed--namely the ISTEA Integrity Restoration Act 
and the Administration's bill--STARS 2000 compares favorably. In short, 
while no one proposal could be the best for all States, STARS
    2000 is the proposal that does the most for the most. It is 
balanced. It treats both our region and the Nation fairly.
Concerns With Other Funding Distribution Proposals and Factors.
    Before leaving the topic of funding formulas, we offer a few more 
points regarding funding formulas and factors proposed by others.
    We were disappointed with the Administration's funding distribution 
proposal. It is the only one that has been offered which would reduce 
the share of funding provided to our States. We don't think that there 
is anything more to say about it. That says it all.
    Let us also note our position on some specific aspects of formulas. 
We have trouble with proposals to continue the so-called 
``reimbursement program.'' This category of funding distributes funds 
based on the presence of the Interstate routes in a State prior to 
1956. We all know there were few or no such routes in this part of the 
country in 1956. We believe that any overall proposal which continues 
that program category, and apportions those funds on the basis of 
activity over 40 years ago, has a big strike against it, a strike which 
could be overcome in our eyes only if other factors in the overall 
proposal would help our region a very great deal.
    The present CMAQ (Congestion Mitigation and Air Quality) Program is 
another one which distributes a very low percentage of its funds to our 
States. We believe that program should be de-emphasized. Any overall 
proposal which includes substantial CMAQ funds, again, would have to 
have other extremely attractive features before it could be attractive 
to our States. We also note that the current formula for allocating 
bridge program funds is not a helpful one for our States. The current 
formula for allocation of these funds does not include an incentive to 
maintain bridges. Under it, the worse a State's bridges get, the more 
bridge funds it receives. All our States have a higher percentage of 
the nation's square footage of bridge deck surface area than we receive 
of today's bridge program funds.
            iv. achieving a more flexible program structure
    We turn now from funding allocation to the issue of program 
structure. Here, we see the task in front of the Congress as one of 
striking a balance between letting States decide how to spend the money 
apportioned to them and telling them exactly how to spend it.
    We strongly recommend that, compared to today, the legislation 
place allocation of a greater percentage of overall funding within the 
discretion of State officials, so that they can better implement the 
priorities identified through their planning process, which involves 
receipt of comments from the public. This is not to say that the 
legislation need be totally deferential to States. We think that 
legislation can continue to require States to emphasize certain types 
of investments. In general, however we strongly recommend that the 
overall result leave more of the funding open to dedication in 
accordance with the priorities identified in the planning process. 
Thus, transportation officials could emphasize urban or rural 
investments, safety investments, capacity investments, transit 
investments, transportation enhancements, bridges, or whatever else the 
planning process prioritizes.
    As to how, specifically, we would strike the balance, it would be 
to have two basic categories of funds, an NHS Program, and a Surface 
Transportation Program, with several program emphasis areas worked into 
that structure.
    National Highway System (NHS). For the reasons noted earlier, we 
would give greatest program emphasis to the NHS, allocating 50-60 
percent of total apportionments to the NHS program category. We 
recognize, however, that some States would prefer to not give so much 
emphasis to the NHS. Thus, we also support continuation of the ability 
in law today for a State to transfer a portion of its NHS funds to 
other program categories.
    Safety. We think it appropriate for the program to continue to set 
aside funds for railroad highway crossings and hazard elimination--in 
amounts similar to under today's program. We suggest some greater 
program flexibility in this area, however, such as allowing some 
transfers between the two and eliminating restrictions within each of 
those programs.
    Transportation Enhancements. We support continuation of some set 
aside for transportation enhancements. However, we cannot subscribe to 
any view that the Federal Government should require States to give them 
increased dollars or emphasis. As a time when total Federal investment 
levels in highways and transit fall far short of what is needed to 
maintain the condition of our roads and transit systems, and further 
short of what is needed to improve them, we suggest that the dollar 
guarantee for transportation enhancements out of the highway program be 
slightly reduced. Transportation enhancements have a role but, beyond a 
modest point of guaranteed funding, they should have to compete in the 
planning process with other demands for transportation dollars.
    Set Asides for Metropolitan Areas. We support continuing a set 
aside of funds, within the ``surface transportation program'' category 
of the highway program, for metropolitan areas of over 200,000. We 
would not reduce the dollar in that set aside. To the contrary, we 
would allow the dollar value of that set aside to grow with the 
program.
    We would oppose, however, proposals to provide specific set asides 
of funds for smaller metro areas. In taking this position we note that, 
today, every metro area in each of our five States has a population of 
less than 200,000. We certainly spend funds in and around the largest 
cities in our States. We always will. What is at issue is flexibility 
within the State to address varying needs and the ability of the State 
to effect an overall statewide plan. For that reason, on this issue we 
would maintain the balance in present law, which provides funding set 
asides only for metro areas of over 200,000.
    Congestion Mitigation and Air Quality (CMAQ) Funds. We want to make 
clear that we view issues regarding funding of CMAQ activities not as 
raising any question of whether officials should try to meet 
transportation needs in a manner which is sensitive to air quality--
they should. We see issues as to the future size of the CMAQ program 
principally as a funding formula issue. This is because the present 
formula for distribution of CMAQ funds favors only a few States.
    We would prefer to reduce the CMAQ program because we believe that 
its main impact is to shift funds from most States, including our 
States, to a very few States. In short, our recommendation that funding 
for the CMAQ program be Reemphasized stems from our desire to increase 
overall funding for the citizens of our States, even for CMAQ 
activities, whether they live in our cities or smaller towns.
    Bridges. We believe it is reasonable to set aside some funds for 
bridges, both on and off the Federal-aid system. However, we stress 
that this can be done in a way which decouples a requirement that each 
State spend some funds on bridges from today's bridge program funding 
formula, a formula which is not helpful to us.
    Obligation Ceiling Rules Should Maintain Program Balance. While not 
always thought of as a program structure issue, we want to note our 
view that rules for any ``obligation ceilings'' should help maintain 
the program balance which appears on the face of an authorization bill. 
Frankly, this doesn't usually happen, but it should.
    As a preliminary point, let us be clear that we hope that the 
Congress will allow the investment of the full amount of funds which 
the legislation authorizes. However, in the past, there has almost 
always been an ``obligation ceiling,'' which limits the extent to which 
authorized funds can be spent.
    We want to make two specific points about rules for obligation 
ceilings. First, we object to any rules under which the type of 
apportionments which go to our States receive second class treatment 
under an obligation ceiling. Under today's system, obligation ceilings 
give a financial preference to minimum allocations and special 
projects. Compared to States as a whole, we receive relatively little 
money in those categories. On that basis alone, we would not give 
preference to them under a scheme for parcelling out funds in the event 
that not all funds can be distributed. However, our general point is 
that all funds apportioned to States should be treated equally under 
obligation ceilings.
    Second, the rules should maintain balance in the program structure. 
This does not happen when set asides are expressed in terms of 
apportionments, but obligation authority--real cash--is less than 
apportionments. For example, if a set aside is worded as constituting 
10 percent of apportionments and obligation ceilings are regularly less 
than apportionments, the real effect is that the set aside will become 
more than 10 percent of the actual program. This distorts the program 
and a mechanism should be developed so that, when obligation ceilings 
are imposed, set asides are reduced pro-rata, and program balance is 
maintained.
    STARS 2000 Strikes the Balance. Again, Mr. Chairman, we believe 
that the STARS 2000 proposal does an excellent job of striking the 
balance between reducing program categories and maintaining reasonable 
Federal program emphasis areas. STARS 2000 emphasizes the NHS and 
maintains reasonable requirements for expenditures on bridges, safety, 
and enhancements, and in large metro areas. This is a good balance.
                     v. reduce regulation of states
    In general we urge Congress to take appropriate steps to reduce 
Federal regulation of States. Congress took many excellent steps in 
that regard in 1995's National Highway System Designation Act. 
Elimination of many ``management system'' requirements, of ``crumb'' 
rubber utilization requirements, and other rules were welcome. Mr. 
Chairman, you, Senator Baucus, and Senator Kempthorne were very 
effective in reducing regulations as that bill developed. We thank you 
for those efforts.
    We look forward to working with the Congress so that this year's 
legislation will further reduce Federal regulation of State 
governments--and also preclude increases in regulation.
    At this point, we have some concern that there may be proposals to 
establish, or allow the executive branch to establish, ``performance 
standards''. We are concerned that these proposals could turn into an 
effort to have Washington tell States how to set their priorities, 
regardless of what our citizens tell us in comments during our planning 
processes.
    We also note that the American Association of State Highway and 
Transportation Officials (AASHTO) has developed a series of 
recommendations on how to streamline and ease regulatory requirements. 
We support the thrust of those suggestions and urge the Committee to 
include provisions in the legislation which respond to those concerns.
    In taking this general position, we want to emphasize our view that 
Federal regulation of States should be disfavored. We consider 
ourselves to be full partners in our Nation's Federal system of 
government. We already strive to determine the public interest and to 
serve it. So, we think there should be stronger direction from Congress 
to Federal agencies to simplify and reduce rules and other requirements 
imposed on States.
       vi. continue planning and public involvement requirements
    We support continuation of State and metropolitan area planning 
requirements and the decisionmaking and consultation roles currently 
provided to local governments. We support continuation of public 
comment rights. Basically, we would not try to change the balance 
between States and other governmental units in the current planning and 
project selection process.
                         vii. additional issues
Federal Lands Highway Programs Should Grow With the Program and Be 
        Improved
    Under present law, approximately $450 million annually is 
authorized for investments in Federal lands highways. This includes 
investments in Indian Reservation Roads, roads within parks, forest 
highways, and a discretionary public lands highway program.
    Roads in and adjacent to Federal enclaves are a unique Federal 
responsibility and the Federal highway program should continue to 
provide funding for them. We recommend that, overall, highway 
investments concerning Federal lands grow at the same rate as the 
overall program. We also urge some reform of these programs, to ensure 
that Federal lands highway funding is more likely to go into areas 
where there are substantial Federal lands.
    We particularly object to that aspect of section 1015(a) of ISTEA 
which penalizes States which apply for and receive Public Lands 
Discretionary funds. Under that provision, a State which receives a 
discretionary grant has its surface transportation program funding 
reduced in the following fiscal year. This provision punishes States 
with public lands and serves as a disincentive for them to apply for 
those funds. The provision also hurts Native Americans by penalizing 
States which attempt to improve BIA and Tribal roads by using public 
lands highway funds. Such ``penalties'' upon States should not be a 
feature of the Federal lands highway programs as the entire Nation, not 
just the residents of the State in which particular projects are 
located, benefits from Federal lands highway program investments.
    We also recommend creation of a new category of Federal lands 
highway investments (to fit within the overall level of funds for all 
of Federal lands highway programs). The purpose of such a program would 
be to provide greater likelihood that the Federal Government will 
choose to invest Federal lands funds in those States with the greatest 
percentage of Federal lands. Mr. Chairman, in recent years, we have 
seen States like Idaho and Nevada, with massive Federal lands holdings, 
be denied Federal lands discretionary funding. Other western States 
have not even bothered to apply, due to the hold harmless provision we 
mentioned. This is not good policy. Most of the nation's Federal lands 
are in this region, and new legislation needs to better ensure that the 
Federal lands highway program directs funding where the Federal lands 
are.
    Given these positions, we are enthusiastic about the Federal lands 
highway provisions included in the STARS 2000 proposal. The STARS 2000 
proposal would increase the overall level of Federal lands highway 
investments by the same rate of growth as the overall program, and make 
needed reforms to help direct the funding where the Federal lands are.
    In addition, we would object to proposals which would dilute the 
effectiveness of the Federal lands program by having part of the 
Federal lands program funding be switched to support of roads that are 
currently financed out of the General Fund of the Treasury.
``Turnback'' Proposals Represent A Wrong Turn on the Path to Good 
        Policy
    Mr. Chairman, one further point on the overall funding level. In 
supporting a program level as high as the Highway Account can sustain, 
it is implicit that we strongly oppose so-called ``turnback'' or 
``devolution'' proposals. These proposals would repeal or reduce 
Federal fuel taxes and leave it to State and local governments to 
finance highway and transit programs either on their own or with much 
less Federal money than today. Enacting ``turnback'' would be a 
catastrophic mistake.
    State and local governments already provide the bulk of 
transportation funding in this country. So, Mr. Chairman, most 
transportation funding in this country already is ``turned back.'' And, 
on a national basis, as important as transportation is, hard pressed 
State and local governments are not going to be eager to increase State 
fuel taxes by 10 or 15 cents per gallon, or even 5 cents, to replace 
Federal fuel taxes that would be repealed or turned back under these 
proposals.
    So, turnback creates a serious risk of national disinvestment in 
transportation at a time when, instead, that investment should be 
increased.
    We know, Mr. Chairman, that you and our Senators have determined to 
oppose turnback--and we are glad. But, we just wanted to make clear 
today our very strong opposition to those types of proposals.
Transit Program Funding
    While we understand that this Committee does not have jurisdiction 
over the transit program, transit will certainly be included in the 
overall surface transportation program legislation Congress is now 
beginning to develop. Let us make a few points regarding transit.
    First, we support continuation of a transit program.
    Second, we believe the ratio between the size of the highway and 
transit programs, based on recent appropriations levels, is about 
right.
    Third, to the extent that the ratio between the two programs should 
be changed at all, we favor a relative gain for the highway program. 
There are two reasons for this. The highway program is a modern, 
multimodal transportation program. It provides for and has effectuated 
billions of dollars in transfers to transit purposes. (We support 
continued eligibility for transfer of highway funds to transit; we know 
it can make sense in many States). The transit program, by contrast, 
supports only transit. Transfers of transit funds to highway projects 
simply have not happened.
    In addition, distribution of funds among the States is far more 
equitable under the highway program than under the transit program. As 
you know, Mr. Chairman, under the highway program there is a 
substantial minimum guarantee to each State. There is no such guarantee 
under the transit program. Under the transit program there are a 
handful of States which are substantial donees, a few which are near 
break even, and the majority are big donors. Our States are about the 
biggest transit donors on a percentage basis. Our States' citizens get 
back, on average, roughly a quarter or less on a dollar of attributable 
user taxes paid into the Transit Account. So, while we support a 
substantial transit program, the relative weight between the two 
programs should give more emphasis to the more equitable, more flexible 
highway program.
    Fourth, we want to note that we are potentially interested in the 
formula for allocation of transit funds. As a policy matter, we view 
the allocation of funds on a combined program basis, taking into 
account both highway and transit programs. In the context of a 
satisfactory allocation of highway program funds, we may not press hard 
for change in the allocation of transit funds. However, in the context 
of an unsatisfactory highway funding formula, such as the 
Administration's proposal, we may well support a substantial minimum 
allocation under the transit program as a means of recovering some 
overall funding for the citizens of our States.
Don't Make Mistakes In Amtrak Financing
    We know that one issue under considerable discussion in Washington 
is whether Amtrak should have access to money from the Highway Trust 
Fund and, if so, how. Because there could be a lot of money at stake, 
we want to share our views on this topic.
    We prefer continuation of present law, under which Amtrak receives 
financing out of the General Fund of the Treasury. There is no shortage 
of projects nationally which are already eligible for Highway Trust 
Fund moneys. Addition of eligibility for any costly item weakens the 
ability of States to advance what our citizens have already put on the 
lengthy ``to do'' list.
    Going beyond our preference, however, we want to be clear that we 
do not have equal views on other ways of financing Amtrak. The 
Administration's proposal, in particular, is highly objectionable to 
us. It would fund Amtrak out of the current stream of Highway Account 
revenues--to the tune of approximately $4.7 billion over 6 years. 
Assuming the State program shares called for by STARS 2000, displacing 
$4.7 billion for highways with $4.7 billion for Amtrak would reduce our 
ability to serve our 5 States by roughly $215 million over the 6 years. 
That is a non-starter, Mr. Chairman.
    Financing Amtrak with a small amount of funds out of the 4.3 cents 
of fuel tax currently going into the General Fund is a little 
different, however, as Amtrak already receives General Fund revenues. 
So, as a Federal bookkeeping matter, this approach is more in the 
nature of changing account labels.
    But, even that approach raises the question of possible unfairness 
to highway users, who are paying these taxes, but generally not riding 
Amtrak. So, we suggest that, to be fair to highway users, Congress 
consider financing Amtrak with fuel tax revenues only in the context of 
a larger approach under which the remaining 3.8 cents of the 4.3 cents 
would go to the Highway Account of the Highway Trust Fund.
The Highway Account Should Be the Destination of the 4.3 Cents
    Apart from any deduction that might be made for Amtrak, we feel 
strongly that the 4.3 cents of fuel taxes paid by highway users and 
currently going to the General Fund should be directed to the Highway 
Account of the Highway Trust Fund. There are several reasons why this 
should be done.
    First, as noted earlier, the highway program is a modern, 
multimodal transportation program. The transit program is a single 
purpose program that essentially does not allow consideration of 
highway uses. So, putting the money in the Highway Account is the way 
to advance flexibility, multimodalism, and allowing States to choose 
the projects that show highest in their plans, be they highway or 
transit projects.
    Second, the Highway Account is financially fairer to States as a 
whole, with a far more even distribution of funds between the States. 
Third, the balance in the Transit Account of the Highway Trust Fund is 
much higher, in relation to the size of the transit program, than is 
the size of the balance in the Highway Account, compared to the Federal 
highway program. So, the Highway Account needs the infusion more.
Recreational Trails
    We support funding out of the Highway Account for the Recreational 
Trails program, at the $30 million annual level proposed by Senator 
Kempthorne.
Demonstration Projects/Discretionary Grants
    We will not dwell on it today, but want to note our opposition to 
Congressional earmarking of highway project selection, sometimes called 
the funding of ``demonstration projects.'' In general, we believe that 
the vast majority, if not all highway funds, should be distributed on a 
formula basis. Certainly, demonstration projects and discretionary 
grants should receive less emphasis in the new legislation than they do 
today.
Infrastructure Banks
    Related to the question of discretionary grants are proposals to 
fund various types of infrastructure banks. We have no problem with 
efforts to increase use of ``innovative financing'' techniques, like 
infrastructure banks. What we are concerned about is the source of the 
Federal seed capital for them. We believe that States should finance 
these banks out of their own apportionments. This would enable the use 
of these banks as an innovative financing technique.
    We oppose, however, proposals which would have USDOT reserve funds 
``off the top'' of the Highway Account for credit programs, and 
distribute the funds at USDOT's discretion. This approach creates 
winners and losers among the States. We urge that the Congress choose 
ways of promoting innovative financing and financial leveraging other 
than through ``off the top'' discretionary credit programs.
Intelligent Transportation Systems
    Expenditures for so-called ITS technology are growing and little of 
this money has found its way to rural America. This needs to change.
                               conclusion
    Mr. Chairman, Senator Kempthorne, Senator Baucus, we have covered 
quite a few points here today but this legislation is truly important 
and addresses many issues. Fortunately, we can sum up our position very 
simply--``follow the STARS.'' The STARS 2000 proposal sets forth a very 
balanced and thoughtful approach to the highway program issues. It is a 
proposal that we very strongly support.
    Among its key provisions are those:
    <bullet>  increasing the level of Federal investment in the highway 
program; providing an appropriate increase in program share to our 
States while providing a fair distribution of funds nationwide; and
    <bullet>  streamlining the program structure. We urge the Congress 
to follow that approach as the legislative process advances.
    That concludes our statement. At this time, we'd be pleased to 
respond to any questions the committee may have.
                               __________
  Statement of Pete K. Rahn, Secretary, New Mexico State Highway and 
                       Transportation Department
    Senators Chafee and Reid: Good morning. I am Pete K. Rahn, 
Secretary of the New Mexico State Highway and Transportation 
Department. I am here today on behalf of the State of New Mexico and 
the New Mexico State Highway and Transportation Department regarding 
Federal legislation reauthorizing funding for surface transportation in 
our country.
    I am very pleased to have this opportunity to present New Mexico's 
views on legislation that is so critical to our nation and my state.
    Mr. Chairman, I would like to begin by recognizing first that the 
concept of fairness is a relative term when all the states and special 
interests are attempting to increase their share of a Federal program. 
Therefore, I would like to propose a definition to help you understand 
my comments about a national interest in a surface transportation 
system. Our nation currently possesses a global economic advantage 
because of our efficient and safe transportation of goods and people 
within our borders. The movement of people or goods must drive the 
focus of any surface transportation reauthorization proposal.
    New Mexico, located within the Rocky Mountain west, is well aware 
that the entire mountain time zone has less than 6 percent of the 
nation's population but over 25 percent of the land mass. This would 
normally greatly diminish our ability to influence a national issue. 
However, transportation is a distance issue as much as it is a 
population issue. Just as a road that comes to a river is useless 
without a bridge, the coastal populations of our country need a bridge 
that crosses the vastness of the Rocky Mountains. New Mexico's highway 
system serves as a bridge between the population and manufacturing 
centers of California, Texas and the rest of the Sunbelt, while 
deriving little direct benefit from this function.
                               background
    New Mexico is our nation's fifth largest state with 121,666 square 
miles. The states of New York, Pennsylvania, New Jersey, Maryland, 
Delaware, Massachusetts, and Rhode Island could all be placed within 
the federally designated rural portion of New Mexico, with over 1,600 
square miles to spare. To travel from Farmington, NM in the northwest 
corner of the state to Hobbs, NM in the southeast corner is 513 miles, 
or roughly the same distance as Detroit, Michigan to Washington D.C.
    In 1995, the state's population was just over 1.64 million 
residents; we are the 36th most populous state in the nation. One third 
of the state's population resides in the Albuquerque metropolitan area. 
Population density outside of the state's three metropolitan areas of 
Albuquerque, Las Cruces and Santa Fe is among the lowest in the United 
States. The seven states listed above have a combined population in 
excess of 53 million people.
    New Mexico shares 175 miles of it's border with the states of 
Chihuahua and Sonora, Mexico.
    New Mexico ranked 48th in 1995 per-capita income and has an 
unemployment rate of 6.6 percent, well above the 5.4 percent national 
average.
    New Mexico collects $105.80 per capita more than the national 
average in state transportation taxes. This is a heavy burden for a 
poor state. As derived from the U.S. Department of Transportation 
Federal Highway Administration's 1995 Highway Statistics manual, New 
Mexico's 1995 state revenue contribution to transportation per capita 
was $294.36. The only state that had a higher per capita contribution 
than New Mexico was the state of Washington. For comparison, 
California's was $220.11, Florida's was 168.76, and New York's was near 
the bottom at $126.06. Mr Chairman, I submit to you that the national 
average state contribution per capita was $188.56. The details of per 
capita contributions are attached to my presentation that I am 
providing to you.
    New Mexico has 1,000 centerline miles on three Interstate Highways 
and the National Highway System in New Mexico has 2,932 centerline 
miles. Due to its size, low population density and for the most part, 
financially hard-pressed local governments, New Mexico's 27,911 lane-
mile state system is relatively large when compared to many other 
states, but is in line with other large rural states such as Montana 
(the country's fourth largest state)with 26,261 lane miles.
    New Mexico is also one of the fastest growing states in the nation. 
Projections place New Mexico behind only California for the percentage 
of expected growth by the year 2015. This growth is painful for our 
state since there is not a large or wealthy population base to absorb 
the cost of expanding infrastructure to accommodate this influx of 
people.
    New Mexico's existing highway system has deteriorated due to a lack 
of resources and an increased traffic volume of 292 percent since 1986. 
The major increases in traffic have been on the Interstate and the 
National Highway System. In New Mexico the NHS carries 66.23 percent of 
the traffic volume on the state highway system and 44 percent of the 
total vehicle miles. About 93 percent heavy commercial vehicles on 
these routes originated and are destined outside the state. Further we 
estimate that about 82 percent of the vehicle miles of travel on the 
state's east-west interstate routes are for traffic moving across the 
state to out of state destinations. It is estimated that over 50 
percent of the vehicle miles of travel on the non-interstate National 
Highway System is also traffic moving across the state to out-of-state 
destinations. We have observed significant increases in the number of 
heavy commercial vehicles moving on the non-interstate national highway 
system, due to increased movement of commercial goods to destinations 
where our interstate system is not the most direct route.
    This increased travel on New Mexico highways, especially by heavy 
commercial vehicles, has played a major role on the conditions of 
highways in the state. New Mexico's deficient pavement road miles (bad 
roads) have increased by 1,509 miles to over 43 percent of our system 
in the last 10 years; and if funding does not change in the next 10 
years the deficient road miles will increase by another 1,640 miles to 
over 55 percent of the system. Current deficient mileage places us 2nd 
to Rhode Island for the highest percentage of bad roads in the country.
    In addition, New Mexico is very concerned about the effects of 
possible increased weight limits as a consequence of NAFTA might have 
on our fragile highway system. I would add, New Mexico welcomes any 
increased economic activity due to NAFTA, but the Federal Government 
must recognize the cost to our state infrastructure when it is impacted 
by national policies such as NAFTA.
    ISTEA represents an important policy decision by our nation. It 
forced many states, New Mexico being one of them, to consider and 
inter-relate all feasible modes of transportation when making 
decisions. This has been beneficial to our state. The general 
perception however, that ISTEA was a windfall to the states is wrong. 
While ISTEA brought additional funds to the New Mexico, with it came 
additional responsibilities. Funds were not only for roads. Prior to 
ISTEA, funds from the highway account were primarily dedicated to 
roads. In ISTEA new investments such as the Enhancement and Congestion 
Mitigation programs were introduced and funding formulas required a 
higher proportion of funds to urbanized areas. ISTEA also stressed 
inclusion of funds for Intermodal and alternative modes of 
transportation.
                                concept
    Mr. Chairman and Senator(s), New Mexico, until recently, had not 
joined any group that had developed positions regarding ISTEA 
Reauthorization. The reason for this is that we feel that the primary 
goal of those proposals is to keep existing funding advantages or to 
gain new ones without regard to national interests. Apparently, heavily 
populated states want to devaluate the national program by creating an 
urban-oriented program with some support even for the devolution of a 
Federal interest in transportation. Further, heavily urbanized states 
are pushing for higher subsidizing of their transit systems by rural 
states, while arguing they no longer wish to be ``donors'' to highway 
systems in those rural states. Indeed, the definition of ``donor'' and 
``donee'' is only applied to the highway account. If such a calculation 
was made on the sum of all transportation expenditures, many of the so 
called ``donees'' would in fact be ``donors''!
    New Mexico's principle in choosing to support a legislative 
proposal is simple. Our state recognizes the need for a strong national 
surface transportation system. The nation benefits most when the major 
components of that system are adequately funded prior to other 
expenditures that can be categorized as being politically popular but 
have the real effect of diluting the efficiency and effectiveness of a 
national transportation system.
    I hope to provide you today an explanation of why the major 
components of a national transportation system should be given priority 
in this legislation.
    To better serve the nations needs, there are several key issues I 
feel need to be brought forth:
    The National Highway System should be the focus of the Federal-aid 
highway program. Given the huge volume of commercial traffic carried by 
only 4 percent of all roads in the country, it is evident that the NHS 
is most important to the nation's economy.
    Overall funding for surface transportation should be increased to 
address the deterioration of transportation infrastructure in all 
regions of the nation.
    Distribution of funds among states should be fair and based on the 
national interest. The issue of donor/donee relationship should be 
considered in the context of all surface transportation expenditures.
    States should be granted flexibility to address different needs as 
faced by that state.
    Streamline and consolidate the program to effectuate timely results 
by reducing regulations, mandates and set-asides.
    Provide equity to states in the funding distributions by addressing 
needs based on formulas and consider issues such as: 1. eliminating 
demonstration project funding. While demonstration project funding is 
sought for constituent purposes, it distorts the concept of national 
funding of national transportation interests ( If the dollars that went 
into demonstration projects had instead been distributed by the 
existing ISTEA formulas, 36 states would have received more funding and 
only 14 would have received less. New Mexico would have received $56 
million more dollars based on allocation formulas provided under 
ISTEA.); and 2. recognize that access to and across Federal lands is a 
national interest that when ignored only penalizes those states least 
able to cope with the impacts of large Federal land holdings, and 
reauthorization should include those holdings as a criteria for 
distribution of Federal lands funds.
    I would like to use the rest of my testimony to present to you New 
Mexico's choice in the reauthorization proposals of ISTEA which we 
believe comes closest to the above principles and to provide you 
information that explains our issues further.
     new mexico's istea reauthorization proposal choice and support
    As I indicated to you earlier, New Mexico had not, until recently, 
supported any proposal. We have reviewed many proposals including STEP 
21, the Ohio proposal, DOT's NEXTEA, ISTEA Works, AASHTO, WASHTO, and 
others. In our final analysis, the proposal that we feel best supports 
the national interest and is fair to all the states is the Surface 
Transportation Authorization and Regulatory Streamlining Act (``STARS 
2000'') being prepared for introduction by Senators Baucus, Kempthorne, 
and Thomas.
    The STARS 2000 proposal sets forth a balanced and thoughtful 
approach to the highway program issues. This proposal 1) puts highway 
user taxes to work for taxpayers; authorizes highway program levels as 
high as the Highway Account of the Highway Trust Fund can sustain; 2) 
emphasizes investment in the National Highway System (NHS) and gives 
investment in the NHS greater emphasis than would be the case under 
other proposals; 3) provides states greater flexibility to determine 
how to invest funds while retaining appropriate program emphasis areas; 
4) reduces regulation; 5) achieves a fair national interest 
distribution of funds among states; and 6) continues the role of local 
governments, but also provides flexibility to states and localities in 
the use of funds by allowing them to develop multi-modal and intermodal 
transportation systems.
    STARS 2000 by reaffirming the national interest in Federal 
investment in highways and transportation facilities, represents a 
complete rejection of so-called ``turn back'' or ``devolution'' 
proposals. Although no one proposal we reviewed is the best for all 
states, the STARS 2000 proposal does the most for the most states and 
the nation. It is balanced and treats the Nation fairly; it strikes the 
balance between reducing program categories and maintaining reasonable 
Federal program emphasis areas; it emphasizes the NHS while maintaining 
reasonable requirements for expenditures on bridges, safety, 
enhancements, and for urbanized areas of 200,000 population. This is a 
good balance.
    As a final note about STARS 2000, New Mexico's strong belief about 
Federal lands highway provisions are recognized. STARS 2000 will 
increase the overall level of Federal Lands Highway investments by the 
same rate of growth as the overall program and make needed reforms to 
help direct the funding where the Federal Lands are located.
                             on the issues:
1. Investment in the National Highway System (NHS)
    It is important that the greatest program emphasis be given to the 
National Highway System as it is the NHS that ensures that the entire 
nation is well connected; it is the principal grid upon which people 
and goods move safely and efficiently across the country. While these 
roads make up only four per cent of the nations network, they serve 43 
per cent of all traffic and 75 per cent of heavy commercial vehicles.
    While it is clear that these roads are extremely important to the 
Nation as a whole, it is also known that a great deal of money is 
needed to maintain them and even more will be needed to improve the 
NHS.
    Therefore, New Mexico recommends that great emphasis be given to 
these important roads and through our analysis we find that STARS 2000 
does that.
2. Increase Federal Highway Program Levels
    Simply stated, the accepted proposal should allow states to invest 
the full level of funding which the Highway Account of the Highway 
Trust Fund can sustain. There are many reasons for this statement, but 
some important ones include:
    Investment in highways and related transportation facilitate 
economic growth, bring additional revenues to the states as well as the 
Federal Government through that investment and help keep American 
businesses internationally competitive.
    The Highway Account of the Highway trust Fund is supported by user 
taxes. Highway users have paid these taxes with a reasonable 
expectation that the money will be put to work for transportation 
purposes.
    Good transportation improves the personal mobility and quality of 
life of our citizens.
    The needs of our transportation network are vast and are not being 
met with current funding levels as I indicated before when identifying 
the growth in deficient miles in New Mexico. At present levels of 
Federal investment we are not able to maintain, much less improve, the 
current condition of our NHS and Federal-aid highway systems.
    It is our understanding that the current income of the Highway 
Account, interest on the balance in the Highway Account, and a gradual 
draw down of that balance, the Highway Account can sustain investments 
of $26 to $27 billion annually. Additionally, if the proposal made 
earlier this year at the National Governors' Association is adopted, 
the 4.3 cents per gallon of fuel tax currently being used for General 
Fund purposes will be deposited in the Highway Trust Fund and used for 
transportation purposes; then the Highway Trust Fund can sustain an 
even larger investment annually. Like many other states we have spoken 
to, New Mexico is very disappointed with the low funding levels 
proposed by the Administration. We urge the Congress to adopt much 
higher funding levels which we and so many others desperately need. 
Here again we find that the STARS 2000 proposal supports our position 
on this issue.
3. Distribution of Funds to Reflect the National Interest in Highways
    There is clearly a need to emphasize that the national need for 
investment in our region continues even though the Interstate highways 
have been built. We are now entering a period where major 
reconstruction of the Interstate is upon us. It is known that 
maintenance of those routes is solely a state responsibility, and an 
expensive one for New Mexico which has 2 percent of the nation's 
Interstate system and low population density. These highways enable 
agricultural products and natural resources to get from source to 
metropolitan markets and enable manufactured goods to move from coast 
to coast. They provide the nation's citizens with access to the 
country's national parks and the great outdoors. Clearly, investments 
of Federal highway funds in this region help the nation, not just the 
states in which the investments are made. Funding formulas must reflect 
this ideal.
    Rural states, while they provide connectivity to the national 
interest, are not able to pay for the Federal-aid system of roads 
without an influx of Federal funds. Rural states have few people to 
support each lane mile of highway; however, per capita income in our 
region is below the national average, our citizens pay considerably 
more per person into the Highway Trust Fund than the national average. 
Even though the argument about ``Donor'' (putting more into the Highway 
Account than they get out) and ``Donees'' (getting more than they put 
in) continues, it is the so called donee states like ours whose 
citizens, per person, are contributing more of their income into the 
Highway Trust Fund than the national average and it is our citizens who 
are carrying a heavier load on a per-capita basis for the national 
interest.
    Another item that needs to be considered in the distribution of 
funds to serve the national interest is the high percentage of land in 
this region which is either owned by the Federal Government or held in 
trust. Federal lands are generally not open for commercial or 
residential use, depriving a state of part of its tax base and in New 
Mexico this is a large per cent. Thus, states with large Federal land 
holdings have a significant impediment to the their abilities to raise 
revenue. These states still maintain significant Federal highway 
systems in and through Federal lands, which serve national interests. 
The point is that in addition to the national need to continue and 
improve a Federal Lands Highway Program, the general apportionment 
formula should reflect the special burden faced by States which must 
ensure transportation across or adjacent to Federal Lands.
    We agree with the STARS 2000 proposal in its approach to 
distributing funds of the Highway Account of the Trust Fund, which will 
be well served by a funding distribution formula which takes the 
following approach:
    Emphasizes extent and use of the Federal-aid highway system, 
particularly the extent of the Interstate and NHS routes. With Congress 
having directed that a National Highway System be designated, it is 
clear that there is a higher Federal interest in the Interstate and NHS 
than in other Federal-aid routes.
    Provides increased funds to States with low population densities 
and with a high percentage of land subject to Federal ownership or 
trusteeship. All of these factors tend to reflect the inability of 
rural States to pay for the national interest routes within their 
borders.
    Retains the mechanism for distributing highway funds to ensure that 
the Nation as a whole is served and to take into account the concerns 
of all areas by providing an appropriate minimum allocation.
4. Flexible Program Structure
    To serve the national interest, the authorization proposal approved 
by Congress should contain a balance between the different programs. 
There needs to be a balance between permitting States freedom to decide 
how to spend the money apportioned to them and telling them exactly how 
to spend it.
    As proposed, metropolitan planning funds will ensure that the urban 
and regional planning requirements under ISTEA are met.
    While the CMAQ program is eliminated as a separate category, 
projects remain eligible under the surface transportation program which 
is an appropriate mechanism for achieving the goals of this program.
    Bridges provide vital links of the transportation network and are 
an important factor in allocating transportation funds to insure needs 
are met. The proposal uses bridge deck area as a factor and makes these 
projects eligible under the Surface Transportation Program.
5. Obligation Ceilings
    Obligation limits unevenly penalize highway dependent states since 
they only apply to the highway program and not transit programs. 
Authorization in the new legislation should be closely matched to 
anticipated spending (obligational authority) to assure that all states 
are treated equally. Also, the practice of higher authorization limits 
than accompanying appropriations is a disservice to the citizens and 
the states since it leads the public into believing that the Federal 
Government is solving problems that should and could be addressed 
locally if the truth were known.
6. Regulation of States
    Regulations of states by the Federal Government should be reduced, 
not increased. States and the Federal Government have been moving to 
partnerships on issues. This has been working well and should continue; 
it is an effective way to handle issues in a positive way. Regulations 
tend to attempt to address issues of all states by assuming that states 
have the same roles, problems and needs, while in fact, they do not. It 
is well known that regulations are needed, however, when induced into 
most aspects of most programs, they become burdensome, ineffective, and 
prolong the time lines for states to accomplish their mission for 
effective and efficient transportation.
    AASHTO has developed methodologies to streamline and ease 
regulatory requirements. We believe that the AASHTO approach is correct 
and should be given strong consideration.
7. Additional Issues
    I have addressed the issue of demonstration project/program funds 
and the way they were awarded in ISTEA; however, I bring it up again 
because I feel it is important to realize the adverse impact the 
distribution of these funds had on New Mexico and many other states.
    We do not dispute the need for a national transit program, however, 
the goals should be better defined to assure that it fulfills a 
national purpose.
8. Intelligent Transportation Systems (ITS)
    In New Mexico, we have had some opportunities to participate on ITS 
programs. New Mexico obtained $1.985 million for research of what is 
known as the EURICA project, an Urban-Rural Intelligent Corridor 
Application. The purpose of this project was to research implementation 
of an integrated, regional, multi-modal intelligent transportation 
system that would combine transportation management and data collection 
functions, create a regional multi-modal transportation information 
system, provide a traveler information system, improve the efficiency 
of the transportation system, enhance the quality of public 
transportation, and improve the safety of the transportation system for 
its users.
    ITS can be successful. New Mexico participated in the HELP 
(CRESCENT) program to identify and implement technology to support pre-
pass of heavy commercial vehicles through states using transponders on 
heavy commercial vehicles and electronically reading information off of 
the transponders to provide registration and other needed information 
by the CRESCENT states to provide a pre-pass to ports of entry. By our 
use of weight-in-motion devices, heavy commercial vehicles are given a 
green light to pre-pass a port of entry helping the trucking industry 
by keeping its vehicles moving with minimal delay. This ITS project has 
gone from a demonstration to full production with more than 10 states 
participating. The future funding will be provided by users of this 
technology.
    New Mexico received an ITS grant of over $1 million to study 
technology applications at international ports of entry to determine if 
technological initiatives could be utilized in the processing of 
commercial goods through international ports to effectively save time 
at crossings. This study has recently begun and the research work is 
being performed.
    Other than the HELP/CRESCENT program, these ITS grants have been 
the exception rather than the rule. ITS has been a political rather 
than a technical process. ITS is not structured in a way that it is 
readily identifiable to the states of what is available for projects 
and/or programs. Future ITS funding should be allocated to benefit 
rural states as it now does states with large metropolitan areas.
                               conclusion
    Senators, I have covered quite a few items on the issue of 
reauthorization for transportation and infrastructure. Again, New 
Mexico's initiative is simple; keep the focus on the national interest, 
keep programs functional as needed by states, provide as much funding 
as possible, consider both the highway and the transit account in 
determining formula distributions, and make fair and equitable 
distribution of funds.
    With that, Mr. Chairman, I conclude my statement and will be 
pleased to respond to any questions the Committee may have.
                               __________
    Statement of Celia G. Kupersmith, Executive Director, Regional 
           Transportation Commission of Washoe County, Nevada
    On behalf of the Regional Transportation Commission (RTC) of Washoe 
County in Reno, Nevada, I appreciate this opportunity to testify on the 
reauthorization of the Intermodal Surface Transportation Efficiency 
Act, known as NEXTEA. At the outset, Mr. Chairman, I would like to 
thank you for holding this hearing in the state of Nevada and for your 
clear leadership on the original passage of ISTEA legislation in 1991 
and its reauthorization in 1997.
    The Regional Transportation Commission of Washoe County brings a 
unique perspective to the subject of ISTEA reauthorization due to our 
threefold mission. We are the builders and maintainers of the regional 
road network, with an annual work program totaling $34.6 million. We 
are also the Metropolitan Planning Organization (MPO) for the Reno 
area. Third, we provide public transportation services to eight million 
passengers per year, using 57 fixed route buses and 33 paratransit vans 
on 23 routes. In this multimodal arena of roads, transit, and 
transportation planning, we have worked closely with all major aspects 
of ISTEA.
    As stated by earlier speakers, the transportation problems 
associated with rapid growth in Nevada are tremendous. Significant 
multimodal infrastructure investments are needed to catch up with this 
growth curve and move forward.
    I will speak first to the structure of NEXTEA and then to the 
funding levels of the bill.
    Structurally, ISTEA works well. The ability to flex dollars to 
achieve both transit and highway solutions provides an excellent 
mechanism to address and solve problems. In Reno, we have successfully 
flexed $4.8 million in Congestion Mitigation/Air Quality (CMAQ) funds 
for bus purchases. Key to this successful flexing of funds is keeping 
CMAQ funds separate from other highway categories. We also support 
adjustments to the CMAQ program that would keep ``maintenance areas'' 
eligible for CMAQ funding.
    Speaking as the MPO director, continuation of the ISTEA planning 
and project selection process is critical. Approval of projects by both 
the MPO and the State ensures transportation projects which meet both 
state and local objectives in a coordinated and comprehensive fashion.
    With respect to proposed funding levels, we applaud provisions in 
the President's NEXTEA and FY98 budget proposals that retain the strong 
Federal role in the nation's surface transportation network. It is 
critical that the balance of highway and transit funding remain a 
``level playing field'', with roughly a four-to-one funding ratio 
between highway and transit programs.
    The use of new and innovative Intelligent Transportation System 
(ITS) technology is critical to moving people and improving air 
quality. ITS technology is particularly important in an area like Reno, 
a top tourist attraction, which is prone to emergencies such as floods, 
earthquakes, and severe winter storms. Four years ago, the TransCal ITS 
project linking San Francisco with Reno along the I-80 corridor was 
funded with ISTEA Intelligent Transportation System funds. Last year 
saw ITS funding approved for an innovative public-private partnership 
of transit services at the South Shore of Lake Tahoe. In NEXTEA, we are 
seeking authorization of an ITS system which will produce significant 
traveler benefits and ensure that Reno is able to fully participate as 
a partner in the I-80 corridor and South Lake Tahoe ITS projects. Our 
system, requiring $3.75 million in Federal funds, is based on an 
Automatic Vehicle Location system and would use ITS technology to 
improve traffic flow, customer convenience, and overall efficiency of 
the transit network in Reno. The Regional Transportation Commission 
also supports the return of the 4.3 cent Federal gas tax now used for 
deficit reduction provided that, after allocating one-half cent to 
Amtrak, the balance is split 80 percent for highways and 20 percent for 
transit. Taking the trust fund off-balance is supported to the extent 
that funding levels for transit and highway programs are not reduced as 
a result of this move. The goal is to take full advantage of all 
available revenues to meet the needs.
    Highway funding is critical to our western state. Our top priority 
for Federal highway demonstration funds is the extension of the I-580 
corridor from Reno to Carson City, the state capital located thirty 
miles south of Reno. Carson City is one of the very few state capitals 
not connected to the Interstate highway system. This $170 million 
project would build eight and one-half miles of freeway which would 
connect existing freeway sections just north and south of this missing 
link.
    In reference to the issue of formula allocation of gas tax 
revenues, also known as the donor/donee issue, Nevada is on the 
borderline between the two. In Reno, it is our hope that NEXTEA will 
place Nevada in the donee category or at least not worsen our present 
position.
    In conclusion, the Regional Transportation Commission strongly 
supports a continued Federal role in transportation and the 
continuation of the successful ISTEA legislation and its flexible 
funding provisions. Increased focus on ITS solutions, emphasis on 
intermodalism, and local, state, and Federal partnerships are keys to 
successfully meeting future challenges. Again, thank you for allowing 
me this opportunity to testify. I would be glad to answer any questions 
at this time.
                               __________
Statement of Robert G. MacLennan, General Manager, Metropolitan Transit 
                   Authority of Harris County, Texas
    Mister Chairman and members of the Subcommittee, my name is Bob 
MacLennan. I am the General Manager of the Metropolitan Transit 
Authority of Harris County, Texas, better known as Houston METRO.
    I appreciate the invitation to appear before you today to comment 
on the reauthorization of the Intermodal Surface Transportation 
Efficiency Act (ISTEA) and to tell you of the success Houston METRO and 
its governmental partners in the Houston region have had with the 
assistance provided by the current act in addressing what at one time a 
number of years ago was generally conceded to be the worst traffic 
congestion in the nation. Texans have a reputation for bragging but, as 
they say, if it's true it isn't bragging. I am here to tell you a true 
story of how we in the Houston area have developed a cooperative 
approach to regional mobility that is efficient and effective.
    Let me illustrate with this first graphic [#1].
    What this graphic denotes is the distance one could travel in a 
fixed period of time. This is a reasonable proxy for measuring traffic 
congestion in Houston. Note how the distance has grown in recent years, 
indicating that traffic congestion has been successfully addressed. In 
fact, statistics compiled by the Texas Transportation Institute at 
Texas A&M University indicate that traffic congestion in Houston has 
declined steadily over the past decade unlike that of most major 
cities. How has this been accomplished? Our approach has been somewhat 
unconventional but it demonstrates the flexibility that ISTEA has 
afforded and for which you and your colleagues should be commended.
    First, the governmental entities responsible for transportation in 
the region were galvanized by the enormity of the congestion problem in 
the mid-eighties to develop a cooperative, coordinated approach to 
solving the problem. Brought together and mentored by the Greater 
Houston Partnership, the region's chamber of commerce organization, the 
Texas Department of Transportation, Harris County, the City of Houston 
and METRO participated in developing a conceptual approach known as the 
Regional Mobility Plan. The parties then agreed to assume 
responsibility for various components of the plan.
    METRO is the region's mass transportation provider but the Texas 
Legislature saw fit to broaden METRO's powers to where it could become 
not only a participant but actually a leader in developing and 
implementing programs and projects benefiting general traffic as well 
as public mass transportation.
    METRO's role has been focused on putting into place what we call 
the Regional Bus Plan. This is our response to providing efficient, 
cost effective mass transportation in a large geographic area with 
relatively low population density--clearly a very difficult situation 
in which to provide mass transit. The next graphic [#2] illustrates the 
components of the Regional Bus Plan. It is a comprehensive mass transit 
program comprised of approximately 25 individual projects, whose 
independent utility provides for incremental improvements in facilities 
and services as projects are completed and immediately come on line. 
You and your colleagues have been instrumental in funding the Regional 
Bus Plan under a Full Funding Grant Agreement with the Federal Transit 
Administration for $500 million of the program's $1 billion cost. METRO 
is providing a matching $500 million from local resources.
    A keystone of the Regional Bus Plan is the High Occupancy Vehicle 
lane network as illustrated on the next graphic [#3]. This 104 mile 
network is approximately 64 percent completed. Buses, vans and carpools 
operate in the barrier separated HOV lanes in the medians of the 
region's major freeways [photo #4]. Rail system-like performance is 
achieved by frequent service and direct access from the park&ride lots 
to the HOV lane [photos #5 & #6].
    Another key feature of the Regional Bus Plan is the rebuilding a 
the region's traffic signals into a centrally monitored and controlled 
Regional Computerized Traffic Signal System or RCTSS. METRO, with 
Federal Transit Administration funding, is rebuilding those signals 
impacting on METRO's bus operations. The Texas Department of 
Transportation and the other local governments are rebuilding non-bus 
related signals and they are tied together in a central control 
facility we call TranStar. We are very proud of this state-of-the-art 
facility and the multiagency cooperation of which it is, literally, a 
concrete example [photo #7]. Not only does TranStar afford the 
opportunity to monitor traffic but it permits real time adjustment of 
signals to respond to situations. Incident response is also coordinated 
from TranStar as are emergency management functions. METRO dispatches 
its buses and police from the this facility [photo #8].
    Not only have travel times decreased steadily in Houston, but mass 
transit use has increased. For example, daily passenger trips on the 
HOV lanes have risen from 65,400 in 1991 to 81,300 in 1996--a 24 
percent increase. During peak hours, the HOV lanes are carrying up to 
the equivalent of 2 1/2 times the passengers of the adjacent main 
lanes. Put another way, without the HOV lanes the freeways would have 
to be six lanes wider to carry the same load. Houston's HOV lanes have 
been built at an average cost of $7 million to $10 million per mile. 
Compare this to $30 million to $300 million per mile for light rail or 
subway construction and you can see the bargain the HOV lanes 
represent.
    The Regional Bus Plan relies on Intelligent Transportation System, 
known as ITS, concepts and technology to achieve rail-like performance 
at a fraction of the cost. For example, METRO is developing the ``smart 
bus'' [photo #9] to give real time location and schedule information. 
Better informed patrons are more frequent riders. In addition, METRO is 
a participant with the Los Angeles Metropolitan Transportation 
Authority and Northrup/Grumman in development of the Next Generation 
Bus. This carbon fiber bus is lighter and more fuel efficient than 
current vehicles so that it may be operated less expensively than 
current models and is not as destructive of the streets. METRO is also 
an industry leader in application of alternative fuel technology to 
mass transit. In our case this is with Liquefied Natural Gas buses 
[photo #10]. While this technology is not currently cost competitive 
with conventional diesel buses, we are confident further development 
will reduce the cost differential and provide a cleaner burning, lower 
emissions vehicle.
    The Regional Bus Plan has proven to be the right transit solution 
for Houston. Houston's total transit ridership is greater than the 
combined bus and rail ridership of Atlanta or Miami or San Diego--
cities with comparable characteristics but with expensive rail systems 
in addition to their bus systems. The Regional Bus Plan is drawing 
worldwide attention as a model of how to serve an increasingly 
suburbanized area efficiently and at reasonable cost. Even older 
European cities such as London and Paris have sent representatives to 
study METRO's approach, as have delegations from Moscow, Beijing, 
Mexico, South America and Australia. The old expression is ``build a 
better mousetrap and the world will beat a path to your door.'' We 
believe the Regional Bus Plan is that ``mousetrap'' for Sun-belt 
communities such as ours.
    As satisfied as we are with the success of the Regional Bus Plan, 
we are not resting on our laurels. We are actively developing what we 
call the Advanced Regional Bus Plan to address our region's 
transportation needs to the year 2020 [photo #11] . We will build on 
today's Regional Bus Plan and take advantage of technology development 
such as that fostered by the Automated Highway System Consortium to 
provide faster, more efficient and less costly solutions to our 
transportation needs. We have submitted testimony in both the House and 
Senate on our specific program and are seeking an earmark in the next 
surface transportation act to continue this program. We would 
appreciate your favorable consideration of our request.
    In closing, I would re-emphasize that an essential element of the 
Houston region's program is what may be an unprecedented level of 
intergovernmental cooperation. We have put aside our parochial 
interests and learned to work together as a team. That may have 
initially been the fortuitous circumstance of Houston's current mayor, 
Bob Lanier, having served at various times as chairman of the Texas 
Transportation Commission, chairman of METRO and now chief executive of 
the City of Houston. Bob Lanier has put us together but we have learned 
that it works and I believe it is a situation that is now 
institutionalized and will continue long after Mayor Lanier, me and 
others have moved into retirement.
    Thank you again for your support and for the opportunity to tell 
our story. I hope you don't think I was bragging--I'm just very proud 
of what we have done and are doing.
    As you consider the reauthorization of the next surface 
transportation act, you can look with pride at what ISTEA and its 
predecessors have accomplished and know that if you continue on the 
path it has set you will have others appear before you in the future 
with success stories to tell.
                               __________
Statement of Kurt Weinrich, Regional Transportation Commission of Clark 
                             County, Nevada
    Mr. Chairman, Senator Reid, Members of the Subcommittee, I am Kurt 
Weimich, Director of the Regional Transportation Commission of Clark 
County, Nevada. I thank you for the opportunity to testify on project 
and policy issues related to the Intermodal Surface Transportation 
Efficiency Act of 1991 (ISTEA) and I wish to have my remarks entered 
into the record.
                               background
    The Regional Transportation Commission of Clark County, Nevada is a 
public entity created under the laws ofthe State of Nevada with the 
authority to operate a public transit system and administer a motor 
fuels tax to finance regional street and highway improvements. In 
addition, the RTC was designated by the Governor as the Metropolitan 
Planning Organization (MPO) for the Las Vegas Valley. The RTC is not 
only a multimodal planning entity, but also a multimodal service 
provider. As well as funding well over $100.0 million annually in new 
roadway construction, the RTC operates a mass transit system that moves 
more than 3.0 million passengers a month and recovers nearly 50 percent 
of its operating and maintenance costs from the farebox. (See Exhibit 
A).
    Over the last several years, the Las Vegas metropolitan area has 
experienced phenomenal growth. As shown in Exhibit B. between 1980 and 
1996, population and employment increased well over two-thirds and 
current projections indicate that population will exceed 2.0 million 
residents and employment will exceed 750,000 by the year 2015. 
Currently, over 5,000 new residents move to the Las Vegas Valley each 
month. With Nevada's positive business climate, strategic location, and 
reputation as a tourist destination, it is clear why Las Vegas is the 
fastest growing urban area in the United States. The historical trends 
demonstrate that the RTC's task of planning, funding, and operating a 
multi-modal transportation system is becoming increasingly more complex 
from year to year.
                            project requests
    Since Congress approved ISTEA of 1991, the RTC has made substantial 
progress toward developing a multi-modal transportation system. In 
1992, the RTC initiated the Citizens Area Transit (CAT) system, which 
was the largest single startup of new bus service in an urban setting 
funded entirely with local funds. CAT has proven extraordinarily 
successful. Between 1993 and 1996, annual CAT ridership has grown from 
14.9 million riders to 35.0 million; an average annual growth rate of 
44.0 percent (See Exhibit C). This rate of growth is faster than the 
growth in population, employment, hotel rooms, visitor volumes, airport 
passengers, vehicles miles traveled, auto registrations, and new home 
sales in the same time period. In summary, CAT eldership growth leads 
the regional indicators for economic and population growth. This 
clearly and unequivocally leads one to conclude that Las Vegas has, in 
fact, embraced mass transit.
    Despite the dramatic growth and expansion of CAT, the Las Vegas 
Valley continues to experience rising congestion levels, especially in 
the area known as the resort corridor. Currently, over 50 percent of 
regional employment is within the resort corridor, yet 93 percent of 
the area residents live outside this area. In 1996, 70 percent of all 
trips in the Las Vegas Valley either traveled to, from, or through the 
resort corridor. To meet projected levels of travel demand without 
adding new mass transit services, the Las Vegas Valley would need to 
add 18 lanes of arterial capacity in the north-south direction and 21 
lanes in the east-west direction.
    To frame the solutions to these growing problems, the RTC has fully 
utilized the planning provisions of the ISTEA. Specifically, the RTC, 
as the public transit authority and the MPO, sponsored a Major 
Investment Study (MIS) for the resort corridor to evaluate the 
effectiveness of multi-modal solutions to regional mobility issues. The 
MIS process led to the RTC adopting a Master Transportation Plan that 
includes a fixed guideway element and an enhanced bus element. The RTC 
also participated in the preparation ofthe U.S. 95 Major Investment 
Study which evaluated alternatives for moving people between the Resort 
Corridor and the rapidly growing Northwestern areas of the Las Vegas 
Valley.
    The proposed fixed guideway system (depicted in Exhibit D) contains 
18.4 miles of double track, all elevated, automated guideway, providing 
service to 28 stations and three major terminal stations. The system 
includes a core system and an extension to McCarran International 
Airport. The core system consists of 15.6 miles of guideway, 25 
stations and two major terminals.
    The objective of the fixed guideway system is to provide residents 
and visitors with environmentally clean, cost effective public 
transportation services that will meet the dramatically increasing 
transportation needs of the Las Vegas Valley. Specifically, the project 
is designed to provide the necessary transportation infrastructure and 
service needed to accommodate increased trip making demands that will 
occur in the Las Vegas Valley by the year 2015, such that levels of 
congestion and mobility opportunities do not deteriorate below the 
conditions experienced in 1995. The RTC is seeking an authorization in 
the ISTEA legislatiomn being developed by Congress of $405.57 million 
over a 5 year period for this project. Given a total project cost of 
$1.141 billion, the amount requested represents a significant local 
overmatch.
    The second project defined by the MIS is an expansion of the CAT 
system. Even with the overwhelming success of CAT, only 36 percent of 
the current routes operate more frequently than once per hour. Many 
routes operate well in excess ofthe 150 percent capacity standard. 
Additionally, with the continued growth and development of the Las 
Vegas valley, many new residential developments are not yet included in 
the service area. While the demands for the service seem to increase 
daily, the RTC is severely constrained by a lack of rolling stock. 
Simply stated, additional vehicles are necessary to increase service 
within the community.
    To meet this need, the RTC is seeking an authorization in the ISTEA 
legislation being developed by Congress of $75.25 million to increase 
the current bus fleet by 300 revenue vehicles and to develop a 
maintenance and storage facility for those additional vehicles. The 
additional vehicles will be used to extend existing routes to connect 
residential and employment centers, increase frequencies on all routes, 
and add express limited stop and community circulator services. The MIS 
estimated that the increased system will carry approximately 350,000 
riders per day when fully implemented.
    The RTC respectively requests that Congress authorize both the 
Resort Corridor Fixed Guideway System and the CAT bus expansion program 
in ISTEA legislation at the requested levels of funding.
    In addition to the projects sponsored by the RTC, the RTC also 
fully supports the efforts of the Nevada Department of Transportation 
to widen U. S. 95 between SummerlinParkway and the Spaghetti Bowl. This 
segment of freeway is the most congested freeway in Nevada and the NDOT 
proposes widening this facility to 10 lanes, including HOV lanes for 
use by transit and carpools.
                             policy issues
    The RTC believes that the metropolitan planning processes outlined 
in the Intermodal Surface Transportation Efficiency Act of 1991 are 
fundamentally sound and should be retained in the reauthorization 
process. Indeed, for Nevada, the MPO element of ISTEA has clearly 
proven itselfuseful in the completion ofthe two Major Investment 
Studies that have outlined the projects contained herein. The MIS 
process has served as an excellent tool to help coordinate consensus, 
develop appropriate financial plans, and establish the locally 
preferred alternative.
    The RTC also supports the tenants ofthe Surface Transportation 
Program. The decisionmaking authority allocated to MPOs has proven 
effective with respect to RTC leveraging STP funds with local funds for 
regionally significant projects. The RTC believes that the STP's broad 
statutory mandate should remain and that an increased emphasis should 
continue on the flexible use of funds in the reauthorization proposal. 
In fact, the RTC, working cooperatively with the NDOT, is now in the 
process of''flexing'' $1.4 million of STP funds for mass transit 
expansion in the Las Vegas Valley.
    The RTC encourages the Subcommittee to consider a reauthorization 
proposal that leaves the option of whether to transfer funds from the 
STP to the FTA capital program a local and state decision as it 
pertains to project implementation. Specifically, we would recommend 
that a transit agency and a State DOT be permitted to move forward with 
project financing without having to take the steps of transferring 
funds to the FTA capital program and then subsequently applying for 
those funds through the FTA grant process. The advantages of this 
strategy include reducing administrative burdens and the facilitation 
of a streamlined approach for the development of creative financing 
schemes through mechanisms such as infrastructure banks, certificates 
of participation or state revenue bonds.
    Furthermore, we recommend that the Subcommittee require that such a 
flexible approach only be allowed after the completion of an MIS, local 
adoption of a preferred investment strategy, and creation and execution 
ofthe appropriate financial arrangements between the State DOT and the 
public transit authority. By coupling project financing requirements to 
the MIS, Congress will improve the strength of the MIS process, 
encourage intergovernmental cooperation, and assure that Federal 
requirements are included at the earliest stages of the planning 
process. Already, FTA and FHWA are active participants in the MIS 
process and therefore both agencies have ample opportunity during 
project development to ensure that STP funds are expended in a manner 
that meets local, state, and national objectives.
    Currently, many state DOTs use Federal funds to back bonds sold to 
support roadway improvements. By encouraging direct STP financing of 
transit projects through a state DOT, public transit authorities may be 
better positioned to lower their financing costs for major investments. 
This would be possible because the transit agency will benefit from 
using the creditworthiness and bonding capacity of state government.
    Thank you for your consideration and your continued support.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
      Statement of the FMC Corporation, Lithium Chemicals Division
    FMC appreciates the opportunity to provide testimony to the 
Committee concerning ISTEA reauthorization and the use of concrete in 
building and rebuilding our nation's infrastructure. In particular, FMC 
would like to bring to the Committee's attention the benefits Lithium 
compounds provide in preventing cracking and deterioration of concrete, 
thus reducing durability, caused by alkali silica reactivity (ASR).
    Alkali Silica Reactivity (ASR) in Portland cement concrete occurs 
when alkalis in the cement react with certain reactive aggregates in 
concrete to solubilize silica. This silica forms complexes or gels, 
which swell in the presence of moisture, creating large internal 
pressures which result in cracking of the paste and deterioration of 
the aggregates. As this cracking occurs the semi-fluid gel can migrate 
into cracks and voids, combining with additional moisture. This causes 
the cracking to spread, causing the concrete structure to expand in the 
direction of least resistance. The cracks themselves can weaken or 
degrade the condition of the structure, negatively impacting strength 
and durability. In addition, the cracks allow the ingress of moisture 
and salts in the concrete precipitating more traditional damage due to 
effects such as freeze-thaw, corrosion of reinforcement, and sulfate 
attack. Traffic loading and environmental conditions precipitate the 
degree of damage to the structure which can ultimately result in 
premature failure.
    Studies sponsored under the National Cooperative Highway Research 
Program found deterioration of infrastructure at a faster pace than 
expected--in other words, the full life-cycle of roads, bridges, and 
decks constructed with concrete over the course of the interstate 
system was not being realized. In the 1987 ISTEA reauthorization, 
Congress recognized the need to address these problems. Thus, the 
Strategic Highway Research Program (SHRP) was founded as a unit of the 
National Research Council to take a more technical in-depth look at the 
problem. SHRP recognized that alkali silica reactivity (ASR) is a 
problem encountered in concrete in almost every state and that it is a 
major cause of concrete deterioration. Under SHRP, ASR was more clearly 
defined, methods of testing were developed, and potential solutions 
identified.
    The most effective solution to prevent ASR identified in the SHRP 
program involved the addition of Lithium salts to concrete. Under this 
study it was determined that the best Lithium salt to use was Lithium 
Hydroxide Monohydrate. It was theorized that Lithium works by reacting 
with the soluble silicates to form a gel that does not absorb water and 
does not swell, thus preventing any cracking. This was shown to be very 
effective in the laboratory and in one test in the field in 
Albuquerque, NM. Tests under the SHRP program also indicated that if 
Lithium is allowed to penetrate into concrete, it will stop the 
reaction thus stopping any further cracking. However, funds for the 
project were exhausted before this system could be optimized.
    SHOP also reviewed the use of Class C and F fly ash as materials to 
mitigate ASR. These results and those of many other researchers have 
determined that Class C fly ash alone had little effect on preventing 
ASR, and in fact in many cases can exacerbate the problem. The use of 
Class F fly ash alone seemed to slow down ASR deterioration. In 
addition, testing indicated that Class F fly ash effectiveness was 
greatly reduced in the presence of salts such as those used as deicing 
agents. However, when Class C or F fly ash were used in combination 
with Lithium salts, even in the presence of high deicer salt loadings, 
expansion was fully controlled.
    Having completed research on prevention of ASR, demonstration 
projects utilizing Lithium are currently underway in several states 
(NV, NH, PA, SD, VA, WY) supported through a mix of Federal (FHWA), 
State and private dollars. Preliminary results show that concrete made 
with Lithium salts do not suffer ASR, while control areas (without 
Lithium salts) are cracking due to ASR. However, the need to develop a 
statistically significant data base on Lithiumbased ASR prevention 
continues. In addition, FMC has funded additional research at a number 
of Research Centers determining that Lithium Nitrate is actually the 
preferred Lithium salt to use, and is studying further enhancements 
obtained by combining this material with fly ashes.
    Additional research and demonstrations on means by which to 
mitigate ASR in existing structures, thus extending useful life, must 
also be undertaken. Such research would ultimately save Federal and 
State governments by extending the useful life of pavements that would 
otherwise need replacement. To date, SHRP has dedicated only $2 million 
to ASR research and development; FMC has provided an additional $3 
million.
    As part of ISTEA reauthorization, FMC encourages the Committee to 
continue SHRP with funding designated specifically for ASR prevention 
demonstrations and ASR mitigation research and demonstrations, as it 
relates to concrete durability. Additionally, research needs to be 
conducted to determine effects and prevention of ASR in high 
performance concrete, where ASR cracking could be considerably more 
critical that in standard pavement. Specifically, FMC would emphasize 
the identified value of Lithium salts in combating ASR and requests 
that the Committee direct SHRP to conduct additional Lithium based 
demonstrations in both prevention and mitigation efforts.
    FMC is anxious to work with Federal and State highway managers to 
promote the use of concrete in highway construction and to insure the 
durability of this material to achieve the best life-cycle cost 
available to the industry today. Achieving the full life-cycle of 
concrete in this application ultimately will reduce the nation's 
dependence on short-term solutions and significantly reduce maintenance 
and repair costs. The material cost increase of using Lithium salts to 
prevent ASR is approximately $8-14 per cubic yard, depending on the 
cement used. This is a small percentage of actual materials cost (5-10 
percent), and negligible when calculated against total project costs. 
Thus, the value of using Lithium salts to achieve the full life-cycle 
of roads (25-40 years) and bridges (50-75 years) is extremely cost 
effective. Additionally, Lithium salts are the only concrete admixtures 
which preserve local producers flexibility to compete in the concrete 
market by allowing the use of local sources of cement and aggregates.
                               __________
    Statement of the City of Reno, NV: Charles McNeely, City Manager
                                                     March 28, 1997

    The Honorable Harry Reid
    United States Senator
    Reno, Nevada 89501

    Dear Senator Reid: Please accept this letter as a statement from 
the City of Reno for the record being developed at the field hearings 
of the Subcommittee on Transportation and Infrastructure of the Senate 
Committee on Environment and Public Works, held Friday, March 28, 1997, 
Las Vegas, Nevada, on issues involved in reauthorization of the 
Intermodal Surface Transportation Efficiency Act of 1991 (``ISTEA'').
    The City's purpose in submitting this statement is two-fold: First, 
to publicly express appreciation to you and Senator Richard Bryan for 
your leadership and continued encouragement to achieve a negotiated 
solution for mitigation of adverse impacts to public health, safety and 
environment in the Reno/Sparks/Truckee Meadows Basin resulting from 
railroad operations of the Union Pacific/Southern Pacific (UP/SP) 
merger approved by the Surface Transportation Board (``STB'') in 
Decision No. 44, entered August 12, 1996, in Finance Docket No. 32760; 
and second, to report for the record, again with attribution to your 
efforts, that the City and Railroad have reached an agreement in 
principle calling for (1 ) depression of the railroad tracks in the 
existing right-of-way through the City, thereby eliminating some 10 
grade crossings, at a current estimated cost of some $180 million, (2) 
funding contribution by UP (UP's present offer is $35 million), and (3) 
joint efforts to secure necessary additional funding from public and 
private sources. \1\
---------------------------------------------------------------------------
    \1\ The City shares the view that a negotiated solution is better 
than a litigated result. Although a satisfactory written Memorandum of 
Understanding (``MOU'') is anticipated, in the meantime the City has 
continued to pursue judicial review of the STB Decision. The City also 
continues to participate in the 18-month study ordered in Decision No. 
44.
---------------------------------------------------------------------------
    During the recent March 20th meeting in Washington with you, 
Senator Bryan and Congressman Jim Gibbons (represented by Steve Swan), 
representatives of the City and UP reported on the progress of their 
negotiations and identified the various funding sources and mechanisms 
being considered. The discussion lead by you and Senator Bryan was 
marked by fair and frank dialog among all involved. It served to more 
clearly define finance issues and focus the parties' energies. It was a 
positive and constructive session.
    As a followup on the next day, March 21 st, the City conferred at 
some length with Federal Railroad Administration (``FRA'') 
Administrator Jolene Molitoris, Deputy Administrator Donald Itzkoff and 
staff. Discussions with FRA emphasized the trade and transportation 
corridor impacts of the Reno/Sparks/Truckee Meadows situation. 
Positioned on the Central Corridor of rail transportation linking the 
West Coast (and particularly the Port of Oakland) with the Midwest, it 
has been noted that the unresolved mitigation of adverse merger impacts 
in the Reno/Sparks/Truckee Meadows Basin effectively acts as a barrier 
to achieving safe, economic and efficient rail service in the Corridor 
just as do the physical height limitations of the rail tunnels in the 
Sierras between Reno and Sacramento.
    Because of the UP/SP merger, the transit distance in the Central 
Corridor will be shortened by some 400 miles between northern 
California and Chicago, correspondingly, the transit time also will be 
shortened and operating efficiencies gained. Additionally, bi-
directional flows of rail traffic will expand Corridor capacity. The 
expansion plans to facilitate Pacific Rim import/export trade through 
the Port of Oakland are in large measure dependent upon intermodal rail 
transportation through the Central Corridor. As a consequence, 
mitigation of merger-related impacts should not be viewed as merely a 
parochial concern of the Reno/Sparks/Truckee Meadows Basin, but as one 
involving trade and transportation between the West and the Midwest 
over the Central Corridor. In sum, the local Nevada character of the 
merger impact clearly has regional and national implications, as well 
for domestic interstate and foreign commerce.
    Discussions with FRA were encouraging that for a variety of 
reasons, not the least of which include public benefits in adequate 
protection of health, safety and environment (air-water-
noisecongestion), energy conservation, as well as enhanced land use and 
economic development, there may be Federal funds or funding mechanisms 
to assist the project through options that may be available under the 
National Economic Crossroads Transportation Efficiency Act of 1997 
(NEXTEA), offered by the Administration, the successor reauthorization 
of the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA).\2\ The City and FRA's approach will be to explore new or 
additional funding criteria that will not jeopardize completion of 
existing infrastructure projects in the State of Nevada's 
Transportation Improvement Program (``TIP'') and its overall 
Transportation Plan. FRA has committed to work closely with the parties 
to pursue innovative funding alternatives at both Federal and state 
levels. In FRA discussions the public/private partnership between the 
City and Railroad in this project was also highlighted, as was the 
potential for ``win-win'' solutions and mutual benefits, in the 
proposed mitigation.
---------------------------------------------------------------------------
    \2\ Congressman Gibbons has included consideration of the Reno 
project in his February 25 letter to Chairman Petri, of the Surface 
Transportation Subcommittee of the House Committee on Transportation 
and Infrastructure.
---------------------------------------------------------------------------
    Further meetings with the Department of Transportation (``DOT''), 
particularly Associate Deputy Secretary of Intermodalism Michael 
Huerta, and the Federal Highway Administration (``FHWA'') are being 
scheduled for the near future; with the former, to emphasize the 
project's relation to integration and connectivity of trade, 
transportation infrastructure and port activity; and with the latter, 
to point out the project's impact on two U.S. highways with the view of 
better preservation, maintenance and management of the system.
    The City has been working with Governor Miller's office, the Nevada 
Department of Transportation (``NDOT''), Washoe County and the City of 
Sparks to have the Reno/Railroad project become an ``included project'' 
within the State TIP and to evaluate funding options and strategies 
available within the state to implement the project. The leadership and 
members of Nevada's legislature, now in session, when apprised of the 
consequential merger impacts and proposed mitigation, demonstrated 
their support and cooperation. In addition, the private sector 
businesses benefited by the proposed mitigation plans have stated their 
willingness to participate in the resolution in order to enhance the 
economic development of the area.
    All in all, the City is confident that the agreement with the 
Railroad for proposed mitigation, contribution of funds and joint 
efforts to identify and secure additional funding will produce a 
completed project which in the long term will not only benefit the 
interest of the City and the Railroad, but Nevada and the Nation as 
well.
    Be assured the public/private partnership you have helped forge 
will not disappoint your efforts. Periodic reports on progress will be 
provided to you and other members of the Nevada Congressional 
delegation.
    The City appreciates the opportunity to present this statement. 
Thank you.
            Sincerely,
                                           Charles McNeely,
                                                  Reno City Manager
                               __________
   Statement of Daniel B. Lovegren, National Association of Railroad 
                               Passengers
    The National Association of Railroad Passengers (NARP) is an 
alliance of railroad passengers and citizens who want a transportation 
choice in this country. NARP is the only national organization speaking 
for the users of passenger trains, and works for the retention, 
improvement, and expansion of the passenger rail alternative in the 
United States. NARP Region XII represents the users and supporters of 
passenger train services in California, Hawaii, and Nevada.
    The Senate Environment and Public Works Transportation and 
Infrastructure Subcommittee is urged to support the following items:
    1) The creation of a gas-tax half-cent capital trust fund for 
Amtrak, and
    2) Flexibility for states to use some of their National Economic 
Crossroads Transportation and Efficiency Act (NEXTEA) money on 
passenger trains if they choose.
    To underscore these recommendations, it is important to note that 
in May, 1995, NARP commissioned questions for inclusion in one of the 
weekly nationwide telephone polls conducted by Bruskin Goldring 
Research. This poll found 63 percent support both for earmarking a full 
penny of the gasoline tax for intercity passenger rail and for giving 
states the right to spend their flexible Federal transportation dollars 
on intercity passenger rail.
    It is appropriate for the Senate Environment and Public Works 
Transportation and Infrastructure Subcommittee to conduct a field 
hearing in Las Vegas, as Las Vegas is scheduled to lose all Amtrak 
service after May 10 of this year. The loss of the Los Angeles-Las 
Vegas-Salt Lake City-Denver-Chicago Amtrak route will represent a 
serious blow to the concept of Amtrak as a national service. Amtrak 
cannot be considered a viable national system when it fails to serve 
Las Vegas, the entertainment capital of the nation.
    It is inconceivable that one of the United States' most attractive 
tourist destinations will be without rail passenger service, with only 
a slight possibility that trains may return at some time in the future. 
Other parts of the country are enjoying improvements in Amtrak service 
at the expense of the residents of the southwestern United States. 
Florida's Disney World and its environs is a specific example.
    Las Vegas has worked hard over the past decade or so to become a 
world-class family destination, and attracts visitors from all over the 
globe. Many millions of dollars have been invested in McCarran Airport 
to accommodate the influx of tourism. As an alternative, Amtrak service 
should not be left out of the transportation choices equation.
    Finally, although the aforementioned ``flexibility'' provision will 
help, local governments such as Clark County, the City of Las Vegas, or 
the State of Nevada should not be expected to shoulder the full burden 
of continued and improved rail passenger service to Las Vegas. Due to 
Las Vegas' nature of attracting visitors from all over the country, 
rail transportation improvements in Las Vegas constitute a benefit to 
the entire United States.
                               __________
     Testimony of Ronald D. Byrd, Chairman, ACEC'S Transportation 
                         Subcommittee on ISTEA
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to be with you today to testify on the reauthorization of 
the Intermodal Surface Transportation Efficiency Act. My name is Ronald 
Byrd. I am the Executive Vice President and part owner of SEA, 
Incorporated. SEA, Incorporated is a Consulting Engineering design firm 
with offices in Reno and Las Vegas, Nevada and Phoenix, Arizona 
employing approximately 150 people. SEA, Incorporated has provided 
consulting design services for the Nevada Department of Transportation, 
the Arizona Department of Transportation and many local and regional 
highway agencies. Today however, I represent the American Consulting 
Engineers Council (ACEC).
    ACEC is the largest trade organization of its kind, representing 
approximately 5,000 consulting engineering firms from across the 
country, employing some 200,000 people. Our members are consultants to 
public and private entities, and furnish professional services in 
planning, engineering, maintenance, and operation of our nation's 
transportation systems.
    It has been said, Mr. Chairman, that the wealth of our nation did 
not build our transportation system, but rather, our transportation 
system created the wealth of our country. Consulting engineers 
understand and appreciate this basic relationship between 
infrastructure and industry. We have been involved with planning, 
designing, constructing, maintaining, and enhancing these 
infrastructure projects. We also planned and designed the projects that 
accompanied the massive economic development triggered by the resulting 
arteries of commerce and prosperity.
    For years, our nation's transportation system has been the envy of 
leaders and businesses around the world. However, as each year passes 
in which we fail to maintain our infrastructure we are, in effect, 
withdrawing from our long-term investment and leaving a deficient 
transportation system for the next generation. In an era of scarce 
Federal resources to fund transportation projects, we simply must do 
better with the funding we have if our nation is to continue to prosper 
and grow in the 21st Century.
    Last year, ACEC was asked and accepted your challenge to look at 
how we can accelerate the delivery of transportation projects. We 
believe we can improve the delivery of transportation projects at a 
reduced costs to the taxpayer while, at the same time, enhancing public 
input, achieving the environmental goals set forth under the National 
Environmental Policy Act and other laws, and improving quality. We 
accepted this challenge Mr. Chairman and I am pleased to present to you 
and the Members of this distinguished Committee, ACEC's vision for 
ISTEA II.
    ACEC's report is divided into four section: Funding for the Future, 
Partnerships for Quality, Accelerating Project Delivery, and Quality 
Through Competition. I will limit my remarks to the recommendations 
contained in the Accelerating Project Delivery section of the report 
since these proposals focus directly on environment and planning 
issues. I encourage you to read the entire document which contains 
additional recommendations and I will be pleased to answer any 
questions that you may have on the other sections of the report.
    I believe we can all agree that it is taking too long to deliver 
badly needed transportation projects to the American public. On 
average, it takes 10 years to plan, design and construct a major 
transportation project. We believe this time can be reduced by 30 
percent.
    Currently, there are delays in issuing permits after environmental 
documents have been certified. There are unnecessary, duplicative and 
burdensome regulations that impact the day-to-day work. Finally, there 
are numerous levels of government that are enmeshed in an institutional 
and organizational web where accountability is frequently unclear and 
where resources do not necessarily follow responsibilities. Mr. 
Chairman, we have included examples of these with our testimony but I 
suspect that you may have some of your own examples of projects that go 
on for years at tremendous cost to the taxpayer.
    To improve the planning component of project delivery we propose 
to:
    Establish inter-agency environmental units in each state.
    In order to avoid delays associated with this bureaucratic 
quagmire, ACEC recommends that inter-agency environmental units be 
established in each state empowered to directly and expeditiously 
address environmental issues. These environmental units, that would be 
funded by transportation revenues and housed near Federal and state DOT 
offices, would focus their resources to issue a single approval. In 
addition, incentives should be provided for the state agency to 
accomplish its work on time, on budget, and according to standards.
    Through a series of cooperative interagency agreements between 
state and Federal environmental agencies, this unit would be empowered 
to administer, review and approve environmental documents. Specific 
situations may require that the unit would directly contact a source 
agency to resolve a particular issue. Acting as a surrogate staff of 
the agency, the environmental unit manager would know the detailed 
local situation, who to contact in the Federal agency, and be able to 
expeditiously coordinate followup activities. We believe this 
management realignment alone could save a significant amount of the 
time required to prepare an environmental document.
    Our proposal is not intended to change the goals set forth in the 
National Environmental Policy Act or other related environmental laws. 
We wholeheartedly support a strong environment. Our goal is to address 
the process issues which end up adding substantial time and cost to the 
transportation projects.
Enhance Public Involvement
    The current delays encountered in the existing stop-and-start 
process associated with public involvement are further exacerbated by 
the NEPA process. Milestone documents are required to be published and 
circulated with one--or two--month review times for the public. 
Subsequently, a written response must be prepared and documented for 
each concern or for similar concerns. While this occurs, the work on 
the project is all but halted. Often the environmental documents 
provided to the public for review are voluminous and complex, and 
describe the project in technical terms not easily understood by the 
general public. As a result, the documents are read and understood by 
only a limited number of people.
    The public involvement process required by the existing regulations 
could be simplified and shortened if information were provided in 
smaller packages at more frequent intervals in an informal process. 
Smaller public meetings to focus on specific local issues would also 
enable planners to better address the well-defined needs of specific 
locations. Additionally, increased use of the Internet to disseminate 
information about a project should be encouraged. This low-cost method 
of providing information to a large number of people would benefit both 
the public and the planners by reducing or eliminating the existing 
stop-and-go process.
Centralize Digital Mapping Products
    Good base maps are the single most critical element of 
environmental infrastructure and land use planning. The U.S. Geological 
Survey's quadrangle maps are used by civil engineers, water resource 
scientists, environmentalists, geologists, and the general public to 
answer a myriad of questions. Many other Federal and state agencies 
possess paper and digital mapping products they have developed for 
their agency's use. Maps currently available to the public provide 
value far beyond the cost to produce them. The USGS maps have been in 
use for many years and are available in paper form from the US 
government.
    ACEC supports acceleration of the National Digital Orthophoto 
Program (NDOP) to ensure completion of a nationwide inventory of high-
resolution, accurate, digital imagery to supplement and update existing 
USGS topographic maps for transportation planning. The NDOP, which is 
administered by the U.S. Geological Survey's National Mapping Division, 
is a collaborative effort between government and the private sector.
    The NDOP pools funds from several Federal agencies, and state 
governments, including some state transportation departments, and 
relies on private contractors, using the qualifications-based selection 
(QBS) process, to develop and maintain this critical layer of 
geospatial information for the nation.
    Timely completion of this digital inventory would be a significant 
benefit to state and national efforts relative to transportation 
planning. By making available to transportation planners pre-existing 
standardized national digital mapping products developed by various 
government agencies, transportation planners can hit the ground running 
on a planning project rather than wait for months and spending 
thousands of dollars for new mapping to be developed.
    There are other examples of how time may be saved in the 
development of planning transportation projects in the report attached 
to my testimony. Taken together, we believe our recommendations can 
reduce the time it takes to deliver transportation projects by as much 
as 30 percent while at the same time, protecting the environment, 
enhancing public participation, and designing high quality roads, 
bridges and transit systems for the American people.
    These briefly stated suggestions summarize only a portion of our 
vision for the reauthorization of ISTEA. We commend this Subcommittee 
for the hard work and dedication to this important task. Your efforts 
are apparent to all of us in the transportation industry. We stand 
ready to serve you, and the American people, in any capacity you deem 
necessary as you chart the course of our transportation system for the 
coming years.
    Thank you Mr. Chairman for this opportunity to testify.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                         MONDAY, APRIL 7, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                New York, New York.

                      NORTHEASTERN REGIONAL ISSUES

    The subcommittee met, pursuant to notice, at 10 a.m. at 
Alexander Hamilton U.S. Custom House, One Bowling Green, New 
York, New York, Hon. John W. Warner (chairman of the 
subcommittee) presiding.
    Present: Senators Warner, Moynihan, Baucus, and Lautenberg.
    Also present: Senator D'Amato.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. The hour of 10 having arrived, we will 
commence the hearing.
    I'm John Warner of Virginia. I'm flanked by my 
distinguished colleague, Mr. D'Amato; the ranking member of the 
subcommittee, Mr. Baucus; and our distinguished host today, the 
distinguished senior Senator from New York. And we're hopeful 
that our colleague from New Jersey will be joining us shortly.
    Out of deference to Senator Moynihan, who is the great 
patron of ISTEA 1991, Senator Baucus and I will yield to have 
our distinguished colleague open the hearing, to be followed by 
our other distinguished colleague from New York, Senator 
D'Amato, who is chairman of the Banking Committee and has a 
very central part of the overall bill that will go forward.
    Senator Baucus, would you like to say a few words?
    Senator Baucus. Not at this time.
    Senator Warner. Senator Moynihan?

      OPENING STATEMENT OF HON. DANIEL PATRICK MOYNIHAN, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Moynihan. Mr. Chairman, I do appreciate this 
courtesy, and I have the great pleasure to welcome you all, as 
does Senator D'Amato, to the Alexander Hamilton Building, 
formerly the United States Custom House here on the site of 
Fort Amsterdam.
    At the time this building was erected in 1906, 
approximately half the revenues of the Federal Government came 
from Customs collected in the port of New York, and we've been 
seeking some compensation for all those centuries of 
maintaining all the armies.
    [Applause.]
    Senator Moynihan. But, just at a topical note, in 1807 at 
the Senate's request Jefferson asked for a Treasury report on 
the opportunity and the Constitutionality of Federal assistance 
for roads, the national road being his principal object in 
mind, and there were some pro and some against. The westerners, 
as you won't be surprised, were in favor of a road. Here in New 
York the people who collected all those tariffs, paid all those 
tariffs, said, ``Our tariff money will just go to Montana.'' 
Well, I guess it wasn't Montana at the time, but they had 
something like that in mind.
    This agreeable discourse has been going on for two 
centuries, and I look forward to joining with you this morning 
in continuing it.
    [The prepared statement of Senator Moynihan follows:]
Statement of Hon. Daniel Patrick Moynihan, U.S. Senator from the State 
                              of New York
    Welcome to New York and this historic and beautiful Beaux-Arts 
building. Until the establishment of an income tax in 1913, the Federal 
government was financed mainly through the imposition of customs 
duties. New York being the busiest port, this Custom House became the 
nation's largest collector of such funds. The hundreds of millions of 
dollars in Federal taxes collected here were widely distributed to 
finance the development of the rest of the country. We were the 
ultimate donor State and much more. The interstate highway system was 
first envisioned in New York at the GM Futurama exhibit at the 1939 
World's Fair, and then advanced in 1944 by President Roosevelt. The New 
York State Thruway was the system's first segment.
    In 1991, working with my House counterpart Robert A. Roe of New 
Jersey, chairman of the Public Works Committee, we crafted legislation 
that addressed this nation's imbalance in transportation investment in 
favor of an intermodal, economically-efficient, and environmentally-
sensitive approach. ISTEA also included a provision to pay New York, 
New Jersey and other states back for their contributions to the 
interstate system. ISTEA was the most important transportation bill 
since President Eisenhower's Federal-Aid Highway Act of 1956.
    I thank my colleagues, Senators Chafee, Lautenberg, and Lieberman, 
for their advocacy of ISTEA, and Senators Baucus, Warner, Bond, 
Kempthorne, Reid, and Inhofe, who have publicly stated their support 
for its principles. This Subcommittee has held field hearings in Coeur 
d'Alene, Kansas City, and Las Vegas. This is, essentially, our first 
opportunity to hear from the 60 percent of the nation's population 
living east of the Mississippi. I look forward to the testimony.
    Senator Warner. Thank you very much, Senator.
    Senator D'Amato?

              STATEMENT OF HON. ALFONSE D'AMATO, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator D'Amato. Mr. Chairman, let me join in welcoming you 
to New York to this historic building, and to take the 
testimony on this most historic legislation that is about to be 
and hopefully will be reauthorized. ISTEA 1991 was probably one 
of the best pieces of legislation authored by Senator Moynihan 
as it relates to transit needs, particularly in urban areas.
    It recognizes that the congested areas of America, the 
metropolitan areas, have unique problems. It recognizes that by 
making prudent investments we can get people to use mass 
transportation, not only eliminating much of the traffic, but 
also the pollution that we are concerned about.
    I look forward to co-sponsoring what I think is a wonderful 
bill, the bill which Senator Moynihan, Senator Lieberman, and 
Senator Lautenberg are introducing, that is the ISTEA 
legislation which will protect the formulas which are so 
important.
    Need is the basic by which we attempt to operate on the 
Federal system. It is not per capita. It is not who has the 
most people, but where is the need for a particular program.
    I think we have to look at that. I know some of my 
colleagues are saying, ``Well, we want to take the gas money 
and distribute it on certain formulas with no relation or 
little relationship to need as it relates to mass 
transportation.'' Why, I suggest that there are various areas 
of the country that have certain unique needs that New York has 
little for as it relates to building great hydropower systems 
and dams, etc., and we have over the years financed that.
    Indeed, Senator Moynihan has put forth and does every year 
a very interesting analysis as it relates to the amount of 
taxes collected and paid by New York residents per capita to 
the Federal Treasury. I must say that, while we collect a lot 
of money and send it down to Washington, we generally get back 
about $17 to $18 billion a year less than what we pay.
    So if we were going to run everything on per capita, I'd 
take that. We'd get about $18 billion more.
    So I'm just suggesting we had better be pretty careful if 
we are going to continue the unique Federal relationship 
between States and Federal Government and look to need.
    We have 30 percent of the mass transit users nationwide--30 
percent--and we get about 18 percent of the funding.
    So I want to thank my dear friend and chairman for holding 
this very important hearing, because this is critical to our 
tri-State region, the ISTEA reauthorization. It is critical in 
moving hundreds and hundreds of thousands, probably 400,000 
people that I can think of, or close to that, on just two 
lines, the Long Island Railroad and the Metro North. I think 
the Long Island Railroad moves close to 200,000; Metro North 
slightly less. But we're talking about lots and lots of people.
    So when I begin to hear this business we ought to be 
guaranteed so much back from the gas tax, maybe we should 
author legislation we want to be guarantied so much back from 
the basic dollars we send to Washington. Let's get right to it. 
Give us back 95 percent of the money we send down there. We 
could do away with all these formulas.
    But that's not the way we have been operating this country. 
We have been operating on the basis of need.
    I ask my full statement be placed in the record.
    [The prepared statement of Senator D'Amato follows:]
 Statement of Hon. Alfonse D'Amato, U.S. Senator from the State of New 
                                  York
    Good morning. I would first like to take the opportunity to thank 
Senator Warner and the members of the subcommittee for giving me the 
chance to participate in today's hearing. I would like to give special 
recognition to my colleague and friend Senator Moynihan, whose efforts 
in the area of Federal transportation policy have benefited New York 
and the nation.
    The Senate Banking Committee, which I chair, has jurisdiction over 
the mass transit portion of the Intermodal Surface Transportation 
Efficiency Act of 1991 or ``ISTEA.'' This critically important 
transportation legislation is due for reauthorization this year. We 
will be working closely with members of the Environment and Public 
Works Committee in the coming months so that we may craft the best 
possible transportation bill.
    Under ISTEA, we have continued construction on such vital projects 
as the 63d Street Connector. This tunnel will benefit millions of 
people who use New York City's Subways. It will provide increased 
capacity and reduce rampant overcrowding on some of the most crowded 
trains in the world.
    We can continue this success with the funding of the Long Island 
Rail Road East Side Access Project, which Senator Moynihan and I have 
proposed. This project will bring the LIRR into Grand Central Station 
and reduce commuting time for millions of people traveling between Long 
Island and Manhattan. East Side Access would use the surplus capacity 
at Grand Central Station to relieve the rush-hour crunch at Penn 
Station. It would eliminate 94,000 daily crosstown trips, including 
12,000 daily automobile trips. This would improve air quality and 
decrease gridlocked rush-hour traffic in midtown Manhattan.
    I firmly believe that ISTEA was good transportation policy in 1991 
and it remains good transportation policy in 1997. It sets an 
appropriate role for the Federal Government to continue to invest in 
the nation's transportation systems. Therefore? I will cosponsor the 
ISTEA reauthorization bill developed by Senators Moynihan, Lieberman 
and Lautenberg. This bill continues the basic ISTEA structure and its 
needs-based formulas, while updating those programs and allocation 
formulas that are outdated.
    Recently, the President submitted his proposal for ISTEA 
reauthorization. The President's bill contains a 10 percent increase in 
highway spending and new Finding for Amtrak, but reduces mass transit 
funding by $1 billion. This is penny-wise but pound foolish. Mass 
transit is the most efficient and environmentally friendly mode of 
transportation, and I would like to hear why the President's budget 
doesn't emphasize mass transit.
    There are some who propose to base highway funding formulas on the 
amount of Federal fuel taxes that each state sends to Washington. This 
proposal would reward increased fuel consumption and lead to increased 
congestion and air pollution. It would reward states for increased use 
of foreign oil. It would penalize areas like New York that have 
invested in efficient mass transit systems. That's not the way to go.
    New York State sends $18 billion more to Washington in taxes than 
it receives in Federal spending. Per capita, New York ranks 11th in the 
Nation in Federal taxes collected and 42nd in Federal spending. No one 
can deny that New York pays its fair share. It would be wrong to 
penalize my state for having an efficient mass transit system. Senator 
Moynihan and I will fight to make sure New York gets its fair share.
    ISTEA has also linked Federal transportation policy to 
environmental policy. The results have been impressive. The Congestion 
Mitigation and Air Quality Improvement Program or ``CMAQ,'' has 
provided Federal money to localities for the purpose of implementing 
transportation programs to reduce vehicle pollutants.
    In New York State, $400 million in CMAQ money has been used since 
1991 for such projects as improving the New York City subways and 
purchasing fleets of clean-air buses in both urban and rural areas. I 
am proud to say that, since 1988, I successfully fought for an 
additional $75 million to purchase 208 clean-air buses and related 
facilities throughout New York State. These projects have gotten 
commuters out of their cars and onto mass transit. This has had an 
immense positive impact on air quality in New York State, while 
improving our transportation system. We must continue to encourage 
states and localities to utilize clean-air technology to benefit the 
environment.
    ISTEA was landmark legislation that established a partnership 
between Federal, state and local governments to improve our Nation's 
transportation system. Local Metropolitan Planning Organizations or 
``MPOs'' were given an equal voice in deciding where and how 
transportation projects were implemented. This partnership has been the 
cornerstone of transportation policy since 1991, and we must build on 
it if we are to continue ISTEA's success.
    I want to thank you again, Mr. Chairman, and our ranking 
member, Senator Baucus, for taking of your time to be here, and 
congratulate Senator Moynihan for calling this hearing, and 
also for, once again, coming forward as it relates to the 
reauthorization of this important legislation.
    Senator Warner. Thank you very much, Chairman D'Amato.
    This is a very impressive list of witnesses. Senator 
Baucus, the ranking member, and I made the decision that we 
would take this very critical issue to America, and this is our 
fourth hearing outside of the Nation's Capitol.
    Senator Baucus?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Chairman, first I want to say I know you join me in how 
honored we are to be with two of the Senate's premier Senators, 
Senators Moynihan and D'Amato, here in New York City. It's an 
honor for us to be here.
    Second, as I'm sure most in the audience know, this 
subcommittee has held a good number of hearings around the 
country. One is in Coeur d'Alene, Idaho, another in Nevada, a 
third in Missouri, and here we are now in New York.
    As everyone might guess, each part of the country has its 
own specific, unique needs, and I'm sure that here today we are 
going to hear more of the specific, unique needs of New York 
City, New York State, and particularly the northeast region.
    I might say, too, that it's very appropriate that we're 
holding the hearing today. I'm often reminded by the senior 
Senator from New York of the 1939 World Fair, the Futurama 
exhibit which laid the seeds for later conception and 
development and construction of our interstate system. The 
Futurama, of course, at that time, 1939, suggested something 
along those lines. It wasn't then financially or technically 
feasible, but it was the beginnings and it's just another 
example of the kinds of references that the Senator from New 
York makes about needs for the future. He's always ahead of the 
rest of us, and that was just another example of how he was 
very prescient in developing the interstate highway system at a 
later date.
    ISTEA, as we all know, is a pretty good bill. The current 
highway transportation program we have works pretty well. It 
gives various parts of the country significant flexibility. In 
the west, for example, I can testify that we rely very much 
upon highways. ISTEA enables us to make best use of the 
programs in ISTEA for highways. We have such long distances to 
travel, such open space, so few people. On the other hand, here 
in New York you rely proportionately much more on mass transit. 
You have other unique needs that we do not have in Montana. 
ISTEA does allow a lot of that flexibility.
    So essentially, Mr. Chairman, I'm here to learn. I'm here 
to listen. Just as a young lieutenant in 1919, in the U.S. 
Army, Dwight Eisenhower, learned when he traveled across the 
country about the need for a national interstate system, I am 
here to listen and learn about the unique, specific, and 
important needs of the northeast.
    I thank you very much for having this hearing here.
    Senator Warner. Thank you very much, Senator. Again, you 
will be pivotal in the decision that will be made final on this 
bill, and I'm delighted to work with you.
    We now have been joined by another member of the committee, 
the distinguished Senator from New Jersey, Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I thank you very much, Mr. Chairman.
    I don't want to say why it is that I was late this morning.
    [Laughter.]
    Senator Lautenberg. But it's a perfect coincidence with the 
subject at hand. It's called traffic.
    We are delighted to be here this morning with colleagues 
not from the region so that they can get a look at what it is 
that's happening here.
    We're delighted to welcome you to New Jersey's favorite 
suburb.
    [Laughter.]
    Senator Lautenberg. I'd like for just a moment to focus on 
our State and our region. We are inextricably intertwined. What 
happens to one of our States happens eventually to both of our 
States in terms of infrastructure and transportation.
    ISTEA, which was adopted 6 years ago, was good for New 
Jersey, good for the region, and, frankly, good for the entire 
Nation because it affects the way our commerce functions, the 
way our products are exported, the competition that exists 
between us and other parts of the globe, and it's an ever-
shrinking domain.
    New Jersey happens to be a corridor that links commerce and 
travel to the northeast and the rest of the country. The 
challenges that we face are challenges that the entire Nation 
has faced and will face again.
    Too often there are jokes made about where do you live in 
New Jersey, what exit. We don't see the humor in that, as a 
matter of fact, but we do see the result, the congestion, the 
pollution, the delays, all of that.
    If it weren't for the fact that we had ISTEA with its 
flexibility, Mr. Chairman, and my dear close friend from across 
the river, we wouldn't be able to function at all.
    Again, the penalty would be national, not just local or 
regional.
    Well, thanks to ISTEA New Jersey is at the forefront of 
improving the speed of national and international commerce. 
From the moment goods arrive at the ports of Elizabeth and 
Newark, they're loaded onto rail cars or on trucks, distributed 
to the rest of the country. In fact, goods traveling just 24 
hours on a truck from New Jersey will reach a market of 40 
percent of the populations of the United States and Canada, 
over 100 million people.
    We know ISTEA has worked for the country because it has 
worked in New Jersey and it has worked in other places. I've 
gone out to Montana, to my good friend Senator Baucus' State. 
We hear lots of jokes that they make about New Jersey and New 
York, but I can tell you--and I've said this to you before, 
Senator--look at the distance that you can see. You get up in 
the Empire State on a day like this and you can see quite a 
distance compared to those mountains that have nothing in front 
of you except space.
    [Laughter.]
    Senator Lautenberg. New Jersey has its densely populated 
inner cities, planned communities, sprawling suburban, rich 
farmland, and vast protected open space; miles and miles of 
roads, rails, runways, bike trails, and coastline.
    My good friend, Pat Moynihan, likes to say ISTEA stands for 
intermodal, which means connections through every mode of 
transportation.
    No State is more intermodal than mine or New York State or 
California. Well, not enough in California, but we'd like to 
see that change.
    New Jersey is also a commuter State. Millions of New 
Jerseyans face serious commutation problems every day. There 
are more cars per mile on New Jersey roads than any other State 
in the country. But, like so many other areas in the country, 
there is no place else to lay more concrete, so we cannot 
simply build ourselves out of congestion. I think the Governor 
is certainly aware of that.
    That's why States like mine, like ours, are so heavily 
dependent on mass transit. For example, we recently opened a 
direct line called ``Midtown Direct,'' simply enough--an urban 
core project which was inaugurated just 8 or 9 months ago. That 
line now goes direct to Manhattan without intermediate stops. 
Within weeks the ridership doubled in its projections. Transit 
in New Jersey is well-used and, frankly, much beloved.
    ISTEA's focus and its flexibility to move goods and people 
efficiently has given States and localities more free reign to 
decide what transportation systems worked best for them, and 
that, again, is a testimony to the wisdom and the clarity of 
the vision of Senator Pat Moynihan.
    What transportation works best is what the States ought to 
be able to have a chance to choose.
    New Jersey, for example, has enthusiastically opted to use 
over $163 million of ISTEA highway funds for transit over the 
life of ISTEA, and I don't know what it matters to those States 
who don't have the same transit need.
    We say, ``Use your money for highways. Use it as you see 
fit. But let us use it where it's most efficient.''
    Other States use their funds as they see fit, and that's 
the way it ought to be. So ISTEA couldn't have a better 
laboratory than New Jersey, than the region. ISTEA has worked 
for our cities, our counties, our environment, and for our 
economic well-being.
    Let us build on the success of the past and not turn back 
the clock on transportation progress.
    I thank you very much, Mr. Chairman, for the opportunity to 
be here.
    Senator Warner. Thank you very much, Senator.
    You mentioned your tardiness as occasioned by mass transit. 
Chairman D'Amato, that's your section of the bill. What's your 
answer to getting him here on time in the future?
    Senator D'Amato. Continued transit aid and enough money for 
new starts to continue the projects that we have envisioned.
    [Applause.]
    Senator D'Amato. But, Mr. Chairman, let me say that the 
mass transit part of the bill, the jurisdiction falls under the 
Banking Committee, and I look forward to having our two 
committees, the Banking Committee and the Environmental 
Committee, work together so that we can continue to keep that 
important relationship and the proper balance of highways, mass 
transit, and, of course, to deal with the issue of how do we 
move these millions of people in the most cost-effective manner 
in a way that environmentally is the soundest?
    We have a project, the East Side Connection project, for 
example. It will take literally thousands of car trips it will 
eliminate across town at the present time. It will make it 
possible for 50,000 commuters who now find themselves in one 
part of New York and then have to take a taxi or subways over 
to the other part of the city, and at the end of their day's 
work come back again--will save them, at today's rates, $3 a 
day, almost close to an hour a day in transportation. That's 
the kind of investment that will pay great dividends, and those 
are the kinds of things we are looking for.
    I look forward, Mr. Chairman, in a cooperative effort of 
our two committees working together, to protecting the needs of 
all of our people.
    Senator Warner. Thank you, Senator. We will do that.
    I'd just like to take a few minutes first--particularly 
I'll refer to the Governor momentarily, but to welcome all who 
have taken of your time to join us today.
    I had an opportunity to visit with some in the back rows 
there from the Engineer's Union, and therefore I'd like to just 
give you a little background on this particular piece of 
legislation, its importance not only to New York but to the 
entire country.
    First, it is the second-largest money bill that will be 
addressed by Congress this year of unrestricted funding--that 
is, outside of the entitlement area and other legislative 
mandated budgetary requirements on the Congress. It's the 
second-largest, the first being the Department of Defense. That 
gives you some idea of the magnitude and the dynamics of the 
politics brought to bear on this issue.
    When you speak politics, immediately you think republican 
and democrat. There is no republican/democrat politics in this 
bill. There is no conservative/liberal politics in this bill. 
This is each Member of Congress, be he or she in the Senate or 
the House, fighting vigorously for the interest of their State 
primarily, the interest of their region secondarily, but I hope 
overall that we will come together, probably not before late 
September, to decide what's in the best interest of the United 
States of America.
    I underline that because here we are in the greatest 
financial district of the world. It's a crossroads of commerce. 
And we're in a one-world market today, competing with the 
entire world.
    Transportation gives us the needed leverage to compete, and 
compete in many areas successfully. As Senator Lautenberg said, 
when that truck leaves his plant, those goods are on the 
counter of that merchant the next day or that night, and those 
in Asia and Europe cannot compete with that. But that can only 
continue if we lay down the infrastructure, building new, yes--
but, Governor, you know how important it is to refurbish what 
you now have. That's the key, my good friends.
    There is one element of politics, and I address my 
distinguished friends and colleagues on the left, and that is I 
frankly fault the President of the United States in not 
recognizing the need to get additional funding out of the 
highway trust fund into the hands of the several States for 
their discretion as to how best to spend those funds. It's as 
simple of that.
    There is an accumulated surplus in that highway trust fund 
now. The Department of Transportation, the President's own 
Secretary of Transportation, has testified repeatedly before 
this subcommittee and the Congress that the $20 billion or $21 
billion, whatever may come out in the final President's bill, 
is simply inadequate. We need to be putting $40 to $50 billion 
into our infrastructure nationwide in order to just maintain 
where we are today and get that margin of research and 
development, modernization in areas of safety, modernization in 
improving the impact on the environment, which is very 
critical, of the transportation.
    So I say to my friends: help us as we deal with the 
President and his Secretary of Transportation to get this 
funding up and to release from bondage the dollars that have 
been paid through the gas taxes by the American workers.
    Thank you very much.
    [Applause.]
    Senator Warner. Now, Governor, we will put your entire 
statement in. I'm anxious to hear your remarks. It was a 
beautifully written statement, and I have to tell you I leave 
hear learning a bit of history. You said the Brooklyn Bridge 
was 1883. That was the year in which my father was born. That 
got my attention. My father later went to New York Medical 
School and was a practicing surgeon in this great community of 
New York City for many years. So you got my attention.
    We welcome you, Governor. We see our second Governor has 
arrived. We'll have the distinguished Governor of New York lead 
off.
    Governor Pataki?

    STATEMENT OF HON. GEORGE E. PATAKI, GOVERNOR OF NEW YORK

    Governor Pataki. Thank you very much, Chairman Warner. We 
are very grateful that you've taken the time to hold these 
hearings across the country and come to New York today. Ranking 
member Senator Baucus, we very much appreciate your 
participation and your interest and your being here.
    Just as an aside, as you'll hear from the comments, as 
Senator Warner indicated, the year the Brooklyn Bridge was 
built was 6 years before Montana even became a State.
    [Laughter.]
    Governor Pataki. And today it is still taking thousands and 
thousands of people every day across its spans, and it points 
out the need for us to continue to reinvest in the 
infrastructure that was put in place.
    Senator Lautenberg, thank you for being here. I'd apologize 
for your being late, except I'm sure the traffic delays 
occurred on the other side of the river and not here in New 
York.
    [Laughter.]
    Governor Pataki. Senators Moynihan and D'Amato, I cannot 
thank you enough because I don't think any State in America has 
two Senators who are more committed or more tenacious in 
fighting for the interests of the people than you have been. We 
thank you on behalf of the people of New York for that.
    Senator Warner, if I might, before I read part of the 
comments--I'll try to skip some of it so we don't take too 
long. You began by saying that, of course, the Senators are 
representing the interests of their States more than a partisan 
or ideological fight in the ISTEA reauthorization, the interest 
of the regions.
    I want to stress that while, obviously, my testimony 
reflects the needs of the State of New York and the people of 
New York and the region of the northeast, that I have no doubt 
that reauthorization of ISTEA in the manner that it presently 
exists is not just in our personal interests here in New York 
but in the national interest, and will allow us, as you 
indicated, to continue to generate the economic activity, to be 
the center of commerce, to be the center of finance, the center 
of media, not just for America but for the world, so that we 
can continue to generate those revenues that provide that $18 
billion surplus from what New York sends to Washington.
    So I truly believe that reauthorization of ISTEA is 
critical to the national needs as well as to the State of New 
York.
    Let me just pause to introduce Senator John Daly, 
Commissioner John Daly, former State Senator, former DOT 
commissioner, who is spending full time traveling around the 
States and to Washington making the case for the 
reauthorization of ISTEA because it is so absolutely critical 
for the future of New York State.
    ISTEA is an historic and effective approach to national 
transportation policy. Its basic principles of shared 
responsibility for national transportation interests among 
Federal, State, and local agencies, the encouragement of public 
participation in the planning process, and the promotion of 
environmentally sound intermodal transportation projects must 
be retained.
    ISTEA represents a dramatic shift in the way the Federal 
Government finances transportation improvements, recognizes how 
inter-dependent the States' economies are, and contains 
flexible programs to benefit the entire Nation as a whole.
    Senators I congratulate you. ISTEA has worked for the 
Nation and it has worked for New York. The programs embedded in 
the existing law must be continued with some streamlining that 
will make this good law even better.
    The needs-based formulas in ISTEA should be continued with 
some updating to reflect modern factors. State, local 
governments, and regional organizations have invested 
significant time and resources implementing this landmark 
legislation, and we have made it work.
    ISTEA does not need a major overhaul. The ISTEA 
reauthorization proposal cosponsored by Senators Moynihan, 
Chafee, Lautenberg, and Lieberman, which keeps the innovative 
programs intact and updates allocation formulas, is the right 
approach and one New York State strongly supports.
    Past investments in transportation infrastructure have 
failed to provide improved safety and mobility, promote 
interstate commerce, and enhance the environment.
    The Federal Government must continue to be a strong partner 
with the States to assure that these investments are not wasted 
as a result of a diminished Federal commitment to the Nation's 
infrastructure.
    Let me emphasize that a continued Federal role does not 
remove or lessen the responsibility that States have in 
utilizing State assets to maintain and improve our own 
transportation systems.
    I point proudly to the high level of effort in New York 
State. New York State is currently implementing a 5-year 
capital program which will invest $24 billion--$12 billion for 
highways and $12 billion for mass transit--in our 
transportation system.
    In New York, 75 percent of our transportation capital 
program and 60 percent of our highway and bridge capital 
program is funded with State and local funds, the highest level 
of State and local effort in the Nation. We are not asking you 
to do something for us that we have not committed to do for 
ourselves. We simply want your continued help.
    Certain States are allocating Federal funds be based on 
gasoline tax. This is wrong. Where the funds are raised should 
not be the major consideration in distributing funds to 
rehabilitate roads, to replace deficient bridges, replace 
deteriorated public transportation equipment, or reduce 
congestion and provide cleaner air.
    Distributing Federal transportation dollars primarily based 
on where the gas tax is collected is simply devolution in 
disguise, and it's the first step toward eliminating the 
Federal role in transportation funding.
    If we're simply going to give the States back the taxes 
generated in those States, why is there a Federal role 
necessary at all, and why do we have a Federal policy? The next 
step would be to eliminate that Federal role and lose the 
national benefit that has come from programs like ISTEA.
    Opponents don't recognize that transportation systems do 
not end at the State line, and therefore the Federal Government 
must play an important role in ensuring that the Nation's 
transportation network operates effectively and efficiently. 
And this is particularly true in some of the more rural States 
of America where, if it were left simply to the taxes raised by 
some of those rural States, they could not have the necessary 
mass transit or Federal interstate highway system necessary so 
that we can get from one region of the country to the other.
    There is a critical Federal role, and that Federal role 
would be obviated if we simply went and gave back to the States 
what was raised within those States.
    I realize that some will claim that New York and other 
States support ISTEA because we're receiving more in Federal 
transportation funding than we collect in gasoline taxes; 
however, as Senator D'Amato pointed out, the JFK School study 
from Harvard that Senator Moynihan has had done every year 
shows that New York State sends $18 billion more to the Federal 
Government than it receives each year.
    You cannot in fairness take one program and say that New 
York does disproportionately well in this program and thus 
should lose funds without looking at the totality of what we do 
to support the Federal Government and the Federal programs. 
ISTEA should not be allowed to be isolated and separated in 
that way.
    New York, due to its older infrastructure and colder 
weather, has greater transportation needs than States with 
warmer climates or more modern infrastructure. In fact, many of 
New York's bridges were built in the 19th century, and we 
talked about the Brooklyn Bridge, which was built at a time 
when there were only 38 States in the Union.
    Today, as I indicated, that bridge still carries tens of 
thousands of people a day into the city, helping generate the 
commerce and the tax revenues that support the Federal 
Government.
    Proposals that base funding distribution on gas tax 
collections would also penalize New York State for a strong 
transit program, which is a major contributor to achieving 
Federal transportation, air quality, and energy goals. Their 
approach would punish those States that emphasize good public 
transportation by reducing Federal aid, contrary to the 
national policy that encourages the use of public 
transportation.
    New York State is undoubtedly the most intermodal State in 
the Nation. It is home to one-third of the Nation's transit 
riders on systems that range from the massive New York 
Metropolitan Transportation Authority right here to one-or two-
bus rural transit systems that provide critical mobility in the 
rural parts of our State.
    Over 6.7 million people enter the Manhattan central 
business district each day, 2.3 million by auto and 4.4 million 
by mass transit.
    New York's transportation system is not just important to 
New York; in fact, over 450,000 from neighboring States come to 
Manhattan to earn their living. But just think of it: 4.4 
million people a day coming here by mass transit, and those 
from out of the State, alone, making 900,000 interstate trips, 
enough to fill 70 freeway lanes.
    In the northeast we face the dual problems of congestion 
and pollution, but we're finding they can be tackled 
simultaneously. ISTEA has helped us to improve air quality and 
the environment. The law established the innovative CMAQ 
program to help meet air quality standards in many of our large 
cities and to help maintain air quality improvements that have 
been made over the last 6 years in other communities.
    Let me briefly discuss an equity issue that affects New 
York and many other States, and this is something that Senator 
Moynihan has brought to the attention of Congress time and 
again.
    An important part of ISTEA was the fulfillment of a promise 
made 40 years ago by Congress to repay States that constructed 
interstate highways without Federal funds. While many southern 
and western States benefited from 90 percent Federal funding, 
other States in the northeast and midwest had already built 
much of their interstate network with local funds.
    Congress knew of this, and in 1956 called for a study to 
see the cost, to reimburse States for donating those segments 
to the interstate. Through the efforts of Senator Moynihan, 
Senator D'Amato, and others, ISTEA has begun this repayment.
    Congress must not back away from this commitment. The 
Federal promise to those States must be kept in the 
reauthorization of ISTEA. This is our equity program.
    New York is one of 17 States belonging to the ISTEA Works 
Coalition. This broad-based Coalition involves States from 
every part of the United States that support retaining the core 
programs, including the bridges program, the congestion 
mitigation and air quality, CMAQ program, the interstate 
reimbursement program, and continuing the Federal commitment to 
improving public transit.
    The Coalition also supports maintaining the Federal 
Government's role as a key transportation partner to help fund 
highway, bridge, and transit projects, as well as to provide a 
national focus on related national goals, such as improved air 
quality, economic competitiveness, and improved quality of 
life.
    While I can sympathize with the desire of other States to 
increase Federal funding for their States, robbing Peter to pay 
Paul is not the answer. New York and the northeast have 
documented transportation needs and have been willing to raise 
State and local funds to help pay for these needs. The FHA has 
a report that compares the level of State and local effort of 
the 50 States. New York has the highest level of effort, while 
many of the so-called ``donor States'' are among the lowest.
    Our level of effort creates to a 96-cent gasoline tax. If 
you combine the highway tolls, the fares that people pay, the 
bridge tolls, our level compares to a 96-cent gasoline tax. 
Delaware is the second State, with a 61-cent comparison, and 
Georgia, one of the most vocal of the so-called ``donor 
States,'' is last at 12 cents. A State like Connecticut, which 
also has the high level of effort, highest gas tax in the 
Nation, should not be forced to raise its gas tax further to 
offset Federal funds that would be transferred to those States 
with a low level of effort.
    Let me just summarize in closing here, Senators, that ISTEA 
has worked. It's supported by 17 Governors, the League of 
Cities, the U.S. Conference of Mayors, the National Association 
of Counties, the American Public Works Association, the 
metropolitan planning organizations, transit systems, 
environmental groups, and many, many others.
    When you go back to Washington and make the critical 
decisions facing Congress and this country, you, of course, 
represent your States. But, Senator Warner, you said the most 
important thing, that while you represent your States and your 
regions, the national interest must come first. Reauthorizing 
ISTEA as is presently constituted is not just in the interest 
of New York and the northeast, it is in the national interest 
and should be achieved by Congress this year.
    Thank you very much. Thank you for the opportunity.
    Senator Warner. Thank you very much, Governor.
    [Applause.]
    Senator Warner. My understanding is that the Governor of 
New York and the Governor of New Jersey are about to yield to 
allow the mayor of New York City to testify before we proceed 
with your testimony and such questions as the panel may have.
    Do I understand the mayor is present?
    Thank you, Mr. Mayor. Glad to have you.
    [applause.]
    Senator Warner. Thank you, Mr. Mayor. The entire statement 
which you are about to give will be placed into the record, and 
you may proceed as you wish.

 STATEMENT OF HON. RUDOLPH W. GIULIANI, MAYOR OF NEW YORK CITY

    Mayor Giuliani. Thank you very much, Senator. Welcome to 
New York City.
    I want to extend my thanks to the Senate Committee on 
Environment and Public Works and its Transportation and 
Infrastructure Subcommittee for inviting me to speak at this 
very important field hearing on the reauthorization of the 
Intermodal Surface Transportation Efficiency Act.
    In particular, I'd like to thank you, Senator Warner, the 
subcommittee chairman, Senator Baucus, the ranking member of 
both the committee and subcommittee, our esteemed Senators 
Moynihan, D'Amato, and Lautenberg for all of the attention that 
you are paying to this. I appreciate it for the people of the 
city of New York.
    I want to thank Governor Pataki for the leadership that he 
has shown on this issue for the good of the people of the city 
and the State, and Governor Whitman for the cooperative spirit 
and understanding that this is something that affects an entire 
region and is important to all of us.
    As Congress engages in the debate on the reauthorization of 
ISTEA, I urge you to consider New York City's perspective on 
this landmark legislation and its particular impact on the city 
of New York, the surrounding region, and, in particular, on 
cities and urban centers nationwide.
    Since its enactment in 1991, ISTEA has been a catalyst for 
projects and initiatives that are designed to meet the 
important objectives of enhancing transportation mobility, 
improving environmental quality, and increasing economic 
development. Preserving the fundamental structure of ISTEA is 
essential in order to continue developing a national intermodal 
transportation system that effectively secures America's 
leading role in the global marketplace.
    In fulfilling this policy goal, the most important feature 
of ISTEA for New York City has been the flexibility that it has 
given us in determining transportation solutions for what is an 
enormously complex transportation system in the city of New 
York.
    In a city the size and density of New York, the 
transportation system is the lifeblood of our economic 
vitality. Sometimes it's critical for reasons of saving lives, 
the ability of emergency vehicles to be able to move through 
the city of New York quickly, safely, efficiently. And it's 
also vital to creating a hub that maintains both the city's 
economic vitality and the quality of life for its citizens.
    I often refer to the city of New York as the capital of the 
world, and for reasons that I think are apparent. We're 
significant, and the world's most significant business center, 
a center for finance and commerce. We're home to six of the 
world's top ten security firms. Ninety-three of the world's top 
one hundred banks have their principal office or a main office 
in the city of New York. We're a major retail and fashion 
center and advertising and communications center.
    As the leading United States destination for overseas 
visitors, much of the economic vitality of the United States 
and a lot of the reputation of the United States is developed 
by what people think of the city of New York.
    What makes this concentration of economic activity possible 
is the Nation's most complex transportation system. In a very 
small geographic area, really, that can be summarized as three 
islands and a peninsula, we move over a million cars a day, 
well over five million riders from three States, at least, in 
mass transportation. And, while our transportation 
infrastructure is enormously extensive and has been described 
by a number of people as a manmade natural resource, it is also 
old and aging and in need of significant rehabilitation.
    ISTEA recognizes that there are many components of the 
transportation network and that an essential policy goal is to 
create and improve existing intermodal connections that provide 
key regional links for the city of New York and for other urban 
areas in the United States.
    A primary focus has been the need for capital investment in 
what already exists, the infrastructure that already exists of 
bridges and roadways and transit systems.
    As America's economy becomes more international, our cities 
become more important to us than they ever were before, and in 
that respect our largest city, New York, becomes even more 
important, not only to all of us who live here, but to the 
entire country, as a way in which we are going to effectively 
compete with countries around the world.
    Investing in the transportation infrastructure of our urban 
centers to improve access and mobility means not only investing 
in them but investing in the ability of America to compete with 
European cities and Asian cities and cities in South America 
and other parts of North America.
    We need to realize what many European and Asian nations 
realized a long time ago: that an investment in the principal 
cities in those nations is an investment in the nation's 
economy; that this isn't an either/or game that we're playing 
here. If we invest in New York City, we're investing in 
America.
    The Governor, quite correctly, has emphasized the numbers 
and the analysis done, I think beginning 20 years ago by 
Senator Moynihan, which shows that New York State contributes 
far more to the Federal Government than we receive back.
    New York City is a very substantial portion of that 
deficit. But what that does show is this is a source of great 
wealth and a source of great capital for America, and 
preserving its infrastructure is necessary if we expect that 
20, 30, and 40 years from now New York City, New York State, 
this region, New Jersey, Connecticut can produce as much.
    Over the next decade, the city will have to spend over $4 
billion to maintain and repair hundreds of bridges and elevated 
structures. In particular, the East River bridges are among the 
Nation's oldest and busiest spans, and they're truly 
intermodal. They carry some of the Nation's most crowded subway 
lines, as well as cars and trucks and just about every means of 
transportation--passengers and bicycles, as well.
    To preserve these vital links and reduce repair needs, New 
York City's Department of Transportation has successfully used 
ISTEA funds to introduce a comprehensive program of preventive 
maintenance so that these bridges do not in the future fall 
into the disrepair that they did in the late 1970's and 1980's 
and into the early 1990's.
    At the same time, however, New York City has to meet the 
transportation needs of the future and of the 21st century.
    My Administration has taken steps to assure New York City's 
future role in international commerce by advancing the 
construction of a freight rail tunnel across our harbor, along 
with the development of a hub port to handle the megaships of 
the future.
    We've also strongly supported the long overdue creation of 
direct rail links with the airports so that New York City can 
move into the 21st century as a transportation center.
    New York has been among the national leaders in the 
introduction of advanced transportation technology. Given the 
heavy congestion of our roads and rails, along with the fiscal 
constraints on all of us, we need to sensibly manage our 
roadway network and transit systems.
    Along with my testimony I'm submitting a report that's 
prepared by a city-wide inter-agency task force that outlines 
New York City's perspective on what has been accomplished under 
ISTEA, and it really is considerable. The report highlights the 
successful innovations using funds for enhancing the movement 
of goods, promoting high-speed ferry service--if we are three 
islands and a peninsula, which we are, we should be using our 
waterways more, and we're successfully doing that, with your 
help--extending our bicycle and pedestrian network, and 
encouraging the introduction of clean-fueled vehicle taxis and 
buses.
    In closing, I want to reemphasize that cities are the 
Nation's economic centers, and in an increasingly competitive 
world economy, cities are going to be even more important to us 
than they have been in the past. It's time for Washington to 
invest substantial resources in the success of America's 
cities.
    This program has been one that has moved us in the right 
direction. Our transportation infrastructure, our roads, our 
bridges, our tunnels, our rail links are key to America's 
economic future.
    Washington's responsibility for regulating interstate and 
international commerce should extend, as it does now, but it 
should continue to help maintain and improve our transportation 
infrastructure. In fact, by providing funds to upgrade 
transportation links with America's cities, the Federal 
Government will realize a great dividend in terms of increased 
commerce and increased trade and an increased share of the 
international economy.
    Cities are the way America competes in the global 
marketplace, to a very large extent, and there is no better way 
to ensure America's future than to invest in the infrastructure 
that already exists in our city to move people and goods.
    I thank you again for the opportunity to present New York 
City's views and concerns. I thank you very much for holding 
this hearing here, because it's of great significance to us. 
And I hope to work with you toward the reauthorization of ISTEA 
during this Congressional session.
    Thank you very much.
    Senator Warner. Thank you, Mayor Giuliani.
    Senator Moynihan. Mr. Chairman, before our distinguished 
guest, Governor Whitman, speaks, I think it would be 
appropriate to note we've heard so many nice remarks about the 
legislation we're proposing to reauthorize. The principal 
author, Bob Roe of New Jersey, is in the audience, and I'd like 
him to be recognized.
    [Applause.]
    Senator Warner. Well-deserved recognition.
    I remember the conference. I was then in the back row then; 
the next conference I'm in the front row. But you treated us 
very fairly.
    Senator Moynihan. It was a unanimous conference.
    Senator Warner. Thank you.
    Governor, we appreciate your indulgence. We're delighted to 
have you today. Thank you. Please proceed as you wish. Your 
entire statement will be admitted to the record.

STATEMENT OF HON. CHRISTINE TODD WHITMAN, GOVERNOR OF THE STATE 
                         OF NEW JERSEY

    Governor Whitman. Chairman Warner, members of the 
subcommittee, good morning and thank you very much for the 
opportunity to speak before you this morning.
    On behalf of the residents of the State of New Jersey, let 
me just say that I urge you to reauthorize the Intermodal 
Surface Transportation Efficiency Act without substantive 
change.
    Six years ago the Congress demonstrated remarkable 
leadership and vision in crafting ISTEA. Truly a piece of 
landmark legislation, ISTEA charted a course for a new 
transportation era in America, and I urge you to build on its 
accomplishments, not to abandon them.
    Reauthorization of the Nation's highway and transit program 
is one of the most important issues facing the 105th Congress. 
Our ability to sustain and to strengthen the national 
transportation system is the cornerstone of our Nation's 
prosperity into the next century. The reauthorization of ISTEA 
must ensure that all States can meet the challenge of moving 
people and goods safely and efficiently.
    New Jersey is one of the most critical links in the 
Nation's transportation infrastructure system. Located between 
two great metropolitan areas and situated in the middle of the 
northeast corridor, New Jersey's roads are the most heavily 
used in the Nation. Some 60 billion vehicle miles are traveled 
on the State's roads annually. Vehicle miles in New Jersey have 
increased 170 percent in just the past 30 years, while our 
population has only grown by 27 percent.
    New Jersey, through its rail, maritime, and aviation 
facilities, is a critical gateway to the global marketplace of 
U.S. industries. New Jersey is the heart of the Nation's 
largest market. It is within 1 day's travel of 100 million 
consumers. Of the Nation's total freight, 10 percent either 
originates, terminates, or passes through New Jersey--850 
million tons a year. Of this tonnage, 59 percent is strictly 
through-traffic--freight having neither its origin nor its 
destination in New Jersey.
    New Jersey's roads are under enormous strain. Of New 
Jersey's roadways, 30 percent are congested during peak 
commuter hours. Most of our highway network is over 30 years 
old. Of the 2,500 State bridges, 44 percent are functionally 
obsolete or structurally deficient. Of our road pavement, 30 
percent is in fair or poor condition.
    Infrastructure investment to meet these challenges is one 
of my highest priorities and a longstanding commitment of the 
New Jersey Legislature. While this subcommittee's jurisdiction 
does not include public transportation, I'd like to mention the 
important role public transportation plays in New Jersey.
    Over 1.1 million daily riders use New Jersey's public 
transit network, which was originally built by the private 
sector. During peak hours, 87 percent of all commuters going 
from New Jersey to Manhattan use public transit, as do more 
than one out of every two commuters from New Jersey to 
Philadelphia. Bringing our public transit network into good 
repair will require an investment estimated at $2 billion.
    In 1984, New Jersey established a dedicated transportation 
trust fund. From 1990 to 1995, the State trust fund investment 
was $565 million annually, and since 1996 the State trust fund 
investments have increased from that $565 million to $700 
million annually. And in fiscal year 1998, which begins on July 
1 for us, we will be asking for a one-time increase in the cap 
to allow us to spend $900 million.
    In fiscal year 1998, 50 percent of the State's highway 
capital investment will be funded by New Jersey dollars. 
Combining our trust fund with our toll roads and public transit 
investments, New Jersey spends over $2 billion in non-Federal 
resources on its transportation system every year. Yet, as the 
subcommittee can see, we still have tremendous needs.
    The concerns that I have raised are not unique to New 
Jersey, but they demonstrate a key reason why the distribution 
of Federal highway funds should be based on need. Any formula 
considered by Congress must recognize that New Jersey, the 
northeast, and port cities like Norfolk and Chicago have older, 
more heavily used, and more multi-modal transportation systems 
than in other States.
    I believe that the distribution of Federal highway funds 
should be based on the age and condition of the State's 
infrastructure, the State's traffic density and congestion 
levels, total freight movement on the State system, each 
State's total transportation investment, and the air quality 
goals to be met.
    The one factor that should not determine the allocation of 
funds is where motor fuel is sold. You may buy gas in New York 
and drive to Virginia, but you go through New Jersey.
    Let me also address the issue of why air quality and the 
congestion mitigation and air quality program are critical.
    Air quality and transportation are inextricably linked. 
Because States like New Jersey, New York, and Connecticut are 
burdened with air pollution from States in the midwest, we are 
required to spend millions of dollars in additional 
transportation improvements to help us meet Federal clean air 
standards. Mobile source emissions contribute greatly to our 
air quality problems. The CMAQ program directs funds to the 
Nation's most polluted areas based upon the population affected 
by that pollution.
    Discussions are underway to modify that formula to include 
the severity of the pollution problem. New Jersey supports 
those discussions. Those who argue that New Jersey receives a 
disproportionate share of highway trust funds must also concede 
that we receive a disproportionate share of the Nation's dirty 
air.
    At the same time, the formula should assist other States 
that are seeking to improve their transportation networks--
States like Missouri, which is struggling to address a traffic 
fatality caused in part by the State's many two-lane roads.
    Further, we must be sensitive to small population States 
with large land areas such as Montana and the Rocky Mountain 
States. Distribution formulas have to recognize their unique 
concerns, as well.
    While each State should be guaranteed a minimum allocation, 
this guarantee should not and cannot result in a dramatic shift 
of funds from one region of the country to another. We are one 
Nation with common goals and common wealth, not a commonwealth 
of 50 nations. That is why New Jerseyans send $17 billion more 
to Washington than we receive back in Federal benefits, which 
places us 49th out of all the 50 States.
    New Jerseyans contribute to the Nation's common wealth in 
greater proportion than we draw from that wealth except in 
transportation, where our needs exceed our contributions to the 
highway trust fund. But it is also true that our transportation 
system keeps America's economic engine going.
    America's transportation goals should be to ensure the 
best, the safest, and the most competitive transportation 
network that this Nation can afford. To achieve this, we must 
direct our finite resources where they are needed the most.
    The reauthorization of ISTEA must recognize and fund 
investments that are strategic to the Nation's economy, help 
our Nation to better compete in the global environment, and 
ensure the infrastructure renewal of our existing 
transportation systems.
    Setting aside the formula issues, the basic program 
structure of ISTEA is sound and should be preserved.
    ISTEA directs funds to ensure system preservation and 
economic growth. ISTEA increases State funding flexibility, 
encourages intermodalism, promotes regional decisionmaking, and 
links transportation investment to air quality objectives.
    Simply put, ISTEA works.
    Streamlining can be achieved largely through regulatory 
change. I urge this subcommittee to identify specific areas of 
regulatory change and direct U.S. DOT to implement these 
necessary changes.
    I am committed to supporting these changes and will support 
the subcommittee with my recommendations and provide them with 
my recommendations in subsequent material that we will send to 
you.
    The bottom-line goal of ISTEA reauthorization is to make 
our Nation strong. To achieve this, we must direct resources to 
bring our existing infrastructure into a state of good repair; 
provide congestion relief so that we reduce the cost of 
shipping goods and increase the productivity of Americans who 
are otherwise stuck in traffic; improve access to our ports, 
airports, and rail terminals; encourage each State to maximize 
its total transportation investment, while recognizing that 
some States are not in a position to spend enormous resources 
due to their small populations and large land areas; provide 
resources to address the air quality goals of our Nation.
    Mr. Chairman, members of the subcommittee, thank you again 
for the opportunity to testify.
    I neglected to introduce at the beginning but I would like 
now to introduce my Commissioner of Transportation for the 
State of New Jersey, John Haley.
    Senator Warner. Thank you very much, Governor.
    [Applause.]
    Senator Warner. We'll now proceed to questions, and the 
Chair is going to have these lights. Each Senator has 5 
minutes, and that includes the asking and the receiving of the 
answer, because we've got a very, very impressive array of 
witnesses, and we want to stay on schedule.
    My question to each of the three witnesses is the same. 
Senator Baucus said most correctly we're here to learn, and you 
have given us good statements--excellent statements, I may say. 
But I'd like to have you succinctly tell me what, if you were 
king or queen for the day and could write into this bill 
provisions, what's the first, second, and third priority that 
you would put into this bill?
    Governor Whitman, I'll lead with you because you twice said 
that it's sound, let's preserve it. But I do believe that 
flexibility, which is one of my personal goals--greater 
flexibility to our chief executives of the States, safety, 
environment. And I don't think we should, in my judgment, spend 
a lot of time on this formula issue. We're learning, as we go 
along--I've learned a good deal already in studying these 
statements and listening to you about the complexities of the 
transportation system in this nexus of four States right here. 
I'll take that into consideration.
    So I would not, in my time, deal with the formula. So, 
putting aside the formula, one, two, three. Governor Whitman?
    Governor Whitman. Senator, I would begin with flexibility 
as the most important characteristic of this program that has 
really enabled it to work.
    I would then add something that I didn't have in my 
testimony as we look at the importance of the transportation 
system, and that would be the second point, that it is a 
national transportation system and must be remembered to be 
such, and that is the safety and ability to move in times of 
national crisis. We need to have an infrastructure that is 
prepared to move goods and people when we need to so do in 
times of emergency.
    Third, I would also emphasize, as you did, the importance 
of air quality. Importance again gets back to that flexibility 
to move dollars into transit systems that allow us to take 
people off the roads, and, where we do have roads and bridge 
infrastructures, to move people quickly along them.
    Senator Warner. Thank you, Governor. That's very clear.
    Governor Pataki?
    Governor Pataki. Let me just be very brief.
    First are the bridges. I certainly agree with Governor 
Whitman that flexibility for the States is absolutely critical, 
but, as we indicated, we're dealing with bridges more than 100 
years old and other infrastructure that has to be upgraded that 
is still being used, so that program is absolutely critical.
    Second is mass transit. When you look simply at gas taxes 
paid, you are absolutely ignoring the tremendous commitment of 
money and the tremendous impact that mass transit has, as Mayor 
Giuliani indicated, in the cities that are even more important 
as you look to the 21st century and the global economic 
competition.
    We spend billions. We have a $12 billion mass transit 
capital program. Certainly, the Intermodal Surface 
Transportation Efficiency Act should look at mass transit as an 
important part of that, and if you looked at the gasoline tax, 
only, it would be totally irrelevant.
    The third is on the environment, because we have been able 
to do things because of the CMAQ program, like invest in clean 
fuel buses and other things that will help us clean the air of 
New York City.
    As Governor Whitman properly indicated, New York and New 
Jersey both get a lot of pollutants from other parts of the 
country that end up here, so we're out of compliance and we 
have to make the investment in things like clean-fuel buses to 
allow us to become in compliance with the federally mandated 
standard.
    So certainly the flexibility is critical, but those three 
programs are essential to New York.
    Senator Warner. Thank you, Governor.
    I want to ask one little follow-on, just a yes or no. Do 
you support repealing the 4.3 cents that now goes to the 
general revenue and restore it to the highway trust fund? 
Governor Whitman?
    Governor Whitman. The New Jersey delegation has been 
supportive of that. That's obviously a final decision for 
Congress to make.
    Senator Warner. Fine. Yes, that's very clear.
    Governor Pataki?
    Governor Pataki. Yes, we do.
    Senator Warner. Fine. Thank you very much.
    Mayor Giuliani?
    Mayor Giuliani. Well, I agree with both Governor Whitman 
and Governor Pataki. I think they're absolutely right. But 
flexibility, moving us into the 21st century with regard to the 
environmental standards that we're going to have to deal with, 
emphasizing bridges and tunnels.
    I guess one final point, which is that this is one method 
of helping cities maintain themselves and grow. America, as a 
Nation, does not fund its major cities the way the nations that 
we compete with do, which puts us at a disadvantage because a 
lot of the competition in the international marketplace is 
between and among cities, and when England and Italy and France 
and Germany and the countries of Asia are funding the 
infrastructure needs of their major cities, they have a more 
advanced understanding than we do that this is putting them in 
a very strong competitive position. And the pressure becomes 
greater as we become more international.
    Senator Warner. Let me ask a question to you which you are 
specifically well-qualified to answer. As we transition with 
our welfare laws into hopefully greater employment for those 
persons who heretofore in one way or another were so dependent 
on welfare, don't you feel that added funding by the President 
to this highway measure--and hopefully the Congress will do 
it--well help in the transition and the creation of jobs for 
many of those people?
    Mayor Giuliani. There's no question that it will. And since 
the displacement there is largely to our urban areas--in other 
words, those are the areas that are going to have to be able to 
produce significantly more jobs than has been the case in the 
last 10 or 15 years--it also puts an emphasis on public 
transportation.
    If we expect poor people to transition from welfare to 
work, many of them are not going to be driving automobiles; 
they're going to have to be using public transit.
    Senator Warner. Your point is well taken. Thank you very 
much.
    I yield back the balance of my time.
    Mr. Baucus?
    Senator Baucus. Thank you very much, Mr. Chairman.
    Governors and Mayor, I think I speak for all of us when I 
say how much we appreciate your underlining the importance of 
greater infrastructure spending in this country.
    As I think we all know, Japan spends about four times what 
the United States does on infrastructure as a percent of their 
GDP. The Europeans spend, I think, twice as much as we do.
    Now, it is true that our tax incidence is slightly lower 
than those other countries. There's more revenue spent in those 
other countries on lots of measures, including infrastructure. 
But the point is: I think that we are neglecting 
infrastructure.
    I was also very interested--Mayor, you talked about, I 
think, high-speed water shuttle. I took the water shuttle this 
morning over from LaGuardia here to Battery Park. It took 40 
minutes and wasn't too bad. But somebody on your staff--maybe 
the Governor's staff--mentioned that you're trying to come up 
with even a faster, higher-speed ferry service here, and I 
commend you for it.
    Mayor Giuliani. How did you like the view, Senator?
    Senator Baucus. The view is terrific. And I commend you 
also on such wonderful weather. It was great this morning.
    Mayor Giuliani. It's always like this.
    Senator Baucus. I know it is.
    [Laughter.]
    Senator Baucus. Just like Montana.
    Mayor Giuliani. Right.
    Senator Baucus. Every day is wonderful.
    I join, too, the chairman of the subcommittee--I think most 
of us do--in attempting to get more funds spent on the highway 
program. The highway trust fund will now support about $26 
billion annually for the next several years. I think every one 
of those $26 billion in the highway trust fund should be spent 
under whatever highway program we come up with, and I urge you 
in various ways to help us make that happen.
    The question I have for all of you goes to the question of 
flexibility. This week I will be introducing a highway bill 
which will essentially reduce many of the current categories 
that are now contained in the highway program in order to give 
to States and localities much more flexibility than they now 
have.
    Currently, portions of one account can be transferred at 
the request of a State or a city to another account. For 
example, bridge dollars or highway maintenance dollars or NHS, 
National Highway System dollars, up to 50 percent at the 
request of the State and with the concurrence of Federal 
Highway administrator can be transferred to some other use, say 
to the surface transportation account.
    So there is some flexibility, and considerable flexibility 
under current law.
    Nevertheless, I'm trying to find ways to provide even more 
flexibility than currently is the case. I'd like each of the 
three of you to basically tell this subcommittee where you 
think you can use and where additional flexibility would make 
more sense, or whether additional flexibility wouldn't make 
more sense. Maybe you think it's sufficiently flexible. But I'm 
trying to give you more flexibility.
    Governor?
    Governor Whitman. Senator, we love flexibility. I would 
just say that, under the current program, New Jersey has moved 
or flexed, to use the term of art that they like to use, about 
$163 million from some of the highway programs and CMAQ 
programs into the current need to be we have at the time to 
allow particularly for more emphasis on mass transit. We have 
then come in with State moneys to make up the deficit and have 
used it very well. The current system has worked well for us. I 
would not comment.
    Obviously, we always love increased flexibility, but the 
ability to move programs now within the recognized categories 
that exist has been very useful, and we have done it quite 
extensively.
    Senator Baucus. Mayor, I would be interested in your views.
    Mayor Giuliani. I think I would agree with the Governor, 
which is that flexibility has been very valuable to us. If 
flexibility means that we have more discretion and it doesn't 
mean any reduction in the amount of money that's available, 
then that's something we would support.
    Senator Baucus. Governor?
    Governor Pataki. Senator, we've, over the course of the 
first 6 years of the program, flexed--again, to use that word--
about 17 percent of the total funds we've gotten under ISTEA, 
over $700 million, primarily moving it to mass transit, because 
that is such a pressing need in New York State.
    To the extent we have greater flexibility to be able to 
utilize those funds from one program under ISTEA to another, it 
allows us to meet the unique needs.
    As you know, there was a group out there urging devolution 
of the highway tax funds. We think that is very much the wrong 
approach because you have to have a Federal program. But within 
the context of that Federal program, the needs of New York City 
and New York State and New Jersey may be very different from 
the needs of Montana or Idaho. So the greater the flexibility, 
the more we can meet the needs of our local constituents.
    Senator Baucus. It's just my understanding that even though 
a State now or city can transfer from one account to another, 
there still is considerable red tape and a lot of hoops you 
have to go through, and I'm just trying to figure out a way to 
minimize all that.
    Governor Whitman. Senator, I think you've touched on--I've 
testified and talked about the kind of regulatory change that 
could be made. That's precisely the kind of regulatory change 
that I think can be made. There can be a streamlining of the 
red tape and what we all have to fill out and go through in 
order to be able to move funds.
    Senator Baucus. I also appreciate your statements on how 
much your States and city contribute to transportation programs 
here in your various areas.
    We in Montana have, I think, the third-highest gasoline 
tax. It has to be that high to support our highway system in 
our State. We, like New York, are a donee State, but we also 
have extremely high gasoline taxes, and all of it is used for 
transportation. There is one State that has a higher State 
gasoline tax, but a good portion of their highway taxes are 
used for purposes other than transportation.
    My main point is that we all have needs, and I might just 
summarize, Mr. Chairman, and point out that the Department of 
Transportation in Washington has done an assessment of States 
around the Nation and determined that about half of our needs 
aren't even being met under the current bill, and that's true 
not only in New York--though very much in New York, as I could 
tell by the testimony here--but also in other parts of the 
country.
    Senator Warner. Thank you very much, Senator.
    Senator Moynihan?
    Senator Moynihan. Sir, I would certainly--I'm sure Bob Roe 
joins me in satisfaction of hearing the distinguished witnesses 
say this program has worked. It had a very specific origin, 
which was the proposition that the era of the interstate 
highway program was over, that we had built those roads.
    Unfortunately, the Department of Transportation couldn't 
think of anything else to do, and so they thought we'd build 
them a second time. They had a big roll-out from the executive 
office and President Bush came in and sat in front of a big map 
of the country with red lines all over it, and he asked, ``Are 
these new roads?'' They said no. It looked like, as much as 
anything else, something you might see in a Museum of Modern 
Art, abstract.
    But we said we had to think of, first, the aftermath of the 
interstate system, which emptied the cities of their jobs, of 
their manufacturing capacity. It was just as clear in 1956 as 
can be, when we said it was broken, that it would take 
manufacturing out of cities. Indeed, it was thought that would 
be a good thing, not understanding who would be left behind, 
and that's something we have been dealing with ever since.
    These are problems that national policy created and we 
would try to reverse.
    We also assumed that mass transit and such were essential.
    We had another idea, and I'd just like to see if it ever 
got down anywhere. The section 1036 of the statute is the 
national high-speed ground transportation programs, for which 
the first is the national magnetic levitation prototype 
development program.
    Now, maglev was invented on the Frog's Neck Bridge. A 
nuclear engineer from out in Brookhaven was going back to MIT 
for a beer party or something and he slowed down before he paid 
his toll and thought up maglev. If you're 28 years old and a 
nuclear engineer, you can do that. By 30 it's too late.
    [Laughter.]
    Senator Moynihan. It's the first new mode of transportation 
since the airplane, and extraordinary in that it is a form of 
ground transportation that does not rely on friction. So all of 
the--half the air pollution--a third of the air pollution in 
New Jersey and New York is just rubber tires' residue getting 
into the air.
    It worked extraordinarily. You can cruise at 280 miles an 
hour. You could have a maglev connection with--New York City is 
the only major city in the world to not have a rail connection 
to its airport. We could have a maglev that would go to Penn 
Station, JFK, LaGuardia, and back in about 11 minutes. That's 
what works.
    Now, the Germans--this is our problem. We think these 
things up and other people use them. The Germans are now about 
to open a maglev connection between Hamburg and Berlin. The 
Japanese are in their third generation. But that's the one 
thing that never seemed to happen under this statute was the 
maglev project.
    Have any of you encountered it? Has anybody in Washington 
sort of said, ``Would you like to try it?''
    Governor Pataki. You know, Senator, I'm reluctant to say 
this, but back when I was in the State Assembly I offered an 
amendment to the budget to add $1 million for maglev research. 
I was laughed off the floor of the Assembly at the time, but I 
thought it was something where we should look to the next 
generation of technology to see what can happen. But it hasn't 
happened as of yet.
    We have built the first inter-city high-speed rail system 
in the first train set in New York. It's not maglev; it relies 
on an upgrade or retrofit of the old technology.
    Senator Moynihan. A good 1830 issue.
    [Laughter.]
    Governor Pataki. Yes. That's correct. It's something that 
obviously has not happened. But if the technology is out there, 
if other countries are using it, we certainly would look at it.
    Senator Moynihan. I hope the day doesn't come when we have 
to import them from Japan.
    [Applause.]
    Senator Warner. Thank you very much.
    Senator Lautenberg?
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    I, too, want to commend the Governors and the mayor for 
their excellent statements. By sheer coincidence, it reinforces 
my point of view.
    I want to say this to you: we can talk about flexibility 
forever because we are all in agreement, at least I think it's 
fair to say those of us from the region would agree on the 
essential need to preserve and perhaps expand flexibility in 
the use of our transportation dollars.
    But is there any one of you who thinks that we don't have 
to enlarge the pie in order to have the distribution be more 
satisfactory?
    And by taking part of what it is that we get in the 
transportation programs and moving that off to recasting 
formula, and so forth, in my view, is not only poor timing but, 
frankly, poor planning.
    If we were to use that theory, then we would take the 
airport taxes that we get on our tickets and redistribute 
airport trust funds differently based on the origination of 
where the dollars are.
    I think that Governor Whitman said it correctly as she 
restated the use and, frankly, the abuse that goes along with 
it because these tires are pounding away at our highways and 
the need for repair, the need for traffic control is mammoth.
    We ought to, in some way, be compensated for the use of our 
roads differently than we would if we were just confined the 
using the lesser dollars that might come as a result of shift.
    So I would ask: what do you think we can do, any one of 
you, to encourage more funding availability?
    Now, I recognize we in the Congress have that 
responsibility, but, frankly, I've got to tell you, we need 
your help desperately because, as long as that pie stays small, 
there's a very tiny piece for all of us.
    We are, as Senator Baucus said, so deficient in the amount 
of money we spend relatively on infrastructure.
    So I would say to you that if you have any ideas on what we 
ought to do about getting more funding besides simply taking it 
from other programs that have their advocates and have their 
need, can we rally those who you know in the Congress to help 
us make the funding pie larger?
    Anybody want to say anything about that?
    Mayor Giuliani. Senator, I would encourage you to make it 
greater. I think the point that Senator Baucus made before, 
that we do not invest in our infrastructure as a national 
government the way our competitors do, will hurt us as a 
country, as a nation, as we compete with them.
    I also think that we have to consider the fact that the 
whole movement in Washington, most political parties, to return 
more power to State and local governments and to give us more 
control and to move away from unfunded mandates is a valuable 
one, but that there do remain areas of national responsibility.
    Our interstate commerce, interstate transportation is an 
area of national responsibility. No single city or state can 
really handle that responsibility.
    If the Federal Government doesn't invest in it, then we 
really can't make up the difference, so we get hurt as a 
Nation.
    I think we need a better understanding of what the 
partnership is between the national government and the State 
and local governments. I believe that, where willing, nowadays 
local governments and States need to take over a lot more 
accountability, a lot more responsibility, including financial. 
But the Federal Government has to also analyze its area of core 
responsibility, and national transportation, interstate 
commerce, international commerce--we can't do that alone. We 
need your help.
    Governor Whitman. Senator, one thing that I would say is 
transportation dollars for transportation needs is one way to 
address the problem.
    I would also say that, as you look at the formula, looking 
at a formula that's based on the age of the infrastructure, the 
congestion, the freight and air quality that goes through, as 
well as the level of effort the State puts in again may lead us 
to a more-equitable situation that takes into account some of 
the needs of the smaller States or States with smaller 
populations, larger land mass that needs to be addressed 
without significantly trying to find huge amounts of other 
dollars.
    Governor Pataki. Senator, if I might, just a couple of 
points.
    One, we are trying to get that support. Commissioner Daly 
has been around the country meeting with Federal officials and 
local officials.
    Just as one example, in the State of Georgia, while the 
State officials are looking to change the system, you have the 
Atlanta metropolitan region, where they are very supportive of 
our efforts to maintain mass transit funding, so we are trying 
to get them to argue with their Federal officials to support 
ISTEA, particularly the mass transit pieces, and we're trying. 
The Senator has been doing that across the country with a great 
degree of success. We are trying to work for that.
    But I'd like to just--I know the red light is on. One brief 
point. We would support moving that 4.3 cents to the Federal 
highway program, but we don't think that should be used simply 
to buy off States that are out there saying, ``Give us more 
because we have high taxes.'' You have to look at the local 
commitment, the local effort, and the total picture of what a 
State is sending to Washington in exchange for what they're 
getting back.
    Senator Lautenberg. Thanks.
    [Applause.]
    Senator Lautenberg. Mr. Chairman, I want to just say this: 
Mayor Giuliani said it, supported by colleagues on the right 
and left--the fact of the matter is that we have to focus on 
the nationality, on the national mission that transportation 
dollars have in our region just as much as we do on 
environment, just as much as we do on defense, just as much as 
we do on many other national programs.
    They're seen perhaps in one area, but the effects are 
national. We have to continue to focus on that.
    Thank you very much.
    Senator Warner. Thank you, Senator.
    Senator D'Amato?
    Senator D'Amato. Mr. Chairman, let me make an observation.
    Under the proposed budget of the Administration, we would 
lose about $1 billion over the next 6 years. Now, that's not 
making progress. That is just simply going backward.
    I'll address some questions to Secretary Downey with 
respect to this, but if he were operating a system as he did 
previously, I don't think he'd be supportive of that.
    Second, I want to commend both the chairman, Senator 
Warner, and Senator Lautenberg for touching on a point, and 
Governor Pataki, and that is as it relates to the 4.3 cents a 
gallon which is now going for deficit reduction.
    Here we have a huge deficit that continues to increase as 
it relates to the roads and the bridges and the highways and 
the mass transit and the infrastructure, and we're supposed to 
have a dedicated source--that is, the moneys that people are 
paying and taxes--to go for transportation and/or for 
infrastructure that makes that transportation possible.
    Why not take that 4.3 cents, make it available to the 
States, and you might even want to make it available on the 
basis of some type of compromise because compromise is, after 
all, an essential ingredient in a democratic form of 
government. You don't have one person who can impose his or her 
will. We represent varying and different constituents, and we 
have obligations to them.
    So why not consider taking the 4.3 cents--and, by the way, 
a penny generates between $1.4 billion to $1.5 billion a year, 
so if we take the $1.4 billion, multiply it by 4.3 cents, we're 
talking about a significant pool of money, about $6 billion. 
That's at the low side. That's $6 billion annually.
    But if you distribute that in a form of an infrastructure 
bill over and above the present allocation, you will be giving 
a leverage of anywhere from $40 to $60 billion a year to local 
States as they bond out those bridges, as they bond out those 
projects, because they don't spend on the same system that we 
do.
    Therefore, it would seem to me an infrastructure bill 
utilizing that $6 billion could be leveraged into anywhere from 
seven to ten times the amount.
    Imagine $40 billion a year worth of construction that the 
States determine whether it be highways, whether it be tunnels, 
whether it be schools----
    [Applause.]
    Senator D'Amato.--whether it be roads. I would suggest that 
the mayors and the Governors know best the allocation. Give 
them that flexibility with these dollars--total flexibility. In 
one community you've got bridges that are falling down. They'll 
build bridges.
    By the way, if you have educational plants that are falling 
down, schools, and you need those dollars, why not allow the 
State and local governments to make those choices?
    Senator Dodd and I are working on legislation to do that, 
and I'd like to ask the Governors and the mayor what they might 
think. Could they be supportive of that kind of legislation?
    Governor Pataki. Senator, let me just say that we have been 
enormously encouraged by the change in attitude that gives more 
authority to the States. We want to see that continue, and we 
want to see it expanded as we go forward.
    From our standpoint, the ISTEA program has worked because, 
one, it has recognized need; two, it has recognized local 
commitment; and, three, it has allowed us the flexibility to 
provide for local needs.
    We want to see that continue as we go forward. We want to 
see that opportunity exist.
    You are quite right in pointing out that what we've been 
able to do is to make a legitimate capital investment by 
bonding. Our $12 billion mass transit program and our $12 
billion highway program allow us to invest in infrastructure 
that will have a life of 30 years or more.
    With respect to education and schools, it is obviously a 
priority of the mayors of mine that we move forward on this. I 
don't know whether or not using ISTEA funds and giving us even 
that----
    Senator D'Amato. Not ISTEA. I'm talking about the 4.3 cents 
that now goes into deficit reduction, to include that over and 
above, which would be anywhere from $6 to $7 billion more 
available in the pool.
    Governor Pataki. Senator, we would love it, and we will use 
it wisely, and we will use it to invest in the future of the 
people of this great city and State.
    The broadest possible flexibility obviously would be the 
most helpful to us at the State level.
    Governor Whitman. Senator, if I could, certainly 
flexibility is the critical issue with us, and we have been 
talking today, all of us, about the fact that we have a 
national transportation infrastructure that needs to be 
recognized as we move forward with this particular 
subcommittee's hearings and your deliberations.
    Obviously, any Governor will say that we know how to use 
moneys and we know how to use them well, and we appreciate the 
change that has taken place in Congress recently, but I do want 
to reiterate what I said before--that I do believe 
transportation moneys for transportation needs, and that would 
include the 4.3 percent.
    Infrastructure is important, and there are a lot of 
different infrastructures. We are committed to our school 
system and its improvements in the State of New Jersey and have 
made significant new contributions to that. We could always use 
dollars. But we do have a national transportation need that 
needs to be recognized, and the flexibility under ISTEA has 
allowed us to direct our dollars to meet a number of different 
national goals.
    And I certainly support the 4.3 being allocated to 
transportation needs as a first step, and if there's something 
that can go further to give States additional flexibility, 
we're always ready to step up to the plate.
    Senator Moynihan. Mr. Chairman, may I make one point?
    Senator Warner. Go ahead.
    Senator Moynihan. It fell to me as chairman of the Senate 
Finance Committee to enact this 4.3 gasoline tax for purposes 
of deficit reduction, and I can recall that it took 1 week in 
room 301 of the Senate to get Senator Baucus to go from 4 cents 
to 4.3.
    [Laughter.]
    Senator Moynihan. We got to 4.1 on Tuesday, 4.2 on 
Thursday, and finally he had to come back to Montana so we 
settled for 4.3. But we did that as deficit reduction at a time 
when it had to be done.
    I think that time in this sense has passed. We have a 
primary surplus. We have debts to pay off, but we are not 
incurring debt. It's a saving for interest.
    I think this money--I always assumed it would be a one-time 
event for the purposes of deficit reduction and then resumed 
its role as a form of transportation investment. I think we can 
do that in our committee. It will come to the Finance 
Committee, too, and Senator D'Amato and Senator Baucus and I 
are there. We've got three votes already.
    [Applause.]
    Senator Baucus. Mr. Chairman, this 4.3 cent issue is a very 
important one. In fact, during the last several weeks I have 
been drafting legislation and will introduce legislation next 
week or the following week which will divert that 4.3 cents to 
the trust fund. Actually, it takes 3.8 cents out of the 4.3 for 
the highway trust fund and the remaining nickel, remaining five 
cents, for Amtrak.
    I'm doing that in part because I think that these dollars 
should go to infrastructure, not to general deficit reduction.
    As you all know, it was sort of smoke and mirrors the way 
we come up with budget deficits as we strive to zero balance. 
But also because I think it's wrong under the Administration 
proposal to take dollars off the top of the highway trust fund 
to finance Amtrak, I think that's wrong because it lowers the 
dollars that are otherwise available to be allocated among the 
States for highway needs.
    So instead of the total 18.3 cents we now have of Federal 
gasoline tax, 12 cents for highway trust fund, 2 to mass 
transit, 4.3 to deficit reduction, we take that 4.3 and, as I 
said, divert the balance of it to the trust fund, highway trust 
fund, and the other nickel for Amtrak, which is extremely 
important, as we all know, to the northeast, as well as to 
other parts of the country.
    I think we're--I'm very hopeful that we can get most of 
that passed.
    I want to followup a bit on Senator Lautenberg's point. We 
all can help each other here. We're trying to help, frankly, 
our Nation, generally, and helping meet your needs, as well as 
needs of other parts of the country, but you can help, too, 
through the National Governors Association or through the 
League of Cities and Towns or other organizations, Mayor, that 
you belong to, in talking with members of the House and Senate 
Budget Committees and Appropriations Committees to help make 
this happen.
    By ``this'' I mean not only the diversion of 4.3 to the 
trust fund, but also the full $26 billion out of the highway 
trust fund used and spent for transportation, highway 
transportation purposes.
    We need your help, too.
    Senator Lautenberg. Mr. Chairman, I'm sorry to do it, but 
equal time.
    Senator Warner. Go right ahead.
    Senator Lautenberg. I just want to say this: each of us, as 
I'm sure all of you know, wears several hats. Senator Moynihan, 
Finance Committee, Senator Baucus, Senator D'Amato. And one of 
the hats that I wear is the senior democrat on the Budget 
Committee.
    Now, we have a task at hand, and I'm sure that the sound 
may not reverberate just as pleasantly as we go up the ladder 
here, but the fact of the matter is we are committed to trying 
to balance the budget in the next 5 years, and if we take the 
4.3 cents and we direct it--and I would like to see it. When it 
comes to transportation, I don't think that we can invest 
enough money wisely to get the job done that's required.
    But we would be adding roughly $6 billion a year to 
deficit, and, taken over a 5-year period, that's a fairly 
significant chunk.
    Now, included in that 4.3 is the proposition by the now-
chairman of the Finance Committee to fund Amtrak, which in my 
view is an integral part of our formulation for mass transit. 
It's one of the most critical items in our transportation need, 
and that is high-speed rail service. We're like Looney Tunes 
when it comes to what's happening, as Senator Moynihan said, 
compared to other countries.
    And so I salute more money for transportation, but I say, 
for those of you who want to see a balanced budget by the year 
2002, that if we kind of carry this forward we're looking at a 
$30 billion contribution to the budget deficit each year, and I 
think that has to be considered.
    Senator Warner. Thank you very much. We've had an excellent 
presentation by our distinguished excellencies, one and all.
    Did you indicate, Governor Pataki, you had a point?
    Governor Pataki. I just wanted to respond to Senator 
Lautenberg.
    We've been trying to help balance the Federal budget by 
reducing the cost of Federal entitlement programs here in New 
York State, with Mayor Giuliani's enormous leadership. We've 
done that. In fact, this year, for the first time in the modern 
history of the State, we are spending less Federal funds than 
we did the year before because of some of the changes.
    That just allows hopefully Washington to do things like 
transfer that 4.3 cents to transit needs.
    Senator Warner. Thank you very much.
    The subcommittee will now hear from panel two after about a 
two-and-a-half minute stretch.
    Thank you very much.
    [Recess.]
    Senator Warner. Thank you very much.
    The subcommittee will now hear from The Honorable Mortimer 
L. Downey, Deputy Secretary, U.S. Department of Transportation; 
Mr. Thomas M. Downs, chairman, president, and chief executive 
officer of Amtrak; Mr. James Sullivan, acting commissioner, 
Connecticut Department of Transportation.
    Mr. Secretary, we're delighted to have you with us today.
    We've had the opportunity of having Secretary Downey appear 
before the subcommittee this morning, and it would be my hope, 
Mr. Secretary, that you could orient your comments today with 
respect to what you have learned from the very distinguished 
panel that preceded and how that could well affect the thinking 
of the Administration. That's just my view. There may be 
others.
    Thank you very much, Mr. Secretary.

 STATEMENT OF HON. MORTIMER L. DOWNEY, DEPUTY SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Downey. Thank you, Mr. Chairman, Senators. I appreciate 
the opportunity to be here this morning on behalf of the 
Administration.
    Senator Warner. We are going to have a 5-minute rule, 
gentlemen, and try to thereby continue our hearing on schedule.
    Thank you.
    Mr. Downey. I particularly appreciate being in this 
historic building. It's the first time I've been here since 38 
years ago when I was sworn into the Coast Guard. It's seen a 
lot of work since then.
    I'd like to talk about NEXTEA, the Administration's 
proposal, and in fact the way that it addresses many of the 
issues that have been raised by the previous panel. I have a 
longer statement that I would like to submit to the record.
    Senator Warner. It will be admitted in its entirety.
    Mr. Downey. NEXTEA would raise overall transportation 
authorizations by 11 percent to $175 billion, including 
increases in the core highway programs and 17 percent increase 
in major transit investments, such as the Queen's Connector and 
the Hudson-Bergen Light Rail Line. So there is additional 
funding.
    These two projects now underway in this region are among 17 
full funding grant agreements executed in the last 4 years. 
These agreements, worth about $6 billion in Federal funds, are 
also leveraging an additional $5 billion in non-Federal 
investment, producing overall a 100 miles of new rail lines 
around the country.
    Additional funds have been made available, nearly $3 
billion dollars worth, through flexibility--the kind of 
flexibility that we've heard is a high priority from all of the 
panelists this morning--and we want to continue this 
flexibility, and strengthen the ability of planners to target 
funds to projects which make sense for local communities.
    We've also proposed changes to the apportionment formulas 
to ensure that they will use current and valid data. In order 
to avoid disrupting ongoing programs, we've proposed 
adjustments that would ease the transition toward a sounder and 
more logical basis for apportioning funds.
    If Congress funds NEXTEA at the levels we've proposed for 
the next 6 years, it would mean nearly $12 billion for New York 
State, nearly $5 billion for New Jersey, and more than $2.7 
billion for Connecticut.
    The construction and other work generated by this plan 
could support a million jobs nationally, including 75,000 here 
in New York.
    Our transportation system is not just about moving people 
and products efficiently, as important as that is to our 
prosperity; it's also about enabling people to travel safely. 
It is, indeed, about saving lives, and we've heard that this 
morning--the importance of safety in our highway investments.
    The President's proposal would increase highway safety 
funding authorizations by more than 25 percent, targeting to 
those areas that would have the biggest safety pay-offs.
    NEXTEA would also protect the environment, increasing by 30 
percent funding to help communities clean up their air through 
projects such as the Red Hook freight barge, and it also 
sustains support of the transportation enhancements program.
    The President's plan addresses other national priorities. 
NEXTEA would reduce the barriers faced by those moving from 
welfare rolls to payrolls by encouraging affordable 
transportation to jobs. It includes a $600 million program of 
flexible, innovative alternatives to get people to where the 
jobs are.
    And NEXTEA looks to the future, with investments in 
technology, research and development, with continued support of 
our Bureau of Transportation Statistics and with other 
investments in the future.
    Finally, NEXTEA would apply common sense to transportation 
operations, focusing on results, not on process, cutting red 
tape and streamlining requirements, promoting innovation, such 
as new ways to pay for roads and transit systems, and giving 
State and local officials even greater flexibility to target 
Federal funds to projects, including Amtrak projects which best 
meet community needs.
    NEXTEA, in summary, would give Americans what they told us 
during our year-long outreach they want: transportation that's 
sensitive to environmental concerns and enables them to get to 
their destinations safely, conveniently, and on time.
    NEXTEA continues the many Federal programs which work, 
refines those which haven't yet fully realized their promise, 
and creates new initiatives to meet the challenges of the new 
century.
    Secretary Slater and I look forward to working with you and 
your colleagues in Congress to make this legislation a reality, 
to fit it in with the imperatives of balancing the budget, and 
to see that it will provide for the kind of investment that 
will improve our transportation system into the next century.
    Thank you.
    Senator Warner. Thank you very much, Mr. Secretary.
    Senator Warner. You've played a pivotal role in the 
development of this bill. You also were privy to the statements 
by members of this subcommittee and our colleague, Mr. D'Amato, 
about the need to get the President and the Administration up 
in this dollar figure. It would be my hope that you'd carry 
that message back to the Secretary.
    Thank you.
    Mr. Downs?

 STATEMENT OF THOMAS M. DOWNS, CHAIRMAN, PRESIDENT, AND CHIEF 
                   EXECUTIVE OFFICER, AMTRAK

    Mr. Downs. Thank you, Chairman Warner, Chairman D'Amato, 
Senators Baucus, Moynihan, Lautenberg.
    I was just thinking, as I was listening to the comments of 
the previous panel and your comments, in return, that perhaps 
there is one thing that links east and west, north and south, 
about this debate. While we can have lots of debate about donor 
and donee, I think I've had conversations with each of you on 
an individual basis about Amtrak in your jurisdiction, your 
State, and the role that it provides there.
    I know, Senator Baucus, we've had conversations about the 
importance of Amtrak in Havre and Cut Bank and Whitefish; and, 
Senator Moynihan, about the great Farley Penn Station project 
and the future of high-speed rail; Senator Lautenberg, about 
the capital that goes into the north end of the corridor to 
develop high-speed rail; Senator Warner, service in Danville, 
Alexandria, Richmond, and high probability at some point of 
developing higher-speed rail to Richmond; and, Senator D'Amato, 
about appropriations for Amtrak and the role that Amtrak plays 
in New York City and New York State.
    I think we have tried to be a partners in this process 
about developing national transportation policy with one hand 
tied behind our back and with a crutch. Amtrak has been outside 
of the debate for a generation, at least, and probably since 
its inception.
    Let me say a little bit first about what we do locally and 
why Amtrak is important to New York and New Jersey and this 
region.
    We carry 70 percent of the air/rail market between 
Washington and New York. I'm going to say that again--70 
percent of the combined air/rail market is on Amtrak. It would 
increase substantially with the delivery of the 150-mile-an-
hour high-speed train sets.
    Right now we are about 20 percent of the market between New 
York and Boston. It would probably increase to about 55 
percent. We currently have 18 trains a day to Boston out of New 
York, and it would increase to 50 trains a day.
    Currently we run 110 trains a day in and out of New York, 
and the impact of that is about eight million riders in and out 
of New York City every year.
    We carry the equivalent of 27,000 automobiles a day. We 
carry over a year's period of time the equivalent load of 7,500 
fully loaded 757s.
    It is, though, oftentimes not fully understood that this 
corridor lives economically on the east coast, with 23 percent 
of the population of the United States and about 25 percent of 
the economic activity of the United States, lives and breathes, 
literally, with Amtrak rail passenger service.
    It is a capital-intensive service. It always has been. The 
impact of drastically under-funding capital is that it is in a 
sorry state of affairs.
    One of those that we let slip away in terms of capital was 
Penn Station, the gorgeous structure that was torn down by the 
Penn Central Railroad to build the garden. Now I think the term 
is, instead of entering New York like a god you slouch into----
    Senator Moynihan. Slither.
    Mr. Downs. I'm sorry, Senator. Slither----
    [Laughter.]
    Mr. Downs.--like a rat, a snake.
    This terminal carries more passengers than most airports in 
the United States. It has more economic activity generated than 
most airports in the United States. It carries more traffic 
than more interstates ever would think of.
    With the coming of high-speed rail and New York as a hub, 
it requires a focus on what is necessary to make this most 
essential part of Amtrak's national system work.
    Of our ridership, 40 percent comes in and out of New York 
every day.
    To get that capital, ultimately--Senator Baucus has 
mentioned and others have mentioned the dedicated half-cent gas 
tax trust fund for Amtrak, and I believe that it's in draft 
legislation that has been proposed by a number of you as a 
future solution to our funding problems, and I want to say that 
I think that it is a part of a consensus that can bind east and 
west. The interest is diverse, as Senator Baucus' in Montana 
and Senator Moynihan's in New York and Senator Lautenberg's in 
New Jersey are all bound into that capital trust fund. It makes 
the national system of Amtrak work much better.
    The last piece--and I know the light is off. I've always 
been struck with the power of that red light--the last piece is 
funding flexibility.
    Senator Moynihan mentioned Chairman Roe. He and I talked 
about building Amtrak into the original ISTEA. There was one 
reason why it was not. It was a jurisdiction issue in the House 
between Chairman Roe and Chairman Dingell that could not be 
resolved. Everyone agreed that there needed to be funding 
flexibility. It was in Senator Moynihan's bill, but it died for 
lack of a jurisdiction agreement.
    Ironically, States can spend money on bike trails, 
snowmobile trails, scenic easements--everything but Amtrak. 
Legally, States are prohibited by law from spending these funds 
for Amtrak.
    I've talked to a number of Governors around the United 
States. There was a test vote in the Senate that passed by a 
two-thirds vote, bipartisan, endorsing funding flexibility for 
Amtrak. And I would encourage this committee to do the two 
things that I think will help Amtrak survive as a national 
system. One is funding flexibility; the other is the creation 
of the trust fund, itself, or half cent for Amtrak.
    Senator Warner. Thank you, Mr. Downs.
    Senator Warner. Mr. Sullivan, we welcome you. Our 
colleagues, Senators Dodd and Lieberman, are very active in the 
progress that this concept of legislation is moving along, and 
we welcome the participation of Connecticut.
    Thank you very much.

 STATEMENT OF JAMES SULLIVAN, ACTING COMMISSIONER, CONNECTICUT 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Sullivan. Good morning, Mr. Chairman and members of the 
committee. I want to thank you for this opportunity to speak to 
the committee concerning Connecticut's perspective as a State.
    Let me start off by saying that ISTEA has changed the way 
we look at transportation, this industry. It has refocused the 
idea of how we want to approach the issues of transportation. 
It has effectively changed the direction of the Federal surface 
transportation policy. It has provided for flexibility in 
funding that addresses the transportation infrastructure system 
preservation, intermodalism, and system efficiency. We support 
this idea.
    The funding flexibility provided by ISTEA has provided 
positive impact on Connecticut's transportation program by 
granting program options that did not exist under previous 
rules of our previous highway bills.
    Connecticut has been a national leader in establishing 
aggressive transportation rehabilitation programs. ISTEA 
funding has been critical in addressing Connecticut's 
transportation needs.
    The accomplishments achieved throughout the life of the act 
greatly advance Connecticut's goal of a safe, efficient, well-
maintained transportation system. A combination of ISTEA 
funding and State commitment of its own resources have helped 
Connecticut to complete its interstate system; rehabilitate, 
reconstruct many of our old, aging bridges; resurface and 
rehabilitate hundreds of miles of State highways; improve urban 
and rural highway systems; reconstruct many local bridges; as 
well as improve the rolling stock and facilities of our transit 
system.
    The national perspective on transportation must continue to 
be advanced. Unlike other States, Connecticut does not hold 
that national transportation appropriations should be tied to 
the amount of money a State sends to Washington.
    To base appropriation of Federal funds on how much money a 
State sends to Washington is to counter the concept of national 
priorities. We are not 50 individual States but a nation of 50 
States.
    Surface transportation's vital role in interstate commerce 
and national defense warrants a Federal role and presence. This 
Federal role is essential in supporting our national economic 
growth, global competitiveness, and a substantial quality of 
life.
    Distribution of Federal transportation dollars should first 
and foremost be based upon system needs, the State's level of 
effort, volume of usage, and the relative difference of cost in 
doing business from State to State. This is especially critical 
in the northeast States, which have some of the most densely 
traveled facilities which, through age and usage, have the 
highest demand for preservation and enhancement.
    Let us not forget in our discussion concerning the 
authorization the essential needs of transit programs. We 
believe there is a continuing need for both capital and 
operating Federal assistance for our transit systems.
    As the debate on reauthorization continues and intensifies, 
I believe that continued and increased support for 
reauthorization of ISTEA with modest improvements will carry to 
its enactment.
    We should look to build those aspects of the act which work 
well and are beneficial to both the national and the States' 
interest. The fundamental structure of ISTEA is sound and 
should be preserved.
    State, regional, local, and other stakeholders have 
invested heavily in making ISTEA work, and those efforts should 
not be wasted, as proposed by some advocates.
    Connecticut also supports the priority corridor program, in 
general, and the I-95 Coalition, in particular. In the 
northeast, as in many congested urban areas, technology can 
enhance the safety and capacity of the existing highway and 
transit systems.
    While we support reauthorization of ISTEA, we also 
recognize that it's not perfect and support proposed modest 
modifications.
    As part of an extensive review and discussion undertaken 
with fellow ISTEA Works Coalition representatives, better than 
20 recommendations have been submitted, which we believe will 
improve the administrative procedural processes in ISTEA.
    We also fully support access to highway trust fund 
revenues. Our State transportation system, like those around 
the country, continues to show that infrastructure needs far 
exceed available funds.
    In addition, we strongly support the continuation of a 
national rail transportation system. Dedication of a half cent 
of the 4.3 cent diversion is critical to ensuring broad-based 
support for this system.
    In summary, let me say that ISTEA has been a positive 
initiative in developing a seamless intermodal transportation 
system to serve the Nation, State, and local needs. We believe, 
with modest changes to its requirements and funding, it will 
adequately serve the transportation community and stakeholders 
in the next century. Federal involvement is crucial to ensuring 
national transportation objectives and connectivity of the 
system in providing equitable funding based upon need, usage, 
and State level effort.
    Again, let me thank you for the opportunity to present 
Connecticut's perspective on reauthorization. Governor Rowland 
and the Connecticut Department of Transportation stand ready to 
help you in the process.
    Senator Warner. Thank you very much, Mr. Sullivan.
    Senator Warner. I say to my colleagues, given that we are 
running slightly behind, I'm going to limit my questions to 
just a minute or so.
    Mr. Downey, just basically a statement. We're going to work 
very hard in this committee and others to streamline programs 
in such a way that it doesn't take 9 years from concept to 
delivery of a system.
    Formally, informally, or otherwise, I would hope that the 
Secretary or yourself would step up and work with us to try and 
improve whatever legislation comes out. There will be 
legislation, obviously.
    Mr. Downey. We have some experience in some demonstrations 
and studies we've done around the country that show how that 
can be done, and we'd be glad to share that with you.
    Senator Warner. I once said it takes 9 years to build an 
aircraft carrier. I think it's slightly more complex than some 
of the transportation jobs.
    On Amtrak, Mr. Downs, obviously you've got financial 
problems, and I'm going to join with Senator Baucus on his 
piece of legislation.
    But if Amtrak receives this additional funding, will these 
dollars be used to pay off debt or to make capital 
improvements?
    Mr. Downs. Senator, they have to be made around capital 
investments. The only thing that will save us over the longer 
haul is making investments that have a high rate of return: 
improvements on track, improvements on stations, improvements 
on information systems, ticketing systems that help us reduce 
cost over the long haul.
    So the answer is they have to be made on the highest rate 
of return.
    Senator Warner. Clear. Thank you.
    Mr. Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Downey, I just hope that the Administration relents in 
its opposition to the current levels of appropriated dollars 
that the Administration has so far presented in its budget on 
highways. I think it's inadequate. I think most Members of 
Congress find it inadequate. I just hope that the 
Administration joins in with us in increasing those 
appropriated dollars.
    Mr. Downs, I want to thank you very much for all your 
services of Amtrak. We will have--I think now do have daily 
service back up on the High Line of Montana. We very much 
appreciate that. And I commend you and others in developing 
high-speed rail in the northeast.
    I very much would like to have the United States have a 
state-of-the-art and the best high-speed rail service in the 
world. Even though we in Montana won't be able to ride on it 
except when we visit, we'd be very proud as Montanans to have 
you and others develop that and we'll do what we can to help 
make that happen.
    Mr. Downs. Thank you, Senator.
    Senator Baucus. Thank you, Mr. Chairman.
    Senator Warner. Thank you.
    Mr. Moynihan?
    Senator Moynihan. Just for the record, sir, it is Vincent 
Scully, professor of architecture at Yale, who said, ``In the 
days of Penn Station one once entered New York City like a god, 
and today you slither in like a rat.''
    [Laughter.]
    Senator Moynihan. But it may be we can recreate that 
experience and I think Mr. Downs has shown how central this 
nexus it to whole Amtrak program. We thank you, sir.
    And you're absolutely right. The Senate was entirely 
prepared to include Amtrak in the funding, automatic funding. 
It was just jurisdictional old bull behavior in the House that 
prevented that.
    Mr. Downs. Senator, my recollection is the old 20th century 
rolled out a red carpet, didn't it?
    Senator Moynihan. Yes, sir.
    Senator Warner. Thank you very much.
    Senator Lautenberg?
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    In the interest of expediency, I will just ask Mr. Downey 
whether you see any opportunity through ITS, intelligent 
systems, to advance the value of the dollars that we spend on 
transportation that are going to be significant in the future 
if we make the investments now.
    Mr. Downey. As we all know, there is a lot more to be done 
than any of our resources can do. We view the use of 
Intelligent Transportation Systems as one way to make those 
dollars go further.
    You and I visited earlier this year at the opening of the 
Transportation Control Center in this region.
    Senator Lautenberg. We did.
    Mr. Downey. That's the kind of thing that can make the 
system work much better.
    Experience in Minneapolis, for example, reduced congestion 
with an ITS system, and this has increased freeway speeds by 35 
percent. Fare collection and toll collection is happening much 
quicker where electronics have been put in place.
    We just see this as a way to make the system work. Overall, 
our estimates are that there's an eight-to-one benefit-cost 
ratio in ITS investments, so we in our bill propose that any of 
the core program funds can be used for ITS, and there's a 
special program to try to pull the investments together to make 
it work in a coordinated fashion.
    Senator Lautenberg. I would just ask one other thing, and 
that is, Mr. Downey, that as you do your planning for the next 
iteration of ISTEA, that we not ignore the safety requirements 
that mean so much to all of us, every family in America. That 
includes, in this Senator's view, controlling truck weights; 
controlling longer combination vehicles, not having them on 
roads that can't support their particular configurations; and, 
last, to continue to pursue the fight against drunk driving in 
this country. Don't give up on those things.
    Thank you, Mr. Chairman
    Senator Warner. Thank you.
    Senator D'Amato?
    Senator D'Amato. Thank you, Mr. Chairman.
    I think that my colleagues have made the point, Senator 
Baucus. On one hand the budget says we're going to increase 
spending under NEXTEA by 11 percent, but you don't appropriate 
the money. That is just smoke and mirrors, and I've seen that 
over the years in past Administrations. We've been as guilty as 
others. But it's just not acceptable.
    I hope that we would recognize it.
    Second, I note that there wasn't even an attempt at smoke 
and mirrors when it came to mass transportation. They were cut 
a billion dollars over the 6-years, even in the authorization. 
So if you cut it a billion in the authorization, what's it 
going to wind up in the appropriation?
    I would hope that we would recognize that. When I said that 
we were going to take a cut of $1 billion over 6 years that was 
factual. The fact is that you don't have an 11 percent increase 
if you haven't provided the appropriation for it.
    Again, I reiterate what Senator Baucus has indicated. 
That's just going in the wrong direction. That's one thing I 
think all of us--those of us who want to preserve formulas as 
it is, those who want some change, we all agree that you at 
least have got to spend at the same levels and increase it and 
spend the money that we're collecting. It's just not fair. 
American people are paying for the bridges, for the tunnels, 
for the highways, for mass transit, so let's see that it gets 
out.
    I just share that thought with you.
    Thank you, Mr. Chairman.
    Senator Warner. Thank you very much, Senator.
    Gentlemen, if there's nothing further we'll thank our 
distinguished panel and proceed to the next panel.
    Thank you very much.
    We have now Mr. Robert E. Boyle, executive director of the 
Port Authority of New York and New Jersey; Mr. E. Virgil 
Conway, chairman, Metropolitan Transportation Authority; J. 
William Van Dyke, chairman, North Jersey Transportation 
Planning Authority; and Janine G. Bauer, executive director, 
Tri-State Transportation Campaign.
    Mr. Boyle, the executive director of the Port Authority of 
New York and New Jersey, we welcome your testimony. Thank you.

  STATEMENT OF ROBERT E. BOYLE, EXECUTIVE DIRECTOR, THE PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Boyle. Good morning.
    Mr. Chairman, distinguished Senators, at a point in time in 
these hearings where redundance may become acute, I appreciate 
your attention and your patience.
    Senator Warner. We're going to put all the statements in 
the record, and I think you could make it most profitable if 
you could draw on what you've heard today and add it with your 
own thoughts.
    Mr. Boyle. I will attempt to make my presentation brief.
    I cannot help but pile on the opposition that most of the 
witnesses here have exhibited and stated to the idea of 
sourcing ISTEA funds from whence they came.
    As the operator of four airports in this area, I would have 
to tell you that if we used sourced aviation funds in the same 
fashion, that we would not have a national aviation plan or a 
national aviation system.
    ISTEA's basic principles have great meaning in this region: 
rebuilding infrastructure, reducing congestion, improving 
mobility and intermodal connectivity, promoting safety, 
protecting the environment, planning regionally, and making the 
country ever more competitive in the global marketplace.
    I'd like to take a moment to explain why Federal investment 
in the metropolitan area is both critical to the national 
interest and money well spent.
    With a population of 15.7 million people and personal 
income approaching $500 billion, this is one of the Nation's 
most economically dynamic regions. In 1996, over $150 billion 
in international trade moved through this region's port and 
airport gateway facilities. Almost one out of every four 
dollars of international trade by water or air moved through 
this region.
    Retail activity exceeding $100 billion annually reflects 
the volume of goods that must be transported from the American 
heartland and from overseas.
    Over $90 billion of imports enter the United States' 
economy through the New York and New Jersey gateways, 
generating Customs collections estimated at $5 billion. Per 
capital personal income which approaches $32,000 is one of the 
highest in the Nation.
    Just considering Federal Customs and income tax receipts, 
the bi-State region is one of the most significant contributors 
to the Federal Treasury.
    Investment in the transportation infrastructure will 
largely determine whether this region--and, for that matter, 
others such as Senator Warner's Hampton Roads--remains a 
thriving and competitive international gateway for the United 
States.
    The demand on the U.S. transportation system generated by 
ever-increasing international trade is requiring more and more 
from our infrastructure. The Port Authority is both a 
transportation provider, through its international gateway 
facilities, interstate crossings, and transit connections, and 
a consumer of other agencies' transportation services through 
its mission to support regional trade and commerce. 
Transportation facilities in this region are elements of a 
multimodal network.
    While the Port Authority receives little in ISTEA money, 
Federal funding for State and local projects improves our 
ability to move passengers and cargo through our airports and 
through the Port of New York and New Jersey.
    Likewise, our investments benefit the regional 
transportation network. For example, the Port Authority's Board 
of Commissioners recently authorized $24.3 million to install 
intelligent transportation system technology at the George 
Washington Bridge to improve the traffic flow of goods and 
passengers along the northern corridor.
    In addition, our board approved a $23 million expenditure 
for a new roadway at Kennedy Airport, which will aid in 
improving traffic flow on airport and along the southern 
corridor. This will also increase the efficiency of goods and 
passenger movement throughout this region.
    In addition, we have partnered with our colleagues in the 
State Departments of Transportation and other agencies to build 
coalitions to improve the vast transportation network that 
defines our Nation's largest market and global gateway.
    Simply stated, ISTEA works. As you move forward in the 
ISTEA debate, the primary aim should be to make a good law 
better, an improved blueprint for transportation decision-
making.
    We believe emphasis should be placed on achieving an 
efficient transportation system. Just as we are in total 
agreement with the positions of our States, we also make 
recommendations outlined in my printed statement that would 
enhance regional mobility goals.
    Key among them are: to strengthen ISTEA to encourage true 
intermodal planning, to promote regionalism by creating 
incentives for States to fund projects of regional 
significance, to incorporate airport and seaport access and 
development into planning guidelines with funding allocations, 
to require metropolitan planning organizations to include all 
major transportation operators as voting members on their 
boards, and to retain emphasis on national environmental goals.
    ISTEA's greatest success is that, in addition to improving 
the Nation's transportation system, it is improving the quality 
of people's lives.
    We urge swift reauthorization of ISTEA so the momentum can 
be continued.
    Thank you.
    Senator Warner. We thank you very much, Mr. Boyle.
    Senator Warner. Mr. Conway?

     STATEMENT OF E. VIRGIL CONWAY, CHAIRMAN, METROPOLITAN 
                    TRANSPORTATION AUTHORITY

    Mr. Conway. Chairman Warner, Senators Moynihan, Baucus, 
Lautenberg, distinguished members of the committee, and our 
dear friend, Senator Al D'Amato, chairman and member of many 
other committees, it is a pleasure to join you today to discuss 
the impacts of ISTEA reauthorization on the Metropolitan 
Transportation Authority.
    When ISTEA was first adopted by the 102d Congress, it 
marked an important moment in the development and maintenance 
of our Nation's public transportation facilities because ISTEA 
recognized that transportation is not simply about moving 
vehicles, it's about moving people.
    No organization moves more people more efficiently than the 
MTA. The MTA is the largest public transportation provider, by 
far, in the western hemisphere. Every day 5.5 million people 
travel on the MTA facilities, and annually more than 1.7 
billion customers use our rail or bus service.
    Our significance is based not only on the number of people 
we move, but also on the economic importance of our region. 
That is why we are particularly concerned with the outcome of 
this year's ISTEA reauthorization process and how it will 
affect the Federal transit investment.
    But I did not come here today looking for a handout. The 
MTA has a proud history of local effort. To begin with, 
virtually our entire transit network--estimated value of $300 
billion--was built with private and State and local dollars 
long before Federal funding existed for these needs.
    Today, while Federal funding is a critical component of 
some of our most important projects, it accounts for 28 percent 
of our overall capital program. It's the largest public works 
rebuilding effort in the Nation's history.
    Perhaps this explains why we have taken such dramatic steps 
to improve the efficiency of our operation.
    Our current operating financial plan calls for a reduction 
of more than $3 million in operating expenditures and increases 
revenues by $308 million. But even while we have dramatically 
improved the operations of the MTA, making ourselves more self-
sufficient, there are still substantial capital needs that must 
be addressed to ensure the continuing growth and success of our 
region.
    I might say at this point that we have been fortunate, 
indeed, to receive 50 percent of the funding amount we needed 
for the 63rd Street Connector to date through the efforts of 
Senator D'Amato and others, Senator Moynihan. They both spoke 
so eloquently. We promise to continue this connector and 
complete it. I made a personal promise to Senator D'Amato, 
which I plan to keep, that we'll have a shovel in the ground to 
continue that project by 1998, and that we will complete it 
early, if possible.
    Senator Moynihan, we thank you for what you did in 
connection with that.
    We applaud the effectiveness and direction of ISTEA 
legislation under the transit title, and we are also concerned 
that the flexible fund category be maintained.
    The MTA, between 1992 and 1996, received $352 million under 
flexible funds for congestion mitigation, air quality, and 
surface transportation funding. Many projects that were very 
important could not have been completed and would have been 
under-funded.
    Even the 63rd Street Connector, which got the lion's share 
of its funds from other ISTEA sources, received $45 million of 
the congestion mitigation funding. That has been named, of 
course, as one of the most cost-effective new starts by the 
FTA, and once it is open it is going to benefit over 400,000 
taxpayers.
    Flexible funds were also used in the Grand Central 
Terminal's sky ceiling restoration. We have roughly 500,000 
commuters that pass through there each day.
    Flexible funds have been used for many other sources that 
are very important to our transportation system.
    Governor Pataki strongly supports the initiatives and the 
number of improvements that are likely to be made in the future 
that are excellent candidates for ISTEA flexible funding.
    Before concluding, I'd like to speak briefly about the STEP 
21 movement. STEP 21's underlying philosophy adheres to the 
principle that each State is entitled to its own revenues and 
is responsible for its own need.
    According to Senator Moynihan's always-important report 
each year, ``The Federal budget and States,'' in 1995 we sent 
$18 billion more to the Federal Government than the State 
received back. Over the last 15 years, our deficit would be 
nearly $200 billion. It's very unfair, the STEP 21 proposal, to 
a State like New York that doesn't generate a high level of gas 
taxes but shoulders more than its share of the overall national 
burden as far as transit goes.
    ISTEA has proved to be a rational and highly effective 
piece of legislation that recognizes heightened significance of 
public transportation today and in the future.
    We strongly recommend the reauthorization of the 
legislation and the continuation of the flexible funding 
categories, and we look forward to working with the various 
committees to help modify the legislation in any way which we 
can improve it, but I hope that it is reinstituted and I 
certainly thank you for the wonderful opportunity to address 
this committee.
    Senator Warner. Thank you, Mr. Conway.
    Senator Warner. Mr. VanDyke?

   STATEMENT OF J. WILLIAM VAN DYKE, CHAIRMAN, NORTH JERSEY 
            TRANSPORTATION PLANNING AUTHORITY, INC.

    Mr. VanDyke. Thank you.
    Mr. Chairman and members of the subcommittee, my name is 
Bill VanDyke, and I am a freeholder for Bergen County, New 
Jersey. I am also chairman of the Board of Trustees of the 
North Jersey Transportation Planning Authority, or NJTPA.
    The NJTPA is the metropolitan planning organization or MPO 
for northern New Jersey, which encompasses 13 counties and 5.8 
million people. It is the fourth-largest MPO region in the 
Nation.
    Today I'd like to relate to you one of the success stories 
of ISTEA--that is, the expanded authority entrusted to MPOs, 
which has given the NJTPA and over 300 MPOs across the Nation 
the ability to create a new, more-open, and accountable 
transportation planning process, one that for the first time 
gives local elected officials and the public an effective say 
over transportation decisions.
    In practice, ISTEA empowerment of MPOs has meant that, 
rather than rubber stamping the capital plans developed by 
State DOTs, MPOs became full partners in selecting projects and 
determining Federal funding allocations among them.
    The local elected officials on the NJTPA board responded 
with enthusiasm to the new role and authority granted them by 
ISTEA. At our monthly meetings, these representatives of the 
people now show up in person rather than sending surrogates, 
despite their busy schedules. They also participate in our 
three standing committees which recommend actions to the full 
board.
    I might say that a goodly number of them are here today at 
this session.
    This role for local elected officials such as myself has 
made all the difference. We county executives, freeholders, 
mayors, and councilmen are in daily touch with our 
constituents. We are their voice and we know the issues.
    By serving on MPO boards we can ensure that funds are 
allocated cost effectively to the highest transportation 
priorities in our region in a way that simply cannot be done by 
planners and project engineers sitting far away in State 
capitols.
    Our annual negotiations with State transportation agencies 
over project priorities are conducted in a spirit of 
partnership and cooperation.
    The partnership fostered by ISTEA also extends to the 
cities and counties represented on our board, which are 
referred to as our ``subregions.''
    The NJTPA facilitates and supports the planning activities 
of its subregions by providing funding, tools, training, data, 
and technical expertise. Through our innovative local lead and 
scoping programs, subregions are now eligible to receive 
Federal capital dollars to prepare their own priority projects 
for eventual implementation.
    Previously, many projects favored by subregions sat on the 
shelf, often for years, awaiting attention by NJDOT staff, who 
are engaged in other priority work. Now counties and cities can 
turn to the MPO to get their priority projects moving.
    The NJTPA has also pushed the envelope in using technology 
to improve transportation planning. In addition to in-house 
computer modeling, the NJTPA has equipped subregions with 
geographic information system, GIS, technology to carry out 
often sophisticated analysis of local mobility needs.
    The NJTPA is also working with two ISTEA-funded national 
transportation research centers, the New Jersey Institute of 
Technology and Rutgers University, to prepare an innovative 
computerized project information system called TELUS--which is 
an acronym for Transportation Economic Land Use System--that 
will provide the public and local officials with a user-
friendly means to retrieve a wealth of project information. The 
system will transform the TIP into a dynamic information tool.
    So, by enabling MPOs to take these and other initiatives, 
ISTEA is working extraordinarily well from our perspective. 
Perhaps a surprising thing is that we have made ISTEA work in a 
region that is economically complex, densely populated, and 
heavily traveled.
    Each year we are faced with what seems like an overwhelming 
number of needed projects competing for each Federal dollar we 
have available, along with a host of local interest groups 
arguing from where and how we should make our investments.
    The MPO process put in place by ISTEA has allowed us to 
effectively broker competing interests to arrive at a regional 
consensus that, while it may not please all parties, ensures 
steady progress in improving regional mobility.
    For the upcoming ISTEA reauthorizations, the lessons are 
clear: the framework established by ISTEA for empowering local 
officials through MPOs and for targeting funding based on 
national and regional needs has been highly effective and 
should be sustained and strengthened. Drastic mid-course 
changes in our Nation's transportation policy could threaten 
our impressive achievements in building efficient, balanced, 
and well-managed transportation systems in the metropolitan 
regions, where the majority of our Nation's population and 
productive capacity resides.
    Simply stated, ISTEA works. Don't change it.
    I thank you very much for allowing me to testify.
    Senator Warner. We got your message.
    Senator Warner. Ms. Bauer?

  STATEMENT OF JANINE G. BAUER, EXECUTIVE DIRECTOR, TRI-STATE 
                    TRANSPORTATION CAMPAIGN

    Ms. Bauer. Thank you, Chairman Warner.
    Mr. Chairman, my remarks cut across many of the topics that 
you heard this morning, and in an effort not to repeat what has 
already been said I'm going to turn to those subjects which 
have not been discussed in considerable details.
    The 10 percent safety set-aside in the surface 
transportation program is critical to reducing injuries and 
fatalities in this region and, in fact, we think ought to be 
strengthened.
    In New York, nearly----
    Senator Warner. I'm sorry to interrupt. What was that 
percent?
    Ms. Bauer. There is a 10 percent safety set-aside out of 
the STP program currently.
    And let me place my remarks in context by saying the 
overall theme--our overall theme is that ISTEA ought to be 
strengthened and the funding categories kept and the goals of 
ISTEA would be met by closer adherence to its principles rather 
than by wiping out the various funding categories and so forth 
in the name of flexibility, which has a down side.
    In New York, nearly 2,000 people are killed in car crashes 
annually. In New Jersey the figure is 6,000 killed and 
seriously injured. Surprisingly, perhaps, pedestrians make up 
one-quarter of the victims in New Jersey and over 50 percent 
here in New York City. Many are--most, in fact, are children 
and the elderly.
    An aggressive program is needed to stem that tide of 
fatalities and injuries. They only cost local governments and 
State government more money in terms of judgments.
    Pedestrian safety infrastructure, however, costs money, 
although per life saved it is the most cost-effective 
investment. Where pedestrian safety is a problem, as it is here 
in this region, we think the State should invest more in 
pedestrian safety measures, and their expenditures should be 
measured against the progress States are making in terms of 
reduction in the number of injuries and fatalities, so we would 
like to see that program maintained and, in fact, strengthened 
against a progress rule.
    Enhancement funds have also allowed us to begin to realize 
both a national and regional goal. It's the goal of each one of 
the State DOTs--I representative environmental transit planning 
advocacy and citizen groups in Connecticut, New York, and New 
Jersey--the national and regional goal of substituting walking 
and bicycling for trips under five miles. Car trips under five 
miles cause a disproportionate share of pollution because of 
the effects of cold starts, and also because they tie up 
traffic, which could be accomplished--the trip could be 
accomplished by either bicycling or on foot.
    However, people will not make such trips unless 
infrastructure allows them to make it safely and conveniently 
and in an attractive manner. Presently that is not the case in 
our region. If the enhancement category is not maintained in 
ISTEA, money for those projects would be swallowed up by the 
greater transit and road needs and bridge needs, of which you 
heard much about today.
    New York has virtually obligated all of its enhancement 
moneys, and in all three States there is a long list of 
unfunded bicycle and pedestrian projects because there are too 
many good projects and not enough money.
    In terms of transit, you heard that one of three transit 
trips in the Nation is taken here in the New York region. With 
just a few miles of track construction, the New York 
Metropolitan Transit Agency could streamline and link up their 
many independent, presently unlinked lines.
    Everywhere in this region, transit ridership is increasing; 
however, levels of service are declining, stations are being 
shut, and both quality and level of service in terms of headway 
is moving backward somewhat, while our riders are paying a 
record amount for their fares. In Metropolitan Transportation 
Authority district, 76 percent of the cost of the ride is now 
born by riders.
    We think investment ought to go to transit capacity and not 
to highways. We think that, with respect to a new wave of 
highway building in this region, it is undesirable and 
unnecessary. We think the emphasis in ISTEA II ought to be on 
system preservation and maintenance.
    You've heard a great deal about our region's needs in terms 
of its bridges and existing roadway infrastructure, and we 
would like to see that emphasized over any new wave of highway 
construction, which we think is unnecessary and is presently 
costing $35 to $50 million a mile in this region. We simply 
can't afford it.
    Senator Warner. That's very interesting. Thank you very 
much, Ms. Bauer.
    Senator Warner. Question to Mr. Conway. The Administration 
has proposed $600 million in a welfare-to-work program. Some 
transit officials have expressed concern that this program 
takes away from other important transit programs because it is 
not funded with additional resources. Do you have any view on 
that?
    Mr. Conway. Well, I think that the welfare-to-work program 
is a commendable one that has been certainly pioneered by both 
Governor Pataki and by Mayor Giuliani. I would encourage 
anything we can do to support it. I think that if it's going to 
create genuine jobs and will truly provide upward mobility, I 
think it's a something we should encourage.
    Senator Warner. Ms. Bauer, do you have a view on that?
    Ms. Bauer. My personal view would be that the money should 
not have been taken off the transit account and that, in fact, 
transit is going to bear most of the brunt of that 
transportation because, as was mentioned by one of the earlier 
speakers--in fact, I think it was Governor Pataki--those trips 
are going to be made by transit, despite the fact that most of 
the job growth in this region is in the suburbs.
    Senator Warner. Thank you.
    Mr. Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Bauer, I appreciate your statement very much. We don't 
have a lot of transit in my part of the world--in fact, 
virtually none--but I particularly appreciate your comments on 
safety and the concern over our mortality, transportation 
deaths.
    One interesting statistic is that 60 percent of highway 
deaths in this country are rural. I think that's basically 
because we have people driving on two-lane roads that aren't 
well-marked, and also there is not a lot of traffic so there's 
monotony--just go to sleep and drive off the road. But it's a 
high statistic, and one we're dealing with the best we can. I 
know you are dealing with it in your role as best you can, and 
I commend you for what you're doing.
    Mr. VanDyke, I want to say how much I appreciate the local 
input--I hate that word--but the process where local folks are 
determining, under MPOs and other similar organizations, how 
these dollars are going to be spent and tailored much more to 
local needs.
    Senator Moynihan reminded me that was an innovation in the 
ISTEA bill, and I'm glad we put it in under his leadership, and 
I just want you to know how much I want--and I can speak for 
others, I'm sure--to keep maintaining that concept.
    My view is the more people locally deciding how to spend 
this money, particularly in larger urban areas, the more likely 
it is those dollars are going to be spent very well.
    Thank you for your efforts.
    Mr. VanDyke. If I could just comment on that, I have been 
on the MPO 9 years. I've seen it before and after ISTEA, and I 
can tell you that since the ISTEA legislation the interest and 
the consensus building around the table, not necessarily 
fighting for equity in every subregion but agreeing that there 
are massive projects in a particular area that affect the 
regional economy, come to the table and have agreed on these 
projects that before would have never been accomplished.
    Senator Baucus. I might say--it's not this hearing, but I 
think that's a concept that could be extended and should be 
extended to a lot of other areas. One that comes to mind is the 
Endangered Species Act. I think that the more people locally--
landowners and private property owners and others--that can sit 
around a table and decide what to do about habitat protection, 
for example, the more likely it is we're going to have a lot 
less controversy over that act which we now have. That's just 
one example.
    MPOs certainly are doing very well and I again commend you.
    Mr. VanDyke. Thank you.
    Senator Baucus. Thank you, Mr. Chairman.
    Senator Warner. Thank you very much.
    Mr. Moynihan?
    Senator Moynihan. I'd just confirm what Senator Baucus has 
just said and thank Mr. VanDyke for his witness in this regard.
    Mr. Chairman, this was not just another highway bill we 
passed 5 years ago. We meant to change transportation planning 
and functioning in this country, and to a degree that I'm sure 
that Bob Roe back there is as surprised as I am, we seem to 
have done.
    I think, as Senator Baucus notes, there are applications 
for the MPO device, not just north of New Jersey.
    For example, I just had a thought this morning at City 
Hall. A couple of weeks ago the Environmental Protection Agency 
informed New York City that it was going to build an $800 
million filtration plant at the Trotan Reservoir instantly or 
they'd start fining us $25,000 a day, which made me think maybe 
it's time we get rid of the Environmental Protection Agency. We 
dug that Trotan Reservoir and the pipeline down here with 
Irishmen and mules 150 years ago. It has worked pretty well 
ever since until Washington came along.
    Do you think I have been listening to Mr. Gingrich too 
often?
    [Laughter.]
    Senator Warner. Very interesting.
    Voice. It's like the CIA.
    Senator Moynihan. Thank you.
    Senator Warner. You're beginning to talk like Ronald 
Reagan.
    [Laughter.]
    Senator Warner. Close down the Education Department and 
everything else.
    Senator Lautenberg?
    Senator Lautenberg. Just briefly, Mr. Chairman.
    I think, in particular, obviously, I'm interested in Mr. 
VanDyke's comments. That's a 13-county organization serving 
almost six million people. I look at each one of our friends at 
the table, each one representing yet another organization. I 
think the critical thing is that these organizations work 
together.
    Mr. Boyle, I was a commissioner of the Port Authority for 
some years, and that's what got me into this devilish business 
that I'm in now, but I saw the value. Really, those 4 years I 
spent with the Port Authority were of great help to me to see 
what it is we have to do in our region to maintain the 
competitiveness, to maintain a decent quality of life, to 
reduce congestion, etc.
    But, Mr. VanDyke, how do you coordinate with the other 
groups around? I mean, you've got your 13 people. I know you've 
worked with the Port Authority and with others. What do we do 
to enhance, for instance, the commutation travel between our 
northern region and New York City within your NJTPA?
    Mr. VanDyke. I think there's an ongoing relationship. In 
fact, a representative from the Port Authority is actually one 
of the members on our board. We have 20 members. One is from 
the Port Authority. We have a member representing the 
implementing agencies in New Jersey--New Jersey Transit, New 
Jersey DOT. They're all at the table. We also have ongoing 
relationships with two other MPOs in New Jersey--the South 
Jersey Transportation Planning Organization and the Delaware 
Valley group out of Philadelphia that represents a couple of 
counties.
    So it's ongoing, not only within our region, but it's 
really a State-wide effort to arrive at a better transportation 
system so that economically we can all benefit.
    Senator Lautenberg. I think, Mr. Chairman--and I won't 
continue this any longer except to make one statement, and that 
is to say that the more we can do to coordinate the bodies that 
represent various transportation interests to eliminate the 
barriers that we have to jump over to get to talk to one 
another--I must tell you, as a commissioner of the Port 
Authority, I was and continue to be very impressed at what they 
were able to do at the Port Authority, Senator Moynihan, over 
the years, and that is keep transportation, keep the bridges 
and tunnels at a fairly modest cost, have a path in there that 
is truly intermodal in every sense of the word, the bus 
terminal, recognizing that we can't operate unless all modes of 
transportation get their fair share of attention.
    I think it's a wonderful idea, and the success that we've 
seen at the NJTPA is an excellent model for the rest of the 
country to follow. I hope it will be done.
    Thank you very much, Mr. Chairman.
    Senator Warner. Thank you, Senator.
    Do other colleagues wish to speak?
    [No response.]
    Senator Warner. We thank this panel very much.
    [Applause.]
    Senator Warner. We'll now have the economic development 
panel, if you'll take your seats. Thank you.
    Panel three, you have waited patiently. We will accord you 
every consideration in time and attention as we did the first 
group of witnesses because you bring a very wide cross-section 
of views.
    Speaking for myself, and I believe perhaps the others up 
here, where I can be the beneficiary of your testimony to the 
greatest degree is if you'll look me in the eye and say, 
``Senator, ISTEA I, this is my view of it. Keep it as it is, 
don't change a word.'' Or, ``Here's what I think should be done 
in ISTEA II.'' We'll call it that for ease of reference.
    In other words, what is it that you would like to see the 
Congress do in relationship to ISTEA I, which we all recognize 
was a very successful piece of legislation? It has worked, it 
has achieved its goals. I want to build on it. But I do believe 
there are important ways to improve it.
    As I spoke to one of our previous panels, I'm fed up with 9 
years from concept to delivery. We can do better than that. We 
can build aircraft carriers in less time than that. That's one 
way.
    That's my view.
    Any views here before the panel gets underway? Tell us what 
you would do if you were king for a day and you could write 
that provision.
    Senator Moynihan. Make that chairman.
    Senator Warner. No, no. King for a day. Chairman is going 
to have to work behind the scenes. Kings work right out in 
front of the public.
    Thank you very much.
    Now we'll hear from Mr. Kiley, president, New York City 
Partnership and Chamber of Commerce.

STATEMENT OF ROBERT KILEY, PRESIDENT, NEW YORK CITY PARTNERSHIP 
                 AND CHAMBER OF COMMERCE, INC.

    Mr. Kiley. Mr. Chairman, thank you, and Senators Baucus, 
Moynihan, and Lautenberg, the latter two of which I've had the 
good fortunate to work with over these many years in getting us 
to the point where we are.
    I have a prepared statement, but----
    Senator Warner. We'll admit all prepared statements in 
their entirety in the record. Thank you.
    Mr. Kiley. I know that you've been listening to some of 
them at length, and I don't want to take your time or the time 
of the panel by repeating what others have said, so I will just 
make a few points and leave it go at that.
    Our organization, the New York City Partnership and the 
Chamber of Commerce, includes the CEOs of the major 
corporations in this region. It also includes membership from 
many of the medium-and smaller-sized businesses, as well as the 
leaders of most of the major civic organizations from New York 
City. On top of that, I'm a former chairman of the MTA. You 
heard from Virgil Conway, an excellent successor. And I also 
ran the Massachusetts Bay Transportation Authority in the 
Boston region during the late 1970's.
    Let me begin by saying that ISTEA I is a very good piece of 
legislation. I think all the evidence to date suggests that 
this is a framework not only for national transportation policy 
but for national transportation projects that can be improved 
on, yes, but that is really working. This is not a time to 
change something that works.
    It's a matter of concern, I think, to those of us in this 
region who believe that we have produced a balanced 
transportation network that could usefully serve as a model to 
the rest of the country, that there are those in the rest of 
the country who haven't really given this piece of legislation 
a fair chance to work.
    I suppose the purest model of what some are arguing for 
would be a total pass-through of the Federal gasoline tax back 
to the States.
    We do not celebrate those who wrote the Articles of 
Confederation. I'm not aware of a holiday that memorializes 
important events during that period of time.
    When President Eisenhower proposed the Federal gasoline tax 
as a means to build the interstate highway system, he didn't 
say, ``OK, folks, I urge the States to make their best efforts 
to raise the revenue possible to eventually build a 
transportation system that will be the envy of the world.''
    We started after World War II with the notion that we had 
to get about the business of stitching together a national 
transportation system that would make, eventually, our economy 
the envy of the world.
    ISTEA is the natural evolution of that process, and it 
would be dangerous, indeed, to take a major step, a step 
backward that would deviate from a pattern that works well.
    Not everything, I'm glad to say, that the Federal 
Government has done over the years is bad. It almost seems that 
we've gotten to the point where, as a basic operating principle 
of political rhetoric, we start with the notion that if the 
Federal Government is involved that must be the problem, not 
what it's trying to solve.
    The second point I'd like to make, Mr. Chairman, is that 
yes, in our region you can say that we are pleaders. As you 
have heard already, our region--and by that I mean New York, 
New Jersey, and Connecticut--are net exporters of Federal 
capital. We send $40 billion a year net off to the rest of the 
country via the Federal Government through creative Federal 
formulas in some cases, direct grants in other cases.
    This is the one category of funding where our region is a 
net beneficiary, and there's a simple reason for that, and that 
is that with gasoline taxes we have shown--and it's in this 
area where I think we stand as a model for the rest of the 
country--that we do not invest in simply a single mode. We 
invest in all the modes--mass transit; highways, to be sure; 
maritime transportation; aviation--a balanced blend that's 
always changing.
    Of the people that come into the most important economic 
engine in the world, Manhattan, 85 percent come here by public 
transportation, by means other than the automobile. Close to 40 
percent of all the people who travel about our region in any 
given day are traveling by means other than automobile.
    This is no accident that our region has become the economic 
engine that it has become, and transportation has been crucial 
to its progress at every step along the way.
    So it wasn't easy to get to ISTEA in the late 1980's. That 
was a long, hard march, and several of you gentlemen were there 
marching. You were in the leadership of that fight all the way 
through. This is not the time to relax. This is not the time to 
go back to old--and I might say discredited--principles. We 
ought to stick with it, and we ought to make a good piece of 
legislation even better.
    Let me just make one other point, Mr. Chairman, and that's 
this question of the 4.3 cents, which was part of the 1993 
Federal Deficit and Budget Reduction Act. I'm one who believes 
that that 4.3 cents ought to be put to different use than 
balancing the budget.
    I'm not in a position to weigh the merits of this 
particular generator of revenue as a deficit reduction device 
against the potential benefits that come from reinvestment in 
the economy, but we're at a critical crossroads with two 
Federal programs that are very important. One is ISTEA, which 
is being reauthorized now. The second was welfare reform 
legislation, which occurred last year.
    This 4.3 percent tax, which has the potential of generating 
$7 billion nationally, if it's added to the transportation pot 
can be a very quick way to produce programs and projects that 
will have, among its most important benefits, if we make it so, 
the possibility of employing people who are coming off of 
welfare assistance.
    This $7 billion a year, if leveraged, if structured and 
leveraged in a way in which it could produce as much as $100 
billion annually with State, local, and private participation, 
is conceivably and potentially the single most important means 
we have of moving people quickly--and we are working against a 
5-year clock--off relief into genuine private jobs.
    Yes, this would be a public works project, but it would be 
a public works project that would be run on the back of the 
private sector, because we have shown over the better course of 
this century that we know how to do these public works 
projects. Government generating funds and the private sector 
producing the know-how, the design talent, engineering talent, 
and the construction talent to put people to work and to build 
the projects.
    I think we are in the fortuitous position during 1997 in 
the reauthorization of ISTEA to focus on that 4.3 cents as an 
opportunity to make welfare reform work. God knows we need to 
reach for every device that we can lay our hands on to make 
that happen.
    Mr. Chairman, thank you for the opportunity to appear here 
before you, and good luck to you in this important effort.
    Senator Warner. We appreciate that, and I concur in your 
observations on that latter point definitely.
    Senator Warner. Now we'll hear from Mr. Lew Rudin of Rudin 
Management Corporation, Park Avenue.

STATEMENT OF LEW RUDIN, RUDIN MANAGEMENT CORPORATION, NEW YORK, 
                            NEW YORK

    Mr. Rudin. Thank you, Mr. Chairman. I'm the chairman--my 
family has been in the real estate construction business in New 
York, and I am chairman of a civic group that was started in 
1970 to be in business for 3 years to stop corporation exodus. 
We didn't want these urban sprawls all over the wonderful rural 
suburban areas. We wanted to keep these companies in New York. 
We said we'd be in business for 3 years, but we've been in 
business now for 27 years.
    We are a business organization and a labor organization and 
a civic organization. We have members sitting right at this 
table, my friend Ed Cleary and others, who have been part of 
this crusade to make New York a better place to live and work.
    The fact is that ISTEA has been a great help.
    Mr. Chairman, you asked me if I were the king for a day 
what would I want. I said I really would like West Way.
    [Laughter and applause.]
    Mr. Rudin. But we lost that battle and that was one of the 
few battles that we lost in 27 years.
    We won a fight back in 1986 to save State and local tax 
deduction, which I think has been an important item to benefit 
most of the major States in this country.
    I have a text, and you're going to get it. I want to remind 
my good friend, Senator Baucus, that if we didn't have sound 
bridges he couldn't have run the marathon a few times, the New 
York City marathon, because it starts at the Verrazano Bridge, 
and I don't know how many bridges and goes over, Senator, until 
you get----
    Senator Baucus. All I can say is the 59th Street Bridge is 
like Mount Everest. You've got to make it more level.
    [Laughter.]
    Mr. Rudin. We put a carpet on it.
    In any event, it was the New York City Marathon that I 
think brought all of us together in 1976 right in the middle of 
the fiscal crisis, and we've come through that, and ISTEA has 
helped in the last number of years, thanks to you folks.
    I want to also remind my good friend, Senator Baucus, that 
back in 1978 there was going to be a beef boycott because of 
the price of beef, and some of us didn't stand up to that 
insanity and invited Governor Tom Judge into New York so he 
could have steak with us on--it was going to be a Wednesday 
boycott, and he had bacon for breakfast with us, and we had 
pastrami or corned beef for lunch, and then we had a big steak 
with Mayor Koch for dinner.
    I remind you that New York is still part of the other 
States, so don't let us down in this. ISTEA is working, as 
Senator Warner suggested, and if we can improve on it let's 
improve on it.
    The fact is that I was told to get down here by 11. I was 
late. I jumped in the subway at 51st and Lexington. I was down 
here in 12 minutes. I've been now waiting for 2 hours, so ISTEA 
has gotten our rapid transit system working pretty good.
    The city of New York is on a tremendous, tremendous 
resurgence. Right in this area where you are at there are 
redevelopments going on. This is the most depressed major 
business district in the country. It's the third-largest 
business district in the country, the first being midtown 
Manhattan, the second being Chicago, the third being Wall 
Street.
    A year or two ago there was 30 percent vacancy--that's 30 
million square feet of office space. I don't think there is 30 
million square feet of office space in the State of Montana, 
but we have it. We had to fill it up. It's now down from 30 
percent vacancy down to about 18 percent vacancy.
    It's all because people are able now to get down here 
better because of ISTEA.
    I say make ISTEA better. Put a little saccharine in it, a 
little sugar in it. Make it sweeter. We in the city of New York 
will thank you forever.
    Thank you very much.
    Senator Warner. Thank you very much for a very clear 
message.
    [Applause.]
    Senator Warner. Now we have Mr. Phil Beachem.

   STATEMENT OF PHIL BEACHEM, EXECUTIVE DIRECTOR, NEW JERSEY 
                  ALLIANCE FOR ACTION ON ISTEA

    Mr. Beachem. Good afternoon, Senator. I'm Phil Beachem, 
president of the New Jersey Alliance for Action, and I'm 
pleased today to represent also the ISTEA Works for New Jersey 
Coalition.
    I want to thank Senator Warner, Senator Baucus, and Senator 
Moynihan for the time that you've given us and the opportunity 
to solicit our input on this important issue. I also want to 
pay special recognition to Senator Frank Lautenberg.
    Senator about 200 of your constituents traveled here this 
morning. Some of us came by charter bus. A number of us came by 
ferry from Monmouth County. Some of us took the PATH train, 
some of us took the regular train. A few dared to drive here 
this morning. I think they may regret it a little later on when 
they leave. Really, that's what ISTEA is all about, because all 
of those modes have been affected one way or another by ISTEA.
    On behalf of 200 constituents of yours that are here, I 
want to personally thank you for the hard work that you have 
given to these citizens of the State of New Jersey on this and 
many other issues. Thank you.
    Senator Lautenberg. Thank you.
    Mr. Beachem. The Alliance for Action is a unique nonprofit, 
nonpartisan, State-wide coalition of some 600 business, labor, 
professional, academic, and governmental organizations. We are 
committed to economic progress, creation of jobs, and 
responsible protection of the environment.
    ISTEA I has made significant contributions to each of these 
goals: the economy, jobs, and the environment. That is why the 
issue of reauthorizing ISTEA without substantive change has 
galvanized and brought together every segment of New Jersey's 
economic, civic, and community life, a unity and diversity that 
probably has never been achieved before behind a single issue.
    Our coalition has republicans and democrats working 
together, business and labor, environmentalists and developers, 
highway and public transit advocates, and the elected leaders 
of our cities and counties, urban, suburban, and rural.
    Someone once remarked that ISTEA I is more of an economic 
development initiative rather than simply a transportation 
bill. I think there is much truth to this statement.
    The impact on New Jersey's economy of ISTEA I has been 
profound. Let me give you one quick illustration.
    The New Jersey Alliance for Action annually holds a 
construction forecast seminar at which representatives of an 
array of public and private organizations preview their 
construction plans for the future.
    The most recent seminar projected an increase of 17 percent 
in private and public construction, or $2 billion for this year 
and next. And guess what is leading the way? Capital investment 
in transportation information generated in great part by ISTEA 
dollars.
    In a landmark study by the Foundation of the New Jersey 
Alliance for Action--and I have a copy which I'll be glad to 
submit to the committee--a team of outstanding economic 
consultants estimated New Jersey's infrastructure needs to the 
turn of the century at $95 billion. Of that total, half, or $48 
billion, were in transportation infrastructure needs.
    The report, which received national attention, made these 
comments. One, ``Transportation facilities--roads, public 
transportation, ports, and airports--link our cities to each 
other, our farms the market, and New Jersey's economy to the 
rest of the Nation and the world.''
    Investment in infrastructure has a strong impact on the 
level of private investment, on the productivity of private 
firms, and thus on personal income.
    The economic benefits from ISTEA I affect not only New 
Jersey, but the entire region. This region is the hub of 
international commerce and the corridor State for one of the 
Nation's busiest regions. More people and goods pass through 
this region using our roads, public transit, ports, and 
airports than almost any other State.
    We use ISTEA dollars to coordinate regional and local 
transportation strategies that promote economic growth and a 
better quality of life for everyone.
    New Jersey sends $17 billion more in taxes to Washington 
than it gets back. Only ISTEA I has restored some balance of 
fairness based on the needs of an older urban congested 
corridor State with an aging transportation infrastructure.
    The ISTEA Works for New Jersey Coalition requests the 
renewal of transportation funding formula which reflects each 
State's individual needs.
    Thank you very much.
    Senator Warner. Very good. Thank you. That was very 
helpful.
    [Applause.]
    Senator Warner. Mr. Cleary, president, New York State AFL-
CIO.

   STATEMENT OF ED CLEARY, PRESIDENT, NEW YORK STATE AFL-CIO

    Mr. Cleary. Senator, thank you. Thank you for the 
opportunity to come here today to join with the others in 
making a presentation on ISTEA.
    I'm not only here speaking on behalf of the 2.5 million 
members that make up the New York State AFL-CIO, but also the 
transportation trades and the building trades department of the 
national AFL-CIO.
    I've submitted a lengthy statement. Let me review very 
briefly some of the highlights.
    ISTEA I, as we all recognize, has been an inspiration to a 
lot. Economically, it has helped us develop a good part of the 
State of New York. We look forward to ISTEA II doing exactly 
the same thing, with some improvements.
    Let me briefly highlight our principal concerns.
    Securing the highest possible investment levels for all 
surface transportation programs must be the most important goal 
for those leading the reauthorization. In an era of government 
downsizing and constrained Federal spending, Congress must 
realize that the Nation's businesses and their workers cannot 
be competitive in the 21st century without a well-financed 
transportation network.
    Moreover, the Nation must find the will to develop a 
reliable long-term funding mechanism to stop the financial 
hemorrhage of our national passenger railroad, Amtrak, but this 
goal must not be accomplished by forcing transport modes to 
compete against one another for a smaller pool of funds.
    To help address this, the union's transportation trades 
department and the building construction trades department 
support redirecting the 4.3 cent gas tax into the highway trust 
fund. Amtrak should get one-half penny, and the highway transit 
program should get the balance under existing formulas.
    If we are serious in addressing our infrastructure needs, 
we must identify new revenue sources. This redirection of fuel 
taxes will produce about $5 billion at a time when investment 
levels are falling well below projected needs.
    As we all know, the 1991 legislation insisted on the 
maintenance of federally established labor standards and worker 
protections such as 13(c) and Davis Bacon. These Federal laws 
have ensured wage and job stability and protected collective 
bargaining rights.
    The 13(c) program is a sensible mechanism to ensure that 
workers are not unfairly treated as a result of the 
distribution of Federal transit assistance or structural 
changes in transit systems.
    Prevailing wage laws such as Davis Bacon Act prevent 
construction and service contractors from undercutting industry 
wage and benefits standards to the detriment of workers and 
their communities. If these protections are eliminated in the 
name of reform or waived in certain instances, the basic rights 
and jobs of workers are gravely threatened.
    I might add that when you're considering the whole question 
of welfare reform and how it might be re-woven into the new 
bill, I would seriously consider the position taken by the 
national AFL-CIO, and if you do not have it, I'll see to it 
that they send it to you, and we'll also send you our position 
from the New York State AFL-CIO, because these are workers 
you're talking about, and everything we've seen up until now 
where they have used public moneys to relief or to bring about 
welfare reform, they've thrown some of the laws that we have in 
this land today to protect the rights and the health and safety 
of workers out the window. So this would be something I would 
seriously look at.
    [Applause.]
    Mr. Cleary. Workers across our economy today are 
increasingly confronted with a dangerous and a unpredictable 
work place.
    In a deal to deregulate the transportation industry, 
Congress has enacted legislation that narrowed the margin of 
safety for workers and the general public. For example, in 1995 
national health and safety legislation, Congress attached a 
provision that could exempt some two million trucks from 
recordkeeping, hours of service, safety inspections, insurance 
requirements, and other safety-related requirements. These are 
the same trucks that account for 50 deaths and 1,000 injuries 
per month, at a cost of $500 million annually.
    This is the type of policy that undermines transportation 
safety that we will vigorously oppose when ISTEA is 
reauthorized.
    On privatization, we have a whole section in the report--
and I won't go into that--but Congress recognized the wisdom of 
this policy during the consideration of the original ISTEA bill 
when it included protections against the use of Federal 
transportation grants to force privatization on communities.
    With regards to planning, current law allows a wide array 
of interests, including labor organizations, to receive, 
review, and comment on the annual and long-range transportation 
investment programs developed by metropolitan planning 
organizations before final approval is granted these plans.
    Workers are directly affected by MPO recommendations and 
thus their unions offer a unique perspective to assist MPOs in 
developing workable and efficient plans. The role of workers 
and their unions at the planning table is to help ensure that 
employee issues are not merely cast aside when core planning 
decisions are made.
    While we support the MPO program design embodied in the 
1991 legislation, we believe a mandatory role for union 
representatives should be reaffirmed, and, to the extent 
possible, strengthened in the reauthorization bill this year.
    ISTEA has represented a historic shift in transportation 
policy for this country. Thousands of communities, businesses, 
and workers in the northeast and across the country--and I 
might add in Puerto Rico and the Virgin Islands--have benefited 
greatly from the 1991 act. We will look for this committee's 
leadership to help craft a bill that meets the Nation's surface 
transportation need by building on the successes of ISTEA.
    Senator you spoke to a number of unemployed youngsters 
today. I'd like to say that in this State, the State of New 
York, there are 10,000--we talk about training people--there 
are 10,000 apprentices in training in the building trades and 
in the industrial trades, and I think with the reauthorization 
of the bill you'll see those numbers grow not only in our State 
but in the other States.
    I thank you for the opportunity to present testimony.
    [Applause.]
    Senator Warner. Thank you, Mr. Cleary.
    Senator Warner. Indeed, I did have the opportunity. I'm not 
so sure how young some of them were, though.
    Mr. Cleary. All operating engineers.
    Senator Warner. They were operating, though. No doubt about 
that.
    [Applause.]
    Senator Warner. Now we'll have the opportunity to hear from 
Mr. Raymond Pocino. Thank you. He's representing the Laborers 
International Union of North America.

    STATEMENT OF RAYMOND POCINO, REGIONAL MANAGER, LABORERS 
              INTERNATIONAL UNION OF NORTH AMERICA

    Mr. Pocino. Thank you, Senator.
    I'm Raymond Pocino, vice president, eastern regional 
manager of the Laborers International Union of North America, 
representing Delaware, eastern Pennsylvania, New Jersey, and 
New York City.
    I want to thank Chairman Warner, Senator Lautenberg, 
Senator Moynihan, and Senator Baucus for the opportunity to 
appear here this afternoon and give testimony on behalf of the 
reauthorization of the ISTEA.
    Senator Warner. And we wish to thank the members of your 
respective organizations for taking the opportunity to come.
    And may I say it's very heartening to see a cross-section 
of the segments of America's economy being represented here, 
not only on this panel but, indeed, in the audience and 
throughout.
    Thank you.
    Mr. Pocino. We appreciate the opportunity, Senator.
    This landmark legislation has been of enormous benefit to 
the entire northeast corridor, and because this region plays 
such a key role in facilitating America's ready access to the 
world marketplace, I would suggest that ISTEA allocations to 
the New Jersey and New York metropolitan area have a spill-over 
effect that ultimately benefits the entire Nation.
    No modern developed nation can thrive without an extensive 
and highly advanced transportation infrastructure. Without 
continuous investment in this transportation infrastructure, a 
modern economy fails to grow.
    There is a kind of double inefficiency at work when we 
ignore our roads. First, there is a loss of productivity. It is 
estimated, for instance, that the cost of trucking goods rises 
some 6.3 cents per mile when road conditions decline from good 
to fair.
    Second, there is the higher price tag which occurs when 
repairs are finally undertaken. A bridge that receives regular 
maintenance will last twice as long as one that does not. The 
cost of maintaining is a tiny fraction of constructing a new 
bridge.
    Simply put, there is a crucial link between investments in 
transportation and our Nation's ability to compete globally. 
That is why ISTEA has played such a critical role in our 
Nation's life over the past 6 years, and that is why Congress 
must move quickly to reauthorize ISTEA without disrupting 
either its revenue flow or the status of the projects it 
supports.
    ISTEA has proven its worth time and time again. It 
allocates its funding based upon needs. It supports State and 
local decisionmaking. It provides resources for air quality 
programs. And it promotes public transit and the concept of 
intermodalism.
    There are few other regions of the country where the 
intermodal mix of highways, bridges, mass transit, airports, 
and maritime facilities is as prevalent as it is here in the 
northeast. And I believe it is fair to say there are no other 
regions where economic and quality of life issues are as 
intertwined with transportation as they are here.
    New Jersey has an excess of 40,000 miles of roadway, where 
nearly 60 million vehicle miles are traveled annually, the most 
heavily traveled roadways in the Nation. More than 2.3 billion 
passenger miles are traveled on buses and trains annually in 
New Jersey. Some 83 percent of New Jersey's workers get to 
their jobs by auto travel.
    As Senator Frank Lautenberg aptly describes it, 
transportation is New Jersey's lifeblood.
    The northeast was perhaps the hardest hit of all regions by 
the economic downturn that marked the first half of this 
decade. New Jersey, alone, has lost more than 325,000 jobs 
since 1989. The construction workers I represent--and, indeed, 
those of all the construction trades--have suffered through 40, 
50, and 60 percent unemployment rates over the past 6 years.
    The $870 million which New Jersey receives annually from 
ISTEA has helped fill this job void. Transportation officials 
tell us that New Jersey has some 237,000 ISTEA-related jobs, a 
tremendous return on the investment. It would be an unmitigated 
economic disaster for New Jersey to lose that source of 
revenue, not only because of the existing jobs and projects 
that would be eliminated, but because of the future jobs and 
projects that would never see the light of day.
    I believe these numbers also emphasize the importance of 
retaining ISTEA's need-based funding formula and rejecting 
arguments to change the formula to one that is based upon 
States' contributions to the highway trust fund. Different 
States truly have different needs.
    In closing, I reiterate that ISTEA has been an economic 
life preserver for States heavily urbanized with aging 
transportation infrastructure. It has meant jobs, continued 
competitiveness in the marketplace, environmental upgrading, 
and an improved quality of life for tens of millions of people.
    On behalf of the 750,000 members of the Laborers 
International Union, I respectfully urge the members of this 
subcommittee to approve reauthorization of ISTEA without 
significant changes and to maintain its current need-based 
funding formula which has served the program and our Nation so 
well.
    Thank you very much for this opportunity.
    Senator Warner. Thank you very much.
    [Applause.]
    Senator Warner. My comment to the panel is very succinct, 
and that is you heard clearly that there is a need to have the 
most forceful and strongest recommendation to the President and 
the Secretary of Transportation and others to increase the 
level of funding.
    The President has sent up a bill with a specified level, 
but I am confident that he is open-minded and will consider the 
factors to increase it, and you have set forth those factors 
very clearly today.
    I urge the hand-shake that labor and management have put 
across the table today to find its way in a message to 
Washington, a message to the President to up the dollar ante.
    Thank you very much.
    Any comments from my colleagues?
    Senator Baucus. Mr. Chairman, I think it has been a very 
helpful hearing. I very much appreciate the way you've 
conducted it. I also might add my agreement to your statement. 
We've got to work it out for us, all of us, to make sure the 
total level is increased above the amounts proposed in the 
President's budget.
    Beyond that, this is going to be a national bill, a 
national solution. We've had hearings in different parts of the 
country. Each part of the country obviously wants what it 
regards as its fair share, particularly in allocation of 
highway dollars.
    I can say categorically that when the dust settles, after 
the conference completes its work on this bill--that is the 
conference between the House and the Senate--that we will have 
truly a national bill that will be fair to all parts of the 
country.
    I think each part of the country wants to be sure it gets 
its fair share, but each part, I think in good spirit, does not 
want to have its share given to it at the expense of other 
parts of the country.
    There will be times where this bill sort of ebbs and flows 
as it goes through the process, but the final result will be 
the conference report out of committee, and you are now looking 
at basically most of those who will be on that conference, and 
I can tell all of you, from my perspective--I think I can speak 
for others--that it will be a fair bill and treat all parts of 
the country fairly, as truly a national bill should.
    Senator Warner. That's an excellent statement, Senator, and 
I thank you for that because you have been a marvelous working 
partner. And I'm convinced that Senator Moynihan, likewise, 
will have a strong hand on the outcome of that conference, as 
he did in laying the foundation in 1991.
    Senator Lautenberg. Mr. Chairman, I'd just thank you again 
for conducting this hearing here, for inviting the breadth of 
the witness list that you did--people who do the work and who 
get the jobs done, people from the private sector, the 
government sector.
    I think it's a critical opportunity and I'm happy to see 
Senator Baucus here. He comes from a beautiful, beautiful part 
of the country and has now had a chance, as he has over the 
years, to see a little more intimate view of what we're like in 
this metropolitan region.
    But I don't think the case is properly made for expanded 
resources with which to do this job.
    We can fight all we want to get a larger share of 
transportation, and anyone who knows me knows how involved I 
have been in there, though I come out of the computer business, 
but transportation has been a favorite of mine when I worked in 
the--was commissioner of the Port Authority and saw how it 
affected the well-being, the functioning of our region.
    Second is that the country has to recognize the resource 
that exists here in New York City, whether it's Montana or 
Idaho or the Dakotas or where have you.
    Funds that are raised here are used to capitalize all kinds 
of enterprises across this country, and people come from 
foreign countries across the oceans to get here, where the 
financing is able to be arranged. That's the stimulation, 
that's the excitement about New York City environment. That's 
part of what New Jersey and Connecticut count on, as well.
    This is the national mother lode in many ways, and if we 
shortcut New York and we shortcut New Jersey and we shortcut 
Connecticut and the region, we damage the well-being of our 
society, as a whole, the well-being of our economy.
    So I urge those of you who have that contact out there--and 
we within our own group must do it--that is to make certain 
that funds that are dedicated to transportation be there, but 
then we have to find a way to commit ourselves, to fulfill a 
commitment that we have to balance the budget.
    I always believe that dedicated funds should go to the 
purpose for which they are raised, and if we had that 4.3 
cents, including a half cent for Amtrak, we'd have another $6 
billion to invest each year, with its rippled effect, which is 
probably a multiple of four, invested in transportation 
infrastructure.
    So, Mr. Chairman, you've done a real service here, and I'm 
grateful to you.
    Senator Moynihan. Can I make one closing remark, sir, 
thanking you, as Senator Lautenberg does.
    We are in the Alexander Hamilton building. He was the 
author, as Secretary of the Treasury under President 
Washington, of the report on internal improvements, the first 
major notion that the Nation needed to commit resources to 
national purposes beyond simply defense.
    He's a New Yorker. We're proud of him.
    Out of that came the National Road. Virginia was very much 
against the National Road because it didn't go through 
Richmond. And Pennsylvania was very much against the National 
Road because it didn't go through Philadelphia. But it got to 
the Mississippi, and we're better off for it.
    Senator Warner. And can you find it today? No.
    [Laughter.]
    Senator Warner. But I thank my colleagues.
    You know, it's quite rare for five United States Senators 
to gather together, and we've done that, and we've had a superb 
hearing, we really have, and I think all of us want to thank 
our respective staffs who worked together to have this 
distinguished group of panel after panel come.
    Senator Baucus. And thank our hosts again, too, Senator 
Moynihan and Senator Lautenberg.
    Senator Warner. Well, he promised us lunch at 2, and the 
restaurant has just closed.
    Thank you very much.
    [Applause.]
    [Whereupon, at 2 p.m., the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
        Statement of George E. Pataki, Governor, New York State
    Thank Chairman Warner, Chairman Chafee, Senator Moynihan, Senator 
Baucus and Senator Lautenberg for the opportunity to express my views 
on the Intermodal Surface Transportation Efficiency Act of 1991, and 
its effects in New York State. I am pleased to welcome you to New 
York--a state and a city that have embraced and practiced the 
principles of ISTEA.
    ISTEA is an historic and elective approach to national 
transportation policy. Its basic principles of shared responsibility 
for national transportation interests among Federal, state and local 
agencies; the encouragement of public participation in the planning 
process; and the promotion of environmentally sound intermodal 
transportation projects must be retained. ISTEA represents a dramatic 
shift in the way the Federal Government finances transportation 
improvements, by recognizing how interdependent the states' economies 
are, and contains flexible programs to benefit the entire nation as a 
whole.
    Senators, I congratulate you. ISTEA has worked for the nation, and 
it has worked for New York. The programs embedded in the existing law 
must be continued with some streamlining which will make this good law 
even better. The needs based formulas in ISTEA should be continued, 
with some updating to reflect modern factors. States, local 
governments, and regional organizations have invested significant time 
and resources implementing this landmark legislation and have made it 
work. It does not need a major overhaul. The ISTEA reauthorization 
proposal cosponsored by Senators Moynihan, Chafee, Lautenberg and 
Lieberman, which keeps the innovative programs intact and updates 
allocation formulas, is the right approach, and one New York State 
strongly supports.
    Past investments in transportation megastructure have helped 
provide improved safety and mobility, promoted interstate commerce, and 
enhanced the environment. The Federal Government must continue to be a 
strong partner with the states to assure that these investments are not 
wasted as a result of a diminished Federal commitment to the nation's 
infrastructure.
    Let me emphasize that a continued Federal role does not remove nor 
lessen the responsibility that states have in utilize state assets to 
maintain and improve their own transportation systems.
    I point proudly to the high level of effort of New York State. New 
York State is currently processing a 5-year Capital program which will 
invest $24 billion dollars--$12 billion for highways and $12 billion 
for mass transit--in our transportation system. In New York, 75 percent 
of our transit capital program and 60 percent of our highway and bridge 
capital program is funded with state and local funds--the highest level 
of sate and local effort in the nation.
    However, certain states are advocating allocating Federal funds 
based on a state's gasoline use. This is wrong. Where the finds are 
raised should not be the major consideration in distributing funds to 
rehabilitate roads or replace deficient bridges, replace deteriorated 
public transportation equipment, or to reduce congestion and provide 
cleaner air. Distributing Federal transportation dollars primarily 
based on where the gas tax is collected is simply ``devolution in 
disguise,'' and it is a first step toward eliminating the Federal role 
in transportation funding. If we are simply going to return tax 
collections to the state where they are collected, the next step will 
be to eliminate having the Federal Government collect the tax in the 
first place. Opponents to continuing the basic principles of ISTEA fail 
to recognize that transportation systems do not end at the state line, 
and therefore the Federal Government should play an important role in 
ensuring that the nation's transportation network operates effectively 
and efficiently.
    Without a continuing Federal role, the nation's transportation 
system will revert to an inconsistent, unpredictable and under-invested 
resource. This will be particularly true in rural, sparsely populated 
states which have historically received more in highway apportionments 
than the gasoline tax collected within their borders. While these 
states do not have an adequate tax base to maintain the interstate 
system, they provide central links between major population centers.
    I realize that some will claim that New York and other states 
support ISTEA because they receive more in Federal transportation 
funding than they collect in Federal gas taxes. However, it is 
important to note that while New York may receive more than it collects 
in transportation, a report issued by the John F. Kennedy School of 
Government at Harvard shows that overall New York State provides $18 
billion more to the Federal Government than it receives each year. The 
equitable treatment of states like New York, New Jersey and Illinois by 
ISTEA does not begin to address the negative balance of payments 
relative to the total Federal budget which they are bearing. Federal 
assistance programs to states should be based primarily on two 
criteria, needs and national interest, which most of the time are 
synonymous.
    New York, due to its older infrastructure and colder weather, has 
greater transportation needs than states with warmer climates and more 
modem infrastructure. In fact, many of New York's major bridges were 
built in the 19th Century. For example, when the Brooklyn bridge was 
constructed in 1883, there were only 38 states in the Union. This 
bridge is 6 years older than the state of Montana Senator (Baucus), and 
continues to carry thousands of motorists each day. The Bridge program, 
which recognizes the size and cost of repairing our bridges, is a good 
example of a needs based program that must be continued.
    Proposals that base funding distribution on gas tax collections 
would also penalize New York State for its strong transit program, 
which is a major contributor to achieving Federal transportation, air 
quality and energy goals. Their approach would punish those states that 
emphasize good public transportation by reducing their Federal aid, 
contrary to the national policy that encourages the use of public 
transportation.
    New York State is the most intermodal state in the nation. It is 
home to one-third of the nation's transit riders on systems that range 
from the massive New York Metropolitan Transportation Authority to one 
and two bus rural transit systems that provide critical basic mobility 
and provide economic Improvements to previously isolated areas.
    Over 6.7 million people enter the Manhattan central business 
district each day, 2.3 million by auto and 4.4 million by mass transit. 
New York's transportation system is not just important to New York 
residents. In fact, over 450,000 people from neighboring states earn 
they living in Manhattan and enter its business district each day on 
mass transit, making 900,000 interstate trips, enough to fill 70 
freeway lanes.
    In the northeast, we face the dual problems of congestion and 
pollution, but we are finding that they can often be tackled 
simultaneously. ISTEA has helped improve the environment. The law 
established the innovative CMAQ program to help meet air quality 
standards in many of our large cities, and to help maintain air quality 
in those communities have improved over the last 6 years.
    Let me also briefly discuss an equity issue that affects New York 
and many other states. An important part of ISTEA was the fulfillment 
of a promise by Congress 40 years ago to repay states for constructing 
their Interstate highways without Federal funds. While many southern 
and western states benefited from 90 percent Federal financing of the 
cost of their interstate highways, the older states in the Northeast 
and Midwest had already built much of their Interstate networks with 
State and local funds. Congress knew of this inequity in 1956 and 
called for a study of the cost to reimburse states for donating these 
segments of the Interstate. Through the efforts of Senator Moynihan and 
others, ISTEA began this repayment.
    Congress must not back away from this commitment. The Federal 
promise to these states must be fulfilled in the reauthorization of 
ISTEA This is our equity program.
    New York is one of 17 states belonging to the ``ISTEA Works'' 
Coalition. This broad-based coalition includes states from every part 
of the United States Hat support retaining the core programs of ISTEA, 
including he bridge program, the Congestion Mitigation and Air Quality 
(CMAQ) program, the Interstate Reimbursement program, and continuing 
the Federal commitment to improving public transit.
    The coalition also supports maintaining the Federal government's 
role as a key transportation partner to help fund highway, bridge and 
transit projects, as well as provide a national focus on related 
national goals such as improved air quality, economic competitiveness 
and improved quality of life.
    While I can sympathize with the desire of other sates to increase 
Federal funding for their states, robbing Peter to pay Paul is not the 
answer.
                               __________
              [Submitted for the record by Mayor Giuliani]
                  ISTEA: The New York City Perspective
    Reauthorization of the Intermodal Surface Transportation Efficiency 
Act (ISTEA)
Overview
    ISTEA changed the Federal highway law in two meaningful ways that 
benefited New York City. It increased the amount of Federal funds 
available to the City and it expanded the types of projects eligible 
for funding.
    Prior to ISTEA, New York City received an annual allocation of 
``Urban System'' funds, based on a Federal formula. The City also 
received unpredictable discretionary bridge funding, through 
Congressional earmarks. Before ISTEA, the City received $30 million 
annually in ``Urban System'' funds and an average of $25 million in 
discretionary funds.
    By increasing the authority of Metropolitan Planning Organizations 
(MPOs), such as the New York Metropolitan Transportation Council, to 
distribute funds, ISTEA made New York City and other local 
transportation entities a partner in Federal transportation financing 
decisions. New York City now negotiates with the State for its share of 
all Federal funding allocated to dais region. City projects now compete 
on an even playing field with other Statewide projects, receiving 
funding from most Federal transportation programs including Highway 
Bridge Replacement and Rehabilitation, National Highway System, 
Congestion Mitigation and Air Quality (CMAQ) and the Surface 
Transportation Program (STP). The City has received an average of $80 
million annually under ISTEA, significantly more than the old ``Urban 
System'' and discretionary allocations.
    Before the landmark ISTEA legislation was passed in 1991, Federal 
highway money could only be used for capital construction or 
reconstruction projects on a complex hierarchy of Federal aid road 
systems. Each system had different rules for the types of funding that 
could be used, and the types of projects chat could be financed on the 
various systems was strictly controlled.
    ISTEA consolidated and simplified the Federal aid road system 
through the creation of the National Highway System. The majority of 
Federal funds can now be spent at any location for a variety of 
transportation purposes. The types of projects eligible for Federal 
highway funding was expanded to include mass transit, rail freight, 
traffic management operating costs, pedestrian and bicycle facilities, 
and bridge preventive maintenance.
    The combination of additional funding and expanded options for use 
has made ISTEA invaluable to New York City in its management of the 
most complex and challenging transportation system in the country.
Legislative Recommendations
    The 1991 ISTEA legislation recognized that urban/suburban 
congestion and the problem of accessibility constrain our national 
ability to compete on the world economic stage. ISTEA acknowledged that 
metropolitan regions such as the New York area, are the basic economic 
building blocks of this nation. Through ISTEA, our region has been 
better equipped with the tools to address the complex needs of our 
unique transportation infrastructure.
    In New York, we have successfully taken advantage of ISTEA's 
flexibility to implement a wide array of innovative multi-modal 
projects that otherwise would not likely have been funded--from rail 
freight improvements to traffic calming, from high speed ferries to 
bicycle paths, from transit line extensions to intermodal facilities. 
These modes offer diverse personal and business transportation 
opportunities and access for our citizens. At the same time, they 
represent ``quality of life'' improvements that help to ensure that New 
York's metropolitan areas remain attractive places for commerce.
    The nation has made great progress under ISTEA. While it is our 
position that the legislation be reauthorized in its current form, the 
City of New York recommends several new changes to the law.
    Investment Focus.--ISTEA's primary focus should foe on capital 
reinvestment in existing infrastructure--our bridges, roadways and 
transit. As such, physical condition, age and density of use should be 
prominent factors in apportionments. New York City also recommends 
elimination of the Federal cap on bridge funding. The Federal cap of 10 
percent on bridge funds to a state negatively affects New York. New 
York State has 20 percent of the nation's deficient bridges.
    Global Commerce.--ISTEA should recognize the national significance 
of certain transportation facilities in the nation's commerce. Some 
facilities, particularly intermodal operations such as major seaports, 
rail hubs, and airports support international trade and economic 
growth. These essential links are vital to the nation's economic 
vitality.
    Mass Transit.-ISTEA should provide for continued Federal funding of 
mass transit systems, including operating assistance of metropolitan 
transportation systems. In addition, we recommend that the operating 
assistance formula include a component to account for the number of 
riders on the various mass transit systems.
    Categorical Programs.--We believe categorical funding programs 
ensure a measured mix of investments. Their allocation formulas should 
toe maintained and continue to reflect the needs of existing 
infrastructure and environmental conditions. ISTEA recognized the 
diversity of the transportation network and the need for a policy which 
furthered creativity and intermodality. Special categories were 
developed within ISTEA to promote innovative and non-traditional 
transportation investments, such as alternative fuel facilities, high-
speed commuter ferries, applications of intelligent transportation 
technologies, and a renewed commitment to rail freight. Programs such 
as STP, CMAQ, and Enhancement have resulted in a successful blend of 
projects which have strengthened our metropolitan transportation 
systems and made them more efficient .
    Enhanced Local Decision-making Role.--We believe ISTEA should 
continue to articulate the goal of an enhanced local role in 
transportation investment decisions. ISTEA vastly increased the 
flexibility to effectively administer Federal transportation funds and 
expand decisionmaking at the regional level. To ensure balanced 
representation and distribution of Federal moneys, ISTEA should 
emphasize that MPOs more appropriately reflect the size, population, 
and special transportation and economic needs of larger cities. The 
ISTEA approach for implementing transportation priorities called for a 
new partnership between state agencies and MPOs to serve as a framework 
for the cooperative effort of local governments. However, ISTEA 
reauthorization needs to reemphasize that transportation decisions be 
made in a cooperative manner by local and state officials who are 
equally charged with the responsibility of managing our transportation 
systems.
    Full Appropriation of Funds.--We believe that the vision and intent 
of ISTEA can only be met through full funding. Congress has 
consistently set obligation levels below authorized levels. As such, 
ISTEA has not fulfilled its potential.
    Standardized Funding Award and Administrative Procedures.--ISTEA 
should mandate a timetable by which these regulations and 
administrative practices are standardized and simplifier Despite 
ISTEA's progress, burdensome Federal and state regulations and 
administrative practices result in significant delays in the 
implementation of necessary projects. The added price of these delays 
enlarge the cost of a project beyond its reasonable scope. The U.S. 
Department Of Transportation (USDOT) procedures have never been 
integrated; Federal Transit Administration (FTA) funding comes directly 
to transit properties, but Federal Highway Administration (FHWA) funds 
are channeled through state DOTs. The result is unnecessary funding 
delays, unwarranted state control over local projects, and duplicative 
DOT rules and regulations. Extensive state reviews also increase the 
time needed to complete projects. For large cities, which have 
significant engineering and contracting capabilities, the ETA model of 
direct grant award and contract approval would be more efficient and 
cost effective. Elimination of design review and reliance on post-
project audit would result in time savings.
Reauthorization Issues
    The major issue for all parties interested in ISTEA reauthorization 
is whether and how Congress will change the funding formulas for all 
Federal transportation programs. The formulas ultimately determine how 
much each state receives back in funds paid into the highway trust 
fund. ISTEA is funded from an 18.4 cent tax on fuel consumption. The 
states collect the gasoline tax, remit it to Washington, where it is 
placed in the transportation trust fund, and then must apply for money 
for various transportation projects in their states.
    ``Donor'' states are those which contribute more in Federal gas 
taxes than they receive back from the Federal highway trust fund. 
Several of these states have banded together in various coalitions 
which propose their own solutions to ``correct'' the ratio of trust 
fund payments made to trust funds received each year. Several ``donee'' 
states, which receive a greater return on each dollar paid into the 
trust fund have also banded together to counter efforts by ``donor'' 
states.
    While New York and other states with large transportation needs 
receive a greater proportion of ISTEA funds than they contribute in 
Federal gas tax revenue, overall the City contributes more in revenue 
to the Federal Government than it receives in aid. According to a 
recent report commissioned by Senator Daniel Patrick Moynihan in 
conjunction with Harvard University, in 1995 New York City contributed 
approximately $12 billion more to the Federal Government than it 
received in return. For New York State as a whole, the total is $18 
billion.
    The ``donor-donee'' issue serves as a backdrop for all other 
debates over possible changes to the composition of ISTEA. Major issues 
that will be considered during the development of legislation to 
reauthorize ISTEA include:

  reaching an equitable balance between highway and transit funding 
    levels;
  the degree of flexibility in the use of ISTEA funds between 
    transportation modes;
  spending levels for transportation trust funds and whether they will 
    remain on-budget;
  possible changes to Federal gas tax levels and the purposes for which 
    they are used;
  possible changes to ISTEA guidelines governing the MPO process;
  providing a fair share of ISTEA program funds for the specific needs 
    of cities, suburbs, and rural areas.

    Debates regarding these issues center around whether to retain, 
reduce, or eliminate the following five current categorical programs 
which constitute the basic structure of ISTEA: CMAQ, STP, Bridge 
Replacement and Rehabilitation, and National Highway System.
    A number of transportation interest groups and coalitions have 
formed to advance ISTEA proposals which would maximize the benefits to 
their respective constituents. Of these coalitions, the following four 
groups are expected to significantly influence legislation to 
reauthorize ISTEA.
    NEXTEA Working Group is a loosely knit group of organizations, 
local governments, and public interest groups with an urban orientation 
and an interest in maintaining the current structure of ISTEA. The 
NEXTEA group supports retaining ISTEA funding flexibility to ensure 
that local needs to move people and goods efficiently are met. The 
coalition stresses that the ISTEA structure and programs must be 
designed to assist congestion management, mobility, and alternate modes 
of transportation. The City of New York is a participant in this 
coalition.
    Coalition of Governors to Preserve ISTEA originally consisted of 
nine northeastern state Governors who support retaining the fundamental 
structure of ISTEA, including its programs and planning requirements. 
The coalition, now known as ISTEA Works, has expanded to 15 Governors 
and includes states from other regions of the country. The coalition is 
also promoting greater funding flexibility between categories and 
streamlining administrative procedures. New York State is also a member 
of this coalition.
    The Streamlined Transportation Efficient Program for the 21st 
Century (STEP 21) consists of several ``donor'' states who are 
advocating a proposal to change the distribution formulas. The Step 21 
proposal ensures that these states receive a minimum 95 percent return 
on the gas tax payments made to the Federal Government. Under the Step 
21 formula, New York State would lose $300 million in Federal highway 
funds. Additionally, the Step 21 proposal contains no provisions for 
mass transit funding or programs. It would also eliminate the MPO 
system and replace CMAQ, STP, Interstate Maintenance, Interstate 
Reimbursement, and Bridge program funds with block grants to each 
state.
    Devolution or Turnback advocates are certain ``donor'' states that 
oppose Federal involvement in highway and transit matters. 
Devolutionists propose the Federal ``turnback'' of complete authority 
for surface transportation decisions to states and the repeal of 
Federal gas taxes that currently feed Federal highway and transit trust 
funds. States would, in turn, need to raise additional revenues, by 
increasing their own taxes or through other means, to compensate for 
the loss of Federal funds. It is estimated chat this proposal would 
reduce highway and transit funds for New York State by $1.5 billion per 
year, and would require the State to raise the state gas tax an 
additional 28 cents per gallon to replace these Federal funds.
ISTEA Successes in New York City
    For New York City, the most densely populated urban area in the 
nation, maintaining and rehabilitating our extensive and aging 
transportation network has been a significant highlight of ISTEA. One 
of ISTEA's primary benefits for New York City has been its flexibility: 
in the types of projects that can be funded as well as the planning 
process. The flexibility in the planning process has benefited the City 
by making it a full partner in Federal funding decisions through the 
MPO process. Before ISTEA, funds were disbursed by a strict formula; 
now the city is able to compete for a fair share of Highway, Bridge, 
and STP funds. ISTEA's eligibility requirements are more flexible than 
previous transportation funding legislation. As a result, the city has 
received more Federal funding, particularly for its extensive bridge 
program.
    ISTEA's flexible funding provisions also created a multitude of 
opportunities for funding non-traditional transportation projects that 
were previously never funded in Federal transportation allocations. The 
funding of new modes of transport, such as bicycle/pedestrian amenities 
and high-speed commuter ferries, along with implementing new technology 
initiatives that maximize the existing capacity of the street and 
transit network, and facilitating intermodal transfers between transit 
systems, are a few of the additional types of benefits that were 
obtained from these new flexible funding programs.
    More specifically, $425 million of CMAQ program funds came to the 
New York region, and was shared by the City, the State, regional 
transportation agencies, and other qualifying governmental and non-
governmental entities. These funds were especially important in funding 
six new categories of projects, as follows:
    New Technology Initiatives.--$78 million was allocated toward 
implementing new technologies on the City's roadway and transit 
systems. Two specific roadway highlights include the installation of 
real-time information technologies, such as variable message signs, on 
the highway network in order to alert drivers to service conditions and 
alternative toutings, as well as the computerized synchronization of 
the City's street signal network to increase traffic speeds, reduce 
congestion and gridlock, and improve overall traffic flow. In the 
transit system, portions of the anticipated real-time information 
system were funded that will offer electronic train service information 
on station platforms.
    Bicycle and Pedestrian Network.--$51 million in funding was 
invested in the creation of a 350-mile continuous landscaped greenway 
and bicycle trail network that traverses the five boroughs of the City. 
The system is interwoven with the City's major arteries and green 
spaces, and is used for both recreation and commutation. Of the total 
network, CMAQ funding paid for the planning of 166 miles of the system, 
and 62 miles of its construction.
    Goods Movement.--$21 million was channeled toward the 
purchase,operation, and construction of new rail freight and barge 
infrastructure. These funds aided the movement of increased volumes of 
goods into and within the City on the region's rails, such as the 
rehabilitation of the Staten Island Railroad, or via barge, between New 
Jersey and the Red Hook Marine Terminal in Brooklyn. They are just two 
pieces of a larger effort to divert thousands of truck trips from the 
region's bridges and roadways, thereby improving air quality and 
lowering the cost of goods for consumption within the region.
    Alternative Fuel Fleet and Facilities.--$15 million was invested in 
commencing the City's alternative fuels program that began with the 
conversion of 778 of the City's total 14,112 non-emergency light-duty 
vehicle fleet, in addition to 92 heavy duty vehicles. Subsequently, 
small portions of the City's franchise bus and taxi fleet have also 
been converted to cleaner burning natural gas. CMAQ funds were also 
used co-establish fueling facilities throughout the region to support 
these new cleaner burning fleets.
    Intermodal Connections.--$71 million in improvements were made 
throughout the transit system targeting subway, bus, ferry, and 
pedestrian intermodal facilities at places like Jamaica Center, where 
NYC subway, Long Island Rail Road, local bus, and van services 
converge. Improving the connections between modes, along with enhanced 
information, safety, and amenities in passenger terminals and stations, 
are examples of the types of projects funded under this category.
    Ferries.--$10 million was directed toward planning and implementing 
high-speed ferry services in all five boroughs of the City. These 
start-up funds were spent on waterside facility planning and 
construction, and were further successful in leveraging other private 
funds for investment in the construction and operation of the City's 
ferry network. New York City now hosts the largest privately operated 
urban passenger ferry system in the nation, carrying 25,000 passengers 
daily.
    With the help of New York City and other local agency matching 
dollars, CMAQ funds became the primary funding vehicle for implementing 
these and other innovative types of transportation initiatives that had 
previously lacked funding in this region. The additional flexibility 
afforded by STP funds was critical in funding major pieces of the 
City's existing transportation infrastructure. Funding highlights of 
that program include the operation of the City's computerized traffic 
signal system, redoubled efforts to install safety pavement markings at 
schools and crosswalks throughout the City, the construction of a new 
bus garage in East Brooklyn, and significant contributions to the East 
River bridge rehabilitation program.
    Smaller funding programs such as Planning (PL) funds were 
instrumental in smaller planning and demonstration efforts in the City. 
Two highlights of that program are: 1) the study and implementation of 
the Lower Manhattan Bus Loop, a free van shuttle service that now 
connects various attractions and transit nodes in the downtown area; 
and, 2) the study and implementation of an 1 8-month pilot program for 
allowing the smaller classes of commercial vehicles to travel on the 
City's parkways in order to facilitate the movement of goods through 
congested corridors to and from major traffic generators, such as John 
F. Kennedy International and La Guardia Airports.
    A final example of the value of ISTEA flexible funding is the $30 
million of Enhancement funds that the City obtained. Two illustrative 
program spending highlights include the construction of the Staten 
Island North Shore waterfront esplanade near the St. George Ferry 
Terminal, and construction of the Rockaway portion of the Greenway, 
connecting it to the adjacent Jamaica Bay recreation area.
                               __________
    Statement of Deputy Secretary of Transportation Mortimer Downey
    Mr. Chairman, Senator Moynihan, and distinguished Members: I thank 
you for the opportunity to testify in behalf of reauthorizing the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), the 
landmark transportation legislation which this Committee helped to 
shape 6 years ago.
    This morning I would like to speak about the National Economic 
Crossroads Transportation Efficiency Act of 1997 (NEXTEA), the 
successor to ISTEA recently proposed by President Clinton, Vice 
President Gore, and Secretary Slater. I especially want to discuss how 
NEXTEA can sustain its predecessor's commitment to meeting the 
transportation challenges faced by urban America.
    Before ISTEA, the different transportation modes were not viewed as 
part of an interrelated whole serving vital national interests, nor 
were transportation's impacts on other concerns, such as the health of 
our environment or the condition of our cities, the subject of enough 
consideration.
    ISTEA changed all of that. Beginning with the first word of its 
title, ``Intermodal,'' it signaled a change in how the Federal 
Government viewed surface transportation and a redefinition of its role 
in a partnership to improve our transportation systems.
    ISTEA emphasized an integrated approach to transportation planning 
and programming, looking at the different forms of transportation as 
parts of a network and bringing together many constituencies and 
interests which had not previously been part of these decisionmaking 
processes.
    ISTEA also began to streamline Federal administrative processes, 
simplifying requirements and removing layers of oversight and 
eliminating many reporting mandates.
    ISTEA also revamped the statewide and metropolitan planning 
procedures and required that a broad range of transportation's impacts, 
such as those on air and water quality, be analyzed and, in many cases, 
actively mitigated through initiatives such as the Congestion 
Mitigation and Air Quality Improvement Program (CMAQ). Together with 
cleaner vehicles and fuels, programs such as CMAQ have helped to 
improve air quality.
    In viewing transportation as a means, and not as an end in itself, 
ISTEA enabled state and local officials to set their priorities based 
not on what kinds of funding might be available but rather on what 
types of projects would best meet the mobility needs of individual 
communities and regions. This emphasis on intermodalism was promoted by 
ISTEA's expansion of the ability of states to transfer funds between 
programs and among transportation modes.
    By creating the Bureau of Transportation Statistics, ISTEA also 
began to establish a base of information to support transportation 
decisionmakers at all levels of government and in the private sector. 
It collects data from all modes of transportation, performs analyses, 
improves the comparability and quality of transportation data, and 
makes it readily accessible to the public. The work it has done, such 
as national surveys of commodity flows and passenger travel, is 
invaluable to informed planning.
    Even as ISTEA changed how transportation projects and initiatives 
are selected, it also transformed how they are designed, funded, and 
built. Improvements in design and engineering have enhanced quality. 
Innovative contracting is beginning to cut construction costs, 
accelerate project implementation, and enhance value. New materials 
developed under ISTEA-authorized research programs, such as high-
performance concrete and Superpave asphalt, are also increasing the 
useful life span of our infrastructure and reducing long-term 
replacement costs.
    Experimental provisions within ISTEA have made possible innovative 
financing, which cuts red tape to move projects ahead faster and 
leverages Federal funding with private and nontraditional public sector 
resources.
    The President's Partnership for Transportation Investment, which 
used ISTEA's experimental provisions for such strategies as toll 
credits for state matching funds and Federal reimbursement of bond 
financing costs, has advanced 74 projects in 31 states with a 
construction value of more than $4.5 billion, including more than a 
billion dollars in new capital investment directly attributable to this 
program. Many of these projects are progressing to construction an 
average of 2 years ahead of schedule.
    For example, New Jersey used phased funding to begin work a year 
early on a new viaduct at the interchange of Routes 1 and 9 in Newark. 
The state also was able to apply toll road revenues used for capital 
investments as the match for Federal funds, effectively freeing up more 
than $800 million of state funds for other projects.
    ISTEA recognized that new priorities and new ways of doing business 
can best be encouraged by ensuring that the funding provided to support 
them is adequate. Toward that end, ISTEA increased overall Federal 
transportation funding authorizations. President Clinton has worked 
with Congress to make the most of those higher authorizations, raising 
infrastructure investment by more than 20 percent, to an average of 
more than $25 billion annually over the past 4 years.
    This funding is making possible major regional improvements such as 
the Queens Connector in New York and the Hudson-Bergen Light Rail Line 
in New Jersey. ISTEA's greater programmatic flexibility also has 
enabled funding to be transferred to transit and other urban 
priorities. Over $3 billion traditionally provided for highways was 
used during the life of the ISTEA bill for high-priority transit 
projects, increasing overall transit funding under ISTEA to more than 
$5 billion in fiscal year 1995 alone.
    Although record levels of funding have gone to transit and to such 
alternatives as bicycle and pedestrian programs in urban areas such as 
this one, a substantial portion of ISTEA funding has continued to be 
used to maintain and expand our highways, the backbone of travel in 
much of the nation.
    ISTEA's legacy, then, is one of meeting the transportation 
challenges of the 1990's through new emphases and new strategies 
without neglecting traditional concerns. As we approach the 21st 
century and demands brought about by such varied factors as our 
economy's increasing globalization and the changing demographics of our 
population, we want to build on ISTEA's successes.
    Two years ago, when we first started to consider what form ISTEA's 
successor should take, we began an extensive process of outreach to our 
constituents which included major regional forums and scores of other 
meetings involving thousands of attendees from state and local 
governments, the transportation industry, other interested groups such 
as freight shippers and environmentalists, and the general public.
    Overwhelmingly, the message we heard was that ISTEA has been a 
success, and that we should continue the many Federal programs which 
are working, refine those which have not yet fully realized their 
promise, and create new initiatives to meet the challenges of the new 
century. We believe that NEXTEA does all of these things.
    It would increase overall Federal surface transportation funding 
authorizations by 11 percent, from ISTEA's $157 billion to $175 billion 
for fiscal years 1998-2003. By eliminating certain categories of 
spending, it provides a 30 percent increase in core highway programs, 
such as those for Interstate Highway maintenance and the National 
Highway System. It also includes a 17 percent increase for transit 
major capital investments, a continuation of the mass transit ``new 
starts'' program.
    If Congress funds NEXTEA at the levels we have proposed, that would 
mean $11.982 billion for New York State over the next 6 years in 
formula-based funding alone. It also would mean more than $4.965 
billion for New Jersey and more than $2.746 billion for Connecticut for 
fiscal years 1998-2003. In fact, 49 of the 50 states would receive more 
funding under NEXTEA than under ISTEA. (The sole exception, 
Massachusetts, received unusually high levels of funding under ISTEA to 
support construction of Boston's Central Artery project.)
    Such funding also could be directed to urban priorities because of 
increases in the flexible Surface Transportation Program and because 
Amtrak, intercity public rail terminals, and projects to improve access 
to public ports would be made eligible for funding.
    This funding and the projects it would support would help to reduce 
the $50 billion a year that urban congestion costs commuters and 
freight shippers. There is also an even more direct economic benefit: 
the construction and other work generated by this plan could create an 
estimated one million jobs over the next 6 years, including 75,000 jobs 
here in New York, 32,000 jobs in New Jersey, and 18,300 in Connecticut.
    NEXTEA also sustains the Federal commitment to intelligent 
transportation systems (ITS) created by ISTEA. ITS applies advanced 
information and communications technologies to transportation through 
systems available today such as ramp meters and synchronized traffic 
lights, and through technologies which could be available tomorrow, 
such as advanced collision avoidance systems.
    In metropolitan areas, these technologies can cut by 35 percent the 
cost of providing the highway capacity we need over the next decade. 
That is why we are promoting the integrated deployment of ITS 
technologies. In fact, the New York-New Jersey-Connecticut metropolitan 
area is one of four chosen, with Federal support under ISTEA, to serve 
as models for such deployment.
    NEXTEA includes a research component which would support technology 
development and ITS deployment through standards development, training, 
and technology transfer. It also would fund work in collision avoidance 
and vehicle control systems to reduce crashes. We have proposed $678 
million over the next 6 years for such support initiatives. We also 
have proposed a 6-year, $600 million incentive program to promote the 
integrated deployment of ITS infrastructure technologies that are 
technically feasible and highly cost-effective.
    Our transportation system is not just about moving people and 
products efficiently, as important as that is to our prosperity: it 
also is about enabling people to travel safely. Travel is safer than it 
was at the beginning of the decade, but as traffic increases, so does 
the possibility of more highway crashes.
    ISTEA has addressed safety, helping to make safer travel possible. 
It has supported programs to prevent drunk driving and to raise safety 
belt use. It also has supported initiatives such as New York's 
pedestrian safety program, which cut pedestrian fatalities by 28 
percent over a 3-year period.
    ISTEA-funded ``rumble strips''on such highways as I-81, I-87, and 
I-88 can save lives by alerting fatigued motorists that they are about 
to drive off the road. A state-funded project on the New York Thruway 
has already helped to reduce such crashes by 70 percent.
    The President's proposal would build on such successes by 
increasing highway safety funding authorizations by more than 25 
percent, and by supporting new programs targeted to the biggest safety 
payoffs: combating drunk and drugged driving and increasing proper use 
of safety belts and child restraints.
    NEXTEA also would protect the environment. As with highway safety, 
more traffic challenges the progress we have made. More travel could 
dilute the progress made through cleaner cars and fuels. That is why we 
have to continue, and even expand, the efforts which have brought us 
this far.
    NEXTEA increases by 30 percent funding for CMAQ to help communities 
use various transportation initiatives to clean up their air. That 
includes everything from high-speed ferries in Rhode Island to the Red 
Hook Marine Terminal freight container barge, which takes hundreds of 
trucks off of New York City's streets each day.
    NEXTEA also continues investment in bicycle paths, scenic byways, 
recreational trails, and other programs that cost relatively little but 
which greatly improve the quality of our lives. For example, last year 
the Merritt Parkway and State Route 169 in Connecticut have been 
designated as National Scenic Byways. Transportation Enhancements and 
other funding are supporting implementation of the New York City 
bicycle plan, which ultimately will have 500 miles of on-street bike 
lanes. And ISTEA funding helped to restore the historic Netherwood 
Station in Plainfield, New Jersey.
    The President's plan also addresses other national priorities. It 
would help to reduce the barriers faced by those moving from welfare 
rolls to payrolls by encouraging affordable transportation to jobs, 
training, and support services such as child care.
    NEXTEA is intended to help bridge the gap between people and jobs. 
It includes a 6-year, $600 million program of flexible, innovative 
alternatives, such as vanpools, to get people to where the jobs are. 
That is important, since two-thirds of new jobs are in the suburbs and 
many welfare recipients do not own cars.
    NEXTEA also continues the commitment to common sense that President 
Clinton and Vice President Gore have brought to government operations 
over the past several years.
    NEXTEA proposes more common-sense ideas: focusing on results, not 
on process; cutting red tape and streamlining requirements; promoting 
innovation, such as more new ways to pay for roads and transit systems; 
and giving state and local officials even greater flexibility to target 
Federal funds to projects which best meet community needs.
    NEXTEA expands our innovative financing program. For example, it 
includes $900 million in seed money for state infrastructure banks, 
which leverage private and other nonFederal resources, and opens this 
program up to all states.
    It also dedicates $600 million to help leverage nonFederal 
resources for projects of national significance which individual states 
cannot afford, such as interstate trade corridors. That responds to 
states' needs in handling the increased traffic from NAFTA and other 
agreements to promote trade.
    NEXTEA also makes the transportation planning process simpler and 
smoother for our state and local partners. It would streamline the 23 
statewide and 16 metropolitan planning factors into seven broad goals 
that states and localities can use as appropriate to guide their 
planning. It would emphasize system operations and management so that 
planning considers a complete range of transportation options, 
including intelligent transportation systems, and it would expand 
planning's inclusiveness by ensuring that the concerns of freight 
shippers are heard.
    NEXTEA also continues to transform Federal oversight by reducing 
project reporting and certification requirements. We know that we must 
trust our partners in state and local government and the private sector 
instead of burdening them with paperwork.
    By expanding the scope of work carried out by the Bureau of 
Transportation Statistics, NEXTEA also would provide decisionmakers 
with more of the information they need to make the right choices. Under 
NEXTEA, we would expand services to states and metropolitan planning 
organizations, expand the National Transportation Library and similar 
activities, and extend our data base to include more statistics on the 
global economy and how it affects local transportation and economic 
activity.
    Finally, NEXTEA sustains our support of the University 
Transportation Centers (UTC), such as the one at City College of New 
York, which prepare professionals to design, build, and operate the 
transportation systems of the future. Work done through the UTCs also 
has resulted in benefits to current programs. For instance, the New 
York City Transit Authority recently determined benchmarks for bus 
maintenance tasks based upon UTC-provided analyses, and the New Jersey 
Transportation Economic and Land Use System, which assists state and 
local planners, was developed through a UTC initiative.
    NEXTEA, in summary, is faithful to what we heard from our 
constituents: sustain ISTEA's principles, streamline its requirements, 
and increase its flexibility and funding levels.
    NEXTEA would help to give Americans what they told us they want: a 
transportation system that is sensitive to environmental concerns and 
that enables them to get to their destinations safely, conveniently, 
and on time.
    We listened to them, and we learned, and we have produced a 
proposal which can take America's transportation system into the 21st 
century. President Clinton, Secretary Slater, and I look forward to 
working with you and your colleagues in Congress to make it a reality.
    This concludes my statement. Now, I would be pleased to answer any 
questions you may have.
                               __________
  Statement of Thomas M. Downs, Chairman, President and CEO, National 
                Railroad Passenger Corporation (Amtrak)
    Mr. Chairman and members of the subcommittee: Thank you for the 
opportunity to appear before this Subcommittee to discuss Amtrak's top 
priorities for the 1997 reauthorization of the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA): Inclusion of a dedicated 
source of capital funding, as well as program eligibility, for 
intercity passenger rail. These two elements are simply the single most 
critical factors in the survival of the nation's passenger rail system.
    ISTEA was truly visionary legislation. It was the first step down 
the path toward a balanced transportation system. It was the first law 
that sought to put the movement of people at the forefront, and not the 
different modes that comprise our transportation system. At many state 
DOT's, ``Intermodal'' needed to be defined and added to the vocabulary.
    But ISTEA brought us only part way down the path. In order to reach 
our ultimate destination--a truly balanced transportation system--we 
must eliminate modal bias. A significant step in the right direction 
would be to discontinue the bias against intercity passenger rail that 
is inherent in ISTEA. That is consistent with what has historically 
been the position of this Committee, and the Senate as a whole, and it 
is my hope that this year the position will prevail.
    For those who were not there, in 1991 the Senate-passed version of 
ISTEA included passenger rail as an eligible entity in all state-
administered programs, but when the conference on the bill began we 
were left in no-man's land between the insurmountable boundaries of 
jurisdiction In the House. And it was there that eligibility for 
intercity passenger rail died--on a jurisdictional impasse, not due to 
any substantive objection. Now, after it being codified that way for 6 
years, we need to remind people it was never a policy decision to 
exclude rail--we fell victim to clearly drawn lines of committee 
jurisdiction. Now, with jurisdiction over all surface transportation 
programs, including Amtrak, consolidated in the House Transportation 
and Infrastructure Committee, the obstacle has been removed, and this 
indefensible modal bias should be eliminated.
    Everyone on this Subcommittee knows that public policy on 
transportation modes is incredibly skewed--and that goes well beyond 
the gross inconsistencies in funding levels for the different modes. 
Current Federal funding policies distort state and local 
decisionmaking. The Federal Government offers generous matches to a 
state if they are making highway, transit or related investments, but 
offers little or no funds to match state investment in rail passenger 
service. The result is states and localities are discouraged from 
investing In rail even when it's the best system for the area. 
Elimination of modal bias and the desire for a balanced, truly 
responsive intermodal transportation system demands that this change, 
and ``NEXTEA'' is the most appropriate vehicle for that change.
    Highway trust fund moneys can be spent on mass transit, bus 
acquisition, light rail, bike paths, pedestrian walkways, technology 
research, planning, snowmobile trails, intermodal freight facilities, 
driver education programs, hiking trails, and much more. I am not here 
to discourage these types of investments, but rather to highlight the 
absolute inconsistency of prohibiting expenditures on intercity 
passenger rail. If a state chooses to spend a portion of their Federal 
transportation allocation on Amtrak, they should clearly be allowed to 
do so.
    Including passenger rail as an eligible use of Congestion 
Mitigation and Air Quality (CMAQ), Surface Transportation (STP), 
National Highway System (NHS) and eligible transit program funds would 
eliminate this bias. States would be able to leverage a 75 or 80 
percent match on their investment, and thus would be financially free 
to choose the best transportation solution based on transportation 
efficiency, not skewed economic incentives.
    The legislative discrimination against passenger rail should be 
terminated with the enactment of NEXTEA. Inclusion of passenger rail as 
an eligible use of NEXTEA funds would require no new spending, would 
not change any Federal transportation allocation formulas, and would 
not mandate that a state spend one penny on rail service. What it would 
do is provide states with the flexibility to buy the transportation 
service that best meets their needs.
    It is clear that the American people want a national passenger rail 
system--the challenge for this Congress is how best to support it and 
ensure its healthy existence. Allowing states the right to spend a 
portion of their Federal transportation allocation on Amtrak, if they 
so choose, is one critical response to this challenge.
    The Senate approved legislation to provide this flexibility and 
eligibility in 1991, and again, by a nearly 2-1 bipartisan vote, during 
consideration of the National Highway System Designation Act (NHSDA) in 
1995. Sixty-four Senators in the last Congress, supported by many of 
the nation's Governors, voted in favor of this. I am pleased to see 
that Senator Moynihan's ISTEA reauthorization bill, cosponsored by 
Senators Chafee, Lautenberg, Lieberman and others on this Committee, 
includes this eligibility for Amtrak. I urge this Committee to ensure 
that whatever bill is reported to the full Senate for consideration 
include this very important eligibility for intercity passenger rail. 
Simply, it Is a states' rights issue. If a state decides that Amtrak 
best meets their transportation needs, that state should be able to 
leverage the same amount of Federal dollars for rail service that it 
can for a new highway, a new bridge, a transit improvement or a bike 
path.
    That is what Amtrak is seeking. Parity. Parity doesn't require an 
indictment of our highway system, or our transit systems, or our 
aviation system. As a former highway administrator, the head of a 
bridge and tunnel authority, a transit agency and a state DOT, I have 
never argued the merit of one mode over the other. Each serves a 
different need and a different population. They should be woven 
together to supplement and enhance each other.
    The single most important issue to preserving our national rail 
system, that must be addressed in NEXTEA, is the inclusion of a 
dedicated funding source for Amtrak. I'm not going to sit here in front 
of you and ``cry wolf,'' but I know our national rail system cannot 
survive intact through yet another year of inadequate funding, and I 
can assure you that Amtrak will have to break its commitment to achieve 
independence from Federal operating support if we are not given an 
adequate, reliable dedicated source of capital funding. As we have 
always said, operational self-sufficiency is absolutely dependent on 
adequate capital investment in the system.
    For some reason? Amtrak, the only major mode of transportation 
which does not have a dedicated source of funding, is held to a higher 
standard than any other mode, all of which are dependent on the Federal 
Government for support and none of whom are called upon to defend 
themselves in terms of ``profitability.'' We are also held to a higher 
standard than any other passenger rail system in the world, all of 
which rely on some level of Federal support. Amtrak covers more of its 
operating costs--an estimated 84 percent--than any other passenger 
railroad in the world, and serves more than 93 percent of the 
continental United States, while receiving less than 3 percent of all 
Federal transportation spending.
    What do we mean in this area--the greater metropolitan area? Amtrak 
owns, operates, and maintains the majority of the Northeast Corridor. 
As everyone in this room knows, it is a critical transportation asset 
that carries more than 1,000 trains a day, including Amtrak, seven 
different commuter railroads, and freight. The Corridor is in the midst 
of a tremendous make over of transportation. Work is underway to 
introduce high-speed rail service to America. In preparation, 
investments have been made to upgrade and modernize the 
infrastructure--track, bridges, and structures--in the north end. This 
past spring, construction also started on the completion of a 75-year 
transportation plan--electrification north of New Haven. The high-speed 
rail program has been met enthusiastically by rail riders as well as 
investors. Significant capital investments are needed on the south end 
and a continued source of capital will be needed for the entire program 
if we are to have the highest return on this investment.
    We carry almost half of the combined air-rail market between here 
and Washington, DC, and when intermediate cities (such as Baltimore and 
Philadelphia) are included, Amtrak's share of the air-rail market rises 
to seventy percent. Loss of Amtrak service in this corridor would not 
only put a huge financial burden on the affected states, it would 
require another 7,500 fully booked 757's to carry our passengers every 
year, or hundreds of thousands of cars added to already congested 
highways. If Amtrak disappeared tomorrow, there would be an additional 
27,000 cars on the highway between Boston and New York every day. 
Between New York and Philadelphia Amtrak service removes 18,000 cars 
from the highways every weekday.
    That number--18,000 cars a day--does not include the thousands of 
commuter rail passengers, and their parked cars, that are carried on 
Amtrak's Northeast Corridor by commuter agencies such as New Jersey 
Transit (NJT) and the Southeastern Pennsylvania Transit Authority 
(SEPTA) every day. These commuter agencies could not operate if Amtrak 
did not maintain the track, bridges, signals and electric traction 
system on the Corridor. Above and beyond Amtrak's enumerated ridership, 
another 220 million commuter passengers ride on Amtrak's Corridor 
between Boston and Washington, DC every year. You can measure Amtrak's 
impact not only in the number of cars removed from the road, but also 
in terms of avoided costs--as reported in the Journal of Commerce last 
May, Amtrak's presence eliminates the need for 20 additional highway 
lanes here in New York City, and ten new tunnels under the Hudson.
    The Northeast Corridor business unit contributes nearly 52 percent 
of our ridership and 56 percent of our revenues. In 1999, when we will 
begin operating our high-speed train sets between Boston and 
Washington, we estimate that this service will generate at least $150 
million annual profit. This profit, along with over $200 million of 
additional financial improvements, will help offset costs on other 
parts of the system. This business unit will generate profits for 
Amtrak. The key is to sustain the capital funding stream that is 
required to finish the improvements necessary to support high-speed 
rail, rebuild tunnels, repair the 60-year old catenary system, and make 
other life safety improvements.
    What happens if we disappear, besides new airports, highway lanes, 
tunnels and bridges being needed? Besides the congestion air quality 
implications? The elimination of Amtrak would mean the loss of over 
20,000 jobs. Commuter operators would need to provide the 
infrastructure for their own use, at full cost, which would be 
approximately double what they are now paying, based on the residual 
operating and capital expense in Amtrak's absence. That would amount to 
more than $80 million annually, in addition to the need to bring this 
property up to a state of good repair at a cost of more than $4 
billion. Ironically, the dissolution of Amtrak would likely cost the 
American taxpayers nearly 20 percent more money than the entire 5 years 
of funding for a trust fund proposal. The latter solution has the bonus 
of creating a viable and less costly national rail passenger service.
    Publicly elected officials from this region, at the local, state 
and Federal level, have been the most consistent, most outspoken and 
most influential supporters of a dedicated funding source for Amtrak, 
because this region in particular is dependent on us economically, 
environmentally, congestion-wise and employment-wise. I am grateful for 
their support.
    One parting thought. Like so many worthwhile things that have been 
done to little applause, ISTEA has faced criticism. You have invited 
witnesses here to discuss the good and the bad, to criticize and 
commend, and they may disagree by mode, or by state, or by region. 
Despite that, I believe your highest priority must be defending the 
ground already gained with that landmark bill and to build on it.
    If we are to continue the vision of ISTEA and maximize our 
transportation resources in NEXTEA, we must move past the counting up 
and comparing of costs of each mode. A truly balanced transportation 
system is like an effective education system. All of society benefits 
from its existence, those who use it directly and those whose lives are 
eased or enriched by its existence. That is what NEXTEA should embody, 
promote and protect, and we at Amtrak believe intercity passenger rail 
should be a part of it.
                               __________
 Statement of James Sullivan, Connecticut Department of Transportation
                              introduction
    Good morning. I am James Sullivan, Commissioner of the Connecticut 
Department of Transportation. Thank you for this opportunity to provide 
testimony on Connecticut's perspective as it relates to the 
Reauthorization of ISTEA.
Support for ISTEA 1991
    Let me first of all state that the Intermodal Surface 
Transportation efficiency Act (ISTEA) which Congress enacted in 
December 1991 was landmark legislation. It effectively changed the 
direction of Federal surface transportation policy, from a policy of 
building the Interstate System to an era of transportation 
infrastructure system preservation, intermodalism, and system 
efficiency. We fully support this direction. In fact, the Department 
performed a strategic financial analysis in 91-92 which established 
safety, maintenance and system efficiency as its top three goals, 
emulating the direction set forth in ISTEA.
    ISTEA required enhanced emphasis for public participation. This has 
ensured stakeholders involvement in the process, from the projects' 
earliest planning stages through their completion. The results have 
provided for better projects, addressing both transportation issues and 
local concerns. The expanded role for Metropolitan Planning 
Organizations in project selection and advancement has provided for 
more local input in addressing urban and rural transportation problems. 
When a project has proceeded through the planning process and is 
mutually agreed to by the state and MPO, it is virtually certain for 
success.
    The funding flexibility provided by ISTEA has had a positive impact 
on Connecticut's transportation program by granting programming options 
that did not previously exist under the rigid rules of prior highway 
acts. ISTEA allows states and MPOs to consider more than one Federal 
funding source when programming priority projects and allows funding 
flexibility between modes. The use of ``advance construction'' (AC), 
``partial conversion financing'', and other innovative financing 
techniques has made it possible for states to proceed with early 
implementation of projects, rather than accumulating funds to cover the 
entire cost of projects. This has resulted in better management of our 
Federal-aid apportionments and obligation ceiling.
    An example of putting flexible funding into practice can be found 
in our $126 million bridge reconstruction project located on the New 
Haven Railroad Line, locally known as the Peck bridge. The State and 
the Greater ?Bridgeport MPO flexed $22.8 million of highway funds for 
this important transit purpose. A combination of funding categories 
were used: CMAQ, STP-Anywhere, Section 3 Discretionary, Section 9 
funding and state funds. This improvement is nearly 90 percent complete 
and will improve the operations of the Metro North Commuter Service 
which accommodates some 98,600 travelers each day.
    The Enhancement Program has proved to be very popular among local 
officials and grass root organizations. Connecticut has invested over 
$61.2 million dollars on enhancement type projects through the life of 
ISTEA. These projects primarily address pedestrian and bicycle travel. 
Two of the more prominent projects I'd like to share with you are:
Farmington Canal Linear Park: Cheshire, Connecticut
    This project, utilizing STP Enhancement Funds, has restored a 
recreational and open space corridor along the abandoned ROW of the 
former Farmington Canal and the Boston and Main Railroad. This linear 
park, located along the historic Farmington Canal, which was built in 
1828 and replaced 20 years later by a railroad corridor that was used 
continuously until 1982, links the center of the town of Cheshire to 
the Farmington Canal Lock 12 Historic Park. Enhancement moneys were 
also used toward the acquisition and rehabilitation of the historic 
Lock keeper's house. Due to the popularity and use of this linear park, 
presently 5.6 miles long, further expansion is under design to extend 
it an additional 3 miles. This linear park now serves as a greenway for 
wildlife, wetland marshes, and native vegetation. Local residents enjoy 
the trail as a safe place to socialize, commute and exercise.
Merritt Parkway: Fairfield County, Connecticut
    Enhancement funds were used to finance a landscape master plan for 
the parkway and restoration of the Route 8 and Route IS interchange to 
its 1938 aesthetic status. Subsequent funds have been set aside for a 
bridge conservation plan and for renovation and landscaping work at key 
entrances to the parkway. The Merritt Parkway is listed on the National 
Register of Historic Places, designated as a State Scenic Road, and 
recently recognized as a Federal Scenic By-Way. There are 72 bridges on 
the Merritt, each unique in its aesthetic design. This project has 
helped ensure the county's continued desirability as a residential and 
employment area, because the route will continue to be a convenient 
transportation facility and the fragile rural character of the region 
will be better reflected in the parkway.
    Though Connecticut has been a national leader in establishing an 
aggressive transportation rehabilitation program, ISTEA funding has 
been critical in helping to address Connecticut's transportation needs. 
The accomplishments achieved throughout the life of the Act have 
greatly advanced Connecticut's goal for a safe, efficient and well 
maintained transportation system. The combination of ISTEA funding, 
which provides about 55 percent of the capital costs, and the state's 
commitment of its own resources have helped Connecticut complete its 
Interstate System, rehabilitate and reconstruct many of our aging 
bridges, surface and rehabilitate hundreds of miles of state highway, 
and improve the urban and rural system of roads, as well as improve the 
rolling stock and facilities of our transit systems. While much has 
been accomplished, much more needs to be done. Our identified needs far 
exceed our current and projected resources. Without ISTEA and its 
flexibility, it is unlikely our gains would have been this successful.
               reauthorization of the federal highway act
    The national perspective on transportation must continue to be 
advanced. Unlike some other states, Connecticut does not hold that 
national apportionments should be tied to the amount of money a state 
sends to Washington. Though we are a ``donee'' state in the 
transportation arena, Connecticut is the quintessential ``nation donor 
state'', receiving back from Washington only $.68 for every $1.00 of 
Federal tax contributed. To base apportionments of Federal funds on how 
much money a state sends to Washington is counter to the concept of 
federalism and would ignore the relative needs of the states. We are 
not fifty individual states but are a nation composed of fifty united 
states.
    Surface transportation's vital role in interstate commerce and 
national defense warrants a continued Federal role and presence. The 
Federal role in transportation must be maintained to ensure that a 
national focus remains on connectivity, safety, maintenance, effective 
planning and research. This Federal role is essential to support 
national economic growth, global competitiveness, and sustainable 
quality of life. Federal funding should target those areas and issues 
of national concern and interest, i.e., the National Highway System, 
bridges, congestion, air quality, transit, mobility, quality of life, 
etc.
    Distribution of Federal transportation funds should be first and 
foremost, based upon system needs, the state's level of effort (its 
commitment of state resources), volume of usage, and the relative 
difference in the cost of doing business from one state to another. The 
needs based distribution effort of past highway acts must be continued 
in the new authorization. This is especially critical to the northeast 
states which have some of the more densely travel led facilities and 
which, through age and usage, have the highest demand for preservation 
and enhancement.
    Let us not forget in our discussions concerning reauthorization, 
the essential needs of transit programs. We believe there is a 
continuing need for both capital and operating Federal assistance for 
our transit system. Connecticut may be unique in the Nation in its 
commitment to transit. Our State transportation fund finances nearly 98 
percent of all operating deficit for both bus and rail transit in 
Connecticut. This represents 42 percent of the Department's operating 
budget or approximately $120 million per year. The State has reached 
the maximum level of transit subsidy it can support and any reduction 
in Federal participation would directly impact services to those in the 
most need.
    Let me also emphasize that individual states must come to the table 
and be financial partners with Washington. Connecticut's resident's 
commitment to safe and efficient transportation infrastructure is 
unparalleled. Our gasoline taxes which presently stand at 39 cents per 
gallon, is evident of that commitment. Though efforts are underway to 
reduce this burden through downsizing and efficiencies, the state will 
maintain its initiative to provide the traveling public and its 
economic generators with a first class transportation system.
    As the debate on reauthorization continues and intensifies, I 
believe that continued and increased support for reauthorization of 
ISTEA, with modest improvements, will carry it to enactment. We should 
look to build on those aspects of the Act which worked well and are 
beneficial to both the national agenda and the states' interest. The 
fundamental structure of ISTEA is sound and should be preserved. State, 
regional, local and other stakeholders have invested heavily in making 
ISTEA work and those efforts should not be wasted as proposed by some 
advocates.
    The core programs of ISTEA target the transportation needs of 
Connecticut and the Nation and must continue in the next highway act.
    <bullet>  The Interstate Maintenance Program designed to finance 
projects to rehabilitate, restore and resurface the Interstate System 
has made substantial impact on the condition of our highways. Continued 
and future needs are identified and much work needs to be done.
    <bullet>  Nation Highway System funds have proved to be essential 
in maintaining and improving the designated NHS. This system includes 
all interstate routes and a large percentage of urban and rural 
principal arterials. It carries our highest concentration of traffic 
and requires substantial funding to maintain its safety and improve its 
operational efficiency.
    <bullet>  The Surface Transportation Program (STP), with its set-a-
sides and sub-government allocations, has proved to be beneficial to 
address needs on a wide array of transportation projects. As one of the 
most flexible funding categories of the Federal programs, we have seen 
many benefits realized from a wide range of projects, including 
construction, reconstruction, rehabilitation, restoration and 
operational improvements for highway and bridges, transit projects, 
rideshare projects, bikeways and more. Additionally, the STP program 
provides the resources to address locally identified priority 
intermodal needs.
    <bullet>  The Bridge Replacement and Rehabilitation Program, as 
intended, has provided assistance for eligible bridges on our public 
roads. Although there remains much to do and needs continually arise, 
due in large part to this program, our system of bridges are in the 
best shape they have been in decades.
    <bullet>  The Congested Mitigation and Air Quality Improvement 
program (CMAQ) was design to direct funds toward transportation 
projects in Clean Air Non-Attainment area for ozone and carbon 
monoxide. The projects implemented under this program have helped 
contribute to our State making progress toward meeting the attainment 
of national ambient area air quality standards.
    <bullet>  ISTEA of 1991 acknowledged contributions made by some 
states in constructing segments of the Interstate System without 
Federal assistance, in the early days of the Interstate Construction 
Program, by authorizing the Interstate Reimbursement Program. Funds 
from this program have provided a funding source for many of the 
unfunded projects within the STP program. In Connecticut, the IR 
program has been instrumental in funding the reconstruction of a 
elevated portion of I-95 in Bridgeport which was in need of structural 
rehabilitation. This reconstruction of part of the same original 
interstate highway which was built without Federal funds, would have 
been very difficult to finance and advance without the availability of 
the IR funding program.
    Connecticut also supports the Priority Corridor Program in general, 
and the I-95 Corridor Coalition in particular. In the Northeast, as in 
many congested urban areas, technology can enhance the safety and 
capacity of the existing highway and transit systems. Expanding 
existing or building new infrastructure, in many of these urban areas, 
is not a viable option. We advocate a direct appropriation to I-95 or a 
commitment by U.S. DOT to support the I-95 Corridor Coalition.
    While we support reauthorization of ISTEA, we also recognize that 
it is not perfect and support several proposed modest modifications 
advanced by us and others. A couple of changes we would like to see 
are:
    <bullet>  Simplification of the administrative process as it 
relates to the Enhancement Program. The administrative requirements for 
enhancement eligible projects should not be the same as major high cost 
capital projects. It has been estimated that the cost to administer 
these projects run about 17 percent of the project cost. It is 
suggested that this sub-allocation of STP funds be converted to a block 
grant type program to minimize administrative burden and cost.
    <bullet>  The sub-allocation of Interstate Reimbursement Program 
funds through the STP category should be discontinued and TR should be 
treated as a core program. This program recognizes the prior financial 
commitment the State made in constructing the interstate segments prior 
to the establishment of the Federal Interstate Program. The State, 
therefore, should be the principal party in determining the allocation 
of these funds and for project selection.
    In addition, as part of an extensive review and discussion 
undertaking with fellow ISTEA Works Coalition DOT representatives, 
better than 20 recommendations have been submitted which we believe 
will improve the administrative and procedural processes in ISTEA. This 
consensus was reached with the goal of improving the efficiency and 
effectiveness in implementing the various provisions of ISTEA. I, 
together with my colleagues, trust these suggestions--will enhance the 
difficult task facing this committee during this reauthorization 
period.
    We also support full access to highway trust fund revenues. Our 
State transportation system, like those around the country, continually 
show that infrastructure needs far exceed available funds. The nation's 
long-standing policy of linking Federal transportation user fees such 
as motor fuel taxes and excise taxes exclusively to transportation 
purposes should be reinstated. The practice of placing an obligation 
ceiling on authorization should be eliminated.
    In addition, we strongly support the continuation of a national 
rail transportation system. The dedication of 0.5 cents of the 4.3 cent 
diversion is critical in ensuring a broad based support of this system. 
With this dedicated resource, and administrative relief, Amtrak can 
become a self supporting system which will provide national benefits.
                                summary
    In summary, let me say that ISTEA has been a positive initiative in 
developing a seamless, intermodal transportation system to serve the 
national, state and local needs. We believe that it should be continued 
with modest changes to its requirements and funding, it will adequately 
serve the transportation community and stakeholders into the next 
century. Federal involvement is critical to ensuring national 
objectives and connectivity of the system, and in providing equitable 
funding based upon need, usage and state level of effort.
    The importance of transportation: in promoting economic development 
and increased productivity can not be over stated. Transportation 
policies and investments make significant contributions to the well 
being of the individual states and the country as a whole.
    Effective transportation investments can increase productivity and 
enhance the standard and quality of life.
    The location and condition of highways, roads, bridges, bikeways, 
sidewalks, and bus and rail facilities enhance economic health and 
development because they facilitate:
    <bullet>  daily movement of people to and from work, school, and 
shopping;
    <bullet>  distribution of raw materials and intermediate and 
finished goods;
    <bullet>  access to recreational activities;
    <bullet>  increase in productivity,
    <bullet>  improvements in the standard and quality of life; and
    <bullet>  a cleaner and safer environment.
    Again, let me thank you for the opportunity to present 
Connecticut's perspective on reauthorization. Governor Rowland and my 
Department stand available to work with your committee in reauthorizing 
ISTEA and providing the appropriate level of Federal assistance to 
partner with states in ensuring the continued improvement in safety, 
efficiency and operations of our intermodal transportation facilities.
                               __________
Statement by Robert E. Boyle, Executive Director, the Port Authority of 
                        New York and New Jersey
    Good Morning. I am pleased to have this opportunity to present 
testimony on the reauthorization of the Intermodal Surface 
Transportation Efficiency Act of 1991, commonly referred to as ISTEA. 
The Port Authority of New York and New Jersey strongly endorses the 
reauthorization of ISTEA with minimal change to existing policies and 
programs.
    ISTEA's basic principles address the changing needs for America's 
future by rebuilding infrastructure, reducing congestion, maintaining 
mobility, promoting safety, protecting the environment, advancing 
technology and expertise, creating jobs, and ensuring the country's 
ability to compete in the global marketplace of the 21st Century.
    ISTEA paved the way for better coordination of planning to improve 
our transportation system. It provided a new approach to planning that 
encourages transportation stakeholders to recognize that transportation 
facilities are not islands unto themselves, but infrastructure that 
substantially impacts surrounding residential areas, retail and 
commercial office space, along with recreational facilities. This means 
the decisions transportation officials make about roads, bridges, 
transit, rail, seaports and airports, impact those environs and need to 
be thoughtfully factored into plans.
The Region: Transportation and Economics
    I'd like to talk a little about how the New York-New Jersey 
metropolitan region serves as an important source of revenue for the 
Federal Government, and why Federal investment in this region is 
absolutely critical. This region, with a population of 15.7 million 
people and personal income approaching $500 billion represents one of 
the nation's most dynamic regions for economic activity. In 1996, over 
$150 billion in international trade moved through this region's port 
and airport gateway facilities. The importance of these facilities are 
evidenced by the fact that almost one out of every four dollars of 
international trade by water or air move through this region. Retail 
activity exceeding $100 billion annually reflects the volume of goods 
that must be transported to and within the region.
    Over $90 billion of imports enter the U.S. economy through the New 
York and New Jersey gateways, generating customs collections estimated 
at $5 billion. The region's per capita personal income which approaches 
$32,000, makes it one of the highest in the nation. This also makes the 
region one of the most important contributors to Federal Government 
revenues through the personal income tax.
    Investment in the region's transportation infrastructure will 
largely determine whether this region remains the preeminent global 
regional economy in the United States. In the 1990-1995 period, an 
estimated $17 billion in infrastructure investments (in 1992 dollars) 
was made in the 17 county metropolitan region by the states and local 
entities. Of this total, 45 percent went for rebuilding highways, 
streets and bridges and an additional 29 percent for rail and other 
transportation investments. While this investment in infrastructure is 
substantial, it only touches the surface in terms of regional needs. 
Linking those investments by the states to funds provided by the 
Federal Government to address national interests is essential, which 
brings us to ISTEA.
The States
    According to the States of New York and New Jersey, ISTEA works! We 
received approximately $20 billion in Federal funds since 1992, which 
aided in rebuilding our region's transportation network. But the job is 
not done. Stronger, more flexible and streamlined programs and 
increased funding will contribute significantly to accomplishing the 
goal of a seamless transportation system. Therefore, as we move forward 
in the reauthorization debate, the primary aim should be to make good 
legislation better--an improved blueprint for progressive 
transportation decisionmaking.
Why ISTEA Is Important To The Port Authority
    The Port Authority is both a transportation provider through its 
interstate crossings and transit connections, and a consumer of the 
region's transportation services through its mission to support 
regional trade and commerce. Our transportation gateway facilities in 
New York and New Jersey include the region's major airports, marine 
cargo terminals, interstate crossings, bus terminals, and the PATH 
rapid transit system.
    Our facilities are important elements in the regional 
transportation network and we will continue to balance our capital 
program and operational plans to work toward New York's and New 
Jersey's mobility goals. For example, the Port Authority's Board of 
Commissioners recently authorized $24.3 million to install intelligent 
transportation system technology at the George Washington Bridge. This 
project will have significant positive impact on traffic flow along the 
northern corridor. The Board also approved a $23 million expenditure 
for a new roadway at Kennedy Airport which will aid in improving 
traffic delays on-airport and along the southern corridor.
    In addition, we have partnered with our colleagues in the New York 
and New Jersey Departments of Transportation, as well as others, to 
build workable coalitions for operating and improving the vast 
transportation network that defines our economic region--the nation's 
largest market and global gateway. Transportation agencies in New York 
and New Jersey are responding with new initiatives to improve the 
performance of the regional network in the years immediately ahead and 
to advance a new generation of rail transit projects along the midtown 
corridor that are needed to support projected levels of economic 
growth. Though they have evolved separately, Governor Pataki's ``Master 
Links'' initiative and Governor Whitman's ``Urban Core'' program are 
complementary strategies.
    We are collaborating with key transit operating entities such as 
New Jersey Transit and the Metropolitan Transportation Authority on a 
joint project to identify potential new transportation investments in 
the extended core of the New York/New Jersey region. This work will 
have considerable access implications for Penn Station New York, the 
forecast demand on the Exclusive Bus Lane at the Lincoln Tunnel, and 
the Long Island Rail Road's proposed Grand Central Terminal project. We 
continue our staunch support to the States in rebuilding the region's 
transportation system by testifying today to stress that a reauthorized 
ISTEA, without substantial modification, is key to the economic well-
being of the New York-New Jersey metropolitan region.
Port Authority ISTEA Principles
    We, at the Port Authority, have given considerable thought to the 
emphasis that needs to be placed on ISTEA to achieve a seamless and 
modally indifferent transportation system, and while we are in total 
agreement with the position of the states, we believe these additional 
recommendations will result in enhancing regional mobility goals:
    <bullet>  Strengthen ISTEA to encourage true intermodal planning 
for passenger and freight--including all transportation modes.
    <bullet>  Increase funding levels to the states with special 
emphasis on investments that stimulate improved economic 
competitiveness on a national and international level; and allocate 
funds to the states based on need and not who contributes the most from 
Federal fuel taxes.
    <bullet>  Promote regionalism by creating incentives for states to 
fund projects of regional significance. That is, projects that impact 
more than one state and are necessary to accomplishing improved 
mobility for passengers and freight.
    <bullet>  Establish a more focused ferry program in support of the 
resurgence of ferries as a viable intermodal link with highway and 
transit. Federal ferry dollars should be used to advance only those 
initiatives which will eliminate or reduce the need for expending 
public sector funds for infrastructure renewal/expansion. The highest 
priority should be given to those projects which can demonstrate the 
ability to serve as transit system ``load shedders,'' thereby adding 
peak period capacity.
    <bullet>  Incorporate airport and seaport access and development 
into planning guidelines, with funding allocation designed to address 
the unique needs of the nation's primary gateways in support of 
national and economic objectives for global competition.
    <bullet>  Require Metropolitan Planning Organizations to include 
all major transportation operators as voting members on their Boards. 
The absence of such key players inhibits true coordinative and 
collaborative intermodal planning and decisionmaking.
    <bullet>  Eliminate excessive regulations to both free up funds 
that can be expended on transportation projects and encourage increased 
private sector participation.
    <bullet>  Expand technology research and development, emphasizing 
system integration of vehicle and infrastructure technologies for all 
modes.
    <bullet>  Retain emphasis on national environmental goals. While we 
face the problems of increasing congestion and pollution, they can be 
tackled simultaneously through ISTEA.
Conclusion
    ISTEA's greatest success is that in addition to improving the 
nation's transportation system, it is improving the quality of peoples' 
lives. We urge swift passage of ISTEA reauthorization so the momentum 
gained can be continued. However, we strongly request that the Congress 
and the Administration reject attempts to amend the funding formulas in 
any way that would cause the northeast states to receive less funds 
than in the past. The argument for funding equity should be predicated 
on ``the greater needs of a state, and not a list of wants!''
    Once again, thank you for the opportunity for me to present the 
Port Authority's views to the Senate Environment and Public Works 
Subcommittee. We are committed to working with both States and our 
Congressional delegates toward the region's ISTEA reauthorization 
goals.
                               __________
 Statement of E. Virgil Conway, Chairman, New York State Metropolitan 
                        Transportation Authority
    Chairman Warner, Chaimman Chafee, Senator Moynihan, Senator Baucus, 
Senator Lautenberg, distinguished members of the Committee on 
Environment and Public Works, it is a pleasure to join all of you today 
to discuss the future plans of the Metropolitan Transportation 
Authority, the significance of these plans and the role that ISTEA 
funding can and will play as we seek to meet the challenges of the 
coming century.
    When the ISTEA legislation was first adopted by the 102d congress, 
it marked an important moment in the development and maintenance of our 
nation's public transportation facilities, because ISTEA recognizes 
that transportation isn't simply about moving vehicles, transportation 
is about moving people.
    And no organization moves more people more efficiently than the 
MTA. The MTA is the largest public-transportation provider in the 
Western Hemisphere, serving a population of 13.2 million people over a 
4,000 square mile area. To meet the transportation needs of our region, 
we maintain a fleet of roughly 2,000 rail cars, 4,000 buses, and 6,000 
subway cars. Every day 5.5 million people travel with the MTA and 
annually more than 1.7 billion customers use our rail and bus service.
    However, our significance is not only based on the number of people 
we move, but also on the relative national importance of the region we 
serve. The New York City region is arguably our nation's greatest 
economic engine. It follows that ensuring mobility in this region is 
also of national importance. Nothing has been more vital to New York's 
past success, or is more important for our future than transit. That is 
why we are particularly concerned with the outcome of this year's ISTEA 
reauthorization process, and how that will effect Federal transit 
investment.
    But I did not come here today looking for a handout. The MTA has a 
proud history of local effort. To begin with virtually our entire 
transit network with an estimated value of more $300 billion was built 
entirely with private state or local dollars, before Federal funding 
existed for these needs. And today, while Federal funding is a critical 
component of some of our most important projects, it accounts for only 
28 percent of our overall capital program, which is the largest public 
works rebuilding effort in the nation's history. Since 1982, the MTA 
has spent approximately $22 billion on repairing and upgrading 
infrastructure and rolling stock.
    And the 1995 to 1999 financial plan continues to provide a solid 
foundation for the future, by calling for another $11.9 billion to be 
invested in the program. Granted, we also receive some city and state 
funding for capital needs, but our rebuilding effort relies primarily 
on self generated revenues.
    Perhaps this helps explain why we have taken such dramatic steps to 
improve the efficiency of our organization. The current financial plan 
doesn't just provide for the future through capital construction. The 
plan calls for a reduction of more than $3 billion in MTA operating 
expenditures, and increases annual revenue by $308 million.
    But even as we have dramatically improved the operations of the 
MTA, making ourselves more self-sufficient and improving service, there 
are still substantial capital needs that must be addressed to ensure 
the continued growth and success of our region.
    Governor Pataki recognizes this reality. He understands the vital 
importance of public transportation for our region in the century to 
come, and last year in conjunction with the MTA, the Port Authority and 
the Empire State Development Corporation, the Governor announced a plan 
called ``Master Links'' that is our vision for the future of public 
transportation.
    Master Links is a blueprint for a series of transit construction 
projects that are targeted to spur job growth and economic activity by 
linking the region together in a far more productive way. The goal is 
to provide seamless travel throughout the region, and particularly to 
provide increased and easier access to our nation's first and third 
largest commercial business districts, which are mid-town and lower 
Manhattan respectively.
    ISTEA funding is a critical component of Master Links, as it has 
been for our ongoing capital efforts, and I would like to outline some 
of our recommendations. While the MTA applauds the effectiveness and 
direction of the ISTEA legislation under the Transit Title, and we 
strongly urge the reauthorization of the discretionary and formula 
categories in Title III, we also are very concerned that the flexible 
funds category of Title I be maintained. The flexible funds category 
truly epitomizes the very positive direction that ISTEA took in 
recognizing that transit supports and enhances the highway system, and 
that in many parts of our country the best long term solution for 
alleviating highway congestion is the improvement of public 
transportation.
    Between 1992 and 1996, the MTA received $352 million under flexible 
funds for Congestion Mitigation, Air Quality (CMAC) and Surface 
Transportation (STP) Funding. This may well be the largest amount of 
flexible moneys used by any state in the country.
    Projects are chosen for flexible funding through a highly 
competitive regional project selection process, which is supported by 
the Governor and the State DOT.
    While the types of projects for which the moneys were used varied 
from signal rehabilitation to station renovation, there were projects 
of specific interest that would not have been done, or would have been 
underfunded, without the benefit of ISTEA flexible funding.
    These projects include:
    The 63rd Street Connector, which qualified for $271 million under 
section 3, but also qualified and received $45 million of CMAQ funding 
in a clear demonstration of the extraordinary role this project plays 
in both regional mobility and reducing pollution. Named by the FTA as 
one of the most cost-effective new starts in the nation, the 63rd 
Street Connector opens in 2001. The connector will increase service 
between Queens and Manhattan by 15 trains an hour, relieving congestion 
on the E and F lines, which are the busiest subway lines in the nation. 
During the peak rush hour commute, the E and F lines carry nearly 
78,000 people an hour, and on an average day more than 400,000 subway 
riders travel on the E and F.
    Flexible funds were also used for The Grand Central Terminal Sky 
Ceiling Restoration, which received $2.5 million in STP enhancement. 
Grand Central is a true intermodal transportation hub, which services 
Metro-North Railroad, the Lexington Avenue Subway, New York City 
Transit buses and private buses. Opened in 1913, Grand Central is a 
national architectural and transportation treasure. Roughly 500,000 
commuters pass through the terminal every day, and the restoration of 
this historic landmark is critical to the future of our regional 
transit.
    The implementation of the Bus Locator System at New York City 
Transit received $4.5 million in CMAQ funds. While standard on more 
modern transit systems, the Bus Locator System is a major improvement 
for the MTA that provides real time information on our buses, improving 
queuing and reducing congestion.
    And The Transit Museum Annex at City Hall received $1.1 million in 
STP enhancement funds, which helped us preserve this beautiful, 
historic and important station. Already a sold-out tourist attraction, 
the restoration of this one-of-a-kind station fits perfectly into the 
category of preservation of historic rail facilities, and also supports 
initiatives to revitalize lower Manhattan.
    As we look to the future, the MTA will be seeking to realize the 
promise of the Master Links plan. We believe this plan is designed to 
make the best possible use of ISTEA funding, because the priorities 
outlined in our vision ofthe MTA's future dovetail perfectly with the 
rational and intelligent transportation philosophy that is at the heart 
of the ISTEA legislation.
    Our goals are to enhance what is already the largest public 
transportation system in the Nation to help make New York and the 
entire nation more competitive in the global marketplace, create a 
stronger regional economy and cut down on congestion and pollution. We 
can do this through a series of targeted short and long term projects 
that will improve transit in New York, make trips to work and the 
airport faster and more reliable, and link New Yorkers with job 
opportunities by providing more efficient alternatives to driving.
    The projects that future ISTEA funding will help to achieve 
include: East side access for the LIRR and west side access for Metro 
North. These initiatives are now possible thanks to the already 
constructed lower level of the 63rd Street tunnel.
    And as with the 63rd Street Connector, it is anticipated that an 
ISTEA Section 3 ``New Starts'' grant, perhaps in conjunction with 
flexible funding, will provide 50 percent, or more, of the projected 
$2.1 billion cost for the construction of the tunnel links needed to 
make this project a reality.
    Additionally, we are now examining alternative proposals to 
increase access to lower Manhattan. And the MTA will set aside up to $5 
million to immediately begin studying better rail access to our 
nation's third largest business district. Funding for this initiative 
will most assuredly rely on ISTEA flexible dollars.
    The Master Link plan also calls for improved airport access. And 
while the lion's share of funding for this initiative is slated to come 
from the Passenger Facilities Charge levied on airline tickets by the 
Port Authority, there is also substantial improvements that must be 
made to the existing transit system (NYCT and LIRR) to support this 
project. ISTEA CMAQ and STP funding will be actively explored for these 
peripheral improvements.
    We are also looking to further renovate and restore our rail 
terminals. New York City has some of the most significant rail terminal 
buildings in the country, including Grand Central, Penn Station/Farley 
and Atlantic Terminal. These remarkable structures were largely built 
in the early part of century and need to be restored. The Governor 
strongly supports this initiative and a number of improvements likely 
to be made are excellent candidates for ISTEA funding.
    To move forward with proposals to redevelop the Farley building as 
an Amtrak interrnodal terminal that is connected to Penn Station, to 
complete the rehabilitation of Grand Central. and to revamp the 
Atlantic terminal as part of an initiative to increase access to lower 
Manhattan, we will seek funding under Section 3 and 9, as well as 
flexible funds under the CMAQ and STP provisions.
    As we look to the future, it is important to recognize our 
successes as well as areas for improvement, and the use of flexible 
funding to address regional mobility needs, rather than forcing mode 
specific alternatives, has proven to be a prudent expenditure of 
Federal funds for both the MTA and New York State.
    Before concluding, I would like to speak briefly about the ``Step 
21'' movement. Step 21's underlying philosophy is rooted in the states' 
rights movement, and adheres to the principal that each state is 
entitled to its own revenues and is responsible for its own needs.
    According to Senator Moynihan's always illuminating annual report, 
``The Federal Budget and the States,'' in 1995 New York State sent 
nearly $18 billion more to the Federal Government than we received 
back. And over the last 15 years, our deficit with the Federal 
Government totals nearly $200 billion.
    New York's Federal deficit helps fund many Step 21 sponsor states 
like Texas, which enjoys a $1.1 billion annual surplus and Florida, 
which enjoys a $5 billion annual surplus. If it were the case that all 
Federal programs guaranteed a 95 percent return on a state's level of 
contribution, we would have no philosophical problem with Step 21. As 
it stands however, the proposal is actually quite punitive to a state 
like New York that doesn't generate a high level of gas taxes, but 
shoulders more than its share of the overall national burden.
    At the MTA we are preparing ourselves for the challenges of the 
century to come. We have reduced expenditures, increased revenues and 
have embarked on a massive capital program to rebuild our transit 
network. However, maintaining New York's economic strength is not just 
a regional concern, but a national one. And we look to the partnership 
of the Federal Government to assist in funding these vitally important 
initiatives that will ensure New York's and the nation's growth and 
competitiveness in the global marketplace ofthe 215t century.
    ISTEA has already proven to be a rational and highly effective 
piece of legislation that recognizes the heightened significance of 
public transportation today and in the future. We strongly recommend 
the reauthorization of legislation and the continuation of Section 3, 9 
and the Title I flexible funding categories.
    We look forward to working with the various committees to help 
modify the legislation to ensure that we are able to derive the maximum 
benefit from the ISTEA funding that we receive, and to improve the 
administration of the program.
    Thank you for giving me this opportunity to address the committee 
and the MTA's concerns.
                               __________
Statement of William Van Dyke, Freeholder for Bergen County, New Jersey
    Mr. Chairman and members of the Subcommittee, my name is Bill Van 
Dyke and I am a Freeholder for Bergen County, New Jersey. I am also 
Chairman of the Board of Trustees of the North Jersey Transportation 
Planning Authority or NJTPA. The NJTPA is the Metropolitan Planning 
Organization or MPO for Northern New Jersey which encompasses 13 
counties, 339 municipalities and 5.8 million people. It is the fourth 
largest MPO region in the nation.
    Today, I'd like to relate to you one of the success stories of 
ISTEA--that is, the expanded authority entrusted to MPOs which has 
given the NJTPA and over 300 MPOs across the Nation the ability to 
create a new, more open and accountable transportation planning 
process; one that, for the first time, gives local elected officials 
and the public an effective say over transportation decisions.
    ISTEA empowered MPOs by: suballocating Surface Transportation 
Program funds to metropolitan areas, giving large MPOs responsibility 
over Congestion Mitigation and Air Quality funds, and requiring joint 
state and local development and approval of Transportation Improvement 
Programs or TIPs. What this meant, in practice, was that rather than 
rubber-stamping the capital plans developed by state DOTs, MPOs became 
full partners in selecting projects and determining Federal funding 
allocations among them.
    The local elected officials on the NJTPA board responded with 
enthusiasm to the new role and authority granted to them by ISTEA. At 
our monthly meetings, the majority of elected officials now show up in 
person rather than sending representatives, despite busy schedules. 
They also participate in our three standing committees which recommend 
actions to the full Board. During a review of NJTPA operations last 
year, officials of the U.S. Department of Transportation were very 
impressed by the level of commitment and participation by our board 
members--and in fact saw us as a model for MPOs around the nation.
    The expanded role for local elected officials, such as myself, has 
made all the difference. We (County Executives, Freeholders, Mayors, 
and Councilmen) are in daily touch with our constituents. We are their 
voice and we know the issues. By serving on MPO boards, we can ensure 
that funds are allocated cost-effectively to the highest transportation 
priorities in our region--in a way that simply cannot be done by 
planners and project engineers sitting far away in state capitals.
    In carrying out ISTEA mandates, NJTPA Board members are able to 
rise above parochial concerns to genuinely consider regional interests 
in allocating the nearly $1 billion in Federal funding that is 
available each year to North Jersey. One reason is that proposed 
projects are developed through corridor-based planning and are 
evaluated through an objective scoring and ranking process that 
includes ample opportunity for input from citizens and interested 
groups. Each year, differences between the NJTPA's project priorities 
and those of state transportation agencies are the subject of 
negotiations, from which emerges our Transportation Improvement 
Program. These negotiations are conducted in a spirit of partnership 
and cooperation.
    The partnership fostered by ISTEA also extends to the cities and 
counties represented on our board--which are referred to as our 
``subregions.'' The NJTPA facilitates and supports the planning 
activities of its subregions by providing: funding, tools, training, 
data and technical expertise. Through our innovative Local Lead and 
Scoping programs, subregions are now eligible to receive Federal 
capital dollars to prepare their own priority projects for eventual 
implementation. The Local Scoping Program provides Federal funds to 
advance proposed projects through preliminary engineering and the 
Federal environmental review process, while the Local Lead Program 
moves projects through final design, right-of-way, and construction. In 
all, during fiscal year 1995 and fiscal year 1996, $14.7 million in 
Federal funds were allocated among 38 projects for these purposes.
    Previously, subregions were dependent on the staff resources of the 
State Department of Transportation for preparation work on projects. As 
a result, many favored projects sat on the shelf--often for years--
awaiting attention by NJDOT staff who were engaged in other priority 
work. Now, counties and cities can turn to the MPO to get their 
priority projects moving--and this has translated into concrete 
benefits for the traveling public which often is frustrated by the 
inordinate amount of time it takes for government to undertake common 
sense improvements to the transportation network.
    Another aspect of the ISTEA success story involving MPOs has taken 
place on the technology front. With its new role, the NJTPA has pushed 
the envelope in using technology to improve transportation planning. In 
addition to in-house computer modeling, the NJTPA has equipped its 
subregions with Geographic Information System (GIS) technology to carry 
out often sophisticated analysis of local mobility needs.
    The NJTPA is also working with two ISTEA-funded transportation 
research centers, the New Jersey Institute of Technology and Rutgers 
University, to prepare an innovative computerized project information 
system called TELUS (an acronym for Transportation, Economic, Land Use 
System) that will transform the TIP into a dynamic information tool. It 
will provide the public and local officials with a user-friendly means 
to retrieve a wealth of project-specific information including: funding 
levels; delivery status; inter-relationships/ interdependencies; 
economic benefits; and land use impacts. The system also includes a 
powerful mapping capability, allowing users to view and customize maps 
of project locations. Retrieving this project-specific information, 
integrating a variety of data bases, creating custom-tailored products 
and measuring economic benefits and land use impacts in the absence of 
TELUS (with its high-speed, automated functions) would literally take 
weeks if not months to produce. With TELUS we have eliminated the most 
labor intensive aspects of these types of analyses--replacing it with a 
state-of-the-art, cost-effective data retrieval system for MPO 
decisionmakers.
    So, by enabling MPOs to take these and other initiatives, ISTEA is 
working extraordinarily well from our perspective. Perhaps the 
surprising thing is that we have made ISTEA work in a region as 
economically complex, as densely populated, and as heavily traveled as 
northern New Jersey. Our transportation network must efficiently serve 
an incredibly diverse economic landscape that includes: corporate 
campuses, heavy industry, bedroom communities, suburban malls, central 
cities, farms, port facilities, ski resorts and seashore towns. This 
means that each year we are faced with what seems like an overwhelming 
number of needed projects competing for each Federal dollar we have 
available, along with a host of vocal interest groups arguing for where 
and how we should make our investments. The MPO process put in place by 
ISTEA has allowed us to effectively broker competing interests to 
arrive at a regional consensus that--while it may not please all 
parties--ensures steady progress in improving regional mobility.
    And, I have to emphasize, the benefits are not limited to the 
region's residents, especially given New Jersey's role as the major 
crossroads of the northeast. Heavy truck traffic (most of it generated 
outside of New Jersey) use our interstates and toll roads to get 
commodities to the vast northeast consumer market. The region also 
contains the east coast's largest port and numerous warehousing and 
distribution facilities handling the imports and exports that are vital 
to our national competitiveness. All this adds to the expense of 
maintaining and improving our regional transportation system and 
increases the stakes in seeing that our transportation dollars are 
invested wisely. Truly, if New Jersey's transportation system is left 
to falter, the repercussions will be felt throughout the northeast and 
regions beyond. But we at the NJTPA have been able to meet this crucial 
burden on behalf of the region and the nation. We have been able to do 
so thanks to the planning provisions of ISTEA together with its funding 
allocation mechanisms that recognize the economic interdependence of 
states and regions.
    For the upcoming ISTEA reauthorization, the lessons are clear: the 
framework established by ISTEA for empowering local officials through 
MPOs and for targeting funding based on national and regional needs has 
been highly effective and should be sustained and strengthened. Drastic 
mid-course changes in our nation's transportation policy could threaten 
our impressive achievements in building efficient, balanced and well-
managed transportation systems in the metropolitan regions where the 
majority of our nation's population and productive capacity resides. 
Simply stated: ``ISTEA Works''; don't change it!
    Thank you.
                               __________
 Statement of Janine G. Bauer, Tri-State Transportation Campaign, New 
                                York, NY
    The Intermodal Surface Transportation Efficiency Act (ISTEA) holds 
great promise for the tri-state region. It will allow us to improve and 
repair our existing infrastructure, and to finance investment in new 
transportation links and alternative modes. Its reauthorization and 
strengthening will result In a more efficient transportation network, 
fiscally sound transportation expenditures, a network that serves more 
people, especially pedestrians, bicyclists and transit users, and a 
cleaner environment.
    The principal argument advanced by our states to justify a need-
based funding formula is that our states have an older infrastructure, 
a more extensive transit network with more users, a severe air 
pollution problem, and worse traffic congestion. Thus, we have a 
greater need for funds to deal with these problems. To understand the 
need is to understand how critical ISTEA is to the region.
    For example, one of three transit trips In the Nation Is taken here 
in the New York region. Yet, the system still consists of many 
independent, unlinked lines, which could be streamlined through 
construction of just a few miles of rack. This would attract new riders 
and cut pollution. Such construction is enormously expensive, however. 
At the same ?time level and quality of service has suffered as the 
Metropolit?an Transportation Authority tries to balance its maintenance 
needs and capital construction plans, while asking riders to pay a 
record 76 percent of the cost of the ride (farebox operating ratio), 
and 88 percent If the subway system is considered alone. (Other 
metropolitan transit users pay less than 50 percent.) Level and quality 
of service must be maintained and improved, even as new links are 
built. In New Jersey, important rail links have been constructed with 
Federal aid, such as the Kearny Connection which enable direct, express 
service from parts of New Jersey to midtown Manhattan, thus attracting 
new riders. More such links, such as the Secaucus Transfer and the 
Newark-Elizabeth Light Rail line need to be put in place. NJTransit's 
carrying capacity, especially into New York City at Penn Station, is 
stretched to the limit now. More trains cannot be added. Transit usage 
is increasing everywhere in the region. Declines in level of service 
will reverse that heartening trend. Where additional capacity is 
needed, it should be in a form that carries the most people and 
promises the greatest return on the investment. In this region, extra 
transit capacity is needed. Continued and expanded funding for transit, 
for ``new starts,'' and for the Congestion Mitigation Air Quality 
(CMAQ) category is vital to our continued progress.
    The flexibility provisions of ISTEA are important to transit 
funding. Although neither state has flexed National Highway System 
moneys to transit, $140 million has been flexed to transit in New 
Jersey over ISTEA's life from other categories. In downstate New York, 
$660 million has been flexed to transit needs ($590 million in New York 
City).
    The needs of our roadways and bridges are great as well. ID its 
1995 Long Range Plan, NJDOT found that one-quarter of the state's 
bridges were structurally deficient. Thirty-one percent of county 
bridges are structurally deficient. Thirty percent of state-owned roads 
were rated ``fair'' or worse. Our region's needs are great. New York 
has 19,000 bridges, about 8,000 of which are state-owned. Since 1988, 
New York has made great strides in improving the condition of both 
bridges and pavement, but 31 percent of state-owned bridges were still 
structurally deficient, as recorded in its 1995 Long Range Plan. Forty 
percent of its highways were rated ``fair'' or lower. Local bridges and 
roads were in even worse shape. Funds are needed for bridge replacement 
and rehabilitation as well as preventive maintenance and repair of 
pavement. Experience shows that deferring needed repair of highway and 
bridge infrastructure costs more in the long run than careful 
management of the existing infrastructure.
    The reauthorized ISTEA law ought to strengthen its emphasis on 
maintenance and preservation of the existing road and bridge system. 
This could be done by extending the maintenance programs to include 
regional and local highways and bridges. Funds should be measured 
against the goal of reaching a state of good repair.
    The 10 percent ``safety set-aside'' in the Surface Transportation 
Program (STP) is also critical to reducing injuries and fatalities in 
this region, and in fact, ought to be strengthened. In New York, nearly 
2,000 people are killed in car crashes annually; in New Jersey, the 
figure is 6,000 killed and seriously injured. Perhaps surprisingly, 
pedestrians make up about one-quarter of the victims in New Jersey each 
year, and over 50 percent in New York City. Many are children and the 
elderly. An aggressive program is needed to stem the tide of fatalities 
and injuries, which result in even greater expenditures on the part of 
local and state government in tort judgments. Pedestrian safety 
infrastructure costs money, although, per life saved, it is a very 
cost-effective investment. We would prefer to see ISTEA refocus states' 
attention on infrastructure investments, such as traffic-calming, 
rather than re-engineering roads to allow higher design speeds. Where 
pedestrian safety is a problem, as here, states should invest more in 
pedestrian safety measures and their expenditures be measured against 
reduction in the number of injuries and fatalities.
    Enhancements funds have allowed us to begin to realize the national 
and regional goal of substituting walking and bicycling for trips under 
5 miles that are now accomplished by car. These short trips cause a 
disproportionate share of pollution because of the effects of ``cold 
starts'' and tie up traffic unnecessarily. With our denser development, 
making short trips by bicycle or on foot is possible, but attractive 
only if the infrastructure supports and does not impede such trips. 
Providing that access, or removing obstacles thereto, costs money. If 
the Enhancements category is not maintained in ISTEA, money for these 
projects will be swallowed up by the greater transit and road needs. 
New York has obligated virtually all of its Enhancement moneys, and in 
both New York and New Jersey, there is a long list of pedestrian and 
bicycle projects unfunded because there are too many good projects and 
there is not enough money.
    The expenditure of funds--or earmarking of funds--for a new wave of 
highway capacity expansion projects in this region would be unwise. 
These expenditures contribute to the worsening of air quality, loss of 
open space, sprawl development and the decline of our central cities 
through increased traffic congestion, crumbling roads and bridges, lost 
economic opportunities and population migration. We do not perceive 
expansion of highways as desirable in this region. Unlike system 
preservation, maintenance, safety, enhancements and public transit 
needs, this region stands in no better position than other regions with 
respect to spending on new highways.
    A disturbing trend in all three states is that new highway projects 
which would not pass muster under Federal transportation and 
environmental regulations, are being built with relatively unencumbered 
state dollars. New York and New Jersey arc spending or planning to 
spend billions of dollars of their overall transportation budgets on a 
new wave of highway widenings or new alignments. These highway capacity 
expansion projects are unnecessary and counterproductive. 
Straightforward application of ISTEA's Major Investment Study provision 
to the corridors in question would confirm our view.
    The purpose and promise of ISTEA can be better met by closer 
adherence to the principles of the current statute, not by wiping out 
funding categories for safety, air quality, and pedestrian and bicycle 
projects. In reauthorizing ISTEA, Congress needs to strengthen, not 
weaken, its provisions. In fact, incentives should be created to ensure 
that our states with severe air pollution and traffic congestion are 
moving in the right direction. This is especially so with respect to 
moneys to be devoted to system preservation, bridge repair, public 
transit, air quality, pedestrian access and safety, and bicycle 
improvements.
    The metropolitan planning concept upon which ISTEA's planning is 
based should be retained and strengthened. In particular, citizens must 
be guaranteed a vote on metropolitan planning organizations (MPOs). The 
MPO for the downstate New York region--the New York Metropolitan 
Transportation Council--should be Independent from NYSDOT and its 
voting membership should be recast to be more reflective of the 
population in the region.
    Finally, we are very supportive of the Congestion Management System 
(CMS) program which continues to be retained in transportation 
management areas with severe air pollution, such as this region. The 
CMS program requires states to identify and weigh alternative 
investments to new highway capacity, and even where such projects are 
built, to implement mobility and demand management strategies deemed 
reasonable. This is a prudent use of scarce, dollars to alleviate 
congestion. We also favor reinstitution on the Congestion Pricing Pilot 
Program for states that desire to use variable road pricing to manage 
peak hour demand. In the long run, pricing will help states avoid 
expensive road widening projects and lessen their need for Federal road 
aid.
    We cannot move the transportation network into the 21st century 
unless planning cuts across modes and disciplines, and we certainly 
will not cut traffic or air pollution unless a multi-modal approach is 
used. New York State DOT's Long Range Plan (developed under ISTEA) 
identified a top priority as cutting the estimated increase in solo 
commuting in half. It said:
    To achieve this, transit commute ridership needs to increase 20 
percent, carpooling to work 50 percent, and bicycling and walking to 
work 15 percent. These increases are to be achieved through more cost-
effective management of transit and highway programs. . . (at 58).
    ISTEA's innovative and flexible approach to funding categories 
should be maintained. Using a block grant approach will result in fewer 
transportation choices and more car and truck traffic. ISTEA Works.
    The Tri-State Transportation Campaign Is a consortium of the 
region's leading transit advocacy, planning, citizen and environmental 
groups. Our mission is to create an efficient, economically sound, 
socially just and environmentally benign transportation system.
    Thank you for the opportunity to testify.
                               __________
  Statement of Robert Kiley, New York City Partnership and Chamber of 
                                Commerce
    Good afternoon. I am Robert Kiley, President of the New York City 
Partnership and Chamber of Commerce. The Partnership and Chamber is New 
York City's preeminent business and civic organization, dedicated to 
improving New York's economy, business climate and quality of life. Our 
members are the CEO's of the City's major corporations, executives of 
medium and small companies, and the leaders of universities, civic, 
non-profit, and cultural organizations. I am the former chairman and 
CEO of the Metropolitan Transportation Authority (MTA) in New York, and 
the Massachusetts Bay Transportation Authority (MBTA) in Boston. I 
served as an AMTRAK Board member until 1996. I appreciate the 
opportunity to testify on behalf of the New York City's business and 
civic community on the reauthorization of the Intermodal Surface 
Transportation Efficiency Act (ISTEA).
Reauthorize ISTEA As Is
    Mr. Chairman, the Partnership believes strongly that ISTEA should 
be reauthorized as is. We support the ``ISTEA Works'' principles 
endorsed by 17 Governors, and we endorse the approach of the Moynihan, 
Lautenberg, and Lieberman bill, which builds upon these principles. 
Moreover, we believe Congress should increase significantly ending for 
transportation. ISTEA has promoted important transportation policies 
that have benefited not only New York, but the entire nation. There is 
no reason to tinker with ISTEA's programs and funding formulas which 
are working well.
Maintain Strong Federal Commitment/Distribute Funds Based On Need
    The Partnership opposes proposals that would reduce or eliminate 
the role of the Federal Government in funding the nation's 
transportation systems. That would be a major step toward eliminating 
the Federal Government's transportation responsibilities, and it would 
be a major step backward. We are also opposed to proposals that would 
distribute Federal transportation dollars based on the amount of gas 
tax a state sends to Washington which would be tantamount to the same 
thing. Transportation systems and the economic benefits they produce do 
not end at a state's borders. Florida's citrus growers depend upon 
decent roads in New York to deliver produce quickly, safely, and 
profitably. ISTEA recognizes the interconnectedness of the 
transportation system and it divides funding responsibility among the 
Federal, state and local governments as is appropriate. These are 
important principles which should be strengthened, not abolished or 
weakened.
    The economic health of the New York metropolitan region is critical 
to the nation. In fiscal year 1995, the region contributed $40 billion 
more to the Federal treasury than it received from it, according to a 
recent publication by the John F. Kennedy School of Government, at 
Harvard University. (New York State contributed $18 billion more, New 
Jersey $15 billion and Connecticut $7 billion.). Do the states that are 
advocating a change in ISTEA's funding formulas, so that states receive 
back what they contribute, want that principle applied across the 
board? New York would stand to gain from such an approach, but 
certainly we are not advocating it. One of the important purposes of 
the Federal Government is to insure that funds collected are allocated 
according to need.
New York's Transportation System Fuels The Regional Economy And 
        Contributes To Cleaner Air
    New York's transit system of subway and commuter rail provides the 
foundation for New York's productive economy, and has played a major 
role in facilitating the concentration of economic activity in 
Manhattan. Each business day, over 6.7 million people enter and leave 
the Central Business District (CBD) in Manhattan, 4.4 million by public 
transportation. (In the New York metropolitan area, 36.6 percent of all 
commuters take public transportation, unlike the rest of the U.S. where 
only 5.3 percent use public transportation. In the Manhattan CBD 85 
percent of the commuting trips are by transit.). Here, transit makes 
the New York metropolitan region work. It provides for efficient 
transportation of people, reduces the number of cars that travel on our 
highways and roads, and improves air quality. Recognizing the important 
relationship between transportation and clean air, Congress designed 
ISTEA's Congestion Mitigation and Air Quality (CMAQ) Program to help 
metropolitan areas implement transportation measures to improve air 
quality. Congressional proposals to distribute transportation funds 
based on a state's gas tax contribution would not only be grossly 
unfair, they are also totally inconsistent with the nation's goals to 
improve air quality, reduce fuel consumption, and reduce the travel 
time workers spend getting to and from their jobs.
    Investments In Transportation Are Needed to Support A Growing 
Economy--Our economy, New York's and the nation's, will suffer if we 
fail to invest adequately in our roads, bridges, high-speed rail, 
shipping ports and mass transit. Our highways and transit systems 
require an additional 41 percent in funding over present levels just to 
maintain current conditions, according to a U.S. Department of 
Transportation report. Bringing the system to ``optimal'' levels would 
require doubling our capital investment. Efficient transport of people 
and goods is a key factor to global competitiveness. We are far behind 
our competitors. London, Paris and Tokyo are investing heavily in 
expanding their transit and roadway networks, outspending New York by a 
factor of 10 to 1 and more (Konheim and Ketcham, Inc.). We must do the 
same. The New York metropolitan region is a gateway to world markets 
for the entire nation. Today, 45 percent of national earnings in 
securities and commodities trading are generated in Manhattan. These 
and several other key industry clusters, including the media and 
information, bio-medical and fashion industries, have the potential for 
enormous export growth. But we wont realize this potential unless we 
invest in our overburdened transportation system.
Investments In The Nation's Transportation Infrastructure Mean Jobs
    Increased investment in our transportation system would have 
another benefit: It would stimulate long-term economic growth and 
create jobs. (A U.S. Department of Transportation study shows that 
every $1 billion of investment in Federal highway programs supports 
42,000 full-time jobs: 27,000 in highway construction and related 
industries, and 14,000 jobs in other industries.). Congress should be 
especially concerned about this since the new Federal welfare law 
requires every state to put able-bodied adult welfare recipients to 
work within the next five and one-half years. Hundreds of thousands of 
people will have to find jobs. It will be impossible for the private 
sector on its own to employ them. But the public sector working with 
the private sector could do wonders. A massive public works program 
would not only employ large numbers of people, it would enable the 
Nation to improve its transportation infrastructure and remain 
economically competitive. The 4.3 cents of the Federal gas tax which is 
dedicated to deficit reduction, generated $7 billion in Federal fiscal 
year 1996. These funds could be used as a revenue stream to back bonds 
for public investment. The Highway Trust Fund has surpluses of $20 
billion, which on paper are dedicated to the Federal budget deficit. 
These funds should be used for the purpose they were collected for--to 
construct and maintain an adequate national transportation system.
    For all these reasons, the New York City Partnership urges you to 
seize the opportunity of the ISTEA reauthorization to make a good law 
better. Reauthorize ISTEA as is, and increase the authorizing and 
appropriations funding levels for our nation's transportation needs. 
Thank you.
                               __________
      Statement of Lewis Rudin, Association for a Better New York
    Good morning Senators. I want to take this opportunity to thank my 
Senator, Senator Daniel Patrick Moynihan, and all of you for coming to 
New York today to hear our views on the renewal of the Intermodal 
Surface Transportation Act, which expires next September. You have 
heard the views of my Governor, George Pataki, and my Mayor, Rudy 
Giuliani. You will hear from many others over the course of the day. I 
am here to ask you as you consider the renewal of the ISTEA to think 
about this from a business perspective and a New York community 
perspective. That's what I know about.
    I come to you from the Association for a Better New York, which 
everyone around here calls ABNY. I helped put ABNY together in 1970, a 
generation ago, to bring the New York business community together and 
to educate each other about the changing world world in which New York 
competes every day. We learn from the speakers that we have at our 
breakfasts and we learn from the many programs that we sponsor to help 
New Yorkers. We've learned over many years, going back to the fiscal 
crisis of 1975, how closely are the futures of New York, the New York 
region, the Federal Government and the world economy are all linked 
together. No place is this clearer than in transportation and Federal 
transportation financing.
    Simply put, renewing ISTEA so that the Newr York/New Jersey/
Connecticut region can renew its transportion infrastructure is just 
good business for the county. So paraphrase `Engine' Charlie Wilson of 
GM during his confirmation hearing before the Unit States Senate in 
1953, what's good for the New York Metropolitan region is really good 
for the United States. Let me tell you why.
    This region . . . New York, New Jersey, and Connecticut . . . the 
economic engine of America's international trade and commerce. This 
region provides the world leadership in finance, legal services and the 
media. Wall Sheet, Madison Avenue, Park Avenue . . . its events on 
these streets that make the world business community move. From the 
Federal Reserve in resurgent lower Manhattan's canyons to midtown's 
office towers and the U.N. He world's business community comes to see 
the United States in terms of what happens here.
    The rest of the United States and the world Moue knows how 
important we are. Senator Moynihan, my Senator, has told all of us 
about the surplus that this region contributes to support government 
programs and government jobs in the rest of the United States. All thee 
states send far more to Washington than they get back. And that's not 
just talk. That's from careful analysis that my Senator has gotten from 
Harvard University's Kennedy School.
    Let me remind you all of the numbers. New York sends down $17,734 
billions more than it gets back. New Jersey sends down $14,950 billion 
more than it gets back. Connecticut sends down $6,873 billions more 
than it gets back. This region consistently leads the Nation in the 
amount of Federal taxes paid .
    How do we do that? We do that with people and the most efficient 
subway and commuter rail system in the nation. Which we built with 
initially with our own investments. We move people very efficiently 
here, so they aren't all caught up in traffic and they can work 
effectively when they get to work. We bring people together here very 
well, so they can make money.
    And they make enough so that we can send more to Washington than we 
get back.
    The simple message that I bring to you is that new Federal 
transportion funding helps us to keep that transportation system 
working. We need to keep getting those Federal transportation dollars 
as we have gotten them over the past 5 years under ISTEA. Those Federal 
transportation dollars provide jobs for construction workers, who come 
in New York City from every ethnic background imaginable. These are 
good jobs, that allow people to earn a decent living and bring up their 
families and to get ahead. Let me tell you very clearly, many of the 
people who work hard today just up the street on Wall Street are the 
grandchildren of people who worked hard 90 years ago to build our 
subways.
    Those transportation dollars help other New Yorkers to make the 
momey that allows them to get ahead and their families to prosper. We 
are the City of Immigrants. But we are also the City of the Melting 
Pot, in which good jobs bring people together to make us all in America 
stronger. I am the grandson of an immigrant. My brother and I went to 
school by subway. Without a good transportation system we would have 
had a much more difficult struggle to get a good education. So for me, 
this is a very personal fight. I want others to have the opportunities 
that a good transportation system and a good education system combined 
to give the Rudins.
    Now we get back more in Federal transportation dollars than we 
contribute in gas tax. That's true in large part because we have such 
an efficient transportatio system. That system uses electricity to 
power the trains subways, not gasoline. It's in all of our best 
interests to do this. We don't drive as much as others so we can work 
harder for ourselves and others. New York would never work at all if 
everyone had to try to drive into Manhattan each day. The traffic jams 
would be unbelievable.
    There are some people who would want to cut back on extra Funds 
that we get here in the region. That would be very short sighted. If we 
can't get the Federal funding, then our transportation system will 
deteriorate. If that system deteriorates, we won't bring people 
together as effectively, and so they won't be able to earn the big 
surpluses and send them off to the other states. Or we'll have to keep 
those big surpluses here to use them on ourselves.
                               __________
  Statement of Raymond M. Pocino, Vice President and Eastern Regional 
        Manager, Laborers' International Union of North America
    Good Morning. My name is Raymond M. Pocino. I am Vice President and 
Eastern Regional Manager of the Laborers' International Union of North 
America. Our Eastern Regional office represents members of the 
Laborers' International Union in New Jersey, Delaware, Eastern 
Pennsylvania and parts of New York State. I am also privileged to serve 
as a Commissioner on the New Jersey Turnpike Authority.
    I want to thank Committee Chairman John Chafee, Sub-Committee 
Chairman John Warner, Ranking Minority Member Max Baucus, New Jersey 
and New York committee members Frank Lautenberg and Daniel Moynihan, 
and indeed all the members of the U.S. Senate Subcommittee on 
Transportation and Infrastructure for the opportunity to appear here 
today in support of the re-authorization of the Intermodal Surface 
Transportation Efficiency Act of 1991.
    This landmark legislation, as currently funded and implemented, has 
been of inestimable benefit to the residents, workers and economy of 
New Jersey and states throughout the entire Northeast Corridor. On 
behalf of the leadership and 750,000 members of the Laborers' 
International Union of North America, I appeal to members of this 
subcommittee to approve re-authorization of ISTEA as of October 1st, 
1997 and to continue its current need-based funding formula without 
major changes.
    To say that the stakes for New Jersey and other urbanized states 
are enormous, is really an understatement. The financial support that 
ISTEA has provided our region to help keep our transportation 
infrastructure intact and functioning efficiently has been absolutely 
essential to the quality of life and economic well-being of our 
residents. And, because this particular region plays such a key role in 
facilitating America's ready access to the world marketplace, I would 
submit to you that ISTEA allocations to the New Jersey/New York 
metropolitan area have a spill-over effect that ultimately benefits the 
entire nation.
    Our national prosperity and quality of life in great part depend 
upon the efficiency with which we produce, transport and market our 
goods and services. No modern, developed nation can thrive without an 
extensive and highly advanced transportation infrastructure to support 
the many complex activities that characterize such a society. Indeed, 
there may be no better example of this than our own United States, 
whose evolution from a handful of loosely connected and largely 
independent colonies into the wealthiest, most powerful nation on earth 
owes much to the development of our transportation infrastructure.
    Without continuous investment in its transportation infrastructure, 
a modern economy fails to grow. And yet, that's exactly what happens 
all too often in our society when various governing bodies and 
agencies--under intense pressure to cut budgets--put off necessary 
maintenance and repair projects. This delay, of course, is not 
economical at all; it is, in fact, the most expensive form of under 
investment.
    There is a kind of double inefficiency at work when we ignore our 
roads. One is the lost productivity that is incurred immediately. It 
has been estimated that the cost of trucking goods rises some 6.3 cents 
per mile when road conditions decline from ``good'' to ``fair''. The 
other inefficiency is the higher price tag which occurs when repairs 
are finally undertaken. A bridge that receives regular maintenance will 
last twice as long as one that does not. The cost of timely maintenance 
and repair is only a tiny fraction of that of constructing a new 
bridge.
    Statisticians tell us that each year the US transportation system 
handles nearly four trillion passenger miles (one passenger traveling 
one mile) and 3.5 trillion ton-miles of freight. Transportation is a 
key factor in the competitiveness of US industries relative to foreign 
manufacturers. For every dollar of goods that we export, about 25 cents 
is spent on the transportation of raw and intermediate materials as 
they are processed into final products ready for exportation. Simply 
put, there is a crucial link between investments in transportation and 
our nation's ability to compete globally.
    All of these numbers and facts serve to verify the profound 
importance of a sound and adequate transportation system in advancing 
our nation's economic vitality and the quality of life of each of our 
citizens. That is precisely why the Intermodal Surface Transportation 
Efficiency Act has played such a critical role in our nation's life 
over the past 6 years, and it is why Congress must move quickly to 
reauthorize ISTEA without disrupting either its revenue flow or the 
status of the projects it supports.
    ISTEA has proven its worth time and time again. It allocates its 
funding based upon need. . . it supports state and local 
decisionmaking. . . it provides resources for air quality programs. . . 
and it promotes public transit and the concept of intermodalism. The 
return on these ISTEA investments has been unmatched by just about any 
other government initiative.
    Perhaps most important of all, however, is that in its present 
form, ISTEA provides a stable, bi-partisan source of funding that is 
immune to the intense budgetary pressures that pervade state and local 
governments and often result in the postponing of essential 
transportation programs and projects.
    As meaningful as the reauthorization of ISTEA is to America as a 
whole, its importance is magnified all the more for New Jersey and the 
Northeast where mass transit assumes such a high priority and each 
segment of our transportation system is so dependent on the others. 
There are few other regions of the country where the intermodal mix of 
highways, bridges, mass transit, airports and maritime facilities--so 
heavily promoted by ISTEA--is as prevalent as it is here. I believe 
it's fair to say there are no other regions where economic and quality 
of life issues are as intertwined with transportation.
    Although one of the smallest states in the nation, New Jersey has 
in excess of 40,000 miles of roadway where nearly 60 million vehicle 
miles are traveled annually--the most heavily traveled roadways in the 
nation. More than 2.3 million passenger miles are traveled on buses and 
trains annually in New Jersey. Some 83 percent of New Jersey's workers 
get to their jobs by auto travel. Given these figures, it's clear that 
a comprehensive, smooth-running transportation system is absolutely 
essential to our way of life. As Senator Frank Lautenberg so aptly 
describes it, transportation is New Jersey's ``lifeblood.''
    The Northeast was perhaps the hardest hit of all regions by the 
economic downturn (call it a recession or depression, if you wish) that 
marked the first half of this decade. New Jersey alone has lost more 
than 325,000 jobs since 1989. The construction workers who I represent, 
and indeed in all of the construction trades, have suffered through 40, 
50 and 60 percent unemployment rates over the past 6 years.
    The $870 million which New Jersey receives annually from ISTEA has 
helped fill that job void. It's been estimated that New Jersey has some 
237,000 ISTEA-related jobs, a tremendous return on the investment. It 
would be an unmitigated economic disaster for New Jersey to lose that 
source of revenue, not only because of the existing jobs and projects 
that would be eliminated, but because of future jobs and projects that 
would never see the light of day.
    ISTEA is one of the few programs that actually returns more to New 
Jersey residents than we contribute in Federal gas taxes. Our overall 
return is only 62 cents on the dollar for all Federal dollars 
contributed, while we receive $1.12 from the Highway Trust Fund for 
every highway dollar contributed and $4.69 for every transit dollar. 
These numbers emphasize the importance of maintaining ISTEA's need-
based funding formula and, I believe, expose the fallacy behind efforts 
to change the allocation formula to one that is based upon 
contributions.
    Different regions and states clearly have different needs. It would 
be foolish and wasteful policy to distribute funds equally to every 
state for every Federal program--whether a state needs it or not. It 
would be equally foolish and inequitable to deprive states like New 
Jersey of funding they desperately need and to send it to other regions 
where it will do only minimal good.
    In closing, I would only reiterate that the Intermodal Surface 
Transportation Efficiency Act of 1991 has been an economic life-
preserver for heavily urban states with aging transportation 
infrastructures. It has meant jobs, continued competitiveness in the 
marketplace, environmental upgrading and an improved quality of life 
for tens of millions of people. On behalf of the Laborers' 
International Union of North America, I respectfully urge members of 
this sub-committee to approve reauthorization of ISTEA without 
significant changes and to maintain its current need-based funding 
formula which has served the program and our nation so well. Thank You.
                               __________
 Statement of Edward J. Cleary on behalf of the New York State AFL-CIO 
and the Transportation Trades Department, AFL-CIO and the Building and 
                Construction Trades Department, AFL-CIO
    Good morning. My name is Edward Cleary. I am President of the New 
York State AFI/CIO and also appear on behalf of the Transportation and 
the Building and Construction Trades departments of the AFL-CIO. I am 
pleased to have the opportunity to express the views of workers in New 
York and in all of transportation and building trades regarding the 
reauthorization of the lotermodal Transportaticm Efficiency Act, or 
ISTEA.
    Let me first commend you and this Committee for holding these 
hearings and for inviting all interested parties to share their views 
and concerns about the future of our nation's surface transportation 
policy. ISTEA reauthorization will bring us to the next century with 
what we hope will be a wed-balanced policy blueprint for the nation's 
long-range surface transportation needs. Far New York, the northeast 
region, and the entire country, this bill will be the single biggest 
job creator ofthis Congress.
    While many who will or have appeared at this hearing will bring 
different opinions about certain aspects of ISTEA, I think we can, or 
at least should, agree that ISTEA has been extremely successful in 
developing long-term transportation infrastructure planning to the 
benefit of American communities--large and small, urban, suburban and 
rural. The original landmark Act, which was a broad bipartisan effort, 
authorized $155 billion for highways, bridges, and bus and rail transit 
systems. It created millions of good paying jobs, inspired economic 
development, brought planning decisions to a local level, and provided 
the Nation with increased and safer transportation choices.
    The labor movement is now hopeful that Congress will again act in a 
bipartisan manner to build on the successes of ISTEA by maintaining the 
essential framework and focus of this critical transportation and 
infrastructure investment legislation. To that end, there are a number 
of issues that I will highlight as Congress and the Administration move 
forward with ISTEA reauthorization.
Secure Maximum Funding Levels
    Securing the highest possible reauthorization levels for all 
surface transportation investment programs must be the most important 
goal of those leading the reauthorization of ISTEA. For labor, this is 
one of our top priorities. Deep spending cuts in recent years have 
already reduced transportation choices, shelved or delayed important 
highway and transit infrastructure projects, imposed higher fires and 
devastating service cuts on passengers, stalled productivity gains by 
transportation companies and their employees, led to a crumbling 
highway infrastructure plagued with chronic congestion, and denied 
thousands of good jobs generated by sound transportation investments.
    In an era of government downsizing and constrained Federal 
spending, Congress must realize that the nation's businesses and their 
workers cannot be competitive in the 21st century without a well-
financed transportation network. In the Northeast this means a renewed 
dedication to maintaining our infrastructure and strengthening our 
position as a primary gateway for international trade and corrunerce. 
To that end, Congress is in a position to send a strong signal about 
our nation's priorities during ISTEA reauthorization.
    The 1997 ISWA bill therefore must provide funding for highway and 
transit programs, intercity bus and rail service, safety enforcement 
and other programs. Moreover, as discussed below, Congress must develop 
a more reliable and long-term funding mechanism to stop the financial 
hemorrhage of our national passenger railroad--Amtrak. But it must not 
accomplish this goal by cutting funding levels and then forcing the 
competing transport modes and their workers to compete against one 
another for a diminishing pool of funds.
    To this end, the unions of the Transportation Trades Departrnent 
and the Building and Construction Trades Department believe that the 
4.3 cent gas tax enacted in 1993 for deficit reduction should be 
redirected into the Highway Trust Fund and distributed equitably and 
fairly within our Federal surface transportation program. From these 
new moneys, our affiliates support allocating a \1/2\ cent for Amtrak 
capital needs with the 3.8 cent balance going to support additional 
investments in highway and transit needs under existing formulas. This 
move will boost much needed investments in a number of surface 
transportation programs and will redirect up to $5 billion in filet tax 
revenues back to their longstanding purpose: the Overt arid maintenance 
of our nation s transportation system.
    Under the 1991 Act, a portion of the funds can be ``flexed'' among 
different program categones. This provision empowers local planners to 
set spending priorities based upon the unique needs of their 
commununities and transportation system. This program has permitted a 
fair and rational distribution of transportation dollars while adhering 
to basic Congressional priorities with respect to highway and transit 
accounts. The balance achieved in this program has proven sensible and 
therefore should be preserved in the reauthorization legislation.
Protect Worker Rights
    As we know, the 1991 Act granted states and localities added 
flexibility in administrating transportation programs--a policy 
supported by labor so long as federally established labor standards and 
worker protections were not undermined in the process. Fortunately, the 
1991 legislation insisted on the maintenance of these basic 
protections.
    Laws like the Davis-Bacon Act and Section 13(c) of The Federal 
Transit Act have been instrumental in ensuring wage and job stability 
and protecting collective bargaining rights. The 13(c) program has 
provided a sensible mechanism to ensure that workers are not unfairly 
treated as a result of the distribution of Federal transit assistance 
or structural changes in transit systems. In the performance of Federal 
contracts, prevailing wage laws such as the Davis-Bacon Act prevent 
construction and service contractors from undercutting industry wage 
and benefit standards to the detriment of workers and their 
communities.
    If we eliminate these protections in the name of ``reform,'' or try 
to waive their application in certain instances, we threaten the basic 
rifts and jobs of workers. In the 104th Congress, some Members tried to 
attack programs like Section 13(c) and Davis-Bacon despite their 
indispensable role in guarding against the use of Federal dollars to 
bring down the wages and standards of living in commuruties.
    If I can leave a single message today it is that the labor movement 
is committed to advancing a strong ISTEA reauthorization bill. We 
intend to work with members on both sides of the aisle and to enlist 
the support of our rank-and-file leaders and members across the country 
to help make this legislative priority a reality. However, we are just 
as prepared to turn our attention to fighting any and all efforts to 
use ISTEA to attack longstanding worker protections and labor 
standards. We urge the Congress to reject any ISTF.A proposals that 
would threaten the jobs or rights of working men and women.
Enhance Transportation Safety
    I also want to touch on the critical role that the Federal 
Government must play in ensuring that all modes of transportation are 
safe. Workers across our economy are increasingly confronted with a 
dangerous and unpredictable workplace. In its zeal to deregulate the 
transportation industry, Congress has not avoided legislative measures 
that had the net effect of narrowing the margin of safety for workers 
and the general public.
    For example, during the 1995 debate over the critically important 
National Highway Systems (NHS) legislation, Congress attached a 
provision that could exempt some 2 million trucks from recordkeeping, 
hours-of-service, safety inspections, insurance requirements, the 
National Driver Register--which tracks repeat traffic violators--and 
other safety-related requirements.
    Under this so-called ``pilot'' provision, delivery trucks weighing 
between 10,001 and 26,000 pounds would be exenpt from major safety 
requirements even though they account for 50 deaths and 1,000 injuries 
per month, at a cost of $500 mullion annually. This is the type of 
policy that undermines transportation safety and that we will 
vigorously oppose when ISTEA is reauthorized.
Private Enterprise Participation
    As all of us know, there has been increased attention placed on the 
role the private sector should play in the delivery of transportation 
services. While we recognize the longstanding role of private sector 
participation in our industry, I want to emphasis that decisions 
relating to public or povatc control of the transportation 
infrastructure, and particularly transit service, should be left to 
local planners.
    Congress recognized the wisdom of this policy during consideration 
of the original ISTEA bill when it included specific protections 
against the use of Federal transportation grants to force privatization 
on communities ill-prepared for or disinterested in this type of 
transition or service option. We recognize the need to encourage 
private investment in our transportation infrastructure and the desire 
to develop new ways to finance important investments, but we warn 
against heavy-handed policies that would permit, or in fact promote, 
the irresponsible sell-off of our transportation network in the name of 
cost savings that have usually proven illusory.
    I must emphasize that we ultimately believe that transportation 
facilities should continue to serve the public interest and not be 
dedicated to generating profits for private interests. At the very 
least, these decisions should be left to local authorities who are 
better equipped to make transportation decisions based on their local 
needs. To that end, we state our continuing support for President 
Clinton's recission of transit privatization rules born in the 198Os 
that placed undue pressure on local grant recipients to explore 
privatization options at any and all costs. Those policies distracted 
attention and resources from providing vital services to the traveling 
public and harmed workers and communities. The labor movement is 
committed to preserving currcut privatization policies governing the 
Federal transit grant program and will combat any proposals in ISTEA to 
turn back the clock.
The Planning Process
    Under current law, a wide array of interests including labor 
organizations are pennitted to receive, review, and comment on the 
annual and long-range transportation investment programs developed by 
Metropolitan Planning Organizations (MPOs) before final approval is 
granted for these plans. As this committee is well aware, workers are 
directly affected by MPO spending and policy decisions and thus their 
unions offer a unique perspective to assist MPOs in developing workable 
and efficient plans.
    The role of workers and their unions at the planning table is to 
help ensure that employee issues are not merely cast aside when core 
planning decisions are made. Many of the successes that ISTEA has 
produced can be traced to the positive and constructive role that 
workers and their unions have played at the local level. While we 
support the MPO program design embodied in the 1991 legislation, we 
believe a mandatory role for union representatives should be reaffirmed 
and, to the extent possible, strengthened in the reauthorization bill 
this year.
Final Observations
    ISTEA has represented a historic shift in transportation policy for 
this country. Thousands of communities, businesses and workers in the 
Northeast and across the country have benefited greatly from the 1991 
Act. However, as this Committee works toward reauthorization of this 
legislation, we believe there are many pitfalls (sense of which we have 
identified in this statement) which we must avoid. It will be most 
unfortunate if some choose to use the ISTEA reauthorization process to 
advance their extreme agenda. If forced, workers are more than prepared 
to wage a spinted campaign against any measures that will hann their 
interests and, if needed, delay completion of this crucial 
transportation infrastructure bill.
    We will look for this Committee's leadership to help crap a bill 
that meets the nation's surface transportation needs by building on the 
successes of ISTEA.
    Thank you for providing us this opportunity to share our views.
                               __________
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Good afternoon. I'm delighted that you could join me today in this 
forum to discuss reauthorization of the Intermodal Surface 
Transportation Efficiency Act, known as ISTEA. As you know, I am our 
state's member of the Senate Environment and Public Works Committee 
which is currently working on the reauthorization. The written 
testimony of our witnesses today will be included in the record of the 
Committee's deliberations on ISTEA.
    I'd like to welcome Senator Dodd and tell him how glad I am that he 
could join us. Senator Dodd serves on the Senate Banking, Housing and 
Urban Affairs Committee which has jurisdiction over transit programs.
    As a member of the Environment and Public Works Committee, I was 
proud to have worked hard with Senator Moynihan and others to craft 
ISTEA in 1991. Without a doubt, ISTEA was the most significant and 
innovative transportation legislation of a generation. It recognized 
that our nation is now reaching a maturing system of transportation. 
With our Interstate system built, ISTEA moved us to also focus on 
maintenance, intermodalism, efficiency, funding flexibility and 
preservation of our environment.
    Most importantly, ISTEA is the right transportation legislation for 
Connecticut. As Commissioner Sullivan of Conn. DOT has stated: ``ISTEA 
funding has been critical in helping to address Connecticut's 
transportation needs. The accomplishments achieved throughout the life 
of the Act have greatly advanced Connecticut's goals for a safe, 
efficient and well maintained transportation system.'' And as our 
witnesses will tell us today, ISTEA is the right transportation 
legislation to take Connecticut into the 21st century.
    So often in government today we hear complaints about laws and 
programs that don't work. ISTEA is a law that has worked and is 
working. It's one area where we don't need to reinvent government-we 
did that in 1991. That's why Governor Rowland is leading the effort of 
a number of states to reauthorize the ISTEA legislation and why 
tomorrow, I will join with Senators Moynihan, Lautenberg, Dodd, Chafee, 
and others to introduce legislation to reauthorize the law.
    Let me spend a few minutes reviewing why ISTEA is so important. In 
a very unique way, ISTEA combines this country's longstanding 
commitment to our national priorities--a national system of 
transportation central to our economic growth and our commitment to 
protecting and enhancing our environment--with a new emphasis on 
responding to local conditions, priorities and interests and involving 
the public in this decisionmaking process.
    The statement of policy that introduces ISTEA reminds us that the 
economic health of the country depends on access to an efficient 
transportation system. It reads as follows:
    ``It is the policy of the United States to develop a national 
intermodal transportation system that is economically Efficient and 
environmentally sound, provides the foundation for the Nation to 
compete in the global economy and will move people and goods in an 
efficient manner.''
    ISTEA's commitment to a national transportation system includes a 
dedicated sources of funding to preserving, restoring and 
rehabilitating our Interstate highways and bridges. In Connecticut, 
where our infrastructure is older and more densely traveled than in 
other areas of the country, dedicated Federal funding for these 
programs is very important.
    Second, ISTEA recognized that there is an inextricable link between 
transportation and the quality of our environment, particularly our air 
quality. Automobiles are a large contributor to our smog, carbon 
monoxide and particulate matter pollution. As Americans drive more and 
more miles, the pollution control gains from cleaner cars get wiped 
out.
    The Congestion Mitigation and Air Quality Improvement program is 
one of the most innovative programs created under ISTEA. It is 
providing $1 billion per year for projects to reduce air pollution. 
These funds are being used to help states restore air quality to 
healthy levels. This program is the opposite of the so-called unfunded 
mandates--it provides Federal funds to help meet the requirements of 
the Clean Air Act. Here in Connecticut where our air quality is so bad, 
this program provides an important source of funding to help us move 
toward clean air. Stamford, Greenwich and Norwalk, for example, made 
innovative use of these funds.
    While recognizing these national priorities, ISTEA also makes 
nearly one-half of all funds available for state and local 
decisionmaking. The transportation needs of Connecticut are different 
than the needs of Montana, and this flexibility allows each area to 
decide what's right for them, again, within the context of protecting a 
national transportation system. And for the first time, ISTEA allowed 
local decisionmakers to spend these funds on either highways or 
transit. This leveling of the playing field between transit and 
highways is also important for our state. In Connecticut, funds from 
this program have been used for a wide range of projects, including 
construction, reconstruction, rehabilitation, restoration and 
operational improvements for highway and bridges, transit projects, and 
rideshare, among other projects. For example, funding flexibility made 
possible the $126 million restoration of the Peck Bridge on the 
Northeast Corridor Railroad line. This project will improve the 
operation of a rail commuter service that transports 98,600 people each 
day. Our State's commuter and railroad systems offer critical and cost-
effective relief for our congested highways.
    ISTEA also created a popular program known as Transportation 
Enhancements which provides a small amount of funding to mitigate some 
of the negative effects transportation has caused for our local 
communities. We'll hear today how funds were used from this program to 
restore a recreational and open space corridor along the abandoned 
right of way of the former Farmington Canal and the Boston and Main 
Railroad. This project was selected as one of the nation's 25 best 
entrancement projects. We've also used funds from this program to help 
restore some of our coastal wetlands, to protect and enhance the 
landscape of our famous Merritt Parkway and for the restoration of the 
Route 8 and Route 15 interchanges. In the Northeast part of our state, 
this program provided funds for Killingly's pedestrian trails and the 
Putnam River Trail.
    Unfortunately, despite ISTEA's record of achievement, our efforts 
to reauthorize it will not be easy. ISTEA is under massive attack. A 
large number of Senators already support proposals which would 
eliminate many of the fundamental bases of ISTEA, including much of our 
commitment to a national transportation system. Instead, these 
proposals would turn much of the program into essentially a block 
grant, where I'm concerned our national priorities for our 
transportation system would be lost. The funds would be distributed 
based on how much money each state is contributing to the Highway Trust 
Fund in gasoline taxes rather than looking to the nation's 
infrastructure needs and also focusing funding on those systems that 
require preservation and enhancement.
    These proposals could have severe impacts for Connecticut, reducing 
the state's share of transportation money by half and significantly 
affecting our ability to address our pressing infrastructure needs. 
They would largely abandon the Federal role in transportation which has 
worked so well for our state and is so essential to support national 
economic growth, global competitiveness, and the quality of life in our 
communities. I intend to fight these proposals in Committee and on the 
Senate floor. But you should know that it is an uphill battle. We have 
a huge regional battle for scarce Federal funding shaping up here, and 
we will need your strong support.
    I want to welcome all our witnesses today. I appreciate the time 
you've taken to be with us. Governor Rowland, I especially appreciate 
your being here today and all the hard work you are doing to encourage 
other states to join our coalition.
                               __________
 Statement of Hon. Christopher J. Dodd, U.S. Senator from the State of 
                              Connecticut
    I want to commend Senator Lieberman for convening this forum on the 
future of the Intermodal Surface Transportation and Efficiency Act. As 
a senior member of the Committee on Environment and Public Works, which 
has the primary jurisdiction over ISTEA, he has dedicated countless 
hours to this issue. He helped draft the ``ISTEA Works'' bill, which I 
have cosponsored, and I will be working with him to get that bill 
through Congress and maintain funding for Connecticut's critical 
transportation programs.
    I also want to thank Governor Rowland for being here today. He has 
helped rally Governors from across the country in support of the 
``ISTEA Works'' bill. That support will be critical when Congress 
begins to negotiate funding formulas.
    I also want to welcome our other distinguished panelists, who are 
working on the front lines to ensure that our State has an efficient 
and environmentally sound transportation system.
    The reauthorization of ISTEA may be the most important issue facing 
Congress this year. At stake is about $150 billion over the next six 
fiscal years, 1998 through 2003.
    As everyone assembled here knows, Federal transportation funds are 
critical to Connecticut. We receive about $345 million a year from 
ISTEA programs. When you consider that every million dollars sustains 
about 50 JOBS, that translates to over 17,000 Connecticut jobs that 
depend on ISTEA funds.
    The battle for these funds is already raging. The sunbelt states 
have a proposal--called ``STEP-21''--that would cut the percentage of 
funds that Connecticut receives in half. The western and plains states 
are supporting another proposal--``STARS 2000''--that would also cut 
Connecticut's share in half.
    What concerns me most about these proposals is their rationale for 
distributing funds. In the past, transportation funds were distributed 
based primarily on need. That simply makes sense. We have a national 
transportation system, and we distribute funds based on where the need 
is greatest.
    Regrettably, some of my colleagues are arguing that we should move 
away from that sound principle. They would prefer a greater 
distribution of funds based on where gas taxes are collected. But that 
is not how our government works. After all, we do not make decisions 
about how to allocate defense programs, or medicare, or agricultural 
support, based on where tax dollars come from.
    Let me assure you, if we applied that approach across the board, 
Connecticut would do much better under federal programs. In Connecticut 
we have a significant amount of wealth and we pay a substantial amount 
in Federal taxes. On balance, Connecticut contributes about $6-7 
billion a year more than it receives back in grants, payments and 
services.
    So the battle is under way, but it is far from over. We will be 
using every weapon in our arsenal to obtain a fair share of funds for 
Connecticut.
    The ``ISTEA Works'' Legislation that I am cosponsoring along with 
Senator Lieberman, represents a responsible approach to 
reauthorization. It would continue to distribute funds based on need, 
and that would provide a sufficient level of Federal resources for 
Connecticut. It would also keep in place important principles that are 
widely supported by the nation's Governors, mayors, and the private 
sector including:
    <bullet>  Maintaining a strong national role in transportation, 
including funding for Federal clean air mandates through the Congestion 
Mitigation Air Quality Program (CMAQ);
    <bullet>  Preserving and strengthening transportation partnerships 
between Federal, State and local governments, and;
    <bullet>  Maintaining fexibility so that States can fund their 
priorities including the mass transit programs that are critical to our 
urban areas.
    Again, I appreciate everyone taking the time to be here. I look 
forward to hearing from our distinguished panelists, and to working 
with all of you to make our transportation system better for the next 
century.
                               __________
      Statement of Governor John G. Rowland, State of Connecticut
    I am pleased to be here today with Senators Lieberman and Dodd to 
participate in this forum. In February I went to Washington to ask the 
Congressional delegation to work together in support of an ISTEA bill 
that will help the state. The senators and all the members of the House 
gave me their full support in jointly working on this important 
legislation, and I thank them.
    In Connecticut, we believe we know the most effective and efficient 
way to spend our transportation dollars. However, a Federal role in 
transportation is essential to preserve and improve safety, economic 
growth, global competitiveness and a sustainable quality of life. The 
1991 Act was landmark legislation that changed the direction of surface 
transportation policy by recognuang the need to preserve and grow the 
infrastructure system and by encouraging the use of a new term 
``intermodalism.'' Another strength of the law is the enhanced emphasis 
on public participation. Now more than ever, states, towns, and 
regional planning organizations are able to determine how best to 
expend critical transportation dollars.
    We believe that ISTEA works and that myor changes are not needed. 
The discussion in Washington is about how to distribute the money to 
the states. The southern and western states talk about this issue in 
teens of donor and donee. As the Governor of the biggest dance state in 
the nation, if you consider all Federal programs, I would certainly 
support a bill that says you should get dollar-for-dollar the amount of 
money your state sends to Washington. But let's not limit it to 
transportation. . . .
    In truth, ISTEA's formula is fair because it distributes funds in 
categories such as congestion mitigation, air quality, bridge 
construction and improvement, based on need. not based on how much is 
pan' into the fund. The law also for the first time enables the needs 
of other motes such as mass transit ant waterways to be weighed on the 
same basis with highways.
    ISTEA came along at a time when our economy needed a push. By 
recognizing the need for a strong national transportation system, ISTEA 
promotes a stronger national and regional economy. The impact on the 
economy is measurable, for every one million dollars spent on 
transportation, it is estimated that 50 jobs are sustained. In 
Connecticut, we estimate that over 2S,000 jobs are dependent on 
transportation expenditures.
    We use ISTEA funds in Connecticut to improve the safety of our 
roads, to cut down on con grouting time, to preserve the historic value 
of our infrastructure, improve bikeways in the State, and to get 
products to market more efficiently.
    ISTEA was critical in our efforts to improve the Merritt Parkway 
and to have it recently designated as a Federal Scenic By-Way. ISTEA 
enhancement funds were used to finance a landscape roaster plan for the 
parkway and restoration of the Route 8 and Route I-5 Interchange.
    The flexibility provided for in ISTEA funds was used by the State 
for our $126 million bridge reconstruction project on the New Haven 
Railroad Lute, locally known as the Peck Bridge. The State and the 
Greater Bridgeport MPO were able to flex $22.8 million of highway funds 
for this important transit purpose. We also used a variety of ISTEA 
categorical programs, as well as state transportation fimds, to 
implement the reconstruction which All improve the commute of more than 
60,000 Metro North riders.
    As the Senators Now, I have taken a leadership role among Governors 
who support the preservation of the current ISTEA program. The ISTEA 
Works coalition is now 17 Governors strong--including all of the New 
England states, New York, New Jersey, Pennsylvania, Delaware, West 
Virginia, Maryland, Puerto Rico, Illinois, Colorado, Washington and 
Oregon. We are working closely with our Congressional delegations to be 
certain that whatever bills are passed by Congress preserve the 
Integrity of the current law.
    Today's levels of transportation funding are inadequate to Retain 
current conditions. There is an $18 billion annual gap between current 
spending ant what is recruited to simply maintain current conditions 
and performance of our natioD's highways, bridges and public transit 
systems. If our goal to get a significant level of fimding for 
Connecticut is to be achieved, Congress must fund the overall 
transportation budget at a reasonable level.
    This morning, the National Governors' Association announced the 
establishment of a coalition of Governors, business, and labor in 
support of All funding for transportation. The coalition called TRUST--
Transportation Revenues Used Solely for Transportation has called on 
Congress to spend all the transportation user taxes it collects for 
actual transportation purposes.
    I believe that the 4.3 cents of the Federal gas tax currently 
collected for deficit reduction should be spent on transportation and 
take it a step farther that \1/2\ cent of the 4.3 should be dedicated 
to AMTRAK. Congresswoman Johnson has a bill pending; in Congress to do 
just that.
    As I mentioned earlier, our Congressional delegation has been 
tremendous in their support for ISTEA. As a member of the Senate 
Environment and Public Works Committee Senator Lieberman played a 
critical role in the creation of this watershed ISTEA legislation and 
in the reauthorization effort this year. Tomorrow he will join his 
Senate colleagues in introducing a bill that he drafted. Connecticut 
enthusiastically supports this legislation and is pleased that Senator 
Dodd will be a cosponsor. In the House, Congressman Geidenson has also 
played a key role in getting support from his colleagues across the 
country,
    In closing, I will reiterate that the greatest strength of ISTEA is 
that it allows the states and regional agencies to focus on their most 
dire needs by prodding flexibility between programs. It has used needs 
as the basis for distributing funds for congestion mitigation, air 
quality, ant bridge construction and improvement. It also set out a new 
sense of intermodalism, a stronger role for metropolitan planning 
organizations (Amos), new requirements for public involvement and 
distinct linkage to envirotunental programs. The emphasis on 
intermodalism is critical in addressing the needs ant demands of both 
business and the public.
    Again, I want to thank you for you both for your support for ISTEA. 
I ask that my fiJI1 statement be included in the record, as well as the 
more detailed testimony that was delivered by Acting Commissioner 
Sullivan in New York last week.
    I look forward to working with you to insure that we keep 1STEA 
strong.
                               __________
      Statement of Dannel P. Malloy, Mayor of the City of Stamford
    Good afternoon Senator Lieberman, Senator Dodd and invited guests. 
I am Dannel P. Malloy, Mayor of the City of Stamford. Thank you for 
providing me with this opportunity to share my views on the proposed 
Moynihan/Lieberman/Lautenberg/Dodd bill and the reauthorization of the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA).
    Stamford is a diverse and vibrant urban center located in 
Southwestern Connecticut. Stamford is home to 6 Fortune 500 corporate 
headquarters. Stamford is served by an extensive transportation network 
including 2 major highways, Interstate 95 and the Merritt Parkway, 
MetroNorth Commuter Railroad, a regional bus service, Connecticut 
Transit, and a mosaic of paratransit services such as taxis dial-a-
ride, and rail station to employer shuttles.
                        stamford supports istea
    The City of Stamford, along with other cities and towns, many 
states, and other organizations supports the IntermodalSurface 
Transportation Efficiency Act of 1991. This innovative law has vastly 
improved mobility and access to jobs, empowered local communities, 
protected the environment and enhanced transportation safety.
                           istea is a success
    Senator Lieberman, I would like to share a few observations about 
ISTEA and thank you for your leadership in enacting this legislation in 
1991. Local officials all across the Nation talk about the success they 
have had with this innovative Federal law. This experience helps 
explain why mayors and other local officials are so committed to 
preserving this program. Mayors and others have invested in making 
ISTEA work for their communities.
    Senator, ISTEA has fueled an excitement among elected officials, 
our citizens and our businesses that transportation investments can 
better serve neighborhoods, communities and regions and improve how we 
live and work.
    Let me offer some specific examples of how ISTEA has strengthened 
our efforts in Stamford to tackle our transportation needs.
A Strengthened For Metropolitan Planning Organizations
    ISTEA empowered local communities through the regional Metropolitan 
Planning Organization decisionmaking process. The 8 municipalities in 
the Southwestern Region MPO have worked cooperatively with the 
Connecticut Department of Transportation to develop and advance 
projects. This cooperative process has ensured that public investments 
have been made wisely and will be implemented.
    Local elected officials are not the only stakeholders in the 
transportation planning process. Public involvement has also been 
enhanced by ISTEA. Early and continued involvement in the 
transportation planning process will ensure that the public has input 
in the process and in the investments being made.
Enhancement Program
    The enhancement program is another ISTEA success story. Enhancement 
program funding has created an intermodal gateway to the City, 
providing rail trails that connect the downtown with the McKinney 
Transportation Center, and beautified the Transportation Center. This 
program typifies the ``working together'' spirit of ISTEA, bringing 
together public and private investments in the transportation network 
while promoting economic and transportation vitality. Through ISTEA, 
more than $100 million in rail, intermodal, highway and enhancement 
improvements are underway in the vicinity of the Transportation Center.
Management Systems
    ISTEA's mandate for management systems has developed the state and 
regional programs for I-95 Incident Management. Results are realized 
daily on the interstate through rapid detection, notification and 
response to highway incidents, improved safety, communication and 
coordination which benefit commuters and responders.
    A regional Pavement Management System is being developed and will 
make it possible for Stamford to assess and prioritize investments in 
pavement treatment on an on-going basis.
Surface Transportation Program
    The STP Program has provided more than $8 million in funding for 6 
projects with another 7 projects in development totaling $9 million. 
These projects will aid the City of Stamford in addressing its 
transportation infrastructure needs. There are many more needs, and 
more projects are being developed. It is important for the STP funding 
stream to continue uninterrupted.
Congestion Mitigation Air Quality Program
    Another ISTEA initiative undertaken was implementation of the I-Bus 
linking the 2 employment hubs, Stamford and White Plains, New York. 
Commuter Connections, buses linking rail stations to employment 
centers, have been made possible by the CMAQ program. Commuter 
Connections are operating not only in Stamford, but also in the Town of 
Greenwich and the City of Norwalk.
                               conclusion
    These are just a few examples of how ISTEA has worked for the City 
of Stamford. We all know that the future of this economy, our states, 
regions, and communities will be profoundly influenced by how 
successfully we manage and invest in our transportation systems. It is 
clear that ISTEA has helped all of us build better and stronger 
partnerships to achieve better decisions and results for the taxpayers 
for our communities, regions and states.
    ISTEA is working for Stamford; the City that Works!
                               __________
   Intermodal Surface Transportation Efficiency Act Traffic Flow and 
                      Safety Improvement Projects
    The projects funded under the Surface Transportation Program (STP) 
include 90 percent of the rightof-way costs, and 100 percent of the 
construction costs shared between the Federal and State Governments, 
whereas the City will fund 100 percent of the design costs, and 10 
percent of the right-of-way costs.
                           completed projects
Westover Road and Palmer's Hill Road Intersection Improvement (ConnDOT 
        Project Identification # 135-218)
    Project construction was completed in the summer of 1996 to widen 
the Palmer's Hill Road eastbound approach with drainage and minor 
improvements to Westover Road at the intersection; and signalize the 
intersection to minimize delay for through traffic at both 
intersections. Construction cost for this project is about $400,000.
Glenbrook Road and Hope Street Intersection Improvement and 
        Signalization (ConnDOT Project Identification # 135-218)
    Construction of roadway improvements to widen Glenbrook Road and 
Hope Street to accommodate a through lane and a left-turn lane on 
Glenbrook Road at Hope Street and Hope Street at Wenzel Terrace was 
completed in the spring of 1996. Also, the Glenbrook Road westbound 
approach has been reconstructed and signalized at its intersection of 
Hope Street. The signal is coordinated with adjacent signals on each 
approach to improve safety and minimize total delay for through 
traffic. The project cost is about $400,000.
Signal Hardware Upgrade (ConnDOT Project Identification # 135-219)
    Hardware including wiring, traffic signal controllers, installation 
of fire preemption etc., was upgraded at 26 intersections. The project 
was completed in the fall of 1996 at a cost of about $800,000.
Harvard Avenue Widening (Phase I)
    Full depth reconstruction of the roadway with improved drainage to 
improve safety and operation of Harvard Avenue between West Main Street 
and Grenhart Road was completed in the spring of 1996 at a cost of 
about $1,200,000.
South State Street Commuter Parking Lot Improvements
    Security, access control and drainage were improved under this 
project at South State Street commuter parking lot.
    The project construction was completed in the spring of 1996 at a 
cost of about $400,000.
                       scheduled active projects
Hoyt Street Extension (ConnDOT Project Identification # 135-227)
    The proposed extension of Hoyt Street between Summer Street and 
Washington Boulevard is a new roadway link which will provide an 
alternate route for east-west through traffic. This will divert traffic 
from the downtown core area and help to mitigate congestion while 
improving air quality and safety. The City has requested that the State 
indude construction of a sanitary sewer as a nonparticipating item. 
This project construction is expected to be completed by the end of 
1997. The estimated total project cost is $4,600,000.
Grove Street Widening (ConnDOT Project Identification # 135-245)
    The proposed widening and realignment of the Grove Street 
approaches to Broad Street will accommodate opposing exclusive left-
turn lanes, an exclusive through lane and shared through and right-turn 
lanes.
    It is proposed to widen Grove Street to a three-lane facility 
between Forest Street and Strawberry Hill Avenue to mitigate traffic 
congestion and improve traffic flow, safety, and air quality.
    The estimated cost for the project is $1,200,000. The final design 
is expected to be completed in the summer of 1997, and the construction 
in 1998.
Stillwater Road and West Broad Street Intersection Improvement and 
        Signalization (ConnDOT Project Identification # 135-242)
    The project proposes to widen and realign Stillwater Road between 
West Broad Street and Palma's Hill Road. A four-lane facility with a 
new signal at the intersection of Stillwater Road at West Broad Street 
will be created. The signal at the Westover Elementary School driveway 
will be upgraded and coordinated with the adjacent signals.
    The project limits were extended when the State of Connecticut 
Department of Transportation requested that the City extend the project 
limits to the Palmer's Hill Road intersection in order to eliminate the 
``S'' curve, and signalization of West Broad Street at Stillwater Road.
    The estimated construction cost for the project is $1,300,000.
Cold Spring Road and Long Ridge Road Intersection Improvement (ConnDOT 
        Project Identification # 135-243)
    The project will realign Cold Spring Road approaches to Long Ridge 
Road to accommodate an exclusive left-turn lane, an exclusive through 
lane and a shared through and a right-turn lane, and realign the 
eastern leg of the intersection to improve safety and drainage in the 
neighborhood.
    The estimated cost for the project is $1,100,000. The construction 
is expected to commence in the spring of 1998.
East Main Street at Broad Street Intersection
    Roadway, drainage and signal operation will be improved on East 
Main Street between Broad Street and Glenbrook Road.
    <bullet>   The project construction is expected to be completed in 
the spring of 2000 at a cost of about $1,200,000.
Glenbrook Road at Courtland Avenue, Research Drive and Oakdale Road 
        Intersection Improvements (ConnDOT Project Identification # 
        135-244)
    The project improvements will add a northbound left-turn lane on 
Courtland Avenue; add a left turn lane to the Glenbrook Road westbound 
approach; widen the eastbound approach of Glenbrook Road to accommodate 
traffic demand; and improve traffic flow and safety, by improving 
intersection geometry to accommodate truck traffic. Improved drainage 
in the project area will be a part of the project along with 
signalization of Glenbrook Road at Research Drive.
    The estimated cost for the project is $2,000,000. The final design 
is expected to be completed in the summer of 1997 and the construction 
during 1998.
Harvard Avenue Widening (Phase II)
    The proposed improvements under this project are to widen the 
roadway with full depth construction and improved drainage on Harvard 
Avenue between Waverly Place and Selleck Street to accommodate truck 
traffic. Traffic flow and safety will be improved.
    The project construction is expected to be completed in the spring 
of 1999 at a cost of about $1,275,000.
Citywide Signal System Expansion and Signal Hardware Upgrade (ConnDOT 
        Project Identification # 135-250, and 135-257)
    This project (135-250) will upgrade central and field equipment 
capable of handling incident diversions. The central equipment will be 
replaced with PC based components which will increase reliability of 
the system along with an associated reduction in maintenance costs. 
Estimated construction cost is $500,000 and is expected to be completed 
in the fall of 1997.
    This project (135-257) will expand the existing computer signal 
system to the outlying regions of the city and will include the 
addition of approximately 80 signalized intersections. All of the 
intersectionsconsidered under this project are owned and maintained by 
the City. The estimated cost is $2,000,000.
Washington Boulevard at Bridge Street and North Street
    This project will improve the curb radius and provide opposing 
exclusive left-turn lanes for Washington Boulevard approaches at both 
intersections to improve safety and operation.
    The estimated construction cost for the improvements at both 
locations isS. 850.000.
                   scheduled active concept projects
Jefferson Street/Dock Street Connector
    This proposed four-lane roadway will directly link Station Place 
with Jefferson Street. It will significantly relieve congestion and 
reduce travel time on North State Street and South State Street, and 
will provide an alternative route connecting the Stamford Train Station 
south of the railroad tracks to Shippan and the east side. This project 
was requested by the South Western Regional Planning Agency to be 
considered for funding from sources other than the Surface 
Transportation Program. The State is reviewing an Environmental 
Assessment report for further evaluation and the feasibility of the 
project is being evaluated. The estimated project cost is $6,000,000.
Strawberry Hill Avenue Widening (13-H042)
    The proposed project will widen and realign Strawberry Hill Avenue 
between Grove Street and Colonial Road to provide a four-lane roadway 
section to eliminate lane switching for the through movement. The 
concept plans are being developed to minimize--the travel times and 
delays and adverse impacts on properties along the corridor.
    The estimated construction cost is $3,500,000.
Stillwater Road at Cold Spring Road Intersection Improvement (135-H043)
    The project proposes widening of Stillwater Road to a four-lane 
facility between Palmer's Hill Road and Cold Spring Road, and 
replacement of the bridge on the Cold Spring Road approach to the 
intersection. A concept plan with minimal impact to the golf course and 
private properties are being developed. The estimated construction cost 
is $4,400,000.
North Street Reconstruction (135-H040)
    A full depth reconstruction of North Street between Summer Street 
and Washington Boulevard with improved drainage, sidewalks, and 
drainage facilities is proposed under this project.
    The project construction is expected to be completed in the spring 
of 2000 -2001 at a cost of about $800,000.
            future projects for funding under istea programs
    1. Cove Road Reconstruction
    2. Jefferson Street Reconstruction
    3. Canal Street Reconstruction
    4. Turn-of River Road (Intervale Road Improvements)
    5. Myrtle Avenue Reconstruction
    6. Oaklawn Avenue Reconstruction
    7. Buxton Farms Road Reconstruction
    8. Greenwich Avenue Reconstruction
    9. Atlantic Street Reconstruction
    10. Fairfield Avenue Reconstruction
    11. Improvements to Atlantic Street Railroad Underpass
    12. Improvements to Elm Street Railroad Underpass
                               __________
   Statement of Karyl Lee Hall, Connecticut Fund for the Environment
    Good afternoon. My name is Karyl Lee Hall and I am a staff attorney 
with the Connecticut Fund for the Environment. CFE is a not-for-profit 
environmental advocacy organization with over 3000 members across the 
state. We have offices in New Haven and Hartford and work on a wide 
range of transportation issues and their effects upon the environment. 
I am here today to specifically support the reauthorization of the 
Intermodal Surface Transportation Efficiency Act of 1991 as put forward 
by among others, Senator Lieberman, Senator Moynihan, Senator 
Lautenberg and Senator Dodd, and to offer some constructive suggestions 
for strengthening the legislation.
    In 1991, ISTEA offered great promise. Particularly in its shift of 
decisionmaking power to the states, its solicitation of public 
involvement in the transportation planning process, its recognition of 
environmental impacts and its emphasis upon fiscal constraint, it was 
recognized as a truly innovative development. Now, more than 5 years 
later, we can evaluate both the successes and the defects of the 
program.
    First the successes. We believe that the Federal Government should 
continue its content to .ranscortat on. The first principal of 
transportation planning must be that an economically efficient and 
environmentally sound basic structure should be maintained.
    Second, we believe that the structure of ISTEA should be 
maintained. The mix of funds available, half for local concerns and 
half for activities of national importance, with substantial 
opportunity for flexing, creates a funding dynamic that is potentially 
both efficient and creative. Existing restrictions on the use of 
Interstate Maintenance and Bridge categories should be continued. 
Recognizing the experience of the last 20 years and what every good 
housewife knows, we should fix the system first and add to it later. 
And as with transit funding, every new highway project should have to 
show that resources are available to keep that highway maintained over 
the course of its useful life.
    Third, one of ISTEA's great advances was to allow Federal funds to 
be used for all kinds of surface transportation, including rail. Since 
the entire state of Connecticut is out of compliance with the standards 
of the Clean Air Act for Ozone, CFE supports efforts to reduce 
vehicular traffic through the use of an efficient rail system. Part of 
this strategy relies upon a viable intercity rail service, which, at 
present, is not funded by ISTEA. Thus, we believe intercity rail should 
be given funding parity with other transportation modes.
    Fourth, the Congestion Mitigation and Air Quality Improvement 
Program should be continued. At a time when the Federal standards for 
ozone and particulate matter are likely to become stricter, it is even 
more important to recognize the connection between automobile travel 
and air pollution. ISTEA's CMAQ funding gives the transportation sector 
an opportunity to mitigate its negative impact on the environment.
    CMAQ has shown laudable results. The flexibility feature of ISTEA 
is considered by many transportation specialists to be one of its best 
features. Most of the funding flexed to transit, for example, have come 
out of the CMAQ program. In Connecticut, it has been the source of much 
innovation in planning. It has provided capital support for vanpool 
purchases, built commuter information kiosks at commuter parking lots, 
and has expanded the parking spaces at Union Station in New Haven. 
Since a significant factor in reducing mobile source pollution involves 
encouraging people to change their behavior in order to reduce their 
reliance upon their cars, these programs will ultimately be an 
effective way to meet the mandates of the Clean Air Act. Without CMAQ 
funding, it is unlikely that they would have been implemented because 
their environmental benefit will be seen most accurately in the long 
term.
    The Transportation Enhancements Program is also a step beyond 
business as usual transportation legislation. The recognition that 
transportation affects the way in which we live is fundamental to ISTEA 
principals. It returns the emphasis to the community and quality of 
life issues. The Farmington Canal Rail-Trail is an example Of a sac 
essfu Enhancements Project. Built in the 1830's to correct New Haven, 
Connecticut with Northampton, Massachusetts, today part of it is a six-
mile trail which ties together the Cheshire town center, Lock 12 
Historic Park, Quinnipiac College, Sleeping Giant State Park, and 
Hamden's Brookvale Park. This linear park is the backbone of an urban 
trail system which is already a recognized treasure in the New Haven 
metropolitan region. Clearly, the Enhancements Program, here and 
elsewhere, is a success and is a crucial part of ISTEA.
    Related to this issue, is the growing concern about the 
relationship between the transportation system and land use. This is an 
issue that ISTEA should address directly. It is widely accepted that 
the design of the transportation network in large measure dictates 
economic development. In simple terms, the expansion of the highway 
system has been accompanied by urban sprawl.
    We are now seeing the effect of this inefficient and costly use of 
land in Connecticut. At the present rate of decline, every acre in the 
state will have been built upon by the year 2040. Bridgeport, New 
Haven, Waterbury and Hartford have seen the highways carry away their 
tax base. Recognizing that Connecticut's problem is ultimately a 
national problem, we recommend that ISTEA address this issue by making 
funds available to communities that want to do long term planning for 
land use planning connected to transit infrastructure.
    Finally, we believe that public participation is one of the 
keystones of ISTEA and should be strengthened. In directing state and 
local governments to solicit public involvement in the transportation 
planning process, the legislation was an advance over the closed door 
process that characterized transportation planning in the past. 
However, if ISTEA increases the opportunities for citizens to influence 
the decisionmaking process, that does not necessarily mean that public 
participation is taking place.
    In many cases, local MPOs as well as the state departments of 
transportation have operated as independent and largely closed systems 
for many years. The move into cooperative planning and public 
participation has not been smooth. Therefore, while we believe that the 
involvement of the MPOs should continue, we recommend that Federal 
certification of the MPOs and the state DOTs should be enhanced to make 
sure that the public participation requirements of ISTEA are being 
carried out.
    We believe that the reauthorization legislation sponsored by 
Senator Lieberman, Senator Moynihan, Senator Lautenberg and Senator 
Dodd best addresses the concerns expressed above. The misguided efforts 
characterized by Step 21 eliminates some of ISTEA's core programs: 
CMAQ, Enhancements, and Maintenance. Furthermore, a funding formula 
based on vehicle miles traveled is shortsighted and in light of the 
Clean Air Act, counterproductive.
    The best of the ISTEA legislation has shown us that transportation 
planning can mitigate some of the mistakes of the past. We believe that 
good transportation planning can make better use of our remaining open 
space, it can help us to ensure clean air for cur children, it can help 
both urban and rural communities to develop economically without 
sacrificing our sense of place. For our sister states in the South and 
West, reauthorization provides an opportunity to avoid some of the 
transportation, air quality and land use quagmires which we brought 
upon ourselves. For us, reauthorization of ISTEA can help the citizens 
of Connecticut to both maintain and move beyond the concrete highway.
                               __________
        Statement of Tom Cheesman, Middletown, CT, Area Transit
    Good Afternoon. I am Tom Cheeseman, Chairman of the Connecticut 
Association of Community Transportation. I am pleased to be here today 
to participate in this ISTEA forum and am thankful for the opportunity 
to provide testimony on Connecticut Transit's interests as they relate 
to the reauthorization of ISTEA.
    It is essential that the State of Connecticut, as well as the rest 
of the Nation, maintain a well balanced Public Transportation System 
encompassing all modes and a clean healthy environment in which to 
operate. It is also essential that a strong and viable Public 
Transportation System be maintained if our Nation and State is going to 
meet it's objective of moving individuals from welfare to work, and if 
we are going to continue to meet the needs of the elderly, disabled, 
and the less fortunate in our society. None of these things can be 
accomplished if ISTEA is not reauthorized or if it is changed 
substantially.
    The flexible funding provisions of ISTEA have made it possible to 
leverage CEMAQ funds--which has allowed the State to fund commuter 
operations, rail shuttles, van pools, and to provide technical 
assistance to corporations to aid in automobile trip reductions--thus, 
reducing air and traffic congestion in the southwest corridor.
    In addition, the flexible funding provision has provided funds 
which enabled the Section 16 and 18 Programs to survive, thus giving 
continued support to our elderly and rural citizens.
    It has also allowed Connecticut and other States to provide 
assistance for the disabled under the Americans with Disabilities Act.
    Flexible funding has also made it possible for our State to 
maintain its transportation infrastructure and the integrity of the 
systems.
    I would like to draw your attention to an article published in the 
Hartford Courant on April 12, 1997 entitled Getting A Job--A Tall Order 
Without Bus Service. . It clearly illustrates what needs to be done if 
we are indeed going to move individuals from welfare to work.
    In conclusion, I urge you to wholeheartedly support the re-
authorization of ISTEA with minimal change.
                               __________
           Statement of Hugh Rogers, Corridor H Alternatives
    Dear Senator Moynihan: President Clinton's budget request to 
complete the Appalachian highways can be split into equal parts: a 
billion for Corridor H. and a billion for everything else. We can't 
speak for the citizens of other Appalachian states, but we urge you to 
throw out Corridor H--an outmoded, unnecessary, wasteful and 
destructive project.
    During the last public comment period on the environmental impact 
statement, 90 percent of West Virginians opposed the project. In 1981, 
the Federal Highway Administration said Corridor H was ``substantially 
overdesigned,'' and recommended two-lane upgrades. What changed over 
the next 15 years? Not the projected traffic; not the excessive cost; 
not the environmental, cultural, and recreational impacts. The only 
change was Senator Byrd's move to the Appropriations Committee.
    Now Virginia has turned down the project, and Corridor H has lost 
its ``purpose and need'' to connect with I-81 and I-66. m e average 
daily traffic over nine-tenths of the route is less than 3000 vehicles. 
Through truck traffic uses I-68, only thirty-five miles north, or I-64 
to the south. Tourists whose destination is the Allegheny Highlands 
want good safe scenic roads, not another expressway.
    Environmental impacts would include major stream degradation (100 
crossings), habitat loss, forest fragmentation, and recreational 
impairment. The pavement would abut two significant Civil War 
battlefields. Peter Kostmayer, chief of EPA's Region III, lost his job 
over Corridor H. The people of West Virginia, and others who love the 
Highlands, stand to lose much more. Please use your persuasive powers 
to cut this proposed expenditure.
                                 ______
                                 
            Corridor H Alternatives--Attachment to Statement
Memorandum: Getting out of a bad deal
    Time to defund an outmoded big-government project: Corridor H. the 
proposed 100-mile expressway from Elkins to the Virginia border, 
traversing West Virginia's prime natural and historic areas along the 
Eastern Continental Divide. Cost: $1.8 billion, including $360 million 
in matching funds from the third highest gas tax in the country. 
Damage: severe impacts to national forests, rivers, wildlife, 
agriculture, historic properties, tourism, and smalltown businesses. 
Benefits: dubious.
    Economics: USDOT, the Congressional Budget Office, National 
Governors' Association, and others have sponsored research on highways 
and economic development. Consensus: new four-lanes don't t ring jobs 
to rural areas. Prof. David Hartgen, authority on transportation policy 
cited in WVDOT's Corridor H Environmental Impact Statement, found that 
counties with four-lane highways had an advantage over other counties 
only if they were within 25 miles of a metropolitan area, i.e., they 
gained from ``spillcver growth''.
    History: Benton McKaye, pioneer regional planner, drew a 
development highway and scenic parkway system that led to the 
Appalachian Regional Commission (ARC) corridors. The WV Highlands were 
ideal for scenic highways, not a four-lane truck route. Ralph Widner, 
ARC's first executive director, called H the least defensible corridor. 
It would actually be detrimental to tourism, strongest segment of the 
local economy. Widner, reviewing ARC's first 25 years, said its 
rationale for four-lanes didn't work: the ``buffalo hunt'' to bring in 
giant industrial plants was over.
    Politics: Supporters of the project assume all corridors are good. 
They cling to a dwindling extractive economy. WVDCT's sales pitch to 
Virginia's Transportation Board said, ``Corridor H will provide access 
to raw materials in Central West Virginia to boost manufacturing sector 
of economy in Virginia.'' Opponents say the present and future 
economy's products will move, not on concrete, but on fiber-optic cable 
we have now. During the public comment period, thousands of West 
Virginians opposed the project, 9-to-1.
    Status: Corridor H is now in court. Fifteen regional environmental, 
taxpayer, and good-government groups have sued the WV Department of 
Transportation and Federal Highway Administration over failure to 
consider alternatives and m m imization of impacts. Many national 
organizations will join the suit as friends of the court. The Stop 
Corporate Welfare coalition and Green Scissors Report have both named 
Corridor H as a prime target for budget cutting on the double bases of 
its waste and harm.
    Alternatives: Instead of building a new highway most residents 
can't use, improve the regional network. On 90 percent of the route, 
traffic is less than 3000 vehicles per day, far too little to justify 
four lanes. The few congested spots--which are not on the oorridor-
should be fixed; shoulders should be widened for safety; passing lanes, 
such as the ones under construction on US 33 over Allegheny Mountain, 
will help traffic flow. For interregional traffic, we have I-68. For 
those who live here and others who are drawn by its special quality, we 
need to upgrade existing roads.
                               __________
          Statement of Bronx Borough President Fernando Ferrer
    Forging a stronger economy through job creation and access, 
protecting our national environment and empowering local communities as 
an active participant in government decisionmaking are the foremost 
challenges faced by government leaders today.
    The Intermodal Surface Transportation Efficiency Act of 1991 has 
been successful in fostering significant gains in these areas, while 
improving our transportation infrastructure and mobility, both 
nationally and regionally, through an efficient formula for the 
distribution of Federal transportation funds. Today, it is crucial that 
we build on these successes, reauthorize funding formulas based 
primarily on need, and reject any efforts to turn back the clock on the 
gains of the past 6 years.
    The continued commitment of our Federal Government to a safe and 
efficient national transportation system is essential to the vitality 
of both our national and local economies. The critical component of 
that commitment is the distribution of Federal transportation resources 
based on need, not where gas taxes are collected. Any other approach is 
misguided, at best.
    There is no Federal program in existence that distributes resources 
simply on the basis of where taxes are collected. If there was, we'd be 
far richer in New York than we are today. Current proposals to do just 
that with regard to Federal gas taxes, however, would reward increased 
fuel consumption and air pollution, and penalize conservation efforts, 
including investments in traffic mitigation and mass transit. With an 
increasing need, nationally, to protect our natural resources, such 
proposals are simply irresponsible.
    As introduced by Senator Daniel Patrick Moynihan, and passed into 
law, the IntermodalSurface Transportation Efficiency Act of 1991 
revolutionized our national transportation policy, and more. It has 
offered increased flexibility for states to determine how Federal 
transportation dollars are spent. It has encouraged state and city 
initiative in surface transportation planning, and has helped cities to 
comply with the Clean Air Act. Its system of program categories has 
proven instrumental in balancing states' infrastructure, economic, 
planning and air quality needs with the amount of Federal gas taxes 
collected in each state.
    The proposed ``ISTEA Reauthorization Act of 1997,'' which I 
support, would importantly retain the current structure of ISTEA with 
minor changes serving to update and streamline existing formulas. 
Particularly important is its continued support of local 
transportation, economic and environmental policies, within the 
framework of a national transportation system.
    Specifically, I applaud the ``ISTEA Reauthorization Act of 1997'' 
for:
    1) its support of states, metropolitan planning organizations and 
localities as participants in determining transportation policy to 
assure the inclusion of local priorities;
    2) its support of regional and local economic development through 
an emphasis on intermodal connections and support of mass transit 
initiatives, encouraging efficiency, environmental compliance and 
responsibility, as well;
    3) its support of environmental policies through the Congestion 
Mitigation and Air Quality Improvement and Transportation Enhancements 
programs, providing incentives for meeting environmental goals; and
    4) its support and flexibility in encouraging non-traditional 
transportation projects, such as ferry boats and terminals, scenic 
biking and recreational trails.
    As a responsible and efficient approach to national surface 
transportation policy, benefiting the environment and the economy, 
including that of New York State, I urge my distinguished colleagues 
across the United States to join in support of the ``ISTEA 
Reauthorization Act of 1997.''
    Thank you.
                               __________
Statement of Francis X. McArdle, Managing Director, General Contractors 
                     Association of New York, Inc.
    The General Contractors Association of New York, Inc. is very 
pleased to assist the efforts of Senators Moynihan and D'Amato, 
Governor Pataki, and Mayor Giuliani in the fight for a renewed Federal 
transportation program that is fair to the New York Metropolitan 
Region. It is critical to the economic viability of our City and nation 
that Federal dollars continue to be available to invest in the repair 
and enhancement of our highways, bridges, and mass-transit systems. We 
urge Congress to reauthorize the Federal transportation program as is 
and to increase the available funds for infrastructure investments in 
the region and throughout the United States.
    GCA is playing a leading role in the New York state coalition that 
seeks to preserve the basic formulas and policies set forth in the 1991 
landmark Intermodal Surface Transportation Efficiency Act (ISTEA). This 
coalition brings organized labor, business, and government together 
with a virtually unprecedented degree of unanimity.
    The transportation needs of the Metropolitan Region are increasing 
every day. These needs range from basic infrastructure maintenance to 
building new mass-transit links to economically important centers 
throughout the region. Over the last 5 years, Federal transportation 
program spending has been one of the only areas in which the State has 
actually received more in funding than its citizens have paid to the 
government in taxes. Congress must keep in mind the fact that this 
region generates huge surpluses for the Federal treasury, money that is 
used to pay for a wide range of programs which benefit other states. 
Our efficient transportation network is what makes these surpluses 
possible.
    Public investment in transportation infrastructure creates and 
sustains jobs and economic growth. This spending keeps thousands of 
unionized workers employed in the construction trades every year and 
literally insures that the millions of people who work in the New York 
Metropolitan Region get to their jobs safely and efficiently. . Keeping 
our infrastructure programs strong and well-funded is one of the keys 
to attracting new, private investment and making sure the region can 
continue to be an important economic engine for the country as a whole.
                               __________
    Statement of the Connecticut Construction Industries Association
    A little over 6 years ago, I stood in your office with a group of 
my members, and our message to you was that ISTEA wouldn't work. I am 
pleased to be here today to say we were wrong. It has worked. ISTEA did 
not, as we feared, divert all highway spending to transit or forever 
delay needed projects by following ISTEA's expanded public 
participation procedures and giving local governments an expanded role. 
In fact, we flexed CMAQ funds to jointly fund with FTA the construction 
of a new railroad bridge in Bridgeport, and we are witnessing 
unprecedented cooperation in the planning of such projects as the 
replacement of the bridge that carries I-95 over New Haven harbor.
    On the occasion of the reauthorization of ISTEA, we have the 
opportunity to either build on this success or, as some would have it, 
to go back in time, by which I mean rekindling the adversarial 
relations between all of the diverse interests ISTEA has brought 
together to work cooperatively.
    Because of these facts plus the fact that the soon-to-be-introduced 
ISTEA Works coalition bill preserves Connecticut's Federal 
transportation funding level, CCIA has joined the coalition through its 
road builders division, the Connecticut Road Builders Association. The 
ISTEA Works coalition also enjoys the support of the Governor and 
Connecticut Department of Transportation (CONNDOT).
    Thus, we appear before you with three separate sets of issues, 
which I will briefly touch upon.
    (a) First are the ``increase the size of the pie'' issues: a 
compromise on funding levels between the donor states and the donee 
states will only be possible if more money is made available for 
Federal transportation spending. Such an increase is amply justified by 
documented system needs in all modes, including those, such as 
aviation, that are subject to separate reauthorization legislation. 
Amtrak supporters are vying for a slice of the increase, and groups as 
divergent from road builders as the Surface Transportation Policy 
Project (STPP) are also calling for higher funding. All measures that 
increase Federal transportation funding (Bond-Chafee, off budget, 
redirecting the 4.3 cents, removing the fuel tax exemption for 
alternative fuels, and high tech tolls) deserve serious consideration. 
The National Governors Association and a broad based coalition it has 
organized is working on a resolution in support of higher funding 
within the existing budget and appropriations framework, but they will 
have to think again if the budget resolution fails to deliver an 
increase for transportation funding.
    (b) Second are the issues that arise within the ISTEA Works 
coalition, the basic thesis of which is to maintain the status quo, 
with a few minor changes. The answer to what those changes should be 
differs according to whether you talk to the STPP, for instance, or you 
talk to us. Now that we are on the same side, the issues we would like 
to take up with the our coalition mates include (1) the futility of 
prejudice against personal mobility, (2) privatized bus lines as an 
alternative to train service that can only be run at a very high level 
of subsidization, (3) expedited project planning and approvals though 
the use of NEPA rather than sequential, piecemeal single issue review 
processes, and (4) clarification of how funds will be divided between 
modes. We believe that the synthesis of highway contractors 
associations and environmental groups will raise the coalition's 
credibility and forge substantive solutions that everybody can live 
with.
    (c) Third are the nuts and bolts issues the construction industry 
must take up in the reauthorization of the Federal surface 
transportation program. These include clarifying that in nearly all 
cases operators of off-road heavy construction equipment don't need 
commercial drivers licenses, clarifying the industry's exemption from 
Federal hours of service rules, solving the nationwide problem of the 
failure of utilities to timely relocate their facilities to accommodate 
highway and bridge construction projects, and eliminating the basic 
unfairness of making contractors provide guarantees or warranties where 
they have no control over the materials used in the project's 
construction or the level of use and maintenance once it is completed.
    We will look forward to discussing with you our specific proposals 
in each of these areas, once they have been completed.
    In summary, we need to increase the size of the pie, we need to 
keep ISTEA basically as it is, which specifically includes preserving 
Connecticut's funding level, we need to work within the ISTEA Works 
coalition to improve ISTEA in some to-be-agreed-upon areas, and the 
construction industry needs to address its industry-specific issues.
    Thank you. I would be happy to respond to any questions you might 
have.
                               __________
 Statement of Richard J. Porth on Behalf of the Capitol Region Council 
                             of Governments
    Thank you, Senator Lieberman, for the opportunity to testify 
regarding the Intermodal Surface Transportation Efficiency Act. Thank 
you also for your leadership in the Senate in introducing a bill along 
with Senator Moynihan and Senator Lautenberg to reauthorize ISTEA, 
preserving its basic tenets and principals. I am testifying in my 
capacity as Executive Director of the Capitol Region Council of 
Governments, representing the mayors and first selectmen in the twenty-
nine towns of the Capitol Region. We also serve as the region's 
Metropolitan Planning Organization for transportation.
    ISTEA is one of the best recent pieces of legislation to come out 
of Congress. It is an example of our Federal system of government at 
its best. During its 6-year life, it has provided a framework which 
encourages: efficient operation of the existing transportation network; 
improved intermodal integration; enhanced flexibility to address local, 
regional and state priorities; more attention to environmental 
considerations in transportation planning; more support for transit; 
and a successful devolution strategy which shares decisionmaking 
authority among Federal, state, regional and local officials.
    In Connecticut, we have an added incentive for preserving ISTEA in 
much the same form that it currently exists. The Metropolitan Planning 
Organization model which was strengthened by ISTEA has provided a forum 
and an incentive for municipal leaders to work together for the benefit 
of their own towns and the entire region. It provides the best example 
we have for how towns can help themselves while helping the region. 
This is especially important in Connecticut where home rule is such an 
important part of our political tradition and where county government 
no longer exists. The success that Connecticut's MPO's have had with 
ISTEA is often cited as a model for other efforts to devolve authority 
to the level of government closest to the people and to promote 
collaboration among towns in a region.
    The local flexibility that ISTEA affords would also enable us in 
the Capitol Region of Connecticut to continue our focus on 
strengthening our urban center-the City of Hartford. We have used ISTEA 
funds prudently and effectively to strengthen Hartford's transportation 
infrastructure and to provide important economic enhancements such as 
the Riverfront Recapture project along our stretch of the great 
Connecticut River. MPO's in Connecticut and throughout the country have 
used ISTEA to strengthen their own cities in a similar fashion.
    Equally important to the success of ISTEA has been the way that 
Federal transportation funds have been allocated to the states. ISTEA's 
allocation formulas address the interdependence of the states' 
economies and transportation infrastructures. Working on the 
fundamental premise that the nation's transportation infrastructure is 
vital to the nation's economy, ISTEA funding formulas allocate Federal 
funds where the need is the greatest and in furtherance of stated 
national goals.
    In Connecticut, which is densely populated compared to much of the 
rest of the country and where our extensive transportation 
infrastructure is heavily used, the allocation formula has resulted in 
the state receiving $1.80 for every $1.00 sent to Washington. However, 
our donee status for transportation funding should not be viewed in 
isolation. Overall, Connecticut receives $.68 for every $1.00 in 
Federal taxes collected here. Connecticut residents would probably 
prefer a better balance overall. But, we also understand that is in our 
long-term interest for the Federal Government to use its resources 
where the need is greatest and where national interests are best 
served.
    The so-called ``turnback proposal'' and the ``Step 21 proposal'' 
are designed to eliminate or greatly reduce the Federal Government's 
role in allocating national resources where the need is greatest. These 
proposals show no respect or understanding for the Federal system of 
government which has made the United States so great. If ever there was 
a governmental function which requires a strong and proactive Federal 
role, it is in providing for a strong national transportation 
infrastructure.
    These kinds of changes to ISTEA must be resisted. We understand 
that it is an uphill battle, and that unfortunately it pits states in 
the Northeast and Midwest against states in the south and west. But we 
urge you to persuade your colleagues in the Senate and the rest of 
Congress that ISTEA Works! The ISTEA bill which you have introduced 
would: retain the basic structure of ISTEA; update and improve the 
formulas; continue the role of states, MPO's and local governments; 
emphasize economic goals by continuing the focus on intermodal 
transportation; promote ongoing flexibility so that locally and 
regionally determined priorities can be implemented; and support 
environmental goals.
    Please continue your leadership to help re-enact ISTEA in a form 
that preserves the basic tenets, principles and programs that exist now 
and provides funding based primarily on need so that Connecticut and 
the Nation as a whole can continue to benefit by this landmark 
legislation. The mayors and first selectmen of the twenty-nine towns in 
the Capitol Region of Connecticut who I represent today have pledged to 
work with you and the rest of Connecticut's congressional delegation to 
do whatever it takes to reauthorize ISTEA without significant change, 
as is called for in your ISTEA bill. I have attached a copy of a 
resolution to this effect passed unanimously by the chief elected 
officials of the Capitol Region Council of Governments. Much is at 
stake for Connecticut and the nation. Thank you.
                               __________
    Statement of James S. Sipperly, Environmental Planner, Town of 
                              Cheshire, CT
    Thank you for allowing me the opportunity to share with you our 
ISTEA success story in Cheshire.
    In 1991, Congress passed and the President signed the Intermodal 
Surface Transportation Efficiency Act (ISTEA), which changed Federal 
transportation policies. ISTEA was designed to foster and improve 
transportation facilities and enhance the communities they serve.
    Funds provided under the ISTEA program may generally be used by 
states and municipalities for any road on the Federal-aid highway 
network (of which there are approximately 950,000 miles and are 
therefore eligible for these funds).
    This program also included a requirement that states set aside at 
least 10 percent (10 percent) of the $24 billion exclusively for ten 
categories of ``transportation enhancements'', such as pedestrian 
walkways, bikeways, scenic easements, or historic preservation 
projects. Such enhancements were designed to strengthen the cultural, 
aesthetic, and environmental aspects of transportation and recreation, 
and to encourage greater use of non-motorized transportation.
    My purpose here today is to showcase to you our project entitled 
``The Farmington Canal Linear Park''.
    When completed in 1835, the Farmington Canal ran 80 miles between 
New Haven, Connecticut and Northampton, Massachusetts. The canal is of 
historical significance as Connecticut's premier example of an 
important movement in the early 19th century, the promotion of internal 
improvements to stimulate economic growth.
    In size and complexity, the Farmington Canal was Connecticut's 
premier engineering work prior to the construction of the railroads. 
The canal in Connecticut was 56 miles in length, had a system of 28 
locks, numerous bridges, culverts and aqueducts. The canal required the 
period's best surveying and engineering principles.
    The canal opened in 1829 and ran until 1847. In 1845, an 
engineering report concluded a favorable recommendation for the 
construction of a railroad along the same route as the canal. In 1848, 
the railroad was opened from New Haven to Planville. In 1983, spring 
floods damaged the rail bed and the railroad discontinued service 
between New Haven and Cheshire. In 1987, the railroad requested and was 
granted permission to abandon this section which allowed the railroad 
to sell the land to the state.
    In 1992, the Town of Cheshire submitted an application for ISTEA 
funds totaling $900,000 for preservation and restoration of old 
bridges, stone walls, and the replacement of wooden lock gates at the 
Lock 12 Historic Park owned by the Town of Cheshire. The Farmington 
Linear Park project restored a recreational and open space corridor 
along the abandoned right-of-way of the former canal and railroad. 
Plans also provided for a continuous 3.8-mile bicycle and pedestrian 
path, 10 feet wide with a 2-foot grass and stone edging on either side.
    The popularity of the route prompted the construction of additional 
parking areas along the trail. Split-rail fences, wrought iron fencing, 
benches and landscaping add to the attractiveness of the trail.
    I was honored to be able to represent the Town of Cheshire and 
accept an award at the National Transportation Enhancement Conference 
held in June, 1996, in Washington, DC. The conference honored the 
nation's 25 best transportation enhancement projects chosen from over 
180 nominations. Receiving a firsthand look at the quality of these 
projects and the support they enjoy speak persuasively of a program 
that benefits America's transportation system, its communities, and its 
economy. The ISTEA program is truly a story about success.
    The town of Cheshire (and Hamden, for that matter), enjoy specific 
benefits from the construction of this project.
    The trail serves as an urban connector between neighborhoods. In 
places it reconnected old neighborhoods now divided by urbanization.
    The linear park provides a large number of people access to the 
trail at various locations throughout Cheshire and Hamden. It serves as 
a transportation link for residents who work in town and who wish to 
walk or ride their bicycles to work or school.
    The project enhances the quality of life to town residents and 
others who utilize the trail on a daily basis. The trail provides an 
environment for after-dinner strolls with friends and neighbors, and 
has created a sense of community pride.
    It offers residents of not only Cheshire, but of the region a place 
to socialize, walk, run, bike, rollerblade and exercise. Young and old 
enjoy the trail by walking and biking. Parents with strollers meet to 
walk their children together. All area sport shops have increased sales 
on rollerblades and accessories. Delicatessens and ice cream shops and 
restaurants close to the park have increased business.
    Persons with disabilities have direct access to an urban trail 
without having to travel a great distance.
    It provides groups such as the Cheshire Garden Club, boy scouts and 
girl scouts, the Cheshire Land Trust, and other civic organizations an 
opportunity to work together to install wooden benches, plant trees and 
flowers along the scenic vistas.
    The innovation of the project was that an eroded, abandoned and 
unsightly railroad right-of-way was turned into an aesthetic recreation 
corridor. This linear park also serves as a greenway for wildlife and 
native vegetation which will be preserved and protected.
    The park also allows people of all ages to walk through wetland 
marshes and swamps for the first time to gain insight on wetland values 
and the different functions they perform.
    Not only does this trail provide benefits primarily to the 
Cheshire/Hamden area, but provides important benefits to the state of 
Connecticut, namely in the form of tourism. Connecticut can boast of 
having one of the finest urban and rural trail systems in existence in 
the country, and at the same time, maintain and preserve our 
environment and heritage.
    Clearly, this and many enhancement projects like it across the 
country have received strong public support, improved safety and 
mobility for pedestrians and cyclists, and provided various other 
benefits such as a better quality of life, increased civic pride and 
made simply communities more livable.
    As proof of the ISTEA program's popularity nationwide, a 
representative of the Rails to Trails Conservancy said that some 10,000 
projects have been proposed nationwide and local sponsors have been 
willing to contribute an average of 29 percent of the project's costs 
in matching funds, well above the general minimum matching requirement 
of 20 percent.
    Also, according to data collected by the Rails to Trails 
Conservancy, projects involving facilities for cicyclists or 
pedestrians accounted for about 36 percent of the obligations for 
transportation enhancements during the 4-year period.
    Congress should support the reauthorization of the ISTEA funds and 
retain the 10 percent set aside for transportation enhancement 
activities.
    At the conference I attended in June, a poll of hands taken during 
the final plenary session clearly showed that without Federal 
protection, 90 percent of the conference participants agreed that 
funding for enhancement projects would be reduced to a trickle.
    From the example I have given you, and based on surveys we have 
conducted, ISTEA works. It works in Cheshire and it works in 
Connecticut.
    The Town of Cheshire joins you in the support of the ISTEA 
Reauthorization Act of 1997.
    Thank you.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                         MONDAY, APRIL 21, 1997

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                              Warwick, Rhode Island

                  INTERMODAL AND ENVIRONMENTAL ISSUES

    The committee met, pursuant to notice, at 9:30 a.m. in the 
Bobby Hackett Auditorium, Community College of Rhode Island, 
Knight Campus, Warwick, Rhode Island, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senator Chafee.
    Also present: Senator Reed and Representative Weygand.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good morning. I would like to welcome all 
of our witnesses. I am pleased to be here in Warwick this 
morning to chair this important hearing on the reauthorization 
of the Intermodal Surface Transportation Efficiency Act, better 
known as ISTEA. The Committee on Environment and Public Works, 
of which I many am chairman, has held hearings both in 
Washington and all over the country on this landmark 
legislation.
    Today's hearing is special because it will give Rhode 
Islanders the opportunity to make their views known on ISTEA. 
We will hear from Secretary of Transportation, Rodney Slater; 
Governor Almond; Director of Transportation William Ankner, and 
others.
    I was proud to co-author the original ISTEA, which 
transformed what was once simply a highway program into a 
comprehensive national transportation system. ISTEA did this by 
providing the Nation with the laudable goals of intermodalism, 
efficiency, and flexibility. ISTEA also provided states and 
localities with tools to cope with the growing demands on our 
transportation system and the corresponding strain on our 
environment.
    As you know, ISTEA is due for reauthorization later this 
year. The bill that ultimately becomes a new law must be built 
on the original law's focus on intermodalism and efficiency, 
and it must maintain the ISTEA's emphasis on environmental 
protection, system preservation, and safety.
    Along those lines, the United States Department of 
Transportation has preserved and built on the key goals of 
ISTEA in the reauthorization proposal submitted by President 
Clinton to Congress last month. Another bill introduced by 
Senator Moynihan and 31 other senators last week also would 
continue the important legacy of ISTEA. I am delighted to have 
co-sponsored both of these measures.
    Let me emphasize one point regarding the need for 
environmental protection in the new law. As the President said, 
when he announced the Department of Transportation's proposal, 
``Make no mistake about it, this is one of the most important 
pieces of environmental legislation that will be considered by 
the Congress in the next 2 years.'' I agree with the President 
that the new law must not retreat on ISTEA's commitment to 
environmental protection.
    I must add, however, that the task before us is hardly a 
simple one. Regrettably, some would like to turn back the clock 
to the time when highways were the only game in town. An 
additional obstacle is the tendency to focus on one's own 
region or locality, while losing sight of the larger national 
picture.
    As we debate what the new ISTEA will look like, we also 
must keep in mind that the diversity and uniqueness of the 
country and all of its transportation needs. And we must resist 
the temptation to set a national transportation policy based 
solely on our own region's particular demands.
    I admit that transportation policy would be a lot simpler 
if it concerned only one or two factors. In the real world, 
however, transportation is but one part of a complex web of 
competing and often conflicting demands. The new law must 
address all of these demands by meeting the strong national 
interest and the diverse needs of states and localities.
    You can be assured that I will strive to protect the strong 
Federal commitment to a national transportation policy in the 
upcoming reauthorization. I will need your help in this effort. 
I look forward to working together over the coming months to 
ensure that the new law meets the needs of Rhode Islanders and 
all Americans alike.
    Senator Reed.

             OPENING STATEMENT OF HON. JACK REED, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Reed. Thank you, Senator Chafee, for this 
opportunity to participate in this hearing. And I'd like to 
recognize my colleague, Congressman Weygand. This is an 
important hearing; because transportation policy in Rhode 
Island is a personal aspect of the overall economic 
development; and with the ISTEA bill of a few years ago, we 
recognize that transportation policy was not simply 
constructing roads. Although that's an important part of it, 
it's a much broader concept that brings together all sorts of 
modes of transportation together with an underlying commitment 
to economic development.
    Transportation is one of the keys of economic development 
in any state of this great Nation. That flexibility I hope we 
can preserve in the current reauthorization of the ISTEA act.
    Indeed one of the great aspects of ISTEA is flexibility, 
that we have to maintain it. We will, as the Senator indicated, 
face some interesting obstacles before passage of this 
legislation. First is the perennial fight about who should pay, 
whether it's the donee or donor state. I believe that we have 
to recognize that both the need of the states, the age of the 
infrastructure, and also climatic conditions have to be 
addressed when you're allocating resources. Although the donee 
or donor states was something that if it took place 60 years 
ago we might not have made great common interests to other 
parts of the country in terms of electrical power, in terms of 
anything, we did recognize we're forging a national policy. I 
hope we can get over that hurdle.
    In regards to the present ISTEA, I join Senator Chafee and 
Senator Moynihan in the United States Reorganization Act of 
1997. I hope those principles will be the starting point of our 
deliberations.
    There's other aspects of this hearing which I hope we will 
get into. One very critical aspect of the State of Rhode Island 
is mass transportation. Our Rhode Island Public Transportation 
Authority depends upon resources from Washington to provide 
very important services to all of our citizens, particularly 
for our senior citizens and also I think in the context of many 
of the ongoing efforts for welfare reform, recognizing that 
many of our citizens, in order to participate in the workplace, 
must have access to good mass transit. And in working with 
RIPTA, with the Governor's office, I hope we can force some 
policy for that particular aspect of mass transit. I hope we 
can work together with the state to make a real forward looking 
and progressive contribution to that policy.
    Finally, Rhode Island, this is another aspect of the 
approach to flexibility, intercity dependency on a good 
passenger and freight rail service, the state has committed 
itself to a bond referendum last year to help in development of 
freight service out of Quonset Point in Davisville. We've been 
committing at the Federal level to do that also; but good high 
speed rail service, of passenger service complementing good 
freight service will immensely aid and complement development 
of the state. Good transportation policy is good environmental 
policy; and we have to recognize that. And if we do recognize 
that, not only will we be prosperous, but also will be able to 
insure that our transportation policy complements all of the 
other aspects we want to develop in this state, a good strong 
economy and good sound environmental policy. And I'm very 
pleased to be here with my colleagues today.
    [The prepared statement of Senator Reed follows:]
   Statement of Hon. Jack Reed, U.S. Senator from the State of Rhode 
                                 Island
    Thank you, Senator Chafee, for this opportunity to discuss this 
important topic.
    Also like to thank Secretary Slater for coming to Rhode Island. I 
know that the trip gave him an opportunity to see why Rhode Island and 
the Northeast deserve and need transportation resources.
    Lastly, I am pleased to see such a robust turnout of the Governor 
and his transportation officials as well as all the other panelists 
here today.
    Rhode Island is in a fortunate position. We have a strong history 
of support for transportation--as an example the $70 million third 
track bond. And we have Senator Chafee's long involvement and 
Chairmanship of the transportation committee.
    There is a coalition of state, local, and environmentalists in 
Washington called ISTEA WORKS! They're absolutely right.
    That's why I joined Senator Chafee and a bipartisan group of 
Senators from our region in introducing legislation to essentially 
preserve and continue to beneficial programs of ISTEA.
    The only criticisms I hear of ISTEA is that it's too 
environmentally oriented and does not provide each state with an amount 
of transportation funds exactly equal to that state's gas tax 
remittances.
    On the first claim--that ISTEA is too environmental--I would 
estimate that roughly two-thirds of today's witnesses are here to 
praise the laws environmental provisions on clean air, scenic byways, 
mass transit, local flexibility and the like.
    On the second claim--that some call the donor state, donee state 
debate--I would simply point out that if the same logic were applied to 
all Federal taxes, a lot of this nation's military bases, Medicare 
benefits, and Social Security checks would have to be rerouted to 
Northeast addresses.
    In the 1950's, President Eisenhower envisioned a national highway 
system to move goods and troops in a time of crisis. It would benefit 
all and be paid for by all. In my mind, it made sense Hen and it still 
makes sense today and I will oppose those who would end the national 
system.
    ISTEA is more than roads as many of today's witnesses attest.
    Indeed, as a member of He Banking Committee, I will have a chance 
to write the section of ISTEA that deals with mass transit.
    This is an area of great importance to Rhode Island, especially 
seniors, students, the disabled, those marking the transition from 
welfare to work, and everyone who clams to care about the environment.
    However, the drive to balance the budget has many casualties and 
sadly mass transit could be among them.
    I realize that Secretary Slater would like to see mass transit get 
the investment it needs, and I plan to fight for a fair share for 
transit to help him get his wish as RIPTA's new director, Dr. Beverly 
Scott, uphill point out RI's transit system needs help to survive and a 
hand to reach its full potential.
    For example, Dr. Scott points out RlPTA's operating deficit will be 
about $10.5 million in fiscal year 1999 without Federal assistance. ? 
RIPTA's case the loss of funds carries serious ramifications which are 
unacceptable.
    This is just one pressing issue, and I look forward to today's 
discussion on over matters such as Amtrak, the efforts of our state 
troopers to keep unsafe trucks off our roads, and preserving our 
environment.
    Again, thank you Senator Chafee for bringing us all here.
    Senator Chafee. Thank you very much, Senator.
    Representative Weygand.
    Representative Weygand. Thank you, Senator Chafee. It's a 
pleasure to be here with my colleagues. I, of course, as I said 
earlier in the press conference, want to thank Senator Chafee 
for bringing this Congressional hearing right here to Rhode 
Island, and particularly thank Secretary Slater, the Governor, 
Bill Ankner, and all the officials and people that are here 
today. Because your input is extremely important to both the 
House and the Senate in terms of the ISTEA bill.
    Many of the things that we will hear from you this morning 
we believe very strongly in; and so we'd like to hear that 
support and that reinforcement of it.
    I'd just like to echo a few of the things that the two 
senators have mentioned. When I was talking with John Chafee 
some weeks ago about ISTEA, we talked about the word efficiency 
within ISTEA's meaning, an awful lot of things. Senator Reed 
said that it means so many things, such as environmental 
protection, it means enhancement in economic development, it 
means development of roads and highways. One of the things that 
traditionally has occurred within the transportation programs 
have been large projects that cost a lot of money. It always 
seems that when you call transportation projects, you always 
assume that they're going to do 150 percent of what they really 
have to do. Well, ISTEA was first developed because the word 
efficiency was a key part of transportation planning. We need 
to be more effective and more efficient in the way we do our 
transportation planning and development. And so, therefore, 
some of the big projects, the grandiose projects that cost 
hundreds of millions of dollars could really be scaled down to 
be more effective and efficient in terms of environmental 
protection, in terms of making sure there's good enhancements 
of economic development and roadway efficiency. We want to see 
that. That's the only way I think that transportation projects 
can survive; and that is indeed spreading the wealth to a 
certain degree to be sure that as many projects can be 
efficiently done that will connect various modes of 
transportation and enhance various modes of transportation. 
Whether it's the South County bicycle trail, whether it's 
Amtrak, whether it's RIPTA, or whether it's 195 or the Route 4 
connector to Quonset Point, all of those must be done in an 
effective and efficient way; and we hope that they can be done 
within some degree within the ISTEA program.
    I want to thank Senator Chafee for having this hearing, and 
of course all the officials that are here; because it means a 
lot to this state. We are one of only a few states that has 
this kind of congressional hearing on this issue. 
Transportation is key to our state.
    People will say, as Senator Reed, they'll be our donee 
state, we get more money back in transportation money than we 
give in. The fact of the matter is, if you take a look at all 
of the programs throughout the Federal Government, things like 
subsidizing the Rural Electrification Act or some of the other 
programs, many of the other larger states do in fact get back a 
lot of other money that you don't see just in terms of 
transportation dollars. They in fact do get balanced out in 
other ways that the Rhode Island and Northeast do not. So we're 
happy the secretary is here, we're happy that the program is 
going to go forward, and we will look forward to 
reauthorization of ISTEA as an efficient, effective enhancement 
of our transportation programs.
    Senator Chafee. Thank you very much. Before we start I 
would like to acknowledge Gordon Hoxie. Gordon, where are you? 
I saw you earlier.
    He'll be back, OK. Anyway, he's the Federal representative 
from the Highway Administration here.
    Our first witness is our distinguished Governor, Governor 
Almond. And, Governor, we welcome you. The Governor is just 
back from a trip to Portugal and to England to spread the word 
about Rhode Island and hopefully obtain more business here from 
those countries, other countries in Europe. So I know--I think 
you just got back yesterday. I don't know what time zone you're 
in, but----
    Governor Almond. I'm 5 hours off, Senator.
    Senator Chafee. All right, you look very well, so go to it.

  STATEMENT OF HON. LINCOLN ALMOND, GOVERNOR OF THE STATE OF 
                          RHODE ISLAND

    Governor Almond. Thank you very much. I, once again, I am 
very, very pleased on behalf of myself and all of the people of 
Rhode Island to welcome Secretary Slater to the State of Rhode 
Island. It's so great to see you here. I've seen you before in 
Washington; but it's nice to see you in our state. And I 
certainly look forward to working with you as Secretary of 
Transportation for the government, the State of Rhode Island, 
the entire Nation.
    Senator Reed, Representative Weygand, and Senator, let me 
tell me you that it's a real privilege for me as Governor to 
testify before your committee; and I want to thank you for all 
the efforts you have made on behalf of the environment and 
transportation to the State of Rhode Island and in particular 
the assistance that you have given me.
    As this committee moves forward to reauthorize the 
Intermodal Surface Transportation Efficiency Act of 1991 
legislation, known as ISTEA, I would like to express my strong 
support for reauthorization, with simplification and 
refinement, but without significant change.
    I carry this message today wearing many hats. I speak not 
only as the Governor of Rhode Island, but also as the lead 
Governor on the Transportation Committee for the Coalition of 
Northeastern Governors. Additionally, I am a founding member of 
the ISTEA Works Coalition. These coalitions represent regional 
and national perspectives. They all want a new ISTEA that is 
much like the current legislation, a reauthorization with 
simplification and refinement but without significant change. 
And I agree.
    In Rhode Island ISTEA has worked very well. Two parts of 
ISTEA in particular have helped our state address its very 
transportation needs.
    I'd like to talk for a moment about ISTEA's transportation 
enhancement program. This program sought to better integrate 
transportation projects into the surrounding community and the 
natural environment. Let me single out another element of ISTEA 
that has been important to Rhode Island. This is the Congestion 
Mitigation Air Quality, or ``See Mack'' program. This funds 
transportation projects that contribute to the protection of 
our environment and the attainment of the air quality 
standards. These programs should definitely be continued.
    Another important element of the ISTEA program has been the 
TIP process. This new public process of determining specific 
projects for funding in the states has brought together groups 
that in the past may not have been considered partners in our 
overall transportation planning program. These successes show 
that ISTEA works.
    That's why I'm extremely concerned with several proposals 
that are under consideration in Washington for ISTEA 
reorganization. For example, in the Step 21 legislative 
proposal, funding for states will be based almost solely on 
fuel taxes paid into the transportation fund by each state. Our 
infrastructure is already overburdened by heavy usage, weather 
and age. I am extremely hopeful that Congress will reject 
efforts that will steer much needed transportation funds away 
from the Northeast and abandon the flexibility in the current 
ISTEA program that is so important to our state.
    My written testimony, which I will submit to the committee 
today, includes support for your, Senator, recently proposed 
Highway Trust Fund Integrity Act of 1997, which is a sound 
compromise between deficit reduction and increased 
transportation funding.
    Additionally, my written testimony emphasizes the need for 
increased public/private partnerships for financing large 
projects.
    My written testimony also details ten principals of ISTEA 
reauthorization endorsed by the National Coalition known as 
ISTEA Works. Without listing them here, let me say that 
preserving choice and options and the way we move goods and 
people throughout our state is needed. Let me give you a few 
examples of how in Rhode Island our transportation needs are 
not just about highway travel. We're working to develop our 
port at Quonset into one of the Northeast's most successful 
facilities. To accomplish this we must be able to provide 
intermodal choices for shippers and their goods. That means 
building the third rail for freight traffic from Quonset Point. 
It also means building an access road to support full 
development at Quonset. It will be difficult to help Quonset 
realize its full potential if we don't maintain the current 
ISTEA flexibility.
    Let's take a look at another of our most important 
transportation assets, T.F. Green Airport. This is a facility 
that all Rhode Islanders should be very proud of as it 
continues to surpass record after record in the number of 
passengers moving through the facility. These passengers 
require choice in how they come to and from T.F. Green Airport. 
For example, what about a train station in Warwick to serve the 
airport. This option is only dreamed about by other airports. 
We have the Northeast Corridor running by the front door of 
Green. We should capitalize on such an asset and recognize that 
the flexibility of ISTEA is what makes a project like that 
possible. We must continue to support intercity passenger rail. 
While Rhode Island certainly needs to work hard to improve its 
roads and bridges, one of our major transportation assets is in 
pretty good shape. I'm talking about Route 95, which will be in 
excellent condition when we finish the most recent round of 
repaving. This is one--there is one major exception to the 
well-being of our major highways; and I'm talking about I-195 
through downtown Providence. It requires massive repair, the 
kind of repair that needs creative solutions, solutions like 
those proposed by you, Senator, that will allow creative 
financing for projects such as this. Creativity is the hallmark 
of ISTEA; but it is in serious jeopardy. Step 21 or other 
similar proposals, when we talk about what ISTEA can do in 
providing creative solutions to big highway projects, we can't 
forget what it's done for transit. We must maintain a strong 
transit system.
    RIPTA, under General Manager Beverly Scott's guidance, has 
continued to maintain service in the face of Federal operating 
assistance cuts. Unfortunately, if those cuts continue, service 
will suffer. This, I believe, is the wrong message to send at a 
time when transit must be available as an intermodal choice.
    Finally, the most basic form of transportation, walking, 
must never be overlooked. Coupled with biking, these modes 
deserve our support. Rhode Island has undertaken a strong 
Greenways program and will be starting more bike path projects 
in the next few years than ever before.
    It is only fitting, Senator, that you were awarded the 
national rails-to-trails recognition yesterday. So whether it's 
Quonset Point, the airport, I 195, bike paths, or RIPTA, these 
are all critical and unique components of our transportation 
picture that must be advanced. This diversity in our 
transportation pie is what intermodalism is all about in Rhode 
Island.
    In conclusion, I want to thank you for this opportunity to 
testify before you. The task of reauthorizing ISTEA will not be 
an easy one. However, we look forward to working with you to 
create a refined ISTEA program that will address our country's 
transportation needs into the next century. I would like to 
repeat my strong support for reauthorization of ISTEA with 
simplification and refinement but without significant change. 
Thank you very much.
    Senator Chafee. Well, thank you very much, Governor. And I 
know, first of all, your statement, your full statement will go 
in the record, and I note that it's, speaking on behalf of the 
Coalition of Northeastern Governors, you have the same message, 
namely, a reauthorization of ISTEA with simplification and 
refinement but without significant change.
    Governor Almond. Correct.
    Senator Chafee. And that's very very important. What is the 
Northeast?
    Governor Almond. Pennsylvania to Maine, all of the New 
England states, New York, New Jersey, Delaware, Pennsylvania.
    Senator Chafee. OK, fine. Thank you. Also, the point you 
made about a train station near the airport, that would be 
terrific; and, as you know, we're in the city of Warwick. And 
the city has--is blessed with a wonderful mayor; and that's 
been one of the points that he's stressed many times. He 
envisions the possibility of people getting on at 128, coming 
down, getting off and going conveniently to the Green Airport 
to catch planes from there. And I think he's right on.
    Governor Almond. Can I say something on that, Senator? 
Earlier in the press conference the issue came up of the 
national priorities of ISTEA. When we built Green Airport, we 
didn't build the airport to compete with Logan Airport, because 
Logan needs Green Airport. What we are doing is taking excess 
passengers from Logan; but we also must recognize that Rhode 
Islanders need Logan for air freight. And it's very important 
to Rhode Islanders that we have access to Logan, that Logan is 
in good shape, that Green is in good shape, and that we then 
move over to Quonset Point and we bring rail and we bring 
freight from Massachusetts and give it a place to go out, and 
also from the Midwest. So when we talk about, you know, Step 
21, I think a lot of those states lose sight of the fact of our 
interdependence with one another as states.
    As I mentioned, I just came back from Europe. You know, one 
of the benefits of age I guess is the fact that we've seen this 
economy change so rapidly over the last 20 years. For instance, 
I was with the fishing industry over there, our own Rhode 
Island fishing industry; and they very much need to export fish 
to Europe and they need, you know, quick access to freight, 
international freight. So all of these things interconnect. And 
it's extremely important when I mention the I-195 relocation 
while the Secretary is here, that's the second most heavily 
traveled interstate in the Northeast. That is extremely 
important to every state in the Northeast with respect to the 
movement of goods, tourism. Massachusetts relies on it to a 
great extent for tourism and Cape Cod; and we also depend upon 
each other in many, many ways. And I think we recognized that 
in the Coalition of Northeast Governors; and that's why we're 
so strongly supportive of the ISTEA reauthorization.
    Senator Chafee. I'd just like to make the point that you 
touched on; namely, that many states are saying, well, the 
formula should be based on receipts into the Highway Trust Fund 
based on the gas tax. In other words, if you pay a lot in, you 
ought to get a lot out. But that works in a very perverse way; 
because if a state has made tremendous efforts to reduce gas 
consumption, has had HOB lanes, has encouraged mass transit, 
has worked to reduce congestion so that the gas consumption 
won't be so great, that state is thereby punished. In other 
words, no good deed goes unpunished. The formula, it should be 
strictly related to how much you pay in also. And as I pointed 
out in the press conference, there's little relationship, not 
total relationship between gas receipts, taxes paid in, and 
usage of ones highways.
    We are a linkage state. We link New York to--New York and 
Connecticut to Massachusetts. So the trucks and automobiles 
that come pounding up our highways don't stop to fill up for 
gas, but they give that pounding, they provide that congestion, 
they provide for the air pollution, but they don't spend a 
nickel on gas or diesel fuel. So is there any--I know that 
you're tremendously interested in Quonset Point. Do you want to 
make a further comment on that, Governor?
    Governor Almond. Well, I would like to thank the Members of 
Congress, yourself and Senator Reed and Congressman Weygand 
with their assistance with the third rail project at Quonset 
Point. I just think that Quonset Point is extremely valuable, 
not only just to the State of Rhode Island. It's valuable to 
the whole Northeast region. It's of particular importance to 
the Nation with respect to having a port that would be 
available in periods of national defense; and it's important 
that we maintain and improve that port for the benefit of the 
entire Nation. And as you say, unfortunately, Rhode Island 
doesn't have hundreds and hundreds of miles to cross, so people 
who cross our highways generally don't tank up here and we 
don't get credit for that gas tax that goes to other states. 
But overall we are a donor state. In this particular instance 
we are a donee state; and I think the states that have 
collected the gas tax wouldn't be very happy if they couldn't 
go from Massachusetts to Connecticut.
    Senator Chafee. Senator Reed.
    Senator Reed. Thank you, Chairman. Governor, I just want to 
followup on your comments about Quonset Point. I think you're 
very much aware that there's a great shake out going on up and 
down the East coast about the ports of the future. New York has 
probably talked to Rodney about $23 billion to build tunnels 
from Brooklyn over to the ports of New Jersey, Port Elizabeth; 
and I think it's appropriate that we continue our efforts here 
locally and with a good deal of decisiveness and added 
intensity that we go ahead and get our plans in order and 
replace if we can. I think we can in fact be a port of 
significant performance if we carry any delay we might be able 
to take on other projects.
    Governor Almond. We're going to keep going with that. The 
rail project is on target. I mentioned to the Secretary at 
breakfast this morning that the bond issue that we passed was 
$72 million. Twenty-two million will be for interior 
improvements within Quonset Point in addition to the third 
rail; and I suggested to the Secretary that that might be a 
great place for some demonstration grants relative to third 
rail and the highway access and the intermodal access within 
Quonset Point. Because I, you know, here we're talking about a 
base that was discontinued, you know, hurt the economy of the 
State of Rhode Island. And we're not going to cry over spilled 
milk; but it is a base and we're trying to reuse that base in 
the best interest of the Nation and is requiring a significant 
investment by the State of Rhode Island. And I do think that 
the Federal Government has an obligation to work with us on 
base issues and get that base very productive for the economy 
of the Nation. And I think it's a great place for a partnership 
between the states and the Federal Government.
    Senator Reed. Thank you, Governor.
    Governor Almond. On many issues.
    Senator Chafee. I must say it's the essence of 
intermodalism. That was a word that I didn't know what it meant 
until I got into this business; but there you've got a port, 
you've got the piers, you've got an air station--a runway,.
    Governor Almond. Airport.
    Senator Chafee. Runway, an air field; and you've got rail 
plus trucks. So you've got everything. Also the possibility is 
going to be how it's developed in the future and which is going 
to be more important; and we don't know yet at this point, so 
we've got to maintain all of those assets and build that port 
for the future. And I would remind you that the Quonset Point 
has one of the largest runways in the Nation and at one point 
was very, very significant to the national security of our 
Nation.
    Representative Weygand.
    Representative Weygand. Thank you, Senator. The fact that 
Quonset is in the Second Congressional District in the Town of 
North Kingstown where I reside has nothing to do with my 
interest in this great economic potential; but I wanted to, 
first of all, tell you, and I think I've already mentioned to 
Bill Ankner as well as I know Congressman Reed, and I have been 
working on securing the additional $10 million of Federal funds 
for the third track project. And right now the administration 
has in fact kept that in the budget. Being on the Budget 
Committee, we're watching that closely. We've talked with the 
Transportation Committee members; and we hope and believe that 
that is still on track to complement the already $13 million 
worth of funding that the Federal Government has given to 
Quonset Point. So we're looking forward to another $10 million 
this year.
    Governor Almond. I know there's a great deal of competition 
for these funds; and as Senator Reed knows, I've been down 
testifying before Congressman Wolf's committee. Here we have a 
situation where high speed rail is so important to the whole 
Northeast Corridor, the Nation's economy and because 
electrification of the corridor is requiring us to go into the 
third rail, which we otherwise would not have to have gone 
into. So I can see from the standpoint of base reuse the 
electrification project, which is going to be a great benefit, 
that Federal funding to assist us with the third rail fits in 
with all those programs on a national basis.
    Representative Weygand. It's critical; and I know we're all 
here singing to the chorus because we all believe in this 
project. One of the things you mentioned, though, Governor, was 
flexibility and creativity being maintained within the ISTEA 
authorization. And that's critical for you, as Governor, to be 
sure that we can have the flexibility to do various projects 
within the state. And you mentioned specifically something that 
I hold near and dear to me, that is the roadway connection from 
Route 4 to Quonset Point and whatever degree or scope is most 
effective to get that done. I'm assuming by your statements 
that you still feel that as a top priority with regard to the 
economic development of Quonset Point. And if you have that 
flexibility and creativity, that you're going to be putting 
money toward that project to streamline that and get that on 
track as fast as possible.
    Governor Almond. Absolutely. I think the activity at 
Quonset has been greatly heightened in the last year, year and 
a half, especially with the bond issue. So we're going to be 
looking at how to develop Quonset Point. And depending upon 
what that development is, it could very well be 15 years from 
now. The airport now is most important or it could be Route 4 
or it could be a port or hopefully all of them; and we have a 
very, very vibrant port down there that's going to be helpful 
to the economy.
    Representative Weygand. The acreage that we have at Quonset 
is so vast that many of the businesses will in fact be water 
dependent; but some of them will not. And perhaps even 50 
percent or more will not be. So not only rail, but more 
importantly road. If you can't drive there in an effective and 
efficient way, it's going to be difficult for us to get people 
there. So I'm hoping with the creativity and flexibility that 
you will have under ISTEA that we will indeed have funds. 
Because as John Chafee has said, there are four modes of 
transportation, water, air, rail and road. And without one of 
those, road, it would be very difficult to seek or see the 
potential for that facility down there. Thank you, Senator.
    Governor Almond. It's in the rough; and I think it's 
getting better and better every day.
    Representative Weygand. Three rules of real estates is 
location, location, location. If you can't get there by road, 
you don't have the location. We need to have the roads.
    Senator Chafee. OK, fine. I would mention, Governor, that, 
also call the Secretary's attention to it, that $72 million for 
us is a lot of money. We're not New York or California. And 
even for somebody from Washington, like we all are, 72 million 
for this state is a, I guess it's one of the largest, I don't 
know whether it is, bond issue we've ever done. I don't know, 
we may have had bigger ones, but not many.
    Governor Almond. It's certainly large. It was a major step 
forward for the State of Rhode Island. You know, I'd also like 
to say to the Secretary that it's not just a question of us 
with our hand out. I currently have a budget before the General 
Assembly, and I'm asking for an additional penny of the gas tax 
for the next 5 years to come over to transportation. So we want 
to move much more of our money that we get in the state from 
the general fund over to the transportation projects. And by 
working together with the Department of Transportation, I think 
we can accomplish an awful lot that will be very, very 
important not only just to our state but to the Northeast and 
to the national economy.
    Senator Chafee. And that third track is a 50/50 project, 
that's not----
    Governor Almond. 80/20, 90/10, we'll certainly support 
that, Senator.
    Senator Chafee. I suppose you would. I suppose you would. I 
was going to say, it's so modest, Northeasterners are so modest 
they have come in 50/50. You see those Southerners, they come 
in, it's an outrage if it's not 70/30.
    Fine, thank you very, very much, Governor. I appreciate 
your coming. I know you've got a busy schedule. If you want to 
move on, we understand.
    Governor Almond. Thank you. I really appreciate the 
opportunity to be here this morning.
    Senator Chafee. We're delighted to welcome our 
distinguished Secretary of Transportation, Mr. Rodney Slater. 
It was our privilege to work with him when he was Administrator 
of the Federal Highway Administration; and he's had a very, 
very distinguished career in connection with transportation 
overall. So, Mr. Secretary, thank you very much for gracing our 
meeting with your presence; and it's been a pleasure to work 
with you, and as I say, when you were wearing your other hat as 
Federal Highway Administrator and now you're in this 
distinguished job as Secretary of Transportation. So we welcome 
your testimony.

STATEMENT OF HON. RODNEY SLATER, SECRETARY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Secretary Slater. Thank you very much, Mr. Chairman. I'd 
like to thank you especially for the opportunity to be here 
today with you and your colleagues, Senator Reed and 
Congressman Weygand, to testify on the importance of 
reauthorizing ISTEA. It's a truly landmark piece of legislation 
that you played an instrumental and central role in shaping 6 
years ago.
    I'd also at the outset like to join the Governor, Governor 
Almond, in congratulating you on being named the 1997 recipient 
of the Rails-to-trails Conservancy Transportation Enhancement 
Leadership Award presented to you just yesterday. And let me 
just say that it is a pleasure, frankly, to be in a state that 
clearly has used all aspects of ISTEA to the fullest and have 
allowed us to become more innovative and forward thinking in 
our transportation policies. So I commend all of you here in 
the great State of Rhode Island in that regard.
    Today I'd like to make some brief remarks regarding NEXTEA, 
National Economic Crossroads Transportation Efficiency Act, 
that President Clinton presented to the Congress just a few 
weeks ago to succeed ISTEA and to actually build on this 
landmark piece of legislation. I also have a longer statement, 
Senator, that with your permission I would like to submit for 
inclusion in the record.
    Senator Chafee. Definitely.
    Secretary Slater. I want to express my appreciation again 
to you, Mr. Chairman, and to others from this great state for 
playing a leadership role and fully implementing ISTEA over the 
last 6 years, giving us insight as to how to proceed as we go 
forward into the 21st century. I also would like to especially 
thank you for introducing our NEXTEA proposal along with 
Senator Moynihan; and I know that you did not just submit this 
legislation upon request but that you also tied your name to 
it. And I very much appreciate that. I also know that you have 
introduced another proposal called the ISTEA Reauthorization 
Act, some call it ISTEA Works and the like, which shares many 
of the themes of NEXTEA. And, again, we in the Department of 
Transportation and in the administration look forward to 
working with you and your colleagues as reauthorization 
proceeds.
    As President Clinton said in unveiling our reauthorization 
proposal, this piece of legislation ``will create literally 
tens of thousands of jobs for our people, help to move people 
from welfare to work, protect our air and water, and improve 
our highway safety. This transportation bill literally will be 
our bridge to the 21st century,'' close quote.
    Over the last 5 days, sir, I have traveled to ten states 
throughout the Northeast from Maine--from Maryland to Maine; 
and I've seen how true the president's statement rings as 
relates to all that this region has done to fully implement and 
to fully carry forth the principles and ideas of ISTEA. I've 
seen the reconstruction of a 75 year old Philadelphia train 
line, a new subway connection in New York along the most 
crowded subway line in America, with the reconstruction of I-95 
in Bridgeport, the modern day road linking Boston to New York, 
in cities all along the way. I've also seen a very impressive 
intermodal center at Auburn and Lewiston, Maine. But in Rhode 
Island I have seen ISTEA at work as well.
    ISTEA has supported such projects, many of them mentioned 
by the Governor, such as improvements on I-95, the T.F. Green 
Airport terminal, which I hope to see as completed as I leave 
for Washington today, also the Kingston train station and the 
Woonsocket Market Square Common, the project that I saw just 
yesterday, sir, a transportation enhancement project.
    I've also heard from you this morning regarding Quonset 
Point; and I'm very pleased that we have been a good partner in 
that regard. It is a water, air, rail and roadway facility that 
is important to the Nation as a whole; and I underscore that. I 
also know that you need the third rail portion of the project 
as well as the access roads; and we can make a commitment to 
work with you in that regard.
    Then you've got the train station possibility leading to 
the airport. Hopefully we will be able to work with you on that 
project as well.
    The I-195 stretch of roadway through Providence, which is 
the second most traveled segment of roadway in the Northeast, 
we look forward to working with you as you deal with that 
challenge as well.
    So in a nutshell, as the President has said, all of these 
projects in Rhode Island, as the President noted, create jobs, 
help to move people, helping to move some of them from welfare 
to work, protect our air and water, and improve our highway 
safety. And, Mr. Chairman, if I may, I'd like to mention that 
along with Gordon Hoxie, who is our Federal Highway 
Administration Division Administrator, we have Dan Berman here 
today, who is our Assistant Division Administrator, as well as 
George Luciano, who is the Regional Administrator for NITSA; 
Mary Beth Mello, who is the Federal Transit Deputy Regional 
Administrator; and Mark McGowan, who is the Federal Rail 
Regional Administrator.
    In closing, let me just say that the President has said, 
``Make no mistake about it, this is one of the most important 
pieces of environmental legislation that will be considered by 
the Congress in the next 2 years. And I think it should be 
thought of in that way.'' NEXTEA clearly builds off the 
successes of ISTEA. It is a $175 billion program over 6 years; 
and if Congress moves forth on our proposal, it will mean about 
$710 million for Rhode Island, supporting some four thousand--
4,800 jobs.
    We have a 30 percent increase in the core highway program, 
a 17 percent increase in the transit program, 25 percent 
increase in the safety program, 30 percent increase in the 
environmental program. This is truly about protecting the 
environment by increasing funding to help communities clean up 
their air, reducing the barriers faced by those moving from 
welfare roles to payroll roles, to a program to get people 
where the jobs are, bringing a common sense approach to the 
government by cutting red tape and promoting innovation.
    In closing, sir, again, it is my honor to work with you and 
the other members of this distinguished delegation to ensure 
that NEXTEA lays the groundwork for a transportation system 
that allows us access to markets around the world because we 
build on the innovative work of ISTEA and the work that you put 
forth. I am assured that, as the President says, ``our best 
days as a Nation are yet ahead of us.'' Again, Mr. Chairman, I 
appreciate the opportunity to appear before you and the members 
of your distinguished delegation.
    Senator Chafee. Well, thank you very much, Mr. Secretary. 
Mr. Secretary, I'm very worried about the interstate highway 
program and the maintenance of it. I suspect we put in, we 
being the United States of America, the Federal Government, has 
put in about $100 billion and what is overall 43,000 miles.
    Secretary Slater. Yes, sir. It's about $129 billion or $130 
billion.
    Senator Chafee. For that 42,000 or 43,000 miles. And yet in 
many of the proposals that have come up the Interstate 
Maintenance Program is abolished; and it's just folded into the 
surface transportation program. Could we have your thoughts on 
the Interstate Maintenance Program?
    Secretary Slater. Yes, sir. Senator, I join you in voicing 
concern about the elimination of such a program. The interstate 
system is our safest road transportation system in the United 
States and really the safest in the world. It represents 129, 
$30 billion investment. It is a system that is in need of 
repair. And the best way to address its needs is to have a 
special program to deal with a system that carries really about 
30 percent of all the traffic in the United States and a system 
that is only 1 percent of the total highway miles in the United 
States. When you couple that system, which gives us access 
across the length and breadth of our Nation, with the new 
national highway system that was a part of ISTEA, you really 
start to get a system that begins to connect all of the modes 
of transportation. And that too is very essential. Under our 
NEXTEA proposal we provide that 80 percent of the $175 billion 
program, which is an 11 percent increase over ISTEA, that 80 
percent of that money should go to the core program, meaning 
the Interstate Maintenance Program, the NHS Program, the Bridge 
Program, and then the STP Program. And what we try to do there, 
Senator, is to address the very concerns that you raise. 
Preserving the system we have and then working to enhance that 
system.
    Senator Chafee. I suspect many people aren't aware that 
portions of that interstate highway system are 40 years old.
    Secretary Slater. That's correct.
    Senator Chafee. Mr. Ankner will be here; but I think that 
I-195 is over 40 years old. That was really built before the 
interstate system.
    Secretary Slater. That's correct.
    Senator Chafee. And so 40 years is a long time for a 
highway.
    Secretary Slater. It is, sir. And I was about to say that 
you actually have some stretches of the interstate in this part 
of the country that are older than the original interstate 
system; because they were in place as either turnpikes or some 
other sort of multi-lane system prior to the enactment of the 
interstate system in 1956. And so we do have to pay special 
attention to those roadways in this part of the country where 
you have climatic and also geographical challenges as well.
    Senator Chafee. The next panel, one of the succeeding 
panels, Dr. Beverly Scott, who is the head of our Rhode Island 
Public Transit Authority, is going to testify. And in her 
testimony she highlights a $10 million cut that RIPTA will take 
under the NEXTEA proposal. And I'm no expert in all of this; 
but it's my understanding that the small--under your plan, the 
NEXTEA proposal, the smaller transit systems are protected, the 
larger ones are somehow figured that they can handle it, and 
the medium ones, such as we have, take a pretty severe cut. Can 
you explain the theory behind that so I have it right?
    Secretary Slater. Sure. Well, first of all, the assumption 
that that is the case is not altogether correct. What we do is 
we, and I think we're using innovation and creativity here in 
an effort to continue to increase benefits to transit. What we 
have done is to broaden the definition of capital investment to 
include maintenance and preventive maintenance as you have on 
the highway side of the ledger. So we make them uniform. We 
also, in eliminating operating assistance through our 
redefinition of what capital represents, we're able to actually 
provide more dollars to transit authorities to deal with both 
their operating and capital needs. We do make a distinction in 
areas that are more than 200,000 in size. In those instances it 
is really the broader definition that helps. When it comes to 
those properties that are located in locales less than 200,000 
in size, we actually make no distinction whatsoever between 
capital and operating assistance. So through the redefinition 
of our program and its provisions, even though we do away with 
operating assistance or reduce that somewhat, because we define 
what capital represents, states like Rhode Island and the 
system that you mentioned will actually get more resources. We 
do have to do a better job though of communicating that; 
because traditionally in the transit area we have had an 
operating category as well as a capital category for funding.
    Senator Chafee. Well, I think you do have to do a better 
job of explaining it; and I understand what you are saying.
    I'd just like if you could say a couple of words about the 
Congestion Mitigation Program and briefly explain what that is. 
And then I think that's in peril. As you know, we had hearings, 
and I wasn't at the hearing in Boise, but in the cities it's 
fine but I just wonder what's in it for a state like Montana, 
Wyoming, maybe Colorado. I don't know, can you just say a few 
words? Because I think it's important to get it on the record 
about the Congestion Mitigation Program, which is important to 
us.
    Secretary Slater. Yes, sir. First of all, let me say that I 
think the Congestion Mitigation Program is important to the 
Nation as well; and that's why we proposed a significant 
increase in our program, about a 30 percent increase. No. 1, it 
allows us to deal with environmental concerns at the same time 
that we try to enhance and improve the transportation system. 
Unfortunately, that was not the policy nor the procedure of the 
country in the past; and that's why we have some of the 
environmental problems that we now have. This effort, this 
program is designed to address those concerns so as to ensure 
that we abate the problem and hopefully over time fully 
eliminate the problem of air quality and the like as relates to 
transportation improvements.
    It is true that there are those who believe that this 
should be merely an eligible item for funding rather than a 
required item for funding. We believe that it is of such 
national importance and significance that it should remain a 
form of funding that is set aside for the particular specific 
purpose of helping cities and locales deal with their 
environmental and air quality concerns.
    You noted earlier that here in Rhode Island much of the 
problem that you have to deal with deals with the movement of 
air polluted as it is into the area from other parts of the 
country. That is a burden that you should not have to bear 
alone. And so the CMAQ program allows from a national 
perspective this national concern to be effectively addressed.
    Senator Chafee. Well, thank you very much, Mr. Secretary.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Welcome to Rhode 
Island. I hope you had a chance to get a good meal here.
    Secretary Slater. Oh, yes. Oh, yes, and a good night's 
sleep. I've been on the road for the last 4 days.
    Senator Reed. We'd love you to come back anytime. I want to 
followup on an issue that Dr. Scott will raise. That is, a 
definition of those communities of 200,000 and what is 
preventive maintenance. There's a real danger that it will be 
narrowly construed and as a result it would not represent the 
kind of offsets to the elimination of the subsidy that you were 
speaking of at this moment; and I would urge you to work 
together with the appropriate committees to insure that this 
preventive maintenance approach does in fact compensate for the 
foregone operating subsidies. And I think you understand that; 
but it's very important.
    Secretary Slater. I definitely understand it; and if I may, 
Senator Reed, let me just say that I remember when I, going 
through my confirmation hearing for Federal Highway 
Administrator about four and a half years ago, and I read the 
testimony of Secretary Pina as he had gone forward in the 
confirmation hearing for Secretary of Transportation at the 
time. And I recall specifically some pretty clear statements 
that were made by you, Senator Chafee, regarding the Federal 
Highway Administration and the way that we had dealt with these 
kinds of innovative and sort of visionary approaches to 
assessing and moving forth in judging the quality of the 
provisions of ISTEA. And we were challenged by that statement. 
And I would hope that over the last 4 years we demonstrated 
ourselves worthy of meeting that challenge and carrying out the 
responsibility of helping to redefine the culture, working 
closer with our state and local partners so as to better 
understand what their hopes and dreams and aspirations are for 
their transportation system. I can tell you that we engaged in 
the most extensive outreach effort in the history of the 
agency. And we're doing so now as a department to address the 
very concerns that you raise, Senator Reed. We don't want a 
visionary piece of legislation to become static and to become 
less than it could possibly be because those with the 
responsibility of carrying through on it working with our state 
and local partners view it from a very narrow perspective. And 
so I commit to you that we will be as vigilant as we have been 
in the past, this time as a department carrying forth the kind 
of legislation that we hope to draft during the reauthorization 
process. And I appreciate your points in that regard.
    Senator Reed. To followup on the understanding, we worked 
through a broad definition, I just hope also that the 
anticipated budget will sustain that broader definition of the 
maintenance so that we're not simply taking away the operating 
subsidies and then talking about a rather nebulous definition 
but there's no resources to fully compensate.
    Secretary Slater. Your point is well taken there; and 
that's why, as we do away with the issue of operating funding, 
we are increasing overall funding by 17 percent for transit to 
do exactly what you say at this point.
    Senator Reed. Let me just followup on another point, Mr. 
Secretary; and, that is, our state police, our excellent state 
police, we seem to grant the Federal Highway Administration to 
their commercial enforcement. And it seems that these moneys 
are under great pressure now. I wonder if there's anything that 
you could do upon return to Washington or the collaboration 
with the Congress to assure that we continue to fund this 
program. It's very worthwhile in terms of enforcement and 
safety, and particularly important in this region of the 
country as we talked about maintenance of our highways. One of 
the major problems we had was heavy overloaded trucks, large 
trucks; and without good effective enforcement, we can't do 
that. And we'll end up spending more money fixing the roads.
    Secretary Slater. That's a good point, Senator. I think 
we're talking about the secondary MCSAP category of funding 
that I think Rhode Island and about seven or so other states 
receive. What we strive to do with that program is to, the 
seven or so states, including Rhode Island, beef up their 
enforcement capability. We have said, though, over time that we 
hope to eventually eliminate that program; and that's where we 
are now. Let me just assure you that as we move forward in this 
way that we will work very closely with Rhode Island to insure 
that they are not adversely affected by this. There are many 
other ways that we can be supportive I think to the state that 
would be helpful. A couple of examples, and we've done some of 
this in the past, but we have a few other innovative categories 
within NEXTEA, one dealing with a trade corridor and border 
infrastructure activities. There may be a way there to assist 
your motor carrier operation with additional resources. Also, 
we are trying to bring more intelligent transportation system 
technology to the border and to states that are along the 
various international corridors. We are making all ITS 
transportation system investments eligible for all major 
funding categories; and, there again, may be an opportunity for 
us to help minimize the adverse impact of phasing out this 
particular program. And we would be willing to work with you 
and the staff here in the state to do that.
    Senator Reed. Thank you, Mr. Secretary. One final point. I 
too want to emphasize the importance in this state of 
developing Quonset Point. I recall 4 or 5 years ago when we 
started in the House of Representatives, of course, moneys, it 
was long before even state was putting money into the program. 
With now a lead appropriations fund, the Federal Government 
contributes up to $13 million. The state has responded with 
their recent bond passage last November. But this process has 
been ongoing. It started with Federal action, now I'm pleased 
to see that we and the state are full partners. The other 
aspect of the partnership is that we have done this in 
conjunction with Amtrak high speed electrification. We're 
compelled to do it because we cannot miss the opportunity when 
they're reconstructing the passenger line and freight line. So 
with continued support, the appropriation process is important 
for the state. In addition, it's important I think to work 
together with Amtrak for their projects also. So your emphasis 
I hope on a corridor will also be well placed.
    Secretary Slater. In that regard, Senator, let me say that 
I have traveled up the corridor over the last 5 days, I 
actually traveled on Amtrak from D.C. all the way to New York 
City; and we did discuss these concerns en route. We also 
discussed high speed rail, Senator Chafee; and I know that 
you're very interested in that.
    And let me just, if I may, make one point about a broader 
vision and mission that I had for the development of the 
Department of Transportation, and the NEXTEA reauthorization is 
really central to it. But it is our desire as a department to 
become visionary and vigilant as a department working with our 
partners to do things that are innovative and creative so as to 
stretch the Federal dollar and enhance the capacity of our 
system in different ways other than just more and additional 
lane miles. And so we want to work with you in that regard. We 
have as a mission the development of a transportation policy 
architecture for the 21st century; and there again, I think 
that it will require that we look beyond highways solely to 
meet our transportation needs as we go into the 21st century 
and that we do more of what you're doing here, try to strike 
better public/private sector deals to move projects along, 
focusing more on intermodal transportation, being more 
sensitive to the environmental things that you're doing are the 
kinds of things that we want to become a matter of course as we 
go forward rather than just the exception for clearly a leading 
state but a state that needs to have replicated these kinds of 
policies throughout the Nation. And so I accept the comments 
that you've just made regarding the corridor and Quonset Point 
in that regard and assure you that we will work with you as we 
have in the past to ensure that this project is brought to 
fruition not just for the benefit of the region but also the 
benefit of the Nation.
    Senator Reed. Thank you, Mr. Chairman. Oh, Mr. Secretary, 
this partnership notion I think also has to apply to Amtrak as 
well as the state.
    Secretary Slater. Yes, sir.
    Senator Reed. It should be clear, at least in my view it's 
as important as passenger electrification of that line, a 
freight line is deeply important in Rhode Island; and my view 
is they have to go forth together. And we hope we can work with 
Amtrak, your department, and the states to advance both these 
important projects.
    Secretary Slater. We look forward to that. Clearly your 
position on the Banking Committee is very important in that 
regard; and we look forward to working with you.
    Senator Chafee. Thank you. Less anyone think that all of 
the support for the third rail comes from the House, I would 
point out that the Senate has always been more generous in its 
appropriations for the third track than, I like to call it the 
third track, third rail gives you the impression it's some rail 
in the electric thing, it's a third track, and the Senate has 
always been more generous. I must say Mark Hadfield was a 
wonderful supporter of that. Now he's gone; but we'll continue 
our fine tradition along those lines.
    Representative Weygand.
    Representative Weygand. Thank you, Senator. Just a couple 
of questions, Mr. Secretary. Again, thank you for the honor and 
the pleasure of having you here today. This is wonderful of the 
State of Rhode Island to have a cabinet member here; and we 
appreciate your being here. I would like to followup on a 
couple of things with regard to a rail and then I want to talk 
about maintenance of highways.
    One of the things that we have heard a lot today is the 
importance of freight rail to Quonset Point, the third track 
project. One of the things that has come to our attention with 
the takeover of Conrail by CSX and also the problem with 
Norfolk Southern is that there is only one spur that goes from 
Albany to Boston that really serves the operating service of 
the State of Rhode Island. That may be in fact owned by only 
one company in the future. That would provide a real bottleneck 
in terms of rates and fees and making potentially Quonset Point 
and the Northeast a very viable location for industry. In fact, 
we'd have only one person bringing in freight and we'd have to 
pay the toll, whatever they happen to say it is, high or low, 
whatever it may be. We're very concerned that that merger or 
that takeover will in fact jeopardize or could jeopardize not 
only for Rhode Island but the entire New England area, Boston, 
Maine, etcetera; because that one line is the sole line that 
services us even though we have spurs that come off it down to 
Rhode Island. I would hope that the administration and 
particularly the Transportation Department would look into and 
assure that there would be equity in the way rates and fees are 
structured so that in fact the viability of Quonset Point on 
other industries along the Northeast Corridor are preserved. So 
I mention that to you not as part of ISTEA but as a concern 
about transportation.
    Secretary Slater. I understand. And, Congressman, if I may, 
let me just say that we are following that development very 
closely; and the kinds of concerns that you've raised are also 
matters of concern for us. So we would look forward to working 
with you and other members of the delegation and those 
throughout the region to ensure that when it's all said and 
done that we have a pro consumer, pro competition environment 
that's creative as a result of this merger.
    Representative Weygand. See up to New York state, as you 
may well know, Mr. Secretary, up to New York state, Port of New 
York, and New Jersey there is competition. After that, coming 
into the Northeast there is no competition with only one 
provider of rail. So we don't want to go back into 
overregulation; but at the same time we don't want to be held 
hostage, in fact, have the viability of a great port, whether 
it's Port of Providence, whether it's Quonset Point or Boston 
and Quincy, all of those areas would be stifled tremendously if 
we do not have open and fair competition; and we're concerned 
about how that's done. And I want to echo Jack and John's 
comments about mass transit; and I know that Dr. Scott will 
testify eloquently about our concerns in that respect with 
regard to RIPTA. But I want to get into something that I know 
you mentioned at the very beginning; and, that is, to expand 
the core programs, particularly with regard to maintenance. You 
can talk to most people throughout the State of Rhode Island 
and they will say, ``Why can't we maintain our roads better''; 
and I'm sure that is echoed in every state throughout the 
country, particularly in the Northeast where we have very 
difficult weather, we have frost heaves that erode our roads, 
we have climatic conditions that are not very sensitive to 
roadway tricks. Now, as part of the core program in NEXTEA what 
you've done is increase that element by 30 percent more than it 
had been in the past. Will there be mandates within that core 
program with regard to the moneys that would be truly spent on 
maintenance; or would it be really left up to the Governors and 
transportation directors to be more fluid with that? Because my 
constituents of this congressional delegation will tell you we 
need to maintain better our roadway system, bridges, etcetera 
with Federal dollars, not just with state dollars.
    Secretary Slater. Your point is well taken there. Let me 
just say that our objective is to bring as much flexibility to 
the process as possible, to create a process that is open, that 
is balanced, that involves public participation, participation 
by state and local officials and the like. But there are 
national interests. And what we have tried to do is to strike 
the appropriate balance with, again, a program that's $175 
billion. That's an 11 percent increase over ISTEA. That 
includes all of those provisions of ISTEA that I've just 
mentioned, extensive planning, comprehensive planning, great 
flexibility, the public involvement, all of those things, but 
at the same time keep focus on what had--what have to be 
national concerns, connectivity, the condition of the system 
overall, how the system begins to interrelate, focusing on 
intermodal connectors and the like, how we then have a system 
that gives us access to world markets. Those are matters of 
national concern, how this system and its investment impacts 
the environment, our water and air and those kinds of things. 
And so the way we have balanced it is to take the $175 billion 
program that we proposed and to require that 80 percent of the 
resources are spent to preserve the system that we have. And 
that is of special interest to those in the Northeast because 
of some of the challenges you face. But I hasten to say that it 
also is a matter of concern for citizens throughout the 
country; because the interstate system is 40 years of age and 
it is experiencing sort of a mid-life crisis, if you will. And, 
so, we're going to hold firm on that. We believe that there is 
a legitimate national interest to warrant it even at the same 
time that we as an administration continue to work better with 
our state and local partners.
    Representative Weygand. Thank you, Mr. Secretary.
    Senator Chafee. Thank you, Mr. Secretary. I just want to 
say one thing, Mr. Secretary, two things I guess. First, should 
the administration decide that the Chafee bond funding proposal 
we set forth is the way to go, any assistance you can give us 
in that with the Budget Committee and so forth would be 
tremendously appreciated.
    Second, I just want to say how strongly I feel about the 
experimentations, the intelligent highway systems that you've 
been working on. I had a chance a couple of weeks ago I was in 
California and there saw the system you have that actually, 
it's a privatized system which you're familiar with, where cars 
can go through toll booths at 70 miles an hour. They have 
transponders on the windshield, and that's all electronically 
picked up. And the other systems that they have, such as their 
experimenting with putting every four feet down the middle of a 
lane a magnet and then you put some kind of a magnet in front 
of your car and that keeps you right down the middle of the 
lane.
    Representative Weygand. Auto pilot.
    Senator Chafee. No hands. And then they've got a further 
thing, which thank goodness they weren't doing when I was 
there, which is you have some kind of a radar system on the 
front of your car so you can go 60 miles an hour eight feet 
behind the car in front of you. I was glad I didn't have a 
chance to test that. And then the magnetic levitation that we 
saw in Bremen, Germany where the train rides on a cushion of 
air. And the one we were on went 215 miles an hour. And it just 
seems to me that yours is the department where we're going to 
get the funds for these type of developments. And I know you're 
interested in them. I just want to give you every bit of 
encouragement to continue that kind of work.
    Secretary Slater. Well, Senator, in that regard let me just 
say that we appreciate your leadership; and the Chafee bond 
proposal is one that we're looking at very closely. The 
administration has made its initial judgment, though, as you 
well understand, to try to come forth with our program in the 
context of the balanced budget commitment that we've made. But 
clearly the proposal that you put on the table where we 
basically spend the amount that is collected on an annual basis 
and we leave intact that which is currently in the trust fund 
so as to account for any number of other measures that might, 
and concerns that might be of importance, I think that that is 
very helpful. And it would bring more dollars to the table; and 
I'm sure that we will look at that very carefully over time.
    The last point that I'd like to make, if I may, and I think 
this fits well with the point that Congressman Weygand had just 
made, and that is with an 80 percent focus on the core program 
so that everybody knows that we are protecting the investments 
that we've already made, I do think that we have the 
opportunity to do as you suggested, and that is, to try to make 
sure that we are at least with or ahead of some of our 
competitors around the world investing in things like mag life 
and high speed rail and Intelligent Transportation Systems that 
will be dominant features of the system for the 21st century. 
Otherwise, we'll find ourselves as we enter the century behind 
in the race rather than leading the race. So we appreciate your 
leadership in that regard.
    Senator Chafee. Thank you again, Mr. Secretary. I know 
you're busy, you have to leave, so we excuse you and wish you 
well and thank you again for coming.
    Secretary Slater. And, Senator, as I finish, what I'd like 
to do is give you what we have put together, which is a list of 
best practices out there connected with ISTEA; and what we 
selected as a theme was to find the good and to praise so that 
others around the country could emulate the practices of 
others. And I'd like to just share this with you. There is a 
chapter that deals with Rhode Island that is very, very good 
and comprehensive.
    Senator Chafee. Thank you very much.
    Now if we could have the next panel come up, Dr. Ankner, 
Dr. Scott, Colonel Culhane, and Ted Sanderson. We're going to 
move right along now. All right, please take your seats; and 
the way it often happens in hearings, the last panel gets 
caught short. So we want to leave time for the last panel, the 
next panel.
    Representative Weygand. Senator, what I'd like to do is 
submit to you the testimony from the Governor's Commission on 
the Handicapped. They won't be able to testify today; but 
they'd like to submit their comments for your consideration.
    Senator Chafee. Thank you very much. This will definitely 
go on the record.
    All right, Dr. Ankner; and, Bill, go to it.

STATEMENT OF WILLIAM ANKNER, DIRECTOR, RHODE ISLAND DEPARTMENT 
                       OF TRANSPORTATION

    Dr. Ankner. Thank you very much, Senator, for being here. 
Again, congratulations on your honor yesterday for the 
enhancements.
    Senator Chafee. Thank you.
    Dr. Ankner. Congressman Weygand, good to see you, sir. It 
is a pleasure for me to be here this morning on behalf of the 
Rhode Island Department of Transportation to express my strong 
support for the reauthorization of ISTEA, as the Governor said, 
without significant changes. Passage of ISTEA marked a sea 
change in the way the Federal transportation dollars can be 
spent. As opposed to relying on strict funding categories 
determined by Washington, ISTEA allowed the states the 
flexibility to define their transportation needs and finance 
most of them.
    This is one of the points where alternative transportation 
proposals, such as those offered by Step 21 coalition and 
others, fall short.
    It is as though we have not learned and grown through the 
ISTEA process over the past 5 years. Such proposals are 
returned to the old ways of doing business, definitely not the 
good old days. Simply put, the opponents of ISTEA just don't 
get it.
    The Step 21 plan, the deevolution of it, allows money to be 
spent on air quality programs but doesn't mandate such 
programs. It speaks of public involvement, but basically cuts 
all of the essential public requirements gained through ISTEA.
    Vague language replaces specific requirements and policies. 
Transit issues are not even addressed. Environmental issues are 
ignored. Specific programmatic goals and policies are negated 
and deleted. All that is of interest is the money. And there it 
will be Jerry McGuire also, Step 21 was ``show me the money.'' 
We've developed partnerships as a result of ISTEA. They're 
strong and necessary between ourselves and the public 
participation, allowed us to make important prioritized 
decisions within a financially constrained budget under the TIP 
process. As I understand the proposals of other proposals, this 
kind of process would disappear. Again, they just don't get it. 
And to finally bring the public participation into the 
transportation decisionmaking process under ISTEA, they want to 
go back to the days of rubber stamps and public disconnection.
    As noted by Governor Almond, some ISTEA alternatives, like 
Step 21, would structure the system based directly on each 
individual state's fuel tax paid into transportation. In 
essence the state would only get out what it put in.
    The state's transportation deficiencies and general need, 
the intermodality, the need for a national system have no role 
in determining the process of resource allocations.
    Again, they just don't get it. Single Occupant Vehicles, 
Vehicle Miles Traveled based funding sources or formulas would 
result in more pollution, negate all of the gains that the 
Governor pointed out for transit, increase energy usage, and 
basically devastate our mass transit program.
    We cannot turn our back on the progress we've made in these 
areas under the bogus refrain of equity. The ISTEA alternatives 
have no role for state and local governments managing their 
transportation systems. Technology solutions, such as the 
intelligent transportation system, seem absent from their 
programs. They just don't get it. We can't build our way out of 
congestion. We must manage our transportation systems. For 
example, it has been shown that simply synchronizing our 
traffic lights can restore 10 to 15 percent of the capacity 
during the average commute. Every 1 minute improvement in 
incident response time saves 4 minutes of congestion. These are 
the kinds of improvements we must be focusing on.
    The ISTEA alternatives would also undercut national needs 
for local preferences. Here again, they just don't get it.
    The basic structure of ISTEA is similar to that of an 
orchestra with a combination of talented musicians and artful 
conductors performing together at a symphony.
    The non-ISTEA solutions are akin to several individual 
musicians playing their own tunes, with the hope that they will 
somehow blend together as a unit. I believe we should do more 
than hope that our national transportation needs are being met.
    The world has shrunk. And as, Senator, as you have pointed 
out, and, Congressman commented on this morning, there is an 
increasing interdependency of our transportation system. 
Improvements made in California are certainly--will certainly 
affect transportation of goods and people in Rhode Island. In 
concert with the Federal Government, we must continue to 
recognize and promote the interdependency.
    ISTEA works. ISTEA works for the Nation. ISTEA works for 
highways, bridges that connect our cities. It works for 
transit. It works for Rhode Island. And it also works for 
smaller communities.
    The transportation enhancement program has probably done 
more good in this regard than any other program in allowing 
Federal dollars to meet local needs. Projects such as the 
Market Square Commons project in the state won't happen under 
many of the ISTEA alternatives. However, these kinds of 
projects can revitalize a large city or a small town. It's a 
shame that those who want to reverse this program just don't 
get it.
    In closing, the opponents to ISTEA cite many restrictions 
and obstacles to implement ISTEA. We share some of their 
concerns. However, they blame the wrong thing. They blame the 
law when it's for the most part the regulations of the laws 
that cause most of the problems. We believe that shifting some 
of the regulatory burdens will improve, streamline ISTEA.
    And later I'd like to add to my written testimony by 
submitting a letter from ISTEA Works with proposed suggestions 
if I may, Mr. Chairman.
    Senator Chafee. That's in connection with the enhancement?
    Dr. Ankner. With enhancements and all sorts of 
streamlining.
    Senator Chafee. That will be good. That will be very 
helpful. You're going to submit that later?
    Dr. Ankner. Yes, sir.
    One of the things I would like to add to my final remarks 
that have not been addressed and to the best of my knowledge by 
any of my colleagues in the industry or in other hearings is 
the issue of accountability for the DOTs.
    There is a role, as we've talked about, and you've 
emphasized, as well as Secretary Slater, for the Federal 
Government to play of national interest, to go to the concept 
of two big block grants. To allow the states to do whatever 
they want to with those two big block grants I think denies the 
issue of accountability. I think the Federal Government has a 
right to see that it's getting the proper bang for their buck. 
And they have a right to insist on performance criteria for the 
allocation of Federal resources. This is not unfunded mandates. 
The dollars are there to finance this transportation system. We 
have a right to make sure that this transportation system, not 
just in Rhode Island, but throughout the country is in good 
condition, that it's maintained so that goods and people can 
move efficiently and effectively throughout this country. 
Performance measures and accountability should be woven into 
the ISTEA program.
    Senator and Congressman, I want to again thank you for the 
opportunity to speak here this morning. I would also like to 
submit for the record a letter to you and to the committee on 
behalf of the Governor's Office of Highway Safety in support of 
continued efforts on the part of ISTEA for highway safety in 
this state and the country.
    Senator Chafee. All right, we'll put that in. You want to 
get that?
    What we're going to do now is take all four panelists and 
then we'll have questions at the end of that.
    Dr. Scott?

   STATEMENT OF BEVERLY SCOTT, DIRECTOR, RHODE ISLAND PUBLIC 
                       TRANSIT AUTHORITY

    Dr. Scott. Thank you. Good morning, Senator Chafee and 
Congressman Weygand.
    As general manager of Rhode Island Public Transit 
Authority, RIPTA, I welcome this opportunity to share my 
thoughts with you on ISTEA reauthorization. I have submitted 
the full text of my testimony for the record and will try to 
keep my comments fairly brief this morning.
    Transportation has been my profession for over 20 years 
now; and having worked in transit systems and communities as 
diverse as Houston, New York, and Washington, D.C., I genuinely 
appreciate the compelling points of view and honest differences 
of opinion and perspectives that you and your colleagues will 
have to sort through and address during this reauthorization 
process. The stakes in NEXTEA are very high; and the task 
before you is most assuredly a difficult one.
    In thinking about what I could say this morning of value as 
you proceed with your deliberations on the ISTEA 
reauthorization, I decided not to focus on transportation 
funding formula and strategies, not that the how isn't 
important, because certainly it is. Notwithstanding, the real 
central issue before us in ISTEA reauthorization is not how we 
fund but what and who we fund. Candidly, transportation 
providers, all of us, regardless of whether we represent rail, 
highways, bus, water, or air, are simply a set of mobility 
options. Transportation services, tools in effect that fit 
particular mobility applications and needs, admittedly some 
better than others depending on the transportation need, 
community and customer preference, ISTEA is not about any of 
us. This legislation is about people, their values, the shape 
of the communities that we live in and the quality of life that 
we choose to live, support and pass on to future generations.
    For the first time in 1991 ISTEA made a revolutionary and 
critical connection between transportation, people, land use, 
quality of life and economic development and moved us forward 
in significant ways, as importantly, ISTEA's emphasis on local 
involvement and public participation and decisionmaking. The 
involvement of varied stakeholders in decisionmaking, not just 
focal ones and special interests, has helped us all as 
transportation organizations to improve our credibility, volume 
responsiveness and sensitivity to the communities we serve. 
Prior to ISTEA, the power, identities and potential impacts of 
transportation were badly fragmented. Bus versus rail, transit 
versus highways, ground versus air versus water, people versus 
goods. At the same time, and not surprisingly, prescribed 
funding methods and streams simply served to institutionalize 
these separations. We have come a long way; but all of this is 
still quite new. And as in any area, old habits are hard to 
change. Candidly, we're getting better; but we cannot be 
trusted just yet.
    My experience in the transportation industry strongly 
indicates that you must hold the course and in NEXTEA 6 years 
is certainly not enough. It's not enough time to modify 40 plus 
years of havoc.
    Stepping away from the big picture and looking specifically 
at public transit in Rhode Island, our statewide transportation 
system, one of only two in the United States, here at RIPTA and 
in Rhode Island we are at an absolutely critical juncture. 
Simply, in fiscal year 1999, transit in Rhode Island 
potentially hits the wall. At that point we literally face a 
loss of 30 percent plus of our annual operating budget, all 
attributable to the potential loss of Federal operating 
assistance and the cost of federally mandated programs. This is 
on top of an 18 percent general fare increase this past year 
and $1 million in service reductions in 1996.
    One of the real ironies for RIPTA and the State of Rhode 
Island is that we could preserve the bulk of our transit 
Federal operating assistance under the current proposals if we 
simply fail to coordinate and maximize operating efficiencies 
throughout statewide operation and simply dissolve into 39 
separate little transit systems, like the situation which 
exists in many other states. Generally speaking, from our 
vantage point, what NEXTEA proposals best preserve and position 
public transit in Rhode Island, first and foremost, retain 
flexibility, choice and local participation in establishing 
transportation priorities. Certainly we strongly advocate more 
transportation funding overall. But in the final analysis, 
whether funding goes up or down, it needs to remain flexible. 
Philosophically the driving force behind our state's 
transportation vision and plans should not be to first look at 
what is eligible for funding under some specific category of 
NEXTEA funding, instead the core issue and question should be 
what projects make good sense for our state and our 
communities. Then we should look to see how do we make it 
happen.
    Second, specifically preserve the transportation 
enhancement and congestion mitigation and air quality programs 
and continue to earmark funding for these purposes. This new 
thinking, if you will, does not become institutionalized and 
requires a longer incubation period to become sustainable over 
time.
    Regarding total funding levels, consider structuring a hold 
harmless consensus such that each state receives at least the 
same total dollars in NEXTEA that were received during Phase 1. 
Next, insist that any new definitions of capital maintenance 
funding, eligibility and special fare of transit funding 
support are broadly distinguished, particularly to the extent 
that flexibility in these areas are considered as offsets to 
the loss of Federal operating assistance.
    In the area of new funding initiatives, like welfare to 
work strategies, provide priority funding consideration for 
transit systems with a proven track record of proactively 
addressing these areas of concern.
    Before it was fashionable or eligible for special transit 
dollars, the State of Rhode Island aggressively pioneered 
innovative transit services, both type, method and delivery, to 
our disabled community. There was a statewide paratransit 
operation which provides for a single dispatching service plan 
and function and coordination of multiple funding streams which 
has reduced costs considerably. Our low income and welfare 
recipients through our statewide Right Care Program, which 
provides full transit accessibility for medical services and 
other essential mobility needs and our senior citizens, bearing 
in mind that our state has the third highest percentage of 
senior citizens 65 and over. Our state has been ahead in 
proactively serving the mobility needs of transit dependents. 
Over 20 percent of our daily riders are senior citizens.
    Finally, we believe that our industry should be held 
strictly accountable for both performance and results and that 
we must challenge ourselves to contain costs, improve 
productivity, and utilize new technologies to work smarter.
    At RIPTA, notwithstanding a looming deficit, we are not 
rolling over. Our mission is to provide the best service that 
we are capable of offering. That is our objective; and we 
welcome meaningful assessment of our performance.
    Thank you, Senator Chafee and Congressman Weygand.
    Senator Chafee. Thank you, Doctor. Now the statement you 
submitted was somewhat different; but I think you had a lot of 
good points in there. Maybe you could send that to us. And I 
would point out yesterday, as was mentioned before, we had a 
gathering in Woonsocket which was dedicated to the rails-to-
trails, and Dr. Scott showed up not only in person but she 
brought a bus that had a bike carrying facility on it. And 
pretty soon she mentions in here, I think you have 245 buses?
    Dr. Scott. That's right, sir.
    Senator Chafee. All of them are going to have the capacity 
to carry bikes. So onward.
    And now, Colonel, we look forward now--I just want to say 
to each witness, your full statements will be in the record; 
and if you could confine your statements to 6 or 7 minutes, 
that would be fine. Because we want to make sure we get 
everybody covered. Colonel, go to it. And your statement will 
be in the record.

 STATEMENT OF COLONEL EDMOND S. CULHANE, JR., SUPERINTENDENT, 
                   RHODE ISLAND STATE POLICE

    Col. Culhane. Thank you, Senator, Representative Weygand. 
I'm Ed Culhane, Superintendent of the Rhode Island State 
Police. And what I'm speaking about today are something we 
heard about in previous speakers and what I've read in the 
material on ISTEA and a concern regarding its reauthorization. 
That's safety, the on time movement of people and goods, and 
the environment. And my particular comments today are directed 
at a very small part of the Rhode Island State Police; and 
that's our Commercial Enforcement Unit, which at its best is 
ten people and right now is eight. And the reason I'm here 
today is to actually ask your assistance in preserving the 
future of that organization.
    The Surface Transportation Efficiency Act, commonly known 
as ISTEA, was created in 1991 to renew our surface 
transportation program and to address the changing needs for 
America's future, which creates jobs, reduce congestion, foster 
mobility and rebuild our infrastructure while protecting our 
precious environment. In essence, this act was established to 
catapult the United States into the global marketplace of the 
next century.
    While I support the overall intent of ISTEA, ISTEA has also 
allowed the Rhode Island State Police to achieve goals which it 
would not have been able to accomplish otherwise.
    We look back to the early 1980's, commercial vehicles 
emerged as a safety issue due to their increasing number of 
unsafe commercial vehicles on our highway and along with an 
increasing number and severity of crashes involving large 
commercial vehicles. Furthermore, the occurrence of accidents 
with carriers of hazardous waste and hazardous materials was 
also on the increase. As part of the Surface Transportation 
Assistance Act of 1982, Congress enacted the Motor Carrier 
Assistance Program, commonly known as MCSAP in 1993 to address 
these problems. The program was designed to foster safer 
commercial vehicle travel while increasing the level and 
effectiveness of enforcement activity to detect and correct 
safety defects, driver deficiencies and unsafe carrier 
practices. In 1991 ISTEA Title IV, entitled the ``Motor Carrier 
Act of 1991,'' was established and assumed the MCSAP 
responsibilities.
    Over the past 10 years, the activity of the Rhode Island 
State Police Commercial Enforcement Unit, which is responsible 
for enforcing the MCSAP regulations among other things, has 
increased astoundingly. Though this unit, as I mentioned 
before, is comprised between, somewhere between eight and ten 
people, each year they conduct approximately 5,000 safety 
inspections of trucks and buses. These inspections reveal 
approximately 16,000 violations each year. Some of these 
violations are so severe that over 1,000 vehicles and drivers 
are immediately placed out of service until those deficiencies 
are corrected. In addition, the members of this CEU have 
assisted in the training of commercial fleet operators 
regarding driver training, fleet inspections, and Federal and 
state documentation programs. This unit is also relied upon 
quite heavily by local police departments for their expertise 
and knowledge pertaining to commercial vehicle regulations. 
They are in fact the only unit in the state with that type of 
expertise.
    I cannot estimate how many lives are saved, how many 
injuries prevented, how many spills prevented, how many traffic 
jams were tied up by--traffic jams or tie-ups were prevented by 
the enforcement activities I have just enumerated by this unit. 
Of all of the units comprising the Rhode Island State Police, 
the CEU is the one that consistently and most often evokes 
positive comments from our citizens and our commercial haulers.
    The Rhode Island State Police funding revolves around the 
reduction in basic funding and the elimination of secondary 
funding for MCSAP activities. ISTEA appropriations are based on 
a population and highway mileage formula in which the State 
Police receive the minimum basic grant. In past years we have 
also received a secondary grant strictly to help pay salaries 
and benefits. Each year the secondary grant has been reduced by 
10 percent, while personnel benefit costs have continued to 
rise. Rhode Island is one of seven states that receive 
secondary funding since these states have smaller populations 
and limited highway mileage. Since the Rhode Island State 
Police Commercial Enforcement Unit is funded entirely 
externally from our regular State Police general revenues and 
that we have no additional financial resources to supplement 
the eliminated secondary grant income, we depend on these funds 
for the survival of our Commercial Enforcement Unit.
    The MCSAP grant program is suppose to be an 80/20 grant 
program, requiring a 20 percent match in State funds. Due to 
the State's fiscal woes, we must rely on the Rhode Island 
Division of Public Utilities and Carriers, known as the PUC, as 
the principal source of State matching funds. In addition to 
the Federal grant dollars and the PUC match money, the PUC also 
provides the Commercial Enforcement Unit with an extra $250,000 
to meet other necessary operating expenses. Over the years in 
actuality an 80/20 split that use to exist has now become close 
to a 50/50 split.
    The Rhode Island State Police has been notified that in 
fiscal year 1998 we will receive only our basic minimum grant 
since our secondary grant is being discontinued. At this level 
the Rhode Island State Police Commercial Enforcement budget 
would be cut so severely that we would probably have to 
eliminate two to three positions from the unit. Bringing this 
unit down to five troopers would just about make it 
ineffective.
    You may be asking, ``What does all of this have to do with 
reauthorization of ISTEA?'' Well, plain and simple, if our 
Commercial Enforcement Unit is reduced, so will our enforcement 
efforts toward the safety of the commercial truck industry and 
making our highways safer. Unsafe vehicles carrying too much 
weight will be operated by an inexperienced, untrained, and 
many times sleep-deprived drivers, these will increase without 
a strong law enforcement deterrent. Furthermore, one must 
contemplate the effect of NAFTA on our highways, the opening of 
our borders to commercial vehicles over the years will be 
expanded, barring commercial vehicles who may not face the same 
stringent inspection standards as the United States commercial 
vehicle industry does will be traveling our highways. As Rhode 
Island lies on the major corridor of the East coast, along with 
being one of the oldest segments of the national highway 
system, one can strongly surmise the negative ramifications 
that will be felt on our highways.
    According to the National Highway Traffic Administration's 
1995 ``Traffic Safety Facts,'' the Nation has made great 
strides in reducing the overall involvement of large trucks in 
motor vehicle crashes along with reducing the fatality rate of 
large truck occupants involved in motor vehicle crashes. If the 
number of unsafe commercial vehicles operating increases, we 
can only have a determined set of results, more deaths, more 
injuries, and more motor vehicle crashes involving commercial 
vehicles, more threats to our environment and more traffic tie-
ups. We should not stop the progress we have made; and much 
more can be done.
    My solution would be to increase the overall grant 
allocation to the states from the proposed 100 million to $105 
million. This would allow each of the smaller states to receive 
a minimum grant of 500,000. Since we are not asking for money 
to be reappropriated from the larger states to the smaller 
states, we feel this is the most equitable solution. Therefore, 
Rhode Island, which by no fault of its own has a smaller 
population and less highway miles, would be eligible for the 
minimum 500,000 grant.
    Title II of ISTEA also provides an integral funding 
component to promote traffic safety programs through the State 
and Community Highway Safety Grant Program, commonly referred 
to as Section 402, or 402 funding. These funds support law 
enforcement's efforts to reduce death and destruction that have 
become much too commonplace on our highways. These grants allow 
law enforcement agencies flexibility in supplementing their 
regular traffic safety enforcement duties. The funding allows 
for additional enforcement personnel, audio visual materials 
and educational resources to spread the traffic safety measures 
concerning certain issues, speed limits, occupant protection, 
impaired driving, motorcycle safety, and school bus safety to 
name just a few. With traffic crashes claiming over 40,000 
lives each year and costing the Nation roughly $137 billion in 
medical costs, insurance premiums, unemployment and disability 
taxes, Social Security costs and lost wages, we, as a 
responsible and caring Nation, must do all we can to continue 
preventive education and law enforcement funding toward these 
safety programs.
    Title II also stipulates funds for the development and 
promotion of the Drug Recognition Expert Training Program. 
Simply put, this training permits law enforcement officers to 
be trained to recognize motorists that are driving not under 
the influence of alcohol but under the influence of drugs and 
narcotics. It is a very extensive, detailed program, requires 9 
months of training. Rhode Island has two. With today's society 
where illegal controlled substances are readily available, this 
program will be extremely important to both diagnosis and 
prosecution of careless individuals operating motor vehicles 
while under the influence of controlled substances.
    In conclusion, fully funded reauthorization of Title IV, 
entitled the ``Motor Carrier Act of 1991,'' and Title II 
entitled, ``Highway Safety of ISTEA'' is necessary to carry out 
the original vision for surface transportation in America. 
These two titles not only promote economic vitality, but they 
also safeguard the lives of Americans we have sworn to serve. 
Since transportation will only increase in the forthcoming 
years, any reduction in our enforcement efforts can only lead 
to more traffic crashes, more tragedy, and increased medical, 
insurance and traffic costs and tax costs. It is imperative 
that we as a Nation continue to foster reliable but safe 
surface transportation programs as we travel into the next 
millennium.
    I thank you for providing the Rhode Island State Police the 
opportunity to testify; and I'll be happy to handle any 
questions you may throw my way.
    Senator Chafee. OK, Colonel, thank you very much for that.
    Now, Ted Sanderson.
    Now, Ted, we want to watch the time here; because, as I 
say, it's always the last panel that gets short shrift. And so 
we want to be mindful of that last panel. So if you could 
summarize your statement, which we have here. And we look 
forward to hearing what you've got to say; but don't feel 
you've got to read it all.

  STATEMENT OF EDWARD F. SANDERSON, EXECUTIVE DIRECTOR, RHODE 
          ISLAND PRESERVATION AND HERITAGE COMMISSION

    Mr. Sanderson. I understand, Senator.
    I come before you, Senator Chafee and Congressman Weygand, 
based on the experience of three different aspects of the ISTEA 
legislation. As the Director for the Historical Preservation & 
Heritage Commission for the state, I review every 
transportation project that involves construction in an 
historic area. As the chairman of the State Enhancement 
Committee, I have hoped to oversee the process of reviewing and 
allocating enhancement funds to projects throughout the state. 
And as the vice-chair of Rhode Island Scenic Roadways Board, 
I'm involved with the National Scenic Byways Program. I think 
both of you gentleman are aware that historic preservation has 
known for a long time that transportation projects extend way 
beyond the edge of the paved surface of the road; and many 
people in the historic preservation movement feel that over the 
last 40 years perhaps no Federal program has been more 
destructive to America's historic and archeological resources 
than highway construction. We know that thousands of building 
sites have been sacrificed to construction of interstate 
highways and widening of local roads, even when local 
individual landmarks have been spared, too often transportation 
ripped the fabric of community lives by isolating neighbors, 
destroying scenic beauty, and encouraging the development of 
ugly commercial strips. So I think the ISTEA legislation of the 
last 5 years has come about in some measure in response to 
problems with transportation projects over the last 40 years. 
And here in Rhode Island where we have more historic resources 
per acre than any other state in the country, we've had the 
opportunity to see the benefits of ISTEA programs. The 
flexibility and the public based planning processes that ISTEA 
includes help to avoid conflicts with historic resources, gives 
the communities a chance to work with the Department of 
Transportation and the highway engineers to figure out what 
historic sites are there and which ones need to be preserved. 
And I'm glad to report to you, Senator, and to you, 
Congressman, and to our new Director of Transportation as well, 
that over the last 5 years under ISTEA the State Historic 
Preservation Office has had a good relationship with the 
Department of Transportation in identifying potential impacts 
to historic resources, finding ways to avoid that destruction 
or to mitigate unavoidable impacts. The enhancements of a 
program such as ISTEA have been discussed by a number of 
speakers this morning; and I certainly support very strongly 
the work of the enhancements, have had an opportunity to see it 
close firsthand with the chairman of the State's Enhancement 
Program what kinds of projects can be carried out under this 
program. It's been evident to me that the enhancement program 
meets a need felt by many Rhode Islanders. The public interest 
in this program was demonstrated by the almost 200 proposals 
that citizens of Rhode Island, cities and towns, civic 
organizations, nonprofit organizations submitted to my 
enhancements committee; and we've seen the way in which 
enhancement projects can deal with historic preservation, 
environmental protection, water quality, the need for 
pedestrians and bicyclists and just generally responded to 
community interest in preserving what it is about their 
communities and their appearance that they value.
    I think both of you know that throughout the state there 
are many enhancement projects. Senator Chafee, you and I had 
the opportunity to visit one of those projects yesterday up in 
Woonsocket where a basic functional transportation circulation, 
reconstruction project in Market Square was joined through the 
enhancement program with bicycles, with historic preservation, 
with public interpretation of our state's ethnic and labor 
history, and with the Blackstone River National Heritage 
Program.
    One of the things the enhancement does under ISTEA is to 
bring together different things that our public, our 
communities and our government are all working on together and 
address these issues in a unified manner rather than allowing 
them to simply be fragmented and to fall where they may. Other 
projects have occurred in Providence.
    Senator Chafee. I tell you, yesterday we had a chance to 
discuss these, and that was excellent. Why don't you--I'm 
interested in the scenic byways, your next section there. Can 
you get to that? Because we have got a good description of 
those, the Mathewson project and the Westerly station. And 
indeed I know Bob is very familiar with the Kingston project, 
for example, which that was an enhancement project.
    Mr. Sanderson. Enhancement and basic transportation 
funding.
    Senator Chafee. So why don't you go to the scenic byways.
    Mr. Sanderson. Well, the scenic byways program in Rhode 
Island goes back into 10 years when State legislation created 
the Scenic Roadways Board; but through ISTEA we were fortunate 
to secure two grants that have really moved this program 
forward. The first of those grants funded a statewide survey of 
scenic roadways that allowed us to develop an inventory of 
areas that we all ought to be concerned about preserving the 
scenic qualities and to begin to at least lay the foundation of 
developing alternate design standards for construction along 
scenic roads.
    The second grant that we are in the midst of working on 
right now is allowing us to study corridor management issues 
along designated scenic roads. We know that construction 
through transportation projects affect what a scenic roadway 
looks like; but we also know that the individual decision that 
a city or town or private property owners are part of the mix 
of preserving the scenic roads. And through corridor management 
programs we work with the communities to figure out what the 
residents along the roadway want to do to help preserve the 
scenic qualities of the road. And so enhancement projects of 
Rhode Island scenic roadways has been another way that ISTEA 
has been very effective.
    And I'll simply wrap up by saying that like any other 
speaker, I certainly support the continuation of the ISTEA 
program pretty much the way it is; and in particular it's 
important to maintain the funds set aside mandated for the 
enhancement program. I know there are some people around the 
country that have suggested a different way to handle that. I 
think the provisions that were included the first time around 
are what created the enhancement program; and I think, as Dr. 
Scott said in her commentary, the program has made a good 
beginning. We need to continue and build on that good 
beginning; and the way to do that is to preserve the 
enhancements program with its 10 percent funding mandate.
    Senator Chafee. Thank you, Mr. Sanderson. I agree with you, 
I have my button, ``Safe Transportation Enhancements in 1997, 
ISTEA is more than a drink.'' Somebody pressed that on me 
yesterday; and I think it's a good one.
    Let me just quickly ask, Colonel, I know it's crass to say 
this, but with all those infringements that you had mentioned, 
I think was it 14,000 violations or something like that?
    Col. Culhane. Sixteen thousand.
    Senator Chafee. Sixteen thousand. I can only presume you 
collect some fines and--but I presume they go into the general 
fund?
    Col. Culhane. They go into general revenues.
    Senator Chafee. It would be a little crass to have them go 
into the State Police, that would encourage you to stop 
everybody in sight.
    Col. Culhane. Bounty hunting is not very popular.
    Senator Chafee. At the same time it must be pretty 
substantial; isn't it?
    Col. Culhane. I have no idea what the funding stream is.
    Senator Chafee. Because that goes through the courts?
    Col. Culhane. It goes through the courts.
    Senator Chafee. Mr. Sanderson, Dr. Ankner has suggested 
that the enhancement program is great; but there's a heck of a 
lot of red tape to it and that you have a $10,000 enhancement 
project and you spend $15,000 trying to comply with all of the 
rules to get the money. What do you say about all that?
    Mr. Sanderson. I think that's true. Federal Highway 
Administration regulations are designed for multimillion dollar 
construction projects; and so some of these smaller projects do 
bump into regulations that just don't fit for small projects 
like that. My impression talking to others dealing with 
enhancement programs across the Nation in other states is that 
a lot of Departments of Transportation haven't organized 
themselves to deal effectively with enhancement projects yet 
either as effectively as they could. And so streamlining within 
the regulation but also some management streamlining within 
some DOTs would be able to get these projects out more 
efficiently and more quickly.
    One of the areas that some people are looking at as being 
promising is to find ways for local government to be a little 
more involved with small projects. And sometimes local public 
works offices and local planning offices really have plenty of 
capacity to carry out a 20 or $50,000 project and are ready to 
do it when a small project like that kind gets put on the back 
burner within the larger statewide DOT.
    Senator Chafee. What do you say about that, Dr. Ankner?
    Dr. Ankner. I agree, Senator. In fact, one of the things 
that we're going to be looking at in the DOT is we've sent out 
all of our design work with respect to the enhancements to the 
consulting community. It's a 9-month process of selecting a 
consultant, one of the processes of reallocating how we do 
business and try to keep those smaller projects within the DOT 
so that we can move them much more quickly.
    I would add, though, that the way I understand the rules 
and regulations of the Feds, it would be difficult to have 
nonprofit organizations be able to do the work themselves. In 
fact, contributions from the nonprofits of doing the work and 
things like that, as I understand it, do not count as a match 
for the program.
    Representative Weygand. So in kind contributions?
    Dr. Ankner. In kind contributions are not being considered 
as a match; and yet very often that is all that some of these 
communities are able to provide. So that's something we want to 
look at the regulations again, not the law. The law allows for 
it. It's the regs that are the problem.
    Senator Chafee. That's very helpful. And, Dr. Scott, we'll 
look into the suggestions you made. And it's a terrible thing 
if you get your funding reduced and you have to cut your 
service. And cutting your service means it's less useful to 
many people. It's a spiraling downward effect, and I suppose a 
spiraling upward effect if you can service more places?
    Dr. Scott. Definitely.
    Senator Chafee. And, Colonel Culhane, I thought your points 
were good there; and it's a program I wasn't aware of, as you 
mentioned it, about a small program.
    Col. Culhane. We're not ready to hang the ``out of 
business'' on the window.
    Senator Chafee. Don't count on it happening tomorrow; but 
give us a chance.
    Representative Weygand. Just a couple of questions. I'll 
try to be very brief.
    First of all, the testimony from all of you with regard to 
the experiences you had is so important for Senator Chafee and 
myself in terms of reviewing this legislation. Enhancement, I 
don't want to go over what Dr. Scott has talked about because I 
think what she's addressed was addressed with regard to each 
one of your testimony. I would hope that you could assist us 
and our staff and be a little bit more specific later on with 
regard to the sections of the legislation that you're 
particularly addressing that you think are correct or incorrect 
that are in NEXTEA, ISTEA as well as in Step 21 need to be 
modified so that we know precisely when we're looking at 
legislation where you have a problem.
    On the enhancement side, about 18 years ago there was about 
four or five of us who walked an abandon railroad track from 
East Providence to Bristol, Rhode Island and with a number of 
other people visualized what it could be. We took machetes on 
Saturday morning, cut away bamboo and briar so that on a Sunday 
about 50 people could walk along this abandoned railroad track 
to see what it could be. It ended up turning into the East Bay 
bicycle trail. It's a project that has been overwhelmingly 
successful not only for transportation properties, for 
pedestrians, bicyclists, saw the recreational resource for 
people who live along that corridor. Blackstone Valley Corridor 
is getting one, Coventry has been long talking about it. I 
know, Bill, you and I talked about the South County bicycle 
trail, to me is extremely important. You're committing as of 
the next fiscal year, October 1st of this year, moneys for the 
first phase of that project as I understand it?
    Dr. Ankner. That is correct, sir.
    Representative Weygand. The second phase, which would go 
from South Kingstown into Narragansett is incredibly important; 
and I hope that you'll be dedicating the moneys and I hope it's 
within the flexibility you'll have within the next 5 years of 
ISTEA that will help do that over the next couple of years. 
Because there is the intermodal transportation of the buses 
that come into the Kingston station, the rails that come into 
the Kingston station and now the bicycle trail that will be 
able to connect people. It's a wonderful program that could be 
done; but you want to ask Ted about a project, not projects, 
but the program of enhancements, comprehensive planning and 
particularly bureaucratic red tape that you mentioned, about 
securing funding for ten, $20,000 projects. Precisely can it 
just be that within the Department of Transportation, the Rhode 
Island Department of Transportation we clear up the 
bureaucratic red tape so that in fact we can get these things 
out faster than nine, ten, 12 months down the road?
    Mr. Sanderson. My understanding, and perhaps Dr. Ankner can 
address this more clearly, but that part of the problem with 
small projects has to do with the standard Rhode Island State 
contracting and consultant selection procedures and part of it 
has to do with Federal highway regulations. And so both of 
those need to be looked at.
    Representative Weygand. What kind of flexibility 
regulatory-wise, without legislation, without statute can be 
done to allow you to get these small projects that help all 
communities throughout the state get these little enhancement 
projects out?
    Dr. Ankner. From the standpoint of design, the Department 
has made the decision historically that have those be designed 
by others. Therefore, we've run into the contracting laws, 
procurement laws of the state. A way of getting around that is 
to have that work be done within the department. That's what we 
are in the process of looking at.
    Representative Weygand. The question, Bill, I guess would 
be, come up, is the expertise within the department, while 
there are some tremendous people, but when you started having 
all these neighborhood and community projects, it can really 
bog down a transportation department.
    Dr. Ankner. It can. That's what we're looking at to see if 
we can work with the communities such that we can get some 
efficiencies and saving some time and efforts. The other part 
is regulatory, the financing, is also on the reporting. 
Congress likes to know what's going on in the enhancement 
programs, so they're requiring FHWA to get detailed reports 
about each individual enhancement project. One of the ways that 
we think, that is DOT, that we can help the enhancement program 
is really fund the enhancement program and report on it in 
terms--in its entirety as opposed to reporting on every 
allocation for every individual project.
    Representative Weygand. Let me end with this. I'm sure 
Senator Chafee and I know my staff and I'm sure everyone from 
the Rhode Island delegation would like to have suggestions to 
ease that up; because I think the use of consultants for small 
projects can work well if it's in a timely fashion; and if it's 
regulations that need to perhaps be changed with the 
reauthorization of ISTEA statutorily to give you the 
flexibility on small projects, I think that that is something 
that Congress should look at. Because, otherwise, you'll be 
hiring a lot of staff within DOT to do these small projects and 
may be, in fact, could be done quicker and more efficiently if 
you have the tools, the statutory tools to do it otherwise.
    Dr. Ankner. That's very true, sir.
    Senator Chafee. Colonel, just out of curiosity, I just 
wonder, without naming them, you must find truck fleets always 
good and some are always bad. Does it work that way? Just out 
of curiosity.
    Col. Culhane. There are probably some. We have the sergeant 
that runs the unit here in the back. There are some, call them 
gypsies and what have you, and some fleets are very, very 
responsible. In fact, we sent one of our commercial enforcement 
people out to one of the major fleet operators in the state to 
teach them how to inspect their trucks and how to have their 
documents squared away, both Federal and state, so when they 
are stopped the stop is minimal. It works to their advantage 
also. The trooper makes sure the vehicle is safe, they have all 
the proper documents, and they're on their way. I know you 
don't have the time; but just come out someday if you want, 
ride around in the cruiser with me, and you'll hear these 
officers stopping trucks. I don't know how they do it. They're 
all on the air. We require all the vehicles that are stopped to 
be called in. And there are some fleets that do operate much 
higher above the line than others. We'd like to do our best to 
make sure that none of them are operating below the line.
    Senator Chafee. Fine. I want to thank the panel very much, 
appreciate it. And we've got your testimony, all of you, and 
it's excellent, very helpful.
    All right, the last panel is Barry Schiller of Sierra Club; 
Ed Baudouin, the Executive Director of Providence Foundation; 
Ken Bianchi; Curt Spalding of Save the Bay; and Jim RePass of 
The Northeast Corridor Initiative. Move right up. All right, if 
everybody please take their seats quickly. Let's go with Barry 
Schiller. And, again, gentleman, would you please confine your 
remarks to about 6 or 7 minutes. I'm reluctant to lower the 
boom on anybody; but we want to make sure everybody gets a 
shot.
    OK, Barry, go to it.

          STATEMENT OF BARRY SCHILLER, THE SIERRA CLUB

    Mr. Schiller. For the record, my name is Barry Schiller; 
and I've been kind of a citizen activist in transportation here 
for about 30 years and now transportation chair of the Sierra 
Club, a member of the Transportation Advisory Committee and the 
Rhode Island Public Transit Authority. I come to say that 
Sierra Club and I believe the environmental community supports 
ISTEA. You won't be surprised that we have some suggestions 
about how we'd like to see it improved.
    Why do the environmentalists care so much about 
transportation? Well, after years of our auto dominated 
transportation policy, we've come to see in so many ways that 
transportation decisions are environmental decisions. And I 
enclose some statistical information in the written testimony 
to indicate that our concern for all alternate transportation 
is based on data.
    Do environmentalists really care about transportation? You 
bet. The Sierra Club took to the Environmental Council a 
resolution on ISTEA that we are submitting and that passed 
unanimously and enthusiastically in February. The Sierra Club 
helped organize the coalition, Senator. It's now up to 40 Rhode 
Island groups in support of ISTEA principles.
    What ways do we think ISTEA is working? Well, it's made 
environmental protection at the center of transportation 
planning; and indeed on TAC, the Transportation Advisory 
Committee, it's one of the five major schemes on transportation 
projects.
    Public participation has made a real difference, resulting 
in a much better spirit of cooperation between community groups 
and the Rhode Island DOT, which I can tell you has a long 
history of bitter conflicts in the past. It also gives a voice 
to the people who for whatever reason don't have a motor 
vehicle. The city of Providence told TAC that 23 percent of the 
households of Providence have no motor vehicle.
    Senator Chafee. Do you believe that?
    Mr. Schiller. That's what the city of Providence provided 
to the TAC. It's households, not people. We're not saying 23 
percent of people, but 23 percent of households.
    Senator Chafee. I find that an astonishing figure.
    Mr. Schiller. You have to ask the City. We believe we have 
more flexibility on design standards. It has become routine I 
can tell you to consider ways to scale down proposed projects 
to solve problems with minimal cost and minimal destruction. We 
are directing some of our resources to the older business 
districts where people can walk to things instead of having to 
try to carry out even the simplest errand. We are developing a 
potential for a first-class bicycle network. I think that's 
important, that our tourist industry publication is always 
headlining--often headlining bicycle programs. We have at least 
maintained our transit system and actually substantially 
increased ridership since ISTEA was passed.
    But this doesn't mean everything is perfect. We do wish 
some of the changes did come faster; and there are projects in 
your transportation improvement program that we do object to. 
But we feel if we get a fair shot to influence the decisions, 
bad projects are not the fault of Congress or of ISTEA, but 
perhaps of our failure to convince others.
    One of the problems we want Congress to address, we must 
overcome any opposition to CMAQ and enhancements funding. I 
strongly commend you, Senator, and the Clinton administration 
too for their strong leadership. As a TAC member I've often 
heard from the public at our hearings or even town planners 
about the importance of that enhancement program. We need to 
expand the flexibility of the surface transportation program to 
include freight and passenger rail. It's ironic that the 
Federal policy allows use of ISTEA funds for local commuter 
rail but not for intercity rail and for that matter intercity 
freight. Everyone has submitted on the concept of the third 
track proposal. The environmental community also gave its 
wholehearted support. It's difficult to do those projects since 
most of you know the eligible ISTEA funding if the states feels 
that would be an appropriate way to move to it. Perhaps you'd 
address that next time.
    Congress must resist efforts to allow longer or heavier 
trucks. We can't afford them, motorists hate them, they are a 
safety hazard. The Sierra Club is part of the Southern New 
England Safe Roads Coalition; and we're submitting some 
information on that.
    Our RIPTA transit system faces both opportunities and 
peril. We do have energetic leadership and an opportunity for 
labor-management cooperation, new service initiatives, the 
bicycles racks, which you've seen, which was the CMAQ program 
grant, the coming of a major new downtown mall. All this 
suggests a possibility for growth. You've heard about our 
concern from Dr. Scott about funding and the need for the 
maintenance funding to replace operating assistance. But one 
thing we haven't heard yet, that is, our experience here 
indicates that Congress needs to do more to equalize the 
playing field between public transit and automobile commuting, 
equalized tax-free benefits for parking and transit and perhaps 
reward states' transit systems in a locality that increases its 
ridership and reduces perhaps vehicle miles traveled. Put the 
power of the market to work to make our transit systems work. 
And I hope everyone realizes that transit helps all our 
environmental goals. I urge everyone to give it a try whenever 
possible. I always say that.
    What about demonstration projects? Environmentalists are 
generally skeptical nationwide about this ISTEA element; but if 
they are going to be retained, we do have some suggestions that 
you haven't yet heard. The North Station-South link in the 
Boston area, which the Sierra Club thinks has national and 
certainly regional significance, so perhaps that could qualify.
    I just want to close with a comment that Rhode Island has 
plenty of ideas and talent and energy needed to make our 
transportation system work better. As a TAC member and citizen 
activist, I've been impressed by new leadership at RIDOT, at 
RIPTA, both on the management and labor side, by the wide 
variety of community groups that are involved, where 
transportation by the town planners in the state. I urge 
Congress to do its part to keep all this going by renewing a 
strong ISTEA with its principles of environmental protection, 
maintenance of the infrastructure, community revitalization, 
flexibility, and choice for our citizens as to how they get 
around, and public participation. And I certainly thank you for 
this opportunity to comment.
    Senator Chafee. Thank you very much, Mr. Schiller. That was 
excellent; and you came right in on 6 minutes, so you go to the 
head of the class.
    Mr. Schiller. Seeing I'm a mathematics teacher, we know how 
to do it quick.
    Senator Chafee. Mr. Baudouin?

 STATEMENT OF DAN BAUDOUIN, EXECUTIVE DIRECTOR, THE PROVIDENCE 
                           FOUNDATION

    Mr. Baudouin. I'll try to summarize as quickly as possible, 
Senator. My name is Dan Baudouin, Executive Director of the 
Providence Foundation. The Providence Foundation is a not-for-
profit private sector organization that advocates for the 
proper planning and development of Downtown Providence. I'm 
also a member of Rhode Island Public Transit Authority and a 
member of the Transportation Advisory Committee.
    I'd like to quickly make a few points, first on the overall 
renewal of ISTEA. I think the ISTEA act approved in 1991 
included several concepts and principles that I recommend be 
continued. And included is the recognition that the link 
between land use and transportation is very strong and 
transportation needs to be part of an overall comprehensive 
planning effort. Also, ISTEA provides for a stronger role of 
local governments in transportation planning; and ISTEA 
requires significantly more public involvement in 
transportation planning. And I think this should continue into 
the new act. ISTEA demands consideration of community needs and 
plans; and that's good. Finally, ISTEA recognizes the need for 
more transportation choices, be it by bus, by rail, by car, by 
foot, by bicycle or by boat. These are excellent principles 
that need to go forward under this new transportation act. 
Obviously I totally support and encourage mass transit emphasis 
funding, a recommendation as made by Dr. Scott, who can 
hopefully lead RIPTA to the next century as a very strong, 
positive transit system.
    My second point is we have made investments in airport 
facilities, rail facilities. However, we need a new Federal act 
that recognizes the need for major additional investments to 
move people and goods in a variety of different ways and in an 
efficient manner. In Rhode Islander many of our bridges are 
structurally deficient or obsolete and a high percentage of the 
Federal highway mileage is in fair or poor condition.
    This leads me to the third point, which is the level of 
Federal involvement and the need for innovative financing as 
well as increased Federal funding. I would strongly urge an 
increase in Federal investment in transportation. We would 
advocate that more of the existing gas taxes and other highway 
fees be applied to transportation infrastructure. In that 
regard we strongly support the Highway Trust Fund Act as 
introduced by Senator Chafee and others as it would help 
accomplish this goal. By the way, we also made this 
recommendation to the State of Rhode Island, which needs to 
apply for its highway user fees to transportation investment.
    Now, we're mindful of the need for leveraging dollars, so 
we're very supportive of innovative financing programs, 
particularly the creation of public/private partnerships and 
the involvement of private sector economies into creating 
transportation infrastructure. For example, the design/build/
finance model is one that may have some applicability to 
transportation infrastructure. I believe the results of pilot 
programs throughout the United States have been generally 
positive.
    Again, toward this end, we are very supportive of Senator 
Chafee's proposed legislation S. 275, the Highway 
Infrastructure Privatization Act, which we encourage 
partnerships across the country by allowing private sector 
access to tax-exempt bond authority for a select group of 
transportation projects.
    We are also supportive of recent changes in Federal law 
that provide innovative financing mechanisms such as advance 
construction, phased funding, tapering Section 1012 loans, and 
the flexible nonFederal matching requirements. We're very 
supportive of the States Infrastructure Bank Program, and we 
hope that this gets expanded, recognizing that this can be a 
good tool to expand a portion of this program in a number of 
states. Locally we're also in favor of things such as exploring 
of real estate tax incremental financing, aggressive value 
engineering to reduce costs, leasing portions of the existing 
rights-of-way where possible, and sale or lease of surplus 
rights-of-way to generate funds to help finance transportation 
projects.
    Finally, let me just say a few words about one Rhode Island 
project of interest. It's the reconstruction of Interstate 195 
and its intersection with 95. This was designed and constructed 
in the early 1950's, prior to the 1956 Interstate Highway Act; 
and it doesn't meet any kind of criteria for transportation 
infrastructure today.
    Senator Chafee. As you know, I went to your briefing, so 
I'm quite familiar with that, so it's not necessary to go 
through that. It's in your statement, so it will be in the 
record. That was an excellent briefing you had; and I'm glad I 
went. And I think why don't you pick up where you end that 
particular discussion.
    Mr. Baudouin. Well, that was going to wrap up my 
discussion, Senator. I thank you for the opportunity to appear 
before you today. If you or your staff members would like other 
input on any matters, give me a call. Thank you.
    Senator Chafee. Let me just ask you one quick question. 
What do you mean about leasing portions of existing rights-of-
way? What's that mean?
    Mr. Baudouin. Well, if, for example, let's say a fiber 
optic company needed to put some lines underground and there 
was some room to do that within your existing highway right-of-
way, that there might be an opportunity to lease that land for 
that purpose and generate some income.
    Senator Chafee. I suppose it could be a gas line or an oil 
transmission line, pipeline or whatever?
    Mr. Baudouin. Yes, that's correct.
    Senator Chafee. OK. Fine. Well thank you. Thank you very 
much. And indeed you did come in under the time.
    Mr. Baudouin. With your help, sir.
    Senator Chafee. Thank you. Now, Mr. Ken Bianchi, who is 
Town Administrator of North Smithfield.

    STATEMENT OF KENNETH BIANCHI, TOWN ADMINISTRATOR, NORTH 
               SMITHFIELD, ON BEHALF OF DOTWATCH

    Mr. Bianchi. Thank you, Senator, Mr. Chairman, thank for 
your invitation to appear before you today to discuss the need 
to both protect and strengthen the 1991 Intermodal Surface 
Transportation Efficiency Act, ISTEA.
    I'm Kenneth Bianchi, the Town Administrator for the Town of 
North Smithfield, Rhode Island. I also serve as a vice-
president of Rhode Island League of Cities and Towns and am a 
board member of Rhode Island DOT Watch, which is a nonprofit 
citizens advisory group dedicated to monitoring our 
transportation policy and planning in the State of Rhode 
Island.
    Let me just first say to you, Senator, that, if I may, that 
we in Rhode Island know and care about what you are doing and 
saying on ISTEA both here at home and especially down at 
Washington, D.C., and we couldn't be happier knowing how 
supportive and understanding you are about the issue that every 
Rhode Islander cares deeply about. I don't need to tell you, 
Senator, that in this pending congressional battle we here in 
Rhode Island have far more to lose than just money, so thank 
you for continuing to do such an excellent job representing our 
best interests.
    Senator Chafee. Thank you.
    Mr. Bianchi. Here in Rhode Island ISTEA reauthorization has 
generated a tremendous interest among both citizens and local 
governments who have to live with the consequences of a 
national program. Mr. Chairman, I would like to submit for the 
record and the benefit of all the members of this committee a 
document entitled, ``A Blueprint for ISTEA Reauthorization.'' 
This detailed platform was put together by the Surface 
Transportation Policy Project, a national public interest 
coalition of more than 200 groups including our own Rhode 
Island DOT Watch and the Rhode Island Sierra Club. Over 40 
groups and agencies in Rhode Island have fully endorsed all 25 
recommendations in this platform as outlined in the attached 
addendum.
    The bottom line is that ISTEA reauthorization must build on 
the obvious successes of the existing law. We realize that 
there are issues to be worked out regarding the funding 
formula, and obviously we believe that Rhode Island must 
continue to get its fair share based on the substantial needs, 
particularly those of our aging infrastructure, for such a 
small state. But regardless of how the Congress settles its 
differences over money, we urge that you preserve the part of 
the law that has been a success nationwide, that's ISTEA's 
policies and programs.
    Specifically, we urge the retention and strengthening of 
the CMAQ program, the transportation enhancements program, the 
Interstate Maintenance and Bridge repair program, the 10 
percent safety set aside, which we hope will begin to include 
measures to reduce the 6,000 annual pedestrian deaths 
nationwide, and the suballocation of funds to metropolitan 
areas. We also hope that ISTEA's partnership with local 
government officials and citizens will be strengthened through 
the MPO process and retention of planning factors to include 
the public early and often throughout the transportation 
planning process.
    Rhode Island is in need of a stronger ISTEA, one that will 
emphasize road and bridge maintenance as outlined in the STPP 
Blueprint. We believe we need a ``fix it first'' program that 
prioritizes system preservation. Here in Rhode Island we have 
750, oh, excuse me, 750 bridges, 55 percent in poor or mediocre 
condition, and 57 percent of our roadways in poor or mediocre 
condition. In a recent University of North Carolina/Charlotte 
study on overall highway conditions, the State of Rhode Island 
ranked last for the year ending 1995. And let me just say that 
it's incomprehensible that these Step 21 STARS 2000 proposals 
in Congress would eliminate the Bridge Repair and Interstate 
Maintenance programs. These are good government programs that 
assure accountability to taxpayers. They must be retained in 
the next ISTEA.
    We also need an ISTEA that will allow us the flexibility to 
spend our highway funds on Amtrak, a choice that our state DOT 
currently lacks. We need an ISTEA that will allow us to protect 
our environment by reducing automobile and diesel emissions and 
curtail road runoff, all of which have a dramatic impact on the 
health of every Rhode Islander and as well as Narragansett Bay, 
one that will allow us to pursue sensible alternatives to 
single occupancy vehicles by improving our public transit 
system, providing commuter rail system south of Providence, and 
restoring water ferries throughout the Bay; and one which will 
allow tourism, one of our most vital economic engines, to 
flourish throughout the state without clogging our roadways and 
ruining the very thing that people come here for in the first 
place.
    In closing, let me just reiterate, ISTEA has been a 
success, it has started to provide us with real choices, better 
protection of the environment and more local control over 
transportation programs. But it also still is in its infancy. 
Whatever differences need to be worked out over funding 
formulas, we urge this committee to protect the principles and 
framework established by ISTEA in 1991.
    Mr. Chairman, thank you for your attention and courtesy. 
Let me say again how grateful we are here in Rhode Island to be 
able to rely on your vision and leadership in the U.S. Congress 
on this issue.
    Senator Chafee. Thank you very much, Mr. Bianchi.
    Now Mr. Spalding, Executive Director of Save the Bay.

  STATEMENT OF CURT SPALDING, EXECUTIVE DIRECTOR, SAVE THE BAY

    Mr. Spalding. Good morning, Senator. It's a pleasure to be 
here, as always, a pleasure to come before you. As you know, as 
most of the public says, you are one of Narragansett Bay's most 
important friends. It's a pleasure to be here to testify on 
this important issue. We at Save the Bay consider the 
transportation planning and management here in Rhode Island to 
be critical to the bay's health and its future; and, in fact, 
the passage of the 1991 ISTEA legislation was a major victory 
for the environment because it finally set forth a path that 
offered new promise for the kind of decisions that we think 
could better protect the bay and rivers and the wetlands from 
all the runoff that impacts the bay.
    What I'd like to do is focus on just a couple of comments 
out of my testimony to keep it moving here and congratulate my 
fellow panel members for doing such a terrific job.
    We are still somewhat frustrated at Save the Bay; and I 
think the citizens of Rhode Island are somewhat frustrated 
about the lag in spending those enhancement dollars. Indeed 
spending of those kinds of dollars needs to be monitored very 
carefully; and perhaps in the next ISTEA reauthorization we 
could look to putting some very strong descriptive language in 
that to force the departments to clean up this bureaucratic 
mess that perhaps has caused a lag in spending the enhancement 
and demonstration dollars. I say this because we learned last 
week at our Growing Smart/Saving Place conference, that was a 
response not by Rhode Island Save the Bay, by Rhode Island 
Historic Preservation and Providence Foundation, that people 
are still very, very frustrated. ISTEA offered a promise but 
there is a level of frustration out there that must be dealt 
with very shortly or the kind of support we want for this 
legislation won't be there at the grass roots level. And that 
goes to public participation also. Although there are signs 
recently that indeed the public participation process is going 
to be improved, we recommended early on that they go into 
communities with workshops and really work a bottom up process. 
And they started with a process that did not go that direction. 
But recently I think, thanks to some of the efforts of the 
colleague to my right, Barry Schiller, the need to go into the 
communities, go past the local government, get down to the 
grass roots and really understand the concerns of communities 
are being pursued. So without ISTEA, that would not have 
happened. So indeed that's a major positive. I'm getting much 
better at it.
    I think going forward I want to make a couple of comments 
about how important this bill is, how maybe we can make some 
changes. First, ISTEA is critical to the growth patterns of 
Rhode Island and the country. We talked about the land use 
management. Without wise land use decisionmaking, this country 
is doomed to a highly costly transportation system that could 
very well impact our national security going forward. We also 
forget the oil embargo; but as we watch the western part of 
this country develop, we realize we're mainly developing on an 
automobile based kind of pattern out west too. Perhaps some 
incentives could be built into the legislation that would, as 
Barry described, give benefit to areas that develop a more 
efficient kind of system so we conserve land, we conserve 
energy, and we conserve our national security in the long run.
    The other improvement we could see that would be very 
important would be to have ISTEA more especially connected to 
water pollution. Indeed the last ISTEA when it connected air 
pollution to transportation and then we left water pollution 
connected to primarily the environmental agencies and the local 
process, if some language could be included that would somehow 
mandate the transportation decisionmakers to consider the water 
pollution effects of what they're doing and also put some what 
we call maximum step, that is, practical controls on 
transportation development, that would be very, very important.
    I want to speak to a final point in an effort of being 
brief here, move on to that, that is, the notion that we 
somehow tie funding to the consumption of gas. The proposal 
that the fairer way to allocate this would be to somehow 
allocate the gas tax collection, I want to go beyond the point 
Mr. Bianchi made, so, well, Rhode Island needs money, we all 
know Rhode Island needs money, but the bottom line is if you 
tie ISTEA funding to actual gasoline consumption, you're 
actually putting a perverse incentive in the whole program. 
Somehow people wouldn't get the idea because that's why they 
get the money that more automobile based transportation 
infrastructure means more transportation dollars going forward. 
So any corrections that are made to satisfy the political 
situation but still leave that basic setup in place would be a 
terrible mistake. I know you're dealing with that I guess with 
your proposal; and I congratulate you for doing that. I say 
this because I sit on the Enterprise for the Environment, which 
is a national effort to look at how we can restructure our 
whole environmental protection system in the next century; and 
one of the ideas we want is to make sure that funding 
incentives and environmental protection are all linked.
    Those are the points I wanted to make today. There are many 
more in my written comments. I say some strong things about how 
the department should perform itself. I also say some strong 
things about how reform needs to continue. ISTEA is critical to 
the future of Narragansett Bay and the quality of our 
communities. And I urge you to do everything you can to insure 
passage of the bill that looks much like the one we have, 
perhaps increases in funding for enhancement and CMAQ funding.
    Thank you.
    Senator Chafee. Well, thank you very much, Mr. Spalding. I 
must say in the last, goes way back to 1991, I got some money 
in, it was in a demonstration grant dealing with drainage, 
drainage from our interstate highways, I don't think that 
money's been spent yet; has it?
    Mr. Spalding. Indeed you did. The money has--the spending 
on enhancement dollars, demo dollars has been slow.
    Senator Chafee. Slow? It's 6 years.
    Mr. Spalding. We've raised some exceptions to that pace; 
and we've had a fairly intense controversy over the last number 
of weeks about that funding. We're very hopeful that our 
concerns have been resolved and that process will be expedited 
going forward.
    Senator Chafee. There is something wrong with all of these, 
the speed of these. I put the money in for the Kingston 
Railroad Station, and it hasn't been moved yet.
    Mr. Spalding. Again, I think that's where some of the 
frustration at the grass roots level was. I was at a Save the 
Bay meeting a few weeks ago about, a planner very well-known in 
Rhode Island, she said, ``Look, the promise of ISTEA has not 
been felt in the community because these projects, the 
enhancement dollars and demo dollars, just haven't come to 
fruition.'' I think that's very important. If you ask the 
average person in the state if they seen a change in the 
transportation planning and the management, they say no. That's 
because of this lag.
    Senator Chafee. I think the MPOs have been effective, 
although the average person may not recognize it.
    I've got to move on to Mr. RePass. Thanks, Mr. Spalding.
    Mr. RePass?

   STATEMENT OF JAMES RePASS, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, THE NORTHEAST CORRIDOR INITIATIVE, INC.

    Mr. RePass. Thank you very much for inviting me to be here 
to testify about the proposed reauthorization of the Intermodal 
Surface Transportation Efficiency Act. It is a privilege to be 
here.
    I come before you today as a representative of the National 
Corridors Initiative, founded in 1989, a bipartisan private 
non-profit corporation dedicated to the advancement of 
intermodal passenger rail development in the United States.
    My organization has, over the past 8 years, beginning in 
the Northeast as supporters of the Northeast Corridor 
electrification project and continuing now throughout the 
United States, conducted national conferences, regional 
gatherings, and scores of smaller seminars and meetings, with 
an aim of educating the public and private sectors on the 
benefits of a balanced transportation system that includes 
rail. We have done that because rail passenger service has been 
and continues to be grossly under-utilized in the United 
States, especially when compared to the industrialized 
societies in Europe and Asia with which Americans must compete 
economically. By a variety of measures, low cost, environmental 
impact, efficiency, and as a very tangible as well as symbolic 
means of binding American towns and cities together, rail 
offers a welcome and very necessary alternative to highway and 
air travel.
    This is true not only in the congested urban regions of our 
East Coast, as former Senator Claiborne Pell noted in his 
seminal book, ``Megalopolis Unbound,'' and in those of the West 
Coast and Midwestern travel corridors, but for small towns and 
cities for whom passenger rail service is not only an 
alternative, but the only means of connecting the outside 
world. That is a fact we may tend to overlook in the Northeast, 
and indeed our organization has become more and more cognizant 
of this fact as we have grown and reached beyond our own roots 
in the Northeast.
    In late February, for example, we held a conference in 
Atlanta on emerging Southern rail corridors, which are less 
urban oriented than our own, with representatives of business, 
academic, environmental and governmental communities of 
virtually every state in the deep South: Louisiana, 
Mississippi, Alabama, Tennessee, Georgia and North and South 
Carolina, as well as states such as Florida and Texas. And the 
message that I heard there from them was loud and clear, 
include us in.
    Senator Chafee. You're going to have to summarize if you've 
got seven pages.
    Mr. RePass. In NEXTEA, in building all transportation 
systems, the South and West are demanding to be treated with 
the same degree of respect regarding infrastructure investment 
as the East or Pacific coasts which need heavy investment 
because of dense populations and/or aging infrastructure.
    And yet, in preparing for this testimony, and in reflecting 
on our experiences in speaking with our bipartisan 
constituencies, I also read the remarks you made, Mr. Chairman, 
in introducing the Administration's version of the legislation 
before you today. I was struck with the plain truth of your 
observations and others made today too that we can't use the 
gasoline tax the way it is.
    So on the one hand we have the South and West asking for a 
greater share of the transportation pie, while at the same time 
the very means of allocating that pie makes for unfair, unwise 
bias against efficiency and intermodalism, two key words in the 
very name of the original ISTEA bill.
    To resolve this dilemma and to make more funds available 
not only for rail but for other transportation projects which 
demand attention, we propose the following, we would propose 
three things: Make it easier for private sector funds to be 
invested in transportation projects; two, make it easier for 
states to gather together in interstate compacts to pursue 
regional transportation projects; and, three, to increase the 
flexibility that Governors already have in reallocating Federal 
funds. And I'll leave the explanation of those three points to 
the written testimony.
    I would say, the problems that do come to mind, the 
intermodal station in Warwick, Green Airport, which I think is 
very important to the East coast and also the North-South rail 
link in Boston.
    Intermodalism means getting from door to door by the most 
efficient system possible. People don't take a plane to arrive 
at the airport or a train to arrive at a station. They want to 
get home or to an office or vacationsite. We need to make sure 
that it's possible to do so expeditiously and cost-effectively, 
and that new transportation technologies that promise to 
radically alter the way which we make that last mile or so of 
our trip. The technologies that I've seen in my private sector 
work have become realities.
    At this point I want to talk briefly about the national 
passenger rail system, Amtrak. I want to make it very clear 
that my organization does not represent Amtrak or speak for it. 
We speak only for our own constituency. What Amtrak has 
accomplished under extraordinarily harsh and discriminatory 
environments, those accomplishments are remarkable. Without any 
regular source of capital and without any commitment from any 
source that it would survive from 1 day to the next, Amtrak has 
become the most cost-effective passenger rail system in the 
world. That may be hard to believe for those who catch only the 
headlines, which year in and year out point to Amtrak's 
struggles. But it is so. Amtrak recovers 84 percent of its 
operating costs from farebox revenue. No other major industrial 
country's rail system even comes close. Unfortunately, because 
of chronic undercapitalization, that high-wire act may be about 
to end in a disaster. Unless a regular source of capital is 
made available to the national passenger rail system, just as 
capital is made available for highways and airports, Amtrak is 
going to die. When that happens, sometime early next year 
unless it is turned around, there will be a transportation 
nightmare, the likes which we've never seen.
    In your deliberations here and in the Senate, I would ask 
only that you include intercity rail in the category of 
eligible program recipients Federal transportation dollars, as 
I noted above, but that each of you, Senators, also support 
your colleague Senator Roth of Delaware, and his bill to create 
an intercity trust fund from the 4.3 cent deficit-reduction gas 
tax, for Amtrak capital expenditures. That action, plus a 
supplemental capital appropriation to catch Amtrak back up to 
its totally unfunded capital needs of the past 2 years, when it 
should have been receiving the proceeds of that Intercity Trust 
Fund, are essential if the Nation is to have a viable intercity 
passenger rail system. Finally, let us resolve to understand 
that above all else, we are now and must be one country, not 
North or South, East or West, but simply America. We owe that 
to ourselves and our children.
    Thank you very much for letting me be here today.
    Senator Chafee. Thank you, Mr. RePass. As you know, I'm in 
support of the Roth proposal of the half cent going there. I 
think it's very modest, a half a cent from that currently goes 
in the general fund, of that 4.3 cents .5 cents go to Amtrak.
    And also in, Mr. Schiller, the point you made toward 
parking and use of automobiles is unfair; and I would 
certainly--Senator Moynihan co-sponsored the legislation which 
would allow employees to receive cash in place of, tax-free 
cash in place of this tax exempt parking benefit. In other 
words, if it costs a thousand dollars to provide a parking 
space for a year, that's $300, the employer could give that 
amount of money to the employee to take public transportation; 
and that would be tax exempt.
    Mr. Schiller. I encourage you to followup on that.
    Senator Chafee. And I wrote you, Dan, about some of those 
innovative methods we've been talking about; and let me take--
let me ask you about, what do you think about tolls under the 
administration's plan, reinstate the possibility of tolls on 
our highways, what do you think? Raise your hands, yes or no? 
You're not very bold with the way you raise them. No, how many 
no?
    Mr. Baudouin. Yes.
    Mr. Schiller. Sierra Club is concerned that it would 
finance highways, that would be destructive. That's our 
reservation about it. Perhaps not in Rhode Island, but there 
are specific examples apparently out West.
    Senator Chafee. You mean you have more highways?
    Mr. Schiller. Yes.
    Senator Chafee. I'm not sure why they'd be destructive.
    Mr. Schiller. For the usual reasons, new highways.
    Senator Chafee. Yes, I see. Well, this has been helpful; 
and one of the things obviously we've got to look into is the 
enhancements program and why it seems to be so complicated and 
filled with such delays. I think you've all touched on that.
    Mr. RePass. Perhaps the Senate can give waivers in states 
if they can do that. That's a state by state. But the secretary 
might also waive procurement procedures.
    Senator Chafee. What is it, is the problem that they have 
going through so many procedural steps? I'm not sure. What is 
it?
    Mr. Spalding. I think we heard effectively from the 
Director, to give you a good example, we were talking about 
some money at the technical advisory meeting the other night 
and we asked one of the senior people at DOT why it would take 
so long. He said it would take 2 years to fulfill some storm 
work on a design. The question was--the answer was it just 
takes that long in the state. There clearly needs to be some 
hard looks at how we process projects like this; and indeed the 
Chief of Staff of the Governor shares the same concern you 
have. He was pulling his hair out over the same issue in a need 
to get this money expedited. Perhaps if he directed the head of 
the Department of Administration, the head of DOT, the head of 
DEM to sit down and look at what these delays are about in sort 
of a task force way. So I think the problem has been heard. Now 
the question is whether the followup can be that.
    Senator Chafee. OK, thank you all very much for coming. How 
about a round of applause for our nice and patient 
stenographer?
    [Applause.]
    [Whereupon, at 12:16 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record:]
      Statement of Governor Lincoln Almond, State of Rhode Island
    I am pleased to welcome you, Secretary Slater, to the State of 
Rhode Island for this important hearing. Let me also say that it is my 
privilege to present testimony to the Senate Environment and Public 
Works Committee and in particular to its Chairman, Senator Chafee, on 
our State's behalf.
    As this committee moves forward to reauthorize the Intermodal 
Surface Transportation Efficiency Act of 1991 legislation, known to us 
all as ``ICE TEA'', I would like to express my strong support for 
reauthorization, with simplification and refinement, but without 
significant change.
    I carry this message today wearing many hats. I speak not only as 
the Governor of Rhode Island, but also as the lead Governor on the 
Transportation Committee for the Coalition of Northeastern Governors. 
Additionally, I am a founding member of the ISTEA Works Coalition. 
These coalitions represent regional and national perspectives and have 
spoken in unison, Mr. Chairman, Mr. Secretary. They all want a new ICE 
TEA that is much like the current legislation. A reauthorization with 
simplification and refinement, but without significant change. And I 
agree.
    Passage of ISTEA represented a truly bipartisan effort and a 
revolutionary change from past transportation legislation. It signaled 
the completion of our Interstate system (although we have a local 
section of some concern that I will discuss in a minute) and looked 
toward addressing the new transportation issues and needs that would 
arise in the 90's. ISTEA was an important first step. We need to 
continue on this path.
    Two example of such change included in ISTEA were the 
Transportation Enhancement Program, which sought to better integrate 
transportation projects into the surrounding community and the natural 
environment, and the Congestion Mitigation Air Quality (or ``See 
Mack'') Program which funds transportation projects that will 
contribute to the attainment of air quality standards.
    In Rhode Island, I am pleased to say that these programs have met 
with much success. The enhancement and CMAQ projects, by their very 
nature, have allowed us to develop a more balanced transportation 
system that better protects our environment and preserves our historic 
heritage. These programs should be continued.
    Most importantly, the new public process of determining specific 
projects for funding has brought together groups that, in the past, may 
not have been considered partners in our overall transportation 
planning program. These partnerships have provided an opportunity for 
all parties to better understand the goals and objectives we share and 
the obstacles that must be overcome to achieve them.
    These successes show that ISTEA works. Therefore, I am extremely 
concerned with several of the proposals that are under consideration in 
Washington for ISTEA reauthorization. For example, in the ``STEP 21'' 
legislative proposal, funding for states would be based almost solely 
on fuel taxes paid into the transportation fund by each state. 
Environmentally, socially, and economically, I do not understand why 
Congress would wish to reward fuel consumption and punish fuel 
conservation. Nor do the other Governors of the Northeast.
    This philosophy would support increased single occupancy vehicle 
trips (SOVs) and denigrate efforts to improve transit. I do not 
believe, for a minute, that that is our goal. The Northeast continues 
to make great strides in increasing usage of our transit services. In 
fact, we do not have the luxury to consider any other course. Our 
infrastructure is already overburdened by heavy usage, weather and age. 
I am extremely hopeful that Congress will reject efforts to finance 
transportation by SOV levels alone and consider a more balanced program 
offering intermodal choices that will address our national 
transportation system needs and usage.As mentioned in my opening, I am 
a member of various regional and national organizations who have 
unanimously endorsed ten ISTEA Reauthorization Principles which we 
believe represent essential provisions that will ensure equity, 
efficiency and adequate flexibility in reauthorization legislation. 
Please allow me to highlight these principles.
    First and foremost, we believe it is imperative that Congress 
maintain the course set by ISTEA. This revolutionary legislation, while 
not perfect, recognized how interdependent the states' economies are 
and designed sound programs that benefit the Nation as a whole.
    Second, as stated before, ISTEA should be reauthorized with 
simplification and refinement, but without significant changes. State, 
regional and local governments have invested heavily in making ISTEA 
work. This investment should not be wasted.
    Third, we support authorization of the maximum level of Federal 
investment possible, over the life of the new bill, in our nation's 
multi-modal transportation systems. All sources of revenue that 
currently fund transportation should be maintained and maximized. 
Senator Chafee's recently proposed ``Highway Trust Fund Integrity Act 
of 1997'' is a sound compromise between deficit reduction and increased 
transportation funding. It deserves our support.
    Fourth, the allocation of funds should be primarily based on needs. 
Adjustments to reflect system usage, system extent, level of effort, 
and each states' overall balance of Federal payments and historic 
distribution patterns should be considered. In addition, discretionary 
funding programs must remain available to meet potential extraordinary 
and emergency needs that arise.
    Fifth, we recognize the importance of and the need for the Federal 
Government's role as a key transportation partner to help fund highway, 
bridge and transit projects and to assure that a national focus remains 
on mobility, connectivity, uniformity, integrity, safety and research. 
Our nation's transportation programs should also continue to support 
related national goals such as improved air quality, economic 
competitiveness and improved quality of life.
    Sixth, we need to preserve and strengthen the partnerships among 
Federal, state and local governments and between the public and private 
sectors which were formed by ISTEA. Shared responsibility for national 
transportation interests, encouraging public participation in the 
planning process, building national coalitions and the promotion of 
environmentally friendly intermodal transportation projects must be 
provided for.
    Seventh, the Reauthorization of ISTEA should continue programs and 
refrain from creating any new funding categories or set-a-sides. Due to 
the varying conditions and problems from state-to-state and mode-to-
mode, it should also allow greater flexibility between programs and 
eligibility within programs.
    Eighth, we support minimizing proscriptive Federal regulations to 
allow for a more efficient and effective transportation program and 
eliminate Federal/state duplication. Reauthorized ISTEA should continue 
to reduce time consuming Federal reviews, onerous mandates and 
sanctions, and allow self-certification at the state level.
    Ninth, state and local jurisdictions should be permitted to apply 
innovative financing solutions to address the growing transportation 
financing gap. States should be allowed to utilize their unobligated 
balances to guarantee bonds, enhance credit and capitalize state 
infrastructure banks. We should support continued opportunities for 
public/private cooperation. Senator Chafee has proposed legislation 
this year for such initiatives. We should get behind him on this idea.
    Finally, we continue to support research, development and 
deployment of ways to improve quality and efficiency. This should 
include new intelligent technology such as ITS, a well as other new 
materials, designs and practices.
    If these principles for a new ISTEA could be applied to Rhode 
Island in the years ahead we could take the good start that is working 
in the current ISTEA many steps further. With that in mind, I would 
like to take a brief moment and describe my vision for transportation 
in our state.
    I see intermodalism, so often spoken about, flourishing in the 
Ocean State in the years ahead. Rhode Island requires an intermodal 
system that moves goods and people in and through our state. Let me 
list three primary examples; our plans for a new port, our expanded 
airport, and options for other travelers such as commuters.
    The commercial port that is being developed at Quonset Point will 
need to provide intermodal choices for shippers and their goods. A 
third rail for freight traffic from Quonset Point is a critical part of 
my transportation vision. The voters of Rhode Island have agreed and 
work is underway to design and build this significant project.
    New and expanded shipping service into Quonset will continue to 
grow in the years ahead. We will need to support this project with 
additional investment and other intermodal options in the years to 
come, such as an access road. This will reward us with strong returns 
as it provides the shipping community options for the movement of their 
goods.
    Our airport passengers will also require choices for that facility 
to continue to flourish. Passenger traffic at the new T.F. Green 
terminal has been setting records. This is an excellent example of an 
investment which will show strong dividends to our state and the 
region. But what about intermodalism and connecting those passengers to 
their flights not only by cars but by a train station in Warwick? This 
option is only dreamed about by other airports. We have the Northeast 
Corridor running by the front door of T.F. Green. We should capitalize 
on such an asset.
    Travelers and commuters also deserve choices. With an electrified 
high speed rail through the Northeast Corridor, our citizens will have 
meaningful choice in how to travel through our region while reducing 
congestion. Two and one half travel hours to New York City, roughly one 
half hour to Boston; these are milestones of a historic nature which 
are long overdue. We must continue to support intercity passenger rail.
    The interstate system through Rhode Island will be in excellent 
condition when we finish the most recent round of repaving, with one 
major exception. The I-195 section through the downtown is requiring 
massive repair. After years of review the most logical solution is to 
relocate this roadway. This, Mr. Secretary, will require all of the 
creative energies we can muster to craft a financing plan. But we must 
succeed. By moving the roadway to the south we can dramatically improve 
safety, reduce air emissions, decrease congestion, and extend the 
valuable park land that has revitalized our Capital City.
    Our local roads and bridges must be repaired and maintained. With 
scarce resources, we must be certain to work with all parties involved 
to best take care of what we have.
    My vision also includes a strong transit system. RIPTA, under 
Beverly Scott's guidance, has continued to maintain service in the face 
of Federal operating assistance cuts. Unfortunately, if those cuts 
continue, service will suffer. This, I believe, is the wrong message to 
send at a time when transit must be available as an intermodal choice.
    Finally, the most basic form of transportation, walking, must never 
be overlooked. Coupled with biking, these modes deserve our support. 
Rhode Island has undertaken a strong Greenways program and will be 
starting more bikepath projects in the next few years than ever before. 
It is only fitting that Senator Chafee was awarded national rails-to-
trails recognition yesterday. As with many of these issues, without his 
support and leadership, the broadening of travel options for our 
citizens, the ability to manage our infrastructure assets, and the 
protection of our quality of life would have been nearly impossible.
    These three primary examples of intermodalism in Rhode Island, 
Quonset, the airport, and other modes for travelers, do not stand 
alone. To have a successful transportation system requires seamless 
connections between these modes and choices for users. That is my 
vision.
    In conclusion, I thank you for this opportunity to testify before 
you. The task of reauthorizing ISTEA will not be an easy one. However, 
we look forward to working with you to create a refined ISTEA program 
that will address our country's transportation needs into the next 
century. I would like to repeat my strong support for reauthorization 
of ISTEA with simplification and refinement, but without significant 
change.
    Again, welcome to Secretary Slater, and thanks to Senator Chafee.
                               __________
       Statement of Secretary of Transportation Rodney E. Slater
    Mr. Chairman, I thank you for the opportunity to testify in behalf 
of reauthorizing the Intermodal Surface Transportation Efficiency Act 
of 1991 (ISTEA), the landmark transportation legislation which you 
played a major role in shaping 6 years ago.
    This morning I would like to speak about the National Economic 
Crossroads Transportation Efficiency Act of 1997 (NEXTEA), the 
successor to ISTEA that President Clinton and Vice President Gore 
recently joined me in proposing.
    I want to express my appreciation to you, Mr. Chairman, for 
introducing NEXTEA in the Senate. I know that last Tuesday you also 
introduced another major proposal, ``the ISTEA Reauthorization Act,'' 
and that it shares many goals and themes with NEXTEA. We look forward 
to working with you on ISTEA's reauthorization during the forthcoming 
legislative process.
    There is no question of the importance of reauthorization. As the 
President said when we announced our proposal, the bill ``will create 
tens of thousands of jobs for our people, help move people from welfare 
to work protect our air and water, and improve our highway safety. This 
transportation bill literally will be our bridge into the 21st 
century.''
    NEXTEA, as far-reaching as it is, was not created in a vacuum: it 
carries forward many of ISTEA's principles and policies.
    Before ISTEA, the different transportation modes were not viewed as 
part of an interrelated whole serving vital national interests, nor 
were transportation's impacts on other concerns, such as the health of 
our environment or the condition of our cities, the subject of enough 
consideration.
    ISTEA changed all of that. Beginning with the first word of its 
title, ``Intermodal,'' it signaled a change in how the Federal 
Government viewed surface transportation and a redefinition of its role 
in a partnership to improve mobility.
    ISTEA emphasized an integrated approach to transportation planning 
and programming, looking at the different forms of transportation as 
parts of an interconnected network and bringing together many 
constituencies and interests which had not previously been part of 
these decisionmaking processes. For example, in New Jersey, 
metropolitan planning organizations have become full partners in 
transportation program decisionmaking since ISTEA's enactment.
    ISTEA began to streamline Federal administrative processes, 
simplifying requirements and removing layers of oversight and 
eliminating many reporting mandates.
    ISTEA revamped the statewide and metropolitan planning procedures 
and required that a broad range of transportation's impacts, such as 
those on air and water quality, be analyzed and, in many cases, 
actively mitigated through initiatives such as the Congestion 
Mitigation and Air Quality Improvement Program (CMAQ).
    Together with cleaner vehicles and fuels, programs such as CMAQ 
have helped to improve air quality. In Rhode Island, CMAQ has supported 
incident and congestion management projects, a transportation 
operations center, and inspection and maintenance program planning and 
testing. Elsewhere in the northeast CMAQ has supported the Red Hook 
freight barge, which each day takes hundred of trucks off of New York 
City's streets, and the Auburn intermodal freight facility in Maine, 
which takes 12,000 trucks a year off of I-95.
    In viewing transportation as a means, and not as an end in itself, 
ISTEA enabled state and local officials to set their priorities based 
not on what kinds of funding might be available but rather on what 
types of projects would best meet the mobility needs of individual 
communities and regions.
    This emphasis on intermodalism was furthered by ISTEA's expansion 
of states' abilities to transfer funds between programs and among 
transportation modes. For instance, ISTEA funds were used to help 
support intermodal improvements to the T.F. Green Airport Terminal here 
in Warwick. In Pittsburgh, the new international airport will be served 
by a busway which is projected to reduce rush hour travel times to 
downtown by 36 minutes.
    This support of integrating modes can be seen in smaller ways which 
also directly improve people's lives: in Acton, Massachusetts, we 
funded bike racks and lockers at a rail station, enabling Boston-bound 
commuters to bicycle for part of their trip, improving local air 
quality and reducing the need for parking.
    Even as ISTEA changed how transportation projects and initiatives 
are selected, it also transformed how they are designed, Wendell, and 
built. Improvements in design and engineering have enhanced quality. 
Innovative contracting is beginning to cut construction costs, 
accelerate project implementation, and enhance value. For example, 
repair of I-95 in Philadelphia, damaged by a fire caused by an illegal 
tire dump, was completed nearly 4 weeks early through the use of 
incentive payments.
    New materials developed under ISTEA-authorized research programs, 
such as high performance concrete and Superpave asphalt, are also 
increasing the useful life span of our infrastructure and reducing 
long-term replacement costs. In Glasgow, Delaware, the deck of a 
replacement bridge to be built next year on State Route 896 will be 
made entirely of fiber reinforced plastic which is lighter, more 
resistant to corrosion, and longer-lasting. I also understand that the 
Rhode Island State Department of Transportation will begin using 
Superpave components next year, and we look forward to seeing its 
benefits as it is fully phased in.
    Experimental provisions within ISTEA have made possible innovative 
financing, which cuts red tape to move projects ahead faster and 
leverages Federal funding with private and nontraditional public sector 
resources.
    The President's Partnership for Transportation Investment, which 
used ISTEA's experimental provisions for such strategies as toll 
credits for state matching funds and Federal reimbursement of bond 
financing costs, has advanced 74 projects in 31 states with a 
construction value of more than $4.5 billion, including more than a 
billion dollars in new capital investment directly attributable to this 
program. Many of these projects are progressing to construction an 
average of 2 years ahead of schedule.
    For example, in Rhode Island track improvements to improve rail 
service will be added to the Amtrak corridor. Using a cash-flow 
technique known as advance construction, this $1 15 million project 
will be completed a decade earlier than under conventional financing. 
The project will directly benefit both Amtrak passengers and freight 
shippers, who will see fewer delays, and indirectly benefit travelers 
and commercial vehicle operators on I-95, who will see less congestion.
    New Jersey used phased funding to begin work a year early on a new 
viaduct at the interchange of Routes 1 and 9 in Newark. The state also 
was able to apply toll road revenues used for capital investments as 
the match for Federal funds, effectively freeing up more than $800 
million of state funds for other projects.
    And yesterday I joined Senator Lieberman in breaking ground for the 
$410 million reconstruction of I-95 in Bridgeport. Using the technique 
of partial conversion financing to enable construction to begin a year 
early, Connecticut residents and interstate travelers will be able to 
benefit from the rebuilt road sooner.
    ISTEA recognized that new priorities and new ways of doing business 
can best be encouraged by ensuring that the funding provided to support 
them is adequate. Toward this end, ISTEA increased overall Federal 
transportation funding authorizations. President Clinton has worked 
with Congress to make the most of those higher authorizations, raising 
infrastructure investment by more than 20 percent, to an average of 
more than $25 billion annually over the past 4 years.
    Nationally, that increased funding has helped to stabilize or 
improve many indicators of highway conditions and performance. The 
condition of highway pavement, which had been deteriorating, has 
stabilized, and the number of deficient bridges has decreased by nearly 
17,000 since President Clinton took office. We have kept pace with our 
transportation system's maintenance requirements and stopped its 
deterioration.
    Mass transit investment also has increased, enabling us to purchase 
nearly 26,000 new buses and nearly 600 new rail cars for state and 
local transit agencies. We also have helped to construct more than 100 
miles of new transit lines serving more than 100 new stations. Transit 
speeds have improved by an average of about 10 percent.
    In Rhode Island, this increased infrastructure funding is making 
possible major improvements such as the $250 million relocation of I-95 
along the Providence River Hurricane Barrier, a project which would 
free up 23 acres of land in the downtown. I understand that the Rhode 
Island Department of Transportation is exploring a public-private 
partnership to help finance, design, and build this project, and we 
look forward to cooperating with them to leverage public sector 
resources and reduce the cost to the taxpayers.
    This funding is making possible major regional improvements such as 
the South Station Intermodal Center in Boston, which links Amtrak, 
commuter rail, and bus service, and which serves as a key link to the 
Central Artery and to Logan Airport.
    The reconstruction of SEPTA's Frankford Elevated Reconstruction 
Project in Philadelphia, which I visited on Friday, will take place 
while service continues, and is being funded in part through a grant 
which I presented.
    The Queens Connector in New York, which I also visited on Friday, 
will increase the number of trains serving Manhattan and save commuters 
almost eight million hours of travel time every year, and I awarded a 
grant for this project as well.
    And this afternoon I will join Senator Lautenberg to award funding 
for work on the Secaucus Transfer element of the New Jersey Urban Core 
Project, which will make commuter rail an even more integral part of 
that state's transportation system.
    It is clear that transit is vital to mobility in the northeast, and 
ISTEA has made possible an unparalleled commitment to public 
transportation. ISTEA's greater programmatic flexibility has enabled 
funding to be transferred to transit and other urban priorities. Over 
$3 billion of flexible highway funding was used during the life of 
ISTEA for high-priority transit projects, increasing overall transit 
investment under ISTEA to more than $5 billion in fiscal year 1995 
alone.
    In the northeast, that has supported such initiatives as the 
forthcoming restoration of commuter rail operations through 
Massachusetts' Old Colony service to Boston and the introduction of 
passenger rail service to Rutland and to Burlington, Vermont.
    Although record levels of funding have gone to transit and to such 
alternatives as bicycle and pedestrian programs in urban areas such as 
Providence, a substantial portion of ISTEA funding has continued to be 
used to maintain our highways, the backbone of travel in much of the 
nation.
    In fact, from 1993 to 1995, 54 percent of funding from the highway 
account (as opposed to the transit account) went to system maintenance, 
compared to just half that, 27 percent, for capacity expansion. The 
balance of 19 percent was devoted to safety programs, to environmental 
and enhancement initiatives, or was transferred to transit.
    ISTEA's legacy, then, is one of meeting the transportation 
challenges of the 1990's through new emphases and new strategies 
without neglecting traditional concerns. As we approach the 21st 
century and demands brought about by such varied factors as our 
economy's increasing globalization and our population's changing 
demographics, we want to build on ISTEA's successes.
    After you honored me with your vote for my confirmation as 
Secretary of Transportation, Mr. Chairman, I pledged at my swearing-in 
to pursue three goals. First, to continue making safety our number-one 
priority. Second, to invest in our infrastructure to ensure that 
America's transportation system meets the needs and desires of the 
American people in the 21st century. Third, to use a common-sense 
approach to running the Department so that it works better and costs 
less. With NEXTEA, we are moving to achieve all three goals.
    This builds on the effort begun 2 years ago, when we first started 
to consider what form ISTEA's successor should take. We began an 
extensive process of outreach to our constituents which included major 
regional forums, including one in Providence last September, and scores 
of other meetings involving thousands of attendees from state and local 
governments, the transportation industry, other interested groups such 
as freight shippers and environmentalists, and the general public.
    Overwhelmingly, the message we heard was that ISTEA has been a 
success, and that we should continue the many Federal programs that are 
working, refine those that have not yet fully realized their promise, 
and create new initiatives to meet the challenges of the new century. 
We believe that NEXTEA does all of these things.
    It would increase overall Federal surface transportation funding 
authorizations by 11 percent, from $157 billion during the past 6 years 
to $175 billion for fiscal years 1998-2003, a level of funding 
consistent with our transportation system's requirements and the need 
to balance the budget during that same period.
    By eliminating certain categories of spending, NEXTEA provides a 30 
percent increase in core highway programs, such as those for Interstate 
Maintenance and the National Highway System. It also includes a 17 
percent increase for transit major capital investments.
    Mass transit capital investment has been redefined to include 
preventive maintenance. That would provide local transit operators with 
the flexibility to decide whether to prolong the life of existing 
assets, or to purchase new vehicles, facilities, or equipment.
    If Congress funds NEXTEA at the levels we have proposed, it would 
mean nearly $710 million for Rhode Island over the next 6 years in 
formula-based funding alone, and more than $36.8 billion in the 11 
states from Maryland to Maine. In fact, 49 of the 50 states would 
receive more funding under NEXTEA than under ISTEA. (The sole 
exception, Massachusetts, received unusually high levels of funding 
under ISTEA to support construction of Boston's Central Artery Third 
Harbor Tunnel project.)
    Such funding also could be directed to urban priorities because of 
increases in the flexible Surface Transportation Program and because 
Amtrak intercity public rail terminals, and projects to improve access 
to public ports would be made eligible for funding.
    This funding and the projects it would support could help to reduce 
the $50 billion a year that urban congestion costs commuters and 
freight shippers. There is also an even more direct economic benefit: 
the construction and other work which would be generated by this plan 
could support an estimated one million jobs over the next 6 years, 
including 4,800 here in Rhode Island and more than 238,000 in the 11-
state northeast region.
    NEXTEA would provide direct capital and operating assistance to 
Amtrak, including funding to continue improvements to the Boston-to-
Washington Northeast Corridor. $4.766 billion would be authorized for 
the years 1998-2003. NEXTEA also would increase states' ability to use 
Surface Transportation Program, National Highway System, or transit 
funds for intercity services.
    Separately, NEXTEA would continue to fund research and development 
of next generation high-speed rail technologies. This continuing 
research will lead to Amtrak's introduction of high speed service 
between Boston and Washington beginning in 1999. As you know, the 
electrification work needed to make this service possible between 
Boston and New Haven began in July 1996, and is well underway.
    NEXTEA also sustains the Federal commitment to Intelligent 
Transportation Systems (ITS), which apply advanced information and 
communications technologies to transportation through systems available 
today such as ramp meters and synchronized traffic lights, and through 
technologies which could be available tomorrow, such as intelligent 
vehicles incorporating advanced collision avoidance systems and other 
systems now under development.
    In metropolitan areas, these technologies can cut by 35 percent the 
cost of providing the highway capacity we need over the next decade. 
These technologies also can improve safety: if all vehicles were 
equipped with just one of three primary ITS crash avoidance systems--
rear-end, roadway departure, and lane change/merge--we could prevent 
one out of every six crashes, more than a million a year.
    NEXTEA would support ITS research and deployment through standards 
creation, training, and technology transfer. It also would fund work in 
collision avoidance and vehicle control systems to reduce crashes. We 
have proposed $678 million over the next 6 years for such initiatives.
    We also have proposed a 6-year, $600 million incentive program to 
promote the integrated deployment of ITS technologies that are 
technically feasible and highly cost-effective. Some of these efforts 
are already under way using ISTEA funding; for example, Maryland's 
statewide traffic management center opened in 1995, and the state also 
is linking traffic detectors, pavement sensors, and fiber optic systems 
to improve traveler information on its freeways.
    Safety, Mr. Chairman, cannot be emphasized enough. Our 
transportation system cannot only be about moving people and products 
efficiently, as important as that is to our prosperity: it must also be 
about enabling people and products to travel safely. Travel is safer 
than it was at the beginning of the decade, but as traffic increases, 
so does the possibility of more highway crashes, with tragic results 
for American families and a cost to our economy of more than $150 
billion annually.
    ISTEA has helped to make travel safer, supporting programs to 
prevent drunk driving and to raise safety belt use. In Rhode Island, 
the fatality rate has been cut nearly in half in just a decade, to a 
current level of one fatality per hundred million miles traveled, 40 
percent below the national average. The state is now considering 
legislation to strengthen safety belt use and antidrunk driving laws, 
initiatives we welcome and support.
    The President's proposal would increase funding authorizations for 
the National Highway Traffic Safety Administration's safety programs by 
more than 25 percent, and by supporting new programs targeted to the 
biggest safety payoffs: combating drunk and drugged driving and 
increasing proper use of safety belts and child restraints.
    This would support the President's safety belt initiative which I 
announced last week. This initiative sets a goal of raising safety belt 
use to 85 percent by 2000, saving 4,200 lives per year, and to 90 
percent by 2005, which would prevent more than 5,500 deaths.
    NEXTEA also would enable Rhode Island to continue such effective 
initiatives as the ``Cops in Shops'' program, through which state and 
local police enforce the ban on liquor sales to minors.
    It would focus on developing and promoting new ways to improve 
safety through partnerships, such as the Greater Providence Safe 
Communities Network which supports such activities as the Buckle-Up 
Hotline, a trauma registry, and an emergency medical services project 
in Providence's Hispanic community.
    Although we are in the process of reviewing the new study of 
pedestrian safety by the Surface Transportation Policy Project and the 
Environmental Working Group, we agree that this is a real concern. 
Through NEXTEA and through other programs, we want to continue the 
expanded emphasis we have placed on pedestrian safety through such 
initiatives as the Partnership for a Walkable America For instance, we 
want to sustain our support of pedestrian and bicycle improvements, 
which can enhance safety. Under ISTEA, our funding of these programs 
has risen from $4 million annually to about $160 million a year.
    Mr. Chairman, last week President Clinton submitted a proposal to 
Congress entitled the ``Surface Transportation Safety Act of 1997.'' 
Although it is not the focus of my testimony today, I want to emphasize 
that this proposal is an integral part of our overall initiative to 
improve America's surface transportation system. It includes provisions 
to encourage states to adopt ``primary'' safety belt use enforcement 
laws, provisions to improve the safety of food shipments and hazardous 
materials transport, and initiatives to enhance the safety of 
pipelines, railroads, and mass transit systems. We see these additional 
titles as an integral part of the safety proposals included in NEXTEA.
    I want to note that, while safety must always be our foremost 
concern, we believe we can make our roads safer without unnecessarily 
compromising roadside aesthetics and the condition of adjoining 
landscapes, and we are committed to working with states and localities 
to do this whenever feasible.
    For example, in Pennsylvania pavement ``rumble'' strips, overhead 
warning signs, and skid resistant pavement in the Lewiston Narrows area 
have reduced fatalities to fewer than a fish of the total just a few 
years ago.
    NEXTEA enables us to do build on these efforts through such 
initiatives as those to remove highway safety hazards and to eliminate 
highway-rail grade crossings. Funding nationally for these efforts, 
which also include improved intersections, signs, and other 
enhancements, will increase from $445 million annually under ISTEA to 
$575 million by 2003.
    As the President said when he announced NEXTEA, ``make no mistake 
about it, this is one of the most important pieces of environmental 
legislation that will be considered by Congress in the next 2 years. 
And I think it should be thought of in that way.''
    Our commitment to protecting the environment is seen throughout 
NEXTEA. As with highway safety, more traffic challenges the progress we 
have made. More travel could dilute the progress made through cleaner 
cars, fuels, and programs such as CMAQ. That is why we have to 
continue, and even expand, the efforts that have brought us this far. 
NEXTEA increases by 30 percent funding for CMAQ to help communities use 
various transportation initiatives to clean up their air.
    It also would continue our commitment to protecting water quality 
and maintaining America's wetlands. Projects such as the Route 101 
wetlands mitigation in New Hampshire, the largest such in the 
northeast, are proving their importance to our environment and need to 
be continued.
    NEXTEA also sustains investment in bicycle paths, scenic byways, 
recreational trails, and other programs that cost relatively little but 
which greatly improve the quality of our lives. For example, last year 
the Merritt Parkway and State Route 169 in Connecticut, the Seaway 
Trail in New York, and the Kancamagus Scenic Byway in New Hampshire 
were designated as National Scenic Byways, and Rhode Island has been 
active in making plans to preserve the integrity of its scenic routes.
    ISTEA's Transportation Enhancements program is supporting the Cliff 
Walk restoration in Newport, train station improvements in Kingston, 
Westerly, and Woonsocket, the Blackstone River Bikeway Access project, 
and Woonsocket's Market Square Common bicycle-pedestrian project, 
initiatives which are relatively low in cost but which improve our 
quality of life.
    ISTEA also supported the restoration of the Woodbridge, New Jersey 
train station and the redesign of New York's Frederick Douglass Circle, 
an important gateway to Harlem and other northern Manhattan communities 
which I visited last October and again this past week. These projects 
shows how transportation improvements can enhance the quality of life 
for all of our citizens, not only those using a given part of the 
transportation system.
    The President's plan also addresses other national priorities. It 
would help to reduce the barriers faced by those moving from welfare 
rolls to payrolls by encouraging affordable transportation to jobs, 
training, and support services such as child care, creating opportunity 
for many thousands of Americans. That is important, since two-thirds of 
new jobs are in the suburbs, only about 6 percent of welfare recipients 
own cars, and mass transit does not always serve suburban areas 
efficiently.
    NEXTEA is intended to help bridge this gap between people and jobs. 
It includes a 6-year, $600 million program of flexible, innovative 
alternatives, such as vanpools, to get people to where the jobs are, 
whether they are in suburbs, in cities, or in rural areas.
    Since transportation and construction jobs are among America's 
best-paying, we want to open opportunities in these fields for welfare 
recipients and other disadvantaged people. NEXTEA would increase 
incentives for states and localities to provide job training in 
conjunction with federally funded technology and construction projects, 
and to enable them to offer hiring preferences to welfare recipients 
and residents of Empowerment Zones and Enterprise Communities. We want 
to build on the efforts of states such as Rhode Island, in which 2 
percent of highway construction workers last year were enrolled in 
special apprenticeship and training programs.
    Under NEXTEA, we also propose to continue providing opportunities 
for small businesses and for women and minority entrepreneurs. We are 
encouraged that 12 percent of the Federal funds expended in Rhode 
Island on highway contracts last year went to such firms.
    We also want to explore efforts to link mobility and human needs, 
such as Wilmington, Delaware's proposal to create a riverfront 
intermodal transportation center which also integrates housing and 
jobs. I visited the site of this proposed facility last Thursday, and I 
look forward to hearing about similar initiatives around the country.
    NEXTEA also continues the commitment to common sense that President 
Clinton and Vice President Gore have brought to government operations 
over the past several years. NEXTEA proposes more common-sense ideas: 
focusing on results, not on process; cutting red tape and streamlining 
requirements; promoting innovation, such as more new ways to pay for 
roads and transit systems; and giving state and local officials even 
greater flexibility to target Federal funds to projects which best meet 
community needs.
    NEXTEA expands our innovative financing program. For example, it 
includes $900 million in seed money for state infrastructure banks, 
which leverage private and other nonFederal resources, and opens this 
program up to all states. I know that Rhode Island has applied to use 
seed money from this program and from its regular Federal-aid 
apportionment to establish a $20 million bank and we currently are 
evaluating its application together with others we have received.
    NEXTEA also dedicates $600 million for an Infrastructure Credit 
Enhancement Program to help leverage nonFederal resources for projects 
of national significance which individual states cannot afford, such as 
interstate trade corridors. That responds to states' needs in handling 
the increased traffic from NAFTA and other agreements to promote trade.
    NEXTEA also makes the transportation planning process simpler and 
smoother for our state and local partners. It would streamline the 23 
statewide and 16 metropolitan planning factors into seven broad goals 
that states and localities can use as appropriate to guide their 
planning. It would emphasize system operations and management so that 
planning considers a complete range of transportation options, 
including intelligent transportation systems, and it would expand 
planning's inclusiveness by ensuring that the concerns of freight 
shippers are heard.
    NEXTEA also continues to transform Federal oversight by reducing 
project reporting and certification requirements. We know that we must 
trust our partners in state and local government and the private sector 
instead of burdening them with paperwork.
    Finally, NEXTEA recognizes the need to replace outdated and 
outmoded funding apportionment factors, and has proposed Highway Trust 
Fund apportionment formulas that are fair and that relate well to the 
program's overall national objectives. Recognizing that a sudden change 
to the formula factors could disrupt ongoing state programs, we also 
have proposed certain equity adjustments to ease the transition to more 
accurate distribution of funds.
    NEXTEA, in summary, is faithful to what we heard from our 
constituents: sustain ISTEA's principles, streamline its requirements, 
increase its flexibility, and raise its funding levels. NEXTEA would 
help to give Americans what they told us they want: a transportation 
system that is sensitive to environmental concerns and that enables 
them to get to their destinations safely, conveniently, and on time. We 
listened to them, and we learned, and we have produced a proposal which 
can take America's transportation system into the 21st century, and set 
our course not just for the next 6 years, but for the next 60.
    As Presidents from Washington to Wilson to Eisenhower knew, 
transportation unifies a diverse nation, and creates opportunities for 
people to pursue their own vision of happiness. President Clinton and I 
are proud to continue in this tradition of support for sound 
transportation and look forward to working with you and your colleagues 
in Congress during this very important reauthorization process. Mr. 
Chairman, this concludes my statement. Now, I would be pleased to 
answer any questions you may have.
                               __________
     Statement of William D. Ankner, Ph.D., Director, Rhode Island 
                      Department of Transportation
    Senator Chafee, Secretary Slater, Governor Almond, others. . . It's 
a pleasure for me to be here this morning on behalf of the Rhode Island 
Department of Transportation. . . to express my strong support for the 
reauthorization of the Intermodal Surface Transportation Efficiency Act 
(ISTEA), without significant changes.
    Passage of ISTEA marked a sea change in the way Federal 
transportation dollars can be spent. As opposed to relying on strict 
categories determined by Washington, ISTEA allowed states the 
flexibility to define their transportation needs. . . and finance most 
of them.
    This is but one of the points where alternative transportation 
proposals, such as that offered by the Step 21 coalition, fall short.
    It is as though we have not learned and grown through the ISTEA 
process over the past 5 years. Such proposals are a return to the ``old 
ways'' of doing business--and definitely not the good old days. Simply 
put, the opponents of ISTEA just don't get it.
    The Step 21 plan allows money to be spent on air quality programs, 
but doesn't mandate such programs. It speaks to public involvement, but 
basically guts all the essential public requirements gained through 
ISTEA.
    Vague language replaces specific requirements and policies. Transit 
issues are not even addressed. Specific programmatic goals and polices 
are negated or deleted.
    Perhaps one of the most difficult provisions of ISTEA for all 
states has been the fiscal constraint requirement associated with the 
development of a States' Transportation Improvement Program (TIP). 
Quite frankly, it's caused us many a long night and a multitude of 
conversations.
    However, due to the strong partnership requirements in ISTEA and 
the increased level of public involvement, these decisions have 
included wide representation from all affected parties.
    No longer are all our transportation priorities determined solely 
be a select few. This is a major structural improvement that will 
likely be lost if ISTEA, as we know it, falls by the wayside.
    They just don't get it. After finally bringing real public 
participation into the transportation decisionmaking process under 
ISTEA, they would go back to the days of rubber stamps and public 
disconnection.
    As noted by Governor Almond, some ISTEA alternatives like Step 21 
would structure the new system based directly on each individual 
state's fuel taxes paid into the transportation fund. In essence, a 
state would only get out what it put in.
    A state's transportation deficiencies and general need would have 
no role in the process of determining allocations.
    Again, they just don't get it. Single Occupant Vehicles (SOV) and 
Vehicle Miles Traveled (VMT) based funding formulas would result in 
more pollution, greater energy use and devastation of our mass transit 
programs.
    We cannot turn our backs on the progress we have made in these 
areas, under the bogus refrain of equity.
    No other Federal program allocates resources on the basis of 
contributions. Resources are appropriated on the basis of need. It does 
not appear appropriate to totally change course at this time.
    The ISTEA alternatives have no role for states and local 
governments managing their transportation systems. Technology solutions 
such as ITS seem absent from their programs.
    Once again, they just don't get it.
    We can't build our way out of congestion. We must manage our 
transportation needs.
    For example. It's been shown that simply synchronizing our traffic 
lights can restore 10 to 15 percent of capacity during the average 
commute.
    Every 1 minute improvement in incident response time saves 4 
minutes of congestion. These are the kinds of improvements we must 
continue to focus on.
    The ISTEA alternatives would also undercut national needs for local 
preferences. Here again, they just don't get it.
    The basic structure of ISTEA is similar to that of an orchestra, 
with a combination of talented musicians and artful conductors 
performing together in a symphony.
    The non-ISTEA solutions are akin to several individual musicians 
playing their own tunes, with a hope that they will somehow blend 
together as a unit. I believe we should do more than hope that our 
national transportation needs are being met.
    The world has shrunk. Increasing interdependence means improvements 
made in California will certainly effect freight and people movement in 
Rhode Island. In concert with the Federal Government, we must continue 
to recognize and promote this interdependency connection.
    ISTEA works. It works for our nation. It works for our highways and 
bridges that connect our cities. It works for transit. It works for 
Rhode Island. And it also works for smaller communities.
    The transportation enhancement program has probably done more good 
in this regard than any other program in allowing Federal dollars to 
meet basic local needs.
    Just yesterday I had the opportunity to join Senator Chafee at 
Market Square Common in Woonsocket, Rhode Island. Thanks to the 
Enhancement Program, the city center will be completely revitalized to 
accommodate motorists, bicyclists and pedestrians in a completely 
integrated manner.
    This type of project can revitalize a large city or a small town. 
It's a shame that those who would reverse this progress just don't get 
it.
    In closing, the opponents to ISTEA cite many restrictions and 
obstacles to the implementation of ISTEA. We share some of their 
concerns. However, they just don't get it.
    In many cases it's not the law that has caused the problems. . It's 
the regulations and procedures. A good example of this is a situation 
we faced in East Greenwhich, where we had to fix the staircase at the 
local courthouse.
    Despite the relatively tiny amount of enhancement funds needed, we 
still had to comply with the standard Federal guidelines--making the 
project much more complicated than it should have been. We can, 
however, fix this problem by streamlining such requirements, without 
changing the fundamental structure of ISTEA. This is the kind of 
improvement we should be focusing on.
    Consequently, in Rhode Island, along with my ISTEA Works group 
colleagues, we have developed a package of proposed legislative and 
regulatory changes, to help streamline and make improvements to ISTEA.
    I feel very fortunate that my ISTEA Works colleagues have allowed 
me to be the first to present this list of improvements, which is 
included along with my written testimony. (Hold up list).
    Instead of abandoning ISTEA, we should be working to improve the 
crucial benefits we have realized through ISTEA. Benefits such as (a):
    <bullet>  Recognition that the Federal role extends beyond the 
interstate roadway to a matrix of roads, bridges and intermodal 
facilities that are multi-jurisdictional but essential to interstate 
mobility.
    <bullet>  Endorsement of a strong Federal role in preventative 
maintenance for a sound national transportation system.
    <bullet>  Recognition of the importance of integrating all modes of 
transporting people and goods, particularly transit.
    <bullet>  Creation of the Enhancement and Congestion Mitigation Air 
Quality programs.
    <bullet>  Expansion of the role for public and MPO involvement in 
transportation planning and program development.
    <bullet>  Realization that we need to manage our transportation 
system. No longer are the DOT's simply builders and landlords. . . We 
are mangers of a transportation business.
    It is these very strengths that we see lacking in major 
transportation proposals such as that offered by the STEP 21 coalition 
and others.
    Before I conclude, I'd like to address an issue that, to the best 
of my knowledge, has not been discussed in any of the testimony to 
date. The issue is accountability. There is a role for the Federal 
Government to play. These dollars should not be parceled out as a block 
grant. The Federal Government has a right to see that they are getting 
the proper bang for their buck.
    And they have a right to insist on performance criteria for 
allocation of Federal resources. Performance measures and 
accountability must be woven into the ISTEA programs.
    I want to once again thank you for the opportunity to speak here 
this morning. The task before this committee is not an easy one. 
However, I look forward to working with you to help put together a 
transportation act that's right for our nation and will allow our 
transportation system to prosper into the twenty-first century.
    Thank you.
                               __________
  Statement of Beverly A. Scott, General Manager, Rhode Island Public 
                           Transit Authority
    Good morning, Mr. Chairman and members of the committee. I am Dr. 
Beverly A. Scott, general manager of the Rhode Island Public Transit 
Authority (RIPTA).
    The Rhode Island Public Transit Authority provides one million 
Rhode Islanders with affordable and accessible bus service. With an 
annual budget of $34 million, a staff of 507 and a fleet of buses 
numbering 225, last year RIPTA moved nearly 19 million riders through 
36 of its 39 cities and towns. We are able to continue providing this 
important service to Rhode Islanders due in large part to the 
Intermodal Surface Transportation Efficiency Act of 1991--more commonly 
known as ISTEA.
    Mr. Chairman and members of the committee, I am speaking before you 
today on behalf of the people of Rhode Island. They and I congratulate 
you on your foresight and wisdom in creating ISTEA.
    My testimony today will clearly demonstrate the positive effects of 
this revolutionary act. I will present examples of how ISTEA works for 
Rhode Islanders and how it has created revolutionary change in the ways 
the Rhode Island Public Transit Authority meets the needs of its 
citizens.
    I will outline our state's accomplishments, which is also the home 
state of your chairman and the father of RIPTA, our Senator, John 
Chafee. It was his vision and leadership that helped create a new 
direction for transportation funding. It was his vision and leadership 
30 years ago--when he was Governor of Rhode Island--that created the 
Rhode Island Public Transit Authority.
    Sen. Chafee's foresight makes Rhode Island one of a handful of 
statewide transit operations in the nation. The multiple benefits of a 
statewide operation are enormous. Through coordination of services, we 
avoid duplication, reduce our operating expenses and make the best and 
most efficient use of our personnel.
    Public transit is a critical part of life in Rhode Island. We rank 
third in the Nation in the number of residents 65 and older. Nearly 19 
percent of our daily riders are elderly or persons with disabilities. 
School children, low-income families and welfare recipients comprise a 
significant portion of our ridership.
    In 1999, under the Clinton plan, Rhode Island will lose up to $10 
million in Federal funding. It will dramatically affect our quality of 
life and the way people live and work in our state. The effects of 
reducing RIPTA's $36 million dollar budget by $10 million will 
seriously alter the quality of life for the people of Rhode Island.
    ISTEA funding has made it possible for the Rhode Island Public 
Transit Authority to provide basic services to our customers. There are 
no frills, no bells or whistles in our operating budget. There is 
nowhere to cut the budget that would not have a major effect on public 
transportation for Rhode Islanders.
    When you invest in Rhode Island with ISTEA, you help to provide the 
linkage over an entire state that improves the mobility opportunities 
for our citizens.
    When you cut our fair share of funding, you eliminate the lifeline 
for the people of Rhode Island.
    People like Mary Ann.
    A single mother with two school age children and a pre-schooler, 
Mary Ann is struggling to create a life for herself that doesn't 
include public assistance or food stamps. So 5 days a week, Mary Ann 
awakens her three children at six o'clock in the morning, prepares 
their breakfasts and lunches, gets herself and the children dressed and 
out the door by seven. She walks to the corner of her street and 
catches the first of three RIPTA buses she will take to get her three 
children to elementary school, a day care center and finally to her 
school--a literacy center where she is receiving lessons in reading and 
writing, and job training for a career in the health field.
    Fortunately for Mary Ann, and many like her, RIte Care makes it 
possible for her to ride the bus. RIte Care is Rhode Island's health 
insurance program for low-income children and pregnant women. It's also 
the state's managed care program for families that need assistance. 
RIPTA saw the need for a linkage with the RIteCare program well before 
the national focus on welfare reform. ISTEA allows us to maximize this 
Federal funding investment by creating this local program to better 
serve the needs of people like Mary Ann.
    And people like the Jamestown (RI) town manager who chairs the 
Transportation Improvement Program (TIP) in Rhode Island. Comprising 
city planners, environment leaders, department of transportation 
representatives and community members from all walks of life. The TIP 
Committee in RI is the decisionmaking authority for ISTEA funding.
    For example, the committee targeted our Bike Rack program as worthy 
of funding. In a few months every one of our 225 buses will be equipped 
with bike racks. Connecting mass transit and bicycles for congestion 
reduction and air quality improvements is a natural fit. Not everyone 
is within walking distance of bus routes, nor do they wish to drive to 
a fringe parking facility. At a relatively low cost, the Bike Rack 
program will produce long lasting positive effects on air quality 
improvements, fuel and traffic reduction.
    Not only do these examples point up how RIPTA--through ISTEA 
funding--is responding to the needs of the community, it clearly 
illustrates how we work hand in hand with other state and local 
agencies in delivering transportation choices.
ISTEA: A revolutionary act creating revolutionary change for Rhode 
        Island
    The Intermodal Surface Transportation Efficiency Act of 1991 was 
not only landmark legislation, it was revolutionary. By changing the 
way the Nation view's surface transportation, it set the course for the 
public transit challenge for the next millennium. To meet this 
challenge, we must continue to find ways of reducing congestion on our 
highways. At the same time, we must find ways to provide affordable and 
accessible transportation choices for a nation that is increasingly on 
the move.
    Continued ISTEA funding for public transit is critical. The 
expected loss of Federal operating assistance--as President Clinton has 
proposed--will hurt RIPTA more than the larger systems who are less 
dependent on operating assistance, or the small systems slated for 
continued operating support.
    For urbanized areas with more than 200,000 people, the 
Administration proposes to expand the definition of capital to include 
``preventive maintenance'' costs of transit assets, contracted American 
with Disabilities Act (ADA) paratransit services, and debt service. 
This added flexibility would replace operating assistance.
    There is no firm definition of preventive maintenance costs. In 
order to realize the maximum benefit from this additional flexibility, 
the definition needs to include all normal direct and indirect 
maintenance operating costs, i.e., all labor, parts and material 
utilized to maintain the Authority's rolling stock, non-revenue 
vehicles, physical plant and equipment.
    We can not lose sight of the positive and productive impact that 
ISTEA has had in Rhode Island. It has allowed Rhode Islanders to make 
transportation decisions for Rhode Islanders. The people know what 
roads need to be paved. The people know the importance of repairing and 
maintaining our bridges. The people have a right to choose their modes 
of transportation. In fact, more people today are choosing RIPTA as 
their transportation choice than ever before.
More transportation choices
    Joe and Ellie live in North Attleboro, Massachusetts. Once a month 
on a Saturday morning, they drive from their home to Pawtucket, RI, 
where they park their car in a Park and Ride lot. They take a RIPTA bus 
to Providence and walk a short distance to the train station. They 
board the train to New York where they catch a Broadway matinee 
followed by a late lunch or some shopping. At the end of the day, they 
reverse their travel pattern and are home again in time to feed their 
two Golden Retrievers a late supper.
    Rhode Island's central location is the heart of the Golden Triangle 
and illustrates the efficiency of the Northeast Corridor. Joe and 
Ellie's day in New York illustrates how ISTEA funding is providing a 
quality of life for people by offering them an ever-expanding menu of 
transportation choices. These choices include RIPTA, Amtrak and the New 
York transit system.
ISTEA: Providing a quality of life for the RI community
    Concerns about transportation's impact on natural and built 
environments are reflected in ISTEA. Thus, ISTEA forged a stronger link 
between transportation and air quality planning. Although there are 
differing opinions about the best way to reduce air pollution, ISTEA 
has encouraged the transportation community to address this problem.
    RIPTA is addressing the problem by providing free rides during 
Ozone Alert Days and by installing bike racks on its fleet of buses. 
RIPTA's innovative Newport Summer Enhancement Service has improved 
transit service in our world-famous City by The Sea. RIPTA, in 
partnership with community groups such as the Chamber of Commerce, the 
Newport Preservation Society, government officials and the tourist 
industry RIPTA designed a summer transportation system to tourist 
attractions 7 days a week. The City of Newport, Rhode Island's most 
congested traffic area illustrates a targeted demonstration of what 
good transit service can do in mitigating congestion and associated air 
pollution, as well as encouraging tourism--one of Rhode Island's most 
important industries.
    At the same time, ISTEA gave us the flexibility to create transit 
programs that are working for Rhode Islanders like Mary Ann, Joe and 
Ellie.
    At RIPTA, we constantly remind ourselves that public transit is 
about people. We listen to our customers and respond to their needs. 
When the RIte Care program was introduced in Rhode Island, RIPTA saw a 
way to provide and improve services to low-income mothers and their 
children. We responded rapidly to the Federal mandates of the American 
Disability Act and created a statewide paratransit service, which 
provides the elderly and disabled with door to door transportation. 
RIPTA coordinates both its ADA and statewide paraptransit services 
through its RIDE program. This program is one of the most highly 
coordinated and cost-effective paratransit services in the nation.
Fair Share
    RIPTA subscribes fully and enthusiastically to ISTEA basic tenets: 
Flexibility, local decisionmaking and linkage with the environment and 
community needs. If we are to continue providing these lifeline 
programs to one million Rhode Islanders, we must receive our fair share 
of Federal funding.
    In 1991, ISTEA authorized more than $155 billion nationwide over a 
6-year period. Rhode Island received more than $52 million from 1991-
1996, allowing us to maintain service to its citizens. We urge you to 
maintain our current level of funding so we can continue to provide 
basic transportation services to one million Rhode Islanders. We ask 
you in this reauthorization to ``hold us harmless'' from any Federal 
funding reductions.
    The future of public transit in our state is at a critical 
juncture. We are desperately trying to avoid major service reductions 
and fare increases, while implementing much-needed services that will 
improve linkages between our public transit system and regional 
systems.
RIPTA: Proposals for the future
    The reauthorization of ISTEA--or ISTEA II--will provide the 
lifeblood critically required to maintain services for one million 
Rhode Islanders. It will allow us to expand mobility opportunities for 
our elderly and disabled citizens, our low-income and welfare families 
and our children.
    RIPTA is well poised to participate in programs that target these 
populations. We rank third in the Nation in the number of residents 65 
and older. As a next step in our paratransit service, RIPTA is looking 
to provide ``seamless,'' integrated transit service statewide by fully 
coordinating traditional fixed route service using larger vehicles with 
the more flexible paratransit operations.
    RIPTA looks to the future with a vision for coordinated statewide 
transportation services. The future for RIPTA could include: Transit 
Community Centers: Establish satellite community centers at key 
locations across the state, which would include customer service 
enhancements, and which would be connected to RIPTA's central dispatch/
communications center in Providence. People mover: Link the Warwick 
rail station to the T.F. Green Airport Interstate Transportation: 
Provide commuter and intercity rail facilities and services. Increasing 
mobility in an older urban area: RIPTA can provide quality public 
transit in older urban areas by advancing innovative ideas and methods 
to include:
    <bullet>  Internet access to electronic schedules and route maps
    <bullet>  Security lighting, signage and schedule information 
improvements at street level
    <bullet>  Heated shelters in key locations
    <bullet>  Statewide electronic debit card for transportation 
services and fees
    <bullet>  Revised fare structures to promote transit when roadways 
are congested
    <bullet>  Multi-use community centers, including a full range of 
customer transit information services, private sector and non-for-
profit development opportunities such as day care and health care 
facilities, senior centers, banking and postal services and convenience 
shopping.
    <bullet>  Technology projects: Design and build a facility that 
incorporates the latest in bus facility design and maintenance 
equipment and technology, accommodates alternative fuel and provides 
opportunities for governmental mixed use.
    <bullet>  Central RIPTA Communications Information Center: 
Establish a state-of-the-art Transit Community Center in Providence--
the Authority's current central transit service hub--including RIPTA's 
central communications/dispatch and customer service center.
    This would blend the latest in information technology with the 
notion of livable community space that ``works for people.'' Also, it 
will help position the transit system for the additional activity 
anticipated with the opening of the Providence Place Mall.
    <bullet>  Balanced Transportation: The challenge for the next 
millennium
    The reauthorization of ISTEA will provide Rhode Islanders with 
affordable and balanced transportation choices, increase economic 
productivity and improve the quality of life for all our citizens.
    ISTEA's focus on increased mobility, reduced highway congestion and 
rebuilding a decaying infrastructure has created a new foundation for 
the future of this nation's transportation needs.
    The Intermodal Surface Transportation Efficiency Act of 1991 was a 
major advance in national transportation policy and must be 
reauthorized with a Rhode Island ``hold harmless'' provision in 1997. 
RIPTA is committed to the three basic principles for ISTEA 
reauthorization:
    1. The Federal Government must retain its commitment to 
transportation: An efficient, balanced and sell-managed transportation 
system is vital to the well-being to Rhode Island and our citizens.
    2. Maintain a strong local role in setting priorities: 
Transportation investment decisions affect communities in a host of 
ways, and local officials who are closely tied to community concerns 
must have a strong role in setting priorities and choosing projects.
    3. ISTEA must continue to guide Federal involvement in 
transportation: ISTEA made major progress in moving decisionmaking 
closer to the people affected by transportation spending, in making 
Federal money flexible and in addressing the impact of transportation 
on communities and the environment. We believe ISTEA must remain the 
blueprint for Federal transportation policy when it is reauthorized in 
1997.
    In 1991 the Rhode Island Public Transit Authority served 13.4 
million riders. In 1996 18.5 million riders chose RIPTA as their means 
of transportation. We attribute this remarkable 36 percent increase to 
ISTEA funding. ISTEA gave us the flexibility to create transit programs 
that work for Rhode Islanders.
    Through ISTEA's Congestion Mitigation and Air Quality Improvement 
Program (CMAQ) and Flexible Funding, we developed successful transit 
programs such as: Ozone Alert Days: A program that provides free bus 
transportation to commuters on days when the Ozone level is high as 
determined by the state Department of Environmental Management. 
Revolving Capitol Development Fund: Established for the timely 
replacement of buses, an environmentally sound and cost-effective 
measure. URI RamPass: A program that expanded service to the University 
of Rhode Island and residents of South County, RI. 1/2 Off Monthly 
Pass: A program providing free bus service to commuters during road 
construction projects. Bus Bike Racks: Installation of bike racks on 
our buses to encourage residents to use alternative transportation 
choices. Newport Summer Enhancement System: A program encouraging 
tourism--one of Rhode Island's most important industries. RIPTA and the 
Newport community designed this program to provide 7-day-a-week 
transportation for tourists during the summer months.
    Mr. Chairman and members of the committee, I hope that my testimony 
today has clearly demonstrated the positive effects of ISTEA funding.
    On behalf of Mary Ann, Joe and Ellie, and all Rhode Islanders, I 
urge you to recommend the reauthorization of ISTEA so we can continue 
to receive our fair share of Federal funding.
    The reauthorization of ISTEA will ensure a solid foundation for 
economic growth by moving people and goods efficiently through a 
comprehensive, integrated network in and among Rhode Island's rural, 
suburban and urban areas.
    Thank you.
                               __________
 Statement of Edmond S. Culhane, Jr, Superintedent, Rhode Island State 
                                 Police
    Senator Chafee, Senator Reed, Representative Kennedy and 
Representative Weygand, my name is Colonel Edmond S. Culhane, Jr. and I 
am the Superintendent of the Rhode Island State Police. I am here today 
to implore your support for reauthorization of the Intermodal Surface 
Transportation Efficiency Act, commonly known as ``ICE TEA.'' ISTEA was 
created in 1991 to renew our surface transportation programs to address 
the changing needs for America s future. It was to create jobs, reduce 
congestion, foster mobility and rebuild our infrastructure while 
protecting our precious environment. In essence, this Act was 
established to catapult the United States into the global marketplace 
of the 21st Century.
    While I support the overall intent of ISTEA, ISTEA has also allowed 
the Rhode Island State Police to achieve goals that it would not have 
been able to otherwise accomplish.
    If we look back during the early 1980's, commercial vehicles 
emerged as a safety issue due to the increasing number of unsafe 
commercial vehicles on our highways along with the increasing number 
and severity of crashes involving commercial vehicles. Furthermore, the 
occurrence of accidents with carriers of hazardous waste was also on 
the increase. As a part of the Surface Transportation Assistance Act of 
1982, Congress enacted the Motor Carrier Safety Assistance Program 
(MCSAP), commonly referred to as ``MIKSAP,'' in 1983 to address these 
problems. The Program was designed to foster safer commercial vehicle 
travel, while increasing the level and effectiveness of enforcement 
activity to detect and correct safety defects, driver deficiencies and 
unsafe carrier practices. In 1991, ISTEA s Title IV, entitled ``Motor 
Carrier Act of 1991,'' was established and assumed the MCSAP 
responsibilities.
    Over the course of the past 10 years, the activity of the Rhode 
Island State Police Commercial Enforcement Unit, which is responsible 
for enforcing the MCSAP regulations, has increased astoundingly. Though 
the Unit has only been comprised of eight (8) to ten (10) members, each 
year they conduct approximately 5,000 safety inspections of trucks and 
buses. These inspections reveal approximately 16,000 violations each 
and every year. Some of these violations are so severe that over 1,000 
vehicles and drivers a year are placed ``Out of Service'' right then 
and there until the deficiencies can be corrected. In addition, members 
of the Commercial Enforcement Unit have assisted in the training of 
commercial fleet operators regarding driver training, fleet 
inspections, and Federal/state documentation programs. The Unit is also 
heavily relied upon by local police departments for their expertise and 
knowledge pertaining to commercial motor vehicle regulations.
    Though I cannot estimate how many lives were saved, how many 
injuries were prevented or even put a price on the increased safety of 
our roadways as a result of the Rhode Island State Police CEU s 
enforcement efforts, I can say this. Without this Unit, 5,000 
commercial vehicle safety inspections would not have been completed 
each year, 16,000 commercial vehicle safety violations would not have 
been detected each year and over 1,000 extremely unsafe drivers and/or 
commercial vehicles would not have been prevented from driving on Rhode 
Island highways each year. Of all the Units comprising the Rhode Island 
State Police, the Commercial Enforcement Unit is the one that 
consistently and most often evokes positive comments from our citizens.
    The Rhode Island State Police quandary revolves around the 
reduction in basic funding and the elimination of secondary funding for 
MCSAP activities. ISTEA appropriations are based on a population and 
highway mileage formula in which the State Police receives the minimum 
basic grant. In past years, we have also received a secondary grant 
strictly to help pay salaries and benefits. Each year, the secondary 
grant has been reduced by ten (10) percent while personnel and benefit 
costs have continued to rise. (Rhode Island is one (1) of seven (7) 
states that receive secondary funding since these states have smaller 
populations and limited highway mileage.) Since the Rhode Island State 
Police Commercial Enforcement Unit is funded entirely external from the 
State Police general revenues and that we have no additional financial 
resources to supplement the eliminated secondary grant, we depend on 
these funds to survive.
    The MCSAP grant program is a 80/20 grant program requiring a 20 
percent match in State funds. Due to the State s fiscal woes, we must 
rely on the Rhode Island Division of Public Utilities and Carriers 
(PUC) as the principle source of the State match. In addition to the 
Federal grant dollars and PUC match money, the PUC also provides the 
Commercial Enforcement Unit with an extra $250,000 dollars to meet the 
other necessary operating expenses. In all actuality, the 80/20 split 
has actually come very close to a 50/50 split.
    The Rhode Island State Police has been notified that in Fiscal Year 
1998, we will only receive our basic minimum grant since the secondary 
grant is being discontinued. At this level, the Rhode Island State 
Police CEU budget would be approximately $75,000 less than the Fiscal 
Year 1997 budget. This would require the elimination of several 
positions from our CEU.
    You may be asking, ``What does this have to do with the 
reauthorization of ISTEA?'' Well, plain and simple, if our Commercial 
Enforcement Unit funding is reduced, so will our enforcement efforts 
toward the safety of the commercial trucking industry. Unsafe vehicles, 
carrying too much weight and being operated by inexperienced, untrained 
and many times sleep-deprived drivers will increase without a strong 
law enforcement deterrent. Furthermore, one must contemplate the effect 
that the North American Free Trade Agreement and the opening of our 
borders will have on our commercial trucking industry. Foreign 
commercial vehicles, who may not face the same stringent inspection 
standards as the United States commercial vehicle industry, will be 
traveling our highways. As Rhode Island lies on the major corridor of 
the East coast, along with being one of the oldest segments of the 
National Highway System, one can strongly surmise that negative 
ramifications will be felt here in Rhode Island.
    According to the National Highway Traffic Safety Administration s 
1995 Traffic Safety Facts, the Nation has made great strides in 
reducing the overall involvement of large trucks in motor vehicle 
crashes along with reducing the fatality rate of large truck occupants 
involved in motor vehicle crashes. If the number of unsafe commercial 
vehicles operating increases, we can only have a determined set of 
results: more deaths, more injuries and more motor vehicle crashes 
involving commercial vehicles. We should not stop the progress we have 
made since much more can be done.
    My solution would be to increase the overall grant allocation to 
states from the proposed $100 million to $105 million. This would allow 
each of the smaller states to receive a minimum grant of $500,000. 
Since we are not asking for money to be reappropriated from the larger 
states to the smaller states, we feel this is the most equitable 
solution. Therefore, Rhode Island, which by no fault of its own has a 
smaller population and less highway miles, would be eligible for the 
minimum $500,000 grant.
    Title II of ISTEA also provides an integral funding component to 
promote traffic safety programs through the State and Community Highway 
Safety Grant Program, commonly referred to as Section 402 funds. These 
funds support law enforcement s effort to reduce the death and 
destruction that have become much too commonplace on our highways. 
These grants allow law enforcement agencies flexibility in 
supplementing their regular traffic safety enforcement duties. The 
funding allows for additional enforcement personnel, audio visual 
materials and educational resources to spread the traffic safety 
message concerning certain issues: speed limits, occupant protection, 
impaired driving, motorcycle safety, and school bus safety to name a 
few. With traffic crashes claiming over 40,000 lives each year and 
costing the Nation roughly $137 billion dollars in medical costs, 
insurance premiums, unemployment / disability taxes, Social Security 
costs and lost wages, we as a responsible and caring Nation must do all 
we can to continue preventive education and law enforcement funding 
toward traffic safety programs.
    Title II also stipulates funds for the development and promotion of 
the Drug Recognition Expert Training Program. This Program trains law 
enforcement officers to recognize and identify individuals operating 
motor vehicles while impaired by alcohol and/or other controlled 
substances. Prior to the establishment of this Program, law enforcement 
officers had little recourse should they discover someone operating a 
motor vehicle while impaired with a blood alcohol content of zero. With 
this Program, trained law enforcement officers can test an individual 
using non-intrusive techniques. Because of the highly specialized 
training, the law enforcement officer s testimony can be accepted in a 
court of law just as a breathalyzer result would have been. Though I 
would like to train many of the Troopers, money and time constraints 
have only allowed for two (2) Troopers to become certified as Drug 
Recognition Experts. With today s society where illegal controlled 
substances are readily available, this Program will be extremely 
important to both diagnose and prosecute careless individuals operating 
motor vehicles while under the influence of intoxicating liquor and/or 
controlled substances.
    In conclusion, fully funded reauthorization of Title IV, entitled 
``Motor Carrier Act of 1991'' and Title II, entitled `` Highway 
Safety'' of ISTEA is necessary to carryout the original vision for 
surface transportation in America. These two Titles not only promote 
economic vitality, but they also safeguard the lives of Americans we 
have sworn to serve. Since transportation will only increase in the 
forthcoming years, any reduction in our enforcement efforts can only 
lead to more traffic crashes, more tragedy and increased medical, 
insurance and tax costs. It is imperative that we as a Nation continue 
to foster reliable, but safe, surface transportation programs as we 
travel into the next millennium.
    Thank you for inviting me to testify today and I would be happy to 
answer any questions you may have.
                               __________
  Statement of Edward F. Sanderson, Executive Director, Rhode Island 
            Historical Preservation and Heritage Commission
    I have had considerable experience working with ISTEA over the last 
4 years in three specific programs. First, as Executive Director of 
Rhode Island's state historic preservation office, I review every 
transportation project which might impact historic properties. Second, 
I am Chairman of Rhode Island's Transportation Enhancement Advisory 
Committee. The Enhancement Committee solicits and evaluates proposals 
for all Enhancement projects included in the state transportation 
improvement plan (TIP). Third, I am the Vice Chairman of Rhode Island's 
Scenic Roadway Board, which is our state's connection with the national 
scenic by-ways program.
    I am pleased to have this opportunity to address the 
reauthorization of ISTEA, and it is a particular pleasure to have this 
chance to publicly thank Senator Chafee for his leadership in enacting 
ISTEA the first time and for the active and effective support Senator 
Chafee and his staff have given in making this law work in Rhode 
Island.
    HISTORIC PRESERVATION
    Historic Preservationists have known for a long time that the 
impacts of transportation projects extend way beyond the edge of 
pavement. Many people in the historic preservation movement believe 
that over the last 40 years, probably no Federal program has been more 
destructive to America's historical and archaeological resources than 
highway construction. Thousands of buildings and sites have been 
sacrificed to construction of interstate highways and widening of local 
roads. Even when individual landmarks have been spared, too often 
transportation projects have ripped the fabric of community life by 
isolating neighborhoods, destroying scenic beauty, and encouraging the 
development of ugly commercial strips. Whether justly or not, 
transportation projects are frequently accused of contributing to 
visual pollution, urban sprawl, and the undermining of America's 
historic city cores and rural villages.
    Here in Rhode Island, the odds are good that transportation 
projects will affect a historic building or archaeological site because 
we have so many historic resources. We are a small state in land area, 
but we have the highest density of historic properties in the United 
States. Today's highways follow the course of early roads laid out 
centuries ago, and historic districts in our towns generally developed 
along early roads. Projects which widen, straighten, realign, or 
reconstruct these roads can destroy individual historic buildings and 
can leave an ugly scar through the heart of historic neighborhoods.
    ISTEA addresses these problems in several positive ways which add 
to and improve upon the previous regulatory framework. The emphasis 
ISTEA gives to community-based planning and public participation 
improves the chances that broad community concerns will be satisfied. 
Furthermore, ISTEA offers new flexibility in the design of 
transportation projects. The use of approved design exceptions or 
alternate design standards allows state DOTs to correct deficiencies in 
existing roads without the disruption and environmental and economic 
cost of full reconstruction.
    I am proud to report that during the last 4 years, the State 
Historic Preservation Office which I head and the Rhode Island 
Department of Transportation have had an effective working partnership. 
I know many men and women working in the RI DOT who have welcomed the 
opportunities which ISTEA provides. On scores of projects, we have 
identified important historical properties, and with input from the 
local residents we have developed highway construction plans which 
avoid damage to those cultural and community resources. In several 
cases, we and the DOT have collaborated on historic preservation 
projects, such as restoration of Bellevue Avenue which is lined by 
Newport's famous historic mansions and rehabilitation of Albion Bridge, 
a 19th-century iron truss bridge located in the Blackstone Valley. The 
increased flexibility which ISTEA offers makes it easier to incorporate 
historic preservation measures into projects than previously.
    ENHANCEMENTS
    One of the most important ISTEA programs to deal with community-
wide impacts of transportation is Enhancements. Four years ago, Rhode 
Island established an Enhancements Committee to review proposals for 
this new category of funding. The Committee, which I chair, has seen 
how many ways transportation relates to the life of our state's 
communities. The 11 members of the Committee have a broad range of 
backgrounds, including historical preservation, environmental 
conservation, local government, passenger rail, tourism, planning, and 
transportation.
    Our committee developed an open and broad-based process for 
selecting projects based on objective criteria. It is evident that the 
Enhancement program meets a need felt by many Rhode Islanders. The 
extent of public interest is demonstrated by the large number of 
applications and the creativity of individual proposals. We received 
197 proposals, representing nearly every city and town, many non-profit 
organizations, and individual citizens. The 46 projects finally 
selected by the Committee deal with the needs of pedestrians and 
bicyclists, will help to protect water quality, save open space, 
preserve historic resources, eliminate visual blight, and make 
neighborhoods and civic centers more attractive.
    Here are four examples of Rhode Island Enhancement projects:
    <bullet>  In Providence, Mathewson Street crosses the Downtown 
Historic District and connects the Performing Arts center with our new 
convention center. An Enhancement project rebuilt Mathewson Street with 
amenities appropriate to a historic area in order to encourage use by 
pedestrians as well as cars and support the marketing of our performing 
arts and convention centers.
    <bullet>  In Westerly, an Enhancement project is restoring the 
rundown historic railroad station for continued rail-passenger service. 
The restored station will support efforts for downtown commercial 
revitalization and become an intermodal transportation center.
    <bullet>  In Woonsocket, an Enhancement project is ``piggy-
backing'' on reconstruction of traffic circulation through historic 
Market Square to create an attractive civic space and an intermodal 
link for automobiles, the Blackstone Valley bikeway, and pedestrian 
walkways. With the opening of a museum of labor and heritage, the 
``new'' Market Square will become a cultural destination within the 
Blackstone River Valley National Heritage Corridor.
    <bullet>  In Lincoln, an Enhancement project will preserve the 
Great Road Historic District. Great Road, which dates to the 1680's, is 
a designated Scenic Road and part of a National Register Historic 
District. However, as RI Route 123 it is still an active highway. 
Enhancement funds will construct a walkway between several historic 
sites so that pedestrians are not forced to walk on the narrow road 
shoulders. In addition, six acres of open land will be purchased 
adjacent to Rhode Island's oldest house. The purchase will protect the 
setting of the 1687 Eleazer Arnold House Museum and forestall 
development of a commercial mall which would have overloaded the 
traffic capacity of Great Road.
    Rhode Island's Enhancement projects show a variety of ways that 
transportation projects can accommodate and reinforce the values of the 
surrounding community and the natural environment.
    SCENIC BYWAYS
    In a state as small as Rhode Island, we do not have any scenery to 
waste--but we do have many beautiful roads. Some scenic roads pass 
through pastoral farmlands or historic villages, and other scenic roads 
have breath-taking views of Narragansett Bay and the ocean. Our state's 
Scenic Roadways Board, of which I am Vice Chairman, is working to 
identify and protect Rhode Island's most scenic roads and byways. An 
ISTEA grant funded a preliminary statewide inventory of scenic roads 
and also development of alternative highway design standards for 
designated scenic roads. This two-part grant project allows our Board 
to define the significant scenic elements of Rhode Island roads and to 
work with our DOT in making sure that needed highway construction does 
not unnecessarily damage or destroy a road's scenic quality. ISTEA 
funding and design flexibility are the essential ingredients in this 
project.
    Another ISTEA grant is allowing the Scenic Roadways Board to write 
``corridor management plans'' for several of our designated roads. We 
recognize that highway construction activities are not the only 
potential threats to preserving scenic qualities. Property-owners and 
local government have crucial roles in deciding what land-use and 
development is compatible with a scenic road. These corridor management 
plans will help to guide future changes along particular roads, and 
they will serve as models for the development of plans for additional 
corridors.
    CONCLUSION
    It should be clear by now that I am an enthusiastic advocate for 
reauthorization of ISTEA and for retaining the Enhancements and Scenic 
Byways programs as discrete funded elements of the overall program. The 
biggest frustration I have had with ISTEA has been the length of time 
and extent of administrative requirements which must be completed in 
order to implement relatively small Enhancements projects. I recommend 
that a review be conducted to determine whether streamlining and more 
administrative flexibility is possible.
    Unfortunately, there are many more good ideas than dollars. In 
terms of overall transportation funding, Enhancements and Scenic Byways 
represent a tiny fraction of Federal aid. However the individual 
projects they fund and the principles they establish are key to the 
ongoing process of ``reinventing'' the national transportation system 
to meet the needs of today and tomorrow.
    My experiences with ISTEA over the last 4 years have made it clear 
that many citizens want a transportation system that does more than 
build new roads and widen existing ones. The common thread that runs 
through all of these different programs is that transportation relates 
to many aspects of community life. It is impossible not to be impressed 
by the energy and creativity which citizens have shown in proposing 
ways to enhance our transportation system. It is clear that people want 
the system to be better, and they have good ideas about how to achieve 
it. We must continue the good beginning which ISTEA has made.
                               __________
                                               Sierra Club,
                                                    April 21, 1997.
    To: Senate Committee on Environment and Public Works
    From: Barry Schiller, Transportation Chair Rhode Island Chapter, 
Sierra Club
    I very much appreciate this opportunity to testify on ISTEA 
renewal. I have followed transportation issues in Rhode Island as a 
citizen activist for almost 30 years. I now serve as Transportation 
Chair for the Rhode Island Sierra Club and its delegate to the 
Environment Council of Rhode Island, the ``umbrella'' organization for 
all our state's environmental groups. I am also a public member of the 
state is Transportation Advisory Committee (TAC) and the Rhode Island 
Public Transit Authority (RIPTA.)
    The Rhode Island Sierra Club in particular, and the environmental 
community generally, believes ISTEA reforms are starting to work 
effectively, and it should be reauthorized without major changes in its 
framework. There are however, some ways in which we believe it should 
be strengthened.
    1. Why have environmentalists come to care so much about 
transportation?
    We are of course concerned with our own mobility. But it has also 
become so evident that transportation impacts the environment in so 
many important ways, not just with regard to air quality, but also on 
noise, on energy extraction and transport, on runoff and water quality, 
and most profoundly, on land use. Past automobile dominated 
transportation policies have promoted urban sprawl with all its 
implications for damaging forests, wildlife, agriculture, and also the 
older cities--and town centers, all the while intensifying consumption 
of resources. This wide variety of impacts makes almost every aspect of 
ISTEA a concern. Our support for ``alternative'' transportation is not 
based on some kind of nostalgia for the past but because of these 
impacts. I enclose a handout of some statistical information to explain 
our concern.
    2. What evidence is there that environmentalists do care about 
transportation?
    The R.I. Sierra Club proposed a resolution on ISTEA renewal to the 
Environment Council of Rhode Island. This resolution, which was passed 
unanimously and enthusiastically on February 5, 1997, is submitted for 
the record. The resolution is consistent with the five principles 
described in ``A Blueprint for ISTEA Renewal'' put out by the Surface 
Transportation Policy Project (this is being submitted for the record) 
and the R.I. Sierra Club has helped organize a broad coalition of what 
is now 40 community, environmental, preservation and labor groups in 
our state that have endorsed these principles.
    3. In what ways is ISTEA working?
    It has made environmental protection more central to transportation 
planning. Indeed ``environmental impact'' is one of the five major 
screens used by our TAC for evaluating transportation proposals.
    It has greatly expanded the role of the MPOs and the public in this 
process, resulting in a much better spirit of cooperation between 
community groups and the Rhode Island Department of Transportation 
(RIDOT) which previously had a long history of bitter conflicts. (For 
example there was a long fight over a proposed I-84 Providence Hartford 
Interstate which was resolved only when the EPA and the Council on 
Environmental Quality finally backed the citizens. In my own town of 
North Providence RIDOT proposed to speed traffic by straightening and 
widening Fruit Hill Avenue, eliminating all the old trees on this 
residential street. RIDOT traffic engineers thought only of the 
motorists, and not of the community living there. That no longer 
happens.) Public participation also gives those without cars, (whether 
due to low incomes, disabilities, or a choice to live car-free) an 
opportunity to be heard. DOT leaders rarely know, or thought about, 
such people though the city of Providence reported to the TAC that 23` 
of the households in the city have no motor vehicles!
    We have more flexibility on design standards. It has become routine 
to consider ways to scale down proposed projects to solve problems with 
minimum cost, and minimum destruction.
    We are making a real start on fixing our highway infrastructure, 
especially the Interstates and the bridges.
    We are directing resources to revitalizing older business districts 
where people can walk instead of having to drive to carry out even the 
simplest errand. (Please note the lead story ``Creative Enhancements in 
Neighborhood Business Districts'' in the Winter/Spring 1996 
TranScripts, the transportation newsletter of our MPO, and the Summer 
1995 TranScripts article ``ISTEA: Impetus to Economic Development in 
Central Business Districts''.)
    We are developing the potential for a first class bicycle network. 
This is not a trivial issue when one considers bicycle tourism, 
featured prominently in the current ``Traveler'' and ``Guide to the 
Ocean State'' tourism publications. Bikeways feature prominently in the 
article ``Greenways Taking Route Across Rhode Island'' in the Summer 
1995 TranScripts. Thanks to a CMAQ grant, bicycles may soon be carried 
by RIPTA buses, opening up new opportunities for commuting, recreation, 
and tourism.
    With a more level playing field, we have been able to maintain our 
transit system, which increased ridership substantially since ISTEA was 
passed.
    We have at least made a start on protecting Narragansett Bay from 
pollution due to runoff from the I-95 corridor.
    This does not mean that everything is perfect! We wish some changes 
came faster. There are projects in our Transportation Improvement 
Program that we object to. But if we get a fair shot to influence the 
decisions, bad projects are not the fault of Congress or of ISTEA, but 
perhaps of our failure to convince others.
    4. What are the problems that Congress should address?
    We must overcome any opposition to funding CMAQ and Enhancements. 
We strongly commend President Clinton and our own Senator John Chafee 
for their leadership in recognizing the importance of the CMAQ program. 
``Enhancements'' are vital for our communities and popular with 
citizens, the TAC has often heard town planners and citizens speak for 
enhancement type projects at our public meetings. We are disappointed 
that many of the enhancement projects have not been implemented faster. 
It would be helpful if Congress would find a way to cut the red tape 
and administrative overhead on small enhancement projects that can be 
administered by local governments.
    We need to expand the flexibility of the Surface Transportation 
Program to include rail. It is ironic that Federal policy allows use of 
ISTEA funds for (relatively) local commuter rail projects, but not for 
our intercity rail system even if a state thinks that is the best way 
to solve a transportation problem. How can any state object to being 
allowed to, but not required to, apply ISTEA funds to intercity rail? 
We all know there are environmental advantages to rail travel, we must 
make greater use of their underutilized rights of way. To help. keep 
and improve our national passenger rail system we support dedication of 
1/2 cent of the Federal gas tax for a Rail Trust Fund to be used for 
Amtrak capital improvement as a most reasonable way to do this. 
Motorists too will benefit, from improved environmental quality, 
reduced congestion, and more choice as to travel modes.
    Freight rail too has environmental benefits so it too should be 
eligible for ISTEA funding. We need to reverse the years of neglect 
that has hurt our New England freight rail system in order to maximize 
our chance for environmentally responsible economic development. 
Funding the modern freight rail connections needed to Quonset Point has 
been difficult but Rhode Island taxpayers are doing their share. With 
the wholehearted support of the environmental community, we strongly 
approved a statewide bond issue for this purpose. The next ISTEA should 
make such projects easier!
    Congress must resist efforts to allow longer or heavier trucks. We 
cannot afford it. We are already spending a substantial part of our 
ISTEA funding (about 57 percent) just to maintain existing interstates 
and bridges. It is widely believed this is in no small part due to the 
pounding they take from existing truck loads. The RI Sierra Club is 
part of the Southern New England Safe Roads Coalition which is 
submitting some comments for the record including a graph of how road 
damage grows exponentially with weight. Even now most motorists hate 
the size of trucks already allowed and would see any expansion as a 
safety hazard. It is no use leaving it to the states, inevitably 
pressure to allow bigger trucks will prevail.
    Our RIPTA transit system faces both opportunities and peril. 
Energetic leadership, an opportunity for labor-management cooperation, 
new service initiatives, the coming of a major new downtown mall, all 
suggest potential for growth. However funding is critical. The expected 
loss of Federal operating assistance will hurt middle sized systems 
such as RIPTA more than big systems less dependent on operating 
support, or small systems, slated to get continued operating support. 
Unfunded ADA paratransit requirements (RIPTA is implementing full 
compliance rather than seeking a waiver!) also adds to deficits that 
may average about $12 million in fiscal year 1999 and beyond. While we 
would prefer to see operating assistance continue, if not it is 
essential that language be found to make maintenance and protection of 
the buses that Federal grants help buy be eligible for capital funding. 
Also, our experience here is that more must be done to level the 
playing field between transit and auto commuting. Congress should 
equalize the tax-free benefits of parking and transit, and develop at 
least voluntary programs to encourage ``parking cashout'' and 
alternative transportation. Congress should consider putting the power 
of the market to work by developing funding formulas that reward states 
and localities that successfully grow transit ridership and/or reduce 
per capita vehicle miles travelled.
    Transit helps all our environmental goals. I urge everyone to give 
it a try and use it whenever practicable.
    5. What about demonstration projects?
    Environmentalists nationwide are skeptical about this ISTEA element 
but if they are to be retained we do have some suggestions. A project 
of national and regional significance to us is the North Station-South 
Station rail link in Boston. This would connect Rhode Island and the 
entire Northeast Corridor to northern New England and northern New 
England to us. If NHS ``high priority corridor'' funding is unavailable 
it should be considered for demonstration funding. We understand about 
$200 million will be needed over 5 years to do the environmental and 
engineering work.
    We also suggest consideration of funding a real bus station in 
Kennedy Plaza, Providence, our transit system hub. This is also a 
social justice issue, the mostly lower income people who use these 
buses need a safe, secure, lighted, weather-sheltered place to wait 
with reliable information. Finally we urge continuing efforts to 
mitigate pollution from runoff into Narragansett Bay. The Narragansett 
Bay Commission is facing up to $590 million in costs to eliminate 
combined sewage-stormwater overflow, and users of transportation 
facilities that contribute to this problem should pay their fair share 
of cleanup costs.
    In closing I wish to note Rhode Island has plenty of talent, 
energy, and ideas to make our transportation system work. As a TAC 
member I've been impressed by the new leadership at RIDOT and RIPTA, by 
the wide variety of community groups involved, including landscape 
architects, neighborhood associations, environmental organizations, 
bicycle clubs, historic preservation groups, and by the interest of 
town planners and local officials involved in transportation issues. I 
urge Congress to do its part to keep this all going by renewing a 
strong ISTEA along its principles of flexibility, environmental 
protection, maintenance of the infrastructure, community 
revitalization, and public participation. Thank you again for this 
opportunity to comment.
            Sincerely,
                      Barry Schiller, Transportation Chair,
                                          Rhode Island Sierra Club.
                               __________
     Statement of Dan Baudouin, Executive Director, The Providence 
                               Foundation
    Good Morning. My name is Dan Baudouin, Executive Director of The 
Providence Foundation. The Providence Foundation is a not-for-profit 
private sector organization that advocates for the proper planning and 
development of Downtown Providence, our State's capitol. I'm also a 
member of the Rhode Island Public Transit Authority and a member of the 
Transportation Advisory Committee of the State of Rhode Island.
    I appreciate the opportunity to appear before you today and I will 
speak to you for a few minutes on a couple of key points. These points 
include:
    <bullet>  provisions of the existing ISTEA Act that hopefully will 
be continued into the new Transportation Act.
    <bullet>  transportation infrastructure and its importance to the 
economy of Providence, Rhode Island and southeastern New England.
    . the need for resources to properly invest in transportation 
infrastructure and the need for innovative financing to be part of that 
solution.
    In addition, I will also discuss one project that is the most 
critical transportation project in this State, the rebuilding of 
Interstate 195 and its intersection with Interstate 95.
    First, The ISTEA Act that was approved in 1991 contains several 
concepts and principles that I recommend be continued under the new 
Act. These principles include the recognition that the link between 
land use and transportation is very strong and transportation planning 
needs to be part of an overall comprehensive planning effort. Also, 
ISTEA provides for a stronger role of local governments in 
transportation planning, and ISTEA requires significantly more public 
involvement in transportation planning than its predecessors. Thus, 
ISTEA demands consideration to community needs and community plans. 
Finally, ISTEA recognizes the need for more transportation choices, be 
it by bus, by rail, by car, by foot, by bicycle or by boat. These are 
excellent principles that need to go forward into the new 
Transportation Act.
    Second, in Rhode Island, the public sector has invested much in our 
transportation infrastructure. However, we continue to have significant 
transportation investment needs, both because of the growing role that 
Providence and Rhode Island are playing in the eastern New England 
economy and transportation network, and because of the aging of some of 
our infrastructure. Major investments have been made in our new airport 
terminal because of regional air transportation demands. The T. F. 
Green Airport in Rhode Island is now the second most heavily used 
airport in the eastern New England region. We are about to begin major 
freight improvement projects that will connect modern freight rail to 
the port facilities at Quonset Point along Narragansett Bay. Other 
examples include investments that have been made in our new Amtrak 
Train Station and facilities to promote more passenger rail. The use of 
mass transit in Rhode Island has increased dramatically since the ISTEA 
Act of 1991, thanks to support from the Federal Government. We need to 
continue to create an even stronger mass transit system. Finally, our 
interstate highways are accommodating more and more traffic. In fact, 
the Intersection of I-95 and I-195 in the heart of Providence 
accommodates almost 250,000 vehicles a day, making it the second 
busiest Interstate interchange in New England. I-195 is the main 
highway link to southeastern Massachusetts, including Fall River, New 
Bedford and the Cape Cod area.
    We are making investments. However, we need a new Federal Act that 
recognizes the need for major additional investments to move people and 
goods in a variety of different ways and in an efficient manner for a 
growing economy and a growing transportation center in eastern New 
England. It also needs to recognize the aging of our infrastructure, 
particularly some of our roads and bridges. In Rhode Island, many of 
our bridges are structurally deficient or obsolete and a high percent 
of the Federal highway mileage is in fair to poor condition. The most 
serious problem is I-195 in Providence which I will discuss later.
    This leads me to the third point which is the level of Federal 
involvement and assistance in transportation infrastructure as well as 
the need for innovative financing techniques. I would strongly urge an 
increase in Federal investment in transportation. The Federal role in 
transportation financing dates back many many decades, and we need this 
type of involvement to move us into the 21st Century. We would advocate 
that more of the existing gas taxes and other highway fees, be applied 
to transportation infrastructure. In that regard, we strongly support 
the Highway Trust Fund Integrity Act as introduced by Senator Chafee 
and others as it would help accomplish this goal.
    Mindful of the need for leveraging dollars, we are also very 
supportive of innovative financing programs, particularly the creation 
of public/private partnerships and the involvement of private sector 
economies into creating transportation infrastructure. For example, the 
design/build/finance model, is one that can have some applicability to 
transportation infrastructure. This may result in projects being 
constructed faster, more efficiently, and at less cost. I believe that 
the results of pilot projects throughout the United States have been 
generally positive.
    Toward this end, we are very supportive of Senator Chafee's 
proposed legislation S. 275, the Highway Infrastructure Privatization 
Act, which would encourage partnerships across the country by allowing 
private sector access to tax-exempt bond authority for a select group 
of transportation projects.
    We are supportive of recent changes in Federal law that provide for 
innovative financing mechanisms such as advance construction, phased 
funding, tapering Section 1012 Loans, and flexible non-Federal matching 
requirements. We are very supportive of the State Infrastructure Bank 
Program, and we hope that this gets expanded in order to provide the 
opportunity for more States to use this financing mechanism. In 
addition, we are in favor of exploring real estate tax incremental 
financing, aggressive value engineering to reduce costs, leasing 
portions of the existing rights-of-way where possible, and sale or 
lease of surplus right-of-way to help finance transportation projects.
    Finally, let me say a few words about one project in RI that calls 
out for additional Federal funds as well as innovative financing. This 
project involves the reconstruction of Interstate 195 and its 
intersection with Interstate 95. As mentioned earlier, this area is the 
second busiest interchange in New England and truly serves interstate 
and regional highway users. This part of I-195 was actually designed 
and portions constructed in the early 1950's, preceding the 1956 
Interstate Highway Act. It is a road built essentially on a series of 
bridges weaving through different neighborhoods close to downtown 
Providence. It was a road designed and built following criteria which 
have no relationship to today's criteria for locating and building 
Interstate highways and transportation infrastructure. For example, I-
195's curves, weaves and narrow lanes result in accidents that are 50 
percent higher than the norm for Interstate highways.
    It is also a road that is falling down! If you had the time to view 
this road today, you would see a number of temporary steel supports to 
shore up the road up to make it safe--temporarily. While it may be safe 
at the moment, there is a need to completely reconstruct this road in 
the immediate future.
    After 6 years of intense study following the requirements of the 
National Environmental Policy Act, and the spirit of ISTEA, a Record of 
Decision has been issued whereby the selected alternative is to 
relocate this section of I-195 slightly to the south of its current 
location and rebuild its interchange with I-95. It was selected because 
this solution gives roadway travelers the only solution that meets 
current Interstate highway standards. It will reduce accidents 
significantly, reduce congestion and result in a better driving 
experience. At the same time, it will allow for improvements in bicycle 
and pedestrian movements and enhance water transportation 
opportunities. It provides for the restoration of a waterfront that was 
destroyed by highways and ramp construction in the 1950's. The new 
location removes the negative highway effects on two National Historic 
Register Districts and drastically reduces the negative effects on a 
third National Register District. These districts were decimated by 
highway construction in the 1950's. It will liberate valuable urban 
land in the core of the metropolitan area from highways, and allow for 
more parkland and sites for carefully planned redevelopment that 
reintegrates residential and business districts that were divided by 
the 1950's. Jobs, taxes, overall economic development, and improvements 
to quality of life will result.
    The new location will also prevent a potential economic catastrophe 
that could result from massive traffic jams if one tried to rebuild the 
road in its current location. The new location and plan is in 
accordance with local desires and in accordance with the City of 
Providence's comprehensive plan.
    We all know how expensive urban highway and infrastructure projects 
are. The original cost estimate for this project was $299,000,000. 
Through an aggressive value engineering/cost reduction process by Rhode 
Island Department of Transportation, the cost has been reduced by 30 
percent. But still, certainly, Rhode Island should not bear the cost of 
this project alone. This project involves the replacement of aging 
infrastructure that is under severe physical stress. It is not a new 
Interstate Highway. It is the replacement of New England's second 
busiest Interstate Interchange using today's transportation, community 
development, and environmental standards, not the standards of 45 years 
ago. We recommend that this need is recognized by the Federal 
Government and adequate Federal resources are allocated to get this 
needed job done.
    Thank you for the opportunity to appear before you today. If you or 
your staff members would like additional information, I'd be more than 
happy to provide it. Thank you.
                               __________
  Statement of Kenneth M. Bianchi on behalf of Rhode Island DOT Watch
    Mr. Chairmen and members of the committee thank you for the 
invitation to appear before you today to discuss the need to both 
protect and strengthen the 1991 Intermodal Surface Transportation 
Efficiency Act or ISTEA.
    I am Kenneth Bianchi, the Town Administrator for the Town of North 
Smithfield, Rhode Island, I also serve a Vice President of the Rhode 
Island League of Cities and Towns and as a Board October of the non-
profit Rhode Island DOT watch.
    Let me just first say to Senator Chafee, if I may, that we in Rhode 
Island know and care about what you're doing and saying on ISTEA
    both here at home and especially down in Washington, DC and we 
couldn't be happier knowing how supportive and understanding you are 
about an issue that every Rhode Islander cares deeply about. I don't 
need to tell you, Senator, that in this pending congressional battle we 
here in Rhode Island have far more to lose than just money, no thank 
you for continuing to do such an excellent job representing our best 
interests.
    Here in Rhode Island and, ISTEA reauthorization has generated 
tremendous interest among both citizens and local governments who have 
to live with the consequences of a national program. Mr. Chairman and 
other members of the committee, I would like to submit for the record, 
and the benefit of all the members of this committee, a document 
entitled, ``A Blueprint for ISTEA Reauthorization''. This detailed 
platform was put together by the Surface Transportation Policy Project, 
a national public interest coalition of more than 200 groups including 
our own Rhode Island DOT Watch and Rhode Island Sierra Club.
    Mr. Chairman, over 40 groups and agencies In Rhode Island have 
fully endorsed all 25 recommendations in this platform as outlined in 
the attached addendum. That's about three-quarters of the population of 
the state right there! But seriously, I couldn't be more impressed by 
such solid support for a proposal from such a diverse group of people. 
This is a testament to the success of ISTEA, to its spirit of 
partnership, and to its significance for all the people that live and 
work in this state. And we fully recognize that the ``ISTEA 
Reauthorization Act of 1997'' which you have cosponsored and was 
introduced last week by 32 Senators, supports many of these 
recommendations and again we thank you for your leadership.
    The bottom line is that ISTEA reauthorization must build on the 
obvious successes of the existing law. We realize that there are 
divisive issues to be worked out regarding the funding formula, and 
obviously we believe that Rhode Island must continue to get its fair 
share based on the substantial needs, particularly those of our aging 
infrastructure, for such a small state. But regardless of how the 
Congress settles its differences over money, we urge you to preserve 
the part of the law that has been a success nationwide: ISTEA's 
policies and programs.
    Specifically, we urge the retention and strengthening of the CMAQ 
program, the transportation enhancements program, the Interstate 
Maintenance and Bridge repair programs, the 10 percent safety set-
aside, which we hope will begin to include measures to reduce the 6,000 
annual pedestrian death'' nationwide, and the suballocation of funds to 
metropolitan areas. we also hope that ISTEA's partnerships with local 
government officials and citizens will be strengthened through the MPO 
process and retention of planning factors to include the public early 
and often throughout the transportation planning proceed.
    Let me give you an example of how ISTEA has worked in Rhode Island 
(Woonsocket River Island Park and Main Street Enhancement Projects, the 
Restoration of the Kingston Railroad Station, the Quonset Point Third 
Rail, the Blackstone River Bikeway Access Project in Lincoln, Rhode 
Island, and the Newport Gateway Center, Bus Station and Ferry 
Terminal). This has had a positive effect not only environmentally but 
will have a direct impact on economic development in the creation of 
quality job'' for our citizens.
    But Rhode Island is in desperate need of a stronger ISTEA. One that 
will emphasize road and bridge maintenance; as outlined in the STPP 
Blueprint, we believe we need a ``Fix it First'' program that 
prioritizes system preservation, Here in Rhode Island, we have 750 
bridges, 55 percent in poor or mediocre condition and 57 percent of our 
roadways in poor or mediocre condition. In a recent University of North 
Carolina/Charlotte study on overall highway conditions, the State of 
Rhode Island ranked last for the year ending 1995. bet me just say, it 
is incomprehensible that these STEP 21 STARS 2000 proposals in Congress 
would eliminate the Bridge Repair and Interstate Maintenance programs. 
These are good government programs that ensure accountability to 
taxpayers--they must be retained in the next ISTEA.
    We also need an ISTEA that will allow us the flexibility to spend 
our highway funds on Amtrak, a choice our state DOT currently our 
highway funds on Amtrak, a choice our state DOT currently lacks; we 
need an ISTEA that will allow us to protect our environment by reducing 
automobile and diesel gasoline and curtailing road runoff all of which 
have a dramatic impact on the health of every Rhode Islander as well as 
the Narragansett Bay; one that will allow us to pursue sensible 
alternatives to single occupancy vehicles by improving our public 
transit system, providing convoluter rail service south of Providence 
and restoring water ferries throughout the Bay; and one will allot 
touring, one of our most vital economic engine to flourish throughout 
the state without clogging our roadways and ruining the very thing that 
people come here for in the first place.
    In closing, let me just reiterate: ISTEA has been a success. It has 
started to provide us with real choices, better protection of the 
environment and more local control over transportation programs. But it 
is also still in its infancy. Whatever difference need to be worked out 
over funding formulas, we urge this committee to protect the principle 
and framework established by ISTEA in 1991. Mr. Chairman, thank you for 
your attention and courtesy and let me any again how grateful we are 
here in Rhode Island to be able to rely on your vision and leadership 
in the U.S. Congress on this issue. I will be happy to answer any 
questions you or any other Members of the Committee may have.
                               __________
                Statement of Curt Spalding, Save The Bay
    Good Morning. I'm Curt Spalding, Executive Director of Save The 
Bay. I am here representing the over 20,000 members of Save The Bay, 
most of whom reside in Narragansett Bay's watershed. Save The Bay is 
dedicated to the protection and restoration of Narragansett Bay--a body 
of water designated by the Environmental Protection Agency as an 
estuary of National Significance. I am honored to be asked by the 
esteemed members of the Environment and Public Works Committee, and its 
Chairman and good friend to Narragansett Bay, Senator John Chafee, to 
testify on the reauthorization of the Intermodal Surface Transportation 
Efficiency Act.
    The passage of ISTEA in 1991 was a significant victory for 
Narragansett Bay and the quality of life for this region. The 
transportation policies of the past, and the road-building subsidies 
that went with those policies, furthered a sprawling pattern of 
development that has increased water and air pollution, helped enable 
the wholesale disinvestment in our urban areas and ruined the rural 
character of much of the Narragansett Bay watershed. ISTEA offered a 
new vision--a new promise for the development and maintenance of this 
region's surface transportation system.
    Last weekend Save The Bay cosponsored with the Rhode Island 
Historic Preservation Commission and the Providence Foundation (a 
leading business organization) a conference called Growing Smart and 
Saving Place. The Conference assembled over 700 members of the Rhode 
Island community to discuss how we can better protect our cities and 
towns from suburban sprawl's ravaging effect on the character of our 
communities and our natural resources. There were numerous panels and 
discussions on the importance of transportation planning and 
management. These were aimed at informing citizens about what we must 
do if we are going to achieve the promise of ISTEA. For ISTEA 
represents an important paradigm shift--but it a shift that is far from 
complete.
    At the Growing Smart/Saving Place Conference we learned just how 
far short we have fallen on ISTEA implementation. Citizens all over the 
watershed are still angry and frustrated at RIDOT. They are frustrated 
that the spending of enhancement dollars and environmentally directed 
demonstration dollars have lagged behind other priorities at DOT. And 
they are especially frustrated that there has been little change in the 
way the public is afforded the opportunity to input transportation 
decisions. The idea of reaching beyond the politics of local government 
and really listening to the civic voices that work for healthy 
communities year in and year out, is an idea that the Rhode Island 
Department of Transportation just does not want to embrace and our 
communities are suffering for it.
    We have not fulfilled the promise of ISTEA for one major reason. At 
Save The Bay, we call it the dinosaur effect. The Rhode Island DOT was 
built to do one thing--build and supposedly maintain roads. In their 
never-ending effort to placate local political leaders, DOT road 
engineers have designed many more roads for Rhode Island than will ever 
be built. That's not to say they won't continue to try.
    ISTEA demands much more of the transportation planning 
infrastructure than the old highway bill did. And the RIDOT was not 
equipped to meet the ISTEA challenge. There are several reasons why.
    First was a lack of know-how. ISTEA demanded a new kind of thinking 
and attitude. Essentially the RIDOT organization did not want to go 
through the hard work of reexamining its mission, skills and culture. 
Like a dinosaur, the DOT was not willing or equipped to deal with the 
change in climate.
    Even if RIDOT has wanted to make change, State funding cuts may 
have made it impossible. The State of Rhode Island has been cutting 
discretionary spending to agencies like DOT and the Department of 
Environmental Management for over 5 years. On a single year basis, 5 
percent may not be much. Make that cut for 5 years running, and add 
inflationary costs and the impact is huge.
    But most importantly we must remember that the DOT of 1991, and its 
constituency, was deeply vested in the road building paradigm. The new 
thinking and new tasks demanded of the institution by the ISTEA 
paradigm needs more time to implement. The worse thing that could 
happen now would be to retreat from the ISTEA vision and in effect say 
``never mind''. That would amount to capitulation to the pro-road 
forces that love strip malls and communities without side walks. These 
are the forces that have helped segregate our communities by income and 
have left our cities wondering where their tax base went.
    Looking ahead, we must stay on course with the reauthorization of 
ISTEA. The welfare of our communities and Narragansett Bay depend on 
it. Enhancement funding and congestion mitigation funding should be 
increased, not eliminated as some have suggested. This type of funding 
has helped remedy the negative impact that too much road building has 
had on our communities.
    A greatly improved ISTEA would build in incentives that would 
discourage sprawling patterns of development. By taking this bold step 
the Federal Government could assert that while land use management is a 
local responsibility, it is not in the Country's interest to further 
highly inefficient patterns of development that increase dependence on 
foreign energy resources, and are very expensive to maintain and 
rebuild. As we learned at our Growing Smart/Saving Place Conference, 
ultimately, sprawl makes taxes go up and the quality of life go down. 
That's not good for the environment or the economy.
    An improved ISTEA would also explicitly connect transportation to 
water pollution. It could do it by mandating that transportation 
decisionmakers strive to prevent water pollution in their planning and 
management decisions and make it Federal policy that runoff pollution 
firstly be avoided and second be minimized to the maximum extent that 
is practical.
    But there is one more thing that ISTEA must continue to do. It must 
fund our surface transportation funding system solely based on need. It 
is my understanding some political leaders are proposing that funding 
should be allocated based on how much each state has collected in gas 
taxes. I am a Steering Committee Member for the Enterprize For the 
Environment. E4E, as it is commonly called, is an initiative chaired by 
the esteemed first Administrator of EPA, William Ruckelshaus. Industry, 
environment and governmental leaders have come together to discuss how 
the United State's approach to environmental protection could be 
improved and made more user friendly. The E4E stakeholders have agreed 
that the Country should work to align economic incentives and 
environmentally desirable behaviors so that a cleaner and healthy 
environment can be achieved with less regulation. To base 
transportation funding allocation decisions, in any part, on gasoline 
consumption would be a step in the wrong direction. For in effect, 
states and localities would be financially rewarded for building 
automobile based transportation infrastructure, which is, as I have 
already stated, a sure-fire way to increase taxes and pollute the 
environment. State should be rewarded for building more efficient ways 
of moving people and freight, not penalized.
    I want to close my testimony reiterating Save The Bay's 
wholehearted support for ISTEA and especially for the promise it holds. 
More time is needed to reform the transportation planning processes and 
the thinking of the people that are responsible for those processes. As 
an advocate for Narragansett Bay, this region's most important 
resource, which has suffered greatly from past transportation 
decisions, I am committed to see this reform through. Please do 
everything you can to afford me, and other Rhode Islanders that care 
deeply about their communities, the continued opportunity to carry this 
mission forward.
                               __________
Testimony of James P. RePass, President and CEO, the National Corridors 
                               Initiative
    Thank you very much for inviting me to be here today to testify 
upon the proposed reauthorization of the Intermodal Surface 
Transportation Efficiency Act. It is a privilege to be here, and to be 
permitted to address you. It is a privilege not only because such 
invitations are always an honor, but because the bill you and 
ultimately all Congress shall craft will, I believe, have a greater 
direct impact on the economic and environmental health, and on the 
quality of life, of the American people than any other piece of 
legislation that will come before this Congress.
    I come before you today as a representative of the National 
Corridors Initiative, founded in 1989, and remaining as, a bipartisan 
private non-profit corporation dedicated to the advancement of 
intermodal passenger rail development in the United States.
    My organization has, over the past 8 years, beginning in the 
Northeast as supporters of the Northeast Corridor electrification 
project and continuing now throughout the United States, conducted 
national conferences, regional gatherings, and scores of smaller 
seminars and meetings, with the aim of educating the public and private 
sectors on the benefits of a balanced transportation system that 
includes rail.
    We have done this and we believe this is no secret--- because rail 
passenger service has been and continues to be grossly under-utilized 
in the United States, especially when compared to the industrialized 
societies in Europe and Asia with which Americans must compete 
economically. By a variety of measures--- low cost, environmental 
impact, efficiency--- and as a very tangible as well as sym bolic means 
of binding American towns and cities together, rail passenger ser vice 
offers a welcome and very necessary alternative to highway and air 
travel.
    This is true not only in the congested urban regions of our East 
Coast, as former Senator Claiborne Pell noted in his seminal book, 
``Megalopolis Unbound,'' and in those of the West Coast and Midwestern 
travel corridors, but for small towns and cities for whom passenger 
rail service is not only an alternative, but the only, means of 
connecting with the outside world. That is a fact we may tend to over 
look in the Northeast, and indeed, our organization has become more and 
more cognizant of this fact as we have grown and reached beyond our own 
roots in the Northeast.
    In late February, for example, we held a conference in Atlanta on 
emerging South ern rail corridors, with representative of the business, 
academic, environmental and governmental communities of virtually every 
state in the deep South: Louisi ana, Mississippi, Alabama, Tennessee, 
Georgia, and North and South Carolina, as well as states such as 
Florida and Texas. The message I heard loud and clear at Atlanta: 
include us in.
    In NEXTEA, in building transportation systems, the South and West 
are demand ing to be treated with the same degree of respect regarding 
infrastructure invest ment as the East or Pacific coasts which need 
heavy investment because of dense populations and/or aging 
infrastructure.
    And yet, in preparing for this testimony, and in reflecting on our 
experiences in speaking with our bipartisan constituencies, I also read 
the remarks you made, Mr. Chairman, in introducing the Administration's 
version of the legislation be fore you today, the National Economic 
Crossroads Efficiency Act or NEXTEA.
    I was struck with the plain truth of your observations regarding 
the very problem atic way in which we tend to allow the means of 
raising most of the moneys used for Federal transportation funds--- the 
gasoline tax--- to influence policy. As you noted:
    ``If you buy gas in Baltimore, MD, and drive to Woonsocket, RI, you 
will drive through the States of Delaware, New Jersey, New York, 
Connecticut, and Rhode Island. Maryland will be the only State that 
gets credit for this trip.
    ``Even if we were better able to estimate where gasoline is used, 
rather than just where it is purchased, setting national transportation 
policy on gasoline usage provides incentives that contradict policies 
of ISTEA such as environmental protection, intermodalism, and 
efficiency. Under a gas- tax based formula, States and localities that 
use transit significantly or use less gasoline because of good planning 
are actually penalized for their good work.''
    So, on the one hand we have the South and West asking for a greater 
share of the transportation pie, while at the same time the very means 
of allocating that pie makes for an unfair and unwise bias against 
efficiency and intermodalism, two of the key words in the very name of 
the original ISTEA bill.
    To resolve this dilemma, and to make more funds available not only 
for rail but for other transportation projects which demand attention, 
we propose the following. As part of the reauthorization of ISTEA, we 
respectfully request that the Congress:
    Make it easier for private sector funds to be invested in 
transportation projects, and Make it easier for states to gather 
together in interstate compacts to pursue regional transportation 
projects.
    On the first point, what we are really talking about is a program 
for transportation investment that treats transportation infrastructure 
needs for this nation the same way we treated housing needs for 
returning American GI's at the end of the Second World War: as a matter 
of the highest national priority. Just as the creation of VHA and later 
Fannie Mae loan programs helped to create the middle class which more 
than any single factor lead to the flowering and prosperity of this the 
American century, let us resolve to create an equivalent infrastructure 
program whose legacy will be the growth and prosperity of a 21st 
Century America.
    There is already a good start in the drafts of NEXTEA now 
circulating, in the State Infrastructure Banks program included 
therein. But it calls for funding of only $150 million a year. This 
level, and the related credit enhancement programs anticipated in the 
bill, need to be expended and strengthened. The private sector has 
shown the capability of massive investments in power plant and water 
utility infrastructure investment throughout the world; we need to 
allow it to succeed in transportation infrastructure investment as 
well.
    On the second point, the need for interstate compacts is great. 
There are many proposed or desirable transportation projects which 
would cross state lines, but which are not of national importance. The 
Congress should not have to deal with them, and yet congressional 
approval is required for those projects because they go over state 
boundaries. We needs a more streamlined way to create such interstate 
authorities, and we need to invite in the private sector to the 
operation and management of those authorities as well.
    Third, as the Congress is considering, Governors must be allowed 
the flexibility to choose where transportation funds are allocated 
within their states. Also, the original ISTEA law contained an 
artificial barrier to investment in intercity rail. This was not due to 
a policy debate on the issue, but rather to a turf battle over 
committee responsibilities. This barrier must be removed. Coupled with 
greater flexibility in project funding allocation for Governors, these 
actions would help ensure that state and regional transportation 
projects will be funded.
    Intermodalism means getting from door to door by the most efficient 
system possible. People don't take a plane to arrive at an airport, or 
a train to arrive at a station. The want to get home, or to an office, 
or to a vacationsite. We need to make sure that it is possible to do so 
expeditiously and cost-effectively, and that new transportation 
technologies that promise to radically alter the way in which we make 
that last mile or so or our trip, technologies that I have seen in my 
private sector work, can become a reality.
    At this point I want to talk about the national passenger rail 
system, Amtrak. I want to make it very clear that my organization does 
not represent Amtrak, or speak for it. We speak only for our own 
constituency, which consists of business, political, academic, and 
environmental leaders from throughout the United States, who come from 
broadly ranging political viewpoints, but who are united in the belief 
that investment in rail technology and systems is the best way to 
create and sustain a strong national transportation system that can 
take its place in the first ranks of the industrial world.
    That having been said, we do believe that what Amtrak has 
accomplished, under an extraordinarily harsh and discriminatory 
environment, is remarkable. Without any regular source of capital, and 
without any commitment from any source that it would survive from 1 day 
to the next, Amtrak has become the most cost-effective passenger rail 
system in the world.
    That may be hard to believe for those who catch only the headlines, 
which year in and year out point to Amtrak's struggles. But it is so. 
Amtrak recovers 84 percent of its operating costs from farebox revenue. 
No other major industrial country's rail system even comes close.
    The NCI has watched this performance with considerable awe. As a 
group with many private sector businessmen as a key constituency, we 
are impressed that Amtrak has not only survived, but has been able to 
reach efficiency levels that are at the top of the list.
    Unfortunately, for reasons that have to do with my comments above, 
that high-wire act may be about to end, in disaster. Unless a regular 
source of capital is made available to the national passenger rail 
system, just as capital is made available for highways and airports, 
Amtrak is going to die. When that happens, sometime early next year 
unless this situation is turned around, and Amtrak simply runs out of 
cash, there will be a transportation nightmare the likes of which this 
country has never seen. Transportation on the East and West coasts and 
in the Chicago areas will become chaotic, airports will back up, and 
highways will become saturated. In those 13 major cities where Amtrak 
is the contract operator of the commuter rail system, there will be 
chaos.
    I know some people hate Amtrak because it has become a whipping boy 
for big government. It's ironic, because the highway and airport 
systems consume each year a subsidy many times that of Amtrak's, but 
get no criticism for it. Maybe Amtrak has lost people's luggage or 
served cold coffee to a few too many people. What is remarkable is not 
that Amtrak sometimes serves cold coffee and I'm not minimizing the 
need for improvement here--- but that it is able to serve coffee at 
all, and also run the most under-funded railroad system in the 
industrialized world.
    In your deliberations here and in the Senate, I would ask not only 
that you include intercity rail in the category of eligible program 
recipients for Federal transportation dollars, as I noted above, but 
that each of you, Senators, also support your colleague Senator Roth of 
Delaware, and his bill to create an intercity trust fund from the 4.3 
cent deficit-reduction gas tax, for Amtrak capital expenditures. That 
action, plus a supplemental capital appropriation to catch Amtrak back 
up to its totally unfunded capital needs of the past 2 years, when it 
should have been receiving the proceeds of that Intercity Trust Fund, 
are essential if the Nation is to have a viable intercity passenger 
rail system. Finally, let us resolve to understand that above all else, 
we are and must be ONE country, not North or South, East or West, but 
simply America. We owe that to ourselves, to our children, and to the 
legacy our courageous forefathers created more than two centuries ago. 
Thank you very much.
                                 ______
                                 
                         The National Corridors Initiative,
                                           James P. RePass.

    Office of Senator John Chafee,
    10 Dorrance Street Suite 221,
    Providence, RI 02903.

    Dear Sir: Thanks again for inviting me to testify on the 
reauthorization of ISTEA. I appreciated the opportunity to be heard.
    As I mentioned on the telephone Just now, there is an omission in 
the Administration version of ISTEA of which I was not aware, and to 
which I would have testified had I been aware. Therefore, as we 
discussed, I would like to amend my testimony to include my comments on 
that subject.
    In terms of background, the original ISTEA bill as enacted included 
a section 1010 that called for designation of specific high speed rail 
corridors outside of the Northeast Corridor for a modernization program 
that was originally to be $1.3 bile lion, but the money was never 
appropriate((only about $10 million was authorized, for grade crossing 
safety improvement). Initially five of these FRA 1010 Corridors were 
designated, and then the Empire Corridor in New York was also added. 
Here then are the six Corridors:
    1010 Corridors:
    <bullet>   Chicago- St. Louis/Detroit/Toronto/Milwaukee
    <bullet>   Miami-Orlando-Tampa
    <bullet>   San Diego-Los Angeles-Bay Area, and to Sacramento via 
the San Joaquin Valley
    <bullet>   Eugene-Portland-Seattle-Vancouver, BC
    <bullet>   Washington DC-Richmond-Raleigh-Charlotte In addition:
    <bullet>   NYC-Albany-Buffalo-Niagara Falls-Toronto (Empire 
Corridor)
    The problem is that several good candidates, especially in the 
South, didn't make the initial list. These include the Deep South 
Corridor, which would run from Houston through Lake Charles to New 
Orleans, the Mississippi Gulf Coast, Mobile, Pensacola, Tallahassee and 
Jacksonville, and the Crescent Corridor, from New Orleans through 
Birmingham to Atlanta, Columbia, North Carolina, and Virginia, to DC.
    The Deep South Corridor is the brainchild of the Hon. Revius 
Ortique, an original leader of the Civil Rights movement with Dr. King, 
and the first African American Supreme Court Justice in Louisiana. He 
is the Chairman of the New Orleans International Airport Authority, and 
sees the Deep South Corridor as an intermodal development tool for the 
South, and I agree. Also backing this Corridor are former FRA Chief Gil 
Carmichael, Greater New Orleans Regional Chief (and MPO head) John 
LeBourgeois and most if not all of the Louisiana Congressional 
delegation, who have signed letters to the FRA asking for official 
designation, as has Senate Majority Leader Trent Lott.
    The Crescent Corridor is headed by the Hon. John Robert Smith, 
Mayor of Meridian, MS, and also backed by a multi-state bipartisan 
coalition.
    The concern is that, as with the Interstate Highway Program, states 
not getting on the official list early will not get funds until very 
late in the program, if at all.
    Indeed, both Deep South and Crescent Corridors believe they were at 
first told that official FRA designation was forthcoming, but It has 
not been. They (and 1) have been told that designation would come In 
NEXTEA, but the Administration's version makes no mention of extending 
the program.
    I would like to amend my testimony as follows:
    ``A revision in the original ISTEA bill, Section 1010 rail corridor 
designation, should be opened up in NEXTEA, beyond the six FRA 1010 
Corridors Promulgated' so that any part of the country whose citizens 
have an interest in and have organized on behalf of better, safer rail 
transportation shall be Included at the table when rail corridor 
investment funds are allocated.''
    I would also like to ask that a meeting be arranged with the 
Senator or his top aide on transportation in Washington so that 
representatives of the Deep South and Crescent Corridors can present 
their views. This is a bipartisan opportunity, as well as one to show 
that South and West have a right to serious consideration of their rail 
infrastructure needs under NEXTEA.
    Thank you.
            Sincerely,
                                           James P. RePass,
                 President & CEO The National Corridors Initiative.
                               __________
   Statement of Susan K. Moore, Executive Director, Blackstone River 
              Valley National Heritage Corridor Commission
    The Blackstone Heritage Corridor was created in 1996 by Congress as 
art affiliated area of the National Park system The region consists of 
20 communities from Providence to Worcester covering most of the 
Blackstone River watershed. Unlike other National Parks where the 
Federal Government owns and manages land and cultural resources, the 
Blackstone Valley designation was designed as a management framework to 
assist through partnerships, cooperation and coordination to preserve 
the nationally significant waters, lands and structures that reveal the 
story of the American Industrial Revolution.
    Through a 19-member Commission comprised of representatives of both 
States of Massachusetts and Rhode Island, local officials and citizens, 
and the Regional Director of the National Park Service, the objectives 
of Congress--to preserve and interpret the Blackstone Valley's 
heritage--are carried out as detailed.in the Corridor's Cultural 
Heritage and Land Management Plan. This plan has been the basis of the 
Commission's action for the past 10 years.
    Working through partnerships is a complicated and tedious process. 
Focusing the Commission's few staff and financial resources on 400,000 
acres of cultural resources is a daunting task. The Intermodal Surface 
Transportation Efficiency Act (ISTEA) is one Federal initiative that 
has made that task easier, in part because of more flexibility in 
dealing with community-level transportation issues and an improved 
public process. ISTEA allows communities to address a host of values 
and issues relating to transportation and community development. We 
here in the Blackstone Valley have seen how enhancement projects have 
had incredible spin-offs for communities end' the region. We have 
witnessed enhancement related projects that have blended historic 
preservation, trail development, open space preservation, public 
transit, and road development which in turn have rejuvenated the 
economic and social fabric of communities.
    Here are but a few examples where ISTEA and enhanced public 
involvement has made a difference in the Blackstone Valley:
    <bullet>   In Lincoln RI, the Great Road National Historic District 
includes the most intact section of this early colonial road and 
surrounding landscape, both agricultural and early industrial. A 
variety of public and private funds were used over the past 20 years to 
protect key farmland, and 18th and 19th century structures. Financial 
resources then began to dwindle at a time when traffic and development 
pressures were starting to compromise the entire landscape. An 
application for Enhancement Funds was approved for the town to purchase 
land easements, restore the Moffitt Mill (one of the oldest industrial 
structures in Rhode Island which sits precariously on the very edge of 
the highway.), and develop a safe walking path to Great Road sites. The 
Corridor Commission provided matching funds in the form of new historic 
district signs and outdoor exhibits coordinated with other cultural 
areas in the valley. The preservation of Great Road and the surrounding 
landscape is one of the highest priorities of the Corridor Commission.
    <bullet>   In Worcester and Millbury, MA, the connection of Route 
146 (the valley's primary north/south highway) and the Massachusetts 
Turnpike is one of the largest transportation improvement projects in 
New England. Utilizing a variety of funding categories available under 
ISTEA, the project was transformed from an environmental catastrophe 
with the capability of further polluting the Blackstone River, into a 
sound, transportation achievement for the entire Worcester region. 
State of the art bioengineering techniques will actually improve the 
water quality of the river, and other needed transportation systems 
have been integrated into the project including a section of the 
planned Providence to Worcester bike path and pedestrian connections 
between neighborhoods.
    There are many more examples, but these are representative of the 
scale of impact to resources of the Blackstone Valley and to residents' 
lives.
    The Corridor Commission strongly urges that ISTEA legislation be 
reauthorized. As transportation decisions continue to affect the 
everyday lives of people, we need a rational, flexible approach toward 
concerns at the community level. In the Blackstone Valley, ISTEA has 
been one important avenue for addressing the preservation of resources 
in America's first industrial region.
    Thank you for your consideration of my views.
                               __________
 Statement of Jane B. Sherman, Director, Woonasquatucket River Greenway
    The reauthorization of the Intermodal Surface Transportation 
Efficiency Act is essential in order to equitably provide 
transportation opportunities to all of our citizens. The transportation 
needs of all communities and all individuals are not identical and an 
critical element of the ISTEA legislation is the flexibility which it 
provides for states to address local needs and priorities. To limit the 
local decisions on how this funding should be spent would be unwise and 
contrary to the understanding that local communities are best able to 
determine their own needs.
    The reauthorization of ISTEA will allow communities to direct the 
growth which occurs in their area. Through local input of funding for 
transportation, growth can be directed to areas which are already 
urbanized, have the existing infrastructure necessary to support 
growth, and will benefit from economic reinvestment and stabilization. 
This beneficial reuse of ``brownfields'' and other urban lands will 
help us maintain the livability of our communities by directing 
development away from ``greenfields'' and other rural and 
environmentally sensitive areas. Additionally, this will direct the 
growth of jobs once again toward centers of population.
    Many of these urban or inner-city areas, including Providence, 
contain populations which cannot, because of their age or income, use 
automobiles as their primary source of transportation. Maintaining, and 
even increasing, funding for bicycle/pedestrian paths and other 
intermodal options is essential to provide viable transportation 
opportunities for all of our citizens.
    This issue becomes especially relevant when looking at the current 
status of welfare recipients, who soon will be mandated to find jobs or 
lose their benefits. Of the recipients of Aid to Families with 
Dependent Children in Rhode Island, 41 percent reside in the city of 
Providence. Of these households, only 19 percent own a vehicle (RI 
Dept. of Human Services, Dec. 1996). Improving transportation 
alternatives is essential for giving the underprivileged the capacity 
to access employment. Unless states have the flexibility to determine 
their own needs and to fund alternative transportation programs, a 
substantial population will be left without the ability to reach places 
of possible employment.
    The Congestion Mitigation and Air Quality Improvement Program and 
ISTEA Enhancements have and can continue to link transportation choices 
to an improved environment. These funds can help mitigate the effects 
of transportation developments or make active movement toward a more 
efficient and effective system of transportation. Communities need 
these funds in order to address the environmental problems associated 
with transportation.
    Viable intermodal transportation alternatives are economic and 
environmental necessities for the health and stabilization of our 
cities, and we urge you to pass legislation which continues local 
opportunities for flexibility, Enhancements, and the CMAQ program. 
Thank you.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                         WEDNESDAY, MAY 7, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.

                            SAFETY PROGRAMS

    The subcommittee met, pursuant to recess, at 9:32 a.m. in 
room 406, Senate Dirksen Building, Hon. John Warner (chairman 
of the subcommittee) presiding.
    Present: Senators Warner, Boxer, Thomas, Smith, Baucus, and 
Chafee [ex officio].

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Good morning, everyone. Good morning, 
colleagues.
    I've been informed that Senator Baucus will not be here for 
a short period, so I'll go ahead and initiate the hearing.
    This marks the tenth hearing that we've had on the 
legislation that will, in large measure, reauthorize the 1991 
ISTEA bill. We've yet to give it a formal name. Everybody has a 
name for it, but nevertheless, at some point in time a name 
will evolve.
    We're pleased to have two colleagues with us this morning 
and we will let you start it off, Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I want to express my appreciation to you for conducting 
today's hearing on transportation safety programs. I want to 
thank you for the opportunity to testify before this committee 
on the important safety issues affecting Indiana and many other 
States.
    In America today, several hundred people are killed and 
thousands more injured every year as a result of vehicle-train 
collisions at highway rail grade crossings. A significant 
number of these accidents occur in States such as Indiana, 
Illinois, Ohio, California and Texas and have large numbers of 
rail-highway intersections.
    My home State of Indiana ranks sixth in the Nation, 
unfortunately, in the number of public crossings--we have over 
6,500--and every year, Indiana is one of the top five States in 
the Nation for the numbers of injuries and fatalities caused by 
vehicle-train crashes.
    In 1994, I traveled across northern Indiana aboard a CSX 
locomotive. I witnessed what engineers see every day--numerous 
motorists darting across the railway tracks before an oncoming 
train.
    Following discussions with State officials and then 
Transportation Secretary Pena about this pressing safety 
problem, I joined with Senator Coats, my colleague in Indiana, 
to ask the GAO to conduct a thorough review of rail safety 
programs in the States.
    The 1995 GAO report found that the current system of 
distributing Federal funds for the rail-highway crossing 
program could be improved to target existing Federal resources 
to States with the greatest need. Responding to these 
recommendations, I introduced legislation in the 104th Congress 
and again this year in the 105th Congress aimed at improving 
the distribution of these safety funds.
    S. 284, the Highway-Rail Grade Crossing Safety Formula 
Enhancement Act would replace the current flat percentage 
system with a formula that uses risk-based criteria to better 
target existing funds where they can be most effective.
    Public funding for improvement projects at hazardous 
crossings is one part of a State's comprehensive rail safety 
program. Extensive public awareness campaigns, such as the work 
done by Operation Lifesaver, coupled with vigorous enforcement 
of traffic laws, are essential to the overall effort to 
eliminate grade crossing accidents.
    Anticipating the ISTEA reauthorization debates, I 
introduced S. 284 to continue the momentum of our efforts to 
help States eliminate grade crossing accidents. At this time, 
it is unclear how Congress will structure the Federal Highway 
Program for the coming years or what the Federal role will be 
in maintaining the Nation's transportation infrastructure, but 
I will continue to advocate grade crossing safety as a priority 
within the context of the streamline and flexible Federal 
Highway Program that returns resources and transportation 
decisionmaking to the States.
    As the ISTEA Reauthorization Program continues in the 
coming weeks and months, I look forward to working with the 
committee to help find an appropriate role that encourages 
States to continue their grade crossing safety efforts.
    I thank you again, Mr. Chairman, for this opportunity to 
testify.
    Senator Warner. We thank you very much, Senator.
    Now we've been joined by a member of this committee. 
Senator Lautenberg?
    Senator Chafee. Mr. Chairman, is Senator Lugar going to 
have to leave? Are you going to leave now, Senator, or are you 
going to stay? I just have one quick question.
    Senator the problem we get into is the designation of any 
funds for a certain area and currently 10 percent is set aside 
for safety from a certain account.
    Other Senators have come here and said, just give the money 
to our State; don't you, in Washington, tell us how to spend 
it, and we'll spend it the way we think is best. If we think 
rail crossings are important, we'll do it. If we think we need 
more highways, we'll do it. So we get into this constant 
struggle here of the categorizing, if you want, of funds. As 
you know, it extends maintenance of interstate highways, 
maintenance of bridges, and on it goes. Could you give us your 
thoughts on that?
    Senator Lugar. Certainly. I'm not going to try to predict 
the committee's findings or how the Senate finally will act. 
Clearly, the Senator makes a good point that if the Federal 
Government were to send all the money back to the States, then 
the consideration I've offered today becomes a concern for the 
Governor and the legislature in Indiana.
    That might not be the way the committee or the Congress 
finally acts. In other words, it is very difficult to gauge at 
this point the mosaic of what categories will remain or what 
the Federal participation will be.
    Anticipating that, my thought would be if the Federal 
Government retains categorical programs or attempts to 
designate money, I'm hopeful that the rail grade crossing 
safety problem will be a part of that consideration.
    Senator Chafee. It is currently and I agree with you. I 
believe the Federal Government, as we send the moneys back, has 
a right to demand that it goes in certain directions--to 
maintain the interstate highways, for example--but it's a 
constant struggle obviously on the committee with different 
views and in the Senate as a whole.
    Senator Lugar. Thank you.
    Senator Chafee. Thank you.
    Senator Warner. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Good morning, Mr. Chairman and Senator 
Chafee.
    Mr. Chairman, you tried to find an appropriate name for the 
next rendition of ISTEA and I was asked by a reporter yesterday 
unaware of his reference that he was making, what I thought 
about the ISTEA legislation. He went on talking and I said, I 
don't recognize it--ISTEA, and he said, ``ISTEA, the highway 
thing;'' and I said, ``Oh, OK. So maybe that will be a name.''
    I appreciate the chance to testify before the members of 
the subcommittee this morning. I'm delighted to be here with 
Senator Lugar, always interested in safety measures, and his 
endorsement for safety considerations which is very important, 
and Congresswoman Nita Lowey who is here to testify on behalf 
of our legislation to reduce fatalities and injuries due to 
drunk driving.
    With the creation of the interstate highway system in the 
1950's, the Federal Government assumed a major role in building 
and maintaining our highway infrastructure and at the same 
time, the responsibility to make sure that these roads and 
highways are as safe as possible.
    When I introduced legislation, now almost 15 years ago, 
make 21 the national minimum drinking age, many thought it 
would never pass, but President Reagan lent his support, as did 
the Secretary of Transportation, Elizabeth Dole, and now every 
State has a minimum drinking age of 21. This Act saved over 
10,000 lives since its enactment.
    In this Congress, we have a real opportunity to further 
reduce fatalities from drunk driving. During ISTEA 
reauthorization, we should take the steps necessary to make the 
difference.
    Currently, 41 percent of all fatal crashes are alcohol-
related. With Senator DeWine and Congresswoman Lowey, I've 
introduced S. 412 to make .08 Blood Alcohol Content (BAC) the 
national standard. If a State fails to pass this standard by 
fiscal year 2001, it would lose a portion of its highway 
funding.
    The simple fact is setting lower limits saves lives and 
because of the inaction by a lot of States, it is time for the 
Federal Government to get going. This legislation will get 
tough on States that fail to put tougher drunk driving laws on 
the books.
    The question isn't why we should drop the drunk standard to 
.08 but, rather, it raises the question about why it was ever 
set as high as .10. It is at .08 BAC that a person becomes 
significantly impaired and should no longer be driving.
    A 170-pound man must drink four-and-a-half drinks in 1 hour 
on an empty stomach to get to .08 BAC. At that point, the man 
has lost his basic driving skills like braking and steering, 
lane changing and general judgment. It does not sound like a 
severe penalty to say you shouldn't have more than four-and-a-
half drinks in a hour.
    Most importantly, .08 BAC laws where States have adopted 
the .08 standard have seen a reduction in their alcohol-related 
fatal accidents. A recent study by Ralph Hingson of Boston 
University demonstrated that if all States adopted the .08 
standard, 500 to 600 lives each year would be saved, 500 to 600 
lives.
    France has a BAC limit of .05; Canada and Britain, .08, 14 
States have .08 BAC laws, including Virginia, California, 
Florida and New Hampshire and legislation is pending in many 
more.
    The beverage industry has marshalled its forces against 
this legislation. It's too bad. Sanctions on Federal highway 
assistance can counterbalance these ferocious, political 
pressures.
    I've also introduced a bill, Mr. Chairman, to promote 
minimum penalties for those repeatedly convicted of drinking 
and driving. This proposal would sanction highway funding if 
States do not revoke the licenses of convicted drunk drivers 
with three-time offenders losing their licenses permanently.
    There was a young man named Matthew Hammell for whom this 
bill is named. He was a 17-year-old, New Jersey fellow. He was 
killed by a driver whose New Jersey license was revoked for 
repeated drunk driving convictions, but he was able to get a 
license in North Carolina.
    Those who drink and drive need to know that wherever they 
are, the law will not permit repeated abuse. Establishing a .08 
BAC limit and license revocation for repeated abusers are two 
concrete ways to reduce fatalities and injuries associated with 
drunk driving.
    I'd also like to comment for a moment on another issue, the 
issue of big trucks. I was the author of the 1991 freeze on 
LCVs, longer combination vehicles. About 5,000 people are 
killed and 20,000 people injured each year in big truck 
crashes. Big trucks also obviously impose great wear and tear 
on our transportation infrastructure.
    We should maintain the LCV freeze in the next ISTEA bill 
and reject efforts to leave truck size and weight standards to 
the States. The Southern Governors Association, some State 
trucking associations, and the Owner-Operators and Independent 
Drivers Association support maintaining the LCV freeze and they 
oppose the State option.
    I hope, Mr. Chairman, that in the wisdom of this committee, 
that they will decide to enact strong safety provisions as we 
move to renew ISTEA. Thank you.
    Senator Warner. Thank you very much, Senator.
    Speaking for myself, I'm going to do a good deal more study 
on this issue of the .08 but I intend to join with you and 
perhaps others in seeing legislation for the increased 
penalties for repeat offenders. I think you're right on target 
there.
    Senator Lautenberg. Thank you.
    Senator Warner. Representative Lowey.

  STATEMENT OF HON. NITA LOWEY, U.S. REPRESENTATIVE FROM THE 
                       STATE OF NEW YORK

    Mrs. Lowey. Thank you, Chairman Warner and Senator Chafee, 
Senator Thomas. It's good to be with Senator Boxer, a former 
colleague, again.
    Members of the subcommittee, I must say I don't envy your 
task this year. Your subcommittee has to wrestle with a wide 
range of difficult issues and competing interests.
    As the ISTEA reauthorization process unfolds, however, I 
hope one area everyone can agree on is that improving the 
safety of our Nation's roadways must be one of our highest 
priorities. It is with this goal in mind that I'm here this 
morning, joining with Senator Lautenberg and Senator DeWine, to 
urge the subcommittee's support of measures to strengthen our 
Nation's drunk driving laws.
    We've all heard the statistics. For the first time in a 
decade, drunk driving fatalities are on the rise and in 1995, 
the year for which the most recent statistics are available, 
more than 17,000 Americans were killed in alcohol-related 
traffic fatalities.
    The sad reality is that our drunk driving laws have failed 
thousands of families across the Nation. Our criminal justice 
system has been too lax on drunk drivers for too long. We were 
all pleased with the decision that was reached yesterday with a 
major drunk driving case in North Carolina, but there is more 
to be done. In fact, impaired driving is the most frequently 
committed violent crime in America and that is just an outrage. 
A license to drive shouldn't be a license to kill. We have to 
combat these crimes by strengthening drunk driving laws and 
penalties.
    As some of you know, Senator Lautenberg, Senator DeWine, 
and I have joined Mothers Against Drunk Driving, highway safety 
advocates, law enforcement groups, drunk driving victims in 
introducing two important pieces of legislation to strengthen 
our Nation's drunk driving laws.
    Using the proven method of the 1984 National Minimum 
Drinking Age Law and the 1995 Zero Tolerance Law for Underaged 
Drinking and Driving, these bills will compel States to lower 
the legal level of driving while intoxicated to a more 
reasonable level and strengthen penalties for repeat drunk 
drivers.
    Mr. Chairman, more than 3,700 Americans were killed in 1995 
by drivers with blood alcohol concentrations or BAC levels 
below .10, the legal definition of driving while intoxicated in 
36 States. In recognition of this problem, 14 States, including 
Virginia, California, Florida and Idaho, have adopted laws 
lowering the DWI level to .08 and Illinois is likely to do so 
soon. .08 laws have also been adopted by a number of other 
industrialized nations.
    Lowering the DWI level to .08 is supported by the American 
Medical Association, the American Automobile Association, the 
National Sheriffs Association, the International Association of 
Chiefs of Police, the National Highway Traffic Safety 
Administration, and our Nation's largest insurance companies. 
The American Medical Association, in fact, even recommends 
States adopt a .05 DWI standard.
    The reason these groups recommend the DWI standard be 
lowered to .08 are compelling. First, .08 is a level of 
intoxication at which critical driving skills are impaired for 
the vast majority of drivers. Second, the risk of a crash 
increases substantially at .08 and above. In fact, the driver 
with .08 BAC is 16 times more likely to be in a fatal crash 
than a driver with no alcohol in his system.
    Third, Americans overwhelmingly agree that you shouldn't 
drive after three or four drinks in 1 hour on an empty stomach, 
the equivalent of a .08 blood alcohol level.
    Last, but certainly not least, .08 laws save lives. A study 
of the first five States to enact .08 found those States 
experienced a 16 percent reduction in fatal crashes involving 
drivers with a BAC of .08 or higher. Overall, the study 
concluded that up to 600 lives would be saved every year if 
every State adopted the .08 standard. This is not a theoretical 
study; this is a fact.
    The experiences of the first five States to adopt .08 laws 
also indicates that heavy drinkers are less likely to drink and 
drive because of the general deterrent effect of .08. In fact, 
those States experienced an 18 percent decrease in fatal 
crashes involving drivers with a BAC level of .15 or higher. In 
addition, lowering the BAC to .08 makes it possible to convict 
seriously impaired drivers whose BAC levels are now considered 
marginal because they are at or just over .10.
    Some will argue that .08 BAC is too low a level of 
intoxication and that it will target social drinkers who drink 
in moderation, so let's be very clear. This legislation has 
nothing to do with social drinking. This is not about having a 
couple of beers or a glass of wine with dinner after work. It 
takes a lot of alcohol to reach .08 BAC.
    In fact, as Senator Lautenberg mentioned, NHTSA states that 
a 170-pound man with an average metabolism would reach .08 only 
after consuming four drinks in 1 hour on an empty stomach. A 
137-pound woman with an average metabolism would need three 
drinks in a hour to reach that level.
    Let's keep in mind if you have any food in your stomach or 
you snack while you're drinking, you can drink even more and 
not reach .08. That's a lot of liquor.
    In addition to getting States to lower the legal definition 
of DWI, we need legislation to establish mandatory minimum 
penalties to keep convicted drunk drivers off our roads. We 
must stop slapping drunk drivers on the wrist and taking their 
hands off the wheel. That's why the Deadly Driver Reduction Act 
will require States to mandate a 6-month revocation for the 
first DWI conviction, 1 year revocation for the second, and a 
permanent license revocation for three alcohol-related 
offenses.
    Studies by the National Highway Traffic Safety 
Administration show that about one-third of all drivers 
arrested or convicted of DWI each year are repeat offenders. 
Drivers with prior DWI convictions are also more likely to be 
involved in fatal crashes.
    The second piece of legislation will close the loopholes in 
State laws that too often allow convicted drunk drivers to get 
right back behind the wheel.
    Mr. Chairman, no piece of legislation alone is going to 
solve the problem of drunk driving. We know that it's going to 
take a good deal of public education and a greater commitment 
on the part of Federal, State and local officials. However, 
there can be no denying that adopting .08 as the national DWI 
standard and establishing mandatory minimum penalties will 
reduce the carnage on our Nation's roads.
    Mr. Chairman, Burton Greene, a constituent of mine from New 
Rochelle, was recently killed in a DWI accident by a repeat 
offender. Mr. Greene didn't get a second chance; his children 
know that. I think it's time for our government to act and to 
act now and do the responsible thing.
    I appreciate your consideration.
    Senator Warner. Thank you very much.
    You know, as I've begun to study this problem again, I'm 
surprised why we haven't gotten to this repeat offender serious 
sentences before. We've followed that in the pattern of 
criminal laws with drugs and things of that nature. Does anyone 
know the reason why Congress hasn't addressed that which seems 
to me to be an obvious deterrent earlier on?
    Senator Lautenberg. Frankly, I am as surprised as you are. 
What's happened recently, Mr. Chairman, is we've seen incident 
after incident of people driving without appropriate licenses. 
I'm looking at that area as well.
    I introduced the Hammel family here this week. They lost 
their son who was 17 years old. This was a young man who wanted 
to be a missionary. He was an athlete. He was everything a 
young man could be and he was struck by a driver who was 
illegally passing on a particular road and he struck this young 
fellow as he was roller-blading on the side of the road.
    His mother reported here that the fellow who now sits in 
jail with a 5-year sentence, who is likely to serve 2-1/2 
years, said publicly that he knows he's not supposed to drive 
without a license. When he gets out of jail, he's going to 
drive without a license again and if he hits somebody, he hits 
somebody.
    That kind of attitude is as shocking as one can imagine. I 
don't think that everybody who drinks feels that way but they 
shouldn't treat their driving as callously as this fellow did--
get out there, just drive and if you take a life.
    The whole thing is bizarre and Mr. Chairman, with your 
help, we're going to change it.
    Senator Warner. We'll addressing it in this bill, no 
question about that.
    Obviously, you're fully aware of the fact that other 
organizations have an equal right to come before us here and 
put forth their proposals.
    Senator Lautenberg. Absolutely.
    Senator Warner. The American Beverage Institute, I'd like 
to read from their communication of May 7th to the 
subcommittee. It's entitled, ``.08 Percent BAC Laws Do Not Save 
Lives.'' ``No unbiased, authoritative research has ever been 
able to show that lowering BAC limits to .08 percent saves 
lives.''
    Senator Lugar, before you go, I want to make sure that you 
know that the Chairman is very much in support of your goals 
and I'm confident that we will include in this bill provisions 
comparable to the previous bill.
    Senator Lugar. Thank you very much for joining us today, 
Senator.
    I'll repeat that--``No unbiased, authoritative research has 
ever been able to show that lowering BAC limits to .08 percent 
saves lives.'' That's a fairly stark statement. It says ``no 
research points to it.
    Data from the NHTSA show that the average BAC level among 
fatally injured drunk drivers is .18 percent, more than twice 
the proposed .08 percent limit with more than 80 percent of 
these drivers having BAC levels of at least .14 percent. 
Lowering the legal BAC limit will have no effect on drivers who 
already ignore the current law. How about that?
    Mrs. Lowey. I'd like to say, Senator Warner, that if I had 
my choice and the American public had its choice, I wonder who 
they would believe, the liquor associations or the beverage 
associations, and the restaurant associations, or the Sheriffs, 
the Police, the American Medical Association, and the National 
Highway Transit Administration.
    It seems to me the evidence is very clear and if we look at 
the facts, the American public would be outraged that 17,000 
people have lost their lives, that the numbers are going up. 
There may be a difference in opinion, but I'd rather be on the 
side of law enforcement, the doctors, and the sheriffs.
    Senator Warner. That's very clear, Representative Lowey and 
I respect you but on the other hand, the statement that ``No 
unbiased authoritative research has ever been able to show that 
lowering the BAC limit to .08 saves lives,'' all I'm asking is 
if there is documentation out there?
    Senator Lautenberg. We have research done by Mr. Hingson in 
association with the University of Boston, and we'll supply 
that for the committee.
    I would say one thing, that perhaps one could interpret it 
as a coincidence but the 13 States that have lowered their BAC 
level to .08 have seen a decrease in fatalities and that shows 
we're on the right track. As Representative Lowey said, if 
we're erring on the side of conservatism, of excessive care 
about those lives, then so be it. We're going to continue to 
support it.
    I don't honestly understand, Mr. Chairman, why the beverage 
industry, why any group would protest this and try with what I 
think could be called questionable statistics or talk about 
higher levels being the norm in fatalities.
    What's the difference if we save 500 to 600 lives. Heaven 
forbid, and we've seen it, and there are people in this body of 
ours who have lost children, we know who those people are, to 
drunk drivers. There ought not to be this debate.
    If they are worried about the loss of business, then they 
ought to look at what happened since 21-year-old drinking age 
was introduced in 1984. Business hasn't diminished. People 
survived very well. We have saved lives, as I indicated, over 
10,000.
    Senator Warner. It seems to me, Senator, the argument, and 
it's my responsibility and certainly this was your 
responsibility during your days as chairman, I've got to sort 
through this evidence and if I understand, it's not so much a 
protest as an effort to show the subcommittee that yes, there 
are whatever it is, 500 or 600, an astonishing, unacceptable 
number of deaths, but those deaths, in large measure, can be 
attributed to repeat offenders and those who have an alcoholic 
content well above .08 percent.
    I don't know if anyone can fracture that 600 number to 
determine what fracture is above .08 and what is at .08 or 
below. It seems to me that evidence has to be sorted out.
    Senator Lautenberg. I respect that, Mr. Chairman. We had 
appear at a press conference when we kicked off this 
legislation a family from Maryland--a mother, father and a 14-
year-old daughter--who had lost their 9-year-old daughter some 
months before this.
    To listen to the older sister, 14 years old, describe the 
anguish, the pain at the mother's mistake of setting four 
places at the dinner table and realizing it was an error and 
sometimes just setting a place there to remember the younger 
sister.
    She was struck down by a woman aged 20 at 8 a.m. who was 
.08 BAC and the woman jumped the sidewalk and struck this child 
waiting for the school bus in front of her mother and her 
sister. She was impaired, her driving was impaired.
    It wouldn't matter at all if she had been a chronic 
alcoholic or not, if she wasn't behind the wheel, that would 
have been all right, but the fact of the matter is that at .08, 
she was a killer and we ought not to permit it. 500 to 600 
lives and all of us have had friends and know what it is like 
to see a family who has just lost a child to drunk driving.
    Senator Warner. I very much respect and appreciate those 
personal stories and they do leave a profound impression on me 
and I'm certain the other members of this committee. I don't 
wish in any way to diminish my level of compassion for those 
who have suffered these losses. In that case, your point is 8 
a.m., .08 percent.
    Senator Boxer. Mr. Chairman, if I could just make a 
comment?
    Senator Warner. Certainly.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. I want to thank our witnesses all, as well 
as Senator Lugar, but I particularly wanted to say to Nita 
Lowey, Frank Lautenberg, and Senator DeWine, who is part of the 
team which has introduced this bill, how much I appreciate your 
leadership.
    In California, we have, on average, 1,720 alcohol-related 
deaths. We're a huge State, we have about 10 percent, Mr. 
Chairman, of the alcohol-related deaths. That doesn't even go 
into those who survive but whose lives are changed irreparably.
    When you think about those people and all the people they 
touch, it is a huge tragedy but preventable. I would say we 
always will have certain groups that oppose us making more 
progress. We have made progress and I'm sure the same arguments 
Mr. Chairman that you read today were laid out there when we 
pushed for the .10.
    We have to put it into perspective. I think that it is 
important to have some studies and I'm looking forward to those 
but it's a fairly common sense idea that you will save lives if 
you take it down a notch or two.
    I just wanted to make one closing point. In June 1995, 
President Clinton called on all States to go for the zero 
tolerance which is the .02 for drivers under age 21. We now 
have 37 States who have adopted this.
    I think the reason what you're doing is so important is 
this. We're telling young people 21 years and younger, zero 
tolerance, .02, and then it's going up all of a sudden when 
they turn 21, there is a signal .10. I think it's time to move 
this down. I frankly think when we look back, and others will, 
in maybe 20 years when it's down way lower than that, we may 
wind up in this country going to zero tolerance period.
    I just want to applaud you and know that my chairman is 
going to look at this in a very objective way. I hope we can 
move toward all of our goals which is to put the message out 
that it's unacceptable to get behind the wheel when you can't 
see straight and you haven't got your faculties.
    Senator Warner. Senator, I certainly share those views and 
I caution you we have 5 minutes left.
    Senator Boxer. I will be so cautioned and I look forward to 
working with all of you and Mothers Against Drunk Driving.
    Mrs. Lowey. Thank you and I thank you again, Mr. Chairman.
    [Recess.]
    Senator Warner. The subcommittee will resume the hearing. 
We just completed a vote.
    The distinguished Senator from Wyoming would like to make 
an opening statement and following that, we'll hear from our 
colleague, Senator DeWine.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I'm having second thoughts about this. Let me submit this 
statement for the record but to add to my statement that I have 
a great deal of concern over a lot of the mandates that we're 
talking about. Safety is a very important part of our 
transportation problem, but I have reservations about imposing 
penalties on States to coerce them into compliance with the 
Federal mandate.
    I have a long history in this, Mr. Chairman. I can remember 
back when David Boren and I were both elected to the Oklahoma 
State Legislature and we were very smart back then. We were 
going to come to Washington and testify and stop these mandates 
that I thought were unconstitutional.
    So we came up and protested against Lady Bird's Highway 
Beautification Act of 1965 and you know how far we got. So I 
haven't forgotten that. I take mandates very seriously, I take 
coercion for States very seriously and I'll be considering that 
during the course of these hearings and the reauthorization of 
ISTEA.
    [The prepared statement of Senator Thomas follows:]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    Mr. Chairman, thank you for holding this hearing today. Safety is 
of course a priority for all of us, and I look forward to hearing from 
the administration regarding its proposals.
    Another safety issue I am concerned about is the current 
prohibition on using safety set-aside money on the Interstate system. 
In Wyoming, one of the most useful safety features on our system is the 
addition of ``rumble strips'' on the shoulders of our Interstate 
highways. They are particularly effective on rural Interstate highways. 
Although this work can be funded through the interstate maintenance 
program, the use of safety set aside money for this type of work would 
be ideal. The Administration claims that safety is its top priority, 
however, its NEXTEA proposal does nothing to address this issue. The 
bill Senators Baucus, Kempthorne and I introduced, the Surface 
Transportation Authorization and Regulatory Streamlining Act (STARS 
2000) will make this important change to ensure safer highways in rural 
America.
    STARS 2000 also brings some needed flexibility to the safety 
program. It retains the safety set-aside at current dollar levels and 
requires states to spend 25 percent of this money on railway-highway 
crossing projects, 25 percent on hazard elimination projects and the 
remaining 50 percent may be used for either program at state 
discretion.
    Again, Mr. Chairman, thank you for holding this hearing. I look 
forward to listening to today's witnesses.
    Thank you, Mr. Chairman.
    Senator Warner. Thank you very much, Senator.
    Senator DeWine?

                STATEMENT OF HON. MIKE DeWINE, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator DeWine. Thank you very much.
    I know you've already heard testimony on this issue and I 
will try to be brief.
    Let me first thank the committee for holding this hearing 
and thank the committee also for the concern that you have not 
only expressed but demonstrated for highway safety over the 
years.
    Senator Warner. Senator, you and I joined on the floor. We 
lost the battle, but we sure fought them hard.
    Senator DeWine. We sure did.
    Senator Warner. In the cause of highway safety.
    Senator DeWine. Mr. Chairman, I think you were right on 
that day. I think the statistics tragically have borne out what 
you said on that day. I appreciated the support.
    I first became interested in this issue when, as a 25-year-
old, right out of law school, my first job was as an assistant 
county prosecuting attorney. I was involved in the prosecution 
of vehicular homicide cases, drunk driving cases.
    One of my jobs was frankly to talk and work with the 
victims, the families, the people who survived. I remember one 
particular case where I was called to the emergency room of the 
hospital and saw two elderly people, one had just died and the 
other was being operated on and died 5 days later. They were 
killed by a drunk driver.
    I think all of us have had that experience but when you're 
a prosecutor, you see it and you can understand it a little 
more because you see it firsthand.
    Senator Warner. If I might say, Senator, I had the same 
experience as a prosecutor prosecuting cases involving 
intoxicated persons.
    Senator DeWine. It affects, I think, how you look at 
everything.
    When I was in the State Senate, we had a tragedy in our 
home county. We had a little 7-year-old boy by the name of 
Justin Beason who was killed by a driver who had been drinking. 
His grandfather came to me and I'll never forget the anguish 
and horror that I saw in his eyes and the horrible sadness and 
as a result of that, I wrote in 1982 in the Ohio State Senate, 
Ohio's first really tough drunk driving law.
    We established in that drunk driving law a per se violation 
which is something we in Ohio had not had. In fact, most States 
at that time, did not have that.
    I would like today to talk about four issues very briefly. 
Let me start simply by saying that we lose some 40,000 people 
every year in this country killed in auto fatalities. If it was 
any other cause than that--if it was an epidemic, if it was a 
disease, we would be up in arms as a country.
    To some extent, we are numb to auto fatalities. We are numb 
because everyone knows someone who has been killed or knows a 
family that has been touched.
    I just would ask this committee to look at four specific 
things that I think we can do that will, in fact, make a 
difference. I would like to start with the .08 and I understand 
fully the concerns that have been expressed and I know will be 
expressed about the States rights issue involved here. I do 
appreciate those.
    I would simply say that when we deal with issues such as 
this, I think this is one of the few times we can cast a vote 
in the Senate where we know our vote will actually save lives. 
Many times we think it will, many times we think we know what 
the results are and we're dealing with some of these areas in 
regard to highway safety and things we know will, in fact, 
work.
    One is lowering the alcohol level to .08. That seems like a 
very small change, to go from .1. Most States today have it at 
.10. There is a minority of States that have it at .08, but we 
find is that this is a really critical period. What we find is 
that once you get to about .06--and it varies obviously by 
individual--but once you get in that range, then you see the 
impairment magnified. Each 2 percentage points is magnified and 
magnified.
    I know when the previous panel was here, it's my 
understanding you had some discussion about the statistics. I 
would like to submit to the committee a letter which I will 
prepare today with additional statistics, because I think the 
evidence is fairly overwhelming that in the States that have 
made the change, they have seen a significant reduction.
    Thirty-five States have established the per se laws at .10, 
13 have established, a minority, at .08 but the fact is that 
drivers, all drivers, are substantially impaired at .08. Both 
laboratory and on-the-road tests show the vast majority of 
drivers, even those who are very experienced, are significantly 
impaired at .08.
    They had trouble braking, they had trouble steering, they 
have trouble with other driving tasks. They certainly have 
trouble with judgment. The risk of being in a crash rises with 
each increase in the blood alcohol level. We know that. But it 
rises very rapidly after a driver gets into the area of .06, 
.07, or .08.
    Most of the States that already have a .08 law found that 
it has helped to decrease the number of alcohol-related 
fatalities. A recent study of the first five States to lower 
their blood alcohol limit showed I believe convincing results. 
They showed in fact that if you compared those five States 
versus five States that were comparable States that did not 
change, although you had a reduction in each State, the 
reduction was about three times as much as those States that 
took it to .08 as those that kept it at .10.
    Senator Warner. If I could intercede, Senator, my State 
went to the .08 and we have seen some reduction. So that's a 
case history with which I am familiar.
    Senator DeWine. I know the committee's time is very 
valuable and I appreciate the opportunity.
    Senator Warner. Senator, we're in no rush. You're 
acknowledged as a leader in this field and for very 
understandable reasons to those of us who know you well. So you 
take all the time you want.
    Senator DeWine. That is very kind of you. I'll try not to 
wear out my welcome.
    Let me talk about another issue, which is school bus 
safety. Let me preface this by saying something I always try to 
say, and I've worked on school bus safety for the last several 
years, school buses are the most safe form of transportation 
there is statistically. Parents should always remember that.
    If there's a choice between putting your child on a school 
bus or letting your 16-year-old drive to school, statistically, 
there is absolutely no choice. I want to put that out right at 
the beginning.
    We have had a great deal of success in the last several 
years in dealing with a very specific school bus safety problem 
and that has to do with unsafe hand rails that are on school 
buses. Most of the buses that have these unsafe handrails are 
now off and they've been taken off on a voluntary basis, so 
it's not been something the Federal Government has mandated.
    This arose from a tragedy that occurred in my home county 
where we had a little child by the name of Brandy Browder who 
was drug along with the school bus because she had her 
drawstring that got caught in this defect in the school bus.
    There have been a lot of changes made. There are still some 
of these buses out there. I'm going to use this forum one more 
time to remind every school district in this country. It's a 
very simple test. The remedy is $5. It doesn't cost much but we 
need to be vigilant to make sure these buses are no longer on 
the road. Most of them, frankly, are now off the road.
    I believe also, Mr. Chairman, that school buses are the 
safest form of transportation. We still lose upwards of 45 to 
50 children every year who are killed. Most of them are killed 
getting on and off the bus. Most of them are killed for any 
number of reasons, but in almost every case, it is a school bus 
driver error.
    Again, I think this reinforces the need to increase the 
attention we pay to school bus safety issues.
    Finally, seat belts. If there's one thing we know about 
seat belts, it is that they save lives. But today, in many 
States, including Ohio, not wearing a seat belt is not 
considered a primary offense; in other words, you can't get 
pulled over for not wearing one, but you can be charged for not 
wearing one if you're pulled over for some other offense. We 
need to do what we can to see that the seat belt laws get 
elevated to the status they deserve. We have them on the books 
for a reason: they save lives. Let's make them effective.
    Mr. Chairman, I look forward to working on all of these 
issues with you and other concerned Senators, and I thank you 
very much for holding this important hearing.
    Senator Warner. Thank you very much, Senator DeWine.
    I'm trying to explore whether or not in this bill I can add 
a provision to increase our statistical data base. That, 
indeed, causes some burden on the States and others, but we've 
just today on the .08 issue, which is a critical issue in this 
bill, talked about the number of deaths, but we haven't talked 
about the number of injuries which are, I guess, a multiple of 
8 to 10 times the deaths.
    Should we, perhaps, begin to explore whether or not 
Congress will just have to mandate we've got to have those 
statistics on injuries, as well as deaths, so that we can 
formulate better-grounded and -supported decisions?
    Senator DeWine. Mr. Chairman, I think one thing Congress 
can, in fact, do in these areas that should not be very 
controversial, should not even get into the battle we always 
have about what the States should do and what the Federal 
Government should do, the one unique role the Federal 
Government can play is to be the collector and repositor of the 
statistics that can be used by all 50 States.
    Senator Warner. Good point.
    Senator DeWine. As well as the Federal Government, to make 
the decisions that are really life and death decisions. You 
have been in government for many years, I've been in it for 25 
years and I'm always amazed at how often we have to make 
decisions on guesswork on things that are really life and death 
decisions and don't have the hard data.
    A little money spent by the Federal Government can give all 
50 jurisdictions in this country, in addition to the Federal 
Government, a lot better grounding in facts to make decisions.
    Senator Warner. Perhaps we can explore that together and 
I'll advise you as to where I'm coming down on it.
    Let me just pose one last question and it goes back to our 
debates when you and I fought to have a lower speed limit. On 
the 08 issue, I think there's some evidence that if we went to 
08, it would be life-saving. As to how may remains to be seen, 
but the same argument you made about bringing down the speed 
limit from 65 to 55 to 45 and yet, we've had no success thus 
far in the Congress in doing that.
    Senator DeWine. I think you're absolutely right, Mr. 
Chairman, and I think we all operate in the real world. We know 
that statistically, if you brought the speed limit, for 
example, down to 45--and no one is saying we should do that--
we'd save more lives. We know there is a point at which people 
will say, no, that's not what we're going to do.
    I think you always have to weigh and balance what the 
inconvenience is.
    Senator Warner. And the economic impact, certainly in the 
speed limit.
    Senator DeWine. You have to look at the economic impact, 
you have to look at the personal impact, the freedom impact, 
and we weigh all these.
    I will just say in answer to your question specifically, 
when we talk about going from .10 to .08, clearly it will save 
lives. On the other hand, what detriment does it do, what 
freedom does it take away? I think it takes minimal freedom 
away.
    We always used to have a joke when I was a prosecutor that 
every defense attorney that came in--talking about drunk 
driving cases--and you'd ask the defendant how much he had, 99 
percent of them, no matter what they tested, had two beers. 
That's what they all said, they had two beers.
    Well, the reality is that contrary to popular opinion, 
statistically, an average male can have four beers on an empty 
stomach or four shots, four drinks in a hour on an empty 
stomach and at that point, probably not be any above .08.
    We all know, I think, from our own experience, some of us 
do, what impact four drinks in a hour is going to have on your 
judgment and what impact it's going to have on your 
coordination. Is it too much to say that person shouldn't be 
behind the wheel? I don't think so. I don't think that's a 
burden.
    I think the arguments that are made, by some of the people 
in the industry, quite bluntly, are ludicrous. I don't think 
it's going to cost any money to bars and to other people who 
sell alcohol. This is not a prohibition bill. We're simply 
saying at some point, you shouldn't be behind the wheel. You 
shouldn't be risking other peoples' lives.
    So to me it's always a balancing test, in answer to your 
question, and I think .08 is a significant figure. It's 
significant because around that point people really start to 
lose it
    Senator Warner. Senator, I wish you could join us to hear 
the second panel. We have some of the most caring people in 
America that are going to come forward now and I hope they will 
address some of the points which you and I have expressed.
    Senator DeWine. I look forward to working with you.
    Senator Warner. Thank you very much, my good friend.
    Senator DeWine. Thanks for your courtesy.
    Senator Warner. We will now have panel two. Excuse me, 
we've been here so long, I overstepped panel one. Sorry folks.
    Panel one consists of Mr. Philip R. Recht, Deputy 
Administrator, National Highway Traffic and Safety 
Administration; and Mr. Anthony R. Kane, Executive Director, 
Federal Highway Administration and he will be accompanied by 
Mr. George Reagle, Associate Administrator for Motor Carriers, 
Federal Highway Administration.
    Thank you very much, gentlemen. We will put your entire 
statements in the record and given that we have a very 
extensive panel in Panel 2, it would be my hope that you could 
stay within the 5-minute rule.
    I will place statements by committee members in the record 
at this point.
    [The prepared statements of Senators Chafee, Inhofe and 
Boxer follow:]
Statement of Hon. John H. Chafee, U.S. Senator from the State of Rhode 
                                 Island
    Thank you, Mr. Chairman. I would like to welcome all of our 
distinguished witnesses.
    The purpose of today's hearing is to receive testimony on ISTEA's 
safety programs. As much as transportation benefits society through the 
movement of people and goods, it is not without its costs. Perhaps the 
most serious unintended consequence of mobility is the staggering rate 
of transportation fatalities and injuries. Although the fatality rate 
from motor vehicle crashes has declined some 10 percent since ISTEA's 
enactment, the number of fatalities has risen five percent within the 
last two years.
    The economic cost of motor vehicle crashes is alarming--more than 
150 billion dollars annually. A significant portion of this burden is 
borne by Federal and State taxpayers in the form of publicly funded 
health care, increased public assistance, and reduced income tax 
revenue. As staggering as these economic costs are; however, they pale 
in comparison to the personal losses involved.
    ISTEA went a long way toward reducing the terrible costs of motor 
vehicle crashes and fatalities. It provided strong measures to 
encourage safety precautions such as wearing seat belts and helmets. 
ISTEA also placed a ``freeze'' on the gross weight limits of the large 
``longer combination vehicles'' or ``LCVs.'' Regrettably, the National 
Highway System Act of 1995 undermined the strong national interest in 
this area by eliminating the national speed limit and the incentive for 
States to enact motorcycle helmet laws.
    As we reauthorize ISTEA, the question of what we can do to reduce 
the horrible loss of life on the nation's highways persists. I think we 
can all agree that there is a strong federal interest in the smooth and 
safe operation of the nation's transportation system. Although 
significant progress has been made over the last twenty years with 
respect to seat belt use and other preventive safety measures, it is 
obvious that our efforts have plateaued. Ignoring these safety costs 
would be a terrible mistake.
    The Department of Transportation has introduced a comprehensive 
safety reform initiative, with a strong focus on safety belt use. I 
look forward to learning more about the Administration's safety bill, 
Senator Lautenberg's bill, and other proposals during today's hearing. 
Thank you.
                               __________
Opening Statement of Hon. James Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Thank you Mr. Chairman, for holding this last of a series of 
hearings on the issues surrounding the reauthorization of ISTEA.
    Safety is a very important part of our transportation policy. I do, 
however, have reservations about imposing penalties on states to coerce 
them into compliance with a Federal mandate. Even though I recognize 
that some safety issues do transcend state lines, like the problem we 
have with people driving while intoxicated, I still am a proponent of 
the notion that states are usually the best suited to choose policies 
for the citizens that live there. Shaving away dollars from a State's 
highway funds for Interstate Maintenance does not necessarily trickle 
down to improving safety. We need to look at avenues that give states 
incentives to bring highway accidents and fatalities down voluntarily, 
but quickly and effectively.
    Our National Highway System consists of over 160,000 miles and 
carries over 40 percent of all traffic--unfortunately almost 40 percent 
of these roads are not up to par. We cannot afford to continue to 
penalize highway users--both private and commercial--by compromising 
the conditions of our nation's highways by skimming funds. Don't get me 
wrong--I am very interested in preserving the lives and safety of this 
nation's highway users. But, we need to do that in an effective and 
uniformly safe manner, which in my opinion includes maintenance of the 
current roads. Oklahoma, like many other donor states, already has 
limited funds returned from the Trust Fund--we need to use that money 
wisely to protect our highway users--not be penalized.
                               __________
    Statement of Hon Barbara Boxer, U.S. Senator from the State of 
                               California
    Thank you, Mr. Chairman.
    I know we have a lot of witnesses here today but I just want to 
make a few remarks about the subjects of today's hearing which are very 
important to California.
    Mr. Chairman, I am pleased to see that you set aside a separate 
hearing on safety issues. This is clearly an issue of the highest.
    California's annual traffic fatalities have been fairly constant 
since 1991 at an average of 4,195 a year, which is still too many. 
California is one of only three states which have passed a zero 
tolerance for driving under the influence of alcohol, comprehensive 
child restraint and primary seat belt laws, and my state's alcohol-
related deaths have declined by 17 percent over the past 5 years. 
However, the percentage of alcohol-related deaths and injuries on our 
highways is still just under the national average of 41 percent of all 
deaths and injuries.
    Clearly, even the better states have room for improvement.
    I am also concerned about railroad crossing fatalities. California 
unfortunately leads the nation in railroad trespassing fatalities 
involving pedestrians.
    Another concern I have is how we balance the needs of highway truck 
traffic with those of automobiles. Let me add here that I do not 
believe that California needs triple-trailer, and I have written to 
Governor Wilson urging him not to pursue a demonstration of this longer 
combination vehicle. It will raise the risks for our other motorists in 
California.
    One of our witnesses today, Mayor Bartlett of Monrovia, California, 
is going to speak about the pressure California is facing from the 
impact of the NAFTA trade agreement and the general increase in trade 
which has so helped my state recover from the recession of a few years 
ago.
    I urge my colleagues to listen to his testimony because some of the 
statistics Mayor Bartlett will recite on the impact of freight movement 
in my state are astounding. This flood of trucks when combined with the 
overall increase in traffic is unprecedented. It is literally breaching 
our infrastructure.
    This breach is best evident on the border. The Federal government 
has built new buildings for the ports of entry along the border, but it 
has not provided help to link these facilities to our national 
transportation system. Soon after NAFTA passed, we moved all commercial 
vehicle traffic from one of the largest land border crossings in the 
world at San Ysidro, where it links up with the interstate highway 
system, to Otay Mesa, which is served by a four-lane city street. The 
current traffic already is three times above this street's design 
standards. The truck traffic at 1.5 million a year now is expected to 
double in a decade. From 1990-1994, accident fatality rates for Otay 
Mesa Road were over 5 times higher than the average rate for state 
highways and have edged up slightly since then.
    Meanwhile, the General Services Administration is designing a new 
facility at Tecate, in eastern San Diego County, but there is no 
Federal money to provide even adjacent intersection construction much 
less major traffic improvements. The rate of highway deaths on State 
Route 94 in this area is more than 6 times the statewide average on 
comparable highways. From 1993 to 1995, the 25-mile long route to the 
border has averaged 45 fatal and injury accidents a year.
    In Calexico in Imperial County, trucks entering this port of entry 
which opened in February either must follow city streets past a school 
and shopping center to reach Interstate 8, or follow a two-lane country 
road that was constructed over 50 years ago and never designed for 
heavy commercial trucks.
    Mr. Chairman, this is where NAFTA meets the road and the roads we 
have don't past the test. Our check points have become chokepoints. 
That is why I introduced the Border Infrastructure, Safety and 
Congestion Relief Act, which I urge my colleagues to consider as we 
reauthorize ISTEA.
    Border infrastructure is a trade issue because without improved 
transportation efficiencies we hurt businesses and factories that keep 
their inventories low and rely on getting materials and goods delivered 
and sent as quickly as possible and not snarled in traffic tie-ups on 
narrow roads. Border infrastructure is a fairness issue because 25 
percent of this commercial truck traffic originates or is destined for 
areas outside California.
    And finally, border infrastructure is a safety issue because of the 
high incidence of accidents and fatalities in the region.
    Mr. Chairman, I would like to end my remarks with a passage from 
the recently published assessment on NAFTA's impact on California from 
a group that is generally supportive of the trade agreement. According 
to the California State World Trade Commission:
    ``This commercial expansion has placed severe stress on the 
nation's underdeveloped southern border transportation infrastructure. 
The result has been bottlenecks and traffic jams at border crossings, 
safety hazards and declining environmental quality in the areas 
surrounding ports of entry....The current infrastructure conditions are 
not only unsafe, but are seriously impeding the flow of cross-border 
trade and hampering job creation in the border region.''
    I look forward to working with this committee as we address the 
border infrastructure needs of our country, and as we put together the 
best provisions to further the progress we have made on safety.
    Senator Warner. We will lead off with Mr. Recht.

 STATEMENT OF PHILIP R. RECHT, DEPUTY ADMINISTRATOR, NATIONAL 
           HIGHWAY TRAFFIC AND SAFETY ADMINISTRATION

    Mr. Recht. Thank you and good morning, sir.
    Mr. Chairman, members of the subcommittee, I appreciate the 
opportunity to testify before you today.
    NHTSA's mission, as you know, is to prevent deaths and 
injuries from motor vehicle crashes. In the area of highway 
safety, we do this by providing States and local communities 
with grant funds and technical assistance targeted to priority 
activities.
    NHTSA's programs have contributed to real progress in 
highway safety. Since 1992, seatbelts, child safety seats, 
motorcycle helmets and the age 21 minimum age drinking laws 
have saved over 40,000 laws.
    Despite this progress, a look at recent statistics shows no 
room for complacency. After years of steady decline, total 
highway deaths increased in each year from 1992 to 1995; motor 
vehicle crashes are still the leading cause of premature death 
of America's youth; seatbelt use has grown by only 2 percentage 
points since 1993; and in 1995, the number of alcohol-related 
fatalities increased in this country for the first time in 9 
years.
    Last year, over 41,000 people died and over 3 million more 
were injured in police-reported crashes. Highway crashes cost 
the Nation over $150 billion a year and taxpayers share a 
significant percentage of these costs through Medicare, 
Medicaid and support programs.
    Moreover, we face some particular new challenges today.
    Senator Warner. Let me interrupt just a minute. I have your 
statement here with some 20 pages with appendices, but you're 
obviously proceeding from a shorter version that you put 
together yourself?
    Mr. Recht. Yes, sir.
    Senator Warner. All right. I missed a statistic that you 
gave me there. What was the total number of deaths?
    Mr. Recht. In 1996, it was actually over 41,500 and over 3 
million injuries.
    Senator Warner. Three million injuries.
    Thank you very much.
    Mr. Recht. We face some particular new challenges today as 
well. The number of older and younger drivers is increasing; 
the use of alcohol and other drugs among some segments of the 
population is rising; speed limits have been raised; and 
speeding and other forms of aggressive driving are increasing; 
and a growing economy is historically linked to increases in 
traffic and fatalities.
    NHTSA's programs are highly cost effective and we continue 
to have strong public support for them. We see a growing demand 
for continued Federal technical assistance in all of our 
program areas and in NEXTEA, we propose a significant expansion 
of our programs.
    The centerpiece of NHTSA's efforts in highway safety is the 
State and Community Highway Safety Grant Program, known as the 
402 Program, and which is jointly administered by NHTSA and the 
Federal Highway Administration.
    Under this program, the States receive formula grants for 
the programs that are most effective in reducing traffic 
deaths, injury and property damage. NEXTEA proposes to 
reauthorize the formula grant program.
    In addition, NEXTEA provides authorization for incentive 
grant programs targeted to four priority areas: first, occupant 
protection; second, drunk driving prevention; third, drug 
driving prevention; and fourth, highway safety data 
improvement, a matter you just mentioned. Let me briefly 
describe these programs.
    First, in occupant protection, seatbelts are the most 
effective means of occupant protection. When used, they reduce 
the risk of fatal and serious injury by about 50 percent. 
Further, seatbelts provide protection in all types of crashes--
frontal, rear, side and rollover alike.
    Currently, about two-thirds of Americans use their 
seatbelts. In potentially fatal crashes, however, the use rate 
is only about 50 percent. Despite the fact that our use rate in 
America is one of the lowest among all industrialized nations, 
seatbelts still are saving more than 9,500 lives a year in this 
country.
    President Clinton feels strongly that there more must be 
done to encourage the use of these life-saving devices. On 
April 16, Secretary Slater responded to the President's call 
for the Administration plan to increase seatbelt use and 
announced the national strategy to raise the U.S. seatbelt use 
rate to 85 percent by the year 2000 and to 90 percent by the 
year 2005. If we reach that goal of 90 percent, we will save 
over 5,500 additional lives each and every year from seatbelts.
    To help our State partners reach these goals, NEXTEA 
includes a new 6-year, $124 million incentive grant program to 
encourage States to implement effective seatbelt and child 
restraint laws and programs. These funds would be available to 
States which, among other things, adopt primary enforcement 
seatbelt laws.
    The Administration's April 17 supplement to NEXTEA 
underscores our strong support for primary seatbelt laws. That 
bill requires States, by the year 2002, to either have a 
primary seatbelt law or a seatbelt use rate of at least 85 
percent. A State that fails would have a portion of its highway 
funds transferred to its occupant protection program.
    Second, drunk driving prevention. Drunk driving is still 
the leading cause of fatal and serious injury crashes playing a 
role in over 17,000 traffic deaths each and every year.
    NEXTEA proposes a new 6-year, $260 million incentive grant 
program to encourage States to increase their efforts to deter 
drunk driving. One significant aspect of this incentive program 
is a provision to make .08 BAC the per se standard for driving 
while intoxicated.
    The Department strongly supports .08 BAC as the appropriate 
DWI standard and our bill is designed to achieve it. Senators 
Lautenberg and DeWine's bill, S. 412 and Congresswoman Lowey's 
companion House bill, equally are aimed at the same goal, to 
make .08 BAC the Nation's standard and we will work with them 
toward achieving this common goal.
    Our third incentive proposal would create a new 5-year, 
$25.1 million incentive grant program to encourage States to 
improve their drug driving laws and related program.
    Our final incentive program would create a new 4-year, $48 
million grant program to States to improve the collection of 
the data they need to identify their highway safety priorities 
to choose the right programs and then to measure the 
effectiveness of these programs.
    Senator Warner, that concludes my statement.
    Senator Warner. Let's come back to this .08. Tell me the 
process that you followed to arrive at that conclusion that we 
should make it .08 and over what period of time, and some 
elaboration on the data base that you used and the extent to 
which you entertained views other than .08.
    Mr. Recht. We believe that if all States in this country 
were to go to .08, a significant number of lives would be saved 
for a number of reasons. First, as you've heard, virtually all 
persons are significantly impaired at .08. They are impaired in 
judgment, they are impaired in reflex and motor skills that are 
necessary to drive a vehicle. This has been proven by numerous 
tests that have been conducted by persons who are sober and at 
.08.
    Second, we've looked at crash statistics and these 
statistics show that you have an 11 times greater crash risk 
when you're at .08 than when you're sober.
    Third, at least four studies, that we're aware of, have 
been conducted--one study conducted by ourselves--that have 
looked at the impact on those States which have adopted .08. 
The first such study looked at California. In 1990, California 
adopted two things--.08 and administrative license revocation. 
We did a study which showed there was a 12 percent reduction in 
fatalities as a result of both of these items.
    All the studies that have come since have shown essentially 
the same thing, that there has been an overall reduction in 
fatalities and additionally, it has brought down fatalities 
among this high BAC group that was mentioned earlier in some of 
the testimony.
    For all these reasons, we believe it is appropriate to go 
to .08 BAC as the nationwide DWI standard.
    Senator Warner. In contrast to safetybelts, safetybelts I 
understand are mandatory and the other optional? Let's clarify 
that.
    Mr. Recht. We have proposed, with respect to .08 an 
incentive program which would reward States which went to .08 
BAC among other things. With respect to seatbelts, we have 
proposed a program which is by and large patterned on the law 
as it exists today, which was adopted in 1991, and includes 
both incentives for 5 years and a redirection in the sixth 
year.
    This was the same kind of program which this Congress 
adopted in 1991 to encourage States to go to secondary seatbelt 
laws and which this Congress in the NHS deliberations voted to 
retain with respect to seatbelt laws.
    Essentially, we're going to increase the amount of 
incentives, lengthen the period of incentives, but raise the 
bar and encourage States to go to either primary seatbelt laws 
or go to other measures that would raise their seatbelt use 
rate.
    On that point, let me note that one State, the State of 
Washington, is currently at 84 percent seatbelt use. They do 
not have a primary seatbelt law. There are ways to get there 
besides primary seatbelt laws, but we know that primary 
seatbelt laws are extremely effective.
    Senator Warner. I want to commend you on the drug driving 
program. I certainly strongly support that and I think we can 
do it.
    Thank you very much.
    Mr. Kane?

   STATEMENT OF ANTHONY R. KANE, EXECUTIVE DIRECTOR, FEDERAL 
   HIGHWAY ADMINISTRATION; ACCOMPANIED BY GEORGE L. REAGLE, 
  ASSOCIATE ADMINISTRATOR FOR MOTOR CARRIERS, FEDERAL HIGHWAY 
                         ADMINISTRATION

    Mr. Kane. Good morning, Mr. Chairman, Senator Smith.
    I'd like to highlight five additional points regarding the 
Administration's reauthorization proposal.
    First, I'd like to discuss infrastructure needs. There are 
mounting highway infrastructure needs in both rural and urban 
areas. New growth areas, including border infrastructure 
requirements, and investments for the future have both physical 
and communication aspects. We not only have to repair the 
physical assets we have, but we have to overlay today's road 
system with the communication technology for the future. Both 
types of investment are important for safety, and both are 
covered in our bill.
    In addition to targeted safety programs, our proposal has a 
40 percent increase in the National Highway System, interstate 
maintenance and surface transportation program authorizations. 
Clearly, these core programs are significant for safety. These 
programs are used significantly by the States to make safety 
improvements on the roadways.
    Second, regarding our infrastructure safety program, we 
propose a new stand-alone program that is funded at a higher 
level over the life of NEXTEA than ISTEA, and is more flexible 
and simpler than today's surface transportation program set-
asides.
    The hazard elimination component provides funding for any 
public road off the interstate. These roads account for 9 out 
of every 10 fatal crashes. This program will help address such 
needed measures as guardrails, pavement markings, breakaway 
signs, and geometric improvements.
    The rail grade crossing component also increase funding 
over today's level and increases flexibility over today's 
program.
    Third, I'd like to discuss motor carrier safety. We have 
made great gains in motor carrier safety. From 1985 to 1995, 
fatalities in large truck crashes decreased by 12 percent and 
the fatality rate declined by 35 percent. We need to continue 
to advance our gains and thus we propose an increase in funding 
for motor carrier programs to $100 million per year--$83 
million for the Motor Carrier Safety Assistance Program, which 
will become completely performance-based by the end of the 
authorization period.
    A portion of these funds will also be used to support 
priorities such as border enforcement. In addition, we propose 
an authorization of $17 million for grants, cooperative 
agreements and Federal activities supporting the development of 
safety information systems, including a comprehensive 
commercial vehicle information system, providing data analysis 
and program analysis, all directed toward achieving enhanced 
safety performance.
    This, we feel, is really the heart of our enforcement 
program because it provides enforcement and compliance 
information and analyses so that we can target high risk 
carriers and identify safety problems.
    Fourth, I'd like to discuss flexibility and incentives. Our 
proposal has several safety features that offer more 
flexibility and incentives to the States. First, through a new 
$50 million a year integrated safety fund we would make 
available to the States with a comprehensive safety planning 
process, funds that can be used to enhance the MCSAP grants, 
the Section 402 program, as well as our safety infrastructure 
program. Second, our proposal includes expanded Surface 
Transportation Program (STP) eligibility to allow the use of 
the STP funds for Section 402 program and MCSAP projects. 
Third, the safety hazard elimination funds can be used for 
Section 402, or MCSAP, if the State has a good, integrated 
safety planning process. Fourth, the rail grade crossing 
program targets funding to locations where the crossing 
problems are and provides expanded eligibility for such 
activities as education and enforcement to deal with 
noncompliance and crossing devices.
    The fifth major point concerns reauthorization--Intelligent 
Transportation Systems. Our proposal calls for both increased 
funding for research and development, as well as a new $100 
million deployment incentive program.
    This will enable FHWA and NHTSA to advance the intelligent 
vehicle initiative, a safety-oriented effort focused on such 
activities as collision avoidance systems which could really 
save lives in the future, and also to advance the deployment of 
safety-improving ITS uses, such as rural ``Mayday'' systems, 
weather-related information systems, integration of urban 
incident management and emergency service systems with 
congestion management systems, linking safety and inspection 
strategies into commercial vehicle information systems, and 
addressing border safety issues.
    Thank you, Mr. Chairman and Senator Smith. We're ready to 
answer any questions and provide any technical assistance 
during the course of the legislative process this year.
    Senator Warner. Mr. Smith, I've had an adequate opportunity 
and I'll return with questions. Would you like to lead off?
    Senator Smith. Thank you very much, Mr. Chairman.
    I thank the witnesses this morning.
    This is a difficult issue for those of us who support 
personal decisionmaking in the sense that I don't challenge 
what you all are trying to accomplish, which is to save lives 
and to encourage the use of seatbelts, and I don't disagree 
with you.
    I sometimes wonder whether we're getting the results that 
we want. If you look at some of the statistics, for example, 
Georgia has a State safetybelt use rate which is about average 
for the country and yet it has a primary seatbelt use law.
    I guess I wonder what that means in terms of what you're 
trying to do, if you could just respond to it. Those statistics 
turn against what you're trying to accomplish, don't they?
    Mr. Recht. When we deal with behavioral safety programs, we 
always say you need three components--good laws, good 
enforcement, and good public information and education. Of 
course they all go together, you can have the best law in the 
world, but if it's not enforced, and if the public doesn't 
understand why the law makes sense, they won't follow the law 
willingly.
    Having said all that, we've taken a hard look at those 
States that have primary seatbelt laws and we can tell you that 
perhaps with one or two exceptions, they generally see an 
immediate and significant increase in seatbelt use immediately 
upon passage so long as the word about the passage gets out and 
on average, they show 15 percent higher seatbelt use rates than 
those States which do not have primary seatbelt laws.
    I did indicate earlier that some States are quite 
successful in raising seatbelt use without going to primary 
seatbelt law. The State of Washington is one. The way they've 
done it is by and large through public information and 
education, creating a culture in the State where people believe 
it's important to buckle up for their own safety. They are at 
about 84 percent now and keep going up.
    Having said all this, we do know the primary seatbelt laws 
are one of the critical tools to get seatbelt use up in States.
    Senator Smith. New Hampshire, for example, has a seatbelt 
law for children up to 12 passed by their legislature and 
signed by the Governor and probably will raise that to 18 
before the end of the year, and yet that's on their own 
volition.
    What I'm concerned about is you have the people who are 
administering the highway moneys and programs as they come in 
from the Federal Government through ISTEA, but they're being 
punished in terms of how they're trying to conduct their 
programs if, in fact, the state legislature doesn't act to what 
you basically are intimidating them to try to do, so it's not 
their fault.
    You're basically saying, we're going to hold up 3 percent 
of the money and tell you to go spend it on a safety program to 
wear seatbelts which, in fact, using my own State as an 
example, we already have such a program. and meanwhile, some 
bridge or bump in the road somewhere that has already caused 
some deaths, may cause more because we don't put the money in 
there.
    Don't you think these officials who are on the scene, on 
the job in those States are a little better equipped to direct 
money where it ought to be directed, whether it be in safety 
programs or in repair of a bridge or road?
    Mr. Recht. I appreciate the point you're making, Senator. 
As I indicated, we patterned this proposal on the law that was 
enacted by Congress in 1991 and effectively retained in 1995 
when it was considering the NHS legislation. That was a 
combination of, if you will, carrots and sticks when it came to 
seatbelt laws.
    The 1991 program was 3 years of incentives to, at that 
point, adopt secondary laws and then to measure performance and 
then in the subsequent years, to go to both seatbelt laws and 
motorcycle helmet laws. Here, we've expanded the incentives to 
5 years and then redirection afterwards when we give a 
performance alternative.
    Admittedly, whenever a redirection or sanction is enacted, 
it does have some coercive effect, but that, I think, is the 
point. If you look at the history of sanctions provisions that 
have been used in alcohol and if you look at the history of 
this redirection provision that was used for seatbelts, they 
have been effective.
    The redirection provision enacted by the Congress in 1991 
in fact brought eight more States that didn't have seatbelt 
laws or during the period, say, eight more States enacted those 
laws. They've been highly effective with respect to the various 
alcohol laws and the like. The proposal is meant to encourage 
the States to move in this direction.
    Having said that, we understand these concerns.
    Senator Smith. Again, as I said before, I understand and 
respect what your goals are because I agree with your goals. I 
just think in a free society, we need to be able to exercise 
free decisions.
    I probably shouldn't put this idea in your head but the 
NASCAR drivers have one of the best safety records of all 
drivers in America and why don't we make everybody get into a 
NASCAR suit, flame resistant, helmet, put all that in and 
you'll save probably another 30,000 lives. Is that next?
    Mr. Recht. I doubt it.
    Senator Smith. Why not? It's the same principle, isn't it? 
It really is the same principle. It's a matter of degree. That 
would save more lives. If you coupled that with the seatbelts, 
you had a flame resistant suit and a helmet and made everybody 
wear them, you'd save probably another 25,000 or 30,000 lives 
in America. It's the same principle. It's an individual 
decision.
    Mr. Recht. I understand the point you're making, Senator. I 
think Senator DeWine framed it quite well, which is that it's a 
matter of balance and, of course, for the Senate to reach an 
ultimate decision as to the effectiveness of these provisions 
toward achieving the goals and the impairment on liberties or 
freedom of choice. I'm certain you'll consider those factors.
    Senator Smith. Let me just ask one more question. I haven't 
seen any numbers on this, I'm just curious.
    In terms of the primary cause of death, a seatbelt could 
be, for example, a secondary cause of death in the sense that a 
bad road, a bad curve, some pothole or a defective bridge or 
something is the initial or primary cause and the secondary 
cause is because the individual loses control of the 
automobile, the seatbelt ultimately saved the person's life.
    Have you seen statistics on these primary causes, whether 
or not you would save more lives if you focused more money on 
that and less on the process of trying to encourage people to 
use the safety belt? That's not meant to be a hostile question, 
it's one of whether or not you've done any statistics or run 
any numbers on those kinds of things.
    Mr. Recht. In fact, we have, Senator, and we look at those 
kinds of issues every day.
    Let me say that when it comes to highway crashes, our 
studies show that 80 percent and higher of the reasons for the 
crashes are driver error--inattention, impairment and the 
like--so we know that if we can focus on driver error and the 
behavioral side, we can make big differences.
    Mr. Kane spoke briefly of Intelligent Transportation 
Systems, ITS, and one of the things we're very enthusiastic 
about is our ITS program where we are looking at technology 
that could help drivers avoid crashes in the first place 
through devices that might detect a car is about to run off the 
road or get into a rear end crash and the like.
    We have done some preliminary estimations and we think if 
all cars were fitted with these ITS crash avoidance devices, we 
could eliminate maybe 20 percent of all crashes that are out 
there and save thousands of lives.
    Having said all that, when we look at all the behavioral 
issues that are before us today where we are able, we believe, 
to make a difference, there is absolutely no doubt in our minds 
that increasing seatbelt use is the area where we can make the 
most significant difference.
    If we can raise the national seatbelt use from its current 
rate of about 68 percent to 85 percent, we can save over 4,000 
lives a year and prevent over 100,000 injuries, and save the 
country $6.7 billion a year. If we can get up to 90 percent, we 
can do even better, we can save over 5,500 lives a year and 
save the country close to $9 billion.
    Senator Smith. But that's about 68 percent or 70 percent 
use now, so you've got to go up another 15 or 16 percent and 
you're going to start penalizing people in 2 years, you're 
going to get there in 2 years, you're going to go from 70 to 85 
or 68 to 85 in 2 years?
    Mr. Recht. Actually, our proposal would have 5 years of 
incentives beginning next year and only in the sixth year would 
the redirection take effect. Yes, we believe it's realistic to 
think that we can get there if States go forward and either 
adopt primary seatbelt laws or undertake other programs that 
are meant to vigorously educate the public about the need to 
raise seatbelt use to this level.
    Let me just mention that we, in the United States, have the 
lowest seatbelt use rate of any industrialized Nation. Our good 
neighbors to the north in Canada, our friends in Australia and 
many, many countries in Europe have belt use rates well above 
90 percent and as a result, they are able to see fewer 
fatalities.
    I'll also mention that they've seen fewer of these airbag-
related fatalities. Unfortunately, the failure to use seatbelts 
has been a significant cause of many of the airbag fatalities.
    Senator Smith. Without a seatbelt law with the exception of 
up to 12-year-old children, New Hampshire has been able to stay 
above the national average. Do you still favor sanctions if 
we're above the national average?
    Mr. Recht. Our proposal would say that come the sixth year, 
if a State reaches 85 percent belt use, it would not be subject 
to the redirection. So yes, we have a performance alternative 
in there. We've set the goal at 85 percent, which we hope to be 
the national average by that point in time.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Warner. Thank you very much, Senator Smith, for 
joining us today.
    I want to talk about another subject that is of great 
concern to me and I will indulge you to listen to a little 
story about my own driver training.
    My father was a medical doctor and a surgeon and took care 
of many, many people as a consequence of accidents. He took it 
upon himself to teach me to driver. I remember so well as we 
went to the intersections, I would make the obligatory stop at 
the stop sign, but then I'd press off rather speedily and the 
same way with the change of a light as soon as the light would 
change. He'd say, son, always look right or left before you 
move.
    He used to have a little thing he said. He said, ``As John 
O'Day approached the intersection, he had the right of way, but 
he's just as dead today as if he didn't have the right of 
way.''
    Then comes the subject of aggressive driving and I want to 
commend our Governor in our State and there was an article in 
the Washington Post showing how Maryland and Virginia are 
working on this subject. I'm inclined to think we'd better 
address that issue in this bill because it's a spreading 
malignancy across America, this issue of aggressive driving. 
We've seen here on one of the most beautiful stretches of 
roadway in America, the George Washington Parkway, instances of 
this aggressive driving.
    Where is that issue, Mr. Recht, in your administration and 
Mr. Kane, what is the Administration doing in the Department?
    Mr. Recht. I'm glad you raised that matter, sir, because 
there's probably been no region in the country that has 
experienced an explosion of this kind of activity as this 
region has in recent years.
    Senator Warner. That's interesting. You say the Washington 
Metropolitan Region has statistically experienced the greatest 
explosion? That was the word you used?
    Mr. Recht. Yes.
    Senator Warner. In this type of conduct by drivers?
    Mr. Recht. I say that based simply on anecdotal 
observation. I actually come from Los Angeles where when I 
talk, we used to joke about these kind of highway shootings and 
the like thinking it was some local phenomenon but it is 
spreading throughout the country and you need do nothing more 
than simply read the papers and watch television to see what 
has gone on in this region.
    That crash on the G.W. Parkway about a year or year-and-a-
half ago between the two dueling gentlemen in the morning that 
left three people dead and tied up traffic for fully 7 hours 
was perhaps the incident that brought national attention to it 
but there have been a host of incidents ever after that. It's a 
critical problem and we really need to move swiftly on it.
    Let me tell you some of the things we are doing. Again, we 
are trying to attack this in the same framework of good laws, 
good enforcement, and good public information and education. It 
is a behavioral problem to a great extent.
    We are going forward with a number of public information 
and education programs to inform the public about how dangerous 
it is to engage in this kind of activity, whether it be red 
light running or speeding or dueling on the highway, how 
critical it is when you are confronted with this kind of 
behavior to, as we say, put your pride in the back seat and not 
return the activity in kind and get out of the way.
    The second thing we're doing is to encourage States to 
engage in active enforcement. There have been a number of very 
effective programs that have been mounted in States like 
California, Arizona and Maryland.
    Senator Warner. Maryland and Virginia, I certainly commend 
the Governors of both States.
    Mr. Recht. Last week, we just attended an event where we 
gave a special grant to Maryland, Virginia and D.C. which are 
coming together.
    Senator Warner. Going precisely to the question, do you 
think there's any need for Congress to address this issue 
legislatively now before this problem worsens across the United 
States?
    Mr. Recht. I think if Congress were to enact our NEXTEA 
proposal which has the formula grants I mentioned earlier with 
some increases in there, the States clearly are free to use 
those moneys where there is a problem to go forward and try to 
address these problems. We think that will be effective.
    Senator Warner. Good. I hope the next panel, when it comes 
forward, and we'll give everybody plenty of time because this 
is an important subject, will also address that issue.
    Mr. Kane?
    Mr. Kane. Mr. Chairman, it is a real serious problem. It's 
not just related to congestion and antagonization with 
congestion. The accident you mentioned on the G.W. Parkway did 
not occur when the Parkway was in a congested state. Certainly 
in a lot of lightly traveled or very uncongested intersections, 
a lot of stop signs and red lights are being run--lots of 
aggressive behavior out there.
    I think as Mr. Recht mentioned, one way to address this 
problem is increased funding for safety. In our proposal we 
tried to give more flexibility because you have to balance 
driver behavior and education and training activities with 
improvement to the physical infrastructure, itself.
    One provision we have to achieve is this balance in the 
Surface Transportation Program, which allows that kind of 
flexibility so that States can put more dollars into training, 
into enforcement activities, into education, into behavioral 
change because that's what it's really about. Aggressive 
driving is not related to the pavement, to the bridges, to the 
traffic lights. It's related to the individual attitudes and 
behavior.
    We need to have that dedicated funding for safety and we 
need to create that flexibility. We've clearly provided this 
funding and flexibility with language in the Surface 
Transportation Program.
    In continuing our effort on the Infrastructure Safety 
Program, we've also built in flexibility, enabling States to 
make those choices.
    We have jointly, with NHTSA, put a lot of effort into 
developing training courses, promotional material, et cetera. 
One initiative that has gotten a lot of play, and we thank AAA 
and others, is a ``Read Your Road'' brochure that in very easy 
terms, tells drivers what the rules are. We hope to be able to 
get these in everyone's car by giving them to people as they 
register. It translates the laws into language and visuals that 
are really clear.
    Senator Warner. Would you leave that with the committee?
    Mr. Kane. I certainly will.
    Senator Warner. The precise question, do you think that 
there's an obligation for Congress to address this issue in 
some more specific legislative proposal in this bill?
    Mr. Kane. The answer is yes, but I think the way to do it 
would be as we suggested in terms of increasing dedicated 
funding for safety to allow and encourage promotional 
activities and training, as well as infrastructure 
improvements.
    Senator Warner. Will both of you supplement the record with 
a written response to that question?
    Mr. Kane. Absolutely, Senator.
    [The information follows:]
    The Department of Transportation's proposed National Economic 
Crossroads Transportation Efficiency Act (NEXTEA) contains several 
provisions that could be used to develop comprehensive programs aimed 
at combating aggressive driving. Chief among them are the Section 402 
highway safety formula grant program and the proposed Integrated Safety 
Fund.
    The Section 402 formula grant program provides funds to every State 
for addressing critical highway safety needs, including aggressive 
driving countermeasures. Virginia, Maryland, and the District of 
Columbia are using Blair current Section 402 funds to implement 
innovative programs to curb aggressive drivers. In New Jersey, the New 
Jersey State Police Division of Highway Safety, working with the 
municipal police departments in six counties, has used Section 402 
Finds to launch a program combining aggressive enforcement and public 
information efforts with a statewide toll-free cellular phone number 
for motorists to use to report aggressive driving behavior 
Reauthorization of the Section 402 program will enable these States to 
continue funding such programs and will provide additional States with 
the assistance they need to implement new aggressive driving programs 
throughout the country.
    The Integrated Safety Fund proposed in NEXTEA will reward States 
that have good integrated safety plans, by giving them a new ``pot'' of 
highway safety money that they can use on any or all of the following 
programs: the Infrastructure Safety Program, Section 402 Highway Safety 
Programs (primarily the behavioral programs), and the Motor Carrier 
Safety Assistance Program. With these funds, States and local 
communities will be able to develop a multi-faceted plan to solve the 
problem of aggressive drivers, for example, a community could use 
funding from the Integrated Safety Fund to increase law enforcement on 
roadways where aggressive drivers are particularly prevalent, finance 
public information campaigns to make aggressive driving socially 
unacceptable, increase inspections to ensure truck drivers are not 
falsifying their travel logs (and driving longer than permitted), and 
install median guardrails to ensure that if aggressive drivers do lose 
control of their vehicles, they will not cross over into on-coming 
tragic.
    Through the Department's NEXTEA proposal, we would also increase 
the flexibility of the Surface Transportation Program (STP) to allow 
funding of anti-aggressive driving initiatives. States which have good 
integrated highway safety plans would be allowed to transfer STP Finds 
to any of the three highway safety programs mentioned above. In 
addition, the new Infrastructure Safety Program would be endowed with 
this sense degree of flexibility.
    These changes are a direct: outgrowth of what we learned at the 
Department's NEXTEA Outreach Sessions: States and local communities 
want added flexibility to tailor highway safety programs to suit their 
local needs.
    Senator Warner. Mr. Recht, back to you on the subject of 
the airbags. A lot of controversy on this.
    The examination now of depowering the airbag and also 
giving the owner the option to have a functioning airbag or one 
that functions at varying power, where are we on the studies 
and action that should be taken in this area?
    Mr. Recht. Approximately 6 weeks ago, if I have my dates 
correct, we issued a final rule allowing these depowered 
airbags and we made it effective immediately, so that the auto 
manufacturers could get them into the fleet as soon as 
possible.
    We've been informed that in fact at least the big three are 
going to be getting these depowered bags into the fleet 
beginning this coming model year either in 100 percent of their 
fleet or some significant portion. So that seems to be moving 
along.
    Senator Warner. Do we need legislation in that area to make 
this happen?
    Mr. Recht. No. We were able to do it by agency rulemaking.
    Senator Warner. And you're satisfied?
    Mr. Recht. Yes, we are, sir.
    Senator Warner. You said the big three. That leaves a lot 
of other peripherals.
    Mr. Recht. Those are just the ones we've heard from. We 
simply have not heard from the other manufacturers, but we've 
heard anecdotally that many intend to put these depowered or 
softer airbags in their vehicles. We would encourage them to do 
so to the extent they think it will make a difference in their 
individual vehicles.
    The second issue you raised was the question of 
deactivation or disconnection. We are currently in rulemaking 
and we intend to issue a rule in the very near future on that 
to address the question of whether persons ought to have some 
mechanism by which they can disconnect or turn off the airbag 
in those cases where somebody is at risk in front of an 
airbag--a typical situation involving an infant in a rear-
facing infant seat, as you know, should never be placed in 
front of a passenger side airbag; some cases of medical 
conditions, some persons who are so short in stature that no 
matter how hard they try----
    Senator Warner. We know the case. So you feel legislatively 
there is no need now?
    Mr. Recht. That's correct, sir.
    Senator Warner. It seems to me what you've informed the 
committee is you're looking at this prospectively for new autos 
as they join America's highways, but what about the existing 
fleet and what about people of lesser economic income that 
never see a new car, they just go from one used car to another? 
They are no less entitled to the protection than the ones that 
are economically able to get a new car.
    Are you looking at some rulemaking which would simply 
require industry to prepare a modification kit? Is it 
technically feasible, in existing cars?
    Mr. Recht. We announced last fall what we called a 
comprehensive approach to this airbag situation involving 
vehicles that are on the road right now. There are about 55 
million vehicles on the road today that have one or both of the 
bags.
    The vehicles that will be built in the next three to 5 
years and the vehicles that will be built after that, after 
that we certainly hope there will be the so-called smarter, 
advanced performance airbags which will resolve all the issues 
we've been facing today.
    We do feel you need different solutions for the vehicles on 
the road today versus those to be built in the next few years. 
In the next few years, this depowering permission will make a 
difference; also, we have come out with a rulemaking requiring 
much brighter, more eye-catching labels to warn people about 
the need to put kids in the back and sit back themselves and 
wear their seatbelts and the like. We are beginning to see some 
significant effectiveness.
    As for the cars on the road today, we have a couple of 
proposals and things we've done already. One is the labels. 
We've actually encouraged the auto manufacturers to send these 
labels out to the owners of existing cars. They are not 
required to do so but they've agreed and to further get these 
behavioral messages out to people about how to be safe when you 
have airbags in your cars, and also we're considering this 
proposal on disconnection. That would address those vehicles on 
the road today.
    Senator Warner. What is your time limit on conclusion of 
your decisionmaking process on disconnection?
    Mr. Recht. We would anticipate issuing a final rule in the 
coming weeks. As I've learned in this business, it's very 
difficult to predict, but it will be sooner rather than later, 
sir.
    Senator Warner. From a technical standpoint, if the owner 
desires to have it disconnected, it can be done by what level 
of mechanics?
    Mr. Recht. Assuming we go forward and allow some form of 
disconnection, the work can be done either by a dealer or by a 
certified mechanic.
    Senator Warner. So it can be done within the state-of-the-
art?
    Mr. Recht. Yes.
    Senator Warner. Do you have anything to add to those 
issues, Mr. Kane?
    Mr. Kane. If I might just followup on something, Mr. Recht 
mentioned earlier and that's the correlation between seatbelt 
use and effects of airbags. It's an additional reason for our 
push and support on seatbelt use. I think in addition to both 
the aggressive use of seatbelts as well as the issue of 
disconnect and education of wearing seatbelts and issues of 
children in the back, you really put it all together and that 
can address the issue with regard to the existing fleet, 
Senator.
    If I may, Senator, one thing we have been doing over the 
last couple of years, and we've done it very aggressively with 
regard to the airbag issue, is that we're utilizing the Federal 
Highway field force who primarily work on the construction side 
of the issue, to join with the NHTSA forces.
    We've put together regional safety teams, we've had each of 
our State division offices actively working in terms of 
education and training, working with the State Highway Safety 
officials with regard to issues of airbags. So one thing that 
we can do and we have done, and will continue to do, is utilize 
our human resources to be out there helping NHTSA on this 
issue.
    Senator Warner. This committee, as a consequence of a 
decision I made in consultation with our full committee 
chairman and the members decided to go to the field to hold 
hearings. They've been very beneficial.
    I was not aware of the following allegations. I suppose 
it's predicated on sound statistics. That is, we learned over 
60 percent of all traffic fatalities occur on our rural 
highways and there is reason to believe that we could lower 
that number if we had better highway design.
    That's getting at the very heart of States' rights when you 
talk about going into rural America and saying this is the way 
we're going to build a road which road has served grandfather 
and grandmother and great-grandmother and everybody for 
generations. Let's tackle that issue, Mr. Kane. Where are we on 
it and what should we do or not do in this bill on that serious 
issue?
    Mr. Kane. A couple of points as context here. ISTEA changed 
the way the Federal Government works with the States with 
regard to roads in the National Highway System. The question of 
design and review, construction plans, PS&E review, et cetera, 
are now left to the States, so the Federal role tends to be one 
of oversight in terms of design on the National Highway System.
    Our efforts and our directives move very much toward 
education, training and encouraging best practice, and in 
addition, to provide the adequate level of investment. As I 
mentioned in my short statement, a significant share of 
traditional programs--interstate maintenance, surface 
transportation programs, the National Highway System--are spent 
on safety-related improvements.
    Anytime you improve the pavements, eliminate rutting, 
eliminate roughness, it's a safety benefit. Anytime you improve 
the shoulders, anytime you improve intersections, anytime you 
put up a guardrail, a breakaway sign, all have tremendous 
safety benefits. So I think it's important to put that focus on 
the level of investment on the infrastructure.
    We will be pushing and encouraging through AASHTO, the 
association of all the States, safety with regard to their 
improvements on the roadways, whenever they do reconstruction, 
whenever they do resurfacing. While we may not be approving the 
plans, we will be pushing, using a sharing of best practices, 
showing what can happen when you improve clear zones, when you 
eliminate grading problems and improve intersections. We will 
clearly do that.
    I think the other important push was putting the emphasis 
on the safety construction programs themselves. The Hazard 
Elimination Program, for example, can only be used off the 
interstate system where almost 9 of every 10 fatalities occur. 
So that's very targeted and directed at facilities that need to 
have those improvements.
    We're well aware of the information AAA, Roadway Safety 
Foundation, and others have come out with showing that 
potentially 30 percent of the fatalities are related to leaving 
the roadway and single occupant drivers. The roadway has a lot 
to do with it. Behavior does as well. There's got to be that 
balance because even on a poorly designed roadway, if you are 
wearing your seatbelt, observing speed limits, not driving 
impaired, you're going to be fine.
    It's in order to counteract those who are not driving 
correctly that you really have to have the infrastructure up to 
snuff as well. So I think what we need is a high level of 
investment and our continued training and education.
    Senator Warner. Let's get down to a blunt point here. What 
about the NHS roads that are not interstates? Fatalities on NHS 
roads are almost twice as high as the fatality rate on 
interstates. That begs the question should we have design 
guidelines on the NHS roads?
    Mr. Kane. With regard to the NHS, we do. A good number of 
the NHS roadways are two-lane roadways, a good number of them 
are also very low volume roadways. It becomes a question of 
priorities in terms of investment.
    With regard to the design standards themselves, we have 
adopted standards through AASHTO and when it comes time to make 
improvements on roadways, again it's a question of funding. 
States will look at priorities in terms of where traffic 
volumes are, in terms of benefit cost ratios you can get on 
return, but when you do make investments on those National 
Highway Systems in terms of adding lanes, in terms of major 
reconstruction, we do have standards, we do have safety 
standards, and we're looking at all of those issues as we make 
those upgrades.
    Senator Warner. Senator Smith, do you have any further 
questions?
    Senator Smith. I know you want to move to the next panel, 
Mr. Chairman. I'd just like to make a couple of points.
    I think if I were a State senator in New Hampshire and this 
was a hearing before the Virginia or the State of New Hampshire 
legislatures with appropriate officials from the State, I 
wouldn't have any problem with what I'm hearing.
    I just think we've lost sight of the fact that law 
enforcement is State responsibility. I think we've lost sight 
of the fact--even again saying we all share the same goals--
that these dollars are collected from individuals in 50 
individual States and they are sent to the Federal Government.
    I think you will hear later from the State highway safety 
reps they believe incentives rather than sanctions are the best 
way to influence behavior. I think statistically that is borne 
out.
    What this causes is a lot of in-fighting between various 
agencies. For example, if the moneys can only be spent by 
hiring more people to give more safety demonstrations on 
seatbelts rather than repairing that bad road, potholes or 
whatever, I just think those decisions need to be made at the 
local level where they can be made reasonably and have the most 
dramatic impact on human safety and lives in those States.
    I think we've lost sight of that and I think this breeds, 
again with the greatest of intentions and goals, this animosity 
toward the Federal Government. I just don't see anything in the 
scope of the ISTEA or legislation now that should be in the 
scope now or in the founding of it, that would allow for the 
movement into these areas where you have gone.
    I think it's regrettable. Again, I think it's an attitude 
that the States can't do it, people aren't smart enough to do 
it in New Hampshire or Virginia or Montana or anyplace else, 
that we've got to have somebody up here in Washington tell us 
we have to have seatbelts or that we have to do this or that.
    I just think it breeds a lot of hard feeling and a lot of 
contempt for the Federal Government. I think it hurts you, 
frankly, more than it helps and I think it wastes the 
opportunity. I think a lot of dollars are wasted in this regard 
that could be spend saving lives.
    I've made my point but again, I wish you would frankly back 
off from some of this strong arm tactic business in this 
legislation and allow the States to receive the moneys back 
they put in, or in some cased, didn't put in as much as they 
got back, and use it--that's an issue in and of itself--and use 
it for the best interest of the people and their States and 
give the people in those States the credit for wanting to save 
their own lives.
    Why does somebody believe that a person driving in New 
Hampshire isn't interested in saving his or her life and it 
takes somebody in the Federal Government to tell them, well, we 
have to help you save your life because you're too stupid to 
try to do it yourself? That's essentially what you're saying 
here.
    It's not just in this agency, it's in others as well. I 
don't see anything in the Constitution, or even implied in the 
Constitution, that would give this agency the authority to do 
what you're doing, even though I support your goals.
    You can respond if you want but I just wanted to make that 
point.
    Mr. Recht. We understand your position, sir.
    Senator Warner. They got the message.
    I thank you very much, gentlemen.
    We will now have our next panel to take their seats, 
please.
    The Chair wishes to thank all who are participating and 
those who have come to share in the knowledge that's being 
given today.
    I suppose I should apologize in one way for what some might 
say was a delay in getting to you but I just think this subject 
is so important that I made a decision in conducting this 
hearing this morning, that I would allow the maximum possible 
latitude to our witnesses and I accord this panel the same 
courtesy because this is a subject that knows no limits, it's 
one that the American public is vitally interested, and it's 
one I think the Congress should shoulder a greater 
responsibility.
    Having said that, I hope you will indeed sort of abide by 
the 5-minute rule to the best you can, but signify to the Chair 
if you feel there is an absolute necessity to have some 
additional time and we will try and accommodate you.
    We will hear first from Mr. Richard Crabtree, President and 
CEO of Nationwide Mutual Insurance Company, representing 
ADVOCATES for Highway and Auto Safety. He's accompanied by the 
distinguished Joan Claybrook, President of Public Citizen.
    We welcome both of you. I had the privilege of visiting 
with your board when they convened in Washington about 2 weeks 
ago. I thank you very much.
    Mr. Crabtree, thank you for coming and also for 
volunteering to be an active participant in this very important 
public service.

 STATEMENT OF RICHARD CRABTREE, PRESIDENT AND COO, NATIONWIDE 
 MUTUAL INSURANCE COMPANY, REPRESENTING ADVOCATES FOR HIGHWAY 
  AND AUTO SAFETY; ACCOMPANIED BY JOAN CLAYBROOK, PRESIDENT, 
                         PUBLIC CITIZEN

    Mr. Crabtree. Thank you, Mr. Chairman.
    Nationwide is the fourth largest auto insurer in the 
country, but I'm here, as you mentioned, in my capacity as co-
chair of the ADVOCATES for Highway and Auto Safety board of 
directors.
    Senator Warner. I just was handed your statement which 
numbers 17 pages. We will put it in the record in its entirety 
and I give that same assurance to all witnesses.
    Mr. Crabtree. I appreciate that and you can be certain this 
statement is much shorter.
    As I mentioned, I'm here as the co-chair of the ADVOCATES. 
I will also share my time with my distinguished associate, 
former co-chair of ADVOCATES, Joan Claybrook, chairman of 
Public Citizen.
    Senator Warner. Ms. Claybrook is well known to the Congress 
of the United States.
    [Laughter.]
    Mr. Crabtree. I'm preceding her in my testimony so that I 
will have sufficient time.
    [Laughter.]
    Mr. Crabtree. This morning, I will briefly discuss the need 
for this Congress in the reauthorization of the Intermodal 
Surface Transportation Efficiency Act to seriously address 
safety on our highways. Ms. Claybrook will then discuss the 
safety agenda that we at ADVOCATES urge the Congress to include 
in ISTEA II.
    Every year, nearly 42,000 people die and another 3.4 
million Americans are seriously injured in motor vehicle 
crashes costing society $150 billion. Before the day is over, 
115 people will die in highway crashes, the equivalent of a 
major airline crash.
    The death toll on our highways makes driving the No. 1 
cause of death and injury for young people ages 5 to 27. 
Highway crashes cause 94 percent of all transportation 
fatalities in 99 percent of all transportation injuries.
    The traffic safety programs receive only 1 percent of the 
funding of the United States Department of Transportation 
budget. Additionally, in the last 5 years, there's not been any 
appreciable decline in motor vehicle deaths and injuries.
    Yesterday, in this hearing room, ADVOCATES, joined by 
Members of Congress, representatives of insurance companies, 
medical professionals, law enforcement and victims, held a 
press conference to release a new report, ``The Highway Safety 
Deficit: Who Pays and Who Delays.'' Mr. Chairman, you've been 
provided a copy of this report.
    ``The Highway Safety Deficit: Who Pays and Who Delays?'' 
outlines the status of the Nation's highway safety laws across 
the country. Let me briefly review some key findings in the 
report using maps that are contained in the report.
    Since Congress repealed the national maximum speed limit in 
1995, 24 States have speeds higher than 70 miles per hour on 
rural interstates. A trend of increased deaths and injuries as 
a result of higher speed limits is emerging.
    For example, New Mexico and California experienced higher 
fatalities and injuries on highways where speeds have 
increased. Senator Warner, you raised a question with regard to 
aggressive driving and enforcement. Our polls indicate that 64 
percent of Americans believe that stronger enforcement of speed 
laws and use of lower speed limits would contribute to success 
in reducing aggressive driving.
    In 1995, Congress also repealed a Federal program 
encouraging States to enact all-rider motorcycle helmet laws. 
Twenty-one States that have all-rider motorcycle helmet laws 
are considering bills to repeal this life-saving law. Arkansas 
has the distinction of being the first State to repeal its law; 
Texas may be the second.
    The United States has the lowest safety belt usage in the 
western industrialized world, a daytime estimate of only 68 
percent, 12 States and the District of Columbia have primary, 
or standard, enforcement safety belt laws. States that have had 
standard enforcement laws experience, on average, a 14 percent 
increase in safety belt use rates.
    Senator Smith raised an issue with the prior panel 
regarding Georgia's experience. We would like to point out that 
the Georgia law was passed just prior to the Olympics and 
before an extensive public relations campaign could begin. 
NHTSA advises us that in recent months, Georgia has achieved an 
11 percent increase in seatbelt usage.
    In 1995, drunk driving deaths rose for the first time in a 
decade. Others on the panel, at your request, will discuss in 
greater detail the need for Federal leadership in stemming this 
trend.
    Each year, nearly 5,000 Americans die in truck crashes. 
According to the Insurance Institute for Highway Safety; 98 
percent of the people killed in two vehicle crashes involving 
passenger cars and big trucks were occupants of the passenger 
vehicles. Public opinion polls show nearly unanimous support 
for a strong Federal leadership role in stopping trucks from 
getting longer and heavier.
    Budget cuts, coupled with inflation, have severely weakened 
the funding of Federal traffic safety grants to States and 
restrained the resources of law enforcement to enforce traffic 
safety laws. In 1980, the major traffic safety grant program 
for States was funded at $196.5 million. This year, it was 
funded at only $128 million.
    Motor vehicle crashes are a national problem and require a 
national solution. My colleague, Joan Claybrook, will discuss 
our proposed legislative agenda.
    Ms. Claybrook. Thank you very much.
    Yesterday, we announced the formation of a safety coalition 
representing over 60 national, State and local organizations in 
support of a strong safety goal in the ISTEA reauthorization 
legislation. We would like to have this bill be looked upon as 
a safety bill, not just a funding bill.
    The Harris Poll last September showed that 91 percent of 
the respondents believe that Federal involvement in safer 
highways is incredibly important, with 78 percent saying such a 
role is very important.
    Since ISTEA I was passed, it's hard to believe but 250,000 
Americans have died on our highways. That's not a very long 
time ago. Also, 18 million have been injured. The number killed 
is the population of Boulder, Colorado; the number injured is 
the population of the State of New York. It's a huge number of 
Americans who are affected every year by this.
    The 6-year cost of these crashes is $900 billion. That's 
enough to fund the full 4-year costs, including tuition, room 
and board, for twice the number of students currently attending 
a 4-year public university.
    Our proposals are as follows. One, increase the funding for 
safety. Mr. Crabtree just mentioned that there's been a 
substantial reduction since 1980 in the funds. It's a huge 
reduction. Today, instead of $127 million, it should be almost 
$400 million if the program did not suffer from cuts and 
inflation. We're asking for $600 million for safety. We think 
this should be provided by dedicating one-half cent of the 
Federal gas tax on every gallon of gasoline.
    Why? Motor vehicle crashes represent 94 percent of all 
transportation fatalities, 99 percent of all transportation 
injuries, and they get less than 1 percent of the DOT budget. 
It's grossly underfunded.
    The initiatives that we propose are as follows: $150 
million for a National Safety Belt Enforcement Program, modeled 
after the North Carolina ``Click It or Ticket'' Program which 
has been incredibly successful, an initiative that came from 
Federal and private funding and has shown that it works; 
second, $150 million for States in enforcement of all traffic 
safety laws which would also address the issue you raised 
several times, Mr. Chairman, of aggressive driving.
    We think the higher speed limits, the advertising on 
television about what's good about a car, all have increased 
this aggressive driving and enforcement is really the only 
answer. There has to be improved enforcement and that is not 
now available.
    There should be $200 million for what's called the 402 
Grant Program, this is grants to States. That would be an 
increase of $33 million above what the Administration has 
requested; and finally, $100 million for impaired driving 
programs. You've heard today about this issue and that would be 
a $60 million increase over the Administration's request.
    The following proposals we make have no budget impact 
whatsoever per se, although we believe additional funds could 
be used to help these programs. The first is primary safety 
belt use laws in every State. We support the Administration's 
proposal for increasing safety belt use to 85 and 90 percent.
    Research shows that the proper use of belts greatly reduces 
the risk of total injury by 45 percent to the front seat 
occupants of cars and 60 percent between cars and light truck 
occupants. It's important to note, Mr. Chairman, that two-
thirds of all fatalities now on the highways are unbelted 
occupants.
    According to the National Highway Traffic Safety 
Administration, increasing belt usage would prevent some 4,000 
fatalities and 102,000 injuries. That would be an economic 
savings of $6.2 billion annually.
    Second, we support a .08 BAC in every State. You've heard 
testimony this morning about this. We believe sanctions work 
well in encouraging State action--in fact, they are essential. 
We would never have the minimum 21 year old drinking age in 
this country without passage of that law in 1984. Some 10,000 
teenagers' lives have been saved in the last decade because of 
that law.
    In 1995, Congress adopted as part of the NHS bill a 
sanction to begin in fiscal year 1998 for States without a 
zero-tolerance BAC law for youth. As you know, with age 21 for 
drinking, nevertheless, young people are still drinking and if 
they are arrested for driving, they're measured against the 
adult BAC law, but there should also be a zero tolerance law 
for youth.
    This provision has energized State action. At the time of 
enactment, 26 States had zero tolerance laws. In 1 year, 11 
States have adopted this law and legislation is moving in six 
additional States.
    I would point out, Mr. Chairman, I will point out, Mr. 
Chairman, that the State of Virginia has been very progressive 
on these issues. It has a .08 law as well as a primary belt 
law.
    Third, we recommend a freeze on truck size and weight and 
no thaw in the freeze on longer combination vehicles. Big 
trucks are dangerous, and the public is scared to death of 
them. A Lou Harris poll shows that 88 percent don't want bigger 
trucks; 83 percent oppose increasing driving hours on the road. 
Nearly all deaths resulting from crashes between cars and 
trucks are the occupants of cars.
    Our coalition, some 60-plus strong organizations, supports 
a freeze on truck sizes and weights on the NHS similar to 
legislation introduced by Representative Jim Oberstar, which is 
H.R. 551. This committee has jurisdiction over truck weights, 
not truck length. His bill deals with both.
    We urge you to protect the American public and the billions 
of dollars invested in the highway infrastructure by drawing a 
line in the pavement and saying no more heavier trucks. Two 
State trucking associations, Mississippi and Arkansas, have 
already spoken out in opposition to any increase in truck size 
and weights.
    The case for the freeze is even more compelling because of 
negotiations concerning NAFTA. Last June, 58 Senators and 232 
House members wrote to Secretary Pena urging U.S. negotiators 
not to compromise truck safety by agreeing to the use of longer 
and heavier trucks.
    Border States are being asked to shoulder a significant 
safety burden for all of us in this area. Congress should 
provide these States with necessary assistance in terms of 
infrastructure improvement, more inspectors and specific 
legislative guidance that will not permit the safety of the 
American public to be negotiated away.
    I would point out there is an increasing concern about 
this. In the State of Texas, there is no permanent facility for 
inspection of trucks. The area is very urbanized where many of 
these trucks come across. There is very little room and space 
to do inspections.
    Last night on Night Line, for example, Ted Koppel had a 
very interesting program in which he showed all the 
deficiencies of many of these trucks coming across.
    A study has been done by the General Accounting Office 
which also makes this very clear. It recently came out and I 
will submit the summary of it for the record. We urge you not 
to permit any thaw in the freeze on longer combination 
vehicles.
    Double and triple trailer trucks are incompatible and 
dangerous to motorists because of off-tracking, problems with 
passing these trucks, with braking, with their ability to 
maneuver on the highway, and many of them are so long that they 
don't fit the design of the highway on and off ramps 
themselves. This has been clear for many years.
    There is a greater risk that LCVs will lead to more severe 
crashes and we feel very strongly that this freeze should not 
be removed.
    Finally, we don't see the need for any increase in hours of 
service for truck drivers. In fact, we think they should be 
shorter. As you know, they are exempt from the Fair Labor 
Standards Act since 1937. Truck drivers can currently drive 60 
hours in a 7-day period or 70 hours in an 8-day period. No one 
else in America is required to work those hours. In fact, 
pilots have about one-half to one-third the hours that are 
required of truck drivers and they have a co-pilot and an 
automatic pilot.
    If you're a truck driver, I challenge any member of this 
committee to try and meet the standards those truck drivers 
have to meet every day. If you take your eyes off the road for 
a second with those big trucks, you're going to have difficulty 
on the highway. The National Transportation Safety 
Transportation Board has also done work on driver fatigue and 
found that it's involved in 40 percent of truck crashes.
    One other area which I'd like to mention briefly is the ITS 
money. We think this is a very substantial fund that has not 
been adequately used for safety. We would recommend programming 
$25 million annually for research and development on crash and 
vehicle sensors to help the development of advanced airbag 
technology.
    Although ITS has already received approximately $1.3 
billion from the Federal Government, it has produced no 
appreciable improvements in highway safety to date.
    In conclusion, Mr. Chairman, I would say the committee 
needs to go beyond the Administration proposal in order to make 
some gains on highway safety and to make this bill not just a 
big money bill, but a bill for highway safety. I challenge each 
member of the committee to devote as much time to advocating 
safety, to improve the status of your constituents on the 
highways as you do debating the money that's in this bill and 
generating funds for the financial issues involved in this 
bill.
    I appreciate very much the chance to speak.
    Senator Warner. Thank you, Ms. Claybrook. I must say I'm 
not sure how I interpret your last comment but the Chair is 
prepared to tell you that in one-on-one negotiations with 
Senator Domenici and others, I'm now of the opinion that we 
will increase the total dollar amount in our bill perhaps by as 
much as say $2 billion per year, and therefore, certainly a 
proportionate share should go to safety.
    Depending on the outcome of this hearing and other 
initiatives suggested to the committee and by the members of 
the committee, we might go beyond a proportionate increase to 
safety.
    Ms. Claybrook. I would certainly hope so. Mr. Chairman, I 
am encouraged to make this recommendation because I know of 
your long support of safety programs.
    Senator Warner. Thank you very much.
    Now we will proceed to hear from Ms. Katherine Prescott, 
National President, Mothers Against Drunk Driving.

STATEMENT OF KATHERINE P. PRESCOTT, NATIONAL PRESIDENT, MOTHERS 
                     AGAINST DRUNK DRIVING

    Ms. Prescott. Good morning, Mr. Chairman.
    Senator Warner. It's nice to be with you again.
    Ms. Prescott. Thank you.
    Senator Warner. Let me commend you and your membership all 
across America for a very valuable contribution to this subject 
of safety.
    Ms. Prescott. Thank you. It's a pleasure to be here.
    I'm here today to request that before this year is out, 
that the Congress of the United States make it the law of the 
land that the definition of intoxication in every State be set 
at .08 blood alcohol content for all drivers above the minimum 
drinking age of 21.
    Earlier this year, Senator DeWine of Ohio and Senator 
Lautenberg of New Jersey, the author of the 21 minimum drinking 
age law, introduced S. 412, the Safe and Sober Streets Act of 
1997, a bill withholding highway construction funding from 
States who fail to lower their level of intoxication to .08 BAC 
after the expiration of a grace period. MADD strongly supports 
the passage of the Lautenberg-DeWine legislation.
    The question raised by S. 412 and the question we raise 
here today is quite direct. It has long been lawful in the 
United States to drink and drive. MADD encourages people to not 
drink and drive and to be constantly aware of the dangers of 
mixing alcohol with driving a car. Nonetheless, it is legal to 
drive a car after consuming some measurable amount of alcohol. 
The question we ask today is where do we draw the line? MADD 
urges this committee to draw the line at .08 BAC.
    Earlier this year, the National Highway Traffic and Safety 
Administration, along with the National Safety Council, issued 
a report called ``Setting Limits, Saving Lives, The Case for 
.08 BAC Laws.'' In this report, NHTSA answers the most 
frequently asked question about .08 BAC which is, ``How much 
can I drink before I reach a .08 BAC?''
    The answer is if you are a 170-pound male, you can drink 
four drinks on an empty stomach in the space of 1 hour and not 
exceed the limit. If you are a 137-pound female, you can 
consume three drinks on an empty stomach in a 1-hour period 
before you reach the .08 BAC limit.
    MADD believes that .08 BAC is a generous definition of 
impairment and that level of alcohol consumption could hardly 
be characterized as social drinking.
    Senator Warner. I think you should define what drink is, 
just exactly how much alcohol?
    Mr. Hingston. May I answer that, sir?
    Senator Warner. Yes.
    Mr. Hingston. My name is Dr. Ralph Hingston. I'm Chairman 
of the Social and Behavioral Sciences Department at the Boston 
University School of Public Health.
    We are defining a drink according to the level indicated by 
the National Highway Traffic Safety Administration in the 
manual you have in your hand. They indicate one drink equals 
.54 ounces of alcohol. That is the approximate amount found in 
one shot of distilled spirits, one beer or one glass of wine.
    Senator Warner. Thank you.
    Ms. Prescott. I apologize for not introducing Dr. Hingston 
earlier but I was going to get to that a little later in my 
comments. He is here today to assist me and hopefully answer 
questions you may have.
    You will be hearing, if you have not already heard, a lot 
of misinformation from the alcohol beverage and hospitality 
industries on this subject. The purpose of the information is 
clear to us. They are in the business of selling that fourth 
and fifth drink to a person who is already substantially 
impaired and we are in the business of dealing with the 
consequences of the impairment which results.
    .08 BAC will save lives. How many lives? A conservative 
estimate is 500 to 600 a year. The person who made that 
estimate is Dr. Ralph Hingston of the Boston University School 
of Public Health who is hear with me today and will be pleased 
to answer any questions you may have about the life-saving 
potential of this measure and the impact that .08 laws have had 
in States that have already adopted .08 as the illegal blood 
alcohol level.
    You might ask, why .08 BAC, why not some other BAC level? 
The answer is that while impairment begins with the first 
drink, which is the reason we set the BAC level for those below 
the 21 legal minimum drinking age at .02 or less, the point at 
which all drivers' critical driving tasks such as braking, 
steering, lane changing, judgment and divided attention are 
more significantly impaired is .08 percent.
    I would note that the Congress has set the acceptable level 
for commercial motor vehicle operators, railroad engineers and 
airline pilots at .04 BAC.
    Some of the opponents of .08 have called this measure a 
step in the direction of prohibition. I would note that the 
permissible BAC level in Canada is .08 as it is in Great 
Britain, Switzerland and Austria. The highest permissible level 
in Australia is .08 BAC. I know of no one who maintains that 
Great Britain, Canada or Australia practice prohibition and it 
is clear that France, who has set their BAC limit at .05, does 
not. So the suggestion that .08 BAC constitutes prohibition is 
ridiculous.
    This Nation has made remarkable progress in the fight 
against drunk driving. I'm proud to say that MADD has been a 
part of that fight. You and this committee can be proud of your 
role in passing such lifesaving measures as 21 and zero 
tolerance for underage drinking, there are tens of thousands of 
Americans alive today who owe you a debt of gratitude because 
you had the courage to act. We've come a long way, yet we have 
a long journey ahead of us.
    Last year, 17,274 Americans lost their lives on our 
highways in car-related crashes. This number constituted the 
first increase in drunk driving fatalities in a decade. We 
cannot tolerate this senseless loss of life. While the law 
tolerates the mixture of drinking and driving, there is a point 
at which we cannot tolerate this deadly combination and that 
point for all over 21 is .08 BAC.
    Some will argue that States should have the sole discretion 
in determining what their drunk driving laws should be. We 
believe that the States and Congress should listen to the 
American public. A 1996 survey revealed that 78 percent of 
those surveyed believe that Federal involvement in assuring 
safe highways is very important.
    In a Gallup survey released in 1994, the majority of 
Americans surveyed supported lowering the illegal blood alcohol 
limit to .08. We're asking you today to listen to the American 
public.
    Some issues are of such national importance that they 
transcend State lines and require uniformity across our Nation. 
This was the message that States' rights proponent and former 
President Ronald Reagan gave when he signed into law the 
Federal 21 minimum drinking age. That was the message former 
Arkansas Governor and now President Clinton gave when he signed 
into law the National Highway System Bill requiring States to 
adopt the zero tolerance standard of .02 for young drivers.
    Every day, millions of Americans cross State borders for 
business or pleasure. They should have a right safe passage.
    Thank you, Mr. Chairman, for this opportunity to present 
our views. Dr. Hingson and I would be glad to answer any 
questions you may have.
    Senator Warner. I'll have a question or two and I thank you 
very much, Ms. Prescott.
    Mr. Donohue, American Trucking.

STATEMENT OF TOM DONOHUE, PRESIDENT AND CEO, AMERICAN TRUCKING 
                          ASSOCIATIONS

    Mr. Donohue. Thank you very much, Mr. Chairman. I'm very 
pleased to be here on behalf of our 36,000 trucking company 
members and the 9 million people that work in our business.
    As you know, in recent weeks, I've testified before other 
congressional committees outlining our feeling that a $34 
billion annual highway program can be funded without raising 
taxes and it would provide the American people two very 
important benefits. The first is, we would save lives and the 
second is we would support our growing economy.
    This hearing, however, is more about safety and as you 
know, safety is our industry's highest priority and we are 
spending billions and billions of dollars a year to make our 
industry safer all the time. Over the years, we've pushed for 
and gotten, with your help, significant reforms, including the 
single commercial driver's license, a tenfold increase in the 
number of truck safety inspections, a cost effective drug and 
alcohol testing program, a ban on all radar detectors in 
commercial trucks and a common sense use of conspicuity 
markings on our vehicles.
    Over the next 6 years, we're going to spend $6 billion to 
put antilock brakes in our trucks which we have negotiated very 
freely with the DOT and with NHTSA.
    The results of these efforts speak for themselves. Between 
1985 and 1995, the fatal accident rate involving trucks dropped 
39 percent even though the number of heavy truck miles went up 
41 percent. As Mr. Crabtree indicated, there is certainly an 
increase in accidents and fatalities with motor vehicles and 
cars, but in the 1995 numbers, heavy trucks, the number 
continues to go down.
    I would like to offer the committee and for your 
consideration, Mr. Chairman, a number of safety proposals that 
should be included in this year's legislation. They will not be 
in conflict in most cases with Mr. Crabtree and Joan Claybrook. 
If you would offer me equal time at the end of my comments, I 
would make some comments about size and weights because our 
safety program and our ISTEA program will not have size and 
weight issues in it offered by our association.
    Senator Warner. Also, in that time I think it's very 
important that you respond to the statistics that I think Ms. 
Claybrook gave about impairing pilots and other persons in 
terms of hours and driving. The American public is listening.
    Mr. Donohue. I'd be happy to have the time.
    Senator Warner. We'll give you an extra minute or two.
    Mr. Donohue. That would be good. I'll take that at the end.
    We have adopted four your consideration a series of 
recommendations for safety activities in this bill. First, we 
all know we need to make a major investment in lifesaving 
improvements on our national highways.
    As you've hard today, 30 percent of the accidents and the 
fatalities are directly attributable to the condition of the 
roads, the shoulders, the on and off ramps and so on, and every 
investment we can make in improving the roads will reduce 
fatalities and reduce accidents.
    As you heard also, sir, on the National Highway System, 
it's off the interstate where the great percentage of the 
accidents happen and that's where we need to apply cost 
effective counter measures, including the construction of wider 
lanes and better signage. Signage is an inexpensive and very 
important improvement. Median barriers, gentler side slopes and 
clear areas adjacent to roadways where drivers can safely 
regain control of their vehicles will cut the number of severe 
crashes.
    Second, from a study we did in conjunction with the FHWA, 
we all learned that tonight on the roads truck drivers are 
28,000 to 30,000 spaces short for places to rest. Last year, 
your committee was helpful in changing the law so States could 
use all Federal money to create more rest stops.
    Tonight in Virginia and other places, the State police will 
come along and wake up a driver after they've been asleep for 2 
hours and chase him on so someone else can get in there because 
there are not enough rest stops and we need to correct that 
problem.
    Senator Warner. That's a very important point and we will 
work on that correction.
    Mr. Donohue. Thank you very much.
    Third, we need an expansion of the Motor Carrier Safety 
Assistance Program. I was very happy to hear our friends from 
DOT propose that. We now do 2 million roadside inspections 
every year of trucks with MCSAP money and we would like to 
increase that number and we need to do that because the number 
of trucks is increasing and because people basically react to 
this statement. They do not only what you expect, but what you 
inspect and it has led to a major increase in truck safety.
    Fourth, Congress should make a small but very major 
improvement in alcohol testing with truck drivers who have 
accidents. Under the current law, which is very complicated, if 
I have a trucking company in Maine and my driver has an 
accident in Oregon, I have to arrange to get him tested within 
8 hours. Just change the law and let the State police test him 
for alcohol if there is some suspect of that. We'll have a 
simpler program and an assured program, and nobody is going to 
get away from testing.
    The fifth thing, Mr. Chairman, is a sticky wicket and it's 
a difficult issue for us but right now, when we want to turn 
away a truck driver from a job because we feel he is physically 
or mentally unprepared or impaired and cannot do the job, we're 
being sued all the time by the ADA. So if we turn him away, 
we'll be sued by ADA. If we hire him because of ADA, we'll be 
sued when he has an accident.
    If this committee could say in the matters of safety, the 
DOT rules prevail, we would save ourselves a lot of trouble and 
keep a few drivers off the road we don't need there.
    Senator Warner. We'll look into that one also.
    Mr. Donohue. Thank you, sir.
    We would also, after 10 years of having the new commercial 
drivers license, we need some improvements. We've learned some 
things. We have to increase the skill and knowledge 
requirements for new drivers, we have to require States to 
maintain more accurate driving records, we have to improve the 
tracking of drivers. Right now, you can get away in one State 
if they take away your license and get to another one and 
sometimes get one because we don't have a good tracking of 
drivers.
    We have to make it legal for my company to share 
information with your company when I know the driver you're 
about to hire is no good. If we make those few improvements, 
we'll keep a few of the habitual offenders off the road.
    We should also assist the Department of Transportation by 
passing some enabling legislation that lets them test new ways 
of dealing with hours of service and other factors which I'll 
address in just a moment.
    Finally, let me say, in the movement of hazardous materials 
such as petroleum, we have a $1 million insurance requirement 
and as we all know, inflation has happened since this rule was 
put into effect many years ago and we ought to make it to move 
hazardous materials, there should be a minimum insurance level 
of $5 million.
    I'd like to conclude my statement by saying a word about 
the larger trucks and about the hours of service by saying, as 
others have mentioned, that 42,000 people lose their lives on 
America's highways each year. Our industry takes no comfort in 
the fact that 88 percent of those accidents, we're no where 
near them. It takes very little comfort in knowing that in the 
other 12 percent, 72 percent of those accidents were initiated 
by the car driver. No matter who was to blame, we need a 
national crusade to deal with this issue. We can't continue to 
allow precious highway dollars that can literally save hundreds 
of thousands of lives to be diverted to other activities.
    Many things have been said today that we would support. In 
a truck driver, it's .02 and it's no alcohol for 4 hours before 
you get in a truck. It's simple. If you do it, we want you out 
of here. So there are a lot of things that have been discussed 
that we're ready to support.
    Mr. Chairman, let me address some of the comments that were 
made about size and weights of trucks and about the hours of 
service and I'll do so very quickly and leave the rest to your 
questions.
    Senator Warner. And also the freeze on longer combination 
vehicles.
    Mr. Donohue. Yes, sir. I'd like to do that.
    First, let me say that you know we've been in negotiations 
with railroads on a series of discussions that would not create 
larger trucks, would do nothing about the weight of the 
standard 80,000 pound truck, would do nothing, although we've 
said this 50 times publicly, to change the rules as a result of 
NAFTA because only this Congress can do that.
    Those negotiations with the railroads, I'm not really sure 
where they're are going, but ATA is not going to come forth 
with a proposal to change these rules if we don't make an 
arrangement with the railroads. The members of this committee 
and other members of the Senate or the House, the former 
chairman of the Commerce Committee from Nebraska offered some 
amendments last year that reflect changing economic trends in 
his State.
    Senator Lautenberg has recently made some adjustments so 
that his ports can be competitive. The Senator from Maine is 
trying to help out in some of the logging industry.
    We're not out to create larger trucks. We have sufficient 
size and weight of trucks. There are just some places where it 
makes a little sense, particularly out in the open spaces, to 
use trucks that will therefore put fewer trucks on the road, 
safe trucks.
    The fact is, sir, no matter what anybody comes here to tell 
you, and you bring the Secretary of Transportation up here and 
ask him, the safest trucks on the road today statistically and 
factually, are triple trucks and longer combination vehicles. 
They have the best drivers, they can only operate in certain 
weather on specific roads, and they don't have fatalities that 
you can find and count. They are safe trucks, but we're not 
here advocating additional increases.
    I do believe that a State government knows a little more. 
He's attracting plants and factories and building roads and he 
knows a little more than some of the staffs of congressional 
committees. We need to think about what's going to happen. From 
our position, we'll hear about that from the States and we'll 
hear about that from the Senators and Congressmen.
    There is no question, however, that appropriate use of the 
types of vehicles we're using reduces the numbers of trucks we 
have on the road. If we can get the railroads to double their 
intermodal freight in the next 5 or 6 years, then the trucking 
industry only has to drive another 30 percent more miles. They 
drive 175 billion miles now and only has to put 15 percent more 
trucks on the road.
    A lot of people may not want those trucks, but if you don't 
have them, you can't have jobs, you can't have factories, you 
can't have economic growth, you can't have prosperity in your 
communities because 80 percent of the communities in this 
country have no other way to move their goods.
    To the hours of service, the hours of service rules in this 
country were adopted in 1939, the year after I was born. They 
were adopted before modern highways, they were adopted before 
computers, before television, before modern trucks and before a 
huge economy and a very large population.
    They don't work. They don't work because the way they're 
put together causes people to get sleep at the wrong time and 
rest at the wrong time. They don't work because they cause 
people to get up a hour earlier every day, they don't work 
because they let people drive too long and not get enough rest.
    The proposals that we will make to the Department of 
Transportation are proposals that will not increase the number 
of hours we drive in a month, but that will apply some common 
sense to letting people get on a 24-hour day and get an 
appropriate amount of rest. It will stand the test of common 
sense.
    We can all talk about airline pilots and I often wondered 
if maybe that would be a good job for a lot of us to have when 
you consider the amount of hours they drive. I want to suggest 
to you that there are 5 million trucks out there right now 
today, 2.5 million are heavy trucks moving the goods of this 
country to export and import and around the country.
    We have developed a system where many of those trucks are 
run by entrepreneurs, owner-operators, people on contract to 
companies. This is the great last place some people can be an 
entrepreneur.
    Senator Warner. Small business.
    Mr. Donohue. Those people don't want to be paid by the hour 
and get overtime. They want to be paid by what they do. The 
problem with paying truck drivers by the hour and paying them 
overtime is the way the business runs. You drive for 3 hours, 
you stop at Senator Warner's plant and you wait for 6 hours to 
get loaded. The system doesn't include that in the long haul 
trucking business.
    Many parts of the trucking business do pay by hour because 
they are on regular routes where the companies control the 
terminals, where people drive a regular route and go home each 
day and each night.
    We're trying to do a common sense deal. I have a lot of 
respect for a lot of the proposals that Ms. Claybrook and Mr. 
Crabtree have made, but as you know, she also has another job. 
She's the Chairman of Crash and it is clear that a lot of these 
proposals on sizes and weights and other issues have been paid 
for by the railroads who would like us not to compete with 
them. We are, therefore, having some conversations with them 
and I would suggest we have a grain of salt when we listen to 
some of this stuff.
    The bottom line is there are 5 million truckers out there 
today. We're delivering the goods and our safety records peaks 
for itself. It's the best in the history of the industry and 
it's getting better while others are getting worse. We did the 
drug testing, we did the commercial driver's license, we did 
the roadside inspections. We're putting in the antilock brakes, 
we are demanding safety improvement. We're not talking about 
it.
    I thank you very much, sir.
    Senator Warner. Thank you, Mr. Donohue, spoken very 
forcefully on behalf of your constituents. Indeed, they are 
interested in safety because their lives are on the line, those 
drivers, night and day.
    I must say you talk about that independent person with that 
rig and I stop at a lot of truck stops. One, they've probably 
got better food than most of the others.
    Mr. Donohue. It's a lot healthier food than it was a few 
years ago.
    Senator Warner. And the conversation is interesting. They 
don't know who I am but they're willing to strike up a talk and 
I learn a lot.
    I have to tell you that these independent rigs, to pay the 
loans on those big, heavy rigs, which are in the hundreds of 
thousands of dollars, really is a motivation to stretch to the 
human limit your endurance. That's something we have to look 
at.
    Mr. Donohue. Mr. Chairman, if you go back to my 
recommendations, more roadside inspections, a common sense, 
easy to enforce set of standards for hours of service, better 
alcohol testing, the things we want to do, want to make sure 
they don't push the limits. We want them to work hard, it's 
important for our economy and our country. We want them to work 
safe.
    Senator Warner. Thank you.
    Now we will proceed to Jim Kolstad, Vice President of the 
American Automobile Association. Welcome, Mr. Kolstad.

    STATEMENT OF JAMES L. KOLSTAD, VICE PRESIDENT, AMERICAN 
                     AUTOMOBILE ASSOCIATION

    Mr. Kolstad. Thank you very much, Senator Warner.
    AAA greatly appreciates the opportunity to bring you our 
views on ISTEA today. As you may know, AAA is a federation of 
99 clubs in all 50 States representing about 40 million 
Americans.
    Senator Warner. Over what period of time?
    Mr. Kolstad. We began in 1902.
    Senator Warner. I think it's important to point out that. 
You're probably the oldest in the business.
    Mr. Kolstad. We are and we are about 8 million larger than 
the American Association of Retired People that gets credit 
from time to time for being the largest. We're growing about a 
million members every 300 days.
    I want to review AAA's positions on ISTEA safety 
initiatives first and then turn briefly to other aspects of 
ISTEA reauthorization.
    The safety of the motoring public is AAA's primary concern 
and 42,000 deaths, 6 million accidents, $150 billion in costs, 
numbers that have been repeated this morning by other witnesses 
several times, to us strongly suggests it should be a higher 
national priority. We feel that reauthorization of ISTEA 
presents the opportunity to address this issue aggressively.
    We've reached the point in this country at which safety is 
directly effecting mobility and our economic well-being. The 
fact is people make decisions on where to live, where to work, 
where their children will go to school, where to shop, where to 
recreate on the assumption that they will be able to get there 
safely and efficiently by automobile. So access to good roads 
has become fundamental to our way of life and it's something 
that is very difficult to change.
    Today, all levels of government invest about $35 billion 
annually in highways and bridges, yet we need $53 billion to 
maintain current conditions and $72 billion to improve 
conditions.
    Senator Warner. Over what period of time are those figures?
    Mr. Kolstad. Annual.
    Senator Warner. Annual?
    Mr. Kolstad. Yes, sir.
    So the sad fact is that with any funding proposal being 
considered by Congress today, this Nation will still be 
billions of dollars short just to maintain the status quo.
    Being pro-safety seems like an easy choice. We've never 
heard a Member of Congress say he or she is opposed to safety, 
but neither have we heard a Member of Congress say their No. 1 
concern is funding safety.
    Senator Warner. You just heard it.
    Mr. Kolstad. AAA believes it's time to not only talk safety 
but to fund safety. We think there are many projects that would 
have a direct and positive impact on safety like widening lanes 
and bridges which are too narrow, removing dangerous obstacles 
in close proximity to the edge of thousands of miles of roadway 
and repairing roads with dangerous shoulders or no shoulders at 
all, and increasing the radius on curves. In other words, make 
them gentler.
    Improvements, in short, to the lower grade routes produce 
cost savings that exceed expenditures, yet these are exactly 
the kind of improvements that are being deferred or ignored in 
every State because full investment and Highway Trust Fund 
revenues is continually being thwarted by budget gains.
    So we are calling upon Congress to increase significantly 
the Highway Trust Fund investment and highway safety 
improvements such as these.
    Another safety improvement which is badly needed is 
improved safety data collection that you touched on this 
morning, Senator. For example, only fatality data is being used 
today with any degree of uniformity, yet less than 2 percent of 
all crashes involve a fatality, so the bulk of the problem is 
going unaddressed.
    Another kind of data problem is that States have more data 
and access to data than they are willing to use. So we must 
provide incentives to States to use that data and to make sound 
judgments and we need to broaden the data base, like links to 
State and national driver licensing data, and State GEP or 
global positioning system data. We need citation, arrest and 
conviction data, and health care data to identify the number 
injured, the cost and severity. As you know, Federal funding is 
needed to make it happen.
    AAA believes that the Transportation Enhancement Program 
may provide a funding option, so we support creating an 
eligible category in the TE Program to provide funding for 
safety so that improvements such as these in safety information 
systems might be funded.
    We suggest that safety is a much higher priority than some 
projects currently funded by the TE Program. We believe even 
more strongly that States should have increased flexibility to 
invest in safety improvement projects from the TE account if 
they wish.
    Now, to other provisions, AAA strongly supports an ISTEA. 
First, funding levels for highways and bridges, we think, 
should be significantly increased, as I mentioned earlier. 
We're very pleased that 57 Senators--10 from this committee--
have signed yours and Senator Baucus' letter requesting an 
annual investment of $26 billion in highways.
    We also believe that the preservation of a national 
transportation system is in everyone's interest. That's why we 
have serious concerns about proposals to turn back or devolve 
Federal taxing authority to the States.
    The Government must commit, we believe, to investing all of 
the revenues in the Highway Trust Fund. In addition, unfunded 
mandates and sanctions not directly related to the safety or to 
the integrity of the transportation system should be 
eliminated. For example, we applaud the goals of President 
Clinton's recently unveiled safety package which include 
increased seatbelt use and the enactment of primary enforcement 
laws, but we oppose sanctions which seem to be the President's 
method of achieving these goals. We agree with Senator Smith 
that the better approach is to offer incentives to States.
    Another area of concern to AAA is the potential for 
increase in truck size and weights. I was pleased to hear Mr. 
Donohue say that is not one of ATA's goals. Our surveys find 
that heavier and larger trucks are strongly opposed by our 
members, so we oppose any congressional change in the size and 
weight limits of trucks and support the continued freeze on 
LCVs or longer combination vehicles.
    AAA also opposes toll roads as a general principle. For 
more than 80 years, the underlying principle of the Federal/
State Highway Program has been developing and preserving this 
Nation's vast network of quality, toll-free highways. So 
tolling the existing Federal aid highways, including the 
interstate system, we think would represent a major change in 
course.
    The vital signs of our transportation infrastructure signal 
a system in trouble. An investment in this infrastructure 
protects lives and leaves America's leaders of tomorrow, our 
children, with a fighting chance of keeping America the 
strongest nation on earth.
    Thank you very much.
    As an aside, I might mention that I was very pleased to 
hear Mr. Recht of NHTSA suggest they were going to be looking 
harder into this whole issue of aggressive driving.
    AAA is very much involved in that as well and we find it to 
be probably the No. 1 traffic safety issue today.
    Senator Warner. And it's come on the scene very quickly, 
hasn't it?
    Mr. Kolstad. It has indeed.
    Senator Warner. I guess we'll have to get a panel of 
psychologists and psychiatrists up here to figure out how and 
why it started, but I won't get it now. That's beyond the scope 
of this hearing.
    These figures are startling but I think you have to factor 
in State and local funding. I would like to have you supplement 
this statement with how you reached the $53 billion to maintain 
current conditions and $72 billion to improve conditions.
    Mr. Kolstad. I'd be happy to, Senator.
    Senator Warner. And factor in State and local funding. Then 
that will give the committee a better idea of how far apart we 
are from reality.
    Mr. Kolstad. I'll be happy to.
    Senator Warner. Ms. Berry, you have waited most patiently. 
I'm anxious to hear what you have to say. I take note you're 
from my State and Woodbridge, Virginia. Is that correct?
    Ms. Berry. I am, sir.

         STATEMENT OF BRENDA BERRY, BOARD MEMBER, CRASH

    Ms. Berry. Thank you for allowing me to be here today.
    I'm here today because I personally can attest to the fact 
that commercial truck safety is a live and death issue and 
affects real people and real families.
    I'm here as a member of Citizens for Reliable and Safe 
Highways to lend my voice to a cause that I care very deeply 
about, improving the safety of commercial trucking.
    The course of my life changed drastically about 3-1/2 years 
ago when my husband, Col. Walter L. Berry, Jr., was killed in a 
truck crash on I-95 just a few miles down the road here in 
Virginia. I'm going to put up a picture of my husband, whom I 
loved dearly, and this is my daughter. We have four children 
and this is our youngest daughter. At that time, she was 12 
years old. That was the last occasion that she got to attend 
with her father which was a father-daughter dance.
    Senator Warner. Where was your husband serving at that time 
in his capacity?
    Ms. Berry. My husband had retired from the military. He had 
served 27 years in the Army. He was in the United States Army 
and during that time, he achieved the rank of colonel. He was 
also a master aviator. He received the Silver Star and the 
Bronze Star and the Purple Heart. That was among 30 or 40 
awards he received while in the military.
    Senator Warner. A distinguished career.
    Ms. Berry. He had served two tours in Vietnam where he was 
wounded and he also served in Korea and in Germany. He dearly 
loved this country and he loved the people that he worked with.
    Walter's accident happened as he was coming home from work 
on I-95. He got off early 1 day to go and pick up our daughter. 
He spoiled her a lot, so he was picking her up to take her to 
church with him for a meeting.
    His car was sitting still in stopped traffic and he was 
parked behind a dump truck at which time a garbage truck 
traveling approximately 55 miles per hour that was 6,800 pounds 
overweight and three of its six brakes were not working, plowed 
into him from the rear and we know what happened at that point.
    It has been difficult for me to process my grief into 
positive action but I struggle and I push myself to speak out 
because I am outraged that anyone, including the trucking 
lobbyists, would suggest more massive trucks and less stringent 
work rules for their drivers. Such support leaves me to believe 
that tragedies such as mine are stubbornly being ignored so 
that business can continue as usual.
    I believe voters of all backgrounds and political 
persuasions oppose truck size and weight increases for safety 
reasons. A Lou Harris poll conducted last year showed 88 
percent of voters oppose allowing bigger and larger trucks on 
the highways. Ninety-one percent of voters rank the Federal 
Government's control over the safety of large trucks as very 
important.
    Truck safety is a life and death issue. Over 1 million 
Americans have been serious injured in a truck-involved crash 
within the last 10 years. In the same period, 50,000 people 
have needlessly died, my husband being one of them. This is the 
equivalent of wiping out a mid-sized town in my State of 
Virginia or any of the States that are represented by the 
committee.
    The death toll in truck-involved crashes is equivalent to a 
Value Jet crash each and every week. If the airline industry 
were involved in crashes every week, planes would be grounded 
until measures were put in place to ensure safety for the 
public.
    The argument of facilitating profit for that industry would 
not be tolerated or listened to, yet this same argument is 
expressed by the trucking industry against rules that would 
improve safety of commercial trucking.
    I am requesting that Congress maintain the freeze on longer 
combination vehicles and include a freeze on single trailer 
trucks dimensions and truck weights. That includes preventing 
exemptions by State and local governments that would allow 
bigger and heavier trucks.
    I also ask for working rules that guarantee truck drivers 
get adequate daily rest because fatigue kills truck drivers and 
is the No. 1 cause of truck crashes.
    Last, I would ask that the NAFTA border remain closed until 
we are assured that adequate safety provisions are in place.
    Last year, Federal and State officials conducted more than 
25,000 inspections of trucks from Mexico. On average, 45,000 of 
these trucks were placed out of service for serious safety 
violations. These statistics would indicate that it is 
premature and highly unsafe to open the borders at this time.
    My husband, Walter, served two tours in Vietnam and he was 
wounded there but I find it very ironic that he was killed here 
in his own country on one of our highways. The victims and 
safety advocates don't have the large sums of money to fight as 
some of the lobbying groups do, but we do have are our issues 
of loss and we have hearts and determination to continue to 
have our voices heard. We also have public opinion on our side.
    Mr. Chairman, for all of us, I urge you to help us make 
existing trucks safer, not bigger and certainly not heavier.
    Thank you.
    Senator Warner. Thank you very much, Ms. Berry. That's a 
very impassioned and clear plea that you make on behalf of 
many. We will take it into our consideration.
    I have questions for each but I'm going to have to submit 
them out of deference to the next panel who has waited as 
patiently as you have for the opportunity to be heard. I will 
submit written questions to each of you and I know each of you, 
having dealt with you through the years, will respond properly.
    Thank you very much.
    We will now have the next panel.
    [Recess.]
    Senator Baucus [assuming Chair]. The subcommittee will come 
to order.
    We have our last panel: Mr. Bob Bartlett, Mayor of 
Monrovia, California; Ms. Barbara Harsha, Executive Director, 
representing the National Association of Governors' Highway and 
Safety Representatives; Mr. Robert Georgine, President, 
Building and Construction Trades Department, AFL-CIO; and Mr. 
Edward Wytkind, Executive Director, Transportation Trades 
Department, AFL-CIO.
    Mr. Bartlett?

    STATEMENT OF BOB BARTLETT, MAYOR, MONROVIA, CALIFORNIA, 
REPRESENTING THE SOUTHERN CALIFORNIA ASSOCIATION OF GOVERNMENTS

    Mr. Bartlett. Good afternoon, to Chairman Warner and to 
you, Senator Baucus, and members of the subcommittee.
    My name is Bob Bartlett and I'm the Mayor of the 1995 All-
America City, Monrovia, located in Los Angeles County. I'm also 
First Vice President of Southern California's Association of 
Governments, and the Chairman of the Administration Committee.
    SCAG is the metropolitan planning organization for six 
counties of Ventura, Los Angeles, Orange, San Bernardino, 
Riverside, Imperial and 184 cities therein as well as 16 
million people.
    Thank you for inviting me to participate in the hearing 
today. I am most appreciative to also have Senator Boxer's 
extra effort to ensure that southern California was represented 
on today's important issue of the linkage between 
transportation safety and goods movement.
    In my presentation, I will cover two main topics, one, 
improving border transportation and infrastructure so that our 
roads are made safer and two, how the SCAG proposal for 
including a goods movement factor in the reauthorized ISTEA 
relates to improved transportation safety.
    The essence of the SCAG message is while the basic 
framework of ISTEA should remain, the reauthorized ISTEA needs 
a revised formula that includes goods movement factors so that 
our Nation can achieve the twin goals of strong global 
competitiveness and safer transportation systems.
    First, I will talk about California's increasing need for 
improved border infrastructure which stems from the 1994 
enactment of NAFTA. With projections estimating that trade 
between Mexico and the United States will increase by 93 
percent by the year 2000, our State's border infrastructure, 
which accepts one-third of the Nation's imports from Mexico, is 
already overburdened.
    California's five ports of entry, any of which are composed 
of only two-lane roads have become choked points preventing the 
efficient movement of goods giving way to costly time delays 
and unsafe road conditions. As an example, over 8 years some of 
our border crossings have experienced passenger vehicle traffic 
increases of 138 percent and truck traffic increases of 257 
percent. In 1995, our transportation system carried over 27 
million north bound outer crossings with an estimated 83 
million passengers. Many our border crossings are two lane 
highways.
    Currently, in California, border crossing delays range from 
45 minutes in off-peak periods to 2-1/2 hours at peak periods. 
These delays are costly to the point that 7 of 10 U.S. 
industries and 5 of 10 Mexican industries have had at least 50 
percent survey respondents say they would pay a premium for 
time definite, guaranteed delivery.
    Border infrastructure improvements are also needed to 
reduce traffic fatalities. There has been a steady average of 
more than 40,000 annual traffic-related fatalities nationwide 
during the early 1990's. Nearly 25 percent of the people who 
died were in trucks. While most of these deadly accidents do 
not occur at the border, they do affect our regional 
transportation systems which are increasingly impacted by 
vehicles hauling NAFTA trade-related goods.
    In addition, regulatory differences between countries make 
safety conditions worse. Mexican trucks are generally three 
times as old as U.S. trucks, are not required to have front 
brakes, as do U.S. and Canadian trucks. Also, Mexican drivers 
do not have to obtain special training to transport hazardous 
materials as do U.S. and Canadian drivers.
    Truckers in the U.S. are limited to 10 hours a day of 
driving while Canadian truck drivers are limited to 13 hours a 
day. There is no limit on the number of hours Mexican truckers 
are allowed to drive daily.
    Finally, the U.S. is the only NAFTA signatory that requires 
random drug testing. The combination of harmonized regulations 
and infrastructure improvements will ensure smoother and safer 
transnational goods movements.
    We do have plans for border infrastructure improvements 
such as construction of a permanent six-bay inspection facility 
located one quarter of a mile from the border at Otay Mesa in 
the city of San Diego as well as road expansions on three State 
routes, new inspection docks, state-of-the-art cargo 
facilities, and rail modernization at Calexico East, the two 
ports of entry in Imperial County located in the SCAG region.
    The total combined cost of these projects is more than $680 
million, yet we do not have full funding commitments for them. 
We need the Federal Government to be a strong funding partner 
for our borders to support the trade growth that comes with 
full implementation of NAFTA.
    Senator Boxer, along with her co-sponsor, Senator Bingaman, 
recognizes the Federal responsibility for border infrastructure 
in S. 408 which provides over $640 billion in Federal funding 
over 4 years for the construction of new facilities as well as 
improvements on the existing system. This bill contains a good 
mix of grants and loans which include the necessary 
requirements for State and local funding matches. We support 
this bill because it moves in the right direction of government 
partnerships in the full implementation of NAFTA.
    Now I will discuss the SCAG rate facilities factor which 
was developed to support the growing goods movement associated 
not just with NAFTA but also our country's increasing 
commitment to global competitiveness.
    We can already see the impacts of global trade on our local 
highways in southern California. SCAG recently completed a 
study of some of the most congested parts of our region's 
transportation systems, specifically Interstates 5, 15 and 
State Route 60 which are used by trucks to move freight from 
Los Angeles Station through San Bernardino, Riverside, and on 
to Las Vegas and the rest of the country.
    We discovered if the growth trend continues as much as 70 
percent of the capacity of these highways will be filled with 
trucks. Where will the cars go?
    In response to the impact of growing international trade to 
our Nation's transportation system, SCAG has developed a goods 
movement factor that allocates funds based on a State's 
relative share of international trade. SCAG's freight factor 
formula allocates funds to the States in proportion to the 
combination of both the value of imported and exported freight 
moved through their customs districts as well as the mileage of 
both highway and rail in the State.
    Under the formula, each State receives a minimum allocation 
to acknowledge each State's role in freight movement. Also, the 
formula contains a pooling feature so that States that have 
overlapping port areas or shared port authority, such as New 
York and New Jersey, receive an equitable distribution.
    SCAG recommends that the following freight projects, at a 
minimum, be eligible for funding under the proposed formula: 
connectors to intermodal facilities, grade crossings and 
improvements, truck lanes and dedicated truck routes, and other 
bridge improvements which will include a much more efficient 
movement of goods on a safer transportation system.
    Senator Baucus. I'm going to have to ask you to wind up 
your testimony.
    Mr. Bartlett. All right.
    We have received considerable support for the concept of 
our goods movement freight factor from the USDOT and the ports 
and other sectors of the country. Today, I ask the subcommittee 
to join the rest of the transportation community and join with 
us in supporting the freight facilities factor.
    Senator Baucus. Thank you very much. That is very 
interesting and helpful testimony.
    Next is Ms. Barbara Harsha.

 STATEMENT OF BARBARA HARSHA, EXECUTIVE DIRECTOR, REPRESENTING 
   THE NATIONAL ASSOCIATION OF GOVERNORS' HIGHWAY AND SAFETY 
                        REPRESENTATIVES

    Ms. Harsha. Thank you for the opportunity to testify before 
you this morning.
    I am Barbara Harsha, Executive Director of the National 
Association of Governors' Highway and Safety Representatives. 
We represent State highway safety agencies and my members 
administer the non-construction safety programs, the behavioral 
programs, programs which are primarily under the jurisdiction 
of the Senate Commerce Committee. However, we work very closely 
with the State DOTs, some of my members are part of State DOTs, 
and many of the safety construction proposals which have been 
put forward by the Administration have implications for the 
non-construction safety programs.
    I'm going to skip over the introductory parts of my written 
statement and focus solely on the safety programs proposed in 
the Administration's NEXTEA initiative.
    First, I'd like to focus on the 402 Program. The 402 State 
and Community Highway Safety Grant Program is one that we 
believe has worked exceptionally well and needs little changing 
when it is reauthorized. We strongly support the continuation 
of the performance-based approach in the program, the 
continuation of national priority guidelines, the current 
allocation formula, and matching requirements.
    One change has been put forward by the Administration with 
respect to authorization and we concur. Under ISTEA, the 402 
Program is authorized in two separate places and under the 
authority of two Senate committees. The Administration has 
proposed that these authorities should be combined into one 
with no differentiation between the components. We strongly 
concur.
    The distinction between these two portions of the program 
is increasingly blurred, and we believe that creating more 
flexibility between the programs' subsections is consistent 
with the flexibility that Congress is seeking elsewhere in the 
reauthorization.
    Let me move on to the Safety Infrastructure Program. DOT 
has proposed that the rail grade crossing and hazard 
elimination programs should be replaced with a single safety 
infrastructure program. Funding for the program would still be 
separate but there would be greater flexibility between the 
program components. There would be some formula changes and 
changes in project eligibility. We support all of these 
changes. In particular, we think the rail grade crossing 
formula and the changes in the eligible activities are long 
overdue.
    We support the transfer provision between the Hazard 
Elimination Program and the Nonconstruction Safety Programs. 
However, we understand that at least one organization wants the 
transferability to be reciprocal. That is, funds for the 
nonconstruction safety programs, the ones my members 
administer, could be transferred to into the Safety 
Construction Program. We would very strongly oppose this idea.
    Based on our previous experience, we believe that most or 
all of the nonconstruction program funds would be transferred 
out, leaving relatively little for the States to use in order 
to address behavioral problems.
    We propose the transfer be capped at no more than 25 
percent of the hazard elimination funds in order to preserve 
the integrity of that program. Alternatively, we would support 
eliminating the transfer provisions altogether.
    With respect to the Integrated Safety Program, the 
Administration has proposed a new integrated safety program 
which would provide incentives to States that have an 
integrated, coordinated safety plan that goes one step beyond 
the plans previously required under the Safety Management 
System provisions of ISTEA.
    NAGHSR supports the program in concept but cannot comment 
upon the specifics since they are not provided in NEXTEA. We 
encourage DOT to clarify this proposal before a reauthorization 
bill is finalized. We also suggest that DOT consider a grant 
eligibility criteria relating to occupant protection. States 
could receive an Integrated Safety Fund grant if they had a 
primary belt law or satisfied certain use rates. This would 
provide an occupant protection incentive to States and would 
supplement the underfunded incentive program that has been 
proposed by the Administration elsewhere in NEXTEA.
    With respect to sanctions and incentives, the 
Administration has proposed to penalize States if they do not 
adopt a primary safety belt law or originate a 5 percent 
safetybelt use rate by October 1, 2002. Senator Lautenberg has 
proposed to sanction States if they do not enact .08 BAC laws 
by October 1, 2000.
    NAGHSR strongly supports both .08 and primary belt laws and 
we understand the safety motivation for both proposals. 
However, we strongly oppose the approach that has been taken. 
We firmly believe that incentives rather than sanctions are the 
best way to positively influence State behavior.
    The 410 Impaired Driving Incentive Grant Program is a case 
in point. By contrast, sanctions are not targeted and they are 
counter productive. They engender a lot of ill will, 
resentment, and confusion. If the safety provisions are going 
to work, they need State support and this is not a very good 
way to get it.
    We urge this committee to reject these kinds of divisive 
approaches and enact instead strategies which will bring all 
safety partners together working toward a common safety goal.
    Finally, with respect to funding, let me say the biggest 
safety challenge is the need for a significantly increased 
funding for safety programs. I think Mr. Kolstad also echoed 
that point.
    Past safety funding has not kept pace with inflation or new 
safety demands. New issues have emerged, such as aggressive 
driving and fatigue driving. New initiatives have been launched 
without the benefit of any new funding. Without adequate 
funding, the progress that has been made in highway safety 
cannot be maintained.
    NEXTEA proposes only modest increases in funding for both 
construction and nonconstruction programs. We believe this is 
inconsistent with the Administration's position that safety is 
the department's highest priority and its North Star.
    Senator Baucus. I have to ask you to wrap up.
    Ms. Harsha. OK. We recommend that funding for the 402 
Program be increased to $200 million which was the level in 
fiscal 1981. It hasn't been at that level since. Funding for 
the Safety Incentive Grant Program must be at a significant 
enough level to entice States to act. Funding for the Safety 
Infrastructure Program must be more than what the 
Administration has proposed.
    The need for increased funding is clear, the time for those 
increases is now. NAGHSR urges Congress to take advantage of 
this window of opportunity and put real dollars behind the 
rhetoric supporting safety.
    Thank you very much.
    Senator Baucus. Thank you very much.
    Bob Georgine.

     STATEMENT OF ROBERT GEORGINE, PRESIDENT, BUILDING AND 
            CONSTRUCTION TRADES DEPARTMENT, AFL-CIO

    Mr. Georgine. Thank you, Senator. I want to thank you for 
asking me to participate in this hearing today.
    I've submitted a written statement which I ask to be made a 
part of the record.
    Senator Baucus. It will be included.
    Mr. Georgine. The subject of this hearing is very crucial 
to the building and construction trades unions. Building and 
repairing the infrastructure and transportation systems of this 
country is our members' bread and butter. Constructing them 
safely is a goal that we must keep at the top of our agenda.
    The members of the building trades unions are proud of the 
role we have played in making America the most productive 
economy in the world. We built the bridges, the clean water 
systems, the highways, the pipelines, and the railroads, and 
with the exception of the magnificent bridges like the Golden 
Gate and the Brooklyn Bridge, our infrastructure work goes 
pretty much unnoticed except when it breaks from old age or 
disrepair. Then it quickly captures everyone's attention.
    We have all had our lives disrupted from time to time by 
such mishaps as water main breaks, giant potholes, disjointed 
rails and rusting bridgeways. Unfortunately, those disruptions 
are happening more frequently as our infrastructure ages and 
our resources for replacing and repairing them shrink. ISTEA or 
NEXTEA is essential legislation and we support it completely.
    However, authorizing $175 billion to be spent over the next 
5 years is just not enough money. We need to do better than 
that if we are to keep the American economy supported by a 
strong infrastructure.
    Before going any further, I want to mention the Davis-Bacon 
Act. Proposed legislation attaches Davis-Bacon to every section 
of the infrastructure construction as it should. It belongs in 
this legislation and we will work with the Congress to assure 
that it remains intact as it is proposed.
    I am especially pleased to see this subcommittee has placed 
safety and health at the top of your priorities. Safety and 
health is and has been my top priority since becoming President 
of the Building Construction and Trades Department in 1963.
    When I first came to Washington, safety was not on too many 
policymakers' agendas and every day more than 10 construction 
workers lost their lives on the job. I am pleased that we have 
improved that statistic. Today, before the day is over, we will 
lose only 4 workers on constructionsites. That number is still 
unacceptable.
    Construction remains among the most dangerous occupations 
in America. In addition to those who die because of the work 
they do, construction workers suffer over 400,000 injuries 
every year and an untold number of workers contract 
occupational diseases because of the materials they handle.
    These deaths, illnesses and injuries take a tremendous toll 
on our workers and their families and they significantly affect 
the economics of the industry. Deaths and accidents increase 
costs. Productivity falls, morale declines and the insurance 
premiums soar.
    Workers' compensation costs for construction contractors 
alone are dramatic and because of the dangers and the high 
injury rates in construction, workers' compensation insurance 
payment average $11.5 billion a year. Construction workers 
represent 5 percent of the work force, our workers' 
compensation claims represent 15 percent of all workers claims. 
It doesn't have to be this way. Deaths, accidents and injuries 
are preventable. Anecdotes are readily available.
    In a study reported in the Journal of Occupational Medical 
Researchers from the University of Montreal and Johns Hopkins 
University, found that union construction workers had more 
experience, more stable employment, and more safety training 
than nonunion workers. Our members are better trained in every 
way, including being taught how to work more safely.
    We have over 1,000 facilities across the country, we spend 
$300 million each year through our labor management trust funds 
to train over 170,000 apprentices and more than 250,000 journey 
workers. We welcome the opportunity to train new construction 
workers.
    Our labor management training programs have models for 
other training systems in this country and abroad. This week we 
turned over two apprenticeship schools to Solidarnosc, the 
Polish Trade Union. We developed those programs over the past 4 
years to help Poland prepare their workers for emerging private 
sector economy.
    In January of this year, at the request of the State 
Department, we began a program in Egypt to help construction 
workers and their unions develop 21st Century skills.
    We would like to do the same for the welfare recipients 
targeted by this proposed legislation. However, we urge 
Congress and the Administration to require that the training 
maintain industry standards.
    In the past, training programs have often been make-work 
and quick-fix answers. Welfare recipients need and deserve 
preparatory and skills training that will last them a lifetime. 
The apprenticeship system is the only tried and proven method 
of learning construction trade skills.
    I sincerely hope that Congress will make it the preferred 
method of training for the critical infrastructure work that 
needs to be done safely.
    Finally, on behalf of the building trades and my friend, Ed 
Handley of the Hotel Employees and Restaurant Employees, I 
respectfully ask that this subcommittee consider funding a 
demonstration grant to improve a section of Interstate 15.
    Such a project would define better than any example that I 
can think of why we need a Federal highway system and how an 
investment in infrastructure multiplies into an effective 
economy. I-15 connects Southern California with Nevada. Because 
of it, Las Vegas was able to develop into an economically 
successful, family centered entertainment phenomenon. Now, 
unless it is widened, it could contribute to an economic 
decline for Las Vegas and for Southern California.
    The Federal Government can look beyond the borders of those 
two States and create a demonstration model that will improve 
the highway system and ensure a continued, vibrant economy for 
that area of our country.
    Thank you.
    Senator Baucus. Thank you very much.
    Mr. Wytkind.

STATEMENT OF EDWARD WYTKIND, EXECUTIVE DIRECTOR, TRANSPORTATION 
                   TRADES DEPARTMENT, AFL-CIO

    Mr. Wytkind. Thank you, Senator.
    I appreciate your having transportation and labor here to 
testify. I want to thank the Chairman as well for that 
invitation.
    In the interest of time, I'll summarize our views. We've 
submitted a statement that is fairly comprehensive and I'll be 
brief.
    Senator Baucus. Your entire statement will be in the 
record.
    Mr. Wytkind. Thank you.
    First, I'll spend a moment on ISTEA in general. We consider 
the most important goal of ISTEA is to secure the highest 
possible funding levels for all surface transportation 
investment programs. This will have a more positive impact on 
safety than anything else the committee can do in the context 
of ISTEA reauthorization.
    Congress must make a commitment to reverse deep spending 
cuts that are harming businesses, workers and communities and 
yes, undermining safety. Today, those cuts are paralyzing 
efforts by cities and towns to safely provide for their 
growing, and in some cases, booming transportation needs.
    I must state at the outset our deep concerns about the dire 
consequences that we see surrounding the recently announced 
budget deal and the impact that deal may have on ISTEA and on 
all transportation investments.
    We applaud the bipartisan leadership of this committee and 
subcommittee for leading the fight for more transportation 
funding in what we know is a very tough budget environment.
    In addition to providing adequate funding for highway and 
transit programs, inner city bus and rail service and safety 
enforcement, we urge your support for a more reliable funding 
mechanism to stop the financial hemorrhage of our national 
passenger railroad, Amtrak, and its 20,000 employees.
    We support redirecting the 4.3 cents motor fuel tax to the 
Highway Trust Fund and providing a half cent dedicated to 
Amtrak capital needs with the balance going to highway and 
transit programs.
    Second, the reauthorization proposal must maintain basic 
laws such as Section 13(c) of the Federal Transit Act and the 
Davis-Bacon Act which protect collective bargaining rights and 
ensure wage and job stability in communities.
    If I can leave a single message with this subcommittee 
today, it is that we are committed to work with you to advance 
a strong reauthorization bill to make this legislative priority 
a reality before the expiration of ISTEA.
    However, we strongly urge the committee to refrain from 
using ISTEA as a vehicle to attack longstanding worker 
protection programs that have been embodied in the law for 
decades. We know that many employer representatives agree with 
us on that point.
    Third, with respect to innovative financing, we continue to 
evaluate the impact of various proposals including the State 
Infrastructure Bank Pilot Program. Our goal is to ensure that 
these proposals do not compromise worker rights or allow 
federally assisted entities to avoid compliance with very basic 
labor standards.
    Any expansion of this program must require compliance with 
important Federal worker standards as all ISTEA programs have 
done for many decades.
    Innovative proposals also commonly involve increased 
participation by the private sector. I want to emphasize that 
decisions relating to public versus private control of our 
transportation infrastructure, particularly transit services, 
should be left to local decisionmakers.
    Congress recognized this in the 1991 bill when it struck a 
fair balance between public needs and private interests. This 
important balance must be continued in the new bill or we fear 
the erosion of service and safety.
    Let me now turn to a few core safety concerns. 
Deregulation, industry consolidation and Federal budget cuts 
have forced workers and highway users into an increasingly 
dangerous and unpredictable situation.
    Adequate Federal funds must be committed for the personnel 
and resources to carry out enforcement programs, including 
driver training, vehicle registration and adequate safety 
inspection facilities.
    We are opposed to industry-specific exemptions such as the 
pilot program adopted in the NHS bill in 1995 which 
unfortunately exempts up to 2 million trucks from various 
safety rules, including hours of service regulations. ISTEA 
must not be the vehicle to further erode any safety standards 
and regulations.
    Finally, we continue to have major concerns with the NAFTA 
land transport provisions. As the committee is aware, the 
transportation provisions of NAFTA grant Mexican commercial 
motor carriers access to the four U.S. border States and by the 
year 2000, to the entire country.
    While the Clinton Administration wisely postponed those 
provisions, it is under extraordinary pressure from our trading 
partners, business interests and elements of the trucking 
industry to lift the restrictions.
    Our Nation is ill-prepared to deal with the massive inflow 
of Mexican motor carrier traffic NAFTA would produce on our 
highways. Border facilities are inadequate and in most cases, 
the trucks and buses entering the U.S. violate our safety and 
equipment standards and are operated by drivers not subject to 
comparable safety standards.
    The GAO agreed with us in its recent report where it found 
an out-of-service rate at all truck border crossings of about 
45 percent for serious safety violations. Texas, which has two-
thirds of all Mexican truck traffic, and Arizona with its 10 
percent of the traffic, have no permanent truck inspection 
facilities at any of their borders. Of the few trucks 
inspected, violations ranged from bogus insurance, bald tires 
and cracked frames to unqualified drivers.
    Fortunately, a bipartisan House majority agrees with our 
position on this issue and recently wrote President Clinton 
urging him to maintain current cross-border restrictions until 
the major safety issues in the context of NAFTA have been 
adequately addressed.
    I would like to submit a copy of this letter that is signed 
by 226 members of the House urging the border remain closed.
    Workers also fear job loss given that Mexican truck drivers 
earn as little as $7 a day. This opens the door for the massive 
displacement of American truck drivers by U.S. trucking 
companies looking to exploit lower wage Mexican drivers. This 
same problem manifests itself in the bus industry as well.
    The only way to resolve the highway safety threat posed by 
NAFTA is to make measurable and enforceable safety standards 
and programs a part of the core agreement. Side deals and 
letters of understanding won't do.
    At a time when the Congress and this committee is trying to 
meet our country's surface transportation needs, it makes no 
sense to expose the already underfunded highway infrastructure 
that you seek to expand and improve with new safety hazards 
posed by unsafe Mexican motor carrier traffic. We urge you to 
work with us to ensure that the U.S.-Mexican border isn't 
opened prematurely as some are advocating.
    Let me conclude by saying that thousands of communities, 
tens of thousands of our members are dependent on the crucial 
investments that ISTEA programs support. We want to work with 
this committee to advance a strong bill and to continue to make 
our transportation system the finest in the world.
    We believe that these goals can be met without sacrificing 
the basic rights of workers and the safety of our 
transportation and building trades industries. We look forward 
to working with you in that regard.
    Again, thank you for this opportunity.
    Senator Baucus. Thank you, Mr. Wytkind.
    I want to thank all of you. This has been very important 
testimony. I particularly appreciate the testimony of you, Mr. 
Bartlett and Mr. Wytkind, about the safety problems of Mexican 
trucks and safety problems with hours, drivers and so forth.
    I've looked at the GAO report--in fact, I have it right 
here--and as I think you mentioned, the out-of-service rates 
averaged about 45 percent in 1996. It's a pretty strong report 
and it's one this committee is going to take to heart and very 
seriously. Your testimony is going to help very much in that 
regard.
    Also, Ms. Harsha, I appreciate your concern about safety 
and you made a very good point about the reciprocity. When you 
talk about flexibility, the dollars go into construction 
projects as opposed to safety projects which are 
nonconstruction projects and that is also a very good point.
    Mr. Georgine, I had to kind of smile when you started to 
testify. You may not know this but in my home State of Montana, 
almost once a month, not quite, but almost once a month I have 
what I call a work day. I show up at some job site at 8 a.m. 
with my sack lunch and work straight on through, wait tables, 
work at sawmills, and green chain.
    Three of my jobs have been highway jobs. One day I operated 
a roller under the watchful eye of my supervisor, I might add. 
Another day, with a rake, I was scraping and leveling out, 
getting the rocks out of the tar after the asphalt was laid, 
kind of hot and dirty work.
    Another job I had, I was a flag person. The motorists 
really kept me on my toes because one time I jumped out in 
front of a car to stop traffic because some trucks were coming 
in and this car stopped and the driver just gave me the dickens 
because I put out the sign that said slow and not stop. I 
learned that lesson very, very quickly.
    I chuckled also because--you talked about a demonstration 
project--I-15 goes through my State of Montana as well and it 
ends up north through the State of Montana.
    Essentially, I want to thank you all very, very much. 
You've added a lot and your testimony is a very valuable 
contribution to our deliberations. We appreciate your taking 
the time and effort to come and give us your views.
    Thank you very much.
    [Whereupon, at 1:13 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Richard G. Lugar, U.S. Senator from the State of 
                                Indiana
    Mr. Chairman: I want to express my appreciation to you for 
conducting today's hearing on transportation safety programs. I also 
want to thank you for the opportunity to testify before the Committee 
on an important public safety issue affecting Indiana and other states.
    In America today, nearly 600 people are killed and thousands more 
injured every year as a result of vehicle-train collisions at highway-
rail grade crossings. A significant number of these accidents occur in 
states such as Indiana, Illinois, Ohio, California and Texas that have 
large numbers of rail-highway intersections.
    In 1994, I travelled across northern Indiana aboard a QSX-500 CSX 
locomotive. I witnessed what engineers see every day--numerous 
motorists darting across the railroad tracks before an oncoming train. 
From this experience, and from my work to improve safety at highway-
rail grade crossings, I learned that engineering solutions, along with 
education and awareness about grade crossing safety, are key strategies 
that can effectively prevent grade crossing accidents.
    My home state of Indiana ranks sixth in the Nation in the number of 
public crossings with over 6,500. And every year Indiana is one of the 
top five states in the Nation for numbers of injuries and fatalities 
caused by vehicle-train crashes. In 1995, Indiana ranked third for 
total vehicle-train crashes with 271, fifth for total fatalities from 
vehicle-train crashes with 29, and fourth for injuries as a result of 
vehicle-train crashes with 79.
    Responding to this disturbing national trend, I began working in 
1993 with then-Transportation Secretary Federico Pena and with the 
Indiana Department of Transportation to address this serious safety 
problem. We worked to find solutions that would help Indiana and other 
States make better use of available funds to target the nation's most 
hazardous rail crossings.
    The Federal Government has played an important role in helping 
states eliminate accidents and fatalities at public highway-rail 
intersections since passage of the Highway Safety Act by Congress in 
1973. This Act created the Rail-Highway Crossing Program (also known as 
the Section 130 Program). Since the program's inception, more than 
28,000 improvement projects have been undertaken--from installation of 
warning gates, lights and bells, to pavement improvements and grade 
separation construction projects.
    Following discussions with Federal and state officials about this 
pressing safety problem, I joined with Senator Coats in March, 1994, to 
request the General Accounting Office (GAO) to conduct a thorough 
review of rail safety programs in Indiana and other rail-intensive 
states experiencing a high number of vehicle-train crashes at grade 
crossings.
    Released in August, 1995, the report--Railroad Safety: Status of 
Efforts to Improve Railroad Crossing Safety (RCED-95-191)--evaluated 
the best uses of limited Federal funds for rail crossing safety, 
reviewed policy changes that help state and local governments address 
rail safety issues, and recommended strategies to encourage interagency 
and intergovernmental cooperation.
    The report found that in addition to states' efforts to reduce 
accidents and fatalities through emphasis on education programs, 
engineering solutions, and enforcement of traffic laws, changes to the 
Federal funding formulas would target highway funds to areas of 
greatest risk.
    Under the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA), the Section 130 program was continued--with a portion of the 
10 percent of a state's Surface Transportation Program (STP) safety 
funds dedicated to highway rail crossing improvement and hazard 
elimination projects.
    The GAO reported that key indicators or ``risk factors'' used to 
assess rail grade crossing safety are not taken into account when STP 
funds are distributed among states. The GAO outlined the Federal 
Highway Administration's (FHWA) work to review options for STP formula 
changes that adjust the current flat percentage allocation to include 
these risk factors. Applying these factors to the funding formula 
creates a more targeted and focused process that maximizes the 
effectiveness of Federal funds.
    The risk factors criteria considered by FHWA include a state's 
share of the national total for number of public crossings, number of 
public crossings with passive warning devices, total number of 
accidents and total number of fatalities occurring as a result of 
vehicle-train collisions at highway rail grade crossings.
    For example, while Indiana received 3.4 percent of Sec. 130 funds 
in fiscal year 1995, the Hoosier State experienced 6.1 percent of the 
nation's accidents and 5.9 percent of the fatalities as a result of 
vehicle-train collisions from 1991-1993. In addition, Indiana has about 
4 percent of the nation's public rail crossings.
    Recent preliminary estimates of STP apportionments under a risk-
based apportionment formula indicate Indiana's share of Sec. 130 funds 
could increase by fifty-four percent, from the fiscal year 1997 level 
of $4.96 million to $7.63 million. Overall, about 23 states would 
receive a substantial increase in Sec. 130 funds for grade crossing 
improvements, including: Alabama, Arkansas, Georgia, Illinois, Iowa, 
Kansas, Louisiana, Mississippi, Minnesota, Missouri, Nebraska, Ohio, 
Oklahoma, South Carolina, Texas, Utah and Wisconsin.
    While the Indiana Department of Transportation (INDOT) spends 
between $7 million and $10 million a year to improve safety at highway 
rail grade crossings, a fifty-four percent increase in Sec. 130 funds 
would allow INDOT and other state departments of transportation 
additional resources for these projects.
    Responding to these recommendations, I introduced legislation in 
December, 1995, and again this year, aimed at improving the 
distribution of these safety funds. S. 284, the Highway-Rail Grade 
Crossing Safety Formula Enhancement Act, would replace the current flat 
percentage system with a formula that uses the risk-based criteria to 
better target existing funds where they can be most effective.
    S. 284 addresses the allocation problem by adjusting the funding 
formula for the STP to include an apportionment of funds to states for 
the Sec. 130 Program based on a 3-year average of these risk factors. I 
want to express my appreciation to the FHWA and to the Federal Railroad 
Administration for their valuable assistance in preparing this 
legislation.
    This legislation will help improve the way the Federal Government 
targets existing resources to enhance safety on our nation's highways 
and along our rail corridors. This legislation does not call for new 
Federal spending, but rather for a more equitable and effective 
distribution of existing highway funds to states to enhance safety at 
dangerous highway-rail grade crossings.
    This legislation addresses one aspect of the grade crossing safety 
problem by refining a key provision of the existing ISTEA law. Using 
this proposal as a foundation, I am hopeful the Congress will craft 
provisions for the highway reauthorization bill that recognize the 
overall efforts of states to implement comprehensive rail safety 
programs. An effective grade crossing safety program integrates 
construction improvement projects with driver education and awareness 
programs, including the valuable work performed by Operation Lifesaver. 
An effective program also integrates crossing closures, vigorous 
enforcement of crossing traffic laws and assessments of crossing 
inventories.
    I will work with my colleagues this year to help assure Congress 
passes highway reauthorization legislation that makes the best use of 
available Federal resources while encouraging states to continue 
pursuing comprehensive efforts to address their public grade crossing 
safety requirements. My intent with this legislation is not to penalize 
certain states or to create ``winners'' or ``losers'' in the process of 
distributing Federal highway funds, but to find the best solution that 
will eliminate these preventable tragedies.
    At this time, it is unclear what direction the next highway 
authorization bill will take, what the Federal role will be in 
maintaining the national transportation infrastructure, and what 
current ISTEA programs will be renewed. I am supporting a 
reauthorization proposal to provide a more streamlined, flexible 
highway program that returns resources and authority back to the 
states. My intent with this legislation during this reauthorization 
process is not to protect a particular highway program or specific 
Federal set aside requirement of the expiring ISTEA law, but rather to 
continue emphasizing an issue of great importance to my state of 
Indiana and to other states experiencing grade crossing safety 
problems. I will advocate grade crossing safety as a priority within 
the context of other key funding and flexibility issues that are vital 
to the continued safety and mobility of Hoosiers traveling on Indiana 
roadways. I am hopeful this legislation will reinforce the importance 
of highway rail grade crossing safety as the Congress moves forward 
with the national discussion of U.S. transportation policy for the 21st 
Century.
    As the ISTEA reauthorization process continues in the coming weeks 
and months, I look forward to working with the Committee to help find 
an appropriate Federal role that encourages states to continue their 
grade crossing safety efforts.
    Continued emphasis on finding new and better ways to target 
existing resources to enhance safety at highway rail grade crossings 
will contribute to the overall effort in Congress and in the States to 
prevent accidents, save lives and sustain a balanced and effective 
transportation network for the nation.
    Thank you for the opportunity to testify before the Committee 
today.
                               __________
Statement of Hon. Frank Lautenberg, U.S. Senator from the State of New 
                                 Jersey
    Mr. Chairman and Members of the Committee, I appreciate this chance 
to join Senator DeWine and Congresswoman Lowey to testify behalf of our 
legislation to reduce fatalities and injuries due to drunk driving.
    With the creation of the interstate highway system in the 195O's, 
the Federal Government assumed a major role in building and maintaining 
our highway infrastructure. We also have a responsibility to make sure 
that those roads and highways are as safe as possible.
    When I introduced legislation almost 15 years ago to make 21 the 
national minimum drinking age, many people told me that it would never 
pass. But, President Reagan supported it, along with Secretary of 
Transportation Elizabeth Dole, and now every state has a minimum 
drinking age of 21. This act did away with so-called Blood Borders 
between states and has saved over 10,000 lives since its enactment.
    In this Congress, we have a real opportunity to further reduce 
fatalities from drunk driving. During ISTEA reauthorization, we should 
take the serious steps needed to make a difference.
    Currently, 41 percent of all fatal crashes are alcohol-related. 
With Senator DeWine and Congresswoman Lowey, I have introduced S. 412, 
the ``Safe and Sober Streets Act of 1997,'' to make .08 Blood Alcohol 
Content the national standard. If a state fails to pass this standard 
by Fiscal Year 2001, it would lose a portion of its highway funding.
    The simple fact is, setting lower limits saves lives. But since so 
many states have been stuck in neutral on this issue, it is time for 
the Federal Government to take action. This legislation will get tough 
on states that fail to get tougher on drunk driving.
    The question is NOT why should we drop the drunk driving standard 
to .08, but rather why was it ever set as high as .10? It is at .08 BAC 
that a person becomes significantly impaired and should no longer be 
driving.
    A 170 pound man must drink four and a half drinks in 1 hour, on an 
empty stomach, in order to get to .08 BAC. At that point, that man has 
lost his basic driving skills, such as braking, steering, lane changing 
and judgment. challenge each of you to consume over four drinks in 1 
hour on an empty stomach and then decide whether or not you could get 
behind the wheel and drive safely.
    Most importantly, .08 BAC laws work. States which have adopted the 
.08 standard have seen a reduction in their alcohol-related traffic 
fatalities. A recent study by Ralph Hingson of Boston University 
demonstrated that if all states adopted the .08 standard, 500-600 lives 
would be saved each year.
    France's BAC limit is .05, Canada and Great Britain's is .08. 
Thirteen states have .08 BAC laws--including Virginia, California, 
Florida and New Hampshire, and legislation is pending in many more. 
But, the beverage industry, so powerful at the state level, strongly 
opposes such legislation. Sanctions on Federal highway assistance can 
counterbalance local political pressures.
    I have also introduced a bill to promote minimum standards for 
those repeatedly convicted of drinking and driving. This proposal would 
sanction highway funding if states do not revoke the licenses of 
convicted drunk drivers, with three time offenders losing their license 
permanently.
    Matthew Hammell, after whom this bill is named, was a 17 year old 
New Jerseyan killed by a driver whose New Jersey license was revoked 
for repeated drunk driving convictions, but who was able to get a 
license in North Carolina. Those who drink and drive need to know that 
wherever they are, the law will not permit repeated abuse.
    Establishing a .08 BAC limit and license revocation for repeated 
abusers are two concrete ways to reduce fatalities and injuries 
associated with drunk driving.
    I'd also like to comment briefly on another issue--the issue of big 
trucks. was the author of the 1991 freeze on longer combination 
vehicles. About 5,000 people are killed and 20,000 people injured each 
year in big truck crashes. Big trucks also impose greater wear and tear 
on our transportation infrastructure.
    We should maintain the LCV freeze in the next ISTEA bill and reject 
efforts to leave truck size and weight standards to the states. The 
Southern Governors' Association, some state trucking associations and 
the Owners-Operators and Independent Drivers Association support 
maintaining the LCV freeze and oppose the ``states' option.''
                               __________
Statement of Hon. Nita M. Lowey, U.S. Representative from the State of 
                              Connecticut
    Thank you, Chairman Warner, and members of the Subcommittee for the 
opportunity to speak to you this morning.
    I must say I don't envy your task this year. Your Subcommittee must 
wrestle with a wide array of difficult issues and competing interests 
as part of the reauthorization of the Intermodal Surface Transportation 
Efficiency Act. As this process unfolds, however, I hope one area 
everyone can agree on is that improving the safety of our nation's 
roadways must be one of our highest priorities. It is with that goal in 
mind that I am here this morning to urge the Subcommittee's support of 
measures to strengthen our nation's drunk driving laws.
    We have all heard the statistics. For the first time in a decade, 
drunk driving fatalities are on the rise. In 1995, the year for which 
the most recent statistics are available, more than 17,000 Americans 
were killed in alcohol-related traffic fatalities.
    The sad reality is that our drunk driving laws have failed 
thousands of families across the nation; our criminal justice system 
has been too lax on drunk drivers for too long.
    In fact, impaired driving is the most frequently committed violent 
crime in America. That's an outrage. A license to drive shouldn't be a 
license to kill. We must combat these crimes by strengthening drunk 
driving laws and penalties.
    As some of you know, Senator Lautenberg, Senator DeWine and I have 
joined Mothers Against Drunk Driving, highway safety advocates, law 
enforcement groups, and drunk driving victims in introducing two 
important pieces of legislation to strengthen our nation's drunk 
driving laws. Using the proven method of the 1984 National Minimum 
Drinking Age law and the 1995 Zero Tolerance law for underage drinking 
and driving, these bills will compel states to lower the legal level of 
Driving While Intoxicated to a more reasonable level and strengthen 
penalties for repeat drunk drivers.
    Mr. Chairman, more than 3,700 Americans were killed in 1995 by 
drivers with Blood Alcohol Concentration (or BAC) levels below .10--the 
legal definition of Driving While Intoxicated in 36 states. In 
recognition of this problem, 14 states, including Virginia, California, 
Florida, and Idaho have adopted laws lowering the DWI level to .08, and 
Illinois is likely to do so soon. .08 laws have also been adopted by a 
number of other industrialized nations.
    Lowering the DWI level to .08 is supported by the American Medical 
Association, the American Automobile Association, the National Sheriffs 
Association, the International Association of Chiefs of Police, the 
National Highway Traffic Safety Administration, and our nation's 
largest insurance companies. The American Medical Association even 
recommends states adopt a .05 DWI standard.
    The reasons these groups recommend that the DWI standard be lowered 
to .08 are compelling: First, .08 is a level of intoxication at which 
critical driving skills are impaired for the vast majority of drivers. 
Second, the risk of a crash increases substantially at .08 and above. 
In fact, a driver with .08 BAC is 16 times more likely to be in a fatal 
crash than a driver with no alcohol in his system. Third, Americans 
overwhelmingly agree that you shouldn't drive after three or four 
drinks in 1 hour an empty stomach--the equivalent of a .08 blood 
alcohol level.
    Last, but certainly not least, .08 laws save lives. A study of the 
first five states to enact .08 found that those states experienced a 16 
percent reduction in fatal crashes involving drivers with a BAC of .08 
or higher. Overall, the study concluded that up to 600 lives would be 
saved each year nationwide if every state adopted the .08 standard.
    This is a not a theoretical study--these are facts.
    The experiences of the first five states to adopt .08 laws also 
indicate that heavy drinkers are less likely to drink and drive because 
of the general deterrent effect of .08. In fact, those states 
experienced a 18 percent decrease in fatal crashes involving drivers 
with a BAC of .15 or higher. In addition, lowering the BAC to .08 makes 
it possible to convict seriously impaired drivers whose BAC levels are 
now considered marginal because they are at or just over .10
    Some will argue that .08 BAC is too low a level of intoxication and 
that it will target social drinkers who drink in moderation. Let me be 
very clear: This legislation has nothing to do with social drinking. 
This is not about having a couple of beers or glasses of wine with 
dinner after work. It takes a lot of alcohol to reach .08 BAC. 
According to NHTSA, a 170 lb. man with an average metabolism would 
reach .08 only after consuming four drinks in 1 hour on an empty 
stomach. A 137 lb. woman with an average metabolism would need three 
drinks in hour to reach that level. Keep in mind, if you have any food 
in your stomach or you snack while you're drinking, you can drink even 
more and not reach .08. That's a lot of liquor.
    In addition to getting states to lower the legal definition of DWI, 
we need legislation to establish mandatory minimum penalties to keep 
convicted drunk drivers off our roads. We must stop slapping drunk 
drivers on the wrist and start taking their hands off the wheel.
    That's why ``The Deadly Driver Reduction Act'' will require states 
to mandate a 6-month revocation for the first DWI conviction, a 1 year 
revocation for two alcohol-related convictions, and a permanent license 
revocation for three alcohol-related offenses.
    Studies by the National Highway Traffic Safety Administration show 
that about one-third of all drivers arrested or convicted of DWI each 
year are repeat offenders. Drivers with prior DWI convictions are also 
more likely to be involved in fatal crashes. This second piece of 
legislation will close the loopholes in state laws that too often allow 
convicted drunk drivers to get right back behind the wheel.
    Mr. Chairman, no piece of legislation alone is going to solve the 
problem of drunk driving. We know that it is going to take a good deal 
of public education and a greater commitment on the part of Federal, 
state, and local officials. However, there can be no denying that 
adopting .08 as the national DWI standard and establishing mandatory 
minimum penalties will reduce the carnage on our nation's roads. 
Government has an obligation to act when lives are at stake.
                               __________
   Statement of Hon. Mike DeWine, U.S. Senator from the State of Ohio
    Thank you very much. Let me first thank the committee for holding 
this hearing and thank the committee also for the concern that you have 
not only expressed but demonstrated for highway safety over the years.
    I first became interested in this issue when, as a 25-year-old, 
right out of law school, my first job was as an assistant county 
prosecuting attorney. I was involved in the prosecution of vehicular 
homicide cases, drunk driving cases.
    One of my jobs was frankly to talk and work with the victims, the 
families, the people who survived. I remember one particular case where 
I was called to the emergency room of the hospital and saw two elderly 
people, one had just died and the other was being operated on and died 
5 days later. They were killed by a drunk driver.
    I think all of us have had that experience but when you're a 
prosecutor, you see it and you can understand it a little more because 
you see it firsthand.
    When I was in the State Senate, we had a tragedy in our home 
county. We had a little 7-year-old boy by the name of Justin Beason who 
was killed by a driver who had been drinking. His grandfather came to 
me and I'll never forget the anguish and horror that I saw in his eyes 
and the horrible sadness and as a result of that, I wrote in 1982 in 
the Ohio State Senate, Ohio's first really tough drunk driving law.
    We established in that drunk driving law a per se violation which 
is something we in Ohio had not had. In fact, most States at that time, 
did not have that.
    I would like today to talk about four issues very briefly. Let me 
start simply by saying that we lose some 40,000 people every year in 
this country killed in auto fatalities. If it was any other cause than 
that--if it was an epidemic, if it was a disease, we would be up in 
arms as a country.
    To some extent, we are numb to auto fatalities. We are numb because 
everyone knows someone who has been killed or knows a family that has 
been touched.
    I just would ask this committee to look at four specific things 
that I think we can do that will, in fact, make a difference. I would 
like to start with the .08 and I understand fully the concerns that 
have been expressed and I know will be expressed about the States 
rights issue involved here. I do appreciate those.
    I would simply say that when we deal with issues such as this, I 
think this is one of the few times we can cast a vote in the Senate 
where we know our vote will actually save lives. Many times we think it 
will, many times we think we know what the results are and we're 
dealing with some of these areas in regard to highway safety and things 
we know will, in fact, work.
    One is lowering the alcohol level to .08. That seems like a very 
small change, to go from .1. Most States today have it at .10. There is 
a minority of States that have it at .08, but we find is that this is a 
really critical period. What we find is that once you get to about 
.06--and it varies obviously by individual--but once you get in that 
range, then you see the impairment magnified. Each 2 percentage points 
is magnified and magnified.
    I know when the previous panel was here, it's my understanding you 
had some discussion about the statistics. I would like to submit to the 
committee a letter which I will prepare today with additional 
statistics, because I think the evidence is fairly overwhelming that in 
the States that have made the change, they have seen a significant 
reduction.
    Thirty-five States have established the per se laws at .10, 13 have 
established, a minority, at .08 but the fact is that drivers, all 
drivers, are substantially impaired at .08. Both laboratory and on-the-
road tests show the vast majority of drivers, even those who are very 
experienced, are significantly impaired at .08.
    They had trouble braking, they had trouble steering, they have 
trouble with other driving tasks. They certainly have trouble with 
judgment. The risk of being in a crash rises with each increase in the 
blood alcohol level. We know that. But it rises very rapidly after a 
driver gets into the area of .06, .07, or .08.
    Most of the States that already have a .08 law found that it has 
helped to decrease the number of alcohol-related fatalities. A recent 
study of the first five States to lower their blood alcohol limit 
showed I believe convincing results. They showed in fact that if you 
compared those five States versus five States that were comparable 
States that did not change, although you had a reduction in each State, 
the reduction was about three times as much as those States that took 
it to .08 as those that kept it at .10.
    Let me talk about another issue, which is school bus safety. Let me 
preface this by saying something I always try to say, and I've worked 
on school bus safety for the last several years, school buses are the 
most safe form of transportation there is statistically. Parents should 
always remember that.
    If there's a choice between putting your child on a school bus or 
letting your 16-year-old drive to school, statistically, there is 
absolutely no choice. I want to put that out right at the beginning.
    We have had a great deal of success in the last several years in 
dealing with a very specific school bus safety problem and that has to 
do with unsafe hand rails that are on school buses. Most of the buses 
that have these unsafe handrails are now off and they've been taken off 
on a voluntary basis, so it's not been something the Federal Government 
has mandated.
    This arose from a tragedy that occurred in my home county where we 
had a little child by the name of Brandy Browder who was drug along 
with the school bus because she had her drawstring that got caught in 
this defect in the school bus.
    There have been a lot of changes made. There are still some of 
these buses out there. I'm going to use this forum one more time to 
remind every school district in this country. It's a very simple test. 
The remedy is $5. It doesn't cost much but we need to be vigilant to 
make sure these buses are no longer on the road. Most of them, frankly, 
are now off the road.
    I believe also, Mr. Chairman, that school buses are the safest form 
of transportation. We still lose upwards of 45 to 50 children every 
year who are killed. Most of them are killed getting on and off the 
bus. Most of them are killed for any number of reasons, but in almost 
every case, it is a school bus driver error.
    Again, I think this reinforces the need to increase the attention 
we pay to school bus safety issues.
    Finally, seat belts. If there's one thing we know about seat belts, 
it is that they save lives. But today, in many States, including Ohio, 
not wearing a seat belt is not considered a primary offense; in other 
words, you can't get pulled over for not wearing one, but you can be 
charged for not wearing one if you're pulled over for some other 
offense. We need to do what we can to see that the seat belt laws get 
elevated to the status they deserve. We have them on the books for a 
reason: they save lives. Let's make them effective.
    Mr. Chairman, I look forward to working on all of these issues with 
you and other concerned Senators, and I thank you very much for holding 
this important hearing.
                               __________
  Joint Statement of Philip R. Recht, Deputy Administrator, National 
 Highway Traffic Safety Administration and Anthony R. Kane, Executive 
 Director, Federal Highway Administration, Department of Transportation
    Mr. Chairman, thank you for the opportunity to testify on the 
highway safety provisions of the Administration's surface 
transportation reauthorization proposals. These safety provisions are 
found in both the main portion of our proposal, entitled the National 
Economic Crossroads Transportation Efficiency Act of 1997 (NEXTEA), and 
in the supplemental safety titles of the NEXTEA which are called the 
Surface Transportation Safety Act of 1997.
    Ensuring the transportation safety of the American people is the 
highest priority for both the Federal Highway Administration (FHWA) and 
the National Highway Traffic Safety Administration (NHTSA), as well as 
the Department of Transportation overall. Secretary Slater has set 
transportation safety as his highest priority. The Secretary sees 
safety as a moral commitment as well as a policy imperative. He has 
said that the safety of the American people is our No. 1 goal--the true 
``North Star'' that guides us. Accordingly, we have remained focused on 
improving highway safety, while we strive to enhance the efficiency and 
capacity of our large and varied highway system. This emphasis on 
safety is appropriate in light of the fact that 98 percent of all 
surface transportation-related deaths and approximately 99 percent of 
injuries result from highway crashes.
    Because seat belts are an extremely effective means of reducing 
fatalities and serious injuries in traffic crashes, our NEXTEA proposal 
would take an aggressive approach to increasing seat belt use. To 
achieve the goal of increased seat belt use, however, we cannot rely 
solely on Federal programs or the Federal Government. Our success 
depends on the efforts of all our key partners. Joining me at the White 
House on April 16 in support of the goals we have set were a cross 
section of key players in the seat belt effort--including 
representatives of State law enforcement, the auto companies, the 
medical profession, people whose lives have been saved by seat belts, 
and a bipartisan group including former Secretaries of Transportation 
Boyd, Coleman, Skinner, Card and Pena.
    In our efforts to improve highway safety, Congress, and 
particularly this Committee, has been our partner. With the safety 
programs and funds Congress provided through the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA), the FHWA and NHTSA have 
made real progress in enhancing the safety of our Nation's highways. 
Since 1991, the motor vehicle fatality rate (per 100 million vehicle 
miles traveled (VMT)) has dropped from 2.1 in 1990 to 1.7 in 1996, and 
the nonfatal injury rate (per 100 million VMT) also decreased from 151 
in 1990 to 141 in 1995. Between 1990 and 1996, highway/rail grade 
public crossing deaths have decreased by over 25 percent. In addition, 
the crash rate involving heavy trucks dropped from 2.9 per 100 million 
VMT in 1991 to 2.5 in 1995. The costs of highway crashes would have 
been $30 billion higher in 1994 (versus 1990) had it not been for 
injury rate reductions due to NHTSA- and FHWA-supported highway and 
motor vehicle programs. An assessment of the NHTSA and FHWA safety 
programs indicated that the economic cost savings exceeded program 
costs by a ratio of 9 to 1.
    Through the highly successful safety programs authorized in ISTEA, 
the FHWA and NHTSA have taken an integrated approach to driver, 
vehicle, and roadway safety. To build on the success of those programs, 
the safety provisions in our NEXTEA proposal and safety bill would fund 
initiatives which likewise address driver, vehicle, and road design 
issues in a focused and coordinated manner. The problem of aggressive 
driving is an example of a safety issue which would best be addressed 
using this approach. Behavior modification programs and enforcement and 
judicial initiatives can help solve the aggressive driving problem, but 
the safety solution must also involve designing roadways to mitigate 
the injury consequences of aggressive driving. Installation of median 
barriers, for example, can prevent cross-over, head-on crashes by out-
of-control vehicles traveling at excessive speeds and/or engaging in 
erratic maneuvers. Median barriers of this kind are now being installed 
by the FHWA and the National Park Service at narrow median locations on 
Virginia's George Washington Memorial Parkway.
    ISTEA recognized the importance of the Federal-State partnership in 
highway safety. We believe the successor to ISTEA must continue to look 
at new ways to advance this essential partnership. The safety 
provisions in the Administration's reauthorization proposal build on 
the strong components of the existing law, streamline programs, create 
new flexibility, and provide linkages among other highway safety 
programs to move our programs forward in a coordinated manner to 
address national priorities.
                             highway safety
    NHTSA's programs have contributed to real progress in highway 
safety. Seat belt use has grown from 11 percent in 1982 to 68 percent 
in 1996. Alcohol involvement in fatal crashes has dropped from 57 
percent to 41 percent over this same 15-year period. We have made great 
progress in reducing the fatality rate. In 1966, it stood at 5.5 deaths 
per hundred million vehicle miles traveled, and today it stands at 1.7, 
the lowest rate recorded.
    Despite this significant progress, as previously noted, recent 
statistics show there is no room for complacency. After years of steady 
decline, the total number of highway deaths increased from 1993 to 
1995. Motor vehicle crashes are still the leading cause of premature 
death of our Nation's youth. Seat belt use has grown by only 2 
percentage points since 1993. In 1995, the number of alcohol-related 
fatalities increased for the first time in 9 years. In 1996, 41,500 
people died and over 3 million more were injured in police-reported 
crashes. Although our fatality rate remains at an all-time low, highway 
crashes still cost the Nation $150.5 billion per year. Taxpayers share 
in these costs. Twenty-four percent of all medical care costs 
associated with motor vehicle crashes are covered by public revenues 
(14 percent from Federal revenues and 10 percent from State resources). 
In 1994, the $13.8 billion in medical, rehabilitation, and income 
support costs paid by Federal and State programs was equivalent to $144 
in added taxes for each household in the U.S.
    Speeding--exceeding the posted speed limits, or driving too fast 
for conditions--is a problem on all roads. The human and economic costs 
of speeding are staggering. In 1995, speeding was a factor in 31 
percent of all fatal highway crashes. Currently, 34 States have 
increased their speed limits beyond what would have been allowed under 
the former national maximum speed limit law, and 23 of these 34 States 
have increased their speed limits to 70 miles per hour or greater. 
NHTSA and FHWA have jointly developed and continue to implement a Speed 
Management Work Plan combining research, enforcement, roadway 
engineering and public education.
    Recent surveys indicate that aggressive driving, a behavior often 
marked by excessive speed, running red lights and stop signs, has 
become the driver behavior that most concerns the motoring public. 
NHTSA's activities to combat aggressive driving include public 
information and education, demonstration programs in major urban areas 
to identify effective enforcement techniques, and research to determine 
the relationship between specific unsafe driving acts and crash 
involvement.
    The number and costs of fatalities and injuries would be 
significantly higher if not for the effectiveness of NHTSA's programs. 
Since 1992, seat belts, child safety seats, motorcycle helmets, and the 
age-21 minimum drinking age laws have saved over 40,000 lives.
                     nextea--istea reauthorization
    NEXTEA proposes to fund all of NHTSA's programs out of the Highway 
Trust Fund, and increases authorized funding for these programs by 
about 25 percent, to $392 million in fiscal year 1998.
    The keystone of NHTSA's efforts in highway safety, jointly 
administered with FHWA, is the State and community highway safety grant 
program, known by its U.S. Code provision as the ``Section 402'' 
program. Section 402 provides for a highway safety program in every 
State and territory. Under this program, NHTSA and FHWA give formula 
grants to States, set by statute, for their conduct of programs in 
priority areas that are most effective in reducing traffic crashes and 
resulting deaths, injuries, and property damage. The agencies also give 
technical assistance to States and local communities to develop and 
implement their highway safety programs. The States use their 402 
grants to address their key safety problems.
    Our increased authorizations emphasize incentive programs. NHTSA 
has found that incentives have proved very successful in helping States 
to make greater efforts in highway safety. By incorporating incentive 
programs within the framework of the agency's Section 402 program, our 
proposal will create new momentum in four priority areas:


    <bullet>  occupant protection, a Presidential initiative to 
encourage States to increase seat belt use--the single best way to 
protect the occupants of a vehicle;
    <bullet>  drunk driving prevention, to help States enact and 
enforce tough drunk driving laws;
    <bullet>  drugged driving prevention, another Presidential 
initiative to help States enact and enforce tough laws to prevent drug-
impaired driving; and
    <bullet>  highway safety data improvement, to encourage States to 
collect the data needed to identify their highway safety problems and 
evaluate the measures they take to solve those problems.


    Our research has found that lap/shoulder belts, when used, reduce 
the risk of fatal injury to front seat passenger car occupants by 45 
percent, and the risk of moderate-to-critical injury by 50 percent. 
When seat belts are used in a vehicle equipped with air bags, the 
effectiveness of the combined restraint system exceeds that of the 
belts alone. The combination of seat belts with air bags is the most 
effective means of reducing fatalities and serious injuries in traffic 
crashes.
    Child safety seats are the most effective occupant protection 
devices used in motor vehicles today. If used correctly, they are 71 
percent effective in reducing fatalities to children under the age of 
five and 69 percent effective in reducing the need for hospitalization.
    Currently, an estimated 68 percent of America's vehicle occupants 
use their seat belts, saving about 9,500 lives a year. Despite this 
progress, however, today nearly one-third of Americans still do not 
buckle up and 80 percent of child safety seats are not used properly. 
Every day, an unrestrained child under the age of 5 is killed in a 
traffic crash.
    Also disturbing is that increases in seat belt use have leveled off 
in recent years. Other industrialized countries have belt use rates of 
90 percent and higher. We can and must do better if we are to decrease 
highway fatalities and injuries.
    President Clinton believes strongly that more must be done to 
encourage the use of these life-saving devices. On April 16, Secretary 
Slater responded to the President's directive for an Administration 
plan to increase seat belt use, and announced a national strategy to 
raise average U.S. belt use rates to 85 percent by the year 2000. By 
2005, our goal is to reach or exceed 90 percent. We also have set a 
goal of reducing child occupant fatalities (0-4 years) 15 percent by 
2000, and 25 percent by 2005.
    Achieving 85 percent seat belt use would boost the annual number of 
lives saved in U.S. highway crashes by about 4,200, and reduce crash-
related injury costs by $6.7 billion a year. If 90 percent of vehicle 
occupants used their belts, more than 5,500 lives would be saved 
annually and injury costs would be cut by $8.8 billion. Reducing child 
fatalities (0-4 years) 15 percent would save the lives of 102 children 
annually, while reducing fatalities 25 percent would save 171 children 
each year.
    To help our State partners reach these goals, NEXTEA includes a new 
$124 million incentive grant program over 6 years to encourage States 
to increase their level of effort and implement effective laws and 
programs aimed at increasing seat belt and child restraint use. These 
funds would be available to a State for adopting, among other criteria, 
a primary enforcement seat belt use law.
    Seat belt use is much higher, on average, in States that provide 
for primary enforcement of their belt use laws. In States with 
``secondary'' seat belt use laws, a motorist may be ticketed for 
failure to wear a seat belt only if there is a separate basis for 
stopping the motorist, such as the violation of a separate traffic law. 
This hampers enforcement of the seat belt law. In States with primary 
laws, a citation can be issued solely because of failure to wear a seat 
belt.
    A 1995 analysis of NHTSA's Fatal Analysis Reporting System (FARS) 
data on restraint use among occupants of motor vehicles involved in 
fatal crashes shows that primary enforcement is the most important 
aspect of a seat belt use law affecting the rate of seat belt use. Our 
analysis suggests that the enactment of a primary law increases seat 
belt use by at least 15 percent. This increase translates into a 5.9 
percent decline in fatalities after a State authorizes primary 
enforcement of the law.
    The safety titles of the NEXTEA underscore our strong support for 
primary seat belt laws. Those titles include a provision that would 
require a State to have either a primary belt law or a statewide belt 
use rate of at least 85 percent in all passenger motor vehicles. If, by 
the end of fiscal year 2002, a State had failed to enact such a law or 
have such a belt use rate, the Secretary would be directed to transfer 
1-1/2 percent of its highway construction funds to the State's Section 
402 occupant protection program. If a State remained in noncompliance 
in subsequent years, the transfer would rise to 3 percent.
    Many States will be able to achieve the 85 percent goal within the 
framework of existing law. The State of Washington is a good example. 
Despite not having a primary belt law, Washington's current belt use 
rate is 84 percent and continues to rise, due to a consistent policy of 
enforcing its belt use law.
    No review of highway safety would be complete without mentioning 
the leading cause of fatal and serious injury crashes--drunk driving. 
Alcohol is the drug abused most frequently by our children, and is 
responsible for 35 percent of the highway deaths among our youth, ages 
15-20. Forty-one percent of all fatal motor vehicle crashes continue to 
be alcohol-related, and 32 percent of these fatal crashes involve a 
drunk driver or pedestrian with a high blood alcohol concentration (BAC 
greater than 0.10 percent). That means alcohol impairment plays a role 
in over 17,000 traffic deaths every year.
    NEXTEA proposes a new $260 million incentive program to encourage 
States to increase their level of effort and implement effective 
programs aimed at deterring the drunk driver. The new program, which 
continues NHTSA's strong emphasis on deterring drinking and driving, is 
similar in structure to that of the existing drunk driving prevention 
incentive program established under Section 410 of Title 23, United 
States Code, and would replace that program at the end of fiscal year 
1997. Under the new program, a State may establish its eligibility for 
one or more of three basic alcohol-impaired driving countermeasure 
grants by adopting or demonstrating certain criteria to the 
satisfaction of the Secretary.
    Drunk driving prevention is greatly assisted by the enactment of 
zero tolerance legislation. A ``zero tolerance'' law makes it illegal 
for a person under 21 to drive a motor vehicle with any measurable 
blood-alcohol content. In June 1995, President Clinton urged that zero 
tolerance become the law of the land. On that date, 24 States and the 
District of Columbia had zero tolerance laws in effect. The provision 
was subsequently included in the National Highway System (NHS) Act. 
Since June 1995, 13 States have enacted zero tolerance laws, but 13 
States and Puerto Rico have not yet enacted zero tolerance laws. These 
laws are very effective, reducing alcohol-related crashes involving 
teenage drivers by as much as 10-20 percent.
    We would like to highlight one significant criterion included in 
this incentive program--a criterion to make 0.08 blood-alcohol 
concentration (BAC) the per se standard for driving while intoxicated. 
Research indicates that at 0.08 BAC, virtually all drivers are 
substantially impaired with regard to such critical driving tasks as 
steering, braking, and judgment. Fourteen States have lowered their per 
se standard for driving while intoxicated to 0.08, and a recent study 
of 5 of these States shows that significant decreases in alcohol-
related fatalities can be achieved by States adopting the 0.08 
standard.
    Our third incentive proposal would create a new $25.1 million grant 
program to encourage States to take effective actions to improve State 
drugged driving laws and related programs. State drugged driving laws 
are often inconsistent and difficult to enforce. We believe that this 
new incentive program, modeled after the agency's successful Section 
410 alcohol-impaired driving incentive grant program, is essential to 
improve State drugged driving laws and related activities.
    Our final incentive proposal would create a new $48 million grant 
program to encourage States to take effective actions to improve the 
data they need to identify the priorities for State and local highway 
and traffic safety programs, to evaluate the effectiveness of such 
efforts, and to link these data together and with other data systems 
within the State. Currently, much of the State data in these areas are 
inadequate or unavailable. We believe that this new incentive program 
is vital to the ability of the States to determine and achieve their 
highway safety performance goals. Better data also will enhance the 
States' ability to measure performance under our new performance-based 
Section 402 highway safety program.
    If enacted, we believe that these carefully targeted incentives--to 
increase seat belt and child safety seat use, prevent drunk and drugged 
driving, and improve State highway safety data--can substantially 
reduce highway fatalities below current levels.
                     highway safety infrastructure
    Convincing people to buckle up and stop drinking or taking drugs 
before getting behind the wheel are well documented means of advancing 
highway safety, and increased NEXTEA funding is absolutely necessary 
for these programs. However, driver education and changing driver 
behavior is one of several equally important ways to improve safety. 
Roadway design can prevent crashes, and if crashes still occur, 
roadside safety features can reduce the injury consequences. Lives can 
be saved and injuries prevented by roadway safety features such as 
rumble strips, more skid resistant pavement, less pavement rutting, 
improved guardrail and intersection design, pavement markings and signs 
with increased night time visibility, clear zones and adequate side 
slopes, and automatic barriers at rail/highway grade crossings. Roadway 
safety features can be considered a form of ``passive'' crash 
protection which automatically benefits all drivers. Design features 
can also be considered proactive--reduction in pavement rutting and 
better signing and pavement markings--help prevent crashes from 
occurring.
    There are hundreds of ISTEA success stories illustrating how well 
the concept of ``safety by design'' works. One of the best examples 
comes from New York where drowsy or inattentive drivers on Interstate 
81, I-87, I-88 and State Route 17 (up for Interstate designation) are 
less of a risk to themselves and other drivers thanks to special rumble 
strips installed with the use of ISTEA funds. The vibration and noise 
caused when the vehicle passes over the rumble strips get the driver's 
attention. By some accounts, crashes caused by inattentive drivers 
along certain stretches of these New York State roadways have virtually 
been eliminated. A similar project, along the entire New York State 
Thruway, documented a 70 percent reduction in ``falling asleep 
accidents.'' New York's I-81, I-87, I-88 and SR 17 projects were funded 
through ISTEA Interstate Maintenance and Surface Transportation Program 
funds. ISTEA funds were also used by the State of New York to institute 
a management system to identify systematically and review all priority 
accident locations in the State. This system won a 1996 Federal Highway 
Administrator's Safety Award in 1996. Also with Federal ISTEA funds, 
New York is developing a computer data base of all rail-highway grade 
crossings which will track all the improvements that have been made at 
each crossing and provide a snapshot picture of the attributes at each 
crossing.
    The Administration's NEXTEA proposal would provide a total of $3.55 
billion in funding for infrastructure safety investment by the States. 
These funds would be made available to the States through two programs: 
an Infrastructure Safety Program (which would be funded with $3.25 
billion of the total for fiscal years 1998-2003) and a new incentive 
Integrated Safety Fund (with a funding level of $300 million). In 
addition, regular Federal-aid programs also would provide funding for 
safety related projects and resurfacing, reconstruction, and new 
construction that would enhance the safety features of the roadways; 
the National Highway System, Interstate Maintenance, and Surface 
Transportation programs would be funded at 30 percent over the ISTEA 
levels.
A. Infrastructure Safety Program
    The Administration's NEXTEA proposal includes an Infrastructure 
Safety Program which evolved from ISTEA's Surface Transportation 
Program (STP) safety set-aside. Funding for the program would be 
authorized to come directly from the Highway Trust Fund with funding 
levels starting at $500 million for fiscal year 1998 and increasing 
through the NEXTEA authorization period to $575 million for fiscal year 
2003. Like the STP safety set-aside, the Infrastructure Program would 
provide funds to eliminate hazards on public roadways other than 
Interstates and to improve the safety of rail/highway grade crossings. 
However, the new program would be a streamlined and more flexible 
version of the safety set-aside. Separate allocations for railroad/
highway grade crossings and hazard elimination activities would be 
retained, but the optional safety funds' allocation which had been 
administratively created within the STP safety set-aside would be 
dropped. In addition, the new program would allow hazard elimination 
funds to be flexed into certain non-infrastructure highway safety 
investments and activities (specifically 402/410 driver behavior 
modification programs and motor carrier safety activities) provided the 
State had a good integrated safety planning process in place which met 
specific criteria.
Hazard Elimination
    The total NEXTEA funding level for hazard elimination activities is 
proposed to be $2.26 billion, starting at $335 million in fiscal year 
1998. The Hazard Elimination Program (formerly funded under Section 
152) supports activities aimed at resolving safety problems at 
hazardous locations which may constitute a danger to motorists and non-
motorists (i.e., pedestrians and bicyclists) on any public roadway 
other than the Interstate System. The majority of our Nation's roadways 
are non-Interstates and it is on the non-Interstate roads that the 
majority of crashes, injuries, and fatalities occur. (In 1995, close to 
9 out of every 10 fatal crashes occurred on a non-Interstate roadway.) 
Not surprisingly the fatal crash and injury rates (per vehicle mile 
traveled) for non-Interstate roadways are more than twice that of the 
Interstates. The Hazard Elimination Program is an important source of 
funds for upgrading the safety of these non-Interstate roads.
    ``Safety by design'' activities that can be funded under this 
program include certain countermeasures to reduce the number and 
severity of run-off-the-road crashes. Such crashes frequently result in 
fatalities, especially in rural areas. Other authorized uses of hazard 
elimination funds would include upgrades of guardrails, intersection 
improvements, geometric improvements, installation of signs with break-
away posts, improved pavement markings, and increased visibility 
features. Selection of safety improvement projects would be based on 
assigned priorities for the correction of such hazardous locations, 
sections, and elements and an established implementation schedule of 
projects to carry out those improvements. States would have the ability 
to flex hazard elimination funds into 402/410 traffic safety programs 
and motor carrier safety activities, if they had a good integrated 
safety planning process in place which met specific criteria.
    A project in Missouri provides an excellent example of ``safety by 
design'' using ISTEA hazard elimination funds. The intersection of 
Price and Dielman Streets on Route 340 in St. Louis County, MO, was a 
high crash location which received safety improvements using ISTEA 
hazard elimination funds. Federal funds augmented by a State 10 percent 
match, were used to improve the visibility of traffic signals at this 
intersection and to adjust signal timing. A 3-year before/after crash 
study showed a 62.3 percent reduction in injury accidents and a 20.1 
percent reduction in property damage accidents. This accident reduction 
saves $497,314 per year and resulted in a 62.4 benefit/cost ratio.
Railroad/Highway Grade Crossing
    The Grade Crossing Program (formerly funded under Section 130) is 
designed to fund safety improvements to reduce the number and severity 
of highway crashes involving moving rail equipment with motorists and 
non-motorists at highway crossings. Over the last 20 years, due in 
large part to this program, the number of crashes at public crossings 
has decreased by approximately 50 percent. The Section 130 program has 
saved more than 9,000 lives and prevented nearly 40,000 injuries.
    One example of the ways States have used funding available through 
these programs to improve grade crossing safety is a project conducted 
by the Montana department of transportation which used both Section 130 
Grade Crossing Program funds and Hazard Elimination Program funds to 
relocate a grade crossing to a safer location. In an area near Trident, 
MT, a public road which served as the main access to a bulk cement 
plant, ran parallel to a railroad and then turned toward the track. Due 
to buildings near the crossing, sight distance was severely limited. In 
addition, the circuitry of the crossing's automatic warning device was 
outdated and needed replacement. MT DOT used approximately $100,000 in 
Section 130 and Hazard Elimination funds to install a new crossing 
surface and to install state-of-the-art automatic warning devices.
    NEXTEA retains 100 percent funding eligibility for projects which 
close or eliminate one or more crossings and also retains the $7,500 
per crossing bonus program eligibility for communities that close 
crossings when the bonus is matched by the railroad. Since the goal of 
reducing 25 percent of the nation's highway-rail crossings was made a 
national priority, more than 24,000 crossings have been eliminated.
    Under NEXTEA, the Grade Crossing Program would be funded at $165 
million annually, for a NEXTEA total of $990 million. The following 
changes in the program are proposed :
    The allocation formula would be modified to reflect a State's grade 
crossing safety performance.
    Eligibility would be expanded to include education and enforcement 
addressing deliberate violations of crossing devices, as well as to 
deal with trespassing issues.
    Eligibility would be expanded to include safety improvements at 
private highway-rail crossings where sufficient public benefit has been 
identified. (Formerly, only public crossings were eligible. In 1995, 
524 of the fatalities occurred at public rail/highway crossings, and 55 
were at private grade crossings.)
    Transfer provisions would be changed to allow railroad/highway 
grade crossing funds to be flexed to hazard elimination if the State 
improved its grade crossing safety record. The amount to be transferred 
could not exceed the percentage by which the number of grade crossing 
crashes in the State had been reduced in the most current calendar year 
below the average number of crashes in the State in calendar years 
1994, 1995, and 1996.
B. Integrated Safety Fund
    The new Integrated Safety Fund is designed to encourage integrated 
planning and to provide new flexibility for States to address highway 
and traffic safety problems. In this era of fiscal restraints, it is 
crucial that safety dollars be used to the greatest advantage. 
Integrated planning is necessary to ensure that States get the optimal 
benefit/cost ratios for their highway safety investments.
    Under this new incentive program (funded at $50 million for each 
year of NEXTEA), additional funds would be available for use by States 
for any highway or traffic safety purpose within the Section 402 
behavioral program, the Section 164 Infrastructure Safety Program, or 
for implementing Chapter 311 of title 49--the motor carrier safety 
assistance program. The State would have to meet certain planning 
criteria to be eligible for the funds, and an integrated safety 
planning process would be evidenced in the State's safety goals, 
objectives, and reports (i.e., measurements of results) to be developed 
collectively in the State by appropriate safety entities receiving 
Federal funds. The qualifying criteria a State's integrated safety plan 
would have to meet to qualify for this incentive grant would be 
established in regulations and these criteria would be the same as 
those used to determine which States qualify for Hazard Elimination 
Program funds.
    If a State was eligible to receive these funds, the State would 
designate who would receive the new Integrated Safety Fund allocation 
which would be used in accordance with the rules of each eligible 
program proposed to be funded (i.e., Infrastructure, Section 402, or 
MCSAP). We anticipate that the decision as to whether or not, and if so 
what amount of funding, to transfer from the Surface Transportation 
Program or Hazard Elimination Program to another non-infrastructure 
program would be made by the State agency controlling those dollars--
namely the department of transportation or State highway agency.
    This new Integrated Safety Fund, in addition to providing a new 
source of traffic, highway, and motor carrier safety funds to 
qualifying States, would also provide an incentive to the States to 
address emerging problems presented by aggressive drivers and older 
drivers.
    However, we must be mindful of the fact that there are different 
requirements for different types of roads. Scenic byways, for example, 
are existing roads used by local residents, commercial traffic, and by 
those who travel purely for pleasure, recreation, and education. The 
distinctive, appealing, characteristics of these types of roads would 
be completely lost if they were straightened, widened, and turned into 
thoroughfares. All users need to travel at speeds appropriate for the 
type of road on which they are traveling and respect the diversity of 
our highway system.
                          motor carrier safety
    Ensuring safe motor carrier transportation is an important part of 
our overall efforts to improve highway safety. Healthy economic growth 
and logistical innovations like just-in-time delivery have spurred 
significant increases in truck travel and been a boon for the trucking 
industry. However, for the sake of all Americans--for the general 
motoring public as well as truck drivers--it is essential that we 
continually focus on enhancing truck safety.
    Fortunately, there is a strong foundation for these efforts in the 
Motor Carrier Safety Assistance Program (MCSAP). All States now 
participate in MCSAP and as a result have adopted and currently enforce 
uniform minimum safety standards for interstate commercial vehicles. 
Working together under this program, the FHWA and the States have 
developed uniform inspection procedures, data exchange, and training. 
Each year, over 8,000 State enforcement officers conduct almost 2 
million uniform roadside commercial driver and vehicle inspections and 
traffic enforcement stops, as well as almost 9,000 onsite safety 
reviews of trucking companies. The FHWA collects, analyzes, and shares 
safety and enforcement data with all States to target unsafe carriers 
for enforcement.
    Just recently, an FHWA enforcement action resulted in a one million 
dollar fine for the motor carrier responsible for a tragic propane 
crash in White Plains, New York. In that case, FHWA investigators found 
that the truck driver had been on duty for more than 35 hours without 
being off duty for eight consecutive hours as required.
    The States and the FHWA Office of Motor Carriers are working 
cooperatively to enhance efficiency in enforcement as well. Idaho and 
Montana have established a joint port of entry on Interstate 90, saving 
on both personnel and operating costs. From this facility, Idaho and 
Montana conduct safety inspections, permitting, and truck size and 
weight enforcement for traffic flowing both ways and investigators are 
sworn safety officers in both states.
    As a result of this Federal/State partnership and the efforts of 
the motor carrier industry to make safety a priority, great strides 
have been made in the overall safety of motor carriers. From 1985 to 
1995, truck safety improved substantially, out pacing even the 
substantial increases made in overall highway safety. For that period, 
fatalities in large truck crashes declined by 12 percent, and fatality 
rates declined by 35 percent. Nonetheless, the current level of truck-
related fatalities is still unacceptable, and there is concern that our 
safety gains may be leveling off.
    To reduce the crash rate dramatically, Federal motor carrier safety 
programs must be more focused to channel resources strategically to 
measures that give us the highest payoff in reducing crashes. In line 
with Vice President Gore's reinvention initiatives, improvements in 
motor carrier safety demand that we restructure and re-engineer our 
programs to focus on results. Thus, we propose in NEXTEA to emphasize 
results, rather than the number of activities performed, to strengthen 
our fundamental enforcement safety programs, which include roadside 
inspections, carrier reviews, enforcement, education, and outreach. 
Under this performance-based approach, we will ask the States to 
identify their most significant safety problems and create incentives 
for them to address these problems. We will help States develop their 
own unique benchmarks for evaluating their programs and measuring their 
success.
    In encouraging the development of performance-based programs, FHWA 
is focusing on the ten States (CA, NY, FL, GA, IL, MI, NC, OH, PA, and 
TX) where nearly half of the fatal large truck crashes in the Nation 
occur. The FHWA will work with these States to analyze crash data and 
jointly develop countermeasures with the goal of reducing the 
proportion of crashes in those States within 2 years. To further this 
effort, in New York, the State police are emphasizing strong traffic 
enforcement at high crash corridors. Likewise, California is stepping 
up enforcement by focusing on the three top causes of crashes in that 
State: speeding, unsafe lane changes, and following too closely. To 
ensure that this 10-State effort addresses safety in a comprehensive 
fashion, NHTSA and FHWA have joined together to look at all safety 
measures that may be important to use.
    Oregon provides a good example of how performance-based strategies 
can work. From 1993 to 1995, fatigue-related crashes doubled for 
Oregon-based carriers and nearly tripled for out-of-state carriers. In 
response, Oregon established a goal of reducing fatigue-related 
commercial crashes by 10 percent in 1997 through several strategies.
    Initially, they are identifying carriers whose drivers show a high 
rate of involvement in fatigue- related crashes and conducting safety 
compliance reviews of these carriers. They are also targeting increased 
inspections and enforcement of hours-of-service requirements on those 
highways where fatigue has proven to be a primary cause of crashes. 
Other States will be informed about carriers based in their States that 
are involved in fatigue-related crashes in Oregon. In addition, Oregon 
has established regular monitoring procedures and benchmarks to measure 
the State's progress toward meeting its goal.
    To maintain the improvements to motor carrier safety and continue 
these successful initiatives, NEXTEA proposes that $100 million be 
authorized annually for the National Motor Carrier Safety Program. This 
$100 million would be used to fund two main components of the program. 
Motor Carrier Safety Assistance Program (MCSAP) grants to States would 
be funded at $83 million, and a program would be created to fund 
information systems, safety program and data analysis, and driver 
program activities at $17 million.
    MCSAP would include funding for basic enforcement and performance 
incentive grants, as well as high priority activities, such as border 
enforcement and other projects that benefit all States. Our goal is for 
all States to implement the performance-based approach in 6 years.
    We cannot identify our most significant safety problems and measure 
our progress without improving our information systems and analysis. In 
the past, fiscal support for these activities has been pieced together 
from a variety of sources, but the Department is now seeking a 
separate, dedicated source of funding at $17 million. The funds would 
be flexible and available for grants or cooperative agreements with the 
States or others or for in-house improvements to information systems 
and analysis. This category of funds would also support Commercial 
Vehicle Information System (CVIS) implementation on a national basis as 
well as driver improvement programs.
    An important aspect of truck safety relates to the size and weight 
of trucks. Under the direction of Secretary Slater when he was Federal 
Highway Administrator, we initiated a comprehensive truck size and 
weight study in 1994. Several decades had passed since truck size and 
weight had been last studied and in the meantime many factors ranging 
from deregulation to global competition to technological advances have 
changed the way that transportation markets work. Since the last study, 
we have learned more about vehicle dynamics and truck safety, and it 
was clearly time for a comprehensive re-examination of issues related 
to truck size and weight.
    The study, now underway, is focusing on a wide range of complex and 
interrelated issues. Safety is a principal concern, and in this regard 
we are mindful of recent legislative proposals to restore uniformity to 
truck size and weight policy and to address truck safety on the NHS. We 
hope that the results will assist in consideration of these proposals. 
Accordingly, we hope to provide Congress with a draft document by the 
end of May that presents the current state of knowledge regarding heavy 
vehicle weight and configuration issues. In addition, by mid-June, we 
will have developed an array of analytical tools for assessing the 
impact of different truck size and weight legislative initiatives on 
many factors, including safety, infrastructure preservation, traffic 
operations, and truck/rail competition. By facilitating the analysis of 
alternative scenarios, our goal is to provide Congress and other 
decisionmakers with a means to examine the various truck size and 
weight issues.
                   intelligent transportation systems
    The development of intelligent transportation systems (ITS) can 
greatly improve transportation safety. If all vehicles were equipped 
with just three of the primary ITS crash avoidance systems--rear-end, 
roadway departure, and lane change/merge--it has been estimated that 
1.2 million crashes (one out of every six) could be prevented annually. 
This would save thousands of lives and $26 billion per year. That 
improvement would return motor vehicle fatalities to their lowest point 
since World War II. To encourage the further development of ITS-based 
improvements to transportation safety, our NEXTEA proposal includes a 
research and technology component that would continue the ITS research 
efforts begun under ISTEA and would support the deployment of basic ITS 
infrastructure through standards development, training, and technology 
transfer. This provision would support, in particular, the development 
and testing of the Intelligent Vehicle Initiative, which will 
incorporate the work on collision avoidance and vehicle control that 
the NHTSA has launched, as well as the long-term vehicle/highway 
research that has been carried out by the FHWA under the Automated 
Highway Systems program. NEXTEA would also establish deployment 
incentives for the further development of ITS infrastructure 
technologies by providing seed funding to State and local applicants to 
support integration (not components) of metropolitan area travel 
management system infrastructure, intelligent infrastructure elements 
in rural areas, and the deployment of commercial vehicle information 
systems and networks within States and at border crossings. Finally, in 
NEXTEA, we are proposing a series of legislative changes that would 
enable and enhance the mainstream deployment of ITS infrastructure 
using existing Federal-aid surface transportation funds.
    In metropolitan areas, deployment of ITS technology can help 
improve the overall safety of the transportation system in many ways. 
Effectively operated freeway and surface street traffic management 
systems help reduce congestion and smooth traffic flow, resulting in 
decreased accidents under congested conditions. Traffic management 
systems can also be integrated with other existing safety systems, such 
as railroad-grade crossing warning systems, to provide enhanced levels 
of safety at these locations. In addition, effective incident 
management programs, particularly when linked directly to the dispatch 
systems operated by emergency service providers (such as police and 
fire agencies), can result in quicker detection and more effective 
responses to a wide range of incidents, including those involving 
disabled vehicles, accidents, and hazardous material spills. The 
duration of these incidents can be significantly reduced, as can the 
exposure of motorists and rescue workers to potentially dangerous 
conditions.
    The application of ITS technology to rural roads can significantly 
enhance public safety as well. By definition, rural travel occurs in 
remote areas where the challenges of warning travelers about weather 
conditions, road conditions, or incidents are exacerbated. Rural roads 
account for 79 percent of the public road mileage, and 39 percent of 
vehicle-miles traveled in the United States; 56 percent of fatal 
crashes occur on these rural roads. The application of ITS to rural 
roads could greatly decrease the number of lives lost by providing 
information and communication services to travelers, law enforcement 
agencies, and emergency services providers. If a crash occurs in a 
rural area, travelers can currently expect emergency response times to 
be double that of urban travelers. ITS applications--such as automatic 
MAYDAY devices installed in vehicles--can significantly cut response 
times and consequently increase crash victims' chances of survival. 
Another rural application of ITS to improve public safety is the Road 
Weather Information System which provides real-time data on weather and 
pavement conditions. The system also provides thermal maps of roadways 
and pavement temperature forecasts to allow transportation officials to 
provide motorists with accurate, real-time information on weather and 
roadway conditions during winter travel months. Equally important are 
the automated wind warnings generated to restrict travel in high-wind 
areas. Through these systems, roadway condition information is 
transmitted to motorists via variable message signs, highway advisory 
radio, and in partnership with local television stations.
    The safety of commercial motor vehicle operations can also be 
greatly improved through ITS applications. For example, the Commercial 
Vehicle Information Systems and Network (CVISN) projects currently 
being deployed will link information systems to provide roadside 
inspectors with ready access to more information on which to base 
enforcement decisions. This will enable enforcement personnel to 
concentrate their efforts on motor carriers that may not be in 
compliance with critical safety regulations. Pilot projects to develop 
the CVISN are currently being conducted in California, Colorado, 
Connecticut, Kentucky, Maryland, Michigan, Missouri, Washington/Oregon 
(joint effort), and Virginia. Just recently, Virginia was approved for 
$400,000 in Federal ITS/CVO funding for its project--in addition to the 
$600,000 provided in May 1996. In addition, other ITS technologies are 
being developed to enhance commercial motor vehicle safety including 
the use of on-board safety diagnostics for both the vehicle and driver 
as well as automated roadside inspection systems, for example, advanced 
brake testing devices.
    These are just a few examples of ITS technologies and the safety 
benefits they can provide to urban and rural communities. We look 
forward to building on the ITS accomplishments of ISTEA through the 
proposals for reauthorization included in NEXTEA. These reauthorization 
proposals would emphasize both researching and deploying ITS 
applications to enhance transportation safety while also providing the 
public with an increased level of service and convenience.
    In addition to ITS research, development, and technology research, 
NEXTEA calls for enhanced research, development, and technology in 
pavements, structures, and safety, all of which have safety payoff 
benefits.
                     international border crossings
    The NEXTEA also would address concerns of safety and efficiency at 
our international border crossings, through the proposed Trade Corridor 
and Border Gateway Pilot Program, a new ITS deployment program, and 
increased funding for the Interstate Maintenance, National Highway 
System, and Surface Transportation Programs.
    The Trade Corridor and Border Gateway program would provide 
planning funds for multistate corridor and binational trade 
transportation planning, and program funds for efficiency and safety 
improvements to border crossings and border approaches. These corridor 
and border elements are combined within a single program in recognition 
of the systemic nature of international trade transportation issues. 
The Program is authorized at $45,000,000 per year. This program brings 
together several planning and program elements designed to facilitate 
multistate and binational transportation efforts, and provide 
supplemental funding to assist border States and communities in 
addressing the efficiency and safety related transport challenges 
imposed by increasing levels of cross border traffic and international 
trade development.
    In addition to supplemental planning funds for multistate and 
binational planning, the program authorized a new discretionary 
program, available to the States or other implementing authorities to 
improve the safety and efficiency of international border gateways, 
through a combination of infrastructure, operational, institutional, 
and/or regulatory improvements. Grants would be based on several 
criteria: (1) reduction in travel time through the gateway; (2) 
leveraging of Federal funds; (3) improvements in vehicle and cargo 
safety; (4) degree of binational involvement and cooperation, including 
cooperation with the Federal Inspection Services (Customs, INS, USDA, 
etc); (5) innovation and transferability to other gateways; (6) local 
commitment to sustain the effort; and (7) full use of existing 
facilities prior to any new construction. The program facilitates 
corridor development and border planning, and addressing the transport 
impacts of NAFTA implementation and international trade growth. It 
provides supplementary planning and program support to coalitions of 
States and our transport and economic development partners to encourage 
innovation and cooperation in dealing with these efficiency and safety 
related issues.
    With regard to the U.S.-Mexican border, there is an on-going 
dispute regarding freight truck traffic stemming from Mexico's 
prohibition against operations by foreign truckers on Mexican highways. 
On September 20, 1982, in response to these restrictions, the Congress 
imposed a moratorium on the issuance of new grants of U.S. operating 
authority by the Interstate Commerce Commission to Mexican motor 
carriers. Under the moratorium, which has been renewed regularly, 
Mexican trucking companies are restricted to operations in the U.S. 
commercial zones along the U.S.-Mexico border. NAFTA created a 
timetable for the phased removal of barriers to the provision of motor 
carrier service between the NAFTA countries with December 18, 1995 as 
the date by which the United States and Mexico were to permit access to 
each other's border States for motor carriers of the other country. On 
that date, however, the Administration announced that it would not 
implement the truck access provision on schedule because of safety and 
security concerns. Since then, the U.S. and Mexico have engaged in 
extensive consultations to develop a safety compliance and enforcement 
program in Mexico that would ensure safe cross-border operations. We 
have made considerable progress in these discussions, and are confident 
that Mexico's actions, in addition to actions we have taken in the U.S. 
to enhance and improve Federal and State enforcement programs, will 
provide the foundation needed for implementation of NAFTA's trucking 
provisions in the months to come.
                               conclusion
    As the foregoing descriptions of our efforts under ISTEA show, the 
Department and particularly the FHWA and NHTSA, have made improving 
highway safety their utmost priority. Through the safety programs and 
funds provided under ISTEA, we have been able to significantly decrease 
the number of deaths and the degree of serious injuries resulting from 
crashes on our highway system. The Administration's reauthorization 
proposal is designed to further these safety gains by, for example, 
aggressively encouraging increased seat belt use and by funding 
integrated approaches to emerging problems, such as increasingly 
aggressive driving, that coordinate driver, vehicle, and roadway 
responses to the safety risks posed by these new problems. Members of 
this committee have demonstrated their strong commitment to 
transportation safety in the past. Now, we ask that you take the next 
step by acting on our NEXTEA proposals to significantly further our 
common goal of improved highway safety. We are aware that the members 
of this committee have pressing safety concerns and we look forward to 
working together with you to ensure that our Nation's highways are the 
safest possible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Statement of Anthony R. Kane, Executive Director, Federal Highway 
              Administration, Department of Transportation
    Good morning Mr. Chairman, members of the Committee. Accompanying 
me today is Mr. George L. Reagle, the Associate Administrator for Motor 
Carriers at the Federal Highway Administration. I would like to 
highlight five additional points regarding the Administration's 
reauthorization proposal.
1. Infrastructure Needs. There are mounting highway infrastructure 
        needs in rural and urban areas and in new growth areas, 
        including increasing border infrastructure requirements. 
        Investments for the future are needed in both the physical 
        infrastructure as well as the communications infrastructure 
        that must be overlaid across today's roadways. Both types of 
        investment are important for safety and both are covered in our 
        reauthorization proposal. In addition to targeted safety 
        programs, our proposed 40 percent increase in the National 
        Highway System (NHS), Interstate maintenance, and Surface 
        Transportation Program authorizations clearly have significant 
        safety benefits.
2. Infrastructure Safety Program. We propose a new stand alone 
        infrastructure safety program that is funded at a higher level 
        over the life of NEXTEA than compared to ISTEA, is more 
        flexible, and has been simplified from today's Surface 
        Transportation Program set aside. The hazard elimination 
        component provides funding for any public road off the 
        Interstate the roads which account for 9110 fatal crashes---to 
        address such needed measures as guard rails, pavement markings, 
        breakaway signs and geometric improvements. The rail grade 
        crossing component has also increased over today's level and 
        has increased flexibility than today's program.
3. Motor Carriers. We have made great gains in Motor Carrier Safety--
        from 1985 to 1995 fatalities in large truck crashes decreased 
        12 percent and the fatality rate declined 35 percent. We need 
        to continue to advance our gains and we propose an increase in 
        funding for motor carrier program to $100M per year--$83M for 
        Motor Carrier Safety Assistance Program (MCSAP) grants, which 
        will become completely performance-based by the end of the 
        authorization period. A portion of the MCSAP grants will help 
        fund priorities such as border enforcement. We propose $17M for 
        grants, cooperative agreements, and Federal activities in 
        safety information systems, including the comprehensive 
        Commercial Vehicle Information Systems (CVIS), data analysis 
        and program analysis---all directed toward achieving en handed 
        safety performance. This is the ``heart'' of our enforcement 
        program because it provides the information and analysis we use 
        to target the highest risk performers and to identify safety 
        problems.
4. Flexibility and Incentives. Our proposal has several safety features 
        that offer more flexibility and incentives to the States:
    a) a new $50M/year Integrated Safety Fund available to States with 
a comprehensive safety planning process---Funds can be used to enhance 
the MCSAP grants, the National Highway Safety Trnnsportation 
Administration (NHTSA) Section 402 program funds, contained in the 
NHTSA budget or the Safety Infrastructure Program.
    b) Expanded Surface Transportation Program (STP) eligibility for 
motor carrier or section 4021 project use.
    c) The Safety Hazard Elimination funds can be used for Section 402 
or MCSAP if a State has a good integrated Safety Planning Process.
    d) The Rail Grade Crossing Program targets funding to where the 
crossing problems are and provides for expanded eligibilities, such as 
education and enforcement to deal with non- compliance with active 
crossing devices.
5. Intelligent Transportation Systems (ITS). Our proposal calls for 
        both increased funding for research and development as well as 
        a new $100M/year deployment incentive program. This will enable 
        us to advance the Intelligent Vehicle Initiative--a safety 
        oriented effort focusing on such activities as collision 
        avoidance systems; and, to advance the deployment of safety ITS 
        uses such as rural MAYDAY Systems, weather related information 
        systems, integration of urban incident management and emergency 
        service systems with congestion management systems, linking 
        safety and inspection strategies into Commercial Vehicle 
        Information Systems, and addressing border safety issues.
Closing
    Thank you Mr. Chairman. We are ready for any questions today and 
offer our services for technical assistance as the legislative process 
unfolds this year.
                                 ______
                                 
   Responses by Anthony R. Kane to Additional Questions from Senator 
                                 Chafee
    Question 1: I have received letters opposing your proposal to allow 
States to transfer funding from your $500 million Infrastructure Safety 
Program focused on improving the physical safety of our nation's 
highway system to other safety programs such as the Motor Carrier 
safety program or other safety programs run by the state (e.g., drunk 
driving prevention programs). These letters assert that the States will 
transfer a large portion of the funds to these programs. To what degree 
do you think that states will take advantage of this authority?
    Response. The purpose of our proposal is to create an incentive for 
an inclusive, strategic approach to highway safety that looks at all 
aspects of the issued rivers as well as roadways--following the 
integrated approach of ISTEA. Only then should a State turn to the 
likelihood of shifting funds. We do not envision that the States will 
transfer a large amount of funds out of the Infrastructure Safety 
Program to the other highway safety initiatives. In order to be 
eligible for these funds, a State will have to demonstrate that it has 
an integrated safety planning process in place which addresses not only 
the infrastructure safety functions, but also motor carrier and the 
section 402 programs. Before a transfer of funds from the 
Infrastructure Safety Program to the motor carrier safety program or to 
the Section 402 Highway Safety Program could take place, the State 
agencies involved in this planning process would have to agree that 
such a transfer was appropriate. Given the fact that infrastructure 
safety projects are a priority in the States, and the fact that 
alternative funding for other safety programs would also be available, 
a transfer of funds toward motor carrier or other safety programs would 
more likely be made from those other sources; namely, the Surface 
Transportation Program (STP) or the newly proposed Integrated Safety 
Fund ($50 million). Since there are also other infrastructure funding 
sources for roadway safety improvements, such as the STP or National 
Highway System funds, the Department has proposed that flexibility be 
provided in the Infrastructure Safety Program to enable the States to 
supplement other highway safety programs as needed in each State.

    Question 2. At the end of 1996, there was more than $300 million of 
STP safety funding sitting unused. With the tremendous safety problems 
we have on our nation's highways, why haven't the States used all of 
the safety money they have been given over the life of ISTEA?
    Response. The Department provides the States with their entire 
portion of contract authority for the various Federal-aid construction 
programs (Interstate Maintenance, National Highway System (NHS), 
Surface Transportation (STP), safety, etc.) and a total obligation 
limitation associated with those programs. As directed by Congress, we 
give the States flexibility to use all or a portion of their contract 
authority in any one program, provided the total obligation authority 
is not exceeded. This approach provides the States with the maximum 
flexibility to run its construction program. The $310 million in 
unobligated balances of STP safety set-aside funds reflects that 
portion of the safety set-aside that the States were not able to expend 
due to obligation limitations. Nonetheless, experience has shown that 
the States are obligating funds in the STP safety set-aside at the same 
rate as they have for the total of the Federal-aid highway programs.
    It is also important to keep in mind that, in addition to the STP 
safety set-aside funds, other Federal-aid program funds support a 
significant share of all highway related expenditures. For example, 
highway safety construction projects can be funded as part of 
Interstate Maintenance, NHS, STP, Intelligent Transportation System and 
Transportation Enhancement projects. Projects that range from 
resurfacing roadways to major reconstruction projects to construction 
of new facilities, have, along with their mobility benefits, 
significant safety benefits as well.

    Question 3. The Department is working on two studies that can 
provide important information as the Congress develops the ISTEA 
reauthorization legislation -the Truck Size and Weight Study and the 
Highway Cost Allocation Study. What is the status of these reports?
    Response. Work on the Departmental Comprehensive Truck Size and 
Weight (TS&W) Study is proceeding. We have delivered an interim product 
to the Committee which will provide background information on the range 
of issues associated with this subject. This material provides an 
important component of the policy architecture that will assist the 
Congress should alternative TS&W options be deliberated. The Department 
expects to deliver by this Fall the final Study which will present an 
assessment of the likely safety, environmental, truck/rail competitive, 
traffic flow, and infrastructure impacts of a broad range of TS&W 
policy options.
                                 ______
                                 
Responses by Anthony R. Kane to Additional Questions from Senator Boxer
    Question 1. Mr. Kane, the Administration has proposed a border 
pilot program that provides about $245 million for the Nation's 14 
border states. Is this the amount our states have told you they need? I 
understand that just California and Texas combined have $2 billion 
dollars in need for border improvements.
    Response. No, the proposed amount of funding for this program does 
not represent the total amount of funding needed by the States. The 
Trade Corridor and Border Gateway Pilot Program is designed to leverage 
Federal funding and to attract new State, local and private funding. 
This is intended to enable and encourage State and local officials to 
work cooperatively with their Mexican and Canadian counterparts, 
appropriate border enforcement agencies, the private sector, and the 
Federal Government to develop comprehensive plans and programs to 
improve gateway efficiency and safety.
    The proposed program is authorized at $45 million annually through 
the NEXTEA reauthorization period. However, funds available through 
other Federal-aid programs, notably the National Highway System 
Program, the Surface Transportation Program, the CMAQ Program, and the 
Bridge Program, the ITS Program (both research and deployment) and the 
SIB and proposed Credit Programs, can also be applied in conjunction 
with Border Pilot Program funds, to support more comprehensive and 
costly border improvement programs, if the affected States and MPO's 
believe this to be a high priority.

    Question 2. Mr. Kane, the binational planning grants and incentives 
to improve efficiencies at the border as proposed in the Administration 
bill should be part of any program that this subcommittee eventually 
proposes for the next ISTEA. Do you think that with additional funding 
there could be ways to expand the Administration's program?
    Response. The Administration's proposed total level of funding for 
border crossing and trade corridor incentive grants is $45 million per 
year, including both the planning elements for trade corridors and 
binational planning, and the capital element, authorized for border 
gateway improvements. As with most transportation programs, additional 
funding could increase the total available for these activities. 
However, given the constraints of balancing the budget and competition 
from other transportation programs, the Administration believes that 
the proposed funding level represents the best balance of funding 
achievable. In addition, as noted in the previous question, funds 
available through other Federal-aid programs can also be applied in 
conjunction with Trade Corridor and Border Gateway Pilot Program funds, 
if the States believe this to be a priority.
   potential savings due to standard enforcement safety belt use laws

                              A. Potential in States with Secondary Enforcement Laws (plus New Hampshire, which has no law)
                                                    Fatalities and Injuries Which Could Be Prevented
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                     Fatal                          AIS 2-5                         AIS 1
              State                 Injuries      Cost Savings      Injuries     Cost Savings      Injuries     Cost Savings          Total Savings
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.........................           87         $56,727,219        741         $34,435,011        585          $1,742,715              $92,9O4,945
Alaska..........................            9          $8,263,125        100          $6,548,700         72            $302,040              $15,113,865
Arizona.........................           53         $39,811,026        812         $39,77O,136        558          $1,749,868              $41,331,050
Arkansas........................           43         $26,560,111        315         $13,862,520        248            $699,856              $41,122,487
Colorado........................           39         $31,755,633        572         $33,242,924        462          $1,719,102              $66,717,659
Delaware........................           12         $10,221,636        137          $8,301,515        105            $412,552              $15,935,703
District of Columbia............            3          $3,070,8O6        125          $9,149,875        108            $505,116              $12,725,797
Florida.........................          158        $124,883,450      2,251        $126,886,870      1,852          $6,687,572             $258,439,892
Idaho...........................           18         $11,607,210        171          $7,627,525        138            $406,548              $19,841,283
Illinois........................          107         $93,280,460      2,029        $126,171,336      1,605          $6,392,715             $225,844,511
Indiana.........................           67         $48,290,652        934         $47,987,052        767          $2,525,731              $98,803,435
Kansas..........................           35         $27,128,255        506         $27,995,968        366          $1,296,372              $56,420,595
Kentucky........................           59         $38,375,901        776         $35,999,416        688          $2,044,736              $76,420,053
Maine...........................           13          $9,421,775        218         $11,264,060        202            $669,024              $21,354,860
Maryland........................           57         $s2,697,526      1,176         $77,544,264        872          $3,683,328             $133,925,118
Massachusetts...................           27         $25,889,706        710         $48,664,710        698          $3,057,938              $77,512,354
Michigan (1)....................           94         $73,534,696      1,612         $89,946,376      1,349          $4,821,326             $168,302,398
Minnesota.......................           94         $38,393,472        685         $39,101,170        566          $2,068,730              $79,563,372
Mississippi.....................           49         $27,368,754        350         $13,953,100        337            $860,024              $42,181,878
Missouri........................           83         $62,011,375      1,012         $53,948,708        720          $2,458,080             $118,418,163
Montana (1).....................           15         $10,080,195        112          $5,380,704         78            $239,538              $15,700,437
Nebraska........................           20         $14.958,500        302         $16,108,680        279            $953,343              $32,020,523
Nevada (1)......................           20         $16,061,200        211         $12,048,733        154            $565,026              $28,674,959
New Hampshire (2)...............            8          $7,018,964         90          $5,620,950         78            $312,702              $12,952,636
New Jersey......................           52         $55,263,312      1,713        $129,850,539      1,349          $6,550,744             $191,664,595
North Dakota....................            5          $3,368,060         57          $2,719,356         52            $160,056               $6,247,472
Ohio............................          112         $84,036,064      2,619        $140,103,405      2,150          $7,370,200             $231,509,669
Oklahoma........................           42         $27,821,850        516         $24,350,040        431          $1,304,637              $53,476,527
Pennsylvania (1)................          120         $96,079,560      1,784        $101,869,968      1,429          $5,227,282             $203,176,810
Rhode Island....................            4          $3,154,708        101          $5,693,067        100            $360,400               $9,208,175
South Carolina..................           59         $38,092,996        565         $26,013,165        471           $1389,450              $65,495,611
South Dakota....................           11          $7,550,367        104          $5,078,320         91            $285,376              $12,914,063
Tennessee.......................          100         $68,320,000      1,167         $56,835,234        937          $2,295,314             $128,080,548
Utah............................           18         $10.945,584        267         $11,591,004        217            $603,043              $23,139,631
Vermont.........................            8          $5,945,040         88          $4,684,680         75            $254,700              $10,884,420
Virginia........................           81         $67,766,301      1,102         $65,749,728        791          $3,023,993             $136,540,022
Washington (1)..................            4          $3,256,988         70          $4,061,470         49            $182,329               $7,500,787
West Virginia...................           31         $18,404,855        361         $15,302,429        333            $903,429              $34,610,713
Wisconsin.......................           56         $42,331,240        811         $43,735,608        654          $2,258,916              $88,325,765
Wyoming (1).....................           11          $7,884,371         79          $4,071,344         54            $176,850              $12,132,565
Subtotals.......................        1,843      $1,397,612,964     27,351      $1,533,371,660     22,070         $79,150,721           $3,010,135,345
--------------------------------------------------------------------------------------------------------------------------------------------------------
Notes. (1) estimates are based on expected 15 percentage point increase in usage for states with secondary law.
(2) potential increases in states with usage rates of 71 percent or greater were ``capped'' at 85 percent.
(3) New Hampshire has no law so potential increases may well be higher than 15 percentage points.


                                  B. Estimated Savings Already Obtained In States Which Have Standard Enforcement Laws
                                                    Fatalities and Injuries Which Could Be Prevented
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                     Fatal                          AIS 2-5                         AIS 1
              State                 Injuries      Cost Savings      Injuries     Cost Savings      Injuries     Cost Savings          Total Savings
--------------------------------------------------------------------------------------------------------------------------------------------------------
California......................          229        $200,041,044      2,730        $170,813,370      1,971          $7,901,739             $378,756,153
Connecticut.....................           14         $15,169,448        312         $24,092,952        238          $1,178,338              $40,440,738
Hawaii..........................            7          $6,242,292         99          $6,255,612         64            $260,800              $12,758,704
Iowa............................           27         $19,784,034        296         $15,450,608        213            $713,124              $35,947,766
Louisiana.......................           41         $26,012,737        668         $30,218,984        552          $1,600,248              $57,831,969
New Mexico......................           26         $16,163,472        238         $10,541,258        163            $463,083              $27,167,813
New York........................           77         $72,418,423      1,990        $133,451,390      1,542          $6,625,974             $212,495,787
North Carolina..................           75         $52,258,800      1,112         $55,253,056        837          $2,665,008             $110,176,864
Oregon..........................           30         $22,102,140        314         $16,496,932        220            $740,520              $39,339,592
Texas...........................          169        $122,483,088      2,462        $127,213,926      1,739          $5,759,568             $255,461,582
Subtotals.......................          694        $552,675,478     10,221        $589,793,088      7,539         $27,908,402           $1,170,376,968
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note: These estimates assume a 10 percentage point drop in cunnt usage rates if the law were downgraded.


                             C. Estimated Savings Yet to be Realized In Georgia Which Recently Enacted Standard Enforcement
                                                    Fatalities and Injuries Which Could Be Prevented
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                     Fatal                          AIS 2-5                         AIS 1
              State                 Injuries      Cost Savings      Injuries     Cost Savings      Injuries     Cost Savings          Total Savings
--------------------------------------------------------------------------------------------------------------------------------------------------------
Georgia.........................           92         $66,897,708      1,185         $61,454,100        990          $3,289,770             $131,641,578
Totals..........................        2,629      $2,017,186,150     38,757      $2,184,618,848     30,589        $110,348,893           $4,312,153,891
--------------------------------------------------------------------------------------------------------------------------------------------------------

   Background and Assumptions for Estimating the Impact of Standard 
                            Enforcement Laws

Background
    Safety belt use laws prevent thousands of deaths and usuries each 
year. States with standard enforcement laws allow police officers to 
issue citations upon observing a belt use violation. States with 
secondary enforcement laws require that another violation must be 
observed before an officer can stop and cite a driver (or other 
occupant) for failure to buckle up.
    In general, states with standard enforcement laws have observed 
usage rates about 15 percentage points higher from states with 
secondary enforcement laws. Two states (California and Louisiana) 
recently upgraded their laws to allow for standard enforcement and 
experienced increases of 13 and 17 percentage points, respectively. 
Usually, such impact is measured by subtracting the usage rate in the 
last full year prior to the law from the first Fill year after the 
law's implementation.
    Based on (a) the historical difference between observed usage in 
standard versus secondary law states and (b) the more limited 
experience with law upgrades, NHTSA estimates that a state which 
upgrades its law will experience an increase in observed belt usage of 
about 15 percentage points. For example, it is estimated that a state 
with a usage rate of 60 percent will experience an increase in usage to 
75 percent. Impact may vary from state to state. As more states upgrade 
their laws, we may gain additional information and change our estimate 
of impact.
Assumptions
    Attached are state-by-state estimates of additional deaths, 
injuries, and societal costs which would be prevented annually for 
states which upgrade from secondary to standard enforcement laws and 
experience an estimated 15 percentage point increase observed safety 
belt use. Also included are estimates of additional deaths, injuries 
and societal costs already being prevented by states with standard 
enforcement laws, over and above the savings which would be expected 
from having secondary enforcement laws.
    Each of the state estimates was calculated using a software program 
called Beltuse, which was designed by NHTSA to aid states and 
communities in determining the impact of changes in statewide or 
community-wide safety belt usage rates. This program includes a 1992 
fatality data base, which can be used as a baseline from which to 
measure changes in dualities, injures and societal costs.
    For states with secondary laws, estimates of future usage were 
derived by adding 15 percentage points to the states' most recent 
(usually 1996) observation survey. Based on the current U.S. experience 
in primary law states, future use rates were ``capped'' at 85 percent 
for states with current usage rates of 71 percent or above. For states 
which already have a standard enforcement law, it was estimated that 
current usage was, on average, 10 percentage points higher then if the 
state had only a secondary law. This is because usage in severe of 
these states has declined slightly as a result of a lack of enforcement 
and public information activity.
Additional Notes
    Again, the estimated changes in fatalities are from 1992 fatality 
levels. Use of 1995 fatality levels would result in slightly higher 
numbers for most states. However, since most states have been using the 
1992 numbers (contained within the program) to estimate impact, it was 
decided to use these same numbers until a revised Beltuse program is 
released later this year. The new program will use 1995 fatality 
figures as a baseline.
    Estimated changes in non-fatal injury crashes are based on an 
analysis of the historical relationship between injuries and 
fatalities. Injury data are categorized by severity level, using an 
Abbreviated Injury Scale (AIS). Fatalities are classified as AIS-6 
injures. Non-fatal injuries range from minor (AIS-1) to severe (AIS-5). 
In addition to calculating savings related to fatal injuries, savings 
are calculated for minor (AIS-1) injuries and moderate-to-severe (AIS-
2) injuries.
    It is necessary to differentiate injuries categories because the 
effectiveness of safety belts (when worn) varies according to injury 
severity. Safety belts are estimated to be 45 percent effective in 
reducing fatalities; 50 percent effective in reducing moderate-to-
severe injuries; and 10 percent effective in reducing minor injuries.
    Societal cost savings are calculated by the Beltuse program for 
fatalities and for each level of injury. These estimated savings refer 
to lifetime costs, which are costs (in 1996 dollars) win be borne by 
society, over the remaining lives of the persons injured during the 
year in question. The components of these estimates are medical costs, 
lost product, and other injury-related costs.
    Beltuse also includes an estimate of non-reported crashes and an 
adjustment for locality cost differences.
                               __________
    Statement of Richard D. Crabtree, President and Chief Operating 
              Officer, Nationwide Mutual Insurance Company
    Good morning, my name is Richard Crabtree. I am President and Chief 
Operatingfficer of the Nationwide Mutual Insurance Company. Nationwide 
is headquartered in Columbus, Ohio and is the fourth largest writer of 
automobile insurance in the country. I am here this morning in my 
capacity as co-chair of Advocates for Highway and Auto Safety 
(Advocates) Board of Directors. This morning I will share my time as a 
witness with a former co-chair of Advocates and current co-chair of 
Advocates' program committee, Joan Claybrook. Ms. Claybrook is the 
President of Public Citizen which is a nonprofit citizen research, 
lobbying and litigation organization based in Washington, D.C. with 
125,000 members nationwide.
    Advocates is a coalition of consumer, health, safety, law 
enforcement and insurance companies, organizations, and agents working 
together to support the adoption of laws and programs to reduce deaths 
and injuries on our highways. As a highway safety organization, 
Advocates is unique. We focus our efforts on all areas affecting 
highway and auto safety--the roadway, the vehicle, and the driver. 
Founded in 1989, Advocates has a long history of working closely with 
the Committee on Environment and Public Works in the development of 
Federal legislative policies to advance highway safety. I would also 
add that Advocates has probably worked in the state of nearly every 
Senator represented on this Committee to strengthen drunk driving laws, 
to enact occupant restraint laws, to close dangerous gaps in child 
restraint laws, and to advance other laws that make our streets and 
highways safer.
    This morning I will discuss the need for this Congress, in this 
particular legislation, the reauthorization of the Intermodal Surface 
Transportation Efficiency Act (ISTEA II), to seriously address the 
unnecessary and preventable carnage on our highways. Ms. Claybrook will 
then discuss a safety agenda that we urge this Congress to include in 
ISTEA II. Before we complete our brief remarks before you this morning, 
hundreds of motor vehicle crashes will have occurred, several 
individuals who left for work or school this morning will have died, 
and hundreds of life-threatening injuries will have required emergency 
medical care.
                            i. introduction
    Every day millions of American families leave their homes to travel 
by car to medical appointments, soccer practices, grocery stores, 
shopping malls, and libraries. Although our nation's highway system has 
created mobility opportunities that are the envy of the world, it has 
also resulted in a morbidity and mortality toll that is not.
    What if a commercial airplane crashed, not once a month, but every 
day, 7 days a week, year in and year out? What if the outbreak of a new 
flu virus resulted in the death of more than 9,000 of our children 
under the age of 21? The public outcry would be deafening and the 
response of Congress would be swift, certain, and decisive.
    In fact, the number and frequency of deaths cited in these 
hypotheticals illustrate the current statistics on death and injury due 
to motor vehicle crashes every year. Day in and day out, year in and 
year out, since the late 1970's, approximately 115 Americans will not 
return home at the end of the day. Every hour more than 400 Americans 
are taken to hospitals for serious injuries because of motor vehicle 
crashes. According to annual crash data collected by the National 
Highway Traffic Safety Administration (NHTSA), an agency of the U.S. 
Department of Transportation (U.S. DOT), nearly 42,000 people die and 
another 3.4 million Americans suffer serious injuries every year on our 
highways because of motor vehicle crashes, costing society $150 
billion, or $580 per man, woman and child.
    The death toll on our highways makes driving the No. 1 cause of 
death and injury for young people ages 5 to 27. Highway crashes cause 
94 percent of all transportation fatalities and 99 percent of all 
transportation injuries, yet traffic safety programs receive only 1 
percent of the funding of the U.S. DOT budget. The staggering loss of 
lives and the incidence of life- threatening injuries occurring each 
year is best described as a public health crisis.
                           ii. the challenge
    The cause of these deaths and injuries are reported every day in 
newspapers and on television in communities across the country--drunk 
driving, speed, aggressive driving, inexperience, and indifference to 
traffic safety laws. Although some progress had been made in the mid-
1970's and 1980's, there has been no appreciable decline in motor 
vehicle deaths and injuries in the last 5 years. By measuring fatality 
rates based on either vehicle miles traveled (VMT) or deaths per 
100,000 population, the number of Americans killed in car crashes has 
remained basically constant the past 5 years.
    Reducing motor vehicles deaths and injuries will become more 
challenging and critical as we enter the 21st century. Yesterday, in 
this hearing room Advocates, joined by Members of Congress, insurance 
representatives, medical professionals, law enforcement and victims 
held a press conference to release a new report, ``The Highway Safety 
Deficit: Who Pays and who Delays.'' This report outlines the status of 
the nation's highway safety laws across the country as a backdrop to 
the current congressional debate about reauthorization of ISTEA. Let me 
briefly summarize some key findings of the report and the safety 
obstacles in the road ahead:
    Since Congress repealed the National Maximum Speed Limit 24 states 
have speeds higher than 70 miles per hour (MPH) on rural interstates, 
with 10 states at 75 mph, and Montana having no daytime speed limits 
for cars. A troubling trend of increased deaths and injuries as a 
result of higher speed limits is emerging. New Mexico and California 
experienced fatalities and injuries on highways where speeds had been 
increased. In California, roads that retained the 55 mph speed limit 
showed a 8 percent reduction in fatal crashes. Furthermore, despite the 
higher posted speed limits, cars are traveling faster. For example, the 
Insurance Institute for Highway Safety (IIHS) studied vehicle speeds 
before and after the change in posted speed limits on highways in 
California, Texas and New Mexico. In California, on highways that had 
posted speed limits increased to 65 mph, 29 percent of vehicles were 
traveling at speeds above 70 mph. One year later, 41 percent of the 
vehicles are those highways were traveling at 70 mph or above.
    <bullet>  In the National Highway System (NHS) designation 
legislation, a Federal program encouraging states to enact all rider 
motorcycle helmet laws was repealed. Since January, 21 states that 
currently have all rider motorcycle helmet laws are considering bills 
to repeal this lifesaving law. In fact, Arkansas has the distinction of 
being the first state to repeal its law since the NHS bill was enacted. 
Texas may be the second.
    <bullet>  The United States has the lowest safety belt usage 
compared to Western European countries, Canada, Australia and New 
Zealand. To date, only 11 states and the District of Columbia have 
primary, or standard, enforcement safety belt laws. States that have 
standard enforcement laws experience, on average, a 14 percent increase 
in safety belt use rates. The NHTSA estimates that 45 percent of those 
who died without belts--12,000 people--could have been saved if they 
had used safety belts.
    <bullet>  In 1995, drunk driving deaths rose for the first time in 
a decade. Yet, only 14 states have .08 percent blood alcohol content 
(BAC) laws despite a recent study by Boston University School of Public 
Health that 500 to 600 lives would be saved annually if every state 
adopted .08 BAC.
    <bullet>  Enactment of a provision in NHS which requires states to 
enact ``zero tolerance laws,'' making it illegal for those under the 
legal drinking age of 21 to have any alcohol in their systems while 
operating a motor vehicle, has energized state action. While 26 states, 
as well as the District of Columbia, had already enacted zero tolerance 
statutes prior to passage of the Federal law, 11 additional states 
enacted bills last year and legislation is pending in six other states 
this year.
    <bullet>  Each year nearly 5,000 Americans die in truck crashes. 
According to the IIHS, in 1995, 98 percent of the people killed in two 
vehicle crashes involving passenger cars and big trucks were occupants 
of the passenger vehicles. There is nearly unanimous public support for 
a vigorous Federal leadership role in enhancing truck safety and 
limiting the size and weights of trucks.
    <bullet>  Budget cuts in previous years coupled with inflation have 
severely weakened the funding of traffic safety grants to states and 
restrained the resources of law enforcement to enforce traffic safety 
laws. In 1980, the major traffic safety grant program for states was 
funded at $196.5 million. In fiscal year 1997 it was funded at $128 
million. This reduction in funding means about a 66 percent reduction 
in the purchasing power of the funding despite the program's enormous 
benefits.
    <bullet>  According to NHTSA, teenage drivers are significantly 
over-represented in fatal crashes compared to other age groups. The 
U.S. Census Bureau estimates that in the year 2000, the youth 
population (ages 15 to 20) of this country will be 23.9 million, an 
increase of 10 percent from 1995. In the next decade, this age group is 
expected to increase by almost 17 percent.
    The good news is that effective and successful remedies are on the 
shelf already or are underway in many states and communities and are 
responsible for saving lives and preventing injuries. Stricter drunk 
driving laws, stronger safety belt laws, increased financial resources 
to fund traffic safety programs, committed and sustained enforcement of 
traffic safety laws like speed limits and red light running, 
comprehensive graduated licensing programs for .inexperienced teenage 
drivers, improved motor vehicle and truck safety requirements, and 
limits on the size and weight of big trucks are all part of the 
solution.
                   iii. national and state leadership
    In any national crisis claiming so many young lives, inflicting so 
many debilitating and costly injuries and extracting such a substantial 
personal and financial toll, the country looks to its elected leaders 
for help to advance solutions and advocate effective strategies. 
Congress has an opportunity this year to enact a road map for improving 
highway safety that will reduce deaths and injuries and save Federal 
taxpayer dollars. One of the most significant bills that Congress will 
take up in the 105th session is the reauthorization of Federal funding 
programs to support highway maintenance and construction, transit 
capital and operating programs, and traffic and motor vehicle safety 
programs.
    In 1991, Congress passed and President Bush signed into law the 
Intermodal Surface Transportation Efficiency Act, or ISTEA. In addition 
to setting highway and transit program priorities for states, urban, 
suburban and rural communities, ISTEA included an extensive highway 
safety agenda to address preventable deaths and injuries on our 
highways. For the first time in the history of the Federal highway and 
transit programs, House and Senate leaders enacted legislative 
provisions which, in total, comprised a safety agenda that resulted in 
state adoption of safety belt and all rider motorcycle helmet laws, 
safer cars and trucks, and reasonable limits on the spread of double 
and triple-trailer trucks.
    Since January, when the first session of the 105th Congress began, 
the political debate on highway funding conducted by Members of 
Congress, Administration officials, Governors, state Department of 
Transportation directors, highway construction lobbies and other 
interest groups, has centered almost exclusively on the division of 
Federal gas tax revenues between donor and donee states, the highway 
and transit funding needs of urban v. rural communities, the 
determination of what are legitimate v. illegitimate uses of trust fund 
dollars, and the on-budget v. off-budget congressional battles. Little, 
if any, of the political discourse has addressed the ``public health v. 
public harm'' effects of this legislation. Because of the large sums of 
money at stake, the political terms of the debate focus on state 
winners and losers in dollars and cents. But what about the winners and 
losers among the highway users? Which American families traveling by 
car will be protected on our highways from drunk drivers, excessive 
speeding, occupant restraint laws, big trucks and aggressive driving?
    Over the 6-year life of the reauthorization bill submitted by the 
Clinton Administration, the National Economic Crossroads Transportation 
Efficiency Act (NEXTEA), more than $170 billion in surface 
transportation spending is being proposed. However, during that same 6 
year period of highway funding, unless the tide of fatalities and 
injuries on our highways is stemmed, almost 250,000 people will die. 
This number of deaths is roughly the equivalent of the population of 
the city of Erie, Pennsylvania or Boulder, Colorado. Eighteen million 
more will be seriously injured, equal to the population of the state of 
New York or Texas, at a cost of over $900 billion, enough money to 
cover the full 4 year costs (including tuition, room and board) for 
twice the number of students currently attending a 4-year public 
university. The entire cost of the ISTEA II authorization could be 
covered if we realize just a 20 percent reduction in highway deaths and 
injuries.
                       iv. what the taxpayers say
    Last year, in anticipation of congressional consideration of the 
reauthorization of ISTEA, Advocates sought to determine what Americans 
think about specific highway and auto safety issues, policies, and 
programs. Advocates commissioned a well-known national pollster, Louis 
Harris, to survey a cross-section of the public. The results are 
compelling. The public is seriously concerned about the dangers of 
highway travel and decisive majorities support a strong Federal 
response to address highway safety. When releasing the poll results in 
September of last year, Louis Harris said, ``[i]n an era marked sharply 
by a rush to turn over many substantive areas of government and 
regulation to the states and localities in many areas, highway and auto 
safety stands out as a significant exception to the rule.''
    Despite conventional wisdom that the public wants less government 
involvement in regulatory matters, decisive majorities of Americans 
believe it is important for the government to play a strong role in 
highway and auto safety regulations.
    Key findings of the poll are:


    <bullet>  94 percent say it is important to have Federal 
regulations of car safety standards, with 77 percent stating such a 
presence is very important.
    <bullet>  91 percent assert that Federal regulation of large truck 
safety on the highways is important, with 74 percent viewing Federal 
involvement as very important.
    <bullet>  91 percent believe Federal involvement in assuring safe 
highways is important, with 78 percent saying such a role is very 
important.
    <bullet>  87 percent say it is important to have the Federal 
Government setting strict rules about food and product safety, highways 
and airline safety, and safety on the job, with 62 percent citing such 
regulation as very important.
    <bullet>  80 percent say a Federal presence is important in passing 
laws which mandate safety belt use, with 61 percent saying Federal 
involvement in this area is very important.
    <bullet>  77 percent believe it is important for the Federal 
Government to pass laws to get people to wear motorcycle helmets, with 
61 percent stating such laws are very important.
    <bullet>  73 percent say a Federal presence in controlling 
excessive speed on highways is important, with 47 percent stating this 
presence is very important.
    <bullet>  72 percent believe it is important to have the Federal 
Government setting safe speed limits, with 48 percent stating that this 
role is very important.
                        v. the safetea coalition
    One measure of how seriously Congress is addressing highway deaths 
and injuries will be found in the safety agenda advanced in ISTEA II. 
From STEP 21 to STARS 2000, from HOTTEA to NEXTEA, highway construction 
interests, elected officials and state transportation officials have 
been rallying in support and in opposition to issues such as new 
funding formulae, the need for special projects, and program structure. 
However, the true measure of this legislative initiative will be 
whether the transportation bill that leads us into the 21st century 
will advance or retreat on highway safety. Yesterday, Advocates 
participated with representatives of the medical, business, law 
enforcement and public interest communities to announce the formation 
of the SAFETEA Coalition. Attached is a list of the current members in 
this coalition. To date, more than 60 organizations from all over the 
country have come together and share the following common views.
    It is unacceptable that nearly 42,000 Americans die on our highways 
and another 3 million more are injured, costing society more than $150 
billion every year. It is unacceptable that the rate of safety belt use 
in our nation is the lowest of any industrialized nation in the world. 
It is unacceptable that each year approximately 41 percent of all motor 
vehicle fatalities involve alcohol. It is unacceptable that each year 
nearly 5,000 Americans die in truck crashes and 100,000 are injured, 
and almost all are the occupants of cars. And it is unacceptable that 
truck driver fatigue is a factor in 40 percent of all truck crashes, 
according to the National Transportation Safety Board (NTSB), yet 
trucking interests want to expand the hours of driving regulations.
    The members of the SAFETEA Coalition are the individuals who pay 
the tax at the pump and their voice is loud and clear--safety must be a 
priority in ISTEA II. According to the previously mentioned Louis 
Harris public opinion poll, nine out of ten Americans want the Federal 
Government to play a strong leadership role in highway safety, similar 
to aviation safety and food safety. In fact, Louis Harris, a man who 
has performed thousands of public opinion polls, stated, ``[t]his is 
the first comprehensive survey I have conducted on highway safety in my 
40 years as a national pollster, and I was amazed at the strong level 
of support for Federal and state measures to make our highways and cars 
safer.'' He was particularly struck by the public's sentiments in light 
of the trend of returning governance to the states.
                        vi. the safetea proposal
    Advocates and the SAFETEA Coalition support a comprehensive and 
feasible plan that needs to be included in ISTEA II and will reduce the 
human loss on our highways. This list is by no means exhaustive of the 
safety measures our nation needs to mitigate the public health crisis 
occurring on our highways. Government studies show that each year, 
traffic injuries are the principal cause of on-the-job fatalities and 
the third largest cause of all deaths in the United States. However, 
far more people are injured and survive motor vehicle crashes than die 
in these crashes. These injured persons often require medical care and 
many require long-term care and rehabilitation. For children, the 
problem is equally dramatic as motor vehicle crashes are the leading 
cause of death for children ages 6 to 14. In 1995, the 0-14 age group 
accounted for 7 percent (2,794) of all traffic fatalities. (Source: 
Presidential Initiative for Increasing Seat Belt Use Nationwide). These 
figures are particularly disturbing when considering that traffic 
``accidents'' are not accidental at all. They are preventable and 
predictable and our nation must move forward with the following 
legislative proposal to curb the number of people killed on our roads.
A. Traffic Safety Funding
    One of the most critical weapons in the battle to reduce deaths and 
injuries is adequate resources to support programs and initiatives to 
advance safety. In 1997, the entire budget for NHTSA, for both motor 
vehicle safety research and regulatory activities, as well as the 
highway traffic safety grant program for states, was just over $313 
million. This allocation represents only 1 percent of the budget of the 
entire U.S. DOT, including the Federal Aviation Administration (FAA), 
and yet, highway deaths represent 94 percent of all transportation 
fatalities and 99 percent of transportation injuries.
    The highway safety grant programs are a major tool in the effort to 
reduce deaths and injuries on the nation's highways and consequently 
reduce Federal, state and local costs. According to NHTSA studies, the 
economic benefits (not including consideration of factors for pain and 
suffering or loss of life) of traffic safety programs exceed their 
costs by a 9 to 1 ratio. Additional dollars in these programs will be 
multiplied many times in terms of benefits realized. For this reason, 
Advocates and the SAFETEA Coalition support increasing the expenditure 
of Federal resources in a number of specific areas that will reap 
tremendous benefits in terms of saving lives, reducing serious 
injuries, but also saving taxpayer dollars.
    Since the 1980's, the funding of traffic safety programs has been 
hit twice. For example, in 1980, the Section 402 traffic safety grant 
program, a state formula grant-in-aid program, was funded at $196.5 
million. For fiscal year 1997 it was funded at $128 million. Not only 
has this program witnessed a significant drop in funding, but the 
effects of inflation have also dramatically cut the purchasing power of 
this program. The 1980 funding level of $196.5 million is equal to 
about $377 million in 1997 dollars. Thus traffic safety programs have 
endured a 66 percent reduction in purchasing power.
    In addition to supporting the funding increases recommended by the 
U.S. DOT in its NEXTEA proposal, Advocates supports a sustained and 
stable funding program for targeted traffic enforcement initiatives. 
Advocates and the SAFETEA Coalition urge the Senate to provide a half 
cent from the sale of every gallon of gasoline for safety programs. 
This would result in approximately $600 million for a variety of 
highway safety efforts. The $600 million is a small price tag for the 
$150 billion we all pay every year because of the nearly 42,000 deaths 
and more than 3 million serious injuries on our highways.
    If a half cent is dedicated to traffic safety programs by this 
Congress, it will significantly help address the problems of aggressive 
driving, drunk driving, safety belt use, excessive speeding, and red 
light running. The result will be a safer driving environment for our 
families. These proposals include:


    <bullet>  $150 million for a national safety belt enforcement 
program modeled after the ``Click It or Ticket'' effort in North 
Carolina. Every state would benefit from the success of this program in 
increasing safety belt use.
    <bullet>  $150 million for states to use in the enforcement of all 
traffic safety laws which would begin to address the issue of 
aggressive driving. Law enforcement resources are severely strained and 
traffic safety enforcement is oftentimes a low priority. Every state 
has many of the traffic safety laws we know will reduce deaths and 
injuries, but most do not have the resources to adequately enforce 
these laws. The benefits of tough traffic enforcement go beyond safer 
streets and highways. The strict enforcement of traffic safety laws has 
payoffs in other areas of crime. I am reminded that Timothy McVeigh was 
apprehended after the Oklahoma City bombing because of a traffic 
infraction.
    <bullet>  $200 million for the Section 402 Traffic Safety Grant 
Programs. This amount is a $33 million increase over the 
Administration's recommended funding level and brings the program 
closer to the funding level it would be if cuts and inflation had not 
diminished its purchasing power.
    <bullet>  $100 million for impaired driving programs. This $60 
million increase in funding from the Administration's recommendation 
would provide the necessary financial resources to address this highway 
crime.


    The American public is gravely concerned about the dangers on our 
highways and the authorization of these increases would be a 
conservative, yet constructive, step in achieving a higher level of 
safety on our highways.
B. Safety Belts
    According to insurance and government research, safety belts are 
the most effective means of reducing fatalities and serious injuries 
when traffic crashes occur. They are estimated to save 9,500 lives in 
America each year. Research has found that lap/shoulder belts, when 
used properly, reduce the risk of fatal injury to front seat passenger 
car occupants by 45 percent and the risk of moderate-to-critical injury 
by 50 percent. For light truck occupants, safety belts reduce the risk 
of fatal injury by 60 percent and moderate-to-critical injury by 65 
percent.
    Not only do safety belts save lives and reduce injuries, but they 
also provide economic benefits. According to a NHTSA study on the 
benefits of safety belts, the average inpatient charge for unbelted 
passenger vehicle drivers admitted to a medical facility as a result of 
a crash injury was more than 55 percent greater than the average charge 
for those that were belted, $13,937 and $9,004 respectively. If all 
unbelted passenger vehicle drivers had been wearing safety belts, 
inpatient charges would have been reduced by approximately $68 million 
and actual inpatient costs reduced by $47 million. In all cases of the 
study, the average inpatient charge was greater for drivers who were 
unbelted. (Source: NHTSA, ``Report to Congress, Benefits of Safety 
Belts and Motorcycle Helmets,'' February 1996).
    Over the past decade, much of the decline in highway fatalities and 
injuries has occurred because more motorists are wearing their safety 
belts, according to NHTSA. Every state but New Hampshire has a safety 
belt use law, although only 12 have primary, or standard, enforcement 
laws, which means that law enforcement officers may issue a citation 
when they observe an unbelted driver or passenger. In the other states, 
the laws permit only secondary enforcement, which means that, unlike 
every other traffic violation, an officer can cite a motorist for a 
safety belt use violation only if the officer has already stopped the 
vehicle for another infraction, such as speeding or running a red 
light.
    Evidence in NHTSA studies proves that states with standard laws 
have significantly higher safety belt use rates and experience greater 
reductions in fatality and injury rates, compared with states that 
enact secondary laws. States with standard enforcement laws averaged 14 
percentage points higher belt use than those with secondary laws. The 
NHTSA estimates that if every state had a standard enforcement law, 
nearly 7,000 lives would be saved every year. In fact, California and 
Louisiana increased their safety belt use rate by 13 and 18 percentage 
points, respectively, by upgrading their secondary laws to standard. 
(See attached chart titled ``Potential Impact of Enacting Standard 
Enforcement Safety Belt Use Laws'' which provides a state by state 
analysis of both lives saved and economic savings.)
    it is distressing that the rate of safety belt use in the United 
States is the one of the lowest of industrialized nations. Use rates in 
Canada, Australia, and several Western European countries exceed 90 
percent, while use rates in Great Britain exceed 80 percent. Safety 
belt use laws in these countries typically allow standard enforcement 
and also cover occupants of light trucks and vans, in addition to 
automobiles. Further, fines for noncompliance are generally higher than 
in the United States, and some jurisdictions assess points against 
driver's licenses for safety belt use law violations.
    In fact, exemplary of the effectiveness of a comprehensive safety 
belt use plan is Canada's ``comprehensive special traffic enforcement 
programs (STEPs)'' Belt use rates in Canada and the United States did 
not differ markedly until the mid-1980's, when Canadian provinces began 
implementing STEPs, which are highly publicized enforcement efforts. 
When Canada decided to establish a national 95 percent safety belt use 
goal, provinces amended their laws to add driver license penalty 
points. With these penalty point provisions, belt use has risen to 92 
percent for drivers and 90 percent for front seat passengers.
    To achieve President Clinton's goal to increase national safety 
belt use to 85 percent by 2000 and 90 percent by 2005, Advocates 
believes Congress must enact the following three proposals. First, 
achieve passage of primary enforcement safety belt laws in every state 
by withholding or redirecting Federal highway funds of states without 
primary laws. Experience shows us that states are much more apt to pass 
safety laws if funding sanctions are attached. There are two prominent 
examples of the success of this method. The first one is the National 
Minimum Drinking Age, or 21 year-old drinking age, which was a 
recommendation from President Reagan's National Commission Against 
Drunk Driving. It was strongly supported by both Republican and 
Democratic Governors of states which had already enacted 21 drinking 
age laws, but shared ``blood borders'' with other states where the 
drinking age was lower. Young people would travel to those states to 
purchase and consume alcohol and then drive back, resulting in a high 
injury and death toll due to drunk driving.
    In the summer of 1984, Senator Lautenberg and Representative Howard 
shepherded legislation through Congress requiring states to enact laws 
establishing 21 as the minimum drinking age or face the loss of a 
percentage of their Federal-aid highway funds. Prior to the law's 1984 
enactment, only 16 states had established 21 as their legal drinking 
age. By fiscal year 1988, when the sanctions took effect, all 50 states 
had adopted the law. Today, the law enjoys strong public acceptance, 
even among those under 21, and is credited with having saved over 
10,000 lives. It is certain that without the Federal leadership in 
pushing for uniform adoption of a 21 year old minimum drinking age, 
blood borders would be in existence today.
    A recent example of the effectiveness of sanctions, the NHS 
legislation included a requirement that states enact zero tolerance BAC 
laws by fiscal year 1998 or be penalized 5 percent of their Federal-aid 
highway funds and 10 percent each year thereafter. While 26 states had 
already enacted zero tolerance statutes prior to passage of the Federal 
law, an additional 11 states enacted such laws last year, and 
legislation is pending in six other states this year. It is expected 
that once again all states will come into compliance before the 
sanctions take effect.
    The second proposal Advocates endorses for inclusion in ISTEA II is 
the initiation of a $100 million national safety belt enforcement 
program, similar to the successful ``Click It or Ticket'' effort 
launched in North Carolina in 1993. Appeals to ``do the right thing'' 
do not work in getting those who do not wear their belts to buckle up, 
but rather, a standard enforcement law combined with a high visibility 
enforcement plan, including checkpoints and traffic tickets for drivers 
not using their belts, proved to be a winning formula in North 
Carolina. Nearly every law enforcement agency in the state participates 
in ``Click It or Ticket,'' and the results are impressive.
    In the program's first 27 months alone, fatal and serious highway 
injuries were cut by 15 percent and taxpayers were saved more than $100 
million in health care related costs. Since the start of the program, 
law officers have held over 17,500 checkpoints and issued nearly 
130,000 safety belt and over 11,000 child safety seat citations. 
Furthermore, at checkpoints and roving patrols, law enforcement 
officers have made more than 469,000 charges for violations other than 
safety belt, child safety seat or drunken driving offenses. Officers 
are apprehending car thieves, capturing drug violators, and arresting 
fugitives who may have driven away if not for this high visibility 
enforcement of traffic laws. Another related proposal is to provide 
funds to states for the enforcement of all traffic safety laws, 
including safety belts and impaired driving laws.
    Without the necessary funding, the President's goals for use rates 
will not be achieved, and the rate of preventable deaths and injuries 
will continue to soar. Allocation of funds for enforcement of safety 
laws should be viewed as an investment, if not actually a savings, both 
in economical terms and in terms of human lives. Increasing the safety 
belt use rate from the current estimated daytime usage of 68 percent to 
the goal of the President's Initiative, 85 percent, could prevent an 
estimated 4,200 fatalities and 103,000 injuries annually. This 
reduction in injuries and deaths would result in an economic savings of 
approximately $6.7 billion annually.
C. Impaired Driving
    Approximately 2 in every 5 Americans will be involved in an 
alcohol-related crash at some time in their lives. In 1995 alone, 
17,274 people died because of alcohol-related crashes--that means an 
average of one person was killed every 30 minutes. Forty-one percent 
(41 percent) of the total traffic fatalities for the year were alcohol-
related. Additionally, more than 300,000 persons were seriously injured 
in crashes where police reported that alcohol was present--an average 
of one person injured approximately every 2 minutes. (Source: NHTSA 
Traffic Safety Facts 1995). These statistics are particularly abhorrent 
considering that there is no such thing as a ``drunk driving 
accident.'' Almost all crashes involving alcohol could have been 
avoided if the impaired person behind the wheel was sober.
    In an effort to critically examine this national public health 
crisis, Advocates, Mothers Against Drunk Driving (MADD) and Nationwide 
Insurance co-sponsored the third ``Rating the States'' report which 
surveys the nation's and each state's drunk driving policies and laws. 
The report is designed to focus attention on the problems of impaired 
driving and underage drinking, to identify what states are doing to 
address the problems, and to highlight progress made and challenges 
that remain. It is unfortunate to announce that our country received 
the grade of a `C.' One of the reasons for this low grade is that drunk 
driving fatalities increased in 1995 for the first time in a decade. 
This rise may be an indicator that our nation and the media have become 
complacent about the driving under the influence (DUI) problem. 
Additionally, improvements are needed in the testing rate of drivers 
involved in fatal or serious injury crashes. In 1995, only 68 percent 
of fatally injured drivers and 24 percent of surviving drivers were 
tested. Furthermore, no states enacted new .08 BAC laws in 1996.
    There is some good news in the fight against teenage drinking and 
driving. Despite an overall increase in alcohol-related fatalities, 
youth (ages 15-20) alcohol-related fatalities declined by almost 6 
percent. This decline occurs at a time when the population of teenage 
drivers is growing and most national surveys indicated an increase in 
teenage drinking. This welcome news may be a testament to the 
effectiveness of zero tolerance BAC laws for young drivers. As you are 
probably aware, in 1995, Congress passed the NHS bill which included a 
requirement that states enact a zero tolerance BAC law by fiscal year 
1998 or be penalized 5 percent of their Federal-aid highway funds and 
10 percent each year thereafter. That sanction has spurred state 
legislative activity. Since enactment of the provision, 11 states 
enacted zero tolerance laws, and it is under active consideration in 6 
states.
    Although our nation is moving in the direction of having zero 
tolerance BAC laws for all youth, most states have set the legal BAC 
limit for adults at .10 percent, making it the highest in the 
industrialized world. Sweden's national BAC limit is .02 percent; 
Australia (in the more populous states), Finland, France, the 
Netherlands, and Norway have .05 BAC limits; and Australia (in the 
remaining less populous states), Austria, Canada, Great Britain and 
Switzerland have set .08 BAC limits. According to a study by the Boston 
University School of Public Health conducted last year and published in 
the American Journal of Public Health, states adopting an illegal BAC 
limit of .08 percent experienced a 16 percent decline in the proportion 
of fatal crashes in which the driver's BAC was .08 percent or higher. 
The researchers concluded 500 to 600 fewer fatalities would occur 
annually if every state adopted .08 percent BAC limits. (Source: 
``Initial Assessment of the Effects of .08 percent Legal Blood Alcohol 
Limits on Blood Alcohol Level of Drivers in Fatal Motor Vehicle 
Crashes,'' R. Hingson, Sc.D., T. Heeren, Ph.D., and M. Winter, M.P.H., 
Boston Univ.). Additionally, the American Medical Association (AMA) 
supports a .05 percent BAC and urges states to adopt this level. 
Advocates believes that legislation needs to be enacted which ensures 
the Nation reaches the goal of reducing alcohol-related traffic deaths 
by 11,000 or fewer by the year 2005.
    Therefore, Advocates urges Congress to include S. 4121 H.R. 981, 
``The Safe and Sober Streets Act of 1997'' sponsored by Senator 
Lautenberg and Senator DeWine and Representative Lowey in ISTEA II. 
This legislation would require every state to lower the illegal BAC 
limit to .08 percent for drivers over 21. Under the law, states that 
fail to enact the measure would have a percentage of their Federal 
highway construction funds withheld. Adoption of this legislation in 
the reauthorization of ISTEA will move the Nation toward a more 
sensible threshold to measure legal impairment and will save lives.
D. Truck Safety
    Each year nearly 5,000 Americans die in truck crashes and 100,000 
are injured. (Source: U.S. DOT Fatal Accident Reporting System). 
According to the IIHS (based on their numbers on the road and the 
amount they travel) large trucks (tractor-trailers, single-unit trucks, 
and some cargo vans weighing more than 10,000 pounds) account for a 
disproportionate share of highway deaths. Consequently, it is not 
surprising that 90 percent of the American public opposes bigger 
trucks. (Source: Louis Harris Poll). In fact, last week in the Wall 
Street Journal, an article titled ``More Trucks Shake Residential 
America'' described the public's anger and fear toward big trucks.
    The public has good reason to fear big trucks. Truck traffic has 
jumped from 17. 1 billion miles in 1990 to 23.6 billion in 1995, on 
town and city roads. Truck mileage on interstates is expected to 
increase about 23 percent from 1990 through 1997, to 58 billion miles. 
In 1995, 98 percent of people killed in two-vehicle crashes involving a 
car and a large truck were occupants of the car. (Source: U.S. DOT 
Fatal Accident Reporting System). While large truck occupant deaths 
number approximately 600 annually, about 3,600 occupants of passenger 
vehicles die each year in collisions with large trucks. (Source: IIHS). 
One reason for this disparity is the vulnerability of people traveling 
in passenger vehicles when they are involved in crashes with large 
trucks. Trucks typically weigh 20-30 times as much as passenger cars.
    Another problem with big trucks is their braking capability. Loaded 
tractor-trailers take 20-40 percent farther than cars to stop, and the 
discrepancy is worse when trailers are empty and speeds are higher 
because the braking distance disproportionately increases. Inspections 
of truck rigs in five states in 1990 revealed more than half with 
serious brake defects, according to the IIHS. Not only are trucks 
dangerous, but they also cause tremendous damage to our nation's roads 
attaching a hefty economic price tag. A single heavy truck, even one 
that meets the Federal Interstate standard of 80,000 pounds, does as 
much damage as 9,600 cars. Furthermore, conventional trucks pay for 
only 65 percent of the costs to repair the damage they do to roads 
through fuel and user taxes, according to the U.S. DOT. Trucks 
substantially exceeding 80,000 pounds gross weight pay even less.
    For these reasons, Advocates urges the Senate to include H.R. 551, 
Representative James Oberstar's bill which would establish a freeze on 
existing weight standards and truck lengths on the Interstate System 
and the NHS, in ISTEA II. The 1995 National Highway System Designation 
Act selected 160,000 miles of highways for construction, reconstruction 
or other forms of upgrading. The NHS will constitute a major new 
investment in our nation's highways, streets, and bridges, and this 
expenditure must be protected. Protection means assuring that trucks 
are held to their present weights and lengths, not only on the 
Interstate, but on the entire NHS, which includes country roads and 
city streets. Currently, Federal standards limit trucks to 80,000 
pounds on the Interstate system, although grandfather provisions permit 
some states to allow heavier trucks on their portions of the Interstate 
highways. Some states allow 57 foot trailers, and one allows trailers 
60 feet long. The top limit in the others is 53 feet.
    The Oberstar bill would preserve current state weight laws, 
including those which legitimately exceed the Federal limit, and permit 
those rigs of more than 53 feet now on the road to continue to operate. 
Additionally, it would restore to the U.S. DOT authority to review 
state claims of grandfathered rights to run trucks heavier than Federal 
limits. Last, it would require U.S. DOT to define what a ``non-
divisible load'' really is, and prevent the continued use of 
unwarranted special permits as a subterfuge for routinely running heavy 
trucks on the NHS.
    In fact, two state trucking associations, those of Mississippi and 
Arkansas, oppose any increase in truck size and weight limits. Dean 
Cotten, president of the Mississippi Trucking Association, said that, 
``our membership is convinced that the trucking industry does not gain 
productivity through size and weight increases, rather it is required 
to purchase new equipment.'' Cotten also stated, ``[s]upporting 
measures to increase truck size and weights come from those who ignore 
history and have a blatant disregard for the cost incurred in obtaining 
it.''
    These two state trucking associations also fear the consequences of 
permitting states to determine size and weight limits. ``If we throw 
size and weight back to the states, we'll end up with the same 
patchwork we had before the Federal 80,000 pound limit was set,'' 
stated Lane Kidd, president of the Arkansas Motor Carriers Association. 
Congress needs to enact a truck size and weight freeze to protect 
American families who share the road with these big rigs and protect 
our investment in highways from accelerated road damage.
    The case for a freeze is even more compelling because of 
negotiations concerning the North American Free Trade Agreement 
(NAFTA). Last June, 58 Senators and 232 House Members wrote to then 
Secretary of Transportation Federico Pena urging that U.S. negotiators 
not compromise truck safety by agreeing to the use of longer and 
heavier trucks on U.S. roads and highways. A recent study by the 
Government Accounting Office (GAO) which evaluates truck inspections at 
the U.S. border points out the real danger of allowing bigger trucks 
into the United States. The GAO report found that fewer than 1 percent 
of the 3.3 million trucks entering the U.S. were inspected at the 
border. But of those that were inspected, nearly half were put out-of-
service because of safety problems. Inspections of Mexican trucks are 
not as stringent as inspections of American trucks. If Mexican trucks 
underwent the same level of inspection the out-of-service rate would 
likely be even higher.
    Border states are being asked to shoulder a significant safety 
burden that affects all of us. Congress should provide these states 
with the necessary assistance in terms of infrastructure improvements, 
more inspectors, and specific legislative guidance that will not permit 
the safety of the American public to be negotiated away.
    A legislated freeze on truck size and weight, similar to the 1991 
freeze on LCVs, would raise the level of safety for U.S. motor carriers 
as well as foreign motor carriers.--The public is weary of the dangers 
of big trucks and strongly supports Federal leadership in this area.
    Advocates also urges that Congress not permit any thawing of the 
1991 ISTEA freeze on longer combination vehicles (LCVs). In 1991, the 
Congress froze the expansion to additional states of large, multi-
trailer LCVs to protect the American public from the dangers of bigger 
trucks. Today, use of LCVs is limited to at least 20 states and should 
not be expanded.
    LCVs are ``Twin 48s,'' also known as ``Turnpike Doubles, `` triple 
trailer trucks, also known as ``triples,'' and Rocky Mountain Doubles. 
A twin 48 is two 48 foot trailers on the back of one tractor, and it 
weighs as much as fifty cars. A triple is analogous to a ten-story 
building on its side being hauled down the highway. Rocky Mountain 
Doubles have a longer semi-trailer with tandem axles and a short ``pup 
`` trailer with single axles. These types of trucks are inherently 
unstable because of their size and weight which cause the trailers to 
``sway,'' or move back and forth in serpentine fashion.
    Additionally, the braking problems of single trailer trucks are 
amplified with LCVs due to their heavier weights, multiple trailers, 
longer lengths, and the greater likelihood of them mixing both loaded 
and empty trailers. Furthermore, ``offtracking,'' which occurs when a 
trailer's rear wheels do not follow the path of the tractor's front 
wheels, happens more frequently with LCVs than with single trailer 
trucks. Offtracking can cause LCVs to swing into oncoming lanes of 
traffic during turns, to hit objects on the road side, to cross over 
curbs and gutters, and to overturn.
    LCVs are also incompatible with cars in traffic. Motorists who pass 
or are passed by LCVs in wet weather will be blinded by splash and 
spray on their windshields for longer periods than those passing or 
passed by single trailer trucks. LCVs also move more slowly on grades 
and accelerate more slowly than other trucks. Additionally, they 
require more room when maneuvering on crowded freeways and roads. 
Furthermore, lane changes and freeway merging by LCVs disrupt traffic 
and are unsafe. Passing LCVs takes more time and distance--up to 20 
percent more--increasing safety risks particularly on two-lane, 
undivided highways. Last, since LCVs have more trailers and are less 
stable than single trailer trucks, there is a greater risk when a LCV 
is involved in a crash that the multiple units will be thrown into 
adjacent or oncoming lanes of traffic, leading to more severe crashes.
E. Truck Driver Fatigue
    Truck driver fatigue is a factor in 40 percent of all truck crashes 
according to the National Transportation Safety Board. Compound this 
problem with industry efforts to increase truck driver driving times 
(hours of service) and you have a written invitation for more 
devastating crashes on the nation's roadways. Currently, truck drivers 
can drive 60 hours in 7 days or 70 hours in 8 days. In comparison, air 
line pilots are permitted to fly only 30 hours in 7 days under normal 
conditions. Considering that the equivalent of a plane crash occurs on 
our nation's highways every day, increasing the number of hours 
truckers drive on the roadways would be a grievous mistake.
    Researchers at IIHS estimate that presently more than half of the 
tractor-trailer drivers violate Federal hours of service regulations on 
a 1,200 mile route. Increasing the Federal limits will only serve to 
legalize these drivers' actions, and, further, it will not stop drivers 
from continuing to exceed the new, higher limits. In 1995, 1,926 people 
were victims of crashes due to truck driver fatigue. (Source: IIHS). 
Our nation cannot continue to ignore basic human needs for rest and 
recovery. Any new regulations that alter hours of service standards 
should be done in a way that enhances the health and safety of 
commercial drivers and the American public and reduces the potential 
for and prevalence of commercial vehicle crashes. Consequently, 
Advocates urges Congress to reject any efforts to expand hours of 
service for truck drivers and instead direct the Federal Highway 
Administration (FHWA) to conduct a rulemaking that reduces commercial 
driver fatigue and sleep deprivation and improves driver health and 
safety.
F. Transportation Research and Technology
    Safer air bags are now being designed for the near future. However, 
attaining air bags that perform safely and effectively for all persons 
in all frontal crashes is an important public safety goal. This goal 
can be achieved by developing advanced or ``smart'' air bag technology 
that shapes the force of the air bag deployment based on the occupant's 
size and position at the time of the crash as well as the severity of 
the crash. To provide technology that enables air bags to protect all 
occupants in frontal crashes, a new generation of sensing devices 
(sensors) must be developed. Sensor technology, for crash sensors and 
occupant position sensors, is the weak link in developing advanced air 
bag design and performance.
    To solve this problem, Advocates has proposed that a portion of the 
funding authorized for the Intelligent Transportation System (ITS) 
program be used to improve the protection provided by air bags and 
safety belts to all occupants, especially children and short adults. A 
program that provided $25 million annually for research and development 
of crash and vehicle sensors would hasten the accomplishment of 
advanced air bag technology. Directing ITS resources for this purpose 
is a logical step since the development of advanced technology for 
application to highway vehicles to improve safety is a major premise of 
ITS. In fact, the ITS Program Plan, the master plan for ITS projects, 
includes a proposal for Pre-Crash Restraint Deployment. This effort was 
intended to develop advanced sensor and radar technology to improve the 
response of vehicle safety systems in the event of a crash. The ITS 
Program Plan recognized that sensor development and safety devices are 
integrally related to crash survival. Advocates' proposal adds a new 
dimension to this ITS concept. Unfortunately, the ITS program has not 
funded or developed the Pre-Crash Restraint Deployment aspect of the 
ITS Program Plan.
    This important area of safety research and development has gone 
unfunded even though the ITS program has received approximately $1.3 
billion from the Federal Government. The administration is now seeking 
an additional $600 million for research and development over the next 6 
years. In addition, the administration is proposing that ITS projects 
be eligible for Federal Highway Trust Funds as any other construction 
project. Despite the vast expenditures of Federal funds, ITS has not 
produced appreciable improvements in highway safety. Although many 
claims have been made about the potential for ITS to make vehicles and 
highways safer, there are few tangible safety results. The ITS safety 
concepts for passenger vehicles are mostly still in development and 
will not be available, if at all, for many years to come. Since the ITS 
program has not initiated safety research and development on vehicle 
sensors as planned, we urge Congress to promote occupant safety, and to 
protect children and short adults, by targeting funding for accelerated 
vehicle sensor research and development.
                            vii. conclusion
    In conclusion, I urge this committee to draw a line in the pavement 
against increasing deaths and injuries on our highways or accepting the 
status quo as ``good enough.'' This Congress would never tolerate an 
airplane crash every single day killing 115 Americans and injuring 
thousands more as the price of having cheap air fares and unlimited 
access. Neither should this Congress allow a surface transportation 
bill to be enacted that does not set specific goals for reducing motor 
vehicle deaths and injuries and adopts the programs and policies that 
will achieve them.
    Small increases in funding for traffic safety programs and the 
safety belt incentive program proposed by the U.S. Department of 
Transportation are only first steps to combating drunk driving, 
improving truck safety, increasing safety belt usage, and providing 
adequate resources for traffic enforcement. Much more needs to be done 
as our safety agenda shows. It will make important and significant 
gains in bringing down deaths and injuries on our highways. I challenge 
each of the Members of this Committee to devote as much time advocating 
safety proposals to improve the safety status of your constituents as 
you spend debating and generating funding options to improve the 
financial status of your states.
    Advocates and all of the members of the SAFETEA Coalition offer 
this Committee our assistance in developing legislation that will truly 
make our highway journey into the 21st a safer road to travel.
    Thank you.
                                 ______
                                 
Highlights of Findings from ``A Survey of the Attitudes of the American 
 People on Highway Safety'': a Public Opinion Poll Conducted by Louis 
        Harris for Advocates for Highway & Auto Safety, May 1996
                              introduction
    Advocates for Highway and Auto Safety (Advocates), a leading 
national highway safety advocacy group, is an alliance of consumer, 
health, safety and insurance groups working together to advance highway 
and auto safety. In May, 1996, Advocates sought to determine how 
Americans feel about specific highway and auto safety issues, policies 
and programs. To do so, Advocates commissioned a well-known national 
pollster, Louis Harris, to survey a cross-section of 1,000 adults 
during the week of May 22-June 1, 1996.
    A broad spectrum of issues was covered and great emphasis was 
placed on how important Americans feel the government role (both 
Federal and state) should be in setting standards and passing policies 
and legislation.
I. Government Presence in Highway and Auto Safety
    Despite conventional wisdom that the public wants less government 
involvement in regulatory matters, decisive majorities of Americans 
feel it is important for the government to play a strong role in 
highway and auto safety regulations.
    Among the key findings in this area:
    --94 percent say it is important to have Federal regulations of car 
safety standards, with 77 percent stating such a presence is very 
important.
    --91 percent feel that Federal regulation of large truck safety on 
the highways is important, with 74 percent viewing Federal involvement 
very important.
    --91 percent believe Federal involvement in assuring safe highways 
is important, with 78 percent saying such a role is very important.
    --87 percent say it is important to have the Federal Government 
setting strict rules about food and product safety, highways and 
airline safety, and safety on the job, with 62 citing such regulation 
as very important.
    --80 percent feel a Federal presence is important in passing laws 
which mandate safety belt use, with 61 percent saying Federal 
involvement in this area is very important.
    --77 percent believe it is important for the Federal Government to 
pass laws to get people to wear motorcycle helmets, with 61 percent 
stating such laws are very important.
    --73 percent say a Federal presence in controlling excessive speed 
on highways is important, with 47 percent stating this presence is very 
important.
    --72 percent believe it is important to have the Federal Government 
setting safe speed limits, with 48 percent stating that this role is 
very important.
II. Strong Support for Youth Highway Safety Issues
    More than 9,100 Americans under the age of 21 were killed in 
highway crashes in 1995. Highway crashes are the leading cause of death 
and injury of Americans under the age of 30. Therefore, a central focus 
of the poll dealt with young people. The poll showed that the public 
wants the most government involvement in areas that affect youth, such 
as strengthening and enforcing child safety seat laws, underage 
drinking and impaired driving, and graduating licensing.
A. Child Restraint Laws
    <bullet>  By 84 percent to 14 percent, a decisive majority of the 
adult public favor making it mandatory for all states to require that 
all children traveling in vehicles operated by anyone, not just their 
parents, no matter where ``the children are riding must be buckled into 
special children's safety seats.
    <bullet>  By an even higher 90 percent to 6 percent, the public 
nearly unanimously believes that ``all people driving children, whether 
they are related to the children or not, should be made responsible for 
ensuring that the children are properly belted in.''
B. Underage Drinking and Impaired Driving
    <bullet>  A 91 percent to 7 percent majority favors passage of 
uniform laws, under which, ``when teenage drivers test positive for any 
alcohol, they are subject to immediate revocation of their driver's 
license, and will be subject to strong penalties for driving under the 
influence.'' Among the youngest group, those 18 to 19, an 88 percent to 
12 percent majority support such laws.
    <bullet>  By 78 percent to 18 percent, a majority of adults 
nationwide oppose any effort ``to roll back the legal drinking age from 
21 years of age.'' Among those under 30, a smaller but still 
substantial 65 percent to 31 percent majority also opposes any such 
downward change.
C. Graduated Licensing
    On the proposal to enact graduated licensing laws to phase in the 
full driving privilege for teens, the Harris poll questioned the public 
on several key components of the proposed law:
    <bullet>  An overwhelming 89 percent to 8 percent majority supports 
teen drivers holding a learner's permit for at least 6 months before 
they qualify for a license and that an adult driver must be in the 
vehicle with the teenagers. Seventy-seven (77) percent of young people 
agreed.
    <bullet>  79 percent favors a teen driver moving up to a restricted 
license for 6 months to a year after taking a behind-the-wheel test. A 
2-to 1 majority of young people agree.
    <bullet>  A majority of 88 percent to 9 percent agree that 
``finally, if after a year or so, the teenager has not violated speed 
or drinking-when-driving laws, the teenager will be issued a full 
driver's license.'' And, 79 percent of teens agreed.
    <bullet>  By 62 percent to 30 percent, a substantial majority of 
American people agree with the provision that ``a young driver, for the 
first 6 months of licensure would not be permitted to drive after 10 pm 
or 11 pm. `` A clear 56 percent to 39 percent majority of young people 
disagreed.
    <bullet>  The last area tested specified that ``when first 
licensed, young drivers would not be allowed to transport other 
teenagers without an adult being present. `` A narrow 49 percent to 42 
percent of the public agrees. A clear-cut 65 percent to 35 percent of 
teenagers disagree.
III. Automobile Safety and Consumer Information
    Automobile safety is clearly in the forefront when it comes to 
selecting a new car in the 90's. The American people want safety 
features in their cars and passenger vehicles, including sport utility 
vehicles (the fastest growing segment of the new car market) and are 
willing to pay for such safety features. Furthermore, consumers want 
crash test results and other safety information available to help them 
make their purchasing decision.
    <bullet>  By a clear 51 percent to 37 percent, a majority of adult 
Americans is convinced that ``sport utility vehicles are not as safe as 
most passenger cars.'' About 1 in 3 (30 percent) believe they are ``as 
safe as most passenger cars,'' and a small 7 percent feel they are 
``safer.'' A sizable majority of 57 percent of all women feel sport 
utility vehicles are ``not as safe,'' compared with a smaller 44 
percent plurality of men who share that view.
    <bullet>  A 75 percent to 19 percent majority flatly say they would 
be willing to pay $200 to $300 more for a car ``that has better safety 
systems to prevent rollover, better roof crush protection, improved 
padding on the interior of the car, and better side protection.
    <bullet>  An 85 percent to 11 percent majority of those surveyed 
want to see all purchasers of passenger vehicles have the government 
safety ratings of the vehicles (from crash tests) they are 
contemplating buying at the point of sale.
IV. Large Truck Safety
    In the wake of the North American Free Trade Agreement (NAFTA) 
pressure and other efforts to allow larger trucks and more consecutive 
hours of driving of trucks on the highways, the public adamantly opts 
for no compromises with current regulation of trucks on the nation's 
highways.
    <bullet>  By 83 percent to 13 percent, a majority of the public is 
opposed to the move to change the number of consecutive hours that a 
truck driver is allowed to drive on a highway from the current 10 hours 
to 12 hours.
    <bullet>  80 percent are fully convinced that ``trucks pulling two 
or more trailers are less safe than trucks pulling only one trailer.'
    <bullet>  By an even higher 88 percent to 7 percent, a majority 
also is opposed to allowing bigger and heavier trucks on the highways.
V. Safety Belt Use
    While 49 states currently have safety belt laws, most are weaker or 
``secondary enforcement'' laws that require police to issue a ticket 
for some other violation before a safety belt ticket can be written. 
The public is split down the middle on the proposal that these laws be 
upgraded to ``primary enforcement'' status where police are allowed to 
stop a driver solely for not wearing a safety belt.
    <bullet>  By a close 51 percent to 46 percent, a majority opposes 
such a change to primary enforcement of safety belt laws.
    <bullet>  Support for giving law enforcement officers the power to 
make such a change to primary enforcement of safety belt laws runs 
highest among suburban residents (52 percent in favor), women (51 
percent), those 65 and over (59 percent), those with postgraduate 
degrees (56 percent), Democrats (53 percent), and Latinos (56 percent).
    <bullet>  Most opposed are men (58 percent opposed), residents of 
the East and Midwest (54 percent), residents of small towns and rural 
areas (56 percent), young people under 30 (58 percent), political 
independents (57 percent), and Republicans (55 percent).
VI. Speed Limits and Aggressive Driving
    The National Maximum Speed Limit (NMSL) was enacted by Congress in 
1974 in response to a national energy crisis. However, one of the 
unanticipated benefits of the 55 mph speed limit was the dramatic drop 
in highways deaths. In 1995, Congress repealed the NMSL thereby 
allowing states to set their own interstate speed limits. As the 
following results show, while Americans support giving states this 
power, they are also concerned with the safety implications of the 
repeal.
    <bullet>  By a 62 percent to 33 percent margin, a 2 to 1 majority 
of the American people support giving states the power to set whatever 
speed limits they want, including taking them off entirely.
    <bullet>  However, a 66 percent to 29 percent majority of the 
public believes that accidents and deaths on the highways will rise 
again as a result of the repeal.
    <bullet>  And a 64 percent to 31 percent majority feels that higher 
speed limits will contribute to even more aggressive driving.
                               conclusion
    Clearly now is not the time for the government to ``back off'' in 
the area of highway and auto safety. Highway deaths have increased each 
year since 1992. Last year, 41,798 Americans were killed and an 
estimated five million others were injured in highway crashes. Support 
for effective highway and auto safety policies and programs is as 
strong as ever. At a time when deaths on the highways are increasing, 
Americans want the government to remain involved in setting safety 
regulations that affect their safety and the safety of their families 
and friends on the highways.
                               __________
         Statement of Joan Claybrook, President, Public Citizen
    Thank you very much. Yesterday, we announced the formation of a 
safety coalition representing over 60 national, State and local 
organizations in support of a strong safety goal in the ISTEA 
legislation. We would like to have this bill be looked upon as a safety 
bill, not just a funding bill.
    The Harris Poll last September showed that 91 percent of the 
respondents believed that Federal involvement in safety highways is 
incredibly important, with 78 percent saying such a role is very 
important.
    Since ISTEA I was passed, it's hard to believe but 250,000 
Americans have died on our highways. That's not a very long time ago. 
Also, 18 million have been injured. The number killed is the population 
of Boulder, Colorado; the number injured is the population of the State 
of New York. It's a huge number of Americans who are affected every 
year by this.
    The 6-year cost of these crashes is $900 billion. That's enough to 
fund the full 4-year costs, including tuition, room and board for twice 
the number of students currently attending a 4-year university.
    Our proposals are as follows. One, increase the funding for safety. 
Mr. Crabtree just mentioned that there's been a substantial reduction 
since 1980 in the funds. It's a huge reduction. Today, it would be 
instead of $127 million, it would be almost $400 million. We're asking 
for $600 million for safety. We think this should be provided by a one-
half cent Federal gas tax on every gallon of gasoline.
    Why? Motor vehicle crashes represent 94 percent of all 
transportation fatalities, 99 percent of all transportation injuries, 
and they get 1 percent of the DOT budget. It's grossly underfunded.
    The initiatives that we propose are as follows: $150 million for 
the National Safety Belt Enforcement Program, modeled after the North 
Carolina Click It or Ticket Program which has been incredibly 
successful, an initiative that came from Federal and private funding 
and has shown that it works; second, $150 million for States in 
enforcement of all traffic safety laws which would also address the 
issue you raised several times, Mr. Chairman, of aggressive driving.
    We think the higher speed limits, the advertising on television 
about what's good about a car, all have increased this aggressive 
driving and enforcement is really the only answer. There has to be 
improved enforcement and that is not now available.
    There should be $200 million for what's called the 402 Grant 
Program, this is grants to States. That would be an increase of $33 
million above what the Administration has requested; and finally, $100 
million for impaired driving programs. You've heard today about this 
issue and that would be a $60 million increase over the 
Administration's request.
    The following proposals we make have no budget impact whatsoever 
per se, although we believe these funds could be used to help these 
programs. The first is primary safety felt use laws in every State. We 
support the Administration's proposal for increasing safety belt use 
from 85 to 90 percent.
    Research shows that the proper use of belts greatly reduces the 
risk of injury by 45 to 60 percent between cars and trucks. It's 
important to note, Mr. Chairman, that two-thirds of all fatalities now 
on the highway of occupants are unbelted.
    According to the National Highway Traffic Safety Administration, 
increasing belt usage would prevent some 4,000 fatalities and 102,000 
injuries. That would be an economic savings of $6.2 billion.
    Secondly, we support a .08 BAC in every State. You've heard 
testimony this morning about this. We believe sanctions work well in 
encouraging State action--in fact, they are essential. We would never 
have the minimum 21 year old drinking age in this country without 
passage of that law in 1984. Some 10,000 teenagers' lives have been 
saved in the last decade because of the at law.
    In 1995, Congress adopted as part of the NHS bill a sanction to 
begin in 1998 for States without a zero BAC for youth. As you know, 
with age 21 for drinking, nevertheless, young people are still drinking 
and if they are arrested, they're measured against the age 21 law, but 
there should also be a zero tolerance.
    This provision has energized State action. At the time of 
enactment, 26 States had zero tolerance laws. In 1 year, 11 States have 
adopted this law and legislation is going on in six additional States.
    I will point out, Mr. Chairman, that the State of Virginia has been 
very progressive on these issues. It has a .08 law as well as a primary 
belt law.
    Third, we recommend a freeze on truck size and weight and no thaw 
in the freeze on longer combination vehicles. Big trucks are dangerous, 
the public is scared to death of them, 88 percent don't want bigger 
trucks, 83 percent oppose increasing driving hours on the road. Nearly 
all deaths resulting from crashes between cars and trucks are occupants 
of cars.
    Our coalition, some 60-plus strong organizations, supports a freeze 
on truck sizes and weights on the NHS similar to legislation introduced 
by Representative Jim Oberstar which is H.R. 551. This committee has 
jurisdiction over truck weights, not truck length. His bill deals with 
both.
    We urge you to protect the American public and the billions of 
dollars invested in the highway infrastructure by drawing a line in the 
pavement and saying no more heavier trucks. Two State trucking 
associations, Mississippi and Arkansas, have already spoken out in 
opposition to any increase in truck size and weights.
    The case for the freeze is even more compelling because of 
negotiations concerning NAFTA. Last June, 58 Senators and 232 House 
members wrote to Secretary Pena urging U.S. negotiators not to 
compromise truck safety by agreeing to use of longer and heavier 
trucks.
    Border States are being asked to shoulder a significant safety 
burden for all of us in this area. Congress should provide these States 
with necessary assistance in terms of infrastructure improvement, more 
inspectors and specific legislative guidance that will not permit the 
safety of the American public to be negotiated away.
    I would point out there is an increasing concern about this. In the 
State of Texas, there is no permanent facility for inspection of 
trucks. The area is very urbanized where many of these trucks come 
across. There is very little room and space to do inspections.
    Last night on Night Line, for example, Ted Koppel had a very 
interesting program in which he showed all the deficiencies of many of 
these trucks coming across.
    A study has been done by the General Accounting Office which also 
makes this very clear. It recently came out and I submitted the summary 
of it for the record. We urge you not to permit any thaw in the freeze 
on longer combination vehicles.
    Double and triple trailer trucks are incompatible and dangerous to 
motorists because of off-tracking, problems with passing these trucks, 
with braking, with their ability to maneuver on the highway, and many 
of them are so long that they don't fit the design of the highway on 
and off ramps themselves. This has been clear for many years.
    There is a greater risk that LCVs will lead to more severe crashes 
and we feel very strongly this freeze should not be removed.
    Finally, we don't see the need for any increase in hours of service 
for truck drivers. In fact, we think they should be shorter. As you 
know, they are exempt from the Fair Labor Standards Act since 1937. 
Truck drivers can currently drive 60 hours in a 7-day period or 70 
hours in an 8-day period. No one else in America is required to work 
those hours. In fact, pilots have about one-half to one-third the hours 
that are required of truck drivers and they have a co-pilot and an 
automatic pilot.
    If you're a truck driver, I challenge any member of this committee 
to try and meet the standards those truck drivers have to meet every 
day. If you take your eyes off the road for a second with those big 
trucks, you're going to have difficulty on the highway. The National 
Transportation Safety Transportation Board has also done work on driver 
fatigue and found that it's involved in 40 percent of truck crashes.
    One other area which I'd like to mention briefly is the ITS money. 
We think this is a very substantial fund that has not been adequately 
used for safety. We would recommend programming $25 million annually 
for research and development on crash and vehicle sensors to help the 
development of advanced airbag technology.
    Although ITS has already received $1.3 billion from the Federal 
Government, it has produced no appreciable improvements in highway 
safety to date.
    In conclusion, Mr. Chairman, I would say the committee needs to go 
beyond the Administration proposal in order to make some gains on 
highway safety and to make this bill not just a big money bill, but a 
bill for highway safety. I challenge each member of the committee to 
devote as much time to advocating safety, to improve the status of your 
constituents on the highways as you do debating the money that's in 
this bill and generating funds for the financial issues involved in 
this bill.
    I appreciate very much the chance to speak.
                               __________
Statement of Katherine P. Prescott, National President, Mothers Against 
                          Drunk Driving (MADD)
    Good morning, Mr. Chairman and Members of the Committee.
    As National President of Mothers Against Drunk Driving, I am here 
today to request that before this year is out, the Congress of the 
United States make it the law of the land that the definition of 
intoxication in every state be set at .08 blood alcohol content (BAC) 
for all drivers above the minimum drinking age of 21.
    Earlier this year, Senator Mike DeWine of Ohio and Senator Frank 
Lautenberg of New Jersey, the author of the 21 Minimum Drinking Age law 
in 1984, introduced S. 412, the Safe and Sober Streets Act of 1997, a 
bill withholding highway construction funding from states which failed 
to lower their level of intoxication to .08 BAC after the expiration of 
a grace period. MADD strongly supports the passage of the Lautenberg/
DeWine legislation.
    The question raised by S. 412 and the question we raise here today 
is quite direct. It has long been lawful in the United States to drink 
and drive. MADD encourages people not to drink and drive and to be 
constantly aware of the dangers of mixing alcohol with driving a car. 
Nonetheless, it is legal to drive a car after consuming some measurable 
amount of alcohol. The question we ask today is: Where do we draw the 
line?
    MADD urges this Committee to draw the line at .08 BAC.
    Earlier this year, the National Highway Traffic Safety 
Administration (NHTSA), along with the National Safety Council, issued 
a report called ``Setting Limits, Saving Lives: The Case for .08 BAC 
Laws.'' In this report, NHTSA answers the most frequently asked 
questions about .08 BAC, which is, how much can I drink before I reach 
.08 BAC?
    The answer is, if you are a 170 lb. male, you can drink four drinks 
on an empty stomach in the space of 1 hour and not exceed the limit. If 
you are a 137 lb. female, you can consume three drinks on an empty 
stomach in a 1-hour period before you reach the .08 BAC limit. MADD 
believes that .08 BAC is a generous definition of impairment and that 
level of alcohol consumption can hardly be characterized as social 
drinking.
    You will be hearing, if your have not already heard, a lot of 
disinformation from the alcohol beverage and hospitality industries on 
this subject. The purpose of the information is clear to us. They are 
in the business of selling that 4th or 5th drink to a person who is 
already substantially impaired: we are in the business of dealing with 
the consequences of the impairment which results.
    .08 BAC will save lives. How many lives? A conservative estimate is 
500 to 600 per year. The person who made that estimate is Dr. Ralph 
Hingson of the Boston University School of Public Health, who 
accompanies me here today and would be pleased to answer questions you 
have about the life-saving potential of this measure and the impact .08 
laws have had in states that have already adopted .08 as the illegal 
blood alcohol level .
    The alcohol industry likes to try to discredit Dr. Hingson's work 
in this area because he happens to serve on the MADD National Board of 
Directors. It so happens that Dr. Hingson was a well-respected 
researcher in the field of drunk driving prevention well before he ever 
joined our board and his research on this issue was completed before he 
was asked to serve on MADD's Board. Senator Lautenberg might recall 
that Dr. Hingson did some of the most persuasive work on the lifesaving 
effectiveness of 21 year-old minimum drinking age laws.
    You might ask, ``Why .08 BAC, why not some other BAC level?'' The 
answer is that while impairment begins with the first drink--which is 
the reason we set the BAC level for those below the 21 legal minimum 
drinking age at .02 BAC or less- the point at which all drivers 
critical driving tasks such as braking, steering, lane changing, 
judgment and divided attention are significantly impaired is .08 BAC. I 
would note that the Congress has set the acceptable BAC level for 
commercial motor vehicle operators, railroad engineers and airline 
pilots at .04 BAC.
    Some of the opponents of .08 BAC have called this measure a step in 
the direction of prohibition. I would note, Mr. Chairman, that the 
permissible BAC level in Canada is .08 as it is in Great Britain, 
Switzerland and Austria. The highest permissible level in Australia is 
.08 BAC. I know of no one who maintains that Great Britain, Canada or 
Australia practice prohibition and it is clear that France who has set 
their BAC limit at .05 does not. The suggestion that .08 BAC 
constitutes prohibition is ridiculous.
    In fact, .08 BAC does not heavily impact the consumption of 
alcohol. Despite the dire predictions made by its opponents, the 
passage of .08 BAC in the states has not led to a decrease in alcohol 
sales. There is no evidence that the per capita consumption of alcohol 
was affected in any of the five .08 BAC states examined by NHTSA in a 
recent analysis and even a four-state analysis by several alcohol 
industry organizations showed virtually no affect on overall 
consumption. To quote from the NHTSA report, `` Smart business owners 
know that demonstrating concern for their patrons' safety is a good 
business practice that encourages loyalty.''
    Mr. Chairman, this nation has made remarkable progress in the fight 
against drunk driving. I'm proud to say MADD has been part of that 
fight. You and this Committee can be proud of your role in passing such 
life-saving measures as 21 and Zero Tolerance for underage drinking. 
There are tens of thousands of Americas alive today who owe you a debt 
of gratitude because you had the courage to act. We've come a long way 
yet have a long journey ahead of us.
    Last year 17,274 Americans lost their lives on our nation's 
highways in alcohol-related fata; traffic crashes. This number 
constituted the first increase in drunk driving fatalities in a decade. 
The 17,274 Americans who lost their lives is 17,274 too many. We cannot 
tolerate this senseless loss of life. While the law tolerates the 
mixture of drinking and driving, there is a point at which we cannot 
tolerate this deadly combination and that point for all those over 21 
is .08 BAC.
    Some will argue that states should have the sole discretion in 
determining what their drunk driving laws should be. We believe that 
the states and Congress should listen to the American public and a 1996 
survey revealed that 78 percent of those surveyed believe that Federal 
involvement in assuring safe highways is very important. In a Gallup 
survey released in 1994, the majority of Americans surveyed supported 
lowering the illegal blood alcohol limit to .08. We are asking you 
today to listen to the American public.
    When the time came for the 21 minimum drinking age law to be the 
law of the land, withholding sanctions were appropriate. When the time 
came for zero tolerance for drivers under the age of 21 to be the law 
of the land, withholding sanctions were used. The time has now come for 
.08 BAC to be the law of the land.
    Some issues are of such national importance that they transcend 
state lines and require uniformity across our nation. This was the 
message that states' rights proponent and former President Ronald 
Reagan gave when he signed into law the Federal 21 minimum drinking age 
law. That was the message that former Arkansas Governor and now 
President Clinton gave when he signed into law the National Highway 
System bill requiring states to adopt the zero tolerance standard of 
.02 BAC for young drivers. Every day millions of Americans cross state 
borders for business or pleasure. They should have a right to safe 
passage.
    Mr. Chairman, I hope that this Committee and this Congress will 
demonstrate that it will not tolerate an increase in drunk drinking 
deaths for the first time in a decade. I implore this Committee to draw 
the line at .08 BAC and make .08 BAC the law of the land before this 
year is through. The increase in alcohol-related fatalities in 1995 
should serve as a wake-up call to this nation, to the American public 
and media. The drunk driving problem has not been solved and will not 
be solved until safety becomes our top priority, not only in 
Washington, but in every state. We must avoid the complacency which can 
come with success. We must not only continue what has worked in the 
past, but we must remain vigilant in our efforts to find new solutions 
to drunk driving, our nation's most frequently committed violent crime. 
We can no longer tolerate more than 17,000 alcohol-related deaths a 
year on our nations highways just because they happen one, two or three 
at a time. The time has come for the U.S. to follow the lead of the 
other industrialized nations and not lag behind them in efforts to 
reduce alcohol-related deaths and injuries on our highways.
    Thank you for the opportunity to present our views and I and Dr. 
Hingson look forward to your questions.
                                 ______
                                 
 Responses by Katherine Prescott to Additional Questions from Senator 
                                 Chafee
    Question 1. The most recent ``Rating the States Report'' prepared 
by MADD, Advocates for Highway Safety and Nationwide Insurance, found 
that in 1995, drunk driving fatalities increased for the first time in 
a decade. Why the sudden inform in fatalities?
    Response. While no single factor has been attributed to the 
increase in alcohol-related tragic fatalities that occurred in 1995, it 
is the general consensus in the highway safety community that 
complacency in the public and the media as well as increased demands an 
law enforcement have all played a role. The progress that has taken 
place in reducing alcohol-related fatal crashes over the last 15 years 
has lulled the public and the news media into believing that the drunk 
driving problem hew been solved. Law enforcement agencies are also 
being required to do more with less and traffic enforcement is not 
given a high priority. This is rejected in the fact that drunk driving 
arrests declined from 1.6 million to 1.3 million, despite the first 
that drunk daring continues to be the most frequently committed crime 
in this country. The increase in the 1995 alcohol-related fatalities 
also reflected a slight increase in female drivers involved in them 
crashes and an increase in trucks/utility vehicles involved us alcohol-
related fatal crashes.

    Question 2. Your testimony on page four mentions other 
individualized nations, such as Great Britain, that have a uniform 
broad alcohol level of .08. How do the drunk driving fatality rates in 
counties with straight .08 level compare ninth the rate in the United 
States?
    Response. In the United States, 41.3 percent of all traffic 
fatalities in 1995 were alcohol-related. The alcohol-related fatality 
rates in Western European and other countries with .08 blood alcohol 
limits are outlined below. This data is taken from Transportation 
Research Board Circular Number 422, April 1994, ISSN 0097-8515, The 
Nature of and the Reasons for the Worldwide Decline us Drinking and 
Driving.
Australia
    The illegal BAC limits in Australia are .05 or .08 depending on 
location. The percentage of Australian drivers and riders who had a 
blood alcohol concentration above the legal limit when they were 
fatally injured decreased from 44 percent in 1981 to 30 percent in 
1992. In 1991, the legal blood alcohol limit for drivers was reduced 
from .08 to .05 in South Australia. Immediately following the 
introduction of the limit, roadside surveys revealed a reduction of 
more than 27 percent in the proportion of drinking drivers with a BAC 
above .08. In the most recent surveys in 1993, the percentage of 
drivers who were above .08 BAC was the lowest recorded since 1979.
Great Britain
    In 1992, 30.4 percent of fatally injured car and taxi drivers had 
been drinking prior to the accident. Not only has there been a steady 
decline in the number of alcohol-related fatalities since 1982, there 
has also been a steady decline in the blood alcohol levels of drivers 
involved in these fatal crashes. Data from breath tests of car/taxi 
drivers suspected of drinking shows that although the accident involved 
driver population increased by 21 percent between 1980 and 1991, and 
the testing rate almost trebled, the number of positive screening tests 
decreased by 30 percent over this period. Between 1982/83 and 1990, the 
percentage of adult fatalities where the BAC of the driver exceeded .08 
decreased from 34 percent to 18 percent and for drivers with a BAC 
above .15 the decrease was from 22 percent to 13 percent.
Canada
    There has been a significant decrease in the magnitude of the 
drinking and driving problem Canada over the past decade and since the 
1980's there has been a significant and consistent decline in the 
incidence of fatally injured drinking drivers. From 1973 through 1980, 
approximately 50 percent of driver fatalities had a BAC over .08. 
However, since 1981, this consistency has disappeared--the percent of 
fatally injured drivers with BACs over .08 has declined progressively, 
reaching its lowest level of 35 percent in 1991.
Federal Republic of Germany (West Germany)
    In the period from 1975 to 1990 in the Federal Republic of Germany 
(West), alcohol-related injuries and fatalities in road traffic 
decreased continuously. The alcohol-related accidents with injuries 
decreased 32 percent during this period of time while non-alcohol-
related accidents with injuries increased by 6 percent. In 1973, the 
BAC limit of .08 was introduced. In 1973, 83 of 1,000 injured vehicle 
drivers and 69 of 1,000 injured pedestrians were intoxicated by 
alcohol. Since that time, the figure decreased until 1990 to 50 
intoxicated of 1,000 injured drivers. In 1990, 10 percent of the 
injuries in road accidents in West Germany were alcohol-related and 18 
percent of the fatal road accidents ware alcohol-related.
                                 ______
                                 
 Responses by Katherine Prescott to Additional Questions from Senator 
                                 Boxer
    Question 1. Ms. Prescott, fortunately California is highly rated in 
your report ``Rating the States.'' In fact, it is one of only four 
states that received your highest grade, an A minus. However, I am 
still concerned that we could not be doing more in my state. After all, 
the percentage of alcohol-related deaths and injuries in tragic 
accidents is still just under the national average of 41.3 percent.
    Your report suggests the state enact a school-based alcohol 
education program eliminating the 7-year limit on repeat offenders, 
among other ideas. Do you see any other substantial legal remedies we 
could undertake? And, would setting a national standard for zero 
tolerance affect California, even though we already have that law on 
the books?
    Response. California has in place 29 of the 31 priority DUI 
countermeasures that MADD and others deem essential to impact alcohol-
related crashes and impaired driving in general. The California Highway 
Patrol released a report on May 19, 1997 that highway traffic deaths in 
the state for 1996 had reached the lowest level in 34 years. The 1996 
percentage of fatal collisions thus involved alcohol was 31.6, the 
lowest since the California Highway Patrol began to keep track of that 
figure in 1972.
    As you know, in 1990, California lowered the state's legal blood 
alcohol limit from .10 to .08. The effect of California's .08 law was 
analyzed by the National Highway Traffic Safety Administration (NHTSA), 
which found that 81 percent of the driving population knew that the BAC 
limit was stricter (from a tremendously successful public education 
effort). The state experienced a 12 percent reduction in alcohol-
related fatalities, although some of this can be credited to the new 
administrative license revocation law. The state also experienced an 
increase in DUI arrests. Another study published in the American 
Journal of Public Health comparing California, a .08 BAC state, with 
Texas, a .10 BAC state, revealed that after the passage of .08 in 
California there was a 12 percent reduction in the proportion of fatal 
crashes with a fatally injured driver whose blood alcohol was .08 or 
more. There was also a 9 percent reduction in the proportion of fatal 
crashes with a fatally injured driver whose blood alcohol level was .15 
or more. This verified that lowering the legal blood alcohol limit to 
.08 impacted both low and high BAC drivers.
    While California has taken a sound public policy approach to 
address impaired driving, there are several areas where improvement can 
be made in addition to those recommendations in the Rating the States 
Report previously referred to. These include the following: programs 
such as ``zebra sticker'' program to increase detection and arrests of 
individuals driving on a suspended license; requiring valid license for 
vehicle registration, expanded use of ignition interlock program for 
offenders; expand vehicle impoundment program currently used in San 
Francisco to statewide levels and increase license suspension/
revocation sanctions for repeat offenders.
    In response to the question concerning the effect of a national 
standard for zero tolerance, the National Highway System Bill enacted 
in 1995, in essence, establishes such a national standard for drivers 
under the age of 21 by requiring all states to adopt such a law by the 
year 1998 or risk loss of a percentage of Federal highway construction 
funds for failure to do so. California has adopted what is considered 
to many to be a model zero tolerance law. While California has a good 
law on the books, recent research reveals that the law is not being 
fully enforced and is being treated as a lesser included offense in 
that only youth who are believed to be over the adult level of .08 are 
tested.
                               __________
                                                      May 28, 1997.

    The Honorable John Chafee, Chair
    Senate Committee on Environment and Public Works
    Senate Office Building
    Washington, DC. 20510

    Dear Senator Chafee: Thank you for the opportunity to testify 
before the Subcommittee on Transportation and Infrastructure on May 7, 
1997 on the subjects of transportation safety, border infrastructure 
and the Southern California Association of Governments, (SCAG) Freight 
Facilities Factor proposal for inclusion in the reauthorized ISTEA.
    In considering your two questions poses in your May 12 letter, SCAG 
has the following responses, beginning with the second question first.
    1. Unique Attributes of Border States and International Truck 
Traffic. The main special characteristic of border states is their 
responsibility as the point of entry for international truck traffic. 
The additional truck traffic caused by NAFTA has created chokepoints, 
further producing congestion, delay and unsafe road conditions at our 
borders and beyond through our regional highway systems which feed into 
the national interstate system. Approximately 40 percent of imports are 
consumed in or destined for our state, while the remainder, 60 percent 
is transported to virtually every other state in the nation. California 
is not unique from other border and international port states in this 
regard. We feel this is a ``service'' that these states provide to 
their neighbors and therefore, should receive some additional 
reimbursement which could be used for improvements on publicly owned 
freight facilities such truck only lanes and grade crossings While 
international freight is moved through all states, the impact is 
concentrated in border states.
    While widening and facility expansion is needed by both border 
states and non-border states, including New Jersey and Pennsylvania and 
Rhode Island border states also have additional needs such as new and 
expanded inspection and enforcement programs and facilities which are 
necessarily costly, yet critical to ensure effective movement of 
freight both nationally and internationally.
    The SCAG Freight Facilities Factor, however, recognizes truck 
traffic as a major problem throughout the country's transportation 
system and addresses it through proposed allocation of highway funds 
based on highway mileage and value of international goods transported. 
Under our proposal each state receives an allocation reflective of its 
share of the freight burden.
    2. The Administration's Trade Corridor and Border Crossing Planning 
and Border Gateway Pilot Project in NEXTEA. SCAG supports the concept 
of this program, along with attendant funding. We do not believe, 
however, the $45 million for the program is enough to meet both our 
planning and project implementation needs. In Southern California 
alone, we have estimated that approximately $671 million is needed to 
improve our inspection facilities, build transfer facilities and expand 
existing road lanes so that border crossings connect to interstate 
routes. For example, in San Diego County at Otay Mesa and in Imperial 
County at Calexico East, also called Andrate, border facilities were 
constructed without completion of an effective highway connection, 
thereby leaving it to the state and local levels to fund.
    With almost 10 percent, or S4.5 million of the annual proposed 
total dedicated to planning functions, we are pleased to see planning 
at the forefront of this grants incentives and pilot program. We are, 
however, concerned about the $100,000 cap on states and MPOs under the 
border gateway portion of the program. We believe this amount is 
insufficient to carry out planning activities at the state or regional 
level, even if it is envisioned to be supplementary to other category 
funds such as STP.
    Southern California is pursuing a Southwest Passage program with 
the three neighboring states and regions in that corridor. It will 
identify priority improvements needed to create a seamless intermodal 
transportation system that connects with the rest of the country and 
with Mexico. The Southwest Passage, which strengthens this country's 
east-west corridor connections to north-south corridors while 
emphasizing increased use of the Los Angeles and Houston ports, appears 
to meet the criteria of this grants incentives and pilot program. We 
would be unable, however, to obtain the All Finding necessary to 
complete project due to the $100,000 cap. We recommend removing this 
cap.
    Once again, thank you for the opportunity to testify and respond to 
your thoughtful questions. We are, as noted above urging the inclusion 
of the SCAG Freight Facilities Factor in the revised formula allocation 
under the reauthorized ISTEA and look forward to securing your support 
for this proposal. If you need further information or clarification, 
please contact Jim Gosnell, SCAG Planning and Policy Department at 213-
236-1889.
            Sincerely,
                   Bob Bartlett, SCAG First Vice President,
                                           Mayor, City of Monrovia.
                               __________
Statement of Thomas J. Donohue, President and Chief Executive Officer, 
                     American Trucking Association
                            i. introduction
    Chairman Warner, Senator Baucus, members of the Subcommittee, thank 
you for holding this hearing on safety and for giving me the 
opportunity to share with you the trucking industry's recommendations 
for improving the safety of all motorists on our nation's highways.
ATA Represents the Trucking Industry
    The American Trucking Associations, Inc. (ATA) is the national 
trade association of the trucking industry. We are a federation of over 
36,000 member companies and represent an industry that employs over 
nine million people, providing one out of every ten civilian jobs. 
ATA's membership includes nearly 4,200 carriers, affiliated 
associations in every state, and 13 specialized national associations. 
Together, ATA represents every type and class of motor carrier in the 
country.
Safety is Our Driving Goal
    While our industry is diverse, we all agree that safety is one of 
the primary considerations behind every decision affecting our 
operations. The industry has championed aggressive safety initiatives 
that have helped to make our nation's truck fleet much safer today than 
it was just a decade ago. Our initiatives are paying off. Between 1985 
and 1995, while the number of miles traveled increased 41 percent, the 
fatal accident rate dropped 39 percent, the best year ever. Because of 
the trucking industry's safety efforts, the driving public can be 
confident that the truck drivers with whom they share the road are safe 
professionals. Indeed, Federal statistics show that mile for mile, 
truck drivers have an accident rate less than half that of car drivers. 
The professional truck driver is the best driver on the road; the 
industry expects nothing less of them, and neither should the public.
    This stellar safety record did not happen by chance, nor was it 
achieved easily. It was earned through vigorous, industry-led efforts 
to improve the safety of our highways, our drivers, and our vehicles. 
For example, ATA has fought for and won:


    <bullet>  The national Commercial Drivers License (CDL), which for 
the first time required drivers to meet strict national skill and 
knowledge requirements and gave prospective employers basic information 
we need to weed out unsafe drivers.
    <bullet>  A more than tenfold increase in the number of inspections 
of heavy trucks.
    <bullet>  Common-sense, cost-effective drug and alcohol testing to 
ensure that truck drivers are free of drugs and alcohol when they are 
behind the wheel.
    <bullet>  The elimination of commercial zones in which trucks and 
drivers were allowed to operate without having to comply with Federal 
safety regulations.
    <bullet>  A ban on the use of radar detectors in trucks.


    We are currently pursuing additional safety initiatives:


    <bullet>  Recognizing the value that advanced technology brings to 
safety, we will be spending $6 billion over the next decade to equip 
our trucks with anti-lock braking systems.
    <bullet>  While fatigue plays a relatively small role as a cause of 
truck crashes, we need to recognize that fatigue is a concern for all 
drivers and a problem that affects our entire society. The trucking 
industry has taken the lead in addressing this challenge, embarking on 
extensive, ground-breaking fatigue research that has expanded the 
knowledge base on this subject and set the stage for finding solutions. 
Just last week we completed a ground-breaking international forum on 
ways to reduce fatigue in transportation operations.
    <bullet>  We opposed elimination of the national speed limit 2 
years ago and continue to encourage states to resist increasing 
allowable speeds on their highways.
    <bullet>  Recognizing that truckers who wear their safety belts are 
20 times less likely to die in an accident, ATA has conducted outreach 
efforts to encourage truckers to buckle up. According to the National 
Highway Traffic Safety Administration, wearing a safety belt reduces 
the risk of fatal injury to front-seat passenger car occupants by 45 
percent. We support and encourage efforts to increase safety belt use 
for all motorists.
    <bullet>  We have expanded our efforts to educate all drivers on 
how to safely share the road with others. For example, ATA has hosted 
forty ``How-to-Drive'' press events throughout the country to point out 
local traffic hot spots and inform motorists about how to share the 
road safely with a truck. Members of the America's Road Team, and state 
and corporate Road Teams, have made safety presentations before more 
than 1,000 school, business, and media audiences. We have distributed 
hundreds of thousands of brochures and pamphlets about highway safety, 
including more than half a million brochures about the dangers of 
drowsy driving. ATA has also aired public service announcements about 
the dangers of drowsy driving, reaching millions of radio listeners.
    <bullet>  Finally, we support the common-sense use of conspicuity 
markings on trailers.
                   ii. we must improve highway safety
    The human toll of crashes on our nation's highways cannot be 
overstated. Nearly 42,000 people die annually in highway crashes and 
2.3 million people are seriously injured. That is a national disgrace. 
To put this in more illustrative terms, the number of fatal accidents 
is equivalent to a Valujet crash each and every day of the year. Motor 
vehicle crashes represent about 40 percent of accidental injuries and 
deaths each year and are the leading cause of death for young people 
ages five through 32 years. In addition to the severe human costs 
associated with highway crashes is the economic burden on all Americans 
that result from motor vehicle crashes. Crashes create traffic delays 
which cause more accidents, contribute to air pollution, consume 
energy, and lower the productivity of the nation's industries and work 
force. The annual cost to our economy of the deaths, injuries, and 
property damage is $150.5 billion, the equivalent of $580 for every 
person living in the United States, or 2.2 percent of the country's 
Gross Domestic Product. Motor vehicle crash costs funded through public 
revenues cost taxpayers $13.8 billion in 1994, the equivalent of $144 
in added taxes for each household in the United States.
    Despite these grim statistics, against ATA's objection, the 
national maximum speed limit was repealed in 1995. Since then, 34 
states have raised their speed limits, and 23 of these 34 states have 
increased their speed limits to 70 miles-per-hour or greater. We are 
extremely concerned about the potential impact of these changes on 
highway safety. Recent reports from two states--New Mexico and Texas--
indicate an increase in fatal accidents since those states raised their 
maximum speed limits. ATA strongly supports the U.S. DOT's research 
efforts in this area. We urge Congress to develop incentives for states 
to create speed management programs that will improve highway safety.
                   iii. trucking's safety performance
    As a leading highway safety advocate, the trucking industry is 
moving ahead with initiatives which will continue to make trucks the 
safest vehicles on the road and reduce our role in the daily tragedy 
played out on our nation's highways. However, we all have to 
acknowledge where the problem is. The fact is that in 88 percent of 
highway fatalities, trucks are not even involved in the crash. The 
latest National Highway Traffic Safety Administration (NHTSA) figures 
show that the fatal accident rate for trucks is going down, even while 
the number of fatalities for car drivers is going up. Of the crashes 
causing the remaining 12 percent of the fatalities--where a truck was 
involved--72 percent of the time the problem began with the driver of 
the other vehicle. As the statistics bear out, trucks are safe and 
getting safer, not withstanding what you will hear from some others.
   iv. the administration's nextea proposal will not improve highway 
                                 safety
    Acting Federal Highway Administrator Jane Garvey acknowledged 
during recent Senate testimony that the Administration's budget 
proposal provides insufficient funding for maintenance of our nation's 
transportation systems. In addition, under NEXTEA, the Administration's 
proposal for reauthorization, user fee revenues available for 
investment in the National Highway System (NHS) fall nearly $7 billion 
short of the $15.6 billion annual Federal funding level necessary to 
simply maintain these most important highways.
    Furthermore, NEXTEA dilutes funds available for national highway 
needs by providing for greatly increased diversion of user fee revenues 
to projects that will have extremely limited highway safety benefits. 
The Administration's proposal raises the funding levels of non-highway 
programs such as the Congestion Mitigation and Air Quality Program 
(CMAQ) and Transportation Enhancements Program (TEP). Regardless of how 
well-intentioned these programs might be, all of them--particularly the 
TEP--have funded superfluous projects such as the landscaping of a 
picnic area, enhancement of a jungle trail, rehabilitation of a beach 
chalet, and preservation of a Shaker barn. Clearly, these projects will 
not reduce highway fatalities. At the same time, the Administration 
proposes to cut funding for the Bridge Program, a program which clearly 
contributes to highway safety.
    Finally, the Administration has proposed turning its back on 40 
years of history by allowing tolls on the Interstate Highway System. 
Every motorist's experience with toll barriers teaches us that forcing 
traffic on a free-flowing Interstate to come to a halt at a toll plaza 
increases the accident risk. Moreover, tolls could divert drivers from 
freeways, causing them to use less safe secondary roads. Charging 
highway users to rent what they have already bought is a travesty. The 
trucking industry is already paying more in highway taxes than we get 
back, and under the Administration's proposal, Highway Trust Fund 
balances will increase to approximately $48 billion by 2002.
                  v. ata's proposal to improve safety
    Just as the demands on our industry are constantly changing, our 
strategies for improving the trucking industry's safety performance 
must also adapt to meet new challenges. Therefore, ATA has developed a 
comprehensive strategy which builds on previous safety efforts and 
focuses attention on those areas of growing concern. Many laws and 
regulations were written decades ago, and did not anticipate such 
innovations as just-in-time (JIT) delivery or modern truck equipment. 
Our new safety initiatives take into account the just-in-time, 24-hour 
society that we have become and that increasingly shapes trucking 
industry operations.
    It is essential that safety legislation recognizes the importance 
of efficient freight delivery to our nation's global competitiveness. 
We firmly believe that safety does not have to be compromised to 
achieve financial goals. However, we all have to be smarter in the way 
we invest limited resources and in the methods we use to affect driver 
performance and carrier responsibility.
     vi. roadway improvements will reduce accidents and save lives
    A key step in improving highway safety is increasing the investment 
in better highways. While safety improvements such as anti-lock brakes 
and a reduced drunk driving rate undoubtedly make our highways safer, 
the fact remains that approximately 30 percent of highway fatalities--
11,000 lives each year--are the result of inadequate roadways.
    Thanks to the leadership of Chairmen Warner and Chafee, and Senator 
Bond, a clear majority of Senators have now indicated a recognition of 
the need for significant increases in highway investment. We applaud 
these efforts and encourage all Members of Congress to support a 
program level that will address the many deficiencies of our highways 
and bridges.
The Condition of our Highways is Unacceptable
    The National Highway System (NHS), consisting of the 162,000 miles, 
or 4 percent of the nation's most critical highway mileage, carries 40 
percent of all traffic, 75 percent of truck traffic, and 80 percent of 
tourist traffic. Despite this high usage, 40 percent of the NHS has 
been allowed to slip into poor or mediocre condition, and nearly a 
quarter of NHS routes experience periods of severe congestion. While an 
annual Federal investment of $15.6 billion is required simply to 
maintain conditions and performance on the NHS, just $6.5 billion in 
Federal funding was authorized for investment in the NHS in fiscal year 
1997.
    Fortunately, sufficient highway user revenues are available to 
improve the condition of the NHS and bridges and reduce congestion on 
NHS routes. However, these funds are being diverted to the General Fund 
and to projects which will contribute little or nothing toward a 
reduction in the 42,000 fatalities that occur on our highways every 
year. Spending all highway user revenues in a timely manner and 
prudently drawing down the $22 billion surplus in the Highway Trust 
Fund will allow for a total annual investment level of at least $34 
billion.
    This level of investment is essential to achieving the common goal 
of significantly improved highway safety. A $19 billion investment in 
the NHS and a $4 billion investment in bridges is necessary to reduce 
the absolutely unacceptable carnage on our nation's highways. This 
level of spending will halt the deterioration of NHS routes and highway 
bridges, improve road conditions, and ease congestion.
    It is important to keep in mind that 47 percent of the NHS is made 
up of two-lane roads. Many of these roads, and other non-Interstate NHS 
routes, lack the characteristics that can prevent or lessen the 
severity of accidents, such as medians or median barriers, twelve-foot 
lanes, shoulders, and clear zones. These deficiencies contribute to a 
higher overall fatal accident rate. While the Interstate System has the 
lowest fatality rate--0.73 fatal accidents per 100 million vehicle 
miles traveled (VMT)--NHS routes not on the Interstate have a death 
rate of 1.74, nearly 60 percent higher than the rate for Interstates.
    Fortunately, certain countermeasures and treatments can 
substantially reduce the incidence and severity of crashes on these 
non-Interstate NHS routes:


    Clear Zones are areas adjacent to the roadway which are free of 
fixed objects and allow motorists to stop safely and regain control of 
their vehicles. Clear zones can reduce the single-vehicle accident rate 
on two-lane highways by up to 63 percent.
    Gentle Roadside Slopes reduce the risk of vehicles over-turning if 
they leave the road. Side slopes which are too abrupt are the major 
factor in roadway departure crashes, representing almost 30 percent of 
the total number of such crashes. Flattening the side slopes on two-
lane rural roads could reduce accidents on these roads by up to 15 
percent.
    Forgiving Devices are roadway features such as signs and utility 
poles which breakaway on impact, barrier walls or guardrails which 
redirect vehicles away from hazards, and crash cushions which absorb 
the energy of impacts.
    Rumble Strips alert drivers encroaching on the road shoulder or 
approaching some other potentially hazardous situation. Rumble strips 
are especially useful in preventing fatigue-related accidents. On roads 
which have very long, straight sections, these features can reduce the 
number of run off the road crashes by as much as 50 percent.
    Signing, Pavement Markings and Reflective Delineation Devices 
improve driver perception of important roadway features and alert them 
to changes in roadway geometry or other conditions that might not be 
otherwise anticipated. Roadway departure crashes are about four times 
more likely to occur on curved roads than straight roads.
    Pavement Improvements provide drivers with greater increased 
traction for maneuvering and stopping, particularly in adverse weather 
conditions. Where there are a large number of wet weather crashes, 
resurfacing can cause a net reduction in crashes, averaging 20 percent 
over the life of the project.
    Preventive Pavement Maintenance can eliminate drop-offs between the 
road pavement and shoulder, reducing the chance that drivers who wander 
off the road and try to return will lose control. Maintenance to repair 
potholes can eliminate erratic maneuvers by motorists.
    Widening Lanes provides a larger road surface on which to maneuver 
during an emergency, reducing head-on collisions and roadway departure 
crashes. In some studies, more than 3/4 of the crashes on roads with 
narrow lanes were found to be associated with inadequate lane width. 
Although 12 feet is the optimum safe lane width, more than 13,000 miles 
of NHS highways have lanes that are less than 12 feet wide.
    Adding or Widening Shoulders provides drivers with additional room 
to maneuver on narrow roads.
Bridge Needs are Critical
    Sufficient funding for a Federal Bridge Program is needed to 
address a national crisis. Approximately 28 percent of highway bridges 
are structurally or functionally deficient. FHWA estimates that over 
the next 20 years more than 200,000 bridges will have to be replaced or 
repaired just to maintain current conditions; that figure jumps to 
450,000 if a commitment is made to significantly improve nationwide 
bridge conditions.
    In addition, narrow bridges are a known cause of crashes, which are 
often severe. About 300 fatal crashes result annually from collisions 
with either the bridge abutment or rail. An unknown number of 
fatalities also result from head-on collisions on bridges, many of 
which occur as a result of a motorist's tendency to gravitate toward 
the centerline of a narrow bridge.
    Countermeasures can reduce the frequency and severity of these 
narrow bridge crashes:
    Bridge Widening leaves more room for oncoming vehicles to pass, 
reducing the likelihood of collisions.
    Bridge End Treatments, such as crash cushions or guardrail 
transitions to the bridge ends can reduce crash severity.
    Signing, Pavement Marking and Delineation alert drivers to 
approaching narrow bridges and allow them to position their vehicles 
safely when crossing bridges.
    One of the most pressing issues facing all who rely on Interstate 
95 for their personal mobility or ability to conduct their business is 
the need to replace the Woodrow Wilson Bridge over the Potomac River. 
Built by the Federal Government in 1961 to carry 75,000 vehicles per 
day, it now carries a daily total of 175,000 vehicles, including over 
17,000 trucks. In addition, the bridge is rapidly deteriorating and has 
a useful life of no more than 8 years. Closing the bridge to truck 
traffic within 5 years has been discussed as a method of extending the 
life of the bridge if a replacement is not completed on time. If bridge 
traffic is diverted, congestion in the Washington region would become 
unbearable, leading to many more accidents and fatalities and more air 
pollution. The ability of trucking companies to meet delivery schedules 
would be highly compromised, affecting industry productivity throughout 
the nation.
    As the owner of the Wilson Bridge, the Federal Government is 
responsible for the completion of a replacement structure before it is 
necessary to close the bridge to traffic. ATA recommends that the 
Federal Government fully fund the project. This would both facilitate 
timely completion and prevent the need for construction of a toll 
facility on one of the nation's busiest Interstate freeways.
       vii. ata's proposed initiatives to improve highway safety
    America's truckers are the safest drivers on the road and they are 
getting safer. ATA has identified two areas that would enhance their 
safety even further, and requires help from this Committee: additional 
public rest areas and safer rules for non-divisible loads.
Public Rest Areas
    A recent study found a shortfall of 28,500 truck parking spaces in 
public rest areas. According to the study, eight out of ten of the 
nearly 1,350 rest areas nationwide report truck utilization as either 
full or overflowing onto the ramps at night. A similar percentage of 
private truck stop operators also reported that their facilities were 
full or overflowing at night.
    When truck stops are full, truck drivers have little choice but to 
either park illegally--which can create a hazardous situation--or to 
continue driving, possibly breaking hours-of-service laws or becoming 
so fatigued that they put themselves and other motorists at risk. 
Neither choice is acceptable.
    The nationwide cost to develop the necessary parking spaces is 
estimated to be $489 million to $629 million. Sufficient funds are 
available within the Highway Trust Fund for this purpose. We urge 
Congress to address this very serious safety problem by making rest 
area construction, expansion, improvement, and access eligible under 
all major funding categories of the Federal-aid highway program.
Non-divisible Load Grandfather Right
    FHWA has recently adopted a new definition of the ``non-divisible 
load'' regulation and has begun enforcement. Unfortunately, the new 
definition and its interpretation have caused shippers, carriers and 
state enforcement agencies to make changes to long-established 
practices, changes that negatively impact the safety of truckers and 
the driving public.
    For example, Colorado and Wyoming have a long accepted practice of 
moving two long concrete panels for bridge construction together in an 
``A-frame'' configuration. This method improves the stability of the 
load and maintains the integrity of the panels, and is considered to be 
the safest technique for loading and shipping the panels. 
Unfortunately, FHWA has failed to recognize this evidence and, under 
the new definition of non-divisible load, has rejected this safe method 
of transport.
    Congress should provide a grandfather right for states which have 
been managing their non-divisible load transportation needs safely and 
effectively. It is illogical and dangerous to force states to abandon 
traditional safe practices without strong evidence that those practices 
no longer serve the public interest in highway safety.
                           vii. other issues
    ATA is pursuing several other highway safety reforms that involve 
the jurisdiction of other committees. We hope you will support our 
efforts to advance these important concepts.
Motor Carrier Safety Assistance Program (MCSAP) Funding
    Ensuring that our nation's truck fleet is well maintained and 
operates within the limits of state and Federal law is essential to the 
safety of our highways. The vast majority of trucks on the road are in 
safe condition and are continuously improving. One indication of this 
is the ``out-of-service'' rate, i.e. the percentage of trucks inspected 
found to have a problem that causes them to be pulled off the road 
until the problem is corrected. Over the past 7 years, while the number 
of inspections has increased 51 percent, the number of trucks placed 
``out-of-service'' has dropped 34 percent. We want to build on this 
progress by expanding efforts that ensure America's truck drivers are 
safe professionals and our nation's truck fleet operates safely and in 
adherence to the law.
    MCSAP, the Federal motor carrier inspection program, has 
contributed significantly to the improved truck safety record. This 
program must be expanded. ATA supported the original program and 
recommends an authorization of $150 million for MCSAP, which is 50 
percent higher than the amount proposed under NEXTEA and 60 percent 
higher than the current authorization.
    This higher funding level would increase the number of inspections 
and help to ensure that trucks on the road are safe. This is especially 
important because FHWA uses roadside inspections to identify carriers 
who need more detailed reviews. More inspections, therefore, would 
identify more companies who should be scrutinized more closely.
Commercial Drivers License (CDL) Improvements
    While the national licensing program for truck and bus drivers has 
had very positive safety effects, it needs to be improved to be a 
better measure of driver skills and a more effective system for keeping 
track of driver records. We see four areas that need improvement.
    <bullet>  Performance-Based Testing--Congress should require FHWA 
to work with the states and industry to raise the skills and knowledge 
requirements of the CDL to make it a better measure of driver 
performance. Federal startup funds should be provided; ongoing funding 
would come from CDL fees.
    <bullet>  Biometric Identifiers--FHWA should select a more 
effective biometric identifier to ensure that every commercial driver 
has only one CDL.
    <bullet>  Accurate Information Availability--States should be 
required to maintain an accurate and timely record of driving 
violations and related warrants for holders of CDLs. This information 
should be available to drivers and employers as quickly as possible so 
that drivers with poor safety records are not able to move between jobs 
before their poor record is able to catch up with them.
    <bullet>  Accurate Information Sharing--Motor carriers are 
currently reluctant to share adverse driver record information with 
subsequent prospective employers of a driver because of the potential 
for a lawsuit. Carriers need to be free to share accurate information 
regarding a previous employee with a subsequent employer without being 
subject to liability damage awards because an unsafe driver was 
prevented from being hired based on his poor driving record.
Improved Alcohol Testing
    Under a Congressional mandate, motor carriers are required to 
administer, within 8 hours, a post-accident alcohol test to drivers 
involved in certain accidents.
    Carriers, even large ones with full-time safety staffs, have 
experienced extreme difficulty in locating suitable test facilities and 
getting drivers to the facilities within the prescribed timeframe.
    We recommend that Congress remove the post-accident alcohol testing 
mandate in favor of a system that allows law enforcement officers to 
conduct a test if there is reasonable cause to suspect the use of 
alcohol, and during random testing at sobriety checkpoints. Congress 
should extend funding eligibility through the current Motor Carrier 
Safety Assistance Program (MCSAP) for testing conducted outside the 
bounds of current state DWI/DUI laws performed to comply with Federal 
regulations.
Driver Safety Qualifications
    The physical qualifications to drive a truck safely should be the 
major concern of trucking companies when they recruit drivers. 
Currently, carriers have to make the choice between risking a major 
lawsuit because they refused to hire a driver who was physically or 
medically unqualified or putting a driver on the road who they believe 
to be a danger to themselves and other drivers. Congress should amend 
Federal law to ensure that carriers have the ability to make a 
reasonable determination as to whether a driver is physically qualified 
to engage in a particular task or operate a piece of equipment without 
fear of legal retribution.
Innovative Safety Programs
    Under current law, FHWA has very limited ability to explore new or 
innovative safety regulation programs, even with carriers that have the 
best safety and compliance records in the industry. If granted such 
ability, FHWA could move its regulatory framework from the current 
prescriptive approach to a performance-based approach. We recommend 
that Federal law be amended to provide FHWA with greater flexibility to 
initiate pilot safety programs.
Raise the Insurance Liability Limits for In-Bulk Petroleum Products
    While technical changes have been made to the requirements 
regarding minimum financial responsibility levels for motor carriers 
involved in incidents involving bulk petroleum products, for 17 years 
there have been no changes made to account for inflation or changes in 
the transport costs.
    The minimum level of financial responsibility required for 
flammable liquid petroleum products in capacities above 3,500 gallons 
should be increased from $1 million to $5 million.
Reduce Truck Registration Paperwork
    The original goal of the single state insurance registration 
program (SSRS) was to enable shippers, other carriers and the public to 
find out about a trucking company's insurance information, in the event 
of an accident. FHWA now maintains such a system, so the state system, 
and associated paperwork are unnecessarily duplicative. And, because 
the Federal system is updated more frequently, it is more accurate.
    ATA recommends the repeal of the Federal requirement for a state 
insurance registration system. The Federal filing system can be 
strengthened further through automation and by seeking vendors to 
provide the service.
Intermodal Roadworthiness
    Existing Federal law holds motor carriers responsible for ensuring 
that the intermodal equipment they use, but neither own nor control, 
meets U.S. DOT Federal Motor Carrier Safety standards. The equipment 
providers have both the opportunity and capability to ensure that the 
equipment is roadworthy. However, while motor carriers are held 
responsible for the equipment, providers do not give carriers the 
opportunity to perform more than a cursory inspection of this equipment 
or the opportunity to repair defects that are discovered.
    While motor carriers should still be responsible for the equipment 
they operate, the equipment providers should be responsible and that 
the equipment they hand over to the motor carrier meets Federal 
guidelines and that it is safe to operate on the highway. U.S. DOT and 
state safety inspectors should be given the authority and 
responsibility to inspect and enforce such requirements. This is the 
most effective method of ensuring that intermodal equipment is safe to 
operate before it is taken onto the highway.
Hours of Service Reform
    Current hours of service regulations, many of which have been on 
the books for 60 years, are too inflexible and outdated. We need to 
revisit these regulations as a way to maintain highway safety and avoid 
driver fatigue. A 1930's solution to a 1990's problem is unacceptable, 
and does not address the realities of today's operating environment or 
JIT delivery systems. New options should be developed that improve 
highway safety, as well as industry productivity and efficiency.
    ATA is absolutely committed to finding workable countermeasures to 
fatigue. Through extensive research and outreach efforts, ATA has taken 
a leading role in developing solutions to the fatigue problems that 
affect all modes of transportation and all facets of our society.
    ATA has a multi-faceted action plan to fight fatigue. The plan 
contains five broad elements: research, rest areas, education and 
training, hours of service reform, and countermeasures to fatigue. Last 
week, our Foundation, in cooperation with the U.S. Department of 
Transportation and representatives from other industry sectors, hosted 
an international conference on fatigue. Some of the world's leading 
experts on the subject discussed the latest fatigue research and the 
most innovative approaches to managing fatigue.
Meals Deduction for Truck Drivers
    Truck drivers were the principal victims of the cutback in the 
meals deduction from 80 percent to 50 percent in 1994. Hours-of-service 
limits on driving time often force truckers to stay out on the road and 
incur added meal expenses instead of returning home. The reduction in 
deductibility means that drivers eat lower cost meals that can be less 
healthy or travel longer distances off major highways to get lower cost 
food.
    Drivers should not face the penalty of having only a 50 percent 
deduction for meal expenses that are incurred in connection with a 
Federal safety mandate. Therefore, we seek a restoration of the 80 
percent deduction for business meals for workers covered by U.S. 
Department of Transportation hours-of-service rules.
Safety Ratings/Audits
    Under a recent court decision, FHWA procedures used to assign 
safety ratings to trucking companies were abolished. The court based 
its decision on the fact that FHWA had not gone through a public 
comment period.
    The court decision has created an important opportunity to make the 
safety rating process more equitable and ensure that it truly reflects 
a motor carrier's overall safety performance. In an effort to move this 
process along more rapidly, ATA is sponsoring a June 18 forum which 
will bring together insurance companies, safety experts, 
representatives from the truck and bus industries, and government 
officials.
Comprehensive Truck Size and Weight Study
    FHWA is currently conducting a comprehensive study on truck size 
and weight. ATA urges Congress and the Administration to refrain from 
proposing changes to restrict Federal size and weight laws until the 
final report is released and all involved parties have had the 
opportunity to review and discuss the results.
                             x. conclusions
    Nearly 42,000 people die on our highways every year. Improvements 
can be made to our highways and bridges that will reduce this human 
devastation. The fact that funds which could be made available for 
these improvements are held back or diverted to non-highway purposes is 
incomprehensible and indefensible. Promotion of a safer, more efficient 
system of highways and the ability to give states and localities the 
flexibility and resources to address their unique concerns requires the 
availability of all highway user revenues for investment. We urge the 
Committee to support our efforts to improve the safety of carriers and 
drivers, and to ensure that trucks are properly maintained and operated 
legally.
    The first step in addressing highway safety is to identify the real 
roots of the problem. Eighty-eight percent of fatal accidents do not 
even involve trucks. A third of all fatal crashes are caused by roadway 
hazards, not the vehicle or driver. The responsibility for reducing 
crashes must be placed with every driver, not a select few who are 
easily singled out. Federal, state, and local transportation officials 
must commit to making the improvements to their highways that will 
curtail the number and severity of crashes. They must also make a 
commitment to ensure that vehicles and drivers are safe. Without 
sufficient funding, however, these efforts cannot be carried out. 
Congress has a responsibility to invest the money that highway users 
pay into the Highway Trust Fund in programs that will address the 
critical safety needs of our nation's roads and drivers.
                                 ______
                                 
  Responses by Tom Donohue to Additional Questions from Senator Chafee
    Question 1. What legislative changes would cause the greatest 
reduction on truck related accidents and fatalities?
    Response. We should significantly increase spending on highway 
safety programs in the ISTEA reauthorization. ATA supports a larger 
safety program in ISTEA and special emphasis on safety issues. 
Increased investment in highway infrastructure will improve safety and 
reduce the 42,000 fatalities that occur annually on the nation's 
highways. We also need to have targeted safety programs to improve 
safety procedures.
    Over the past decade, the trucking industry's support for safety 
measures has contributed to a 39 percent reduction in the fatal 
accident rate for crashes involving trucks. However, in over 30 percent 
of highway fatalities--11,000 lives every year--inadequate roadways are 
cited as a factor in the fatality. The Federal Highway Administration 
reports a backlog of more than $300 billion in the funding needed for 
road repairs. A significant increase in the size of the highway 
infrastructure program would address root causes of these fatalities. 
Taxes already being collected from highway users would support an 
increase from the current $20 billion annual program to a $34 billion 
annual program.
    A range of safety efforts that extend beyond infrastructure 
concerns, and which focus on both drivers and vehicles, should also be 
pursued. For instance, since only 12 percent of fatal accidents involve 
trucks, we have launched an education campaign to teach all drivers 
techniques to drive more safely. We hope to work in partnership with 
the U.S. Department of Transportation to expand these efforts. To 
address driver fatigue, more funding should be available for additional 
highway rest areas. We believe that it is time to reexamine the 10-year 
old commercial driver license program and find ways to improve the 
program's ability to identify safe drivers and weed out bad drivers. To 
take overweight and unsafe trucks off the road, more funds should be 
available to states for truck inspection facilities and portable 
scales.
    I look forward to working with you and the Committee to promote 
initiatives that will make our roads safer for all. As we head into the 
new century, safety must become a key factor behind any decision 
regarding the investment of highway user fees.

    Question 2. What is your position on H.R. 551, the bill introduced 
by Representative Oberstar that would affect truck size and weights. 
Which portion of the bill do you oppose? Which portion do you support?
    Response. We do not support any of the provisions of H.R. 551. This 
bill would reduce safety by encouraging the retention of older 
trailers, preempt state law and reduce state flexibility, prevent 
efforts to reduce highway congestion, create competitive disadvantages 
and lessen intermodal opportunities, and hinder national defense and 
commerce. The bill is poorly thought out and poorly drafted.
    <bullet>  Bill Would Reduce Safety. Section 2 would not allow any 
new trailers longer than 53 feet to be used on NHS highways, other than 
fire-fighting equipment. It would have the perverse effect of 
preventing companies from buying new trailers with safety improvements, 
such as anti-lock brakes. There is no study that documents that longer 
trailers are unsafe.
    <bullet>  States Know Their Roads Best. H.R. 551 would substitute 
Federal dictates for state analysis. Section 3(a) would not allow any 
vehicle to operate that was ``not in conformance with Interstate weight 
limits.'' This would require states to impose the Interstate System 
highway limits on state roads and roll back weight limits that exist in 
many states for agricultural, forest and specialty products.
    <bullet>  Increase Truck Congestion. Economic projections show that 
freight tonnage will increase 30 percent by the year 2000. Requiring 
smaller trucks for the same or increasing volume of goods will add 
trucks to the highways. This will increase congestion and provide more 
exposure to accidents.
    <bullet>  Creates Competitive Disadvantages. Some ports allow 
trucks with containers weighing up to 95,000 pounds to travel on state 
roads, even though they could not travel on Interstate System roads. 
Under this bill, the container weight would have to be reduced by 
reloading the cargo into two containers. This will increase congestion 
and put these ports at a competitive disadvantage. Ships will divert 
from these ports to states that have higher Interstate grandfather 
weights.
    <bullet>  Hinders Defense and Commerce. Companies could not 
purchase new trailers longer than 53 feet that are needed to 
accommodate oversize military tanks, large farm and hospital equipment, 
and large plant machinery. Moreover, on National Highway System roads 
not on the Interstate System, the literal language of the provision 
would prevent permits for new non-divisible load movements.
    <bullet>   Bill is Poorly Thought Out. Clear proof of the poor 
thinking behind the bill is that it amends a statute that was repealed 
in 1994 by P.L. 103-272\1\ and remodified. Moreover, the proposed bill 
is not in step with reality, because, it would force the country to 
solve the transportation problems of the 21st century with limits set 
in 1956. We do not limit the size of today's airplanes to those that 
were operating in 1956.
---------------------------------------------------------------------------
    \1\Revision of Title 49, Transportation, United States Code, July 
5, 1994.

    Question 3. What is your reaction to AASHTO's 1987 policy position 
stating that to be compatible with existing highway design and safety 
needs, the maximum length for semitrailers should be no more than 48 
feet?
    Response. After thorough discussion, AASHTO wisely deleted this 
position from its current policy. Instead, the 1997 ``AASHTO 
Transportation Policy Book, January 1997,'' in the AASHTO Comprehensive 
Domestic Freight Policy (April 1995) PR-5-95, contains 12 policy 
principles for the development of a comprehensive national freight 
policy (see attachment).
    In general terms, ATA agrees with the AASHTO positions. With regard 
to truck size (trailer length) and weight, the AASHTO policy PR-5-95 
states, ``Size and weight standards should be routinely evaluated 
against direct and indirect infrastructure, environmental and public 
costs and benefits and within the context of a national freight 
transportation policy, and modified (when appropriate) to reflect 
transportation system conditions and technological advances. ``
                                 ______
                                 
   Responses of Tom Donohue to Additional Question from Senator Boxer
    Question 1. Mr. Donohue, when we talk about border infrastructure, 
of course, a large part of the tragic is southbound, from the United 
States. What kind of economic impact does congestion at our borders 
have for the trucking industry?
    Response. As you have said in the past and we totally agree, 
``America's economic future is tied to the efficient transport of goods 
and people both in and out of our country and across the country. We 
cannot be the economic world leader if gridlock wins the day.'' We also 
agree that the Administration's border crossing and trade corridors 
grant program is woefully under funded. We believe your proposal 
authorizing $125 million per year for a border infrastructure fund is a 
far more realistic approach to solving our border infrastructure 
problems.
    Travel delays in the nation's 50 largest urban areas, as a result 
of increased congestion, cost society an estimated $50.32 billion every 
year. Congestion increases the risk of accidents and interferes with 
the trucking industry's ability to serve its customers ``just-in-time'' 
delivery needs. In San Diego alone, congestion delays are estimated to 
cost each registered vehicle $390.00 per year. \2\
---------------------------------------------------------------------------
    \2\ Urban Roadway Congestion--1982 to 1993, Volume 1 and 2, 
Research Report 1131-8, August 1996, Texas Transportation Institute, 
The Texas A&M University System, College Station, Texas.
---------------------------------------------------------------------------
    But congestion is not just an infrastructure issue. It is a problem 
inherent in the complicated system of transferring freight at the 
border today--and perpetuated by the delay in implementing the NAFTA 
trucking provisions. Today, because we cannot deliver freight directly 
into Mexico, we must use multiple carriers. It is a three-step process 
which involves a carrier on the U.S. side, a Mexican drayage carrier to 
bring freight across the border, and a Mexican carrier on the other 
side of the border.
    An industry of middlemen has developed at the border to transfer 
freight between terminals for inspection (and reinspection in some 
instances). This, in addition to brokers, freight forwarders, and 
warehousemen, creates unnecessary and expensive steps in the freight 
transfer.
    A recent study by Texas A&M University estimates that this 
inefficient system costs the auto industry alone over $2 million 
annually for southbound auto shipments at the Port of Laredo. The 
multiple carrier system contributes greatly to congestion and 
significantly overburdens an already strained border infrastructure. 
Opening the border, as the United States committed to do when NAFTA was 
signed, would greatly alleviate the congestion at the border since 
ultimately, we could use one truck to move freight from the U.S. to 
Mexico.
                                 ______
                                 
                AASHTO Transportation Policy Resolution
     aashto comprehensive domestic freight policy (april 25, 1995)
    WHEREAS, the United States has one of the most developed freight 
transportation systems in the world providing many choices to move raw 
materials, finished products, ant other goods to serve the nation's 
defense and economic needs; and
    WHEREAS, this system has evolved over time reflecting changes in 
technology, development patterns, and the needs of private industry; 
and
    WHEREAS, as the Nation moves toward a more service-oriented, global 
economy, with few multi-national economic blocs and more decentralized 
manufacturing, and as the Nation faces the need to increase national 
competitiveness, American businesses are seeking to reduce the time and 
cost for products to reach international and domestic markets and more 
efficient transportation, distribution and logistics systems; and
    WHEREAS, consistent with national economic goals and objectives, 
the American Association of State Highway and Transportation Of finials 
(AASHTO) has reassessed its comprehensive freight policy principles and 
has determined that a redefinition and reaffirmation of its freight 
policy principles is warranted;
    NOW, THEREFORE, BE IT RESOLVED by the AASHTO Board of Directors 
that AASHTO committees should be guided by a set of approved AASHTO 
policy principles in developing a comprehensive domestic freight 
policy; and
    BE IT FURTHER RESOLVED that the following set of AASHTO policy 
principles for development of a comprehensive national freight policy 
are hereby adopted and replace those policy principles adopted in June, 
1991:
  1. The freight transportation infrastructure should enhance domestic 
    economic productivity while encouraging continued user (both 
    business and carrier) investment.
  2. Public investment in transportation infrastructure should augment 
    and leverage private sector investment and promote competitive free 
    marker atmosphere for Height transportation.
  3. The public sector should, in partnership with users and the 
    private sector, exercise a leadership role in the planning and 
    development of a safe and efficient system for the movement of 
    goods which is responsive to technological advances and market 
    trends.
  4. The unimpeded free flow of domestic and international trade should 
    be facilitated through the implementation of intelligent 
    transportation system technologies and effective, uniform 
    administrative procedures and regulations, and efficient taxation 
    policies.
  5. Safety in all transportation modes should remain a priority and 
    should be a key factor in transportation decisionmaking.
  6. Public costs of transportation facilities and services should be 
    recovered through appropriate user charges.
  7. National freight transportation policy should guide development of 
    state and regional freight policy while permitting flexibility to 
    address geographic, economic and transportation differences unique 
    to specific states or regions.
  8. National clean air and energy conservation policies and objectives 
    should be facilitated.
  9. The long-term stability and adequacy of the transportation 
    infrastructure should be ensured by encouraging financially sound 
    investments and partnerships, facilitating the development of 
    intermodal connections and terminals, and committing adequate 
    government funds to maintain and expand the freight transportation 
    infrastructure.
  10. Size and weight standards should be routinely evaluated against 
    direct and indirect infrastructure, environmental and public costs 
    and benefits and within the context of a national freight 
    transportation policy, and modified (when appropriate) to reflect 
    transportation system conditions and technological advances.
  11. Research and development of new technology/innovations which 
    facilitate increased productivity, safety and environmental quality 
    should be encouraged and supported.
  12. The need to provide a multimodal transportation system with 
    effective intermodal connections to support increasing 
    international trade is a national priority and should be recognized 
    along with the need to develop and adopt international standards 
    for freight moving equipment and facilities.
                               __________
     Statement of James L. Kolstad, American Automobile Association
    Mr. Chairman and members of the Committee, I am James L. Kolstad, 
vice president for Public and Government Relations at the American 
Automobile Association. I appreciate the opportunity to be here today 
to bring you AAA's views on reauthorization of the Intermodal Surface 
Transportation Efficiency Act (ISTEA). As you may know, AAA is a 
federation of 99 independent clubs across North America with nearly 40 
million members.
    I want to review AAA's positions on ISTEA safety initiatives and 
then turn briefly to other aspects of ISTEA reauthorization.
    The safety of the motoring public is AAA's primary concern and 
42,000 highway deaths, 6 million accidents and $150 billion in cost 
annually percent strongly suggest it should be a high national 
priority. The reauthorization of ISTEA presents the opportunity to 
address this issue aggressively.
    We have reached the point in this country in which safety is 
directly affecting mobility and our economic well-being. The fact is 
people make decisions on where to live, where to work, where their 
children will go to school, where to shop and where to recreate on the 
assumption they will be able to get there safely and efficiently by 
automobile. So access to good roads has become fundamental to our way 
of life.
    Today, all levels of government invest $35 billion annually in 
highways and bridges. Compare that number with the Federal Highway 
Administration's figures on annual highway and bridge capital needs for 
the period 1998-2002: $53 billion to maintain current conditions and 
$72 billion to improve conditions. You can see why AAA is concerned. 
The sad fact is that with any funding proposal being considered by 
Congress, the Nation will still be billions short to just maintain the 
status quo.
    Being ``pro-safety'' seems like an easy choice. We have never heard 
a Member of Congress say he or she is opposed to safety. But neither 
have we ever heard a Member of Congress say their No. 1 concern is 
funding safety improvements.
    AAA believes it is time to not only ``talk safety'', but to ``fund 
safety.''
    According to the AAA Foundation for Traffic Safety, there are many 
projects that would have a direct and positive impact on safety. For 
example: Widening lanes and bridges which are too narrow; removing 
dangerous obstacles in close proximity to the edge of thousands of 
miles of roadway; repairing roads with dangerous shoulders or no 
shoulders and increasing the radius on curves that are too sharp. (1 
have provided a copy of the AAA Foundation's study to the Committee and 
request I be included in the official hearing record. I also ask that 
the attached AAA safety brochure be included in the hearing record.)
    In short, roads built to higher standards have much lower crash 
rates. Improvements to lower-grade roads produce cost savings that 
exceed expenditures by nearly three-to-one.
    Yet these are the kinds of highway improvements that are being 
deferred or ignored in every state because full investment of Highway 
Trust Fund revenues is continually thwarted by budget games. AAA calls 
upon Congress to increase significantly the Highway Trust Fund 
investment in highway safety improvements such as those we have 
described. This is an investment of their gasoline tax dollars that AAA 
members desire and expect.
    Another safety improvement FAA endorses is improving the safety 
data collection in this country. The nation needs adequate data to make 
the proper policy decisions on what safety improvements will produce 
the most benefits. For example, only fatality data is being used today 
with any degree of uniformity. Yet, less than 2 percent of all crashes 
involve a fatality, so the bulk of the problem goes unaddressed.
    Another kind of data problem is that states have more data and 
access to data than they are willing to use. So we somehow must provide 
incentives to states to use data to make sound judgments and we need to 
broaden the data base. We need to establish links to state and national 
driver licensing data, state Global Positioning System (GPS) data (used 
to identify high accident locations), citation, arrest and conviction 
data, and health care data (to identify the number injured, cost and 
severity). But Federal funding is needed to make it happen.
    AAA believes the Transportation Enhancement program may provide a 
funding option. We support creating an eligible category in the TE 
program to provide funding for safety improvements, such as safety 
information systems.
    AAA believes safety is a much higher priority than some projects 
currently funded by the TE program. We believe even more strongly that 
states should have increased flexibility to invest in safety 
improvement projects from the TE account.
    Now to other provisions AAA strongly supports in ISTEA 
reauthorization.
    First, funding levels for highways and bridges should be 
significantly increased. An increase in funding could be facilitated by 
taking the Highway Trust Fund ``off-budget,'' as Congressman Shuster's 
bill H.R. 4 would do; by investing the unspent balance in the Fund on 
transportation; and by redirecting to the Highway Trust Fund the 4.3 
cents per gallon motor fuels tax now going to deficit reduction.
    AAA is pleased that fifty-seven Senators--ten from this committee--
have signed the Warner/Baucus letter to Budget Committee Chairman 
Domenici requesting an annual investment of $26 billion in highways. 
Unfortunately, even with this additional revenue, the Nation still 
faces a substantial shortfall to just maintain existing conditions.
    AAA also believes that a strong but responsible Federal role in 
transportation policy and financing must be maintained. The 
preservation of a national transportation system is in everyone's 
interest. That's why we have serious concerns about proposals to ``turn 
back'' or ``devolve'' Federal taxing authority to the states.
    When we say a responsible Federal role is necessary, we mean the 
Federal Government must commit to investing all of the revenues in the 
Highway Trust Fund. In addition, unfunded mandates and sanctions not 
directly related to the safety or to the integrity of transportation 
programs should be eliminated. For example, we applaud the goals of 
President Clinton's recently unveiled safety package, which include 
increased seatbelt use and enactment of primary enforcement laws. But 
we oppose sanctions--which seem to be the President's method to achieve 
these goals. The better approach is to offer incentives to states.
    Of course, the key question is: where do we get money for these 
incentives. Much of the money can be found by agreeing to the $26 
billion funding level recommended by 57 Senators, taking the 
transportation trust funds off-budget, transferring to the Highway 
Trust Fund the 4.3 cents per gallon gas tax now going to the general 
fund, and appropriating the full amount authorized for each of the next 
6 years.
    Another area of concern to AAA is the potential for increasing 
truck size and weight. AAA surveys find that heavier and larger trucks 
are strongly opposed by our members. We oppose any Congressional change 
in the size and weight limits of trucks and support the continued 
``freeze'' on longer combination vehicles (LCVs).
    AAA also opposes toll roads as a general principle, believing that 
to the maximum extent possible, all highway facilities should be toll-
free. For more than 80 years, the underlying principle of the Federal-
state highway program has been developing and preserving this nation's 
vast network of quality, toll-free highways. Tolling the existing 
Federal-aid highways--including the Interstate System--would represent 
a major change in course. Instead of a pay-as-you-go highway network 
based on fuel taxes already collected from motorists, responsibility 
for funding highway maintenance and construction would be loaded onto 
future trips of highway users. In other words, ``build now, pay now, 
and pay later!''
    Mr. Chairman, our nation is in an era of limited Federal resources. 
We must recognize that choices, intelligent choices, must be made to 
achieve what is most important to the public. The vital signs of our 
transportation infrastructure signal a system in trouble. An investment 
in this infrastructure protects lives and leaves America's leaders of 
tomorrow--our children--with a fighting chance of keeping America the 
strongest nation on earth. Thank you.
                                 ______
                                 
  Responses by James L. Kolstad to Additional Questions from Senator 
                                 Chafee
    Question 1. The AAA pamphlet you included with your testimony 
entitled Crisis Ahead: America's Aging Highways and Airways included a 
table presenting potential decreases in related crashes for a number of 
highway improvements, for instance increasing lane width to 12 feet 
could decrease crashes by 12 to 40 percent. Which of these improvements 
listed would be the best investment for saving lives?
    Response. AAA's pamphlet lists a number of improvements that are 
needed if we are to enjoy further improvements in the safety of 
automotive travel--including increasing lane width, increasing shoulder 
width, removing roadside hazards, decreasing road curvature, and 
installing median barriers.
    The AAA Foundation for Traffic Safety issued a report Safety 
Effects Resulting from Approval of the National Highway System, which 
found that the greatest impact on fatal crashes from capital 
improvements would be to require all roads to have 12-foot lanes. (The 
Interstate was built with 1 2-foot lanes.) The National Highway Traffic 
Safety Administration's Traffic Safety Facts 1995 reveals that 
``Failure to keep in proper lane or running off road'' leads the list 
of ``Related Factors for Drivers Involved in Fatal Crashes''--with 
15,873 fatalities or 28.3 percent of total drivers involved in fatal 
crashes. The vast majority of these fatalities results from either 
collisions with fixed objects along the roadside or rollovers, which 
can be caused by sideslopes that are too steep.
    In a perfect world, highways would have a clear zone of at least 20 
feet from the pavement edge. Despite the acknowledged safety benefits 
of clear zones, however, environmental and aesthetic concerns, along 
with such other constraints as cost, have hampered the widespread use 
of clear zones.
    Therefore, AAA believes the best investment for saving lives would 
be to require all roads to have 12-foot lanes. Where practicable, 
removing obstacles adjacent to the roadway and reducing the steepness 
of sideslopes adjacent to the highway will also save lives. These are 
realistic goals, and would contribute to highway safety and the 
prevention of lost lives.

    Question 2. At the end of 1996, there was more than $300 million of 
STP safety funding sitting unused. With the tremendous safety problems 
we have on our nation's highways, why haven't the States used all of 
the safety money they have been given over the life of ISTEA?
    Response. States have not used all of the STP safety funding for a 
variety of reasons, but the best answer is that the obligation limits 
placed on contract authority programs ensure that all the available 
funding will not be used each year. The spending rate for Section 130 
and Section 152 programs actually is commensurate with other contract 
authority programs subject to the Appropriations Committees' obligation 
ceiling.
    AAA suggests that, if Congress is serious about addressing highway 
safety, the railroad grade crossing program (Sec. 130) and the hazard 
elimination program (Sec. 152) be exempted from the obligation 
limitation. In other words, Congress should take whatever steps 
necessary to ensure that the programs funded by ISTEA's safety set-
aside program are fully funded each year. While AAA firmly believes 
Congress should provide 100 percent of contract authority for all 
highway programs, the safety set-aside programs, at the very least, 
should be given this treatment. Otherwise, Congress may find it 
increasingly difficult to explain to the American public that, although 
the number of accidents, injuries, and fatalities could be lessened 
substantially if highway improvements had been funded from motorist 
taxes, that investment in safety was sacrificed at the budget deficit 
altar.

    Question 3. In your opinion, how effectively do States use their 
safety set-aside funds?
    Response. AAA believe states have effectively used their safety 
set-aside funds in the Hazard Elimination Fund. We do have one 
recommendation, however. Currently, the state planning process (Sec. 
135(c)) does not require, or even mention the need for, safety planning 
as a part of that process. AAA believes that requiring states to 
include safety into their planning would encourage states to use such 
tools as interactive modeling to look at their zoning, growth 
projections, average daily traffic, and other data to determine if and 
where roads should be upgraded or expanded to meet those projections.
    AAA also suggests a close look at ISTEA's formula for railroad 
grade crossings (Sec. 130). Currently, funds do not necessarily go to 
states with the most need and money is apportioned to states where 
grade crossings simply do not constitute a major problem.

    Question 4. Do you have any indication of the number of lives that 
are lost each year due to inadequate roadway elements, such as shoulder 
width or lane width?
    Response. As stated in the response to Question 1, ``failure to 
keep in proper lane or running off road'' leads the list of ``related 
factors for drivers involved in fatal crashes''--with 15,873 
fatalities. The highway safety community, however, agrees that the data 
are not adequate to answer your question more precisely. The AAA 
Foundation for Traffic Safety found in 1995 that useful state data 
often are nonexistent and inconsistent.
    AAA is very concerned about the lack of adequate data; accurate and 
useful determinations of the need for highway safety improvements, as 
well as their effectiveness, cannot not be made without good data. We 
have recommended that Congress make safety information systems an 
eligible category category in the Transportation Enhancement program. 
We also believe that the Administration's NEXTEA provision for safety 
data funding--while woefully inadequate--deserves serious 
consideration. AAA suggests Congress at least consider a pilot program 
of providing Federal funding for safety data collection in ISTEA 
reauthorization. Seed money would only go so far toward providing the 
data to accurately answer your question, however. To adequately provide 
the needed data, a nationwide, uniform safety data collection system--
or network of systems--would need to be implemented.
                               __________
  Statement of Brenda Berry, Citizens for Reliable and Safe Highways 
                                (CRASH)
    Citizens for Reliable and Safe Highways deeply appreciates the 
opportunity to address this Senate Committee on the important issue of 
truck safety. CRASH is a national grassroots organization of about 
43,000 members who want commercial trucks operated on our shared roads 
as safely as possible.
    Voters of all backgrounds and all political persuasions oppose 
truck size and weight increases for safety reasons. There are precious 
few issues on which there is nearly unanimous agreement among 
Republicans, Democrats, young and old drivers, and high and low income 
voters. Truck safety is one of them. A Lou Harris poll conducted last 
year showed 88 percent of voters oppose allowing bigger and heavier 
trucks on the highways; 91 percent of voters rank the Federal 
Government's control over the safety of large trucks as ``very 
important.''
    Truck safety is a life and death issue. Over one million Americans 
have been seriously injured in a truck-involved crash within the last 
10 years. In the same period, 50,000 people have needlessly died. This 
is the equivalent of wiping out a mid-size town in my state of 
Virginia, or any one of the states represented on this committee.
    Truck-involved crashes have caused about 5,000 deaths and 100,000 
injuries each year since 1984. This death toll is equivalent to a 
ValuJet crash each and every week. Of course, if the airline industry 
were involved in plane crashes every week, they would be grounded!
    We know this Senate would never tolerate a major airline crash 
every week on the argument that it facilitates a more profitable 
aviation industry. Yet this is the argument used by the trucking 
industry against rules which would improve the safety of commercial 
trucking.
    Even with tragedies occurring every day, American Trucking 
Associations is demanding a thaw in the Federal freeze on truck sizes 
and weights. What if the airline industry demanded, in the aftermath of 
TWA 800 crash, a reduction in regulations on airline safety? We have a 
wish list for NEXTEA, which supports the provisions of H.R. 551 
introduced recently. l) We urge this Congress to keep the freeze on 
Longer Combination Vehicles and single trailer truck dimensions. Multi-
trailer trucks are inherently unstable, and therefore unsafe on 
highways. 2) We urge working rules for truck drivers that guarantee 
drivers get adequate daily rest. Fatigue is a leading cause in 31-41 
percent of truck crashes. 3) We urge you to freeze truck size and 
weight. That includes preventing exemptions by state and local 
governments that would allow bigger and heavier trucks. Longer and 
heavier trucks will only lead to even more highway deaths each year. 
The cost in human lives for interstate heavy- haul trucking is many 
times that of the airline and rail industries put together.
    We urge you to look to the provisions of H.R. 551, which places 
safety above trucking company profits, and introduce similar provisions 
in your version of NEXTEA.
    Victims and safety advocates don't have the trucking lobbyists' 
money, but we do have a lot of heart and determination. We also have 
public opinion on our side. It is time to make existing trucks safer, 
not bigger and heavier.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 Statement of Bob Bartlett, Mayor, City of Monrovia, CA, on behalf of 
           the Southern California Association of Governments
                              introduction
    Good morning Chairman Warner and Members of the Subcommittee. My 
name is Bob Bartlett and I am the Mayor of the City of Monrovia located 
in Los Angeles County. I am also the First Vice President the Southern 
California Association of Governments (SCAG) and Chairman of the SCAG 
Administration Committee. SCAG is the Metropolitan Planning 
Organization (MPO) for the six counties of Ventura, Los Angeles, 
Orange, San Bernardino, Riverside and Imperial and the 184 cities 
therein. Thank you for inviting me to participate in the hearing today. 
I am most appreciative of Senator Barbara Boxer's extra effort to 
ensure that Southern California is represented on today's important 
issue of the linkage between transportation safety and goods movement.
    In my presentation I will cover two main topics: 1) improving 
border transportation infrastructure so that our roads are made safer; 
and 2) the SCAG proposal for including a goods movement factor in the 
reauthorized Intermodal Surface Transportation Efficiency Act (ISTEA) 
and how it relates to improved transportation safety.
    But before I begin, SCAG would like to stress that ISTEA is working 
well, and that as a signatory to the California Consensus Principles, 
we support retaining its basic form with only incremental changes. The 
established regional and local decisionmaking process should be 
retained in the reauthorization of ISTEA through the roles and 
responsibilities of Metropolitan Planning Organizations. Furthermore, 
SCAG finds the Congestion Mitigation/Air Quality (CMAQ) program works 
well and we support full CMAQ funding under the reauthorized ISTEA. The 
essence of the SCAG message is that the reauthorized ISTEA needs a 
revised formula that includes a goods movement factor so that our 
nation can achieve its twin goals of strong global competitiveness and 
safer transportation systems.
                      border infrastructure needs
    California's increasing need for improved border infrastructure 
stems from the 1994 enactment of the North American Free Trade 
Agreement (NAFTA) and the emergence of the United State, Mexico and 
Canada as the world's largest trade zone. With projections estimating 
that trade between Mexico and the United States will increase by 93 
percent by the year 2000 which is only 2 1/2 years away, our state's 
border infrastructure is already experiencing growing pains. Fully one-
third of all imports from Mexico come through California. While this is 
good for our nation's economy, it has substantially increased the 
burden on the transportation infrastructure at the border, causing 
congestion, delays and unsafe road and rail conditions. While it is 
often thought that a seamless system, moving goods unimpeded across the 
border exists, in fact, this is not the case.
    The reality is that at some of California's five ports of entry 
border crossings, non-truck vehicular traffic has increased 138 
percent, truck traffic has increased 257 percent and pedestrian 
crossings has increased 4130 percent between 1983 and 1991. Post-NAFTA, 
these numbers have so mushroomed that in 1995, our transportation 
system carried over 27 million northbound auto crossings annually with 
an estimated 83 million passengers. On the same roads we had 690 
thousand northbound truck crossings in 1 year and nearly 16 million 
pedestrian crossings. Our ports of entry, many of which are composed of 
only two lane roads, have become chokepoints preventing the efficient 
movement of goods, giving way to costly time delays and unsafe road 
conditions.
    Currently in California, border crossing delays range from 45 
minutes in off-peak periods to 2 1/2 hours during peak periods. These 
delays are costly--to the point that 7 out of 10 U.S. industries and 5 
out of 10 Mexican industries had at least 50 percent of survey 
respondents say they would pay a premium for time definite, guaranteed 
delivery. With the final stage of NAFTA implementation scheduled for 
the year 2000, when trucking companies from all three NAFTA countries 
will be allowed complete access into each country, these delay times 
will grow exponentially if we do not invest in border infrastructure 
expansion.
    Border infrastructure improvements are also needed to ensure safer 
road conditions. In the U.S. over the 5-year period of 1990 through 
1995, there has been an average of 41,600 annual traffic related 
fatalities. Truck occupants account for nearly 25 percent of these 
total annual fatalities. While most of these deadly accidents do not 
occur at the border, they do occur our regional transportation systems 
which are increasingly impacted by vehicles hauling NAFTA trade related 
goods.
    In addition, regulatory differences between countries make safety 
conditions worse. Mexican trucks are generally three times as old as 
U.S. trucks and are not required to have front brakes, as do U.S. and 
Canadian trucks. Also, Mexican drivers do not have to obtain special 
training to transport hazardous materials, as do U.S. and Canadian 
drivers. Truckers in the U.S. are limited to 10 hours of daily driving 
time while Canadian truck drivers are limited to 13 hours a day. There 
is no limit on the number of hours Mexican truckers are allowed to 
drive daily. Finally, the U.S. is the only NAFTA signatory that 
requires random drug testing. The combination of harmonized regulations 
and infrastructure improvements will ensure smoother and safer 
transnational goods movement.
    In the face of these trade and safety barriers, we still have the 
most extensive inspection program of the four border states. California 
inspects, on average, a whopping 2 percent of all vehicles crossing 
from Mexico. And we are doing the best! Our inadequate and antiquated 
infrastructure, compounded by the other major barrier of non-harmonized 
regulatory requirements, as I just mentioned, has made it impossible to 
provide on-time and safe transportation of goods to the rest of the 
nation. We do have plans for border infrastructure improvements such as 
construction of a permanent, six bay inspection facility located one-
quarter of a mile away from the border at Otay Mesa in the City of San 
Diego. This port of entry, now served by an undivided roadway which 
increasingly experiences grid-lock due to accidents, is considered a 
safety hazard. The improvements are estimated to cost $10 million and 
yet this is not enough. Road and rail improvements at Otay Mesa and the 
other two ports of entry, San Ysidro and Tecate, in San Diego County 
are estimated at $347 million. This does not include the inspection 
facility or Federal port of entry improvements that are also needed for 
the growing goods movement across the Mexican border.
    We also have plans to improve the two border crossings in Imperial 
County, located in the SCAG region. To accommodate the more than 14 
million crossings, composed of trucks, non-truck vehicles and 
passengers in 1995 at Calexico, and the approximate 1.6 million total 
crossings at Andrade, also called Calexico East, in the same year, we 
have plans for road expansions on three state routes, new truck 
inspection docks, state-of-the- art cargo facilities and rail 
modernization. The total cost for these critical projects is $323.5 
million and yet less than one third of that total has the necessary 
funding commitments behind it. To complete these projects, we still 
need an additional $217.7 million and we need the Federal Government to 
play a key role in providing funding to alleviate these chokepoints. 
While state and local governments also must provide funding for these 
improvements, we need the Federal Government to be a strong partner so 
that our borders can support the trade growth that comes with the full 
implementation of NAFTA.
    Senator Boxer, along with her co-sponsor Senator Bingaman, 
recognizes the Federal responsibility for border infrastructure in the 
bill S. 408 which provides over $640 billion over 4 years in Federal 
funding for the construction of new facilities as well as improvements 
on the existing system for our nation's trade needs. This bill contains 
a good mix of grants and loans while including the necessary 
requirement for state and local funding matches. We support this bill 
because it moves in the right direction of government partnerships in 
the full implementation of NAFTA.
    We are also supportive of many of the Administration's motor 
vehicle safety provisions contained in the second part of its NEXTEA 
proposal. We desperately need the proposed adoption of international 
and national vehicle standards, harmonized with functionally equivalent 
or compatible U.S. commercial vehicle standards, as well as the 
proposed education campaign and proposed technical assistance to Mexico 
to assist them with implementing these essential safety standards.
                    scag's freight facilities factor
    Clearly the biggest reason for improving the infrastructure at 
border crossings is to accommodate the burgeoning goods movement 
associated with not just NAFTA but also our country's increasing 
commitment to global competitiveness. We can already see the impacts of 
global trade on our local highways in Southern California. SCAG 
recently completed a study of some of the most congested parts of our 
regional transportation system, specifically Interstates 5 and 15 and 
State Route 60 which are used by trucks to move freight from the Los 
Angeles Basin through San Bernardino and Riverside on to Las Vegas and 
the rest of the country. We discovered that if the growth trend 
continues, as much as 70 percent of the capacity of these highway lanes 
will be filled with trucks. Where will the cars go?
    As the gateway to the Pacific Rim, California receives almost one 
third of the nation's imports from other countries in addition to 
Mexico and 60 percent of those goods move through our state by truck or 
train to the rest of the nation. We know that other states, 
particularly those with major water and air ports also share the burden 
of moving international goods destined for the rest of the country. 
Therefore, SCAG has developed a goods movement factor that allocates 
funds based on a state's relative share of international trade.
    The current ISTEA gave high priority to clean air, congestion 
reduction and enhancements but failed to provide the same funding 
priority to freight despite requirements in the Act that states and 
Metropolitan Planning Organizations must plan for freight as part of 
the commitment to the nation's policy of intermodalism. The time has 
come to give the same priority to moving freight under the reauthorized 
ISTEA.
    SCAG's freight factor formula allocates funds to the states in 
proportion to a combination of both the value of imported and exported 
freight moved through their customs districts and the mileage of both 
highway and rail in the state. Under the formula, each state receives a 
minimum allocation to acknowledge each state's role in freight 
movement. Also, the formula contains a pooling feature so that the 
states that have overlapping port areas or shared port authority such 
as New York and New Jersey receive an equitable distribution. Using 
this formula, the state of California could receive an increase of more 
than 1.5 percent over what it currently receives in total ISTEA funds. 
This is not a small figure given that the current ISTEA authorized $155 
billion total over 6 years. Others states do proportionately well under 
our proposal.
    SCAG recommends that the following freight projects, at a minimum, 
be eligible for funding under the proposed formula: connectors to 
intermodal facilities, grade crossing improvements, truck lanes and 
dedicated truck routes, and other bridge and highway improvements 
designed primarily to support freight transportation and increase 
safety. Funding for these projects is critical both to support 
increased trade and to ensure highly efficient transportation systems 
that are safer for drivers, passengers and pedestrians.
    Contrary to popular belief, states with substantial international 
goods movement via truck do not benefit financially from the service of 
moving these goods. The only compensation we receive is from diesel gas 
tax which is not proportionately returned to the state because trucks, 
hauling goods on the interstate system, do not necessarily pay gas tax 
in the state whose roads they use the most. For example, trucks will 
fill up their tanks in Arizona but use the road system in California 
without buying gas and paying tax in our state. This proposal 
recognizes that allocating funding based on system use is a more 
equitable and simpler solution than changing truck drivers' gas pumping 
behavior or state gas tax rates.
    We have received considerable support for the concept of including 
a goods movement factor in the reauthorized ISTEA formula from members 
of both the Senate and House, including the majority of the California 
delegation, as well as the U.S. DOT, state DOTs, ports, and key 
industry sectors. Today I ask that this subcommittee join the rest of 
the transportation policymaking community in supporting a goods 
movement factor under the reauthorized ISTEA. CONCLUSION
    The proposals to provide Federal funding for the improvement and 
expansion of border infrastructure in support of full implementation of 
NAFTA, as well as inclusion of a goods movement factor that apportions 
funding based on a state's relative share of international trade need 
your support. It is not just California, but all states in the country 
that benefit not only from increased global competitiveness but also 
stronger transportation safety regulations and enforcement. To that end 
we look forward to working with the Subcommittee to assure that border 
crossing infrastructure improvements and an international goods 
movement factor, both which respond to Federal mandates and critical 
transportation related needs, are included in the next ISTEA and other 
related legislation to better implement our national transportation 
policies.
                               __________
   Statement of Elizabeth Baker, Maryland Highway Administration, on 
      behalf of National Association of Governors' Highway Safety 
                            Representatives
I. Introduction
    Good morning. My name is Elizabeth Baker, Chief of the Traffic 
Safety Division of the Maryland Highway Administration. I am 
representing the National Association of Governors' Highway Safety 
Representatives (NAGHSR). NAGHSR is a non-profit organization 
representing state highway safety agencies. Its members are appointed 
by their Governors and are responsible for implementing the Federal 
non-construction highway safety grant programs. (These grant programs 
are under the jurisdiction of the Senate Commerce Committee.) However, 
NAGHSR's members work closely with the state departments of 
transportation which have primary responsibility for implementing the 
safety construction programs, and some of the NEXTEA safety 
construction proposals have implications for the non-construction 
safety programs.
    Today, I'd like to discuss two issues: 1) NAGHSR's philosophy about 
the reauthorization of the Federal safety programs and 2) the 
Association's position on the Administration's proposed NEXTEA 
legislation. In deference to the Committee's jurisdiction, we will 
limit our remarks to the safety construction and related portions of 
the NEXTEA proposal.
II. NAGHSR's Views on Reauthorization
A. Justification for Federal Involvement in Safety
    In NAGHSR's view, there is clearly a critical role for the Federal 
Government in highway safety.
    Motor vehicle crashes are a major and costly public health problem 
for this country. According to The Economic Cost of Motor Vehicle 
Crashes, 1994, prepared by the National Highway Traffic Safety 
Administration (NHTSA), motor vehicle injuries and fatalities cost the 
Nation $150.5 billion annually--2.2 percent of the gross national 
product--in medical costs, workplace costs, lost productivity, 
insurance administration, legal and court costs, property damage, and 
other costs. Roughly 9 percent ($13.8 billion) of all motor vehicle 
crash costs are paid for by public revenues, including 6 percent ($9.2 
billion) from Federal revenues and 3 percent ($4.6 billion) from state 
and local revenues. In effect, taxpayers pay an additional $144 per 
household annually to cover the costs of motor vehicle crashes.
    Eleven percent ($17 billion) of total crash costs is for medical 
treatment. Twenty-four percent of medical costs ($4.08 billion) is 
borne by the public. Of this amount, $2.38 billion are Federal costs 
and $1.7 billion are state costs.
    In addition, motor vehicle crashes are the leading cause of 
workplace fatalities and injuries. Work-related motor vehicle crashes 
on and off the job cost employers $53 billion in 1992, according to the 
latest analysis prepared by NHTSA. To produce profits equal to employer 
costs of motor vehicle-related injury, employers would need $530 
billion in sales--more than three times the annual growth of the U.S. 
economy.
    Motor vehicle crashes are the leading cause of death and injury for 
persons between the ages of 6-28. They are the leading cause of all 
unintentional injuries and one of the leading causes of serious head 
injury, including epilepsy. 41,798 people were killed and 3.4 million 
people were injured in motor vehicle crashes in 1995--one fatality 
every 12.5 minutes and one injury every 15.5 seconds.
    Federal action is urgently needed to address this serious problem, 
save lives, and reduce public health, workplace and related 
expenditures. The costs of inaction in highway safety are great. 
According to NHTSA's report, Saving Lives and Dollars, if the fatality 
and injury rate remained at the 1992 (and current) rate of 1.7 
fatalities per 100 million miles of travel, motor vehicle-related 
fatalities would still increase by the year 2000. Projected fatality 
and injury-related economic costs would increase by $7.4 billion. If 
the fatality and injury rate increased from the 1.7 rate, total 
injuries, fatalities and costs would increase even more. The number of 
fatalities would increase by 5,280 and the economic costs would 
increase by $13 billion (including a $350 million increase in publicly 
funded health care and an additional $1 billion in taxes to cover lost 
tax revenue and increased public assistance) in 2000.
    A modest Federal investment in highway safety could yield 
substantial savings in both public and private sector costs. At a time 
when the Administration and Congress are exploring ways to reduce 
health care costs across the nation, Federal funding for programs which 
help prevent costly motor vehicle fatalities and injuries should not be 
overlooked. Given the size of the highway safety problem and the 
importance of Federal highway safety grant funds in solving that 
problem, it is clear that the Federal Government must continue to be 
directly involved in highway safety issues.
B. Federal Role in Safety
    NAGHSR strongly believes that there is a legitimate and appropriate 
role for the Federal Government in highway safety and that role is one 
of partner. Over the past forty years, the Federal-aid highway program 
has been a ``federally assisted, state-administered'' program: the 
Federal Government provides the funding, leadership, guidelines, and 
assistance to the states, and the states implement the program. In our 
view, the Federal highway safety program has been and should continue 
to be implemented in that same manner.
    The Federal Government can provide leadership by setting national 
goals, addressing emerging issues, convening summits on issues, 
developing national educational campaigns, and providing guidance on 
issues that are no longer mandatory, such as excessive speed.
    The Federal Government can also assist states in moving toward more 
cost-effective, performance-based programming. By re-engineering 
Federal grant program administration so that it is more results-
oriented, states will be allowed to set their own goals, develop 
creative strategies that are appropriate for their states, and evaluate 
their progress in meeting goals.
    The Federal Government can provide training, develop training 
standards, develop and demonstrate new programs and technology, 
facilitate technology and information sharing, and research and 
evaluate highway safety issues and programs.
    The Federal Government should provide adequate funding so that 
states and communities will be able to implement comprehensive and 
effective highway safety programs. Federal funding for the highway 
safety grant programs have remained relatively constant and at levels 
well below the authorized amounts. At the same time, demands on the 
grant programs have increased substantially while the buying power of 
those programs have declined. Significantly more funds will be needed 
in the future if we are to continue to make progress in safety.
C. Reauthorization Philosophy
    States strongly support Federal highway safety programs which give 
them the flexibility to address their priority highway safety needs. 
Federal programs should allow states to determine the mix of highway 
safety projects which are appropriate for them through a state problem 
identification and planning process. Consequently, NAGHSR is strongly 
supportive of performance-based programming. Under such an approach, 
states must identify their goals, identify strategies that satisfy 
those goals, monitor their progress in reaching the goals, and evaluate 
the effectiveness of the strategies that have been selected. 
Performance-based programming is results-oriented: it allows states to 
work toward specific results without dictating how those results must 
be achieved.
    States support Federal highway safety programs which are flexible 
enough and provide enough resources for states to focus on emerging 
issues. Drowsy driving, aggressive drivers, older drivers, repeat 
impaired driving offenders, young adult drinking drivers, and women 
drivers are some of the issues that have emerged in recent years and 
for which there are insufficient Federal programs and resources. At 
least three of these issues--older drivers, fatigue and aggressive 
drivers--will require improvements in roadway safety.
    States support Federal highway safety programs which encourage 
coordination and cooperation between the diverse state and local 
agencies with an interest in safety. In every state there are many 
agencies with responsibility for some aspect of highway safety. This 
may include the state department of transportation, highway safety 
office, motor carrier safety administrator, railroad agency, law 
enforcement agency, emergency medical services agency, education 
department, health department and other state agencies. Several of 
these agencies must satisfy different Federal safety planning and 
programming requirements. Until ISTEA, there was little attempt to 
coordinate state safety plans and programs or maximize the use of 
Federal safety grant funds.
    ISTEA required states to implement a Safety Management System (SMS) 
and five other management systems. Under SMS, states were required to 
identify a safety ``focal point'' or lead agency within a state which 
would coordinate all safety-related activities. They were also required 
to form an SMS advisory committee with members of state agencies with 
an interest or responsibility for safety. States were required to 
develop a process for identifying state safety problems and selecting 
the priority problems, develop a coordinated plan to address those 
problems, and monitor and evaluate the safety strategies which were 
implemented.
    Last year, the SMS and other management system requirements were 
repealed under the National Highway System Act. However, all of the 
states have opted to continue to coordinate state and local safety 
activities, some to a greater degree than others. NAGHSR believes that 
the reauthorization should place a premium on this kind of safety 
coordination and, unlike ISTEA, should provide resources to states for 
that purpose.
D. Sanctions v. Incentives
    NAGHSR firmly believes that incentives, rather than sanctions, are 
the right way to positively influence state behavior. Incentives reward 
states that already have appropriate laws and programs in place and 
induce other states to enact such laws and programs. Incentives induce 
states to ``stretch,'' to try a little harder, and to strengthen laws 
and programs already in place. However, incentives do not penalize 
states if they do not attain their goals.
    The Section 410 impaired driving incentive grant program is an 
excellent example of an incentive program that works. In fiscal year 
96, 32 states were approved for 410 funding. In fact, there have been 
more states applying for Section 410 grants than there is available 
funds. The 410 program has successfully contributed to the passage of 
state impaired driving legislation: Since enactment of ISTEA and partly 
as a result of the Section 410 program, 8 states enacted .08 BAC laws, 
34 states enacted zero tolerance laws, and 10 states enacted 
administrative license revocation laws.
    The Federal Government has too often forced states to address a 
particular highway safety issue by threatening them with sanctions if 
they fail to act in the specified manner and during a specified time 
period. The sanctions are often not targeted to the problem or issue: 
states with impaired driving problems may have their highway 
construction funds withheld even though the withholding may do little 
to solve the impaired driving problem. Further, sanctions are 
frequently counter-productive: by withholding Federal highway 
construction funds from non-compliant states, the highways become 
deteriorated, which in turn, leads to unsafe driving conditions.
    Redirection of funds has not been any more successful than 
sanctions in our view. Although the redirection is a more targeted 
approach and the states do not lose any Federal highway construction 
funding, it is still problematical. In many states, the redirection 
provisions of ISTEA created divisions between the state highway safety 
office and the state department of transportation. Last year, before 
the final passage of the NHS Act, the highway safety offices in several 
non-compliant states were pressured by their DOTs to release the 
redirected highway construction funds even before they were legally 
allowed to do so. The DOTs believed that the highway safety offices 
were holding their construction funds hostage. The situation was 
particularly troubling in those cases where the state highway safety 
offices are part of the state DOT. At the state level, the redirection 
created resentments, confusion, and ill will toward highway safety 
which was directly in conflict with the intent of the legislation.
    Sanctions and redirection measure state progress only in terms of 
their ability to pass a single, often narrowly defined piece of 
legislation. They ignore the fact that there may be more than one 
appropriate approach to a highway safety problem and fail to measure a 
state's overall performance in addressing that problem. These 
approaches ignore the fact that the legislation may have less than the 
desired results unless the public is adequately informed about the 
law's existence and potential consequences, the law is adequately 
enforced, and it is adjudicated in a manner consistent with legislative 
intent. The sanctions/redirection approach overlooks the attempts 
states may have made to pass the legislation and ignores differences in 
state problems, needs, and resources. Both approaches assume that the 
Federal Government--and only the Federal Government--knows what is best 
for the states. As a result, these paternalistic, heavy-handed 
approaches have created an enormous amount of resentment among the 
states. Sanctions and redirection have the potential for doing more 
harm than good, as occurred with the National Maximum Speed Limit.
    For these reasons, we urge the Committee to oppose proposals 
currently circulating which would sanction states for failure to enact 
.08 BAC laws and redirect construction funds if states fail to enact 
primary safety belt laws. Congress should enact strategies that bring 
the safety community together rather than those that pull them apart.
III. NAGHSR Response to NEXTEA
A. FHWA 402 Program
    Under ISTEA, the 402 behavioral safety program has been authorized 
in two separate titles by two Senate authorizing committees. This 
committee had jurisdiction over the FHWA portion of the program--that 
portion which concerns roadway safety. The FHWA 402 program is 
essentially a planning program which allows states to identify roadway 
safety-related problems. The states then use their STP funds to address 
and correct the identified problems.
    Last year, NHTSA and FHWA (the Federal agencies which jointly 
administer the 402 program) convinced the Appropriations Committees to 
fund the program in a single appropriation instead of two separate 
appropriations, as had historically occurred. This change was intended 
to streamline the manner in which states receive their 402 allocations. 
States have been supportive of this change because it has greatly 
facilitated the obligation of 402 funds.
    The Administration has proposed that the legislative authorities 
for these two portions of the program should also be combined. NAGHSR 
strongly concurs. There no longer appears to be any reason for the 
separate authorities. The program planning and implementation 
requirements have been jointly developed and program oversight is 
jointly administered. The distinction between the program components 
has become blurred over time. For example, FHWA has developed a red 
light running program which is aimed at affecting the behavior of 
driver at traffic signals.
    DOT has altered, with considerable state input, the administration 
of the Section 402 program so that it is more performance-oriented. 
NAGHSR strongly supports this approach and recommends that it be 
continued under the reauthorization. NAGHSR also supports the 
Administration suggestion that the national safety priorities be 
continued as Federal guidelines. Few other changes should be made to 
the program.
B. Safety Infrastructure Program
    NEXTEA would replace the safety set-aside under the Surface 
Transportation Program by combining the safety construction programs 
into a single authorization which would be known as the Infrastructure 
Safety Program. Funding for rail grade crossing and hazard elimination 
would remain separate, but there would be greater transferability from 
the grade crossing program into the hazard elimination program. There 
would also be flexibility from the hazard elimination program into the 
non-construction safety programs if a state met the integrated safety 
planning requirements under the Integrated Safety program. The funding 
ratios for the two programs would be about 1/3 for the grade crossing 
portion and 2/3 for the hazard elimination program. NEXTEA would also 
broaden the funding eligibility by allowing up to half the grade 
crossing portion of the funding to be used for traffic enforcement, 
grade crossing education and trespassing countermeasures.
    NAGHSR supports all of these provisions and believes that the 
funding proportions reflect the size of the problem in each area. We 
support the proposed formula changes in the rail grade crossing program 
which will help direct Federal funds where they are most needed. We 
strongly support the change in the funding eligibility and believe that 
the changes make the rail grade crossing program a more comprehensive 
safety program. NAGHSR also supports the increased flexibility between 
the grade crossing program and the hazard elimination program, and 
between the latter program and the non-construction program.
    However, at least one transportation organization is concerned that 
100 percent of hazard elimination program funds can be transferred into 
the non-construction programs. The group has suggested that the 
authorizing legislation should also allow funds to be transferred from 
the non-construction programs into the hazard elimination program so 
that the transferability is reciprocal.
    NAGHSR would strongly oppose such a suggestion. Based upon past 
experience, we believe that the state departments of transportation 
would transfer non-construction program funds into construction 
programs so that there would be little or no motor carrier or 
behavioral funding remaining. NAGHSR suggests that a cap (e.g. 25 
percent) be placed on the amount of the hazard elimination funds which 
could be transferred to other programs in order to protect the 
integrity of those funds and address the group's concerns. If that 
approach is unacceptable, NAGHSR would support dropping the transfer 
provision entirely.
C. Integrated Safety Program
    NEXTEA would create a new integrated safety fund to encourage the 
continuation of the kind of integrated, coordinated planning previously 
required under the Safety Management System requirements. Qualifying 
states would have to compete for funds and satisfy certain eligibility 
criteria. States would have to show that they have an integrated safety 
planning process and have established goals and performance benchmarks. 
Qualifying states could use the funds for safety construction, motor 
carrier or behavioral program purposes.
    NAGHSR supports the proposed Integrated Safety Program in concept. 
We believe that it encourages the kind of coordinated safety planning 
which should be a goal of the reauthorization. However, the eligibility 
criteria are not fully outlined in NEXTEA, so it is difficult to 
envision exactly how the program would be implemented. We encourage DOT 
to explore possible implementation strategies with Congress as well as 
safety and transportation organizations to clarify this proposal before 
a reauthorization bill is finalized.
    For example, Congress could consider a grant eligibility criteria 
relating to occupant protection. States could receive Integrated Safety 
program grant funds if they enacted a primary safety belt law or 
satisfied a specific safety belt use rate (e.g., 75 percent in the 
first 2 years and 80 percent in the last 3 years). This would provide 
incentives to states to improve their safety belt use rates rather than 
punishing states if they do not. It would complement the proposed (but 
under funded) occupant protection incentive grant program and provide 
additional funding for an important national safety priority.
D. Program Funding
    The biggest safety problem that needs to be addressed in the 
reauthorization is the lack of adequate funding for all highway safety 
programs. Federal funding for driver and vehicle highway safety 
programs has not kept pace with inflation, the growth in licensed 
drivers and registered vehicles, or the increase in travel in the 
country. Hence, the ``buying power'' of the Federal safety dollar has 
greatly diminished.
    Total funding for non-construction behavior programs has been too 
small relative to the size of the problem and has not increased at a 
sufficient rate. At the same time, demands for highway safety grant 
funds have increased tremendously. New issues (such as fatigue, 
aggressive driver, young adult drinking driver) have emerged for which 
there are no new Federal highway safety funds. New initiatives such as 
SMS planning and Safe Communities have been launched without the 
benefit of new Federal funding.
    Without adequate funding, the rate of progress that has been made 
in highway safety cannot be sustained. We've made great progress by 
reaching the easy targets and implementing the easy ``fixes.'' In order 
to influence the behavior of hard-to-reach and other target populations 
and address safety problems in a comprehensive and coordinated manner, 
the states will need significantly more resources.
    The Administration has proposed to fund the 402 program at only $25 
million per year above current levels. The Safety Infrastructure 
program is slated to be funded at the same level as fiscal year 97 
funding for the grade crossing and hazard elimination programs.
    Needless to say, the proposed funding in NEXTEA for the safety 
grant programs is a slight improvement over current funding. It is not, 
however, consistent with the fact that safety is DOT's ``north star'' 
and the leading priority of the Department. NAGHSR urges that funding 
for the safety grant programs should be increased above the levels 
recommended by the Administration, particularly funding for the 402 
program. Current funding for non-construction safety programs is less 
than 1 percent of the Federal-aid highway program. Funding for those 
programs should be doubled. Funding for safety construction should 
increase by more than the proposed $100 million level.
    The need for increased funding is clear. The time for that increase 
is now. If safety is truly a top priority, then let's start funding it 
in a way that matches safety's priority status.
    We concur that the proposed funding for all of the programs in 
NEXTEA is insufficient and that Congress must find a way to increase 
the overall funding. NAGHSR is pleased that Senator Chafee has proposed 
legislation which would allow some increases in overall funding. We 
view the legislation as a step in the right direction and are 
optimistic that Congress will find a way to increase transportation 
funding without damaging efforts to balance the Federal budget.
    NAGHSR looks forward to working with this Committee as it considers 
reauthorization of Federal safety grant programs. We appreciate the 
opportunity to testify before you on these important issues.
                                 ______
                                 
  Responses of Barbara L. Harsha to Additional Questions from Senator 
                                 Chafee
    Question 1. Where is it appropriate to draw the line with respect 
to Federal leadership in setting national goals?
    Response. As noted in our May 7 testimony, NAGHSR believes that the 
Federal Government can provide leadership by setting national goals in 
consultation with states and other safety partners, addressing emerging 
issues, convening summits on issues, developing national educational 
campaigns, and providing guidance on issues that are no longer 
mandatory, such as excessive speed. The Department of Transportation 
has already shown leadership by establishing impaired driving goals for 
the year 2005 with its state, local, industry, and grassroots partners. 
The Secretary has recently established occupant protection goals for 
the year 2005.
    The Federal Government can also show leadership by providing the 
funding and technical assistance to states to help them meet the goals. 
DOT already does both. Through the Section 402 State and Community 
Highway Safety grant program, as well as the Section 410 Impaired 
Driving grant program, DOT provides states with resources (albeit 
limited ones) to address impaired driving, occupant protection and 
other highway safety issues. The Department provides technical 
assistance to states through research, demonstration grants, and 
program development.
    NAGHSR does not argue with the authority of the Federal Government 
to condition grants in order to compel the states to satisfy specified 
goals. This is one way that the Federal Government can exhibit 
leadership, but it is a way that involves high costs.
    NAGHSR believes, as do other state, law enforcement and 
transportation organizations, that sanctions and penalties are a very 
ineffective and unsatisfactory way to address Federal safety concerns. 
States increasingly find such an approach to be coercive and divisive. 
States are increasingly resentful of what they perceive to be Federal 
intrusion which, in turn, can create a backlash against the very 
highway safety issues Congress is trying t.advance. States also 
perceive this heavy-handed approach to be contradictory to the 
performance-based approach the Federal Government has encouraged 
through the recently enacted Government Performance Results Act. They 
will comply with the sanctions only reluctantly and often at the last 
possible moment. They will do the minimum amount that is necessary to 
avoid the penalties and may not enforce the required laws once they are 
in place. We firmly believe that a sanction or penalty which requires 
state implementation will not be successful without state support in 
the first place.
    NAGHSR believes that it is more effective and productive to work 
with the states rather than dictating the actions states must take. We 
are disappointed that DOT did not show leadership by convening a 
meeting of key Governors and state legislators to ask them what they 
would be willing to commit toward efforts to improve safety belt use 
and reduce impaired driving. We are also disappointed that DOT has not 
requested funding for its incentive proposals at high enough levels, 
particularly since past experience with the 410 program has shown that 
incentives work, and work well.
    Congress must weigh the costs and benefits of various leadership 
options and determine which option is potentially the most successful 
and which addresses Congressional concerns in the most effective 
manner.

    Question 2. Do you think that ``sanctions'' such as the minimum 21 
drinking age are of some value, or are all sanctions counterproductive?
    Response. NAGHSR believes that the key to the effectiveness of 
sanctions is support by the public and elected officials. drinking age 
sanctions have been effective because there was broad support for them 
by both the general public and state and local elected officials. . 
Elected officials at all levels consistently support measures which 
improve the safety of persons who are too young to make informed 
decisions by themselves. NAGHSR strongly supports the 21 drinking age 
sanction because it has been effective, and we would work against any 
measure to repeal it.
    Other sanctions have been dismal failures because they did not have 
broad support, regardless of how good a public policy they may have 
been. The National Maximum Speed Limit is a case in point. The public 
did not support the limits, nor did state and local elected officials. 
. People did not alter their driving behavior because of the sanctions. 
Drivers drove at excessive speeds when the limit was in effect and 
before its repeal.
    Some states complied with the sanctions by manipulating their 
method of compliance. They posted speed monitoring stations at points 
where drivers had to slow down (e.g., at the top of a hill) or on low 
traffic volume locations. In effect, they orchestrated the monitoring 
system so that the monitoring reports would show the acceptable number 
of automobiles at posted speeds. Those states that were unable to 
manipulate the speed reports in this manner sought and successfully 
achieved Congressional moratoria on the sanctions. Congress never 
penalized a single state for noncompliance, so the sanctions were never 
a credible vehicle for compelling the states to act.
    The Section 159 requirement is another case in point. In 1990, 
Congress enacted legislation which required states to enact laws which 
revoked or suspended the driver's license of anyone convicted of a drug 
offense or face highway sanctions. States could comply by enacting the 
necessary law or by adopting a resolution, endorsed by both the 
Governor and the state legislature, indicating the state's opposition 
to the 159 requirement. The presumption of the Section 159 requirement 
was that the elected officials would find it politically difficult to 
endorse such a resolution and appear to be ``soft'' on drugs. However, 
as of 1996, only 20 states had enacted the necessary legislation. 
Thirty states adopted the requisite resolution. The 159 requirement did 
not have the support of the elected officials in the majority of 
states. For those states, the requirement has become little more than a 
paperwork exercise.
    As noted in our testimony, NAGHSR supports both primary belt laws 
and .08 BAC laws, and we encourage states to enact both. The 
Association also believes that the public supports efforts to improve 
safety belt use and reduce impaired driving. We do not, however, 
believe that the public fully understand the difference between a 
secondary and primary safety belt law or between .08 BAC and .10 BAC. 
We believe that there may be a backlash against the stricter laws 
(particularly with respect to the safety belt laws) if the laws are 
required before the public is better educated and is fully supportive 
of them. Finally, we contend that state elected officials oppose the 
penalties and sanctions, as evidenced by the recent letter of the 
National Governors' Association and the recently adopted policy 
position of the National Conference of State Legislatures. All of these 
elements suggest that the proposed impaired driving sanctions and 
safety belt penalties will be unsuccessful.
                               __________
 Statement of Robert A. Georgine, President, Building and Construction 
                       Trades Department, AFL-CIO
    Thank you for the opportunity to testify before your committee 
today on safety-related issues as they apply to the Intermodal Surface 
Transportation Efficiency Act (ISTEA), which when passed will be known 
as NEXTEA.
    The original ISTEA legislation was landmark legislation. For the 
first time in the nation's history, the Federal Government passed 
legislation not just to and construction of individual highways, 
bridges or transportation systems, but to think in terms of regional 
and national infrastructure systems. It was an important difference 
then, and it remains important today as you struggle with how best to 
utilize the limited funds available for such a large and wide-spread 
national infrastructure picture.
    Even though we are in an era of government downsizing and 
constrained Federal spending, the nation's businesses and their workers 
cannot be competitive in the 21st Century without a well-financed 
transportation network. In many parts of the nation, but especially 
along our coastlines which facilitate imports and exports, 
infrastructure improvement is critical. These areas strengthen our 
national position as a primary gateway for international trade and 
commerce. In many localities, but dramatically within border towns that 
facilitate international shipments by road traffic, significant 
infrastructure expenditures are a necessity. To that end, Congress is 
in a position to send a strong signal about our nation's priorities 
during this authorization process.
    We, the Building and Construction Trades Department, the 
Transportation Trades Department and the affiliated national and 
international unions from both AFL-CIO departments, support those who 
seek to redirect the deficit reduction tax to the Highway Trust Fund.
    The 4.3 cent gas tax, enacted in 1993 for deficit reduction, should 
go to support the Highway Trust Fund programs, and ought to be 
distributed equitably and fairly within our Federal surface 
transportation system. We support allocating a half cent for Amtrak 
capital needs with the 3.8 cents balance going to support additional 
investments in highway and transit needs under existing formulas.
    The Department of Transportation, the White House and Congressional 
committees all seek new ways to expand the upgrading of the national 
infrastructure. The Administration's proposal to bring state 
governments into this process through creation of the State 
Infrastructure Banks, or SIBs, as they have become known, is an 
interesting concept. However, we disagree with it.
    We believe the Federal Government is stepping away from its 
responsibility to achieve a cohesive national infrastructure program by 
creating a structure that will fund only state-oriented programs.
    Proponents suggest this will ensure participation and 
responsibility within the states to make critical decisions about 
projects built within their borders. SIBs, as presently configured in 
the draft proposal by DoT, would involve the states in the raising of 
funds to finance programs not ordinarily financed through the Federal 
process.
    While this may have some beneficial effect for states able to 
attract investors, the possibility remains that a future Administration 
or Congress may abrogate responsibility to adequately fund a national 
transportation program that benefits all states and all of our 
citizens.
    Among the proposals being considered for construction through SIBs 
would be such varied projects as the construction of water systems, 
water ports, inland waterways, airports, schools and libraries. The 
SIBs could use funds to provide loan guarantees, lines of credit, and 
limited direct lending to states and localities for infrastructure 
projects.
    It is also proposed that private parties, such as individual and 
multiemployer union pension funds, could be investors in SIBs. If 
present prospects unfold, then participation of these funds would 
likely be precluded unless strong worker rights language was 
incorporated into any agreement.
    It is too early yet to know if the final bill language will allow 
pension plan investments. However, the concept is feasible if SIBs are 
structured in a way that would allow fund administrators to meet 
required fiduciary obligations. It is also imperative that the members 
of those union funds are employed to build the projects.
    NEXTEA is without doubt the most important construction bill to 
come before Congress before the end of the century. For this reason, 
each and every one of the 15 national and international unions 
affiliated with the Building and Construction Trades Department is a 
strong and vocal advocate of this legislation.
    Those of you serving on this committee have been asked to make 
difficult, expensive and important decisions about America's future. 
Congress approved $155 billion in 1991 for ISTEA. This year, the 
Clinton Administration has proposed spending $175 billion over the 5-
year life of this bill, nearly $40 billion of which would be obligated 
for surface transportation in the first year of NEXTEA.
    The Building and Construction Trades supports a higher 
authorization level. Given the importance of our nation's 
infrastructure to national and international commerce, it might be 
worthwhile to consider raising the total money in the bill, if not this 
year, then as soon as possible.
    Preserving the key elements of ISTEA in the NEXTEA bill is 
important. It is good that an intergovernmental partnership, a 
commitment to safety, enhanced planning and a concern for the 
environment are included in the bill. Flexibility, intermodalism and 
infrastructure investments should be retained and expanded.
    Unfortunately, the committee must choose its priorities on the 
basis of the present state of the existing infrastructure. And, there 
is much from which to choose.
    More than a quarter million miles of American roads are considered 
either poor or mediocre. Of all American highway systems in this 
nation, only 39 percent of highways are judged to be in good condition.
    A total of 186,559 bridges over 20 feet in length are considered 
deficient. This represents 32 percent of all the bridges in the nation. 
Highway fatalities have risen every year since 1991, with 41,798 
fatalities recorded in 1995, the last year for which information is 
available. Three of every four of these deaths occurred on two- lane 
roads. The American Highway Users Alliance computed the figures cited 
above, and also provided us with the information which follows:


    <bullet>  It costs the Nation an average annual investment of $54.8 
billion just to maintain the present state of repair of the national 
highway system.
    <bullet>  It would require an average of $74 billion a year of 
combined Federal, state and local expenditures to improve present 
conditions on the nation's highways.
    <bullet>  The Department of Transportation, for the first year of 
NEXTEA, authorizes $39 billion of Federal money for surface 
transportation. That means the states and local governments are going 
to have to contribute substantially if the Nation is going to make 
discernible improvements soon.


    In today's world, a modern four-lane highway can cost $5 million a 
mile in areas where construction is relatively easy. Governor Paul E. 
Patton of Kentucky, in testimony in March before the House Surface 
Transportation Subcommittee, said he estimated, in his state where 
roads must be built in rugged mountainous terrain, the cost of that 
same mile of four-lane highway can cost $30 million. He further 
testified that in his state, more than half of the rural county roads 
are unpaved.
    The significance of these overwhelmingly bad statistics is not 
simply to demonstrate the problem, but the need for solutions. I know 
that is the goal of this committee. We pledge the skill of our members 
to ensure that badly needed repairs and possible improvement of the 
nation's infrastructure will be accomplished. And as we pledge the 
support and dedication of our members to rebuilding America, we applaud 
the Committee for considering the safety and health issues that are 
necessarily raised when the subject turns to construction.
    The construction industry includes a wide range of diverse, 
frequently changing activities that occur on temporary worksites under 
a variety of circumstances. The vast majority of construction 
contractors are classified as small employers (with less than 100 
employees) who have limited resources and few full- time personnel with 
safety and health expertise. This is complicated by the existence of 
multiemployer worksites where communication and coordination are 
difficult at best. Until recently, construction ranked as the leading 
industry sector in work- related injuries and deaths.
    Nonfatal work-related injuries and illnesses are reported every 
year by the Bureau of Labor Statistics. In 1995, these rates fell to 
the lowest level in nearly a decade. Still, construction remains a 
dangerous way to make a living. It is, in fact, the second highest, 
most dangerous sector, with an injury incidence rate of 10.6 cases per 
100 equivalent full-time workers. In 1995, this translated to 484,900 
work-related injuries and illnesses with 190,600 of those involving 
lost days of work.
    According to the National Safety Council, 350,000 construction 
workers suffer from disabling injuries every year. In 1995, an 
additional 1,040 died in work-related accidents (20 percent of all 
work-related deaths). This represents 16 deaths a year for every 
100,000 construction workers. That means that on any given day, four 
workers will die because of constructionsite accidents. In my opinion, 
most of them are preventable.
    The three most common causes of deaths in construction involve 
falls (representing almost a third of fatalities), followed by 
``contacts' with objects or equipment, and electrocution. These types 
of injuries are, however, not the only life- threatening or 
debilitating dangers in construction. In addition, workers are exposed 
to hazardous substances and work processes that have been related to 
illnesses with long latency periods--like asbestosis or cancer.
    BLS data, as presented above, does not adequately represent these 
types of events as they most often occur years after the worker has 
left the worksite and are never recorded on the BLS survey. BLS 
conservative estimates, based on sampling, do indicate that at least 
500,000 occupational illnesses are recognized or diagnosed each year.
    Construction workers face the risk of lead poisoning related to the 
repair or demolition of old bridges and other structures coated with 
lead paint. They are at high risk of silicosis because of the quartz 
found in work materials as they chip, hammer, drill, crush, load, haul 
and dump rock; use abrasive blasting of concrete or silica sand; 
demolish concrete or masonry; or dry sweep and use air pressure on 
concrete, rock or sand dust.
    Asbestos, which was phased out in the 1970's and 1980's, still 
presents a danger to construction workers in demolition or renovation 
activities with potential long-term health effects that include 
asbestosis and cancer. The potential injury list is long and includes 
noise-induced hearing loss, respiratory problems associated with 
welding; and neurologic and reproductive hazards related to exposure to 
solvents and other materials. The two leading workers' compensation 
costs nationwide are associated with ergonomic issues (including back 
injuries) and skin problems (including irritant and contact 
dermatitis)--to which construction workers are prone.
    Because of the dangers and high injury rates in construction, 
workers compensation insurance costs are high. John Burton, Editor of 
the Workers Compensation Monitor, estimates that the cost to workers' 
compensation for all construction-related accidents and illnesses is in 
the range of 11.6 billion dollars a year. Although construction workers 
represent 5 percent of the work force, they account for 15 percent of 
all workers' compensation claims. The Colorado Compensation Insurance 
Loss Prevention Department reports that costs per case in 1995 were 40 
percent higher for construction, compared with all other industries. 
According to the Engineering News Record, construction contractors 
often pay $30 (and sometimes as high as $80) in workers' compensation 
premiums for every $100 in payroll.
    With such dramatic statistics before us, it is important to note 
that there are differences between a union and a non-union work force 
when it comes to safety and health. In a study by Dedobbeleer, et al., 
which appeared in the Journal of Occupational Medicine, researchers at 
the University of Montreal and Johns Hopkins University examined 
differences between union and non-union construction workers in terms 
of safety performance and of demographic, employment, and socio-
psychological factors related to safety performance.
    The data show that union and non-union construction workers differ 
significantly in terms of certain employment characteristics, 
perceptions of the workplace and other socio-psychological 
characteristics. Union construction workers are more experienced, have 
more stable employment and have been more exposed to safety training 
than non-union workers. . . Union workers also report more often that 
proper equipment is available, that regular safety meetings are held, 
and that co-workers have a favorable attitude toward safety practices. 
. . Furthermore, union workers have a higher level of knowledge of 
safety practices and perceive having more control over their own safety 
on the job. . .
    [The]. . . results of this study have several implications. First, 
they suggest that non-union constructionsites need special attention 
because they recruit the largest group of workers who have the lowest 
safety performance. . . This is more crucial as accessibility to formal 
training opportunities and safety meetings is less frequent in non- 
unionsites. Second, they imply that unions are playing an important 
role in occupational safety by contributing to two factors that have 
been shown to have an important impact on construction workers' safety 
performance in a previous study: safety training and perception of 
control over one's safety on the job.
    Union construction workers are the best trained and prepared to 
safeguard against accidents on the job. Training and employee 
participation have been shown to result in increased worker morale, 
decreased injury and illness rates, higher productivity, reduced 
workers' compensation costs and increased profits. These are the goals 
of the Building and Construction Trades Department.
    To achieve our objectives, we have embarked on a standardized 
training initiative in collaboration with our affiliated unions and 
their employer counterparts. Our 10-hour worker hazard-awareness 
training program will be integrated into the apprenticeship systems of 
every craft within the next three to 4 years. After training is 
completed, each worker will receive a card certifying that they were 
trained according to OSHA standards. We believe that this type of 
training should be legislated because of the hazards construction 
workers face.
    Using this training as a baseline, our members will continue to 
build greater safety and health knowledge through the unions' journey-
level training system. Already, the majority of our unions have 
incorporated the hundreds of specific OSHA training requirements that 
affect their trade into their infrastructures. This includes training 
for workers engaged in hazardous waste remediation and removal; 
asbestos- and lead-abatement; confined-space work; rehabilitation and 
renovation at factories covered by process safety management; scaffold 
erection, dismantling and use; fall protection; and a myriad of others.
    As Federal and state government resources devoted to safety and 
health diminish, safety and health in the workplace will depend heavily 
on the ability of the construction labor-management trusts to deliver 
all of these types of training--and more. Already, across the country, 
owners and contractors are beginning to require and/or to negotiate a 
variety of training beyond what OSHA mandates before a construction 
worker ever sees the worksite; and, they rely heavily on the 
apprenticeship and journey-person training systems to deliver it. In 
Texas, owners are requiring the type of 10-hour awareness training 
referenced above. In Ohio, the ``Passport'' program calls for 16 hours 
of specified safety and health training. In Alaska, there is 
legislation that mandates a 16-hour training program for painters using 
oil-based paints--because of the potential risk to the painters and the 
environment.
    According to the Vincent study which surveyed construction service 
users, quality training results in high quality workmanship, a more 
productive worker, a more competent worker and a safer worker. These 
translate to economic benefits. Over the long run, this means there 
will be fewer cost overruns and less need for rework and call backs. 
Doing construction work right the first time means owners will save 
money. The unionized segment of the work force also provides 
organizational efficiency which is extremely important for projects 
that are scheduled for long periods of time.
    Our members are the best trained, most skilled and safest craft 
workers in the world. This is due in large part to our extraordinary 
apprenticeship and journey worker upgrading programs administered by 
joint labor/management committees.
    Each year, our jointly administered programs train 170,000 
apprentices to journey status, and provide continuing education 
retraining for an additional 250,000 journey workers. All of this is 
done at 1,000 facilities around the Nation which are operated through 
labor-management trust funds spending $300 million annually for 
training.
    Our apprenticeship members receive classroom as well as on-the-job 
training. Additionally, our trust fund programs place great emphasis on 
continuing education, including safety training that familiarizes 
workers with the myriad of hazards that are inherent in the 
construction industry. And, because of their safety training, our 
members are more productive.
    The Building and Construction Trade unions welcome the opportunity 
to train new entrants into our crafts. For decades, the training 
programs operated by labor- management trusts in the construction 
industry have been the apprenticeship models for all the industry. In 
fact, they are the models for the world. Just this week, I participated 
in a ceremony that turned a state-of-the-art apprenticeship program 
over to Solidarnosc, the Polish Trade Union. It was a program we were 
asked to develop 4 years ago to help the Polish workers and the Polish 
government prepare for the skills needed in their developing private 
economy.
    Today there are two apprenticeship facilities fully functioning in 
Poland with trained Polish instructors who are training electricians, 
bricklayers, plumbers and other crafts. Graduates are being employed in 
a budding commercial and residential industry.
    Just this year, in January, at the request of the State Department, 
we began another project to help the Egyptian construction union 
develop an apprenticeship program in Cairo. By September 1997, we will 
have trained 12 Egyptian instructors, developed curriculum and guided 
them through their first training classes. By next year, hundreds of 
Egyptian apprentices will be learning construction trades through our 
assistance. We want to do the same right here in the United States. The 
Administration's proposal has set aside funds to train welfare 
recipients in transportation occupations.
    The Building Trades support such an effort, but we urge that the 
training be conducted through our time-tested and proven apprenticeship 
programs. Short-term, quick fixes that have been attempted in the past, 
serve no one. Efforts to create a skilled craft worker should be 
approached with the same sense of professionalism needed to train for 
other occupations. We urge this Committee to make apprenticeship the 
preferred training method for those seeking jobs in construction.
    Congress cannot hope to attain anything approaching equivalency in 
a training program that lasts only weeks. What the government risks if 
it persists in high- profile programs with low-level achievement, is to 
doom trainees to further disappointment, adding bitterness to the 
despair they already possess. More importantly, as I have tried to 
demonstrate in my earlier testimony, poor training causes accidents and 
deaths.
    Today, our very success in building a wonderful transportation 
infrastructure is part of our problem. As an example, I cite Interstate 
15 which runs from Los Angeles, California, to Las Vegas, Nevada. It 
once was a barely used two-lane highway running through the desert 
eastward from L.A. Because of it, Las Vegas developed into an 
economically successful family centered entertainment phenomenon.
    But today, Interstate IS is one of the most over-used interstate 
systems in the world, filled with thousands of cars each day. There is 
an overabundance of motorists who want to travel that road, and simply 
not enough lanes to accommodate all of them. The accident rate has 
climbed to dangerous levels as a result.
    The problems of Interstate 15 affect two states. The answer to 
their problem must come from the Federal Government which, alone, can 
look beyond state borders. I urge the Department of Transportation, the 
Federal Highway Administration and the Congress to select I-I5 as a 
national demonstration project. It epitomizes the very purpose of 
ISTEA. It is an important infrastructure project and it will result in 
a stronger economy for the surrounding areas.
    Thank you.
References
    Bureau of Labor Statistics, U.S. Department of Labor. ``Workplace 
Injuries and Illnesses in 1995,'' released March 12, 1997.
    Burton, J. Personal communication via letter from the Workers' 
Compensation Monitor, March 21, 1995.
    Dedobbeleer, N.; Champagne, F.; and German, P. ``Safety performance 
among union and nonunion workers in the construction industry, ``Jour. 
of Occ. Med., Volume 32, No. 11, November 1990.
    Engineering News Record, Marsh and McLennan, ``Compensation 
Insurance Base Rates,'' 237(14):78-79. New York: McGraw Hill Company, 
1996.
    National Safety Council. Accident Facts: 1996 Edition, Itasca, IL, 
1996.
    Vincent, J. Survey of Construction Service Users, Indiana 
University, Institute for the Study of Labor in Society, p. 6, 1986.
    Wahl, G. Personal communication with the Center to Protect Workers' 
Rights (research arm of the Building and Construction Trades 
Department) from the Colorado Compensation Insurance Loss Prevention 
Department, December 20, 1996.
                               __________
Statement of Edward Wytkind, Executive Director, Transportation Trades 
                          Department, AFL-CIO
    Good morning. My name is Edward Wytkind. I am Executive Director of 
the Transportation Trades Department, AFL-CIO (TTD), whose 29 
affiliated unions represent several million workers in the 
transportation industry. I am pleased to have this opportunity to 
express our views the reauthorization of the Intermodal Transportation 
Efficiency Act, or ISTEA.
    Let me first commend you, Mr. Chairman, Ranking Member Senator Max 
Baucus, and the entire Committee for holding this hearing and for 
inviting all interested parties to share their views and concerns about 
the future of our nation's surface transportation policy and related 
safety programs. ISTEA reauthorization will bring us to the next 
century with what we hope will be a well- balanced policy blueprint for 
the nation's long-range surface transportation needs. Because this 
legislation will be the single biggest job creator this Congress 
considers, we consider its completion this year among our most 
important legislative priorities.
    While many who will or have appeared at this hearing will bring 
different opinions about certain aspects of ISTEA, I think we can, or 
at least should, agree that ISTEA has been extremely successful in 
developing long-term transportation infrastructure planning to the 
benefit of American communities--large and small, urban, suburban and 
rural. The original landmark Act, which was a broad bipartisan effort, 
authorized $155 billion for highways, bridges, and bus and rail transit 
systems. It created millions of good paying jobs, inspired economic 
development, brought planning decisions to a more localized level, and 
provided the Nation with increased and safer transportation choices.
    We are hope?ful that this Committee and the entire Congress will 
again act in a bipartisan manner to build on the successes of ISTEA by 
maintaining the essential framework and focus of this critical 
transportation and infrastructure investment legislation. To that end, 
there are a number of issues that I will highlight for you as you move 
forward with ISTEA reauthorization.
                     secure maximum funding levels
    Securing the highest possible reauthorization levels for all 
surface transportation investment programs must be the most important 
goal of those leading the reauthorization of ISTEA. For transportation 
labor, this is one of our top priorities. Deep spending cuts in recent 
years have already reduced transportation choices, shelved or delayed 
important highway and transit infrastructure projects, imposed higher 
fares and devastating service cuts on passengers, stalled productivity 
gains by transportation companies and their employees, led to a 
crumbling highway infrastructure plagued with chronic congestion, and 
denied thousands of good jobs generated by sound transportation 
investments.
    In an era of government downsizing and constrained Federal 
spending, Congress must realize that the nation's businesses and their 
workers cannot be competitive in the 21st century without a well 
financed transportation network. To that end, Congress is in a position 
to send a strong signal about our nation's priorities during ISTEA 
reauthorization.
    The 1997 ISTEA bill therefore must provide ending for highway and 
transit programs, inter- city bus and rail service, safety enforcement 
and other programs. Moreover, Congress must develop a more reliable and 
long-term funding mechanism to stop the financial hemorrhage of our 
national passenger railroad--Amtrak. But it must not accomplish this 
goal by cutting ending levels and then forcing the various transport 
modes to compete against one another for a diminishing pool of funds.
    To this end, we believe that the 4.3 cents motor fuel tax imposed 
on the users of highways in 1993 for deficit reduction should be 
redirected into the Highway Trust Fund and distributed equitably and 
fairly within our Federal surface transportation program. From these 
new moneys, we support allocating a 1/2 cent for Amtrak capital needs 
with the 3.8 cent balance going to support additional investments in 
highway and transit needs under traditional formulas. This move will 
boost much needed investments in a number of surface transportation 
programs and will redirect several billion dollars annually in fuel tax 
revenues back to their longstanding purpose: the support and 
maintenance of our nation's transportation system.
    Under the 1991 Act, a portion of the funds can be ``flexed'' among 
different program categories. These provisions empower local planners 
to set spending priorities based upon the unique needs of their 
communities and transportation system. This program has permitted a 
fair and rational distribution of transportation dollars while adhering 
to basic Congressional priorities with respect to highway and transit 
accounts. The balance achieved in this program has proven sensible and 
therefore should be preserved in the reauthorization legislation.
                         protect worker rights
    As we all know, the 1991 Act granted states and localities added 
flexibility in administrating transportation programs--a policy we 
supported so long as federally established labor standards and worker 
protections were not undermined in the process. Fortunately, the 1991 
legislation insisted on the maintenance of these basic protections.
    Laws like the Davis-Bacon Act and Section 13(c) of The Federal 
Transit Act have been instrumental in ensuring wage and job stability 
and protecting collective bargaining rights. The 13(c) program has 
provided a sensible mechanism to ensure that workers are not unfairly 
treated as a result of the distribution of Federal transit assistance 
or structural changes in transit systems. In the performance of Federal 
contracts, prevailing wage laws such as the Davis-Bacon Act prevent 
construction and service contractors from undercutting industry wage 
and benefit standards to the detriment of workers and their 
communities. If we eliminate these protections in the name of 
``reform,'' or try to waive their application in certain instances, we 
threaten the basic rights and jobs of workers and we ignore the 
indispensable role they play in guarding against the use of Federal 
dollars to bring down the wages and standards of living in communities.
    If I can leave a single message today it is that the labor movement 
is committed to advancing a strong ISTEA reauthorization bill. We 
intend to work with Members on both sides of the aisle and to enlist 
the support of our rank-and-file leaders and members across the country 
to help make this legislative priority a reality. However, we are just 
as prepared to turn our attention to fighting any and all efforts to 
use ISTEA to attack longstanding worker protections and labor 
standards. We are hopeful that the Congress maintains its focus on 
advancing the best ISTEA legislation possible with a proper focus on 
providing the Federal transportation investments needed for the 21st 
century.
                     enhance transportation safety
    ISTEA must continue to ensure the safe and efficient operation of 
our transportation network, its users, and workers. Deregulation, 
industry consolidation and Federal budget cuts have forced workers 
employed in the transportation industry into an increasingly dangerous 
and unpredictable workplace. We must therefore avoid policies that 
narrow the margin of safety for workers and the traveling public, 
particularly since highway fatalities have risen for two consecutive 
years. Declining wages for professional motor carrier drivers, for 
example, have opened the door for inexperienced drivers who receive 
inadequate training in the safe operation of their vehicles to 
proliferate in the market, as companies and owner-operators are forced 
to cut corners in order to remain competitive.
    Adequate Federal funds must be committed for the personnel and 
resources to carry out enforcement programs including driver training, 
vehicle registration, and adequate safety inspection facilities. We 
must also guard against industry specific safety exemptions, such as 
the pilot program adopted in the 104th Congress which may allow the 
waiver of various safety laws for over 2 million trucks. Moreover, we 
will strongly oppose any proposals to roll back the ability of the 
Department of Transportation or the Occupational Safety and Health 
Administration to carry-out their vital workplace safety enforcement 
and policymaking responsibilities.
    For workers in the transit industry, improving safety and security 
in the workplace is also a major priority. For example, drivers, other 
employees and passengers continue to face significant security risks 
such as assaults and incidents of harassment. Congress must combat 
these risks by committing resources for labor-management training 
programs directed toward the unique safety and security issues in the 
transit industry. In the transit and intercity rail and bus sectors, 
Federal funding decisions must reflect the industry's requirements to 
meet the costs associated with compliance under the Americans with 
Disabilities Act and Federal drug and alcohol testing requirements.
Industry Specific Exemptions
    During the 1995 debate over the critically important National 
Highway Systems (NHS) legislation, Congress attached a provision that 
could exempt some 2 million trucks from record- keeping, hours-of-
service, safety inspections, insurance requirements, the National 
Driver Register--which tracks repeat traffic violators--and other 
safety-related requirements as to how these vehicles should be 
maintained, equipped and loaded. Under this so-called ``pilot'' 
provision, delivery trucks weighing between 10,001 and 26,000 pounds 
would be exempt from major safety requirements even though they account 
for 50 deaths and 1,000 injuries per month, at a cost of -500 million 
annually. This is the type of policy that undermines transportation 
safety and that we will vigorously oppose when ISTEA is reauthorized.
    Special ``niche'' exemptions from hours-of-service (HOS) 
regulations were also contained in the NHS legislation, which granted 
exemptions (in whole or in part) for drivers of trucks carrying 
agricultural products or construction materials and for public service 
utility vehicles, with no regard to size or weight. Congress should not 
be in the business of legislating or second guessing hours-of- service 
regulations. Driver alertness and fatigue are complex issues that 
deserve the scrutiny and attention of the regulatory process, which is 
constantly seeking to address issues in this area through the 
rulemaking process.
    Separately, Congress should direct more funding to enforcement. of 
current regulations. For example, the reauthorization bill should 
require the Office of Motor Carriers to publish an 800 number for 
drivers to call to report hours-of-service violations demanded of a 
driver by the company and afford better whistle-blower protections to 
those individuals.
NAFTA Safety Issues
    Let me now address our continuing concerns with the NAFTA land 
transport provisions that were scheduled to go into effect in December 
1995. These provision would grant Mexican commercial motor carriers 
access to the four U.S. border states and by the year 2000 to the 
entire United States. While the Clinton Administration wisely postponed 
those provisions in December 1995, it is under extraordinary pressure 
from our trading partners, business interests, and elements of the 
trucking industry to lift the restrictions. It is still evident today, 
however, that the United States is ill prepared to deal with the 
massive inflow of Mexican motor carriers onto our nation's highways. 
Border enforcement facilities are inadequate to handle the inflow of 
Mexican motor carriers that in most cases are in violation of U.S. 
safety and equipment standards, lack adequate insurance, and are 
operated by drivers not subject to comparable hours of service and rest 
period regulations. Since 1 in 4 of these vehicles are carrying some 
form of hazardous waste, a very dangerous situation on our nation's 
highways may be created. Furthermore, Mexican truck drivers earn as 
little as $7 a day, opening the door for the massive displacement of 
American truck drivers by U.S. trucking companies who are looking to 
exploit lower wage Mexican drivers. ISTEA's highway safety goals will 
be severely compromised by this job loss as qualified drivers are 
further displaced by Mexican drivers with significantly less training 
and knowledge of U.S. highway safety regulations.
    Indeed, insufficient progress has been made in U.S.-Mexico 
negotiations since the border opening was postponed 16 months ago. And 
a recent General Accounting Office (GAO) Report, Commercial Trucking; 
Safrty Concerns About Mexican Trucks Rem?ain Even as In?spection 
Activity Increases (GAO/RCED-97-68), has confirmed our longstanding 
position. The report concludes, among other things, that approximately 
1 out of every 100 Mexican trucks entering our borders is inspected, 
and of those inspected, 45 percent are declared out-of-service for such 
violations as bald tires, cracked frames and unqualified drivers.
    The GAO also found that the U.S. Department of Transportation had 
spent almost $300,000 to train Mexican inspectors to inspect Mexican 
trucks, yet less than 20 percent of those inspectors are still employed 
by the Mexican agency. Even more astounding was a GAO finding that 
Texas does not have a single permanent truck inspection facility at the 
border and has only 29 inspectors on the U.S. side to cover two-thirds 
(today over 4,500 daily) of all the truck traffic that enters the 
United States from Mexico.
    We find merit in the Administration's proposed Trade Corridor and 
Border Crossing Incentive Grant Program and the Border Gateway Pilot 
Program as contained in Section 1030 of its NEXTEA proposal. We are 
encouraged by a recognition of the threats that NAFTA represents to 
U.S. highway safety and to the physical infrastructure of our national 
highways. But until NAFTA's motor carrier provisions are renegotiated, 
such programs are band-aid fixes that will fail to address the 
underlying flaws in the NAFTA transport provisions as originally 
negotiated and eventually agreed upon in the NAFTA agreement approved 
by Congress.
    The only way to resolve the highway safety threat posed by NAFTA is 
to alter the trucking provisions that created the problem in the first 
place. This means adding to the core NAFTA agreement measurable and 
enforceable safety standards and enforcement programs equal to or 
higher than existing U.S. safety standards. Side agreements and letters 
of understanding are easily ignored, require a true commitment on both 
sides of the border, and virtually impossible to enforce.
                    private enterprise participation
    As all of us know, there has been increased attention placed on the 
role the private sector should play in the delivery of transportation 
services. While we recognize the longstanding role of private sector 
participation in our industry, I want to emphasis that decisions 
relating to public or private control of the transportation 
infrastructure, and particularly transit service, should be left to 
local planners.
    Congress recognized the wisdom of this policy during consideration 
of the original ISTEA bill when it included specific protections 
against the use of Federal transportation grants to force privatization 
on communities ill-prepared for or disinterested in this type of 
transition or service option. We recognize the need to encourage 
private investment in our transportation infrastructure and the desire 
to develop new ways to finance important investments, but we warn 
against heavy- handed policies that would permit, or in fact promote, 
the irresponsible sell-off of our transportation network in the name of 
cost savings that have usually proven illusory.
    I must emphasize that we ultimately believe that transportation 
facilities should continue to serve the public interest and not be 
dedicated solely to generating profits for private interests. At the 
very least, these decisions should be left to local authorities who are 
better equipped to make transportation decisions based on their local 
needs. To that end, we state our continuing support for President 
Clinton's recission of transit privatization rules that placed undue 
pressure on local transit grant recipients to explore privatization 
options at any and all costs. Those policies distracted attention and 
resources from providing vital services to the traveling public and 
harmed workers and communities. The labor movement is committed to 
preserving current privatization policies governing the Federal transit 
grant program and will combat any proposals in ISTEA to turn back the 
clock.
                          the planning process
    Under current law, a wide array of interests including labor 
organizations are permitted to receive, review, and comment on the 
annual and long-range transportation investment programs developed by 
Metropolitan Planning Organizations (MPOs) before final approval is 
granted for these plans. As this Committee is well aware, workers are 
directly affected by MPO spending and policy decisions and thus their 
unions offer a unique perspective to assist MPOs in developing workable 
and efficient plans.
    The role of workers and their unions at the planning table is to 
help ensure that employee issues are not merely cast aside when core 
planning decisions are made. Many of the successes that ISTEA has 
produced can be traced to the positive and constructive role that 
workers and their unions have played at the local level. While we 
support the MPO program design embodied in the 1991 legislation, we 
believe a mandatory role for union representatives should be reaffirmed 
and, to the extent possible, strengthened in the reauthorization bill 
this year.
                          innovative financing
    Separately, we continue to evaluate the impact of innovative 
financing mechanisms, such as the State Infrastructure Bank (SIB) pilot 
program, and seek to ensure that these proposals do not compromise 
worker rights or allow federally assisted entities to avoid compliance 
with various statutes designed to protect the public interest.
    Any expansion of this program in ISTEA reauthorization must require 
that all projects supported by 5113 funds meet important Federal 
standards including those designed to protect workers. Transportation 
labor is prepared to support sensible innovative financing proposals, 
but not if their implementation is done at the expense of vital Federal 
standards which may negatively impact the jobs and rights of workers in 
the transportation and building and construction industries.
                           final observations
    ISTEA has represented a historic shift in transportation policy for 
this country. Thousands of communities, businesses and workers across 
the country have benefited greatly from the 1991 Act. It would be most 
unfortunate if some choose to use the ISTEA reauthorization process to 
advance radical change in policy that would harm workers. As we've 
stated all along, we are prepared to work with the authorizing 
committees to advance a strong bill that supports our surface 
transportation programs into the 21st Century. However, we stand 
equally as prepared to wage a spirited campaign against any measures 
that will harm the rights or threaten the jobs of workers.
    We are ready to do our share, to work with you every step of the 
way to advocate a long-term commitment to finance our nation's 
transportation needs. ISTEA is really about the future competitiveness 
of our country as the safe and efficient movement of people and goods 
becomes a growing challenge.
    We will look for this Committee's leadership to help craft a bill 
that meets the nation's surface transportation needs by building on the 
successes of ISTEA and maintaining the essential policy framework which 
led to its enactment in 1991.
    Thank you for providing us this opportunity to share our views.
                                 ______
                                 
                                                    March 14, 1997.

    The Honorable William J. Clinton,
    President, The United States of America,
    The White House,
    Washington, DC 20500

    Dear Mr. President: We are writing to express strongly the need for 
current U.S.-Mexican border trucking restrictions to remain in effect. 
Protecting the safety of the traveling public and our commercial 
drivers must remain the highest priority.
    Withholding full border state access for Mexican motor carriers has 
not impaired the growth of U.S.-Mexican trade. A steadily increasing 
volume of goods is flowing freely in both directions and the Mexican 
economy has made impressive progress to recover from its economic 
recession.
    Despite overly optimistic reports to the contrary, there has not 
been sufficient progress in addressing safety deficiencies to justify 
expanding privileges for Mexican motor carriers. To date, numerous 
efforts have failed to effect an agreement between the United States 
and Mexico to ensure that full border state access will not threaten 
highway safety. Although planning and coordination activities are 
underway, they are no substitute for proven enforcement systems in 
Mexico and the United States. Declarations that all trucks, U.S. or 
foreign, must meet U.S. safety standards are meaningless without 
adequate oversight by competent inspectors.
    Few of the 11,000 Mexican trucks now crossing daily into the United 
States are inspected. Fully half of those inspected at Laredo are 
ordered out of service for such serious safety violations as bald 
tires, cracked frames, missing lug nuts, and unqualified drivers. 
Allowing Mexican carriers to drive freely throughout the four U.S. 
border states, with no assurance whatsoever of their safety, would 
unnecessarily endanger the traveling public.
    Unfortunately, broad-stroke agreements will not protect highway 
safety. We need improved border facilities to provide adequate space 
for comprehensive inspections and assurance that the Mexican government 
will furnish timely safety and compliance histories of carriers and 
drivers. Until then, current safeguards must remain firmly in place.
    We deeply appreciate your consideration of these concerns.
            Sincerely,
                            Jack Quinn, Member of Congress.
                        James Oberstar, Member of Congress.
    Members of Congress Who Signed Letter to President Clinton--March 
25
Alabama
  Robert E. Bud'' Cramer, D-5, AL
  Spencer Bachus, Red, AL
  Earl F. Hilliard, D-7, AL
Arkansas
  Sam Farr, D-Delegate, AS
California
  Vic Fazio, D-3, CA
  Lynn Woolsey, D-6, CA
  George Miller, D-7, CA
  Nancy Pelosi, D-8, CA
  Ronald V. Dellums, D-9, CA
  Ellen O. Tauscher, D-10, CA
  Tom Lantos, D-12, CA
  Fortney ``Pete'' Stark, D-13, CA
  Zoe Lofgren, D-16, CA
  Walter Holden Capps, D-22, CA
  Bradley J. Sherman, D-24, CA
  Henry A. Waxman, D-29, CA
  Xavier Becerra, D-30, CA
  Matthew G. Martinez, D-31, CA
  Julian C. Dixon, D-32, CA
  Esteban Torres, D-34, CA
  Jane Harman, D-36, CA
  Loretta Sanchez, D-46, CA
  Bob Filner, D-50, CA
  Duncan Hunter, R-52, CA
Colorado
  Diana DeGette, D-1, CO
Connecticut
  Barbara B. Kennelly, D-1, CT
  Sam Gejdenson, D-2, CT
  Rosa DeLauro, D-3, CT
  Christopher Shays, R-4, CT
  James H. Maloney, D-5, CT
District of Columbia
  Eleanor Holmes Norton, D-DC
Florida
  Corrine Brown, D-3, FL
  Tillie Fowier, R-4, FL
  Clifford Stearns, R-6, FL
  John L. Mica, R-7, FL
  Michael Bilirakis, R-9, FL
  Carrie Meek, D-17, FL
  Ileana Ros-Lehtinen, R-18, FL
  Robert Wexler, D-19, FL
  Peter Deutsch, D-20, FL
  Lincoln Diaz-Balart, R-21, FL
Georgia
  Sanford Bishop, D-2, GA
  Michael ``Mac'' Collins, R-3, GA
  Cynthia Ann McKinney, D-4, GA
  John Levis, D-5, GA
Hawaii
  Neil Abercrombie, D-1, HI
  Patsy Mink, D-2, HI
Illinois
  Bobby L. Rush, D-1, IL
  Jesse L. Jackson, Jr., D-2, IL
  William O. Lipinski, D-3, IL
  Luis Gutierrez, D-4, IL
  Rod R. Blagojevich, D-5, IL
  Danny K. Davis, D-7, IL
  Sidney Yates, D-9, IL
  Gerald Jerry Weller, R-11, IL
  Jerry Costello, D-12, IL
  Lane Evans, D-17, IL
  Ray LaHood, R-18, IL
  Glenn Poshard, D-19, IL
Indiana
  Peter J. Visclosky, D-1, IN
  David M. McIntosh, R-2, IN
  Tim Roemer, D-3, IN
  Julia Carson, D-10, IN
Iowa
  Leonard L. Boswell, D-3, IA
Kentucky
  Scotty Baesler, D-6, KY
Maine
  Tom Allen, D-1, ME John Baldacci, D-2, ME
Maryland
  Benjamin L. Cardin, D-3, MD
  Albert Wynn, D 4, MD
  Steny Hoyer, D-5, MD
  Elijah E. Cummings, D-7, MD
  Constance Morella, R-8, MD
Massachusetts
  John W. Olver, D-1, MA
  Richard E. Neal, D-2, MA
  James P. McGovern, D-3, MA
  Barney Frank, D-4, MA
  Martin Meehan, D-5, MA
  John F. Tierney, D-6, MA
  Edward J. Markey, D-7, MA
  Joseph P. Kennedy, II, D-8, MA
  Joseph Moakley, D-9, MA
  William D. Delahunt, D-10, MA
Michigan
  Bart Stupak, D-1, MI
  Debbie Stabenow, D-8, MI
  Dale E. Kildee, D-9, MI
  David Bonior, D-10, MI
  John Conyers, Jr., D-14, MI
  Carolyn Cheeks Kilpatrick, D-15, MI
  John Dingell, D-16, MI
Minnesota
  Gil Guthnecht, R-1, MN
  David Minge, D-2, MN
  Bruce F. Vento, D-4, MN
  Martin Olav Sabo, D-5, MN
  William ``Billy'' Luther, D-6, MN
  Collin C. Peterson, D-7, MN
  James L. Oberstar, D-8, MN
  Lynn N. Rivers, D-13, MN
Mississippi
  Gene Taylor, D-5, MS
Missouri
  William Clay, D-1, MO
  Richard Gephardt, D-3, MO
  Ike Skelton, D-4, MO
  Karen McCarthy, D-5, MO
  Pat Danner, D-6, MO
New Jersey
  Robert E Andrews, D-1, NJ
  Frank LoBiondo, R-2, NJ
  Christopher H. Smith, R-4, NJ
  Frank Pallone, D-6, NJ
  William J. Pascrell, D-8, NJ
  Steven R. Rothman, D-9, NJ
  Donald M. Payne, D-10, NJ
  Robert Menendez, D-13, PI
New York
  Michael P. Forbes, R-1, NY
  Rick A. Lazio, R-2, NY
  Peter T. Kutg, R-3, NY
  Carolyn McCarthy, D 4, NY
  Gary Ackerman, D-5, NY
  Thomas J. Manton, D-7, NY
  Jerrold Nadler, D-8, NY
  Charles Schumer, D-9, NY
  Edolphus Towns, D-10, NY
  Major Owens, D-11, NY
  Nydia Velazauez, D-12, NY
  Carolyn Maloney, D-14, NY
  Charles B. Rangel, D-15, NY
  Jose Serrano, D-16, NY
  Eliot Engel, D-L7, IN' Y
  Nita M. Lowey, D-i8, NO
  Sue W. Kelly, R-19, NY
  Benjamin A. Gilman, R-20, NY
  Michael McNulty D-21, NY
  Gerald B.H. Solomon, R-22, NY
  Sherwood Boehlert. R-23, NY
  John M. McHugh, R-24, NY
  James Walsh, R-25, NY
  Maurice Hinchey, D-26, NY
  Louise Slaughter, D-28, NY
  John J. LaFalce, D-29, NY
  Jack Quinn, R-30, NY
North Carolina
  Eva Clayton, D-l, NC
  Bobby R. Etheridge, D-:, NC
  David Price, D-4, NC
  W.G. ``Bill'' Hefner, D-8, NC
  Melvin Watt, D-12, NC
North Dakota
  Earl Pomeroy, D-At Large, ND
Ohio
  Tony P. Hall. D-3, OH
  Ted Strickland, D-6, OH
  Marcy Kaptur, D-9, OH
  Dennis I. Kucinich, D-10, OH
  Louis Stokes, Dell, D-11, OH
  Sherrod Brown, D-13, OH
  Thomas C. Sawyer, D-14, OH
  Ralph Regula, R-16, OH
  James A. Traficant, Jr., D-17, OH
  Robert Ney, R-18, OH
Oregon
  Elizabeth Furse, D-1, OR
  Earl Blumenauer, D-3, OR
  Peter A. DeFazio, D-4, OR
  Darlene Hooley, D-5, OR
Pennsylvania
  Thomas Foglietta, D-1. PA
  Robert Borski, D-3, PA
  Ron Klink, D-4, PA
  Tim Holden, D-6, PA
  Joseph M. McDade, R-10, PA
  John Murha, D-12, PA
  William Coyne, D-14, PA
  Paul McHale. D-15, PA
  Michael F. Doyle, D-18, PA
  Frank R. Mascara, D-20, PA
  Phil English, R-21, PA
Rhode Island
  Patrick J. Kennedy, D-1, RI
  Robert A. Weygand, D-2, RI
South Carolina
  John M. Spratt, Jr., D-5, SC
  James E. Clyburn, D-6, SC
Tennessee
  Bob Clement. D-5, TN
  Bart Gordon, D-6, TN
  John S. Tanner, D-8, TN
  Harold E. Ford, Jr., D-9, TN
Texas
  Jim Turner, D-2, TX
  Nick Lampson, D-9, TX
  Ron Paul, R-14, TX
  Sylvestre Reyes, D-16, TX
  Sheila Jackson Lee, D-18, TX
  Henry B. Gonzalez, D-20, TX
  Martin Frost, D-24, TX
  Karen L. Thurman, D-28, TX
  Gene Green, D-9 TX
Vermont
  Bernard Sanders, I-At Large, VT
Virginia
  Rick Boucher, D-9, VA
  Frank R. Wolf, R-10, VA
Washington
  Jack Metcalf, R-2. WA
  Jim McDermott, D-7, WA
  Adam Smith, D-9, WA
West Virginia
  Alan Mollohan, D-1, WV
  Robert E. Wise, D-2, WV
  Nick Joe RahalL, II, D-3, WV
Wisconsin
  Scott Klug, R-2, WI
  Ron Kind, D-3, WI
  Gerald Kleczka, D 4, WI
  Thomas Barrett, D-5, WI
  David R. Obey, D-7, WI
  Jay W. Johnson, D-8, WI
            Statement of the American Insurance Association
    Distinguished Chairman and Members of the Committee: The American 
Insurance Association (AIA) represents more than 300 insurers which 
provide 34 percent of the country's commercial vehicle insurance and 9 
percent of its private passenger automobile coverage. For decades, AIA 
insurers have written automobile insurance in every state and many are 
international companies. Their collective experience in transportation 
issues, as financial intermediaries and safety advocates, is important 
to the national debate over ISTEA II and the future of transportation 
funding and planning in the United States.
ISTEA Has Performed Well
    The Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA) has largely achieved its objectives to foster''a National 
Intermodal Transportation System that is economically efficient and 
environmentally sound . . . `` Section 2 of ISTEA cites national goals 
for reducing energy consumption and air pollution, promoting economic 
development and international commerce, improving public 
transportation, reducing traffic congestion and encouraging innovation. 
In furtherance of these goals, ISTEA and related actions have: funded 
highways and bridges, supported and expanded mass transit, addressed 
environmental issues improved transportation planning and enhanced 
safety.
    Our collective progress over the decade on safety issues is shown 
by Exhibits 1 and 2. Injuries and death rates have been dramatically 
reduced. In the most recent years, however, there has been a gradual 
reversal of the positive trends, which demonstrates the need for 
continuing safety efforts.
    While disagreements over the funding allocations between states and 
transportation modes have occurred, and indeed could be expected in any 
context in which there is not enough money to satisfy every desire, 
ISTEA has served the Nation well. This should not be forgotten in 
determining where we go from here.
Funding for Highways and Bridges and Mass Transit Should Be Increased
    At the base of any funding discussion should be this principle--all 
transportation taxes (e.g., gas taxes) should be used on transportation 
projects and planning. Allocating all gas tax moneys for transportation 
purposes would, in itself, help reduce pressure for more radical 
departures from the public policies embedded in ISTEA. Even a cursory 
look at any densely populated area, such as the Washington, D.C. 
metropolitan area, proves the need for more transportation resources. 
For example, rail service to Dulles Airport and the Woodrow Wilson 
Bridge, alone, would cost more than $3 billion. Additional resources 
are also urgently needed to fund the upkeep of the Metro Rail System, 
improve bus service and expand highways where mass transit is not 
feasible or congestion has reached crisis levels.
    Beyond the issue of the overall amount of funding is how it is 
allocated by transportation mode. We strongly support adequate funding 
for mass transit, as well as highways and bridges.
    Getting people off the roads and into mass transit in urban areas 
is important for reducing highway congestion that leads to motor 
vehicle accidents and high insured losses. Insurance data demonstrate 
that the highest accident rates, claims frequencies and resulting 
insurance premiums are in the most heavily congested areas. For 
example, the rate for bodily injury liability claims in congested areas 
can be twice or more of the statewide averages.
    Mass transit is important for assuring that workers can get to 
their jobs, thereby improving productivity and reducing the ranks of 
the unemployed. Mass transit is also critical for the mobility of older 
citizens, some of whom are not able to drive any longer. Even commuters 
who drive because they have no mass transit available to them benefit 
from the reduced traffic congestion resulting from mass transit use by 
people who might otherwise be on the roads. Therefore, AIA supports 
full funding for mass transit construction, maintenance and operations.
    We have no position on how funds are disbursed among the states. We 
strongly believe, however, that this issue should not be used to shift 
money away from mass transit or other federally determined priorities, 
such as safety.
Continuing Federal Leadership on Safety is Critical
    ISTEA has successfully encouraged the states and private industry 
to make historic gains in safety. Despite reduced accident rates, 
however, motor vehicle crashes are still a serious national problem and 
still claim 40,000 lives, five million injuries and more than $150 
billion in economic losses annually. This toll far exceeds the losses 
from any other transportation mode.
    By leveraging highway funds, the Federal Government has encouraged 
the enactment of drunk driving, seatbelt, and other laws by dozens of 
states. Federal regulatory actions have also brought about much safer 
cars and truck designs and have led to safer motor carrier operations. 
Although the economic effect of this progress on insurance premiums has 
been somewhat muted by a growing tendency to file lawsuits in auto 
cases, there is no doubt that auto insurance losses would have been 
much greater without the ISTEA safety programs. (See Exhibits 3 and 4)
    While grants and redirection of Federal funds for safety objectives 
should continue to be authorized, we believe that, where necessary, 
denial of Federal funds should be an option. The greatest progress in 
the past has been achieved on safety when all of these measures were 
available. Further, use of such authority is not an unfunded mandate 
(e.g., a Federal law that requires the states and local governments to 
expend money to companies without offsetting Federal funds). According 
to NHTSA, states and local governments pay nearly 10 percent of auto 
accident medical care costs. If anything, Federal incentives to reduce 
motor vehicle injuries are nothing more than a mandate for the states 
to save their own tax money and that of their residents by enacting 
measures which will reduce auto accident deaths, injuries and economic 
costs paid by governments, individuals and businesses.
    ISTEA should, therefore, include a set of objectives, programs and 
funding levels for identified safety programs, for example the private 
passenger auto recommendations of the SAFETEA Coalition. (See Exhibit 
5) ISTEA II safety priorities should include provisions to encourage 
the states to enact primary enforcement seatbelt laws, drunk driver 
initiatives, administrative license revocation laws, measures to deter 
aggressive driving, speed limit enforcement, graduated licensing laws 
for the youngest drivers and measures oriented to older drivers.
Conclusion
    Federal leadership as embodied in ISTEA, in partnership with state 
and local governments and the private sector, has brought about 
significant improvement in transportation planning, environmental 
protection, intermodalism, and traffic safety. Let's not throw the baby 
out with the bath water by terminating this successful partnership. 
ISTEA and it objectives and programs should not be abandoned, but 
maintained and strengthened in ISTEA II.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                 Boston University School of Public Health,
                                                       May 8, 1997.

    Hon. John Warner, Chairman,
    Subcommittee on Transportation and Infrastructure,
    Committee on Environment and Public Works,
    Washington, DC 20510

    Dear Senator Warner: I am enclosing for your committee's 
consideration a report published in the American Journal of Public 
Health in September 1996 entitled, ``Lowering State Legal Blood Alcohol 
Limits to 0.08 percent: The Effect on Fatal Motor Vehicle Crashes'', 
which I coauthored with Timothy Heeren, Ph.D. and Michael Winter, 
M.P.H. The report was cited by Senators Lautenberg and DeWine as well 
as Representative Lowey yesterday in their testimony before your 
committee proposing Federal Legislation to encourage all states to 
reduce their legal blood alcohol limit to .08 percent. I would strongly 
urge the committee members to read the article in its entirety with 
particular attention to the methods section and the discussion in which 
we review the strengths and limitations of our study design.
    I believe it is important for you and other committee members to 
have this study available to read in view of the letter you cited at 
the hearing from Richard Berman, the General Council of the American 
Beverage Institute. That letter stated no ``unbiased studies'' have 
provided evidence that lowering legal blood alcohol limits to .08 
percent will reduce fatal traffic crashes.
    Mr. Berman has on several occasions at public hearings and in the 
media alleged that the results of our study on .08 percent laws are 
biased because 1) Mothers Against Drunk Driving (MADD) commissioned the 
study, 2) I am a member of the National Board of Directors of Mothers 
Against Drunk Driving (MADD), 3) that I conducted the study to become a 
member of that Board in order to receive financial remuneration from 
them, and 4) that my bias is obvious because I dedicated the article to 
the Webb family of Franklin, Tennessee. That family lost a daughter and 
a nephew and suffered permanent injuries from burns they incurred in a 
crash involving a driver at .08 percent blood alcohol level.
    In response to Mr. Berman's allegations: 1) Mothers Against Drunk 
Driving did not pay for any aspect of this research. It was undertaken 
while I was working on grants from the National Institute on Alcohol 
Abuse and Alcoholism of the National Institutes of Health, the 
Massachusetts Governor's Highway Safety Bureau, and the U.S. Centers 
for Disease Control. 2) I do serve on MADD's National Board of 
Directors. However, the article was completed in the final text prior 
to my beginning service on MADD's Board. 3) My service to MADD is 
voluntary. MADD has rules that strictly forbid remuneration of Board 
Members for their service. I am proud of my appointment to the MADD 
Board and applaud that organization for appointing research scientists 
to their Board and consulting committees in an effort to bring science 
directly to bear on their policy decisions.
    Finally, my dedication of the study to the Webb family did not 
influence the results of the study. I first met Millie Webb at a 
National Lifesavers Conference in Indianapolis after my first public 
presentation of our study results. I asked her if I could dedicate the 
results of the study to her family, only after the study had been peer 
reviewed and accepted for publication by the American Journal of Public 
Health and was in final galley proof. I made this dedication so that 
their family could be associated with a study in a scientific journal 
that reported legal blood alcohol limits of .08 percent could prevent 
other families from experiencing the psychological and physical pain 
they have endured as the result of a crash caused by a driver at .08 
percent. The dedication was also a reminder to the readers of the 
Journal of the personal human suffering behind the public health 
problems we seek to understand and address through our research.
    I would welcome an opportunity to meet with you or any member of 
the committee to directly respond to questions regarding the methods, 
findings, and interpretation of our research as well as research by the 
National Highway Traffic Safety Administration and others regarding .08 
percent laws. I trust this research will be the legislative focus of 
attention as the .08 percent law is debated, not the innuendoes and 
charges of bias that have been and may again be leveled at me, my 
coauthors and our study by the legal council of the American Beverage 
Institute because I offer volunteer service to Mothers Against Drunk 
Driving.
            Sincerely,
                                       Ralph Hingson, Sc.D.
                                               Professor and Chair.
    P.S. Enclosed are also copies of a recent report from the National 
Institute on Alcohol Abuse and Alcoholism (NIAAA) indicating the number 
of drinks that need to be consumed to reach .08 percent, and the 
American Medical Association report over 10 years ago recommending a 
legal blood alcohol limit of .05 percent. In the NIAAA report, the 
average adult male weighed 170 pounds and fasted for 10 hours prior to 
alcohol consumption.
                               __________
     Statement of the National Association of Independent Insurers
    The National Association of Independent Insurers (NAII) is a 
national trade association composed of more than 560 property-casualty 
insurance companies which insure about one-third of the large trucks in 
the United States. NAII members also insure about one-third of the 
private passenger automobiles in the country. Accordingly, our members 
have an acute interest in assuring that America's highways are safe.
    NAII is an active member of the American Highway Users Alliance and 
the Roadway Safety Foundation, and we endorse the AHUA testimony 
supporting reauthorization of the Federal highway program with 
increased funding for highway building, roadway maintenance, and safety 
programs.
    NAII submits this additional written statement to comment on one 
aspect of the important issue of highway safety that relates to NAFTA. 
Specifically, NAII wants to make certain that NAFTA implementation does 
not result in increased fatalities and injuries, or more property, 
environmental, or infrastructure damage. In that spirit, NAII supports 
increased funding for the Federal Highway Administration and the Motor 
Carrier Safety Assistance Program so that officials can recruit, train, 
and deploy more motor carrier safety enforcement personnel at U.S.-
Mexican border crossings. Currently, the number of vehicle inspections 
performed at the border is insufficient to keep out unsafe drivers and 
trucks, according to two recent General Accounting Office reports.
    The General Accounting Office reported to Congress in February 1996 
that many trucks from Mexico operating in the U.S. border commercial 
zone were in poor condition and did not meet U.S. safety standards for 
trucks. The report also indicated that Mexican drivers often do not 
have valid licenses or insurance. GAO also observed that enforcement 
varies significantly among the border states and is not aligned with 
need. At the same time, the report found that Mexico has limited 
facilities and personnel to implement its own safety enforcement 
program. GAO just released a followup report earlier this month which 
found that about 45 percent of the trucks inspected from Mexico during 
1996 were placed out of service with serious safety problems.
    These reports justify the administration's decision to impose a 
moratorium on NAFTA implementation and delay action on applications 
from Mexican trucking companies to operate beyond the U.S. border 
commercial zone until safety and security can be assured and reliably 
demonstrated.
    We urge Congress, as it considers ISTEA reauthorization 
legislation, to approve adequate funding for FHWA and the motor carrier 
safety assistance program in order to assure that safety inspection 
programs are in place and that Mexican trucks coming into the U.S. pose 
no greater threat to safety than U.S. trucks.
                               __________
        Statement of Fraydun Manocherian, Manocherian Foundation
Summary
    The Manocherian Foundation is a non-profit organization dedicated 
to reducing accidents, deaths and disability on our highways. The 
Foundation was established in 1962 by Mr. Fraydun Manocherian, who as a 
high school student, lost two friends to a drunk driving crash.
    It is extremely important that the reality of highway fatalities 
not be overlooked when your Subcommittee makes important decisions 
about how to structure safety programs of the Department of 
Transportation. Highway fatalities have increased in recent years, the 
fatality rate based on vehicle miles traveled is stagnant, and the 
human tragedy of highway crashes continues to plague us all in epidemic 
proportions.
    Although great progress has been made over the past 15 years in 
reducing road trauma, our achievements are not the envy of the world 
and many other countries have achieved better results in critical areas 
like drunk driving and safety belt use.
    Funds spent on highway safety return more benefit to American 
taxpayers than many, if not most, government programs. Studies 
conducted by the National Highway Traffic Safety Administration 
conclude that $6 dollars in benefits are returned to the Nation for 
every Federal dollar invested in the vehicle safety programs of the 
agency, and $30 for every dollar invested in the behavioral aspects of 
highway safety. Reductions in health care costs, lost productivity, job 
training, insurance costs, and police and emergency services costs are 
the result of this investment.
    Since progress has slowed in recent years, it is time to devote 
additional resources to this national health problem. In order to again 
achieve further gains and the historical return on investment in 
improving driver, passenger, pedestrian, and bicyclist behavior, new 
initiatives and approaches to spending Federal dollars must be 
considered.
    Increases in the funds available for state programs, like those 
proposed by NHTSA in the NEXTEA legislation for alcohol incentive and 
occupant protection grants, is money well spent. But it is time to 
aggressively attack the problem. We propose a six-point program for the 
next 6 years that would have several features:

    1) require NHTSA to articulate national goals to be achieved in 5 
    years for safety belt use, percentage of alcohol-related 
    fatalities, and the highway fatality rate,
    2) support traffic law enforcement directly with added resources,
    3) develop modern educational tools taking advantage of Internet, 
    CD-Rom and other technologies,
    4) conduct aggressive research to understand aggressive behavior on 
    the highway and its relationship to other in jury-causing behavior,
    5) increase national advertising to create awareness of this 
    national tragedy, and
    6) establish a combination incentive/sanction program for the 
    states to enact appropriate drunk driving and safety belt use laws.

    Incremental increases in resources will simply not get the job 
done. By putting further resources into national research and outreach 
programs, the driving public will be assured that reducing highway 
death and injury is a national priority and that the appropriate 
research is conducted to understand behavior and to act on further 
gains.
    We have proposed to the Appropriations Committees that $34 million 
be added to the NHTSA budget request of $330 million in fiscal year 
1998 to begin this important work. But a longer term solution should be 
considered in the NEXTEA reauthorization One additional single 
percentage point of funds from the Highway Trust Fund applied to 
national NHTSA programs would result in about $260 billion additionally 
becoming available and would fund the programs described above. It is 
appropriate that the NHTSA authorization rise to the $600 million level 
over the life of NEXTEA. Since over 90 percent of all transportation-
related fatalities occur on OUT nation's highways and 80 percent of 
those are attributable to driver errors, the additional amounts are 
appropriate and necessary.
    A full discussion is presented below.
The Problem
    Despite large successes over the past 15 years, 42 thousand people 
died on our highways in 1996 with over 3 million reported injuries. 
Increases in fatalities have taken place in each of the last several 
years although slight reductions occurred in calendar year 1996. While 
the fatality rate, measured in fatalities per 100 million vehicle miles 
traveled, has been reduced dramatically over the past 15 years, the 
rate of approximately 1.7 is essentially unchanged since 1992.
    Although the United States has a solid record of achievement in 
reducing highway deaths and injures, we are by no means the world 
leaders, particularly in important areas like drunk driving and safety 
belt use. in the United States, over 41 percent of highway fatalities 
are alcohol related while other countries, Scandinavian countries in 
particular, routinely achieve alcohol-related fatality percentages of 
less than 30 percent.
    Safety belt use in this country is stalled at 68 percent while 
Canada, Australia, Great Britain, and other countries routinely achieve 
belt use over 85 percent with some, like Canada, over 90 percent Since 
each 10 percent of safety belt increase saves 2,000 lives per year, the 
potential for further improvement is enormous.
    The heart of the problem lies with the willingness of drivers and 
passengers in this country to aggressively engage in risk-taking 
behaviors. Not buckling up, driving drunk, driving too fast, not 
wearing a motorcycle helmet, and even jaywalking or not wearing a 
bicycle helmet are all manifestations of risk-taking.
Highway Safety Economics
    According to a NHTSA report released in 1996, highway deaths and 
injuries cost the Nation over $150 billion in 1994, up from $137 
billion in 1990. That amounts to 2.2 percent of the Nation's Gross 
Domestic Product and $580 for every person living in the United States. 
Every fatality costs society $830,000 and each critically injured 
survivor $706,000.
    There are few of us who do not pay the bill in one of several ways. 
According to the NHTSA study, the costs of highway crashes are 
distributed as follows:

 
------------------------------------------------------------------------
              TYPE OF LOSS                        AMOUNT OF LOSS
------------------------------------------------------------------------
Productivity and workplace losses......  $58.6 billion
Property damage........................  $52.1 billion
Medical costs..........................  $17.0 billion
Travel delay...........................  $4.4 billion
Legal and court costs..................  $5.9 billion
Emergency services.....................  $1.7 billion
Insurance administration...............  $10.5 billion
Rehabilitation.........................  $156 million
    TOTAL..............................  $150.4 BILLION
------------------------------------------------------------------------

    Despite their enormous cost, highway crashes needn't extract this 
toll from the lives of families, government, and business Highway 
crashes are not random events over which there is no control. Many 
highway crashes and the consequences of them are controllable. The 
bottom line is that highway crashes are still a huge economic and 
social problem in this country and the amount of resources we are 
devoting to reducing the toll is very small in proportion to the 
problem.
NHTSA's Budget in Perspective
    NHTSA's total budget request for fiscal year 1998 is $333 million 
There are several ways to put this figure in perspective. The first is 
to compare this amount to the $150 billion lost each year in highway 
crashes. NHTSA studies have concluded that the return on investment 
ranges from $6 dollars for every dollar spent on vehicle programs and 
up to $30 dollars for each dollar spent on programs to alter driver and 
passenger behavior. With this solid return, further investment, 
particular in the behavioral programs, makes economic sense. The 
current levels of investment are far below that which is comparable to 
the problem and far below those needed to achieve effective economic 
gain and reduce the devastating effect on families from losing loved 
ones.
    The Highway Trust Fund collects approximately $26 billion per year, 
and the NHTSA budget makes up just over I percent of that figure. The 
economics of highway safety demand a greater investment. And since 
about 80 percent of the cause of highway injury lies with driver and 
passenger behavior, that new investment should be weighed heavily 
toward changing behavior.
    Recent experience with air bag safety makes the effort more 
important. An extraordinary amount of attention has focused on changing 
Federal Motor Vehicle Safety Standard 208 The subject has become almost 
daily fare in the nation's newspapers and electronic media and NHTSA 
has come under increasing fire to alter the standard to allow air bags 
to become less aggressive and to promote the development of the so-
called ``smart bags''. But the simple truth is that the majority of the 
deaths attributable to air bags could have been avoided through the use 
of safety belts and ensuring the children under 12 are seated in the 
rear seat Again, the need is to increase efforts toward the appropriate 
use of safety restraints already available in every air bag equipped 
vehicle
The Proposal
    The traditional approach to changing behavior on our highways is to 
1) enact good state laws, 2) effectively enforce them, and 3) educate 
drivers and passengers on the importance of avoiding alcohol, buckling 
up, reducing speed, and other behaviors. When applied aggressively, 
effective reductions in fatalities and injuries will result. A number 
of state programs have repeatedly demonstrated the usefulness of this 
approach. Foreign experience, particularly safety belt use programs in 
Canada, Australia, and Great Britain, and drunk driving programs in 
Scandinavia and Australia, have achieved excellent success using this 
approach.
    NHTSA's traditional role in promoting these programs is threefold: 
1) conduct national advertising and programs through national 
organizations to identify highway safety as a national priority and to 
create issue awareness, 2) develop and provide technical and 
educational support, both in a research and program development sense, 
and 3) administer the state and community grant program.
    In recent years, the state and community grant program has received 
increased funding from Congress, principally through the section 402 
grant program An additional $12.5 million was provided in fiscal year 
1997 funds for the NHTSA section 402 program, a result of combining the 
Federal Highway Administration and NHTSA requests The same amount is 
asked for by NHTSA for fiscal year 1998. In addition, NHTSA has asked 
for an addition $8.5 million for fiscal year 1998 in alcohol incentive 
grants and a new $9 million program for occupant protection incentive 
grants.
    But Americans want more. A recent poll conducted by Louis Harris 
for Advocates for Highway and Auto Safety concluded that 9 out of 10 
Americans want the Federal Government to display strong leadership in 
highway safety.
    For national level programs, however, conducted through the section 
403 program, only small amounts of additional money are being sought 
for an air bag safety campaign, for emergency services support, and a 
new youth drug initiative. The total amount of increase is $4 million, 
but occupant protection and alcohol program development efforts will 
actually receive less funding under the Administration proposal. The 
highway safety research request is flat at about $5 million.
    While progress Is being made in funding state and community 
efforts, the amounts available for national level programs is 
inadequate, especially given the stagnation in reducing highway 
fatality and injuries and the Nation's mediocre performance in highway 
safety compared to the rest of the world.
    If the Nation is to commit resources commensurate to the problem, 
new investment in changing behavior should support state and community 
efforts and the need for national leadership in several areas:

    1) Set national goals to be achieved over the next 5 years.
    <bullet>  National leadership requires developing national 
    expectations. Aggressive goalsetting is an important facet of 
    national leadership and costs nothing.
    <bullet>  The key areas for which goals should be set are: overall 
    national highway fatality rate, percentage of alcohol-related 
    fatalities, and safety belt use rates.
    <bullet>  NHTSA should decide the goals to be reached and the 
    timeframe without delay and in concert with the highway safety 
    community.
    <bullet>  NHTSA has now set safety belt use goals for the year 2000 
    and 2005 under the National Strategy to Increase Seat Belt Use. 
    This is a step in the right direction. NHTSA should now revisit its 
    drunk driving goals and establish a goal for the fatality rate.
    2) Develop an aggressive new program to support traffic law 
enforcement efforts nationwide directly through police organizations 
and state highway safety offices.
    <bullet>  Less than $1 million in the NHTSA request supports 
    traffic law enforcement through national organizations and through 
    financial aid and technical assistance to the states.
    <bullet>  An additional $19 million per year initially with funds 
    growing throughout the life of NEXTEA is needed to replicate the 
    success of programs like North Carolina's safety belt and drunk 
    driving programs. Additional resources should be provided to the 
    law enforcement community to reverse the trends of recent years 
    toward less traffic law enforcement.
    <bullet>  3) Develop and distribute aggressive education approaches 
    using modern education and communication tools targeting high risk 
    populations.
    <bullet>  Fatality rate reductions among the highest risk 
    populations are stagnant, including the vulnerable risk-taking 
    populations of 21-34 year-old males. Older drivers and new drivers 
    need special attention and program approaches need to be developed. 
    Less than $3 million in program development funds are requested in 
    the NHTSA budget and very few of the NHTSA programs designed to 
    reach youth, older drivers, and the 21-34 age groups have been 
    evaluated.
    <bullet>  An additional $7 million annually growing throughout the 
    life of NEXTEA is needed to develop innovative approaches to reach 
    the vulnerable populations, including full evaluations of existing 
    educational approaches to these problems and the development of new 
    technology using the latest Internet, CD-Rom and other electronic 
    and motivational approaches.
    4) Conduct new research to better understand risk-taking and 
aggressive driving behavior on the highway.
    <bullet>  Understanding why some drivers and passengers take risks 
    by not wearing safety belts, driving drunk, speeding, or engaging 
    in other behaviors is fundamental to developing effective programs. 
    Although NHTSA has made some progress in understanding risk-taking, 
    these fundamental understandings are crucial to developing national 
    leadership in highway safety. The NHTSA highway safety research 
    budget only contains $550 thousand devoted to this type of 
    research.
    <bullet>  An additional $5 million annually growing throughout the 
    life of NEXTEA for risk-taking research is needed. Understanding 
    behavior and how driver and passenger risk-taking behaviors are 
    linked to other non-highway injuries is essential if the NHTSA 
    priority of establishing Safe Communities is ever to reach its 
    potential.
    5) Significantly increase public service advertising.
    <bullet>  Of the total NHTSA budget request of $333 million, only 
    about $1 million is devoted to national public service advertising 
    for highway safety.
    <bullet>  An additional $4 million annually growing throughout the 
    life of NEXTEA is appropriate to bolster current national efforts 
    and to assist states and communities in supporting increased 
    traffic law enforcement.
    6) Establish a combination of incentives and sanctions to encourage 
states to enact appropriate safety belt use and drunk driving laws.
    <bullet>  With secondary enforcement and fines ranging from $25-
    $50, state safety belt use laws are not taken seriously by the 
    driving public and by law enforcement officers. Only 14 states have 
    enacted legislation establishing .08 blood alcohol limits. States 
    that have enacted .08 limits have seen approximately a 10 percent 
    reduction in alcohol-related fatalities.
    <bullet>  Congress should consider establishing a system of grant 
    incentives for those states enacting both measures with highway 
    construction fund reductions if they are not enacted within 5 
    years. A $50 million incentive grant program initially, growing 
    over the life of NEXTEA is an appropriate response to the problem.
    The total added funds under these proposals is $84 million in the 
first year of NEXTEA, roughly a 25 percent increase in NHTSA's budget 
and less than \1/2\ of 1 percent of the expected revenues in fiscal 
year 1998 to the Highway Trust Fund.
    Highway safety program spending should represent a larger portion 
of Highway Trust Fund revenues. Miles traveled on the Nation's highways 
is a direct measure of exposure to safety risks and directly affects 
the amount of money flowing to the Highway Trust Fund. The more miles 
traveled, the greater the risks, and the more resources that should be 
available to counter those risks and to make further progress in 
reducing these intolerable human and economic wastes. If an additional 
1 percent of Highway Trust Fund money were dedicated to NHTSA programs, 
the programs described above and others could be funded easily. We 
believe it is time for Congress to consider such an approach. As 
Congress considers the next ISTEA reauthorization, the portion devoted 
to highway safety should be proportional to total revenues and should 
increase dramatically over the life of the bill.
    Thank you very much.
                                         Laurence N. Rohde.

    Committee of Environment and Public Works.

    Honorable Ladies and Gentleman: First of all I would like to thank 
you for this opportunity to be heard. My name is Laurence N. Rohde and 
I am a citizen and resident of Bethlehem, Pennsylvania. I am the holder 
of a CDL license and [eel that in enacting the Intermodal Surface 
Transportation Efficiency Act of 1991 there were issues overlooked in 
section's 402a 40's-410 US 23. The enforcement of DWI/DUI under these 
sections seems to be lacking a fairness to the accused. If we want this 
kind of punishment is in everyone interest to make sure that the law is 
fair.
    Since the enactment of Intermodal Surface Transportation Act of 
1991 Public Law 102-240 Dec. 18, 1991. The state should have been 
required to have a standard operating procedure in use for the 
enforcement of the drunk driving law as it pertains to the CDL. Having 
the prepared statement read to the accused is not a procedure. The 
statement is nothing more than a phantom statement of rights when the 
accused is not allowed the right to act upon it. When there is no 
procedure in effect to allow the accused access to independent testing 
as it seems the law is fundamentally unfair.
    When a state such as New Jersey has no procedure other than to read 
the following prepared statement;
    1. You have been arrested for operating a motor vehicle under the 
influence of intoxicating liquor or drugs or with a blood alcohol 
concentration of .10 percent or more.
    2. You are required by law to give samples of your breath for the 
purpose of making chemical tests to determine the content of alcohol in 
your blood.
    3. A record of the taking of the samples, including the date, the 
time and the results. will be made. Upon your request, a copy of that 
record will be made available to you.
    4. Any warnings previously given to you concerning your right to 
remain silent and your right to consult with an attorney do not apply 
to the taking of breath samples and do not give you the right to refuse 
to Aver or to delay giving samples of your breath for the purpose of 
making chemical tests to determine the content of alcohol in your 
blood. You have no legal right to have an attorney, physician, or 
anyone else present, for the purpose of taking the breath samples.
    5. After you have given samples of your breath for chemical 
testing, you have the right to have a person or a physician of your own 
selection, and at your own expense, take independent samples and 
conduct independent chemical tests of your breath, urine or blood.
    6. If you refuse to give samples of your breath, you will be issued 
a separate summons for this refusal.
    7. According to N.J.S.A. 39:4-50a, if a court of law finds you 
guilty of refusing to submit to chemical tests of your breath, then 
your license to operate a motor vehicle will be revoked for a period of 
6 months. If your refusal conviction is in connection with a subsequent 
offense under this statute, your license to operate a motor vehicle 
will be revoked for a period of 2 years. The Court will also fine you a 
sum of between $250 and $500 for your refusal conviction.
    8. Any license suspension or revocation for a refusal conjunction 
will be in addition to any license suspension or revocation imposed for 
any related offense.
    9. If you are constricted of refusing to submit to chemical tests 
of your breath, you must also satisfy the requirements of a program of 
alcohol education or rehabilitation.
    10. I repeat, you are required by law to give samples of your 
breath for the purpose of making chemical tests to determine the 
content of alcohol in your blood. Now, will you give the samples of 
your breath?
    There are no checks and balances in a prepared statement that makes 
no provisions for allowing a defendant access to independent tests. 
Without access to independent tests there is no way in which the 
results obtained by a bias police officer can be challenged This is one 
of the reasons when the Commercial Drivers License went into effect; 
the law should have made provisions for the DWI/DUI stops made When a 
person such as a truck driver is given this kind of summons he can lose 
his livelihood and sole means of support for his/her family. We can not 
allow this on one mans word against the other Since the court will 
always side with the police this again calls for a standardized 
procedure to ensure fairness.
    As of yet New Jersey State Police Still Have no Standard operating 
procedure for administering the breath tests. When defendant who drives 
for a living and can lose his only means of support it is imperative 
that this test be administered either in the presence of a supervisor 
or another oilmen to ensure that the test that is given is fair. Since 
the state police still use the Smith & Wesson Breathalyzer models 900 
and 900 A, which are hands on and being used by the same officer that 
makes the stop it is imperative that the defendant be given a fair 
chance to challenge the results.
    The Supreme Court was intent on insuring a defendants right when in 
Siilverthorne v. United States, 251 U.S. 385, 392 (1920) Rights 
proclaimed in the Constitution had not become but ``a form of words,'' 
in the hands of government officials. So reading a prepared statement 
and not allowing the defendant the right to exercise his rights does 
not constitute a right. Therefore not allowing a defendant the right of 
challenge is reminiscent of storm trooper tactics in Germany 50 years 
ago.
    The following is a recommendation, having given much thought about 
this in great detail. If considered I feel most would agree is fair to 
both the state and the accused:
    (1) When testing is done it should be witnessed by either a 
superior officer or a impartial witness.
    (2) Access should be given to challenge the results of a police 
administered test; after all if a positive reading comes about from a 
independent test would this not be a advantage to the state,
    (3) Removal of the 1950's technology used such as the hands on 
operation of the 900 and 900a models of breathalyzers (since these 
require a hands on operation by a police officer who may or may not be 
biased).
    Since these measures would not cost the Federal Government a huge 
amount of funds to implement and would also give a individual fair and 
balanced chance to prove his/her innocence, I feel it is not to much to 
ask of the committee. Since I have allergies and use an inhaler that 
gives positive results a simple blood test would have allowed me to 
prove my innocence. Caught by the unfair practices of New Jersey I have 
still been without a license going on 2 years. I realize that issue of 
driving under the influence is a very hot topic but if this has 
happened to me; we must assume it has happened to many more. Therefore 
I request that if the ISTEA bill is to go through the committee makes 
provisions for fairness to all and not just the few states that would 
abuse it to receive a larger unfair portion of the funding allocated. 
To abuse this for the goal of receiving highway funds the state is not 
entitled is definitely a serious concern for all Americans.
    The following excerpt is from testimony provided by Judith Lee 
Stone, President Advocate for Highway and Auto Safety on September 19, 
1996, given to the House Subcommittee on Surface Transportation. If the 
proposals made by her are to be considered then there must also be 
cheeks and balances to ensure the seizure of vehicles is not to be 
abused,
Section 410
    Section 410 establishes a Federal alcohol incentive grant program 
designed to encourage states to enact strong, effective anti-drunk 
driving legislation and improve the enforcement of these laws. Section 
410 also promotes the development and implementation of innovative 
programs to combat impaired driving.
    Since funding for the Section 408 program ended in fiscal year 
1994, Section 410 has been the sole incentive program to institute 
activities needed to combat the nation's serious problem with impaired 
drivers. Increases in the number of states passing Administrative 
License Revocation Laws, .08 ABC laws, and 02 ABC laws can be 
attributed in large measure to a desire to qualify for Section 410 
incentive funds.
    States may compete for basic grants and up to seven supplemental 
grants A state can receive a basic grant if it adopts and implements 
five out of even of the following:
    1. an expedited license suspension program for drunk drivers;
    2. a self-sustaining drunk driving prevention program;
    3. a .10 ABC law in the first 3 years of the program; a .08 ABC law 
in the last 2 years;
    4. a non-discriminatory statewide program for stopping motor 
vehicles to determine if the operator is driving under the influence 
(NHS added performance-based alternative criteria for states whose 
constitutions prohibit sobriety checkpoints);
    5. an effective system for preventing those under 21 from obtaining 
alcoholic beverages;
    6. mandatory jail or community service for repeat DWI/DUI 
offenders, and
    7. a law enacted and enforced which finds any person under 21 years 
old to be legally intoxicated if their BAC is .02 or more of this 
criteria was added by NHS).
    Supplemental grant funding is available to states that meet 
additional criteria, including open container laws, strict drugged 
driving prevention programs, and mandatory BAC testing programs.
    As part of ISTEA, Congress amended Section 410 to expand 
eligibility criteria and increase funding authorizations. Further 
amendments were made in Public Law 1052-388, which altered grant 
eligibility requirements and funding procedures Most recently, the NHS 
changed eligibility requirements, providing states with more options 
for meeting basic grant requirements.
    The result of these changes in eligibility requirements has been 
that more states are applying for the grants--that's the good news. In 
fiscal year 1992, 19 states qualified under the revised regulations 
Five new states qualified during fiscal year 1993, 3 new states in 
fiscal year 1994, and 2 new states in fiscal year 1995. total of 29 
states have now achieved eligibility, and NHTSA anticipates that as 
many as 36 states may qualify during fiscal year 1996
    The bad news is that there is not enough money to fund the states. 
Based on the obligation limit for fiscal year 1995, NHTSA was able to 
fund the states at only 75 percent of their formula calculation.
    At the level of $25 million provided for fiscal year 1996, the 34 
to 36 states expected to qualify win receive approximately 63 percent 
of their eligible grant. The 410 program ceases to be an ``incentive'' 
for the enactment of highway safety laws that we know work if there are 
insufficient funds.
    According to the Lou Harris poll, there is little doubt about where 
the American people stand on establishing tougher standards governing 
drinking and driving, especially when it pertains to teenagers. Ninety-
one percent favored passage of uniform laws under which teenage drivers 
when testing positive for any alcohol would be subject to immediate 
revocation of their driver's licenses and would be subject to strong 
penalties for driving under the influence. Among the youngest group, 
those 18 to 19, an 88 percent majority support such laws. Also, 78 
percent of adults nationwide oppose any effort to roll back the legal 
drinking age from 21 years of age.
    Further, in a significant new development in this area, a solid 
majority back a tough step that would strengthen the impact of the 
campaign against drunk driving. Sixty-six percent of those poked are so 
strongly opposed to driving while impaired that they support a measure 
that to have law enforcement authorities work out an arrangement with 
local TV news and newspapers that for people found guilty of driving 
under the influence of alcohol, the names and photos of all such 
offenders would be released to the media reporting that they have had 
their licenses revoked and their vehicles seized if they are repeat 
offenders. Lou Harris analyzed this response and commented, ``[t]he 
heavy sentiment to widely disseminate the names and photos of those who 
are convicted for drunk driving is a significant development, for it 
means the American people are playing for keeps to put an end to the 
tragic consequences of drunk driving'' Perhaps more aggressive 
measures, like this popular emerging idea or vehicle impoundment, 
should be considered as additional potential criteria for funding.
                               conclusion
    In closing I would ask that if, the proposal made by Judith Lee 
Stone, President Advocate for Highway and Auto Safety, is to be 
considered. The proposal I have made would also be considered so there 
night be an equal distribution of enforcement instead of the one sided 
way these laws are enforced today in a matter such as this it would be 
only fair to have balance both for the state and the individual. This 
would truly balance the rights of an individual and the rights of the 
state.
    The ISTEA bill calls for standards in the receiving of the CDL; it 
only makes sense to call for standards in revoking the CDL. If 
countries other than the United States can enforce ``National Laws,'' 
it stands to reason we can. This would make an abuse of the justice 
system a harder task instead of the free-for-all it is now This would 
also cut done in the abuse of inflated figures for a larger share of 
the dollars allocated for enforcement.
    Thank you for your time and I hope this brings to the attention of 
the committee some of the problems that come about when we center our 
focus on a problem without focusing on the problem of solutions that 
are rushed to appease groups with no regards for the rights of 
individuals whose lives could be effected permanently Our government 
was founded on the rights of individuals so we must consider these 
rights when we draft laws that are able to take away one of these 
rights. Most would say the right to drive does not exist and that it is 
a privilege; however when a person drives to feed and clothe his/her 
family I would say his/her right to freedom of choice in the pursuit of 
happiness is being taken away. As a weD-developed country we can not 
allow this decision to be based solely on the word of one individual 
who may or may not be bias from the start. Others would not be ignored.
            Sincerely,
                                         Laurence N. Rohde.
                                 ______
                                 
General Accounting Office Report: Commercial Trucking--Safety Concerns 
   About Mexican Trucks Remain Even as Inspection Activity Increases
                               april 1997
                  safety concerns about mexican trucks
    The North American Free Trade Agreement (NAFTA) provided for, among 
other things, the U.S.-Mexican border to be opened on December 18, 
1995, for increased commercial truck traffic within the border states--
four in the United States (Arizona, California, New Mexico, and Texas) 
and six in Mexico. Before that date, trucks making the 12,000 daily 
border crossings were limited to commercial zones (designated areas 
several miles deep) along the border. However, on December 18, 1995, 
the U.S. Secretary of Transportation announced that Mexican trucks 
would continue to have access only to commercial zones until U.S. 
safety and security concerns were addressed. This delay of access is 
still in effect. NAFTA also provides for commercial trucks from Mexico 
to travel throughout the United States as of the year 2000.
    In February 1996, we reported that many trucks from Mexico 
operating in U.S. commercial zones in mid 1995 were not meeting U.S. 
safety standards and that the four U.S. border states' readiness for 
enforcement varied significantly. \1\ As the year 2000 approaches, the 
United States needs to be assured that trucks entering the country from 
Mexico will be safe and operated safely. This follow-on report 
describes (1) the results of Federal and state inspections of Mexican 
trucks entering the United States in 1996, (2) actions by the Federal 
Government and border states to increase truck safety enforcement at 
the border, and (3) the Federal enforcement strategy to ensure that 
trucks from Mexico comply with safety standards when entering the 
United States.
---------------------------------------------------------------------------
    \1\ Commercial Trucking: Safety and Infrastructure Issues Under the 
North American Free Trade Agreement (GAO/RCED-96-61, Feb. 29, 1996).
---------------------------------------------------------------------------
    From January through December 1996 (the most recent date for which 
data were available as of March 1997), Federal and state officials 
conducted more than 25,000 inspections of trucks from Mexico. On 
average each month, about 45 percent of the vehicles were placed out of 
service for serious safety violations, such as for having substandard 
tires or for being loaded unsafely. This rate compares unfavorably to 
the 28-percent out-of-service rate for U.S. trucks inspected across the 
United States in fiscal year 1995 (the most recent year for which 
nationwide data were available). (However, because inspectors target 
for inspection those vehicles and drivers that appear to have safety 
deficiencies, their selections are not random. As a result, the out-of-
service rates may not necessarily reflect the general condition of all 
vehicles.) Although border inspection officials believe that trucks 
from Mexico are safer than they were in late 1995, the monthly out-of-
service rates for trucks from Mexico in 1996 ranged from 39 percent to 
50 percent, with no consistent trend.
    The border states of Arizona, California, and Texas have increased 
their capability to inspect trucks at major border locations. \2\ 
Collectively, the three states had 93 state truck inspectors assigned 
to border crossing locations as of January 1997. In addition, the U.S. 
Department of Transportation (DOT) approved 13 new temporary positions 
(2-year appointments) to place Federal safety inspectors at major 
border crossing locations. California, with about 24 percent of the 
truck traffic from Mexico, opened two large permanent inspection 
facilities. It has the most rigorous inspection program, with the goal 
of inspecting, at least once every 90 days, every truck entering the 
state from Mexico. While both Texas and Arizona, collectively with more 
than three-quarters of the truck traffic from Mexico, have more than 
doubled the number of inspectors at border crossing locations, their 
efforts are less comprehensive. For example, neither has invested in 
inspection facilities at border crossing locations, in part, because of 
a lack of space at some urban crossings and the view that NAFTA is a 
national issue that should not be financed with state funds.
---------------------------------------------------------------------------
    \2\ New Mexico receives less than 1 percent of the northbound truck 
traffic, and its activities are not included in this report.
---------------------------------------------------------------------------
    Under a broad strategy to help create a ``compliance mind-set'' for 
Mexican trucks crossing into U.S. commercial zones, DOT has undertaken 
a number of activities to promote truck safety. These include providing 
funds to the border states to increase border inspection activities, 
conducting educational campaigns for Mexican truck operators on U.S. 
safety standards, and attempting to build the capacity of selected 
Mexican enforcement agencies to inspect trucks within that country. In 
February 1997 DOT announced that its program that provides grants for 
statewide safety enforcement activities will incorporate performance-
based goals to increase truck and driver safety. Also, in March 1997, 
DOT submitted a legislative proposal to the Congress as part of the 
reauthorization of the Intermodal Surface Transportation Efficiency Act 
that would incorporate this initiative. In addition, other proposed 
provisions would help states to address concerns about the border 
infrastructure and safety.
    NAFTA, which was agreed to by Canada, Mexico, and the United States 
in 1992 and implemented in the United States through legislation in 
1993, contained a timetable for the phased removal of trade barriers 
for goods and services between the three countries. Beginning December 
18, 1995, Mexican trucking companies were to have been able to apply 
for the authority to deliver and backhaul cargo between Mexico and the 
four U.S. border states. However, on that date the Secretary of 
Transportation announced an indeterminate delay because of safety and 
security concerns. NAFTA's timetable calls for all limits on cross-
border access (i.e., truck travel within the three countries) to be 
phased out by January 2000. Until expanded access is granted, trucks 
from Mexico continue to be limited to commercial zones along the border 
(generally, areas between 3 and 20 miles from U.S. border towns' 
northern limits, depending on each town's population).
    For several decades, the United States has been expanding 
inspection and enforcement programs nationwide to encourage safer U.S. 
trucks and truck operation. DOT has, among other things, (1) issued 
minimum safety standards for trucks and commercial drivers, (2) 
provided grants to states to develop and implement programs that would 
lead to the enforcement of these safety standards, and (3) conducted 
reviews of about one-third of all domestic interstate trucking 
companies in order to determine overall compliance with safety 
regulations. Through the Motor Carrier Safety Assistance Program 
(MCSAP), DOT works in partnership with states to enforce Federal truck 
regulations. As the states adopt Federal safety regulations, DOT 
provides financial assistance for enforcement. Although DOT maintains a 
presence in all states to promote truck safety and requires that states 
comply with minimum Federal regulations and requirements related to 
truck safety, it relies on the states to develop their own strategies 
for enforcement.
    NAFTA also established the Land Transportation Standards 
Subcommittee to work toward compatible truck safety and operating 
standards among the countries. While U.S. and Canadian commercial 
trucking regulations are largely compatible, major differences existed 
between U.S. and Mexican regulations concerning drivers' 
qualifications, the hours of service, drug and alcohol testing, the 
condition of vehicles (including their tires, brakes, parts, and 
accessories), accident monitoring, and the transport of hazardous 
materials. According to DOT, progress has been made in making truck 
safety and operating standards compatible, and discussions are still 
ongoing.
    NAFTA's three member nations have accepted the truck inspection 
standards established by the Commercial Vehicle Safety Alliance (CVSA). 
\3\ For the most part, there are two types of inspections conducted 
according to the trilaterally accepted truck inspection guidelines--
''level-1'' and ``level-2'' inspections. \4\ The level-1 inspection is 
the most rigorous--a full inspection of both the driver and vehicle. 
The driver inspection includes ensuring that the driver has a valid 
commercial driver's license, is medically qualified, and has an updated 
log showing the hours of service. The level-1 vehicle inspection 
includes a visual inspection of the tires and of the brakes' air 
pressure, among other things, and an undercarriage inspection that 
covers the brakes, frame, and suspension (see fig. 1). The level-2 
inspection, also known as a ``walk-around inspection,'' includes a 
driver inspection and a visual inspection of the vehicle. It does not 
include the careful undercarriage inspection. Trucks that fail 
inspections for serious safety violations are placed out of service--
that is, they are halted until the needed repairs are made.
---------------------------------------------------------------------------
    \3\ CVSA is an association of state, provincial, and Federal 
officials responsible for the administration and enforcement of motor 
carrier safety laws in the three countries.
    \4\ Level-1 and level-2 inspections constitute about 80 percent of 
the inspections nationwide. Level-3 inspections, which account for 
about 18 percent of all inspections, focus on the driver's records 
rather than the vehicle's condition. Level-4 and level-5 inspections, 
which constitute fewer than 2 percent of all inspections, are special-
purpose inspections.
---------------------------------------------------------------------------
    Figure 1: California State Inspector Performing a Level-1 
Inspection (See figure in printed edition.)
    A level-1 inspection includes an undercarriage inspection of the 
brakes, frame, and suspension.
         out-of-service rates averaged about 45 percent in 1996
    From January 1996 (the first full month of detailed records of 
inspections) through December 1996 (the most recent month for which 
data were available as of March 1997), Federal and state safety 
inspectors conducted over 25,000 safety inspections of about 3 million 
Mexican trucks crossing into the United States. These inspections 
resulted in an out-of-service rate of about 45 percent for serious 
safety violations. The monthly out-of-service rates ranged from 39 
percent to 50 percent, with no consistent trend (see fig. 2).
    Figure 2: Out-of-Service Rates for Trucks From Mexico, 1996 (See 
figure in printed edition.)
    The average monthly out-of-service rate of 45 percent compares 
unfavorably with the 28-percent rate for 1.8 million U.S. trucks 
inspected on the nation's roads during fiscal year 1995 (the most 
recent year for which nationwide data are available). However, because 
inspectors target for inspection vehicles and drivers that appear to 
have safety deficiencies, their selections are not random. As a result, 
the out-of-service rates may not necessarily reflect the general 
condition of all vehicles.
    In addition, while about half of the 1.8 million inspections of 
U.S. trucks were level-1 inspections, only slightly more than one-
quarter of the inspections of trucks from Mexico were this type. Level-
1 inspections are more stringent than level-2 inspections and result in 
higher out-of-service rates. \5\ Consequently, if more of the 
inspections of trucks from Mexico had been level-1 inspections, the 
resulting overall out-of-service rate likely would have been somewhat 
greater than 45 percent.
---------------------------------------------------------------------------
    \5\ For the United States as a whole, the fiscal year 1995 out-of-
service rate for level-1 inspections was about 33 percent, and the rate 
for level-2 inspections was about 19 percent. Of the U.S. border 
states, only California conducts primarily level-1 inspections of 
trucks from Mexico.
---------------------------------------------------------------------------
    The out-of-service rates for trucks entering the United States from 
Mexico have also been substantially greater than those for U.S. trucks 
operating within individual border states (see fig. 3). California's 
data show less disparity, which may be because regular inspections 
since the late 1980's have made Mexican carriers traveling into 
California more knowledgeable about U.S. truck safety standards.
    Figure 3: State-by-State Comparison of Out-of-Service Rates (See 
figure in printed edition.)
    Federal and state truck inspectors we contacted in Arizona, 
California, and Texas told us that trucks from Mexico are upgrading 
equipment to improve safety. In their opinion, trucks from Mexico are 
safer now than they were in late 1995. For example, the inspectors told 
us that they often find fewer violations per truck, and some previous 
violations (such as instances of drivers sitting on milk crates rather 
than secured seats) are now seldom seen. They credit the increased 
inspections at the border (discussed later in this report) with 
heightening Mexican carriers' awareness of and willingness to comply 
with U.S. truck safety requirements. They commented that the 
inspections have helped bring about improvements with tires, brakes, 
and other equipment. Also, many Mexican drivers we spoke to were eager 
to learn about U.S. safety regulations so they could strive to meet 
them.
    Many U.S. and Mexican trucking industry and association officials 
we contacted said that the relatively high out-of-service rates for 
trucks from Mexico do not mean that Mexican truck operators will drive 
unsafe trucks into the United States once access to the remaining 
portions of the border states and to the United States as a whole is 
granted. They told us that most trucks currently operating and being 
inspected at border crossings are used exclusively for short-haul 
operations and tend to be older trucks that are more likely to have 
equipment problems leading to out-of-service violations. They believe 
that Mexican truck operators choosing to operate farther into the 
United States will use higher-quality trucks because doing so is in 
their interest. For instance, Mexican trucking companies would not want 
their trucks to break down or to be taken out of service far from their 
bases of operations, where repairs would be more difficult and costly, 
the officials explained. While this reasoning seems plausible, we were 
unable to obtain information that would confirm or refute it. \6\
---------------------------------------------------------------------------
    \6\ As of February 1997, 170 Mexican carriers had applied to DOT 
for the authority to operate with full access to the four border states 
once such access is granted under NAFTA. The application requirements, 
which mirror those for U.S. firms seeking domestic operating authority, 
contain no information on the characteristics of the firms' truck 
fleets.
---------------------------------------------------------------------------
 federal and state governments have increased enforcement activity in 
                         the four border states
    Most trucks from Mexico enter the United States at 7 of the 23 
crossing points for commercial trucks. To provide some assurance that 
the 12,000 trucks crossing from Mexico into the United States each day 
will be safe and operated safely, the three border states in our review 
and DOT have increased enforcement markedly at the major border 
locations.
        most trucks from mexico cross at seven border locations
    Although there are 23 locations where northbound trucks from Mexico 
may enter the United States, about 90 percent of the trucks enter at 7 
major crossings--in California (Otay Mesa and Calexico), Arizona 
(Nogales), and Texas (El Paso, Laredo, McAllen, and Brownsville) (See 
fig. 4.)
    Figure 4: Locations of Border Crossings and Permanent Truck 
Inspection Facilities (See figure in printed edition.)
    Trucks from Mexico enter the United States through the U.S. Customs 
Service's ports of entry. Trucks passing through Customs then enter 
truck inspection facilities where such inspection facilities exist. At 
locations where separate permanent facilities do not exist, Customs has 
generally allowed state and Federal truck inspectors to carry out their 
safety inspections on the agency's property.
    Permanent facilities allow more rigorous truck inspections to take 
place, provide scales and measuring devices to screen all trucks for 
the violations of being overweight or oversize, provide cover to keep 
inspectors out of the extreme heat prevalent at the border, and signal 
to the trucking community a permanent commitment to enforcing truck 
safety standards.
    In the past year, California opened two permanent truck inspection 
facilities at its major border crossings, where it aims to inspect and 
certify the trucks entering the state from Mexico once every 3 months. 
Texas, with about two-thirds of the truck traffic from Mexico, and 
Arizona, with about 10 percent of the traffic, have no permanent truck 
inspection facilities at any of their border locations. Discussions 
within Texas and Arizona are under way regarding constructing at least 
one permanent facility in each state.
the number of state and federal inspectors has increased, and most are 
                   working at major border crossings
    As of January 1997, the three border states in our review had 93 
truck inspectors stationed at border crossing locations (see table 1). 
In addition, DOT approved new temporary positions for 13 truck safety 
inspectors and, as of January 1997, had 11 of them working at the 
border. (The 13 positions are for a 2-year term only.) These Federal 
truck inspectors took over for six DOT safety specialists who had been 
temporarily reassigned to inspect trucks from Mexico at border 
locations from December 1995 through August 1996. Customarily, DOT does 
not routinely conduct roadside inspections at fixed locations.

         Table 1: Northbound Truck Traffic and Inspectors at the Seven Busiest Border Crossing Locations
                                                Fiscal Year 1996
----------------------------------------------------------------------------------------------------------------
                                  Number of Truck Crossings                Number of Inspectors assigned (as of
                                ----------------------------- Percentage               January 1997
       Border location\1\                                      of local  ---------------------------------------
                                   Fiscal year     Weekday     crossings                       Total (Percentage
                                      1996        average\2\                State    Federal       of total)
----------------------------------------------------------------------------------------------------------------
Otay Mesa, Calif...............         520,908        1,992         17          28        1  29 (28 percent)
Calexico, Calif................         169,403          648          5          19        1  20 (19 percent)
Nogales, Ariz..................         225,274          862          7           7        2  9 (9 percent)
El Paso, Tex...................         577,152        2,208         19           9        2  11 (11 percent)
Laredo, Tex....................         899,754        3,441         29           8        2  10 (10 percent)
McAllen, Tex...................         198,260          759          6           5        0  5 (5 percent)
Brownsville, Tex...............         224,537          858          7           7        2  9 (9 percent)
                                --------------------------------------------------------------------------------
    SUBTOTAL...................       2,815,288       10,768         90          83       10  93 (89 percent)
All others.....................         297,803        1,138         10          10        1  11 (11 percent)
                                ================================================================================
    Total......................       3,113,091       11,906        100          93       11  104 (100
                                                                                               percent)\3\
----------------------------------------------------------------------------------------------------------------
\1\ Three border locations have more than one crossing point: Brownsville has three, and Laredo and El Paso have
  two each.
\2\ Most locations have limited weekend crossings, when many Mexican carriers choose not to operate and some
  U.S. Customs facilities have limited hours.
\3\The percentages do not add to 100 because of rounding.
Source: Data from Customs, DOT, and California's, Arizona's, and Texas' enforcement agencies.

    Most state truck inspectors (83 of 93) have been stationed 
at the major border crossing locations. A year earlier, the 
three border states in our review had 39 inspectors assigned to 
the major border crossing locations (see table 2).

 Table 2: State Inspectors at Major Border Crossing Locations, December
                          1995 and January 1997
------------------------------------------------------------------------
                                                  Number of Inspectors
                                                        Assigned
                 Border State                  -------------------------
                                                  December     January
                                                    1995         1997
------------------------------------------------------------------------
California....................................           24           47
Arizona.......................................            1            7
Texas.........................................           14           29
                                               -------------------------
    Total.....................................           39           83
------------------------------------------------------------------------
Source: State enforcement agencies.

    In addition, DOT has assigned its inspectors to each state 
and then, with one exception, assigned them to the busiest 
locations within each state. There are relatively few Federal 
inspectors, and their appointments are temporary, since, under 
MCSAP, states have the primary responsibility for developing 
enforcement strategies.

                  CALIFORNIA FACILITIES AND INSPECTORS

    California, with about 24 percent of truck traffic from 
Mexico, has the most rigorous border state truck inspection 
program and has been inspecting trucks from Mexico in its 
commercial zones for several years. In 1996, California opened 
permanent truck inspection facilities at its two major border 
locations--Otay Mesa and Calexico (see fig. 5). California 
constructed these facilities, which cost about $15 million 
each, with Federal and state highway funds that had been 
earmarked by the state for roadway projects because it 
considered these facilities to be of a higher priority. 
California's decision was made easier because land was 
available for purchase adjacent to Customs' ports of entry.
    Figure 5: State Truck Inspection Facilities at Otay Mesa 
and Calexico, California (See figure in printed edition.)
    These facilities have been allocated a total of 47 full-
time inspectors: Twenty-three are California Highway Patrol 
officers, and 24 are civilian truck inspectors. The use of 
civilian inspectors, for whom the pay and training costs are 
less, has helped boost California's overall number of 
inspectors. The state inspectors are assisted by two Federal 
inspectors.
    The state officials in charge of operations at these 
facilities told us that one of their objectives is to inspect 
and certify every truck from Mexico at least once every 90 
days. Additionally, all trucks from Mexico are weighed and 
checked for proper size before traveling on U.S. roads. 
Currently, California has enough inspectors at its ports of 
entry that many of them spend their time on roads in border 
zones checking the safety of U.S. trucks operating in the area.

                    TEXAS FACILITIES AND INSPECTORS

    With about 66 percent of all truck traffic from Mexico 
(more than 2 million truck crossings in fiscal year 1996) and 
four of the seven major border crossing locations, Texas 
continues to face the greatest enforcement burden. (Figure 6 
shows aspects of the four Texas locations.) Texas' situation 
has been more complicated because three of its major locations 
have had two or three bridges each, where trucks cross the Rio 
Grande into the United States. However, in mid 1996 Customs 
consolidated the truck traffic in McAllen, Texas, by closing 
one of the two bridges to northbound trucks. Such consolidation 
might be possible for other major locations in Texas. As of 
January 1997, Texas had no permanent truck inspection 
facilities at any of its 11 border locations. In Laredo, for 
example, inspectors work in an uncovered parking area in 
extreme heat and humidity for much of the year.
    State and Federal officials have announced plans to 
retrofit some existing buildings to establish a truck 
inspection facility at Texas' fourth busiest truck crossing 
location just outside of McAllen, although Federal and state 
officials have not set a completion date for this project. 
According to state transportation officials, state truck 
enforcement officials, and transportation authorities in 
academia, four primary reasons have kept Texas from building 
truck inspection facilities at border locations:
    <bullet>  Key state agencies see NAFTA as a national issue 
and are reluctant to use state funds to enforce its provisions;
    <bullet>  most of the major border crossings are in urban 
areas (Laredo, El Paso, and Brownsville), where little space is 
available to accommodate truck inspection facilities that would 
be adjacent to border entry points;
    <bullet>  the state agency responsible for inspecting 
trucks, the Department of Public Safety, has traditionally 
worked (and prefers to work) in a roving fashion, conducting 
roadside truck inspections rather than working out of one 
location; and
    <bullet>  many Texas border cities have developed close 
economic and social relationships with their Mexican sister 
cities directly across the border and resist increased 
inspections if they perceive that a major crackdown on trucks 
could undermine such relationships.
    Figure 6: Truck Inspection at Major Border Crossing 
Locations in Texas (See figure in printed edition.)
    As of December 1995, Texas had 22 officers and troopers 
(inspectors) covering its 11 border locations, but about 2 
years later, as of January 1997, Texas had increased this 
staffing by nearly 70 percent to 37. Traditionally, these 
inspectors spent only about 25 percent of their time actually 
inspecting trucks, but, according to state officials, in 1996 
that percentage grew substantially. Eight of the 13 Federal 
truck inspector positions have been allocated to Texas' major 
border locations. Also, state truck inspectors in Texas have 
trained small cadres of local police officers in Brownsville, 
Laredo, and El Paso to check trucks and drivers periodically 
for safety. For example, according to an El Paso official, 29 
city police officers were trained to perform truck inspections 
in November 1995, and, as of December 1996, those officers were 
performing inspections on U.S. and Mexican trucks 1 day out of 
every 2 weeks, on average.

                   ARIZONA FACILITIES AND INSPECTORS

    Arizona receives about 10 percent of the total truck 
traffic from Mexico--about 314,000 crossings in fiscal year 
1996. Of the state's six ports of entry, Nogales received the 
majority (about 72 percent) of these trucks. As of January 
1997, Arizona had no permanent truck inspection facilities, but 
state officials were discussing whether to build one near the 
Nogales port of entry (see fig. 7).
    Figure 7: Truck Inspection Area Inside U.S. Customs Lot at 
Nogales, Arizona (See figure in printed edition.)
    As of September 1996, two state inspectors were permanently 
stationed at the border--one in Nogales and one in San Luis. 
Recently passed state legislation, however, increased this 
number to nine in November 1996--seven near Nogales and two in 
San Luis. However, according to a state enforcement official, 
in early 1997 Customs withdrew its permission for state 
enforcement personnel to conduct their enforcement activities 
on the Nogales Customs lot. He told us that state inspectors no 
longer conduct inspections in the Customs lot and are now 
performing their enforcement activities away from the border.
    In addition, as of September 1996, there were two Federal 
truck inspectors assigned to Nogales and one assigned to San 
Luis. A DOT official told us that the Federal inspectors are 
still working out of the Nogales Customs lot and that DOT is 
trying to reach a formal agreement with Customs to allow both 
Federal and state truck safety inspections at this location.

DOT HAS DEVELOPED A STRATEGY TO IMPROVE MEXICAN TRUCKS' COMPLIANCE WITH 
                        U.S. SAFETY REGULATIONS

    DOT has developed a strategy to help implement NAFTA. This 
strategy entails measures to be taken in the border states and 
within Mexico to improve compliance with U.S. truck safety 
regulations, such as providing funding for state enforcement 
activities and educational campaigns on U.S. safety regulations 
directed at Mexican drivers and trucking companies. 
Opportunities exist for increasing the strategy's 
effectiveness. These opportunities would involve (1) helping 
the border states establish results-oriented enforcement 
strategies for trucks entering the United States from Mexico 
and (2) working with other Federal and state agencies so that 
the seven major border locations have at least minimum truck 
safety inspection facilities. These actions, if undertaken, 
would also help DOT better understand the degree to which U.S. 
safety regulations are being complied with as a prelude to 
opening all of the United States to commercial trucks from 
Mexico.

     DOT'S GOALS AND STRATEGIES TO PROMOTE SAFE TRUCKS FROM MEXICO

    According to DOT officials, the Department's goals are to 
foster a ``compliance mind set'' among Mexican truck operators 
and to see a continuous improvement in adhering to U.S. truck 
safety standards. To meet these goals, DOT has a three-pronged 
strategy that consists of (1) cooperative Federal and state 
enforcement of U.S. safety and operating standards, (2) the 
dissemination of information to ensure that Mexican truck 
operators have what they need to know to operate in the United 
States, and (3) the development of compatible safety and 
operating standards in all three NAFTA countries. Several of 
the specific initiatives under this strategy are:

    <bullet>  developing a ``safety assessment process'' that 
the Mexican government can use to determine the extent to which 
Mexican operators (1) understand their obligations and the 
processes the United States uses in truck safety enforcement 
and (2) comply with U.S. requirements;
    <bullet>  providing more than $1 million \7\ annually since 
fiscal year 1995 in grants to the four border states to prepare 
for enforcement activities related to NAFTA, such as increasing 
the number of state inspectors stationed at the border;
---------------------------------------------------------------------------
    \7\ These funds are in addition to the basic MCSAP grants for 
statewide enforcement activities.
---------------------------------------------------------------------------
    <bullet>  conducting educational campaigns on U.S. safety 
standards, including training seminars and leaflets, for 
Mexican drivers and truck companies;
    <bullet>  approving 13 DOT truck inspector positions for 2 
years to demonstrate a Federal commitment to truck safety;
    <bullet>  working with CVSA and state truck enforcement 
agencies to train inspectors in Mexico in an attempt to 
increase truck safety overall in that country;
    <bullet>  contracting with the International Association of 
Chiefs of Police to conduct a series of truck safety forums in 
the U.S. border states to allow U.S. and Mexican enforcement 
officials to discuss strategies and other truck safety issues 
of mutual concern; and
    <bullet>  participating with the Land Transportation 
Standards Subcommittee, established under NAFTA, to develop 
compatible safety and operating standards in all three NAFTA 
countries.
    These initiatives have had mixed results. For example, 
MCSAP funding for activities related to NAFTA has resulted in a 
greater inspection presence at the border; however, the 
inspector training initiative was less successful. In this 
regard, DOT officials believe that one of the keys to ensuring 
that trucks from Mexico are safe is to have Mexico improve its 
truck inspection program so that more trucks are inspected 
there before traveling into the United States. However, U.S. 
efforts to fortify Mexico's inspection program encountered 
problems. Beginning in 1991, DOT provided about $278,000 to 
train Mexican truck inspectors. From 1993 to 1995, about 285 
Mexican inspectors received the necessary 2-week certification 
course. However, the lead U.S. trainer characterized these 
efforts as unsuccessful, since, as of late 1996, only about 50 
of these inspectors were still employed by the Mexican truck 
inspection agency, and no regular truck inspection activity 
ever took place in Mexico as a result of this training.
    DOT is now prepared to provide additional funding (about 
$96,000 left from the first training effort and more, if 
needed) for further truck inspector training in Mexico. To 
overcome one of the flaws of the first effort, which trained 
civilians who had limited authority to stop trucks along the 
roadside and issue citations, future training will be for 
Mexico's Federal Highway Patrol officers, who will have the 
requisite authority (although truck inspections will not be 
their sole duty similar to state truck inspectors in the United 
States). According to DOT officials, Mexico's Federal Highway 
Patrol is the most stable enforcement agency in Mexico and 
therefore should not be affected by any economic or political 
changes in Mexico.
    DOT, again working with CVSA, had targeted the fall of 1996 
to begin the new training. This target was not met and DOT now 
expects the new training to begin in early 1997. DOT officials 
are negotiating with Mexican officials to be sure that Mexico 
provides assurances that the newly trained inspectors will be 
used to conduct inspections along the border. Because of the 
delays in the Federal effort and in order to develop working 
relationships with their Mexican counterparts, both Arizona and 
Texas state officials have begun negotiating with Mexico's 
Federal Highway Patrol officials in adjacent Mexican border 
states to begin their own training efforts in those states.
    DOT officials told us that the intent of the training is 
that Mexican inspectors will inspect northbound trucks, that 
is, those trucks entering the United States, and that the first 
vehicles to be inspected will be those of carriers that have 
applied for the authority to operate in the four U.S. border 
states. They added, however, that trucks belonging to these 
carriers will be inspected regardless of the trucks' 
destinations--either to the United States or within Mexico.
    Even if Mexico establishes a truck inspection program, 
DOT's expectation of having Mexican officials inspect 
northbound trucks before they arrive in the United States may 
not be fully realized. A high-level Mexican government official 
told us that the country's emphasis in inspecting trucks will 
be on ones coming into Mexico rather than on northbound trucks 
leaving Mexico.

    OPPORTUNITIES TO WORK WITH STATES TO DEVELOP PERFORMANCE-BASED 
                         ENFORCEMENT STRATEGIES

    Opportunities exist for DOT to work in partnership with the 
border states to develop performance-based, results-oriented 
enforcement strategies to, among other things, measure the 
progress being made by Mexican trucks in meeting U.S. safety 
regulations. These strategies, which would identify clearly 
what the states intend to accomplish, could be developed in 
cooperation with each border state considering the local 
conditions and resources available.
    Currently, under MCSAP, DOT sets broad national goals but 
allows states to define local problems, the approach to take in 
addressing them, and the resources to be employed. Our review 
of current MCSAP grant agreements with the border states (for 
both basic grants to carry out statewide enforcement plans and 
enforcement activities related to NAFTA) showed that while the 
states planned to use funds, in part, to increase their 
enforcement presence at the border, none of the grants 
specified the development of performance measures with goals 
for the results to be expected from truck safety inspections. 
As a result, as described earlier, DOT and others generally 
must rely on anecdotal and qualitative information.
    DOT has recognized the need to move toward performance-
based goals for motor carrier safety. In February 1997 DOT 
announced that its program that provides grants for statewide 
safety enforcement activities will incorporate performance-
based goals to increase truck and driver safety. Although funds 
for basic MCSAP grants will be distributed by formula, DOT 
plans to explore approaches to provide some form of incentive 
funding to states that meet national and state objectives for 
safety. DOT plans to implement this change in fiscal year 1998. 
Also, in March 1997, DOT submitted a legislative proposal, as 
part of the reauthorization of the Intermodal Surface 
Transportation Efficiency Act, that would incorporate this 
performance-based, results-oriented approach.
    California's activities already include a results-oriented 
aspect: As described, the state has the goal of inspecting 
every truck from Mexico once during each 90-day period, though 
this is not specified by the state's MCSAP grant. The strategy 
relies on providing CVSA inspection stickers for trucks passing 
level-1 inspections or correcting safety violations. A current 
inspection sticker means that a truck will not be subject to 
state or Federal inspection, except in the case of an obvious 
equipment problem, for a 3-month period. On our recent trip to 
California's truck inspection facilities at Otay Mesa and 
Calexico, we saw truck after truck crossing the scales of the 
inspection station with color-coded CVSA inspection stickers. 
Almost all the truck traffic we observed was repeat traffic, 
according to California inspection officials. It was easy to 
identify which trucks had been determined to be safe (those 
with current CVSA stickers), which trucks were due to be 
reinspected (those with outdated stickers), and which trucks 
had yet to be inspected (those without stickers).
    The majority of the truck traffic from Mexico at the five 
major border locations in Arizona and Texas is also of a repeat 
nature, according to state enforcement officials. In each of 
these states, enforcement officials told us that the state has 
the goal of signaling to Mexican carriers that it is serious in 
enforcing truck safety standards. Each state's basic strategy 
to accomplish this goal is to increase the presence of state 
inspectors at major border locations to convince Mexican 
carriers to upgrade the safety of their trucks. However, 
Arizona and Texas have not established quantitative goals to 
help them measure the extent to which Mexican carriers are 
complying with U.S. safety regulations. In addition, since they 
conduct primarily level-2 truck inspections on the border, 
which cannot result in CVSA stickers, they have no way of 
identifying the trucks that have complied. As a result, the 
officials sometimes end up reinspecting recently inspected 
vehicles.

  OPPORTUNITIES FOR DOT TO ENCOURAGE CONSTRUCTION OF TRUCK INSPECTION 
                               FACILITIES

    A 1995 study conducted by the International Association of 
Chiefs of Police for DOT concluded that the lack of truck 
inspection facilities at the U.S.-Mexican border gives no 
assurance to interior states that trucks from Mexico will be 
screened for safety upon entering the United States. 
Furthermore, according to DOT, it does not have any 
discretionary funds available to the border states to build 
weight or inspection facilities. However, the states can use 
Federal-aid highway funds apportioned to them for this purpose 
if they choose to do so. \8\
---------------------------------------------------------------------------
    \8\ The Federal-aid highway program is designed to aid in the 
development of an intermodal transportation system. The decision to use 
Federal-aid highway funds to build a truck inspection facility at the 
border depends on the priority the project is given, considering other 
needs in a state.
---------------------------------------------------------------------------
    Historically, DOT has not taken an active role in planning 
with Federal and state agencies to build or rehabilitate 
facilities whose functions might include truck safety 
enforcement. However, DOT has had opportunities to work with 
the General Services Administration (GSA) \9\ and the states to 
ensure that border facilities meet current and future needs for 
truck safety inspections. GSA has a process allowing all 
Federal agencies that have a need to operate along the border 
to provide input during the preparations for new border 
stations. While DOT does not control this process, as an agency 
with a stake in safety enforcement at border crossing 
locations, it can choose to be an active participant.
---------------------------------------------------------------------------
    \9\ GSA provides planning, engineering, and other expertise when a 
Federal agency qualifies to build or rehabilitate a Federal facility.
---------------------------------------------------------------------------
    DOT has missed opportunities to ensure that the upgrading 
of U.S. Customs installations included space and facilities 
adjacent to or on Customs' property for state and Federal 
inspectors to perform truck safety inspections. For example, in 
1995, DOT had the opportunity but did not participate in the 
coordinated Federal effort to design a new Customs border 
crossing installation near McAllen, Texas. By not 
participating, DOT lost the opportunity to secure a truck 
inspection facility in the new installation. However, in late 
1996, Federal DOT officials in Texas did get involved in the 
planning phase for a proposed inspection facility, which 
envisioned renovating some unused Customs buildings at McAllen. 
Similarly, according to a GSA official, DOT indicated interest 
in having a portion of a new border crossing at Brownsville 
contain a protective canopy, scales, an area for vehicles 
transporting hazardous materials, and parking space for out-of-
service vehicles (at a cost that GSA estimated at about $1 
million). However, as of January 1997, when GSA was finalizing 
the design, DOT had not resumed discussions with the agency to 
provide input or commit funds for the project.
    As discussed earlier in this report, Arizona and Texas have 
not constructed truck inspection facilities. One reason given 
is money. Many state officials we spoke to believe that such 
facilities would cost as much as those in California and that 
the Federal Government should pay for them since NAFTA 
represents national interests. However, to achieve a marked 
improvement over the current conditions in Arizona and Texas, 
truck inspection facilities would not have to be on a scale 
with the $15 million facilities in California. Even facilities 
with minimal elements such as a scale, a canopy, an inspection 
pit, and a small office, would represent vast improvements over 
the current situations in Arizona and Texas, which involve 
working outdoors in difficult climatic conditions. According to 
GSA and California Department of Transportation officials, such 
a truck inspection facility could be built for between $1 
million and $2 million, excluding land costs.
    In addition to securing funds, another significant 
challenge is the need for large spaces for truck inspection 
facilities. As pointed out by DOT's September 1995 Best 
Practices Manual for Truck Inspection Facilities, a critical 
element is parking, where vehicles failing to comply with U.S. 
regulations can be detained and repaired. Three of Texas' major 
border locations are in urban areas that lack space to park 
more than a few large trucks. While the Customs Service has 
generally allowed state and Federal agencies to inspect trucks 
within its property, this may not always be the case, as the 
recent experience in Nogales shows. Since the available space 
at Customs facilities is limited, it is paramount in the long 
term that DOT be more involved in planning new additions to or 
replacements of major border installations.
    The March 1997 legislative proposal contains provisions for 
planning improvements within the trade corridor and at border 
crossings and establishing the Border Gateway Pilot Program. 
The proposal would authorize (1) planning funds for multistate 
and binational transportation and (2) funds for improvements to 
border crossings and approaches along the Mexican and Canadian 
borders. Under the proposal, funds provided for ``border 
gateway'' projects, such as constructing new inspection 
facilities, may be used as the nonFederal matching funds for 
other Federal-aid highway funds, as long as the amount of the 
``border gateway'' funds does not exceed 50 percent of a 
project's total cost. A DOT official also told us that funds to 
help address these needs will be included in DOT's fiscal year 
1998 budget request. As of mid-March 1997, the full budget 
request had not been submitted to the Congress.

                              CONCLUSIONS

    DOT and the three border states in our review have acted to 
increase inspection activities at the border and in other ways 
to foster increased compliance with U.S. safety regulations by 
Mexican trucks. While Mexican trucks entering the United States 
continue to exhibit high out-of-service rates for serious 
safety violations, Federal and state officials believe that 
their efforts have had a positive effect and that Mexican 
trucks are now safer than they were in 1995. However, there is 
no hard evidence on which to test this belief; much of the 
officials' information is anecdotal. Compliance cannot be 
assessed at the border because results-oriented quantitative 
measures are not in place.
    We believe that DOT can improve commercial truck safety 
enforcement at the border by encouraging border states to set 
specific, measurable results-oriented enforcement strategies 
for truck inspections at border crossings and by assisting them 
in doing so. We recognize each state has unique circumstances 
and that implementing results-oriented strategies would require 
that more level-1 inspections be conducted. DOT's move to 
performance-based, results-oriented MCSAP grants for statewide 
safety enforcement activities is a large step in the right 
direction. However, unless discrete performance-based, results-
oriented measures are developed specifically for Mexican trucks 
entering the United States, DOT will still possess only 
anecdotal information on the extent to which trucks from Mexico 
meet U.S. safety regulations. As widespread concerns exist over 
whether trucks from Mexico comply with U.S. safety regulations, 
we believe that border-specific performance measures are 
needed.
    We also believe that DOT needs to be more proactive in 
securing inspection facilities at planned or existing border 
installations. We recognize there are various reasons why 
facilities do not exist at some border locations and that in 
some instances a lack of funding or space or other reasons may 
preclude adding these inspection facilities. But DOT's 
leadership in promoting and securing more permanent inspection 
facilities is needed to achieve more effective truck safety 
inspections at the border. DOT has submitted a legislative 
proposal, and DOT officials have indicated that a budget 
proposal will be submitted that will, in part, allow states to 
address concerns about the border infrastructure and safety. 
However, the prospects for enactment are unknown. In the 
meantime, DOT needs to be more active in the planning process 
for border installations to ensure that truck safety inspection 
facilities are included, where practicable.

                            RECOMMENDATIONS

    First, to measure progress by Mexican commercial truck 
carriers in meeting U.S. safety regulations, we recommend that 
the Secretary encourage the border states to develop and 
implement measurable results-oriented goals for the inspection 
of commercial trucks entering the United States from Mexico and 
assist them in doing so. We also recommend that the Secretary 
work actively with GSA, as part of GSA's existing planning 
process, to ensure that truck safety inspection facilities are 
included, where practicable, when border installations are 
planned, constructed, or refurbished.

                   AGENCY COMMENTS AND OUR EVALUATION

    We provided DOT with a draft of this report for its review 
and comment. To receive comments on the draft report, we met 
with a number of officials, including a senior analyst in the 
Office of the Secretary and the special assistant to the 
associate administrator in DOT's Office of Motor Carriers. They 
said that, overall, they were pleased with the report's 
contents and that the report accurately characterized DOT's 
activities and other activities at the border. They offered a 
number of technical and clarifying comments on the draft 
report, which we incorporated where appropriate. The officials 
did not comment on the draft report's recommendations.

                         SCOPE AND METHODOLOGY

    To achieve our three objectives, we reviewed inspection 
reports and truck traffic data and visited 13 border crossings, 
where about 92 percent of the trucks from Mexico enter the 
United States. At these locations, we observed trucking 
facilities and Federal and state truck inspection activity. We 
discussed our work with and received documents from DOT 
officials; state truck enforcement officials in Arizona, 
California, New Mexico, and Texas; Customs Service officials; 
GSA officials; and representatives of private and university 
groups. We also met with or had telephone discussions with 
several local development groups, including Mexican trucking 
officials. We also talked with drivers of Mexican trucks. 
Finally, we participated in conferences held by CVSA, the 
American Trucking Associations, and the International 
Association of Chiefs of Police, where we discussed truck 
safety enforcement with high-level Mexican and Canadian 
officials.
    In certain instances, we compared truck safety inspection 
data from fiscal year 1995 with data from calendar year 1996, 
relying (for both data sets) on the most recent information DOT 
could provide. While we recognize that comparing same-year data 
would present a clearer picture, the lack of such data 
precluded us from doing so. Finally, this report deals 
primarily with truck safety enforcement at border locations and 
does not assess the progress on other issues surrounding NAFTA, 
such as efforts to develop compatible truck safety rules 
between signatory countries.
    We performed our work from March 1996 to February 1997 in 
accordance with generally accepted government auditing 
standards.
    This report is being sent to you because of your 
legislative responsibilities for commercial trucking. We are 
also sending copies of this report to the Secretaries of 
Transportation and the Treasury; the Administrator, FHWA; the 
Administrator, General Services Administration; the Director, 
Office of Management and Budget; and the Commissioner, U.S. 
Customs Service. We will make copies available to others on 
request.
    If you or your staff have any questions about this report, 
please contact me at (202) 512-3650. Major contributors to this 
report were Marion Chastain, Paul Lacey, Daniel Ranta, James 
Ratzenberger, and Deena Richart.
 Phyllis F. Scheinberg, Associate Director, Transportation 
                                                    Issues.


REAUTHORIZATION OF THE INTERMODAL SURFACE TRANSPORTATION EFFICIENCY ACT

                              ----------                              


                          FRIDAY, JUNE 6, 1997

                                       U.S. Senate,
               Committee on Environment and Public Works,  
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.

                     WOODROW WILSON MEMORIAL BRIDGE

    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Senate Dirksen Building, Hon. John Warner (chairman 
of the subcommittee) presiding.
    Present: Senator Warner.
    Also present: Senators Sarbanes, Mikulski, and Robb, and 
Representatives Davis, Wolf, Hoyer, Moran, and Wynn.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. The subcommittee hearing will come to 
order.
    I will be joined periodically today by other Members of 
Congress. I have extended an invitation to all colleagues in 
the Senate who have an interest in this and also colleagues in 
the House. This is not a political issue; this is a very 
serious issue in which we must bring to bear the best wisdom 
and judgment that we have here in the Congress to work with the 
Administration and the States and the District of Columbia to 
resolve this very, very complex problem.
    Many people thought we had heard enough testimony. Well, 
that may be correct. But it was my judgment, as a consequence 
of extensive travels throughout my State and talking to my 
colleagues, that perhaps we should put out one further call 
that this is an opportunity we're not likely to have again here 
in the Congress to properly address it. Therefore, I have tried 
to invite everyone that could possibly bring to bear some 
factual and professional and some philosophical facts that 
would be helpful to the Congress in fulfilling its role.
    First, let me talk a little bit about the role of the 
Congress. We, the Congress, are not in a position to design 
this bridge. Let me make that imminently clear. We're not 
bridge designers. Now, I happen to have gone through a basic 
engineering course--I don't want to say how many years ago, but 
it's darn near half a century--and, indeed, I did have some 
work on bridge construction. But I'm not bringing to bear that 
fragmented, rusty knowledge.
    Therefore, what is the role of the Congress? No. 1, to 
assess the need in sense of timing that this bridge has to be 
replaced. Second, to determine what is the level of funding 
that we can as a body, Senate and House, reach an agreement on. 
And that level of funding cannot just simply be drawn out of 
the air. It has to be related directly to the other priorities 
before the Congress today in terms of our surface 
transportation needs and, most particularly, bridge 
construction needs. The other 48 States have situations which 
in some respects parallel the seriousness of the deterioration 
faced by the Woodrow Wilson Bridge. We as colleagues must take 
into account the needs of the other States.
    Several incidents here in the Congress clearly indicated to 
me that we had to have a session like this so that my 
colleagues could express to you their views--and I'm pleased to 
see the senior Senator from Maryland joining because he's been 
a very active participant in every step of the congressional 
role in this bridge issue. I said just before you came in, 
Senator, that we're not in the business of designing a bridge, 
but we are in the business and have the responsibility of 
deciding priorities and funding levels.
    I'll come right to the point of the funding level. In the 
House, Congressman Shuster made a bold endeavor in the course 
of the budget process to get additional funds. It failed by a 
vote or two. I made a similar effort in the Senate with Senator 
Baucus, the distinguished ranking member of this committee and 
ranking member of my subcommittee, to likewise gain some 
additional funding. That failed by a vote. Those were funds, 
while we had no intention of earmarking them to any specific 
project, it was a recognition by me and 49 other United States 
Senators that we needed more dollars in the general allocation 
going to highways and bridges. But we did not succeed.
    Therefore, I undertook to write a letter to all parties, 
most particularly the Secretary of Transportation and the 
Governors of Maryland and Virginia together with the Mayor of 
the District of Columbia, and essentially said the following. 
While I am strongly committed to every effort in the Congress 
to get adequate funding to replace this bridge, it was my 
judgment that the level of funding that was attached to the 
initial cost projections given by the Department of 
Transportation was a level that would not likely get through 
the Congress. I asked that they go back, and as we use the word 
here in the Congress, scrub these figures to determine if there 
were lesser amounts that could do the essential job at hand; 
namely, repair this bridge and provide such other essential 
modernization to the ingress or egress to this bridge from both 
Maryland and Virginia necessary to utilize fully the potential 
of a modern bridge.
    That letter produced remarkable results, if I may say. The 
Secretary of Transportation, through the very able assistant 
Jane Garvey, who will be a witness today, came back within the 
last 48 hours and provided me and this committee with revised 
figures which I'm going to share with you this morning.
    For the bridge itself, starting at the respective 
shorelines, the construction figure of $585 million. For the 
interchange on the Virginia side, for those improvements that 
are necessary to provide for traffic going to and from the 
opposite shore, not necessarily for traffic that's coming 
through this intersection and going elsewhere, $101 million. 
For this particular interchange which is integral to the 
transportation system, $199 million. On the Maryland side for 
comparable improvements to this interchange, again to 
facilitate traffic utilizing the bridge, $144 million. And for 
this interchange $161 million. Reaching a total project cost of 
$830 million. So I decided I would bring it out, put it on the 
table this morning, share it with my colleagues, and entertain 
from the several witnesses that will come before us today their 
views.
    So at this time, I would like to invite my colleagues to 
make such opening statements as they desire. We will start with 
our senior Senator from Maryland, Mr. Sarbanes.

               STATEMENT OF HON. PAUL SARBANES, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman. Let me 
just ask one question of clarification here. Of the $830 
million figure, it doesn't include this figure out here and 
that figure out there; is that correct?
    Senator Warner. That's correct.
    Senator Sarbanes. So the total cost if those figures were 
included would be $1.2 billion then?
    Senator Warner. Ann, why don't you speak up since you have 
the figures.
    Ms. Loomis. What's not included on here are estimated 
right-of-way costs. The total cost of the entire corridor with 
the bridge improvements in 1997 dollars is $1.587 billion.
    Senator Sarbanes. So we're looking at $1.6 billion. OK.
    Mr. Chairman, I want to thank you for scheduling this 
hearing on the Woodrow Wilson Bridge and also for your 
continued leadership in this effort to provide a replacement 
for the bridge.
    Everyone who commutes to work in the Washington 
metropolitan area or who travels on Interstate 95 knows what a 
serious traffic and safety problem we have with respect to the 
Woodrow Wilson Bridge. It is actually one of the worst, if not 
the worst, bottlenecks on the entire Interstate System. It 
carries traffic volumes far in excess of its designed capacity, 
well over double its designed capacity at this point, and it is 
rapidly approaching the end of its service life. The 
substandard condition of the bridge and the resulting 
congestion means accidents and significant delays for 
commuters, commerce, truckers, other commercial traffic, 
tourist businesses, and employers alike. The projections are 
that the traffic volumes in the area will double over the next 
20 years.
    Obviously, we've come together again to consider the size 
and cost of the facility, how the new bridge might be paid for. 
There are several points I want to make on this score.
    First, in my view, the project is a Federal responsibility. 
The bridge is owned by the Federal Government; in fact, it is 
the only federally owned bridge on the Interstate System. 
Funding provided for it should be commensurate with this 
ownership responsibility. The Administration's budget 
submission is clearly not up to this standard. I don't believe 
that there should be a major effort to shift this burden onto 
the States who, in any event, are in no position to assume it 
since their moneys for highway expenditures come essentially 
from the Federal allocations and the Federal allocations are 
skimpy nowadays. I joined with the Chairman, as did my 
colleague, in the effort to increase the amount of funding 
available for transportation which fell short in the Senate on 
a 51-49 vote, as I recall.
    Second, I think, as a governing principle, the replacement 
bridge should be built in accordance with the same standards as 
applied to bridges owned by State jurisdictions. That means a 
bridge ought to be able to accommodate projected future traffic 
growth as well as current growth, and that related interchanges 
and approaches to the bridge should match the new bridge. I 
don't want to see the Federal Government in effect applying a 
double standard here where if it were a State doing it they 
would require them to cover a whole range of things in terms of 
access to the bridge, interchanges, and so forth and so on, the 
whole traffic flow that moves toward the bridge, but when the 
Federal Government undertakes to do the bridge they try to 
devolve those responsibilities onto the State level.
    It is very important that we don't have a quick fix that 
will require us to come back and revisit this issue in the near 
future. We need to have a good long-term solution that will 
carry us well into the next century.
    Finally, just to underscore the urgency, obviously, if we 
don't deal with this replacement issue in the near future, 
we're going to confront very serious problems. Restrictions may 
well be placed on the use of the existing bridge. That prospect 
is too horrible to contemplate and it would have enormous 
economic and transportation-related consequences throughout the 
region.
    Mr. Chairman, I'm pleased to be able to come today and join 
you. I appreciate your invitation. This is a timely hearing and 
I look forward to continuing to work closely with you, with my 
colleagues Senator Mikulski and Senator Robb, and with other 
members of this committee and the Senate to enact the necessary 
authorizing legislation for this project.
    Senator Warner. I thank you, Senator. I think all are aware 
of the fact that the congressional delegations in both the 
House and the Senate are a very close knit and, insofar as I 
know, unified unit as we approach our responsibilities.
    Senator Mikulski?

              STATEMENT OF HON. BARBARA MIKULSKI, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Mikulski. Thank you very much, Mr. Chairman, for 
your leadership in calling this hearing, and to make it both 
bicameral as well as bipartisan.
    I'm here for one major reason, which is, how can we rebuild 
the Woodrow Wilson Bridge? And why do we need to do it? We need 
to do it for safety. The underlying, overwhelming, compelling 
issue of modernizing this bridge is safety. We now have 175,000 
vehicles on the bridge that was built for one-third of that 
capacity. What we need now is action by the Federal Government 
for adequate safety, adequate capacity, and then the fight for 
adequate money.
    I believe that we need a billion-plus dollars to be able to 
build this bridge and that the full funding should come from 
the Federal Government. This is a fully owned Federal bridge 
and it is the key link between the North and South on I-95.
    This morning I was at a breakfast get-together at which 
Steny Hoyer, Al Wynn, and Paul Sarbanes were there and we had 
the opportunity to press our case with Secretary Slater 
himself. In pressing the case, what we said is we want a 
billion-plus for the bridge, we want no tolls, and we need 
action in this fiscal year. It is a national compelling need. I 
support what Senator Sarbanes has said about having the 
standards for a 21st century bridge and also one that will have 
the capacity to meet not only 1997 capacity but the year 2000. 
The London Bridge might be falling down, but the Woodrow Wilson 
Bridge shouldn't. So I look forward to working with you.
    Senator Warner. Thank you very much, Senator.
    I will call on our colleagues from the House in order of 
their appearance. Mr. Hoyer?

  STATEMENT OF HON. STENY HOYER, U.S. REPRESENTATIVE FROM THE 
                       STATE OF MARYLAND

    Mr. Hoyer. Mr. Chairman, I thank you for this hearing. 
Those watching it on TV are going to think that the three 
Senators from Maryland and the three Senators from Virginia 
have got this well in hand.
    [Laughter.]
    Senator Warner. The pay is the same on both sides.
    Mr. Hoyer. I suggest without further testimony that we 
vote, Mr. Chairman.
    [Laughter.]
    Mr. Hoyer. I am very pleased to join you, Mr. Chairman, 
along with the members of the Departments of Transportation in 
both of our States, my own County Executive Curry is here, and 
my two colleagues in the House and my two colleagues from 
Maryland in the Senate. Mr. Chairman, we are indeed fortunate 
that you are in such a pivotal leadership position on this 
issue.
    I have had the opportunity of testifying before the House 
Committee on Transportation and Infrastructure to express my 
support and the support of this region for this critically 
important project. There is no question that we must replace 
this vital link that was completed in 1963. Despite patchwork 
repairs, the estimated life span of the bridge is, as I 
understand it, five to 7 years. So we have not a minute to 
waste. It is a major bottleneck for regional commuters and for 
East Coast traffic passing through Washington on Interstate 95. 
My constituents, Mr. Chairman, as I'm sure yours do, tell 
horror stories about the efforts to cross this bridge during 
both rush hours and non-rush hours.
    The Wilson Bridge is the only federally owned bridge on the 
National Highway System, a fact that all of us remind our 
colleagues of on a regular basis. As such, I believe that the 
Federal share of this project--and in our discussions, Mr. 
Chairman, I think there is agreement among all of us--from 
river edge to river edge ought to be 100 percent. This is a 
federally owned bridge. Obviously, the project from the river's 
edge in on both sides should be treated, as is every other 
project treated in America, on a 90-10 basis. We hope that we 
can support your efforts and the efforts of our Senators and 
House Members to accomplish this objective.
    Mr. Chairman, as we have noted, this is not a new start or 
a project that we can put on hold for future years. It is a 
pressing need, not just for the Washington region but for the 
Nation. I urge, and I know your leadership will be important, 
the earliest possible authorization of an appropriate figure to 
accomplish this objective as soon as possible.
    I thank you, Mr. Chairman, for allowing me to participate.
    Senator Warner. Thank you, Mr. Hoyer.
    To our colleagues from the House who have come in to join 
us, in my opening statement I indicated clearly that we want to 
get the maximum Federal contribution. I think Mr. Hoyer stated 
it very clearly--100 percent for the bridge itself, and then a 
formula of the 90-10 for the approaches.
    There will be no toll. We've agreed as a delegation weeks 
ago when we met with the Secretary of Transportation that there 
would be no toll. But I pointed out that in response to a 
letter, copies of which you have, the Department of 
Transportation has come forward in the past few days to advise 
me, and Jane Garvey is here this morning, the Administrator, to 
expand on this, that if you look at the bridge from the 
perspective of the structure itself and the development of the 
approaches needed to facilitate a modern 21st century bridge, 
the cost is $830 million. The breakdown of the bridge and 
approaches are over here on the tags.
    So having said that, we welcome your remarks. I think Mr. 
Davis came in 1 minute before Mr. Moran; is that correct?
    Mr. Davis. About 30 seconds.
    Senator Warner. Right. Why don't you two gorillas decide 
who wants to go first.
    [Laughter.]
    Mr. Moran. I deferred to him going through the door and 
that's why he got in here earlier.
    [Laughter.]

   STATEMENT OF HON. TOM DAVIS, U.S. REPRESENTATIVE FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Mr. Davis. Mr. Chairman, thanks for the opportunity to 
testify about the Woodrow Wilson Memorial Bridge crisis. It is 
a crisis that faces this region. And your leadership on this 
issue is greatly appreciated.
    Despite the Nation's highest rate of carpooling and a 
national ranking of third in the number of commuters that use 
transit, this region has the second longest mean commuting time 
in the country. The dollar cost of congestion in the region 
based on wasted time and fuel is the highest in the country and 
getting worse. I know this hardly comes as a shock to Members 
of Congress that live and travel around the region, but these 
figures dramatize the desperate need for major transportation 
improvements.
    No single element of the regional transportation system is 
more critical than the Woodrow Wilson Bridge which spans the 
Potomac River on Interstate 95. Opening the Woodrow Wilson 
Bridge for river traffic or an accident on the bridge can 
create gridlock throughout the entire region, and normal rush 
hour backups at the bridge last two and one-half to 3 hours in 
both the morning and the evenings.
    Built to carry 75,000 vehicles per day, the bridge now 
carries 152,000 vehicles per day and 17,000 heavy trucks each 
day. The heavy traffic load on the bridge has shortened the 35-
year old bridge's useful lifespan to less than 10 years. If 
action isn't taken to replace this vital bridge, the region and 
every motorist and truck driver transiting the region will be 
adversely affected.
    We could face unacceptable options, such as rerouting truck 
traffic or reducing the number of traffic lanes to extend the 
life of the bridge. The traffic and economic impact on the 
region of reducing the already congested traffic flow on the 
Woodrow Wilson Bridge would be devastating.
    As the Chairman knows and others have stated today, this 
bridge is the only federally owned bridge. I want to repeat 
that. The vital regional bridge was built and is owned by the 
Federal Government. For that reason, the Federal Government has 
an unparalleled obligation to work with the States of Virginia 
and Maryland and the District of Columbia to come up with a 
workable, cost-effective solution that meets the transportation 
needs of the region. The Federal Highway Administration has 
proposed a bridge replacement project that includes a 12-lane 
bridge and addresses problems with intersections that feed the 
bridge.
    I look forward to continuing to work with the Chairman, the 
regional delegation, the Federal Highway Administration to make 
this bridge proposal more affordable. I believe the Federal 
Government must commit the full share for the bridge and at 
least 90 percent of the cost for the areas on the Virginia and 
Maryland side. This would be the normal Federal-State 
obligation under any Interstate Highway project and it should 
certainly be the case here.
    Finally, Mr. Chairman, the problems of the Woodrow Wilson 
Bridge have been identified and validated. The heavy traffic 
has shortened the life of the bridge to roughly 10 years, even 
less. We have to take action now to find a replacement for this 
federally owned bridge or we face a regional transportation 
catastrophe. Thank you.
    Senator Warner. Thank you, Mr. Davis.
    Mr. Moran?

  STATEMENT OF HON. JAMES MORAN, U.S. REPRESENTATIVE FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Mr. Moran. I thank you, Mr. Chairman, and my colleagues and 
friends that join me here. Clearly, this region, as you say, 
has this issue well in hand. For the viewing audience, this is 
a national issue, and we're all national legislators, but I 
trust that our colleagues will defer to us. But I can't defer 
on every issue that seems to have been suggested as consensus.
    It is clear that the existing Wilson Bridge needs to be 
taken down. It needs to be replaced with a wider bridge and 
that bridge needs to be adequate to meet the demand. Currently, 
we have eight lanes on the beltway. To have a six-lane bridge 
is inadequate. It never should have been required to take the 
traffic that it is taking now. The reason is bad planning back 
many years ago when 395 was supposed to go through the District 
of Columbia and was blocked. That's the basic problem. That's 
why we have such demand on the Wilson Bridge. That's why the 
beltway becomes our main street, because all of that traffic is 
diverted from where it was supposed to be going.
    In addition to meeting the current width of the beltway, I 
think there should be extra capacity because we've got a lot of 
automobiles that come off Route 1 and Telegraph Road on the 
Virginia side and 295 and 210 on the Maryland side. And so 
there ought to be extra width. That would bring you up to 10 
lanes, wider than the beltway. Now, if the beltway was to be 
widened beyond where it is now to say a total of 10 lanes, 5 on 
each side, then we should have capacity for 12 lanes on the 
bridge. But to widen the beltway beyond where it is now would 
require $4 to $7 billion more in Federal funding. I can't 
imagine where that money comes from. And I'm not sure that we 
really need to be putting that kind of money into widening the 
beltway, because we would have to change all the exit ramp 
configuration and substantial infrastructure and it would cause 
tremendous delays along the whole length of the beltway.
    Now, in addition to meeting demand, we need to meet the 
affordability criteria. How much can the Federal Government 
afford to spend? It is our responsibility; it's a Federal 
bridge, it ought to be paid for before we hand it over to the 
regional authority. If the Federal Government doesn't pay for 
it in full, and the States are not willing to contribute more 
than 10 percent of the cost of the infrastructure on either 
side, then the only other way to pay for it is through tolls. 
And we have all agreed, there is unanimous consensus here, that 
there should not be tolls. They would exacerbate the situation 
that we're trying to address.
    The reason why I have suggested 10 lanes for the present is 
that it meets the demand. In fact, it meets virtually all of 
the rush hour demand. It meets 98 percent of the morning rush 
hour demand, 92 percent of the evening rush hour demand in the 
year 2020. If we go to a 12-lane configuration, it 
necessitates, primarily for safety purposes, dividing local 
traffic from through traffic, and this is what I want to 
emphasize because I think we can reach some agreement now.
    Some 70 percent of the traffic on the Wilson Bridge gets on 
the beltway in that narrow little area between Telegraph Road 
and 295--70 percent of it--Route 1, Telegraph Road, 295 and 
210. All they're doing is crossing the bridge. It is local 
traffic. If we have 12 lanes, we have to separate local traffic 
from through traffic. That means that instead of having five 
lanes to use, that local traffic only has three lanes to use. 
So we exacerbate the situation. There is going to be a worse 
backup if we divide local from through traffic. That's our 
major problem right now. That's why it seems counterintuitive. 
But to put 10 lanes down now actually provides more access, 
faster access across the bridge than dividing local from 
through traffic, as you have to do if you have 12 lanes.
    I don't mind reserving some capacity for future demand. But 
right now, I think if you stripe it at 10 lanes, you're going 
to actually better address the need than you would if you 
divide it. Of course, when you divide the local traffic from 
through traffic you do far more than just put a median strip 
between the two lanes of traffic. You add an enormous amount of 
infrastructure demand--84 feet of shoulders, ramps, and 
barriers--to the bridge's width. And you also require 
substantial infrastructure on both sides of the bridge which is 
a funding obstacle that I don't think we're going to find easy 
to overcome.
    There is not that much disagreement between us. We agree 
that we need a bridge that meets the need. We agree that we 
need a bridge that is affordable from a Federal funding 
perspective. But I think we have to be very careful that we 
don't wed ourselves to things that may seem obvious on the 
surface but, in fact, ironically will exacerbate the problem 
when we look deeper into the existing situation.
    So that's why I think we can come up with a bridge that can 
be funded by the Federal Government in its entirety, that will 
avoid the need for any tolls now or in the future, and that 
will make the best of a difficult situation for the dense 
residential area that will clearly be adversely impacted on the 
Alexandria side of the river.
    I want to say one other thing. If we want to build more 
capacity than we do need currently and beyond the year 2020, it 
is not there at the northernmost end of Virginia where we 
should be building it. We need to be looking to a southern 
crossing that connects all that burgeoning residential 
development in St. Mary's, in Charles County with the jobs and 
growth that is occurring in Virginia. A lot of that traffic, 
and every year more of that traffic, is going to have to drive 
North for a long time, cross the Wilson Bridge, and then drive 
South again.
    We ought to have a southern crossing, perhaps the Quantico 
area, that would meet with 210 and 301. That's the kind of 
thing we ought to kook to in the future. I asked for an 
environmental assessment of that, and I think that information 
will prove useful to us in future planning. Thank you, Mr. 
Chairman.
    Senator Warner. Thank you very much, Mr. Moran.
    We are pleased to be joined by Representative Wynn. Do you 
have a brief opening statement?

                STATEMENT OF HON. ALBERT WYNN, 
         U.S. REPRESENTATIVE FROM THE STATE OF MARYLAND

    Mr. Wynn. Thank you, Mr. Chairman. I want to first take the 
opportunity to thank you for your leadership on this issue. I 
also thank my local Senators, Senator Mikulski, Senator 
Sarbanes, for the work that they have done. I see, listening to 
my colleague from Northern Virginia, we're into the thick of 
it.
    I did just want to add my voice to the regional sentiment 
behind the need for full Federal funding for this bridge. It is 
a federally owned property, it is a 35-year old property, it is 
carrying more than double the capacity it was intended to 
carry, it is in bad shape, and we need to do something quickly 
because if we don't start pretty soon, the Government will have 
to invest in repairs and patchwork that certainly is not cost-
efficient.
    Let me just take exception briefly to some of the comments 
of my colleague with respect to the laneage. I would like to 
emphasize that these issues were thoroughly examined over a 2-
year period by a joint coordinating committee from throughout 
the region. They looked at all the laneage questions and 
concluded that the 12-lane drawbridge was the best compromise 
to address the concerns of all the parties involved. I agree 
with their conclusions that a 12-lane bridge makes the most 
sense, and that we ought to separate the lanes.
    I don't accept some of the assumptions that my colleague 
has made about the limiting effect of lane separation. In fact, 
I think the opposite is true. I think lane separation would 
facilitate the flow of traffic. It does not have to be just a 
median strip or primarily a median strip division. It could 
well be electronic signage. The fact that a lot of the traffic 
would be local would mean they would be familiar with the 
traffic pattern and, therefore, able to easily adjust to the 
separated lanes for local versus through traffic.
    So, without belaboring some of the obvious points about the 
need for the bridge, Mr. Chairman, I would just say, again, 
thank you for your leadership. We want the Federal Government 
to fully fund this bridge. I just left Rodney Slater and that 
point was made abundantly clear this morning. So thank you 
again.
    Senator Warner. Thank you, Mr. Wynn.
    We will now have our first witness, the Honorable Jane 
Garvey, Acting Administrator of the Federal Highway 
Administration.
    I would like to just make one further observation. My 
colleagues are well aware of this, and there are undoubtedly 
those in the audience, and particularly the witnesses, who 
understand, but some may not. I want to be absolutely honest 
with you. Judging from the opening statements, it is a battle 
between us, the Members of Congress representing our 
constituencies, and the Federal Government, ably represented 
this morning by Ms. Garvey. But there is a third very important 
partner in this equation. That is the delegations from the 
other 48 States, because they know that whatever cost is to be 
placed upon the Federal Government has to come out of the 
Federal Highway Trust Fund which fund is viewed as the property 
of all 50 States. The distributions from that fund are pursuant 
to a formula which, in my judgment, is desperately in need of 
revision to reflect greater equity among the 50 States. But 
that is a separate battle.
    View this bridge cost as the cream on top of that Highway 
Trust Fund which we, the delegations from Maryland and 
Virginia, and to the extent we can get help from the District 
of Columbia, are going to have to put forward to our colleagues 
in a very convincing argument that those funds have to be taken 
out of that Highway Trust Fund, that it is a Federal 
responsibility, and that while it happens to connect Maryland 
and Virginia, it is a national project. My good friends, that 
is a very heavy uphill burden. I simply remind all of the two 
votes taken of recent where the majority of both the House and 
the Senate rejected efforts to get additional money to cover 
projects of this nature.
    Ms. Garvey.

 STATEMENT OF HON. JANE GARVEY, ACTING ADMINISTRATOR, FEDERAL 
  HIGHWAY ADMINISTRATION; ACCOMPANIED BY TOM PTAK, ASSOCIATE 
ADMINISTRATOR FOR PROGRAM DEVELOPMENT; DAVID GENDELL, REGIONAL 
          ADMINISTRATOR, REGION 3, BALTIMORE, MARYLAND

    Ms. Garvey. Thank you very much, Mr. Chairman. It is a 
pleasure to be here this morning to appear before this 
committee and to appear before this delegation. I know that 
there are a number of local officials and State officials here 
today that are anxious and eager to testify, and I would like 
to ask that my longer testimony be entered into the record.
    Senator Warner. Without objection, your statement, together 
with other statements today, will be made a part of the record. 
We urge all witnesses to be mindful of the time constraints. 
We're hopefully going to conclude before sunset, but we're 
going to stay here until it is done.
    Ms. Garvey. Well, I will definitely conclude before sunset; 
I will say that.
    [Laughter.]
    I think that listening to all the testimony this morning 
one thing is very clear. I think we're all united in our 
recognition that the Woodrow Wilson Bridge is an essential part 
of the Nation's, an essential part of the region's 
transportation system, but one that simply must be replaced and 
must be replaced soon. I want to re-emphasize that. We are 
inspecting the bridge, we're rehabilitating the bridge, but 
clearly this bridge has reached the end of its life cycle, and 
I think, as so many of you suggested, must be replaced very 
soon.
    Certainly, the congressional delegation from Maryland, from 
Virginia, from D.C., and local officials, many of whom are here 
today, have demonstrated a very strong commitment to working 
together to identify an appropriate replacement bridge and the 
financing package necessary to build it. I do want to 
acknowledge publicly the work that the members of the Woodrow 
Wilson Bridge Coordination Committee have done. They have 
really done an extraordinary job in reaching an agreement as to 
a preferred solution. They made some very tough decisions, they 
weighed options, they looked at many alternatives, and I think 
in many ways they acted regionally. Some have suggested, and I 
agree, that in many ways that Coordination Committee really 
implemented the spirit of ISTEA.
    That progress continues. We are sorting through all of the 
comments, very thoughtful comments that we've received through 
the environmental process, a number of comments from citizens 
and from elected officials, and we're working toward a record 
of decision. We want very much to have that record of decision 
completed this summer. I know that our staff is meeting next 
week with some of the environmental groups to discuss some of 
the outstanding issues.
    In addition, the staff of all of our agencies at the 
Federal and the State level are meeting daily to explore 
construction and project management strategies. So I do want to 
say for the record that progress has been made and progress 
continues to be made.
    Certainly, the financing of the new bridge presents in many 
ways the most difficult challenge. But I'm convinced that all 
of us can and will be able to assemble the necessary funding 
for the new bridge within the financial constraints that are 
faced by each of the entities. What I would like to do is just 
to focus very, very briefly on the Administration's funding 
proposal for the bridge, and also place it, if I could, in the 
larger context of the national transportation needs.
    In our reauthorization proposal and in the President's 
budget, we propose $400 million in Federal funding for 
constructing the new bridge. We looked at the language in the 
NHS Designation Act which says that, at a minimum, the Federal 
contribution is to include the cost of rehabilitating the 
existing structure, the cost of a replacement facility built to 
current engineering standards, which we interpret should be a 
six lane facility, and the cost for design for the recommended 
alternative. Now, that results, as I've said, in a $400 million 
Federal contribution. The additional costs associated with a 
larger structure and the roadway approaches to the bridge 
should, in our view, or could, in our view, be a shared 
responsibility with the States.
    Our $400 million funding proposal takes into account three 
important considerations. First, that the existing six-lane 
bridge is federally owned while the adjoining roadways and the 
interchanges are owned by the States. Second, the current and 
the future traffic on the bridge serves both interstate and 
metropolitan needs, with 85 percent of the traffic either 
originating or ending in the Washington metropolitan area. 
Third, as you all have suggested, the bridge is the only part 
of the Interstate that is federally owned. Comparable 
facilities in other States are owned and are financed by States 
and local Government. I will say, however, that the transfer of 
the ownership of the bridge to the States has long been part of 
our discussions and was envisioned in the NHS Designation Act 
of 1995.
    Finally, and I do want to stress this point, both Congress 
and the Administration are faced with many pressing 
transportation needs throughout this country. Every spending 
decision that we make must be made in the context of balancing 
the budget. Certainly, the breadth of transportation needs that 
we must grapple with, and certainly that you are grappling with 
in reauthorization, include border crossing, congestion in 
metropolitan areas, trade corridors, intermodal access to 
ports, safety, environmental protection, rehabilitation of 
Interstate highways, the need for new technology, rural 
transportation, mass transportation, roads on Federal lands, as 
well as the Woodrow Wilson Bridge. As you know, Mr. Chairman, 
other States and other regions are also making very strong 
cases for critically needed projects in their areas, projects 
like the Woodrow Wilson Bridge that are an important part of 
the Nation's transportation system.
    As we put together our reauthorization proposal, one of our 
guiding principals was, and continues to be, partnerships. It 
is only by acting collectively that we'll produce the kinds of 
solutions that we need. Certainly no one entity, no one arm of 
Government can solve this Nation's problems, whether it is the 
Woodrow Wilson Bridge, NAFTA corridors, border crossings, or a 
host of other projects across this country. The impetus to act 
collectively is only reinforced by the commitment of both 
Congress and the Administration to balance the budget.
    Just in closing, Mr. Chairman and members of the committee, 
I do want to say once again on behalf of both Secretary Slater 
and Deputy Secretary Downey that we remain committed to working 
in partnership. I understand that was a very good discussion 
with the Secretary this morning. We certainly remain committed 
to working in partnership with you and with our colleagues at 
the State level in seeing this project through construction and 
finally to completion. Thank you very much, Mr. Chairman.
    Senator Warner. Thank you very much, Ms. Garvey.
    We are now joined by two additional colleagues. In order of 
their appearance, Mr. Wolf, would you like to make an opening 
observation?
    Mr. Wolf. Just briefly. Thank you, Senator, for holding the 
hearings. Jane, we welcome you. As everyone else has said, it 
is a Federal bridge, it is a Federal responsibility, there 
ought not be tolls.
    I just hope, I know you've been designated to be the FAA 
Administrator and I think you'll probably do an outstanding job 
there, but I would hope though that somehow you could stay 
involved in this process because with your historical 
knowledge. I'm concerned that a new Administrator comes on, 
doesn't get confirmed for a while, there will not be the 
leadership over there. I know you're going to have a tough 
enough job running the FAA. But I hope on this issue you could 
stay involved, as I think you are sensitive and understand our 
concerns and have dealt with us over the years. I would hope 
that even though you do go to FAA you would maintain your 
interest in bringing this to a successful conclusion.
    Again, Senator, thanks for having the hearings.
    Senator Warner. Thank you very much, Mr. Wolf. I would say 
in the course of any confirmation process that Administrator 
Garvey might have for her next post that this Senator will put 
that footnote in.
    Ms. Garvey. Thank you. I will say intermodalism I guess 
does include both bridges and whatever else is in the system.
    Senator Warner. Correct. You've got to fly over the bridge, 
remember?
    [Laughter.]
    Senator Warner. Senator Robb?

   STATEMENT OF HON. CHARLES S. ROBB, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Robb. Thank you, Mr. Chairman. Subtlety has never 
been our strong suit here. I apologize, as you know, both you 
and I were at a meeting with the Secretary of Defense earlier 
this morning and I remained through the conclusion. I know you 
had to leave early to come here to Chair this meeting, and I 
thank you for holding it.
    I would simply say that a bridge that was constructed in 
1957, just a very few miles from where I lived at the time, was 
designed to accommodate 75,000 vehicles. It now accommodates 
about 176,000 vehicles a day. We recognize the magnitude of the 
problem. It is, as you have suggested, a completely federally 
owned bridge and project. I think that this delegation that has 
met several times to discuss the concerns that have been raised 
agree on at least two points: that tolls would exacerbate the 
problem in a very significant way environmentally, and that any 
attempt to deal with HOV lanes on the bridge would be extremely 
difficult as well. Beyond that, there are some matters that are 
still under discussion.
    Senator Mikulski and I have cosponsored a bill, S. 483, 
that would acknowledge the Federal responsibility in funding at 
least an appropriate replacement for that bridge, and I still 
fully support that particular proposal. With that, Mr. 
Chairman, I thank you.
    Senator Warner. Thank you very much, Senator.
    Now, Ms. Garvey, I want first to turn to a technical 
question. Since 1989, the Federal Highway Administration has 
been working to comply with the requirements of NEPA in its EIS 
process. We are weeks away from completing that process; is 
that correct?
    Ms. Garvey. That is correct, Mr. Chairman.
    Senator Warner. Congress, in my judgment, and that's why I 
made the opening statement, which I repeat for my colleagues 
who have just joined, Congress is not in the business of 
designing a bridge. But were we to somehow through the 
legislative process redirect this bridge in some significant 
technical changes, namely, I defer to my distinguished 
colleague Mr. Moran, change from 12 to 10 lanes, would that 
necessitate reopening the NEPA process and that reopening 
result in prolonged delay to get started?
    Ms. Garvey. I know the issue of reopening the NEPA process 
is one that has been of great concern to a number of people. I 
know the States are working very hard to look at ways that they 
can perhaps make some modifications and some changes. But I 
will say they are doing it within the confines of not 
triggering a reopening of the NEPA process. That is a concern 
that I think a number of people do share.
    Senator Warner. Well, I certainly share it because that 
could impose a year or two delay.
    Ms. Garvey. If we reopen the NEPA process, yes, it would. 
If there were significant changes, there would be some concern 
about it.
    Senator Warner. Is there a solid consensus from a 
technological engineering standpoint that this bridge has to be 
replaced within time limits that range from, say, five to 8 
years?
    Ms. Garvey. There is. In fact, I want to re-emphasize that 
our engineers are out inspecting the bridge, we're monitoring 
it very carefully. But it is definitely at the end of its life 
cycle and replacing the bridge is a priority for us.
    Senator Warner. I don't think there is any dispute in that 
area which would justify, as it has been recommended to me, 
that we just drop this whole thing now and spend another two to 
3 years trying to sort out what we should do.
    Ms. Garvey. I think that would not be wise, Mr. Chairman.
    Senator Warner. You state, I have the figures before me, 
the Administration's budget requested $400 million with a 
statement that the balance, whatever that balance may be, would 
come from participation by the States, local Government, and 
the like. Now, that was your first submission. Of course, you 
cannot alter that but it is within the province of the Congress 
to alter the President's budget. And it would be my judgment 
that my subcommittee will come up with a revised figure. And in 
order to get the best estimates for that revised figure, I came 
to you by letter, a copy of which I have mentioned this 
morning, and you have now come back with the figure of $830 
million, twice the $400 originally, as the best estimates of 
the Federal Highway Administration as to what it would cost for 
the Federal participation, 100 percent, hopefully, in the 
bridge and certain percentage of the approaches. Is that 
correct?
    Ms. Garvey. Yes, that's right, Mr. Chairman. We came back, 
based on questions that your staff asked, breaking it down 
piece-by-piece, and those are the numbers that you went through 
earlier this morning.
    Senator Warner. And so that is your judgment today, 
speaking for the Department of Transportation, that the outside 
figure of the Federal participation is $830 million?
    Ms. Garvey. Well, with all due respect, Mr. Chairman, of 
course I will still stand with the President's budget.
    Senator Warner. Of $400 million. I understand that. But 
you've given us an advisory opinion----
    Ms. Garvey. Of what the basic elements would be, that is 
correct, Mr. Chairman.
    Senator Warner. Now the balance between $830 and estimates 
of about $1.5 billion for the total cost of the project, that 
differential essentially is the battleground in which the 
States and the Federal Government and the various 
municipalities have to fight it out to determine whether or not 
Uncle Sam will come in with a greater amount over $830 million. 
Isn't that a definition of where the battleground is?
    Ms. Garvey. That's certainly the military analogy. I was 
not in the military, however, so I'll call it discussion 
ground, Mr. Chairman.
    Senator Warner. That's good. All right. But I just want to 
make that clear, and that's an exercise and a function that the 
Congress has as a proper responsibility by and with the advice 
of the Governors and their representatives of the two States 
and the District of Columbia.
    Ms. Garvey. That's right.
    Senator Warner. So I think I have covered basically the 
outlines of the magnitude of the problem that's before us. But 
several other points here. In the event there is some degree of 
technical failure in the bridge between now and when a new 
bridge can be put in place, what plans do you have for 
assisting the adjoining communities in dealing with the impact 
on their traffic plans?
    Ms. Garvey. Let me say, first of all at the outset, thanks 
to Congress, we have been able to stay on top of the 
rehabilitation and do the kinds of repairs and the inspections 
that are necessary. So I am very confident that we are very 
much on top of that.
    Senator Warner. That means that this bridge can serve the 
current load until the ribbon-cutting on the new bridge?
    Ms. Garvey. That is correct. That is correct.
    Senator Warner. But in the event, there is a contingency?
    Ms. Garvey. Again, I would just say that we work very, very 
closely with the States, both the State of Maryland and the 
State of Virginia, as well as with the District of Columbia. We 
have a design office, a Woodrow Wilson Bridge office that is 
located right in Alexandria. So we have daily contact with our 
State counterparts to really look at the issue and to manage 
together any kinds of changes to the traffic, any kinds of 
detours or whatever it might be. There is very close 
cooperation.
    Senator Warner. In the course of the construction of the 
new bridge, has the Department of Transportation, most 
specifically Federal Highway Administration, laid out the best 
possible plan to minimize the adverse impact on both Maryland 
and Virginia and to some degree the District of the 
inconvenience to travellers occasioned by the construction 
project?
    Ms. Garvey. We're working very closely with the States on a 
construction management plan. We are in the process of hiring a 
private firm that will act as our construction manager of the 
project, if you will. But States are very much involved in it. 
They know their communities well, they know the areas well. 
There is very, very close cooperation on that issue. And that's 
a part of any project like this, laying out well ahead of time 
what the construction plan is going to be, what the 
contingencies are going to be. We've got professionals with a 
lot of experience in that area.
    Senator Warner. Thank you very much. I've tried to limit my 
questions to several minutes and I would hope those members of 
the panel here who have joined me can do likewise.
    Senator Sarbanes?
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Ms. Garvey, is it unreasonable to expect that the 
definition of the project to be federally supported should 
correspond with the definition which the Federal Government 
would impose on a State Government if they were out to redo a 
bridge on the Interstate System? Let's leave aside for the 
moment the fact that this bridge is federally owned. But if 
some State were to come in and seek to redo a bridge, first of 
all, you wouldn't let them do a six-lane bridge, would you?
    Ms. Garvey. In this particular location, we probably would 
not, Senator. That's a fair assumption.
    Senator Sarbanes. No, I wouldn't think so. I'm sort of 
staggered that you would sit there at the table this morning 
and even begin with a starting position that envisions a six-
lane bridge as a definition of your responsibility. You 
wouldn't let a State get away with that.
    In working this thing through then, is that the standard 
that was used in this definition of cost that you submitted to 
the Chairman?
    Ms. Garvey. I apologize, I'm not quite sure of the 
question. Do you mean was it the $400 million for the crossing? 
No, we looked at the number of----
    Senator Sarbanes. No, no. You have excluded out a lot of 
costs here. But it is my impression that if a State were doing 
it--let's say States A and B somewhere are doing an Interstate 
bridge and you have to approve it, you would concern yourself 
about interchanges and traffic flow other than right at the 
point of the bridge, would you not?
    Ms. Garvey. We would, Senator. What we would do is, working 
again with them, we would look at the long-range plan and be 
sure that the bridge accommodated to the extent possible the 
long-range plan. Yes, that is correct.
    Senator Sarbanes. Now, if you're going to impose that kind 
of standard on a State in a comparable planning situation, you 
should be subjected to it yourself, should you not? It's not 
clear to me that these costs out here and out there can 
reasonably be excluded from the calculation of the Federal 
responsibility, particularly if, under your criteria, you were 
examining two States putting up a bridge on the Interstate, you 
in effect include those elements in. Do you understand my 
point?
    Ms. Garvey. I absolutely do, Senator. I will say that we 
would look at the long-range plan, there might be elements of 
the roadway that would not be included if this were a State-
owned bridge, that even within that kind of a structure we 
might separate out some of those elements. I guess I would get 
back to the issue of partnerships, that we have thought of this 
as a joint partnership effort. But your point is well taken, 
Senator. I do understand your point.
    Senator Sarbanes. Are you committed to supporting anything 
that is not 100 percent Federal? We've just been discussing 
what should or shouldn't be 100 percent Federal, and that 
definition is obviously a very important part of trying to work 
out this puzzle. The balance of it, I take it, should be 90 
percent Federal, whatever the balance may be; is that correct?
    Ms. Garvey. It could be 90 percent, yes, Senator.
    Senator Sarbanes. You would do anything on the Interstate 
elsewhere in the country at 90 percent, wouldn't you?
    Ms. Garvey. Do we do other things at 90 percent, 90-10? 
Yes.
    Senator Sarbanes. Would the Administration be committed to 
a separate standard----
    Ms. Garvey. Excuse me. I'm sorry, I think I'm getting 
corrected here. I may have misspoke.
    Senator Sarbanes. How about your assistant, rather than 
whispering and repeating, do you want to just tell us? 
Otherwise, we're whispering and passing notes.
    Ms. Garvey. Sorry. I apologize for that.
    Senator Warner. Would you identify this gentleman, please, 
Ms. Garvey?
    Ms. Garvey. Tom Ptak, who is with our engineering office, 
our program office, the Associate Administrator for Program 
Development.
    Mr. Ptak. The distinction that needs to be made is between 
completion of the original Interstate System and rehabilitation 
of the Interstate System, which we're involved with right now. 
The initial Interstate System was completed with a Federal 
commitment to build the entire system. The rehabilitation of 
the Interstate System is based on formula money that we provide 
to the States and it is their decision which projects they will 
or will not fund. That's the distinction right now.
    Senator Sarbanes. Let me go back to Ms. Garvey. All of the 
costs that we're talking about here are connected in one way or 
another with addressing the problem posed for us by a federally 
owned bridge that's inadequate for its location now in the 
Interstate System. Is that not correct?
    Ms. Garvey. That is correct, Senator.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Warner. Thank you very much.
    Senator Mikulski?
    Senator Mikulski. I thank you very much, Mr. Chairman. As 
you know, Senator Sarbanes and I work very closely together. 
Many of my questions are identical or parallel to his.
    Let me though clarify this funding issue. If a bridge were 
owned by the States, what percentage would you be paying for? 
If the bridge were, for example, in either Maryland or in 
Virginia but was part of the Interstate System, what percentage 
would you be paying?
    Ms. Garvey. For the rehabilitation, in most cases it would 
be through the formula of 80-20.
    Senator Mikulski. So it is 80-20. The Fort McHenry Tunnel 
which was built in Baltimore and which was also part of the I-
95 connector was paid for at 90-10 in the late 1970's and early 
1980's. That's a toll and I know that, but why is that 90-10 
and we're talking about this bridge at 80-20?
    Ms. Garvey. It's a little bit before my time, and I will 
defer that question.
    Mr. Ptak. If you will permit me to go back to my original 
response, on the completion of the original Interstate System. 
The Interstate System was built at a 90-10 basis and the 
rehabilitation is based on the formulas that are currently in 
place right now, and that is at a lesser matching ratio.
    Senator Mikulski. But in the rehabilitation of the 
Interstate, are those primarily highways or does it involve any 
other bridge in the United States of America?
    Mr. Ptak. Bridges and highways that make up a part of the 
Interstate System is what we're talking about.
    Senator Mikulski. So if the bridge were in Virginia or in 
Maryland, you would still be talking about 80-20? So it is not 
its location, but who owns it?
    Mr. Ptak. That's correct.
    Senator Mikulski. The definition is over whether it was 
completion money or whether it is rehabilitation, and you hold 
fast to the 80-20 formula for rehabilitation. But $400 million 
is not 80-20, it's 75-25--75 to the States and 25 for the 
Federal Government. So if we went 80-20 out of the $1.6 
billion, that's a bigger bucket of bucks. But 80 percent of 
$1.6 billion would be about $800 to $1 billion, wouldn't it, or 
more? $1.2 billion? We'll take it. Really, if we could go then 
to the same standard for rehabilitation and we went to an 80-20 
formula, I think that would be a very important breakthrough. 
I'm joking when I say we would take it, but, as you understand, 
if really we're talking about $1.6 billion and you're talking 
about $400 million to us, that is 25 percent. Am I correct, Ms. 
Garvey?
    Ms. Garvey. It certainly sounds that way. I would have to 
do the math a little bit more carefully.
    Senator Mikulski. Well, $400 million--even we Democrats can 
do that math. We're talking about $1.6 billion, and $400 
million brings us back to $1.2 billion. That means that each 
State would have to come up with over $600 million. So that the 
Virginia share will be more than the Federal share, the 
Maryland share would be more than the Federal share. That's 
just not fair. That is just not fair. We would recommend then 
that you treat the Woodrow Wilson Bridge by this same formula 
and by the same standards as you would do in the rest of the 
country. That would, Senator Warner, our argument that we would 
be taking to our colleagues.
    So, if the bridge were in Maryland, you would be doing 80-
20; is that right?
    Ms. Garvey. We would be doing 80-20. We might isolate out 
some of the roadwork, as I think I mentioned earlier, again, 
you would have to almost look at the bridge, but your principal 
of 80-20 is correct.
    Senator Mikulski. And if the bridge were in Virginia, it 
would be 80-20; am I correct?
    Ms. Garvey. Yes.
    Senator Mikulski. I've obviously sparked some debate.
    I won't prolong this conversation, but you see the point 
that I'm arriving at?
    Ms. Garvey. Yes.
    Senator Mikulski. I would really like the Federal 
Department of Transportation to deal with the Woodrow Wilson 
Bridge as they would with any other bridge in the United States 
of America. I personally would prefer full funding of the 
bridge because it is a federally owned bridge. But at the same 
time, if we're going to look at other fiscal realities, then we 
would be talking about two things: (1) the same fiscal formula 
of at least 80-20 for rehabilitation, which this is, and (2) 
the same design standards that you would be also recommending 
or insisting upon for any other bridge in the United States of 
America that was part of the Interstate System. I think then 
this would really advance the conversation between the 
delegations and yourself so we could advance it with our 
colleagues.
    We must be in agreement between the Department of 
Transportation and the delegation because we're going to have a 
lot of work to do in the appropriations committees, as 
Congressman Wolf and Congressman Hoyer and I can attest to. Our 
colleagues are enormously supportive. But if we go to our 
colleagues and say we want to be treated like any other bridge 
in the United States of America and treat it as if it were 
located in a State, then I think we would be on sound grounds. 
This also then would go for the same standards, both of 
adequacy of capacity as well as adequacy of safety.
    Do you think that is a reasonable expectation, Ms. Garvey?
    Ms. Garvey. I certainly understand your point, Senator. I 
do want to get back to one point, and I think Tom may have 
mentioned it. When we talk about the 80-20 it is the formula 
money that States do get, and then the division would be the 
80-20 of the formula money.
    Senator Mikulski. But I'm talking about the conceptual 
framework.
    Ms. Garvey. Right. I understand your point.
    Senator Mikulski. And we're not following the conceptual 
framework in even your preliminary offer or what was in the 
President's budget. I know you have to uphold that budget, but 
I think there has to be plenty of room for further 
conversation.
    Ms. Garvey, I am going to echo the comment, your 
institutional memory and your professional competence are 
really very important to us in completing this project. I do 
look forward to working with you as the Administrator of the 
Federal Highway Administration. It needs a lot of help, a 
steady hand, and a preoccupation with safety. So, we look 
forward in another capacity.
    Ms. Garvey. Thank you very much.
    Senator Mikulski. And we want the same thing here for the 
Woodrow Wilson Bridge. I've made my point, Mr. Chairman. Thank 
you.
    Senator Warner. Thank you very much.
    Mr. Hoyer?
    Mr. Hoyer. Thank you very much, Mr. Chairman. I'll be 
brief.
    Ms. Garvey, the perspective is different from our 
delegation standpoint. There are a number of items wholly owned 
by the Federal Government. Therefore, from our perspective, 
quite obviously, there is a 100 percent responsibility of the 
Federal Government to maintain and rehabilitate or replace this 
bridge which is unique. Correct?
    Ms. Garvey. That is correct.
    Mr. Hoyer. There is no other similar situation in the 
Federal Interstate System?
    Ms. Garvey. That is correct.
    Mr. Hoyer. And as a result, because we own it 100 percent, 
that is we, the Federal Government, at least in our 
discussions, and you were there with Secretary Slater----
    Ms. Garvey. Yes, I was.
    Mr. Hoyer. There seemed to be pretty much a consensus, with 
which I did not think the Secretary disagreed, that because of 
the status of the bridge from shore-to-shore, if you will, that 
portion of it would logically be a 100 percent responsibility, 
and to that extent not analogous to other such assets. Is that 
correct?
    Ms. Garvey. Well, that would not necessarily be consistent 
with the $400 million figure.
    Mr. Hoyer. I understand that. And you are constrained, 
obviously, by the President's budget. You work for the 
President; I think that's appropriate. But in terms of the 
discussions we had and the analysis we made, clearly, if that 
analysis were correct, then the figure of the $400 million 
would not reflect that.
    Ms. Garvey. That's true.
    Mr. Hoyer. I understand that.
    Mr. Chairman, I have no other questions. I want to hear 
from the other witnesses, and I thank Ms. Garvey very much for 
her participation and share my colleagues' views that we hope 
you do, even with your new responsibilities, maintain a focus 
on this and participate with your successor.
    Ms. Garvey. Thank you very much.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    Senator Warner. Thank you, Mr. Hoyer.
    Mr. Davis?
    Mr. Davis. I'll just be very quick because we have other 
witnesses. I think the explanation for the $400 million at this 
point, there isn't really an explanation except that that's the 
number. I hear flexibility, that you want to continue to work 
with us, and I've heard the same thing from the Secretary, and 
I think we will try to build on it from there. I think the 
reality is the Federal Government has a much higher level of 
responsibility than the $400 million. Hopefully, we will be 
able to work through that in the coming months, weeks, 
hopefully. Thank you.
    Ms. Garvey. Thank you, Mr. Davis.
    Senator Warner. Thank you, Mr. Davis.
    Mr. Moran?
    Mr. Moran. Ms. Garvey, nice to see you.
    Ms. Garvey. Nice to see you, Congressman.
    Mr. Moran. Thank you for doing as fine a job as you have 
done and I know will continue to do in your new capacity. We've 
beaten this horse a bit, so let me take another tack here. I 
did want to ask you, have you budgeted within the Department of 
Transportation, the Federal Highway Administration for the $4 
to $7 billion additional money that would be needed to widen 
the beltway? Is that on the State request that would receive 
the 80 percent Federal matching funds?
    Ms. Garvey. Let me say that probably Secretary Martinez and 
Secretary Winstead could better answer that. I will say my 
understanding is that they are in the midst, at least Virginia 
is, or nearing the completion of an MIS that would call for 
some widening of the beltway. That would be included I guess in 
their long-range plan that is next submitted to us. I know that 
they are still in the midst of it. I'm not sure where they are 
in terms of actually making it part of their plan. I would 
defer to both of the Secretaries for a more complete answer on 
that.
    Mr. Moran. Is it true that the Federal Highway 
Administration's estimates are that if you did expand the 
beltway by another two lanes so that you had a total of ten 
lanes on the beltway instead of the existing eight lanes, that 
a ten-lane Wilson Bridge that was the same width as the 
American Legion Bridge, which is currently ten lanes on the 
northern crossing, that it would carry 98 percent of the rush 
hour traffic in the morning, for example?
    Ms. Garvey. Let me defer to either Mr. Ptak or Mr. Gendell 
for that answer; they are closer to the project.
    Mr. Moran. Sure.
    Ms. Garvey. Mr. Gendell is the Regional Administrator 
located in Baltimore.
    Mr. Moran. Yes, we know him well. Hi, Dave.
    Mr. Gendell. The capacity of the 12-lane facility, assuming 
HOV and bus transit, is about 50 percent greater than the 
capacity of a 10-lane facility in terms of the number of people 
who can cross the river. In terms of the number of vehicles 
that are projected to use the facility in the year 2020, I 
think your estimates are probably in range. I believe it is in 
the range of 92 to 98 percent.
    In our studies, the Transportation Planning Board has 
forecasted a 70-plus percent increase in travel in the 
metropolitan area. We estimated that unconstrained traffic 
demand on the beltway would require 16 to 18 lanes. So what the 
Coordination Committee did was, recognizing that demand was 
there and could not be met with single occupant auto-type 
facilities, it recommended that all alternatives include the 
ability to provide for future HOV or transit in order to 
provide for travel growth through 2020 and beyond. Every 
alternative analyzed did provide for that HOV transit capacity.
    Mr. Moran. We've had this discussion before, Mr. Gendell, 
as you know. And while I don't find fault with that analysis 
that that would be the ideal thing to do to transport the 
maximum number of people that wanted to get across, you are 
assuming that somehow Government at the State and Federal 
level, perhaps even local, would come up with the resources 
necessary to construct those HOV lanes, because if you don't 
have the HOV lanes on the beltway, you don't need them on the 
bridge. So you are telling us what you would like to do on the 
bridge but it is based upon several assumptions. I think we 
need to look at those assumptions.
    The other thing is that to some extent you have a situation 
where ``if you build it, they will come.'' I want to make sure 
that not only do we have an adequate transportation system, but 
that it be the most efficient system. And so that if they are 
coming, for example, from southern Maryland and having to drive 
north for 20 minutes to cross and then drive south again in 
Virginia, or vise versa, that's not necessarily the most 
efficient road system that we could provide. So I think that 
needs to be another consideration.
    Rather than take up too much time here, we do have a lot of 
other witnesses, let me ask one other question that I think 
needs to be asked. When there was an EIS conducted, the last 
one I think was conducted in the summer and it took two to 3 
months; isn't that right? Tell me if it is wrong, but if it is 
right, then that's in conflict with what we're being told that 
if there had to be another NEPA that we would be talking about 
another 12 month delay, which I certainly would be opposed to. 
But is that not right that it only took a couple of months to 
do the last one?
    Mr. Gendell. A lot of work had preceded the May decision 
meeting of the Coordination Committee. At that meeting, we 
decided to look at additional modified alternatives. It took 
about two to 3 months to analyze them, we then had public 
hearings, and we have still not completed the environmental 
process. So we are starting from the May period and still 
underway with that analysis.
    Mr. Moran. OK. Do you think that if you did 10 lanes with 
capacity for 12 lanes that it would necessarily necessitate 
going through that whole rigmarole again, that you wouldn't be 
able to use all the analysis that has already been conducted?
    Mr. Gendell. The proposal essentially is to build 10 lanes 
but to build it in such a way that it can be expanded in the 
future to accommodate the equivalent of 2 additional lanes. So 
that analysis has been done at this point and that really is 
the recommended alternative.
    Mr. Moran. Thank you. I appreciate your putting that on the 
record.
    Excuse me, Ms. Garvey?
    Ms. Garvey. I was just going to say, yes, I thank you for 
clarifying that. I think that's an important point. It is for 
10 lanes with a capacity for 12.
    Mr. Moran. Thank you. And you would agree with the 
analysis, this is the last point I'm going to ask you to make 
sure this is on the record and it is not just me throwing 
numbers out, would you agree with the analysis that currently 
70 percent of the bridge traffic is local orientation?
    Ms. Garvey. It's a little higher maybe.
    Mr. Gendell. It is 70 percent of the traffic using the 
bridge enters or exists within the study area consisting of the 
four interchanges, and 85 percent of it is local to the 
Washington metropolitan area.
    Mr. Moran. Thank you. So those numbers were accurate. That 
is a significant consideration in design of the bridge. Thank 
you very much.
    Senator Warner. Thank you, Mr. Moran.
    Mr. Wynn?
    Mr. Wynn. Thank you, Mr. Chairman. I, too, will be brief.
    Thank you for your testimony. It has been very helpful this 
morning. I would just make this comment. It seems to me that 
when we started this process under the aegis of the 
Coordination Committee there was an implicit understanding that 
there would be regional cooperation utilizing the Coordination 
Committee which engaged in a 2-year process, and that the 
Federal Government was a full participating partner in that 
process. Did at any time the Federal Government suggest that 
there would be a deviation from the normal formula with respect 
to access ramps or anything like this?
    Ms. Garvey. Dave, you were part of the committee. I don't 
believe there was any suggestion of deviation. I think there 
was a real effort to try to work with the Coordination 
Committee to respect the process and respect the decisions that 
they made.
    Mr. Wynn. So all along we were operating under the 
assumption that we would use the usual Federal design standards 
that I believe Senator Sarbanes alluded to when he said that we 
wouldn't build a State bridge without the necessary ramps?
    Ms. Garvey. I think it has always been the concern, 
obviously, to build something that can accommodate the future. 
When you go through the process you make some compromise and 
some changes, but that is part of the decisionmaking process. 
But fundamentally accomodating the future needs, that is 
correct, Representative.
    Mr. Wynn. I guess now I have to take a page out of my 
colleague Mr. Moran's book and say, for the record, I just want 
to be clear that we always contemplated including in the 
project the necessary access ramps on both ends of the bridge.
    Ms. Garvey. Dave, are you comfortable with that? You were 
part of the committee, Dave.
    Mr. Gendell. Yes. The recommended alternative does include 
upgrading and essentially reconstructing the four interchanges. 
As to exactly when that might be done, it may be possible that 
not all of those ramps might be initially provided. It is 
subject to refinement during the design process. We have 
received a number of public comments suggesting that we look at 
the possibility of downscoping the interchanges. We've 
committed to looking at that during the design process and 
trying to find a way of reducing the scale of these 
interchanges without hurting the functionality of the project. 
We've committed to do that as a subsequent phase to the NEPA 
process.
    Mr. Wynn. I understand that and I am cognizant of the need 
for cost-containment. But I don't want to feel that now one of 
the partners to the 2-year process is saying, no, we didn't 
contemplate these ramps, that's your problem. That is part and 
parcel of the whole project and not some nicety, keeping in 
mind cost considerations.
    Finally, I just wanted to pursue the fact that implicit and 
explicit in this partnership was the assumption by the two 
States after completion of the bridge of certain maintenance 
and operating costs. In pressing for full funding, I just 
wanted to mention that I believe was one of the fair trade-offs 
with the Federal Government, that we're going to be assuming 
some long-range costs and that we believe the Federal 
Government ought at least to put the project in place in full 
before we assume those costs and take over what would otherwise 
be a Federal responsibility in toto, both construction and 
operating and maintenance.
    Mr. Chairman, I have no further questions.
    Senator Warner. Thank you very much.
    Mr. Wolf?

  STATEMENT OF HON. FRANK WOLF, U.S. REPRESENTATIVE FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Mr. Wolf. Thank you, Senator. I appreciate your holding 
these hearings. Now I think we all have more information and 
we're all dealing with the same set.
    I would say that I think there is a greater responsibility 
here--and you and I talked about the central artery project 
that was 90-10 initially that was a $10.4 billion eight mile 
project up in Boston--because this is a Federal bridge. And it 
is not your responsibility because I know you just came here a 
couple of years ago, but administration after administration 
has neglected to deal with the problem that they saw coming 
and, therefore, I think the responsibility is probably greater 
here than even if it was just a Federal bridge. It is a Federal 
bridge but also a Federal bridge that was neglected by the 
Federal Government for years and years when it could have been 
done at a much less cost. For letting it go so long the cost 
has increased, we all agree that it ought to be much, much 
higher.
    The other two questions can be one word answers really. 
When would be your target date to begin the construction of the 
bridge, and when is your target date for finishing it?
    Before you answer those two questions, I just want to again 
thank you. You really do have to stay involved in this because 
I worry when new administrators come in and they say, ``Oh, I 
wasn't part of that,'' or ``I didn't really know about that,'' 
or ``I don't really understand.'' I would hope that you and the 
Secretary would be advocates for us, at OMB be advocates for 
the bridge to kind of resolve this thing for a higher, fairer, 
better figure. Hopefully, we can resolve this thing by the end 
of this year so that this issue is resolved, we know how big 
the bridge will be, we know how it is going to be paid for, and 
it will be over, and hopefully, to the agreement of everyone, 
in a way that there will be no tolls.
    But when do you hope to start, and when will the new bridge 
be available for someone to drive across?
    Ms. Garvey. To actually drive across, Dave has been working 
on the time line. Could you give the most current time line, 
Dave?
    Mr. Gendell. The documentation in the engineering of the 
environmental process contemplated construction starting in 
1999 and the bridge being open to traffic by 2004. However, 
that also contemplated beginning an early relocation housing 
program in 1997 as well as beginning design in early 1997 which 
has not happened.
    Mr. Wolf. Because of that slippage, now what are you 
talking about?
    Mr. Gendell. We are in the process of selecting a general 
engineering consultant and plan to select design firms later 
this year, and hopefully have them on board by the end of this 
year. With incentives, we would hope that we could still 
maintain that schedule of having the facility completed by 
2004. But we will have to look at that in more detail as we get 
into the engineering to see if that's still possible.
    Mr. Wolf. OK.
    Ms. Garvey. I would say the sense of urgency about this 
bridge really does make it imperative upon us to put those 
kinds of incentives in place so that a contractor and a 
designer really does meet the time line. I know there is a lot 
of support from the Secretary's office for that as well.
    Mr. Wolf. Thank you, and thank you, Mr. Chairman.
    Senator Warner. Thank you, Mr. Wolf.
    Senator Robb?
    Senator Robb. Thank you, Mr. Chairman.
    Ms. Garvey, we thank you for your participation this 
morning. My colleagues have very ably explored most of the 
territory that I was going to cover with you. I would sum up by 
saying it seems to me you have very forthrightly acknowledged 
the inadequacy of the funding level currently in the 
President's budget, the uniqueness of this particular property 
in the overall Federal inventory particularly as it relates to 
the Federal Highway System, and the fact that this is a unique 
and individual responsibility of the Federal Government. It 
seems to me that that's a pretty good place to conclude your 
testimony. We thank you very much for acknowledging the basic 
tenets that are important to this delegation as we proceed.
    Thank you, Mr. Chairman.
    Senator Warner. Thank you very much.
    Senator Robb. I don't want to give you an opportunity to 
respond because you might qualify some of my conclusions.
    [Laughter.]
    Ms. Garvey. I was just thinking what the better course of 
valor would be.
    Senator Warner. If there are no further questions, we thank 
you and we thank your associates.
    Senator Warner. We will now proceed to hear from the 
States. The lead-off witness is Mr. Robert Martinez, Secretary 
of Transportation, Commonwealth of Virginia, followed by Mr. 
David Winstead, Secretary of Transportation, State of Maryland, 
and Mr. Kenneth Laden, Administrator of the Office of Policy 
and Planning for the District of Columbia.
    Secretary Martinez, we're pleased to welcome you. I've had 
the opportunity to work with you for some several years now. 
Speaking personally, I have the highest confidence in your 
professional ability and we very dearly need your professional 
competence to help engineer, politically and financially, this 
bridge through the Congress and through the States.

STATEMENT OF HON. ROBERT MARTINEZ, SECRETARY OF TRANSPORTATION, 
                    COMMONWEALTH OF VIRGINIA

    Mr. Martinez. Thank you very much. I am Robert Martinez. I 
am Secretary of Transportation for Virginia. I am not going to 
repeat some of the fundamental issues here. Woodrow Wilson 
Bridge, of course, is essential to the national transportation 
network and it is 100 percent owned by the Federal Government.
    The bridge was designed to carry 75,000 vehicles per day. 
It is now on certain days as high as 181,000 vehicles per day, 
and by 2020 the traffic volumes will almost double to 300,000 
vehicles per day. Inspection data indicates that the bridge 
will require major rehabilitation or truck restriction by the 
year 2004.
    The accident rate on the bridge--at 154 per 100 million 
vehicle miles of travel--is more than double the Virginia 
average for similar facilities and, in fact, is almost double 
the average for other segments of the beltway. To address 
capacity and safety, the Coordination Committee has worked 
exhaustively under the guidance of FHWA to select the preferred 
alternative.
    Let me turn to what I consider the two most important 
points for us to remember: (1) the Woodrow Wilson Bridge has a 
remaining useful life approximately to the year 2004. If 
everything goes perfectly, it will take 7 years to complete the 
design, acquire the needed right-of-way, and construct the 
replacement; and (2) the facility is owned 100 percent by the 
Federal Government, and that has significant ramifications.
    Senator Warner. Let me interrupt you at that point because 
we've got to isolate what ``it'' is. Is ``it'' the structure 
that goes from waterside to waterside, or is ``it'' a structure 
which extends further into the various States, or is ``it'' the 
combined series of bridge plus interchange?
    Mr. Martinez. Sir, as I believe yourself and other 
colleagues sitting with you have mentioned, if this were a 
State-owned facility, say if it were over the James River, we 
would be required to address not only the capacity requirement 
of the facility through the planning horizon year, which right 
now is the year 2020, but also the approaches. If you take away 
the approaches, for example, if we were to take away the 
separation of the traffic, and if we were to take away the 
Telegraph intersection and the Indian Head intersection, what 
you would be talking about is having an impact therefore on the 
number of lanes that would be required to move the traffic at 
capacity if the bridge alone were sustaining that issue. If you 
take away the separation of the traffic and those interchanges, 
you could be talking about a bridge as many as 16 lanes in 
width. So you cannot divide one from the other.
    The Federal Government, for very logical reasons, when you 
have a Federal aid structure, say over the James River, they 
require that we be exhaustive not only on the bridge itself 
when you replace it, but on all of the approaches.
    Senator Warner. In other words, you say ``it'' is the 
entire five miles. Is that right?
    Mr. Martinez. I'm saying, yes, sir, that it is the entire 
length that you have depicted up there. That's the debate, 
that's the issue before us. If you want to start knocking other 
issues out, you've got a problem on your hands. Let me add that 
the $830 million figure that was used earlier today does not, 
for example, include some of the environmental mitigation 
issues that are required to comply with the NEPA. For example, 
the environmental decks are not included in that price tag. 
That, again, you're going to jeopardize the NEPA approval for 
this facility. So we've got to be very careful on those numbers 
and how we slice them, sir.
    If I could just continue briefly. Had the bridge been owned 
by a State or by the States, Virginia or Maryland, it would 
have been addressed in the early 1980's in the Interstate 
Completion program under the Final Interstate Cost Estimate. 
Federal funding in that program was set at 90 percent, and, 
most importantly--and this goes really to Senator Mikulski's 
comment before and to some of Representative Hoyer's comments--
most important, under that program, all funds were provided 
above the normal Federal aid apportionments to each State. So 
such projects were funded in addition to the normal State 
apportionments.
    Let me point out, Senator Mikulski, that the Fort McHenry 
Tunnel, it is not just an issue that that was 90-10, it was 90-
10 under that program. So it was 90-10 above Maryland's normal 
State apportionments. So it is not just an issue of whether or 
not we get 90-10 here, but if it is going to be above our 
apportionment in Virginia and Maryland or otherwise.
    Senator Mikulski. That's my viewpoint, too. I don't want to 
be misunderstood here.
    Mr. Martinez. Yes, ma'am, but I wanted to make that 
clarification. Furthermore, under the cost-to-complete 
character of that program, the Federal share grew commensurate 
with the actual cost of the project and was not just based on a 
one time project cost estimate.
    The only reason that the bridge was not then addressed was 
because it was owned 100 percent by the Federal Government. We 
should not now be penalized as a result thereof.
    I see the red light so I will conclude by----
    Senator Warner. Mr. Secretary, take a minute or two 
additional.
    Mr. Martinez. Thank you. On the issue about the approaches, 
I have already in response to you, Senator Warner, explained 
how we would be required under Federal regulations to do the 
approaches as well as the structure. It is our view that the 
Federal Government cannot absolve themselves from meeting 
exactly the same requirements that they impose on all the 
States because for once we're talking about a 100 percent 
federally owned facility.
    Back in 1995, Senator Warner, with your dedicated 
leadership, the National Highway System bill included a 
provision blessing the establishment by the three jurisdictions 
of the creation of an authority able to assume ownership of the 
bridge once the new structure were in place. All three of us--
Maryland, the District of Columbia, and Virginia--have enacted 
legislation creating such an authority. We three have shown 
good faith in moving forward to provide the legal framework 
that could allow for acceptance of the new bridge. We reiterate 
our commitment to provide the mechanism to assume title to the 
bridge and absolve the Federal Government from any future 
special obligation, but restate that we will only do so when 
the Federal funding commitment has been met.
    In closing, let me just say that within the framework of 
meeting the functional transportation needs for the bridge and 
its approaches, and with complete adherence to all 
environmental regulations, Maryland and Virginia have been 
working on ways we might reduce the overall cost of the 
facility. I am confident we will be able to reach significant 
reductions, but the final cost will remain huge. We stand 
willing to continue our cost efforts, as long as capacity and 
environmental considerations are fully respected. I thank you.
    Senator Warner. Thank you.
    We will now hear from Mr. Winstead.
    Senator Sarbanes. Mr. Chairman, could I simply say that the 
very kind words you expressed with respect to Mr. Martinez, his 
professionalism and his high competence, apply in every respect 
to Secretary Winstead. We're very pleased that he is here with 
us today.
    Senator Warner. I thank the Senator. I'm sure that's 
correct. My understanding from my State is there's been 
excellent cooperation between Maryland and Virginia as we 
approach the resolution of these issues.

       STATEMENT OF HON. DAVID L. WINSTEAD, SECRETARY OF 
               TRANSPORTATION, STATE OF MARYLAND

    Mr. Winstead. Thank you, Chairman Warner, Senator Sarbanes 
for those comments, Senator Mikulski, Congressman Hoyer, 
Congressman Wynn, members of the Virginia House. I am pleased 
to be here.
    I think this project from the beginning with the leadership 
of FHWA has been a regional project. We have been committed to 
working with Virginia and D.C. on this and I think it has been 
reflected in the efforts of the Coordination Committee in the 
numerous meetings VDOT, Maryland DOT, FHA, and D.C. Public 
Works and Transportation have had. And this has been to the 
highest level. Rob and I last fall toured the underpinnings of 
the bridge, essentially the support structures, with then 
Federal Highway Administrator Rodney Slater, now Secretary of 
Transportation. We have had numerous meetings there since.
    The need for this bridge has been demonstrated by both Rob 
and previous testimony. In terms of the validity of the design 
reached by the Coordination Committee, I would mention that I 
concur with Rob's assessment that we have a NEPA process that 
has been adhered to. It has chosen a design that meets design 
standards for the year 2020. Your question, Mr. Chairman, to 
Jane Garvey about the danger of touching and manipulating with 
structural and functional components is there. We have a very, 
very delicately balanced conclusion in terms of the 
recommendation for the bridge.
    I would also just concur quickly that the legal precedent, 
the funding issues of 90-10 on Interstate construction, 80-20 
on others, this is a Federal facility. There are 1,400 projects 
that have been submitted, many members from the Maryland 
delegation have submitted them, for ISTEA reauthorization. This 
is not one of them. This should not be considered as a 
demonstration project. In addition, the National Highway 
Designation Act of 1995, and with your support on that and 
others, has agreed with the States on funding by the Federal 
Government.
    The cost is what it is because of Federal planning 
regulations set by the scope of the study, 2020. We feel that 
special Federal funding is the only conclusion.
    I would like to stress a little different point than Rob 
mentioned, and that is that on the issue that you all are 
wrestling with, and we need to speak on behalf of Governor 
Glendenning and the Department, are there any alternatives to 
funding for this bridge? The answer to that is, no, there are 
not. First of all, it is Federal bridge. Second, tolls are 
impractical in terms of the congestion they would cause on 
really the East Coast linkage between Maryland and Virginia. 
There would be significant congestion and any kind of tolling 
would be out of the question in terms of its ability 
financially to be practical as well as politically practical.
    The States cannot pay for this project. You all work weekly 
through now this ISTEA reauthorization to ensure that we are 
getting the highest level, and from the standpoint of Maryland 
that's ISTEA, and reauthorizing that where we get 1.72 percent 
of all Federal money. That is constrained, however. If you look 
on a practical level in Maryland, we only get $300 million a 
year for Federal highway money. The members from Maryland know 
this, but we've got $775 million of State needs, State-owned 
facility needs annually piling upon itself and we only have a 
capital program of about $2 billion, $1 billion a year in terms 
of capital to address that. So Maryland, Virginia, and D.C. are 
not in a position to afford this project, one, and, second, it 
is not a demonstration project.
    I would mention that there are issues of cost reduction. 
Rob has looked at that, and I think that this can be addressed 
through the value engineering process. We are now out as of 
last Friday with a contractor to manage that process. I would 
say that the cost savings could not be substantial, but we 
would look to that. But I must mention that we are very 
concerned about dealing with functionalities; of abandoning 
interchanges, of ramps, things of that nature. That is a 
dangerous move, particularly with the recommendations of the 
Woodrow Wilson Bridge Coordination Committee.
    Congressman Moran has left, but particularly on the issue 
of a 10-lane structure, I think that was addressed by Jane 
Garvey and Rob, a 10-lane structure would create queueings of 
two miles on the crossing of the Woodrow Wilson Bridge. It 
would increase congestion for 4 hours during the peak rush hour 
period. We have a major problem of congestion in both the 
metropolitan Washington area and the metropolitan Baltimore 
area. We are the second most costly region in the country in 
terms of loss of productivity because of congestion in 
metropolitan Washington, Baltimore is 13th. So any option that 
increases that is not a practical option.
    Second, the $4 million budget figure is just inadequate. It 
is inadequate because it doesn't meet the purpose and needs in 
the NEPA process which was targeted 2020.
    The last thing I would mention is on financing. I believe I 
know OMB's position and I know what is in the budget, and I 
know that you all are wrestling with ISTEA reauthorization at a 
time in which we're looking at overall funding levels that are 
not where they should be at $26 billion a year to really meet 
the needs in this country. The one thing we would be willing to 
do is looking at some Federal funding over a long period of 
time, creative funding perhaps on a longer period. But I would 
stress that any alternative that places any claim on a match in 
current allocated State funds or future allocated State funds 
is just unacceptable. The money is not there and it is all 
meeting other State transportation needs, not Federal.
    In conclusion, I would just like to mention that we are 
very appreciative of your engagement and the leadership of 
everybody here and the Coordination Committee. We have had a 
successful outcome in terms of a recommended structure last 
fall. We are wrestling with a difficult issue of you all trying 
to balance the Federal budget. But bear in mind, this is a 
Federal facility. Everybody agrees that it needs to be rebuilt 
before we have serious problems and perhaps safety issues. The 
only way, based upon what I've said on the funding side, is for 
the Federal Government to recognize this, remove it from any 
discussion that this is a demonstration project, and get on 
with coming up with money needed to rebuild this bridge. Thank 
you.
    Senator Warner. Thank you very much, Mr. Secretary.
    Mr. Laden, we welcome you.

STATEMENT OF KENNETH LADEN, ADMINISTRATOR, OFFICE OF POLICY AND 
   PLANNING, DEPARTMENT OF PUBLIC WORKS, DISTRICT OF COLUMBIA

    Mr. Laden. Good morning, Chairman Warner and members of the 
Virginia and Maryland congressional delegations. My name is Ken 
Laden. I am the Acting Administrator for Policy and Planning 
within the D.C. Department of Public Works. I am here this 
morning on behalf of Cell Bernardino, who could not be with us 
today, to provide testimony regarding the replacement of the 
Woodrow Wilson Bridge as part of the reauthorization of the 
Intermodal Surface Transportation Efficiency Act.
    The District strongly supports the positions expressed by 
Secretary Martinez and Secretary Winstead. We feel the Woodrow 
Wilson Bridge is a vital regional transportation facility which 
is in need of immediate replacement. The bridge is currently 
handling a much larger volume of traffic than was originally 
intended. The Washington metropolitan region cannot afford to 
take a ``wait and see'' position regarding replacement of the 
bridge. Congress needs to take immediate action to ensure that 
a new bridge is in place before a catastrophic failure of the 
existing bridge causes serious disruption to the region's 
economy and possible loss of life.
    The Department of Public Works has been actively 
coordinating the planning of the replacement bridge with 
Maryland and Virginia and Federal transportation officials. The 
District is a signatory to legislation which would create a 
regional authority to operate the replacement bridge.
    Our major concerns regarding replacement of the Woodrow 
Wilson Bridge are outlined below:
    1. The existing bridge was constructed with 100 percent 
Federal funds. The bridge is a Federal bridge, and we maintain 
that the replacement bridge should be paid for with 100 percent 
Federal funds.
    2. The District will not make any capital contribution to 
the design and construction of a replacement bridge which 
connects Maryland and Virginia. Neither would we agree to have 
any portion of the District's allocation of Federal Highway 
funds diverted to pay a portion of the replacement for the 
Woodrow Wilson Bridge. We have many other critical 
transportation needs within the District of Columbia which must 
be addressed with our local and Federal transportation funds. 
This bridge is located outside the District of Columbia.
    3. The District of Columbia does not favor the imposition 
of tolls to pay for a replacement bridge. We believe that a 
toll would divert traffic from this bridge through the District 
into the northern portions of I-295, the other Potomac River 
bridge crossings, and thereby increase traffic and congestion 
and air pollution in the District of Columbia.
    We look forward to working with the Federal Highway 
Administration, State officials from Maryland and Virginia, as 
well as local governments and interest groups in the Washington 
metropolitan area to ensure that a replace bridge is built as 
soon as possible. We look to Congress to play a central role in 
financing this essential transportation facility.
    I want to thank you for the opportunity to provide this 
testimony. Thank you.
    Senator Warner. Thank you very much.
    Just briefly to the panel, as I understand the testimony 
given by each of you, there is unanimity that the present 
design as formulated over a number of years by the Coordination 
Committee is agreeable to all three jurisdictions?
    Mr. Martinez. Yes, sir, that is correct.
    Senator Warner. And that is 10 lanes operating with 
construction to facilitate 2 additional lanes at some point in 
the future, and a facility, call it a path or something, to 
accommodate bike and pedestrian travellers. Is that correct?
    Mr. Martinez. Yes, sir, that's correct. In fact, in 
Virginia the Commonwealth Transportation Board, which, as you 
know, has the statutory authority if this were a Virginia only 
project, approved that Coordination Committee outcome.
    Senator Warner. And further, the Federal Government says 
they believe that the federally owned property stops here at 
the shoreline plus such support. Your concept is that it is a 
total project, therefore Federal responsibility for the entire 
five miles rather than the physical construction of the bridge 
itself?
    Mr. Martinez. If the Federal regulations were to hold here 
as they hold everywhere else in the United States, then the 
answer is yes.
    Senator Warner. That's the point. That's a very important 
point.
    Mr. Winstead. That's correct, Senator, from the Maryland 
standpoint.
    Senator Warner. We understand that, and that is the 
consensus I think on the delegation. But I am just trying 
rather dramatically point out the wide divergence between the 
testimony now given this morning by the Federal Government and 
the respective testimony given by the several States and the 
District of Columbia. That just poses the magnitude before this 
delegation as we take this issue to the floor.
    I certainly agree with you, Mr. Winstead, and I'm sure Rob 
Martinez has said it certainly to me many times, this is not to 
be viewed as another pork barrel demonstration project fostered 
by the delegations of the two States together with the District 
of Columbia. Rather, it is a Federal responsibility serving the 
Nation as a whole. And as such, the Federal Government must go 
back and review the financing accordingly. Thank you very much.
    Senator Sarbanes?
    Senator Sarbanes. Thank you, Mr. Chairman. First of all, I 
want to thank this panel for I think some very effective and 
articulate testimony. We appreciate it. I also join with you in 
underscoring the fact that it is certainly reasonable that the 
concept that the Federal Government in terms of its 
responsibilities ought to assume would be the same concept it 
would impose upon the States if, as Mr. Martinez says, this was 
a bridge across the James River.
    I just want to touch on one other point, because I don't 
think enough attention is being paid to it. As I understand it, 
assuming we can find appropriate Federal funding for this 
bridge, once it is completed, you are prepared to assume the 
responsibility for the bridge. Is that correct?
    Mr. Winstead. Yes, sir. We, the jurisdictions, would work 
together to find the appropriate mechanism and assume title to 
this facility.
    Senator Sarbanes. So you're taking off of the Federal 
Government and assuming yourselves the burden into the future 
of the repair, the rehabilitation, et cetera with respect to 
this bridge ad infinitum. Is that correct?
    Mr. Winstead. Yes, sir.
    Mr. Martinez. That's correct, sir.
    Senator Sarbanes. Now that's worth substantial 
consideration. I wouldn't try to cost it out right here at the 
table, although we might seek some information from you, but it 
would seem to me that that represents a considerable benefit to 
the Federal Government in this matter. In other words, we're 
pushing them hard now to really come up with their share to 
replace the bridge and everyone is focused on that. We haven't 
had much attention paid to the fact that, once this is done, 
the bridge then becomes no longer a responsibility of the 
Federal Government. And I would think that would be worth, as 
you project it out into the future, a considerable amount of 
money. Now, am I wrong in that perception?
    Mr. Winstead. Senator, you're exactly right. Not only are 
we going to work out the details, but we have actually put in 
place legislation that would allow for the establishment of an 
authority to do just this; take away the title, take on 
operation, take on maintenance and any future rehabilitation or 
expansion of capacity on the bridge. So that is substantial 
consideration for the position that you all are taking and the 
States are taking with FHWA on this point. Second, they should 
realize it gets them out of the bridge business, which would be 
another consideration in addition to the cost.
    Senator Sarbanes. Thank you, Mr. Chairman.
    Senator Warner. Thank you very much, Senator. That's an 
important point. The carrying cost will be borne by taxpayers 
in the several States and an allocation for the District of 
Columbia.
    Senator Mikulski?
    Senator Mikulski. Mr. Chairman, actually, I have no 
questions of the panel. I think that their testimony was 
comprehensive and showed a kind of collegial regional 
cooperation that is much needed not only in transportation, but 
in other affairs.
    I want to really acknowledge the fact that I think we're 
very mindful of Governor Glendenning's position, which I think 
parallels Governor Allen's as well as Mayor Barry's. I also 
want to be very clear, Mr. Martinez, as you indicated, that 
when they talk about these formulas, the construction was over 
and above what States got for highways/byways. I want you to 
know when I engaged Ms. Garvey in her testimony that was also 
very much in my mind. So when I said that sounded good, I know 
that it would have meant that Maryland would take three to 5 
years to do that, certainly the District is enormously hard 
pressed now and I think those in the region are sympathetic to 
that, and also to Governor Allen's position.
    Mr. Martinez. I was supporting you wholeheartedly, not 
contradicting you, Senator.
    Senator Mikulski. No, no, no. I thank you for raising the 
issue because I do think that the initial Federal position was 
skimpy, spartan, and would jeopardize the project. I think 
Senator Sarbanes' comments about who is going to keep on paying 
the bills was important.
    So I want to thank you for the testimony, and look forward 
to working with all of you. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Warner. Thank you very much, Senator.
    Congressman Hoyer?
    Mr. Hoyer. I have no questions. I think we all agree.
    Senator Warner. Mr. Wynn?
    Mr. Wynn. I have no questions. I want to thank these 
gentlemen. I've had the opportunity to work with them on this 
project and their leadership has been tremendous. And I would 
like to single out our own Secretary of Transportation David 
Winstead because he's been really diligent working the project 
and we appreciate your efforts.
    Mr. Winstead. Thank you.
    Senator Warner. Congressman Wolf?
    Mr. Wolf. I have no questions. I want to thank the panel. I 
think your point is well-taken. This is not a highway 
demonstration project as other projects around the country. As 
somebody mentioned, there are 400-some requests. This is a 
Federal responsibility and completely, absolutely, totally 
different than the normal projects that come up here. Thank you 
very much for your testimony.
    Senator Sarbanes. Frank, would you yield for just a moment. 
I want to underscore the point that Congressman Wolf made 
earlier because I think it is another important dimension to 
this, and that is that the neglect of addressing this problem 
on a timely basis on the part of the Federal Government has, in 
fact, resulted in escalating the cost of trying now to remedy 
this situation. So as we come at the Federal Government sort of 
saying you need to really step up here and take on your 
responsibilities, I think that's another added dimension for 
making that argument, as well as the one I just outlined that 
thereafter the States are going to assume this burden.
    Senator Warner. Senator Robb?
    Senator Robb. Mr. Chairman, there is not much disagreement 
here. I thank the panel for not only their excellent 
presentations, but for their regional cooperation; and we will 
soon hear from the localities as well as the business community 
and others. That is indeed commendable. We thank you and we 
appreciate the fact that we have established on this project 
the kind of Federal-State relationship that makes things move 
forward rather than end up in gridlock. And I salute you for 
your leadership in that area. Thank you.
    Senator Warner. Thank you, Senator.
    I just have one further observation. This hearing this 
morning, and my distinguished colleague Senator Mikulski just 
mentioned it to me, has I think very clearly once again framed 
the divergence at the present time between the approach of the 
Federal Government and the several States. Each of you have 
stressed the fact that this is not to be viewed as just a State 
project for the two States and the District. Which brings me to 
my last observation, and it is one which I ask you to reflect 
on and then communicate back to me and your respective Members 
of Congress.
    Through the 18 years that I've been privileged to be here 
and working with issues such as this one, I have found that 
your national organization of the Secretaries of Transportation 
of the 50 States is a very key, very vocal, very respected 
voice in the Congress. A burden then devolves on you to work 
with that organization to explain the reasoning that we've 
heard today that this is not to be viewed as a project 
comparable to others being requested by your Members of 
Congress. Hopefully, we can get the support of that 
organization. If we can get the support of that organization, 
then I think those of us here in the Congress that have to go 
to the floor and arduously and strenuously get the maximum 
Federal participation, which again comes from that Highway 
Trust Fund, we'll have our strongest ally.
    Mr. Winstead. Senator, I appreciate that. Both Rob and I 
are very active in AASHTO.
    Senator Warner. I know.
    Mr. Winstead. I'm vice president this year and will be 
president next September, so I will certainly take that message 
back.
    Senator Warner. I thank you very much, Mr. Winstead. You 
recognize the importance of having AASHTO. I think your 
colleagues can understand very clearly and put aside political 
considerations and see the importance of this as a Nation's 
project.
    Thank you very, very much, each of you.
    Senator Warner. We will now hear from our next panel. The 
Honorable Kerry J. Donley, mayor of the city of Alexandria; Ms. 
Katherine K. Hanley, chairman, Fairfax Board of Supervisors; 
Mr. John Collins, senior vice president of the American 
Trucking Association; Mr. Wayne Curry, county executive, Prince 
Georges County; Ms. Susan Williams, chairman, the Greater 
Washington Board of Trade.
    Mayor Donley, why don't you start off?

  STATEMENT OF HON. KERRY J. DONLEY, MAYOR, CITY OF ALEXANDRIA

    Mayor Donley. Good morning, Mr. Chairman. I am Kerry 
Donley, the mayor of the city of Alexandria. I want to thank 
you for providing the City this opportunity to present its 
views on a topic of great interest to our residents and, in 
fact, all residents of the Washington, D.C. metropolitan area.
    Senator Warner. I make note for the record so there is no 
perception conflict, I am privileged to be a resident in your 
jurisdiction. You are my mayor.
    Mayor Donley. And we are privileged to have you, Senator.
    Senator Warner. But I nevertheless have the higher 
responsibility of looking at this project with total 
objectivity, and I'll do just that.
    Mayor Donley. I'm sure you will. You always have and you 
will in the future.
    Senator Warner. From the Virginia point of view, yes.
    [Laughter.]
    I fear, Mr. Chairman, that the much-needed replacement for 
the deteriorating Woodrow Wilson Bridge is slipping into a 
morass of budget bickering, intergovernmental posturing, and 
potential environmental litigation. This comes as a result of a 
seriously flawed $1.6 billion replacement proposal put forth by 
the Woodrow Wilson Bridge Coordination Committee under the 
auspices of the U.S. Department of Transportation. The risk 
grows by the day that there will be an unacceptable delay in 
the construction of an expanded facility. This delay is not 
acceptable to anyone participating in this hearing or to the 
citizens of the metropolitan region.
    You, Mr. Chairman, have wisely called upon the Department 
of Transportation and others to propose lower cost design 
alternatives to the Coordination Committee's proposal. It is 
now time for all involved to come together in a realistic, 
cost-effective, and transportation-efficient alternative.
    Alexandria agrees that the Woodrow Wilson Bridge needs to 
be replaced, and needs to be replaced quickly. But that, of 
course, is not the sole issue. The critical issue is the nature 
of the replacement facility, more particularly, a facility (a) 
that will meet the future traffic demands of the region, (b) 
that is affordable without the imposition of tolls, and (c) 
that can be accomplished without unreasonable delay.
    The Coordination Committee's 12-lane replacement proposal, 
at a cost of $1.6 billion in present dollars and over $1.8 
billion in future dollars, has flunked the criterion of 
affordability. Mr. Chairman, I believe that a scaled down 10-
lane bridge, similar to the 10-lane American Legion Bridge at 
the north end of the Capital Beltway, best meets these 
criteria. And let me explain why.
    Senator Warner. One technical point. It was brought out 
this morning that this bridge is to be built with 10 lanes with 
just the expansion capability to go to 12.
    Mayor Donley. I understand that distinction. That is a 
distinction that Alexandria fought for.
    Senator Warner. So what would be your view? That we not 
have the added expansion capability and simply have just the 10 
lanes, is that it?
    Mayor Donley. Our position would be that we have 10 lanes, 
4 in each direction plus 2 merge lanes to accommodate the 
traffic that merges onto the Woodrow Wilson Bridge each 
afternoon and morning.
    Senator Warner. That point of view was advocated presumably 
to the Woodrow Wilson Bridge Coordination Committee over the 
years; am I not correct?
    Mayor Donley. That is correct. It was an alternative that 
was put forth by Congressman Moran during the public hearings 
in the environmental process.
    Senator Warner. So it has been, in your judgment, certainly 
put before that committee?
    Mayor Donley. Yes. And as I continue with my testimony, I 
think you will see that it has been evaluated as well.
    The 10-lane bridge removes all of the existing bottlenecks. 
Morning and afternoon peak period traffic backups at the Wilson 
Bridge are caused by two features of the present bridge design. 
First, four lanes of the outer and inner loops of the Capital 
Beltway feed into three lanes on the bridge and three lanes 
that approach the bridge. Second, traffic entering the bride 
corridor from U.S. Route 1 and Interstate 295 is forced to 
merge into lanes that are already clogged with traffic.
    These two backup-producing features are completely 
eliminated by a 10-lane replacement bridge. Four lanes are 
provided for the outer and inner loops of the bridge, these 
match the four inner and outer loops of the beltway. The 
remaining two bridge lanes are dedicated to traffic that is 
entering and exiting the bridge at Route 1 and Interstate 295. 
These simple improvements are all that are necessary to remove 
the bottlenecks now responsible for peak period backups at the 
bridge.
    A 10-lane bridge also avoids tolls. If the Federal funding 
does not increase beyond $400 million currently proposed by the 
Administration, the 12-lane Coordination Committee bridge would 
require Virginia and Maryland commuters to pay nearly $1,000 a 
year in tolls to fill the funding gap. That would be $4 a day, 
$2 each way. In addition, toll plazas would increase traffic 
backups during peak periods, and will adversely affect air 
quality. Tolls must be avoided on the replacement bridge, and a 
10-lane facility with substantially lower costs can do this.
    A 10-lane facility with HOV lanes will handle future 
traffic as well as the proposed 12-lane bridge and, without HOV 
lanes, actually I believe will outperform it. The FHWA's own 
transportation report on the bridge projects that traffic 
across the bridge in the year 2020 will be almost double 
today's traffic. The same report compares the ability of a 10-
lane replacement facility to handle this future traffic with 
the ability of the Coordination Committee's 12-lane facility. 
This report shows that during the morning and evening peak 
hours in 2020, a 10-lane bridge, with 2 HOV lanes, will carry 
across the river between 92 percent, on the outer loop in the 
evening, and 98 percent, on the outer loop in the morning, of 
the vehicles that the 12-lane bridge would carry, also with HOV 
lanes.
    Even more important, our analysis reveals in 2020 a 10-lane 
bridge without HOV lanes will carry more traffic across the 
river during the morning and evening peak hours in all 
directions than the proposed 12-lane facility. I doubt that any 
reasonable taxpayer would conclude that improving the bridge 
traffic problems and performance in the year 2020 by only 2 or 
even 8 percent during the most heavily travelled periods of the 
day, and not at all if HOV lanes are excluded from the 10-lane 
facility, warrants the expenditure of hundreds of millions of 
additional taxpayer dollars that the 12-lane facility requires.
    The dedication of two lanes for HOV purposes is just not 
justified. The Coordination Committee's 12-lane facility 
requires its 11th and 12th lanes to be used exclusively for HOV 
purposes. The construction of these two HOV lanes, along with 
the ramps and other interchange features at Route 1, Interstate 
295, and Maryland Route 210 which provide access to and from 
the HOV lanes, require additional expenditures of hundreds of 
millions of dollars. Are these two dedicated HOV lanes and 
their related facilities worth the cost? I think not.
    The FHWA transportation report shows that HOV lanes will be 
significantly under-utilized in the year 2020. Indeed, during 
the morning peak hour in 2020, the inner loop HOV lanes of a 
12-lane facility is projected to operate at 15 percent of the 
lane's per hour capacity, and the outer loop HOV lane at only 
40 percent of capacity. During the evening peak hour, the outer 
loop HOV lane is projected to be at 15 percent of capacity, and 
the inner loop at 36 percent of capacity. Obviously, the usage 
of these lanes during non-peak hour periods would be much 
lower.
    These rates of HOV utilization projected by FHWA for the 
most heavily travelled portions of the day in 2020 do not in 
any sense justify spending hundreds of millions to expand a 10-
lane to a 12-lane facility with 2 lanes dedicated exclusively 
for HOV. These is especially so since, as I've noted, a 10-lane 
bridge without HOV will actually out-perform a 12-lane facility 
with HOV lanes in carrying traffic across the Potomac during 
the peak hours in the year 2020.
    This is also especially so since HOV lanes on the bridge 
are obviously useless unless there are HOV lanes on the 
beltway. Widening of the beltway for this purpose is highly 
doubtful.
    A 10-lane bridge is not based on a faulty assumption that 
drives the 12-lane facility. The predominant justification for 
the 12-lane bridge lies in an assumption that the Capital 
Beltway in both Virginia and Maryland will be widened from 8 
lanes to 10, 2 of which will be dedicated to HOV usage. This 
expanded roadway is estimated to cost in today's dollars in 
excess of $5 billion.
    The FHWA's transportation report concludes that if the 
beltway is not expanded, a 10-lane Woodrow Wilson Bridge 
replacement is perfectly sufficient, both now and in the 
future. I believe it is unrealistic to believe, in light of 
today's fiscal realities, that Congress, or Virginia or 
Maryland for that matter, will be prepared to fund the $5 
billion-plus beltway widening program that is needed to justify 
the 12-lane replacement bridge. Without the widening of the 
beltway, a 10-lane bridge without HOV is all that's needed.
    I understand there exists a concern that a decision to 
approve a replacement project other than the 12-lane facility 
recommended by the Coordination Committee may require 
additional environmental analysis and my produce a substantial 
delay in the start of this process. This should not be the 
case.
    Initially, I note some delay is likely to occur even with 
the Committee's 12-lane proposal. This is because the air 
quality conformity analysis on the Woodrow Wilson Bridge 
improvements, required by the Clean Air Act and performed in 
1996 by the region's Transportation Planning Board, was for a 
10-lane replacement facility, and assumed no changes in the 
existing interchanges. In a recent letter to the TPB, the 
Environmental Protection Agency has indicated that this 
conformity analysis is flawed since it addresses a 10-lane, 
rather than the Coordination Committee's 12-lane, bridge, and 
because it failed to address the air quality impacts associated 
with the interchange revisions called for by the Coordination 
Committee. Thus, a new air quality conformity analysis would be 
needed to be undertaken even if the Committee's recommendation 
were adopted.
    Whether additional environmental analysis and possibly 
supplemental environmental impact statements would be required 
for a 10-lane facility is a decision that actually is to be 
made by FHWA. This decision will turn on the magnitude of the 
change in the project and the extent to which significant 
environmental impacts have not already been addressed by the 
environmental studies and statements prepared to date.
    Even if additional work is needed, however, it will not be 
significant. The 10-lane replacement bridge has already been 
addressed, to a large extent, in the environmental documents. 
Moreover, a 10-lane facility obviously has fewer environmental 
impacts than a 12-lane facility. In 1996, FHWA prepared a 
supplemental environmental impact statement that addressed both 
a variety of bridge/tunnel alternatives and a double span. This 
was done in less than 3 months. I know this was a concern of 
the Chairman.
    Any supplemental statement on a 10-lane facility, in light 
of the analysis already done on this alternative, should not 
take any longer, and thus no longer delay than we would already 
experience due to the air quality conformity analysis.
    Again, on behalf of the citizens of Alexandria, I want to 
thank you for your leadership, Mr. Chairman, and for the 
opportunity to present the City's views.
    In closing, I would like to state that today's Federal 
budget limitations and the necessity to reduce substantially 
the cost of the Woodrow Wilson Bridge dictate that we look at a 
scaled back facility. The process to date has been long and 
complex. The decision is now in the Federal arena, and I 
believe it is time for a common-sense approach and a sensible 
bridge for today, a sensible bridge for tomorrow, and not a 
monument to a highway traffic engineer's best dream.
    Finally, Mr. Chairman, Alexandria's position is not one of 
``Not In My Back Yard.'' We've lived with the Woodrow Wilson 
Bridge for decades and we'll continue to do so. In fact, we 
advocate a 60 percent increase in lane capacity, a position we 
believe is both responsible and sensible. Thank you very much.
    Senator Warner. I thank you, Mr. Mayor.
    Panel, we have learned that Mr. Curry has an obligation, 
and I wonder if you would accommodate him by allowing him to go 
next.
    Mr. Curry, we will put your entire statement in the record. 
Why don't you just give us a good strong summary, as you are 
fully capable of doing.

  STATEMENT OF WAYNE CURRY, COUNTY EXECUTIVE, PRINCE GEORGES 
                        COUNTY, MARYLAND

    Mr. Curry. Yes, sir. Thank you, Mr. Chairman and members 
here present. I appreciate the opportunity to summarize. I wish 
I were in a position to thank Mayor Donley for reminding us of 
all the issues that we debated for more than a couple of years 
before a decision was made.
    In this instance, however, my job is somewhat easier. All 
of the cogent arguments have been made. And mindful that no 
one's head can absorb any more than their behind can endure, 
I'm going to make a few emphasizing remarks.
    One is that these issues have been fully debated at the 
insistence or initiative of the Federal Government in a 
comprehensive regional committee in which all of these 
arguments were made, and there resulted a regional agreement 
about what should be done at the bridge. In much the same way 
that you can't squeeze a balloon in the middle without creating 
impacts at its ends, we can't change all of the considerations 
that resulted in a coherent traffic pattern around this bridge.
    You all have made the proper arguments about the ownership, 
about the future, about the capacity, about the safety, about 
the durability of this bridge. And we all know that it won't 
endure, that sooner or later it is going to wind up being a 
splash in the Potomac River, and so we must act, and act now.
    Those of us who have been working together regionally 
recognize that. We have a conclusion and a recommendation I 
think that works for everyone. Frankly, I think you've pointed 
out the hypocrisy and the inadequacy of the current funding 
position taken by the Federal Government.
    From a local standpoint, however, I want to humanize it 
just a little bit. We invited thousands of people to 
participate in this process, and they did. We sent them 
thousands of notifications, and they digested it. Having done 
all of that, and recognizing the impact on commuting patterns 
and business, I see no reason for us to controvert the work of 
that Committee, but rather to work together to try to achieve 
the resources we need to get the job done.
    I appreciate your leadership and your continued commitment, 
and particularly that of our local delegation in Maryland. I am 
very grateful for it. Thank you, Mr. Chairman.
    Senator Warner. Thank you, Mr. Curry. And your constituents 
are very proud of the fact that you came forward today and gave 
us your statement. Thank you very much.
    Now, Ms. Hanley. I have I must say a great admiration for 
our next witness. We campaigned together, inadvertently.
    [Laughter.]
    Senator Warner. Whenever I was in your area, I tried as 
best I could to stand right behind her while the television 
cameras were on.
    Ms. Hanley. With great success, I might add, Senator.
    Senator Warner. That's correct. With some modest success, 
yes. And I thank you, Ms. Hanley.

 STATEMENT OF KATHERINE K. HANLEY, CHAIRMAN, FAIRFAX BOARD OF 
                     SUPERVISORS, VIRGINIA

    Ms. Hanley. Thank you, Mr. Chairman, for providing this 
opportunity to appear before you and the subcommittee to 
present comments on behalf of Fairfax County regarding the 
Woodrow Wilson Bridge.
    Fairfax County has a major interest in ensuring that this 
project is advanced at the earliest possible date so that this 
major river crossing is replaced with a facility that is 
designed and constructed to accommodate future demand, in terms 
of the citizens who live in this region as well as for those 
who use this bridge as part of travel on the I-95 corridor on 
the eastern seaboard. Fairfax County has been involved in the 
study and development of the project recommendations related to 
this project.
    On September 9, 1996, the Fairfax County Board of 
Supervisors unanimously endorsed the 12-lane replacement as the 
preferred and technically warranted option to improve regional 
mobility and economic stability in the I-95 corridor. The 
County supports a 12-lane bridge and has taken no specific 
position regarding the overall width of the structure. This 
recommendation has also been endorsed by the Regional 
Transportation Planning Board in January 1997. As you may note, 
this has been on a lot of agendas.
    On September 26, 1996, following more than 3 years of 
detailed study and analysis, the Woodrow Wilson Bridge 
Coordination Committee, a body made up of major regional 
stakeholders, whom you're hearing from today, including 
Federal, State, and local leaders, selected the 12-lane, side-
by-side drawbridge concept as the preferred alternative for the 
replacement of the aging Potomac River span. This alternative 
was selected, as Mr. Curry has said, following exhaustive input 
and analysis by citizens and transportation professionals.
    Studies conducted by the Virginia Department of 
Transportation and the Metropolitan Washington Council of 
Governments have indicated a need for 16 to 18 lanes on the 
beltway to allow for regional growth. However, through the 
Woodrow Wilson Bridge study, regional leadership has already 
agreed to a compromise from 18 lanes down to 12 lanes. Further 
compromises on the number of lanes will place even more 
constraints on the ability to balance interstate travel and 
commuter traffic needs in Fairfax County, from which 30 percent 
of Wilson Bridge traffic originates.
    A 12-lane bridge, in local express configuration, will 
provide superior safety and merging operations. Such a facility 
will move traffic bottlenecks, improve carrying capacity, 
reduce travel times, improve safety, and provide the 
flexibility for future HOV or transit operations. The Woodrow 
Wilson Bridge Coordination Committee's own studies have shown 
that the 12-lane express/local configuration is needed to 
reduce congestion during peak periods and save travel time for 
commuters.
    It is also essential that the interchanges encompassed in 
the study area be improved to enhance local and interstate 
access to businesses and residences in the corridor.
    We must build for the future. The Council of Governments 
has projected a 43 percent increase in regional population and 
1.1 million new jobs over the design year of the new bridge. 
Also projected is a region-wide 60 percent increase in total 
vehicle trips, but only a 20 percent increase in planned 
highway capacity. The Wilson Bridge, as part of the Capital 
Beltway, is the only major facility in this corridor with the 
ability to expand with reasonable environmental impacts.
    I urge you to endorse and provide full Federal funding for 
the Wilson Bridge Coordination Committee's preferred 
alternative without reducing the number of lanes across the 
bridge or eliminating access improvements at interchanges. At 
the risk of repeating what everyone has said today, so I'll say 
it again, unlike any other bridge in the country, this bridge 
is owned by the Federal Government. Therefore, it is essential 
that the Federal funding made available for this project should 
not be counted against regular Federal funds that are allocated 
to Virginia, and therefore to Fairfax County, for other 
critical transportation projects.
    Thank you for the opportunity to provide comments on behalf 
of Fairfax County on this critical project of regional 
significance.
    Senator Warner. Thank you very much, Ms. Hanley. A very 
good statement. We'll come back with questions momentarily.
    Mr. Collins?

 STATEMENT OF JOHN J. COLLINS, SENIOR VICE PRESIDENT, AMERICAN 
                      TRUCKING ASSOCIATION

    Mr. Collins. Mr. Chairman, thank you very much for having 
the American Trucking Association here today. I would like to 
thank you for your leadership on this issue. You took a 
leadership role in 1995 with the NHS Designation legislation. 
We look forward to your continued leadership.
    I'd like to join others in urging the timely replacement of 
the Woodrow Wilson Bridge and make four points. First, there 
should be full Federal funding of the project; second, there 
should be no tolls on the project; third, we urge the maximum 
amount of capacity to plan for the future, with a minimum 
footprint of the size of the bridge; and fourth, and something 
I would like to discuss with you, is an extended authorization 
period for funding and a phased construction process.
    Mr. Chairman, ATA has appeared before this committee many 
times as the national representative of the trucking industry. 
We're certainly here today in that capacity. The I-95 corridor 
is absolutely essential to commerce up and down the east coast. 
But we're also here as a Virginia constituent and a stakeholder 
in Alexandria. Our headquarters building is within the project 
area and our 400 employees are impacted daily by what goes on 
on the Wilson Bridge. We're at the first tag there, the tag on 
the left-hand side; that's our building. So whatever happens 
with the building of the Woodrow Wilson Bridge directly impacts 
us.
    I would like to put a little bit of a human face on the 
impact of delay. We serve customers on both sides of the 
bridge. The bridge is really a conveyor belt between Maryland 
and Virginia. To give you some examples of that, Giant and 
Safeway have their food distribution centers in Landover, 
Maryland. Every day their trucks serving northern Virginia come 
back and forth across the Woodrow Wilson Bridge. Our big 
concern is that someday a civil engineer walks out underneath 
that bridge on the catwalk, as Congressman Wynn and I did a few 
months ago, and says, ``We're not making a political decision 
here, but we're weight posting this bridge.'' At that point, no 
busses, no recreational vehicles, and no trucks go across the 
bridge. And those Giant and Safeway trucks have to do a major 
detour to get to the shelves in northern Virginia.
    Senator Warner. Why don't you describe that detour.
    Mr. Collins. The detour could be up to 60 miles long and it 
would be over the bridges that we all know--it would be over 
the 14th Street Bridge, it could be, although you can imagine 
the additional mileage and congestion, going all the way around 
to the American Legion Bridge.
    There is a concern on the Maryland side, most of the people 
in southern Maryland get their fuel oil delivered by truck that 
comes from the Newington, Virginia pipeline. It is sort of a 
spigot where the fuel oil comes out. Those trucks go back and 
forth across the Woodrow Wilson Bridge. If the bridge is 
posted, those trucks would have to go over local roads, would 
have to go through Alexandria on 395 or on other roads to get 
to other bridges. So it is a major concern. We're concerned 
about the added congestion, we're concerned about the exposure 
of those trucks to more accidents.
    Fully fund the bridge--I think there has been a unanimous 
view on that, so I won't go further into that.
    No tolls is important to us for two reasons. The first is, 
we're going through all of this to get rid of congestion around 
the bridge. It is I think fundamentally stupid to design a 
project to get rid of congestion and then put a toll barrier. 
It's called a barrier for good reason--because it's a barrier 
to people moving smoothly. The most dangerous speed on an 
interstate highway is zero. When you have people stopped in 
front of you, it is a greater opportunity for an accident, and 
perhaps a serious accident.
    The other thing is, as an Alexandria stakeholder, the place 
the toll would be is right where our people have lunch. They 
sit outside in nice weather like today. Our property is 
immediately adjacent to I-95. So to us, congestion, pollution 
have a very real impact.
    We're looking for maximum capacity with a minimum 
footprint. That's kind of technical jargon for saying let's 
have the 12-lane capacity there but let's send the engineers 
back and they should be able to knock 25 feet off the width 
pretty easily. Let's see if they can downscale some of the 
interchanges to reduce the impact there as well.
    Finally, dealing with the problem that I know you have to 
deal with, how do you shoe-horn $1.6 billion into what you can 
work with. I would urge the committee to look at an extended 
authorization period for the Woodrow Wilson Bridge.
    Senator Warner. Very important point.
    Mr. Collins. There is precedent for that. The Congress 
before has put in 5-year provisions for some programs in a 4-
year bill. You did that in 1982. If you just use what you 
talked to Secretary Slater about, if you said that the 
Administration agreed to a program of $150 million a year for 6 
years and then had a 12-year authorization, at that point you 
have enough money to fully fund the program out of Federal 
resources.
    Senator Warner. We've got that formula, and your idea is 
good. I think my colleagues all agree that we're devising such 
a formula. Very key point.
    Mr. Collins. Excellent. And if you can give them the 
ability to give grant anticipation notes, it's like local 
jurisdictions issue revenue anticipation notes, you can handle 
a lot of the timing problems. And the other thing with phased 
construction, there is no real reason that the Telegraph Road 
interchange is done in the first 5 years. It could wait until 
the end of the period.
    That concludes my statement, Mr. Chairman. We are 
interested in having the Federal Government fully fund, we do 
want no tolls, we want maximum capacity and minimum footprint, 
and finally, with an extended authorization, it really lets the 
committee think outside the box and so other jurisdictions 
don't confront the problem you described before of seeing every 
dollar that goes for this project being taken out of their 
pocket. Thank you.
    Senator Warner. Thank you.
    Would my colleagues indulge me in a 1-minute short story of 
my first introduction to a bridge problem. I was Secretary of 
the Navy. It was 5 in the morning and somehow the Governor, I 
won't identify him of either Maryland or Virginia, got through 
the Pentagon switchboard, got my telephone number, and awakened 
me to tell me that during the night a storm had occurred and a 
naval barge had broken loose from its moorings and taken out 
the center section of a bridge. Well, it took me about 10 
minutes to get a grasp on this situation and to calm him down. 
Then he said, this fuel oil story reminded me, he said, ``I 
have some others who wish to speak to you.'' Whereupon he put 
the phone up and I heard the doggonedest racket I've ever heard 
in my life. I said, ``Governor, I don't understand what the 
racket is.'' He said, ``That's 10,000 chickens starving waiting 
for their breakfast.''
    [Laughter.]
    Senator Warner. So I have a full appreciation of the 
importance of bridges in getting the fuel oil and the chicken 
feed delivered.
    Ms. Williams, how fortunate we are to have you here. You, 
in a very distinguished career, had a public service chapter as 
an assistant secretary of the Department of Transportation. You 
bring to the witness table, you bring to this lively debate a 
background of knowledge in this area and of wisdom which is 
badly needed. We welcome your testimony.

 STATEMENT OF SUSAN WILLIAMS, CHAIRMAN, THE GREATER WASHINGTON 
                         BOARD OF TRADE

    Ms. Williams. Thank you, Mr. Chairman. Mr. Chairman and 
distinguished members of our regional delegation, I am Susan 
Williams and I am here as chairman of the Greater Washington 
Board of Trade which, as you know, is a regional body, it's a 
regional chamber of commerce that includes suburban Maryland, 
northern Virginia, and the District of Columbia.
    I have just done some rapid editing on my comments and I 
would hope that they could be included in the record. For time 
considerations, I will just summarize. I want to restate the 
principals of the Board of Trade to rebuild the bridge, and to 
recommend a target date for completion.
    First, we insist on full Federal funding and no tolls. Can 
you imagine the beltway with tolls? This funding should cover 
the bridge itself plus the cost of modifications and 
improvements to approach lanes and interchanges where required 
by Federal regulations.
    Second, examine project costs/project phasing. Given the 
challenges in funding this project, it would be useful to 
closely examine the project cost to determine if there is any 
latitude in streamlining these costs while maintaining the 
traffic capacity of the recommended alternative. We have been 
consistently concerned about bells and whistles. For instance, 
we understand the current design items include HOV lanes, an 
urban deck, and an island deck which cumulatively add well over 
$100 million to the total project. We continue to hear a wide 
range of back of the envelope ``guesstimates'' as to how much 
the project might cost. If there are real savings to be 
accomplished while maintaining the project's integrity, then we 
really want to know this.
    We understand the urgency in moving ahead on this project. 
We suggest that an examination be made of phasing the 
construction of various components of the replacement 
structure. Are there essential segments of the construction 
that could proceed on a fast track basis while others are 
phased in later? As we've all said, the situation is critical 
and we hope we can all be flexible.
    Third, the governing mechanism. The 1995 Highway Act gives 
consent for an Interstate Compact to be put in place as the 
governing mechanism to oversee the construction and ownership 
of the replacement bridge. Final action of the legislatures in 
Maryland, Virginia, and the District should be completed by 
April 1998. If the authority is not established at the State 
level, then Congress should put in place an entity to undertake 
this effort. By year end, Federal funds to build the bridge 
replacement should be transferred to a holding entity for later 
use.
    Waiver of environmental impact statement. If any 
requirements or refinements of construction phasing is 
required, we would obviously want to avoid any major procedural 
delays. An enormous amount of time and effort has already been 
devoted to the environmental concerns surrounding options for 
this project. It is suggested, therefore, that to maintain a 
reasonable completion schedule, further EIS requirements 
related exclusively to the 12-lane recommended alternative of 
the Woodrow Wilson Bridge Coordination Committee be waived.
    Ribbon-cutting July 4, 2004. As the existing bridge has no 
more than 8 years of useful life remaining, it is important for 
reasons of safety, mobility, and economic development to open 
the replacement bridge in no more than 8 years, or 6 years as 
we heard earlier. We must urgently commit ourselves to a 
completion date and ribbon-cutting of July 4, 2004, and hold 
the region accountable for this opening date. We can't wait any 
longer.
    The Board of Trade will keep the Woodrow Wilson Bridge as 
its main transportation priority. We will walk the halls, we 
will help in any way we can to make sure this becomes a 
reality. And we are very grateful for the leadership that you 
have all shown on this important issue. Thank you for letting 
me appear before you today.
    Senator Warner. We thank you, Ms. Williams. We appreciate 
your expression. It has been a joint leadership of the 
congressional delegation as a whole.
    My first question is to Ms. Hanley. The most repeated quote 
that has reverberated through this hearing room since 9:30 this 
morning--this bridge is owned by the Federal Government. What 
do you understand exactly to be owned by the Federal 
Government? What is not owned but yet should be regarded as 
owned by the Federal Government?
    Ms. Hanley. Well, as the only facility like this I gather 
in the entire country that is owned by the Federal Government, 
it would seem to us in Fairfax that the Federal Government, 
and, therefore, through the Federal budget, has the obligation 
to maintain and repair it.
    Senator Warner. I understand that. But I guess technically 
speaking, it is just the footings and the bridge itself is what 
is owned by the Federal Government. This is something we're 
going to wrestle with.
    Ms. Hanley. In listening to the earlier discussion, it 
would seem, however, you can't build a bridge without getting 
to it.
    Senator Warner. Correct.
    Ms. Hanley. The requirements imposed by the FHWA on the 
States for improvements should be the same for the Federal 
Government.
    Senator Warner. Maybe we ought to substitute responsibility 
for ownership, a Federal responsibility, and that would 
embrace----
    Ms. Hanley. Absolutely. I agree with you. I will now wander 
around saying that instead.
    Senator Sarbanes. Ms. Hanley, I don't have the impression 
of you that you wander around anywhere. I think you know 
exactly where you're going at all times.
    Ms. Hanley. While I'm standing in front of Senator Warner 
at least on those TV appearances, I'll say it's a Federal 
responsibility.
    Senator Warner. Now Ms. Williams, put your hat on as an 
assistant secretary of Transportation and you're working with 
the Congress on this concept that this bridge is one that's a 
Federal responsibility. How would you, if you were on our side, 
put forth a persuasive argument for the secretary of 
Transportation to embrace the totality of these costs?
    Ms. Williams. I think everybody stated it earlier, and I am 
with you on this, I think it is a unique bridge and it is 
clearly the Federal Government's responsibility. Maybe phasing 
gives you the flexibility that you need. But I think everybody 
has sort of gone over that ground this morning. As long as all 
the components are included, you could build the most important 
piece first and phase in the different sections as long as the 
whole picture was going to be completed.
    Senator Warner. Historically, within the Department there 
has got to be a concept, a record that this is a Federal 
responsibility, and this is simply a continuation of that 
responsibility. I think that's the thesis of the argument.
    Mr. Mayor, just in a few words, put aside your text, you, 
together with others who will soon be testifying, a number of 
your residents have come together in various groups, and you 
know the witness list today, but this is something that is very 
fervently felt by the community. The community is facing this 
astonishing figure of I believe an estimated 43 percent growth 
in the region.
    Alexandrians, quite properly want to preserve not only for 
themselves but for the whole of America the uniqueness of this 
historic community. A part of that is your desire to see that 
the physical size of this bridge is reduced. What is the 
critical difference between 10 and 12 lanes as it relates to 
the environmental and intangible considerations that are of 
such great importance to the residents of your community?
    I get up every morning and listen to the highway report. 
Every one in the region starts with the Woodrow Wilson Bridge. 
This project is going to have perhaps one of the most 
significant economic and cultural and environmental impacts on 
this greater metropolitan area of anything in my lifetime, 
comparable to putting the Pentagon down. What is it that you 
think could be adversely affected in this community of historic 
recognition by the margin of 10 to 12 lanes?
    Mayor Donley. Let me state for the record that, first of 
all, we believe that 10 actually works better than 12. Because 
actually what you've done is you've increased the carrying 
capacity for vehicles to five lanes across the Woodrow Wilson 
Bridge as opposed to trying to jam what is the vast majority of 
local traffic into three lanes. That's why a 10-lane facility 
actually works better than a 12-lane facility.
    But let me also answer the question from a couple of 
different perspectives. We've been talking about number of 
lanes. What we haven't talked about is one of the elements in 
this particular proposal by the Coordination Committee, and 
that is the actual width of the span itself. The span we're 
talking about is designed, or at least projected by the Woodrow 
Wilson Bridge Coordination Committee, to be as wide as a 
football field is long. So your reasonable 12 lanes of traffic 
at 12 feet width would be 144 feet, and yet we're talking about 
something that's almost 300 feet wide. You build in some 
shoulders for safety considerations, 200 feet would seem 
reasonable. But we're still talking about something in a 300 
foot range. That is the span that goes across the Potomac 
River.
    When you get onto land at the interchanges which we're 
talking about, many of which are constructed to accommodate 
express/local configuration as well as HOV, the roadway is over 
400 feet wide. Needless to say, I don't have to tell you the 
potential impacts that would have on what is recognized as a 
National Historic District, that being Old Town Alexandria, not 
to mention a major recreation center at Jones Park, as well as 
a recreation center which is at the very northern tip of the 
Route 1 interchange.
    You talked about the regional growth and regional 
perspective. But what we are ignoring in this whole debate 
about the Woodrow Wilson Bridge is the fact of where is that 
growth going to occur. That growth is going to occur largely to 
our south and to our west. Commuting is about making choices; 
it is about making choices of modes of transportation, it is 
about making choices on routes of transportation. What we 
ignore in this whole process is the fact that the growth will 
be south and west of Alexandria and we're not giving those 
residents any choices but the Woodrow Wilson Bridge. If you 
live in southern Prince Georges County and you work in Fairfax 
County, you have one option to get across the Potomac River and 
that is the Woodrow Wilson Bridge. We totally ignore the 
potential for a more efficient alternative that would be a 
southern crossing that would alleviate a lot of the demand at 
the Woodrow Wilson Bridge crossing.
    Senator Warner. We thank you, Mr. Mayor.
    Yes, Mr. Collins?
    Mr. Collins. Mr. Chairman, if I could just pick up on a 
point that you made earlier about not being a bridge engineer 
yourself, although getting some training for it. We come at 
this with sort of a simple-minded view that right now there are 
12 lanes of Interstate highways leading up on the Maryland 
side, with 4 lanes of 295 and 8 lanes of the beltway. So there 
are already 12 lanes of traffic coming in. And on the Virginia 
side there are already 8 lanes of Interstate highway plus 8 
more lanes of very high capacity, what an engineer would call 
arterials, with the Parkway and then Route 1. Congressman Moran 
said before, ``If you build it, they will come.'' They are 
already there. And so you have 12 lanes on one side, 16 lanes 
on the other. We shouldn't put ourselves in the same position 
that people were back in the 1960's saying let's just build a 
6-lane bridge.
    Senator Warner. Thank you.
    Mr. Sarbanes?
    Senator Sarbanes. Thank you, Mr. Chairman.
    Let me put this to you, Mr. Collins, because you are a 
transportation man. This notion of building another bridge 
somewhere, what is that going to cost? And then you have all 
the connecting roads that would have to feed into some other 
bridge like that. You're talking about another huge costly 
project, would you not be?
    Mr. Collins. That's absolutely correct, Senator. Not only 
that, if you look at the experience around the Washington, D.C. 
area with the Three Sisters Bridge and other bridges that have 
been proposed, building a new bridge on a new location creates 
a whole new rachet up of environmental impacts. I think we have 
a consensus on this bridge. The city of Alexandria has taken a 
very responsible position knowing that the bridge is already 
there. We're able to do anything here because the bridge is 
already there. Talking about a bridge on a new location and new 
roads coming in and new growth around that area is, to us, a 
huge spider web of environmental problems.
    Mayor Donley. Mr. Chairman, if I might add, because I think 
it is appropriate since we're talking about another bridge, 
that if we wait until the development to the south and 
development to the west occurs that I mentioned earlier, the 
only options that will be available when we finally do realize 
that a southern crossing is necessary would be those that are 
the most environmentally sensitive.
    If we're going to potentially look at another crossing 
south of the Woodrow Wilson crossing, now is the time to do it 
while we can use some of the existing roadways that are 
currently in existence 10 to 15 miles south of the Woodrow 
Wilson crossing and not wait until the environmental impacts 
are too great.
    Senator Sarbanes. All right. I take it Alexandria is 
agreeable to a 10-lane bridge, is that correct?
    Mayor Donley. Alexandria is agreeable to a 10-lane bridge. 
Essentially, what Alexandria would be agreeable to would be the 
recommended alternative without the HOV. That's what's driving 
I think an inefficient facility.
    Senator Sarbanes. Did you participate in the Coordination 
Committee?
    Mayor Donley. Yes, I did.
    Senator Sarbanes. Weren't these issues discussed at great 
length in the Coordination Committee?
    Mayor Donley. Yes, they were. Again, I think if you take a 
look at the Coordination Committee's traffic projections that 
are found in the environmental document itself, you will see 
that the efficiencies of the HOV do not warrant the additional 
expenditures. I might add that it was Alexandria's position 
throughout the Coordination Committee's consideration that a 
10-lane facility would be sufficient.
    Senator Sarbanes. We understand the problem you're 
confronting. I'm sort of sympathetic in trying to work it out 
within the framework of the Coordination Committee's 
recommendation. In other words, Mr. Collins has talked about 
maintaining the capacity with the least footprint, and that 
seems to me sort of a positive and constructive way to think 
about this problem. But we established a process and we went 
through agony to work through that process. To simply sort of 
reopen it all again it seems to me is just going to create 
another lengthy delay which others have testified very strongly 
against.
    I don't really want to argue the point. But I understand 
the concerns and pressures that are operating upon you, and I'm 
sure we're going to hear from the next panel about that. So 
we're not oblivious to these sensitivities. But this is 
obviously a very difficult problem to work out.
    Mayor Donley. I agree with the difficulty and complexity, 
and I might add, there was never any reluctance on behalf of 
the Coordination Committee at one of its meetings to reopen an 
alternative that had been rejected earlier, that being a high 
span 12-lane bridge which then required further delay and more 
study and a supplemental EIS. In addition, some of the flaws 
that exist already, as I mentioned in my testimony, the air 
quality conformity analysis is flawed and will have to be 
performed again. There is ample time to examine both the 10-
lane facility and do so without substantial delay.
    Senator Sarbanes. Ms. Hanley, you wanted to comment?
    Ms. Hanley. One of the things I would like us to not forget 
this morning as we're talking about this is that both Maryland 
and Virginia are studying HOV capacity on the beltway. As we 
talk about concentrating development in areas where there are 
already facilities, and as the beltway becomes our main street 
in the suburbs, we have to remember that we may well need HOV 
capacity on the beltway in order to be able to run bus on the 
beltway. And as we talk about improving our transit mobility in 
the existing capacities, HOV is important. HOV is very 
controversial in many ways, but we can't forget that we're 
trying to move people not vehicles.
    I think Kerry would agree that to redo the conformity 
analysis for air quality, HOV is not one of those things that 
violates air quality in the same way that additional SOV lanes 
do. As a matter of fact, as someone said earlier this morning, 
we have the premier HOV experiments in the country in Virginia. 
I am sure that the corridors in Maryland have the same kind of 
HOV access. So it would be difficult for us to eliminate the 
option as we think about people trying to get, from my 
perspective, to Tyson's Corner, which is a major employment 
center for all over the region, without some way to have it 
accessible by transit, and bus is transit.
    Senator Sarbanes. Thank you.
    Senator Warner. Congressman Hoyer?
    Mr. Hoyer. Thank you, Senator. I'm not going to ask any 
questions. I just want to make a couple of comments. One, I 
think the testimony has been excellent; well prepared, well 
thought out. Obviously, Mr. Mayor, we understand the particular 
perspective that you correctly have and we hear what you're 
saying. For Ms. Williams, I want to congratulate the Board of 
Trade, who has worked with my office and every one of our 
offices for many, many years, for having shown great vision on 
the transportation problems confronting us, not just 
immediately in the 5-year or 10 year cycle, but well into the 
next century. They do excellent work and are of great 
assistance to my office.
    Ms. Williams. Thank you very much.
    Senator Warner. Congressman Wynn?
    Mr. Wynn. Thank you very much. I too won't make any 
extensive comments or address questions. I do want to thank all 
the people who participated in the process, the local officials 
particularly who were the backbone of the Coordination 
Committee effort. I want to thank the Board of Trade for their 
leadership. They came by my office first to discuss this issue 
with me and begin talking about a reasonable transportation 
authority that could take over ownership of the bridge, if we 
resolve this first question. I appreciate the leadership they 
have shown throughout. The American Trucking Association has 
played an integral role in talking about how commercial transit 
is affected by this.
    I also want to indicate to Mr. Donley that I'm sensitive to 
your concerns and respect your position. I do think this has 
been a lengthy process and compromises were made by all. You 
mentioned the fact that people wanted to reopen the issue over 
the size of the bridge span, but we didn't. People who did not 
want drawbridges were not able to prevail. So in that spirit, I 
believe it has been a good effort. I would like to move forward 
and emphasize getting the money. Thank you.
    Senator Warner. Thank you, Congressman Wynn.
    Senator Robb?
    Senator Robb. Not a bad way to end, just ``Show me the 
money.'' Mr. Chairman, I want to join all of you in thanking 
our witnesses this morning. It has been very helpful testimony. 
You have been at this for a long time. We do have one more 
panel, so I will permit them to come forward a moment or two 
earlier by not asking any more questions. I thank you.
    Senator Warner. Thank you very much, Senator.
    Colleagues, we will now have our next panel. We thank this 
panel very much.
    Senator Warner. Our final panel is Mr. Jonas Neihardt, 
president, Old Town Civic Association, Mr. Robert Montague, 
Alexandria Historical Restoration and Preservation Committee, 
Mr. Randal Kell, Vice Chairman of Government Affairs, 
Alexandria Chamber of Commerce, and Mr. Mike Lewis, Chairman of 
Legislative Affairs, Fairfax County Chamber of Commerce.
    Mr. Neihardt, are you ready to lead off?
    Mr. Neihardt. I am, Mr. Chairman.
    Senator Warner. Thank you.

    STATEMENT OF JONAS NEIHARDT, PRESIDENT, OLD TOWN CIVIC 
               ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. Neihardt. Mr. Chairman, I am Jonas Neihardt, president 
of the Old Town Civic Association in Alexandria, Virginia. I 
want to thank you for calling this hearing, as I think it is 
fair to say that this process has gone off course. Our 
President doesn't support the design that was recommended by 
the Coordination Committee and it doesn't appear that is 
fundable. I'll explain how we got into this situation, and I 
will conclude with a way out which I think is appropriate.
    The Old Town Civic Association has worked since 1951 to 
preserve and nurture the Historic District in Alexandria as a 
living museum for future generations to learn from and enjoy. 
Unfortunately, Mr. Chairman, this living museum is threatened 
by the prospect of the bridge that we have discussed all 
morning that is 244-feet wide, and I'm here to say that plan is 
fiscally, environmentally, and historically irresponsible.
    Old Town is not a theme park with a maintenance crew that 
is commanded by our mayor. All the work that is necessary to 
preserve the Historic District is done by us residents. 
Therefore, for Alexandria to continue as a national treasure 
that is visited by folks from all over the Nation and world it 
must be suitable to live in, and, again, I am here to say that 
the 244-foot wide bridge will make a majority----
    Senator Warner. May I interrupt. I am going to have that 
very important graphic design placed up here so that our 
cameras can capture it for the audience and people elsewhere in 
the Senate that are looking at it.
    Mr. Neihardt. Thank you, Mr. Chairman.
    Senator Warner. That's a fairly awesome representation.
    Mr. Neihardt. Thank you, sir. I included that as an 
attachment to my testimony so it is part of my written 
statement. I would only embellish by saying that it is one 
thing to look at the bridge sort of from outer space, which is 
as you had it depicted before you previously, and quite 
something else to view it from the ground or near the ground, 
which is what you see before you right now.
    Senator Warner. Is this done by a computer extrapolating 
from the current design? You might explain how this was put 
together. And if you don't know for certain, you can supplement 
it for the record because it is very important that we 
understand exactly how this was made.
    Mr. Neihardt. This, to my understanding, is an accurate 
representation of the spaghetti which will come out of the 244-
foot wide bridge at the first major intersection which is Route 
1.
    This graphic is a blow-up of a photograph of a FHWA model 
of the proposed Wilson Bridge replacement. The model resides in 
the Woodrow Wilson Design and Study Center, and the photograph 
was taken in June 1996. The configuration of the Interchange 
depicted in the model was determined by FHWA based on lane 
capacity of a 12-lane, 244-foot wide Woodrow Wilson Bridge 
replacement and interchange requirements of the Route 1 
interchange.
    Senator Warner. Exactly how it was put together.
    Mr. Neihardt. Yes, sir. I think if you were to put the 
other graphic back up, you would see as many loops and lines. 
Again, this is just looking at it from the ground.
    I would only add that it is a lot of work to maintain a 
200-year old home in the Historic District. It takes a lot of 
time and energy and money. Neither we, the current residents, 
nor anyone else is going to wish to stay there and do that if 
we have to live next to that. We've tolerated the current 
bridge, 96-feet wide, for about 30 years, and this bridge, 
which is almost three times as wide, would really push us over 
the edge and we would leave and there's no guarantee that the 
people who come in after us will take as good care of the place 
as we have.
    Senator Warner. You might give the distance between this 
old home and this projected interchange.
    Mr. Neihardt. I think the nearest homes, which aren't 
necessarily the oldest homes, are right in the shadow. I think 
Bob can tell us how far it is from the first National Register 
property to the bridge. A few blocks maybe?
    Mr. Montague. Yes. Maybe four.
    Mr. Neihardt. Four blocks. And they're short blocks in Old 
Town because, again, they were laid out by our first President 
George Washington. They are smaller than blocks that we have in 
newer cities.
    Senator Warner. Mr. Montague, do you wish to be recorded 
there?
    Mr. Montague. It's perfectly all right.
    Senator Warner. Fine. Thank you.
    Mr. Neihardt. I would only say, Mr. Chairman and Senators, 
look to other large urban bridges and where they make landfall 
in our cities around the country and I think you will see that 
those are blighted areas. Those are not areas where people want 
to live. That is what we fear will happen to the Old and 
Historic District.
    It is not enjoyable or sustainable to live in a community 
that's bisected by 244-feet of concrete. If you've ever left 
New York City and driven down the New Jersey Turnpike through 
Newark, it is 12 lanes right there with all the separations 
that are contemplated by the Design Center study. It is 
probably the ugliest place in America, in my opinion. We have 
no Senators here from New Jersey, so I'll say that. But I don't 
think that's what we want to do to Alexandria.
    It is kind of ironic because we would argue that the 244-
foot wide bridge isn't needed. We only have eight lanes on the 
beltway. We definitely need eight through lanes and, as Mayor 
Donley said, an additional two merge lanes. That was the 
proposal that was laid out by Congressman Moran. It is 150-feet 
wide and it is 10 lanes. The debate has unfortunately been 
between 10 and 12 lanes. That sounds like not much of a 
difference and maybe we can compromise on 11. But what we're 
really talking about here, what's really important is 150-feet 
of impact versus 244-feet of impact.
    Senator Warner. Do you know to the extent safety 
considerations drove the engineers from whatever figures you 
used up to the 244?
    Mr. Neihardt. I'm sure that safety considerations were a 
part of that. All I can say is that one of the problems of this 
study was that the Design Center was supposed to go out and 
design the thing without regard to cost. These guys dutifully 
went out and designed a huge bridge that is designed to carry 
double the capacity of the current bridge. It has all the bells 
and whistles and it is as wide as it is because there were no 
cost constraints.
    Senator Warner. I think you're correct on that observation. 
But bear in mind, those of us who were around when 66 was 
planned, the day the ribbon was cut it was outdated. We've been 
playing catch-up all these years at a much higher expense than 
if the original design had been to accommodate such growth.
    Mr. Neihardt. I recognize that, Mr. Chairman. What I would 
say as an appropriate reaction to that is that the second major 
flaw in this study is that the study was limited to the 
corridor immediately adjacent to the Wilson Bridge. Whether the 
FHA determined that they were so limited or if they were 
directed to just look at that area, it's not really clear to 
me, but they didn't look to the south at a possible second 
crossing. Unfortunately, there isn't another crossing across 
the Potomac for 45 miles. That's not a sustainable situation. 
And as a result, because the designers had no cost limitations 
and because they didn't feel they were allowed to look to the 
south at a potential second crossing, they designed this bridge 
to handle all the traffic in the metropolitan area and that's 
why it is as big as it is.
    I really have two recommendations. No. 1, I would support a 
downsizing of the project to 10 real lanes and about 150 feet, 
with some flexibility, being roughly 150 feet.
    Senator Warner. I'm sure taking into consideration safety 
features. That's paramount.
    Mr. Neihardt. Yes, sir. And an authorization from you all 
for these folks to go down and look a second bridge to the 
south. Again, looking at the I-66 experience, you can't build 
your way out of congestion. If you expand a road, it will fill 
up. I think what you have to do in a situation like Washington, 
D.C. is disperse traffic, give people other ways to get across 
the river, and then you're not going to have the kind of 
bottlenecks we have today.
    I am going to conclude. This is a very complex issue. We've 
been here all morning. When I'm confronted with complex issues, 
and I think you do, too, as senators, you look to some of our 
basic precepts as a country, you look to the Founding Fathers 
and their values, and I think about George Washington. George 
Washington lived in Mount Vernon, loved this part of the 
country, ran his business out of Alexandria, and he thought 
that this stretch of the Potomac from Mount Vernon up to the 
mouth of the Anacostia was really the most beautiful place in 
America, and that's why he lived there, ran his business there, 
chose Alexandria as his home town, and chose Washington, DC as 
our Nation's capital. I am very confident that he is looking 
over our decisionmaking in this process, and I think it would 
be a real tragedy to defile his river and his town with a 
bridge that is much too large and doesn't respect the place 
that he held very dear. I will close with that statement.
    Senator Warner. Thank you, Mr. Neihardt.
    Mr. Montague?

STATEMENT OF ROBERT MONTAGUE, ALEXANDRIA HISTORICAL RESTORATION 
                   AND PRESERVATION COMMITTEE

    Mr. Montague. That's a very difficult statement to follow 
because it was so good. My name is Robert L. Montague. I am 
chairman of the city of Alexandria Historical Restoration and 
Preservation Commission. We are a local government agency that 
is constituted to own real estate as much as anything else, and 
to be an advocate for preservation issues when the need arises. 
We own the Lloyd House on North Washington Street in fee simple 
and have an easement program over a number of other properties 
in the Old and Historic District. That is our principal 
function.
    We have been drawn into this discussion of the Woodrow 
Wilson Bridge because it has such a devastating potential 
impact on the historic resources that we are charged with 
overseeing and trying to protect, and that is why I've been 
involved in this for a while. I'm not as emersed in it as some 
of the other speakers are because I'm purely a volunteer in 
this matter.
    We are very much concerned with the width of this bridge. 
We could advocate an 8-lane bridge and be satisfied with that 
to relieve the bottleneck of the beltway, and we can tolerate a 
10-lane bridge if that were to be the solution that was 
compromised upon. But we are really adamantly opposed to a 244-
foot wide structure. It will have a vastly greater impact on 
the interchange areas than it really does over the river 
itself. Those interchange areas are somewhat loaded with 
historic resources. We have archeological sites that have not 
yet been fully discovered underneath gas stations, we have 
houses and buildings and roadways that are of historic landmark 
character that collectively comprise the National Register 
Historic District of Alexandria that will be fully impacted by 
this project. The impact will not be limited to the proposed 
area of potential effect that has been discussed most recently 
by the highway analysis.
    We are very concerned by the flaws in the analysis that has 
been going on thus far and have submitted comments as to the 
errors and omissions and oversights in that process which 
seriously need to be corrected before we have a sound basis on 
which to plan the future of this project. We really need to 
look very hard at Congressman Moran's 10-lane proposal. It has 
not received the kind of consideration that it really is 
entitled to in arriving at a proper solution to this very real 
problem.
    I am a user of this bridge myself, and I certainly am not 
here to say don't put it in my backyard. We all do need it. But 
I think our friends in Maryland may be a little more 
insensitive to the historic preservation issue than they should 
be. They have places like Fort McHenry and Annapolis and surely 
they should be as sensitive as we are in Alexandria to the fact 
that we have a priceless national resource to protect that is 
very fragile and can be, as Mr. Neihardt has pointed out, 
seriously undermined if the citizens who maintain it on a 
house-by-house basis lose heart. And I am encountering that 
kind of feeling in Alexandria.
    I have been a part of this community all my life. My aunt 
wrote the book ``Seaport in Virginia: George Washington's 
Alexandria,'' and helped to start the commission that I'm 
chairman of. We have been involved in fighting preservation 
issues ever since I've been old enough to know what an issue 
was. This is probably the most compelling problem we may ever 
have to face in regard to how to go about protecting the 
Historic District of Alexandria.
    We cannot go on loading endless additional amounts of 
traffic into this very fragile corridor. We need to spread the 
load somehow. And we need to include other modes of 
transportation besides just the automobile and the truck in our 
thinking for that matter. I really wouldn't mind a bridge that 
had a sidewalk and a bike path going across it just as much as 
cars and trucks. But I think we probably have made a mistake 
not looking at a tunnel harder if we're going to spend the kind 
of money that we're talking about spending on a 12-lane bridge.
    I think the bottom line issue is fiscal responsibility as 
much as historic preservation in this whole issue. I think you 
can serve both causes by going back to the drawing board long 
enough to look at Congressman Moran's 10-lane proposal. It is a 
lot less expensive because the interchanges that it is required 
to have to support it are much less expensive, much less land-
consuming, much less destructive to the historic resource, and 
will save the Government a lot of money. I think in the rest of 
the country you're going to be competing with other States for 
these funds and it is not going to be that easy to get the 
amount of money we're talking about to do this bridge over. It 
may be that you'll wind up having to settle for just redecking 
the existing bridge before you're through.
    I hope that all this 12-lane bridge really amounts to is a 
bargaining tactic and that we will wind up with something that 
is more protective of the Historic District while being more 
fiscally responsible and solving a transportation problem.
    Senator Warner. Thank you, Mr. Montague, very much. I think 
we're fortunate to have the benefit of community leaders like 
yourself who come forward and give perspectives other than the 
State and----
    Mr. Montague. I'm the fellow who showed up in the 
Washington Post walking his dog under the bridge the other day, 
in case any of you saw that.
    Senator Warner. Oh, yes. I frequently walk along there and 
sort of in my own way look at that bridge and hope I can get 
some divine province to figure this thing out.
    Now, Mr. Kell.

STATEMENT OF RANDAL KELL, VICE CHAIRMAN OF GOVERNMENT AFFAIRS, 
                 ALEXANDRIA CHAMBER OF COMMERCE

    Mr. Kell. Good afternoon, Senator Warner, Senator Sarbanes.
    Senator Warner. Good afternoon. I guess it is afternoon, 
isn't it?
    Mr. Kell. Yes.
    Senator Warner. I've been so absorbed I lost track of time.
    Mr. Kell. I'm Randy Kell. I'm the chief executive officer 
of the Mark Winkler Company. I am appearing today as a 
volunteer representative of the Alexandria Chamber of Commerce. 
I serve on the Chamber's board and as its vice chair for 
governmental affairs.
    Before proceeding, I would just like to take a minute to 
thank you personally, Senator Warner, for the leadership that 
you've shown on the bridge issue. I know that it is difficult 
enough to satisfy your constituents on matters of great public 
policy importance. I think it is probably even more difficult 
to satisfy your friends and neighbors on issues regarding the 
bridge which you can see and hear from your front porch as you 
discuss these issues with your neighbors. We appreciate your 
continuing leadership.
    Senator Warner. Thank you.
    Mr. Kell. The Alexandria Chamber of Commerce is the largest 
business organization in Alexandria. We have 1,000 business 
members representing over 40,000 employees. We have been very 
active in the discussions leading to these decisions regarding 
the bridge, and we'll continue to do so.
    We do think that Alexandria deserves special consideration; 
that the neighborhoods, the Historic District, and the adjacent 
property owners deserve special consideration. We think that it 
was a good result to avoid a high bridge. We think that's a 
positive result for Alexandria. We think that other special 
consideration will be given to the city and the impact on the 
city as the design proceeds. For example, I think the rendering 
of the interchange is of an interchange that won't be the final 
interchange. I think that the design committee intends to 
refine that interchange, and it is contemplated by all that it 
will be refined, so that it won't have that kind of impact.
    From a business perspective, our interest is we want the 
replacement bridge to be the best affordable solution which 
will resolve the traffic problems that we've been encountering 
for years for the longest period and most flexibly. We have 
avoided getting into the discussion of 10 versus 12 lanes. I 
think that as the design proceeds, we will be getting into 
those issues a little bit more, and later on in my comments I 
would like to address that.
    Our main emphasis though is on the necessity for speed. 
We've talked about the potential disaster that looms ahead of 
us here if we don't move forward. We in the business community 
have found through hard practical lessons that it is often 
better to implement quickly practical solutions rather than 
delay to find a perfect solution to the problem, especially 
when the delay in implementations would risk the kind of 
disaster that we're facing today.
    We've talked a little bit about full Federal funding, a 
whole lot about it, so I don't think I need to say more about 
that.
    We support a further refinement of both the bridge and 
interchange. We anticipate that this kind of refinement will 
result in some downsizing of the footprint of the bridge and of 
the footprint of those interchanges. If it came to a reduction 
in lanes, we think it is absolutely necessary to have the 
express local separation. We would oppose any solution which 
would do away with that separation because we think that's the 
most efficient traffic planning approach. If we had to, we 
could live with the abandonment of a dedicated 24-hour HOV 
system on the bridge. We think that HOV could be accommodated 
in a smaller bridge efficiently if it had to be, and if we had 
to give up something, we would give up the 24-hour HOV.
    Again, the interchanges I think are going to be refined and 
downsized. We would oppose any idea that you would drop off 
from this project the outer two most interchanges, the 
Telegraph Road interchange on the Virginia side or the 210 
interchange on the Maryland side. We would also oppose delaying 
work on those interchanges. We think they are an integral part 
of this project, they are an integral part of the 
transportation system that the bridge if the focus of.
    From an Alexandria business perspective, we would rather 
suffer our pain and get this project over with. We think that 
includes having all the construction on all these things done 
in the same timeframe. Thank you, Mr. Chairman.
    Senator Warner. Thank you, Mr. Kell, very much.
    Mr. Lewis?

    STATEMENT OF MICHAEL J. LEWIS, CHIEF OF STAFF, AMERICAN 
INSTITUTE OF AERONAUTICS AND ASTRONAUTICS (AIAA), AND CHAIRMAN 
   OF LEGISLATIVE AFFAIRS, FAIRFAX COUNTY CHAMBER OF COMMERCE

    Mr. Lewis. Good afternoon, Mr. Chairman, Senator Sarbanes, 
Senator Robb. My name is Mike Lewis. I am with the American 
Institute of Aeronautics and Astronautics as chief of staff, 
and I've had the pleasure of speaking with several of you 
before in that capacity. But today I am appearing on behalf of 
the Fairfax County Chamber of Commerce as a representative 
representing thousands of companies and businesses that call 
Northern Virginia, and particularly Fairfax County, home. We 
are the largest Chamber of Commerce in the area.
    The AIAA, my organization, is headquartered in Reston, 
Virginia, and, like every local business from that area, our 
employees really have a very strong interest in economic 
development and in improving our transportation system, making 
sure that system is the best it possibly can be.
    Mr. Chairman, I would like to just summarize the rest of my 
statement. In particular, we feel the replacement of the 
Woodrow Wilson Bridge is the most important transportation 
issue the region will face. Mr. Chairman, as you know, we have 
a number of problems and concerns over Northern Virginia--the 
extension of rail to Dulles, the fifth lane on the Capital 
Beltway, fixing the so-called ``Mixing Bowl'' at Springfield--
but this project is clearly the most important project in 
Northern Virginia. It is a pending threat to our economy, our 
quality of life, and, quite frankly, since the Federal 
Government owns 100 percent of that bridge, it is like no other 
transportation project in Northern Virginia.
    Therefore, I would like to join with our other business 
counterparts as they spoke this morning and early afternoon. We 
support full Federal funding of the replacement of the bridge, 
with sufficient capacity to meet the transportation needs for 
the 21st century and beyond. Within that statement, there are a 
few points that I would like to mention.
    What are the effects if a new bridge is not built? Well, 
we've heard from the studies of the bridge that it has about 7 
years of full capacity remaining and putting it at full use. 
The impending failure may also force some weight limits--truck 
bans. The Chamber of Commerce feels that is an unacceptable 
measure that we would have to be confronted with. We can 
imagine for a moment the effects it may have on morning and 
evening rush hour. We all drive through that rush hour every 
day. It is very difficult now. Just imagine if we have to 
detour heavy trucks into other areas of the region, or even a 
scenario of an Alexandria firm doing business in Prince Georges 
County and having to be detoured around the other end of the 
beltway or even looking at navigating a route through the 
District of Columbia simply to deliver a package just across 
the bridge. We look at that as an unacceptable compromise.
    The aforementioned scenarios also have an environmental 
impact, and it clearly increases the cost of doing business, 
which is paramount to many of our members, and would put 
tremendous strain on the resources of those businesses. The 
longer term implication, we may see businesses choosing not to 
stay in our area any longer. Of course, that is going to take 
away very valuable jobs and, more importantly, tax revenues to 
retire some of our other concerns.
    Our second issue is why the Federal Government should 
provide full funding. Quite simply, from our point of view, the 
Federal Government owns the existing bridge. It is just that 
simple. The Fairfax County Chamber of Commerce recognizes that 
there are some realities to the recent budget agreement which 
place limitations on Federal spending. We express some 
disappointment that the Chairman's call for increased funding 
was rejected as part of the agreement. It is our view that the 
budget agreement does not relieve the Federal Government of its 
responsibility to replace the structure which it solely owns. 
Business owners, of course, face these kinds of decisions every 
day. We have to make reinvestments in our infrastructure during 
very difficult and tight financial times. Why should the 
Federal Government be any different?
    Third, the Fairfax County Chamber of Commerce strongly 
suggests that we not skimp on a decision of bridge capacity. 
The Chamber has been on the record before--we have no formal 
position on a specific design, but I think it is important that 
we say this, and say this very clearly--we should not replace 
one bottleneck for another bottleneck. Quite frankly, we feel 
that we would like for the committee to maintain support for a 
bridge design that meets future demands. We should make sure 
that we do not incur any type of decision that would be a 
disservice to the investment of the taxpayer dollars that will 
be paying for this bridge.
    In closing, Mr. Chairman, the Fairfax County Chamber of 
Commerce feels that the economy of the entire Washington 
metropolitan area is at stake in the pending decision. Traffic 
patterns are no longer vertical in and out of downtown 
Washington; we are a suburban-to-suburban transporting 
community. The Woodrow Wilson Bridge is a critical link. It is 
important to our economy, our businesses, our citizens, and 
even very important to the people who visit the National 
Capital area.
    Mr. Chairman, the Fairfax County Chamber of Commerce 
appreciates the opportunity to appear today. We appreciate your 
leadership and we would like to offer any support that we can 
to help you facilitate this matter.
    Thank you.
    Senator Warner. Thank you very much, Mr. Lewis. You are 
quite correct in your assessment of the impact on the economy 
of this region. This Nation of ours is struggling in a one 
world economy today and transportation is a very integral part 
of our ability to compete in that one world market.
    I want to come back to Mr. Neihardt and Mr. Montague. I 
leave here with a worrisome concern about that 200-year old 
house, I don't know why. I walk the streets quietly and it's a 
joy. I look upon Alexandria as likened to Williamsburg, as 
observing a part of the heritage so that future generations can 
see how the founders of our Nation lived in those times. And I 
worry how this enlarged bridge would impact, negatively, 
presumably, on the lifestyle, if not the very structural 
existence, of that house or other associated structures within 
the historic part of Old Town Alexandria. Can you just sort of 
put the transcripts and statements aside and describe that 
concern? There was some inference that maybe people who now 
struggle largely at their own expense, not totally, to preserve 
these homes for the benefit of others will simply just board up 
the windows and say goodbye and go elsewhere.
    Mr. Neihardt. Thank you, Mr. Chairman. Also, I want to 
thank Senator Sarbanes for staying here with us. There aren't 
very many senators who would sit for an hour and listen to four 
people from another State talk about their problems. But you 
have. If I were a Marylander, I would vote for you, sir.
    [Laughter.]
    Senator Sarbanes. Thank you.
    Mr. Neihardt. I'll tell all my Maryland friends.
    Senator Warner. He's a regional man.
    Senator Sarbanes. Thank you.
    Mr. Neihardt. Thank you, Mr. Chairman. It really is sort of 
like multiplication. Things in Old Town are bad now with 
respect to the bridge. And as you know from walking around, you 
hear the rattling of the trucks and you feel it. Actually, the 
vibrations go right through you as the trucks pass over the 
expansion joints. There is just this sort of constant roar that 
we've all gotten use to.
    Senator Warner. Well, it would be my hope, and I'm going to 
look into this, that this thing can be engineered to bring down 
a level of emanating sound to where it is lower than what is 
projected today.
    Mr. Neihardt. I understand that can be done, Senator. The 
current structure is a steel structure and it creaks and shakes 
and rattles, and I understand that any new structure would be 
cast out of concrete which is a much quieter material. However, 
a lot of the noise, if not most of the noise--and if there's an 
engineer in the room, they can shout up and correct me--is 
actually generated by the tires on the road, that kind of 
whirring noise. It is simple multiplication. If you nearly 
triple the size of the bridge, you're going to have a lot more 
noise, a lot more unhealthy pollution.
    Last, and very significantly, is the visual intrusion of 
this huge and wide structure passing through the Historic 
District. The Historic District is mostly homes that are two-
stories plus maybe a dormer on the roof line. They are small 
houses. The whole community is of that scale. You will be able 
to see this bridge from almost anywhere that you are as you are 
close to the river portion of the Historic District. We're just 
going to be overwhelmed, I think is the best way to put it. And 
as I alluded to earlier, areas that are in the same boat around 
the country have become blighted areas. We want very much for 
that not to happen to Old Town. Thank you.
    Senator Warner. Just for the record, some of the structures 
in Old Town go all the way back to the late 1600's.
    Mr. Montague. There is nothing in Alexandria of the 17th 
Century, but there are houses that go back to the 1750's.
    Senator Warner. The 1750's, that's the earliest?
    Mr. Montague. Perhaps the 1740's. That's about as early as 
we get. There are 800 houses of the 18th and 19th century 
within about a square mile area of our Historic District and 
100 of those are 18th century houses and the rest are 19th 
century. It is predominantly a Federal and victorian district, 
but there are a variety of architectural styles going back to 
georgian.
    Senator Warner. Would you care to expand on that very good 
statement by Mr. Neihardt?
    Mr. Montague. I think everything he said is absolutely 
correct. We are actually going to lose a structure called the 
Virginia Shipbuilding Company Headquarters that was associated 
with the history of this country during World War I. We will 
lose the shipways, vestiges of which are still there, which are 
a very real part of the history of this country and of our 
community. So we are already faced with making a significant 
actual sacrifice of existing structures and remains. We will 
also feel the vibrations that Mr. Neihardt has talked of and 
hear the sounds and be disrupted by the construction process.
    But the traffic impact is probably the thing that concerns 
me the most. The Route 1 corridor is already one of the most 
densely travelled and utilized arterials in the Northern 
Virginia area. Every rush hour in Old Town is almost a 
dangerous sort of thing to be out in for a pedestrian, 
especially at intersections like King Street and Route 1 where 
I go everyday to work. My office is at 1007 King Street and I 
walk from my home at 207 Prince Street to get to work. And so I 
encounter the traffic and the air pollution firsthand 
practically everyday already. This is just going to aggravate 
an already overworked situation. There is no way that I can 
believe that enlarging the bridge is not going to create a much 
more difficult traffic problem in the Old Town streets.
    Senator Warner. Well, that's clear.
    Mr. Sarbanes?
    Senator Sarbanes. I have no questions, Mr. Chairman. I did 
want to stay and hear this panel, and I think we've heard some 
very interesting and thought-provoking testimony.
    I gather the association and the commission's entire focus 
thus far, and it would be understandable if that's the case, 
has been on trying to narrow down the bridge and not on various 
measures that might be taken to mitigate the impact of the 
bridge as proposed by the coordinating committee. Would that be 
correct?
    Mr. Montague. That's quite largely correct. We haven't felt 
that any other mitigation proposed was anywhere near as 
important as getting the footprint reduced.
    Mr. Neihardt. And let me say just to elaborate, we also 
haven't tried to slow down the process at all through any 
means. We're not NIMBYs. We will definitely handle our fair 
share of the region's traffic. But, again, the 244-foot wide 
bridge is just intolerable; it's just too much.
    Mr. Montague. It could lead to litigation if it goes that 
route.
    Senator Sarbanes. Of course, we take our chances. I'm 
struck by some of the discrepancies in what is being presented. 
Some say we can do a 10-lane bridge, 150-feet wide, but to do a 
12-lane bridge we have to go to 250-feet wide. Just on the face 
of it, that strikes me something is amiss either in the one 
projection or in the other projection. That's the kind of 
thing, it seems to me, that needs to be looked at. Maybe the 
12-lane bridge need not be as broad as it is suggested, or 
maybe the figure that is used to contrast with it is an 
understatement. I was struck here today by what I thought was a 
real discrepancy between those two projections.
    Mr. Neihardt. Well, an important part of politics is being 
able to frame the debate. Unfortunately, we, the residents, 
have lost that fight and the debate has been framed in terms of 
lanes. We wish it would have been framed in terms of feet, 
because when people say lanes you can't really relate it to 
anything. I didn't even know a lane was 12 feet wide until I 
got more educated on this. Again, we wish that everybody would 
think of it in terms of feet, because that's how we feel the 
impact is the width of the span.
    To answer your question, I understand that FHWA regulations 
state that one may not design a bridge or a road that contains 
6 lanes going in the same direction without a divider to 
separate some of the lanes. The addition of a divider between 
express and local traffic, with shoulders on either side of the 
barrier, adds about 50 feet to the total width of the 12-lane 
bridge. So, even though one additional lane is only 12 feet on 
each side of the bridge, the necessary barriers add 50 feet to 
that total. As a result, a 10-lane bridge is roughly 150 feet, 
and the addition of one lane adds 70 feet to that, for a total 
of about 220 feet. We understand that the additional 24 feet 
comes from other ``extras'' that FHWA wants for the replacement 
bridge, such as bike/pedestrian footpath. We feel that these 
extras add cost and width to the project unnecessarily and 
should be eliminated.
    Senator Sarbanes. Of course, there was a lot of pressure to 
build a bridge that was not a drawbridge and would be much 
higher. You were very resistant to that, as I understand it. 
That argument was heard by the Coordination Committee and, in 
the end, that has been significantly scaled back. So there has 
been some effort to show I think some sensitivity to the 
concerns you raise. I stayed, in part, because I wanted to hear 
those concerns.
    Senator Warner. I thank you, Senator. I'm sure the Senator 
has had the opportunity to study this.
    I will take it upon myself as Chairman of the committee to 
explicitly ask that this issue of the bridge width be 
revisited. I have to stress that safety is paramount. 
Particularly, I'm very anxious to protect the pedestrian, 
bikeway, and other environmental features and quality of life 
features that are a part of the present plan. But there may 
well be some diminution that can be achieved, and that would of 
course reflect some cost savings which would be very important.
    Senator Sarbanes. I've seen projects--I'm not suggesting it 
here because I haven't walked the ground and seen it--but I've 
seen projects in which the impact that was anticipated from the 
highway project was substantially mitigated by focusing on 
various ways to sort of address the concerns that a community 
had. It can't be done entirely because the project is there and 
so you have to deal with that part of it, but there may be lots 
of ways in which this could actually not pose some of the 
concerns you have and, in fact, contain features that would be 
compensating to you. But I know that's an issue for another 
day. I understand where you are right now, and I guess if I 
were you that's where I would be as well.
    Mr. Neihardt. Senator, let me just answer you with a 
request, and that is that as the width issue is resolved, and 
as you grapple with the cost issues, please help us out by 
continuing to stress the need for mitigation because one of our 
biggest fears now is that in an effort to reduce costs the 
mitigation stuff will be the first stuff to fall by the 
wayside.
    Senator Warner. I assure you, speaking for myself, that 
we're going to keep a watchful eye on that, very much so.
    Mr. Neihardt. Thank you, Mr. Chairman, Senator Sarbanes.
    Senator Warner. I would note however, and I did not bring 
it up today purposely, but there's been a considerable debate 
on whether or not to preserve the navigation aspects of this 
stretch of the river, and whether the added costs incorporated 
with the drawbridge should be viewed as an option to save 
money. My understanding is that the city of Alexandria and the 
environs are very strong on the need to incorporate a feature 
by which navigation can be accommodated by vessels of such size 
that could not go under a reasonable bridge height. You all are 
in support of that concept?
    Mr. Montague. I would have to say that I support 
preservation of the seaport heritage of the city of Alexandria, 
and ocean-going ships are certainly a very big part of that.
    Mr. Kell. And from the Chamber's perspective, I think the 
economic development figures will show that maintaining that 
opening is well worth the money in terms of the economic 
development potential and reality for both the District and 
Alexandria.
    Mr. Neihardt. Mr. Chairman, I'm going to depart from the 
positions of my other panel members and ask you to look at the 
costs of opening a drawbridge. When you look at the total cost 
of maintaining a drawbridge and opening and closing it as well 
as at the height that is necessary, it is staggering. I'm not 
certain that it is justified to have a bridge of the height 
that we're talking about with a drawbridge in terms of the 
economic development that it can maintain. I don't believe that 
is the case. That might be something to send your crack staff 
after to just check that out.
    Senator Warner. Thank you.
    It has been an excellent hearing. I wish to conclude by 
saying the record will remain open for a reasonable period of 
time. We will consider incorporation in that record documents 
submitted but we do have to exercise some control over the 
amount of printing cost. So thanks everybody.
    The subcommittee hearing is adjourned.
    [Whereupon, at 1:03 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Mr. Chairman, there can be no doubt that the Wilson Bridge is a 
huge problem, perhaps even a disaster waiting to happen. All of us who 
live and work in this area are familiar with the problems. Tremendous 
traffic back-ups, constant maintenance, and federal highway inspectors 
who feel compelled to cheek the safety of the span with absurd 
frequency.
    I do not want to be drawn into the debate over the design or the 
ultimate location for the Wilson Bridge replacement. The local 
residents and the federal, state, and local officials here this morning 
are the best ones to work out these details. However, I want to be firm 
in stating that the federal government has an obligation to solve this 
problem. The Wilson Bridge is federal property located on federal land.
    Although the Wilson Bridge is the only federally-owned bridge on 
the Interstate Highway System, there are other federal bridges located 
at strategic points on our nation's highways. Most notable among these 
is the Hoover Dam Bridge spanning the border between Arizona and 
Nevada. Like the Wilson Bridge, it is being asked to handle far more 
traffic that it was ever designed to carry. There are also severe 
security patterns present at this heavily-travelled between points in 
Arizona and Nevada. The tight canyon curves and a very narrow bridge 
span atop the Dam make it a tremendously hazardous crossing. Traffic is 
nearly constantly backed up for miles.
    Matters are only going to get worse. The highway crossing at Hoover 
Dam is part of the NAFTA corridor, which is going to see more and more 
truck traffic in coming years. Given the close quarters on the bridge, 
it is just a matter of time until a truck crashes into the electricity 
yard at the Dam or Lake Mead.
    In a year when this Committee is going to re-authorize our nation's 
transportation program and, in so doing, give an unprecedented amount 
of authority and discretion to states and localities, it is nothing 
short of a disgrace that the federal government has not been able to do 
a better job of taking care of its own bridges. The federal government 
has a responsibility to take care of and replace federal bridges, 
particularly those on federal property.
    Senator Warner, I look forward to working with you to ensure that 
the legislation reauthorizing ISTEA contains language providing a 
funding category for all federal bridges on public lands. Thank you.
                               __________
  Statement of Hon. Barbara Mikulski, U.S. Senator from the State of 
                                Maryland
    The facts are beyond dispute. Marylanders see the need for a new 
bridge everyday. Traffic has outgrown the bridge: it now carries more 
than five times the original design volume. The Wilson Bridge was built 
for Studebakers and we are now in the age of the minivan.
    I'm not here to argue about this exit ramp or that guard rail. We 
have experts and engineers to do that. And after years of study, we 
have a plan. Delay is not an option.
    While I may not be a civil engineer, I can only stay civil on this 
issue for so long. What we need now is action by the Federal Government 
to replace its own bridge.
    It's not Maryland's bridge; it's not Virginia's bridge. It's the 
Federal Government's bridge. This is the only one they got in the whole 
country. So you would think that they could pay a little extra special 
attention to their only bridge.
    I will work with the Department of Transportation and my colleagues 
in Congress to see that the Wilson Bridge replacement starts on time 
and causes the least possible inconvenience to the traveling public.
    But I also want everyone to know that while the Wilson Bridge may 
be falling down I will not fall down on my commitment to have it 
replaced as soon as possible.
                               __________
Statement of Hon. Steny H. Hoyer, U.S. Representative from the State of 
                                Maryland
    Mr. Chairman and Members of the Committee, thank you for holding 
this hearing on a key link in our Federal transportation system.
    I am here to join with other Members of the Maryland and Virginia 
Delegations, with Secretary David Winstead, and with others in 
expressing my support for authorizing $1.6 billion for reconstruction 
of the Woodrow Wilson Bridge and related improvements. I have testified 
before the House Committee on Transportation and Infrastructure to 
express my support and am grateful for the opportunity to appear before 
you today.
    There is no question that we must replace this vital link that was 
completed in 1963. Despite patchwork repairs, the estimated lifespan of 
the bridge is 5 to 7 years. It is a major bottleneck for regional 
commuters and for east coast traffic passing through Washington on 
Interstate 95. My constituents in Southern Maryland share horror 
stories with me about efforts to cross the bridge during both rush and 
non-rush periods.
    The Wilson Bridge is the only federally owned bridge on the 
National Highway System. As such, I believe that the Federal share of 
this project should be 100 percent and, under no circumstances, less 
than 90 percent.
    After extensive consideration, the Wilson Bridge Improvement Study 
Coordination Committee recommended a new 12-lane draw bridge to be 
located 300 feet south of the existing bridge. While concerns have been 
raised about this selected alternative, I think it is important to note 
that it was the consensus choice that resulted from several years of 
discussion.
    This is not a new-start or a project that we can put on hold for 
future years. It is a pressing need for the Washington region and for 
the national transportation system. I urge that the Subcommittee 
authorize $1.6 billion for right-of-way acquisition, construction of a 
new bridge, and related improvements.
                               __________
  Statement of Hon. Tom Davis, U.S. Representative from the State of 
                                Virginia
    I want to thank the Chairman for the opportunity to testify about 
the Woodrow Wilson Memorial Bridge crisis that faces this region. Your 
leadership on this critical issue is greatly appreciated.
    Despite the nation's highest rate of carpooling and a national 
ranking of third in the number of commuters that use transit, the 
region has the second longest mean commuting time in the country. The 
dollar cost of congestion in the region, based on wasted time and fuel, 
is the highest in the country and getting worse. I know this hardly 
comes as a shock to Members of Congress that live and travel around the 
region, but these figures dramatize the desperate need for major 
transportation improvements.
    No single element of the regional transportation system is more 
critical than the Woodrow Wilson Memorial Bridge which spans the 
Potomac river on Interstate 95. Opening the Woodrow Wilson Bridge for 
river traffic or an accident on the bridge can create gridlock 
throughout the entire Washington region, and normal rush hour backups 
at the bridge last two and one-half to 3 hours in both the morning and 
evening. Built to carry 75,000 vehicles per day, the bridge now carries 
152,000 vehicles per day and 17,000 heavy trucks each day.
    The heavy traffic load on the bridge has shortened the 35-year-old 
bridge's useful life span to roughly 10 years. If action is not taken 
to replace this vital bridge, the region and every motorist and truck 
driver transiting the region will be affected. We could face 
unacceptable options such as rerouting truck traffic or reducing the 
number of traffic lanes to extend the life of the bridge. The traffic 
and economic impact on the region of reducing the already congested 
traffic flow on the Woodrow Wilson Bridge would be devastating.
    As the Chairman knows this bridge is the only federally owned 
bridge. I want to repeat that--this vital regional bridge was built and 
is owned by the Federal Government.
    For that reason, the Federal Government has an unparalleled 
obligation to work with the states of Virginia and Maryland and the 
District of Columbia to come up with a workable, cost-effective 
solution that meets the transportation needs of the region. The Federal 
Highway Administration has proposed a bridge replacement project that 
includes a 12 lane draw bridge and addresses problems with 
intersections that feed the bridge. The estimated cost of this proposal 
is roughly 1.7 billion dollars.
    I look forward to continuing work with the Chairman, the regional 
delegation, and FHWA to make this bridge proposal more affordable, but 
I believe the Federal Government must commit to contributing at least 
90 percent of the cost of a replacement bridge. This would be the 
normal Federal--state obligation on an interstate bridge project; it 
should certainly be the case for a bridge owned by the Federal 
Government.
    Finally Mr. Chairman, the problems of the Woodrow Wilson Bridge 
have been identified and validated--the heavy traffic has shortened the 
life of the bridge to roughly 10 years. We must take action now to fund 
a replacement for this federally owned bridge or face a regional 
transportation catastrophe.
                               __________
Statement of Hon. James P. Moran, U.S. Representative from the State of 
                                Virginia
    Good morning and thank you Mr. Chairman for providing everyone with 
an opportunity to testify on a matter of vital importance to my 
constituents, the metropolitan Washington, D.C. region, and interstate 
commerce along the 1-95 mid-Atlantic corridor.
    The metropolitan Washington, D.C. region suffers some of the worst 
traffic congestion in the nation. According to the Texas Transportation 
Institute, which issues a report entitled, ``Estimates of Urban Roadway 
Congestion,'' under a Federal Highway Administration grant, the 
Washington, DC. area is performing poorly. In measuring the congestion 
level of freeway mileage, this region suffers from the second worst 
congestion levels in the nation. The report also ranks this region 
second worst in total vehicle hours of delay per one thousand persons. 
The report concludes that the annual cost of vehicle delays and wasted 
fuel for this region totals more than $2.37 billion annually, ranking 
the region first in the Nation in per-capita cost of wasted fuel and 
time.
    In no place is this traffic problem more critical than at the 
Woodrow Wilson Memorial Bridge. Cramming eight lanes of capital beltway 
traffic and a fair percentage of Alexandria and Southern Fairfax 
traffic that needs to cross the Potomac River each day onto a six lane 
bridge makes it a bridge to no where fast. Given the bridge's rapidly 
deteriorating condition, the states could soon be forced to close the 
bridge to all truck traffic and severely restrict automobile traffic. 
The consequences of these restrictions on this region would be 
devastating. Alexandria would bear the brunt of these restrictions as 
local commuter and interstate truck traffic traveled through local 
streets in search of alternative routes across the Potomac.
    As a fellow resident of Alexandria, I know you are painfully aware 
of the challenge that lies before this Committee and Congress to 
replace the Woodrow Wilson Memorial Bridge. I think there are really 
two questions that this Committee and its House counterpart need to 
address as it considers legislation to reauthorize Federal highway and 
mass transit programs:
    <bullet>  what should Congress do to replace the current bridge? 
and,
    <bullet>  how much, measured in Federal dollars, should the Federal 
Government contribute toward the replacement bridge? The short answer 
to the first question is to fully fund a replacement bridge and 
prohibit the imposition of any toll. The answer to the second question 
is as much money as possible, but given a realistic appraisal of what 
Congress is likely to provide, enough to pay for a replacement bridge 
and cover modest improvements on the approaches and adjacent 
interchanges. The $400 million recommended by the Federal Highway 
Administration won't do it.
    If we were operating in a different, less budget conscious era, the 
answer to the two questions would be the same. Since this bridge is 
owned by the Federal Government, it should be the Federal Government's 
responsibility to pay 100 percent of the proposed project to replace 
the current bridge. I don't part company from this expressed goal. If 
the Federal Government owns the bridge, it is up to Congress to pay the 
entire cost of building the replacement bridge. But, when the scope of 
the project includes more than just the bridge, it includes the 
approaches and improvements to four interchanges, two on either side of 
the bridge, it does not appear to be a winning argument in Congress, as 
you have already recognized, particularly given the fact that the cost 
of the replacement bridge is slightly more than one-third ($667 
million) of the total project cost of $1.8 billion.
    It may be heresy among some of my colleagues around this table, but 
the reality is that this project competes against the needs in forty-
eight other states and ninety-six other votes in the Senate. If we 
cannot secure the full $1.8 billion in Federal funds, and the states 
are not prepared to fill the gap, my strongest fear is that the balance 
of the remaining costs will be collected through tolls. Tolls would be 
tantamount to placing use restrictions on the current bridge. With more 
than 70 percent of the bridge users local commuters and trucks with a 
Washington, D.C. area destination, a high percentage of them will avoid 
the tolls and use the local Alexandria streets to find other, toll-free 
options to cross the Potomac River. I, therefore, urge this committee 
to prohibit the use of tolls on the replacement bridge. Both the 
Governors of the Commonwealth of Virginia and the State of Maryland 
agree with this position on tolls.
    I believe that given the current budget climate in Congress, we are 
not going to succeed in securing more than $1 billion in Federal funds 
for this project. All is not lost, however. I think these funds will be 
adequate to build a replacement bridge. And, until someone steps 
forward with between $4 billion to $7 billion to construct an 
additional two lanes on the capital beltway, $1 billion will more than 
solve the present bottleneck at the bridge and improve flow on the two 
most adjacent interchanges, U.S. Route 1 in Virginia and Maryland 295. 
A ten lane bridge is perfectly adequate to meet the capacity demands of 
an eight lane beltway. Even if the two states find the money and build 
a fifth lane on the beltway in each direction, the Federal Highway 
Administration's own traffic studies project that during morning and 
evening peak hours in the year 2020, a ten lane bridge would carry 
across the river between, at worst, 92 percent (outer loop in the 
evening rush hours) and at best, 98 percent (outer loop in the morning 
rush hours) of the vehicles that the 12 lane bridge would carry. Stated 
another way, the proposed eleventh and twelfth lanes improve traffic 
capacity by only 8 percent and only during the rush hours.
    Yet, those two lanes involve more than just two, 12 foot wide lanes 
of pavement. The two lanes drive the need to provide the separation of 
express/local traffic lanes and a dedicated HOV lane in each direction. 
This separation adds an addition eighty-four feet of shoulders, ramps 
and barriers to the bridge's width and drives the cost of interchange 
improvements that must now be designed and built to separate all this 
traffic into three separate crossing options all headed in the same 
direction. The current 12 lane replacement proposal would comprise two 
bridge spans totaling more than 244 feet. In contrast, the American 
Legion bridge, which spans the Potomac River on the northern loop of 
the capital beltway carries ten lanes of traffic on a 136 foot wide 
bridge. Until the states are prepared to subject the rest of the 
beltway toward this same HOV/express/local separation of traffic. I see 
no need to start with the bridge, or realistically expect the Federal 
Government to pay for it.
    I do not think the citizens of Alexandria would object to 
revisiting this additional capacity when and if the two states are 
prepared to widen the beltway. But, is it appropriate to do it now, 
particularly if the local commuters are expected to make up for a 
shortfall in Federal funds at the tollbooth?
    And, if we really want to discuss future capacity and traffic 
growth, both states need to look beyond the Woodrow Wilson Bridge 
crossing for the solutions. According to the Council of Government's 
(COGs) 2020 forecasts, southern Potomac River crossing ten and 15 miles 
south of Alexandria, that would connect with Route 301 on the Maryland 
side, would reduce future Woodrow Wilson Bridge traffic by an estimated 
10 percent and 4 percent, respectively. Last year, I asked Federal 
highways to initiate a feasibility study on this crossing as well as an 
outer beltway. I hope to be able to share the findings of the study 
with you very soon.
    Mr. Chairman, you have a difficult job ahead of you. I urge you to 
do what is necessary to fund a replacement bridge that can 
realistically be built and paid for without the use of tolls. A ten 
lane bridge fits this bill.
    Thank you.
                               __________
 Statement of Hon. Albert Wynn, U.S. Representative from the State of 
                                Maryland
    I would like to begin by thanking Chairman John Warner for allowing 
me to participate in this important hearing before the Senate 
Subcommittee on Transportation and Infrastructure on the critical 
issues involved in the reauthorization of ISTEA.
    I am pleased to be here today to discuss a very unique project the 
rebuilding of the Woodrow Wilson Bridge. The Wilson Bridge was built 
more than 35 years ago and was designed to handle 75,000 vehicles a 
day, but is now used by more than 175,000 vehicles per day, including 
17,000 heavy trucks. If you have traveled along 1-95 from Maryland to 
Virginia, or listened to the morning traffic reports in this area, you 
are undoubtedly familiar with the Wilson Bridge. Rush hour traffic 
backups surrounding the bridge are legendary on the East Coast. Federal 
Highway Administration engineers have determined that the remaining 
useful life of the bridge is less than 8 years. There is no longer any 
question about whether or not the bridge should be replaced: it must be 
replaced as a matter of public safety.
    Last fall the Woodrow Wilson Bridge Improvement Study's 
Coordination Committee, composed of officials from Maryland, Virginia, 
the District of Columbia and the Federal Highway Administration, 
recommended a 12-lane drawbridge design with upgraded access ramps. 
This new bridge will cost approximately $1.6 billion. The design and 
construction of a new bridge will take at least six to 7 years to 
complete, so it is essential that the Wilson Bridge replacement be 
funded in the reauthorization of ISTEA. Any delay in this process will 
mean that within 7 years, the Federal Government will have to begin 
extensive structural maintenance on the bridge to keep it safe--at 
significant cost--and may eventually have to restrict truck traffic on 
the bridge as well.
    It is important to remember that if this bridge were owned by a 
state or states, the Federal Government would require the states to 
construct a structure and approach roadways that meet the planning date 
required by Federal regulations, which is currently the year 2020. The 
design recommended by the Woodrow Wilson Bridge Coordination Committee 
meets these Federal requirements by accommodating increasing traffic 
flows in this area.
    The Wilson Bridge is a major link for 1-95 north-south traffic on 
the East Coast, as well as a critical route for Washington commuters. 
It is essential that we build a bridge for the future, as traffic flows 
in the area are likely to increase substantially. Because the bridge is 
owned by the Federal Government, the replacement should be fully funded 
by the Federal Government. The committee should not view this as a 
demonstration project; it is federally owned property.
    If the Wilson Bridge were a state-owned bridge, its replacement 
would have been addressed in the early 1980's in the Interstate 
Completion program under the Final Interstate Cost Estimate, where 
funding was provided for critical projects in addition to the normal 
Federal aid apportionment. Under this program, the Federal Government 
funded 90 percent of the cost of the project. Funding for the Wilson 
Bridge was not addressed at that time because the bridge is owned by 
the Federal Government.
    It is my hope that the committee will support at least 90 percent 
Federal funding for the Wilson Bridge construction in the 
reauthorization of ISTEA. I believe this is a reasonable and equitable 
approach that could be supported by a regional bridge authority, which 
would assume both ownership of the bridge and ongoing operating and 
maintenance costs.
    I look forward to working with the Transportation Committees in 
both the House and the Senate throughout the ISTEA process. Thank you 
for your time and attention to these important issues.
                               __________
  Statement of Hon. Frank Wolf, U.S. Representative from the State of 
                                Virginia
    Good morning. I want to thank Senator Warner for convening this 
hearing on such an important matter. The replacement of the Woodrow 
Wilson Bridge is a pressing need of our regional transportation network 
and the leadership of Senator Warner on this issue is greatly 
appreciated by those who live and travel through the Washington 
metropolitan area.
    The Woodrow Wilson Bridge is a unique component of our nation's 
transportation infrastructure. It is the only bridge on the interstate 
highway system owned by the Federal Government, and that is why I 
believe the Federal Government needs to pay for its replacement.
    The Wilson Bridge was constructed in the early 1960's and was 
designed to carry 75,000 vehicles daily. Today, over 160,000 vehicles 
cross the Wilson Bridge each day. Structural deformities have been 
identified on the Wilson Bridge which, if not corrected soon, will make 
it a safety hazard.
    Clearly, we cannot afford to wait much longer to solve this 
problem. I am pleased that Virginia, Maryland, and the District of 
Columbia have been working closely to find a solution and help to get 
construction of a replacement structure under way.
    I want to share with you several thoughts I have on how the 
replacement of the Wilson Bridge should proceed. First, I believe the 
new span of the Wilson Bridge should be wide enough to accommodate the 
traffic we expect to have 10, 20, and 30 years from now.
    Second, I do not believe it should be a toll bridge. The Washington 
metropolitan area ranks second, behind Los Angeles, as the most 
congested region in the country. One can only imagine how bad 
congestion would be if tolls were charged on the new Wilson Bridge. 
Monumental traffic jams and tie-ups would result, as local traffic and 
other travelers would be forced to wait in line to pay tolls to cross 
the bridge.
    Finally, I believe the Federal Government has responsibility to pay 
for the replacement bridge as well as several interchanges leading to 
it. We know that the Wilson Bridge is unique as it is the only 
federally owned bridge on the interstate highway system and the Federal 
Government needs to honor this responsibility.
    Again, I want to thank Senator Warner and the rest of the regional 
delegation for their work on this matter.
                               __________
  Statement of Jane F. Garvey, Acting Administrator, Federal Highway 
              Administration, Department of Transportation
    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss a critical link in our regional and national 
transportation systems-the Woodrow Wilson Memorial Bridge.
I. The Woodrow Wilson Bridge and Infrastructure Needs Nationwide
    The problems of the bridge are ones we are experiencing across the 
Nation today; faced with limited public resources, we must find a 
solution to the structural and capacity problems of an aging but vital 
segment of our Nation's surface transportation infrastructure. Designed 
in the 1950's the Woodrow Wilson Bridge was planned as a bypass around 
Washington, DC, that would carry 75,000 vehicles per day. But today, 
the bridge serves as a daily commuter route, with 85 percent of the 
traffic either originating or ending their trips in the Washington 
metropolitan area. In addition, the bridge is a key link in the 
Interstate 95 corridor for thousands of truckers and travelers. In 
total, daily traffic volume on the bridge now exceeds 170,000 
vehicles--more than twice the original design capacity--including 
17,600 heavy trucks. Future traffic and travel projections for the 
region indicate that the bridge's current structural and operational 
deficiencies will only increase if not addressed. The region's 
employment destination pattern has shifted over the years, away from a 
concentrated business district in the central city to one where several 
suburban locations also serve as major employment centers. Population 
and employment growth estimates for the next 25 years predict an 
increase in travel demand of more than 70 percent on our regional 
highway system, while highway capacity is expected to expand by only 20 
percent.
    The Woodrow Wilson bridge is the only part of the Nation's 
Interstate System that is federally owned The transfer of ownership of 
the bridge to the State and local governments has long been a part of 
our discussions. An agreement providing for the transfer of ownership 
was executed in 1985, however; for a variety of reasons, the transfer 
of ownership has not taken place. In the National Highway System 
Designation Act of 1995 (NHS Act), Congress provided for the consensual 
transfer of ownership of the bridge from the Federal Government to a 
multi-state authority, upon agreement as to the Federal contribution to 
the cost of maintaining the current bridge and constructing the new 
crossing.
    Virginia, Maryland, the District of Columbia, and the Federal 
Highway Administration (FHWA) agree that the structural and operating 
problems of the Woodrow Wilson bridge need to be addressed in the near 
term. Through the Coordinating Committee established to study the 
problem, agreement has been reached on a preferred alternative. 
However, we have not been able to reach agreement on how the bridge and 
the overall project should be funded.
    The Administration has proposed a $400 million Federal contribution 
to the cost of the new crossing This is based on Congress' direction, 
in the NHS Act, that at a minimum the Federal contribution was include 
the cost of rehabilitating the existing structure, the cost of a 
replacement facility built to current engineering standards, and the 
cost of design for the recommended alternative. The FHWA reads this 
provision to mean a six-lane replacement structure, and believes that 
the cost of a larger structure and the roadway approaches to the bridge 
should be a State responsibility.
    In determining the Federal contribution to the new crossing, 
Congress and the Administration are faced with the realization that 
similar critical transportation needs exist in many locations across 
the country. For example, increased trade with our two biggest trading 
partners, Canada and Mexico, has led to the need for improvements at 
our northern and southern border crossings. Increased trade with Asia 
and Europe has led to significantly higher traffic through ports, 
creating the need for capital improvements in port access Within the 
interior of the country the increased flow of international and 
interstate transportation has led to the formation of regional trade 
corridor coalitions, seeking Federal assistance in accommodating 
growing traffic. Metropolitan areas across the Nation are increasingly 
the economic engines of the U.S. economy; these areas, like the 
Washington metropolitan area, look to the Department and to Congress 
for Federal assistance in accommodating their growing passenger and 
freight mobility need. Rural States and areas also look to us for 
support, as they contribute to the national economy, especially through 
agricultural production, tourism, and manufacturing, which depend upon 
a good transportation system to allow these areas to participate fully 
in the economic vitality of the Nation. The breadth of Federal 
responsibilities that must be balanced in reauthorization also includes 
ensuring the safety of the traveling public, protecting our 
environment, exploring new transportation technologies to solve real 
world problems, and improving roadways on lands owned by the Federal 
Government.
    These transportation spending needs must be considered in the 
larger context of the entire Federal budget and the bipartisan effort 
to balance-the budget by fiscal year 2002 It was against this backdrop 
of tight budgetary constraints and competing infrastructure needs 
nationwide that the Administration faced the same challenge Congress is 
grappling with. now in developing our reauthorization legislation.
    We anticipate that implementation of the overall project would 
employ innovative techniques and rely on multiple revenue sources to 
minimize the budgetary impacts of the project on both the Federal 
Government and the States. Over the past 3 years, many major projects 
like the Alameda Corridor in California, State Highway 190 in Dallas, 
and E-470 in Denver, as well as smaller projects in Maine, Alaska, and 
Kansas, have turned to public-private partnerships, loans, credit 
enhancement, and dedicated revenue streams in order to assemble the 
financing necessary to advance these options may also be promising for 
the Woodrow Wilson Bridge. Another potential mechanism to manage the 
budgetary impacts would be to implement the overall improvement in 
phases over a longer period of time.
II. Joint Responsibility and Joint Efforts to Identify a Solution
    Since we initiated the Woodrow Wilson Bridge Improvement Study 8 
years ago with the District, Maryland, and Virginia to explore capacity 
expansion options for the bridge, the FHWA has emphasized a broad-
based, consensus-building approach. We have also involved the area's 
metropolitan planning organizations, local officials, and concerned 
citizens in this process. For instance, the Woodrow Wilson Bridge 
Coordination Committee, comprised of Federal, State, and local elected 
officials, was created in 1992 to further expand this partnership and 
to identify a solution that would enhance mobility while assuring that 
community and environmental concerns were addressed. The Coordination 
Committee met with citizen groups, hosted public workshops throughout 
affected communities, and conducted extensive environmental analysis 
before identifying a preferred alternative for a new crossing last 
fall: twin drawbridges spanning 70 feet above the navigational channel 
along the alignment of the current bridge, at an estimated cost of 
$1.575 billion.
    This collaborative process used to identify the preferred 
alternative appropriately reflects the joint responsibility of the 
Federal, State, and local governments in crafting a solution to this 
transportation problem. We recognize that this collaboration has been 
essential and must continue, because no critical transportation issue 
can be resolved by a single entity.
III. Conclusion
    While congestion mitigation activities, restrictions on truck 
travel, and renovation of the current bridge are all viable short-term 
solutions to the structural and operational needs of the Woodrow Wilson 
Bridge, consultants and government bridge experts do not recommend 
continuing to rehabilitate the bridge beyond the end of its useful 
service life in 2004. Quite simply, there is no long-term alternative 
to the replacement of the existing bridge. Through partnership and 
shared commitment, we will continue working with Congress to fulfill 
our Federal responsibility for the bridge and with the District, 
States, local officials, and affected citizens to identify the 
necessary funding sources to construct an appropriate replacement 
crossing.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Honorable Robert E. Martinez, Secretary of Transportation, Commonwealth 
                              of Virginia
    The Woodrow Wilson Bridge is an essential part of the national 
transportation network. This six-lane bridge spanning the Potomac 
River, part of the Capital Beltway, is the highest traffic volume 
roadway in the metropolitan Washington, D.C. area. The bridge is the 
only segment of the entire Interstate system in the United States owned 
100 percent by the Federal Government, which really is why we're all 
here today.
    Since I-95 on either side of the bridge is currently eight lanes, 
the six-lane Woodrow Wilson Bridge represents a geometric constraint on 
the highway system. U.S. Route 1 and I-295 are immediately adjacent to 
the bridge on either side of the river. The combination of a narrow 
bridge and large traffic volumes from Route 1 and I-295 results in 
traffic congestion throughout most of each day.
    The Bridge was designed to carry 75,000 vehicles daily, a capacity 
design that was breached by the early 1970's. By 1979, structural 
deficiencies were identified in the deck surface, leading to deck 
replacement in 1983. As traffic volumes continued to increase, the 
entire Beltway was upgraded to provide an eight lane cross section, but 
the bridge remained at six lanes. In 1989, the Average Daily Traffic 
(ADT) was 160,000 with summer peaks as high as 181,000 per day.
    Because of the stress applied by the magnitude of current traffic, 
including trucks, the bridge cannot last much beyond the next 8 years 
under current conditions. A 1994 inspection report indicates that the 
bridge will require major rehabilitation or truck restriction by 2004.
    The Woodrow Wilson Bridge accident rate--at 153.5 per 100 million 
vehicle miles of travel--is double the Virginia state average rate of 
75 for similar type facilities. The accident rate of the American 
Legion Bridge and the portion of the Beltway approaching the Woodrow 
Wilson Bridge is also substantially lower. Accidents occurring on the 
bridge are primarily rear-end and sideswipes, typical of accidents in 
highly congested areas.
    To address capacity and safety issues, the Woodrow Wilson 
coordination committee selected parallel drawbridges with a 70 foot 
clearance over the navigable channel. The typical section of the 
selected alternative will be three local lanes, two express lanes, and 
one HOV lane in each direction.
    By 2020 traffic volumes will almost double to 300,000.
    Were we to go with a simple complete rehabilitation of the existing 
bridge only, the accident rate would increase substantially as 
congestion becomes common throughout the day. In 2005 queues would 
extend up to 8 miles upstream during the peak and each peak period 
would be 5 hours long. By 2020 queues would extend 12 to 14 miles 
upstream. The safety performance of the Beltway would also deteriorate 
substantially.
    Both Virginia and Maryland are committed to adding HOV lanes to the 
Beltway and these plans are reflected in the region's Long Range 
Transportation Plan. In addition, HOV lanes currently exist on US 1 
north of the Beltway. Fairfax County is currently studying the 
feasibility of adding HOV lanes to US 1 south of the Beltway. The 
District of Columbia plans to add HOV to I-295, and the Maryland State 
Highway Administration and Prince George's County are currently 
studying the feasibility of adding HOV to MD-210. Therefore, the 
Coordination Committee decided that the proposed build alternatives 
should include HOV lanes through the project corridor. In addition, the 
Committee indicated that preference should be given to HOV movements 
and the alternatives should be developed to facilitate access and 
increase usage.
    Also in response to safety and operational issues, the 
possibilities of separating express or longer distance trips from 
shorter trips were examined. In an express/local lane configuration, 
the travel lanes in opposing directions are separated by a barrier. One 
set of lanes in each direction is designated as express lanes, which 
typically have limited weaving and merging as there are fewer entrance 
and exit ramps and priority is given to through trips. The other set is 
local lanes which provide egress and ingress from the local roadway 
system via interchanges. The express and local travel lanes in the same 
direction are also separated by a barrier.
    The express/local system is particularly desirable for the Woodrow 
Wilson Bridge corridor because interstate travelers would be able to 
use the express lanes and avoid local traffic in the region, 
particularly during the morning and afternoon commuting periods. 
Express trips are those trips that travel through the entire project 
area, from west of VA-241 to east of MD-210. Express/local lane 
configuration concepts were developed and evaluated in conjunction with 
the development of the build alternatives.
    The most important points for us to remember:
    1.The Woodrow Wilson Bridge has a remaining useful life 
approximately to the year 2004. If everything went perfectly smoothly, 
it would take 7 years to complete the design, acquire needed right-of-
way and construct the replacement structure.
    2.As mentioned, the facility is owned 100 percent by the Federal 
Government. This has significant ramifications.
    Had the bridge been owned by the states, Virginia or Maryland, or 
both, it would have been addressed in the early 1980's in the 
Interstate Completion program under the Final Interstate Cost Estimate. 
Federal funding in that program was set at 90 percent and, most 
importantly, all funds were provided above the normal Federal aid 
apportionments to each state. So such projects were funded in addition 
to the normal state apportionments. Furthermore, under the ``cost-to-
complete'' character of this program, that Federal share grew 
commensurate with the actual cost of the project and was not just based 
on a one-time project estimate cost.
    The only reason the Bridge was not then addressed was because it 
was owned 100 percent by the Federal Government. We should not now be 
penalized as a result thereof.
    Some have called for a simple replacement of the bridge itself, 
paid for by the feds, with no consideration of the costs of the 
approaches, which include the interchanges. Some have even suggested 
the Federal obligation is simply to pay for a structure with the same 
six lanes on it.
    Were this bridge a Virginia facility, say, it were over the James 
River, and a replacement were needed, the Federal regulations would 
require that we replace the structure and its approaches to the 
capacity needed for the planning horizon, which is through the year 
2020. If we Virginians were to suggest a simple replacement in kind of 
a Virginia bridge, without addressing the approaches, and without 
meeting the 2020 planning horizon need, it would be rejected by FHWA. 
The feds cannot absolve themselves from meeting exactly the same 
requirements they impose on all the states because, for once, we're 
talking about a 100 percent federally owned facility.
    Back in 1995, Senator Warner, with your dedicated assistance and 
leadership, the National Highway System included a provision blessing 
the establishment by the three affected jurisdictions of an Authority 
that would be able to assume ownership of the bridge once the new 
structure were in place.
    Consistent with that NHS provision, all three jurisdictions--
Maryland, the District, and Virginia--have, in fact, enacted 
legislation creating such an Authority. We three have shown good faith 
in moving forward to provide the legal framework that would allow for 
acceptance of the new bridge. We reiterate our commitment to move 
forward with the actual creation of the Authority as necessary, but 
restate that we will only do so when the Federal funding commitment has 
been met. At such time, we stand ready to provide the mechanism to 
assume title to the Woodrow Wilson Bridge, and absolve the Federal 
Government from any future special obligation. The Bridge would 
henceforth compete for future funds like any other bridge in America.
    Within the functional transportation needs for the bridge and its 
approaches, and with complete adherence to all environmental 
regulations, Maryland and Virginia have been working on ways we might 
reduce the overall cost of the facility. I am confident we will be able 
to reach significant reductions in those costs, although the final cost 
undoubtedly will remain a very large number. We stand willing to 
continue our cost efforts, as long as capacity and environmental 
considerations are fully respected.
    Thank you.
                               __________
   Statement of David L. Winstead, Secretary, Maryland Department of 
                             Transportation
    Mr. Chairman, members of the Committee, my name is David Winstead. 
I am Secretary of Transportation for the State of Maryland. I thank you 
for the opportunity to speak to the Committee this afternoon in support 
of an essential regional transportation project--the federally owned 
Woodrow Wilson Bridge.
    I would also like to take this time to express our appreciation for 
the efforts of Senator Warner, other members of the Committee, and the 
members of the Maryland and Virginia Congressional delegations for 
their efforts to secure funding for the Woodrow Wilson Bridge.
    At the outset, I want to highlight how important it is that 
Congress provide the funds necessary--as soon as possible--to undertake 
this critical project. The Wilson Bridge is rapidly approaching the end 
of its useful life and is operating well in excess of its intended 
capacity. A nationally respected bridge inspection firm, under contract 
to the Federal Government, recently found that the remaining useful 
life of the Bridge extends to only 2004--seven years from now--and it 
is going to take at least 7 years to complete design, acquire the 
needed right-of-way, and construct the replacement structure. If the 
replacement facility is not completed by 2004, frequent, costly repair 
work would have to be undertaken to the existing structure--causing 
major traffic disruption while wasting limited transportation 
resources. The Wilson Bridge was designed to carry only 75,000 vehicles 
per day. Today, it carries 175,000 vehicles daily. It is also the only 
segment of the National Capital Beltway that is limited to six lanes. 
Elsewhere, the Beltway is fully eight lanes, and both Virginia and 
Maryland are advancing their work to add lanes to the Beltway.
    The State of Maryland urges Congress to include full funding for 
this critically needed and unique Federal project--replacement of the 
Woodrow Wilson Memorial Bridge carrying I-95/I-495 across the Potomac 
River between Maryland and Virginia. We hope that funding for this 
project can be authorized in conjunction with re-authorization of the 
Intermodal Surface Transportation Enhancement Act (``ISTEA''). It is 
also essential that the Federal funding for this project be provided 
apart from the normal Federal aid funding apportioned to Maryland, 
Virginia and the District of Columbia.
    There are several compelling reasons why full Federal funding is 
justified for this project. First and foremost, the Wilson Bridge is 
100 percent owned by the Federal Government. Indeed, the Woodrow Wilson 
Bridge is the only federally owned segment of the Interstate System. In 
this regard, the project is unlike all other projects funded through 
normal Federal aid highway programs. It should not be construed as a 
normal Federal aid project, nor as a demonstration project. In short, a 
special funding arrangement for the Wilson Bridge will not set any 
precedent for other future projects.
    Second, from both practical and legal perspectives, full Federal 
funding is a condition to the transfer of the ownership of the bridge 
from the Federal Government to local control. Full Federal funding is 
also a prerequisite to the undertaking of the replacement project. The 
National Highway System Designation Act of 1995 authorized creation of 
an interstate authority by Virginia, Maryland and the District of 
Columbia to assume ownership of the Federal bridge. The three 
jurisdictions have each passed legislation that would effectuate the 
creation of an authority for this purpose. We have done so in good 
faith with the intent of relieving the Federal Government of future 
obligations for the Bridge through this action once the Federal 
financial obligation is committed. We are all in agreement, however, 
and legislation passed by our respective legislatures explicitly 
states, that any transfer of ownership from the Federal Government to 
local control can only take place once the Federal Government has met 
its financial obligation for replacement of the Wilson Bridge.
    In regard to the Federal Government's financial responsibility for 
the bridge, it is important to note the following critical points:
    Were this a state-owned bridge, the Federal Government would 
require the states to construct a structure and approaches that meet 
the planning horizon required by Federal regulations--currently the 
year 2020. The design supported by the Woodrow Wilson Bridge 
Coordination Committee does this, and any recommendation and 
construction of the bridge must meet these requirements. As the owner 
of the bridge--the Federal Government--should not absolve itself of the 
very requirements and regulations which it has imposed on States.
    Had the Wilson Bridge been owned by a state, its replacement would 
have been addressed in the 1980's under the Interstate Completion 
program in which funding provided would have been in addition to the 
normal Federal aid apportionments. The only reason the Bridge was not 
addressed then was because it was owned by the Federal Government. 
Under the Interstate Cost Estimate mechanism in that program, the 
Federal share was 90 percent of the cost of the project. Further, the 
``cost-to-complete'' nature of the Interstate Cost Estimate meant that 
the Federal share would grow commensurate with the actual cost of the 
project.
    Third, there are no practical alternatives to special Federal 
funding for this project. The financial burden of the Bridge should not 
be borne by other non-Federal parties, such as the users of the bridge, 
through the imposition of tolls. Additionally, all of the non-Federal 
jurisdictions have gone on record expressing their opposition to tolls. 
There are serious and legitimate concerns regarding the imposition of 
tolls at this location. They could create significant congestion on an 
already congested interstate facility. Further, toll rates could be so 
high as make the implementation of the project financially and 
politically impractical. We also stress that Maryland, Virginia and the 
District of Columbia cannot afford to pay the Federal Government's cost 
for the project using our normal Federal aid apportionments or local 
funding.
    Given the significant cost of the project and the difficulty in 
authorizing full Federal funding, some have understandably asked 
whether the project could be redesigned. It would be extremely 
shortsighted to change the agreed to design of the project in an 
attempt to decrease its cost. For example, there have been suggestions 
that the number of lanes be reduced from 12 to 10, or that the 
replacement can be done for $400 million. Neither would provide a 
structure that would stand the test of time. The reduction of lanes 
from 12 to 10 would result in estimated ques of two miles approaching 
the bridge and would cause severe congestion for approximately 4 hours 
during each peak period. An authorization of $400 million would merely 
replace the bridge with all its current capacity-related problems--it 
would not be adequate to accommodate existing traffic levels and 
certainly would not meet future traffic demands.
    This is not to suggest that cost savings cannot be achieved. We are 
willing to examine potential cost reductions. For example, one might 
consider reducing the widths of the shoulders. Further, the project 
would go through a value engineering process during final design--this 
could result in some saving through various economies. Undoubtedly, 
these and other similar measures could result in significant savings. 
We want to emphasize, however, that we will not agree to any changes 
that sacrifice the integrity of the design and the functionality, 
especially the full access to and full movements across the bridge.
    We understand that even with such reductions, the cost of the 
project will be sizable. If Congress finds it is necessary to stage 
Federal funding in order to complete the entire project, this scenario, 
as well as others, might be explored.
    We are willing to work with Congress and the Federal Government to 
evaluate creative financing options. For example: the Federal 
Government might commit to pay debt issued by a local authority, thus 
covering the cost of the project over a period of years. Other 
alternatives might be worth exploring.
    Whatever actions are taken--they must be consistent with the 
recommendations of the Interstate Study Commission which was 
established pursuant to Section 1099 of ISTEA to examine the 
transportation demands in the region. On September 26, 1996, after 
years of study and debate, the Woodrow Wilson Bridge Improvement Study 
Coordination Committee agreed to an alternative. Any significant 
deviation from the recommendations of the committee will jeopardize all 
of its work, and more importantly, the likelihood of a timely 
implementation of the project.
    We ask for your support in a fair and equitable funding plan, 
commensurate with the Federal Government's ownership and interest in 
the project, and we ask for expeditious treatment given the condition 
of the Wilson Bridge. Your consideration of our request, as part of the 
discussions on the re-authorization of ISTEA, would be greatly 
appreciated.
                               __________
Statement of Ken Laden, District of Columbia Department of Public Works
    Good morning Chairman Warner and members of the Committee, my name 
is Ken Laden. I am Acting Administrator of the D.C. Department of 
Public Works, Office of Policy and Planning. I am here on behalf of 
Cell Bernardino, Acting Director of the D.C. Department of Public Works 
who is unable to attend, to provide testimony regarding the replacement 
of the Woodrow Wilson Memorial Bridge as part of the reauthorization of 
the Intermodal Surface Transportation Efficiency Act.
    The Woodrow Wilson Memorial Bridge is a vital regional 
transportation facility, which is in need of immediate replacement. The 
bridge is currently handling a much larger volume of traffic than was 
originally intended. The Washington Metropolitan Region cannot afford 
to take a ``wait and see'' position regarding replacement of the 
bridge. Congress needs to take immediate action to ensure that a new 
bridge is in place before a catastrophic failure of the existing bridge 
causes serious disruption to the region's economy and possible loss of 
life.
    The D.C. Department of Public Works has been actively coordinating 
the planning of the replacement bridge with Maryland and Virginia and 
Federal transportation officials. The District is a signatory to 
legislation which would create a regional authority to operate the 
replacement bridge.
    Our major concerns regarding the replacement of the Woodrow Wilson 
Memorial Bridge are outlined below.
    1. The existing bridge was constructed with 100 percent Federal 
funds. The bridge is a Federal bridge. We maintain that the replacement 
bridge should be paid for with 100 percent Federal funds.
    2. The District of Columbia will not make any capital contribution 
to the design or construction of a replacement bridge which connects 
Maryland and Virginia. Neither would we agree to have any portion of 
the District's allocation of Federal Highway funds diverted to pay for 
a portion of the replacement of the Woodrow Wilson Memorial Bridge. We 
have many other critical transportation needs within the District of 
Columbia which must be addressed with our local and Federal 
transportation funds.
    3. The District of Columbia does not favor the imposition of tolls 
to pay for the replacement bridge. We believe that a toll would divert 
traffic through the District onto Route I-295 and local streets, 
thereby adding to traffic congestion and air pollution in the District 
of Columbia.
    We will continue to work with State officials in Maryland and 
Virginia, and local governments and interest groups in the Washington 
Metropolitan Area to ensure that a replacement bridge is built as soon 
as possible. We look to Congress to play a central role in financing 
this essential transportation facility.
    Thank you for the opportunity to provide this testimony.
                               __________
         Statement of Kerry J. Donley, Mayor of Alexandria, VA
    Good morning. I am Kerry Donley, the mayor of the City of 
Alexandria. I thank you, Mr. Chairman, for providing the City with this 
opportunity to present its views on a topic of great interest to our 
residents and to all citizens of the Washington, D.C., metropolitan 
area.
    I fear, Mr. Chairman, that much-needed replacement for the 
deteriorating Woodrow Wilson Bridge is slipping into a morass of budget 
bickering, intergovernmental posturing and potential environmental 
litigation. This comes as the result of the seriously flawed $1.6 
billion replacement proposal put forth by the Woodrow Wilson Bridge 
Coordination Committee under the auspices of the U.S. Department of 
Transportation. The risk grows by the day that there will be an 
unacceptable delay in the construction of an expanded replacement 
facility, or that only a six-lane replacement bridge funded entirely by 
the Federal Government will be built.
    Neither of these alternatives is acceptable to anyone participating 
in this hearing, or to the citizens of the metropolitan region. Mr. 
Chairman, you have wisely called upon the Department of Transportation 
and others to propose lower cost design alternatives to the 
Coordination Committee's proposal. It is now time for all involved to 
come together on a realistic, cost-effective and transportation-
efficient alternative.
    Alexandria agrees that the Woodrow Wilson Bridge needs to be 
replaced, and needs to be replaced quickly. But that, of course, is not 
the issue. The critical issue is the nature of the replacement 
facility--more particularly, a facility (a) that will meet the future 
traffic demands of the region, (b) that is affordable without the 
imposition of tolls, and (c) that can be accomplished without 
unreasonable delay.
    The Coordination Committee's 12-lane replacement proposal, at a 
cost of $1.6 billion in present and over $1.8 billion in future 
dollars, has flunked the criterion of affordability. Mr. Chairman, I 
believe that a scaled down 10-lane bridge--similar to the 10-lane 
American Legion Bridge at the north end of the Capital Beltway--best 
meets these criteria.
    Let me explain why.
    1. A 10-lane bridge removes all existing bottlenecks. Morning and 
afternoon peak period traffic backups at the Wilson Bridge are caused 
by two features of the present bridge design: (a) the four-lane outer 
and the four-lane inner loop of the Capital Beltway each feeds into a 
three-lane bridge and a three-lane approach to the bridge; and (b) 
traffic entering the bridge corridor from U.S. Route 1 in Virginia and 
Interstate 295 in Maryland is forced to merge into lanes that are 
already clogged with traffic. These two backup-producing features are 
completely eliminated by a 10-lane replacement bridge. Four lanes are 
provided for both the outer and inner loops of the bridge, and these 
match the four inner and outer loop lanes on the Beltway. The remaining 
two bridge lanes--referred to as ``merge'' lanes--are dedicated to 
traffic that is entering and exiting the bridge at Route 1 and 
Interstate 295. These simple improvements are all that are needed to 
remove the bottlenecks now responsible for peak period backups at the 
bridge.
    2. A 10-lane bridge avoids tolls. If Federal funding does not 
increase beyond the $400 million currently proposed by the 
administration, the 12-lane Coordination Committee bridge could require 
Virginia and Maryland commuters to pay nearly $1,000 a year in tolls to 
fill the funding gap (a $4-a-day toll, $2 each way). In addition, toll 
plazas will increase traffic backups during peak hour period, and will 
adversely affect air quality. Simply stated, a 10-lane bridge can be 
built for substantially fewer dollars, and without tolls.
    3. A 10-lane bridge even with HOV lanes, will handle future traffic 
as well as the proposed 12-lane bridge and, without HOV lanes, will 
outperform it. The Federal Highway Administration's Transportation 
Technical Report projects that traffic across the bridge in the year 
2020 will be almost double today's traffic. The same report makes two 
particularly important findings regarding the future performance of a 
10- versus the Coordination Committee's 12-lane replacement facility:
    <bullet>  The first, which addresses carrying capacity, is that, 
during morning and evening peak hours in 2020, a 10-lane bridge, with 
two HOV lanes, will carry across the Potomac between, at worst, 92 
percent (outer loop in the evening) and, at best, 98 percent (outer 
loop in the morning) of the vehicles that the 12-lane bridge, also with 
two HOV lanes, will carry. (See No. 4 below)
    <bullet>  Even more pertinent, a 10-lane bridge without HOV lanes, 
and thus with four general purpose and two merge lanes, will outperform 
the Coordination Committee's 12-lane facility. During all peak hours in 
2020, this 10-lane facility will carry across the river, at worst, 102 
percent of the vehicles processed by the 12-lane facility.
    <bullet>  The second finding, which addresses travel delay, is 
that, during the morning and evening peak hours in 2020, (a) vehicles 
traveling within the Telegraph Road-to-Route-210 corridor (i.e., 
vehicles entering and/or exiting within the corridor) will experience 
one to two additional minutes of delay with a 10-lane facility, with 
HOV lanes, as compared with a 12-lane facility, and (b) vehicles 
traveling through the corridor during peak hours will experience seven 
to nine additional minutes of delay.
    <bullet>  A 10-lane bridge without HOV lanes will have additional 
general purpose travel capacity, will perform better and will produce 
less traveler delay.

    I doubt that any taxpayer would conclude that improving the 
bridge's traffic-processing performance by two to 8 percent during the 
most heavily traveled times of the day--and not at all if HOV lanes are 
excluded from the 10-lane facility--warrants the expenditure of the 
hundreds of millions of additional dollars that the 12-lane facility 
requires.
    4. The dedication of two lanes for HOV use is not justified. The 
12-lane replacement facility recommended by the Coordination Committee 
requires its eleventh and twelfth lanes to be used ``exclusively for 
HOV'' purposes. It is these two HOV lanes, along with the ramps and 
other interchange features at Route 1, Interstate 295 and Maryland 
Route 210 which provide access to and from the HOV lanes, that chiefly 
distinguish the 12-lane replacement facility from a 10-lane facility 
consisting of eight general purpose lanes and two merge/auxiliary 
lanes. The construction of these HOV lanes and the related interchange 
features requires an expenditure of hundreds of millions of dollars.
    Is it worth this cost? I think not.
    The FHWA Transportation Technical Report states that, during the 
morning peak hour in 2020, the inner loop HOV lane of the 12-lane 
facility will carry 340 vehicles, or 15 percent of a per-hour lane 
capacity of 2,200 vehicles; the outer loop HOV lane will process 885 
vehicles, or 40 percent of capacity. During the evening peak hour, the 
inner loop HOV lane will carry 790 vehicles, or 36 percent of capacity; 
the outer loop HOV lane will process 335 vehicles, or 15 percent of 
capacity.
    These rates of utilization, projected by FHWA for the most heavily 
traveled portions of the day in 2020, do not in any sense justify 
spending the hundreds of millions of dollars needed to expand a 10-lane 
to a 12-lane facility with two lanes dedicated exclusively for HOV 
usage. This is especially so since, as noted above, a 10-lane bridge 
without HOV lanes will actually outperform a 12-lane facility with HOV 
lanes, during all peak hours in 2020, in carrying traffic across the 
Potomac.
    5. A 10-lane bridge is not based upon the faulty assumption that 
drives the 12-lane facility. The predominant justification for the 12-
lane bridge lies in an assumption--that the Capital Beltway, in both 
Virginia and Maryland, will be widened from eight lanes to ten, two of 
which will be dedicated to HOV usage. This expanded roadway, which 
includes the separation of traffic into express and local lanes, and 
the reconstruction of overpasses and interchanges, is estimated to 
cost, in today's dollars, in excess of $5 billion. The FHWA's 
Transportation Technical Report concludes that, if the Beltway is not 
expanded, a 10-lane Wilson replacement bridge is perfectly sufficient, 
both now and in the future. In light of today's fiscal realities, it is 
unrealistic to believe that Congress, or Virginia and Maryland, will be 
prepared to fund the $5 billion Beltway widening that is needed to 
justify the 12-lane replacement bridge. And without this widening of 
the Beltway, a 10-lane bridge without HOV lanes is all that is needed.
    6. A 10-lane can be built without unreasonable delay. I understand 
there exists a concern that a decision to approve a replacement project 
other than the 12-lane facility recommended by the Coordination 
Committee may require additional environmental analyses, and may 
produce a substantial delay in the start of the project. This should 
not be the case.
    Initially, I note, some delay is likely to occur even with the 
Committee's 12-lane proposal. This is because the air quality 
conformity analysis on the Wilson Bridge improvements, required by the 
Clean Air Act and performed in 1996 by the region's Transportation 
Planning Board, was for a 10-lane replacement facility, and assumed no 
changes to existing interchanges. In a recent letter to the TPB, the 
Environmental Protection Agency has indicated that this conformity 
analysis is flawed since it addressed a 10-, rather than the 
Coordination Committee's 12-, lane bridge facility, and because it 
failed to address the air quality impacts associated with the 
interchange revisions called for by the Committee's project. Thus, a 
new air quality conformity analysis would need to be undertaken even if 
the Committee's recommendation were adopted.
    Whether additional environmental analysis and possibly a 
supplemental environmental impact statement would be required on a 10-
lane facility is a decision to be made by the FHWA. This decision will 
turn on the magnitude of the change in the project and the extent to 
which significant environmental impacts have not already been addressed 
by the environmental studies and statements prepared to date.
    Even if additional work is needed, however, it will not be 
significant. The 10-lane replacement bridge has already been addressed, 
to some extent, in the environmental documents. Moreover, a 10-lane 
facility obviously has fewer environmental impacts than the 12-lane 
facility. In 1996, FHWA prepared a supplemental environmental impact 
statement that addressed both a variety of bridge/ tunnel alternatives 
and a double-span ``high'' bridge alternative. This was done in less 
than 3 months.
    Any supplemental statement on a 10-lane facility, in light of the 
analysis already done on this alternative, should take no longer, and 
thus no longer than the likely time to perform the additional air 
quality conformity work on the 12-lane facility.
    Again, Mr. Chairman, on behalf of the citizens of Alexandria, I 
thank you for your leadership on this important issue, and for the 
opportunity to present the City's views.
    I close by stating that, in light of:

    (a) today's Federal budget limitations and the necessity to reduce 
substantially the costs of replacing the Wilson bridge,
    (b) the desire of all involved in this issue to avoid tolls,
    (c) the projected meager utilization of HOV lanes on the bridge 
crossing,
    (d) the significant costs associated with constructing two 
additional lanes on the bridge for HOV usage, and the HOV-related 
interchange improvements,
    (e) the very questionable assumption, which is the predominant 
justification for the Coordination Committee's 12-lane project, that 
the Capital Beltway will be expanded to ten or more lanes in the near 
future,
    (f) the insignificant difference in the traffic-processing 
performance, projected for the year 2020, between a 12- and a 10-lane 
bridge,
    (g) the substantially lower costs of a 10-lane replacement 
facility, and
    (h) the potential delays in proceeding with a 12-lane facility,
    I believe that a 10-lane Woodrow Wilson replacement bridge deserves 
to be the preferred alternative, not just for the sake of Alexandria 
and its impacted neighborhoods, but for the sake of sensible, cost-
effective transportation throughout the Washington, DC, region.
                               __________
Statement of Wayne K. Curry, County Executive, Prince George's County, 
                                Maryland
    Mr. Chairman, Members of the Committee, I am Wayne K. Curry, County 
Executive for Prince George's County, Maryland. Thank you for the 
opportunity to present the views of a local government official on a 
regionally significant Interstate Highway System project--the 
replacement of the Woodrow Wilson Bridge.
    I would also like to take this time to express our appreciation for 
the efforts of Senator Warner, other members of the Committee and the 
members of the Maryland and Virginia Congressional delegations for 
their efforts to secure funding for the Woodrow Wilson Bridge.
    We have participated in a regional study process with Federal, 
State and local representation and the most extensive public outreach 
and involvement used in planning any transportation facility in this 
region. This process verified that the Woodrow Wilson Bridge is a 
tremendously important transportation link for the Metropolitan 
Washington D.C. region and of particular importance to Prince George's 
County.
The Need
    The Washington D.C. Region needs at least a 12 lane Woodrow Wilson 
Bridge which includes High Occupancy Vehicle lanes to ensure the 
economic vitality of the region. This conclusion is based on regional 
growth forecasts of 43 percent in employment and population by the year 
2020. This increase in employment and population will result in a 
travel demand on the bridge requiring 16 to 18 lanes.
    Currently, 85 percent of the 175,000 daily trips crossing the 
Bridge are going to, from or between destinations in the Washington DC 
region. Only 10 percent of the total daily trips are made by trucks 
which averaged 17,500 per day in 1996. Two-thirds of these trucks or 
nearly 12,000 trucks are servicing businesses in the Washington region 
and cannot be diverted away from the Wilson Bridge.
    The current 6 lane Woodrow Wilson Bridge is a bottleneck resulting 
in traffic delays; it experiences double the accident rate of the 
Beltway approaches in Maryland and Virginia and is a major contributor 
to the region's air quality problem. Compounding this problem are the 
four interchanges--two on each side of the Potomac River which have 
inadequate traffic operations components that result in additional 
congestion and accidents on the adjoining local roadways, ramps and 
limited merge areas. Given the current situation and the expectation 
that the pattern of traffic and percentage of trucks experienced today 
will be similar in the future, we need a 12 lane Woodrow Wilson Bridge 
now.
The Study Process
    The need to replace this rapidly deteriorating federally owned 
bridge and provide adequate capacity to meet the future travel demand 
has been long recognized by Federal, State and local authorities. A 
truly regional study process using the Coordination Committee format 
was developed by the Federal Highway Administration to ensure Federal, 
State and local issues were discussed and appropriately addressed in 
the required planning studies.
    As you know, the Coordination Committee was comprised of 14 
individuals who were State and local elected officials as well as 
senior Federal and State agency representatives representing the 
District of Columbia, Virginia and Maryland. Since 1992, the 
Coordination Committee initiated a thorough analysis of community and 
environmental concerns as well as regional and local mobility needs and 
issues. This process included over 1,500 citizens who have been 
directly involved at more than 70 meetings and hearings expressing the 
needs and concerns of their communities. In addition, 9,000 citizens, 
250 civic and business associations and 75 Federal, State, regional and 
local officials were kept informed of the study progress by newsletters 
and other correspondence. The Committee listened to the citizens and 
directed the urban design, engineering, traffic operations and 
environmental consultants to develop alternatives to balance the needs 
and address the concerns of all involved in a cost effective manner.
    The study process was successfully concluded following several big 
compromises by the Coordination Committee. The compromises focused on 
the recognition of the potential land side impacts to the City of 
Alexandria by a wider Wilson Bridge and approaches as well as the 
traffic congestion that would result by 2020 in the City of Alexandria, 
Fairfax County and Prince George's County by not providing 16 to 18 
lanes on the replacement Bridge.
    The consensus alternative agreed upon is the 12 lane bridge with a 
local/express lane configuration including two high occupancy lanes. 
This configuration improves safety by separating through traffic from 
the local traffic weaving to access the two interchanges on each side 
of the Potomac River. In addition, the HOV lanes provide the most 
effective means of increasing the people carrying capacity of the 
Bridge without providing the needed 16 to 18 lanes to meet the 
forecasted travel demand. It should also be noted that the Committee's 
selected alternative of a 12 lane bridge with express/local roadways 
and HOV lanes was unanimously approved by a vote of 19 to 0 by the 
National Capital Region Transportation Planning Board. This is a 
significant regional endorsement by a board predominantly composed of 
State and Local elected officials.
Local Importance
    While travel demand numbers are impersonal, our constituents are 
real and must be served to the best of our ability. Successful business 
people are real as well and need the support of government to meet our 
constituent's needs in a cost effective manner. Our citizens and the 
business community demand and deserve adequate transportation 
facilities that will permit the Washington D.C. region to expand its 
economic vitality and further improve the quality of life for-all.
    For these reasons, a 12 lane Woodrow Wilson Bridge is needed. In 
addition, given that over 70 percent of the rush hour traffic crossing 
the Woodrow Wilson Bridge uses one of the four interchanges adjacent to 
the Bridge for commuting and business purposes, these interchanges also 
need to be included as part of the new bridge project. A 12 lane bridge 
and improved interchanges will help ensure our constituents can get to 
work, shop and meet their cultural and recreational needs while 
permitting our businesses to provide the goods and services our 
constituent's need and demand and help the regions' economy prosper.
    Any reduction in the number of lanes below 12 on the new Woodrow 
Wilson Bridge or the elimination of interchange improvements from the 
project would result in congestion greater than we experience today, 
more accidents than we experience today and a significantly 
deteriorated quality of life for all of those residing and working in 
this region. A Woodrow Wilson Bridge that does not include 12 lanes and 
improved interchanges will have a chain reaction that will cause the 
use of other regional and local transportation facilities to increase 
beyond their capacity and cause further regional transportation 
failures. The failure of our regional transportation system will result 
in lost business opportunities and reduce the value of the region as a 
place to live and work.
    We have worked together with Federal, State and local 
representatives to identify the needs associated with replacement of 
the Woodrow Wilson Bridge and the four adjacent interchanges. We 
followed a fully open and extensive public involvement process led by 
the Coordination Committee to identify community needs, concerns and 
issues. The Coordination Committee considered over 350 citizen led 
solution ideas which were used to develop 35 alternatives. The use of 
urban designer traffic forecasters, engineers, environmentalists and 
financial analysts by the Committee enabled them to reduce the 
alternatives offered for the required public hearings. As a result of 
citizen input and Coordination Committee compromises, the Committee 
selected the 12 lane bridge alternative discussed today. Please provide 
the funding needed for the new bridge and interchanges the Washington 
region needs and deserves.
                               __________
 Statement of Katherine K. Hanley, Chairman, Fairfax County (Virginia) 
                          Board of Supervisors
    Mr. Chairman, thank you for providing this opportunity to appear 
before you and the subcommittee to present comments on behalf of 
Fairfax County regarding the Woodrow Wilson Bridge. Fairfax County has 
a major interest in ensuring that this project is advanced at the 
earliest possible date so that this major river crossing is replaced 
with a facility that is designed and constructed to accommodate future 
demand in terms of the citizens who live in this region as well as for 
those who use this bridge as part of travel in the I-95 corridor on the 
eastern seaboard. Fairfax County has been involved in the study and 
development of the project recommendations related to this project.
    On September 9, 1996, the Fairfax County Board of Supervisors 
unanimously endorsed this 12-lane replacement as the preferred and 
technically warranted option to improve regional mobility and economic 
stability in the I-95 corridor. The County supports a twelve-lane 
bridge and has taken no position regarding the overall width of the 
structure. This recommendation has also been endorsed by the regional 
Transportation Planning Board in January 1997.
    On September 26, 1996, following more than 3 years of detailed 
study and analysis, the Woodrow Wilson Bridge Coordination Committee, a 
body made up of major regional stakeholders including Federal, state 
and local leaders, selected the 12-lane, side-by-side drawbridge 
concept as the preferred alternative for replacement of the aging 
Potomac River span. This alternative was selected following exhaustive 
input and analysis by citizens and transportation professionals.
    Studies conducted by the Virginia Department of Transportation and 
the Metropolitan Washington Council of Governments have indicated a 
need for 16 to 18 lanes on the Beltway to allow for regional growth. 
However, through the Woodrow Wilson Bridge Study, regional leadership 
has already agreed to compromise from 18 lanes down to 12 lanes. 
Further compromises on the number of lanes will place even more 
constraints on the ability to balance interstate travel and commuter 
traffic needs in Fairfax County, from which 30 percent of Wilson Bridge 
traffic originates.
    A 12 lane bridge, in a local/express configuration, will provide 
superior safety and merging operations. Such a facility will remove 
traffic bottlenecks, improve carrying capacity, reduce travel times, 
improve safety, and provide the flexibility for future HOV/transit 
operations. The Woodrow Wilson Bridge Coordination Committee's own 
studies have shown that the 12-lane express/local configuration is 
needed to reduce congestion during peak periods and save travel time 
for commuters. It is also essential that the interchanges encompassed 
in the study area be improved to enhance local and interstate access to 
businesses and residences in the corridor.
    We must build for the future. The Council of Governments has 
projected a 43 percent increase in regional population and 1.1 million 
new jobs over the design year of the new bridge. Also projected is a 
region-wide 60 percent increase in total vehicle trips, but only a 20 
percent increase in planned highway capacity. The Wilson Bridge as part 
of the Capital Beltway is the only major facility in this corridor with 
the ability to expand with reasonable environmental impacts.
    I urge you to endorse and provide full Federal funding for the 
Wilson Bridge Coordination Committee's Preferred Alternative without 
reducing the number of lanes across the bridge or eliminating access 
improvements at interchanges. Unlike any other bridge in the country, 
this bridge is owned by the Federal Government. Therefore, it is 
essential that the Federal funding made available for this project 
should not be counted against regular Federal funds that are allocated 
to Virginia or Fairfax County for other critical transportation 
projects.
    Thank you for this opportunity to provide comments on behalf of 
Fairfax County on this critical project which is of regional as well as 
national significance.
                               __________
    Statement of John J. Collins, Senior Vice President, Government 
                 Affairs, American Trucking Association
I. Overview
    Chairman Warner, Senator Baucus, members of the Committee, thank 
you very much for the opportunity to offer the trucking industry's 
perspective on replacement of the Woodrow Wilson Bridge. Thanks in 
large part to Chairman Warner's leadership, the National Highway System 
Designation Act began the process of Federal funding for the bridge. As 
we move into the next phase, we hope that this Committee will reaffirm 
the vital national interest in timely replacement of the bridge and the 
importance of a strong Federal commitment to that effort.
    The American Trucking Associations (ATA) is extremely concerned 
that a replacement for the Woodrow Wilson Bridge over the Potomac River 
is completed in a timely manner. We believe that four principles should 
guide this process:
    First, given the critical role of Interstate 95 to commerce and the 
quality of life of a large proportion of our nation's population, and 
the fact that the Wilson Bridge is owned by the Federal Government, the 
Federal share for construction of a replacement structure should fully 
fund the costs.
    Second, tolls should not be utilized as a funding mechanism for 
construction of the bridge. A toll barrier would reduce safety, 
increase traffic congestion, reduce air quality, and raise freight 
delivery costs for the East Coast.
    Third, the bridge design should provide sufficient future capacity 
based on traffic projections, while minimizing the footprint and the 
impact on local communities to the greatest extent possible.
    Fourth, extending authorizations over a number of years and phasing 
construction would ease the impact on limited transportation budgets.
II. ATA's Interest in the Woodrow Wilson Bridge Replacement
    ATA is the national trade association of the trucking industry. We 
are a federation of over 36,000 member companies and represent an 
industry that employs over nine million people, providing one out of 
every ten civilian jobs. ATA's membership includes nearly 4,200 
carriers, affiliated associations in every state, and 13 specialized 
national associations. Together, ATA represents every type and class of 
motor carrier in the country.
    ATA has a dual interest in the Wilson Bridge project. As the 
national representative of the trucking industry, we are naturally 
concerned about our industry's ability to continue to serve its 
customers safely and efficiently. As a landowner, with our Alexandria, 
Virginia headquarters building adjacent to the Capital Beltway and 
within sight of the Wilson Bridge, we are also looking very closely at 
the impact of construction--or alternatively non-construction--of the 
bridge replacement on our property and the more than 400 people who 
work there.
III. The Impact of Delay
    If recent trends continue, total miles travelled in the United 
States will increase 20 percent by the end of the century. Both the 
total number of miles driven by trucks, and the total volume of ton-
miles will grow 29 percent by 2004. The Washington metropolitan area 
will see its share of traffic increases. Seventy-one percent of freight 
in the Washington metropolitan area is moved by truck and many 
locations are served exclusively by truck. Between 1990 and 2020 total 
average truck miles in the metropolitan area will increase from 6.3 
million to 12 million per day, a growth of 92 percent.
    Already the second most congested city in the nation, the 
consequences for Washington of not replacing the Wilson Bridge in the 
next very few years are very serious. It has been estimated that the 
current bridge could be posted for weight in as little as 5 years, and 
could be closed to all traffic within 8 years. Load posting would 
result in buses, recreational vehicles, and trucks being rerouted. 
Diversion of these vehicles from the bridge would put tremendous added 
pressure on alternate routes that are already overburdened, including 
the western part of the Beltway, Route 301 in Maryland, other Potomac 
River crossings, and I-395. The potential impact on congestion and the 
environment of diverting over 17,000 trucks daily to roads that already 
exceed capacity part of each day is very serious.
    Approximately 80 percent of Wilson Bridge truck traffic serves 
communities along the I-95 corridor between Richmond and Baltimore. 
About 65 percent of trucks crossing the Wilson Bridge serve customers 
in the immediate Washington metropolitan area. Two sectors of the 
economy especially important to the Washington metro region would see 
significant consequences. The area's two largest supermarket chains--
Giant Food and Safeway--both have distribution centers in Landover, 
Maryland. Presently, their trucks use the Wilson Bridge to move 
groceries and other products from their distribution centers to all of 
their stores south of the Wilson Bridge. If trucks are diverted from 
the bridge, it would force these supermarket chains to drive their 
trucks up to 60 miles out of their way in order to supply their 
Virginia stores. Giant Food estimates that over 200 of their tractor-
trailers cross the bridge every day to supply their stores. In 
addition, hundreds of Giant's suppliers use the bridge. Giant considers 
the Wilson Bridge to be their ``corporate lifeline''. The additional 
costs incurred from driving the extra miles would translate into higher 
prices for consumers at the checkout counter. For both companies, the 
added mileage would induce more congestion and air pollution effects.
    A ban on using the bridge would be particularly troublesome with 
respect to trucks carrying home heating fuel or gasoline. Many trucks 
transporting petroleum products from the pipeline transfer facility in 
Newington, Virginia, now use I-95 and the Wilson Bridge to make 
deliveries to southern Maryland. If they could not use the Wilson 
Bridge, the trucks would have to be rerouted many miles out of their 
way, increasing their accident exposure. Diversion would also add to 
the cost of petroleum products to residents and businesses in southern 
Maryland who are served by the Newington facility.
    While Washington area residents would certainly bear the brunt of 
truck traffic diversion, the effects would be felt along the Eastern 
seaboard and throughout the nation. As the most important freight 
artery on the East coast, I-95 is absolutely essential to the safe and 
efficient delivery of goods. The ``Beltway Barricade'' that would be 
created as a result of traffic diversion or bridge closure would 
increase the costs to shippers who rely on the Capital Beltway portion 
of I-95 for their deliveries. The potential costs are tremendous. Over 
$47 billion worth of freight moves between Virginia and East Coast 
states north of Washington, D.C. each year. Pennsylvania shipments to 
and from East Coast states south of Washington exceed $31 billion 
annually. Much of this traffic moves on I-95. East coast manufacturers 
would be put at a competitive disadvantage and consumer prices would 
rise if I-95 could no longer be counted on as an efficient delivery 
route.
IV. Fully Fund the Bridge
    ATA recognizes that there are limited resources available for 
national highway priorities. However, we believe that the Wilson Bridge 
replacement is a unique situation that makes it a vital national 
concern deserving of full Federal funding.
    The Wilson Bridge is the only Interstate System bridge owned by the 
Federal Government. As such, the Federal Government is responsible for 
the structural and functional integrity of the bridge. Furthermore, 
other federally owned roads that serve the nation's capital, such as 
the George Washington Memorial Parkway and the Baltimore-Washington 
Parkway, receive special funding out of the Federal Lands Program in 
recognition of their Federal ownership status.
    Finally, it is unrealistic to expect Maryland and Virginia to bear 
the brunt of the project's cost out of regular apportionments. If they 
were they required to, the states would not be able to address their 
many other essential transportation concerns. Replacement of the bridge 
has national consequences, and a national commitment is thus needed to 
ensure that the safety and efficiency of the I-95 corridor is not 
jeopardized.
V. No Tolls
    ATA is also very concerned about the effects of tolls, which would 
likely be necessary absent sufficient Federal funding. The Wilson 
Bridge segment of the Beltway is already the highway's most dangerous 
due to tremendous daily congestion. This is one of the reasons for the 
urgency behind construction of a replacement. It would be ironic to 
replace a bridge to reduce congestion and the associated accidents only 
to erect a toll barrier that would continue and perhaps aggravate these 
problems. Some suggest that automated toll collection methods would cut 
down on congestion. However, even under the most ideal circumstances 
these methods have not fully addressed the problem. For example, the 
Dulles Toll Road in Northern Virginia has a high proportion of commuter 
traffic--motorists one would expect to take advantage of automated 
collection. Yet severe backups to the toll plazas are routine. The 
Wilson Bridge serves far fewer commuters; therefore, the number of 
people who take advantage of automated collection would be even more 
limited.
    Forcing traffic to come to a stop on a free-flowing highway is 
inherently dangerous. Furthermore, inevitably some motorists will avoid 
the toll by taking alternative routes--including through residential 
neighborhoods--which would increase traffic and accident exposure on 
these roads.
    On average, user taxes already comprise more than 20 percent of a 
truck's operating costs. A new toll would add to this burden, as would 
the reduced productivity associated with lost time due to increased 
congestion. The additional costs would be passed on to shippers, and 
ultimately, to consumers.
    As an Alexandria stakeholder, we have a concern because one of the 
possible locations of the toll facility is adjacent to our property. It 
would take part of our property and significantly diminish our working 
environment. Construction delays would increase traffic on both local 
roads and the Beltway. This would affect the ability of our employees 
to safely commute to and from work, reduce our productivity, and 
diminish our overall quality of life.
VI. Maximum Capacity with Minimum Footprint
    Like many other Alexandria residents, we are concerned about the 
impact of construction on our community. We hope that any design 
adopted will take into consideration both the practical aspects of 
moving traffic through and around Alexandria and the impacts of the 
project on the community. Therefore, we encourage the development of a 
bridge design which will minimize the project's footprint and 
consequences for residents' quality of life, and provide sufficient 
capacity to accommodate anticipated traffic increases.
    The replacement bridge must be designed to accommodate the 
significant increases in traffic that is anticipated over the next two 
decades. Current travel demand forecasts indicate that by the year 2020 
approximately 300,000 vehicles will cross the bridge each day, compared 
with the 160,000 that currently use the bridge. It would be unwise to 
build a bridge that saddles the next generation with the same 
difficulties experienced today. It would be equally unwise to design a 
bridge that unnecessarily spoils the unique charm and the community 
spirit of surrounding neighborhoods. We believe that a balance must and 
can be achieved.
    The Wilson Bridge Coordinating Committee has recommended a general 
design that has 12 lanes and is about 250 feet wide. ATA believes that 
the structure can be narrowed without reducing capacity or compromising 
safety. This would lessen the impact on communities and lower the 
project costs. The Committee's recommended alternative also includes 
extensive, highly complex interchanges. These interchanges can be 
simplified without significant negative consequences.
VII. Extended Authorization Period and Phased Construction
    We recognize that this project is expensive it would be difficult 
to squeeze both the project and the authorizations into a 5-year 
period. The entire project can be completed in up to 10 years. 
Authorizations could be made over the same time period.
    While the most vital aspects of the project must be completed by 
2002 to avoid closure or weight-posting, construction on other phases 
of the project, such as the HOV interchanges, could be delayed a number 
of years. Even those phases of immediate concern need not be paid for 
until after construction is completed, provided Congress and the 
Administration authorize grant anticipation notes.
VIII. Conclusions
    Washington, D.C. is already the second most congested city in the 
nation, and the area's traffic woes affect the ability of trucking 
companies to safely and efficiently serve their customers nationwide. 
Replacing the existing Federal bridge before these problems are 
severely exacerbated ought to be a national imperative. As the owner of 
the Wilson Bridge, the Federal Government is responsible for avoiding 
the congestion, safety, and environmental calamity of load-posting or 
closing the bridge, or erecting a toll barrier. The most effective and 
fair means for achieving these objectives is to provide full funding 
for the project. For the Federal share of the financing, arrangements 
that do not include tolls are available to lessen the impact on other 
transportation needs.
                               __________
     Statement of Susan Williams, Greater Washington Board of Trade
    Chairman Warner and members of the subcommittee, my name is Susan 
Williams and I chair the Greater Washington Board of Trade. The Board 
of Trade is the regional chamber of commerce for greater Washington 
which includes Northern Virginia, suburban Maryland and the District of 
Columbia.
    I would like to thank you for your very important efforts in 
working to improve our nation's transportation infrastructure.
    The Woodrow Wilson Memorial Bridge has been a transportation 
priority of the Board of Trade for many years. The genesis of our 
involvement on the Federal level for this bridge has two benchmarks. 
First, the Interstate Study Commission for Transportation which was 
established under the Intermodal Surface Transportation Efficiency Act 
of 1991. This Commission, chaired by Jack Herrity and composed of 
leaders from throughout our region, led to additional Federal 
legislation included in the National Highway System Act of 1995 which 
gave Congressional consent to develop an interstate compact to own and 
operate a new Woodrow Wilson Bridge.
    Second was the recently completed 3 year study by the federally led 
Woodrow Wilson Bridge Coordination Committee which, in September 1996, 
recommended building a $1.6 billion dollar, 12-lane, 70' high 
drawbridge. This 3-year effort was the latest in various studies of the 
bridge going back at least 10 years.
    Obviously, there has been a great deal of time and effort devoted 
to solving the problems of the Wilson Bridge, and as we meet here today 
there are only a short 8 years of useful life remaining in this 
critically important structure.
    The Wilson Bridge is overburdened with approximately 175,000 
vehicles each day, carrying more than twice the bridge's design 
capacity. It is integral to the region's economic life in so many ways.
    The Wilson Bridge is also a critical point in moving commercial and 
visitor traffic along I-95, the ``main street'' of the East Coast. In 
fact we recently received copies of correspondence from business 
organizations in Pennsylvania and New York recognizing the importance 
of rebuilding the Wilson Bridge in order to help alleviate the 
interstate transportation problems of companies in their areas.
    In addition, a new study commissioned by the Board of Trade reveals 
that our region has insufficient bridge capacity and ranks next to last 
among similar major metropolitan areas as measured in lane miles of 
bridges to population. In addition, while other metropolitan areas 
studied built between two and five new river spans during each decade 
over the past 30 years, Washington has added no new major bridges.
    Given the short lifespan remaining for the bridge, we must not 
allow the status quo to continue--we must quickly move forward to 
construction.
    This morning I am here to restate the principles of our program to 
rebuild the bridge and to recommend a target date for completion.
1. Maintain Full Federal Funding/No Tolls
    We restate our position that full Federal funding for replacement 
of the Woodrow Wilson Bridge be secured so that no tolls are required 
for its construction and operation. Senator, can you imagine the 
Capital Beltway with tolls? This funding should cover the bridge itself 
plus the cost of modifications and improvements to approach lanes and 
interchanges where required by Federal regulations.
2. Examine Project Costs/Project Phasing
    Given the challenges in funding this project, it would be useful to 
closely examine project costs to determine if there is any latitude in 
streamlining these costs while maintaining the traffic capacity of the 
recommended alternative. We have consistently been concerned with 
``whistles and bells''. For example, we understand that current design 
items include HOV lanes, an urban deck and an island deck which 
cumulatively add well over $100 million to the total project.
    We continue to hear a wide range of ``back of the envelope 
guesstimates'' as to how much the project might cost. My point, 
Senator, is if there are real savings to be accomplished, while 
maintaining the project's integrity, then we need to know this.
    Further, in order to move forward more quickly, we suggest that an 
examination be made of phasing the construction of various components 
of the replacement structure. Are there essential segments of 
construction that could proceed on a fast track basis while others are 
phased in later? The situation is critical, we must be flexible!
3. Governing Mechanism
    The 1995 National Highway Act, as I mentioned, gives consent for an 
interstate compact to be put in place as the governing mechanism to 
oversee the construction and ownership of the replacement bridge. Final 
action of the legislatures in Maryland, Virginia and the District of 
Columbia is scheduled for completion by April, 1998. If an authority is 
not established at the state level then Congress should put in place an 
entity to undertake this effort. By year end, Federal funds to build 
the bridge replacement should be transferred to a holding entity for 
later use.
4. Waiver of Environmental Impact Statement
    If any refinements or construction phasing is required, we would 
obviously want to avoid any major procedural delays. An enormous amount 
of time and effort has already been devoted to the environmental 
concerns surrounding options for this project. It is suggested, 
therefore, that to maintain a reasonable completion schedule, further 
EIS requirements related exclusively to the 12-lane recommended 
alternative of the Woodrow Wilson Bridge Coordination Committee be 
waived.
5. Ribbon Cutting July 4, 2006
    As the existing bridge has no more that 8 years of useful life 
remaining, it is important for reasons of `safety, mobility and 
economic development to open the replacement bridge in no more than 8 
years. We must urgently commit ourselves to a completion date and 
ribbon cutting by July 4, 2006 and hold' the region accountable for 
this opening date. We cannot afford to wait longer!
    The Board of Trade will maintain the Wood row Wilson Bridge as one 
of our key transportation priorities as it is essential to the safety 
of residents and economic prosperity of our region. We will continue to 
devote our resources and private sector leadership to this important 
effort. We appreciate your leadership as well.
    Thank you for this opportunity to comment.
                               __________
  Testimony of Jonas Neihardt, President, Old Town Civic Association, 
                          Alexandria, Virginia
    Mr. Chairman, I am Jonas Neihardt, President of the Old Town Civic 
Association in Alexandria, Virginia. I want to thank you for calling 
for this hearing, as the process to replace the Woodrow Wilson Bridge 
has veered wildly off course and now requires serious and sustained 
Congressional oversight to ensure that our highway dollars are not 
wasted on a bridge that is poorly conceived, too far too big, and 
disastrous for the community it bisects.
    The Old Town Civic Association, as you know, has worked since 1951 
to preserve and nurture the Old and Historic District in Alexandria as 
a living museum for future generations to learn from and enjoy. 
Unfortunately, Mr. Chairman, this living museum is threatened by the 
prospect of a replacement for the Woodrow Wilson Bridge that is 244 
feet wide (the current bridge is 96 feet wide) served by massive new 
interchanges. This plan is fiscally, environmentally, and historically 
irresponsible.
    As you know, Old Town is not a theme park with a paid maintenance 
crew--all of the work necessary to preserve the Historic District is 
done by us residents. Therefore, for Alexandria to continue as a living 
museum it must be suitable to live in, and I am here to testify that 
the 244-foot wide bridge that has been relentlessly pursued by the 
Federal Highway Administration (FHWA) and its contractors will make the 
majority of Alexandria's Old and Historic District unlivable.
    While we residents have tolerated the 96-foot wide existing Woodrow 
Wilson Bridge for over three decades, a 244-foot wide replacement will 
create additional noise and air pollution and physically overwhelm the 
Historic District to such an extent that my neighbors and I, those of 
us who live in, and are dedicated to, carefully preserving the Historic 
District, will leave.
    It is a lot of work to maintain a 200-year old house. It takes a 
lot of time and money. Neither we, or anyone else, will be willing to 
spend the time and money necessary to maintain our homes if the roar of 
traffic from a 244-foot wide bridge through the Historic District 
penetrates our homes and if our families are sickened by pollution in 
excess of the EPA's clean air standards. No one in their right mind 
would want to live near the bridge that the FHWA wants to build. And 
when we, the residents who are committed to historic preservation, sell 
our houses at a loss and leave, the commitment to historic preservation 
will leave with us, and the Historic District will decay and ultimately 
be lost.
    I only ask you to look around the country at the blighted 
neighborhoods that stand at the feet of our large urban bridges. Nobody 
wants to live there.
    It is simply not possible to maintain a habitable community that is 
bisected by a 244-foot wide swath of concrete and its attendant 
traffic.
    The irony is that a 244-foot wide bridge is not needed. First of 
all, the beltway will remain at eight lanes for the foreseeable future. 
Therefore, eight through lanes and two acceleration/merge lanes are all 
that is needed on the Wilson Bridge replacement. Similarly, costs in 
the billions of dollars will prevent the addition of HOV lanes to the 
beltway for the foreseeable future, eliminating the need for HOV lanes 
on the new crossing.
    Looking back, our problems began when the FHWA decided to limit the 
Woodrow Wilson Bridge study area to the immediate vicinity of the 
bridge, instead of including the area ten to 15 miles south of the 
bridge. As you know, it is the area to the south of the bridge on both 
the Virginia and Maryland sides that is currently experiencing rapid 
development, and that growth will be sustained for decades. Yet, to the 
south of the Woodrow Wilson Bridge there is not another bridge for 45 
miles. Because the study area for the bridge replacement was so 
limited, FHWA came to the conclusion that all of the region's new 
traffic should be carried through the Wilson corridor.
    The size of the replacement bridge as recommended by FHWA was 
driven by outdated growth and traffic projections. Those growth and 
traffic projections, based on data from the boom-time 1980's, are no 
longer realistic in an era of reducing the size of Washington, D.C., 
area based Federal headquarters staff.
    The bridge recommended by the FHWA would consume huge amounts of 
limited national infrastructure dollars for a massive new facility on 
the Wilson corridor when we have pressing needs all around the country 
for infrastructure repair and improvement.
    On the issue of cost, because an unwise decision was made to tell 
the design team to develop the best possible crossing without concern 
for cost, the team designed a bridge that is excessive in all 
dimensions.
    As a result, the recommended solution is a 244-foot wide monster 
bridge that has the effect on concentrating traffic in one corridor. 
This is no solution. I only asked you to look to the expansion of 1-
270. The old 1-270 was congested, so FHWA widened the road 
substantially. Well, it is filled up again. The same thing will happen 
at the Wilson Bridge if we simply widen the Wilson crossing and fail to 
build a second crossing to the south.
    Tales of the Wilson Bridge's imminent demise are exaggerated. We 
have time to reduce the size of the Wilson Bridge replacement design 
while at the same time analyzing the potential for a second crossing to 
the south. I understand that heavy trucks inflict such damage to the 
current bridge that limiting the use of the bridge by the very heaviest 
trucks would extend the life of the bridge by decades. It is far wiser 
to place weight limits on the Wilson Bridge and take the time we need 
to design and build a cost-effective and environmentally responsible 
replacement than to spend $1.6 billion on a bridge that concentrates 
traffic in one corridor and is far bigger than necessary.
    Earlier I said that the Wilson Bridge Design project has run amuck. 
You should know, Mr. Chairman, that it is not yet under control. For 
example, despite the fact that you wrote the heads of the 
Transportation Departments on May 13 and told them to begin to scale 
back their aspirations for this bridge because of budgetary 
limitations, on May 27, the Woodrow Wilson Bridge design center sent a 
``Summary'' of the project to the whole world that continues to trumpet 
the need for and benefits of the 244-foot wide monster bridge. This 
report mentions the need for tolls also, and I recall that your letter 
specifically rules tolls out.
    The staff of the Design Center have been ignoring us Alexandrians 
for years now, so I am used to it, but I am surprised, to say the 
least, that they feel sufficiently empowered to ignore the specific 
written direction of the Chairman of their Senate authorizing 
committee. I guess that they figure that even though you are the 
Chairman, you are also an Alexandrian so they can ignore you too.
    The consultants to the FHWA have spent 3 years and at least $14 
million in taxpayer dollars to gin up unrealistic traffic forecasts, 
then to scare the region into thinking that the Wilson Bridge is about 
to fall down, and then to execute a public relations campaign to 
promote the 244-foot wide bridge. All this public relations activity 
has obviously distracted the team from their substantive work, as their 
air quality study was recently deemed ``inadequate'' by the EPA, and 
the existence of the graves of nearly 2,000 freed slaves from the civil 
war era in an area to be impacted by the 244-foot wide bridge was not 
brought to the attention of decisionmakers until after the Coordination 
Committee took its final vote.
    Needless to say, there does not exist a high level of trust between 
the design team and the residents of Alexandria. If the process is 
going to move forward with the current team, Mr. Chairman, they will 
need to understand clear and specific limitations as to what can be 
built at the Wilson corridor.
    If the 244-foot wide monster bridge is built, the real tragedy is 
that long after we are gone from this earth, the legacy of those of us 
in this room right now will be a huge, horrible slab of concrete that 
will deface the river that George Washington loved and will cause his 
home town to fall to ruin after a prosperous existence of 250 years. 
President Washington called the stretch of the Potomac from Mt. Vernon 
to the mouth of the Anacostia the most beautiful place in America, 
which is why is lived here and chose this place for our Nation's 
capital. We will have failed miserably in our responsibility as 
stewards of these places held dear by resident Washington if we build 
the 244 foot wide monster bridge.
    I will conclude with three recommendations:
    1. The current Woodrow Wilson Bridge should be removed and its 
replacement should carry no more than ten total lanes and a maximum 
total width of 150 feet which should connect to the existing 
interchanges.
    2. Congress should direct the FHWA to commence with serious study 
of the potential for a new crossing ten to 15 miles to the south that 
will contribute to the resolution of current and future regional 
traffic problems.
    3. Congress should maintain sustained oversight of the work of the 
Transportation Department in its execution of the two above 
recommendations in order to protect taxpayers and nearby residents from 
thee expansive ambitions of the FHWA and their contractors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     EPA: span air study is flawed.
                           (By Gordon Lubold)
    The Environmental Protection Agency says the required air quality 
study for a new Woodrow Wilson Bridge is flawed because it fails to 
account for the size and scope of the 12-lane span that has been 
proposed.
    The oversight leaves a door open for Alexandria, which has yet to 
decide if it wants to mount a legal challenge to mitigate the impacts a 
large bridge might have on historic Old Town.
    The air quality ``conformity assessment''--required by Federal 
highway officials for any large road project--assumed only 10 lanes of 
traffic when the bridge is built. A regional panel, however, decided 
last fall that a 12-lane bridge should replace the deteriorating span.
    The panel said 10 lanes would be used for ``general purpose'' 
lanes, and the other two would be reserved far high-occupancy vehicle 
lanes or perhaps a mass transit bus lane, both of which remain large 
question marks as leaders in Congress hammer out funding for the 
project.
    The study also assumed that the project would include one of two 
``toll scenarios, but many regional leaders have said the new bridge 
will not have tolls.
    Sen. John W. Warner, R-Va., who chairs the subcommittee on 
transportation that will influence much of the funding for the project, 
has said: ``Tolls are off the table.''
    The study will have to be done again if final plans for the bridge 
differ from those assumed in the original study.
    Toll booths generally have a major impact on air quality because 
vehicles wait in line to pay tolls and discharge more emissions. And 
when motorists accelerate to pull away from a toll booth after paying, 
more emissions are generated.
    Since the study's computer-assisted modeling assumed tolls but did 
not assume as many cars as would likely cross the bridge should all 12 
lanes be used, the EPA says the assessment doesn't adequately reflect 
what kind of bridge will likely be built.
    Thomas J. Maslany, director of the air, radiation and tonics 
division of EPA, wrote the Federal Highway Administration on May 12 to 
declare the EPA has ``concerns'' because ``the analysis does not 
address the full scope of the project.''
    The letter goes on to say, ``EPA is concerned that the absence of a 
firm commitment to an alternative transportation mode will not preclude 
the additional two lanes reverting to a conventional highway 
configuration in the future.''
    A spokesman from EPA said yesterday that the assessment was 
reasonable considering the information that the Federal Highway 
Administration gave the group that performed the study, the street the 
region's Transportation Planning Board.
    But Paul Wentworth, an EPA spokesman, said that means the EPA wants 
assurances the bridge will be used accordingly. The EPA wants to make 
sure That the bridge is gain'' to be used in a certain way,''
    Wentworth said. We need to firm up the idea of what the description 
of the project entails.''
    Ron Kirby, director of transportation planning for the 
Transportation Planning Board, says the study assumed 10 lanes of 
traffic because no one knew how the other two bridge lanes would be 
used.
    Since HOV lanes on the bridge are still in question, Federal 
highway officials gave Kirby the 10-lane specifications. Had his 
staffers assumed 12 lanes of traffic, he said, the resulting study 
would not have been accurate.
    ``The assumption that we made last September was the best one to 
make at the time'' Kirby said yesterday, adding that a new study would 
be done when the specifics of the bridge become more clear.
    Federal highway officials were not available for comment yesterday.
    But the flawed study isn't sitting well with Alexandria officials, 
who have long complained that the air study was not taking into 
consideration the full size of the bridge.
    This confirms the position that the city consistently presented to 
the Transportation Planning Board and that the Transportation Planning 
Board consistently rejected, City Attorney Philip Sunderland said, 
adding that the air quality study is not valid. He said the integrity 
of the process was jeopardized, and doing another study down the road 
long after the new bridge is built and when the added lanes are needed 
doesn't jibe with Federal regulations.
    ``The conformity regulations do not allow that kind of fiction,'' 
Sunderland said.
    Alexandria City Council members passed a budget earlier this month 
that holds about $1 million in reserve to pay for a possible legal 
challenge to the environmental process by which the new Wilson Bridge 
would be built. The city has retained the Washington law firm of 
Beveridge & Diamond, and attorneys with the firm have been working on 
the bridge issue for the cite behind the scenes.
    City leaders were reluctant to reveal their strategy, but Sundered 
said the flawed air quality study represents an opportunity for the 
City.
    ``The Transportation Planing Board action, which we always 
considered to be invalid, was one of a variety of issues which can be 
pursued in litigation,'' Sunderland said.
    Kirby said that once the funding for the bridge is settled, and it 
becomes more clear whether tolls will be required, the much-anticipated 
``environmental impact statement'' can include specific assurances 
about the bridge.
    The statement, a large document that explains the impacts the 
project would have on the surrounding area, was first due earlier 
Willis year but has been tied up in Federal bureaucracy and should be 
released later this summer.
    Kirby said he thinks the EPA will be satisfied as long as that 
document contains specific assurances that the bridge be built 
according to the specifications used for the air quality study.
    The way I read the letter is that the final ``environmental impact 
statement'' has to state it very explicitly and that they felt that 
that was not stated explicitly,'' he said.
                                 ______
                                 
                           Bridge Comparables
    American Legion Bridge over Potomac-Va.-Maryland
      Length = 1,443 feet
      Curb to curb = 134 feet
      Average Daily traffic = 158,025
      Number of lanes = 8


    Delaware Memorial Dual Bridges
      Length = 10,765 feet
      Max. Span = 2,150 feet
      Curb to curb = 51' per bridge
      Av. daily 38,090 per bridge
      Number of Lanes = 4 lanes on each bridge


    Interstate 95 Millard Tydings Bridge over Susquehanna River
      Length= 5061
      Max. Span= 490
      Curb to curb = 82'
      Avg. daily traffic = 56,026
      Lanes = 6


    Tappan Zee Bridge NY State over Hudson River
      Length= 16,012'
      Max. Span = 1202'
      Curb to curb = 84'
      Avg. daily traffic = 117,300
      Lanes = 7
                                 ______
                                 
                       [From the Washington Post]
                  Moran Proposes Potomac Span to South
       crossing would siphon traffic from prison bridge, he says
                             By Alice Reid
    Rep. James P. Moran Jr. (D-Va.) is asking Federal highway officials 
to study a new Potomac River crossing 10 miles south of where the 
Wilson Bridge carries the Capital Beltway between Alexandria and Prince 
George's County. Such a crossing, Moran says, would siphon off 10 
percent of the Wilson Bridge's traffic load of about 170,000 vehicles a 
day and handle traffic from expected growth in Southern Maryland and 
Fairfax County.
    It was unclear yesterday how much a southern crossing would cost or 
how Fairfax County and Prince George's officials would feel about it. 
Moran did concede that his proposal could delay action on replacing the 
bridge by six to 9 months if the regional panel considering it decides 
to include his plan among those it is studying. Already the panel has 
spent nearly 3 years deliberating the bridge issue.
    Moran's suggestion is part of his proposal to replace the Wilson 
Bridge with an eight-lane drawbridge, which he said would be simpler 
and more affordable than any other plan under consideration. His idea 
got good reviews this week during public hearings on plans to replace 
the crumbling, 35-year-old Wilson Bridge, a 50-foot-high draw span that 
carries the Beltway over the Potomac River.
    Moran outlined his plan in Alexandria last night at a hearing held 
by local, state and Federal officials that drew more than 300 area 
residents, many of them Moran's constituents from Alexandria and 
Fairfax County. A eight earlier, dozens of residents supported it 
during a hearing in Prince George's.
    The 14-member regional panel that has been studying a replacement 
for the Wilson Bridge has set an October deadline for making a 
determination and reporting to Congress.
    At neither hearing was there much support for either of the options 
that emerged as the panel's favorites at a retreat on the Eastern Shore 
in May: a 16-story, 12-lane bridge or a combination bridge-tunnel 
crossing. Either would cost about $2 billion, analysts say, and require 
tolls of more than $1 a trip.
    The panel has rejected the idea of building only a tunnel to 
replace the Wilson, a plan favored by many Alexandria residents who are 
worried that a tall bridge would tower over historic Old Town. But 
panel members say they could not obtain financing for a tunnel-only 
plan, estimated to cost about $3 billion.
    Many of the 60 speakers last night criticized the expense and scale 
of both plans favored by the panel and said the new pen for a smaller, 
eight-lane bridge being pushed by Moran was more realistic. Moran says 
such a bridge would cost about $1 billion, a figure disputed by some 
engineers.
    The regional panel has deliberated without knowing how much the 
Federal Government, which owns the bridge, will be willing to 
contribute to the cost of its replacement. Most estimates have been in 
the $400 million to $450 million range. The remainder will have to be 
financed by privately funded bonds, which would be paid off with tolls.
    The committee needs to be more realistic about the overall scope 
and scale of the project,'' Moran said in a statement yesterday. Chute 
simply, it is time to stop the endless debates and come around to a 
bridge that is realistic, achievable and consistent with the best 
interests of this region.''
    Moran said he was hopeful that the panel will study his proposal 
fully. He said after the meeting that panel chairman and Federal 
highway commissioner David Gendell ``was receptive.''
    If the panel ignores his suggestion, Moran said, ``It can present a 
recommendation for a more expensive solution, and then we [in Congress] 
kill it and move on.''
    Moran's pen calls for a 70-foot high drawbridge that he says would 
cost $450 million. Improving feeder interchanges on Route 1 in 
Alexandria and on Interstate 295 near the Prince George's shoreline 
would cost an additional $550 million, he says. .
    To accommodate future growth, Moran advocates building a bridge 
connecting Maryland's Routes.210 and 301 with the Fairfax County 
Parkway through Fort Belvoir, 10 miles downstream from the Wilson 
Bridge crossing.
    Fairfax officials ``have not studied the idea of a southern 
crossing, but most of them would prefer the whole crossing at the 
Wilson Bridge,'' he added.
    ``I just don't think that is realistic'' because of the growth 
south of the bridge.
    Maryland representatives oh the regional panel have expressed 
opposition to replacing the Wilson with another drawbridge, saying that 
the bridge openings exacerbate the tie-ups on the Beltway. But Moran's 
plan for a 70-foot-tall span--20 feet higher than the current bridge--
would mean that the drawbridge would need to be opened only about 60 
times a year, rather than the current 200.
    The openings would be for Navy vessels and ships serving the 
Robinson Terminal Warehouse Corp on Alexandria's waterfront.
    Robinson Terminal, which his owned by The Washington Post Co. 
supplies newsprint to The Post and other papers in the area.
    Moran's plan is not popular with some business leaders who fears 
that an eight-lane bridge will not be able to accommodate traffic 
growth.,. . .
    Whatever design is chosen, it must provide for at least 12 lanes 
and preferably more,'' Frederick A. Kober, vice chairman of the Tysons 
Corner-based business group called the Northern Virginia Transportation 
Alliance. ``To build less is to build a facility that will be obsolete 
almost the day it opens.''
                               __________
Statement of Robert L. Montague, Alexandria Historical Restoration and 
                        Preservation Commission
    I am Robert L. Montague, III, Chairman of the Alexandria Historical 
Restoration and Preservation Commission. I appreciate very much the 
opportunity to present our views to the Committee this morning.
    I would like to draw the attention of the committee to the range of 
destructive and irreversible impacts that the unnecessarily large 
proposed replacement of the current Wood row Wilson Bridge will have on 
the nationally significant historic area of Alexandria.
    But our Commission does not take the ``NIMBY'' position that there 
should be no improvement or replacement of the current span. We accept 
that there is need for a replacement and recognize that any replacement 
proposal would have some adverse impact on Old Town. We just want to 
minimize the damage to our historic landmark to the greatest extent 
possible while being expected to shoulder the major share of the 
burdens that are created by accommodating the growth in vehicular 
traffic. A 10-lane bridge would serve the purposes adequately and not 
have the very substantial adverse impacts that would result from the 
currently proposed 12-lane bridge with all of its features.
Legal Basis and Objectives of the Commission
    The Alexandria Historical Restoration and Preservation Commission 
was created by an Act of the General Assembly of Virginia in 1962. This 
act recognized that Alexandria ``possesses historical values, cultural 
traditions and elements of unique beauty and charm, including important 
historic sites of state and national interest. . . .'' The Assembly 
also found that is ``desirable to restore. . . and to preserve and 
maintain'' the important historic sites and ``other important 
landmarks'' in Alexandria ``and to adapt the area surrounding these 
buildings to a similar plan, design and architecture in order to 
properly interpret and understand the history of the city and its 
relation to the Commonwealth of Virginia. . . .''
    The Assembly has given the Commission powers to acquire, restore, 
lease or convey properties and to accept easements on such properties 
to achieve these objectives.
    Probably most notable among the Commission's endeavors has been the 
acquisition and restoration of the Lloyd House. It currently is seeking 
easements on open space to preserve the traditional viewscapes and 
atmosphere of Alexandria's historic area. It also accepts easements on 
the exteriors of significant historic resources and recently launched a 
program to accept easements on the interiors of residential and other 
structures in order to preserve these very important historical and 
cultural resources.
    Our Commission believes it is a critical component of the combined 
public and private effort that is the hallmark of Alexandria's approach 
to maintaining our unique national historic facilities and character. 
The citizens and government in Alexandria are engaged in a cooperative 
``stewardship'' of the historic resources we have inherited and 
ardently wish to pass on to future generations.
Purpose of this Statement
    We believe it is most important that very explicit and sufficient 
attention be given to the adverse impacts that the bridge replacement 
decision will have on the historic and cultural resources in 
Alexandria. Our Commission advocates that these impacts be minimized to 
the very extent possible. We also urge that additional approaches be 
developed and phased in later that provide adequate capacity for 
vehicular crossings of the Potomac in this general region as need 
arises and that also prevent degradation of the nationally and 
internationally recognized resource we have in Alexandria.
    It must be emphasized as strongly as possible that this is not a 
matter alone of preventing the demolition or permanent modification of 
individual structures. The historical and cultural characteristics that 
the General Assembly sought to preserve are inextricably embedded in a 
community context providing viewscapes and settings that are as 
important as the structures themselves to presenting the Alexandria 
experience. Take the structures out of the general setting and you have 
wonderful museum pieces and examples of period architecture. It is only 
within the setting that these structures contribute to the experience 
enjoyed by both the residents and visitors to historic Alexandria.
    This historic Alexandria is also a very fragile resource that could 
all too easily slip between our fingers. The threat is only to a small 
extent due to parties who are adverse to or have little or no regard 
for the architectural, historical and cultural values that Alexandria 
embodies. The much greater danger is from two other types of 
activities: first, those that are trying to achieve objectives that are 
deemed to be preeminent to preservation values; second, seemingly 
narrow changes that have relatively small or even imperceptible adverse 
impacts. However, the second of these activities have precedential and 
collateral effects which, taken cumulatively, are capable of eventually 
devastating historic Alexandria.
Issues and Impacts of Concern to the Commission
    The Commission has a number of grave concerns. Some of these deal 
with the construction process, others with the intrusion that the 
structure would create even if the construction, itself, did not have 
an adverse impact and finally with the consequential adverse impacts 
that inevitably will result from the traffic generated.
The Bridge, Ancillary Structures and Interchanges
    Examples of the historic and archaeological resources that are 
immediately at risk from the construction process include the 
archaeological sites such as those located on historic Jones Point and 
the Contraband Cemetery and structures such as the Jones Point 
Lighthouse and Park, the Virginia Shipbuilding Corporation office and 
slipways, the Old St. Mary's Catholic Church Site and Cemetery and the 
Contraband Cemetery. It is difficult to believe that there can be any 
equivocation on this score. Steps might well be possible to prevent 
actual physical damage to the Jones Point Lighthouse but its setting 
will be destroyed. Regardless of proposals to take mitigating steps 
such as construction of sound barriers, it is not credible that the 
visual and audible setting will not be radically changed, essentially 
``taking'' them for the use of this regional and national 
transportation alternative.
    Impact statements assert that the proposed bridge would have ``No 
Effect'' on Old St. Mary's Cemetery but that is hardly credible since 
the plans call for raising the South Washington Street bridge over the 
beltway and taking the existing Mobil gasoline station across South 
Washington Street from the cemetery. If by some extraordinary means the 
St. Mary's Cemetery can escape physical harm from the construction, its 
setting will be very seriously deteriorated by the proposed structures. 
That very important historic resource is already inordinately impacted 
by. the current bridge traffic which a short visit to that site clearly 
reveals.
    Under the proposed replacement the Virginia Shipbuilding 
Corporation office and slipways would be demolished.
    Since the bounds of the Contraband Cemetery, which is located west 
of South Washington Street at its overpass of the Beltway, are not even 
known to the bridge planners, they can have no idea of the extent to 
which the bridge and interchanges will adversely impact the graves 
contained in it. The drawings and other renderings of the new beltway 
interchange system at Route 1 and bridge approaches lead us to believe 
that the Contraband Cemetery is in serious jeopardy.
Intrusiveness
    The visual and audible intrusiveness of the completed replacement 
will affect a much broader area. Our Commission takes into account 
individual properties, assessing the contribution of each property's 
open space on the setting and viewscapes of the broader historic area 
and thereby on its authenticity and integrity. Highway Authority impact 
assessments, however, virtually dismiss as unimportant the views and 
settings that we have worked hard to assemble through open space 
easements. Combining those held by the Commission and other accepting 
agencies, there are more than 25 open space easements held on 
properties in the historic area of Alexandria. The Commission does not 
feel that the impacts of the proposed replacement bridge on these 
settings have been considered adequately. And apparently no specific 
assessment has been made of the open space sites along lower South Lee 
Street or in the low numbered blocks of Jefferson and Franklin Streets. 
And while there are relatively new structures at points between some of 
the older areas of historic Alexandria and the proposed bridge, the 
Board of Architectural Review process assures that these are compatible 
with the old structures and contribute to the historic setting.
    Much of the remainder of the historic area may well escape the 
immediate impacts of the construction and a good deal may not suffer a 
wrenching visual intrusion. We are not claiming that, in itself, the 
bridge structure proposed is ugly or unsightly. The problem is that for 
the historic area the large, 12-lane bridge is inappropriate. For a 
substantial part of the Old and Historic District or the Historic 
Landmark, this large bridge will be a dominant feature. For that part, 
which is within the area to which the Commission is committed to 
maintaining the historic character of Alexandria, the proposed 
alternative will cause a very serious deterioration of setting and 
experience.
Consequential Adverse Impacts
    Compounding these problems are some that may be even greater but 
which are avoided in the impact assessments to date. These are the 
expansions of the interchanges serving Route 1 and South Washington 
Street and Telegraph Road and the projected increased traffic that 
these interchanges will direct onto the streets passing through the 
historic area. It is inevitable that increasing the capacity for 
traffic to move to those areas will generate an increase in traffic, 
especially the rate of flow during narrow rush hours. There is more 
than a homely saying in the statement from the movie The Field of 
Dreams: ``Build it and they will come. . . .''
    The impact assessments claim that the 12-lane bridge would not be 
the cause of such an increase in traffic because development in the 
area of the Pentagon and the Potomac Yards will result in the higher 
level of traffic volume, bridge or no bridge. We contend that is not 
the case. Projections of traffic flow generally make the assumption 
that sufficient road capacity will be made available to move such 
volumes on the selected corridors leading to the new developments. In 
this particular case, it is not at all clear that the planners have 
adequately taken into account the alternative corridors that can be 
taken to those areas, with even less stress than moving through Old 
Town and its traffic control signals at each intersection. For example, 
to get to these areas, traffic originating east of the bridge would be 
well advised to consider taking the 1-295 corridor and crossing the 
Fourteenth Street Bridge southbound to get to the Pentagon, Crystal 
City or even the Potomac Yards areas. Traffic to these areas that 
originates west of Telegraph Road could well be better off traveling 
the 1-395 corridor north to these areas. We are not convinced that it 
is at all necessary to funnel this projected increase in traffic, 
facilitated and supported by the proposed 12-lane bridge into the very 
fragile Historic District of Alexandria.
    It is our very gravest concern that this currently projected 
greater traffic volume will spill over onto all of the north-south 
streets of Old Town and increase enormously the pressures to develop 
enlarged access ways and other commercial and office projects that can 
only degrade the historic character of Old Town. To state this is not 
to be snobbish or elitist; it is only recognizing that there is a 
limited capacity for accommodating guests and visitors to Old Town, as 
well as its residents, businesses, and, yes, the commuters who transit 
through it daily. A proposal to increase the capacity for moving people 
through Monticello by gutting the structure to build ``raceways'' 
facilitating movement through it would surely meet with universal 
disapproval.
Subordination of the Historic and Cultural Values
    Draft impact assessments claim there is a need for compromising 
``local short-term uses of the environment'' in favor of providing for 
the ``enhancement of long-term productivity.'' The clear implication of 
such a position is that increased mobility through the Wilson Bridge 
corridor is preeminent to the historical and cultural values embodied 
in the historic area of Alexandria. We object to characterizing the 
historic area of Alexandria as a ``local short-term use''; it is 
instead a regional, state and national resource that warrants more than 
cavalier dismissal.
    Less than a year and a half ago, the Wilson Bridge was 
characterized as a ``critical link in the Maine to Florida interstate 
route.'' Emphasis today is on the local and regional accessibility that 
it provides. In the process the Wilson Bridge corridor has been made 
both the site of the problem and the site of the solution. This only 
adds unnecessarily to the succession of incremental highway decisions 
and actions that have had increasing impacts on Alexandria's historic 
area. One of these was the 1976 decision to make the eastern segment of 
the Beltway part of I-95. Since then the situation has been exacerbated 
by the incremental increases in the number of lanes on I-495. It is not 
difficult to understand how it was easy to conclude that the problem is 
the Wilson Bridge. However, it is time to break the cycle whereby 
highway planning and construction have served to funnel increasingly 
larger volumes of traffic onto the corridor that passes through the 
southern part of Alexandria. That is working to the detriment of the 
fragile historic Alexandria resource and is not a fair sharing of the 
burdens created by regional and interregional traffic.
    The irony of the situation is that it is not inevitable or 
necessary. Planning is not a highly accurate science but the planning 
process must recognize, and therefore anticipate, that much of what it 
does becomes a self-fulfilling prophesy. Vehicles will move where the 
streets and highways are placed. The placement of transportation 
corridors shapes and conditions the location of much economic and 
residential activity. We believe more attention needs to be given to 
the potential for diverting portions of the projected growth in traffic 
volume away from the corridor.
    Without greater attention to the full range of ``prudent and 
feasible alternatives,'' we are forever condemned to taking the ``easy 
way out'': just pour more traffic onto the Wilson Bridge corridor by 
expanding its capacity. That is a different kind of traffic diversion, 
one of neglect and increasing damage to Historic Alexandria.
Conclusion
    Unfortunately, time is getting short and positions are becoming 
more emotionally entrenched. Those of us trying to preserve the 
historic and cultural features of our National Historic Landmark in 
Alexandria have been characterized as obstructionists and naysayers. 
However, nothing could be further from the truth. We are not guilty of 
``nimbyism.'' The Commission is not advocating that there should be no 
Wilson Bridge or that it should not be improved. It objects to the huge 
12-lane bridge with all of its ``extras'' that would be built under 
current plans and the damaging impact that it and the consequential 
increase in traffic volume will have on the historic area of 
Alexandria. It believes that if a truly regional and interregional 
approach were taken to transportation planning, the Wilson Bridge 
corridor is not the only ``prudent and feasible'' alternative that is 
reasonable.
    The Commission further believes that if such an approach were taken 
in an appropriately time phased fashion, the proposed alternative 10-
lane bridge with a footprint falling within the existing right-of-way 
would be adequate to handle the traffic needs of the corridor for the 
foreseeable future. It would also go far to help preserve the national 
values embodied in Historic Alexandria and distribute more equitably, 
the burdens created by accommodating the projected growth in regional 
and national vehicular traffic flows. In a day when fiscal 
responsibility is a top political priority, reducing the cost of the 
bridge and interchanges is also of paramount importance and consistent 
with historic preservation objectives.
                               __________
Testimony by Randal Kell, Vice Chair of Government Affairs, Alexandria 
                          Chamber of Commerce
    Good morning, Mr. Chairman and members of the Subcommittee on 
Transportation and Infrastructure. I am Randal Kell, CEO of the Mark 
Winkler Company. I am here today as a volunteer representative of the 
Alexandria Chamber of Commerce. I serve on the Chamber's Board of 
Directors and as its Vice Chair of Government Affairs. I live and work 
in the City of Alexandria.
    The Alexandria Chamber of Commerce is the largest business 
organization in the City of Alexandria with close to 1,000 member 
businesses. Those businesses employ over 40,000 people; some who cross 
the Wilson Bridge during their daily commute.
    Throughout this process, the Chamber has spoken at public forums 
held by the Wilson Bridge Coordination Committee and our local 
Alexandria City Council. Although we understand the concerns of some 
Alexandria residents who have properties adjacent to the bridge, the 
Alexandria Chamber has been a strong advocate for the need for 
immediate action and focusing on the effect the Wilson Bridge project 
will have on both the business and residential communities.
    In my testimony today, I will discuss the three major points we 
have consistently advocated throughout this process:
    First, because the bridge has less than 8 years of safe life 
remaining, we strongly advocate moving the replacement project forward 
and avoiding any delays. Second, we support full Federal funding. 
Third, we support examining less costly design options without 
compromising future traffic flow demands.
    In discussing the first point, it is evident that we are in a state 
of emergency regarding the replacement of the Woodrow Wilson Bridge. 
The bridge has less than 8 years of useful safe life remaining. Simply 
put, we are running out of time. Including the project in the 
reauthorization of the Intermodal Surface Transportation Efficiency Act 
(ISTEA) at an appropriate level will assure funding in a timely manner.
    If we do not have the resources to begin construction on schedule, 
weight restrictions will have to be posted on the bridge in a few 
years. Placing a ban on trucks and other commercial vehicles would 
divert additional traffic into the already heavily congested streets of 
Alexandria and the District of Columbia. The diversion of commercial 
vehicles would also have a negative impact on our local economy. The 
increase in delivery costs would be significant to our grocery stores, 
retail shops, restaurants, hotels, and hospitals because they are 
heavily dependent upon these daily truck deliveries.
    The second point I will briefly emphasize is that it is important 
to enact a bill that would provide for full funding for the replacement 
of the Wilson Bridge. The bridge should be federally funded at the 
maximum level. The current funding level of $400 million is not 
appropriate to provide a functional replacement. The bridge is owned by 
the Federal Government, and its commitment should be at least 
consistent with other highway projects in our National Highway System 
which are funded at 80, 90 or 100 percent of their costs.
    Finally, the Alexandria Chamber supports examining less costly 
design options without compromising future traffic flow demands. In a 
vote of 13 to O, the Wilson Bridge Coordination Committee recommended 
that the interchanges be refined in order to minimize their footprint 
and cost without detrimental effects on safety, operation, or 
consistency with the preferred alternative. There are opportunities for 
cost reduction by eliminating such features as the pedestrian/bicycle 
facility, HOV and reducing the enormous size of the interchanges.
    In summary, it is imperative that we continue to move forward. . . 
with a sense of urgency. . . to protect the regional economic interest 
and transportation concerns associated with the bridge and interchange 
improvements. We urge you to enact a bill that would provide the 
maximum level of Federal funding.
    Thank you very much for the opportunity to speak to you this 
morning. I would be happy to answer any questions you may have 
regarding the Alexandria Chamber's position.
                               __________
 Testimony by Michael J. Lewis, Chief of Staff, American Institute of 
   Aeronautics and Astronautics (AIAA), on behalf of Fairfax County 
                          Chamber of Commerce
    Good morning, Mr. Chairman and members of the subcommittee. My name 
is Mike Lewis. As many of you know, I serve as Chief of Staff for the 
American Institute of Aeronautics and Astronautics--better know as 
AIAA--the nation's largest organization for aerospace professionals and 
corporations. In that role, I maintain oversight responsibility for 
AIAA's government relations and public affairs activities, and it is in 
that capacity that I may have interacted with some of you.
    Today, however, I appear before you as a representative of the 
Fairfax County Chamber of Commerce and the thousands of companies and 
businesses that call Northern Virginia, and particularly Fairfax 
County, home. The AIAA is headquartered in Reston, Virginia, and, like 
every other local business, our 110 employees in this area have a 
strong interest in improving the transportation system and maintaining 
the positive quality of life in the area.
    Achieving those goals, however, must begin with the replacement of 
the failing Woodrow Wilson Bridge. Simply stated, there is no bigger 
transportation issue for our region than the one you are discussing 
today. Extension of rail to and past Dulles Airport is important to us. 
A fifth lane on the Capital Beltway is important to us. Fixing the 
Springfield ``mixing bowl'' is important to us. But none of these 
projects are a disaster waiting to happen like the Woodrow Wilson 
Bridge.
    And none of those projects are, or will be, owned 100 percent by 
the Federal Government, like the Woodrow Wilson Bridge.
    Like our business counterparts here, we have one simple message for 
you here today: we support full Federal funding of a replacement 
bridge, with sufficient capacity to meet the transportation needs of 
the 21st Century and beyond.
    Within that message, though, there are other issues we ask you to 
consider as part of your discussions on this topic. The first is: What 
are the effects if a new bridge is not built?
    The most recent studies of the structural integrity of the existing 
Woodrow Wilson Bridge show it has about 7 years of useful life left. If 
nothing is done to address this impending failure, we may soon see 
weight limits and truck bans on the bridge as a form of life support. 
The consequences of such a restriction on the rest of the region's 
transportation network would be severe.
    The Capital Beltway in Virginia between 1-95 and the American 
Legion Bridge is already gridlocked for 8 hours each day during the 
morning and evening rush hours. The added burden of diverted truck 
traffic will only exacerbate the challenges we face. Bridge weight 
limits also will add to the costs of local and regional businesses 
looking to get their products to market. Can you imagine the wasted 
time, money and other resources if an Alexandria firm has to drive all 
the way around the Beltway, or through the District of Columbia, to 
make a delivery just across the bridge in Maryland? How about the added 
environmental impacts of this same trip? Such a scenario may become a 
reality unless the Woodrow Wilson Bridge is replaced in the near 
future. That same company may choose to relocate its offices outside 
this region as a result, taking with it jobs and tax revenues.
    The second issue is why the Federal Government should provide full 
funding. The answer is simple: the Federal Government owns the existing 
bridge.
    Other state-owned infrastructure projects have enjoyed substantial 
Federal support, and this project should be no different. This is 
especially true given the number of motorists along the East Coast 
potentially impacted by the bridge's impending collapse. The Federal 
Government, as sole owner of the existing bridge, has to take the lead 
in providing the necessary funding for its replacement.
    I-95 and the Woodrow Wilson Bridge are a major thoroughfare for 
motorists and businesses from Maine to Florida. Millions of citizens 
along the corridor depend upon the bridge as a vital transportation 
link, whether trying to get their products to their customers or to see 
their grandchildren. Allowing this bridge to slowly crumble will impact 
travelers outside the Metropolitan Washington area just as much as, if 
not more than, those who live and work here.
    Obviously, we recognize that fiscal realities and the recent budget 
deal have set parameters for Federal spending for the next several 
years; and we were disappointed that the Chairman's call for increased 
transportation funding as part of the budget agreement was rejected. 
However, the budget agreement does not relieve the Federal Government 
of its responsibility to replace a structure that it alone owns. Just 
as business owners must make reinvestments in their infrastructure, 
even when times are tight, so must the Federal Government. We ask that 
you support Senator Robb's legislation, 5.483, and include full funding 
for the bridge as part of ISTEA (Intermodal Surface Transportation 
Efficiency Act) reauthorization.
    The third issue is whether, in the interest of economy, we should 
skimp on bridge capacity and design. For the record, the Fairfax County 
Chamber of Commerce has never taken a formal position on any of the 
design alternatives considered by the citizens group that made the 
ultimate recommendation. However, we have always insisted that whatever 
solution is chosen does not replace one bottleneck with another. We 
believe the design recommendation of the coordinating committee largely 
achieves that goal.
    Backing away from their recommendations for capacity may 
shortchange the benefits a new bridge will bring. The issue is not what 
capacity is needed to relieve today's congestion. We must construct a 
bridge that will have sufficient capacity to handle the traffic flows 
often, twenty, even fifty years from now. It is safe to say that we 
will get one shot at a new bridge and one shot only. Constructing a 
bridge with insufficient future capacity, at best, amounts to a lost 
opportunity, and, at worst, a waste of taxpayer dollars.
    The Fairfax County Chamber of Commerce urges you to maintain 
support for a bridge design that meets future demand. If you have to 
look for opportunities to trim short term costs, we suggest that 
interchanges leading up to the bridge be the first place considered. 
The interchanges can always be constructed as new money becomes 
available. A sixth lane on the bridge cannot, at least not cost-
effectively.
    The economy of Northern Virginia and the entire metropolitan area 
is dependent upon a solid transportation network that effectively moves 
people and goods across jurisdictional boundaries. No longer are 
transportation patterns centered around movement into and away from the 
District of Columbia. Travel in this region increasingly is suburb-to-
suburb, with the Woodrow Wilson Bridge providing a critical link in 
that system.
    Additionally, one of the realities of our local economy is that the 
technology firms we enjoy do not have be located here to be successful. 
They can just as easily do their business from Austin, Texas or 
Indianapolis. Thus, to remain competitive, we have to provide an 
effective transportation network that makes us an attractive place to 
live and do business. A collapsing Woodrow Wilson Bridge tarnishes that 
reputation. Construction of a new bridge is of vital importance to 
Fairfax County, its economy, and its businesses and citizens.
    Mr. Chairman, the Fairfax County Chamber of Commerce appreciates 
the opportunity to appear before you today. We also appreciate your 
leadership and that of the rest of the region's congressional 
delegation. We would be pleased to answer any questions you may have.
                               __________
                        5904 Mount Eagle Drive, Suite 1517,
                           Alexandria, VA 22303-2541, May 27, 1997.

    Hon. John Warner,
    U.S. Senate,
    Russell Senate Office Building,
    Washington, DC 20510-4601.

    Dear Senator Warner: As a constituent I have supported you over the 
years because I generally concurred in positions you have taken. I 
particularly respected your refusal to support Ollie North's candidacy. 
I offer a friendly, personal perspective on the Woodrow Wilson Bridge 
replacement because of media reports that suggest you are leaning 
toward a narrower bridge. There may be ways to reduce the width; it 
should not be at the expense of the 12 lane proposal of the Woodrow 
Wilson Bridge Coordinating Committee.
    Let me explain first that I was personally involved in the study 
effort over a 2-year period. I am a retired planning director of 
Fairfax County. I live in the shadow of the bridge just south of the 
beltway. My views reflect those of many area residents and may offer 
some aspects for you to consider further before making your decision.
    <bullet>  Traffic volumes are largely local. The study revealed 
that most trips either start or end within the metropolitan area. 
Therefore, another bridge to the south, while welcome, would not 
resolve congestion on the bridge now or in the future.
    <bullet>  Travel demand requires 12 lanes. The study projected 
traffic volumes would exceed capacity of a 12 lane facility in the 
period 2015-2020, 11 to 16 years after planned completion. Consultants 
who prepared that projection 3 years ago now report traffic is growing 
faster than the rates used in the study. Would a ten lane bridge be at 
capacity when it was completed? Is that a reasonable solution?
    Reflect on the fact that a four lane Dulles Toll Road was projected 
to provide capacity for 5 years. The capacity was exhausted in about 14 
months. The road has since been widened to six lanes and is under 
construction to add two more lanes in order to provide HOV lanes during 
the peak demand periods.
    <bullet>  The difference between the ten and 12 lane proposals are 
two lanes reserved for transit or HOV. Every transportation planner 
acknowledges that continuing growth in traffic volumes cannot be 
accommodated merely by expanding our highway system. The costs in land 
acquisition, adverse community impacts, and environmental protection 
are prohibitive. Therefore, we must plan now for increased use of 
transit and/or HOV.
    Increased use of technology can help to reduce traffic congestion 
and air pollution. Examples are the Intelligent Transportation Systems 
(ITS) that offer interim mechanisms for expanding highway capacity; 
telecommuting and teleconferencing; and over the longer term, elevated, 
futuristic transit systems that employ the space over our highways. 
Other cities in the U. S. and abroad are employing these systems which 
are increasingly cost competitive with highways. For now, we need to 
ensure that we do not preclude such systems with today's designs. None 
of these technologies justify reducing bridge lanes.
    Travel volumes are not likely to warrant a Metro rail connection. 
When bus capacity in a transit lane is exhausted several decades from 
now, one of the more futuristic elevated rail systems may provide a 
solution. The bridge should be designed to provide future space for 
such a system. The cost now is relatively minor in a project of this 
magnitude. The cost of retrofit later will likely be significant.
    Some Alexandrians advocate a ten lane bridge. As a long time 
commuter to D.C. from the Mount Vernon area, I am aware some commuters 
must decide daily whether to travel through Alexandria or cross the 
Woodrow Wilson bridge. When the bridge is congested, the choice is 
Alexandria. Unfortunately, Alexandria leadership does not advise it 
citizenry that reducing the size of the bridge will lead to increased 
congestion in Alexandria.
    <bullet>  An argument is made to reduce the bridge to save costs. 
It may be possible to reduce the width of the bridge minimally without 
reducing lanes. A better way to save costs is to adopt the high fixed 
bridge alternative. In addition to saving the operational inconvenience 
and the capital costs of installing two draw bridges, there would be 
considerable life cycle savings in operations (personnel) and 
maintenance of a fixed bridge vs. the twin draw bridge version. In my 
opinion, a weakness of the study was the failure to consider the life 
cycle cost differential for a fixed bridge planned to endure for 75 to 
100 years vs. the draw bridges; the study was limited to the 2020 
timeframe.
    The Coordinating Committee picked the best two solutions. The 
Committee defeated the fixed span concept by one vote and approved the 
twin draw bridges by one vote. Reverting now to the fixed span bridge 
offers a reasonable way to reduce costs.
    The primary drawback to the fixed span bridge was cited as slowing 
of traffic due to reduced speed of trucks on the up slope of the east 
bound lanes. This could be alleviated by shifting the center of the 
span to the east or extending the western approach to the bridge. 
Extending the approach would require a higher Route 1 span over the 
approach. Either solution or a combination of the two would not be 
unreasonable.
    It is difficult to follow the logic of my Congressman, Jim Moran, 
on this issue. He says we cannot afford the cost of the 12 lane bridge. 
In the same breath he suggests we build another bridge a few miles to 
the south. Is that just tax and spend logic? He is cited in the papers 
as recognizing that the vast majority of his constituents favor the 12 
lane bridge, still he advocates ten lanes. Unbelievable.
    <bullet>  The decision on the Woodrow Wilson Bridge greatly impacts 
other transportation facilities. The Route I Corridor study is an 
analysis of the transportation system needed in 2020 to meet travel 
demand in the Route 1 Corridor from the Fairfax County boundary with 
Alexandria on the north to the southern boundary of Prince William 
County 23 miles to the south. Travel demand at the Route 1 interchange 
with the beltway is projected to increase from its current 81,000 trips 
per day to around 100,000 trips per day. Today's unacceptable levels of 
congestion can be expected to worsen considerably if the bridge and its 
approaches are not adequate to handle the increase in traffic.
    In a Major Investment Study (MIS), the Virginia Department of 
Transportation (VDOT) is studying alternatives for meeting travel 
demand on the beltway. This includes transit or HOV lanes. How do we 
accommodate HOV across the bridge if the bridge is designed without 
that capacity?
    Maryland also has an MIS in progress on its half the beltway. It is 
considering rail transit across both the Woodrow Wilson Bridge and the 
Veteran's Memorial Bridge. How do we accommodate transit across the 
Woodrow Wilson Bridge if the bridge is designed without that capacity?
    Should a Woodrow Wilson Bridge design be approved now that will 
negate these two alternatives when it is generally acknowledged that 
travel demand cannot be accommodated entirely by automobile travel?
    <bullet>  A toll facility is not a rational option. Along with most 
local pundits on the bridge, I cannot support tolls as a reasonable 
option, though tolls would be preferable to building an inadequate 
facility that would only exacerbate travel in the area. This is a 
federally owned facility and should be entirely or at least largely 
funded by the U. S. government.
    In summary, I appeal to you and to the remainder of our 
Congressional delegation not to take an expedient position regarding 
the bridge, but to take a long range view that considers impacts on and 
benefits to the region and sound economics in decisionmaking.
            Sincerely,
                                     Sidney R. Steele, AICP

                                   - 

</pre></body></html>
